<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2010</title>
<body><pre>[Senate Hearing 111-122, Part 2]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-122
 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2010

=======================================================================



                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 3326

  AN ACT MAKING APPROPRIATIONS FOR THE DEPARTMENT OF DEFENSE FOR THE 
     FISCAL YEAR ENDING SEPTEMBER 30, 2010, AND FOR OTHER PURPOSES

                               __________

                                PART 2

                         Department of Defense
                       Nondepartmental Witnesses

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html




                  U.S. GOVERNMENT PRINTING OFFICE
48-290                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON APPROPRIATIONS

                   DANIEL K. INOUYE, Hawaii, Chairman
ROBERT C. BYRD, West Virginia        THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            CHRISTOPHER S. BOND, Missouri
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 JUDD GREGG, New Hampshire
PATTY MURRAY, Washington             ROBERT F. BENNETT, Utah
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
DIANNE FEINSTEIN, California         SAM BROWNBACK, Kansas
RICHARD J. DURBIN, Illinois          LAMAR ALEXANDER, Tennessee
TIM JOHNSON, South Dakota            SUSAN COLLINS, Maine
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
FRANK R. LAUTENBERG, New Jersey
BEN NELSON, Nebraska
MARK PRYOR, Arkansas
JON TESTER, Montana
ARLEN SPECTER, Pennsylvania

                    Charles J. Houy, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

                        Subcommittee on Defense

                   DANIEL K. INOUYE, Hawaii, Chairman
ROBERT C. BYRD, West Virginia        THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            CHRISTOPHER S. BOND, Missouri
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
BYRON L. DORGAN, North Dakota        RICHARD C. SHELBY, Alabama
RICHARD J. DURBIN, Illinois          JUDD GREGG, New Hampshire
DIANNE FEINSTEIN, California         KAY BAILEY HUTCHISON, Texas
BARBARA A. MIKULSKI, Maryland        ROBERT F. BENNETT, Utah
HERB KOHL, Wisconsin                 SAM BROWNBACK, Kansas
PATTY MURRAY, Washington
ARLEN SPECTER, Pennsylvania

                           Professional Staff

                            Charles J. Houy
                            Nicole Di Resta
                            Kate Fitzpatrick
                               Katy Hagan
                              Kate Kaufer
                            Ellen Maldonado
                               Erik Raven
                               Gary Reese
                              Betsy Schmid
                             Bridget Zarate
                       Stewart Holmes (Minority)
                       Alycia Farrell (Minority)
                         Brian Potts (Minority)
                        Brian Wilson (Minority)

                         Administrative Support

                             Renan Snowden


                            C O N T E N T S

                              ----------                              

                       Wednesday, March 18, 2009

                                                                   Page

Department of Defense: Medical Health Programs...................     1

                       Wednesday, March 25, 2009

Department of Defense:
    National Guard...............................................   117
    Reserves.....................................................   171

                         Tuesday, May 12, 2009

Department of Defense: Department of the Army: Office of the 
  Secretary......................................................   235

                         Tuesday, June 2, 2009

Department of Defense: Department of the Navy: Office of the 
  Secretary......................................................   279

                         Thursday, June 4, 2009

Department of Defense: Department of the Air Force: Office of the 
  Secretary......................................................   349

                         Tuesday, June 9, 2009

Department of Defense: Office of the Secretary...................   399

                        Thursday, June 18, 2009

Nondepartmental Witnesses........................................   469


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2010

                              ----------                              


                       WEDNESDAY, MARCH 18, 2009

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:30 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Murray, Cochran, and Bennett.

                         DEPARTMENT OF DEFENSE

                        Medical Health Programs

STATEMENT OF LIEUTENANT GENERAL ERIC B. SCHOOMAKER, 
            M.D., Ph.D., SURGEON GENERAL, U.S. ARMY 
            MEDICAL COMMAND


             opening statement of senator daniel k. inouye


    Chairman Inouye. I'd like to welcome all of the witnesses 
today as we review the Department of Defense (DOD) medical 
programs. There'll be two panels this morning. First we'll hear 
from the service surgeon generals: General Eric Schoomaker, 
Vice Admiral Adam Robinson, Jr., General James Roudebush. Then 
we'll hear from our chiefs of the Nurse Corps: General Patricia 
Horoho, Rear Admiral Christine M. Bruzek-Kohler, and General 
Kimberly Siniscalchi. Did I get it correct?
    I'd like to welcome back all of the three surgeon generals 
to our subcommittee once again. I look forward to continuing 
our work together to ensure the future of our military medical 
programs and personnel.
    As you may have noted, this is the first defense hearing 
that the subcommittee will be holding this year. We 
deliberately selected the medical programs as our inaugural 
topic to underscore the importance that this issue has to our 
subcommittee. Our surgeon generals and the chiefs of the Nurse 
Corps have been called upon to share their insight on what is 
working and what is not working.
    Military medicine is a critical element in our defense 
strength. Our ability to care for our wounded soldiers on the 
modern battlefield is a testament both to the hard work and 
dedication of our men and women in uniform and to the 
application of the new technology which is a hallmark of the 
U.S. armed forces, and so to our medical programs' demonstrated 
commitment to provide for our servicemembers and their 
families, which is unsurpassed in any other military. It is a 
vital component in our military compensation package, one that 
is necessary to sustain the all-volunteer force, a force, I 
might add, which by all measurement is the finest in the world.
    This is a unique medical hearing because we have not 
received the details of the fiscal year 2010 DOD budget, nor 
have we received the remaining fiscal year 2009 supplemental 
request. While we may not be able to discuss detailed budget 
issues, we'll focus on various medical personnel and medical 
technology issues facing the Department, our servicemembers and 
their families.
    On a personal note, when I was in the Army some time ago 4 
percent of the men in my regiment were married, just 4 percent. 
I think that was about the average in the United States Army. 
Now 56 percent of the Army, 54 percent of the Navy, and 45 
percent of the Marine Corps, and 59 percent of the Air Force 
are married. This completely alters the dynamic of the service 
I remember to the one you see today.
    Not only that, but the demographics of our servicemembers 
have drastically changed. We also have more than a few dual-
service parents and couples, both of which deploy to theater.
    We've all read about the rising rates of suicide, divorce, 
substance abuse in our military. This is not something that can 
only be addressed with the service member. This must be 
approached with the service member, their family, their fellow 
soldiers, sailors, marines, and airmen. The solutions are not 
one size fits all or one service fits all. Instead, all ideas 
must be on the table for everyone to consider. What works for 
the Army may not necessarily work for the Navy.
    In addition, we need to take a unified approach to medical 
research in areas directly tied to the warfighter that we are 
currently tackling and those that could be right around the 
corner. This coordinated approach should cross the entire 
Federal Government, utilizing the resources and expertise of 
the Department of Veterans Affairs, the National Institutes of 
Health, Department of Homeland Security, and the Substance 
Abuse and Mental Health Services Administration, just to name a 
few.
    The Department stands at a very pivotal juncture in its 
efforts to modernize the medical technology enterprise 
architecture. I'm certain each one of you can share a story or 
two about the various versions of the Department's medical 
health records and how challenging it can be, at the least. Now 
you are tasked to both modernize the system and make it 
interoperable with the Veterans Administration (VA) to 
facilitate seamless transitions for our servicemembers and to 
enable joint DOD-VA locations to care for both veterans and 
servicemembers.
    These are not simple tasks and I know that there are many 
challenges ahead. These are some of the issues we'll face in 
the years ahead. We continue to hold this valuable hearing with 
the service surgeon generals and the chiefs of the Nurse Corps 
as an opportunity to raise and address these and many other 
issues.
    I look forward to your statements and note that your full 
statements will be made part of the record.
    Before we proceed with witnesses, may I call upon the vice 
chairman of the subcommittee, Senator Cochran.


                   statement of senator thad cochran


    Senator Cochran. Mr. Chairman, thank you very much. I'm 
pleased to join you in welcoming our two panels of witnesses 
today, the service surgeon generals and the chiefs of the Nurse 
Corps. We have an important duty to provide for the medical 
needs of our active, Guard, and Reserve personnel. The joint 
approach in managing the military medical programs has been 
very important in supporting our soldiers, sailors, airmen, and 
marines, especially during wartime.
    The men and women of the medical service corps deserve our 
thanks for their services they've provided and continue to 
provide. I'm pleased to join the chairman in being here to 
receive your testimony and working with you as we try to 
identify the priorities that need special attention in the 
funding cycle that we are approaching.
    Thank you very much.
    Chairman Inouye. Thank you very much.
    I am especially pleased to have with us in the subcommittee 
this morning Senator Bennett of Utah. He's our newest member. 
Welcome, sir. Would you like to make a statement?
    Senator Bennett. Your being pleased is only exceeded by my 
being pleased at the opportunity to be here. Thank you for your 
welcome.
    Chairman Inouye. Thank you very much.
    May I call upon the first witness, Lieutenant General Eric 
B. Schoomaker. He's a doctor, a Ph.D. He's also the Surgeon 
General of the U.S. Army.
    General Schoomaker. Thank you, sir. Chairman Inouye, Vice 
Chairman Cochran, Senator Bennett: Thank you for providing all 
of us here a forum for discussing our service medical programs 
and to allow me to discuss Army medicine and the defense health 
program (DHP).
    As you mentioned earlier, sir, I'm joined by our Chief of 
the Army Nurse Corps, Major General Patty Horoho, and the 
Commander of the Western Regional Medical Command at Madigan 
Army Medical Center at Fort Lewis, Washington.
    Also, in recognition of the Army's having declared 2009 as 
the year of the NCO, the noncommissioned officer, I'm joined 
today by my senior--the senior enlisted medic in the Army, who 
is my command sergeant major, Althea Dixon. She is one of the 
finest soldiers and leaders with whom I have had the pleasure 
to serve and is an invaluable member of my command team. 
Command Sergeant Major Dixon has been my battle buddy and my 
conscience and my unwavering standardbearer throughout these 
last three commands and through some of the most difficult 
challenges that Army medicine has faced. We've traveled 
together throughout the United States, especially throughout 
the southeast United States when we worked together in the 
Southeast Regional Medical Command, but also in Europe and in 
Kenya, Thailand, Korea, and most recently in Afghanistan and in 
Iraq.
    She embodies really the ethos of the noncommissioned 
officer. She's the person to whom I turn for unvarnished truth 
about my command and my effectiveness as a commander. She's my 
constant reminder of what is one of the most distinguishing and 
powerful features of our Army, which is our noncommissioned 
officer corps.
    For my oral statement today I'd like to highlight just a 
handful of key points that I raise in my written testimony. 
First I'd like to thank the Congress and this subcommittee in 
particular for the very generous and much appreciated funding 
support that you provided for the military health system and 
for Army medicine over the last year. Congress has been 
attentive to the needs we have in military medicine, 
particularly in our sustainment, restoration, and modernization 
(SRM) funding, SRM funding for facilities, and our research and 
development funds for research.
    Our sustainment, restoration, and modernization funding 
really gets put to great use by our facilities managers who 
keep our facilities operating safely and reliable. Some of our 
older hospitals are not ideal for practicing a 21st century 
form of medicine, but our SRM funding has really allowed us to 
keep them in good shape and running safely and smoothly.
    Our research and development dollars are going toward some 
very promising research. I think the chairman alluded to that 
earlier. It's aimed at saving and improving the lives of 
soldiers on future battlefields. Frankly, although I use the 
term ``soldiers'' to describe the recipients of these efforts, 
increasingly we conduct our research programs really as a joint 
effort among my three colleagues here, so that all warriors--
soldiers, sailors, airmen, marines, coast guardsmen, and other 
Federal agency partners--as well as the public at large are 
beneficiaries of our work.
    Examples are biomarkers for traumatic brain injury, tissue 
re-engineering, interventions to build resilience and prevent 
psychiatric hazards--just a few examples of where innovative 
research initiatives that were funded through our fiscal year 
2009 core medical research budget are working. I eagerly await 
the outcomes of these and other research efforts that can 
better the lives of our soldiers and other warriors.
    Next I'd like to briefly mention the latest developments in 
our warrior care and transition program. This is probably one 
of the most important advances that we've made over the last 
several years. In our first year of standing up the warrior 
care and transition program through the Army medical action 
plan, we heavily invested in the structure of our units. We 
focused on proper ratios of care providers and cadre that 
oversee our warriors in transition. That's what we call our 
soldiers who are in these programs. They are transitioning into 
uniform, back into uniform, or into civilian life, or into 
continued care in the private sector or in the VA.
    Now in our second year, we're directing our efforts at 
optimizing the transition for our soldiers and families. In 
March 2008 we launched a comprehensive transition plan 
initiative for our warriors in transition. Instead of focusing 
solely on their injury or illness, the comprehensive transition 
plan fosters an holistic approach to a warrior's rehabilitation 
and transition. These are the lessons which wounded, ill, and 
injured soldiers from former wars, such as the chairman himself 
and Senator Dole, general retired, now Secretary, Shinseki, and 
general retired Fred Franks, have told us were the most 
important lessons to be gained from their own experiences in 
recovery and rehabilitation.
    This is accomplished through a collaboration of a 
multidisciplinary team of physicians, of case managers, 
specialty care providers, occupational therapists, and others. 
Together with a soldier and the family, we develop an 
individually tailored set of goals, emphasize the transition 
phase to civilian life or return to duty. I'm confident that 
this is really where we need to be doing that and it's going to 
come up with the right outcomes for our folks.
    An even newer Army program that I have high expectations 
for is our comprehensive soldier fitness program. The Army 
Chief of Staff, General George Casey, has established a vision 
of an Army comprised of balanced, healthy, self-confident 
soldiers and families and Army civilians whose resilience and 
total fitness enable them to thrive even in this area of high 
operational tempo and persistent conflict and engagement.
    To achieve this ambitious vision, he's instituting a 
comprehensive soldier fitness program. The intent of this 
program is to increase the resilience of soldiers and families 
by developing the five dimensions of strength: physical, 
emotional, social, spiritual, and family.
    It's currently in development. It's under the leadership of 
Brigadier General Rhonda Cornum, an Army Medical Department 
physician. I expect this program to have a positive effect and 
a profound effect upon our soldiers, their families, and our 
Army civilians.
    Last, I wanted to share with you a copy of our new combat 
medic handbook. Our combat medics, which we call 68-Whiskeys, 
68-Ws, are the best trained battlefield medics in the world, 
alongside our Navy and Air Force colleagues of course. As the 
Army and the joint force have labored to provide better body 
armor and protection from ballistic and burn and blast injury 
and have altered the tactics, techniques, and procedures in a 
complex urban terrain to reduce combat casualties and improve 
on our killed in action rates, that is survival from the 
initial wounding incident, our medics have enhanced these 
improvements and have further contributed to a historically low 
died of wound rates despite more destructive weapons that are 
wielded by our enemies.
    The medics of this 68-Whiskey generation are trained to 
perform advanced airway skills, hemorrhage control techniques, 
shock management, and evacuation. Examples are: Sergeant First 
Class Nadine Kahla and Sergeant First Class Jason Reisler, who 
are 68-Whiskey NCOs assigned to the Army Medical Department 
Center and School in San Antonio, Texas. They are 
representatives of the other 17 68-Whiskey NCO authors that 
contributed to this new advanced fieldcraft combat skills 
textbook, a state-of-the-art manual for combat medics. This 
delineation of combat medic skills is newly published. It'll be 
issued to every graduating new combat medic beginning this 
month. It's an incredible resource developed by some truly 
incredible NCOs.
    In closing, I wanted to thank the subcommittee for the 
terrific support that you have given to the defense health 
program and to Army medicine. I greatly value the insight of 
this subcommittee and I look forward to working with you 
closely over the next year.
    I also want to salute our noncommissioned officers for 
their professionalism, competence, and leadership. They're 
truly the backbone of the Army and of Army medicine.


                           prepared statement


    Thank you for holding this hearing. Thank you for your 
continued support of Army medicine and the warriors and 
families that we're most honored to serve. Thank you, sir.
    Chairman Inouye. Thank you very much, General Schoomaker.
    [The statement follows:]
  Prepared Statement of Lieutenant General Eric B. Schoomaker, M.D., 
                                 Ph.D.
    Chairman Inouye, Vice Chairman Cochran, and distinguished members 
of the Subcommittee, thank you for providing me this forum to discuss 
Army Medicine and the Defense Health Program. I appreciate this 
opportunity to talk with you today about some of the very important 
work being performed by the dedicated men and women--military and 
civilian--of the U.S. Army Medical Department (AMEDD) who personify the 
AMEDD value ``selfless service.'' In recognition of 2009 being ``The 
Year of the NCO'', throughout my testimony I will highlight the 
contributions of the AMEDD's Non-Commissioned Officer Corps, the 
backbone of Army Medicine. Non-Commissioned Officers comprise 18 
percent of the Army Medical Department and play critical roles in every 
aspect of the organization. I am joined today by the senior enlisted 
medic in the Army, my Command Sergeant Major Althea Dixon, one of the 
finest Soldiers and leaders with whom I have had the privilege to serve 
and an invaluable member of my command team.
    As the Commander of the U.S. Army Medical Command (MEDCOM), I 
oversee with the assistance of Command Sergeant Major Dixon a $10 
billion international healthcare organization staffed by 70,000 
dedicated Soldiers, civilians, and contractors. We are experts in 
medical research and development, medical logistics, training and 
doctrine, the critical elements of public health--health promotion and 
preventive medicine, dental care, and veterinary care--in addition to 
delivering industry-leading healthcare services to 3.5 million 
beneficiaries around the world. But central to everything we do in Army 
Medicine is the warfighter--we exist as a military medical department 
to support the warfighter. I am happy to report that we are 
accomplishing that mission phenomenally well. I can say this with great 
confidence after spending the first week of this month with the U.S. 
Central Command (CENTCOM) Surgeon at the Multi-National Force/Multi-
National Corps--Iraq Surgeon's Conference in Iraq. Seeing first hand 
the care and civil-military medical outreach from Brigade and Division 
to Corps and Theater was a clear demonstration of the Joint Medical 
Force providing top-notch medical support across the full-continuum of 
care and nation building.
    To determine how successful we are at executing our mission, Army 
Medicine uses the Balance Scorecard (BSC) approach developed in the 
1990s by Harvard's Doctors Robert Kaplan and David Norton. Simply put, 
the BSC serves as an organizational strategic management system which 
can help improve organizational performance while remaining aligned to 
our strategy. The MEDCOM began BSC implementation in 2001 under LTG 
(Ret) James Peake's leadership. Since then, we have continued to refine 
the BSC to grow and direct our dynamic organization. I use the enclosed 
Army Medicine Strategy Map (published in April 2008 and revised in 
January 2009) and Scorecard as the principal tool by which to guide and 
track the Command to improve operational and fiscal effectiveness, and 
better meet the needs of our patients, customers, and stakeholders. The 
BSC communicates to our MEDCOM workforce and drives top-to-bottom 
organizational understanding and alignment, focusing our day-to-day 
efforts to ensure we execute our Mission successfully.

    ----------------------------------------------------------------

            Army Medicine Balanced Scorecard (BSC) Overview
Purpose
    The Balanced Scorecard strategic management framework has been and 
continues to serve as the centerpiece of the Army Medicine's 
enterprise-wide Strategic Management System. The first AMEDD strategy 
map was approved by LTG James B. Peake on April 2001 and the framework 
has continued through today with LTG Eric B. Schoomaker's January 2009 
strategy map. The BSC is used to drive top-to-bottom organizational 
understanding and alignment, focus day-to-day efforts, and ensure that 
we are executing our Mission.
Overview
    The BSC is a concept introduced by Doctors Robert Kaplan and David 
Norton in 1992. The BSC is a framework to translate the organization's 
strategy into terms that can be easily understood, communicated, and 
acted upon (measurable action).
    The foundation and main driver of a BSC is the organization's 
Mission and Vision. Four perspectives then define the organization: 
Patient/Customer/Stakeholder (Ends), Internal Processes (Ways), 
Learning and Growth (Means), and Resource (Means). The April 2008 
strategy map (one page schematic) describes Army Medicine's strategy 
via the strategic objectives (located in the bubbles on the strategy 
map) in each perspective. Behind each strategic objective is a detailed 
objective statement that clearly defines the meaning of the strategic 
objective and measure, which will drive behavior to accomplish each 
objective. Each measure will have a target and supporting initiatives 
that will drive the change required to allow the organization to move 
closer to its intended outcomes (ends).
    The BSC is a dynamic, living document that will be refined due to 
mission and priority changes, organizational learning, as well as when 
targets are met. Periodic reviews are conducted to ensure proactive 
change.
Organizational Cascading and Alignment
    To ensure enterprise-wide alignment to the Army Medicine BSC, Major 
Subordinate Command Commanders and Corps Chiefs are required to build a 
supporting BSC and conduct an alignment brief with TSG.
Additional Information
    Detailed information, to include the Army Medicine BSC, is located 
at https://ke2.army.mil/bsc.
Contacts
    Mr. Randy Randolph, Director Strategy and Innovation, commercial 
(703) 681-3015 or DSN 761-3015 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c5a2a4b6b1aaabebb7a4aba1aaa9b5ad85a4a8a0a1a1eba4b7a8bceba8aca9eb">[email&#160;protected]</a>
    LTC Rex Berggren, Strategic Planning Officer, commercial (703) 681-
5683 or DSN 655-5683 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e391869bcd818691848491868da3828e868787cd82918e9acd8e8a8fcd">[email&#160;protected]</a>
    Ms. Sylvia Pere, Strategic Planner, commercial (210) 221-7172 or 
DSN 471-7172 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="64171d08120d054a140116012405090100004a0516091d4a090d084a">[email&#160;protected]</a>

    ----------------------------------------------------------------
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    The Army Medicine BSC measures and improves organizational 
performance in four ``balanced'' Strategic Perspectives: ``Resources'' 
and ``Learning and Growth'' which are the ``Means''; ``Internal 
Processes'' which is the ``Ways''; and ``Patients, Customers and 
Stakeholders'' which is the ``Ends'' by which we show best value in 
products and services. These ``Ends'' are how I've organized my 
statement in order to best communicate the significant and varied 
accomplishments of Army Medicine over the last year.
    The Six Army Medicine ``Ends'': Improved Healthy and Protected 
Families, Beneficiaries, and Army Civilians; Optimized Care & 
Transition of Wounded, Ill, and Injured Warriors; Improved Healthy and 
Protected Warriors; Responsive Battlefield Medical Force; Improved 
Patient and Customer Satisfaction; and Inspire Trust in Army Medicine.
   improved healthy and protected families, beneficiaries, and army 
                               civilians
    Improve the health of beneficiaries thru cost-effective evidence-
based care, proactive disease management, demand management, and public 
health programs.
    Use of HEDIS<SUP>R</SUP> Measures.--The Healthcare Effectiveness 
and Data Information Set (HEDIS<SUP>R</SUP>) is a tool used by more 
than 90 percent of America's health plans (> 400 plans) to measure 
performance on important dimensions of care. The measures are very 
specifically defined, thus permitting comparison across health plans. 
The DOD is not a member of the HEDIS program, but uses the HEDIS 
methodology to measure and compare its performance to the HEDIS 
benchmarks. The Military Health System (MHS) Population Health Portal 
takes administrative data and electronic health record data and 
provides reports on the status of our beneficiaries on each measure. 
Currently, we track 9 measures and compare our performance to HEDIS 
benchmarks. In October 2008, the Army was in the 90th percentile 
compared to HEDIS health plans for 2 of 9 measures. We are in the 50th 
to 90th percentile for 6 measures and below the HEDIS 50th percentile 
for one measure. Marked improvement is seen in colorectal cancer 
screening which improved 8.9 percent (October 2005 to October 2008) and 
approaches the HEDIS 90th percentile. In addition, the Army has very 
high compliance with Pneumovax, the vaccine against pneumococcal 
pneumonia, for our enrolled patients over age 65. Since 2007, we've 
been providing financial incentives to our hospitals for superior 
compliance in key HEDIS measures. The Army was the pioneer for what the 
Assistant Secretary of Defense for Health Affairs is now terming Pay-
for-Performance. We have shown that these incentives work to change 
behavior and achieve desired outcomes in our system.
    MEDCOM Reorganization.--The MEDCOM is engaged in a phased 
reorganization designed to optimize the delivery of healthcare to our 
Army and to support a deploying force. With the support of senior Army 
leadership, I approved phase one of this reorganization which aligns 
CONUS Regional Medical Commands (RMCs) with their supporting TRICARE 
regions. MEDCOM is restructuring in order to be better aligned and 
positioned to support our transforming Army. Command Sergeant Major 
Matthew T. Brady was instrumental in developing the structure and 
functions for the newly designed Western RMC headquarters--his 
contributions are emblematic of the significant role played by NCOs 
across the MEDCOM in our restructuring efforts.
    Healthcare support today is outstanding and it must remain so for 
our Army to succeed during an era of persistent conflict. As the Army 
changes its structures, relationships and organizational designs 
through transformation and other initiatives to better support our 
Nation in the 21st Century, the AMEDD must adapt to ensure it remains 
reliable and relevant for our Army. The main restructuring is from 4 
CONUS RMCs to 3 CONUS RMCs. While reorganizing RMCs, we intend to 
further integrate healthcare resources, capabilities and assets to 
foster greater unity of effort and synergy of our healthcare mission. 
The restructuring will posture us to better provide the best support 
for Army Force Generation (ARFORGEN) and improve readiness through 
enhanced health care services for our Soldiers, their Families, and 
Army units.
    Clinical Information Systems.--The AMEDD has long recognized a need 
for an information system to help us grow as a knowledge-driven 
organization. The AMEDD energetically assumed lead for the DOD during 
the implementation of the Composite Health Care System I (CHCS I), now 
known as AHLTA. Unfortunately, AHLTA has not always kept pace with 
expectations at the user-level or at the corporate level for data 
mining and other uses. The Army has taken significant steps to leverage 
the data from AHLTA and other clinical information systems to improve 
clinical quality and outcomes as well as patient safety. To address 
identified shortcomings with AHLTA at the provider level, the AMEDD has 
invested in the MEDCOM AHLTA Provider Satisfaction (MAPS) initiative. 
This includes investment in tools like Dragon Medical<SUP>TM</SUP> and 
As-U-Type, individualized training and business process re-engineering 
led by clinical champions, and use of wireless and desktop 
virtualization. At the Heidelberg Health Center in Germany, Staff 
Sergeant Kenneth M. Melick is the workhorse who took the physician 
vision for business process reengineering from construction to final 
implementation and ensured success. MAPS is beginning to show 
significant improvements in provider usability and satisfaction. Direct 
interviews with providers and staff reveal that MAPS implementation has 
generated a dramatic change in attitude among our staff.
    The most recent version of AHLTA has presented us with challenges, 
but it is showing improvements and gaining provider acceptance. AHLTA 
provides significant benefit to beneficiaries, especially in the areas 
of patient safety, security, improved clinical and readiness outcomes, 
and global availability of records. In addition, a new enterprise 
architecture for the MHS will likely result in a significant 
improvement in managing our information systems. The next update to 
AHLTA (3.3) is being deployed and its additional functionality and 
improved speed is well-liked by the providers who have tested it.
    Force Health Protection and Public Health Programs.--The U.S. 
Army's Center for Health Promotion and Preventive Medicine (CHPPM) is a 
subordinate command of the MEDCOM that affects the lives of Soldiers 
and Families everyday. Its mission is to provide worldwide technical 
support for implementing preventive medicine, public health, and health 
promotion/wellness services into all aspects of America's Army and the 
Army community. The CHPPM team supports readiness by keeping Soldiers 
fit to fight, while also promoting wellness among their Families and 
the Federal civilian workforce. CHPPM integrates public health efforts 
to develop and export primary prevention based products by using 
epidemiologic data of disease and injury to identify the best 
prevention programs to implement for overall population health 
improvement. One member of the CHPPM team--Sergeant Kerri Washington--
made a notable impact on the health and safety of our U.S. Army and 
Iraqi Forces in the Multi National Division--Baghdad area of 
responsibility. Sergeant Washington deployed as a Preventive Medicine 
(PM) Specialist with the 61st Medical Detachment (PM) and applied his 
preventive medicine skills, leadership ability, and unique health 
surveillance training to enhance Soldier health and disease prevention.
    CHPPM is establishing a Public Health Management System to evaluate 
the programs and policies developed to promote optimal health in the 
Army community which will use the public health process to provide 
metrics indicating the success or lack of success in these endeavors. 
This will allow leaders to make informed decisions on effective or 
ineffective public health issues in the Army. Army veterinarians play a 
key role in public health as well, ensuring the safety of food and 
water and the prevention of animal-borne diseases. As part of the 
MEDCOM Reorganization addressed earlier, I have directed my staff to 
assess the feasibility and benefits of establishing a Public Health 
Command which better synchronizes and integrates the efforts of all 
AMEDD members who contribute to public health programs. This will 
enhance comprehensive health and wellness and optimize delivery of 
public health support to the Army.
  optimized care and transition of wounded, ill, and injured warriors
    Warrior Care and Transition Program.--The transformation of U.S. 
Army Warrior Care began in April 2007 with the development of the Army 
Medical Action Plan (AMAP), which outlined an organizational and 
cultural shift in how the Army cares for its wounded, ill, and injured 
Soldiers. Over the past 22 months, the AMAP has evolved into the Army 
Warrior Care and Transition Program (WCTP), fully integrating Warrior 
Care into institutional processes across the Army, and is achieving 
many of the Army's goals for enhancing care and improving the 
transition of wounded warriors back to duty or into civilian life as 
productive veterans. At the heart of the Warrior Care and Transition 
Program is the successful establishment of 36 Warrior Transition Units 
(WTUs) at major Army installations worldwide, and nine Community Based 
Warrior Transition Units (CBWTUs) located regionally around the United 
States. These units replace the Medical Holdover (MHO) system of the 
past and provide holistic care and leadership to Soldiers who are 
expected to require 6 months of rehabilitative treatment, and/or need 
complex medical case management.
    Comprehensive Transition Plan.--In our first year of Warrior Care 
and Transition, we heavily invested in the structure of our units and 
support systems. Now in our second year, we recognize that our focus 
needs to be on optimizing the transition for our Soldiers. In March 
2008, MEDCOM launched the Comprehensive Transition Plan initiative for 
Warriors in Transition. Instead of focusing solely on the injury or 
illness, the Comprehensive Transition Plan fosters a holistic approach 
to a Warrior's rehabilitation and transition. This is accomplished 
through the collaboration of a multidisciplinary team of physicians, 
case managers, specialty care providers, and occupational therapists. 
Together with the Soldier, they develop individually tailored goals 
that emphasize the transition phase to civilian life or return to duty. 
Goals are set and the transition plan developed within one month of the 
Soldier's arrival at the WTU.
    Physical Disability Evaluation System.--The Medical Evaluation 
Board (MEB) and Physical Evaluation Board (PEB) processes have been 
streamlined and paperwork requirements reduced to more efficiently move 
a Soldier's disability package through the adjudication process. 
Additionally, collaboration between the DOD and the Department of 
Veterans Affairs (VA) ensures that Warriors in Transition have priority 
processing by the Veterans Health Administration (VHA) and Veterans 
Benefits Administration (VBA) 60 to 180 days prior to separating so 
that they can receive their VA benefits and health care immediately 
upon discharge. General Frederick M. Franks, Jr., USA Ret. has been 
leading an Army task force to research and recommend improvements to 
the MEB/PEB process. His findings, recently delivered to the Secretary 
of the Army, recommended that DOD and VA eliminate dual adjudication 
from the current system and ``transition to a comprehensive process 
focusing on rehabilitation and transition back to either uniformed 
service or civilian life that promotes resilience, self-reliance, re-
education, and employment, while ensuring enduring benefits for the 
Soldier and Family.'' This finding reaffirms the importance of the 
Comprehensive Transition Plan.
    Warrior Satisfaction.--Over the past 2 years, the Army has made 
tremendous progress in transforming how it provides healthcare to its 
Soldiers, with improvements impacting every aspect of the continuum of 
care. Over this period, overall Soldier and Family satisfaction with 
the care and support they have received as a result of the efforts of 
the Warrior Care and Transition Program has increased significantly. 
Two years ago, only 60 percent of those in the legacy medical hold 
units were satisfied with the care they received. Today, that number 
has increased to 80 percent of Soldiers and Families who now receive 
the focused and comprehensive care and support provided by WTUs. 
Considering that over 20,000 Soldiers, along with their Families, have 
transitioned through the Warrior Care and Transition Program over that 
time, this represents a significant number of ``satisfied'' customers. 
A key element of increased satisfaction has been the availability of a 
robust ombudsman program staffed primarily with retired NCOs. An 
ombudsman works at each of our WTUs on behalf of the Warriors in 
Transition and their Families to fix problems and cut through 
bureaucratic entanglements. It is a great example of our dedicated 
senior NCOs continuing to serve Soldiers even after they've taken off 
the uniform.
                improved healthy and protected warriors
    Improve the health of service members through full spectrum health 
services to optimize mission readiness, health and fitness, and 
resiliency before, during, and after deployment.
    Evidence Based Practices.--The theme of evidence based practices 
runs through everything we do in Army Medicine and is highlighted 
throughout our Balanced Scorecard. Evidence based practices mean 
integrating individual clinical expertise with the best available 
external clinical evidence from systematic research. Typical examples 
of evidence based practice include implementation of clinical practice 
guidelines and dissemination of best practices. I encourage my 
commanders and subordinate leaders to be innovative, but across Army 
Medicine we must balance that innovation with standardization so that 
all of our patients are receiving the best care and treatment 
available.
    Comprehensive Soldier Fitness.--The Army Chief of Staff has 
established a vision of an Army comprised of balanced, healthy, self-
confident Soldiers, Families and Army Civilians whose resilience and 
total fitness enable them to thrive in an era of high operational tempo 
and persistent conflict. To achieve this ambitious vision, he is 
instituting the Comprehensive Soldier Fitness Program. General Casey 
identified several shortcomings in his own Army experience. For 
example, the Army does not routinely assess all the elements of 
wellness, fitness, and optimal human performance, other than physical. 
Resilience, life skills, and mental coping techniques are not fully 
trained across the Army. The Army does not always link available life 
skills and performance programs and interventions with Soldiers and 
Families until the need has been demonstrated by a negative behavior. 
And the Army does not teach Soldiers about the potential for Post 
Traumatic Growth (PTG), nor give Soldiers the opportunity to validate 
their post traumatic growth during Post Deployment assessments. The 
intent of the Comprehensive Soldier Fitness Program is to increase the 
resiliency of Soldiers and Families by developing the five dimensions 
of strength--physical, emotional, social, spiritual, and family. This 
program is in early development, but under the leadership of Brigadier 
General Rhonda Cornum, an AMEDD physician, and with the commitment of 
passionate non-commissioned officers like her Non-Commissioned Officer 
in Charge, Master Sergeant Richard Gonzales, I expect this program to 
have a profound positive effect on the lives of Soldiers, Families, and 
Army Civilians.
    Brain Health.--Commanders and leaders are responsible for the 
mental and physical well-being and care of Soldiers. They play a 
critical role in encouraging Soldiers to seek prompt medical care for 
traumatic brain injuries (TBI). This responsibility begins on the 
battlefield, as close as possible in time and space to the injury. The 
AMEDD is developing the best process to evaluate and treat every 
Service member involved in an event that may result in TBI. Commanders 
and medics throughout theater are emphasizing early recognition of 
brain injuries followed by examinations and care rendered in accordance 
with clinical practice guidelines developed by the AMEDD in conjunction 
with the CENTCOM Surgeon. The Army is also working closely with the 
National Guard to implement a personnel tracking instrument that 
provides identification of individuals who may have been involved in a 
blast and require screening.
    In coordination with the VA and the Defense Center of Excellence 
for Psychological Health and Traumatic Brain Injury, the Army continues 
to expand resources dedicated to TBI research and treatment. The 
Defense Centers of Excellence (DCoE), directed by Army Brigadier 
General Loree Sutton, lead a collaborative effort toward optimizing 
psychological health and TBI treatment for all Service members. The 
DCoE establishes quality standards for: clinical care; education and 
training; prevention; patient, family and community outreach; and 
program excellence. The DCoE mission is to maximize opportunities for 
warriors and families to thrive through a collaborative global network 
promoting resilience, recovery, and reintegration for psychological 
health and TBI.
    Fort Campbell's Warrior Resiliency and Recovery Center for mild TBI 
is showing very promising results in the identification and treatment 
of mild TBI. The post concussive syndrome appears to exist in these 
Soldiers with a natural clinical history separate from that of Post 
Traumatic Stress Disorder (PTSD) or other psychiatric conditions. The 
syndrome is effectively treated with an intensive and comprehensive 
interdisciplinary approach. Early data indicate significant improvement 
in all treated cases and complete return to duty recovery in over 77 
percent of treated Soldiers.
    Battlemind Training.--One validated evidence-based practice that 
reduces the impact of post traumatic stress is the Battlemind Training 
System (BTS). The Battlemind Training System (BTS) reflects a strength-
based approach, using buddy aid and focusing on the leader's role in 
maintaining our Warriors' mental health. The BTS targets all phases of 
the deployment cycle as well as the Warrior life cycle and medical 
education system. BTS includes training modules designed for Warriors, 
Leaders, and military spouses. Key teaching points about PTSD and 
concussion were recently incorporated into the deployment cycle and 
life cycle Battlemind modules.
    RC Dental Readiness.--Maintaining dental readiness in the Reserve 
Components (RC) has been challenging. During the past year, new program 
developments have provided an integrated Army solution for RC dental 
readiness throughout the ARFORGEN cycle. The Army Dental Command 
(DENCOM) executes First Term Dental Readiness (FTDR) at Initial Entry 
Training (IET) installations, and focuses on examining and treating 
dental conditions in recruits that could otherwise render a Soldier 
non-deployable. Upon graduation from IET, RC Soldiers return to their 
units where the Army Selected Reserve Dental Readiness System (ASDRS), 
initiated in September of 2008, maintains RC Soldier dental readiness 
throughout the three ARFORGEN phases. If the RC Soldier is mobilized, 
they are validated for their deployment dental readiness by DENCOM-
operated facilities and if found to be deficient, are examined and 
treated to a deployable status by dedicated AC and RC dental personnel 
such as Sergeant First Class Dexter Leverett, a USAR NCO mobilized 
since 2004, who has managed RC mobilization and demobilization dental 
operations at both Fort Hood and Camp Shelby, MS--two sites which have 
processed over 26,000 RC Soldiers in the past 5 months alone. Upon 
return from deployment, DENCOM resets RC Soldier dental readiness by 
conducting a Demobilization Dental Reset (DDR) which provides a dental 
exam and readiness care that can prudently be completed during the 
abbreviated demobilization process. Since July 2008 we have dentally 
reset 88 percent of RC Soldiers demobilizing from overseas. I expect 
this integrated approach to generate improved RC dental readiness.
    Armed Forces Health Surveillance Center.--The new Armed Forces 
Health Surveillance Center (AFHSC), a DOD Executive Agency supported by 
CHPPM, performs comprehensive medical surveillance and reporting of 
rates of diseases and injuries among DOD service members. AFHSC's main 
functions are to analyze, interpret, and disseminate information 
regarding the status, trends, and determinants of the health and 
fitness of U.S. military (and military-associated) populations and to 
identify and evaluate obstacles to medical readiness. AFHSC is the 
central epidemiological resource for the U.S. Armed Forces providing 
regularly scheduled and customer-requested analyses and reports to 
policy makers, medical planners, and researchers. It identifies and 
evaluates obstacles to medical readiness by linking various databases 
that communicate information relevant to service members' experience 
that has the potential to affect their health.
                  responsive battlefield medical force
    Ensure health service assets of all three components are trained, 
modular, strategically deployable, and can support full spectrum 
operations and joint force requirements.
    Pre-deployment Trauma Training.--Adhering to the policy that no one 
should be initially exposed to a medical challenge while on deployment 
or on the battlefield, pre-deployment trauma training is now mandatory 
for individual providers and medical units to improve survival rates. 
It is a critical link between standard medical care and the intense 
battlefield environment Soldiers face in the current conflicts. By 
recreating the high-stress situations medics will face in Iraq and 
Afghanistan, this training allows for the refinement of advanced trauma 
treatment skills and sensitization to hazardous conditions which allow 
medics to increase their confidence and proficiency in treatment. This 
training includes a surgical skills laboratory, the principles of 
International Humanitarian Law, and mild TBI and Combat Stress 
identification. Returning Soldiers cite this as the best training they 
have ever received.
    Medical Simulation Training Centers.--The Medical Simulation 
Training Center (MSTC) grew from an Army Chief of Staff directive to 
create and quickly implement medical simulation training to prepare 
combat medics for the battlefield. Command Sergeant Major David 
Litteral and Sergeant First Class William Pilgrim were active in the 
early development of the MSTC program, and are two of the many NCOs 
instrumental in the program's success. In fiscal year 2008 the 14 
stateside MSTCs provided training to 27,136 Combat Medics and non-
medical Soldiers in the Tactical Combat Casualty Care (TC\3\) and Medic 
sustainment courses. Also in fiscal year 2008, at four locations within 
the CENTCOM Area of Responsibility (AOR), 26,132 Medics and Soldiers 
validated their TC\3\ skills and received just in time training. This 
success has carried into fiscal year 2009 as 20,235 Medics and Soldiers 
have passed through the now 16 stateside MSTCs and four CENTCOM 
locations for training and or validation of critical battlefield 
lifesaving skills.
    Joint Forces Combat Trauma Medical Course (JFCTMC).--This is a 5-
day trauma training course developed by the AMEDD Center and School and 
designed for providers deploying to Level III (Combat Support Hospital) 
medical missions. The course is a series of lectures with breakout 
sessions by specialty, which include laboratory sessions. JFCTMC 
prepares deploying providers to care for patients with acute war-
related wounds and incorporates lessons learned from Operation Iraqi 
Freedom and Operation Enduring Freedom. Sergeant First Class Theresa 
Smith, Sergeant First Class Pearell Tyler, Sergeant First Class David 
Estrada, Sergeant First Class Robert Lopez, and Staff Sergeant Cedric 
Griggs conduct the much-praised Emergency Surgical Procedures portion 
of this course and provide Point of Wounding training. That's right--
non-commissioned officers training physicians and other health care 
providers.
    Combat Development.--AMEDD NCO Combat Developers, like Master 
Sergeant (MSG) Christian Reid and Sergeant First Class Raymond Arnold, 
have been front and center in product improvements of the Mine 
Resistant Ambush Protected (MRAP) ambulance, Army Combat Helmet, Combat 
Arms Ear Plugs, Improved Outer Tactical Vest, and Fire Retardant Army 
Combat Uniform. Additionally, MSG Reid has been pivotal in the 
development of the Improved First Aid Kit (IFAK) from concept to 
fielding in 6 months and the Warrior Aid and Litter Kit (WALK) of which 
more than 25,000 have been procured to support current combat 
operations. The MRAP-Ambulance provides increased protection to our 
crews and patients. To make the MRAP-Ambulance the most capable ground 
ambulance in the Army today, we integrated ``spin-out'' technology from 
the Future Combat System (FCS) Medical Vehicles. The combat medic is 
now able to leave the Forward Operating Bases to conduct medical 
evacuation missions and can provide world class en-route care to 
wounded soldiers. The AMEDD also developed Casualty Evacuation Kits 
(CASEVAC) for both the MRAP and HMMV ambulances to increase capability. 
These efforts provided the combat medic with field ambulances built for 
survivability in the challenging environment of asymmetric warfare.
    Fresh Blood Distribution.--Recognizing that fresher blood has been 
associated with increased survival on massively transfused patients, 
the Armed Services Blood Program Office (for which Army maintains 
oversight as Executive Agent) has been working with the Services to 
decrease the time it takes for blood to arrive in theater with the 
overall goal of getting 80 percent of the units in theater by day 
seven. The average age of red blood cells arriving in theater prior to 
November 2008 was 13.3 days. Sergeant First Class Peter Maas and others 
in the Blood Program Office identified 13 action items necessary to 
improve blood collection, manufacture, and distribution to the CENTCOM 
AOR. Since implementing these action items in November, 2008, the 
average age of red blood cells arriving in theater has dropped to 9.2 
days. The most recent shipment had an average age of 5.6 days. In the 
last month, we have managed to bypass blood delivery to Bagram and are 
shipping blood directly to Kandahar from Qatar. This has resulted in 
blood reaching Kandahar that is 2-3 days fresher than before. In 
addition to delivering fresher blood to theater, we are actively and 
aggressively pursuing new blood technologies that should lead to 
improved warrior care on the battlefield in the near future.
    Armed Forces Institute of Regenerative Medicine.--The U.S. Army 
Medical Research and Materiel Command (USAMRMC) in partnership with the 
Office of Naval Research, the U.S. Air Force, the National Institutes 
of Health, and the VA established the Armed Forces Institute of 
Regenerative Medicine (AFIRM) in March 2008. The AFIRM is a multi-
institutional, interdisciplinary network working to develop advanced 
treatment options for our severely wounded servicemen and women. The 
AFIRM is made up of two civilian research consortia working with the 
U.S. Army Institute of Surgical Research (USAISR) in Fort Sam Houston, 
Texas. One consortium is led by Wake Forest University Baptist Medical 
Center and the McGowan Institute for Regenerative Medicine in 
Pittsburgh and one is led by Rutgers, the State University of New 
Jersey, and the Cleveland Clinic. Each of these civilian consortia is 
itself a multi-institutional network.
    Regenerative medicine, which has achieved success in the 
regeneration of human tissues and organs for repair or replacement, 
represents great potential for treating military personnel with 
debilitating, disfiguring, and disabling injuries. Regenerative 
medicine uses bioengineering techniques to prompt the body to 
regenerate cells and tissues, often using the patient's own cells 
combined with degradable biomaterials. Technologies for engineering 
tissues are developing rapidly, with the ultimate goal of delivering 
advanced therapies, such as whole organs and engineered fingers and 
limbs.
    Joint Theater Trauma System and Joint Trauma Analysis and 
Prevention of Injury in Combat.--The Joint Medical Force continues to 
show great improvements in battlefield care as a consequence of linking 
all information from Level 2 and 3 care thru the entire continuum of 
care via the Joint Theater Trauma System (JTTS). The JTTS, coordinated 
by the Institute for Surgical Research of the USAMRMC, provides a 
systematic approach to coordinate trauma care to minimize morbidity and 
mortality for theater injuries. JTTS integrates processes to record 
trauma data at all levels of care, which are then analyzed to improve 
processes, conduct research and development related to trauma care, and 
to track and analyze data to determine the long term effects of the 
treatment that we provide. The JTTS also plays an active role as a 
partner in the Joint Trauma Analysis and Prevention of Injury in Combat 
(JTAPIC) program, another MRMC asset under the DOD Executive Agency for 
Blast Injury Research.
    The JTAPIC Program links the DOD medical, intelligence, 
operational, and materiel development communities with a common goal to 
collect, integrate, and analyze injury and operational data in order to 
improve our understanding of our vulnerabilities to threats and enable 
the development of improved tactics, techniques, and procedures (TTPs), 
and materiel solutions that will prevent or mitigate traumatic 
injuries. The JTAPIC Program has already made a difference in the way 
we protect our Warfighters from combat injuries as illustrated in the 
following key accomplishments:
  --Provided actionable information which has led to modifications and 
        upgrades to vehicle equipment and protection systems, such as 
        seat design, blast mitigating armor, and fire suppression 
        systems;
  --Established a near-real time process for collecting and analyzing 
        combat incident data that confirmed the presence of threat 
        weapons of interest;
  --Analyzed combat incident data to identify vulnerabilities in 
        operational procedures, and rapidly conveyed those 
        vulnerabilities to commanders in theater;
  --Established a process for collecting and analyzing damaged personal 
        protective equipment (PPE), such as body armor and combat 
        helmets, to provide PPE developers with the information they 
        need to develop enhanced protection systems.
    The JTAPIC Program received the 2008 Department of the Army 
Research and Development Laboratory of the Year Award for Collaboration 
Team of the Year in recognition of its accomplishments.
    Combat Medic Skills Textbook.--Our combat medics (68W) are the best 
trained battlefield medics in the world. The historically low ``died of 
wounds'' rate is evidence of their enhanced skills. The medics of the 
68W generation are trained to perform advance airway skills, hemorrhage 
control techniques, shock management, and evacuation. Sergeant First 
Class Nadine Kahla and Sergeant First Class Jason Reisler are 68W NCOs 
assigned to the AMEDD Center & School. They are representative of the 
17 other 68W NCO authors that contributed to the new 68W Advanced Field 
Craft Combat Medic Skills Textbook, a state of the art training manual 
for the combat medic. This delineation of combat medic skills is newly 
published and will be issued to every graduating combat medic beginning 
this month. We are currently looking at ways to distribute this 
textbook to every medic in the force--Active, National Guard, and Army 
Reserve.
               improved patient and customer satisfaction
    Improve stakeholder satisfaction by understanding, managing, and 
exceeding their expectations.
    Improved Infrastructure.--On behalf of the Army Medical Department 
team, I want to thank the Congress for listening to our concerns about 
military medical infrastructure and taking significant action to help 
us make needed improvements to our facilities. Funding provided for 
military hospitals in the fiscal year 2008 supplemental bill and in the 
American Recovery and Reinvestment Act of 2009 will positively impact 
the quality of life of thousands of Service Members, Family Members, 
and Retirees as we build new state of the art facilities in places like 
Fort Benning, Georgia, Fort Riley, Kansas, and San Antonio, Texas. 
Additional funding provided by Congress for Sustainment, Restoration, 
and Modernization of our facilities has been put to great use and 
allowed us to make some valuable improvements that have been noted by 
our staff and patients.
    The Army requires a medical facility infrastructure that provides 
consistent, world class healing environments that improve clinical 
outcomes, patient and staff safety, staff recruitment and retention, 
and operational efficiencies. The quality of our facilities--whether 
medical treatment, research and development, or support functions--is a 
tangible demonstration of our commitment to our most valuable assets--
our military family and our MHS staff. The environment in which we work 
is critical to staff recruitment and retention in support of our All 
Volunteer Force. Not only are these facilities the bedrock of our 
direct care mission, they are also the source of our Generating Force 
that we deploy to perform our operational mission. To support mission 
success, our current operating environment needs appropriate platforms 
that support continued delivery of the best healthcare, both preventive 
and acute care, to our Warfighters, their Families and to all other 
authorized beneficiaries. I am currently working closely with the 
Assistant Secretary of Defense for Health Affairs, Dr. S. Ward 
Casscells, and the leadership of the DOD to determine the level of 
investment our medical facilities will need. I respectfully request the 
continued support of DOD medical construction requirements that will 
deliver treatment and research facilities that are the pride of the 
Department.
    Access to Care.--Army leadership and MEDCOM are decisively engaged 
in improving access to care for our Soldiers and their Families. These 
efforts will result in markedly improved access and continuous 
situational awareness at each medical treatment facility. Access means 
that patients are seen by the right provider, at the right time, in the 
right venue; and this applies equally to the Direct Care System & 
Purchased Care System (TRICARE). Key elements identified for improving 
access to care include: Aligning treatment facility capacity with the 
number of beneficiaries; enhancing provider availability; reducing 
friction at key points of access; managing clinic schedules; and 
leveraging technology.
    We have developed a campaign plan to improve access by giving 
hospital commanders the tools they need along with the responsibility 
and accountability to generate results.
    Sustainable Cost of Operations.--While focusing on quality 
outcomes, the MEDCOM is also concerned with ensuring that we maintain a 
sustainable cost of operation for the AMEDD. Our efforts to improve 
access are coupled with initiatives to improve efficiency. Our 
Performance Based Adjustment Model (PBAM) provides financial incentives 
for improving efficiency, patient satisfaction, and quality. PBAM and 
other incentive programs have resulted in the Army being the only 
Service to achieve planned workload gains every year since 2003. A key 
author of PBAM is Master Sergeant (now retired) Richard Meyer.
    Disseminating Best Practices.--The MEDCOM has embraced the Lean Six 
Sigma approach to sustaining improved performance. As an example, a 
Lean Six Sigma project to improve the telephone appointing process was 
initiated at Carl R. Darnall Army Medical Center (CRDAMC), the largest 
telephone appointing call center in the MEDCOM. The call center was 
plagued with high call volume, low patient satisfaction, long process 
cycle time, and high variation. The project sought to decrease process 
cycle time and the call abandon rate to improve patient satisfaction. 
By the conclusion of the project, the overall average hold time was 
reduced to 33 seconds (a 6-fold improvement); the call abandon rate was 
reduced to 3 percent (a 10-fold improvement); calls handled increased 
from 4,700 to 7,300 per week; and call agent turnover was reduced. 
Today the mean hold time at CRDAMC is 3 seconds. This project's 
successful action plan and metrics have been disseminated across the 
command as a best practice.
                     inspire trust in army medicine
    Increase stakeholder support of Army Medicine by inspiring trust, 
building confidence, and instilling pride.
    Improving civilian medical practices.--The implementation of 
tactical combat casualty care (TC\3\) principals for point of injury 
treatment on the battlefield has changed long-standing hemorrhage 
control protocols in the civilian Emergency Medical Services (EMS) 
community. The nation's EMS community has altered long-standing 
treatment protocols that formerly considered tourniquet use a last 
resort. The use of tourniquets, based on the success of their 
application by military medics in theater, is now not only seen as safe 
by our nation's healthcare providers, but as the intervention of choice 
for control of severe hemorrhage. Hemorrhage control is the leading 
cause of death in trauma. The change in philosophy regarding tourniquet 
use will result in more lives saved in both urban and rural areas of 
our country.
    Establishing Successful Interservice Partnerships (San Antonio 
Military Medical Center).--Wilford Hall Medical Center (WHMC) and 
Brooke Army Medical Center (BAMC) are quickly evolving towards the San 
Antonio Military Medical Center (SAMMC) which is an integrated 
healthcare platform in which patient care is delivered in two 
facilities operating under one organizational structure. The SAMMC 
organizational structure has been operational for over 1 year. The 
organizational structures of BAMC and WHMC were both realigned to form 
a functional organization for delivery of healthcare, maintenance of 
our readiness and deployment platforms, sustainment of training of all 
levels of healthcare providers, and promotion of research. Many 
physical moves of medical services have already occurred across the 
SAMMC platform. SAMMC is planning for the migration of the two military 
level one trauma centers in San Antonio to one military level one 
trauma center, capable of handling the same patient care volume that is 
being delivered today in the two centers. Planning and coordination 
with the City of San Antonio have been an integral part of this process 
to ensure continued trauma support in the city. SAMMC enjoys strong 
collaborations with both the University of Texas Health Science Center, 
local government leaders, and the Audie Murphy Veterans Memorial 
Hospital in support of the large tri-service beneficiary population in 
the San Antonio community.
    Establishing Successful Interagency Partnerships (Behavioral and 
Social Health Outcomes).--CHPPM resources are partnered with civilian 
academia, the VA and HHS (including the Centers for Disease Control and 
Prevention, and the National Institute of Mental Health) to work in the 
mitigation of rising rates of suicide, depression, PTSD and other 
adverse behavioral and social health outcomes in our Families, 
Retirees, Active Duty, Reserve and National Guard Soldiers. MEDCOM is 
working with other key organizations to build a robust public health 
capability in the area of Behavioral and Social Health outcomes (to 
include suicides and homicides). This effort includes the construction 
of an Army-level relational database that draws critical information 
from numerous sources to enable comprehensive analysis of adverse 
outcomes in Army organizations and communities.
    Establishing Successful Interagency Partnerships (National 
Interagency Biodefense Campus).--Fort Detrick, Maryland hosts and is 
intimately involved in the development of the National Interagency 
Biodefense Campus (NIBC) to fill gaps in national biodefense and 
integrate agencies for a whole of government approach to national 
security. As a charter member of the National Interagency Confederation 
for Biological Research (NICBR), a collaboration of the National Cancer 
Institute along with the NIBC partners, the Army is breaking ground in 
building on a model for interagency cooperation at Fort Detrick. During 
2008, members of the NICBR/NIBC were involved in developing national 
policy on biodefense and biotechnology as well as collaborating on 
research. Research includes work on developing vaccines, diagnostics, 
forensics, and therapeutics. While focusing on protecting people from 
disease and bioterrorism, members of the NICBR/NIBC participated in 
multiple national assessments to prioritize and focus biodefense 
missions, all while continuing united scientific discovery. During 
2009, the NICBR/NIBC will continue to work with Congress and others to 
define and scope gaps and seams in our Nation's biodefense posture.
    In closing, I want to thank this Committee for their terrific 
support of the Defense Health Program and Army Medicine. I greatly 
value the insight of this Committee and look forward to working with 
you closely over the next year. I also want to salute our non-
commissioned officers for their professionalism, competence, and 
leadership--they are truly the backbone of Army Medicine. Thank you for 
holding this hearing and thank you for your continued support of the 
Army Medical Department and the Warriors and Families that we are most 
honored to serve.

    Chairman Inouye. May I now call upon Vice Admiral Robinson.
STATEMENT OF VICE ADMIRAL ADAM M. ROBINSON, JR., 
            SURGEON GENERAL OF THE NAVY, UNITED STATES 
            NAVY
    Admiral Robinson. Thank you very much, Chairman Inouye, 
also Vice Chairman Cochran, Senator Murray, and Senator 
Bennett, and other distinguished members of the subcommittee.
    Since I last testified, we have seen the emergence of 
impressive changes and unique challenges to this Nation and the 
global community. A historic presidential election has made 
significant national and international political impact, a war 
effort sustained with military troops deploying into hostile 
areas, and an increasing military medicine presence playing a 
key role to support the humanitarian civil assistance mission.
    We are seeing uncertainty, change, and fluctuation in our 
economy that will impact all of us, including military 
medicine. Navy medicine continues on course because our focus 
has been and will always be providing the best healthcare to 
our sailors, marines, and their families, all while supporting 
our Nation's maritime strategy.
    In response to our most critical demand to support the 
Marine Corps, we are realigning medical capabilities to 
emerging theaters of operation. As the Marine Corps forces 
shift their efforts to Afghanistan, Navy medicine will support 
them and sustain our efforts in medicine, in trauma medicine, 
and surgery capabilities.
    The Navy's maritime strategy calls for proactive 
humanitarian assistance and disaster response efforts, and 
these are now preplanned engagements. These missions deploy 
from sea-based, land-based, or expeditionary platforms and aim 
to meet a great spectrum of medical needs. Our Nation's 
humanitarian efforts serve as a unique opportunity for medical 
diplomacy to positively impact the perception of the United 
States by other nations.
    In addition, these missions have become another avenue for 
improved recruiting and retention of Navy medicine healthcare 
providers. Filling vacancies in our medical department corps is 
critical to meeting our mission of maintaining medical 
readiness of the warfighter and providing healthcare to all 
eligible beneficiaries. The Chief of Naval Personnel and I have 
worked together on this issue, making medical recruiting a 
continued priority for fiscal year 2009.
    In spite of successes in the health professions scholarship 
program (HPSP), medical and dental corps recruitment, meeting 
our direct accession mission still remains a challenge. I 
anticipate increased demand for medical service corps 
personnel, in particular to better meet our increasing 
requirements. From individual augmentation requirements to 
planned humanitarian assistance missions and unexpected 
disaster relief missions, as well as to meet the growing needs 
of a Marine Corps that is, in fact, growing, these demands will 
impact medical service corps specialties linked to mental, 
behavioral, and rehabilitative health and operational support.
    Consistent with increased operational demand signals, as 
well as to compensate for prior shortfalls in recruiting, the 
overall recruiting goals for uniformed medical service corps 
officers have nearly doubled since fiscal year 2007. The Navy 
has been successful during the past year recruiting and 
retaining Nurse Corps officers using a combination of 
accession, retention, and loan repayment incentives. For the 
first time in over 5 years, Navy Nurse Corps officers gains in 
2008 outpaced losses. The Chief of the Navy Nurse Corps, Rear 
Admiral Chris Bruzek-Kohler, is here and will follow up in her 
statement and testimony.
    Our graduate medical education is a critical part of the 
foundation for Navy medicine's ongoing success. Despite the 
demands on faculty and staff for operational support, our Navy 
GME programs continue to be highly rated by the Accreditation 
Council for Graduate Medical Education, and our program 
graduates continue to pass their board certification 
examinations at rates significantly higher than the national 
average in almost every specialty.
    More importantly, Navy-trained physicians continue to prove 
themselves to be exceptionally well prepared to provide care in 
austere settings ranging from the battlefield to humanitarian 
assistance and disaster relief efforts.
    Over the last year Navy medicine expanded services so that 
wounded warriors would have access to timely, high quality 
medical care. In 2008, we consolidated all wounded, ill, and 
injured warrior healthcare support, with the goal of 
establishing global policy implementation guidance and 
oversight in order to deliver the highest quality customer-
focused, comprehensive and compassionate care to servicemembers 
and their families.
    As of March 2009, 161 medical care case managers were 
assigned to 45 medical treatment facilities and ambulatory care 
clinics, caring for approximately 1,500 Operation Iraqi 
Freedom/Operation Enduring Freedom (OIF-OEF) casualties. The 
medical care case managers collaborate with Navy Safe Harbor 
and Marine Corps Wounded Warrior Regiment, both line programs, 
in working directly with wounded warriors, their families, 
caregivers, and multidisciplinary medical teams.
    We work diligently to coordinate the complex services 
needed for improved healthcare outcomes and to ensure that 
servicemembers return closer to home as soon as possible.
    Navy and Marine Corps liaisons at medical treatment 
facilities aggressively ensure that orders and other 
administrative details, such as extending reservists, are 
completed. Last year, we established a centralized operational 
stress control program and coordinator who is working in 
conjunction with our line leadership to indoctrinate mental 
health stigma reduction into the broader Navy-Marine Corps 
culture. Over 11,000 sailors have received operational stress 
control training to date, and formal curriculum will be 
introduced in the fall 2009 at key points throughout the 
careers of sailors--from accession to flag officer.
    Also, to anticipate emerging mental health threats, Navy 
medicine actively conducts real-time in-country surveillance 
and assessment of the mental health of our troops.

                           PREPARED STATEMENT

    Chairman Inouye, Vice Chairman Cochran, I want to express 
my gratitude on behalf of all who work for Navy medicine, 
uniformed, civilian, contractor, and volunteer personnel, who 
are committed to meeting and exceeding the healthcare needs of 
our beneficiaries. I would also like to thank you and the 
members for your continued support of Navy medicine and of the 
military health system.
    Thank you.
    Chairman Inouye. Thank you very much, Admiral Robinson.
    [The statement follows:]
          Prepared Statement of Vice Admiral Adam M. Robinson
    Chairman Inouye, Senator Cochran, distinguished members of the 
committee, since I testified last spring we have seen the emergence of 
impressive changes and unique challenges to this nation and the global 
community. A historic Presidential election which has made significant 
national and international political impact, a war effort sustained 
with military troops deploying into hostile areas; and an increasing 
military medicine presence playing a key role to support the 
humanitarian civil assistance mission. We are seeing uncertainty, 
change and fluctuation in our economy that will impact all of us, 
including military medicine.
    Navy Medicine continues on course, because our focus has been, and 
will always be providing the best healthcare for our Sailors, Marines, 
and their family members while supporting the CNO's Maritime Strategy. 
We are focused on strengthening Navy Medicine today, and are 
proactively planning to meet future healthcare requirements.
    Navy Medicine is built on a solid foundation of proud traditions 
and a remarkable legacy of Force Health Protection. Our focus has not 
changed and every day in Navy Medicine we are preparing healthy and fit 
Sailors and Marines to protect our nation and be ready to deploy.
    Navy Medicine is playing a major part in supporting the Maritime 
Strategy. You will find us at home and around the world providing 
preventive medical care; health maintenance training and education; 
direct combat medical support; medical intelligence; and operational 
planning mission support. Our Navy Medicine teams are flexible enough 
to perform a Global War on Terror mission, a homeland security mission, 
a humanitarian assistance mission, and a disaster relief mission; while 
at the same time provide direct healthcare to our nation's heroes and 
their family members at home and overseas.
    In spite of all of the missions we are currently prepared to 
participate in, we are continuously making the necessary changes and 
improvements to meet the requirements of the biggest consumer of our 
operational support efforts--the Marine Corps. Currently, we are 
realigning medical capabilities to support operational forces in 
emerging theaters of operation. We are working on enhancing our 
strategic ability, operational reach, and tactical flexibility. As 
Marine Corps forces shift their efforts to Afghanistan, Navy Medicine 
stands prepared to make the necessary adjustments to provide the 
highest quality combat medical support. Since the global operations to 
combat terrorism began, Navy Medicine's combat medical support has 
proven exceptionally successful at bringing wounded service member's 
home. We hope, through our ability to remain agile and flexible, to 
sustain those efforts--like the record-high survivability rates--and 
improve them wherever possible.
    The Navy's Maritime Strategy calls for proactive humanitarian 
assistance and disaster response efforts. These missions have been 
taking place since 1847, and have come a long way since then. The 
Navy's Humanitarian Civil Assistance missions are now pre-planned 
engagements deployed from sea-based, land-based or expeditionary 
platforms to meet a great spectrum of medical needs. From basic medical 
evaluation and treatment, to optometry, to general surgery, and 
immunizations, our physicians, nurses, dentists, ancillary healthcare 
professionals, and hospital corpsmen are ready.
    Our efforts have continued to grow and this year, the U.S. Southern 
Command will sponsor four multi-service Medical Readiness Training 
Exercises (MEDRETEs). These missions will visit Jamaica, Honduras, the 
Dominican Republic and Guyana and will include a Navy Medicine Reserve 
Component. These two-week deployments will provide primary care in 
remote locations in conjunction with the Ministry of Health of each 
host nation. The medical services provided will include preventive 
medicine education, pediatrics, primary medical care, immunizations, 
pharmacy services, and dental care.
    Over 400 Navy Medicine personnel are ready to provide humanitarian 
civil assistance later this year in two ship-based missions. In April, 
the USNS COMFORT (TAH 20) will deploy for a 120-day mission to South 
and Central America as part of Continuing Promise 09. Later in 2009, 
the USS DUBUQUE (LPD 8) will deploy for a 125-day mission as part of 
Pacific Partnership 09.
    Our nation's humanitarian efforts serve as a unique opportunity to 
positively impact the perception of the United States by other nations. 
These often joint missions serve as examples of how increased 
collaboration between the other services, other government agencies, 
and non-governmental organizations can maximize available resources in 
order to improve worldwide response capability. From our experience, we 
have developed a successful model of healthcare education and training 
for host country providers. This will lead to local sustainable 
activities that will provide long-lasting benefits to help overcome 
healthcare barriers in resource poor countries. Furthermore, these 
missions have become another avenue for improved recruiting and 
retention of Navy Medicine healthcare providers.
    While our humanitarian civil assistance missions provide us with 
some amazing opportunities as providers of medical care, Navy Medicine 
is acutely aware and incredibly proud of our operational commitment to 
the United States Marine Corps. We continue to fine tune our deployable 
medical capabilities to support every Marine who deploys to emerging 
theaters of operation. We never stop improving our strategic ability, 
operational reach, and tactical flexibility. As the Marine Corps forces 
shifts their efforts to Afghanistan, Navy Medicine will be there 
providing the highest quality combat medical support from the corpsmen 
who stand by their Marines on the battlefield, to fleet hospitals, to 
the care provided at a military hospital and world-class restorative 
and rehabilitative care facilities in the continental United States.
    We continue to make improvements to meet the needs of Sailors and 
Marines who may become injured--while serving in theater or training at 
home. Over the last year, Navy Medicine significantly expanded services 
so that wounded warriors would have access to timely, high-quality 
medical care. Our response is two-tiered, first to uncompromisingly 
increase specialized multidisciplinary teams, and second, to expand 
sharing with other government agencies and the private sector of 
clinical resources, research and expertise.
    In addition, Navy Medicine's Concept of Care is always patient and 
family focused. We never lose our perspective in caring for all our 
beneficiaries--everyone is a unique human being in need of 
individualized, compassionate, and professionally superior healthcare. 
At our military treatment facilities (MTFs), we recognize and embrace 
the military culture and incorporate that into the healing process. 
Based on the progress in a patient's care and healing, from initial 
care to rehabilitation and life long medical needs, we determine the 
best clinical location and treatment plan for that patient. Families 
are a critical part of the healthcare delivery team, and we integrate 
the family's needs into the healing process as well.
    In 2008, the Bureau of Medicine and Surgery (BUMED), Headquarters 
for Navy Medicine, consolidated all wounded, ill and injured warrior 
healthcare support, with the goal of establishing global policy, 
implementation guidance, and oversight in order to deliver the highest 
quality customer-focused, comprehensive and compassionate care to 
service members and their families.
    As of March 2009, 161 Medical Care Case Managers were assigned to 
45 MTFs and ambulatory care clinics caring for approximately 1,500 OIF/
OEF casualties. The Medical Care Case Managers collaborate with Navy 
Safe Harbor and Marine Corps Wounded Warrior Regiment in working 
directly with wounded warrior, family, caregivers and the multi-
disciplinary medical team to coordinate the complex services needed for 
improved health outcomes.
    The BUMED Wounded Warrior Regiment Medical Review team and the 
Returning Warrior Workshop support Marines and Navy Reservists, and 
their families by focusing on key issues faced by reservists during 
their transition from deployment to home. Navy and Marine Corps 
Liaisons at MTFs aggressively ensure that orders and other 
administrative details, such as extending reservists, are completed.
    Traumatic Brain Injury (TBI) is considered the signature wound of 
OIF/OEF, due to the proliferation of improvised explosive devices 
(IED). Navy Medicine continues to improve ways to identify and treat 
TBI. The traumatic stress and brain injury programs at National Naval 
Medical Center (NNMC) Bethesda, Naval Medical Center San Diego (NMCSD), 
Naval Hospital Camp Pendleton (NHCP), and Naval Hospital Camp Lejeune 
(NHCL) are collaborating to identify and treat service members who have 
suffered blast exposure. Navy Medicine has partnered with the Navy and 
Marine Corps community to identify specific populations at risk for 
brain injury such as front line units, SEALS, and Navy Explosive 
Ordinance disposal units. Navy Medicine also expanded social work 
assets to provide clinical mental health support in theater, at Navy 
MTFs and regional treatment centers.
    Much attention has been focused on ensuring service members' 
medical conditions are appropriately addressed on return from 
deployment. The Pre-Deployment Health Assessment (Pre-DHA) is one 
mechanism that is used to identify physical and psychological health 
issues prior to deployment. The Post Deployment Health Assessment 
(PDHA) and the Post Deployment Health Re-Assessment (PDHRA) identify 
deployment related healthcare concerns on return to home station and 
90-180 days post deployment.
    Navy Medicine's innovative Deployment Health Centers--currently 17 
in high Fleet and Marine Corps concentration areas--support the 
deployment health assessment process and serve as easily accessible 
non-stigmatizing portals for mental healthcare. The centers are staffed 
with primary care and mental health providers to address deployment-
related health issues such as TBI, Post Traumatic Stress Disorder 
(PTSD), and substance misuse. Approximately 15 percent of Navy and 
Marine Corps Post Deployment Health Assessments result in a medical 
referral, while the PDHRA medical referral rate is approximately 22 
percent for both Active and Reserve Component service members.
    Navy Medicine's partnership with the Department of Veterans Affairs 
(VA) medical facilities is evolving into a mutually beneficial 
partnership. This coordinated care for our warriors who transfer to or 
are receiving care from a VA facility ensures their needs are met and 
their families concerns are addressed. Full-time VA staff members are 
located at several Navy MTFs where they focus on the healthcare needs 
of service members and their families.
    Filling vacancies in the Medical, Dental, Nurse and Medical Service 
Corps of the Active and Reserve Components is critical in meeting our 
mission of maintaining medical readiness of the warfighter and 
providing healthcare to all eligible beneficiaries. My goal is to 
maintain the right workforce to deliver medical capabilities across the 
full range of military operations through the appropriate mix of 
accession, retention, education and training incentives. As a result, 
the Chief of Naval Personnel and I have worked together on this issue 
making medical recruiting a continued priority for fiscal year 2009.
    Navy Medicine not only equips and trains our current healthcare 
professionals; we also prepare our future reliefs for the challenges 
ahead. To build the future force for Navy Medicine we must reach out to 
America's students and young professionals. We must invite them to our 
hospitals, our classrooms, and our research facilities so they can see 
what we do and they can ask career-making questions.
    Congress has been very generous and attentive to the Special Pay 
and Bonus authorities. The Services are implementing those new 
programs--in some cases with limited success. An example of this is 
that the Critical Wartime Skills Accession Bonus offered to physicians 
and dentists as an incentive to directly access trained specialists was 
not effective in fiscal year 2008. Multi-Year Retention pays and 
Bonuses have historically provided the highest return for obligated 
service, but we thought it was important to try new authorities 
provided by Congress.
    Navy Medicine offers one of the most generous and comprehensive 
scholarships in the healthcare field. The Armed Forces Health 
Professions Scholarship Program (HPSP) provides tuition assistance for 
up to 4 years of school. In addition all professional school required 
fees and expenses, books and equipment are paid for by the Navy. The 
value of this program could be well over $200,000 during the course of 
a 4 year professional school program. Graduates join the Navy's active 
duty healthcare team as commissioned officers. During fiscal year 2008, 
the Navy Medical and Dental Corps met its HPSP goal for the first time 
in several years.
    In spite of the successes in HPSP Medical and Dental Corps 
recruitment, meeting our direct accession mission may remain a 
challenge. The Medical Services Corps is our most diverse Corps with 31 
specialties under three general groupings consisting of clinicians, 
healthcare administrators, and research scientists.
    I anticipate increased demand for Medical Service Corps personnel 
with respect to Individual Augmentation missions supporting the present 
course in Iraq and the anticipated role the military in Afghanistan, 
planned Humanitarian Assistance and unexpected disaster relief 
missions, as well as to meet the needs of Marine Corps manning 
increases and the many wounded warrior programs they support. These 
demands will impact Medical Service Corps specialties linked to mental, 
behavioral and rehabilitative health and operational support; Clinical 
Psychologists, Social Workers, Occupational Therapists, Physician 
Assistants and Physical Therapists to name a few.
    While it is anticipated that the Assistant Secretary of Defense, 
Health Affairs guidance for recruiting and retention incentives for 
Clinical Psychologists, Social Workers, and Physician Assistants will 
be released this fiscal year, similar incentives may need to be 
expanded to other specialties where limited incentives currently exist. 
Consistent with increased operational demand signals, as well as to 
compensate for prior shortfalls in recruiting, the overall recruiting 
goals for uniformed Medical Services Corps officers have nearly doubled 
since fiscal year 2007.
    The Navy has been successful during the past year recruiting and 
retaining Nurse Corps officers using a combination of accession, 
retention, and loan repayment incentives. Over 4,000 active duty and 
reserve Navy nurses are serving in operational, humanitarian, and 
traditional missions at home and overseas. These men and women are 
essential to Navy Medicine's Force Health Protection mission. Navy 
nurses, in particular the wartime nursing specialties of mental health, 
nurse anesthesia, critical care, family nurse practitioners, emergency 
medicine, preoperative and surgical care, have been exemplary in all 
theaters of operations and healthcare settings.
    For the first time in over 5 years, Navy Nurse Corps officer gains 
in 2008 outpaced losses. Despite the growing national nursing shortage 
and the civilian nursing community proving to be recession resistant, 
the recruitment and retention of nurses continues to improve. 
Additional requirements will be placed on the recruiting and retention 
efforts of the Nurse Corps in the near future as nursing billets are 
restored due to changes in the Military to Civilian Conversion program. 
Future success in the recruitment and retention of nurses will continue 
to be dependent on incentive packages that are competitive with the 
civilian sector.
    Like recruiting and retention, our Graduate Medical Education (GME) 
is a critical part of the foundation for Navy Medicine's ongoing 
success. Navy Medicine provides world-class graduate medical education 
at nine sites with 60 programs involving over 1,000 trainees. Despite 
the demands on faculty and staff for operational support, our Navy GME 
programs continue to be highly rated by the Accreditation Council for 
Graduate Medical Education. Navy program graduates continue to pass 
their board certification examinations at rates significantly higher 
than the national average in almost every specialty. More importantly, 
Navy-trained physicians continue to prove themselves to be 
exceptionally well prepared to provide care in austere settings ranging 
from the battle field to humanitarian assistance and disaster relief 
efforts.
    Along with our successes, Navy GME is facing challenges. Advances 
in medicine and technology are resulting in longer and in some case 
completely new types of training which stress the fixed number of 
funded positions available. Additionally, we did not meet medical 
student accession goals 3 and 4 years ago, and this is beginning to 
impact our current GME programs. The lower number of uniformed 
graduates will challenge our ability to support our operational 
healthcare mission while placing an adequate number of graduates into 
training to meet our need for specialists in the future.
    Navy Medicine scientists conduct basic, clinical, and field 
research directly related to current and future military requirements 
and operational needs. In today's unsettled world, we face not only the 
medical threats associated with conventional warfare, but also the 
potential use of weapons of mass destruction and terrorism against our 
military forces and our citizens at home and overseas and our allies. 
Navy Medicine's research efforts focus on finding solutions to 
traditional battlefield medical problems such as bleeding, Traumatic 
Brain Injury, combat stress, and naturally occurring infectious 
diseases; as well as the health problems associated with non-
conventional weapons including thermobaric blast, biological agents, 
and radiation.
    The DOD Center for Deployment Health Research at the Naval Health 
Research Center reported that 8.7 percent of U.S. troops who were 
deployed and exposed to combat duty in Iraq or Afghanistan reported 
symptoms of PTSD on a screening survey. We anticipate that this ongoing 
research will prove helpful in identifying populations at especially 
increased risk of PTSD from combat, and lead to improved diagnosis and 
prevention strategies.
    The Naval Institute for Dental and Biomedical Research helped to 
prove the military utility of a new product ``Dent Stat,'' a temporary 
dental filling material used in treating dental emergencies in all 
forward deployed settings. This user-friendly temporary restorative 
material helps stabilize and reduce pain from fractured teeth and lost 
or broken fillings so warfighters can quickly return to their units.
    The Navy Medical Research Center developed an updated vaccine 
against Japanese encephalitis (JE) allowing for U.S. Food and Drug 
Administration licensure. The JE vaccine should prevent this mosquito-
borne potentially fatal brain infection, and will save lives of 
military personnel who deploy to the Asia-Pacific region, and also 
civilian travelers to JE-endemic regions.
    These are just a few examples of how Navy Medicine's biomedical and 
dental research, development, testing and evaluation, including 
clinical investigations, will protect and improve the health of those 
under our care.
    It is important to recognize the unique challenges before Navy 
Medicine at this particularly critical time for our nation. Growing 
resource constraints for Navy Medicine are real, as is the increasing 
pressure to operate more efficiently without compromising healthcare 
quality and workload goals. The Military Healthcare System (HMS) 
continues to evolve, and we are taking advantage of opportunities to 
modernize management processes that will allow us to operate as a 
stronger innovative partner within the MHS.
    Integration of care between the military direct care and our 
civilian network, and across the services, has implications related to 
both the quality and cost of care. The National Capital Area and the 
San Antonio military markets have become pilots for a ``joint'' 
healthcare system. While the models are different, the end goal is the 
same: a single approach to healthcare. With the current economic 
situation driving the need for cost effectiveness, movement toward a 
Unified Medical Command construct will likely accelerate. Identifying 
those functions that can be joint--along with those that need to remain 
service specific--is a critical component of the success of the 
project. Bringing the direct care system and the TRICARE Management 
Activity under a single command structure offers significant advantages 
and might be the next best step as military healthcare evolves. Navy 
Medicine supports and is actively engaged in these efforts.
    Chairman Inouye, Ranking Member Cochran, I want to express my 
gratitude on behalf of all who work for Navy Medicine--uniformed, 
civilian, contractor, volunteer personnel--who are committed to meeting 
and exceeding the healthcare needs of our beneficiaries. Thank you 
again for providing me this opportunity to share with you Navy 
Medicine's mission, what we are doing today, and our plans for the 
future. It has been my pleasure to testify before you today and I look 
forward to answering any of your questions.

    Chairman Inouye. May I now call upon Lieutenant General 
Roudebush.
STATEMENT OF LIEUTENANT GENERAL JAMES G. ROUDEBUSH, AIR 
            FORCE SURGEON GENERAL, UNITED STATES AIR 
            FORCE
    General Roudebush. Mr. Chairman, Mr. Vice Chairman, Senator 
Murray, Senator Bennett: Thank you for this opportunity to 
share our issues, our concerns, but also our accomplishments 
with you this morning.
    I believe your comments frame it very appropriately and 
very correctly in terms of the importance of what we bring both 
individually and collaboratively to the care of the men and 
women who have raised their right hand and sworn to support and 
defend and go into harm's way for our Nation. It's important 
that we do care for them, and it's important that we work with 
each one, one by one, as they transition perhaps to care within 
the Department of Veterans Affairs, to assure that that 
transition is as smooth, effortless, and user-friendly as it 
can be.
    So I think your comments set this up very, very well. Thank 
you, sir. And thank you and the subcommittee for your 
unwavering support in our endeavors in this regard. We simply 
could not do it without you, and we truly appreciate that.
    This morning, sir, I'd like to talk a bit about Air Force 
medicine, understanding that Air Force medicine is part of a 
joint capability, and we keep that issue very clearly in mind. 
Air Force medicine contributes significant capability to the 
joint warfight in combat casualty care, wartime surgery, and 
aeromedical evacuation.

                       AIR FORCE THEATER HOSPITAL

    On the ground, at both the Air Force theater hospital at 
Balad and Craig Joint Theater Hospital in Bagram we are leading 
numerous combat casualty care initiatives that will positively 
impact combat and peacetime medicine for years to come. Air 
Force surgeons laid the foundation for the state-of-the-art 
intervascular operating room at Balad, the only DOD facility of 
its kind, and their use of innovative technology and surgical 
techniques has greatly advanced the care of our joint 
warfighter and coalition casualties, and their work within the 
joint theater trauma system, collaborative joint work, their 
work within this joint system, has literally rewritten the book 
on the use of blood in trauma resuscitation.
    To bring our wounded warriors safely and rapidly home, our 
critical care aeromedical transport teams, or CCATs, provide 
unique intensive care unit (ICU) care in the air within DOD's 
joint en route medical care system. We continue to improve the 
outcomes of CCAT wounded warrior care by incorporating lessons 
learned into clinical practice guidelines and modernizing the 
equipment we use to support this important mission.

       MEDICAL LIFESAVING OPERATIONS--HURRICANES KATRINA AND RITA

    But it's important to note that this Air Force-unique 
expertise also pays huge dividends back home. When Hurricanes 
Katrina and Rita struck in 2005, Air Force active duty, Guard, 
and Reserve medical personnel were in place conducting 
lifesaving operations. Similarly, hundreds of members of this 
total force team were in place September 1, 2008, when 
Hurricane Gustav struck the Louisiana coast and when Hurricane 
Ike battered Galveston, Texas, less than 2 weeks later.
    During Hurricane Gustav, Air Mobility Command coordinated 
the movement of more than 8,000 evacuees, including 600 
patients. Air crews transported post-surgical and intensive 
care unit patients from Texas-area hospitals to Dallas 
principally. I'm extremely proud of this incredible team 
effort.
    The success of our Air Force mission, however, directly 
correlates with our ability to build and maintain a healthy and 
fit force at home station and in theater. Always working to 
improve our care, our family health initiative establishes an 
Air Force medical home. This medical home optimizes healthcare 
practice within our family healthcare clinics, positioning a 
primary care team to better accommodate the enrolled population 
and streamline the processes for care and disease management. 
The result is better access, better care, and better health.

                   PSYCHOLOGICAL HEALTH OF OUR AIRMEN

    The psychological health of our airmen is critically 
important. To mitigate their risk for combat stress symptoms 
and possible mental health problems, our program known as 
Landing Gear takes a proactive approach, with education and 
symptom recognition both pre- and post-deployment. We educate 
our airmen that recognizing risk factors in themselves and 
others, along with a willingness to seek help, is the key to 
effectively functioning across the deploying cycle and 
reuniting with their families. Likewise, we screen carefully 
for traumatic brain injury at home and at our forward deployed 
medical facilities.
    To respond to our airmen's needs, we have over 600 active 
duty and 200 civilian and contract mental health providers. 
This mental health workforce has been sufficient to meet the 
demand signal that we have experienced to date, but, that said, 
we do have challenges with respect to active duty psychologists 
and psychiatrists recruiting and retention and we're pursuing 
special pays and other initiatives to try to bring us closer to 
100 percent staffing in these two very important specialties.
    For your awareness, over time we are seeing an increasing 
number of airmen with post-traumatic stress disorder (PTSD). 
1,759 airmen have been diagnosed with PTSD within 12 months of 
returning from deployment from 2002 to 2008. As a result of our 
efforts at early post-traumatic stress identification and 
treatment, the majority of these airmen continue to serve with 
the benefit of treatment and support.
    Also, understanding that suicide prevention lies within and 
is integrated into the broader construct of psychological 
health and fitness, our suicide prevention program, a 
community-based program, provides the foundation for our 
efforts. Rapid recognition, active engagement at all levels, 
and reducing any stigma associated with help-seeking behaviors 
are hallmarks of our program. One suicide is too many and we're 
working hard to prevent the next.

                SUSTAINING THE AIR FORCE MEDICAL SERVICE

    Sustaining the Air Force medical service requires the very 
best in education and training for our professionals. In 
today's military that means providing high-quality programs 
within our system as well as strategically partnering with 
academia, private sector medicine, and the Department of 
Veterans Affairs to ensure that our students, residents, and 
fellows have the best training opportunities possible.
    While the Air Force continues to attract many of the finest 
health professionals in the world, we still have significant 
challenges in recruiting and retention. We're working closely 
with our personnel and recruiting communities using accession 
and retention bonus plans to ensure full and effective staffing 
with the right specialty mix to perform our mission. At the 
center of our strategy is the health professions scholarship 
program. HPSP is our most successful recruiting tool. But we're 
also seeing positive trends in retention from our other 
financial assistance programs and pay plans. Thank you for your 
unwavering support in this critical endeavor.
    In summary, Air Force medicine is making a difference in 
the lives of airmen, soldiers, sailors, marines, family 
members, coalition partners, and our Nation's citizens. We are 
earning their trust every day. As we look forward to the way 
ahead, I see a great future for the Air Force medical service 
built on a solid foundation of absolutely top-notch people, 
outstanding training programs, and strong partnerships. It's an 
exciting, challenging, and rewarding time to be in Air Force 
and military medicine. I couldn't be more proud of this joint 
team.

                           PREPARED STATEMENT

    We join our sister services in thanking you for your 
enduring support, and I look forward to your questions.
    Chairman Inouye. I thank you very much, General Roudebush.
    [The statement follows:]
   Prepared Statement of Lieutenant General (Dr.) James G. Roudebush
    Mr. Chairman and esteemed members of the Committee, it is my honor 
and privilege to be here today to talk with you about the Air Force 
Medical Service. Our Air Force medics work directly for the Line. To 
that end, we too are focused on reinvigorating the Air Force nuclear 
enterprise; partnering with the joint and coalition team to win today's 
fight; developing and caring for Airmen and their families; modernizing 
our Air and Space inventories, organizations, and training, and 
recapturing acquisition excellence.
    In support of our Air Force priorities, our Air Force Medical 
Service (AFMS) is on the cutting edge of protecting the health and 
well-being of our Service men and women everywhere. Our experience in 
battlefield medicine is shaping America's healthcare for the 21st 
century and beyond. We are actively enhancing readiness; ensuring a 
fit, healthy force, and building/sustaining the model health system for 
DOD. In short, it's a great time to be in Air Force medicine!
                       advancements in readiness
    Air Force medics contribute significant capability to the joint 
warfight in aeromedical evacuation, combat casualty care and wartime 
surgery. Our advancements in these areas are unparalleled in previous 
combat experience.
    Our Critical Care Air Transport Teams (CCATTs) provide unique ``ICU 
care in the air'' within DOD's joint enroute medical care system. We 
continue to improve the outcomes of CCATT wounded warrior care by 
incorporating lessons learned into clinical practice guidelines and 
modernizing equipment to support the mission. For example, we are 
developing a joint electronic in-flight patient medical record to 
ensure effective patient care documentation and record availability. We 
are working to improve CCATT equipment, such as mobile oxygen storage 
tanks and airborne wireless communication systems, and continuing to 
evaluate existing equipment to ensure safety for our patients.
    On the ground, at both the Air Force Theater Hospital at Balad, 
Iraq and Craig Joint Theater Hospital at Bagram, Afghanistan, Air Force 
medics lead numerous combat casualty care initiatives that will 
positively impact combat and peacetime medicine for years to come. The 
Air Force surgeons garnered invaluable experience in the field of 
vascular surgery that laid the foundation for a state-of-the-art 
endovascular operating room at Balad--the only DOD facility of its 
kind. The inaugural use of diagnostic angiography and vena caval 
filters, along with coil embolization and stent grafts in select 
vascular surgeries in-theater have truly modernized care of our joint 
warfighter and coalition casualties. Colonel (Dr.) Jay Johannigman, the 
332nd Expeditionary Medical Operations Squadron lead trauma surgeon, 
said, ``Our Joint combat hospitals, be they Army, Navy, or Air Force, 
are all beginning to think alike and do things similarly. These efforts 
help us improve and speed the care to the patient.''
    Working with the Armed Services Blood Program Office, Air Force 
medics have improved the supply of crucial life-saving blood products 
in-theater, supplementing fresh blood with a new frozen red blood cell 
product with an extended shelf life. An in-theater apheresis center was 
established to collect fresh platelets needed to support aggressive 
treatment of trauma patients requiring massive transfusions.
    The ability to collect and analyze data is critical to our success 
in combat casualty care. The Joint Theater Trauma Registry (JTTR), 
established in 2004, has made significant strides in these efforts. 
Their work led to major changes in battlefield care, including 
management of extremity compartment syndromes, burn care resuscitation, 
and blood transfusion practices. Their results are setting military-
civilian benchmarking standards. The JTTR is truly a joint effort, with 
full participation of the Air Force. An Air Force physician is the JTTR 
system deputy director, and our critical care nurses are key players in 
the in-theater JTTR team. Through the JTTR we're capturing and 
implementing best practices for management of the extensive trauma 
cases seen.
    Air Force-unique expertise pays dividends back home, as well as in 
theater, and is saving lives. Many Americans who have become victims of 
natural disasters benefited from our humanitarian support. When 
Hurricanes Katrina and Rita struck in 2005, Air Force Active Duty, 
Guard, and Reserve medics were in place conducting lifesaving 
operations. Similarly, hundreds of members of this Total Force team 
were in place September 1, 2008 when Hurricane Gustav struck the 
Louisiana coast and when Hurricane Ike battered Galveston, Texas, less 
than 2 weeks later. During Hurricane Gustav, Air Mobility Command 
coordinated the movement of more than 8,000 evacuees, including 600 
patients. Aircrews transported post-surgery/post-intensive care unit 
patients from Galveston area hospitals to Dallas medical facilities. I 
am extremely proud of this incredible team effort.
                    ensuring a fit and healthy force
    The success of our medical readiness mission directly correlates 
with our ability to build and maintain a fit and healthy force at home 
station and in-theater. One way we do this is through optimization of 
health care delivery. Our Family Health Initiative, our Air Force 
``medical home,'' optimizes health care practice within our family 
health clinics, increasing the number of medical technicians on the 
family health teams to better accommodate the enrolled population and 
streamlining the processes for care and disease management.
    We achieve a fit and healthy force by measuring our health care 
outcomes. The AFMS has used the Healthcare Effectiveness Data and 
Information Set measures for more than 8 years to assess the care we 
deliver. Our outcome measures for childhood immunization delivery, 
asthma medication management, LDL cholesterol control in diabetics, and 
screening for Chlamydia all exceed the 90th percentile in comparison to 
civilian benchmarks. We also compare very highly with civilian hospital 
care for all 40 of our measures developed by the Agency for Healthcare 
Research and Quality, which evaluates patient safety, inpatient 
quality, pediatric care quality, and prevention-related quality for our 
hospital services. We recently began measuring 30-day mortality rates 
for myocardial infarction, pneumonia and congestive heart failure, and 
found that the AFMS is well below the national benchmark in all three 
measures. In 2009, we will implement measurement of well-child visits 
and follow-up after mental health hospitalization. While this is all 
good news, we must remain vigilant in analyzing and evaluating the 
effectiveness of our healthcare delivery--our patients deserve the very 
best.
    The exposure of our Airmen to battlefield trauma puts psychological 
health at the forefront of our health and fitness mission. To mitigate 
their risk for combat stress symptoms and possible mental health 
problems, our Landing Gear program takes a proactive approach with 
education and symptom recognition, both pre- and post-deployment. We 
educate our Airmen that recognizing risk factors in themselves and 
others, along with a willingness to seek help, is the key to 
effectively functioning across the deployment cycle and reuniting with 
their families.
    We have over 600 Active Duty and over 200 civilian and contract 
mental health providers. This includes 97 additional contract Mental 
Health providers we added in 2007 to manage increased workload. This 
mental health workforce has been sufficient to meet the demand signal 
that we have experienced to date. That said, we do have challenges with 
respect to Active Duty psychologist and psychiatrist recruiting and 
retention, and we are pursuing special pays and other initiatives to 
try to bring us closer to 100 percent staffing in those two 
specialties. We continually assess and reassess the demand based on 
mission requirements as well as the need for clinical services. We are 
seeing a gradual increase in the incidence of post-traumatic stress 
disorder (PTSD) in our Airmen and we are also seeing a persistent 
demand at the 1:2 dwell rate for mental health providers in the 
deployed environment. This demand is not likely to decrease, and could 
well increase over time. We are tracking this demand closely to ensure 
that we have the resources to meet tomorrow's demand.
    With regard to what we are doing about PTSD, we address post-
traumatic stress (PTS) in our Airmen by combining resilience training 
with frequent screening and ready access to mental healthcare. 
Resilience training is conducted via an Air Force developed program 
Landing Gear, where Airmen learn what to expect while deployed, and 
when and how to get help for stress symptoms. Screening occurs before 
deployment, at the end of deployment, 90-180 days post-deployment and 
annually via the Physical Health Assessment. Each screening asks about 
PTS and other psychological symptoms. Healthcare providers fully assess 
all symptoms noted on the screening, and refer to mental health 
providers for further care as needed. We also train frontline 
supervisors and have positioned mental health personnel in our primary 
care clinics in order to increase access and reduce stigma. Quality 
healthcare for our Airmen requires our mental health providers to have 
the best tools available to treat PTS. To that end, we have sent 490 of 
our mental health providers to 2 and 3-day workshops conducted by 
civilian subject matter experts on the two widely recognized methods of 
PTSD treatment. All our providers, mental health and primary care, are 
trained and follow nationally/Veterans Affairs (VA) approved clinical 
practice guidelines to assure that all treatment for PTSD is state of 
the art and meets the highest standards.
    For your awareness, 1,758 Airmen have been diagnosed with PTSD 
within 12 months of return from deployment (fiscal year 2002-fiscal 
year 2008). The vast majority of these Airmen continued to serve with 
the benefit of treatment and support. Of these Airmen, 255 have been 
enrolled in our Wounded Warrior program secondary to PTSD, and are not 
expected to be returned to duty. Our efforts at early PTS 
identification and treatment strive to maximize the number of Airmen we 
are able to return to full duty and health. As noted, however, we are 
seeing an increase over time in the number of our Airmen with diagnosed 
PTSD.
    Understanding that suicide prevention lies within and is integrated 
into the broader construct of psychological health and fitness, we 
continue to aggressively work our eleven suicide prevention 
initiatives, which include frontline supervisor training and suicide 
risk assessment training for mental health providers. We have mental 
health providers in our family health units to provide the full 
spectrum of care for both our active duty and family members. This 
allows us to approach issues in a way conducive to quick recognition 
and resolution, while reducing any perceived stigma associated with 
visits to mental health clinics. Suicide prevention requires a total 
Air Force community effort, using all tools available. We are expanding 
our ability to identify, track and treat Airmen dealing with PTSD, 
Traumatic Brain Injury (TBI), or other mental health problems to ensure 
no one is left behind who needs help. We have the resources, the 
opportunity, and clearly the need to better understand, and care for 
these injuries.
    Current treatment/management for TBI is based on Defense and 
Veterans Brain Injury Center (DVBIC) TBI Clinical Guidance. The Air 
Force TBI treatment is done by a multidisciplinary team guided by 
comprehensive brain injury and mental health assessment tools. All TBI 
patients receive education on TBI symptoms and management as well as 
appropriate referrals for occupational therapy, physical therapy, 
speech and language, pharmacy, audiology and optometry. Cognitive 
rehabilitation is initiated after medical issues have subsided and the 
patient's pain is managed. In fiscal year 2009, video teleconferencing 
equipment will be installed in all mental health clinics to allow 
direct consult with the DVBIC.
    We have also taken the lead in DOD with diabetes research and 
community outreach. We have a very productive partnership with the 
University of Pittsburgh Medical Center (UPMC) and the Army. Wilford 
Hall Medical Center (WHMC), Lackland AFB, Texas, is designated as the 
initial DOD roll-out site for diabetes initiatives developed at UPMC. 
Major Mark True, an endocrinologist, is the WHMC project lead and 
director for the Air Force diabetes program. He established a Diabetes 
Center of Excellence (DCOE) program and, in August 2007, introduced 
several inpatient diabetes protocols and initiatives in the hospital, 
including an intravenous insulin protocol that substantially improved 
glucose control in critical care units. We are working to open an 
outpatient regional DCOE that will impact clinical outcomes across a 
regional population. This will be supported by the Mobile Diabetes 
Management with Automated Clinical Support Tools project beginning this 
year, which will demonstrate improved diabetic management through cell 
phones and web-based technology use.
               building and sustaining a pre-eminent afms
    Sustaining the AFMS as a premiere organization requires the very 
best in education and training for our professionals. In today's 
military, that means providing high quality programs within our system, 
as well as strategically partnering with academia, private sector 
medicine and the VA to assure that our students, residents and fellows 
have the best training opportunities possible.
    With the ongoing demand for well trained surgeons in our trauma 
care mission, we have focused on Surgical Care Optimization. This 
initiative identified eleven medical treatment facility (MTF) platforms 
to provide the capacity necessary to keep critical wartime medics 
proficient in battlefield trauma care. It also seeks to increase MTF 
recapture of DOD beneficiary specialty care by optimizing operating 
room access and efficiency.
    Our Graduate Medical Education programs consistently graduate 
residents fully prepared to provide excellent clinical care in the 
inpatient, outpatient and deployed settings. The outstanding 
performance of our residents on board certification exams is just one 
marker of the success of our numerous training programs, many of which 
are partnered with leading civilian institutions throughout the 
country, including Wright State and Cincinnati University in Ohio; 
Saint Louis University in Missouri, and the Universities of 
Mississippi, Texas, Nevada and California.
    We partner with local civilian medical facilities to support the 
Sustainment of Trauma and Resuscitation Skills Program, enabling home-
station clinical currency rotations in private sector level one trauma 
centers. Our Centers for Sustainment of Trauma and Resuscitation Skills 
is an immensely successful partnering endeavor that provides immersion 
trauma skills training with some of the great trauma centers in the 
Nation--R. Adams Cowley Shock Trauma Center in Baltimore, Maryland; 
University Hospital in Cincinnati, Ohio; and St. Louis University 
Medical Center, Missouri. Nearly 800 physicians, nurses and technicians 
completed this training in 2008; many of them deployed soon after and 
reported being very well prepared for their roles in combat medicine.
    Working closely with our Department of Veterans Affairs partners, 
we continuously strive to streamline the system for all our personnel 
to include our wounded, ill and injured Airmen. A major success in this 
partnership is our joint ventures. The Air Force has four of the eight 
existing DOD/VA joint venture sites--Elmendorf AFB, Alaska; Kirtland 
AFB, New Mexico; Nellis AFB, Nevada; and Travis AFB, California. Three 
additional sites are under consideration or in development at Keesler 
AFB, Mississippi; Buckley AFB, Colorado; and Eglin AFB, Florida. These 
joint ventures offer optimal healthcare delivery capabilities for both 
our patient populations, while also serving to make the most of 
taxpayer dollars.
    The Disability Evaluation System pilot program is a joint effort 
that resulted from the Commission on Care for America's Returning 
Wounded Warriors. The goal is to simplify healthcare and treatment for 
injured Service members and veterans and to deliver benefits as quickly 
as possible. Malcolm Grow Medical Center at Andrews AFB, Maryland was 
one of the initial three military medical treatment facilities in the 
National Capital Region to participate. The pilot streamlined and 
increased transparency of both the medical examination board process 
and the VA disability and compensation processes. In the pilot, both 
processes now occur concurrently, provide more information for the 
member during the process, and supply comprehensive information 
regarding entitlements from both agencies at the time of the 
separation. Continued evaluation of the study is slated to occur at 19 
more military installations, to include Elmendorf AFB, Alaska.
    Cutting-edge research and development initiatives are critical to 
building the future AFMS. The Virtual Medical Trainer is a continuation 
of existing efforts to develop advanced distributed learning. This 
project focuses on the development of training for disaster 
preparedness and medical care contingencies, addressing such areas as 
equipment, logistics, and war readiness skills training. Extensive work 
has been done to increase simulation in all of our hospitals and trauma 
training centers. Shared simulation with our university partners 
improves care and patient safety for both civilian and military 
patients. Virtual or simulation capabilities are a very cost-effective 
way to train and prepare our medics to do a variety of missions.
    Keesler AFB, Mississippi is studying advanced technologies to 
include robotic microscopy and virtual (whole slide) imaging. Eight 
MTFs have the robotic microscopes, and efforts are underway to obtain 
connectivity between MTFs and the VA Medical Center at Omaha, Nebraska. 
Once fully operational, this system allows general clinicians remote 
access to expert advice, diagnosis, and mentoring, and provides high 
quality standard of care independent of location.
    Similarly, telemedicine is vastly expanding the capabilities of our 
existing resources. Wright-Patterson AFB, Ohio radiologists and 
clinicians are successfully providing consultation services across the 
Air Force, and this year the project is slated to extend to Landstuhl 
Army Medical Center, Germany, and RAF Lakenheath, England. Automated 
Identification and Data Collection, a new business process study at 
Keesler AFB, Mississippi will identify opportunities for radiofrequency 
identification and barcode technologies in military medicine. We are 
exploring how to improve clinical and administrative processes in 
medical equipment management and repair, patient flow analysis and 
management, bedside services, medication administration, and surgical 
tray management.
    Successfully building and sustaining the AFMS requires continued 
focus on the physical plants we occupy to perform our mission. We 
greatly appreciate the tremendous support you have provided to 
recapitalize Air Force aging medical infrastructure. We're excited 
about our plans to improve facility restoration and sustainment and to 
move forward with sorely needed medical military construction (MILCON) 
projects.
    Green design initiatives and energy conservation continue to be 
high priorities for the Air Force. We are incorporating these into AFMS 
MILCON and restoration projects for our MTFs. We use the nationally 
accepted benchmark--Leadership in Energy and Environmental Design--to 
design and construct buildings with sustainable design elements. I'm 
pleased to share some recent examples, such as exterior solar shading 
panels used in Keesler AFB's Base Realignment and Closure (BRAC) Tower 
and Diagnostic Imaging Center projects. A grey water system 
incorporated into Tinker AFB, Oklahoma MILCON recycles treated 
wastewater generated from MTF hand-washing for use in toilets or 
irrigation systems, decreasing or eliminating the amount of fresh water 
used for those purposes. Our projected fiscal year 2010 Air Force 
MILCON projects will incorporate enhanced day lighting concepts 
allowing more natural light into buildings and office spaces. Our 
energy optimization efforts are both environmentally and fiscally 
beneficial and enable us to better serve military members and their 
families.
    Our most critical building block for the future is our people. With 
these unprecedented advances in training and research, it is 
understandable that the Air Force continues to attract many of the 
finest health professionals in the world. In fiscal year 2008, the Air 
Force Medical and Dental Corps exceeded their Health Professions 
Scholarship Program (HPSP) recruiting goals. HPSP is our most 
successful recruiting tool, and we are seeing positive early trends in 
retention from our other financial assistance programs and pay plans. 
We are working closely with our personnel and recruiting communities at 
targeting accession and retention bonus plans to ensure full and 
effective staffing with the right specialty mix to perform our mission.
         building a joint and effective military health system
    The AFMS is committed to working with our Sister Services to 
support joint medical capabilities and leverage common operating 
platforms such as logistics, research and development and information 
management/information technology. We are well on the way to bringing 
BRAC plans to fruition. The Joint Task Force National Capital Region 
Medical, or JTF CapMed, is moving forward with plans to combine the 
Army, Navy, and Air Force assets into the new Walter Reed National 
Military Medical Center. Malcolm Grow Medical Center at Andrews AFB, 
Maryland is our component to JTF CapMed and serves as an important care 
delivery platform in the NCR as the east coast hub for aeromedical 
evacuation. Since late 2001, Andrews AFB has welcomed home and cared 
for more than 33,000 patients arriving from Operations Enduring Freedom 
and Iraqi Freedom, U.S. Central Command, U.S. European Command and U.S. 
African Command.
    The BRAC plans are also moving forward in San Antonio, Texas, to 
integrate Army and Air Force MTFs into the new San Antonio Military 
Medical Center (SAMMC), creating the largest inpatient facility in DOD. 
SAMMC has integrated nearly all clinical activities and has led the way 
in bringing the Air Force and Army together in an integrated platform 
that meets the Air Force, Army, and joint mission requirements all the 
while maximizing the use of existing resources.
    Also in San Antonio is the Medical Education and Training Campus 
(METC). This is an important step toward what leaders are calling the 
largest consolidation of training in the history of the Department of 
Defense. Upon completion in 2011, the joint campus, led by tri-Service 
leadership, will centralize all Army, Navy and Air Force basic and 
specialty enlisted medical training at Fort Sam Houston, Texas. At 
Wright-Patterson AFB, Ohio, the 711th Human Performance Wing has been 
activated and will serve as a cutting-edge joint center of excellence 
for human performance and aerospace medicine.
    These are but some of the ways and places we are working toward 
joint solutions that enhance mission support and benefit the quality of 
medical care for our warfighters and their families.
   bright future and good time to be in the air force medical service
    Air Force medics make a difference in the lives of Airmen, 
Soldiers, Sailors, Marines, family members, coalition partners and 
civilians. They take pride in every patient encounter and earn our 
Nation's trust--everyday!
    As we look to the way ahead, I see a great future for the AFMS, 
built on a solid foundation of top-notch people, outstanding training 
programs and strong partnerships. It is indeed an exciting, challenging 
and rewarding time to be in Air Force medicine! I couldn't be more 
proud.
    We join our Sister Services in thanking you for your enduring 
support.

               FEDERAL HEALTH CARE CENTER AT GREAT LAKES

    Chairman Inouye. I'd like to begin questioning now. Admiral 
Robinson, on October 1 of this year the Great Lakes Naval 
Health Center and the North Chicago Veterans Center will be 
merging. It's not the first DOD-VA activity, but it is without 
question the largest. I'm certain you have, as we have learned, 
legislative and other problems, problems with labor unions, 
problems on the commingling of funds and such.
    Can you tell this subcommittee what is being done at this 
moment?
    Admiral Robinson. The Department of the Navy, working in 
conjunction with the Department of Veterans Affairs, are coming 
together to establish the Federal Health Care Center (FHCC) at 
Great Lakes. We are working to make sure we have a seamless 
healthcare operation in north Chicago that will take care of 
the healthcare needs of the uniformed servicemembers in the 
Great Lakes area, as well as the beneficiaries of the VA 
system.
    There are a number of significant obstacles that I think 
will be overcome, but that is not to say they are not there. 
The first and most notable among them is the IM/IT system. That 
revolves around using VISTA and using ALTA, which system is the 
best. They are incompatible in the sense that we can't use both 
of them together. They do different things for both systems. 
Yet, we need to have one IT system that we can utilize in the 
facility.
    There have been a number of work-arounds. This is not an 
insoluble issue, but it is a major issue that we have to get 
resolution with, and in fact Navy medicine is pledged, along 
with VA, to make sure that we can come to some understanding of 
how we can use the best parts from both systems so that we 
don't destroy either VISTA or ALTA, but at the same time we can 
have one system at the VA.
    There are also issues around recruitment and employee 
relationships at Great Lakes. There are also issues that from 
my perspective as Surgeon General are very large issues in 
terms of credentialing, particularly of our ancillary 
healthcare providers. The VA and how they credential is 
different than what we do in DOD because very few VA providers, 
perhaps none, but very few VA providers are operationally 
oriented or deploy. But I have to make sure my providers 
maintain their operational medical skills so that when I tap 
them to deploy to an operational area they are full up. So I 
have to make sure that we have the credentialing issues that 
are taken care of and that we are going to solve problems that 
I may have in the Navy.
    Then there are the funding streams for both DOD and DVA, 
how those funds matriculate through our services, and the 
oversight of those funds. All of those issues, and this is just 
a very small example, have to be dealt with and we have to 
maintain the equities and missions of both DVA and DOD.
    Again, these are a few examples of the issues that are 
involved. Mr. Chairman, I think that we are going to solve all 
of these issues, but I will also say, with openness, that these 
are very difficult issues, and we're working them hard. So 
there are not easy solutions, but I do think that we can get to 
a place where we can have an excellent healthcare facility at 
FHCC.
    Chairman Inouye. So you're telling us that on October 1 all 
of the issues will not be fully addressed?
    Admiral Robinson. All the issues are not going to be fully 
addressed on October 1. But I think that if we take an 
iterative approach to the issues of how we serve our 
beneficiary population, how we serve our patients, can the 
doors open and can we, in fact, be an effective healthcare 
institution for DVA and DOD patients, I think the answer is 
yes.
    I do not think that all of the issues that I have talked 
about will be fully resolved, and in fact I think that that is 
absolutely essential in order to get to the quality care and 
the quality of service that we in DOD and DVA have to have in 
order to take care of patients.
    Chairman Inouye. There is a problem that is not in your 
jurisdiction, but as a result of these joint facilities we have 
a Veterans Committee, we have an Armed Services Committee, and 
so the matter of who has control is becoming a bit sensitive 
now. But that's not your problem.
    Admiral Robinson. Yes, sir.

                         CENTER FOR EXCELLENCE

    Chairman Inouye. Can I ask a question of General 
Schoomaker. Everywhere you turn there seems to be a center for 
excellence. We have been creating one for traumatic brain 
injury. I support that. We have one for amputees, for hearing 
and vision. Do you believe that by creating centers we give the 
impression that only these centers are the ones that we are 
concerned with and other matters are not of interest to us?
    General Schoomaker. Well, sir, I think I understand your 
question and I understand the concern. I think the efforts of 
those that have chartered those centers, as well as the 
execution of the centers, the leadership of the centers, are 
working very hard not to focus so much on brick and mortar 
solutions, but to act as clearinghouses. I think increasingly, 
with the generosity of the American public and the innovation 
that occurs within the academic community, with other Federal 
research and treatment entities like the National Institutes of 
Health, we are seeing--and the use, that's already been alluded 
to by Admiral Robinson, the use of information technology--we 
have an opportunity for these centers really to be the nexus of 
knowledge networks and to harvest best ideas, to find potential 
solutions, while also monitoring where problems are arising, 
and to move funding, to move energy, to move focus to those 
physical brick and mortar sites where that can be done.
    I think this is--certainly the effort that's underway in 
the Defense Center of Excellence for Traumatic Brain Injury and 
Post-Traumatic Stress Disorder and Psychological Health, I 
don't think anyone--certainly I do not conceive of this new 
center of excellence as being the sole brick and mortar site 
and only repository of good research and clinical activity. But 
certainly it is in a position to reach out to anyone who can 
offer solutions to the problems that are arising.

                 SERVICEMEMBER WELLNESS/FAMILY ADVOCACY

    Chairman Inouye. Admiral and General Roudebush, as you've 
indicated, there's been a rise in suicides, substance abuse, 
spousal abuse, children abuse. Are we making a joint effort of 
all services, or just each service on its own?
    General Roudebush. Well, sir, in terms of approaching what 
are very complex problems that cross a variety of areas when 
you're caring for the active duty soldiers, sailors, marines, 
and caring for their family members, we do approach that in a 
service-specific way which attends to the culture that those 
families both exist within and operate within, whether it's an 
Army post or a Navy station or an Air Force base.
    So we each have an approach that I think is adapted to the 
operational perspective of how we operate, but also attends to 
that culture. But we also work across services in terms of 
sharing both successes and issues, sharing programs, sharing 
insight into what we're doing, and operate I think effectively 
across those areas.
    Now, I will tell you that as we are able to reduce stigma, 
as we are able to increase visibility of issues, we are seeing 
more. Perhaps we're seeing more because there are more, and we 
need to be very attentive to that. But I think we're also 
seeing more because we are able to see more, and give us the 
opportunity to engage, hopefully intervene, to assure that 
proper care is provided at a time when it can make a 
difference, and do it either within the service construct or 
within the joint construct, because we certainly care for Navy 
and Army families in our Air Force facilities, and likewise our 
Air Force families are very well cared for in Army and Navy 
facilities.
    So it's incumbent upon us to work jointly, but we also need 
to work separately to assure that we are getting at the issues 
within our operational platforms.
    Chairman Inouye. Thank you very much.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you.

                          MEDICAL EVACUATIONS

    Admiral Robinson, more marines will be deployed to 
Afghanistan in coming months, and I've been informed that the 
standard time required for medical evacuations in Afghanistan 
are considerably different from those in Iraq. Would you 
comment on the adequacy of the resources that will be available 
and the response time for medical evacuations as more marines 
and corpsmen are involved in that theater of operation?
    Admiral Robinson. Yes, sir, Mr. Vice Chairman. The 
Afghanistan area of operation is substantially different than 
the area of operation in Iraq, both from a terrain and an 
infrastructure point of view. Afghanistan has desert terrain, 
which can reach upwards of 140 degrees Fahrenheit, all the way 
to mountains, which are very, very cold, very sub-zero weather. 
Additionally, infrastructure in terms of roads are almost 
completely lacking in Afghanistan, as opposed to other areas, 
which makes the necessity for how we operate there from a 
medical point of view a lot different in terms of mobility and 
in terms of air evacuation.
    The golden hour which I as a surgeon and as a former chief 
of surgery at Portsmouth Naval Hospital, having trained many 
general surgeons in trauma, is an age-old edict that we've used 
in surgery since it was first developed at the University of 
Maryland Shock Trauma. It's based upon the work from the 
Vietnam war and also the fact that if we can utilize air 
evacuation of critically injured personnel and get them to 
immediate definitive medical facilities we can save lives, and 
in fact that is absolutely true.
    One of the things that we in Navy, Army, and Air Force 
medicine also utilize is the effective resuscitative capability 
that the Army medic, the Navy corpsman, and the Air Force medic 
utilize on the ground at the time of injury, such that we can 
start definitive care. We can start adequate resuscitation of 
injured personnel, stabilize them, control their airway, until 
adequate evacuation capability is there.
    So the 60 minutes and the air evacuation, which is more 
difficult in Afghanistan, is not something that is necessarily 
going to reduce either the capability or the success of trauma 
surgery or trauma capability that we've had in the past. I only 
emphasize that from a medical and a surgical point of view 
because very often the golden hour appears to be truly a 60-
minute evolution. It actually includes the ability to stop 
bleeding, to make sure that we have ABC, airway breathing, and 
circulation reestablished, to make sure that we have 
resuscitation reestablished, to make sure that we've done those 
definitive measures for the injured personnel who are going to 
in fact survive such that we can get them to definitive care. 
And in fact, if we get them there 2 or 3 hours after injury, 
that is usually adequate as long as resuscitation has occurred.
    So the long answer to the short answer: We, Navy medicine, 
Air Force and Army medicine, will be capable of making sure 
that we give the same care to our trauma victims in 
Afghanistan.
    Senator Cochran. That's very impressive and I think 
deserves commendation for the excellent leadership you're 
providing in this area.

           SUFFICIENT SUPPLIES AND PERSONNEL FOR AFGHANISTAN

    General Schoomaker, with the increase in personnel deployed 
to Afghanistan, do you believe that you will have sufficient 
medical personnel and medical supplies to support this troop 
increase?
    General Schoomaker. Sir, I think medical supplies is 
probably the easier of the two to answer. I don't envision any 
rate-limiting element of medical supplies or equipment there. 
We have I think evolved the medical logistics capability of the 
entire CENTCOM area of operation dramatically over the last 6, 
7 years, focusing on the so-called theater level medical 
material centers, one of which is in Europe, one of which is in 
Qatar, and we have distribution sites within Afghanistan.
    So I don't have concerns so much about that. Medical 
personnel I think is a challenge to us. This is one of those 
areas, quite frankly, that the coordination among the three 
services is most important. The Army right now is very heavily 
engaged both in Afghanistan and in Iraq in providing medical 
support. As we draw down troop levels in Iraq, we're going to 
continue to have fairly robust medical support because, as we 
all know, you have to support the areas in which troops are 
operating in.
    So we're going to continue to see Army medics and, for that 
matter, Navy and Air Force as well, maintained in Iraq. So 
we're cooperating I think with the CENTCOM planners and with 
the joint medical planners within Afghanistan to provide the 
resources that we can and the Navy and the Air Force, I think 
as you heard earlier, the air base at Bagram now, and that 
level three or role three facility now is largely Air Force, 
after having been started by the Army and transitioned to the 
Air Force. The Navy is going to play a more important role in 
the south.
    So yes, we're stretched. But we're working as closely as we 
can with our joint partners to cover those areas of 
responsibility.

                     TROOP INCREASE IN AFGHANISTAN

    Senator Cochran. Will the increase in deployment affect 
rotation schedules and deployments of surgeons, as well as 
medical specialists? What is your expectation?
    General Schoomaker. Well, sir, everybody plays a role in 
this in Army medicine. It's not recognized by many people, but 
some of our most heavily deployed specialties are not surgeons 
at all; they're pediatricians, who serve as general field 
surgeons, physicians assistants. Our psychologists, 
psychiatrists, our mental health workers, are very heavily 
engaged.
    Do I think it's going to change the rotation length? No, 
sir, it's not going to change the rotation length. In fact, 
we're working to come closer to what our colleagues in the Air 
Force and the Navy have, which are shorter rotations, even if 
they're more frequent. We know from talking with our families 
and talking with our specialists that not only can they 
maintain the broad range of skills that they require in their 
specialties if they're deployed for a shorter period of time, 
even if that turns into more frequent deployments, but the 
families are much more tolerant of shorter rotations, 
especially 6 month or so rotations.
    So we're working very hard to do that and getting support 
from the line for that.
    Senator Cochran. Thank you very much.
    General Roudebush, what role will the Air Force have in 
supporting the troop increase in Afghanistan?
    General Roudebush. Sir, the Air Force is in Afghanistan, as 
General Schoomaker pointed out. We have the Air Force theater 
hospital at Bagram, which is jointly manned with the Army, but, 
as General Schoomaker pointed out, primarily Air Force, as well 
as a number of other smaller facilities that are either Air 
Force or jointly manned. We will certainly sustain those and 
over time being increasing Air Force medical laydown to support 
what you initially pointed out with Admiral Robinson in terms 
of working the medevac support time, which I believe you know, 
but I will note, our line leadership has really leaned into 
supporting that with additional rotor capability. The Air Force 
is providing additional helicopter assets and other assets to 
assure that we can be as timely as we need to be, and I think 
Admiral Robinson laid that out very well.
    So we will be certainly supporting the increased troop 
laydown. However, I think there's two other points that I would 
note. The Air Force and Navy and Army are also deeply involved 
in rebuilding the nation. We have embedded training teams 
working with the Afghan military and police to rebuild their 
medical infrastructure, to mentor the Afghanis, so that they 
can be ultimately self-sufficient; provincial reconstruction 
teams doing a great deal of work to bring that nation forward 
to the point where it can in fact operate on its own 
recognizance.
    The second point I would make is that we have significant 
support from our North Atlantic Treaty Organization (NATO) 
allies on the ground in Afghanistan from a medical perspective, 
which we also integrate and leverage to assure that we have not 
only a joint approach to this, but we also have a coalition 
approach. So as we look at the overall military laydown in 
Afghanistan, there are a variety of perspectives that play into 
this that I think will assure that our forces are best 
positioned to do the mission that they are being sent there to 
do.
    Senator Cochran. Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    Senator Bennett.
    Senator Bennett. Thank you very much, Mr. Chairman.
    Gentlemen, let me thank you for your service and your 
expertise. I come to this subcommittee new, so I don't have as 
intelligent or well-informed questions, but the only way I'm 
going to learn is to ask some stupid ones. So bear with me.

                        MEDICAL HEALTH SCREENING

    General Schoomaker, you talked about general wellness, that 
is physical, psychological, spiritual, et cetera, et cetera. I 
think that ties into this whole question of mental health. The 
discussion about suicides and child abuse and other things has 
been an interesting one to listen to. In this process of trying 
to make sure that the individuals who serve in the armed forces 
are well-rounded and balanced in every area, is there any 
prescreening of people who might be susceptible, more 
susceptible to some kind of mental trauma and preparation prior 
to their going into deployment, so that they might, if 
something happens to them, have some previous training or 
preparation or expectation that could help them after the fact 
deal with the problem more than if it just hit them for the 
first time?
    General Schoomaker. Yes, sir. I think let me talk first 
about the screening because I think that's fairly--that I can 
deal with fairly quickly. That is that, aside from the usual 
accession screening, to include medical and psychological 
screening that occurs on any inductee, we don't have any 
specific screens that are used or selections that are used, 
because, quite frankly, I don't know that we have any 
determinants right now for success or failure in terms of the 
whole fitness of an individual. We use physical fitness 
monitors and assessments of general health, but other than that 
none.
    I think one of the promises of the research that is now 
being conducted in traumatic brain injury, and especially in 
psychological health potentially, is finding early markers, if 
you will, and determinants of psychological injury. There are 
emerging theories and I think there's some empiric evidence to 
support that post-traumatic stress reaction, for example, which 
occurs in a very large number of people subjected to trauma, 
whether that's in combat or the trauma of natural disaster or 
rape or violent crime or family violence, motor vehicle 
accidents, might be the persistence of a dysfunctional flight 
or fight reaction, and that there may be markers that we can 
discover and alert people very early to that emergence.
    In the meantime, what we're doing in the Army is, through 
the use of a set of tools, a suite of training tools called 
Battlemind training, developed by the Walter Reed Army 
Institute of Research, we are building resilience in deploying 
soldiers before they deploy, during the deployment, and then 
upon redeployment. This suite of tools, Battlemind, which has 
become sort of our branded name for that, is one of the 
cornerstones of resiliency training. It's been one of the only 
instruments that we're aware of that has actually been shown to 
reduce during deployment the incidence of new post-traumatic 
stress problems.
    The chief of staff's initiative in comprehensive soldier 
fitness is that attempt writ large. The idea here is that we 
have spent a lot of our time as a corporation, as an 
institution, looking only at the negative events--suicides, 
family violence, driving while intoxicated or drug-associated 
crimes or misconduct, and emergence of post-traumatic stress 
reactions and post-traumatic stress disorder if not addressed 
early enough and reversed. What the Army is trying to do is to 
find those determinants of resilience and growth and post-
traumatic growth, rather than to turn adversity into a trauma 
and into an irreversible psychological injury, is to build the 
capacity of individuals through a multidisciplinary approach 
which works on the positive.
    So we're working with some of the leaders in positive 
psychology and other tools to promote that aspect, rather than 
only measure in terms of what negative events occur. In so 
doing we hope to move the whole population of soldiers and 
families away from the threshold where they become 
dysfunctional.
    Senator Bennett. Thank you. That's really helpful.
    Now, I was interested in the comment that you get 
significant increases, to use the business language, 
significant increases in productivity out of the troops if you 
alter the length of their deployment. I'm guessing here, but 
are there any studies going toward the question of frequency of 
patrols, for example, during the deployment, where you send 
marines into a nasty neighborhood in Fallujah day after day 
after day, as opposed to every other day or every third day or 
something of that kind?
    Is there any research in this regard or any attempt to find 
research in this regard that might have the same impact that 
you have found with respect to the overall length of 
deployment, 6 months gives you better soldiers even if there 
are more deployments than if you put them there, say, for 18 
months and kind of leave them alone. Is there any further 
research in the area I've talked about, about their exposure to 
traumatic situations on deployment?

                      IMPACT OF DEPLOYMENT LENGTH

    General Schoomaker. Well, sir, first of all, you may have 
inferred something that I did not intend to imply, that is that 
productivity of a soldier in general is somehow linked to the 
length of deployment. The chairman I think or the vice chairman 
earlier asked about the tolerance of recurrent deployments of 
medical specialists or surgical specialists as a function of 
the length of the deployment. My comment there is that we 
observe that the skills of, for example, a general surgeon 
begin to deteriorate after a certain amount of time in theater 
because they're not exploring and not using the full spectrum 
of what a general surgeon would use.
    Senator Bennett. I did misunderstand you, then. I got the 
impression that there were data that suggested the front line 
troops would benefit from more frequent, but shorter, 
deployments. You're saying that that's not the case, and I 
misunderstood you.
    General Schoomaker. Yes, sir. I think we have ample 
evidence through a series of annual iterative surveys called 
the mental health advisory teams, MHAT. We're in our sixth 
iteration of this, the sixth year. That team is right now in 
Iraq gathering data. We do have ample evidence that the length 
of deployment is associated with increased problems of the 
development of post-traumatic stress and other problems of 
soldiers in theater.
    So I think you got that exactly right, sir. As we were in 
that period of the surge when we had 15 month long deployments, 
there was no question that the longer that deployment went the 
more problems soldiers had.
    We do find, as I mentioned earlier, that if those soldiers 
pre-deployment and during deployment are exposed to Battlemind 
training and sort of re-inoculation with this, it reduces the 
incidence of that. So as I said before, it has been shown to be 
effective.
    But as far as, so to speak, the productivity of the soldier 
or the effectiveness of a soldier, I would not ask you to infer 
from what I've been describing here that a soldier's 
effectiveness is improved by shortening the length of 
deployment. In fact, operational commanders would probably take 
me--take exception with some of that as a grand statement.
    Senator Bennett. Thank you. I appreciate that clarification 
because as I've studied the Vietnam war one of the things that 
was said was that you just got your unit cohesion going and 
then you'd pull them out and put in a bunch of green troops in, 
and that was one of the problems. So I'm glad to get that 
resolved.
    Thank you, Mr. Chairman.
    Chairman Inouye. Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman.
    Thank you all for your testimony today.

                         DISABILITY EVALUATIONS

    General Schoomaker, let me start with you. How are things 
going with the DOD and the Department of Veterans Affairs 
expansion of the pilot programs to expedite the processing of 
injured troops through the disability evaluation system?
    General Schoomaker. Ma'am, I think that's going very well. 
As you know, or at least I've gone on record to say that the 
pilot, although a very, very good effort and one that we 
support very, very vigorously--in fact, once the pilot was 
established in those few sites like Walter Reed, I've done 
everything in my power to implement it as widely as we can. 
Once we learned that we can simplify bureaucratic morass and we 
can make it more user-friendly for families and soldiers, I 
think we ought to be doing it as quickly as we can.
    But I've also said that I'm concerned that it doesn't get 
at one of the most important and most disaffecting parts of our 
system of physical disability and evaluation, which is the dual 
adjudication of disability, one by the Department of Defense 
for the unfitting condition, for which the soldier, sailor, 
airman, marine, coast guardsman is awarded a specific 
disability rating linked to benefits, not the least of which is 
benefits for TRICARE for him or herself and their families; and 
then the Veterans Administration adjudicates a second, 
comprehensive level of disability based upon the whole person.
    Senator Murray. I thought we were all going to go to the 
same system.
    General Schoomaker. Ma'am, until we change the law, my 
understanding is that we cannot get away from the dual 
adjudication of disability for anyone in uniform. We still have 
the single unfitting condition for the service member and the 
whole person concept for the VA. What we need in my 
understanding is legislative relief to be able to bring those 
two together.
    But every other aspect of this highly bureaucratized system 
I think we're working very hard with the VA in doing, and we're 
encouraging that and supporting that in every way we can.
    Senator Murray. Admiral?
    Admiral Robinson. I think that General Schoomaker has 
summed up well what the issues are. I think that the Federal 
Health Care Center in Chicago actually underscores some of the 
difficulties of the DVA and DOD system in terms of trying to--
your question is specifically with the disability evaluation 
system. But we have two chains of command that work vastly 
different, with different sets of rules and regulations, and 
trying to bring them together has been the real challenge.
    Additionally, the same issues that affect the FHCC, the 
Federal Health Care Center in Chicago, regarding IM/IT--that 
is, VISTA and ALTA--are the same sorts of things that affect 
the merger of the disability evaluation system. How does that 
relate? If we have one system, we're going to have to have one 
medical IT way of dealing with those beneficiaries and whatever 
their medical needs may be.
    That's a very small example, but those come together. In 
terms of my eyes-on Surgeon General of the Navy at the 
Department of Defense for the oversight committees that very 
often General Roudebush and General Schoomaker attend with me, 
both DOD and DVA and all of the reps in between and the Marine 
Corps, and all the other people involved have been working 
tirelessly to make this work, looking first at our patients and 
their needs and not at bureaucratic or other issues.
    I will say that across the board we have done that. We're 
looking at patients and what they need, not at the 
institutional obstacles. I only bring the institutional 
obstacles up because at the end of the day they exist and they 
make a difference.
    Senator Murray. General Roudebush.
    General Roudebush. Yes, ma'am, I think you raise a very 
interesting question. I'd like to offer perhaps an observation 
on your question, but also give it perhaps a little different 
perspective.
    The Department of Defense and the Department of Veterans 
Affairs have different missions. Where we come together, the 
interface really most directly is as we transition an 
individual from Department of Defense--Army, Navy, Marine 
Corps, Air Force--to the Department of Veterans Affairs. We do 
need to assure that that transition is seamless.
    Now, DOD, in my instance the Air Force, needs to determine 
fitness for duty in terms, is that individual fit to serve in 
the mission for which they're trained. The VA takes a rather 
broader look at how that individual is going to function back 
in the private sector. So these are two rather different 
determinations, and I think to the extent that we simplify the 
transition to assure that these great men and women are cared 
for, only have to fill out paperwork once, have a smooth move 
from DOD activities to VA, to include benefits, all benefits, 
is very important.
    Our pilot projects I think are helping in that regard. For 
us, we're going to be expanding to a variety of locations, very 
small, Vance in Oklahoma for example, to very large or larger, 
Elmendorf in Alaska. I think that will continue to be 
instructive.
    The metrics show that we are, in fact, reducing the time, 
but not to the time that we would consider to be appropriate. 
But as we bring these two great institutions, DOD and VA, 
together, we also have other experiences. DOD joint ventures, 
for example. We've got a great example at Keesler, where we use 
centers of excellence, what the VA brings very well within 
their operation, what the Air Force brings in our operation, 
and we leverage each other's capabilities, maintaining mission 
focus for the Air Force, for the VA, but really leveraging each 
other's capabilities.
    So I think those kinds of opportunities and experiences are 
important, and also help instruct such things or inform such 
processes as how to best transition these men and women from 
DOD to VA. So I think we're making progress. We are not where 
you want us to be. We are not where we want to be. But I think 
we are making progress in really identifying the issues that 
need to be attended to as we work this.
    Senator Murray. No one said it was going to be easy.
    General Schoomaker. No, ma'am.
    Senator Murray. But we're working, and we need to get 
there. Okay.
    General Schoomaker. Thank you.
    Senator Murray. Can you provide me with an update on the 
implementation of the comprehensive TBI registry that we 
started, I guess it was 1 year or so ago, including a single 
point of responsibility to track incidence and recovery, 
General Schoomaker?
    General Schoomaker. I will take that for the record, ma'am.
    Senator Murray. Could you?
    General Schoomaker. Yes, ma'am.
    [The information follows:]
                              TBI Registry
    Traumatic brain injury incidence and recovery is tracked through 
various complementary mechanisms at the VA and the Department of 
Defense (DOD). The National Defense Authorization Act for Fiscal Year 
2008 states that the Secretary of Veterans Affairs shall establish a 
registry to be known as the ``Traumatic Brain Injury (TBI) Veterans 
Health Registry.'' The Act further specified that the Secretary of the 
VA collaborate with facilities that conduct research on rehabilitation 
for individuals with TBI, facilities that receive grants for such 
research from the National Institute on Disability and Rehabilitation 
Research (NIDRR), and the Defense and Veterans Brain Injury Center 
(DVBIC) of the DOD and other relevant programs of the Federal 
Government. The VA, NIDRR, and DOD have collaborated in this initiative 
with the VA as lead. The summary below is based upon those 
collaborations. Further details can be provided by the VA.
TBI operational Surveillance: TBI Veterans Health Registry
    The VA has developed a mechanism to collect and consolidate all 
relevant medical data relating to the health status of an individual 
who served as a member of the Armed Forces in OIF or OEF and who 
exhibits symptoms associated with TBI, and who applies for care and 
services furnished by the VA; or files a claim for compensation on the 
basis of any disability associated with such service. Relevant data 
will be merged, and de-identified. The VA will then enlist NIDRR to 
assist with analysis of the data and timely production of reports.
    Status: All components of this program have been designed and will 
be initiated very shortly.
Research Database: TBI Veterans Health Registry with Additional 
        Information
    As per the NDAA for fiscal year 2008, additional information the 
Secretary considered relevant and appropriate with respect to 
individuals will be included in the Registry if the individual grants 
permission to include such information, or is deceased at the time the 
individual is listed in the Registry. The additional information to be 
collected for patients providing informed consent in any of the VA 
PolyTrauma Centers includes a structured TBI Registry with additional 
data elements developed in coordination with the agencies listed in the 
NDAA for fiscal year 2008. These collaborations permit comparisons of 
Registry information with data collected on civilian TBI patients and 
DOD patients and returning service members. The VA TBI Registry has 
substantial overlapping data elements with the civilian Model Systems' 
TBI Registry and the existing DOD TBI Registry, which will facilitate 
future comparative studies.
    Status: This program, involving additional information for patients 
providing informed consent, has been submitted as a protocol to the 
Institutional Review Boards at the PolyTrauma Centers.
National Archive Database
    In addition to the secure database developed as a collaboration 
between VA and NIDRR, additional databases may facilitate the sharing 
of selected elements of the TBI Veterans Health Registry with 
Additional Information with data collected within the DOD and across 
other civilian agencies and centers. The pooling of shared, common data 
elements will facilitate understanding of the course, diagnosis, and 
correlates of TBI in returning service members. The National Data 
Archive, a recent collaboration between NIH and DVBIC will provide for 
secure upload and storage of all original and processed images, 
associated clinical and genomics data for TBI, Post Traumatic Stress 
Disorder (PTSD) patients, and other relevant patient populations.
    Sharing of phenotypic, imaging, and genomic data from a central 
secure repository will include the ability for researchers to validate 
research results, pool standardized information to improve statistical 
significance, use data collected by others to explore new hypotheses 
all in effort to improve PH and TBI treatments, use sophisticated 
analysis tools to gain a better understanding of risk factors and 
mitigating factors in PH and TBI.

    General Schoomaker. That is being--the focus in Army 
medicine is to direct all of our energies and our talents 
toward the Defense Center of Excellence for Traumatic Brain 
Injury and Psychological Health under Brigadier General Loree 
Sutton.
    Senator Murray. Could you get back to me on that? It was 
one of our huge questions 1 year ago; making sure that people 
were registered and we were tracking them. So if you could 
please get back to me on that.
    General Schoomaker. Yes, ma'am.

                    RESERVE HEALTHCARE REQUIREMENTS

    Senator Murray. Let me ask all of you: The Reserves and 
particularly the National Guard have some unique concerns when 
they're deployed. We continue to hear from our folks out in our 
States about this, and obviously as we transition from Iraq to 
Afghanistan they're going to continue to be used. So my 
question for each of you is: Have you budgeted properly to 
accommodate for the Reserve components as they are going to 
need DOD healthcare into the future? General Roudebush, we'll 
start with you.
    General Roudebush. Ma'am, in the Air Force and I believe in 
the other services, we have separate funding streams. The Guard 
comes from the States, the Reserve comes from the Reserve 
dollars, and DOD comes from the defense health programs. Now, 
to the extent that we merge our interests and our activities we 
do cross-flow that very, very carefully.
    For us, for example, we assure that our Guard members and 
our Reserve members and our active duty members are tracked for 
completion of the post deployment health assessment and the 
post deployment health re-assessment (PDHA-PDHRA), and, in 
fact, our Guard and Reserve members are kept on active duty 
status, man-day status, until issues are resolved. So they 
retain full benefits as we work them through.
    But they do come from different streams of money. However, 
the oversight and the application of that is very coordinated 
and very integrated for the Air Force.
    Senator Murray. Admiral.
    Admiral Robinson. Your question is do we have adequate 
funds for the Reserve forces, and the answer is yes. Our 
Reserve forces have adequate funds. We have methods of making 
sure that our Reserve forces, once they come on active duty, 
are cared for just as any other active component member would 
be. As that Reserve component member goes off of active duty, 
the service member and his or her dependents are covered by 
TRICARE for approximately a 180-day period.
    If there is some limiting mental or physical disease or 
condition that would make it better for them to stay on active 
duty, they will remain on active duty. As they transition to 
the Navy mobilization platforms, NMPS, to the Reserve 
component, to the NOSCS, which are the local Reserve units back 
in their home towns or their home cities, they will go back 
into how we fund them from the Reserve component perspective.
    But the key is that we have a number of medical, mental 
health, and other areas that we track our Reserve forces, that 
we integrate our Reserve forces, and that we care for our 
Reserve forces, and we are funded adequately to do that.
    Senator Murray. General.
    General Schoomaker. My comments would echo my colleague's 
here, that we're well funded. They are separate lines for the 
Army National Guard, Reserve, and Army Reserve, and the active 
component. As the Admiral just commented, we're working very 
hard to ensure that any mobilized reservists or National 
Guardsmen while on active duty is kept healthy; if they incur 
an injury, a combat wound or an illness, that it';s fully 
treated and they're restored to health, including dental 
health. We made a major effort to restore dental health and 
hygiene before mobilized reservists and National Guardsmen are 
put back out into civilian life.
    Our warrior transition units are roughly 8,000 in total 
right now across 36 units and nine States, are made up of both 
active--of all three elements, all three components, to include 
National Guard and Reserve. They have full access to those 
warrior transition units. In fact, about one-third of our 
warrior transition units warriors in transition are soldiers 
who are returning from deployments or mobilizations who 
identified a problem that they have, and they're brought in and 
they're retained on active duty until we can take care of the 
problem.
    Senator Murray. Thank you.
    I appreciate a lot of the conversation that's already gone 
on regarding the increase in suicides and mental health. We 
have to stay focused on that, and I appreciate all of your 
earlier comments, so I won't ask you about that.

DEPARTMENT OF DEFENSE FISCAL YEAR 2008 REPORT ON SEXUAL ASSAULT IN THE 
                                MILITARY

    But I did want to ask you about another issue, because 
yesterday DOD made public the fiscal year 2008 report on sexual 
assault in the military, and it showed an 8 percent increase of 
reports of sexual assaults. Now, some are arguing that that 
increase illustrates the fact that victims are now more likely 
to report those crimes, but I find the trend very disturbing 
because these crimes are happening at all.
    I was part of the Women's Military History Month. A week 
ago I participated in the Army's panel on sexual harassment, 
assault prevention and response program, and clearly we all 
share the goal of eliminating sexual assaults in the military. 
But until that goal is achieved, I am very interested to hear 
from all of you about how the medical community is supporting 
the efforts to care for these victims' physical and 
psychological wounds in general.

                  SEXUAL ASSAULT AND RESPONSE PROGRAM

    General Schoomaker, I want to start with you.
    General Schoomaker. Yes, ma'am. First of all, I would say 
that the Army leadership and the Army as a whole shares your 
outrage with sexual assault and any increase in the incidence 
of these crimes. The Army has taken the approach that this is 
an assault, not just on the individual woman, but on the ethos 
of soldiers, of the warrior ethos, that this is not to be 
tolerated, and is taking a very active proactive role in 
education and prevention, which is on the shoulders of 
commanders.
    The medical side of this is that we are the response. We 
provide the examination. We help the woman through the stages 
of forensic evaluation. We have in all of our facilities, to 
include, as General Horoho can tell you, in our visit there 
last week her review of what's taking place in the deployed 
setting in Iraq.
    We have sexual assault response coordinators in each of 
these facilities, either working with the assets we have in 
uniform in the uniformed facility, or in a case when I was the 
installation commander at Fort Dietrich, Maryland, we leveraged 
expertise of the community of Frederick, Maryland, to assist us 
through Frederick Memorial Hospital.
    So we do the counseling, we do the examination. We help the 
woman. We go--we help her through the process that she has to 
go through in order to gather the necessary information about 
the assault and to investigate the crime. But we also do the 
follow-on counseling and help coordinate all those services 
that are necessary for her.
    Senator Murray. Admiral.
    Admiral Robinson. Senator Murray, the Navy has the Sexual 
Assault Victims Intervention Program (SAVI), which was 
established in 1994. From that program has come an effort to 
not only educate people as to what is a sexual assault and to 
bring it to a level of visibility so that we are talking about 
it in our commands and it becomes a leadership issue on a daily 
basis, but we've also grown from that to develop a lot of the 
sexual assault response and prevention programs (SARP) that 
you've seen and participated in some of the workings with DOD.
    From the medical point of view specifically, we help in the 
training of SAVI. The SAVI Program is also interesting because 
it takes the victim and puts the victim at the center of the 
activity. In other words, it makes sure that the victim 
understands, is affirmed, and actually has the counseling that 
he or she may need is a critical element in how we run the 
program.
    The second one is to make sure that we then train the 
forensic experts that need to come along and do the 
investigations, which is what General Schoomaker was referring 
to, which is critically important. I would suggest that if 
those folks are not trained in the military treatment facility 
that we utilize our civilian forensic police and forensic 
facilities to make sure that that's done properly.
    Then the third point is the education and the prevention, 
which is something that needs to be done at the beginning of 
training in the military. This is for men and women, and it 
goes through some of the very didactic, but very necessary 
thoughts regarding training, regarding definitions: What is a 
sexual assault? What does consent mean? What does ``yes'' mean? 
What does ``no'' mean? All of these types of things which men 
and women have to listen to.
    Then the last part is to make sure that after we've done 
that, that we have a program that's sensitive to the needs of 
those people who fall victim the sexual assault. That includes 
psychological and the mental health issues. Additionally, we 
need to make sure that their families are cared for. Very often 
men and women are married or they have other family issues, and 
we have to make sure that that's cared for.
    We in the Navy have taken this full-bore and are very 
sensitive to what you've talked about. We have been working 
this very hard for a long time.
    Senator Murray. I appreciate that answer. Thank you.
    Admiral Robinson. Thank you.
    Senator Murray. General.
    General Roudebush. Ma'am, I think your approach is the one 
that I would echo. We know there are increased numbers. Now, 
whether it's increased reporting or increased incidence, we can 
certainly discuss. The fact that there is one is too many.

                             SEXUAL ASSAULT

    Senator Murray. That's correct.
    General Roudebush. So beginning with that as the going-in 
position is precisely where the Air Force leadership is 
attacking this issue. It's a matter of respect. It's a matter 
of respecting each other. It's a matter of honoring each 
other's integrity and their person and treating each other as 
we would want to be treated.
    It's an operational issue. It has direct mission impact. 
It's a cultural issue. It's a family issue, because we strive 
individually, we execute as a team, but we take care of each 
other as a family. So this is a family issue.
    We come at it in a very structured way. We learned 
important lessons as we assessed the issues at our Air Force 
Academy, which we have implemented across the board in terms of 
a sexual assault program that works to prevent sexual assault, 
but if it occurs we respond in a very sensitive and coordinated 
way, to include restricted reporting if the individual prefers, 
to perhaps help them come forward and get the help that they 
will need.
    We have a sexual assault response coordinator at every 
installation wired into the wing leadership. Medical is a key 
part of it. As General Schoomaker pointed out, we have 
important responsibilities and we are postured and do execute 
those responsibilities. But really, it's a matter of taking 
care of each other, respecting each other, and that's precisely 
where our program is going in terms of training, education, and 
sensitization, and establishing the fact that it will not be 
tolerated any way, any shape, any form, anywhere, any time. 
It's a matter of respect.
    Senator Murray. Well, I appreciate your comprehensive 
answers, all three of you, and I hope that's echoed throughout 
the forces. I think that the worst thing we can do is to not 
talk about it. This is an issue I'm going to continue to 
follow. I encourage all of you as well, to make sure that those 
policies are implemented, so that no one fears coming forward; 
that we start at the very beginning, so that it's not 
tolerated; and then if it does occur, that people get services 
and support and it doesn't become a crime that no one talks 
about.
    So I appreciate all of your answers on that.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you very much.
    I have many questions I'd like to submit to you, but one 
final one if I may. When I was wounded in World War II, from 
the battlefield to the hospital it took me 9 hours to be 
evacuated, most of the evacuation carried out by stretcher 
bearers. Today if I were wounded with the same injury in 
Baghdad, I suppose I'd be in a hospital within 30 minutes 
because of helicopters and such.
    As a result, a lot of things have happened. For example, in 
my regiment I don't believe we have one double amputee 
survivor. Today most double amputees survive. And you have many 
brain injuries and such, which in World War II very few ever 
survived.
    But equally as important, I spent 22 months in a hospital. 
Today if I were at Walter Reed I'd be out in 6 months on the 
street. But when I left Percy Jones in Michigan I knew a little 
about carpentry, electrical work, plumbing. I knew how to play 
basketball and swim. I knew how to drive. I knew how to go to a 
restaurant and order food, dine, dance. I knew how to defend 
myself. I knew what sex was all about.

                   COMPREHENSIVE TRANSITION PLANNING

    My question is, do you believe that the men and women who 
are being wounded in this war leave the service as I did, 
reassured, confident that I can tackle the world?
    General Schoomaker. Sir, if I might start the answer from 
the standpoint of the Army, I think your eloquent description 
of what you went through and your sharing that with me 
personally and with my staff in the office visits with you I 
think really captures the essence of what we're attempting in 
this comprehensive transition planning. What we observed--and 
quite frankly, Senator Murray's question about the physical 
disability evaluation system is really incomplete without 
addressing one aspect of this system.
    We have a system that, its name alone telegraphs what it's 
about, ``physical disability.'' It's a system that is rooted in 
the industrial age. It's 50 years old. It's highly bureaucratic 
and it's contentious and adversarial. We're trying to change 
the culture of disability and permanent dependency toward one 
of growth, of rehabilitation, of your experience, without 
leaving any soldier, family without the necessary safety nets 
and transition support that they may require in the case of a 
very severe injury or illness.
    So candidly, we've turned away from--the chief of staff of 
the Army engaged another former wounded soldier, General 
retired Fred Franks, a veteran of Vietnam, where he lost part 
of a leg, and went on to retire as a four-star general, as the 
commander of the 7th Corps in Desert Storm. General Franks has 
looked at the physical disability evaluation system and has 
concluded some of the same things that, much of what I've said 
here today, which is that we need to move the culture away from 
one that's focused on disability and permanent dependency 
toward one that is aspirational, that's positive, that builds 
back a capability and potential in every individual soldier, 
sailor, airman, marine, coast guardsman, and their family.
    We draw upon the experiences of soldiers such as yours. 
Today I will tell you that with your injury you very likely 
would remain in our hospitals the same length of time that you 
were there before, only because it may take that long to fully 
recover from the wounds that you had and to be fully 
rehabilitated to do what you needed to do, to include remaining 
on active duty.
    We've turned away from looking at time as a goal or an 
outcome measure for this system of transition. We look at--
we're beginning to look at and assess the goodness of the 
outcome for the individual soldier and family based upon what 
their comprehensive transition planning is. So have we reached 
that point? At this point I would have to say no, sir, we have 
not. Does every soldier who's wounded grievously or is injured 
or ill to the degree that you suffered or others have have the 
confidence and realize the full potential? At this point I'd 
have to say no. But we won't be successful in this program of 
transitioning until we have all of our soldiers aspiring to 
what you've achieved.
    Admiral Robinson. Mr. Chairman, I think your question and 
your comments are very profound, and it makes me think of a 
movie in 1947 or 1948, ``The Best Years of Our Lives,'' in 
which a sailor is depicted, Homer, a double amputee coming out 
of the war, and spending approximately 24 to 30 months in a VA 
hospital. I think he learned all of the things that you 
learned. I don't think that they ever stated it as you did 
here, but he learned so much.
    But one of the things that was lacking in that movie and in 
that whole scenario was the family, because he was scared to 
death as to how he was going to be received by his mother, his 
father, his sister, and his girlfriend next door.
    The difference now is that we've brought families into the 
whole rehabilitation issue. The second part is that the length 
of time--I absolutely agree with General Schoomaker--it's not 
the time element, although it can be, but the length of time 
that one takes is not commensurate with the length of time that 
they stay in hospital. It's the length of time that they have 
in that rehabilitative process with their families and in that 
re-engagement in the community and to be a full-up member 
economically, socially, spiritually in each community 
everywhere.
    The Marine Corps and the Navy take a much different view 
than the Army, and we think that we need to get them out of 
that care facility environment and into that rehabilitative 
environment that's more community-based and that is run by the 
line element and their leaders, that in fact have those men and 
women take care of those men and women, and place them back 
into those original slots that they have come from if possible, 
or back into their communities, so that they can learn many of 
the things that you learned at the VA hospital in Michigan.
    So I think that what I see as different is that we're no 
longer hiding people away or putting you in a position where 
you are, I won't say warehoused, but you are at least put away, 
and then you reemerge into your communities and into societies 
wondering if in fact you are going to be fully received back 
into those areas. We've merged those systems now. When you're 
wounded, not only are you off the battlefield quicker, not only 
are you back to a definitive care facility faster because of 
the great work that we do across Army, Navy, Air Force 
medicine, but we also make sure that as you get into the 
definitive care facilities we bring your families and we 
include them from day one in that care. That also extends as we 
transition to the VA to make sure that your family and you also 
have an opportunity to do that.
    So it's a completely different model, but I think it is 
trying to in fact do the same things, and that is to make sure 
that when you go out you are prepared to re-integrate into your 
communities and become productive citizens and reestablish 
yourself for the future.
    One last comment. The only thing that you point out and 
underline dramatically is this: wounds of war which are 
incurred during battle in a time sphere become the 
responsibility of the military health system and Department of 
Veterans Affairs for the lifetime of the member and that 
member's family. That means that the wounds of war of 2006, 
2007, and 2008 will be the responsibility of all of us sitting 
here through the out-years in 2040 and 2050. So we have to 
prepare for that and we have to take care of those individuals.

                          DOD/VA COORDINATION

    Chairman Inouye. Thank you.
    General Roudebush. Sir, you frame both a compelling 
argument and a compelling challenge. To the extent that we are 
meeting that today, I offer two quick observations. One, we do 
not even begin the disability evaluation process until we 
believe the individual has recuperated and recovered to the 
full extent, and there is time involved in that and we are 
willing to invest that time.
    As part of that time involved, the wounds that we're seeing 
are not singular in many cases; they are multiple. An amputee 
probably has some aspects of traumatic brain injury, some 
aspects perhaps of post traumatic stress disorder or PTSD. So 
we have to approach each individual holistically and work those 
issues through.
    Now, as we do that, my two observations: One, we have been 
I believe wonderfully assisted by our centers of excellence. 
Walter Reed has done a magnificent job of really centering the 
care of amputees and the Fisher Foundation in building the 
Center for the Intrepid in San Antonio really begins to get at 
a number of those issues you talked about: How do you function 
within a living environment, an apartment, a house? How do you 
ambulate? How do you interact?
    They have done I think wonderful service to our men and 
women in assisting with that. And our centers of excellence at 
Bethesda in terms of head injuries. As we work through this, it 
really is a joint and collaborative issue.
    But I would leave you with one observation. My wife's 
uncle, a delightful gentleman who now resides in Phoenix, was 
injured when a German 88 blew up in his bridging squad bridging 
a river in World War II. He was never the same after that 
injury in terms of his physical capabilities and had 
significant issues through life.
    But he has been a tremendous force in our family, just as 
you have been a tremendous force in our Nation, perhaps based 
on some of those experiences and perhaps based on perspectives 
coming from a position that is different than others who might 
be walking down the street.
    So I think we need to listen very carefully. We need to 
honor, we need to respect, and we need to support. I think 
Admiral Robinson has it just right. This is our challenge, but 
this is our duty.
    Thank you, sir.
    Chairman Inouye. Gentlemen, I thank you.
    Do you have any questions, Senator?
    Senator Cochran. Mr. Chairman, I have no questions. This 
has been an excellent hearing. I thank you.
    Chairman Inouye. I thank you very much, gentlemen.
    Now the second panel, the important one.
    I'd like to welcome back: Rear Admiral Christine Bruzek-
Kohler, Director of the Navy Nurse Corps, also Major General 
Patricia Horoho, Chief of the Army Nurse Corps, and Major 
General Kimberly Siniscalchi, Chief of the Air Force Nurse 
Corps.
    There are many things I'd like to say at this point, but 
it's been my pleasure to work with all of you for many years. 
I'd like to extend my congratulations to Admiral Bruzek-Kohler, 
who has been selected to serve as the first Nurse Corps officer 
ever to be in command of Navy Medicine West and Navy Medical 
Center--San Diego, along with her continued role as Corps Chief 
of the Navy Nurse Corps. I look forward to listening to your 
testimony.
    So may I call upon the Admiral first.
STATEMENT OF REAR ADMIRAL CHRISTINE M. BRUZEK-KOHLER, 
            DIRECTOR, NAVY NURSE CORPS, UNITED STATES 
            NAVY
    Admiral Bruzek-Kohler. Good morning, Chairman Inouye, Vice 
Chairman Cochran, and distinguished members of the 
subcommittee. As the 21st Director of the Navy Nurse Corps, I 
am honored to offer my testimony to you and your esteemed 
colleagues. My written statement has been submitted for the 
record and today I would like to highlight some of the 
remarkable work being accomplished by Navy nurses.
    The role of Navy nursing is unquestioned in today's Navy. 
We are at the forefront of all operations, and are accepted as 
mission essential within Navy medicine in support of the Navy 
and Marine Corps. Under my leadership, we have developed a 
model of professional military nursing, the essence of nursing 
relevance and practice in the Nurse Corps today. Built upon a 
solid foundation of clinical skills, Navy nursing encompasses 
clinical specialization via advanced education and 
certification, operational readiness, and leadership 
development.
    When combined, these yield clinical nursing leaders and 
future executives for Navy medicine who are business-savvy, 
operationally experienced, and clinically adept. These nurses 
can and will impressively lead our people and organization into 
the future.
    As Navy nurses, we are renowned for our steadfast 
commitment to our patients, and respected for our impressive 
ability to collaborate with a host of other healthcare 
disciplines. We are integral in the provision of superb care to 
America's fighting forces, their families, and the retired 
community.
    While we are a corps of many specialties, I have identified 
eight which are the critical wartime mission essential 
specialties: medical/surgical, psychiatric/mental health, 
critical care, perioperative, emergency/trauma, maternal-child, 
certified registered nurse anesthetists, and nurse 
practitioners. Of all of these, medical surgical nursing is the 
bedrock of our practice. For this reason, it is my expectation 
that all nurses in the Navy Nurse Corps maintain their clinical 
relevance in medical surgical nursing, particularly if they 
function in purely administrative roles.
    Our total Navy nursing workforce is composed of over 5,500 
active, Reserve, and Federal civilian nurses. Our active 
component manning is at 96 percent. For the third consecutive 
year, I am proud to share with you that the Navy Nurse Corps 
has met its active duty direct accession goal and, as we heard 
from my Surgeon General, for the first time in over 5 years 
Navy Nurse Corps gains have outpaced our losses.
    In speaking with Nurse Corps officers, I have found that 
their engagement in local recruiting initiatives from 
elementary schools to colleges, opportunities to provide 
nursing support via disaster relief and humanitarian assistance 
missions, and pursuit of advanced education via our Duty Under 
Instruction Program have all contributed to their decision to 
stay Navy.
    While recruiting to the active component remains robust, 
manning in the Reserves is of concern to me and my Reserve 
component deputy director, Rear Admiral Cynthia Dullea, who is 
here with us today. Despite meeting 107 percent of the 
recruiting goal in 2008, deficits from shortfalls in the 3 
previous years have led to challenges in filling junior officer 
billets. To that end, Reserve component recruiting initiatives 
will be targeted toward these vacancies.
    Last year we saw the release of a new retention initiative, 
the registered nurse incentive specialty pay (RNISP), uniquely 
designed to incentivize military nurses to remain at the 
bedside providing direct patient care. We targeted RNISP 
eligibility toward our critical wartime undermanned specialties 
with inventories of less than 90 percent.
    This year we were able to expand the RNISP to include 
psychiatric/mental health nurses and nurse practitioners, 
women's health nurse practitioners, and certified nurse 
midwives. In the future I look forward to being able to offer 
an incentive such as this to all of my nurses practicing within 
their specialties.
    In addition, targeted recruiting efforts for both active 
and Reserve assets will be focused not only on the acquisition 
of medical/surgical nurses, but also on fortifying high 
operational tempo communities of critical care and 
perioperative nurses and family nurse practitioners.
    Recognizing the efforts of those who diligently serve our 
beneficiaries when Navy nurses deploy, we have recently 
implemented two innovative programs to expand the professional 
development of our valued Federal civilian registered nurses. 
One of these programs offers training in perioperative nursing, 
augmenting a high-deploying critical nursing specialty and 
providing service continuity to patients at our military 
treatment facilities.
    The graduate program for Federal civilian registered nurses 
provides funding for competitively selected candidates to 
pursue their master of science degree in nursing, adding to our 
pool of clinical nurse specialists who help mentor and train 
our junior nurses and hospital corpsmen.
    I remain an ardent supporter of the Tri-Service Nursing 
Research Program (TSNRP), and am duly committed to its 
sustainment. Navy nurses throughout our military treatment 
facilities are engaged in research endeavors that promote not 
only the health and wellness of our servicemembers, but that of 
their families as well.
    Nurses have always been recognized for their expertise in 
disease prevention, health promotion, and patient education. 
The melding of Navy nurses' clinical proficiency in the 
aforementioned areas, and their keen operational focus, ensures 
success in Navy deployments and encounters in rural isolated 
villages with impoverished communities.
    My nurses are agile, adaptable, capable, and ready to 
deploy. The Navy's newest nurses graduating from the Officer 
Development School in Newport, Rhode Island, eagerly inquire 
how soon they might deploy after reporting to their very first 
command. All of my nurses from ensign to captain, because of 
their clinical relevance, have the potential opportunity to 
deploy. Today's deployment environments involve locations in 
harm's way and include practice settings that require the 
application of clinical expertise in a myriad of areas.
    Line-type commanders recognize our nurses' value 
immediately and champion their assumption of key operational 
leadership roles previously held by other professional corps 
and services. Recently returned from deployment as the officer 
in charge of the combined joint task force cooperative medical 
assistance team in Afghanistan, a Navy pediatric nurse 
practitioner offered and I quote ``I would be willing to 
redeploy to an operational setting and endure separation from 
my family and even sacrifice my safety because of the 
overwhelming sense of fulfillment that I received in helping 
empower the women of Afghanistan. Even the smallest changes 
that we made to increase their education, economic stability, 
and improve their health will ultimately make a profound 
difference in their lives and that of their children.''
    A Navy nurse deployed as an individual augmentee assumed 
the role of team leader for an embedded training team in Kabul. 
She served as a mentor to a senior nursing leader of the Afghan 
National Army and was instrumental in the development of a 
variety of educational programs for over 80 military nurses and 
140 health aides. She shared that she and her team empowered 
these nurses to become not only teachers, but leaders, and in 
doing such they became role models to others within their 
organization.
    The maturity, sense of personal fulfillment and confidence 
of having done something that their peers have not done is 
readily identifiable among my nurses returning from these 
unique deployments. From the way they act, talk, and perhaps 
even the swagger in their walk, one can tell that they have 
returned with experiences foreign to many, accomplished goals 
unrealized in the past, and matured in a way years could never 
have provided. Indeed, they are forever changed.
    However, in order to remain resilient we are committed to 
ensuring they have access to all resources via our Care of the 
Caregiver Program and can continue to live in a healthy manner 
as members of our corps.
    Last year we celebrated the 100th anniversary of the Navy 
Nurse Corps. Within the next century we have identified what we 
must do to continue to prepare our nurses to deploy in any 
environment to care for America's heroes. We are not the same 
Nurse Corps of our ancestry. We are moving into assignments and 
uncharted roles that were never held by Navy nurses before.
    For example, within this coming year a Navy nurse will 
become the first nurse assigned to headquarters, Marine Corps. 
Are the marines in for a surprise.
    We are models of interoperability as we function seamlessly 
in missions beside our sister services on land, sea, and air. 
Our skillful integration and translation between services is 
perhaps best exemplified in this last vignette. At the 
conclusion of one of my nurses' briefs in Afghanistan during a 
transfer of authority between incoming and outgoing personnel, 
a colleague turned to her and said: ``While you might not have 
learned a lot of Dari while you were here, you can sure speak 
Army well. Hoo-ah.''

                           PREPARED STATEMENT

    I appreciate the opportunity to share some of these 
accomplishments of my wonderful nurses and I look forward to 
continuing our work together as I lead Navy nursing. Thank you.
    Chairman Inouye. Thank you very much, Admiral.
    [The statement follows:]
     Prepared Statement of Rear Admiral Christine M. Bruzek-Kohler
                            opening remarks
    Good Morning, Chairman Inouye, Senator Cochran and distinguished 
members of the subcommittee, I am Rear Admiral Christine Bruzek-Kohler, 
the 21st Director of the Navy Nurse Corps. Nursing relevance and 
practice is the Navy Nurse Corps of today. Navy nurses are inculcated 
into our organization based on the development of a solid clinical 
skills foundation. It is my expectation that all nurses in the Navy 
Nurse Corps maintain clinical relevance from the day they are 
commissioned until the day they retire.
    Today I will highlight the accomplishments of a total Navy Nurse 
Corps force composed of over 5,500 active, reserve and federal civilian 
nurses who play an invaluable role in Navy Medicine as clinicians, 
mentors, teachers, and leaders. We are renowned for our steadfast 
commitment to our patients and respected for our impressive ability to 
collaborate with other healthcare disciplines in the provision of 
superb care to America's fighting forces, their families and the 
retired community.
         clinical excellence/readiness and clinical proficiency
    My goal is to establish a culture of clinical excellence for all 
nurses in all missions and support a consistent, interoperable standard 
of nursing practice throughout Navy Medicine, one that easily 
transitions to interoperability as we work more and more 
collaboratively with our sister services. We assessed the current state 
of clinical proficiency in various nursing specialties and developed 
and delivered standardized nursing core competencies. These 
competencies transition to all nursing practices throughout Navy 
Medicine ensuring clinical proficiency. Competencies in the nursing 
fields of medical/surgical, emergency/trauma, psychiatric/mental health 
and critical care have been deployed throughout Navy Medicine for 
almost a year. We are currently developing competencies in the 
following practice areas: neonatal intensive care, maternal infant, 
pediatrics, perioperative, multi-service ward, operational nursing, 
case management, and immunizations.
                                training
    Today's Navy nurses face unprecedented challenges in caring for 
America's returning wounded warriors. They are confronted with injury 
and wound complexities that they have never seen or treated before. 
From the moment the service members reach our medical facilities until 
the day they are discharged home with their families, Navy nurses have 
served as a galvanizing force among a cadre of healthcare professionals 
in helping the wounded, ill and injured successfully transition to a 
life post combat.
    Navy nursing is spearheading the development and implementation of 
the Combat Wound Initiative, composed of two programs: Complex Wound 
and Limb Salvage Clinic (CWLSC); and, Integrated Wound Care Programs at 
Walter Reed Army Medical Center (WRAMC) and National Naval Medical 
Center (NNMC). Over the past year, there were approximately 2,000 
patient encounters between the two programs. The CWLSC is an advanced, 
multi-disciplinary wound care center which uses state-of-the-art 
assessment, testing, and evidence-based treatment for the care of 
complex wounds in the combat wounded and DOD beneficiary. The CWLSC, a 
portion of the Combat Wound Initiative, integrates targeted clinical 
and translational research incorporating advanced technology and 
treatment, informatics, and tissue banking.
    At NNMC, a Navy nurse serves as the Medical Evacuation (MEDEVAC) 
team leader and expertly orchestrates staffing and equipment decisions 
which were essential to the safe transportation of over 220 patients on 
100 inbound MEDEVAC missions from Andrews Air Force Base to NNMC over 
the course of the past year.
    Our nurse at Fleet Forces Command facilitates a quarterly Tidewater 
Medical Coordination Council consisting of Type Commander (TYCOM) 
Medical Leadership and the local Military Treatment Facility's (MTF) 
executive officer, clinic directors, officers-in-charge, and 
Operational Forces Medical Liaison Services. The purpose of these 
meetings is to bring both sides together to ensure fleet Sailors are 
receiving the care they need in a timely manner and to address any 
concerns from the MTF perspective.
    Navy nursing leaders partnered with the Navy Chaplain Corps to 
develop and implement the Combat and Operational Stress Control 
Training for Caregivers course to provide state of the art knowledge to 
a full range of caregivers in the recognition of deployment related 
reactions, planning of effective interventions, enhancing caregiver 
collaboration, and facilitating the use of mental health services for 
individual service members and military families. Phase one of this 
training included over 1,500 participants. This year's training is 
designed specifically to address the deployment experiences of families 
and is being offered to over 3,000 caregivers at 19 sites worldwide.
  joint training and mutual support with other uniformed services and 
                               countries
    In highlighting perhaps some of the most publicly recognized joint 
initiatives in which Navy nurses have participated, one must include: 
the Federal Health-Care Center in North Chicago, the merger of two 
highly acclaimed Army and Navy medical centers into the Walter Reed 
National Military Medical Center in the national capital area, and 
missions aboard the USNS MERCY (T-AH 19) and USS KEARSARGE (LHD 3) and 
BOXER (LHD 4).
    Navy nurses from the Naval Health Clinic Great Lakes diligently 
work on both local and national level committees with their colleagues 
from the North Chicago VA Medical Center (NCVAMC) in preparation for 
the merger of the two facilities to become the first Federal Health-
Care Center in 2010.
    Collaborating with medical department members from all three armed 
services and other partners, the Navy nurses at Joint Task Force 
National Capital Region Medical (JTF CAPMED) are actively developing 
the master transition plan to close Walter Reed Army Medical Center, 
develop the first integrated regional military medical command and 
expand the National Naval Medical Center into the ``world-class'' 
Walter Reed National Military Medical Center.
    The nurses at NNMC and WRAMC held two nursing integration kick-off 
meetings in 2008 to network with their counterparts and strategize 
plans of actions for the new Walter Reed National Military Medical 
Center-Bethesda (WRNMMC). These meetings were well attended and the 
nurses are committed to ensuring the success of this venture.
    USNS MERCY (T-AH 19) departed San Diego, California in May 2008 
with a 1,000-person joint, multi-national, Military Sealift Command 
Civilian Mariner, U.S. Public Health Service and non-governmental 
organization (NGO) team to conduct Pacific Partnership 2008 (PP08). The 
core nursing team consisted of 40 Navy and five Air Force Nurse Corps 
Officers. Additional nursing augmentation was provided by 84 colleagues 
from the Navy Reserves. Supplemental support was available via military 
nurses from partner nations Australia, Canada, Indonesia, New Zealand, 
and the Republic of the Philippines, as well as NGO nurses from 
International Relief Teams, Project HOPE and Operation Smile.
    USNS MERCY's Casualty Receiving (CASREC) nursing team processed 
over 1,900 patients, of which more than 1,500 were admitted. A total of 
1,369 shipboard surgeries were performed, with Navy nurses involved in 
every phase of the operative process. During Pacific Partnership 08 
(PP08), the ship's reduced operating status (ROS) perioperative nurse 
was selected as Medical Advance Team Leader in Chuuk, Federated States 
of Micronesia (FSM). In this role, he identified prime locations and 
established logistical support for medical clinics ashore, facilitating 
the treatment of 12,000 patients in 8 days. In addition, he worked with 
local and U.S. public health and government officials to contain a 
deadly outbreak of multi-drug resistant tuberculosis. He coordinated 
efforts between the FSM President's Office, Chuuk Governor's Office, 
U.S. Ambassador, and Centers for Disease Control, ensuring that 100 
percent of suspected cases were contacted, screened and prescribed 
appropriate treatment.
    Navy nurses also served aboard both USS KEARSARGE (LHD 3) and USS 
BOXER (LHD 4) as they delivered relief services and provided medical 
care to over 71,000 patients from eight Latin American and Caribbean 
nations during Operation Continuing Promise.
 collaboration with civilian medical institutions/communities/outreach
    We will soon mark the 1 year anniversary of the merger of the Navy 
Nurse Corps Anesthesia Program with the Uniformed Services University 
(USU) Graduate School of Nursing anesthesia program. The inaugural 
class of this federal nurse anesthesia program will graduate in 2010.
    At the Expeditionary Medical Facility, Camp Lemonier, Djibouti 
City, Djibouti, Africa, our nurses are members of a small surgical team 
who provide teaching assistance in areas such as laparoscopic surgery, 
regional anesthesia, and sterilization at Africa Peltier General 
Hospital, Djibouti via a request the hospital made to the U.S. Embassy 
and the United States Agency for International Development. While the 
surgeons focus on teaching laparoscopic techniques, the nurses foster 
collegial relationships and offer classes on improved sterilization 
techniques, laparoscopic equipment care and use, epidural catheter 
placement for surgery and pain control, and caudal anesthesia in 
pediatrics.
    In collaboration with a Chief Naval Operations (CNO) working group, 
Bureau of Navy Medicine and Surgery (BUMED) and Navy Medicine East 
(NME), a plan has been approved to redesign a building into a 28 bed 
long term care facility to house aging Special Category Residents 
(formerly Cuban Exiles) who receive assisted living or total nursing 
care on the wards of the Naval Hospital Guantanamo Bay, Cuba. At times, 
these patients can absorb 50 percent of the naval hospital bed 
capacity. Navy nurses are working with civilian facilities in the 
Portsmouth, VA area to obtain requisite training as they move forward 
with this one of a kind Navy facility. Staffing will consist of a 
combination of military, civilian and foreign national home health 
aides.
    Senior nursing leaders from Naval Hospital Camp Lejeune join their 
civilian peers from Onslow County, North Carolina in monthly meetings 
as partners in the East Carolina Center for Nursing Leadership Robert 
Wood Johnson Grant for ``Partners for Rural Nursing.'' The grant's 
objective is to mobilize rural nurse leaders' ability to partner, 
evaluate, and develop interventions to solve local nursing workforce 
issues and create healthier communities in eastern North Carolina. The 
long-term goal of this project is the creation of a permanent county 
nurse association that will recruit more nurses to the county and 
increase the overall educational level of the nurses and educators.
                    deployments/operational missions
    Coinciding with the advancement of their professional practice is 
the simultaneous development of our nurses as naval officers who are 
operationally ready to meet any call to deploy in any mission at a 
moment's notice. As such, the Navy Nurse Corps continues to be a 
mission critical asset in supporting Navy Medicine deployments.
    From January 2008 to January 2009, 441 Navy nurses have deployed--
Active (257) and Reserve (184). They served admirably in operational 
roles in Kuwait, Iraq, Djibouti, Afghanistan, Bahrain, Qatar, 
Indonesia, Thailand, Southeast Asia, Pakistan, Guantanamo Bay, Cuba, 
Germany, and aboard both hospital ships, USNS MERCY and USNS COMFORT, 
and on grey-hulls such as USS KEARSARGE and USS BOXER. They are part of 
Provincial Reconstruction Teams (PRTs), Expeditionary Medical 
Facilities (EMFs) and Flight Surgery Teams. They participate in the Sea 
Trial of the Expeditionary Resuscitative Surgery System (ERSS) and 
perform patient movement via Enroute Care at or near combat operations.
    Nurses in our Reserve Component (RC) have made significant 
contributions to operational missions over the past year with Medical 
Readiness Training Exercises (MEDRETE) in Peru, Suriname, Honduras, and 
Trinidad and Tobago. Additionally, there are currently 101 RC nurses 
mobilized to Landsthul Regional Medical Center, Germany.
    In Afghanistan, Navy Nurse Corps officers have assumed the role of 
Officer in Charge (OIC) of the Combined Joint Task Force-101/82 joint 
Cooperative Medical Assistance (CMA) team. Previously held by Army 
Medical Officers, this position was most recently held by a senior Navy 
Nurse Corps officer who was also a pediatric nurse practitioner. The 
mission of the Cooperative Medical Assistance (CMA) team is to plan, 
coordinate and execute medical and veterinarian humanitarian civil-
military operations across the combined joint operations area of 
Afghanistan. Under Navy Nurse Corps leadership, the CMA team has 
mentored and taught over 250 Afghanistan physicians, midwives, and 
nurses in the past year. Additionally, the CMA team provided direct 
medical and veterinarian care in over 200 rural villages in hostile 
areas along the Pakistan border and in Southern Afghanistan. In an 
effort to fight the overwhelming infant and childhood mortality rates 
in Afghanistan, the first Navy Nurse OIC of the CMA team authored a 
U.S. CENTCOM's Humanitarian Assistance, Disaster Recovery and Mine 
Resistance grant to fund three projects in Regional Command--East, 
Afghanistan. Currently in the execution phase, this $50,000 grant will 
provide medical intellectual capacity building to Afghan healthcare 
providers in some of the most remote, hostile and rural areas of 
Afghanistan; directly impacting the lives of Afghan infants and 
children.
    We continue to monitor our deploying specialties within the Navy 
Nurse Corps. While earlier deployments were more aligned with our 
critical wartime specialties of certified registered nurse 
anesthetists, advanced practice nurses, psychiatric/mental health, 
medical/surgical, critical care, perioperative and emergency/trauma 
nurses; we have noted the communities of pediatrics and women's health 
are also being engaged for roles on Provincial Reconstruction Team and 
Humanitarian Assistance missions.
                         care of the caregiver
    Navy Medicine leaders have recognized that operational and 
occupational demands impact the quality of patient care and caregiver 
quality of life. Consequences of untreated cumulative stress can result 
in medical errors, physical illness, decreased job satisfaction, and 
emotional difficulties. The Navy Medicine Caregiver Occupational Stress 
Control (OSC) Program, sometimes called Care for the Caregiver, has 
three fundamental principles; early recognition, peer intervention, and 
connection with services as needed. There are many strategies and 
resources that are being developed to assist Navy Medicine caregivers 
with the operational, occupational, and compassion demands of the care 
we provide to Sailors, Marines, and their families. One of the main 
strategies for addressing the psychological health needs of our 
caregivers is to develop occupational stress training and intervention 
teams for our major treatment centers.
        the warfighter, their families and the continuum of care
    Navy nursing encompasses the care of warriors and their families in 
countless interactions in locations at home and abroad.
                             the warfighter
    A Nurse Corps officer at Naval Medical Clinic Patuxent River plays 
an invaluable role in their local ongoing Individual Augmentee (IA) 
pre-deployment program by ensuring that all medical records are pre-
screened as soon as the active duty member receives IA orders. This 
early screening affords sufficient time to explore potential deployment 
medical disqualifiers and provides the squadron's time to identify an 
alternate in the event the augmentee is deemed non-deployable.
    The Department head of the Occupational Health Clinic at Naval 
Hospital Camp Lejeune, a civilian nurse, along with the local military 
audiologist, identified that a significant number of 17-27 year old 
active duty members were being fitted bilaterally for hearing aids 
after returning from war. This led to the inception of a new initiative 
called ``Warriors Silent Wound'' hearing conservation program 
addressing readiness, education and hearing protection for the Camp 
Lejuene based Marines.
    The Medical Rehabilitation Platoon (MRP) Case Manager position at 
Camp Geiger, Branch Medical Clinic, Naval Hospital Camp Lejeune is held 
by a Nurse Corps officer who coordinates the care for over 80 Marines, 
ensuring that every patient in MRP receives accurate and timely 
healthcare reducing the time spent in MRP and increasing the amount of 
Marines returning to training and eventually to the Fleet Marine Force.
    A Navy Nurse Corps officer currently runs a Warrior Return Unit at 
Expeditionary Medical Facility Kuwait for injured/ill warfighters. 
Located on Camp Arifjan and initiated in 2005, its mission is to 
maximize the quality of life for coalition forces during the period of 
convalescence, expediting return to duty or transfer to definitive 
care. The Warrior Return Unit (WRU or ``Roo'') is a three-building 
complex, 136 bed capacity, dedicated solely for the purpose of 
providing a place for service members to live, relax, and heal from 
their illnesses, injuries, or surgical procedures and, ideally, return 
to duty. The WRU also provides an entertainment lounge, DSN lines for 
business or morale calls, gaming stations, and internet access, as well 
as 24 hour staffing, with a nurse on site and dedicated transportation 
to and from the hospital. Approximately 80 percent of all wounded 
warriors do indeed return to duty from the WRU and almost three-
quarters of them return directly back to Iraq. Those who cannot return 
to duty are medically evacuated to Landsthul Regional Medical Center or 
back to Military Treatment Facilities in the continental United States 
(INCONUS).
    At NNMC, the Casualty Affairs Office consists of a Navy nurse and a 
Hospital Corpsman. They meet with every combat casualty and their 
family in order to insure all of their needs are met; allowing them to 
focus solely on the healing process. The Casualty Affair Office employs 
the ethos ``their feet never hit the ground''; referring to the fact 
that no request goes unnoticed for the 110 patients and families they 
have met in the past year.
   growing mental health requirements/psychiatric and mental health 
                                nursing
    The Navy Nurse Corps has met the Surgeon General's guidance for 
psychiatric/mental health nurse practitioners (PMHNPs). We have 
programmed 18 PMHNPs through the Future Years Defense Plan (FYDP) to 
meet currently projected growth of the Marine Corps, Blue in Support of 
Green (BISOG) and the development of the Operational Stress Control and 
Readiness (OSCAR) teams.
    Our psychiatric nursing leaders are critical members of the 
multidisciplinary team writing the maritime doctrine for combat and 
operational stress control for the U.S. Marine Corps and U.S. Navy. A 
Nurse Corps officer has been appointed as the first Coordinator for the 
Line owned and led Navy Operational Stress Control (OSC) program. 
Secretary of the Navy and the Chief of Naval Operations have directed a 
Navy stress control program to specifically (1) define doctrine and 
organization; (2) address mental health stigma; (3) define curricula, 
develop training and exercise requirements for pre-deployment and post-
deployment of all personnel; and (4) build resilient Sailors and 
families. Operational Stress Control is leader-focused actions and 
responsibilities to promote resilience and psychological health in 
Sailors, commands, and families exposed to the stress of routine or 
wartime military operations in all environments, whether at sea, in the 
air, or on the ground, and in both operational and supporting roles. 
The goals of OSC are to create an environment where Sailors, commands, 
and families can thrive in the midst of stressful operations.
    EMF Kuwait mental health nurses are providing outreach training for 
more than 200 personnel at various units on anger/stress management and 
improving communication skills. One Navy mental health nurse 
practitioner from EMF Kuwait forward deployed for a 3 week period into 
Iraq, backfilling a transitioning Army psychiatrist billet providing 
mental health services throughout Iraq.
    A newly hired civilian mental health nurse practitioner at Naval 
Medical Clinic Quantico's Deployment Health Center assumes the 
continuation of care for patients who require more than eight 
encounters at the center, providing continuity of care and bolstering 
patient/provider rapport.
    The newly opened Post Deployment Health Center in Groton, CT, part 
of the DOD initiative to respond to mental health needs of returning 
veterans, provides individual and group counseling services to active-
duty members from all branches of the military from throughout the 
Northeast. Prior to the opening of this clinic, patients would have had 
to travel as far as Bethesda, MD for this same type of care milieu.
    The first active duty PMHNP assigned to the Deployment Health 
Center at Naval Hospital Twentynine Palms, closely follows 80 of the 
clinic's 225 active cases.
    She provides initial psychological evaluations, medication 
screenings, and shares valuable information with colleagues, general 
medical providers, and commands on recommendations about service 
members' fitness for deployments. She also serves as the clinic 
spokesperson and is closely involved with the family advocacy program 
and substance abuse counseling center, ensuring that information is 
provided to dependents as well as the active duty member. This PMHNP 
candidly offers that this has been her ``most fulfilling job in the 
Navy''.
                               the family
    Last year, several Outside Continental United States (OCONUS) and 
geographically remote Continental United States (CONUS) military 
treatment facilities (MTFs) received fourteen junior Nurse Corps 
officers who attended our new 4 week Perinatal Pipeline training 
program at Naval Medical Center San Diego, Naval Medical Center 
Portsmouth, and National Naval Medical Center. The program was designed 
to train medical-surgical nurses who expect to work in labor and 
delivery or the newborn nursery at OCONUS or geographically isolated 
facilities. This program has increased the nurses' knowledge, 
confidence, and subsequently the quality of care and patient safety for 
these commands. Along this same theme, Naval Hospital Okinawa hosted 
the Western Pacific Perinatal Orientation Education Program/Neonatal 
Orientation Education Program (PEOP/NEOP) training for 40 staff from 
Okinawa, Yokosuka and Guam; yielding over $160,000 in training cost 
savings to the aforementioned facilities.
    At Naval Medical Center Portsmouth, a pediatric nurse practitioner 
with a passion for early detection and prevention of child abuse 
identified an opportunity to improve communication between her facility 
and outside protective services. With the help of the hospital's web 
designer, and 2 years of diligent dedication, she created an online 
algorithm and reporting system nicknamed C.A.N.A.R.E.E.S., which stands 
for Consolidated Abuse, Neglect, Assault, Reporting Electronic Entry 
System. This program, presently piloted in the facility's Emergency 
Department, links to the Composite Health Care System and provides 
consolidation of all demographic data and patient encounter information 
into required report formats. This new reporting mechanism alleviates 
illegible handwriting and streamlines reporting agency notifications. 
It also serves as a data repository that may be used in quality 
assurance and statistical analysis to target training or educational 
offerings as indicated by set thresholds.
                   the wounded warrior care continuum
    Wounded Warrior Case Management is quite different now than it was 
2 years ago. Many of the more severely injured are cared for at one of 
Navy's large medical centers or at one of four VA Polytrauma centers 
closest to the service members' homes.
    The Wounded Warrior Berthing, also known as the ``Patriot Inn,'' at 
Naval Medical Center Portsmouth continues to provide temporary lodging, 
monitoring, and close proximity to necessary recovery resources for 
active duty ambulatory patients in varying stages of their health 
continuum.
    At Naval Hospital Camp Pendleton, active duty Nurse Corps officers 
work directly with the Wounded Warrior Battalion to manage the wounded 
warrior cases, providing a comprehensive plan of care throughout the 
healthcare system. The patients assigned to this battalion are 
primarily ambulatory patients who are receiving continuing care for 
orthopedic or mental health issues.
    The Naval Medical Center San Diego's (NMCSD) Comprehensive Combat 
and Complex Casualty Care (C\5\) Program (recipient of the 2008 
Military Health System Healing Environment Award) recently expanded its 
Primary Care division to include two government service nurse 
practitioners (one former Army veteran), one physician assistant, two 
civilian health technicians (one former Independent Duty Corpsman) and 
two Hospital Corpsmen. This group provides continuity in medical 
management of these service members; ensuring primary health care needs 
are addressed during their rehabilitation. Recently, the C\5\ lead 
nurse case manager received the prestigious San Diego Regional Chamber 
of Commerce Military Honoree Award for 2008.
    NMCSD is also home to an Army Warrior Transition Unit (WTU), the 
only one of its kind in a non-Army treatment facility. This staff is 
comprised of a provider, nurse case managers, licensed clinical social 
worker and administrative support staff who oversee the medical and 
non-medical case management of soldiers transferred here for 
rehabilitation services.
                           graduate education
    Continuation of a Navy nurse's professional development via 
advanced educational preparation, specialization, and pursuit of 
national certification is necessary to better serve our beneficiary 
population, as well as strengthen their respective communities of 
practice and prepare the officer for promotion. Our training plan this 
year included the opportunity for 70 officers to seek advanced degrees. 
We focused on fortifying our critical wartime inventories of certified 
registered nurse anesthetist, psychiatric/mental health clinical nurse 
specialist and nurse practitioner, and critical care and medical/
surgical nursing.
                            nursing research
    I remain an ardent supporter of the Tri-Service Nursing Research 
Program (TSNRP) and am duly committed to its sustainment. Navy nurses 
assigned throughout our MTFs are engaged in research endeavors that 
promote not only the health and wellness of our warriors, but that of 
their families too. My senior nurse executives have identified creative 
ways to pique junior officer's interest in research activities.
    At Naval Hospital Oak Harbor, a Navy nurse has a research study 
entitled, ``Breastfeeding Rates among Active Duty Military Women across 
the First Year Postpartum'' with Independence University. A novice 
researcher, she is being mentored in her first endeavor by the Senior 
Nurse Executive at her command and a nurse researcher assigned to Naval 
Medical Center San Diego.
    The Senior Nurse Executive at NMCSD has implemented the Senior 
Nurse Executive Nursing Fellowship Awards. This competitive award 
recognizes two junior nurses/Clinical Nurse Specialist (CNS)/Nurse 
Researcher team dyads and provides them the resources and man-hours to 
conduct a year long research proposal. Both junior nurse/CNS dyads 
attend research methods or evidence based nursing courses to assist 
them in the development and implementation of their studies. The 
results have been quite impressive.
    One dyad completed a pilot study to determine whether an 
educational intervention could be designed to reduce Compassion Fatigue 
in the healthcare providers caring for C\5\ (Comprehensive Combat and 
Complex Casualty Care) patients. The findings demonstrated that the 
study participants' scores in compassion satisfaction increased and 
burnout scores decreased after viewing the Compassion Fatigue 
intervention. The dyad presented a poster at the Karen Rieder Federal 
Nursing Poster Presentation titled Compassion Fatigue in C\5\ Staff 
Caring for Wounded Warriors. A study-designed educational intervention 
was developed from this study and was implemented to 43 staff caring 
for Wounded Warriors, awarding 172 contact hours.
    The second dyad was awarded the Research Award for Best Evidence 
Based Practice from the Zeta Mu Chapter of the Sigma Theta Tau 
organization. The proposed project was titled ``Implementation of An 
Open Crib Phototherapy Policy: Adaptation of an Evidence Based 
Guideline Project''. The dyad's work has resulted in the local 
implementation of the guideline to include standardizing physician 
order sets and staff education. One member of the dyad has been invited 
as a presenter to the annual National Association of Neonatal Nurses 
(NANN) Research Summit.
                        educational partnerships
    Navy nurses, at our hospitals in the United States and abroad, 
passionately support the professional development of America's future 
nursing workforce by serving as preceptors and mentors for a myriad of 
colleges and universities.
    Because of the vast array of clinical specialties available at our 
medical centers at Bethesda, Portsmouth and San Diego, they have 
multiple Memoranda of Understandings (MOUs) with surrounding colleges 
and universities to provide clinical rotations for nurses in various 
programs from licensed practical/vocational nursing, baccalaureate, and 
graduate degrees which include nurse practitioner and certified nurse 
anesthetist tracks.
    Not to be outdone, nurses at our smaller facilities such as Naval 
Hospital Twentynine Palms, Beaufort, Bremerton, Charleston, Cherry 
Point, and Guam coordinate training opportunities with local hospitals 
in resuscitative medicine, medical/surgical and obstetrical nursing and 
serves as clinical rotation sites for local colleges.
    During Pacific Partnership 2008, Navy nurses from USNS Mercy (T-AH 
19) served as subject matter experts to nurses in five host nation 
hospitals on topics such as basic and advanced life support, critical 
care and pediatric nursing, isolation techniques, and blood transfusion 
therapy. In total, at least 200 hours of classroom instruction were 
presented to over 1,000 students.
    Navy nurses deployed to the Expeditionary Medical Facility, Camp 
Lemonier, Djibouti City, Djibouti, collaborated with the Djibouti 
School of Nursing to review nursing fundamentals and discuss nursing 
issues important to Djibouti nurses as part of an English language 
skills enhancement class.
                          nursing publications
    Navy nurses are accomplished authors whose works encompass all 
specialty areas of nursing and have appeared in nationally recognized 
publications as follows: Advances in Neonatal Care, AORN Journal, 
Critical Care Nursing Clinics of North America, Journal of Advanced 
Nursing, Journal of Forensic Nursing, Journal of Pediatric Healthcare, 
Journal of Psychosocial Nursing, Journal of Trauma Nursing, Nursing 
Administration Quarterly, Military Medicine and Viewpoint.
                        productivity initiatives
    At Naval Hospital Lemoore, Nurse Corps officers in the Primary Care 
Clinics spearhead various clinical functions such as telephone triage, 
dysuria protocol, and newborn infant well-baby visits saving 
approximately 80 appointments per month for higher level providers and 
yielding improved access to care for patients.
    A Navy nurse midwife who serves as both the Director of Health 
Services and the Department Head of Obstetrics and Gynecology at Naval 
Hospital Charleston was also the second highest provider in patient 
care encounters compared to peers who practice at the same facility.
    A women's health nurse practitioner at Naval Hospital Beaufort is 
solely responsible for the women's health visits of 4,000 female 
recruits. Other nurse-run clinics at this facility medically in-
processed 22,234 Marine recruits and administered over 154,000 
immunizations.
                force shaping/recruitment and retention
Recruitment
    Today's Navy Nurse Corps (AC) is 95.7 percent manned with 2,780 
nurses serving around the globe. We expect to make Navy Nursing's 
recruiting goal for 2009 within the next few months and this will be 
the third year in a row that we have achieved this important milestone. 
Our recruiting efforts this year have outpaced those of 1 year ago. Our 
nurses' diligent work and engagement with local recruiting initiatives 
have certainly contributed to these positive results.
    The top three programs that we should credit to this accomplishment 
include the increases in Nurse Accession Bonus (NAB) now at $20,000 for 
a 3 year commitment and $30,000 for a 4 year commitment; the Health 
Professions Loan Repayment Program (HPLRP) amounts up to $40,000 for a 
2 year consecutive obligated service and the Nurse Candidate Program 
(NCP), offered only at non-Reserve Officer Training Corps (ROTC) 
Colleges and Universities, which is tailored for students who need 
financial assistance while in school. NCP students receive a $10,000 
sign on bonus and $1,000 monthly stipend. Other factors contributing to 
our recruiting success include the location of our duty stations and 
the opportunity to participate in humanitarian missions.
    Last year we created a Recruiting and Retention cell at the Bureau 
of Medicine and Surgery (BUMED) with a representative identified from 
each professional corps. These officers serve as liaisons between Navy 
Recruiting Command (NRC), Naval Recruiting Districts (NRD), Recruiters 
and the MTFs and travel to and or provide corps/demographic specific 
personnel to attend local/national nursing conferences, or collegiate 
recruiting events. In collaboration with the Office of Diversity, our 
Nurse Corps recruitment liaison officer coordinates with MTFs to have 
ethnically diverse Navy personnel attend national conferences and 
recruiting events targeting ethnic minorities. This has allowed us to 
broaden our reach and recruit at national nursing conferences that we 
never before attended.
    The Nurse Corps Recruitment liaison officer works with a speaker's 
bureau comprised of junior and mid-grade Nurse Corps officers 
throughout the country who reach out to students at colleges, high 
schools, middle and elementary schools. We recognize that the youth of 
America are contemplating career choices at a much younger age than 
ever before. Over the course of the past year, we have tailored more of 
our recruiting initiatives to engage this younger population. Our 
nurses realize that each time they speak of the Navy Nurse Corps they 
serve as an ambassador for our corps and the nursing profession too.
    Since returning from Pacific Partnership 08, USNS MERCY (T-AH 19) 
has collaborated with the Navy Recruiting Region WEST Medical Programs 
Officer to host two recruiting tours. In total, 40 potential Navy 
Medicine candidates visited the ship. Both the USNS MERCY and USNS 
COMFORT are invaluable tools in the Nurse Corps recruiting arsenal. 
Shipboard tours are frequently requested by faculty and students alike.
    Naval Hospital Camp Lejeune, in conjunction with Navy Recruiting 
District Raleigh, NC, has initiated a joint effort to recruit Nurse 
Corps officers from the Eastern North Carolina area. In supporting the 
Nurse Corps recruiting and retention initiatives, Naval Hospital Camp 
Lejeune has created the Nurse Recruiting and Retention team. The team, 
co-chaired by two senior Nurse Corps officers works closely with the 
medical department recruiter to coordinate visits to area universities 
to speak with students regarding benefits of joining the Navy Nurse 
Corps. The team members also provide real life testimony to the 
students and provide insight into the personal experiences of team 
members. The team also serves as points of contact for interested 
students and is available to entertain questions or concerns via email 
or telephone. This mentoring provides yet another example of why the 
Navy Nurse Corps is so attractive to the students. The team encourages 
and sponsors visits to the Naval Hospital and gives them the 
opportunity to see Navy nurses, civilian nurses and hospital corpsmen 
working together to provide world class care. The team also supports 
the Recruiting District by coordinating and conducting the personal 
interviews required as a portion of the Nurse Corps application 
process. Since its inception in September 2008, this effort has led to 
25 potential Navy Nurse Corps officers accessioned into the recruiting 
pipeline for NRD Raleigh, North Carolina.
    A senior Nurse Corps officer at Fleet Forces Command serves as a 
liaison between the fleet shore-based Sailors and the MTF. She and 
other officers around the world have become mentors to the Medical 
Enlisted Commissioning Program (MECP) applicants. The MECP program is a 
robust enlisted commissioning track that selects and educates 55 
Sailors and Marines to become Navy nurses each year.
    Last year the Navy Nurse Corps reserve component (RC) met 107 
percent of their recruiting goal. Over 56 percent of the goal was 
comprised of NAVETS (nurses coming to the RC from active duty) and the 
remainder were direct accessions to the Navy Reserve. Success in 
recruiting NAVETS is related to the initiation of an affiliation bonus 
of $10,000 and the policy that guarantees NAVETS coming into the RC 
will be granted a 2 year deferral from deployment. Recruiting 
initiatives targeting direct accessions offer entry grade credit for 
advanced education and work experience among the critical wartime 
specialties of psychiatric/mental health, emergency room, and 
perioperative nursing. The RC recruiting shortfall in fiscal year 2005, 
2006, and 2007, coupled with the national nursing shortage and 
increased competition with both the civilian and federal employment 
healthcare sectors, had a detrimental impact on filling RC Nurse Corps 
billets with junior officers.
    Today, the Reserve Component is 1,189 nurses strong and manned at 
89.1 percent. The last 4 years of missed reserve nurse recruiting goal 
has impacted critical wartime specialties in nurse anesthesia (59 
percent), perioperative (73 percent), and critical care nursing (80 
percent) and subsequently contributed to their 145 unfilled billets.
Retention
    Recruiting is just one-half of the story for Navy nursing. 
Retention tells the other important half. Last year was the first time 
in the past 5 years that the Navy Nurse Corps' losses nearly matched 
our gains. In talking to Nurse Corps officers around the globe, I have 
found that we are implementing creative mentoring and leadership 
programs designed to get the information to the officers before they 
make a career decision to leave the Navy.
    Naval Hospital Bremerton's senior Nurse Corps officers conduct 
quarterly Career Development Boards for officers at various decision 
points in their career (first tour, promotion eligible, considering 
Duty under Instruction, considering release from active duty). Nurse 
Corps officers also participate with medical programs recruiters in 
Seattle and Denver to provide tours, interview candidates, answer 
questions, join them for local college career days and attend 
conferences.
    Naval Medical Center San Diego established a Nursing Retention and 
Recruitment Committee. There was an exceptional response to the request 
for volunteers. Members of the committee include a wide cross-section 
of nurses throughout the command, to include active duty (all ranks), 
government service, contract, reservists and recruiters. The committee 
meets monthly and reports to the Senior Nurse Executive.
    The Registered Nurse Incentive Special Pay (RNISP) program was a 
new retention initiative begun in February 2008 and included critical 
care and perioperative nursing, pediatric nurse practitioners, and 
family nurse practitioners. We have noted improvements in overall 
manning percentages for the aforementioned nursing communities. The 
RNISP program is designed to encourage military nurses to continue 
their education, acquire national specialty certification and remain at 
the bedside providing direct care to wounded Sailors, Marines, 
Soldiers, Airmen and Coastguardsmen. This year the RNISP program was 
expanded to include four additional communities: psychiatric/mental 
health nurses, psychiatric/mental health nurse practitioners, women's 
health nurse practitioners, and certified nurse midwives. Certified 
Registered Nurse Anesthetists (CRNAs) have been long standing 
recipients of the ISP, and they are currently manned at 99 percent.
    Continuing deployment cycles and Individual Augmentee roles 
continue to pose a challenge to retaining nurses in our service, yet 
our fiscal year 2008 Nurse Corps continuation rate after 5 years is 68 
percent, up slightly from last year. We continue to work issues to 
retain mid-grade officers at the 4 to 9 year point of commissioned 
service.
    The Operational Stress Control program has an indirect impact on 
the shape of the force, military retention, and Navy nurses. By 
developing and providing education and training opportunities 
throughout the career of the nurse, ``from Accessions through Flag 
Officer'', OSC will build resilience and increase effective responses 
to stress and stress-related injuries and illnesses. The art of nursing 
service members and their families through illness to wellness is 
frequently stressful. Strengthening the resilience of Navy nurses will 
assure they are better equipped to meet the day-to-day challenges of 
both naval service and their profession.
    Our total Navy nursing workforce, active and reserve components 
plus federal civilian registered nurses, is over 5,500 strong. 
Recognizing the invaluable contribution that our civilian nursing 
workforce provides in regards to continuity of care and access to 
services for our patients, especially during our deployments, we have 
established two new education programs exclusively for them.
    The Perioperative Nurse Training Program is a competitive program 
in which federal civilian registered nurses may apply to attend the 
fully funded 12 week Navy perioperative nurse training program. Upon 
completion of the training, the federal civilian nurse incurs a 1 year 
continued service agreement and works in the perioperative setting.
    The Graduate Program for Federal Civilian Registered Nurses 
provides funding for competitively selected federal civilian registered 
nurses to pursue their Master of Science in Nursing. Selected 
candidates agree to work a compressed work schedule during the time 
they are in graduate school and incur a 2 year continued service 
agreement. Our hope is that these new programs will not only serve to 
retain our current civilian nurses but also entice new nurses to 
consider entry into federal service with Navy Medicine.
                             communication
    The overarching goal for communications is to optimize the 
dissemination of official information that is easily accessible, 
current, and understood. This has been accomplished via monthly ``Nurse 
Corps Live'' video tele-conferences on a variety of topics relevant to 
our nursing communities, electronic publication of ``Nurse Corps News'' 
newsletter and the Nurse Corps webpage.
                               mentorship
    The development of our career planning guide will serve as a 
mentoring tool for all nurses. Core nursing mentors will be identified 
at each command to facilitate mentorship to officers, enlisted members, 
civilians and students alike.
    Naval Hospital Bremerton received the University of Washington 
School of Nursing's Preceptor of the Year Award for 2008 in recognition 
of the 14 years that the hospital's clinicians, administration and 
staff have provided exceptional learning opportunities for all nurse 
practitioner and certified nurse midwife students.
    The Director for Nursing Services at Naval Hospital Oak Harbor is 
working with local Career Counselors to schedule ``board interviews'' 
for Naval Air Station Whidbey Island sailors interested in pursuing 
careers in Navy nursing via one of our commissioning pipeline programs.
    The ``Nurse Corps Roundtable'' is a forum used by nurses from Naval 
Health Clinic, Great Lakes with local Navy Reserve Officer Training 
Corps nursing students, to facilitate their understanding of ``life as 
a Navy nurse.'' Topics include deployment opportunities, duty stations 
and assignments, and the unique camaraderie that military nurses enjoy.
    The division officer of the inpatient mental health unit at Naval 
Hospital Camp Lejeune has sparked the interest in mental health nursing 
in five junior nurses. He established a new mental health nurse 
teaching program, developed 15 individual lectures and provided 
individual mentoring over a 9 month period to five new military nurses 
who will be given an opportunity to gain the mental health subspecialty 
code. He is helping to change the stigma of mental health nursing to 
positively reflect a fulfilling and respected form of nursing practice 
to our young staff.
                               leadership
    It is the amalgamation of our officers' clinical skills foundation, 
education, specialization and operational experiences that develop the 
highest caliber leaders for Navy Medicine today and in the future.
    CDR Michele Kane's work on ``Genotoxic and Cytotoxic Carcinogenesis 
Effects of Embedded Weapons Grade Fragments of Tungsten Alloy 
Shrapnel'' was recognized with awards for best in research by the 
Association of Military Surgeons of the United States, the Uniformed 
Services University for Health Sciences top award for Research 
Excellence from the Graduate School of Nursing, and the prestigious 
Uniformed Service University Board of Regents Scholastic Award for 
Research (an award normally reserved for medical students).
    The Bureau of Medicine and Surgery (BUMED) has partnered with the 
Chief of Naval Personnel (CNP, N1) to temporarily assign a Nurse Corps 
officer to establish the position of Navy Operational Stress Control 
Coordinator (OSC). CAPT Lori Laraway is responsible for OSC program 
development and execution across the entire Navy Enterprise and chair's 
the OSC Governance Board. Networking, reducing duplication of effort 
and formulating effective lines of communication have resulted in a 
Navy-wide program that addresses the needs of line leaders, Sailors and 
families.
    Previous team leaders for all Embedded Training Teams (ETT) have 
been Medical Service Corps Captains, until CDR Judith Bellas was 
selected as team Lead for Kabul ETT. CDR Bellas was recently recognized 
for her contributions during this year long deployment with the Bronze 
Star Medal. LCDR Keith B. Hoekman, a nurse practitioner, was awarded 
the Bronze Star Medal while deployed as the Medical Officer for the 
Provincial Reconstruction Team (PRT) in Ghazni Province, Afghanistan. 
Additionally, he received a Certificate of Recognition from the 
Ministry of Health, Kabul, Afghanistan for his community outreach 
initiatives on Women's Health that ultimately reached 30,000 villagers.
    LT Tony Wade from Naval Hospital Camp Pendleton recently received a 
Navy Commendation Medal with ``Combat V'' as he was directly 
responsible for saving Marine lives under austere and dangerous 
conditions in Afghan in support of the 2/7 Marines. When his trauma bay 
was hit by a mortar round and the surgeon was incapacitated, LT Wade 
and two corpsmen continued the trauma treatment for a Marine who had 
sustained life threatening injuries, their efforts directly resulted in 
saving his life.
                            closing remarks
    Chairman Inouye, Senator Cochran, distinguished members of the 
committee, thank you again for providing me this opportunity to share 
with you the remarkable accomplishments of Navy nurses as we partner 
with our colleagues in meeting Navy Medicine's mission. I look forward 
to continuing our work together over the course of the next year.

    Chairman Inouye. General Horoho.
STATEMENT OF MAJOR GENERAL PATRICIA D. HOROHO, CHIEF, 
            ARMY NURSE CORPS, UNITED STATES ARMY
    General Horoho. Chairman Inouye, Vice Chairman Cochran, and 
distinguished members of the subcommittee: It's an honor and 
truly a privilege to be able to speak before you today on 
behalf of over 40,000 officers, enlisted and civilians of the 
Army Nurse Corps. It has been your continued unwavering support 
that has enabled Army nurses as part of the larger Army medical 
department team to provide the highest quality of care to all 
those that are entrusted to our care.
    Army nurses are a corps of seasoned combat veterans that 
are highly trained, highly skilled and highly committed. We 
deploy an average of 400 to 500 Army nurses a year, so we've 
moved well beyond lessons learned to lessons applied.
    For example, Army nurses in Iraq, in the Iraq theater, who 
fly medevac with critically wounded patients have developed a 
set of tactics, techniques, and protocols over the last 7 years 
that we've codified into an intra-theater flight nursing 
program, a program we'll sustain for the future. Our flight 
nurses have decreased the incidence of hypothermia for the 
patients that fly in the back of these medevacs from 20 percent 
to less than 5 percent.
    On my recent trip to Iraq I was absolutely humbled to see 
the level of care that is provided to not only our 
servicemembers, but to coalition forces, contractors, and the 
detainee populations that we serve. I was told how at the Ibn 
Sina Hospital that's in Baghdad Army nurses moved patients into 
the hallways away from the glass windows when the hospital was 
under mortar fire and covered them with their own bodies so 
that they were protected. These patients were wounded Iraqis.
    Army nurses are partnering with Iraqi nurse leaders to help 
them begin to rebuild their profession of nursing. The nurses 
of the 345th Reserve Component Combat Support Hospital 
established training programs on the fundamentals of emergency 
nursing and subsequently are providing medical diplomacy at the 
most crucial interface, between two nursing cultures.
    During this year of the noncommissioned officer, I want to 
share a story with you about a particular NCO that established 
an automatic external defibrillator (AED) program for the 
entire Iraq theater. This NCO recognized the need to have 
emergency cardiac care equipment in theater that provides our 
soldiers with the same standard that we offer in the United 
States. He created the theater-wide policy that mandated easy 
accessibility to AEDs. This NCO had an opportunity to put into 
action his own policy when he encountered a sergeant major that 
was in cardiac arrest. He quickly responded with the AED and 
saved the sergeant major's life.
    I'd like to introduce to you Sergeant Major Brewer, who's 
in the audience today. He is my sergeant major--could you 
please stand. He is my Corps sergeant major and is returning 
from his second deployment in Iraq. We could not be more proud 
to have him as part of our team.
    Furthermore, I would like to highlight the nurse case 
management program at Camp Cropper and Camp Bucca detainee 
camps in Iraq, built and managed by our NCO licensed practical 
nurse Army nursing team members. To date the program has 
provided specialized medicine care for over 1,000 Iraq 
detainees requiring case management care for diabetes, 
hypertension, and medical management. I am proud of the Army 
nursing team as they shape the face of deployed nursing.
    We are sustaining best practice strategies to provide 
standardized nursing care from the combat zone to an Army 
medical treatment facility, through the warrior transition 
unit, all the way into our VA hospitals.
    The Army Nurse Corps is undergoing the most massive 
transformation that I've seen in my 25 years on active duty. 
We're using the first-ever Army Nurse Corps campaign plan to 
operationalize a Nurse Corps that consistently achieves 
performance excellence, fosters innovation, builds knowledge 
and capabilities, and ensures organizational credibility and 
sustainability. We are piloting an in-patient and an ambulatory 
nursing care delivery system that uses best practices and 
evidence-based data to optimize patient outcomes.
    These pilots are already showing improvements in staff 
satisfaction and interdisciplinary communication. We're also 
incorporating data from the military nursing outcomes database 
study, as well as evidence-based research from the Tri-Service 
Nursing Research Program, funded studies of which we are 
extremely grateful for your support into our practice, to 
reduce the incidence of care indicators like patient falls and 
medication errors.
    We are standardizing nursing care delivery systems to 
decrease patient variance and improve patient outcomes. For 
example, nurses at Walter Reed Army Medical Center collaborated 
with our VA nurse colleagues to develop the first-ever 
evidence-based nursing transfer note that is electronically 
exported to a web-based portal, allowing staff to 
bidirectionally exchange critical patient information in real 
time. This effort significantly optimized Army and VA nurses' 
ability to tell the patient's story via the electronic medical 
record.
    We are harnessing the power, the pride and the passion of 
Army nurses to transform into a corps that by 2012 is leading a 
culture of performance innovation and improvement across the 
entire continuum of care. This is unequaled in the delivery of 
nursing excellence. We will use the vision to embrace the past, 
engage the present, and envision the future.

                           PREPARED STATEMENT

    On behalf of the entire Army Nurse Corps team serving 
worldwide, I'd like to thank each of you for your unwavering 
support, and I look forward to continuing to work with you. 
Thank you.
    Chairman Inouye. Thank you very much, General.
    [The statement follows:]
         Prepared Statement of Major General Patricia D. Horoho
    Mr. Chairman and distinguished members of the committee, it is an 
honor and great privilege to speak before you today on behalf of the 
nearly 10,000 officers, enlisted, and civilians of the Army Nurse 
Corps. It has been your continued unwavering support that has enabled 
Army Nurses, as part of the larger Army Medical Department (AMEDD) 
team, to provide the highest quality care for our service members, 
families and all those entrusted to our care.
    As I assumed the responsibility of this great Corps, I realized 
that 4 years as Corps Chief is not much time. Although we cannot 
eliminate or predict the uncertainty of the future, we are developing a 
framework to harness every opportunity and manage ambiguity. To this 
end we have embarked on a campaign plan that will transform the Army 
Nurse Corps over the next 4 years and prioritize a 15 year blueprint 
for a vibrant, relevant, and flexible Army Nurse Corps.
    The Army Nurse Corps Campaign Plan, which was developed at the 
first ever Army Nurse Corps Strategic Planning Conference in October, 
is built around four strategic objectives: Leader Development and 
Sustainment, Warrior Nursing Care Delivery, Evidence-Based Management 
and Clinical Practice, and Optimization of Human Capital. It reflects 
our mission and is aligned with the Department of Defense's, Army's and 
Army Medical Department's goals and objectives. At the heart of the 
Campaign Plan is what I call, ``the triad of nursing.'' This triad 
consists of the active and reserve component officers, Non-commissioned 
Officers (NCOs), and civilians that make up our great Corps and are 
vital for ensuring that those who wear and have worn the cloth of our 
Nation and the families that support them, receive timely, 
compassionate and high quality care.
    Execution of the Campaign Plan will be driven by courage to do the 
right thing, ingenuity to meet the rapidly evolving battle and medical 
demands of the 21st century, and constant compassion for those we serve 
and those with whom we serve.
                   leader development and sustainment
    The success and sustainability of our campaign plan rests squarely 
on the shoulders of Army nurse leaders. Accordingly, my first priority 
is to develop full-spectrum Army nurse leaders through a leader 
succession plan.
    We are creating the next generation of inspiring leaders who are 
agile in responding to the Army's evolving needs and who have the 
capabilities and capacities that are required for current and future 
missions. These leaders will be adaptive to any conditions-based 
mission, able to provide a persuasive voice at key echelons of 
influence in the AMEDD, and provide innovative doctrine to blueprint 
the future of the Army Nurse Corps.
    Over half of our Corps has deployed in support of Operation Iraqi 
Freedom (OIF) and Operation Enduring Freedom (OEF). We are leveraging 
the experience of these returning Army nurse combat veterans to 
incorporate and codify their lessons learned into our leader training 
programs and nurse care delivery systems.
    Army nurse leaders adapted readily to the intra-theater flight 
nursing mission in Iraq. Their lessons learned on over 300 missions 
transporting approximately 500 critically injured patients have been 
codified into a flight nursing program that includes standardized 
clinical practice guidelines and patient outcome metrics. On-board 
flight nurses decreased the incidence of patient hypothermia during 
transports from 20 percent to less than 5 percent. One of our Army 
nurses transported a Soldier who sustained severe burns over 70 percent 
of his body from a forward surgical team to the 86th Combat Support 
Hospital (CSH). Last month we heard from the Soldier's wife and three 
children that he is undergoing full rehabilitation and has made a 
remarkable recovery. Thanks to our adaptive Army nurse leaders, we are 
working to develop the role of the intra-theater flight nurse and 
codify it with the additional skill identifier of N5.
    Army Nurse Leaders are currently commanding two Combat Stress 
Control (CSC) units in Baghdad and Mosul. In Mosul, the 528th Medical 
Detachment (Combat Stress Control) is commanded by MAJ Chris Weidlich, 
a psychiatric nurse practitioner, leading a 46-member team with an area 
support mission to mentally sustain coalition forces at nine Forward 
Operating Bases (FOBs) and surrounding areas within the Multi-National 
Division North (MND-N). Since their deployment from Fort Bragg, North 
Carolina in March 2008, MAJ Weidlich and his team have led the way in 
improving far forward mental health assessment and treatment, 
evaluating approximately 10,000 Soldiers to date. Additionally, they 
are bringing far forward the latest on mental health resiliency 
training and assessment of mild Traumatic Brain Injury to over 50 Joint 
Security Stations (JSS), Military Transition Teams (MiTTs) and Combat 
Outposts (COP); all while maintaining a 99.4 percent return to duty 
rate.
    Army Nurse Corps leaders are also furthering medical diplomacy aims 
by continuing to expand Iraqi nurse training partnerships. Nurses with 
the 345th CSH are helping to re-build Iraq's medical infrastructure by 
instituting a train-the-trainer emergency nursing program. The first 
iteration of the ``Emergency Nursing Train-the-Trainer Program'' 
concluded its first ``Partnership in Patient Care,'' program with 
thirteen Iraqi nursing students--four females and nine males. This 6-
week course is building sustainability into the Iraqi nurse education 
program. In the future, these nurses will teach other Iraqi nurses of 
Salah ad Din Province thereby expanding the expertise of the Iraqi 
nursing professionals.
    345th CSH nurses worked with the local Provisional Reconstruction 
Team (PRT) to develop, build, and furnish the Iraqi Nursing Skills 
Learning Lab in the International Business Iraqi Zone (IBIZ). This 
skills learning lab is known as the ``Salah Ad Din Victory Health Care 
Training Center'' and provides classroom space and a separate skills 
training lab for the Iraqi nursing program and other Iraqi healthcare 
programs. The training center also facilitates a safe training and 
collaboration site for both Iraqi medical and nursing professionals and 
allows our combat support hospital nurses to share knowledge as 
consultants. This sharing provides the Iraqis with the most up to date 
nursing education processes that are positively impacting the state of 
healthcare in Iraq.
    While the experiences of deployment produce exceptional nurse 
leaders, I am concerned about the resiliency and ability of our 
returning nurses to reintegrate with their families and return to 
hospital positions where they continue to provide care to wounded 
warriors--in some cases, the same warriors they helped to resuscitate 
in theater. Their compassion fatigue is evident when I talk with them, 
many of whom are on their third and fourth deployments. We are 
developing retention strategies that allow these caregivers to ``take a 
knee'' so they can re-charge their mental, physical, and emotional 
energies in order to re-engage as Army Nurses.
    With respect to leadership training, we currently have 255 new Army 
Nurse Officers at nine of our Regional Medical Centers receiving 
individual training and mentoring that emphasizes development and 
acquisition of clinical deployment skill sets and competencies to 
bridge the gap between academic preparation and the clinical practice 
environment. We are leveraging courses such as the Emergency Pediatric 
Nurse Course and the Trauma Nurse Competency Course (TNCC) to ensure 
every one of our nurse officers has the right capabilities to deploy in 
support of any condition-based mission.
    Trauma nursing is our core competency. Subsequently we are focusing 
on emergency and critical care skills required in a disaster or 
deployed setting to increase the quality of care we provide. To 
accomplish this, I have directed a top-to-bottom review of all Army 
Nurse Leader development training programs. This strategic objective 
emphasizes development of clinical, leader, and deployment skill sets 
and competencies for Army Nurse Corps personnel as they progress in 
rank and clinical experience.
    Last, we are looking at redesigning the entire leadership 
lifecycle, from staff nurse through Deputy Commander for Nursing. Our 
goal is to create a robust program that ensures nurses have the 
required skill sets and experiences at each step in their careers. This 
means ensuring that there are appropriate training opportunities phased 
throughout the lifecycle and a clearly defined job description and 
associated competencies for each role. In addition, we are looking at a 
set of potential structural changes to the lifecycle aimed at 
increasing flexibility and creating new career pathways for our diverse 
set of nurses.
Warrior Nursing Care Delivery
    My second strategic objective is to get back to the basics of 
delivering high-touch, supported by high tech, nursing care. We are 
designing nursing care delivery systems that wrap nursing capability 
around The Surgeon General's goals and mission. I'd like to talk about 
five special initiatives we are pursuing in support of providing model 
nursing care.
    In our first initiative, we completed a comprehensive evaluation of 
best practice civilian and federal nurse care delivery systems in order 
to distill elements into standardized Army Nurse in-patient and 
ambulatory care delivery systems. For example, nurses at Walter Reed 
Army Medical Center (WRAMC) are using several patient discharge 
management tools that are decreasing length of stay, re-admission 
rates, and improving patient satisfaction. Nurses at Tripler Army 
Medical Center (TAMC) implemented Relationship Based Care (RBC), a 
nursing care delivery model, in 2007. This model emphasizes patient and 
family centered care, a primary-within-team nursing model, as well as 
well-defined scopes of practice for all nurses. Since implementation of 
RBC, nursing at TAMC has experienced an increase in both nursing and 
patient satisfaction, as well as a decrease in civilian nursing staff 
turnover.
    We incorporated several of these perspectives into the professional 
nursing pilot at Blanchfield Army Community Hospital at Fort Campbell, 
Kentucky. This pilot combines and capitalizes on care delivery 
advancements made at individual military treatment facilities (MTFs) 
and has three aims: develop nursing practice standards across all MTFs, 
improve patient satisfaction and outcomes, and increase staff 
satisfaction and retention. These aims will be reached through 
combining increased nurse autonomy and skill building with structured 
interdisciplinary communication and patient-centered and evidence-based 
care. The pilot is still underway, but after only a few weeks there has 
been a marked improvement in how the nursing staff communicates with 
their patients and physicians, as well as how they feel their input is 
valued by hospital leadership. We are implementing results of the pilot 
across all of Blanchfield's wards, and ultimately to all MTFs, to 
decrease practice variance and improve inpatient nursing care delivery.
    Our second initiative focused on ambulatory nurse role redefinition 
and developing appropriate, functional nurse staffing models. The Army 
Nurse Corps ambulatory workgroup developed a primary care staffing 
model that changes the role of the Registered Nurse (RN) from a 
reactive, episodic-focused role to a proactive, population-focused 
role. In September 2008 we initiated a year-long pilot study at 
Moncrief Army Hospital focusing on nurse role redefinition, staffing 
mix, and professional nursing care. We were able to develop a model by 
which patients with unmet medical requirements were targeted by a 
specific nurse assigned to their case (``My Nurse''), who would then 
work with the provider to review the patient appointment list prior to 
appointments and identify tests, labs, x-rays, etc. that a patient may 
need ahead of time. This not only provides a new role for the clinic 
nurses, but also expedites the ambulatory care process for both the 
patient and medical team. Outcome measures for the pilot include 
improving patient and staff satisfaction, decreased urgent care and 
emergency rooms visits, improved compliance with Health Effectiveness 
Data and Information Set (HEDISR), Clinical Practice Guidelines (CPGs) 
and other health metrics, increased percentage of time seeing their 
assigned provider and increasing access to care. Initial feedback from 
patients is that they love the personal attention they receive from 
``My Nurse'' and appreciate having someone they can call with questions 
or having someone call them to remind them of appointments or follow-up 
with them with educational materials, etc. The role of ``My Nurse'' is 
a paradigm shift in outpatient nursing and will require education and 
training of all outpatient nurses if identified as a best practice.
    Our next initiative is focused on the case management role, both in 
theatre and stateside. Nurse Case Managers (NCM) remain an integral 
member of the triad of care in Warrior Transition Units since their 
inception in April 2007. In addition to ensuring high patient 
satisfaction with care, NCMs have continued to facilitate other patient 
care improvements. In October 2008 the Warrior Care Transition Office, 
in coordination with the AMEDD Center and School conducted the first 
resident Warrior Transition Unit Cadre Orientation Course. The course 
is 2 weeks in duration with a 3 day track focused specifically on case 
management standards and skills. To date, the course has been conducted 
three times, with over 100 NCMs completing the training. NCMs continue 
to assist in decreasing the average length of stay for Warriors in 
Transition.
    In the Iraqi Theater of Operations, we established a NCM role aimed 
at caring for patients who have chronic, complex care requirements. The 
theater NCM's role includes monitoring average length of stay according 
to diagnosis, as well as by classification of personnel, such as United 
States, detainee, contractor, Iraqi Army, Iraqi Police, and civilian. 
In addition, the NCM helps facilitate the discharge plan with the 
physician and the inter-disciplinary team. COL Ron Keene was 
instrumental in establishing the first Nurse Case Management Program 
for detainees in a wartime theater with huge patient successes in the 
management of hypertension, wound care, and even chronic diabetic care 
management. The dedication of the Army Nurses and physicians focusing 
on the total care of our chronically ill detainees can be demonstrated 
by the decrease in admissions for the management of chronic illness by 
38 percent. This success has actually enabled reductions in bed 
requirements at the 115th CSH. Close management of chronically ill 
detainees follows strict adherence to the DOD/VA Clinical Practice 
Guidelines (CPG's) which are incorporated in daily detainee healthcare 
practices. With education and routine contacts, a growing percentage of 
the detainees have come into greater compliance and medication levels 
are either reduced or ultimately removed. Detainees are offered 
customer satisfaction surveys in Arabic and have reflected above 
average satisfaction with their care--results that rival the best 
customer satisfaction scores in our premiere Army hospitals. 
Additionally, Army NCMs insure that Iraqi Imams visit our patients 
weekly to provide religious support and guidance as a part of their 
health recovery.
    Another Warrior Care initiative focuses on developing a practice 
model that incorporates the use of our outstanding enlisted corps. At 
the Bucca detainee hospital, one of the senior NCO Licensed Practical 
Nurses (LPN's) oversees the 68W (medic) primary care screening of over 
14,000 detainees. The LPN ensures that each 68W has completed the 
Algorithm Directed Troop Medical Care (ADTMC) screening classes and 
demonstrates a sound understanding of the screening process, 
documentation and medication administration within the guidelines of 
the ADTMC scope of practice.
    The NCO LPN's are also integral to the new Iraqi nurse partnership. 
For the first time, an Operating Room and Intensive Care Unit team 
(includes one NCO/LPN) from one of our small hospitals at Al Kut will 
be going to one of the local hospitals to help train the Iraqi staff in 
operating room and post operative care procedures. The RN and LPN team 
provided hands on demonstrations to the Iraqi nurses helping them 
improve their clinical practice skills. At the Jamenson Combat Medical 
Training Center (JCMTC) in Iraqi, 1SG Eric Woodrum volunteered to work 
in the Air Force hospital Emergency Room to observe Point of Injury 
care. Those lessons learned were taken back and used at the Jamenson 
schoolhouse to improve Combat Lifesaver training and patient outcomes.
    Last, we are working with other Federal Nursing Service Chiefs to 
align initiatives and develop compatible practice models. For example, 
through strong Congressional support, the Army Nurse Corps, along with 
the Federal Nursing Services Chiefs, started the Psychiatric Nurse 
Practitioner program at the Uniformed Services University (USU). This 
program, while providing traditional curriculum, adds clinical training 
addressing some of the military unique behavioral health challenges and 
leadership building. The program will pay dividends in the future as we 
address the behavioral health challenges faced by our Service Members 
in theaters of operation and after they return home.
    We are also furthering cooperation through the Tri-Service Nursing 
Research Program (TSNRP) to improve trauma and deployment competencies 
for nurses in all military services. One example of that cooperation is 
the publication of the evidence-based ``Battlefield and Disaster 
Nursing Pocket Guide''. This guide provides a portable, up-to-date, 
evidence-based source of information for nurses on the battlefield and 
those responding to disaster or humanitarian situations. TSNRP has 
provided 7,500 copies of this handbook to both deployed and non-
deployed nurses throughout the services. We are also leveraging TSNRP 
funded research to improve Warrior care delivery. For example: Pain and 
Sleep Disturbance in Soldiers with Extremity Trauma; Impact of Body 
Armor on Physical Work Performance; A Comparison of PTSD and Mild TBI 
in Burned Military Service Members, and Sleep Disturbances in U.S. Army 
Soldiers after Deployment to Afghanistan and Iraq.
Evidence-based Management and Clinical Practice
    Evidence-based management aims to merge best practices in both 
clinical care and business practice to produce outstanding outcomes. 
These goals are supported by blending data measurement and analysis and 
system redesign into the daily performances of all our nurses.
    In support of our aims, we are working to train the next generation 
of nurse researchers by leveraging TSNRP and Army Nurse Corps 
researchers both stateside and in deployed environments. Developing the 
expertise of military nursing researchers is paramount to TSNRP's 
mission, as evidenced through its courses in grant writing, publishing, 
and advanced research methods. In addition, it is one of the only 
research programs to require its investigators to attend a post-award 
workshop where they are given information pertaining to the regulations 
of managing a grant. TSNRP provides a very high level of oversight of 
its awardees, ensuring the research is conducted with the highest 
rigor. We in the Army Nurse Corps appreciate their dedication to 
developing nurse researchers of the highest caliber.
    Besides training top-notch researchers, we are working to focus our 
research on improved systems and clinical outcomes, preferably with 
real-world recommendations that can be easily applied at the patient's 
bedside. One such research project was the Military Nursing Outcomes 
Database (MilNOD). Facilitated and implemented as an Army Nurse Corps 
initiative, MilNOD is the most comprehensive and historical effort of 
its kind in the United States. Analysis of data from 115,000 nurse 
shifts established significant associations between nurse staffing and 
patient outcomes, such as the occurrence of falls and medication 
administration errors as well as nurse needle stick injuries. 
Participating MilNOD MTFs decreased patient fall rates by 69 percent, 
medication administration errors rates by 50 percent and hospital 
acquired pressure ulcer prevalence by 62 percent, all of which were 
statistically significant reductions. Participating MTFs also 
experienced considerable cost avoidance (falls--$900,000/year; 
medication errors--$230,000/year; pressure ulcers--$450,000/year). As 
one of the most seminal studies linking nurse care practices with 
patient outcomes, the study results will be published in an upcoming 
edition of The New England Journal of Medicine.
    Army nursing has made a special effort to support research at all 
levels, as young researchers of today will become leaders in their 
fields in years to come. To that end, the nurses of Tripler Army 
Medical Center (TAMC) started a funded Evidence Based Practice (EBP) 
research project in 2007 that is now a part of their nursing practice 
culture. This fiscal year, nurses throughout the facility initiated 
seven new Evidence Based Practice Projects (EBPP). These studies ranged 
from improving infection control in ICU settings, to patient 
satisfaction for pregnant patients on bedrest, to improving 
communication between nurses on different hospital units. The range of 
topics studied demonstrates an impressive effort to improve systems 
while bringing research back to the bedside. I thank our officers, 
ranging from Lieutenants to Lieutenant Colonels, for their dedication 
to improving nursing care at every level.
    As we move forward with this strategic objective, we are making a 
special effort to use the power of technology to develop and 
disseminate best practices throughout the Corps. Integrating technology 
into best practices has started with ensuring patient safety through 
proper patient handoffs. Research has demonstrated that smooth, 
seamless patient handoffs are vital to safe patient care. Nurses at 
WRAMC in collaboration with the Department of Veterans Affairs (VA) 
Poly-Trauma Centers have developed a researched based nurse's note that 
is sent directly to the VA electronic medical record. This nurse-driven 
project resulted in increased nursing knowledge of patient conditions 
which enabled the receiving facility to put in place safety mechanisms 
to improve patient care and diminish risk of patient injury or poor 
outcomes. This project is one of the first times we have been able to 
transmit patient data directly from one electronic medical record into 
another agency's electronic record.
    Without dissemination of our collective knowledge, our advances 
would mean little to the Corps at large. Thus, we have developed a new 
ANC interactive website that allows for real time exchange of ideas and 
best practices, and improves communication across the Corps. We are 
also making a special effort to link research cells at different MTFs 
to promote Corps-wide collaboration.
Optimization of Human Capital
    My final objective, Optimization of Human Capital, is the strategic 
and coherent approach to the management of our organization's most-
valued assets, our people, who individually and collectively contribute 
to the achievement of the ANC objectives. Investing in human capital 
requires special attention to the recruitment and retention of our 
civilian and active duty nurses, while trying to influence the 
profession of nursing through academic partnerships.
    Recognizing that the majority of our organization is our civilian 
workforce, we are continuing to break down the barriers in recruiting 
and retaining stellar civilian healthcare professionals. We are 
committed to streamlining and reducing the gates in the personnel 
hiring process by setting accountability timelines compared to local 
averages. To maintain an influence on civilian nursing recruitment and 
retention, we have placed an ANC Officer in the Civilian Personnel 
Office in order to partner and facilitate progress on these issues.
    We have also started focusing on retention efforts for our civilian 
workforce. We have been very successful with our civilian nurse loan 
repayment program which was initially implemented 2 years ago. For 
fiscal year 2009, 169 of 186 applicants participated in the nurse loan 
repayment program. As a result of this program, we will be required to 
expend fewer resources to recruit and train new nurses. In addition, we 
have consulted with VA nursing to leverage their concept of clinical 
ladders for our civilian workforce. We are evaluating how best to use 
this program to promote clinical leadership opportunities for civilians 
and establish glide paths for their success in order to retain them on 
our team.
    Turning our focus toward active duty and reserve officers, the Army 
Nurse Corps has been very successful in recruiting this past year. For 
the first time in 7 years, United States Army Recruiting Command 
exceeded mission for both the active and reserve components. Regular 
Army Nurse Recruiters produced 297 nurse recruits against a mission of 
205 and the Army Reserve Recruiters produced 528 nurse recruits against 
a mission of 362. In addition, the Reserve Officer Training Corps 
(ROTC) experienced great success this past year and expects the same 
for the next 2 years. In fiscal year 2008 ROTC was responsible for 
producing 173 Army Nurses against a mission of 225. This was the 
highest number of accessions in 10 years. In fiscal year 2009, ROTC 
predicts a production of 221 Army Nurses against a mission of 225. And 
in fiscal year 2010, ROTC is projected to exceed their mission of 225 
by over 20 nurses (for a total number of 249).
    One of our most crucial retention tools is developing a track that 
will take our ANC officers through a lifecycle that focuses on clinical 
competencies even at the senior level. We are also evaluating our 
current force structure to ensure we have the right mix of skills and 
rank, and that we are assigning based upon capabilities. In addition, 
one of our most successful programs for retention has been the 
implementation of Incentive Specialty Pay (ISP) and Critical Skills 
Retention Bonus (CSRB). To date, 962 (44 percent) Army Nurse Corps 
officers have taken either the ISP or CSRB.
    Looking forward to the recruitment and retention of all our 
nurses--civilian, active, and reserve--we decided to optimize one of 
our most important retention strategies: responsive listening to our 
nurses. Accordingly, I directed dissemination of a Corps-wide 
organizational survey that asked our nurses what's on their minds. As a 
result, more than 2,000 Army Nurses identified areas for improvement in 
Corps performance. A key opportunity area identified is to increase 
junior officer involvement in setting the Nurse Corps' strategic 
agenda. In response, we incorporated the voices of Army Nursing's 
future leaders at our annual ``CJ Reddy Junior Leadership Conference'', 
held this past October in Washington, DC. This Conference brings 
together the most promising junior officers in the Corps for an 
intensive session built around learning, skill building, and 
networking. When asked what motivates them each day as a member of the 
Nurse Corps, these officers answered with five consistent themes: (1) 
the mission of serving their country and caring for Soldiers; (2) the 
diversity of opportunities the Corps provides; (3) the Corps' 
camaraderie and sense of family; (4) the available leadership training; 
and (5) the abundant rewards and benefits. We believe these five 
attributes create an unparalleled environment to practice nursing and, 
under my Human Capital imperative, plan to reinforce each of them to 
become an even stronger recruiting power.
    Last, we feel that to truly optimize our human capital strategy, we 
must pursue academic partnerships. The professional staff at several 
MTF's have worked diligently to support the clinical experiences of 
advanced practice nursing students. In addition, in cooperation with 
all the Federal Corps Chiefs, we are supporting Uniformed Services 
University in their active engagement of academic partnerships with 
nursing leadership organizations and schools of nursing to maintain an 
active and influential role in the future of nursing in America. 
Additionally, we are leveraging our retired AN officers, who are 
professors at a variety of civilian institutions, to serve as nursing 
role models, mentors, subject matter experts and ambassadors for the 
ANC.
                               conclusion
    Since becoming Corps Chief last July, I see clearly how to harness 
the power, passion, and pride of the Army nurses to develop the Army 
Nurse Corps priorities in support of the national health agenda and our 
Nation at war. Over the next 2 years we will execute the Army Nurse 
Corps campaign plan and use it to codify best practices for 
sustainability. The third year we will begin campaign planning again to 
ensure we remain relevant and well-postured as a force multiplier for 
military medicine.
    I envision an Army Nurse Corps in 2012 that serves as a model for 
the Nation, leading a culture of performance improvement across the 
entire continuum of care that is without peer in the delivery of 
nursing care excellence--where we measure our successes in the 
improvement of healthcare outcomes for patients and families, retention 
and satisfaction of our staff, and improved stewardship of our precious 
resources.
    I am establishing a culture that evaluates every aspect of 
traditional practice to ensure that we achieve the desired improvements 
in our patient's emotional, physical and spiritual well-being. The Army 
Nurse Corps will be known for the ingenuity and innovation applied to 
the most challenging opportunities, so characteristic of Army Nurses 
for the past 233 years. Constant compassion will continue to fuel us, 
driven by the courage to always do the right thing.
    I would like to leave you with a story about one of our nurse 
heroes. In 2007 we tragically lost a Command Sergeant Major to an 
apparent heart attack at Camp Victory, Iraq. This incident sparked an 
NCO to develop and implement a theater-wide Automated External 
Defibrillator (AED) program. The magnitude of this program was so 
important that GEN Petraus endorsed the NCO's plan. Just several weeks 
after the NCO initiated this program, he was confronted with a Soldier 
who was in cardiac arrest. He used an AED to resuscitate the Soldier, 
who was treated and sent home to his family. The NCO I've been 
discussing is SGM Richard Brewer, the LPN I brought into my Corps Chief 
office to enable my concept of the Army Nurse Triad that includes our 
LPN colleagues.
    I am so proud of our Corps and look forward to speaking with you 
next year about the progress we've made on our campaign plan. I'll 
close with our new motto that is the way ahead for the Army Nurse 
Corps: ``Embrace the Past''--leverage our lessons learned; ``Engage the 
Present''--achieve performance excellence; and ``Envision the 
Future''--ensure organizational credibility and sustainability. Thank 
you.

    Chairman Inouye. Now General Siniscalchi.
STATEMENT OF MAJOR GENERAL KIMBERLY A. SINISCALCHI, 
            ASSISTANT AIR FORCE SURGEON GENERAL FOR 
            NURSING SERVICES, UNITED STATES AIR FORCE
    General Siniscalchi. Mr. Chairman, Mr. Vice Chairman, and 
distinguished members of the subcommittee: It is an honor to 
come before you today to represent the United States Air Force 
Nurse Corps. I am proud to serve alongside Brigadier General 
Catherine Lutz, Air National Guard; Colonel Ann Manley, Air 
Force Reserves, and Chief Master Sergeant Joseph Potts, 
Aerospace Medical Service Career Field Manager. Together we 
represent a robust total nursing force supporting our Air Force 
chief of staff's top priorities.
    I would like to thank you for your continued support of our 
Air Force Nurse Corps. Thank you for providing the funding for 
our accession bonuses, health professions loan repayment and 
scholarship programs, and our first-ever incentive special pay 
program. We anticipate the incentive special pay program will 
positively impact our retention.
    Last year 55 percent of our nurses who separated had less 
than 20 years of military service and 61 percent of those were 
our young lieutenants and captains. We are diligently working 
with our Air Force personnelist and our Surgeon General to 
address and correct this issue. Although the incentive special 
pay will help retain our nurses, retention may further extend 
timing and reduce promotion opportunity until we correct our 
grade structure.
    Our enlisted medical technicians, in partnering with A1, 
secured funds for their critically manned specialties. Our 
independent duty medical technicians are heavily tasked with 
deployments and manned at only 72 percent. I along with Chief 
Potts am eager to see this initiative's impact.
    Through your sustained support of our Tri-Service Nursing 
Research Program, we recently published the ``Battlefield and 
Disaster Nursing Pocket Guide''. This guide is utilized 
throughout our deployed locations.
    We continue to conduct state-of-the-art research and 
validate evidence-based practice. Colonel Margaret McNeil, a 
Ph.D. Air Force nurse, is in Iraq as a member of the newly 
deployed combat casualty care research team, exploring 
advancements in medical therapies for our wounded warriors.
    The key to successful peacetime and wartime nursing 
operations is a robust nursing force, a force with the right 
numbers, right experience, and the right skills. Recruiting 
experienced nurses continues to be a significant challenge. 
Although we reached 93 percent of our accession goal, 56 
percent were novice nurses, validating the importance of our 
nurse transition program. I am pleased to inform you that our 
first civilian program at the University Hospital in Cincinnati 
graduated their first class on December 12.
    Our enlisted nurse commissioning program grows Air Force 
nurses from our highly skilled enlisted force. We had our first 
two graduates this year and we'll have 19 next year.
    Air Force nursing is an essential operational capability. 
In 2008 our total nursing force represented 34 percent of all 
deployments within our medical service. Our medics deployed to 
44 locations in 16 countries. Our total nursing force is well-
trained, highly skilled and committed to saving lives. We are 
called to a mission of caring for America's sons and daughters, 
and here are a few examples.
    Captain James Stewart, a nurse anesthetist, deployed to 
Joint Base Bilad, received a message from his friend and co-
worker Captain Dave Johnson informing him that his son, Army 
Staff Sergeant Curtis Johnson, had been wounded and was en 
route to Bilad. Captain Stewart met Curtis on arrival and 
recalls: ``He arrived stable, so we placed a call to his dad so 
they could talk before we started surgery. Curtis's spirits 
were high and I was amazed at how well he was taking the loss 
of both his lower legs.'' Following surgery, Curtis was 
aeromedically evacuated to Brooke Army Medical Center and is 
now undergoing rehabilitation at the Center for the Intrepid.
    The commemorative Air Force recognized Captain Bryce 
Vandersway with the Dolly Vincent Flight Nurse Award for 
aeromedical evacuation support to 651 sick and injured 
warriors, including two K9 military working dogs injured by 
improvised explosive devices (IEDs).
    As the trauma nurse coordinator at Joint Base Bilad, 
Captain Darcy Mortimer recalls her most precious memory: ``We 
simultaneously received five casualties from an IED blast. When 
the emergency department settled down, the hospital held a 
ceremony for the soldier we could not save. Two of his wounded 
comrades requested that their litters be placed so they could 
salute their fallen comrade and friend.''
    In the midst of death and heartache, there are stories of 
hope and joy. This past October, our staff delivered the first 
Afghan baby born at Craig Joint Theater Hospital, Bagram. The 
mother sustained massive injuries as a result of an explosion, 
but with the help of the Air Force medical team she delivered a 
healthy baby girl. According to Technical Sergeant Jeremiah 
Diaz: ``We had 15 minutes to come up with something. We used a 
warming blanket and made a little tent with coat hangers and an 
egg crate mattress. The newborn's presence was a ray of 
light.''
    Mr. Chairman and distinguished members of the subcommittee, 
thank you for allowing me to share today just a few of the many 
achievements of Air Force nursing. As our Air Force Medical 
Service celebrates its 60th anniversary, we recognize and we 
stand on the shoulders of giants. I commit to you we will 
continue to meet every challenge with professionalism, pride, 
and patriotism that have served as the foundation for our 
success. Our warriors and their families deserve the best 
possible care we can provide.
    It is the nurse's touch, compassion, and care that often 
wills a patient to recovery or softens the transition from life 
to death. There has never been a better time to be a member of 
this great Air Force nursing team.

                           PREPARED STATEMENT

    So on behalf of the men and women of nursing services, 
thank you for your tremendous advocacy and continued support.
    [The statement follows:]
      Prepared Statement of Major General Kimberly A. Siniscalchi
    Mister Chairman and distinguished members of the Committee, it is 
an honor and pleasure to come before you to represent Air Force Nursing 
Services and our Total Nursing Force (TNF). The TNF encompasses officer 
and enlisted nursing personnel of the Active Duty, Air National Guard 
(ANG), and Air Force Reserve Command (AFRC) components. The past year 
has brought many leadership changes to our TNF, and I look forward to 
serving alongside my senior advisors, Brigadier General Catherine Lutz 
of the ANG and Colonel Anne Manly of the AFRC. We are glad to have 
Colonel Manly back after her recent deployment to Joint Base Balad, 
Iraq where she served as Chief Nurse of the 332nd Expeditionary Medical 
Group, and saw first-hand the incredible work our nurses and 
technicians perform daily. Together we will continue to strengthen our 
TNF by supporting our nursing service personnel as they continue to 
meet ever-increasing commitments, deployments, and challenges with 
professionalism and distinction; and supporting the Chief of Staff of 
the Air Force's (CSAF) top priorities to (1) Reinvigorate the Air Force 
Nuclear Enterprise, (2) Partner with the Joint and Coalition Team to 
Win Today's Fight, (3) Develop and Care for Airmen and their Families, 
(4) Modernize our Aging Air and Space Inventories, Organizations and 
Training, and (5) Acquisition Excellence.
                        organizational structure
    On September 29, 2008, the Air Force Medical Service (AFMS) 
achieved the CSAF's directive to transform and consolidate headquarters 
management functions by establishing the Air Force Medical Operations 
Agency (AFMOA) in San Antonio, Texas. This single support agency was 
established through an Air Force Smart Operations 21 initiative, and is 
led by a cadre of experts from across the Air Force Medical Service. 
They provide premier support and guidance to nine Major Commands 
(MAJCOM), 75 Military Treatment Facilities (MTF), and 39,000 medics to 
reduce levels of oversight at the MAJCOM levels. Brigadier General Mark 
A. Ediger assumed command of AFMOA on September 29, 2008.
    This past summer, the AFMOA Surgeon General Nursing (SGN) 
directorate, led by Colonel Leslie Claravall, in conjunction with the 
MAJCOM SGNs, successfully transitioned the clinical oversight as well 
as education and training functions from United States Air Force Europe 
Command and Air Mobility Command. In May, June, and July of this year, 
the AFMOA SGN will take on the clinical oversight of Air Education and 
Training Command, Air Force Material Command and Air Force Special 
Operations Command respectively. In 2010, the remaining MAJCOM SGN 
functions will transition to AFMOA. As a result, areas such as 
education and training, provision of nursing care, inpatient and 
outpatient, and nursing service resourcing will be centrally located. 
In short, AFMOA is progressing to a centralized reach-back Field 
Operating Agency.
                     building enduring competencies
    The Air Force Nursing Service Education and Training programs are 
inherent to, and the foundation of the successful development of our 
core competencies. The Nurse Transition Program (NTP) is experience by 
providing hands-on patient care while working side-by-side with nurse 
preceptors. The program focuses on maximizing skills utilizing real-
world patients and minimizing the use of simulation labs. In 2008 we 
had 10 NTP sites with 212 seats available to novice nurses entering the 
Nurse Corps with less than 6 months nursing experience. Last year Major 
General Rank reported the possibility of partnering with University 
Hospital in Cincinnati, Ohio for our NTP. I am pleased to inform you 
that our inaugural class of ten students graduated from our first 
civilian NTP Center of Excellence (CoE) at University Hospital on 
December 12, 2008. I had the privilege to attend and participate in the 
ribbon-cutting this past October and I am proud of the phenomenal work 
course supervisors, Major Chris Berberick and Captain Josh Lindquist, 
have accomplished. Due to the medical center's trauma census, students 
were able to acquire 95 percent of the required clinical skills from 
real-world patients after only 5 weeks into the 11 week course. As a 
result, we will decrease our Cincinnati course to 9 weeks to 
accommodate more classes. We have already expanded our total seats 
available to 241, and will soon add another civilian partner CoE as we 
open our eleventh site this July with the Scottsdale Healthcare System, 
in Scottsdale, Arizona. This facility has earned Magnet Status 
recognition from the American Nurses' Credentialing Center. Magnet 
status facilities are measured by excellent patient outcomes, high 
levels of job satisfaction, and low staff turnover. Additionally, they 
have a proven record of involving nurses in data collection and 
research-based nursing practice. We look forward to a long and 
productive partnership with the Scottsdale Healthcare System.
    Our enlisted medical technicians, led by Chief Master Sergeant 
Joseph Potts, are critical to the overall success of our TNF. Our need 
for highly skilled clinicians continues to rise and we are committed to 
training and developing enlisted clinical leaders. We continue to 
enhance our enlisted clinicians through our Critical Care Technician 
(CCT) Course, based out of Eastern New Mexico University. This program 
targets medical technicians working in intensive care units (ICU) that 
have low patient acuity levels, or medical technicians who have 
previously earned the Critical Care Technician identifier, but no 
longer work in that clinical setting. We offer twelve classes per year 
and have doubled the number of rotating training sites from two to four 
of our larger MTF/Medical Centers. Through this course, we have enabled 
115 Airmen to refresh and sharpen their critical care competencies, 
thus improving quality of care both at home station and abroad.
    July 10, 2008 marked another step toward what's being called the 
largest consolidation of training in the history of the Department of 
Defense, when the ceremonial groundbreaking service paved the way for 
the construction of the Medical Education and Training Campus (METC). 
Currently projected for completion in 2011, METC will serve as a joint 
campus, co-locating the Army, Navy, and Air Force's five major learning 
institutions currently spread across four states, into one consolidated 
medical training facility at Fort Sam Houston, Texas. The development 
of this tri-service training center will result in standardized 
training for medical enlisted specialties enhancing interoperability 
and joint training by educating Soldiers, Sailors, Marines, and Airmen 
on service-specific capabilities. Chief Master Sergeant Manuel Sarmina, 
chairman of the METC Tri-Service Enlisted Advisory Committee noted, 
``America's best and brightest will begin arriving here to work and to 
train in an environment that will be known and recognized as the 
premier learning center for our enlisted medical force.''
    On another front, over the past year David Grant Medical Center at 
Travis Air Force Base, California has implemented an Optimized Upgrade 
Training program for nurses. Captain Linda Peavely, who spearheaded the 
development of this program explains, ``Our goal was to increase the 
knowledge of nurses on medical-surgical units and progress them from 
the `competent' to `proficient' stage of nursing practice.'' Students 
participate in both didactic and clinical training in the intensive 
care unit. The result has yielded many additional benefits including 
improved wartime readiness skills, increased clinical capability and 
care of higher acuity patients, improved communication among staff, and 
recaptured revenue by decreasing the need to transfer patients. To 
date, David Grant Medical Center has produced 33 graduates, many of 
whom have recently returned from deployment and commented on how much 
more prepared and confident they felt stepping into the wartime 
environment as a direct result of this program. In January, Captain 
Peavely's hard work paid even more dividends when the Air Force 
Personnel Center, Nursing Education Branch, recognized this training 
platform as an official Air Force course, granting 92 hours of 
education credits to each graduating student.
    The Uniformed Services University of the Health Sciences (USUHS) 
Graduate School of Nursing (GSN) is yet another source preparing 
advanced practice nurses and nurse researchers. In 2008, Lieutenant 
Colonel Julie Bosch and Colonel Lela Holden successfully defended their 
dissertations, completing their Doctorate in Nursing degree. Major 
Brenda Morgan and Lieutenant Colonel Karen O'Connell are students 
currently in the USUHS doctoral program. Major Morgan is focusing her 
research on ``Positive Emotion and Resiliency'', while Lieutenant 
Colonel O'Connell is pursuing a study on ``Mild Traumatic Brain 
Injury.''
                         expeditionary nursing
    The cornerstone of our profession is that Air Force Nursing is an 
essential operational capability. Combined with our enlisted medical 
forces, we are a critical component of the total AFMS network 
supporting our warfighters. In 2008, 18 percent (2,802) of our TNF 
deployed to 44 locations in 16 countries. Our medical forces deployed 
in support of Operations ENDURING FREEDOM and IRAQI FREEDOM, as well as 
a myriad of humanitarian missions spanning the globe. I am proud to 
report that our TNF represents 34 percent of all Total Force 
deployments within the AFMS. TNF nurses and medical technicians are 
providing remarkable operational support. We are well-trained, highly-
skilled and are committed to saving lives, educating others, and 
improving quality of life through research. We serve in this capacity 
not out of obligation, for we are an all-volunteer force. We are called 
to a mission of putting others first--of caring for America's sons, 
daughters, brothers, sisters, fathers, and mothers. We are called to a 
mission of forging international partnerships for a common good, and to 
aid war-torn countries in developing medical infrastructures, while 
sharing the message of hope and goodwill. In this regard, I offer you a 
sampling of our nurses' and medical technicians' experiences.
    In September, Lieutenant Colonel Kathryn Weiss, a Certified 
Registered Nurse Anesthetist (CRNA) assigned to a Critical Care Air 
Transport Team (CCATT) deployed to Camp Cunningham in Bagram, 
Afghanistan. CCATTs are a three-person team made up of a physician, 
nurse, and respiratory therapist, specially trained in critical care 
transport. Lieutenant Colonel Weiss recalls flying on an Aeromedical 
Evacuation (AE) mission aboard a C-130 airframe to a Forward Operating 
Base (FOB) that had an unexpected surprise. She stated, ``We'd been 
told we'd be picking up one CCATT patient, but discovered we had two. 
Our unexpected patient was a very young boy who had been shot in the 
head and brought to this desolate outlying FOB by his father.'' The 
surgeon had stabilized him, but he was in dire need of more definitive 
care. Lieutenant Colonel Weiss and crew packaged their patients for 
transport and returned to Bagram. Most recently she reported ``this 
past month has been especially difficult as we responded to two mass 
casualties from improvised explosive device (IED) blasts, flying five 
times in 6 days as patients were stabilized for transport. Two young 
Servicemen suffered burns on up to 75 percent of their body. The 
emotional aspect of caring for these young 20-year olds is unimaginable 
. . . praying for them and their families. We have incredible support 
from our front-end crews . . . they bend over backwards to assure we 
have what we need to care for these young men. The bonds and friendship 
we form here will continue long past this deployment.''
    Major Terry Vida deployed as a Discharge Planner to Task Force Med 
in Afghanistan from Travis Air Force Base, California. Shortly after 
arriving she was instructed to establish relationships with the Afghan 
hospitals to coordinate supportive care of local nationals once 
discharged from U.S. facilities. Due to local security threats, she was 
accompanied by Special Forces. She successfully solidified working 
relationships with four of the local hospitals and in the process, 
noted their most compromised areas included patient safety, infection 
control, and lack of training. As Major Vida stated, ``It is evident 
through observation they need our mentorship. They know about isolation 
in theory, but have no means or resources to apply what they have 
learned.'' She was fortunate enough to make contact with an English-
speaking worker at the local rehabilitation center and ultimately 
coordinated their first patient transfer for supportive orthopedic 
care. However, her most notable memory of the trip to Kabul was finding 
out she and her envoy had narrowly missed a suicide bomber's explosion 
by 10 minutes.
    These are but a few examples of the tremendous work our TNF is 
providing, saving lives, making a difference, and always rising to the 
challenge, whatever it may be.
                               readiness
    In order to provide our TNF personnel the critical care, trauma, 
and deployment skills necessary, we utilize numerous training 
platforms. The AFMS and Nurse Corps continue to produce hundreds of 
deployment-ready medics through the Centers for Sustainment of Trauma 
and Readiness Skills (C-STARS) located at University Hospital in 
Cincinnati, Ohio, R. Adams Crowley Shock Trauma Center in Baltimore, 
Maryland, and Saint Louis University Hospital in Saint Louis, Missouri. 
Each C-STARS site is known for high-quality/high-volume trauma care, 
cutting-edge research and excellence in education. The C-STARS 
Baltimore focuses on surgical and emergency care, while the Cincinnati 
site is designed specifically for clinical sustainment of CCATTs. The 
C-STARS Saint Louis is a dual Active Duty and ANG platform, with half 
of the faculty and students represented by the ANG. In 2008, 781 
physicians, nurses, and technicians completed this vital operational 
training. When enrolled in this course, almost half of the students are 
hard-tasked to deploy, while the remaining students will deploy some 
time in the next scheduled deployment cycle.
    Another building block in our arsenal of educational programs is 
the Critical Care and Trauma Nursing Fellowships. This fellowship 
program has consistently produced skilled critical care and trauma 
nurses, and has helped us in meeting our requirements in these critical 
specialties. Recruiting fully qualified critical care and trauma nurses 
continues to be a challenge. Nurse Corps officers are competitively 
selected to enter an intense 12-month training program at one of the 
following locations; Wilford Hall Medical Center in San Antonio, Texas, 
St. Louis University Hospital in St. Louis, Missouri, or the National 
Naval Medical Center in Bethesda, Maryland. By the time students reach 
their seventh month in the program, they are clinically and 
didactically prepared to deploy in their specialty. Last year this 
fellowship program produced 23 nurses combined, and currently enrolled 
this academic year are 18 critical care and 5 trauma nurse fellows. 
Additionally, as part of the preparation for this course, the student 
must complete either the Essentials of Critical Care Orientation (ECCO) 
course or the Emergency Nurses Orientation (ENO) course, respective to 
their specific fellowship. Both courses are online, self-paced, and 
focus on the skills and theory required to successfully care for 
critically ill adults. These online courses are available to all Air 
Force critical care and emergency nurses, so they may continue to hone 
their skills while earning up to 68 hours of continuing education 
credits. Over the past year, 117 nurses have enrolled in the ECCO 
course and 63 nurses have enrolled in the ENO course.
    Two additional avenues employed to assist our TNF in remaining 
deployment-ready are clinical rotations established through Training 
Affiliation Agreements (TAA) and the Sustaining Trauma and 
Resuscitation Skills--Program (STARS-P). In 2006 we identified a need 
to ensure nurses who were assigned to outpatient or non-clinical 
settings, were maintaining their operational clinical currency, and 
therefore recommended nurses attain 168-hours of bedside nursing care. 
Over the past 3 years, this initiative opened the door for 57 TAAs, 
further strengthening our partnership with civilian and sister-service 
facilities. Where available, our medical technicians have also 
capitalized on these joint ventures. These relationships and training 
opportunities are critical in producing nurses and technicians prepared 
for diverse patient populations in the deployed environment. For 
example, in August 2008, nursing personnel from the 3rd Medical Group 
(MDG) DOD/Veteran's Administration (VA) Joint Venture Hospital and the 
Alaska Native Medical Center expanded their TAA partnership to include 
rotations in the pediatric intensive care unit. Unfortunately, up to 40 
percent of the patients in military hospitals in both Iraq and 
Afghanistan are local children. As Major Dais Huisentruit, who deployed 
to Balad as the Intensive Care Unit Flight Commander explains, ``we had 
nurses from different ICU backgrounds, but most worked with adults. It 
was amazing to see them work together taking care of these children. At 
one point we had a total of 6 burned kids in the unit at one time, 
ranging in age from 2 to 7 years-old. On another occasion, we even had 
a group of three brothers . . . two of them in the ICU. They all 
survived.'' The skills our TNF has garnered through these TAA is saving 
lives and paying immeasurable dividends.
    The STARS-P is a program whose focus will not be on pre-deployment 
immersion, but ongoing clinical rotations at local civilian treatment 
facilities with Level I, and in some cases Level II trauma programs. 
The AFMS currently has five TAAs for STARS-P training sites in 
cooperation with local MTFs (San Antonio Military Medical Center, 
Texas, Luke AFB, Arizona, Nellis AFB, Nevada, Wright-Patterson AFB, 
Ohio, and Travis AFB California), and is looking to add a sixth site 
connected to Scott AFB, Illinois later this year. Currently projected 
for full implementation in fiscal year 2010, clinical rotations will be 
scheduled for 1 to 2 weeks and may also include technically-advanced 
simulation centers.
                              quality care
    After 9/11, medical leaders across the military health services 
enacted a plan to develop and implement a trauma system modeled after 
the successes of civilian systems, but modified to account for the 
realities of combat--this plan matured into what is now known as the 
Joint Theater Trauma System (JTTS). Nursing's role within the JTTS's 
trauma performance improvement program spans the trauma continuum. 
Nurses serve as Trauma Nurse Coordinators (TNC) in combat zone MTFs, 
flight nurses within the Air Force AE system, members of 
multidisciplinary trauma teams at overseas, stateside, and VA 
hospitals. Many of the trauma performance improvement initiatives that 
have occurred since the development of JTTS have been led by nurses 
serving within this system. One vitally important role is that of the 
TNC. The TNC is the critical link in the complex continuum of trauma 
care from point-of-injury to treatment facilities in the Continental 
United States (CONUS). The TNC provides data to affect local and 
system-wide changes, in addition to trauma care expertise. Their role 
is fast-paced and multi-faceted. At the local level, the TNC impacts 
people and processes in several spheres of influence including primary 
trauma care, education, process improvement, and collaboration with 
literally every hospital department and specialty. They review all 
trauma patients' charts, compile and analyze complex data, and channel 
the information into the trauma system to improve combat casualty care.
    Another program that has positively impacted patient outcomes and 
safety is the Rapid Response Team (RRT). This nurse-led program, 
initiated at David Grant Medical Center, was established to provide the 
nursing staff an avenue for early intervention at the first signs of 
negative changes in a patient's condition. When the RRT is called upon, 
an experienced critical care nurse and respiratory technician come to 
the bedside within 5 minutes to assess the patient and provide pre-
emptive care, preventing further deterioration. This pro-active 
approach has resulted in earlier medical interventions, a lessening of 
the severity in patient conditions, improved communication, and 
expected seamless, well-coordinated transfers between units when 
necessary. RRT is an example of an ICU without walls where critical 
care teamwork makes a difference for both our patients and staff.
    Our enlisted forces have also made great achievements this past 
year. In August, Special Experience Indicator (SEI) 456 was approved 
for our enlisted medical technicians who maintain national currency as 
a Paramedic. Our Career Field Manager, Chief Master Sergeant Joseph 
Potts is leading a team of experts in building standardized Air Force 
Paramedic protocols. By establishing this SEI we ensure our medical 
technicians have a nationally defined advanced care capability to meet 
operational needs.
    One more example of our multi-faceted approach to quality care is 
the Center of Excellence for Medical Multimedia (CEMM), 
organizationally aligned at AFMOA. The CEMM's mission is to provide 
patient education material that improves knowledge, patient compliance, 
and patient satisfaction. Diseases or conditions must meet certain 
criteria to be targeted for CEMM program development. Some program 
examples include Women's Health, Traumatic Brain Injury, and Diabetes 
Prevention. As CEMM's Director of Education Services, Captain Laurie 
Migliore's role is diverse as she assists in program design, 
development, and product deployment. The CEMM has distributed 85,000 
programs per year and won over 75 national awards.
    Our profession is not one just of caring, but educating others as 
well. Members of our TNF are filling critical roles in medical Embedded 
Training Teams (ETT) in areas across Afghanistan. The mission of these 
ETTs is to strengthen and improve the Afghan National Army (ANA) 
healthcare system through education and training of Afghan medical 
personnel.
    Lieutenant Colonel Susan Bassett, deployed as a 205th Afghan 
Regional Security Integration Command Mentor, adds, ``We have taught 15 
classes so far, with an average of 25-30 attendees including nurses, 
medics, laboratory technicians, x-ray technicians, and pharmacists. I 
try to use very animated examples and write key words on the dry-erase 
board. They are extremely studious and eager to participate. They ask 
for handouts and complain if they are solely in Dari . . . they want 
them in English and Dari as they are trying to learn to read English. 
After giving them power point slides, several of the more experienced 
Afghan nurses volunteered to teach some of the modules themselves. They 
were proud as peacocks!'' She goes on to share, ``The other day one of 
the nurses told a visiting reporter, in very halted English, `We . . . 
love . . . Mama Bassett!' '' Lieutenant Colonel Bassett has certainly 
made a lifelong difference in the quality of care these Afghan nurses--
provide just one more step in winning their hearts and minds.
                                research
    The research initiative known as the Deployed Combat Casualty Care 
Research Team (DCCCRT) consists of six Army and three Air Force members 
with the purpose of facilitating mission-relevant research in the 
Multi-National Corps--Iraq Theater. In September 2008, a Balad research 
team was established which included Colonel Margaret McNeill, an Air 
Force Ph.D.-prepared nurse, a flight surgeon, and a podiatrist. Colonel 
McNeill is the first Air Force nurse researcher to join the DCCCRT. The 
role of the team is to provide guidance and initial review for all 
research conducted in Iraq. The Ph.D.-prepared nurses provide 
leadership on human subject protections and the ethical conduct of 
research. Each team member is involved in collecting data for a variety 
of research protocols focusing on the care of combat casualties. Over 
100 research studies have been conducted or are in planning stages as a 
result of the team's efforts. More than 12,000 subjects have been 
enrolled in studies. Areas of research conducted by the military in 
Iraq that have led to advancement in medical therapies include 
tourniquet application, resuscitation, blood product administration, 
burns, wound care, ventilation management, patient transport, Post 
Traumatic Stress Disorder (PTSD), Traumatic Brain Injury, and 
infectious diseases. Nurse-led studies have investigated pain 
management, carbon monoxide exposure, women's healthcare, sleep 
disturbances in soldiers, and PTSD/burnout and compassion fatigue in 
nursing personnel.
                        recruiting and retention
    According to the latest projections from the U.S. Bureau of Labor 
Statistics, more than 1 million new nurses will be needed by 2016. Of 
those, 587,000 are projected to be new nursing positions, making 
nursing the nation's top profession in terms of projected job growth 
(www.bls.gov/opub/mlr/2007/11/art5full.pdf). A separate report, titled 
``The Future of the Nursing Workforce in the United States: Data, 
Trends, and Implications'', found that the shortage of RNs could reach 
as high as 500,000 by 2025 (www.jbpub.com/catalog/9780763756840). It is 
evident Air Force Nursing will need to take advantage of every 
opportunity to recruit and retain nurses.
    In fiscal year 2008, we accessed 302 nurses against our total 
accession goal of 325 (93 percent). The Air Force Recruiting Service 
ultimately delivered 226 nurse accessions, filling 69.5 percent of our 
total accession goal. Our challenge remains with recruiting fully 
qualified and specialty nurses in the areas of mental health, 
anesthesia, medical-surgical, emergency and critical care. While 93 
percent appears positive, only 44 percent of those were considered 
``fully qualified,'' meaning they had a minimum of 6 months previous 
nursing experience. Fifty-six percent of all nurse accessions were 
``novice nurses,'' having less than 6 months nursing experience. The 
shortage of experienced nurses is a direct reflection of our national 
nursing shortage. Additionally, it is difficult to compete with our 
civilian counterparts in recruiting experienced nurses, as they offer 
many lucrative incentives.
    We take advantage of numerous venues to access nurses. In addition 
to our recruiting services, we bring nurses into the Air Force through 
a variety of programs. Utilizing the Air Force Reserve Officers' 
Training Corps, Airmen Education and Commissioning Program, the 
Enlisted Commissioning Program, and the Health Professions Scholarship 
Program, we accessed 70 nurses in 2008.
    In 2007 we launched our Nurse Enlisted Commissioning Program 
(NECP). The goal is to grow Air Force nurses from our highly successful 
enlisted medics. The NECP is an accelerated program for enlisted Airmen 
to complete a full-time Bachelor of Science in Nursing (BSN) at an 
accredited university while on active duty. This program produces 
students completing their BSN and obtaining their nursing license in 24 
months or less through either a 2 or 1 year program, depending on their 
entry level. Airmen who complete this program are then commissioned as 
second lieutenants. Since its inception we have selected 73 students 
from 83 applicants and project a steady state NECP quota of 50 per year 
for the 2 year program beginning fiscal year 2011.
    We strive to sustain and exceed our recruitment goals, but Nurse 
Corps retention remains problematic. In 2008, 55 percent of the nurses 
who separated had less than 20 years of military service. In 2008 
alone, 61 percent of those separating were our young lieutenants and 
captains. The number of lieutenants separating has nearly tripled over 
the past 3 years. We are hopeful the implementation of the Nurse Corps 
Incentive Special Pay (ISP) program will make a positive impact on 
retention; however, we are concerned about the unintended consequences. 
A resulting increase in retention of company grade officers may further 
extend timing and reduce promotion opportunity due to our small number 
of field grade requirements.
    While we currently offer incentive special pay to CRNAs at variable 
rates, we have never had the resources to recognize clinical nurses for 
seeking and earning professional national certification and advanced 
academic degrees in various nursing specialties. With ISP we offer an 
even more appealing pay incentive if a nurse with an identified 
certification, additionally desires and commits to work in an approved 
clinical area and for a specific amount of time. We are pleased to be 
able to acknowledge our highly-skilled professional nurses in the 
clinical arena.
    Our active duty enlisted forces also scored a win this past year 
with their own Selective Re-enlistment Bonus (SRB). Even though their 
overall manning appears to be strong at 94 percent, our Independent 
Duty Medical Technicians (IDMT) are heavily tasked with deployments and 
manned at only 72 percent. This SRB is a first-ever for our IDMTs, and 
I, along with Chief Master Sergeant Potts, am eager to see the impact 
of this initiative.
                               leadership
    As a Corps, we place heavy emphasis on purposefully developing 
leaders, clinically and professionally for the AFMS. Our Nurse Corps 
Development Team (DT) convenes three times a year to ensure Nurse Corps 
officers are provided deliberate career progression opportunities. The 
DT competitively selects our squadron commander and chief nurse 
candidates, both of which represent pivotal career leadership 
milestones. Furthermore, the DT identifies through a scored-board 
process, those leaders who would most benefit from developmental 
education in-residence. In 2008, the Nurse Corps garnered 90 annual 
quotas to send our best and brightest captains to Squadron Officer 
School.
    Another recent development on the topic of clinical leadership is 
the creation of master clinician authorizations. This affords an 
opportunity for our most clinically experienced senior nurses with 
advanced academic preparations to remain in patient care settings 
without sacrificing promotion or advancement opportunities. We 
currently have identified 20 master clinician positions scattered among 
our larger MTFs as well as the Uniformed Services University of Health 
Sciences representing the areas of CRNAs, Perioperative Nursing, 
Education and Training, ICU, Family Nurse Practitioner, and Nursing 
Research.
    Nurse leaders are critical in every environment, especially in 
deployed locations. Last year we successfully acquired a deployed 
Colonel Chief Nurse position at Joint Base Balad, Iraq, and we 
anticipate permanently adding another at Bagram's Craig Theater 
Hospital. The corporate experience of seasoned chief nurses in the 
grade of Colonel lends itself to mentoring not only nursing services 
personnel, but officers from across the AFMS.
    Not only do we deploy as chief nurses, but in the role of 
Commanders as well. Colonel Diana Atwell served as the 332nd 
Expeditionary Medical Operations Squadron Commander at Joint Base 
Balad. As commander, she led a squadron of approximately 200 combat 
medics ranging from trauma surgeons to medical technicians, whose 
efforts contributed to an overall survival rate of 98 percent at the 
DOD's largest and busiest level three theater hospital.
                              ang and afrc
    The ANG and AFRC are vitally important contributors to our TNF and 
the backbone of our highly-successful global AE mission. Since 2007, 
all AFRC mobilization requirements have been met solely by volunteers. 
In 2008, 503 AFRC nurses and medics stepped up to meet deployment needs 
at home and abroad, with 133 of those personnel sourced for missions 
related to Hurricanes Gustav and Ike. The ANG also played a key role as 
they deployed 268 medics and AE personnel. They processed and moved 600 
patients prior to and after the hurricanes. In addition to activating 
AE crews, the ANG mobilized AE Liaison teams (AELT), Command and 
Control (C\2\) elements, and Mobile Aeromedical Staging Facilities 
(MASF). The MASF changed location three times ``chasing the storm'' and 
providing evacuation assets to the area in most need. Rounding out TNF 
representation, the 43d Aeromedical Evacuation Squadron (AES) from Pope 
AFB, North Carolina, also played a role in responding to Hurricanes 
Gustav, Hanna, and Ike by deploying MASFs, AELTs, AE crews, and C\2\ 
elements to areas in Louisiana and Texas.
    Our AE system provides the vital link in uninterrupted world class 
medical care from the battlefield to definitive treatment facilities at 
home. We boast a 98 percent survival rate for those that reach a 
theater hospital; the highest survival rate in history. It is a total 
force human weapons system comprised of 32nd AE Squadrons representing 
12 percent Regular Air Force, 60 percent AFRC, and 28 percent ANG. The 
AE deployment requirements in support of Operations Iraqi and Enduring 
Freedom have moved nearly 71,000 patients since October 2001. The 
mission of AE is one close to all our hearts--a mission of carrying the 
most precious cargo of all, our wounded warriors.
                         humanitarian missions
    The TNF nurses and aerospace medical technicians represented a 
United States presence in locations crossing the globe including Iraq, 
Afghanistan, Qatar, Kuwait, Europe, Korea, Honduras, Trinidad, El 
Salvador, Guatemala, Morocco, Cambodia, Peru, and Suriname, to name 
only a few.
    Master Sergeant Jeffrey Stubblefield, an IDMT assigned to the 3rd 
MDG in Alaska, had the unique opportunity to deploy to Laos on a 
mission to recover remains of two Raven Intelligence Officers whose 
plane crashed after taking enemy fire during the Vietnam Conflict. As a 
medic assigned to Recovery Team One, he provided medical support to 51 
team members traversing treacherous terrain to reach our fallen 
comrades and enable the repatriation of their remains.
    Major Susan Perry, a CRNA assigned to Wright-Patterson AFB, Ohio, 
was part of JTF-Bravo, a medical element surgical team partnering with 
civilian surgeons in Comayagua, Honduras. Her team was pivotal in 
responding to and saving the lives of 30 civilians injured in a motor 
vehicle collision.
    Captain Troy Mefferd and First Lieutenant Ranjodh Gill deployed 
aboard the U.S. Naval Ship Mercy in support of joint humanitarian 
mission, Pacific Partnership 2008. Through this endeavor, medical care 
was provided to nearly 8,000 patients as well as 1,200 receiving dental 
care through Operation Smile.
    Lieutenant Colonel Tambra Yates, Flight Commander of Women's Health 
Services at Elmendorf AFB, was the first women's health provider to 
accompany a Family Practice Team to three remote Alaskan villages as 
part of Alaska Taakti Top Cover. She treated 32 patients, diagnosing 
three with cancer which required immediate surgery. As a result of her 
many contributions, future Taakti missions will include a Women's 
Health Service Provider as part of the team.
    Seven members of the 43rd AES participated in a historic mission 
which brought home three American contractors who'd been held captive 
for over 5 years by leftist Revolutionary Armed Forces of Colombia 
after their plane crashed in February 2003. The 43rd AES crew, along 
with 17 Airmen from Charleston AFB, South Carolina cared for and 
delivered them safely back to the United States on July 2, 2008. The 
close proximity to July fourth gave an all new meaning to 
``Independence Day'' for these former captives.
                              recognition
    It was a banner year as Air Force nurses and medical technicians 
were recognized for outstanding performance by a variety of 
professional organizations. Technical Sergeant David M. Denton captured 
the Airlift/Tanker Association's ``General P.K. Carlton Award for 
Valor.'' This annual award is presented to an individual who 
demonstrates courage, strength, determination, fearlessness, and 
bravery during a combat, contingency, or humanitarian mission. 
Technical Sergeant Denton was also named as the AFMS ``Outstanding Non-
Commissioned Officer AE Technician of the Year.''
    Every year the Commemorative Air Force (CAF) recognizes one 
exceptional flight nurse who engaged in live aeromedical evacuation 
missions and contributed significantly to in-flight patient care, by 
awarding them the ``Dolly Vinsant Flight Nurse Award.'' This award pays 
tribute to Lieutenant Wilma ``Dolly'' Vinsant who was killed in action 
over Germany during an AE mission on August 14, 1946. This year the CAF 
recognized Captain Bryce Vanderzwaag of the 86th AES at Ramstein AB, 
Germany. Captain Vanderzwaag provided direct AE support to 651 sick and 
injured patients, including two K-9 military working dogs injured by 
IEDs, during his deployment.
    Lieutenant Colonel Mona P. Ternus, an AFRC nurse, was recognized by 
the Tri-Service Nursing Research Program, Federal Nursing Section, as 
she was awarded the ``Federal Nursing Service Essay Award'' for her 
research and essay entitled, ``Military Women's Perceptions of the 
Effect of Deployment on their Role as Mothers and on Adolescents' 
Health.'' These are but a few examples of the stellar work our nurses 
and medical technicians perform every day.
                             our way ahead
    Nursing is a profession vital to the success of our healthcare 
system. Our top priorities include, first and foremost, delivering the 
highest quality of nursing care while concurrently staging for joint 
operations today and tomorrow. Second, we are striving to develop 
nursing personnel for joint clinical operations and leadership during 
deployment and at home station, while structuring and positioning the 
Total Nursing Force with the right specialty mix to meet requirements. 
Last, but not least, we aim to place priority emphasis on collaborative 
and professional bedside nursing care.
    Mister Chairman and distinguished members of the Committee, it is 
an honor to be here with you today and represent a dedicated, strong 
Total Nursing Force of nearly 18,000 men and women from our Active 
Duty, Air National Guard , Air Force Reserve, civilian, and contract 
forces. Our warriors and their families deserve nothing less than 
skilled and educated nurses and technicians who have mastered the art 
of caring. It is the medic's touch, compassion, and commitment that 
often wills the patients to recovery and diminishes the pain. As our 
Air Force Nurse Corps celebrates its 60th Anniversary, I look forward 
to working with our Sister Services and our Federal Nursing Team, as we 
partner to shape the future of our profession.

    Chairman Inouye. On behalf of the subcommittee, I thank all 
of you, but I have a few questions.
    There's no secret that there's a national nursing shortage. 
But somehow you gals have done a good job. The Air Force has 
met 93 percent of its goal. Army and Navy have exceeded their 
goals. What's the secret?

                    NURSE RECRUITMENT AND RETENTION

    General Horoho. Mr. Chairman, I think the secret is a 
couple things: the support that we've received from Congress 
with the different incentive specialty pay bonuses, that has 
had an overarching success with our nurses choosing to remain 
on active duty. The other is working very collaboratively with 
the Army Medical Recruiting Brigade. We stood up that brigade 
in 2007 that focused on recruiting nurses and the entire Army 
medical team, and so the first time last year since 2001 they 
actually exceeded the mission by 147 percent for recruitment of 
nurses on active duty.
    So having that specialized--there were also bonuses that 
were given to the recruiters to be able to target special 
critical categories. We've also been very, very proactive with 
telling the Army Nurse Corps story and having our nurses 
engaged in helping with the recruiting effort.
    Admiral Bruzek-Kohler. Mr. Chairman, there's no doubt that 
the support we received from you for our accession bonus 
increases and in particular our loan repayment program has made 
a tremendous difference in the numbers of direct accessions, 
particularly in light of the economic situation. For many of 
our new students, they come with extremely high student loans, 
more than I would have anticipated.
    In fact, I remember meeting a lieutenant in Bahrain who had 
not yet heard about the program, a new graduate with over 
$60,000 worth of school loans. So that has made a major, major 
difference in their lives.
    We've expanded our opportunities with our recruiters to use 
our own nurses in geographic areas, particularly nurses who are 
going to many of our professional organizations, both in terms 
of clinical skills, but also in terms of some of our diversity 
issues, and selling our story, telling our story as well. That 
has really made a difference in bringing in some of the 
diversity that we've not been able to get in the past.
    So we will continue to use all of those opportunities to 
bring in our direct accessions. We also have a huge pipeline, 
as we've heard from our sister service in the Air Force, with 
our medical enlisted programs, and using our corpsmen and other 
enlisted rating applicants to come into the Nurse Corps has 
really been our life's blood really for keeping our Corps at a 
level of being able to provide the kinds of care we provide. We 
will continue to support those programs, as well as our ROTC 
programs and our candidate programs.
    So again, we thank you for that support for all of those.
    General Siniscalchi. Senator Inouye, thank you, and I would 
like to reiterate my nursing colleagues' for our Air Force 
accessions. I can attribute our success has been with 
recruiting novice nurses, the nurses who are completing their 
baccalaureate degrees and are coming into the Air Force as 
novice with less than 6 months experience.
    Our loan repayment program, the increase that we received 
has been very successful. We were able to increase our quotas 
from 76 to 102. The increase in our health professions loan 
repayment quotas had a significant impact on our ability to 
recruit more novice nurses. The accession bonus has also been a 
very successful recruiting tool, and we appreciate the 
increased funds that we received in accession bonuses this 
year.
    We are finding that with the $30,000 in accession bonus and 
up to $40,000 in the loan repayment combination it's very 
helpful to those students who have large loan repayments. So I 
would like to thank you again for your support with those 
programs.
    We've taken several initiatives to continue success with 
recruiting. Dr. Cassells and Dr. Hinshaw from USU had organized 
a conference for academic partnerships addressing military 
nursing shortages, and that occurred this past weekend. We had 
the opportunity to meet with nursing deans and faculty across 
the country, and our objective was building collaborative 
relationships among military nursing services with the schools 
of nursing to foster additional educational opportunities and 
begin a campaign to educate the faculty from these schools, so 
as they are mentoring and advising their students they can help 
direct them toward military nursing as a potential career 
option.
    Chairman Inouye. Do you believe that we have enough nurse 
anesthetists, critical care nurses, operating room nurses, 
these specialties?
    Admiral Bruzek-Kohler. Those are our critical areas right 
now that we are looking at in terms of retention as well as 
accessing. We do not have enough. Critical care nurses are 
undermanned at about anywhere from 60 to 70 percent. We think 
anything below 90 percent is critical and we have to pay 
attention to them.
    I will say, our nurse anesthetists actually are very 
healthy. They aren't really one of the groups that we are 
focused on this year. Our perioperative nurses, our operating 
room nurses, our critical care nurses, and our nurse 
practitioners are below that critical 90 percent at this point 
in time.
    So we're doing a couple of things. When we're recruiting, 
we are looking to recruit those specialties, which means we 
will bring in a more seasoned, more experienced clinical nurse 
at a more senior rank. We don't anticipate, nor do we know at 
this point, whether these nurses would want to continue on a 
full naval career or at least be with us during a very critical 
time in our history while this war is still going on.
    For retention, again the loan repayment program has been 
helpful. The RNISP has been absolutely the most positive action 
we could have taken to entice our more senior nurses, 
particularly those who are at the point of either the 10-year 
mark where they either make the decision to leave now or they 
continue on for 20 years, or for some who have come in from the 
enlisted ranks, who at the 10-year officer mark now have 20 
years and can, in fact, retire. Those incentives have actually 
been positive in making the decision for them to stay in the 
Navy.
    Also, the opportunities to deploy have been remarkable 
incentives for our people to stay in the Navy.
    Chairman Inouye. General Horoho.
    General Horoho. Mr. Chairman, both the emergency nurse 
specialty as well as the ICU specialties are two of our highest 
deployers as we support two theaters of operations. So we have 
been working very aggressively to expand our critical skill 
sets by helping them with deployment skills and training. We 
have increased the number of seats to be able to train more.
    We have also started to target the population at the rank 
of major because I'm at 50 percent strength at that middle 
grade leadership, and we're trying to force more clinical 
expertise back at the bedside. So there's a pilot project 
that's ongoing that gives us the authority to be able to 
recruit individuals to come on active duty for a 2-year 
obligation. So what we are doing is working very closely with 
Recruiting Command and Accessions Command to be able to target 
that clinical expertise and bring them on active duty for a 2-
year obligation to help us bridge that critical shortfall that 
we have.

                            NURSE RECRUITING

    Chairman Inouye. General Siniscalchi.
    General Siniscalchi. Sir, direct recruitment of our nurse 
specialties continues to be a challenge. We've come up with 
programs, very successful programs, to help us with retention 
and to help us develop those skill sets that we need ourselves.
    The biggest impact on retention has been the incentive 
specialty pay program. We just started this program in January 
and so far over 76 percent who decided to participate in the 
program accepted the 4-year active duty service commitment. So 
that will have a significant impact on our ability to retain 
those critical areas.
    We've developed fellowships that are year-long in critical 
care, emergency training, and trauma training. That helps us to 
grow nurses in those critical areas.
    We continue to select nurses annually to attend USU for 
advanced academic training in critical areas. We've increased 
our family nurse practitioner quotas from 5 to 20 this year. We 
have an operating room cross-training course at Wilford Hall 
and a neonatal intensive care course at Wilford Hall, which is 
helping us to meet those critical specialties.
    Our future plan for this year is to build a mental health 
nursing course at Travis Air Force Base. We've had difficulty 
recruiting mental health nurses and, as you know, they are very 
critical in the care of our wounded warriors. So we are hoping 
to see this program come to fruition this year.
    We're building master clinician opportunities at the 
colonel ranks so that we can have senior leaders in anesthesia, 
in the operating room, in emergency rooms, and in critical care 
areas that can help grow and mentor those nurses in those 
critical specialties.
    Chairman Inouye. Thank you very much.
    Mr. Vice Chairman.
    Senator Cochran. Mr. Chairman, thank you.
    I'm concerned that the challenges in view of the war and 
the constant separation from families and friends may have a 
very serious consequence in terms of the success of recruiting. 
I was sitting here thinking about what could we do as a 
subcommittee to be helpful to you in increasing the likelihood 
that your goals were met and that retention rates are high in 
what you need.
    Would additional funding of specific programs targeted to 
recruiting and retention be in order, or do you have enough 
money to do what you need to do?
    Admiral Bruzek-Kohler. Well, I'll begin by saying that the 
support that you have given us to this date in time has shown 
dramatic improvements in the numbers of accessions, direct 
accessions, and the retention numbers. They have shown that 
they are successful in enticing people to join the Navy, as 
well as retaining them for a full commitment to a full career 
in the Navy.
    So I thank you for those and certainly we would appreciate 
to be able to continue to offer those incentives both as 
accession bonuses as well as our loan repayment program. As I 
mentioned, they have been an amazing support to our new 
students and our new graduates. While there is competition from 
the civilian sector our retention bonuses give them the 
opportunity to want to continue to serve their country.
    We do exit interviews of all of the nurses that leave the 
service, and I will tell you that deployments are generally not 
the reason why they leave the Navy. Usually it's family issues, 
dual career families and they want to get stable in a 
community. We also find as we are doing recruiting, 
particularly at schools of nursing throughout the country, that 
deployments are not a reason not to join the Navy. In 
particular, with our ability to provide humanitarian assistance 
and that type of service to other countries, that again is very 
enticing to a nurse who really wants to feel like they are 
fulfilling what the purpose of being a nurse is in the first 
place.
    So at this point I would just say thank you for what you've 
done for us up to this juncture and we would certainly be 
thankful for that continued support.
    Senator Cochran. General Horoho.

                            NURSE RETENTION

    General Horoho. Yes, sir. I would echo and say continued 
support of the programs that we do have in place, because when 
we have looked at our nurses 97 percent of those that are 
eligible to take those loan repayment programs or the bonuses 
have accepted them. So I think it does show that they are 
positive incentives to helping individuals remain on active 
duty.
    The other incentive is that there is tremendous pride with 
our nurses that deploy, and most of them that come back have 
echoed that they found great self-worth to be able to know that 
they were helping to enhance the healthcare of those 
servicemembers that are supporting our freedoms, as well as 
helping with the nation building.
    One of the things that has truly impacted I think retention 
is that we have changed our policy for deploying nurses from 12 
months down to a 6-month rotation. That in itself has helped to 
help with the time, to decrease the time away from their family 
members. So when we look at that, it's the financial incentive 
programs as well as those support programs that we have in 
place.
    We did a survey across the entire Army Nurse Corps so that 
I could have a baseline understanding of kind of the health of 
the Corps. Out of that survey we found two areas that we're 
going to focus on. One of them is looking at the redefinition 
of our head nurse role, of wanting to make sure that that role 
is having the ability to impact patient care and is really 
focused on outcome-based as well as leader development.
    So we have got a team that has stood up to look at best 
practices across our entire Army medical department, as well as 
looking at what is being done within our civilian health 
sector. Then we're going to redesign that leader development 
role, and we're also looking at the entire leader development 
training programs that we have in place, because when you look 
at young nurses during the exit survey--and we do exit surveys 
on everybody who's leaving--a majority of it is because of 
family reasons, either starting families or an elderly parent 
and needing to be home.
    So two things that we're doing. We're looking at and 
partnering with the Army to see how is it that we can have a 
program in place to help nurses take a leave and be able to 
still meet their family needs as well as their military 
obligation. Then we're also looking at how do we ensure that 
we've got our nurses best prepared for the deployment. So we're 
redoing--this past year we had 186 lieutenants that were 
assigned to each one of our medical centers for a year-long 
clinical immersed program to help them get their clinical 
skills solidified as well as their critical thinking skills 
prior to deployment.
    So I think those were the major things that came out of the 
organizational survey.
    Senator Cochran. Thank you.
    General Horoho. Thank you.
    Senator Cochran. General Siniscalchi.

                        NURSE ACCESSION BONUSES

    General Siniscalchi. Sir, I would add, in addition to your 
support for our nurse accession bonuses and the health 
professions loan repayment program, it's more than just the 
financial incentives that incentivize our nurses. The 
opportunities for advanced education, the opportunities for 
increased leadership roles and leadership training, has a 
significant impact on retention.
    The support of the health professions scholarship program 
has been critical. That program, the funding for that program, 
has allowed us to take nurses who already have baccalaureate 
degrees and put them in programs, civilian nurses, sponsor 
their education, put them in programs for anesthesia training, 
to become family nurse practitioners, women's health 
practitioners. And that allows them the opportunity to have 
advanced education paid for by us and then come on active duty 
and serve in those critical areas.
    So I would submit that continued support of the health 
professions scholarship program is a big incentive. We do 
continue to look at opportunities to partner with civilian 
programs so our nurses can have increased opportunities for 
advanced education and leadership training.
    Senator Cochran. Thank you very much.
    Chairman Inouye. Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman.
    I apologize for having to step out and miss your testimony. 
But I wanted to personally thank all of you and everyone you 
oversee for the tremendous work that they do. General Horoho, 
it's good to see you here. I appreciate everything you've done 
out at Madigan Army Medical Center and appreciate your 
leadership.
    Time is getting late, so let me just ask one question. I'll 
submit the other ones for your answers later. General Horoho, 
as you know, the Army's deployment schedule and adequate care 
of both soldiers and their families is very important to me. 
We've had the chance to talk about that. I wanted just to ask 
you how you are planning to continue to take care of children 
and families of servicemembers?

                      MADIGAN ARMY MEDICAL CENTER

    General Horoho. Yes, ma'am. First I'd like to thank you for 
your support, because we get tremendous support from you and 
your entire team in Madigan Army Medical Center being able to 
meet its mission.
    Madigan Army Medical Center--the troop strength on Fort 
Lewis has grown over the years, and so our enrolled population 
at Madigan has increased from 84,000 to currently we have 
106,000 enrolled beneficiaries. When you add on the healthcare 
benefits of that reliant population, which are those reserve 
soldiers and National Guard that are able to get extended 
healthcare, that increases it about 33,000. So we have the 
third largest enrolled beneficiary population in the Army, so 
about 133,000.
    Of that, 20,000 of those are women, so it's a growing 
population. The increased strength is 20,000 for women and for 
children.
    So what we've done is we have looked at--we have submitted 
a proposal for funding for a women's health center that will 
allow us to consolidate all of those services together to 
better meet the needs of our women and our children, so it's 
more of a continuum from infants through the adult parent.
    With that, if it's awarded, in 2010 we would look at design 
and construction beginning and having it completed about 2014. 
What that would allow us to do is to be able to maximize the 
efforts. We have a DOD fellowship, the only one in the Army, 
for developmental pedes as well as maternal-fetal medicine. So 
we'd have that capability of having the right case mix to be 
able to help our residents grow and our physicians grow in that 
specialty.
    We also are looking at, if that building is built, then we 
would take that space that is relieved to further expand our 
primary care to be able to meet the increased demand that we 
have from that troop population growth.
    Senator Murray. Well, I really appreciate your strong push 
on that and I want to be supportive in any way I can. It's a 
great way to move forward, I think. Obviously, whatever I can 
do from my end to support that, I will do.
    General Horoho. Thank you.
    Senator Murray. I just want all of you to know I'm worried 
about compassion fatigue with our nurses, and I know that's a 
recruiting issue, and a retention issue. We have to look at 
what we can do, Mr. Chairman, to support them. General, you 
mentioned several good ways to do that, and I want to encourage 
all of us to continue to do that.
    I do have several other questions. I know you've been 
sitting here a long time, so I will submit them for the record. 
But I do really appreciate the work that all of you do. So 
thank you so much.
    General Horoho. Thank you, ma'am.
    Chairman Inouye. The nurses are fortunate to have Senator 
Murray here.
    Senator Murray. We all stick together.
    Chairman Inouye. One of the priority projects I had when I 
first got on this subcommittee was to make certain that nurses 
got full recognition for their service. The one way to do that 
in the service was by rank. At that time, I believe I met one 
nurse who was a colonel. Most of the nurses I knew were 
captains or lieutenants. I'm happy to see two stars all over 
the place.
    But I note that in the Navy you have a rear admiral one 
star, rear admiral upper half two stars. But in the Army and 
Air Force there's no billet for one stars. Why is that?
    General Horoho. I'll go first if you don't mind. Sir, one 
of the things is that we have the Surgeon General's full 
support of leader-developing all of our Army Medical Department 
leaders. Our general officer slots are branch and material. 
What we do is we work very, very hard as a collective force to 
be able to ensure that we have the right leadership skill sets, 
not only the education programs, but the command opportunities, 
as well as the clinical opportunities to lead at that level.
    So we are working very closely to ensure that we have a 
pool of personnel that will be competitive for general officer 
at the one-star rank.

                           COMPETITIVE GRADES

    General Siniscalchi. Sir, having gone from colonel directly 
to two stars, the current construct has worked very well, and 
I've had tremendous support from my senior leaders. Within the 
Air Force, we have a limited number of general officer 
authorizations and we have elected to allow each of our corps 
the opportunity to have a star as their pinnacle rank.
    So if we add a Nurse Corps one star, we will have to offset 
it elsewhere. So our current plan is to continue with the 
current construct and continue to develop our colonel nurses 
and select those nurses who have more time in grade and more 
time in service, so that we're selecting our senior colonels as 
we promote them to the rank of two stars.
    Chairman Inouye. So it would help if we authorize one star 
billets with the money that we can provide here. You won't be 
against that, would you?

                     ADDITIONAL COMMITTEE QUESTIONS

    General Siniscalchi. Sir, I would never turn down stars.
    Chairman Inouye. Well, I thank you ladies very much. I want 
to thank General Schoomaker, Admiral Robinson, General 
Roudebush, General Horoho, Admiral Bruzek-Kohler, and General 
Siniscalchi for your testimony and for your service to our 
Nation.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
      Questions Submitted to Lieutenant General Eric B. Schoomaker
            Questions Submitted by Chairman Daniel K. Inouye
                          joint dod/va clinics
    Question. General Schoomaker, since there are other joint DOD/VA 
clinics and presumably more to come, are all the Services involved in 
raising, discussing, and resolving the myriad of issues presented by 
these joint facilities or is it done on a facility unique basis?
    Answer. The Health Executive Council and Joint Executive Council 
provide the basis for managing efforts related to joint DOD/VA clinics. 
The recent revival of the VA/DOD Construction Planning Committee will 
facilitate future joint planning efforts. Army facility pre-planning 
efforts take into account existing/proposed Community Based Outpatient 
Clinics (CBOCs) and also consider the possibility of current and future 
Joint Ventures. For example, the U.S. Army Medical Command (MEDCOM) is 
currently working with the local VA medical center and the Veterans 
Integrated Service Network to define the scope for a William Beaumont 
Army Medical Center (WBAMC) hospital replacement at Fort Bliss, Texas. 
WBAMC currently shares services through a Joint Venture agreement with 
the co-located VA medical center. There is potential for additional 
sharing and this is the heart of the ongoing pre-planning effort. 
MEDCOM has also incorporated CBOCs within hospital replacement projects 
such as Bassett Army Community Hospital at Fort Wainwright, Alaska, and 
DeWitt Army Community Hospital at Fort Belvoir, Virginia. The VA and 
Army are also working to locate CBOCs on Army installations such as 
Fort Detrick, Maryland and Fort Meade, Maryland. The VA recently 
renovated space at the former Lyster Army Community Hospital at Fort 
Rucker, Alabama, as it was downsized to an Army Health Clinic. The VA 
was able to vacate a lease for its CBOC in downtown Dothan, Alabama, 
and move closer to its beneficiary population at Fort Rucker.
                         centers for excellence
    Question. General Schoomaker, there seems to be an insatiable 
appetite for creating Centers of Excellence for everything from sensor 
systems to urban training and now we are creating them for medical 
research. While I fully support the establishment of the Defense Center 
of Excellence for Traumatic Brain Injury and Psychological Health, we 
also created them for amputees, vision, and hearing. All of these areas 
are critical to the health of our service members but we can't create 
centers for every issue facing our service members. Therefore, how do 
we ensure the appropriate level of attention and allocation of 
resources are devoted to the issues we are faced with today and also 
those we might encounter in the future?
    Answer. A Center of Excellence designation serves to establish 
priority; whether directed by Congress or within the Department. It 
results in a specific activity gaining visibility and attention above 
other areas. COE designation to date has come with costs as we grow 
organizational structure to oversee a specific area of interest. There 
is a critical balance that must be kept in check. The Services are 
operating comprehensive healthcare systems. We are caring for Soldiers 
and Families with a very broad spectrum of healthcare needs--nearly the 
entire spectrum of medical practice. We must be careful not to focus 
too much effort in too few areas and cause us to fail to meet the true 
needs of our beneficiaries; the majority of which fall outside the 
sphere of established COEs. Moreover, every one of my Army hospitals is 
a Center of Excellence. We provide exceptionally high quality 
healthcare outcomes. I must be able to appropriately resource every 
hospital and every patient encounter because every patient is 
important. A robust and capable direct care system is essential to the 
Army. I ask for continued support in resourcing our direct care system, 
as a system with global responsibility, and not fragmenting our system 
into a series of new Centers of Excellence.
                     centers for vision and hearing
    Question. General Schoomaker, Congress is awaiting the Department's 
detailed plans for establishing the Centers for Vision and Hearing. Can 
you tell me if you and your colleagues are approaching the staffing and 
resourcing of all of these Centers strategically or as independent 
centers?
    Answer. The Service Surgeons General do not have an active role in 
the development of the Department of Defense Centers of Excellence for 
Hearing and Vision. The approach to funding and staffing these Centers 
is being managed by the Office of the Assistant Secretary of Defense 
for Health Affairs.
                traumatic brain injury/malaria research
    Question. General Schoomaker, what are the specific mechanisms in 
place to ensure coordination at the planning, budgeting, and technical 
levels between the various Federal agencies (including NIH) on areas 
like Traumatic Brain Injury or Malaria research? Are there examples of 
DOD, VA, or NIH dollars being moved or redundant activities being 
terminated as a result of these coordination efforts?
    Answer. The U.S. Army medical research and development community 
coordinates closely with other services and agencies for both the 
President's Budget and the large Congressional Special Interest (CSI) 
funded programs to avoid redundancy. We include representation in our 
planning processes to identify various service or agency research 
portfolio lead, and gap areas across the spectrum of federally funded 
research. Through coordination with the other services and agencies we 
have not needed to terminate programs, but have instead been able to 
maximize our ability to direct research funds toward the gap areas. 
Traumatic Brain Injury (TBI) and Malaria are two of several extensively 
coordinated research areas.
    Planning and programming coordination is taking place through 
involvement of NIH and VA representatives on the expanded Joint 
Technical Coordinating Groups of the Armed Services Biomedical Research 
& Management (ASBREM) Committee, which are planning the investment for 
the future years Defense Health Program Research Development Test and 
Evaluation investment. At the technical levels, DOD, VA, and NIH 
scientists and research program managers actively participated in joint 
planning activities for major TBI and Psychological Health (PH) 
research programs, including the fiscal year 2007 Congressionally 
Directed Medical Research Program TBI/PH program and the fiscal year 
2008 Deployment Related Medical Research Program. These planning 
activities included joint program integration and review panels that 
were responsible for identifying research gaps, developing language for 
program announcements, and reviewing and recommending research 
proposals for funding. In fiscal year 2009, an integration panel with 
DOD, VA, and NIH members identified remaining TBI/PH knowledge gaps and 
developed a program announcement for research that addresses TBI/PH 
topics in response to a fiscal year 2009 CSI for TBI/PH research.
    The DOD is creating a collaborative network in the area of TBI/PH 
research. The DOD has partnered with Federal and non-Federal agencies 
to cosponsor several scientific conferences. The DOD recently partnered 
with NIH, VA, and the National Institute on Disability and 
Rehabilitation Research to sponsor a common data elements workshop, 
which will lead to the ability to compare results and variables across 
studies. The DOD is sponsoring a state-of-the-science meeting in May 
2009 to evaluate non-impact blast-induced mild TBI and identify for 
future research gaps in our current knowledge. Attendees have been 
invited from several Federal agencies (NIH, VA, and Environmental 
Protection Agency) as well as academia and industry. The DOD is 
planning a conference for November 2009 and will partner with several 
agencies to sponsor a TBI/PH research portfolio review to help identify 
gaps and assist with setting funding priorities among the various 
agencies. While new projects that address residual gaps in the science 
may overlap with ongoing research objectives, continuous 
interdepartmental and interagency portfolio analyses ensure that 
resources obligated through DOD funding mechanisms target residual and 
emerging gaps in TBI/PH research.
    The Defense Centers of Excellence (DCoE) for TBI and PH is 
establishing a strategic level TBI/PH research working group to further 
collaboration within the scientific community. This working group will 
help to prevent unnecessary redundancies and increase communications. 
The DCoE is collaborating with NIH on developing a research database, 
which may decrease the need to maintain several different databases.
    The U.S. Military Infectious Disease Research Program (MIDRP) is a 
joint Army/Navy program funded through the Army. To insure that 
research planning is coordinated between the major funders of malaria 
vaccine research, the U.S. Military Malaria Vaccine Program conducts an 
annual strategic review of its program by a Scientific Advisory Board. 
The membership of this board includes a broad range of internationally 
recognized experts including members from Vaccine Research Center at 
NIH; the Division of Intramural Research, National Institute of Allergy 
and Infectious Disease (NIAID), NIH; industry and academia, and the 
Bill and Melinda Gates supported Malaria Vaccine Initiative (MVI). 
Furthermore, a permanent member of the NIAID staff sits on the U.S. 
Army Medical Research and Materiel Command's Executive Advisory Panel. 
A broad strategic review was conducted recently by the Institute of 
Medicine (Battling Malaria Strengthening the U.S. Military Malaria 
Vaccine Program) and included a distinguished panel of both 
international experts and members from NIH, industry, and academia. The 
close review and coordination insures that there is no duplication of 
effort. The U.S. Army receives funding from the MVI. The U.S. Army 
malaria drug development program was also reviewed by the Institute of 
Medicine (Saving Lives, Buying Time, Economics of Malaria Drugs in an 
Age of Resistance). This program is coordinated and relies heavily on 
industry to bring anti-malarial drugs to the market. Essentially every 
U.S. Food and Drug Administration approved anti-malarial drug has been 
advanced, if not discovered by contribution from the U.S. Military 
Malaria Drug Program.
                               caregivers
    Question. General Schoomaker, while attention must be focused on 
the resilience training of our servicemembers and their families, I 
also suspect that caring for our wounded takes a considerable toll on 
our caregivers. What efforts are underway to address the well-being of 
our caregivers in order to retain these critical personnel?
    Answer. In 2006, the Army recognized that there was a need for 
educating and training its healthcare providers on the signs and 
symptoms of Compassion Fatigue and Burnout. It began deploying mobile 
training teams through the Soldier and Family Support Branch, U.S. Army 
Medical Department Center and School, to various Medical Treatment 
Facilities (MTFs) to train healthcare providers on the prevention and 
treatment of Compassion Fatigue and Burnout.
    In June 2008, the Army implemented a mandatory Provider Resiliency 
Training (PRT) program to educate and train all MTF personnel, to 
include support staff, on the signs and symptoms of Compassion Fatigue 
and Burnout. Below is a brief description of the phased implementation 
the PRT program:
  --Phase I of the program focuses on organizational and personal 
        assessment of Compassion Fatigue and Burnout using the 
        Professional Quality of Life Scale (ProQol) which measures 
        Compassion Fatigue, Burnout, and Compassion Satisfaction. Over 
        55,000 medical personnel completed the survey and were provided 
        a 30-minute introductory training session on provider 
        resiliency.
  --Phase II involves developing a resiliency-based self-care plan 
        through 2-hour classroom training with PRT trainers based at 
        each major MTF.
  --Phase III is an annual reassessment of an individual's stress 
        levels and adjustment to his/her self-care plan based on the 
        reassessment.
    The Institute of Surgical Research at the Brooke Army Medical 
Center also offers a pilot provider resiliency program that supplements 
the above PRT program. This program provides a Respite Center for its 
healthcare providers. Providers have the opportunity to receive 
educational classes on meditation, Alpha-Stim therapy (microcurrent 
electrical therapy for acute or chronic pain) and relaxation.
                         competing initiatives
    Question. General Schoomaker, do you have any competing initiatives 
to the new health system architecture development efforts, such as a 
different Unified User Interface, or a separate electronic health 
record?
    Answer. No. I am not aware of any competing initiatives. Army 
leadership understands the importance of a coherent, central enterprise 
architecture.
                      new enterprise architecture
    Question. General Schoomaker, how do you ensure Service specific 
needs are incorporated in the new enterprise architecture and how do 
you make sure they don't drive up costs throughout the system?
    Answer. There is an established governance process by which the 
Services provide feedback on health information technology matters. 
This process is being improved to better meet the needs of the 
enterprise. However, a governance process for the new enterprise 
architecture has not yet been established. Once the process is 
established, the Army looks forward to full and active participation.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
                        enterprise architecture
    Question. In your opinion, what additional steps need to be taken 
to ensure that electronic medical information is available to VA?
    Answer. We currently exchange an enormous amount of information 
with the VA, some of which are computable through the bidirectional 
health information exchange (BHIE). Clearly more can be done, and one 
recommendation we have is to accelerate the overhaul of our BHIE 
framework to a National Health Information Network (NHIN) compliant 
exchange. Not only would this conversion improve the data exchange 
between VA and DOD, but it would also allow us to exchange information 
with other Federal and civilian healthcare organizations. Given that 
over 60 percent of our 9.2 million DOD beneficiaries receive care from 
the civilian healthcare sector, we have a growing need to be able to 
exchange information. Furthermore, this is a great opportunity for DOD 
and VA to help execute President Obama's vision for electronic health 
records in the United States and to establish a national model for 
Health Information Exchange. Given the establishment of joint VA-DOD 
Federal healthcare facilities, we will need to migrate to an 
interoperable information system that is more closely coupled to meet 
healthcare, business, and benefits requirements.
    Question. How are each of your services obtaining medical records 
for servicemembers who receive contract care and how big of a problem 
is this for creating a complete record of care?
    Answer. Many facilities currently receive a fax or e-fax from the 
managed care contractor or from the facility that provided the care. 
Some facilities manually attach the records into our electronic health 
record, but others do not. This process varies from treatment facility 
to treatment facility. There is also no enterprise referral and 
authorization system that interfaces with our electronic health record, 
which is a problem. Our adoption of a National Health Information 
Network will help to address this problem. Further, as part of the 
managed care support contracts we should require TRICARE contractors to 
collect and send medical records electronically back to DOD. 
Furthermore, our central document management system (HAIMS) under 
development by TMA for military treatment facilities should allow 
TRICARE contractors to submit consult results to AHLTA. This capability 
would provide an automated method for tracking and incorporating 
consult results into AHLTA as the comprehensive electronic health 
record repository.
                            jag prosecutions
    Question. JCS Chairman Mullen has said publically he's trying to 
break the stigma of psychological health in the active force, yet the 
JAGs are still prosecuting as a ``crime'' depressed people who attempt 
suicide. While the Surgeons General aren't responsible for the UCMJ, it 
seems to me that they might be concerned about JAG prosecutions of 
people who have severe mental distress while serving or after serving 
in combat.
    Generals, do you think that the continued criminal prosecution of 
troops who commit suicide is a problem for the military's efforts to 
break the stigma of psychological health?
    Answer. From a healthcare perspective as The Surgeon General of the 
Army, I acknowledge that charges of this sort are not helpful to a 
patient's mental state and probably increase the stress the Soldier is 
under. The Army and the DOD are working to deal honestly and directly 
with the behavioral health needs of our Soldiers and Families. This 
requires that our Soldiers are forthcoming about their own personal 
histories of behavioral health challenges and actively seek the care of 
available professional mental health providers both in garrison and on 
deployments when/if they encounter problems. We cannot help to remove 
the stigma associated with behavioral health and its treatment without 
this proactive approach. Such charges could be counterproductive to the 
creation of such an environment of trust and healing.
    As a Commander, I understand the necessity of good order and 
discipline. Commanders decide whether to refer cases for prosecution in 
the military justice system. In every case involving misconduct, the 
background and needs of the individual must be weighed along with the 
needs of the Army and the Nation it protects. Commanders and senior 
leaders weigh these competing needs in the context of often complex 
cases involving allegations of serious misconduct and equally serious 
potential psychiatric explanations for this behavior, which may or may 
not amount to a lack of competence or capacity or negate individual 
responsibility. All leaders work together in due process under the 
Uniform Code of Military Justice (UCMJ) where the advice and findings 
of medical professionals is certainly heard so we do the right thing 
for the Soldier and the Army. Finally, I assure you that each case is 
judged on its own merits by individual commanders after a thorough 
review of the facts, and after advice and counsel by a judge advocate.
    I must note that there is no offense under the UCMJ for attempted 
suicide. There is an offense for malingering, which can include self-
injury with intent to avoid duty or service, and another for self-
injury without intent to avoid service. I note that while these are 
technically options under the UCMJ, I am unaware of Soldiers being 
charged for attempted suicide and, as a result, do not believe it to be 
a problem as the question suggests.
          vision center of excellence and eye trauma registry
    Question. The NDAA fiscal year 2008 Section 1623, required the 
establishment of joint DOD and VA Vision Center of Excellence and Eye 
Trauma Registry. Since then, I am not aware of any update on the 
budget, current and future staffing for fiscal year 2009, the costs of 
implementation of the information technology development of the 
registry, or any associated construction costs for placing the 
headquarters for the Vision Center of Excellence at the future site of 
the Walter Reed National Medical Center in Bethesda.
    What is the status on this effort?
    Answer. As the Army Surgeon General and Commanding General of the 
U.S. Army Medical Command, I do not have an active role in the 
establishment of the joint DOD and VA Vision Center of Excellence and 
Eye Trauma Registry. Responsibility for this organization and the 
registry belongs to the Office of the Assistant Secretary of Defense 
for Health Affairs.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran
                               deployment
    Question. Over the past few years, new programs have been 
implemented to assess the health of soldiers after deployment. With the 
large group of Guardsmen alerted for deployment and who have been 
deployed, including many from my home state of Mississippi, I am 
concerned about the continuum of care upon their return into their 
communities. Are you confident that their medical needs are being met 
after returning from deployment?
    Answer. During the current conflict, the Department of Defense 
(DOD) developed new strategies to support Soldiers upon redeployment. 
As a result of these initiatives, I am extremely confident our Reserve 
Component (RC) Soldiers' medical and dental needs are being met.
    Prior to demobilization, each Soldier completes a Post Deployment 
Health Assessment (PDHA) using DD Form 2795 which includes a 
questionnaire completed by the Soldier and a face-to-face interview 
with a privileged healthcare provider. This is the best opportunity for 
the Soldier to document any health concerns related to their 
deployment. If significant concerns exist, the Soldier may remain on 
Active Duty for treatment. It may however be advantageous for some RC 
wounded warriors, at their discretion, to be released from active duty 
before the optimal medical benefit has been attained. This option does 
not release DOD from its moral obligation to render care for conditions 
sustained in the line of duty. Care for lesser concerns occurs when the 
Soldier returns home using the 180-day Transitional Assistance 
Management Program (TAMP) as a TRICARE benefit.
    Also at the demobilization station, each Soldier receives a dental 
exam as part of the Dental Demobilization Reset (DDR) program. 
Treatment is also now available to Soldiers at the demobilization 
station. However, treatment that would cause a delay in returning a 
Soldier home is deferred and provided at their home station using the 
Army Selected Reserve Dental Readiness System (ASDRS).
    Each Soldier must complete a Post Deployment Health Re-Assessment 
(PDHRA) using DD Form 2900 between 90-180 days after demobilization and 
complete another interview. This is a key opportunity for Soldiers to 
highlight issues they did not document at demobilization or surface 
after returning home. This documentation is critical to establish a 
line of duty connection, enabling continuing medical benefits through 
TRICARE and VA eligibility. Reserve Component Soldiers may also be 
voluntarily returned to active duty for medical treatment if we 
identify that treatment is warranted for a medical issue incurred while 
on active duty.
    All Soldiers undergo annual Periodic Health Assessments (PHA), 
where the Soldier completes an on-line questionnaire and is assessed by 
a provider using the latest recommendations of the U.S. Preventive 
Services Task Force.
    The PDHA, PDHRA, and PHA create a system of continuous visibility 
of the medical concerns of our Soldiers and provide regular 
opportunities for Soldiers to raise deployment-related concerns.
                                 ______
                                 
           Questions Submitted by Senator Christopher S. Bond
                        servicemembers treatment
    Question. Thank you for your service and for taking the time to 
present to us your insights into our medical service programs. I know 
the U.S. Army takes the health of our warfighters personally, and it is 
clear that our active and reserve medical practitioners are the best in 
the world.
    Johns Hopkins Medical Center defines osteoarthritis as a type of 
arthritis characterized by pain and stiffness in the joints, such as 
those in the hands, hips, knees, spine or feet, due to breakdown of 
cartilage; the gradual breakdown of cartilage that occurs with age and 
is due to stress on a joint.
    Many of our active, reserve, and former servicemembers are 
currently struggling with cases of severe ligament and joint damage 
that will later manifest themselves into long term cases of 
osteoarthritis.
    Our service men and women bear the largest physical burden during 
combat. I am concerned with the large amount of weight our warfighters 
are forced to carry across considerable distances and unforgiving 
terrain. Particularly, I am concerned with the physical toll that war 
exacts from our men and women, most notably in the forms of 
osteoarthritis that arise when injuries go untreated during combat.
    Is the U.S. Army doing everything it can to properly treat our 
servicemembers' injured limbs and joints while they are simultaneously 
fighting in austere environments in order to lessen the chance that 
these particular injuries will manifest themselves into debilitating 
cases of osteoarthritis later in life?
    Answer. This challenge of equipping Soldiers on the battlefield 
with the right technology and level of protection--without overloading 
them, is a difficult one. The U.S. Army Research Institute of 
Environmental Medicine (USARIEM) has an extensive research program 
aimed at documenting the physiological demands of war fighting, 
identifying biomedical solutions that facilitate meeting those demands, 
and optimizing the health and performance of Warriors during 
operational missions and garrison training.
    Arthritis is a degeneration of bone and cartilage that results in 
progressive wearing down of joint surfaces. Arthritis in a non-
rheumatoid patient under 50 is almost uniformly due to post-traumatic 
conditions. Treatment of injuries leading to arthritis in young people 
has to do with prevention as well as acute and chronic treatment to 
mitigate progression. In 2008, U.S. Army orthopedic surgeons performed 
over 5,000 knee arthroscopies on Soldiers. These joint procedures do 
not necessarily delay the progression of arthritis. In addition, joint 
preserving techniques such as cartilage implants and alignment 
procedures like osteotomies or knee replacement procedures can 
substantially prolong the useful and functional years of a Soldier's 
joints. Optimal outcomes from these procedures require coordination 
between orthopedic surgeons and physical therapists. The bottom line is 
we do not know how treatment interventions impact long term outcomes.
    Currently, a team from the University of Pittsburgh is conducting 
research on the injury prevention and performance enhancement practices 
used by 101st Airborne (Air Assault) Soldiers at Fort Campbell, 
Kentucky. The comprehensive assessment initially evaluated Soldiers' 
nutrition, anaerobic/aerobic capacity, strength, body composition, 
balance/agility, etc. Based upon those findings, new training programs 
were developed. Soldiers participated in an 8-week physical training 
course, and then a reassessment was conducted. Initial reports are 
positive and show a decrease in injury rates and an improvement in 
overall unit performance.
    We know that prevention is a key component to mitigate the 
progression of arthritis and Soldiers who train and condition properly 
are much less likely to sustain an injury during or after deployment. 
To that end, the Army is doing several things to improve the medical 
readiness of the force. First, the Army is in the process of changing 
the physical fitness doctrine and training programs to better prepare 
Soldiers for the demands of military operations. ``Physical Readiness 
Training'' (PRT) is the emerging U.S. Army physical training doctrine 
designed by the U.S. Army Physical Fitness School to improve Soldiers' 
physical capability for military operations. PRT follows the exercise 
principles of progressive overload, regularity, specificity, precision, 
variety, and balance. The Army plans to begin implementing the new PRT 
doctrine across the Force over the next year.
    In the meantime, units across the Army have physical therapists 
assigned to special operations units, Initial Entry Training, and 
Brigade Combat Teams that use a sports medicine approach to identify, 
treat, and rehabilitate musculoskeletal injuries expeditiously--which 
is critical in a wartime environment as Soldiers are able to stay 
healthy and ``in the fight.'' Treatments for Soldiers with 
musculoskeletal injuries include joint manipulation, specific 
therapeutic exercises, soft tissue mobilization as well as a variety of 
modalities to mitigate pain, promote healing, and prevent reoccurrence.
    Programs focusing on injury prevention and performance enhancement 
emphasize core strengthening, aerobic endurance, muscular strength and 
power, muscular endurance (anaerobic endurance), and movement 
proficiency (incorporates balance, flexibility, coordination, speed and 
agility) to better prepare Soldiers to physically withstand the rigors 
of combat.
    The U.S. Military Health System is doing a tremendous amount to 
preserve the active function of Soldiers with limb injuries but more 
research efforts on clinical outcomes is necessary to determine if what 
we are doing makes a difference. By making sure Soldiers receive early 
identification and treatment of their musculoskeletal injuries and 
improving Soldiers' physical strength and conditioning, we also improve 
the overall medical readiness of our Force.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell
                            soldier suicides
    Question. LTG Schoomaker, Congress has established a national 
suicide hotline for returning troops, as well as increased funding for 
mental health for active military personnel. However, there remains a 
high number of soldier suicides. What preventative measures is DOD 
taking to address this problem? What, if any, legislative action would 
DOD need Congress to take to expand suicide awareness and education on 
posts?
    Answer. The Army has been vigorously pursuing suicide prevention 
and intervention efforts. Nevertheless the number of suicides continues 
to rise, which is an issue of great concern to us.
    In March 2009, the Vice Chief of Staff of the Army established a 
new Suicide Prevention Task Force to integrate all of the efforts 
across the Army. A Suicide Prevention General Officer Steering 
Committee (GOSC) was previously established in March 2008. The GOSC's 
efforts are ongoing, with a focus on targeting the root causes of 
suicide, while engaging all levels of the chain-of-command.
    From February 15, 2009 to March 15, 2009, the Army conducted a 
total Army ``stand-down'' to ensure that all Soldiers learned not only 
the risk factors of suicidal Soldiers, but how to intervene if they are 
concerned about their buddies. The ``Beyond the Front'' interactive 
video is the core training for this effort. It was followed by chain 
teaching which focuses on a video ``Shoulder to Shoulder; No Soldier 
Stands Alone'' and vignettes drawn from real cases. The Army continues 
to use the ACE ``Ask, Care, Escort'' tip cards and strategy.
    The Army established the Suicide Analysis Cell at the Center for 
Health Promotion and Preventive Medicine (CHPPM) in July 2008. This is 
a suicide prevention analysis and reporting cell that has 
epidemiological consultation capabilities. The Cell gathers suicidal 
behavior data from numerous sources, including the Army Suicide Event 
Report (ASER), The U.S. Army Criminal Investigation Division Reports, 
AR 15-6 investigations, and medical and personnel records.
    The Army Suicide Prevention Plan's overarching strategies include: 
(1) raising Soldier and Leader awareness of the signs and symptoms of 
suicide and improving intervention skills, (2) providing actionable 
intelligence to Leaders regarding suicides and attempted suicides; (3) 
improving Soldiers' access to comprehensive care; (4) reducing the 
stigma associated with seeking mental healthcare; and (5) improving 
Soldiers' and their Families' life skills. In the fall of 2008, the 
Army Science Board studied the issue of suicides in the Army. While 
their report has not been officially released, it reiterated the Army's 
strategies and the need for a comprehensive multi-disciplinary 
approach. It did not find easy, simple solutions to the problem.
    The Army has also developed a Memorandum of Agreement (MOA) with 
the National Institutes of Mental Health (NIMH), which was signed in 
the fall of 2008. This is an ongoing, 5-year research effort to better 
understand the root causes of suicide and develop better prevention 
efforts. This NIMH effort is being coordinated with the CHPPM Suicide 
Analysis Cell, as well as with suicide prevention efforts from the 
Walter Reed Army Institute of Research (WRAIR).
    These extensive new efforts build upon: (1) development and 
deployment of numerous updated training and education efforts, 
including Battlemind and the Chain Teach Program on mTBI/PTSD; (2) 
widespread training of Soldiers by Chaplains and behavioral health 
providers; (3) robust combat stress control efforts and Chaplain 
presence in theater; (4) hiring and recruiting additional behavioral 
health providers; (5) ``Strong Bonds'', a relationship-building program 
developed by the Chaplains; (6) surveillance of all completed suicides 
and serious suicide attempts via the Army Suicide Event Report; and (7) 
suicide risk assessment screening of all Soldiers who enter the Warrior 
Transition Units (WTUs).
    We are also partnering with the Defense Centers of Excellence for 
Psychological Health and Traumatic Brain Injury to work on identifying 
best practices for the identification and intervention of mental health 
issues that include suicide, PTSD, TBI, and depression. Both the Army 
and the DOD are studying the addition of tools which will further query 
Soldiers for symptoms of suicide and depression. All suicide screening 
tools must be evaluated carefully for sensitivity, specificity, and 
positive and negative predictive values.
    An enhanced and integrated public health approach is needed. We 
must continue to emphasize Leadership involvement, reducing stigma, 
training and education, access to mental health care, and a 
multidisciplinary community approach to suicide prevention.
    We must continue to: (1) expand the capacity for behavioral health 
treatment throughout the system; (2) improve continuity of care between 
different helping agencies and providers; (3) improve training of all 
medical personnel and Chaplains in identification and mitigation of 
risky behaviors; and (4) continue a multi-pronged approach to decrease 
stigma and encourage help-seeking behavior.
    Awareness and education are needed across the nation, as well as on 
military installations. I am currently unaware of any legislative 
action required to expand suicide awareness and education on military 
posts.
            ireland army hospital/blanchfield army hospital
    Question. LTG Schoomaker, what are the authorized manning levels 
for nurses and medical personnel at the Ireland Army Hospital at Fort 
Knox and Blanchfield Army Hospital at Fort Campbell? Is there a minimum 
threshold that must be met under Army rules, regulations or custom? Is 
that threshold being met at Ireland and Blanchfield Hospitals and is it 
sufficient?
    Answer. The Army Medical Command is meeting minimum staffing 
requirements at both Blanchfield and Ireland Army Hospitals. Across the 
command we face staffing challenges due to medical personnel deploying 
in support of contingency operations, lack of some specialty provider 
backfills from the Reserve Component, and difficulty with recruiting 
civilian and/or contract providers in and around some military 
communities. Despite these obstacles, we are able to staff our 
treatment facilities and deliver high-quality, evidence-based care to 
our deserving beneficiaries.
    The authorized manning levels for nurses and medical personnel at 
the Ireland Army Hospital at Fort Knox and Blanchfield Army Hospital at 
Fort Campbell are as follows:
Ireland Army Hospital
    Nurse Authorizations: 57 Military, 87 Civilian equals 144 total
    Medical Authorizations: 37 Military, 16 Civilian equals 53 total
    Other Medical ancillary personnel that clinically support patients 
equals 406
    Grand total of authorized clinical nurses, physicians and other 
ancillary personnel equals 603
Blanchfield Army Hospital
    Nurse Authorizations: 83 Military, 195 Civilian equals 278 total
    Medical Authorizations: 84 Military, 20 Civilian equals 104 total
    Other Medical ancillary personnel that clinically support patients 
equals 635
    Grand total of authorized clinical nurses, physicians and other 
ancillary personnel equals 927.
    Authorization numbers above do not include counts of non-clinically 
focused personnel, in such purely administrative mission areas such as 
Logistics, Medical Library, Quality Mgt, File Clerks/Transcription, 
Environmental Services (Housekeeping/Linen Mgt/Facilities), Patient 
Admin Medical Records, Patient Affairs, Uniform Business Office, Third 
Party Collections, and Troop Command.
    Finally, clinical staffing levels for a hospital are a function of 
the reliant population to be supported and/or workload demand. Where 
work centers are open 24/7, there are always minimum staffing 
requirements independent of workload. All direct patient care units 
requiring 24/7 staffing at Fort Knox and Fort Campbell have sufficient 
workload and staffing levels that exceed required manning thresholds 
and minimums.
                                ptsd/tbi
    Question. LTG Schoomaker, what are the typical steps taken for 
soldiers who may have post-traumatic stress disorder (PTSD) and 
traumatic brain injuries (TBI) to ensure they get the proper care? Are 
there any further legislative steps that Congress could take to improve 
screening and the delivery of care to soldiers with PTSD and TBI?
    Answer. Army Leadership is taking aggressive, far-reaching steps to 
ensure an array of behavioral health services are available to Soldiers 
and their Families to help those dealing with PTSD and other 
psychological effects of war.
    The following list of continually evolving programs and initiatives 
are examples of the integrated and synchronized web of behavioral 
health services in place to help Soldiers and their Families heal from 
the effects of multiple deployments and high operational stress:
  --The Post Deployment Health Assessment (PDHA), originally developed 
        in 1998, was revised and updated in 2003. All Soldiers receive 
        the PDHA upon re-deployment, usually in the Theater of 
        Operations shortly prior to departure.
  --In the fall of 2003, the first Mental Health Assessment Team (MHAT) 
        deployed into Theater. Never before had the mental health of 
        combatants been studied in a systematic manner during conflict. 
        Four subsequent MHATs in 2004, 2005, 2006, and 2007 continue to 
        build upon the success of the original and further influence 
        our policies and procedures not only in theater, but before and 
        after deployment as well. Based on MHAT recommendations, the 
        Army has improved the distribution of behavioral health 
        providers and expertise throughout the theater. Access to care 
        and quality of care have improved as a result. An MHAT is 
        currently in Iraq, and will be deploying to Afghanistan within 
        the next 3 months.
  --In 2004, researchers at the Walter Reed Army Institute of Research 
        (WRAIR) published initial results of the groundbreaking ``Land 
        Combat Study'' which has provided insights related to care and 
        treatment of Soldiers upon return from combat and led to 
        development of the Post Deployment Health Reassessment (PDHRA).
  --In 2005, the Army rolled out the PDHRA. The PDHRA provides Soldiers 
        the opportunity to identify any new physical or behavioral 
        health concerns they may be experiencing that may not have been 
        present immediately after their redeployment. This assessment 
        includes an interview with a healthcare provider and has been a 
        very effective new program for identifying Soldiers who are 
        experiencing some of the symptoms of stress-related disorders 
        and getting them the care they need before their symptoms 
        manifest as more serious problems. We continue to review the 
        effectiveness of the PDHRA and have added and edited questions 
        as needed.
  --In 2006 the Army Medical Command (MEDCOM) piloted a program at Fort 
        Bragg intended to reduce the stigma associated with seeking 
        mental healthcare. The Respect-Mil pilot program integrates 
        behavioral healthcare into the primary care setting, providing 
        education, screening tools, and treatment guidelines to primary 
        care providers. It has been so successful that medical 
        personnel have implemented this program at 15 sites across the 
        Army. Another 17 sites should implement it in 2009.
  --Also in 2006, the Army incorporated into the Deployment Cycle 
        Support program a new training program developed at WRAIR 
        called ``BATTLEMIND'' Training. Prior to this war, there were 
        no empirically validated training strategies to mitigate 
        combat-related mental health problems. This post-deployment 
        training is being evaluated by MEDCOM personnel using 
        scientifically rigorous methods, with good initial results. It 
        is a strengths-based approach highlighting the skills that 
        helped Soldiers survive in combat instead of focusing on the 
        negative effects of combat ( www.battlemind.org).
  --Two DVD/CDs that deal with Family deployment issues are now 
        available: an animated video program for 6 to 11 year olds, 
        called ``Mr. Poe and Friends,'' and a teen interview for 12 to 
        19 year olds, ``Military Youth Coping with Separation: When 
        Family Members Deploy.'' Viewing the interactive video programs 
        with children can help decrease some of the negative outcomes 
        of family separation. Parents, guardians and community support 
        providers will learn right along with the children by viewing 
        the video and discussing the questions and issues provided in 
        the facilitator's guides with the children during and/or after 
        the program. This reintegration family tool kit provides a 
        simple, direct way to help communities reduce tension and 
        anxiety, use mental health resources more appropriately, and 
        promote healthy coping mechanisms for the entire deployment 
        cycle that will help Families readjust more quickly on 
        redeployment.
  --In mid-July 2007 the Army launched a PTSD and mTBI Chain Teaching 
        Program that reached more than one million Soldiers, a measure 
        that will help ensure early intervention. The objective of the 
        chain teaching package was to educate all Soldiers and Leaders 
        on PTSD and TBI so they can help recognize, prevent and treat 
        these debilitative health issues.
  --In 2008 the Department of Defense revised Question #21, the 
        questionnaire for national security positions regarding mental 
        and emotional health. The revised question now excludes non-
        court ordered counseling related to marital, family, or grief 
        issues, unless related to violence by members; and counseling 
        for adjustments from service in a military combat environment. 
        Seeking professional care for these mental health issues should 
        not be perceived to jeopardize an individual's professional 
        career or security clearance. On the contrary, failure to seek 
        care actually increases the likelihood that psychological 
        distress could escalate to a more serious mental condition, 
        which could preclude an individual from performing sensitive 
        duties.
  --In 2008, the Army began piloting Warrior Adventure Quest (WAQ). WAQ 
        combines existing high adventure, extreme sports and outdoor 
        recreation activities (i.e., rock climbing, mountain biking, 
        paintball, scuba, ropes courses, skiing, and others) with a 
        Leader-led after action debriefing (L-LAAD). The L-LAAD is a 
        Leader decompression tool that addresses the potential impact 
        of executing military operations and enhances cohesion and 
        bonding among and within small units. L-LAAD integrates WAQ and 
        bridges operational occurrences to assist Soldiers transition 
        their operational experiences into a ``new normal'', enhancing 
        military readiness, reintegration, and adjustment to garrison 
        or ``home'' life.
  --Beginning February 15, 2009, the Army started a 30 day ``stand-
        down'' to ensure that all Soldiers learned not only the risk 
        factors of suicidal Soldiers, but how to intervene if they are 
        concerned about their buddies. The ``Beyond the Front'' 
        interactive video is the core training for this effort. It will 
        be followed by a chain teach which focuses on a video 
        ``Shoulder to Shoulder; No Soldier Stands Alone'' and vignettes 
        drawn from real cases.
    Presently, we are partnering with the Defense Centers of Excellence 
for Psychological Health and Traumatic Brain Injury and working to 
identify best practices for the identification and intervention for 
mental health issues that include suicide, PTSD, TBI, and depression. 
We are also directing special attention to the processes and procedures 
by which we transfer care for affected Soldiers as they redeploy or 
move from one installation to another or one treatment facility to 
another.
    I am not aware of any legal or regulatory obstacles that impede our 
efforts to improve screening and the delivery of care to Soldiers with 
PTSD or TBI.
            ireland army hospital/blanchfield army hosptial
    Question. LTG Schoomaker, do the Ireland and Blanchfield hospitals 
refer soldiers to regional hospitals that specialize in brain and 
spinal cord injury rehabilitation? What formal partnerships are 
established between post hospitals and regional hospitals in Kentucky 
to ensure soldiers with these conditions are given the best care? If 
there are no formal partnerships, what is the process for establishing 
such an affiliation?
    Answer. Yes, both Blanchfield Army Community Hospital and Ireland 
Army Community Hospital refer Soldiers to specialized hospitals for 
brain and spinal cord injury rehabilitation. Both hospitals use the 
Department of Veterans Affairs Polytrauma Centers and other Veterans 
Affairs medical centers within the region, such as the DVA Medical 
Center in Memphis, Tennessee.
    At Blanchfield Army Community Hospital, we use two facilities in 
Nashville, Skyline and Vanderbilt University Medical Center, for 
beneficiaries with brain and spinal cord injuries. These facilities are 
in the TRICARE Managed Care Support Contracts network.
    At Ireland Army Community Hospital, Soldiers with brain and spinal 
cord injuries are regularly referred to regional resources such as 
Frazier Rehabilitative Services, located in Louisville, Kentucky for 
comprehensive TBI services as well as to the program at the University 
of Kentucky at Lexington.
    The criteria for selection of the appropriate facility includes the 
Soldier's unique needs, the ability of the brain and spinal cord injury 
program to accommodate those needs and related considerations such as 
the Soldier's hometown and location of family.
    The primary mechanism for establishing relationships with regional 
hospitals is through the Managed Care Network established by our 
TRICARE Region business partner. The TRICARE Managed Care Support 
Contractor contacts area facilities to establish the relationship. When 
Ireland or Blanchfield hospital identifies a facility that is not part 
of the network, we notify TRICARE with a request that the facility be 
contacted and considered for credentialing to network status.
                           dod/va facilities
    Question. LTG Schoomaker, per the Wounded Warrior legislation 
enacted in 2007 and the Dole-Shalala Commission's recommendations that 
were reported in 2007, improvements were to be made to the coordination 
between DOD and VA facilities to better care for our injured troops who 
are transitioning between the two healthcare systems. What steps have 
already taken place to improve coordination between the two 
Departments? What steps remain? Are these provisions sufficient to 
provide a seamless transition for wounded warriors from the DOD to the 
VA system? Does DOD need further legislation to improve matters? If so, 
what?
    Answer. On October 12, 2007, the Vice Chief of Staff of the Army 
(VCSA), General Cody requested assistance from the Acting Secretary, 
Department of Veterans Affairs (VA) to reduce transition obstacles 
between the DOD managed care system and the VA system of care. The VCSA 
specifically asked the VA Secretary to support three initiatives to 
ease servicemember transition. The three initiatives include: co-
locating one Veterans Benefits Administration (VBA) Counselor with the 
Army Nurse Case Managers at each Warrior Transition Unit (WTU), provide 
Social Workers (MSW) at seven Army Installations which include, Forts 
Drum, Stewart, Campbell, Benning, Knox, Riley, and Fort Bliss, and 
provide VBA Counselors at all Soldier Family Assistance Centers 
(SFACs).
    As of February 2009, there are 57 VA Regional Offices and 10 
Satellite VA Offices established at Military Treatment Facilities to 
provide VA expert counsel on Veterans Benefit Administration (VBA) 
compensation and entitlement benefits programs as well as clinical care 
offered to Warriors in Transition (WTs) and their Families by the 
Veterans Health Administration (VHA). The VBA has representatives at 
all 35 WTUs. For those WTs that are assigned to Community Based WTU's 
(CBWTUs), the VA has contracted service providers to care for their 
administrative and clinical needs. The DVA does not intend to place VA 
Liaisons in overseas assignments. However, the VA has numerous outreach 
programs such as www.va.gov, direct mail pieces, booklets, pamphlets, 
videos, and broadcast shows on AFN (Armed Forces Network) to assist 
Service and Family Members at remote locations. Soldiers and family 
members may also contact the VA via telephone worldwide at 800-827-
1000.
    The Army has also assigned liaison officers to the four VA poly-
trauma centers (Richmond, Virginia; Tampa, Florida; Palo Alto, 
California; and Minneapolis, Minnesota). Furthermore, we have assigned 
60 advocates from the Army Wounded Warrior Program to 51 VA medical 
centers to assist Soldiers and Veterans receiving care.
                                 ______
                                 
          Questions Submitted to Vice Admiral Adam M. Robinson
            Questions Submitted by Chairman Daniel K. Inouye
    Question. Admiral Robinson, North Chicago Veterans Center is 
scheduled to merge with the Naval Health Clinic Great Lakes on October 
1, 2010. Aside from technology requirements, there are several 
regulatory and legislative challenges that remain unresolved. Could you 
please describe each of the outstanding issues, the difference between 
the VA and the Department's positions and a timeline for their 
resolution?
    Answer. Legislation addressing the four issues was introduced as an 
amendment to the National Defense Authorization Act (NDAA) 2009 but was 
not included. H.R. 1267 was introduced by Congresswoman Bean (D-IL) and 
Congressman Kirk (R-IL) to the House of Representatives on March 3, 
2009. H.R. 1267 was based on an old legislative version and does not 
contain the Department of Navy and Veteran's Affairs agreed upon 
language. Senators Durbin (D-IL) and Akaka (D-HI) are currently working 
on introducing the legislation on the Senate side and this version 
contains the agreed upon language. Strategies to reconcile language 
differences between the two versions are underway. There is 
anticipation that the legislative package could be passed within 30-40 
days as part of a Defense supplemental bill.
    The legislation will address four challenges to Great Lakes/North 
Chicago integration:
  --Designation of the Federal Health Care Center (FHCC) as a Uniformed 
        Treatment Facility.--Legislative relief is required for the 
        designation of the FHCC as a Uniformed Treatment Facility 
        (UTF). This will determine the cost of available care to DOD 
        beneficiaries. If UTF designation is not achieved, the FHCC 
        will require cost shares for retired TRICARE beneficiaries 
        using the VA portion of the FHCC. Beneficiaries over age 65 
        enrolled in TRICARE for Life will not be eligible to use the VA 
        portion of the FHCC without significant cost shares. VA and DOD 
        concur on the need for UTF designation.
  --Permission to transfer all DOD civilian employees into the VA 
        personnel system.--Legislative relief is required to establish 
        a single integrated personnel system that transfers DOD 
        civilian employees into the VA personnel system. This will 
        streamline management functions and reduces the disparity in 
        pay and benefits for individuals working side by side. NHCGL 
        civilian personnel are appointed under Title 5 authority while 
        VA employees are appointed under Title 38. Approximately 450 
        civilian NHCGL employees will be impacted by this transfer. 
        This includes those working in the Recruit and Student Medical 
        and Dental Clinics on DOD property. The proposed Senate 
        legislation contains language designed to protect DOD civilians 
        transitioning into the VA personnel system by eliminating 
        probationary periods for those that have already completed this 
        as a DOD employee. Additionally, staff will retain at least the 
        same pay and seniority (tenure) as they have in the DOD system.
      Long-term success depends on identifying and retaining adequate 
        numbers of leadership positions for uniformed staff at the 
        FHCC. An organizational leadership structure addressing this 
        requirement is in draft form.
      Both DOD and VA support the Transfer of Personnel with the agreed 
        upon language as contained in the bill sponsored by Senator 
        Durbin. The National AFGE does not concur, as they do not 
        support the Title 38 appeal process with the loss of Merit 
        Systems Protection Board appeal rights currently afforded for 
        the Hybrid Title 38 and Title 5 employees.
  --Create a funding mechanism to provide a single unified funding 
        stream to the FHCC.--The VA and DOD have separate 
        appropriations for meeting the healthcare missions of each 
        agency. Each have multiple funding streams that support the 
        various cost components, that when combined, currently comprise 
        the totality of funding required to meet the healthcare mission 
        assigned to each facility. The intent at the FHCC is to have a 
        single budget at the FHCC for the management of all medical and 
        dental care for all beneficiaries. To create a single budget, 
        the proposed solution is to extend Joint Incentive Fund (JIF) 
        authority with the intent to use this authority for dual agency 
        funding of the FHCC. The VA fully supports this but DOD has 
        expressed concern about using this mechanism to fund the FHCC. 
        A JIF-like alternative is being considered by DOD and VA.
  --Create a legislative mechanism to allow DOD to transfer the Navy 
        Ambulatory Care Clinic, parking structure, support facilities, 
        and related personal property and medical equipment to the VA 
        if desired at a later date.--Both VA and DOD agree with the 
        need to establish a transfer mechanism. DOD plans to retain 
        ownership of the new Ambulatory Care Clinic initially. The 
        transfer of personal property is dependent on the ability of VA 
        systems to effectively track the property and provide 
        accountable data back to DOD. Logistics staff on Navy and VA 
        sides are analyzing this.
    NDAA 2009 Section 706 requires nine specific areas be addressed in 
a written agreement for a Combined Federal Medical Facility. An 
Executive Sharing Agreement (ESA) is currently being written to address 
all nine areas. Target date for SECDEF/SECVA signature on this document 
is November 2009. The framework of this document is dependent on the 
legislative issues as indicated above.
    Question. Admiral Robinson, what are the specific mechanisms in 
place to ensure coordination at the planning, budgeting, and technical 
levels between the various federal agencies (including NIH) on areas 
like Traumatic Brain Injury or Malaria research? Are there examples of 
DOD, VA, or NIH dollars being moved or redundant activities being 
terminated as a result of these coordination efforts?
    Answer. In regards to malaria research, the Navy has a long history 
of recognizing the importance of coordination in those areas mentioned 
by the Senator. For the past 2 years, the Navy and the Army have run a 
joint program, the U.S. Military Malaria Vaccine Program. Leaders of 
this program are members of the Federal Malaria Vaccine Coordination 
Committee (FMVCC) chaired by USAID which provides a forum for 
interagency collaboration and coordination in this important area of 
research so that resources are optimized and overlap minimized.
    The Navy collaborates with USAID, NIAID, CDC, and indirectly with 
NIST on several vaccine projects including recombinant protein-based 
vaccines, adenovirus-vectored vaccines, an attenuated whole sporozoite 
vaccine and the development of field testing sites in Africa and 
elsewhere.
    The military uniquely targets its funding for developing vaccines 
for deployed military populations and civilian travelers where the 
required level and duration of protection required is much higher, and 
is currently significantly underfunded for the mission. Currently, the 
vaccine products in development by all federal agencies except DOD are 
aimed at the vulnerable populations of children and pregnant women in 
malaria endemic countries. The primary non-government funding source, 
the Bill and Melinda Gates Foundation, likewise supports this 
humanitarian mission.
    For TBI, Navy medicine works closely with the Defense Center of 
Excellence (DCoE) for Psychological Health and Traumatic Brain Injury 
to coordinate TBI programs. BUMED also collaborates with NIH, CDC, the 
Uniformed Services University, the Army and Air Force, and the VA for 
TBI initiatives. The DCoE is planning to fund a central database at NIH 
which will also include Navy TBI information, for example. In addition, 
Navy medicine is responsible for tracking/surveillance for TBI and is 
developing and testing an automated neurocognitive test instrument, 
called Braincheckers. The Naval Health Research Center is conducting 
TBI research projects related to surveillance and force protection. The 
Naval Medical Research Center recently completed a study on the effect 
of acute blast exposure on cognition in Marine Corps Breachers, an 
effort funded jointly by the Defense Advanced Research Projects Agency 
and the Office of Naval Research. The BUMED consultant for TBI programs 
meets regularly with counterparts in the other services, the DCoE, NIH, 
CDC, and VA to discuss new collaborative efforts.
    Question. Admiral Robinson, while attention must be focused on the 
resilience training of our service members and their families, I also 
suspect that caring for our wounded takes a considerable toll on our 
care givers. What efforts are underway to address the well-being of our 
caregivers in order to retain these critical personnel?
    Answer. Navy Medicine is dedicated to doing what is right for our 
active duty and retired Sailors, Marines and their families; and, we 
are just as committed to doing what is right for our caregivers. 
Occupational stress and compassion fatigue can undermine professional 
and personal performance, impact job satisfaction, and result in poor 
retention. The Navy Medicine Caregiver Occupational Stress Control 
(OSC) Program, sometimes called ``Care for the Caregiver'', comprises 
several strategies designed to enhance individual resilience, 
strengthen unit cohesion, and support command level assessment of the 
work environments of caregivers. A main strategy of the Navy Medicine 
Caregiver OSC program is to provide Navy Medicine personnel 
multidisciplinary occupational stress training that matches the 
treatment facility OPTEMPO and creating trained intervention teams, 
with a mix of officer and enlisted, at our major treatment facilities. 
This strategy will provide staff with skills and knowledge about the 
stress continuum model, stress first-aid, buddy care assessment and 
intervention, self-care/compassion fatigue skills, work-environment 
assessment, and education outreach. The foundation of dedication, 
knowledge, skills, and passion that results in Navy Medicine's superior 
quality of care is also the foundation of caring for our caregivers.
Program Elements:
    ``Rule Number Two'' Lecture Series.--Started in January 2008 to 
educate Navy Medicine Leaders about the operational and occupation 
stress on caregivers and leadership strategies to mitigate that stress.
    Caregiver Occupational Stress Training Teams.--Completed training 
of 90 team members for 15 medical treatment facilities in January 2009. 
Expanded MTF team training started in March 2009 designed to have 20 or 
more stress and coping peer trainers at each MTF.
    All Hands Awareness Training.--Medical treatment facility (MTF) 
focused training to initiate all hands awareness and core peer support 
skills started in February 2009.
    Caregiver OSC Training Resources.--Caregiver OSC video vignettes 
and Corpsmen focused graphic training novel in production.
    Caregiver Stress Assessment.--Navy Medicine wide assessment of 
caregiver resilience and stress.
    Question. Admiral Robinson, the Department and the VA are working 
on creating an interoperable medical health record that will allow for 
a seamless transition for our service members and also provide 
continuity of care at joint DOD/VA facilities like the future James A 
Lovell Federal Health Care Center. I understand that premature steps 
have been taken to procure systems for the Lovell Center that would 
repeat the mistakes of focusing on site specific fixes rather than our 
joint enterprise as a whole. Since Navy is an equal partner in this 
endeavor with the VA, could you please detail us on the current 
situation, the path forward, and how it integrates into the overarching 
medical enterprise architecture?
    Answer. The electronic medical record is an area where there is 
pressure to move to one system or the other. Neither AHLTA nor VISTA 
can sustain the requirements of both DOD and VA. The IM/IT solution 
being crafted must sustain missions of both organizations. The FHCC 
establishment date of October 1, 2010 creates mounting time pressures. 
The time passage of pending Congressional legislation is crucial to 
implementing the full vision of this project. Because Great Lakes is 
being touted as the model for future fully integrated federal 
healthcare, there is enormous self-imposed pressure to do it right. 
System solutions (financial reconciliation, electronic medical record, 
information management, etc.) cannot be local fixes, but must be 
crafted in a manner that lends to exportability throughout the 
enterprise.
    Question. Admiral Robinson, how do you ensure Service specific 
needs are incorporated in the new enterprise architecture and how do 
you make sure they don't drive up costs throughout the system?
    Answer. The Navy will engage with the central program offices 
developing the solutions to make sure that they meet the needs of the 
Navy as well as being in line with the direction of the TriCare 
Management Activity. If the needs are a part of the overarching 
architecture then that should not drive up the cost any more than would 
occur as both agencies are charged with more and more sharing of 
patient data between DOD and VA. The Navy was identified as the first 
service branch to complete a single site integration with a VA facility 
but Army and Air Force are in the queue with four proposed integration 
sites.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
    Question. JCS Chairman Mullen has said publically he's trying to 
break the stigma of psychological health in the active force, yet the 
JAGs are still prosecuting as a ``crime'' depressed people who attempt 
suicide. While the Surgeons General aren't responsible for the UCMJ, it 
seems to me that they might be concerned about JAG prosecutions of 
people who have severe mental distress while serving or after serving 
in combat. Do you think that the continued criminal prosecution of 
troops who commit suicide is a problem for the military's efforts to 
break the stigma of psychological health?
    Answer. The decision whether to court-martial a sailor and, if so, 
for what offense, is within the sole discretion of the cognizant 
commander, usually with the benefit of input from a judge advocate. 
However, our research covering the last 5 years does not reveal any 
instance of a Sailor being charged with a criminal offense relating to 
a failed suicide attempt.
    Even in those cases where a Sailor is determined to be free of any 
serious mental defect, the Uniform Code of Military Justice does not 
criminalize suicide or attempted suicide. A charge does exist to 
address malingering (feigning a debilitating condition or intentionally 
inflicting self-injury specifically to avoid duty). Similarly, a charge 
exists to address self-injury in those cases where it is prejudicial to 
good order and discipline. Either of those charges, in certain 
circumstances, could conceivably support a prosecution arising out of a 
failed suicide attempt where a commander believes that the attempt was 
actually an attempt to avoid duty or was otherwise prejudicial to good 
order and discipline.
    In cases where a Sailor's mental health is in question, the Manual 
for Courts-Martial requires the commander contemplating charges to 
request a mental health inquiry pursuant to Rule for Court-Martial 
(RCM) 706. Although the RCM 706 request is issued by the commander, the 
need for the request, if not immediately identified by the commander 
him/herself, may be raised by any investigating officer, the trial 
counsel, defense counsel, military judge, or a member of the court-
martial, if one is already in progress. Pursuant to the rule, the 
Sailor's mental health will be evaluated by a board which must normally 
include at least one psychiatrist or clinical psychologist, and may 
also include one or more physicians.
    If a 706 board determines that a Sailor was unable to appreciate 
the wrongfulness of his actions at the time of the alleged offense, or 
does not currently have the mental capacity to assist in his own 
defense, depending on the stage of the proceedings, charges may be 
dismissed; or the determination may result in a finding of not guilty 
due to lack of mental responsibility. In any case, such determination 
would act as a bar to conviction, if not prosecution. If a 706 board 
determines that no mental defect exists that would affect the Sailor's 
mental responsibility at the time of the alleged offense or his ability 
to assist in his own defense, there is nothing to preclude lawful 
prosecution.
    Question. In your opinion, what additional steps need to be taken 
to ensure that electronic medical information is available to VA?
    Answer. Currently we use the Bidirectional Health Information 
Exchange (BHIE) but it is considered inadequate as not all of the data 
is available in an easy to read format. BHIE, or a modernized 
replacement of BHIE, needs to be made more robust and improvements made 
in the presentation of the data to the provider. Establishment of 
trusted networks between the DOD and VA would allow greater access to 
the data by both agencies. Differences in the information assurance 
regulations of both Departments, and between the military Services, 
makes this a cumbersome, time consuming, and difficult process.
    Question. How are each of your services obtaining medical records 
for service members who receive contract care and how big of a problem 
is this for creating a complete record of care?
    Answer. There is limited information sharing for patients who 
receive care in the direct care system but who may also receive some 
care in the civilian health care sector. For example, in some cases a 
military healthcare provider may refer a patient to a civilian 
healthcare specialist for a consult. These consult results are 
frequently only returned to the military provider in the form of a 
written document. In some cases they may be sent as a fax or as an 
email message (or attachment to an email message).
    Regardless of whether the information is received in paper form or 
via an electronic transfer of a scanned document, there are limitations 
as to how that information can be incorporated into AHLTA (Armed Forces 
Health Longitudinal Technology Application). Those limitations make it 
difficult for military healthcare providers to access that information 
effectively.
    In order to address the current limitations, DOD is pursuing a 
number of initiatives. We are implementing a capability to capture 
scanned documents and other images as part of our electronic health 
record. And, we will index those documents so that they are readily 
retrievable by military healthcare providers. We are also piloting a 
more robust interchange capability with the civilian sector through the 
Nationwide Health Information Network (NHIN) initiative. As the 
civilian healthcare providers adopt electronic health records, we will 
be able to take advantage of the NHIN infrastructure to share 
information in a more flexible form.
    Question. The NDAA fiscal year 2008 Section 1623, required the 
establishment of joint DOD and VA Vision Center of Excellence and Eye 
Trauma Registry. Since then, I am not aware of any update on the 
budget, current and future staffing for fiscal year 2009, the costs of 
implementation of the information technology development of the 
registry, or any associated construction costs for placing the 
headquarters for the Vision Center of Excellence at the future site of 
the Walter Reed National Medical Center in Bethesda. What is the status 
on this effort?
    Answer. As the DOD/VA Vision Center of Excellence is an Army run 
program, they will best be able to provide the status of this effort.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
    Question. The Active Duty Navy has only had a 39 percent completion 
rate on the Post Deployment Health Reassessment form (PDHRA). This is 
the lowest of all the Services. What are the reasons for this low 
input? Is it an issue of resources?
    Answer. Navy is committed to protecting and promoting the long term 
health of our Sailors, especially those facing post deployment stress 
challenges. Navy leadership led efforts to increase the completion rate 
of the Post Deployment Health Reassessment (DD 2900). These efforts 
included communicating its importance; issuing PDHRA guidance and 
lessons learned; distributing by name lists of Sailors required to 
complete the PDHRA to individual commands; and committing human and 
fiscal resources to the administration and execution of the program.
    As of March 24, 2009, the Medical Readiness Reporting System 
(MRRS), Navy's designated database for PDHRA compliance tracking, 
indicates a Navy-wide compliance rate of 57.4 percent, with the Active 
Component (AC) at 46 percent and the Reserve Component (RC) at 93.4 
percent. Navy, in an effort to ensure no Sailor is overlooked, used two 
indicators to identify Sailors required to complete the PDHRA. These 
``identifiers'' are a previously completed Post Deployment Health 
Assessment (DD 2796) or a Sailor's concurrent receipt of Hardship Duty 
and Imminent Danger Pays. It has since been determined that the use of 
these two identifiers ``cast the net'' too wide and erroneously 
identified persons who do not meet current criteria for completion of 
the PDHRA as set forth in DOD Instruction 6490.3, Deployment Health, 
and OPNAVINST 6100.3, The Deployment Health Assessment (DHA) Process. 
(This erroneous identification affected the active component almost 
exclusively and accounts for some of the difference in active and 
reserve reported compliance rates.)
    Approximately 25 percent of the overdue PDHRAs for USN personnel 
are identified by the two pays and the vast majority (approximately 73 
percent) of overdue PDHRAs for USN personnel is due to the completion 
of a PDHA. Navy has taken a conservative approach to reporting PDHRA 
compliance. For example, all Sailors have been individually canvassed 
to confirm the requirement for the Deployment Health Assessment process 
followed by a manual check of records for the presence of a completed 
DD 2900. Additionally, early in the DHA administrative process, many 
Sailors who made routine ship deployments erroneously completed a post 
DHA. Correcting these data entries has proven to be a time consuming, 
manpower intensive effort.
    A more accurate method to determine Navy PDHRA compliance is being 
implemented. This new method will eliminate those Sailors who are 
identified as overdue, but in actuality do not require a PDHRA (e.g., 
Shipboard Sailors). On March 10, 2009, the PDHRA compliance rate was 
calculated by the use of the more accurate method to identify Sailors 
required to complete the PDHRA: a completed Post-deployment Health 
Assessment (DD 2796) preceded by a Pre-deployment Health Assessment (DD 
2795). The PDHRA compliance rate was determined to be 78.4 percent for 
the Active Component and 96.8 percent for the Reserve Component with a 
Navy-wide level of 85.0 percent.
    Navy is making steady improvements in the PDHRA compliance rate. We 
are pressing to ensure that those Sailors who need the PDHRA complete 
the assessment and are working to correct the erroneous method for 
identifying Sailors required to complete the PDHRA. Efforts toward 
meeting objectives include:
  --In fiscal year 2006, Navy Medicine established Deployment Health 
        Centers (DHCs) with the primary mission to augment military 
        treatment facilities to ensure the availability of adequate 
        medical resources to support PDHRA compliance. There are 
        currently 17 DHCs with 117 medical contract positions, 
        including psychiatrists and psychologists, funded with annual 
        costs of $15 million.
  --MRRS now provides the capability to reconcile the overdue status of 
        Sailors if indicated by a previously completed PDHA not meeting 
        today's criteria.
  --The capability to reconcile the status of those erroneously 
        identified by the two pays will be implemented in MRRS in May.
  --Navy (BUMED) has identified the need for additional temporary 
        resources to clear any data entry backlogs that currently 
        exist.
    Navy's low compliance rate is not an issue of resources.
    Question. This Committee is aware of some of the challenges that 
the Great Lakes consolidation has come up against. Can you talk about 
some of the pressures that the Navy is experiencing with this 
consolidation? Would integration like Keesler-Biloxi make more sense 
than total consolidation?
    Answer. Cultural differences between the Navy and the VA are large, 
and they present challenges in establishing the template for future 
integrated federal healthcare facilities. This consolidation will not 
work unless each agency is willing to waive agency specific policies in 
order to accommodate the broader mission of the Federal Health Care 
Center (Health Care and Operational Readiness).
    The Great Lakes consolidation model was driven from the Health 
Executive Council (HEC) and Joint Executive Council (JEC) level to the 
deckplate level in Great Lakes and North Chicago. There is significant 
interest by Congressional and Senate members in executing a new model 
of interagency cooperation, and the North Chicago/Great Lakes 
consolidation is being looked at as the test bed.
    Navy Operational Readiness is our number one mission and our 
primary reason for existence. As we deal with Command and Control, IM/
IT, fiscal and clinical support decisions, this Operational Readiness 
mission has to constantly be re-affirmed as it is a new concept for the 
VA. The electronic medical record is an area where there is pressure to 
move to one system or the other. Neither AHLTA nor VISTA can sustain 
the requirements of both DOD and VA. The IM/IT solution being crafted 
must sustain missions of both organizations.
    The FHCC establishment date of October 1, 2010 creates mounting 
time pressures. The timely passage of pending Congressional legislation 
is crucial to implementing the full vision of this project. Because 
Great Lakes is being touted as the model for future fully integrated 
federal healthcare, there is enormous self-imposed pressure to do it 
right. System solutions (financial reconciliation, electronic medical 
record, information management, etc.) cannot be local fixes, but must 
be crafted in a manner that lends to exportability throughout the 
enterprise.
    The Keesler-Biloxi venture is not an integration. It is a joint 
side-by-side sharing relationship. Construction decisions made 5 years 
ago, along with direction from the HEC and JEC, are driving the need 
for a tighter integration in North Chicago. There is not enough 
physical space to accommodate two organizations (the original space 
plan was decreased by 50 percent) working side by side with all the 
necessary additional infrastructure (personnel, equipment, IM/IT 
systems and support services) required. We must integrate in a tighter 
fashion compared with Keesler-Biloxi.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell
    Question. Congress has established a national suicide hotline for 
returning troops, as well as increased funding for mental health for 
active military personnel. However, there remains a high number of 
soldier suicides. What preventative measures is DOD taking to address 
this problem? What, if any, legislative action would DOD need Congress 
to take to expand suicide awareness and education on posts?
    What preventive measures is Navy taking to reduce suicides?
    Answer. The Navy recognizes that multiple demands on our Sailors 
has become a significant source of stress and limits the time available 
for addressing problems at an early stage. In response, the Navy is 
increasing dedicated resources to the development of leadership tools 
for Operational Stress Control (OSC) and suicide prevention. Current 
efforts focus on inspiring leaders to understand and take suicide 
prevention efforts as critical to their ability to do their jobs and 
missions. Other actions include:
  --The Chief of Naval Operations (CNO) directed the establishment of 
        the Navy Preparedness Alliance (NPA) to address a continuum of 
        care that covers all aspects of individual medical, physical, 
        psychological and family readiness across the Navy.
  --In February 2009, an interdisciplinary Suicide Prevention Cross 
        Functional Team was established to review current efforts, 
        identify gaps, and develop the way ahead.
  --Top leadership vigilance. CNO maintains awareness through monthly 
        and ad hoc suicide reports, quarterly Tone of the Force 
        reports, Behavioral Health Needs Assessment Surveys, and 
        targeted surveys of Sailors and Family members.
  --Increased Family Support. Navy hired 40 percent more professional 
        counselors to address Sailor and family needs, resulting in 
        improved staffing from 1,044 to 1,444 at Fleet and Family 
        Service Centers. A Family Outreach Working group was 
        established to improve suicide awareness communication and 
        education of family members.
  --Operational Stress Control (OSC), a comprehensive approach designed 
        to address the psychological health needs of Sailors and their 
        families, is a program led by operational leadership and 
        supported by Navy Medicine. To date, more than 13,000 Sailors 
        have received an initial OSC familiarization brief. Formal 
        training curriculum at key points throughout a Sailor's career 
        is under development. The OSC Stress Continuum Model has been 
        integrated into Fleet and Family Service Center programs and 
        education and training programs.
  --Reserve Psychological Health Outreach Coordinators Program was 
        implemented in 2008 and provides 2 coordinators and 3 outreach 
        team members (all licensed clinical social workers), to each of 
        the 5 Navy Reserve Regions, to engage in training, active 
        outreach, clinical assessment, referral to care, and ensure 
        follow up services for reserve Sailors.
  --Personal Readiness Summits and Fleet Suicide Prevention 
        Conferences/Summits are providing waterfront training 
        opportunities for leaders, command Suicide Prevention 
        Coordinators, and installation first responders.
  --Front Line Supervisor Training, train-the-trainer, has been 
        provided at six locations throughout CONUS with additional 
        training scheduled throughout 2009. The Front Line Supervisor 
        Training is an interactive half-day workshop designed to assist 
        deck-plate leaders in recognizing and responding to Sailors in 
        distress.
  --First Responder Seminars provide those individuals likely to 
        encounter a suicide crisis situation (security, fire, EMS, 
        medical, chaplains, or counselors) with a review of safety 
        considerations and de-escalation techniques.
  --Commands are required to have written command crisis response plans 
        to guide duty officer actions in response to a suicidal 
        individual or distress call. Navy has been training a network 
        of command Suicide Prevention Coordinators (SPC) to assist 
        Commanding Officers in implementing command level prevention 
        efforts and policy compliance.
  --Communications and outreach efforts continue. The new 
        www.suicide.navy.mil web URL went live in September 2008 to 
        provide an easy-to-remember link to helpful information. A new 
        four-poster series was distributed to all installations in 
        November 2008 along with a new tri-fold brochure. A new 
        training video will be distributed this summer.
  --Warrior Transition Program (WTP) provides a 3-day respite in Kuwait 
        to all Individual Augmentees returning from theater. Conducted 
        by counselors, chaplains, and peers, the WTP provides time for 
        reflection, rituals of celebration or grief, restoration of 
        normal sleeping patterns, and time to say good-byes.
  --Safe Harbor. Non-clinical Case Managers are assigned to individuals 
        who are severely or very severely ill or injured to provide 
        continued support through the treatment and transition process 
        and beyond.
  --Chaplain Support. Chaplain education in 2008 and 2009 focused on 
        Operational Stress Control for non-mental healthcare givers and 
        resilience and family care. The Chaplain Corps Human Care 
        initiative is working to understand, evaluate and realign 
        chaplain resources for efficient and effective care.
    Question. What, if any, legislative action would DOD need Congress 
to take to expand suicide awareness and education on posts?
    Answer. There are no legislative barriers to expanding suicide 
awareness and education on posts.
    Question. What are the typical steps taken for sailors who may have 
post-traumatic stress disorder (PTSD) and traumatic brain injuries 
(TBI) to ensure they get the proper care? Are there any further 
legislative steps that Congress could take to improve screening and the 
delivery of care to sailors with PTSD and TBI?
    Answer. Sailors and Marines are provided unit-level pre- and post-
deployment education about signs and symptoms of post-traumatic stress 
disorder and traumatic brain injury. Navy Medicine has developed the 
Stress Injury Model to promote early identification and appropriate 
referral; early identification of symptoms is the best way to mitigate 
the effects of combat stress.
    Unit medical personnel also receive training in PTSD and TBI 
surveillance. The Post-Deployment Health Assessment and Post-Deployment 
Health Reassessment contain screening questions specific to both PTSD 
and TBI, and can assist healthcare providers in making timely and 
appropriate referrals for specialty evaluation and treatment. After a 
diagnosis of PTSD or TBI is made the service member is offered the 
appropriate medical care. For those diagnosed with PTSD, care would 
include additional psychological assessment to rule out other mental 
health conditions followed by appropriate evidence-based cognitive 
therapies (e.g., Cognitive Processing Therapy, Prolonged Exposure). For 
those diagnosed with TBI, care may range from 7 days of rest to 
evacuation from theater and surgical treatment. Service Members 
diagnosed with TBI are assigned a medical case manager to assist with 
coordinating medical care. For those Sailors and Marines unable to 
remain on active duty, Navy Medicine has partnered with the VA to 
ensure a seamless, coordinated transition of care.
    Question. Per the Wounded Warrior legislation enacted in 2007 and 
the Dole-Shalala Commission's recommendations that were reported in 
2007, improvements were to be made to the coordination between DOD and 
VA facilities to better care for our injured troops who are 
transitioning between the two healthcare systems. What steps have 
already taken place to improve coordination between the two 
Departments?
    Answer.
Disability Evaluation System (DES) Pilot
    The Pilot originally began in 2007 and was expanded January 2009. 
Features of the pilot are:
  --Single physical exam serving DOD separation and VA disability 
        decisions; and
  --Single disability rating (by VA) used by DOD in separation/
        retirement decision and VA in benefits determination.
Case Management--Federal Recovery Coordinator Programs
    The Federal Recovery Coordination Program was created in late 2007 
and implemented in 2008 through the signing of two memoranda of 
understanding between DoN and DVA. The goal of the program is to 
provide assistance to recovering service members, veterans and their 
families through recovery, rehabilitation and reintegration and 
benefits.
    The first Recovery Coordinators were hired and trained in early 
2008 and placed at military treatment facilities where most newly 
evacuated wounded, ill or injured service members are taken. NNMC 
Bethesda and NMC San Diego have Recovery Coordinators assigned to work 
in their facilities. This program is fully supported and endorsed by 
both departments and additional Recovery Coordinators will be hired in 
2009.
    The FRC program also includes DOD liaisons and VA detailed staff.
  --1 Navy Liaison, 1 Army Liaison, 2 Marine Liaison Officers, 2 Public 
        Health Service staff members.
Post Traumatic Stress Disorder/Traumatic Brain Injury (PTSD/TBI)
    Established Defense Center of Excellence and appointed director; 
private sector benefactors building facility on Bethesda campus of 
National Military Medical Center. Both DOD and VA established a policy 
of Mental health access standards and standardized TBI definitions and 
reporting criteria.
    TBI questions added to Post Deployment Health Assessment and Post 
Deployment Health Reassessment which may trigger a referral.
DOD/VA Data Sharing
    Expanded the availability of DOD theater clinical data to all DOD 
and VA facilities. As of the beginning of 2008, added the bi-
directional transmission of provider/clinical note, problem lists, 
theater inpatient medical data from Landstuhl and medical images 
between three Military Treatment Facilities and the VA Polytrauma 
Centers
    DOD and VA have signed Information Technology (IT) Plan to support 
the Federal Recovery Care Coordinator program. A tri-fold on Wounded 
Warrior pay and travel entitlements (also on web).
    Question. What steps remain?
    Answer. Further growth and expansion of DES will greatly assist in 
this endeavor. Involvement of Case Mangers and education of both 
staff's on the intent of DES is critical to success.
    Further efforts to ensure smooth data sharing between DOD and VA 
are critical to the transition of care.
    Question. Are these provisions sufficient to provide a seamless 
transition for wounded warriors from the DOD to the VA system?
    Answer. Yes, although continued efforts to refine the processes 
supporting seamless transition should be encouraged.
    Question. Does DOD need further legislation to improve matters? If 
so, what?
    Answer. No needs identified at this time.
                                 ______
                                 
      Questions Submitted to Lieutenant General James G. Roudebush
            Questions Submitted by Chairman Daniel K. Inouye
                      well-being of our caregivers
    Question. General Roudebush, while attention must be focused on the 
resilience training of our Service members and their families, I also 
suspect that caring for our wounded takes a considerable toll on our 
caregivers.
    What efforts are underway to address the well-being of our 
caregivers in order to retain these critical personnel?
    Answer. The Air Force is also concerned about the stress 
experienced by our healthcare providers, as well as their exposure to 
the injured and killed. In order to address this concern, we provide 
awareness education to healthcare providers prior to deployment, and we 
closely monitor psychological symptoms post-deployment. These 
educational and surveillance processes are provided to all deploying 
Airmen via Landing Gear; the post-deployment health assessment; the 
post-deployment health reassessment. A study is currently underway at 
the theater hospital in Balad that assesses risks and protective 
factors in our deployed medics. Furthermore, the Air Force has hired 97 
additional contract mental health providers in the last year to improve 
access to mental healthcare and to spread out the workload for our busy 
uniformed mental health providers.
                        enterprise architecture
    Question. How do you ensure Service specific needs are incorporated 
in the new enterprise architecture and how do you make sure they don't 
drive up costs throughout the system?
    Answer. The Air Force Medical Service has representation in the MHS 
integrated requirements and review working groups. These vetting bodies 
review the initial capability documents and analyze costing before 
recommending for inclusion in the Central Portfolio. As a general rule, 
we ensure cost is minimized by finding compatible Tri-Service solutions 
that use common standards that enhance interoperability.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
                                suicides
    Question. JSC Chairman Admiral Mullen has said publicly he's trying 
to break the stigma of psychological health in the active force, yet, 
the Judge Advocates General are still prosecuting as a ``crime'' 
depressed people who attempt suicide. While the surgeons general aren't 
responsible for the enforcement of the Uniformed Code of Military 
Justice, it seems to me that they might be concerned about prosecutions 
of people who have severe mental distress while serving or after 
serving in combat.
    Generals, do you think that the continued criminal prosecution of 
troops who commit suicide is a problem for the military's efforts to 
break the stigma of psychological health?
    Answer. The Air Force is not aware of any instances in which an 
Airman has been prosecuted based solely on mental distress and/or a 
suicide attempt. AF leaders work hard to foster a ``wingman'' culture, 
in which Airmen look out for one another and seek timely help for both 
personal and psychological concerns. Our goal is to identify and 
address psychological concerns before they manifest themselves 
behaviorally in a way that threatens personal health or safety or that 
interferes with mission accomplishment. Should those efforts fail, we 
will continue to provide comprehensive, evidenced-based treatment.
                     electronic medical information
    Question. In your opinion, what additional steps need to be taken 
to ensure that electronic medical information is available to the 
Department of Veterans Affairs?
    Answer. Further interdepartmental collaboration on the creation of 
common data dictionaries and implementation of Services Oriented 
Architecture will set a firm footing towards sharing of our data. A 
dedicated integration program office and a sound funding strategy will 
do much to ensure data is available to our constituencies.
           accounting for contract care in the medical record
    Question. How are each of your Services obtaining medical records 
for Service members who receive contract care and how big of a problem 
is this for creating a complete record of care?
    Answer. There are two primary scenarios in which the Air Force 
Medical Service obtains medical records from contracted TRICARE network 
providers.
Scenario 1:
    Military Treatment Facility (MTF) enrolled Active Duty Service 
Members (ADSMs) referred to a contract TRICARE network provider for 
specialized health care not available at the MTF.
    Records capture process: Following the civilian medical 
appointment, the referral results or consultation report(s) are 
submitted to the referring MTF where they are reviewed by the referring 
provider and permanently filed in the ADSM's record. This process is 
not considered to be a significant Air Force Medical Service problem or 
challenge that would otherwise prevent or delay its ability to create a 
complete record of care.
Scenario 2:
    TRICARE Prime Remote (TPR) ADSMs enrolled to a TRICARE network 
primary care manager instead of an MTF provider.
    Records capture process: Health treatment records for Airmen 
assigned to geographically separated units (GSUs) or remote duty 
locations (e.g. recruiting squadrons, Military Entrance Processing 
Centers, unique military detachments, or other similar units without 
immediate military installation support), are usually maintained at the 
nearest Air Force MTF.
    Prior to PCS reassignment (from the TPR duty location or retirement 
or separation from the remote duty assignment), Airmen are required to 
``out-process'' through the MTF responsible for maintaining their 
military health treatment records. At the time of the MTF records 
department out-processing encounter, MTF records managers and the 
service member complete a records copy request form. The form is 
submitted to the Airman's contracted TRICARE network primary care 
manager. Upon receipt of the requested information, the medical 
document copies are added to the Airmen's health record and the 
complete health record is forwarded to the gaining MTF or to the Air 
Force Personnel Center (for separating and retiring Airmen).
    The Air Force continues to educate Airmen regarding installation 
out-processing procedures whenever and wherever possible. However, 
sometimes Airmen assigned to GSUs do not always visit or ``out-
process'' through the nearest Air Force MTF responsible for maintaining 
their military health treatment records. Consequently, the MTF doesn't 
always know to submit a records copy request to the Airman's contracted 
TRICARE network primary care manager. The records capture process for 
Airman assigned to TPR locations currently does not function as well as 
it should, and we are reviewing this process to identify improvement 
opportunities.
         va vision center of excellence and eye trauma registry
    Question. The fiscal year 2008 National Defense Authorization Act, 
Section 1623, required the establishment of a Joint Department of 
Defense and Department of Veteran's Affairs Vision Center of Excellence 
and Eye Trauma Registry. Since then, I am not aware of any update on 
the budget, current and future staffing for fiscal year 2009, the costs 
of implementation of the information technology development of the 
registry, or any associated construction costs for placing the 
headquarters for the Vision Center of Excellence at the future site of 
the Walter Reed National Medical Center in Bethesda, MD.
    What is the status on this effort?
    Answer. I believe Col. Donald A. Gagliano, the Executive Director 
for the DOD Vision Center of Excellence, addressed some of those issues 
during his March 17, 2009, testimony, and I would defer to the the Army 
as the lead agent to provide a more comprehensive response.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
                  post deployment health reassessment
    Question. One of the tools used to measure the health and well-
being of Service members after they return home is the Post Deployment 
Health Reassessment form, which everyone is asked to fill out 90 and 
190 days after their redeployment. As of January 30, the Air Force 
Reserve had the second lowest completion rate of this form at 46 
percent.
    What are some of the reasons for this low number of completed 
responses and what is the Air Force doing to help ensure returning 
Airmen and women receive needed care?
    Answer. Initial rollout of the Post Deployment Health Reassessment 
was made available to Reservists through the Reserve Component Periodic 
Health Assessment (RCPHA) system. However, this system proved unable to 
monitor completion of the PDHRA (Form 2900) or measure unit compliance. 
The system was abandoned in July 2008 and the Reserve migrated to the 
medical information system used by the Air Force active component. The 
migration resulted in corrupted and incomplete records, reflected in a 
7 percent indicated compliance rate immediately following the 
transition. Efforts to correct these errors have rapidly improved the 
indicated compliance rate, which is currently at 51 percent. By late 
summer we project our PDHRA compliance to be on par with the active 
duty and Air National Guard.
          keesler medical center and biloxi veterans hospital
    Question. I understand the Department of Defense and the Department 
of Veterans Affairs are working to establish joint ventures in areas 
where both agencies have co-located facilities around the country. I 
would hope the goal of these joint ventures would be to increase the 
quality of care and efficiency without decreasing capability or 
capacity. I understand the Air Force has been working with the 
Department of Veterans Affairs to integrate Keesler Medical Center and 
the Biloxi Veterans Hospital.
    Can you give me your assessment on this process and if you believe 
it has been a good news story?
    Answer. Based on our experience to date, the joint venture process 
is effective and the results are good news stories across the board.
    When considering Joint Venture opportunities, the viability of a 
proposed joint facility is assessed across nine separate domains. 
Through this structured approach, the work group assesses the 
organizations' current relationship and the potential for a future 
joint relationship. Phase I and Ib sites are already joint facilities 
or are in the process of becoming joint facilities. The efforts at 
those sites have focused on further integration, and Keesler-Biloxi is 
part of that group. Detailed plans are complete for the integration of 
all clinical specialty services between Keesler Medical Center and 
Biloxi Veterans Hospital, with the exception of General Surgery, which 
will continue to be available at both facilities.
    All Phase II sites have the potential to increase their level of 
sharing and some sites may have the potential to become joint 
facilities. An example of Phase II efforts is the Colorado Springs 
Joint Market area, where the Air Force Academy's 10th Medical Group 
will share operating room time with the Eastern Colorado Health Care 
System.
    We anticipate all of our joint ventures will be win-win efforts 
that will improve efficiency and access to care for all participating 
facilities.
             joint air force and veterans affairs projects
    Question. I have been informed that it is intended these joint 
ventures, such as the Keesler-Biloxi project, will achieve complete 
consolidation, much of what's being attempted at Great Lakes in 
Illinois with the Navy.
    Do you believe that the different mission sets in the Department of 
Defense and the Department of Veterans Affairs make complete 
consolidation possible or logical at all locations?
    Answer. In our experience, despite disparate missions, joint 
venture sites have been very successful in taking care of their 
beneficiaries and provide a win-win scenario for both partners. We 
believe that there are many forms of joint ventures, and not all joint 
ventures are, or should be, considered for complete consolidation.
    We appreciate your interest in the good news story at Keesler. 
Keesler Medical Center (KMC) and VA Gulf Coast Veterans Health Care 
System (VAGCVHCS) have had a long history of sharing, but it wasn't 
until after Hurricane Katrina that the full benefits of DOD/VA sharing 
were explored. Dual VA CARES and DOD BRAC funding projects caused the 
two large medical centers to develop an integration plan as an official 
joint venture site. Using a ``Centers of Excellence'' (COE) model, all 
KMC and VA inpatient and outpatient clinical product lines are being 
realigned/shared at the site where either party has the greater 
capability. This produces a synergy between the combined staffs and 
maximizes capabilities for the patient. This approach also reduces or 
eliminates duplication of effort of similar services. For services that 
cannot be realigned or fully integrated, we emphasize exploiting any 
opportunity to open service availability for each other's 
beneficiaries. The only limits are access to care and service 
availability itself.
    At the same time, this model retains the independent daily 
governing structures of both facilities, allowing the Air Force and the 
VA to carry on their important and distinctive missions unimpeded. An 
Executive Management Team co-chaired by KMC Commander and VA Director 
provides oversight linkage for sharing initiatives.
    We currently have seven signed operational plans for ongoing shared 
services. These plans detail the scope of care, business office 
functions and other important aspects of treating each others' 
patients. The seven signed plans are: Orthopedics, dermatology, plastic 
surgery, pulmonology/pulmonology function tests, shared nursing staff, 
shared neurology technicians and laundry.
    We have eight more operational plans we anticipated being signed 
within the next 60 days: Women's health, sleep lab, radiation oncology, 
MRI, cardiac cathorization, patient transfer, urology and shared 
referral staff. All services that are sharing in these areas are doing 
so under our resource sharing agreement and draft operational plans.
    We anticipate taking on a significant amount of VA surgical and 
inpatient workload as the VA's CARES construction project will limit 
their operating room usage for several months in fiscal year 2010. The 
VA will be bringing many of their operating room personnel and 
inpatient nursing staff.
    In summary, the integration process has been a great success thus 
far, and we anticipate this joint venture will be a win-win proposition 
for both facilities.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell
                                suicides
    Question. Congress has established a national suicide hotline for 
returning troops, as well as increased funding for mental health for 
active military personnel. However, there remains a high number of 
Soldier suicides.
    What preventive measures is the Department of Defense (DOD) taking 
to address this problem?
    Answer. The DOD has established the Suicide Prevention and Risk 
Reduction Committee to monitor and address suicide trends across the 
DOD. The DOD has implemented the DOD Suicide Event Reporting System to 
improve data tracking, and hosts an annual DOD/Veterans Affairs suicide 
prevention conference that draws experts from around the world.
    The military Services each execute their own suicide prevention 
programs tailored to the needs and culture of their own Service. We are 
carefully studying each other's best practices to maximize the 
effectiveness of our programs. The Air Force Suicide Prevention Program 
(AFSPP) includes 11 initiatives that must be implemented by every Wing 
Commander. Our program focuses on a total community effort that has 
helped to reduce our suicide rate by 28 percent since it was 
implemented in 1996. The AFSPP is listed on the Department of Health 
and Human Services National Registry of Evidence-based Programs and 
Practices.
    Question. What, if any, legislative action would the Department of 
Defense need Congress to take to expand suicide awareness and education 
on posts?
    Answer. The Air Force defers to Department of Defense (DOD) on 
possible DOD legislative proposals. The Air Force Suicide Prevention 
Program (AFSPP) is intensely invested in awareness and education down 
to the grassroots level--the AFSPP is a commander's program that 
targets every Airman. Through our Landing Gear program, we teach all 
Airmen how to prepare for the psychological effects of deployment, how 
to recognize risk factors and to know when and how to get help for 
themselves or others. We have instilled a Wingman Culture in which we 
are each responsible for our fellow Airmen. The Air Force does not 
require any legislative action at this time to support the AFSPP, but 
we greatly appreciate the Congress' efforts to help us address this 
critical issue.
                                ptsd/tbi
    Question. What are the typical steps for Airmen who may has post-
traumatic stress disorder (PTSD) and traumatic brain injuries (TBI) to 
ensure they get the proper care?
    Answer. The Air Force uses a three-part strategy to address and 
manage PTSD, TBI and other deployment related health concerns. The 
first component of our strategy involves training and education efforts 
to enhance awareness and recognition of common deployment-related 
health concerns. The second component involves repeated health 
surveillance before, during, and after deployments, as well as 
annually. The final component involves intervention. Screening that 
identifies PTSD and TBI symptoms (as well as other health concerns) 
results in more thorough assessments and referrals to specialists when 
indicated. We work closely with the Defense Center of Excellence for 
Psychological Health and TBI as well as civilian subject matter experts 
to ensure our treatment efforts are in line with clinical practice 
guidelines and established standards of care.
    Question. Are there any further legislative steps that Congress 
could take to improve screening and the delivery of care to Airmen with 
post-traumatic stress disorder (PTSD) and traumatic brain injuries 
(TBI)?
    Answer. The entire Department of Defense has put considerable 
resources and effort into addressing the identification and treatment 
of service members with PTSD and TBI in a very short period of time. 
Any additional legislative support for these critical issues would be 
best recommended by the newly formed Defense Center of Excellence for 
Psychological Health and TBI. However, we caution against proposed 
legislation that would mandate face-to-face provider-to-troop 
screenings for all redeploying military personnel, the majority of whom 
are not experiencing significant health concerns. We believe our 
existing program is successfully and expeditiously capturing those who 
need intervention and treatment. Expanding the program unnecessarily 
will further constrain resources needed to focus on those with 
identified health concerns.
                            wounded warrior
    Question. Per the Wounded Warrior legislation enacted in 2007 and 
the Dole-Shalala Commission's recommendations that were reported in 
2007, improvements were to be made to the coordination between the DOD 
and VA facilities to better care for our injured troops who are 
transitioning between the two healthcare systems.
    What steps have already taken place to improve coordination between 
the two departments? What steps remain? Are these provisions sufficient 
to provide a seamless transition for wounded warriors from the DOD to 
the VA system?
    Answer. With the passage of Wounded Warrior specific sections of 
the National Defense Authorization Acts of 2007 and 2008 and the 
creation of a joint DOD/VA disability evaluation system (DES) 
demonstration pilot, there now exists an unprecedented amount of 
cooperation, teamwork and cross-functional communication between the 
Services and the VA. Similar to our Army and Navy counterparts, the Air 
Force Medical Service is working very hard with the VA to ensure those 
Service Members who are ``medically'' separated or retired from the 
Armed Forces are fairly evaluated and receive the healthcare, 
compensation and benefits necessary to ensure a seamless lifestyle 
transition from military to civilian life.
    Representatives from each Service's medical and personnel 
headquarters offices (including physical evaluation board disability 
managers) routinely meet with VA and DOD policy officials to evaluate 
the joint departmental DES demonstration pilot targeted goals and 
objectives, review disability evaluation findings and trends, and 
analyze pilot metrics (including process timeliness). Furthermore, the 
VA/DOD DES demonstration pilot has expanded outside the greater 
Washington, DC, area (the initial VA/DOD demonstration pilot area) and 
now includes military installations throughout the Continental United 
States and Alaska. Within the Air Force, the participating VA/DOD DES 
pilot expansion sites include Andrews AFB, Maryland; Elmendorf AFB, 
Alaska; Keesler AFB, Mississippi; MacDill AFB, Florida; Travis AFB, 
California; and Vance AFB, Oklahoma; with other potential expansion 
sites currently being considered.
    The Office of the Assistant Secretary of Defense for Health Affairs 
(OASD/HA) has recently obligated an additional $5.5 million to enable 
our military treatment facilities to hire more Physical Evaluation 
Board Liaison Officers (PEBLOs). The PEBLOs are one of our most 
important non-clinical case managers. The individuals are responsible 
for providing Service Members traversing the DES with non-clinical 
benefits and referral support counseling.
    Additionally, at the direction of Mr. Michael Dominguez, Principal 
Deputy Under Secretary of Defense for Personnel and Readiness, the Air 
Force has created a centralized health treatment records disposition 
process designed to more efficiently transfer complete medical and 
dental treatment records for retiring and separating Airmen from the 
Air Force to the VA. This new process prohibits medical and personnel 
units at over 74 Air Force installations from directly sending health 
treatment records to the VA and instead funnels all health treatment 
records to a single military service personnel out-processing center 
before the records are forwarded to the VA. The process is designed to 
reduce the amount of ``orphaned'' or ``loose, late-flowing'' medical 
documents unintentionally separated from the Service Member's original 
health records package. This new process is also intended to ensure the 
medical and dental records for each retiring and separating Airman are 
shipped to the VA together and on-time. The main goal of the program is 
to ensure complete health treatments records for retiring or separating 
Airman are made available to the VA as soon as possible so VA benefits 
and disability compensation reviews can be completed with little to 
zero gaps in veteran benefits or healthcare coverage.
    With regard to what steps remain, everyday we move closer to 
totally transitioning from a paper-based health treatment record to an 
electronic health record. Billions of dollars and countless man-hours 
have been spent on improving and refining the information and 
technology necessary to make this transition a reality. The DOD and VA 
continue to improve and enhance their electronic health record computer 
systems, but we're still a few years away from an electronic health 
record system that offers unfettered bi-directional health information 
exchange between the two agencies.
    Working together with our parallel Service medics and with DOD and 
VA officials, I believe we're doing all we can to ensure the provisions 
identified in the NDAA of 2007, 2008, and 2009 are sufficient to 
provide a seamless transition for Wounded Warriors from the DOD to the 
VA system.
    Question. Does the Department of Defense need further legislation 
to improve matters? If so, what?
    Answer. Working together with our parallel Service medics and with 
DOD and VA officials, we're doing all we can to ensure the provisions 
identified in the NDAA of 2007, 2008, and 2009 are sufficient to 
provide a seamless transition for Wounded Warriors from the DOD to the 
VA system. The Air Force does not require any further legislative 
action at this time to improve transition between health systems.
                                 ______
                                 
     Questions Submitted to Rear Admiral Christine M. Bruzek-Kohler
            Questions Submitted by Chairman Daniel K. Inouye
    Question. Admiral Bruzek-Kohler, we recognize that Navy nurses play 
critical roles in supporting both Disaster Relief and Humanitarian 
Assistance missions. What staffing support have you received from the 
Air Force, Army, and civilian organizations to assist you in fulfilling 
the nursing need for these missions?
    Answer. Core nursing teams on these missions are composed of both 
active and reserve component Navy nurses. We are also supported by 
nursing colleagues from the Armed Services, U.S. Public Health Services 
(USPHS), Non Governmental Organizations (NGOs), and partner nation 
military nurses.
    From May 1 to September 25, 2008, USNS MERCY (T-AH 19) embarked a 
1,000-person joint, multi-national, Military Sealift Command Civilian 
Mariner, U.S. Public Health Service and non-governmental organization 
(NGO) team to conduct Pacific Partnership 2008 (PP08). The core nursing 
team consisted of active duty Navy and Air Force nurse corps officers. 
Additional nursing support was provided by Navy reservists. The nursing 
team was further augmented with partner nation military nurses from 
Australia, Canada, Indonesia, New Zealand, and the Republic of the 
Philippines, as well as NGO nurses from International Relief Teams, 
Project HOPE, and Operation Smile. Nursing specialties embarked for 
PP08 included medical-surgical, pediatric, neonatal intensive care, 
obstetric, critical care, and perioperative nursing.
    Certified registered nurse anesthetists and family, pediatric, and 
women's health nurse practitioners were also embarked.
    The USNS COMFORT (T-AH 20) is currently deployed in support of 
Continuing Promise 2009, a 4 month humanitarian assistance mission 
through Latin America and the Caribbean. Active and reserve component 
Navy nurses, as well as nurses from the U.S. Army and Air Force, USPHS, 
various NGOs, (to include Project Hope and Operation Smile) and Canada 
are embarked on this deployment.
    Question. Admiral Bruzek-Kohler, the University of Health Sciences 
(USU) has determined that conditions are not favorable for the creation 
of a Bachelors program in nursing at this time. What options for 
partnering with civilian Schools of Nursing have been discussed as a 
way to develop and recruit military nurse candidates?
    Answer. Navy nurses, at our hospitals in the United States and 
abroad, passionately support the professional development of America's 
future nursing workforce by serving as preceptors, mentors, and even 
adjunct faculty for a myriad of colleges and universities.
    Due to the vast array of clinical specialties available at our 
medical centers at Bethesda, Portsmouth, and San Diego, we have 
developed multiple Memoranda of Understandings (MOU) with surrounding 
colleges and universities to provide clinical rotations for nurses in 
various programs from licensed practical/vocational nursing, 
baccalaureate, and graduate degrees which include nurse practitioner 
and certified nurse anesthetist tracks.
    In completing their clinical rotations at our military treatment 
facilities, civilian nursing students are simultaneously exposed to the 
practice of Navy Nursing and our day to day interactions with members 
of the multidisciplinary Navy Medicine team. This exposure generates 
interest in career opportunities in both the active and reserve 
components of our Corps as well as in our federal civilian nursing 
workforce.
    The Nurse Corps Recruitment liaison officer in the Office of the 
Navy Nurse Corps at the Bureau of Navy Medicine and Surgery works with 
a speaker's bureau comprised of junior and mid-grade Nurse Corps 
officers throughout the country. These officers provide presentations 
on career opportunities in Navy nursing to students at colleges, high 
schools, middle and elementary schools. We recognize that the youth of 
America are contemplating career choices at a much younger age. Over 
the course of the past year, we have tailored our recruiting 
initiatives to engage this younger population.
    At a recent conference entitled ``Academic Partnerships Addressing 
the Military Nursing Shortage'' hosted by Dr. Ada Sue Hinshaw, Dean of 
the Graduate School of Nursing at the Unformed Services University of 
the Health Sciences (USUHS), the Navy Nurse Corps presented information 
on the state of our Corps and the incentive programs that we have 
successfully utilized to recruit nurses. The conference was sponsored 
by funding from the Office of the Assistant Secretary of Defense for 
Health Affairs and was attended by 35 Deans from Schools of Nursing, 
the Directors and Deputies from each of the Nurse Corps and leaders 
from national nursing organizations. The conference objectives 
included: building collaborative relationships among military nursing 
services and Schools of Nursing to foster education opportunities; 
exploring the types of educational programs in which additional 
military students can be enrolled and recommending the types of 
resources and incentives needed for the Schools of Nursing to be able 
to accommodate additional students. This meeting was very successful. 
USUHS also intends to conduct a survey to identify what incentives 
would be most attractive to recruit potential applicants into schools 
of nursing with obligations to serve in the military after graduation 
and successful licensure.
    Question. Admiral Bruzek-Kohler, Nurse Corps Officers are promoted 
to the senior rank of Captain (O-6) at a rate significantly less than 
their physician counterparts. Do you know if this promotion disparity 
has led to our more senior, experienced nurses leaving active duty 
service due to lack of promotion opportunities? What is your exit 
interview data telling you about why nurses are leaving active duty 
service?
    Answer. The Navy Nurse Corps has not identified promotion disparity 
as a factor in causing experienced nurses to leave active service.
    Exit interviews suggest that factors contributing to a decision to 
leave the service are often multi-faceted and maybe family related: 
spouse's employment, children's schools, and/or ill elderly parents.
    In May 2005, the Chief of Naval Personnel's Quick Poll of the Navy 
Medical Community identified the top five reasons for leaving the Navy 
Nurse Corps as: administrative barriers to doing one's job, civilian 
job opportunities, overall time spent away from home, impact of 
deployments on family, and the unpredictability of deployments.
    In fiscal year 2008, the Navy Nurse Corps implemented an incentive 
special pay targeted at retaining individuals with critical war-time 
specialties.
    The Bureau of Medicine and Surgery has contracted to do another 
retention poll and the results will be completed in late summer 2009.
    Question. Admiral Bruzek-Kohler, several professional nursing 
organizations have proposed that the Doctorate of Nursing Practice 
(DNP) be the entry level into practice for all advanced practice 
nurses. Many schools of nursing are proposing to convert their Master 
of Science nursing degrees to DNP programs over the next several years. 
The DNP educational track adds an extra year onto the typical Masters 
level curriculum plan. Has there been any discussion of how this might 
affect Duty under Instruction planning in upcoming years? Could 
offering this post-Master's education option serve as a retention tool 
for mid-levels officers who might otherwise choose to leave active duty 
service?
    Answer. The Navy Nurse Corps' Duty Under Instruction (DUINS) 
training plan is based on the projected losses in our nursing 
specialties, the number of nurses in each specialty training pipeline, 
and the overall nursing end-strength. The typical allotted training 
time is 24 months for completion of a Masters of Science in Nursing 
(MSN) and 48 months for a doctoral degree (Ph.D.). Post masters 
certificate programs are allotted 12-24 months for completion. DUINS 
exists as an avenue for the mid-level officer to apply for advanced 
education opportunities. This has served as an exceptional retention 
tool. Additionally, we have not appreciated a scarcity among quality 
MSN programs for our nurses to attend.
    The Doctorate of Nursing Practicum (DNP) curriculum of 36 months 
has an impact on DUINS, as it affects the overall number of training 
opportunities availed each year. Additionally, our current inventory of 
nursing specialties does not require the additional educational 
preparation conferred via a DNP. We are presently training master's 
prepared clinical nursing specialists and nurse practitioners to meet 
our military nursing requirements in only 24 months. They return to our 
deployable inventory of specialty nurses with greater knowledge and 
clinical expertise. If they were enrolled in a DNP program, they would 
still be matriculating and a lost deployable asset to the Navy Nurse 
Corps. Consideration of the DNP conferral via a post MSN certificate or 
bridge program may have greater appeal to the Navy Nurse Corps, as the 
officer would be lost from the deployable inventory for only 12-24 
months vice 36.
                                 ______
                                 
        Questions Submitted to Major General Patricia D. Horoho
            Questions Submitted by Chairman Daniel K. Inouye
                    humanitarian assistance missions
    Question. General Horoho, we recognize that Navy nurses play 
critical roles in supporting both Disaster Relief and Humanitarian 
Assistance missions. What challenges have you encountered when faced 
with the need to train Army nurses to administer humanitarian nursing 
care, to include the need to provide shipboard training to assist with 
U.S. Navy missions?
    Answer. The Army Nurse Corps is focused on ensuring all nurse 
officers deploy with skill sets required for the specific mission, 
whether that mission is for combat or a humanitarian mission. As such, 
the ANC has training venues to train the nurse officers for missions 
when deploying with Forward Surgical Teams, Combat Support Hospital, 
and Brigade Combat Teams. The Navy has pre-deployment training venues 
to train care providers for shipboard missions. If needed, the ANC will 
ensure the nurse officers receive this training prior to any deployment 
in support of the Navy.
                       military nurse candidates
    Question. General Horoho, the University of Health Sciences has 
determined that conditions are not favorable for the creation of a 
Bachelors program in nursing at this time. What options for partnering 
with civilian Schools of Nursing have been discussed as a way to 
develop and recruit military nurse candidates?
    Answer. The Army Nurse Corps, along with the Federal Nursing Chief 
partners, is actively building collaborative relationships among 
Military Nursing Services and Schools of Nursing to foster educational 
opportunities. The Uniformed Services University is taking the lead and 
has recently sponsored a conference that brought together the Deans 
from many prestigious Schools of Nursing throughout the nation to 
discuss partnering with Department of Defense assets. Additionally, the 
Army Nurse Corps is exploring the types of educational programs in 
which military students can be enrolled and evaluating the types of 
resources and incentives needed for civilian Schools of Nursing to 
accommodate additional students.
                     nurse corps officer promotion
    Question. General Horoho, Nurse Corps Officers are promoted to the 
senior rank of Colonel (O-6) at a rate significantly less than their 
physician counterparts. Do you know if this promotion disparity has led 
to our more senior, experienced nurses leaving active duty service due 
to lack of promotion opportunities? What is your exit interview data 
telling you about why nurses are leaving active duty service?
    Answer. Our current exit survey data does not demonstrate that 
senior Army Nurse Corps Officers are leaving due to lack of promotion 
opportunities. Recent increases in authorizations for Colonel have 
improved promotion rates. However, we are validating all O-5 and O-6 
positions in order to optimize the force structure.
    Our exit surveys demonstrate that junior and mid-grade officers are 
leaving for a myriad of reasons to include a perceived lack of ability 
to remain in the clinical setting as they progress through their 
careers. To address this concern, we are developing a lifecycle that 
will enable more senior leaders to remain at the bedside to ensure we 
have the right mix of experience and leadership available to develop 
our junior officers and to ensure we provide world-class care.
                     doctorate of nursing practice
    Question. General Horoho, several professional nursing 
organizations have proposed that the Doctorate of Nursing Practice 
(DNP) be the entry level into practice for all advanced practice 
nurses. Many schools of nursing are proposing to convert their Master 
of Science nursing degrees to DNP programs over the next several years. 
The DNP educational track adds an extra year onto the typical Masters 
level curriculum plan. Has there been any discussion of how this might 
affect Duty under Instruction planning in upcoming years? Could 
offering this post-Master's education option serve as a retention tool 
for mid-levels officers who might otherwise choose to leave active duty 
service?
    Answer. The Army Nurse Corps is actively evaluating the impact of 
the advent of the DNP educational track on our force modeling and 
selection opportunities. It is important that we maintain currency in 
our education options to maintain Long Term Health Education and 
Training as our primary retention and professional development tool. 
Both the Uniformed Services University Nurse Anesthesia Program and the 
U.S. Army Graduate Program in Anesthesia Nursing are transitioning to 
the DNP model to maintain their excellent standing in the civilian 
community.
                                 ______
                                 
      Questions Submitted to Major General Kimberly A. Siniscalchi
            Questions Submitted by Chairman Daniel K. Inouye
                             nurse training
    Question. General Siniscalchi, we recognize that military nurses 
play critical roles in supporting both Disaster Relief and Humanitarian 
Assistant missions.
    What challenges have you encountered when faced with the need to 
train Air Force nurses to administer humanitarian nursing care, to 
include the need to provide shipboard training to assist with U.S. Navy 
missions?
    Answer. The fundamentals of nursing care remain the same regardless 
of environmental circumstance, whether humanitarian, disaster response, 
or contingency operations. Air Force nurses play an important role in 
joint operations. In 2008, U.S. Air Force nurses deployed aboard U.S. 
naval ships in support of numerous humanitarian missions including 
Pacific Partnership 2008. In addition to the standard medical 
deployment training, Air Force medics who are deployed onboard a U.S. 
Navy ship undergo ship-specific orientation to include: life raft 
training, ship fire drills, damage control training, and emergency ship 
egress.
    Additionally, Air Force nurses provided humanitarian support 
alongside U.S. Army personnel in South American locations during Joint 
Task Force Bravo and also to Central Command and European Command as 
part of a joint medical team in support of Operations IRAQI FREEDOM and 
ENDURING FREEDOM.
                partnering with civilian nursing schools
    Question. General Siniscalchi, the University of Health Sciences 
has determined that conditions are not favorable for the creation of a 
Bachelors program in nursing at this time.
    What options for partnering with civilian Schools of Nursing have 
been discussed as a way to develop and recruit military nurse 
candidates?
    Answer. The USAF Nurse Corps is excited at the many opportunities 
to partner with our healthcare counterparts in civilian universities. 
As recently as March 14, Ada Sue Hinshaw, the Dean of the Graduate 
School of Nursing, Uniformed Services University, sponsored a 
conference that brought together Deans from Colleges of Nursing across 
the United States and the Tri-Service Military Nurse Corps Chiefs and 
their deputies. The conference was titled ``Conference for Academic 
Partnership Addressing the Military Nursing Shortage.'' The objective 
was to ``build collaborative relationships among military nursing 
services and schools of nursing to foster educational opportunities.'' 
It was an invaluable opportunity to share and discuss challenges, 
options, and ideas among key stakeholders.
    As the USAF Nurse Corps continues its collegial relationship with 
the University of Cincinnati, and as we establish a similar partnership 
with the Scottsdale Healthcare System in Scottsdale, Arizona, we are 
encouraged that our presence within these two exceptional civilian 
medical centers will also draw interest from local nursing students and 
staff.
    The USAF Nurse Corps is also at the precipice of establishing a 
first-ever Masters in Flight Nursing in collaboration with Wright State 
University in Dayton, Ohio.
                            nurse retention
    Question. General Siniscalchi, Nurse Corps officers are promoted to 
the senior rank of colonel (O-6) at a rate significantly less than 
their physician counterparts.
    Do you know if this promotion disparity has led to our more senior, 
experienced nurses leaving active duty service due to lack of promotion 
opportunities?
    Answer. The Air Force Nurse Corps has experienced disparity with 
promotion opportunity, and we believe it may be a factor in some senior 
nurses leaving active duty. However, we are working closely with 
Lieutenant General Newton, his team of personnelists and the Air Force 
Surgeon General to correct this disparity.
    Question. What is your exit interview data telling you about why 
nurses are leaving active duty service?
    Answer. We are currently exploring options to initiate/capture data 
from a Nurse Corps-wide survey, as well as a specific exit-survey. We 
look forward to obtaining data that will provide us with a more 
accurate picture of why nurses choose to separate from active duty.
                     doctorate of nursing practice
    Question. General Siniscalchi, several professional nursing 
organizations have proposed that the Doctorate of Nursing Practice 
(DNP) be the entry level into practice for all advanced practical 
nurses. Many schools of nursing are proposing to convert their Master 
of Science nursing degrees to DNP programs over the next several years. 
The DNP educational track adds an extra year onto the typical Masters 
level curriculum plan.
    Has there been any discussion of how this might affect Duty under 
Instruction planning in upcoming years?
    Answer. One of the best recruiting tools in the Air Force is our 
educational opportunities. Our Nurse Corps officers have the ability to 
return to school full-time and earn a Masters and/or Doctoral degree. 
Most chief nurses use educational opportunities as an incentive to join 
when they do their recruiting interviews. The University of Health 
Sciences (USU) is uniquely situated in the Washington, DC, metropolitan 
area giving the university access to a variety of resources to include 
the National Institutes of Health, Office of the Secretary of Defense, 
Health Affairs, etc. Our students experience a very rigorous program 
that prepares them well for the future. Additionally, we are working 
very closely with Dean Hinshaw from USU to develop a curriculum in 
which our advance practice nurses can earn a Doctorate in Nursing 
Practice by 2015 as recommended by the American Nurses Association.
    Question. Could offering this post-Masters' education option serve 
as a retention tool for mid-level officers who might otherwise choose 
to leave active duty service?
    Answer. These opportunities for graduate education are significant 
retention tools, especially for our star performers. The University of 
Health Sciences (USU) allows our nurses to work with the other 
uniformed services in a very collaborative and joint way that is not 
possible in civilian universities. USU educational options are valuable 
in both recruitment and retention.

                          SUBCOMMITTEE RECESS

    Chairman Inouye. This subcommittee will reconvene on 
Wednesday March 25 at 10:30 a.m. At that time we'll receive 
testimony from the Guard and Reserve. Until then we'll stand in 
recess.
    [Whereupon, at 12:52 p.m., Wednesday, March 18, the 
subcommittee was recessed, to reconvene at 10:30 a.m., 
Wednesday, March 25.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2010

                              ----------                              


                       WEDNESDAY, MARCH 25, 2009

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:04 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Leahy, Durbin, Murray, Cochran, 
and Bond.

                         DEPARTMENT OF DEFENSE

                             National Guard

STATEMENT OF LIEUTENANT GENERAL CLYDE A. VAUGHN, 
            DIRECTOR, ARMY NATIONAL GUARD

             OPENING STATEMENT OF SENATOR DANIEL K. INOUYE

    Chairman Inouye. This morning the subcommittee meets to 
receive testimony on the status of the National Guard and 
Reserve components. From the National Guard, we are pleased to 
have the Vice Chief of the Army National Guard, General Clyde 
Vaughn, and the Vice Chief of the Air National Guard, General 
Harry Wyatt.
    Before I proceed, I would like to apologize for this brief 
lateness, but the traffic is, as always, terrible.
    And from the Reserve, we welcome the Chief of the Army 
Reserve, General Jack Stultz, Chief of the Navy Reserve, Vice 
Admiral Dirk Debbink, Commander of the Marine Forces Reserve, 
Lieutenant General John Bergman, and the Chief of the Air Force 
Reserve, General Charles Stenner.
    We are very pleased to have you here today and look forward 
to working with you in the coming years in support of our 
guardsmen and our reservists.
    The subcommittee is sorry that General McKinley was not 
able to be here today to testify, but we thank him for 
submitting written testimony for the record.
    This hearing will be unlike prior years in that we have not 
received the fiscal year 2010 budget, nor the fiscal year 2009 
supplemental request. For this reason, many members of the 
subcommittee may wish to submit additional questions after we 
receive the budget request later this spring, and we ask for a 
timely response to these questions.
    Gentlemen, the National Guard and Reserve components have 
maintained a high operational tempo for over 6 years in support 
of the operations in Iraq and Afghanistan. Through the 
admirable service of thousands of guardsmen and reservists, the 
Reserve components have provided essential combat, logistics, 
and other support capabilities to these operations.
    However, the strain of these deployments is beginning to 
show. Suicide and divorce rates, for example, are on the rise, 
unfortunately. We must make certain that we are doing 
everything we can to provide our servicemembers the support 
they need during and after deployment. Reintegrating after 
deployment can be particularly difficult for guardsmen and 
reservists who lack the support network provided at an active 
duty installation. For this reason, reintegration programs are 
important in helping our guardsmen and reservists transition 
back to civilian life.
    Despite providing additional resources for these programs 
in the last year's supplemental funding bill, a Department-wide 
approach to reintegration activities has been very slow to 
develop, and our subcommittee hopes that the Department will 
work quickly to create an effective program that fits the needs 
of our returning servicemembers without using a one-size-fits-
all for all of the Reserve components. What works for the Army 
may not work for the Navy Reserve.
    It is a testament to the dedication and patriotism of our 
guardsmen and reservists that retention levels remain strong 
despite the strain of frequent deployments. Recruiting has also 
continued to improve for all Reserve components. In fact, for 
the first time in several years, all of the Reserve components 
are consistently achieving their recruiting goals.
    However, as we all agree, challenges remain. Many of the 
Reserve components are increasing their end strength, which 
will require continued focus on recruiting and retention, 
particularly for high-demand specialties. And as the active 
components continue to grow, it will be increasingly difficult 
for the Reserve components to attract prior-service candidates. 
Therefore, we must continue to provide sufficient resources to 
attract and retain high-quality personnel.
    The success of the Guard and Reserve components would also 
not be possible without the support of our Reserve employers. 
Employers must fill the holes left by deployed reservists who 
are sometimes on their second deployment in only a few years' 
time. The strain has become even greater during the current 
economic recession, and I look forward to hearing what is being 
done to make certain that we continue to have the support of 
our business community in hiring and supporting our reservists.
    The subcommittee is pleased to see that equipment shortages 
continue to be reduced, although we know significant shortfalls 
still remain. It is important that the Department continues to 
focus on equipping the Reserve components by requesting 
sufficient funding in annual budget submissions and 
prioritizing the fielding of equipment to the Reserve 
components. We must make certain that the Guard and Reserves 
have the equipment they need for training and operations at 
home and abroad.
    I look forward to hearing your perspective on these issues 
and your recommendations for strengthening our forces during 
this most demanding time. And I thank you for your testimony 
this morning, and may I assure you that your full statements 
will be made part of the record.
    We will begin our hearing with the panel of the National 
Guard, but first, I would like to turn to my distinguished vice 
chairman, Senator Cochran of Mississippi, for any remarks he 
may wish to make.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you very much. I am 
pleased to join you in welcoming the leaders of our National 
Guard and Reserve components to today's hearing.
    Today's citizen soldiers, sailors, airmen, and marines are 
an indispensable and operational reserve. The days of the 
weekend warrior are history. These everyday people balance a 
day job, family interests, and are now volunteering for 
deployments, humanitarian missions, and nonservice traditional 
assignments around the globe. When they are not supporting 
operational needs of combatant commanders, they stand ready to 
assist in dealing with natural disasters here at home.
    We appreciate the service that you provide our Nation. 
Thank you very much. We look forward to your testimony.
    Chairman Inouye. Now may I call upon the man who is in 
charge of the Guard? General Vaughn.
    General Vaughn. Mr. Chairman, Mr. Vice Chairman, it is a 
privilege to be here with you. As you stated, we have turned in 
our statements for the record, and so I will be very brief, and 
I look forward to answering the questions.
    The first thing I would like to do is to introduce to this 
subcommittee a great noncommissioned officer. He happens to be 
the noncommissioned officer of the year for the entire 1.1 
million of our men and women Army. He is a National Guardsman 
from Montana, and his name is Sergeant Michael Noyce Marino, 
and he has his wife with him, Shelly.
    Of course, we talk very emotionally about what a close-knit 
family we are in the Guard and Reserve, and that is where our 
strengths come from, from our communities. So today, as we were 
having a discussion in my office before we started over here, I 
asked the typical question, where is everybody from. Shelly's 
mother and I grew up in the same 4,000-person town in Dexter, 
Missouri, and Senator Bond--I am sure you know I am going to 
tell him that deal too. Unbelievable sometimes.
    I really appreciate what you have done. You know we look to 
your leadership with the National Guard and Reserve equipment 
appropriations. We know what has been done there. We know the 
money that you put in there, especially for the full-time 
support piece. Your confidence in us has been well justified. 
You know we are the strongest Army National Guard right now of 
all time, and we are making progress every day. We are ready to 
do whatever the State and the Nation ask us to do, and it is 
because of your great support that has made that possible.
    As you know, the 2010 budget is not here, and so when it 
comes, we just ask for your help, again just like you have 
always given us in doing the right thing.
    Please take a look at funding for civil support teams 
(CSTs), a critical element in our organizations. We want to 
make sure that they are sufficiently taken care of.
    And the last thing is it is probably my last time to appear 
before this subcommittee, and it has been a privilege and an 
honor to come over here and testify, something that I will 
always cherish and remember. So thank you very much.
    I look forward to your questions.
    [The statement follows:]
        Prepared Statement of Lieutenant General Clyde A. Vaughn
                 national guard posture statement 2010
                  introduction and executive overview
        general craig r. mc kinley, chief, national guard bureau
                             new beginnings
    2008 was a year filled with positive change for the National Guard. 
The National Defense Authorization Act (NDAA) of 2008, enacted in 
January, designated the National Guard Bureau (NGB) as a joint activity 
of the Department of Defense (DOD). The law also elevated the grade of 
the Chief, National Guard Bureau to the rank of General. With this new 
stature and an explicit linkage to the Secretary of Defense, through 
the Chairman of the Joint Chiefs of Staff (CJCS), NGB is better 
positioned to represent National Guard issues and concerns at the 
highest levels in the DOD.
    The Report of the Commission on the National Guard and Reserves and 
NDAA 2008 both identified the need for a new NGB charter. After almost 
a year of close collaboration among NGB, the Combatant Commanders, the 
CJCS, the Armed Services and the DOD staff, Secretary Robert M. Gates 
signed DOD Directive 5105.77, National Guard Bureau. This unprecedented 
directive formally lays out the full scope of NGB's functions, roles, 
and authorities--embedding NGB in DOD's strategic processes. It is 
sound DOD policy.
                          an operational force
    The depth provided by the National Guard is no longer the ``once in 
a lifetime'' use of a strategic reserve as envisioned during the Cold 
War. The National Guard has become an operational force that is an 
integral part of the Army and Air Force; it is populated by seasoned 
veterans with multiple deployments in support of operations in Iraq, 
Afghanistan, the Balkans, and many other locations around the world.
    In addition to the thousands of National Guard Soldiers and Airmen 
currently activated for ongoing federal missions, the National Guard 
provides significant response to unexpected contingencies. Despite 
major overseas commitments, during the 2008 hurricane season over 
15,000 Guardsmen responded on short notice to catastrophic events 
unfolding in Louisiana and Texas. The National Guard serving here at 
home also fought extensive fires and flooding and provided disaster 
relief to numerous states throughout the year.
                               readiness
Personnel
    Our most precious assets flow from our communities. Citizen-
Soldiers and Airmen are employed by their Governors every day to 
protect American lives and property in the homeland from weather-
related events to suspected biochemical contamination. Despite all we 
have asked of them in the overseas warfight as well as here at home, we 
are recruiting and retaining National Guard members in impressive 
numbers. Americans join and stay in the National Guard. But as 
successful as we have been to date, we need continued support for 
recruiting and retention efforts as well as increased endstrength 
authorizations.
Equipment
    The National Guard must have modern equipment if we are to remain 
successful as defenders of the homeland at home and abroad.
    Army National Guard (ARNG) units deployed overseas have the most 
up-to-date equipment available and are second to none. However, a 
significant amount of equipment is currently unavailable to the Army 
National Guard in the states due to continuing rotational deployments 
and emerging modernization requirements. Many states have expressed 
concern about the resulting shortfalls of equipment for training as 
well as for domestic emergency response operations.
    The Army is programming $20.9 billion for ARNG equipment for fiscal 
year 2009 through fiscal year 2013 to procure new equipment and 
modernize equipment currently on hand. We appreciate that support and 
also the strong interest of the Congress and the Department of Defense 
in closing the gap between our domestic requirements and the available 
equipment in our armories and motor pools.
    The Air Force is in the midst of modernizing and recapitalizing its 
major weapons platforms, and the Air National Guard (ANG) must be 
concurrently recapitalized, particularly in order to avoid near to mid-
term ``age out'' of the majority of its fighter force. Our primary 
concern is that 80 percent of our F-16s, the backbone of our Air 
Sovereignty Alert Force, will begin reaching the end of their service 
life in 8 years. To that end, we support the Air Force's 
recapitalization plan, but request that all roadmaps be inclusive of 
the Air National Guard as a hedge against this ``age out.''
                       state partnership program
    The National Guard State Partnership Program (SPP) establishes 
enduring and mutually beneficial partnerships between foreign countries 
and American states through the National Guard. This program is an 
important component of the Department of Defense's security cooperation 
strategy, the regional Combatant Commanders' theater engagement 
program, and the U.S. ambassadors' Mission Strategic Plans. A primary 
aim is to promote partnership among the many nations working with us to 
advance security, stability, and prosperity around the globe. Today, 
American states are partnered with 60 foreign nations (a 60 percent 
increase over the past 5 years) to focus on military-to-military, 
military-to-civilian, and civil security activities.
    Created in 1993, SPP has helped the United States European, 
African, Southern, Pacific, and Central Commands engage the defense and 
military establishments of countries in every region of the globe. The 
program's benefits include:
  --Providing Combatant Commanders and U.S. ambassadors with avenues 
        for building international civil-military partnerships and 
        interoperability during peacetime by linking state capacities 
        to the goals and objectives in the Foreign Assistance Framework 
        of the U.S. Government.
  --Enhancing current and future coalition operations by encouraging 
        and assisting partner nations to support efforts such as NATO's 
        Operational Mentor and Liaison Team program in Afghanistan, and 
        exercises supporting the Association of Southeast Asian Nations 
        region.
  --Building more cultural and global awareness into Citizen-Soldiers 
        and Airmen to help them operate in today's complex multi-
        national and multi-agency operations.
    This valuable mutual security cooperation program will continue to 
expand in size and strategic importance to the Combatant Commanders, 
ambassadors, and broad U.S. Government interagency requirements as we 
enter the second decade of the 21st century.
                               the future
    The National Guard, the nation's community-based force, will always 
answer the call of the President and the Governors.
    Our priorities are constant: Provide for the security and defense 
of our homeland at home and abroad; support the Global War on Terror; 
and respond to America's need for a reliable and ready National Guard 
that is transformed for the 21st century.
    It is an honor to be named the 26th Chief of the National Guard 
Bureau. As a synchronized joint activity, we will capitalize on 
momentum gained over the past several years and will build new 
relationships based on our new roles and responsibilities.
    The National Guard will remain ``Always Ready, Always There.''
    The following pages offer a full report on our recent 
accomplishments along with our ongoing responsibilities for fiscal year 
2010.
lieutenant general clyde a. vaughn, director, army national guard, army 
                             national guard
                       message from the director
    Army National Guard (ARNG) Citizen-Soldiers continue the proud 
tradition of service to our nation both at home and around the world. 
Our Citizen-Soldiers consistently proved themselves capable of 
operating across a wide spectrum of missions in Iraq, Afghanistan, 
Belgium, Bosnia, Djibouti, Egypt, Germany, Honduras, Kosovo, Kuwait, 
and the Philippines.
    The ARNG continues to achieve outstanding results meeting 
recruiting and retention goals. As of December 31, 2008, Army National 
Guard assigned strength was 365,814 Citizen-Soldiers, a gain of 
approximately 35,000 Citizen-Soldiers in about 3 years. At the same 
time we have reduced our non-participating numbers to 5,404 (from 6,082 
in July 2005).
    With thousands of our Citizen-Soldiers ``on the ground'' in foreign 
lands, we are equally busy at home. National Guard units fought 
wildfires in California, aided hurricane victims on the Gulf Coast, and 
assisted numerous environmental clean-up activities around the country. 
These responses from across our land demonstrate the importance of 
training and equipping our Soldiers so they are ready to render service 
and assistance to home communities.
    We are committed to deploying Citizen-Soldiers with the best 
equipment and training possible. The U.S. Army's similar assurance and 
ongoing Congressional interest in the welfare of our people will ensure 
the success of the Army National Guard.
                 investing in present and future value
    Mobilizations, deployments, modular force conversions, counterdrug 
assistance, and disaster response dominated the ARNG's efforts to 
answer needs at home and abroad. But to remain America's vital force, 
the ARNG must invest in people, equipment, operations, and technology 
like never before.
Meeting Mission Requirements
    Heavy demands on personnel and declines in equipment-on-hand due to 
increased mobilizations and deployments continued in fiscal year 2008. 
The Army National Guard effectively met mission requirements and 
continued to support ongoing conflicts. However, for some units 
returning from deployment, equipping and training levels decreased 
readiness.
Modular Force Conversion and Rebalance
    The Army National Guard successfully met its 2008 goal of 
transforming 1,300 operating force units to a modular design. This 
brings the total number of units transformed to more than 2,800.
    Converting Army National Guard units to modular configuration in an 
era of persistent conflict has significantly increased equipment and 
modernization requirements and has also increased equipment readiness.
    The Army National Guard brigade combat teams (BCTs) are composed 
identically to the active Army and can be combined with other BCTs or 
elements of the joint force to facilitate integration, 
interoperability, and compatibility. The Army National Guard 
transformation into these modular formations provides an enhanced 
operational force. This is key to meeting the goal of making at least 
half of Army and Air assets (personnel and equipment) available to the 
Governors and Adjutants General at any given time. This transformation 
effort impacts over 87 percent of Army National Guard units across all 
50 states, three territories, and the District of Columbia, and crosses 
every functional capability in the force.
                         investing in personnel
    Our greatest asset is our people. We have the best trained force in 
the world. But we also have unparalleled support of our Citizen-
Soldiers and their families. This support is paramount in maintaining 
our superior standing in the world.
Endstrength: Recruiting and Retention
    As previously noted, recruiting and retention was exceptional with 
an end-of-calendar year assigned strength of 365,814 Citizen-Soldiers. 
The following programs provided the impetus for these gains.
  --The Army National Guard's Recruiting Assistance Program (G-RAP) is 
        a civilian contract recruiting program that, as of December 9, 
        2008, has processed 80,000 enlistments since its inception in 
        December 2005. At the end of fiscal year 2008, approximately 
        130,000 recruiting assistants were actively working. In August 
        2007, G-RAP expanded to include incentives for officer 
        accessions.
  --The Recruit Sustainment Program (RSP), launched in 2005, improves 
        our training success rate by easing newly enlisted National 
        Guard Soldiers into the military environment through Initial 
        Entry Training--a combination of Basic Combat Training and 
        Advanced Individual Training.
    The war on terror, transformation to modular formations, and 
domestic operations will continue to test the all-volunteer force. 
However, the Army National Guard is optimistic and confident that it 
will grow the force and have manned units to meet all missions at home 
and abroad.
Full-Time Support
    Full-time support (FTS) personnel play a vital role in the ARNG's 
readiness both at home and abroad. Active Guard and Reserve (AGR) 
Soldiers and Military Technicians sustain the day-to-day operations of 
the entire Army National Guard. The AGR and Technician force is a 
critical component of readiness in the ARNG as the Reserve Components 
transition to an operational force.
Medical Readiness
    Funding, treatment authorities, and medical readiness monitoring 
through Medical Operations Data Systems (MODS) have helped the ARNG 
increase medical readiness throughout the nation and allow deploying 
units to report at all-time high medical readiness levels.
    In 2008, 92 percent of ARNG Soldiers reporting to mobilization 
stations were determined to be medically deployable. This represents a 
significant improvement upon previous years. This increased readiness 
throughout the ARNG has reduced pre-deployment training time lost due 
to required medical corrective actions. The ARNG is implementing the 
Army Select Reserve Dental Readiness System that will enable commanders 
to achieve 95 percent dental readiness in support of DOD Individual 
Medical Readiness standards.
Incapacitation Pay
    The Army National Guard Incapacitation (INCAP) benefit provides 
interim pay to ARNG Soldiers with a service-connected medical condition 
(provided that they are not on active duty). The INCAP pay software, 
released in early fiscal year 2008, facilitates the administration of 
this benefit.
    The INCAP process provides compensation in two situations. First, a 
Soldier who is unable to perform military duty may receive military pay 
less any civilian earnings. Second, a Soldier who can perform military 
duty, but not a civilian job, may receive lost civilian earnings up to 
the amount of the military pay. INCAP incorporates a detailed 
accounting system of tracking Soldiers who receive INCAP pay, the date 
initiated, the amount received, and when terminated. INCAP quickly 
compensates Soldiers, therefore allowing them to concentrate on the 
rehabilitation process, and focus on their families.
Survivor Services
    The ARNG renders dignified Military Honors according to service 
tradition for all eligible veterans. The ARNG supports 79 percent of 
all Military Funeral Honors for the Army and 51 percent of all Funeral 
Honors for all services. In fiscal year 2008, the ARNG provided 
Military Funeral Honors for over 97,000 veterans and 200 Soldiers 
killed in action.
                 investing in equipment and facilities
    Upgrading and maintaining our equipment and facilities is becoming 
increasingly vital as we face challenges at home and abroad. The era of 
persistent conflict demands nothing less.
Equipment on Hand and Equipment Availability
    The historic equipment on-hand (EOH) percentage for the ARNG has 
been about 70 percent. In fiscal year 2006, EOH declined to 
approximately 40 percent due to cross-leveling of equipment to support 
immediate deployment requirements. It increased to about 49 percent in 
fiscal year 2007. By the end of fiscal year 2008, the ARNG had 76 
percent of its required equipment on-hand when deployed equipment is 
included.
Equipment Readiness Levels
    When items supporting mobilized and deployed units are subtracted 
out of this equation, the current warfighting equipment on-hand 
percentage falls to 63 percent of Modification Table of Organization 
and Equipment (MTOE) requirements available to the Governors of the 54 
states and territories.
    Domestic response is a critical ARNG mission. The Chief of the 
National Guard Bureau has pledged that 50 percent of Army and Air Guard 
forces will be available to a Governor at all times to perform state 
missions.
    The Army has taken positive steps to improve the Army National 
Guard equipping posture. The Army's goal is to fully equip all BCTs, 
regardless of components, by 2015.
    Congress has been very responsive to ARNG equipping requirements 
through funds in the National Guard and Reserve Equipment account. This 
much needed funding has been used to procure critical dual-use items to 
support the ``Essential 10'' capabilities.
Ground and Air Operating Tempo
    The ground operating tempo (OPTEMPO) program is one of the 
keystones in equipment readiness. Direct ground OPTEMPO pays for 
petroleum, repair parts, and depot-level repairables. Indirect OPTEMPO 
pays for expenses such as administrative and housekeeping supplies, 
organizational clothing and equipment, medical supplies, nuclear, 
biological and chemical (NBC) supplies and equipment, and inactive duty 
training (IDT) travel which includes Command Inspection, staff travel, 
and cost of commercial transportation for Soldier movement.
    In 2008, ground OPTEMPO funding for the Army National Guard totaled 
$901 million in base appropriation plus $73 million in supplemental for 
a total of $974 million. This funding directly impacts the readiness of 
ARNG units to participate in global operations as well as domestic 
preparedness. Significant equipment remains in theater after Guard 
units return from deployments. Equipment shortages at home stations 
compel greater use of what is available. These demanding conditions 
have resulted in rapid aging of equipment. While the ground OPTEMPO 
sustains equipment-on-hand, it does not replace major-end items that 
are battle-lost or left in the theater of operations.
    The air operating tempo (OPTEMPO) program supports the ARNG Flying 
Hour Program which includes petroleum-oil-lubricants, repair parts, and 
depot-level repairables for the rotary wing helicopter fleet.
    In 2008, air OPTEMPO funding for the Army National Guard totaled 
$280 million in base appropriation plus $128 million in supplemental 
for a total of $408 million. This funding provides for fuel and other 
necessities so that 4,708 ARNG aviators can maintain currency and 
proficiency in their go-to-war aircraft. Achieving and maintaining 
desired readiness levels will ensure aircrew proficiency and risk 
mitigation, which helps to conserve resources. ARNG aviators must 
attain platoon level proficiency to ensure that they are adequately 
trained to restore readiness and depth for future operations.
Reset Process
    The Army continued to work with Army National Guard leaders to 
refine requirements for critical dual-use equipment and to ensure that 
the states and territories can adequately protect the lives and 
property of American citizens during a catastrophic event.
    Several changes helped resolve reset issues during 2008. The 
biggest change provided funds directly to the Army National Guard. This 
allowed the ARNG to conduct reset operations at home stations. The Army 
National Guard's initial $127 million, plus $38 million from the Army, 
supported the ARNG's reset efforts. This streamlining process enabled 
the states to have their equipment immediately available.
Logistics-Depot Maintenance
    The Army National Guard Depot Maintenance Program continued to play 
an integral part in the ARNG sustainment activities during 2008. This 
program is based on a ``repair and return to user'' premise as opposed 
to the equipment maintenance ``float'' (loaner) system used by the 
active Army.
    The amount of equipment qualifying for depot repair increased by 
26.7 percent in fiscal year 2009. This increase was due primarily to 
the rebuilding of the ARNG's aged tactical wheeled vehicle fleet. 
During 2008, the Army National Guard Depot Maintenance Program funded 
the overhaul of 3,405 tactical vehicles as well as calibration 
services.
Facilities and Military Construction
    In more than 3,000 communities across America, the local National 
Guard readiness center (armory) is not only the sole military facility 
but also an important community center. For National Guard members, 
these facilities are critical places where we conduct training, perform 
administration, and store and maintain our equipment. Many of our aging 
facilities are in need of repair or replacement. The continuing strong 
support of the Congress for Army National Guard military construction 
and facilities sustainment, restoration, and maintenance funding is 
crucial to our readiness.
    In fiscal year 2008, Congress made $843 million available for 
facility operations and maintenance in the ARNG. This level of funding 
covered ``must fund'' operations including salaries, contracts, 
supplies, equipment leases, utilities, municipal services, engineering 
services, fire and emergency services, and program management.
Environmental Program
    Recent success in the ARNG's Environmental Program underscores its 
mission to excel in environmental stewardship to ensure the welfare of 
all citizens and communities while sustaining military readiness. 
Program highlights include:
  --The Army Compatible Use Buffer (ACUB) program that supports Soldier 
        training by protecting an installation's accessibility, 
        capability, and capacity while sustaining the natural habitat, 
        biodiversity, open space, and working lands. Since this program 
        began in 2003, the National Guard, along with civilian 
        partnership contributions, helped to protect 40,000 military-
        use acres from encroachment at nine ARNG training centers.
  --Cleanup and restoration programs that continue to make steady 
        progress at Camp Edwards, Massachusetts, where five major 
        groundwater treatment projects have been completed.
  --The final stages of cleaning up an open detonation area that will 
        eventually become maneuver training land at Camp Navajo, 
        Arizona.
                        investing in operations
    Sound management practices demand that we stay focused on 
operational issues and missions such as readiness, training, ground 
operating tempo, and aviation, including the Operational Support 
Airlift Agency.
Domestic Operations
    The Army National Guard Domestic Operations Branch coordinates and 
integrates policies, procedures, and capabilities to ensure critical 
operations are continued in the event of an emergency, or threat of an 
emergency, anywhere in the United States and its territories.
    The following missions in 2008 exemplify the National Guard's 
resolve in protecting and preserving the homeland.
  --In June, National Guard troops provided sandbagging, search and 
        rescue, power generation, logistical support, food and water 
        distribution, debris removal, shelter set up, and support to 
        law enforcement during Mississippi River flooding. Over a 3-
        week period, more than 6,800 Soldiers from Iowa, Indiana, 
        Illinois, Missouri, and Wisconsin provided their respective 
        states with critical capabilities.
  --In California last summer, 8,300 wildfires consumed over 1.2 
        million acres. The California ARNG supplied 1,350 Citizen-
        Soldiers to protect people and property around the state, 
        including 400 Citizen-Soldiers deployed to the front lines to 
        fight fires. California air crews, assisted by Army and Air 
        National Guard aviation teams from 12 other states, dumped 4.2 
        million gallons of retardant to extinguish the blazes.
  --In August, over 15,000 Citizen-Soldiers from Texas, Louisiana, and 
        other states supported relief efforts after Hurricanes Gustav 
        and Ike. Their mission included food and water distribution, 
        search and rescue, air medical evacuations, communication 
        support, hazardous material assessments, shelter operations, 
        and debris removal.
    Army National Guard Citizen-Soldiers stand ready throughout the 54 
states and territories to respond to any crisis.
Operational Support Airlift Agency
    The Operational Support Airlift Agency is a Department of the Army 
field operating agency under the National Guard Bureau that supports 
114 aircraft worldwide and over 700 personnel. During 2008, these 
aircraft flew over 54,000 hours, transported about 21 million pounds of 
cargo, and carried more than 100,000 passengers. This included combat 
support in the Middle East and Africa, relief efforts for the Gulf 
Coast and California wildfires, and criminal investigation task force 
efforts in Columbia and Cuba.
Training
            Muscatatuck Urban Training Center
    The 974-acre Muscatatuck Urban Training Center (MUTC), located in 
Indiana, is a self-contained, contemporary urban training environment.
    In its second year of operation, more than 19,000 trainees from 
military (including 13,000 Army National Guard and Reserve Soldiers), 
government, and private agencies used the facilities at MUTC. Training 
helps prepare Soldiers to fight in foreign cities and helps prepare 
Soldiers and others to deal with the aftermath of attacks on U.S. 
cities. In the future, MUTC could train as many as 40,000 troops 
annually at the urban warfare practice facility.
            ARNG eXportable Combat Training Capability
    The Army National Guard's eXportable Combat Training Capability 
(XCTC) is a fully instrumented group of field training exercises that 
provide tough, realistic training for every ARNG unit during pre-
mobilization training.
    This training incorporates the most current tactics, techniques, 
and procedures used in theater. In fiscal year 2008, the ARNG conducted 
two XCTC rotations (Illinois and Oregon) and trained a total of eight 
battalions. Planning is underway to conduct six XCTC rotations that 
will provide training for 18 battalions.
    By training and certifying pre-mobilization training tasks, the 
XCTC reduces post-mobilization training time and thus increases the 
availability of units for ``boots on the ground'' time in the warfight.
                  investing in information technology
    During fiscal year 2008, ARNG information technology (IT) resources 
supported these network security projects:
Network Services
    The ARNG IT organization reviewed the communications and network 
service capabilities that states and territories will require in the 
event of a natural or man-made disaster or contingency. The solution 
restores access to network services should a readiness center (armory) 
lose connectivity regardless of local infrastructure availability. Each 
deployment will bring a virtual Joint Force Headquarters (JFHQ) node to 
the affected area and provide voice, video, Internet Protocol (IP) 
data, and push-to-talk services to a site within 36 hours.
    Other specific actions include:
  --Acquiring network simulator training that provides network 
        operators and defenders a safe network environment to conduct 
        initial qualification, mission qualification, crew training, 
        position certification, and exercises.
  --Planning and implementing secure network access for deploying 
        Brigade Combat Teams and their supporting Battalions.
  --Strengthening the Enterprise Processing Center by incorporating 
        backup and storage capability in accordance with the National 
        Guard Bureau's continuity of operations requirements.
  lieutenant general harry ``bud'' wyatt, iii, director, air national 
                                 guard
                       message from the director
    The Air National Guard (ANG) is both a reserve component of the 
Total Air Force (USAF) and the air component of the National Guard. As 
a reserve component of the Total Air Force, the ANG is tasked under 
Title 10 U.S. Code, ``to provide trained units and qualified persons 
available for active duty in the armed forces, in time of war or 
national emergency . . .''--in essence, a combat-ready surge 
capability. The ANG augments the regular Air Force by providing 
operational capabilities in support of Homeland Defense both 
domestically and overseas. As the air component of the National Guard, 
the ANG provides trained and equipped units and individuals to protect 
life and property, and to preserve peace, order, and public safety.
    As a reserve component of the Total Air Force, ANG members 
regularly perform operational missions both in the United States and 
overseas. For example, over 6,000 ANG members vigilantly stand guard 
protecting the homeland. Overseas, more than 7,000 National Guard 
Airmen are deployed at any given time, whether in Southwest Asia or 
little known locations around the world, providing airpower 
capabilities such as strike, airlift, air refueling, and intelligence, 
surveillance, and reconnaissance (ISR) to joint and coalition forces.
    The ANG provides a myriad of capabilities to support state and 
local civil authorities in protecting life and property. We provide 
capabilities in areas such as airlift, search and rescue, aerial 
firefighting, and aerial reconnaissance. We also furnish critical 
support capabilities such as medical triage and aerial evacuation, 
civil engineering, infrastructure protection, and Hazardous Materials 
(HAZMAT) response. During 2008, National Guard Airmen helped their 
fellow citizens after Hurricanes Gustav, Hanna, and Ike; protected life 
and property from wildfires in the West, tornados in the Midwest, and 
blizzards and ice storms across the country; and assisted with security 
at the Republican and Democratic National Conventions.
    The ANG faces today's challenges by examining the past, serving in 
the present, and planning for the future. We are preserving our 
heritage as a community-based, predominantly part-time force while we 
adapt to numerous force structure changes, placing our ANG on a clear 
path for future missions. While we cannot know every potential threat 
we will face, we do know that success depends on our ability to 
continually adapt and evolve toward new and exciting missions and 
capabilities. In order to adapt and effectively support our national 
security objectives, we must focus our efforts in three areas:
  --Modernize and recapitalize the aging ANG fleet of aircraft to 
        ensure that we, as the proven leader in air dominance today, do 
        not become complacent and fail in our vigilance against those 
        who seek to challenge our mastery of the air.
  --Maximize the use of associations and community basing to better 
        support the Air Force mission.
  --Evolve future mission areas to better support the overall Air Force 
        mission.
                             a quick review
    The ANG's global presence throughout 2008 was felt in the following 
ways:
  --Deployed 20,231 service members to 85 countries on every continent, 
        including Antarctica.
  --Participated in missions in Iraq, Afghanistan, and Bosnia; 
        humanitarian airlifts to Southeast Asia and Africa; drug 
        interdiction in Latin and South America; exercises in Europe 
        and Japan; and many other missions.
  --Provided not only airpower capabilities, but capabilities in 
        medical, logistics, communications, transportation, security, 
        civil support, and engineering.
    This was another crucial year for the ANG as its men and women 
continued to defend America's interests worldwide in waging the Global 
War on Terror. Simultaneously, we continued to bring our force 
structure into balance following historic mission changes initiated by 
Base Realignment and Closure (BRAC), and Air Force modernization and 
recapitalization initiatives.
                      developing adaptable airmen
    The Air National Guard values our Airmen, their families, 
employers, and our civilian employees as our greatest resources. The 
current corps of Air Guard members contains some of the most skillful 
and talented in our history. We remain committed to recruiting, 
retaining, and cultivating Airmen who are ready, willing, and capable 
of meeting 21st century challenges and leading with a vision that looks 
beyond tomorrow.
Recruiting and Retention
    With the support of Congress, and the use of innovative approaches 
by our recruiters, the ANG finished fiscal year 2008 with an assigned 
strength of 107,679 Airmen. We surpassed our recruiting objective for 
the first time since 2002, achieving 126 percent of our goal. This 
accomplishment occurred despite a historically high operational tempo, 
executing BRAC decisions, and implementing Total Force Initiatives.
G-RAP
    One program proving highly successful for ANG recruiters was the 
Guard Recruiting Assistance Program (G-RAP). With the help of current 
and former (including retired) members, our recruiters tapped into a 
larger circle of influence that let friends, family, and associates 
know about the tangible and intangible rewards that come with service 
in the Air National Guard. In fiscal year 2008, 3,676, or 34 percent, 
of our enlistments originated from leads generated by G-RAP volunteers. 
An overall 90 percent retention rate also bolstered our recruiting 
success for fiscal year 2008. By maintaining a high retention rate, the 
Air National Guard decreases the cost of replacing valuable members.
                               readiness
    Even though we met our recruiting and retention goals this year, we 
face the growing challenge of training the right people with the right 
skills to meet mission changes while responding to high wartime 
commitments and dealing with resource constraints. To deal with this we 
must focus on the three primary areas of readiness--personnel, 
training, and equipment.
Personnel
    Personnel readiness, including skills affected by equipment 
shortages which bear upon our ability to train, has the greatest impact 
upon ANG overall readiness rates. As previously mentioned, working 
through a period with such a large number of units changing missions 
also skews the percentages. To a lesser degree, but still important, 
are the numbers of personnel on medical or dental profiles--an issue 
that affects our ability to deploy worldwide. The Air National Guard is 
placing increased emphasis upon these many challenges that affect our 
personnel readiness.
    The ANG continues to maintain personnel readiness by supporting our 
people returning from deployments. We must maintain the ANG readiness 
posture by ensuring our Airmen receive appropriate and timely medical 
and dental assessment and treatment at all levels. We offer this 
through Frontline Supervisors and Landing Gear training programs, and 
through the Post Deployment Health Reassessment process.
Training
    Training readiness is an ongoing challenge as we strive to meet 
training standards. In order to retain our highly qualified, 
experienced personnel, we must have the ability to train to both 
domestic operations and combat standards while meeting deployment 
demands. Equipment shortages of emergency management equipment for ANG 
civil engineers, weapons for security forces, and aircraft engines 
adversely impact training capabilities, and could negatively affect 
retention rates. While the volume of mission-related training 
requirements seems to grow exponentially, we will continue to explore 
and take advantage of every opportunity to meet training requirements 
in a timely manner.
    The most significant challenge for the ANG, however, has been to 
fit its wartime requirements and mission changes into the traditional 
framework of a community-based, predominately part-time force. Our 
members have a history of answering the call to service, and have not 
lost sight of their mission: to be a combat-ready Air Force composed of 
dedicated, professional Airmen serving in both state and federal roles.
Equipment
    ANG equipment readiness presents greater challenges as long-term 
costs in operating and maintaining older aircraft continue to rise due 
to more frequent repairs, fuel prices, and manpower requirements. 
Although fuel prices have declined in recent months, the cost of 
aircraft maintenance continues to rise significantly as we struggle to 
extend the life of our aging fleet.
    The current air traffic control system is 1950s technology that 
received minor radar upgrades in the 1980s. Replacement parts are 
obsolete and no longer available on the market. Modifying and upgrading 
the old system would cost more than a new system. The Air National 
Guard provides 62.5 percent of the United States Air Force's air 
traffic control (ATC) wartime mission. In support of Operations 
Enduring Freedom and Iraqi Freedom, the ANG deployed five mobile ATC 
Radar Approach Controls. Additionally, the ANG has peacetime 
obligations to support the National Airspace System, providing ATC 
services at designated military/civil airports.
    In the final analysis, the Air National Guard will meet 21st 
century challenges by proactively shaping its future with combat-ready, 
adaptable Airmen at its core.
                       modernize and recapitalize
    The age of the ANG fleet is of grave concern. Aircraft and 
equipment in both the regular Air Force and the ANG are quickly wearing 
out. The average age of ANG aircraft is now over 25 years, with KC-135s 
being the oldest at 49 years. The high operational tempo since 1990 has 
added flying hours that have accelerated this aging process. As already 
mentioned, long-term costs to operate and maintain these older aircraft 
have increased. Additionally, our potential adversaries have improved 
their capabilities, raising concerns about the ability of our current 
aircraft to defend U.S. interests around the globe.
    Modernization of our equipment and training platforms is based on 
capabilities needed by the Air Force. As the ANG moves increasingly 
into the worlds of command and control, intelligence, reconnaissance, 
surveillance, unmanned systems, and cyberspace, the process has 
expanded to include expert warfighters in these areas. As a 
capabilities-based force, the ANG can better assess, plan, and support 
its federal (Title 10) and state (Title 32) missions, remain relevant 
to operations, and be interoperable with other forces.
    Changing the force structure and orientation of units away from 
airborne platforms to unmanned systems and capabilities is a difficult, 
yet necessary transition. These efforts to redefine the ANG will be 
expanded upon in the Future Mission Areas section of this report.
    The ANG is committed to seamlessly integrating into the operational 
environment. Our modernization program is based on Air Force and 
Combatant Command requirements and vetted among reserve component and 
active duty warfighters. Some examples include:
Mobility Aircraft
    The ANG will pursue further modifications to flight instruments, 
communications, navigation, and terrain/traffic avoidance systems along 
with upgrades to engines and missile warning and countermeasures on ANG 
mobility aircraft (C-5, C-17, C-130, KC-135) and other aircraft.
Combat Aircraft
    Air National Guard combat aircraft (A-10, F-15, and F-16) comprise 
about one-third of the Air Force's combat capability. Eighty percent of 
our F-16s will begin reaching the end of their service life in 8 years. 
While our maintainers continue to keep our fleet combat ready and 
available, we must replace our legacy systems to remain viable and 
relevant.
Unmanned Aircraft Systems
    The Air National Guard expansion into the world of unmanned 
aircraft systems continues to move forward in Arizona, California, 
North Dakota, New York, Nevada, and Texas Air National Guard units, as 
illustrated with the development of integrated Predator and MQ-9 Reaper 
Operations Centers. These centers will not only allow smooth operation 
and control of current and future transformational warfighting and 
homeland defense missions, but will integrate multiple systems 
currently running independently. The RQ-4 Global Hawk continues to 
provide high quality intelligence, surveillance, and reconnaissance 
(ISR) support for Operation Iraqi Freedom while also supporting 
homeland missions.
MC-12 and Project Liberty
    Mississippi's 186th Air Refueling Wing is taking on an additional 
mission, training aircrews for the Air Force's newest manned ISR 
platform, the MC-12. Designated Project Liberty, the program will train 
nearly 1,000 Airmen during the next 2 years at Key Field near Meridian, 
Mississippi, at a cost of about $100 million. The MC-12 is expected to 
bolster the Department of Defense's intelligence gathering capability 
in Operations Iraqi Freedom and Enduring Freedom.
Dual-Use Capabilities
    Developing and fielding ``dual-use'' capabilities are the 
cornerstone to the ANG's cost effective contribution to combat and 
domestic operations. Many domestic operations capabilities are outlined 
in the National Guard Bureau's ``Essential 10'' core military 
capabilities relevant to Civil Support. In fiscal year 2010, with the 
support of Congress, we will address critical shortfalls in medical, 
communications, transportation, logistics, security, civil support 
teams, engineering, and aviation. The ANG will continue to increase 
capabilities for use during domestic missions for the foreseeable 
future.
    Competing sustainment costs and funding requirements for 
recapitalization present challenges for the Total Force. However, by 
similarly equipping the ANG and the regular Air Force, we directly 
support efforts in Total Force Integration (TFI). In short, the ANG 
needs to be concurrently equipped with the active duty force to support 
our total Air Force mission--to be the dominant air power, second to 
none.
Maximize Associations and Community Basing
    Since Vietnam, the Air Force has understood the importance of unit 
integrity on combat effectiveness, and has reflected this in war plans 
for unit mobilizations. As such, the ANG, Air Force Reserve (AFRES), 
and active Air Force have formed unique alliances that promise to 
increase mission effectiveness while reducing costs.
    Under three types of constructs known as ``associations,'' ANG, 
AFRES, and active Air Force units share not only facilities and 
equipment, but knowledge and experiences (many ANG members spend their 
careers with the same unit and equipment).
  --Under ``classic associations'' the active duty unit retains 
        principal responsibility for its equipment and the reserve unit 
        shares in operating and maintaining it.
  --With ``active associations'' active duty personnel are assigned to 
        reserve units in local communities where they share in the 
        operation and maintenance of reserve-assigned assets.
  --The last association, called ``reserve associate,'' is similar to 
        the ``active'' and ``classic'' relationships in that one air 
        reserve unit retains ownership of the assets and another unit 
        shares in operating and maintaining the equipment as an air 
        reserve component associate unit.
    ``Community basing'' is a core characteristic that forms the 
foundation of our competitive edge as a cost effective combat-ready 
reserve. Over 60 percent of the ANG force consists of ``traditional'' 
part-time, professional Airmen, who train to the same standards, supply 
the same capabilities and provide the same response times as the 
regular Air Force.
    The ANG is closely tied to our communities. Generally our members 
are recruited locally, hold civilian jobs there, and maintain close 
ties throughout most of their careers in the ANG. Unlike regular Air 
Force Bases which tend to be self-sufficient, we also depend on our 
local communities for many common resources needed to support the 
mission. Shared infrastructure, such as retail stores and housing, 
reduces operating costs significantly (66 of 88 ANG flying units are 
co-located at civilian airports, sharing runways, taxiways, and fire/
crash emergency response).
    The synergy resulting from these relationships is fundamental to 
the mission readiness of the ANG in these ways:
  --Ties to the local area provide personnel stability, resulting in a 
        high level of unit integrity and experience.
  --Long-term relationships position the ANG to plan, exercise, and 
        respond to natural and man-made domestic emergencies.
  --Shared civil/military work force provides the ANG and the community 
        with broad skill sets.
Future Mission Areas
    The ANG is prepared to take on more mission sets to better support 
the overall Air Force mission. The ANG will continue to work with the 
Adjutants General to refine and update the modernization and 
recapitalization plans outlined previously. We will not only support 
our Governors at home with quick responses to natural and man-made 
disasters, but will also support the Combatant Commanders with improved 
mobility, agile combat support, and other mission sets, both tried and 
new.
            Rapid Global Mobility
    Continuing ANG participation in inter-theater or strategic airlift 
(C-5, C-17), intra-theater or tactical airlift (C-130, future C-27/
JCA), and air refueling (KC-135, KC-10, future KC-45) is important. 
Within the Strategic Reserve construct, strategic airlift and air 
refueling are central due to their surge-to-demand operation and 
ability to meet scheduled operational force requirements rapidly. 
Tactical airlift fits well with dual capabilities required by the ANG's 
state and federal roles. Its versatility makes it especially valuable 
in responding to domestic needs, such as Modular Aerial Fire Fighting 
(MAFF), and aerial delivery of food and supplies to disaster victims, 
and in search and rescue.
            Agile Combat Support
    Expeditionary Combat Support (ECS) units will continue to provide 
essential combat service support in sustaining all elements of 
operating forces, providing medical support, services, security forces, 
civil engineers, transportation, logistics support, and airfield 
maintenance. ECS also includes ANG support to National Guard Civil 
Support Teams (CSTs) and Chemical, Biological, Radiological, Nuclear, 
and high-yield Explosives (CBRNE) Enhanced Response Force Packages (NG-
CERFP) to assist civil authorities' response to domestic CBRNE 
incidents. These units are at the forefront of our dual-use 
capabilities in responding domestically to man-made and natural 
disasters as well as overseas disasters and operational missions.
            Intelligence, Surveillance, and Reconnaissance (ISR)
    The ANG can help meet rapidly increasing ISR requirements for the 
Joint Force, in areas such as the following: ISR in Special Operations; 
Distributed Ground Stations; Human Intelligence; National Tactical 
Integration; ISR Center of Excellence (Nellis AFB, Nevada); Air Force 
Expeditionary Signals Intelligence; Computer Network Exploitation; 
Tactics Analysis; Global Aviation Analysis Support Team; and All Source 
Intelligence Analysis.
    United States Special Operations Command (USSOCOM) requested 
investment in manning ISR aerial ports, which points to the need to 
further invest in small aircraft to support specific ISR requirements, 
something the ANG is uniquely qualified to do since it already 
possesses the appropriate aircraft and experienced aircrews. Platforms 
such as these have dual-use capability for both homeland and 
expeditionary operations. Specifically, it can support DOD's ``Building 
Partnership Capacity'' efforts with nations desiring a partnership 
arrangement involving a low-cost multi-utility platform, which could 
further enhance the National Guard State Partnership Program (SPP). 
This manned ISR mission, using the small aircraft platform, is 
potentially the most promising initiative for the ANG in the near 
future.
Cyberspace
    This year the Air National Guard continued to grow into cyberspace 
by establishing three more information operations squadrons, raising 
the number of operational units to eight. These new units include the 
166th Network Warfare Squadron based at New Castle Airport, Delaware, 
the 273rd Information Operations Squadron (IOS), Lackland AFB, Texas, 
and the 229th IOS, located in the Vermont National Guard Armory. While 
the specifics of each unit's mission vary slightly, all are dedicated 
to deterring the ever growing number of daily attacks against this 
nation's cyber-based infrastructure.
Space Operations
    ANG units support space and missile operations at several locations 
in Alaska and the continental United States. Air Force Space Command 
desires increased ANG involvement in space operations, to include 
Missile Warning associate squadrons, Missile Operations support 
squadrons, Distributed Command and Control Mission expansion, and Space 
Launch/Range operations.
Continuing Missions
    The ANG will retain some existing mission sets, such as those 
associated with Global Persistent Attack. This mission is a surge task 
that requires a large number of fighter aircraft, particularly in the 
early stages of a conflict. The Air Force Reserve Components provide 
the most cost effective way to maintain this surge capability.
    The Air Force will not be able to recapitalize its fighter force 
structure on a one-to-one basis, which means that some ANG fighter 
units have been required to transition to other mission areas. 
Developing active and classic associations such as those mentioned 
above are now underway as we transform to new and promising mission 
sets.
    For fiscal year 2010, fully rebalancing and training will involve a 
complex interchange of people, training, and resources. These mission 
changes will directly impact about 15,000 Air National Guard members 
across the nation.
    In an environment where change is considered a constant instead of 
a variable, we continue to move forward knowing a more capable Air 
National Guard will better serve the needs of our nation tomorrow and 
far into the future.
 major general peter m. aylward, director, joint staff, national guard 
                                 bureau
                       message from the director
    Today's National Guard faces a more complex and challenging world 
than ever before. There are no easy solutions to our comprehensive 
problems. America must remain ready to fight and win across the full 
range of military operations. Enemies are finding new ways to overcome 
the difficulties of geographic distance. The increase in travel and 
trade across U.S. borders has created new vulnerabilities for hostile 
states and actors to exploit opportunities to perpetrate devastating 
attacks on the U.S. homeland. U.S. military forces enjoy significant 
advantages in many aspects of armed conflict, but we will be challenged 
by adversaries who possess or design novel concepts to overcome our 
advantages.
    At home, the terrorism threat coincides with violent drug-
trafficking organizations and border security challenges. These trends 
produce a geopolitical setting that is increasingly complex and 
unpredictable. Therefore, the National Guard must be flexible and 
prepared for the unexpected. In addition, the way the National Guard is 
organized, equipped, and trained provides the unique ability to respond 
quickly and effectively to natural disasters and man-made catastrophic 
events. The National Guard Bureau's Joint Staff has taken on these 
challenges with the following efforts, teams, and programs.
                          domestic operations
Weapons of Mass Destruction Civil Support Teams (WMD-CST)
    The National Guard continues to strengthen its ability to respond 
to chemical, biological, radiological, nuclear, and high-yield 
explosive incidents with 55 WMD-CSTs and two newly established units 
going through the DOD certification process. These units are manned by 
22 full-time Army and Air Guard personnel who provide each Governor 
with an immediate response capability, specialized expertise, and 
technical assistance that can be provided to local incident commanders 
nationwide. WMD-CSTs do not duplicate state CBRNE response 
capabilities, but support civil authorities by identifying CBRNE agents 
or substances, assessing current or projected consequences, advising on 
response options, and assisting with requests for state support. 
Congress recently expanded the use of CSTs to include response to 
intentional or unintentional HAZMAT incidents and natural or manmade 
disasters.
    The National Guard's Civil Support Teams, which are so essential to 
the security of the American people on an almost daily basis, depend on 
the availability of adequate operations and maintenance funds to carry 
out their tasks. Any reduction in funding below that requested carries 
the risk of hindering the operational capability of these essential 
teams.
Chemical, Biological, Radiological, Nuclear, and High-Yield Explosive 
        (CBRNE)--Enhanced Response Force Package (CERFP) Teams
    Army and Air National Guard Citizen-Soldiers and Airmen with 
technical response skills in this area make up 17 CERFP teams covering 
every region of the country. The CERFP team is designed to locate and 
extract victims from a collapsed structure in a contaminated 
environment, perform medical triage and treatment, and conduct 
personnel decontamination from a weapon of mass destruction incident.
CBRNE Consequence Management Response Forces (CCMRFs)
    Each CCMRF provides 4,700 trained and equipped active and reserve 
component military personnel ready to assist civil authorities in 
response to a CBRNE incident. CCMRF capabilities include: CBRNE 
reconnaissance and detection; casualty search and extraction; 
decontamination; hazardous material handling and disposal; medical 
triage, treatment, and care; aero-medical evacuation; explosive 
ordnance disposal; air and land transportation; and mortuary affairs.
    The National Guard Bureau continues to support planning for the 
standup of all CCMRFs.
Joint Force Headquarters-State (JFHQ-State)
    The National Guard continues to strengthen and refine the 54 Joint 
Force Headquarters throughout the United States. JFHQ-State works to 
enable effective domestic responses while conducting traditional state 
National Guard training responsibilities for Army and Air Force reserve 
component forces. Each JFHQ-State provides the Governor with 
information and command and control for effective National Guard 
response; provides improved situational awareness to DOD before, 
during, and after an emergency response; and facilitates unity and 
continuity of military (federal and state) effort during Continental 
U.S. (CONUS) operations.
Critical Infrastructure Program--Mission Assurance Assessment (CIP-MAA) 
        Teams
    National Guard CIP-MAA teams are comprised of Citizen-Soldiers and 
Airmen trained to assess the vulnerability of industrial sites and 
critical U.S. Government infrastructure to attack. Their analysis helps 
various government agencies direct prevention, deterrence, mitigation, 
and response efforts. Currently, three teams are assessing Defense 
industrial base sites and ten teams are assessing Department of 
Homeland Security sites.
Joint Enabling Team (JET)
    The National Guard Bureau's highly trained professionals making up 
Joint Enabling Teams establish a logistics and support link between 
NGB, the supported state, and supporting states and agencies. The JETs 
help identify potential mission shortfalls and facilitate missions by 
assisting with the collection, reporting, and sharing of information. 
They ensure that resources are available and that personnel directly 
involved in the mission are effectively supported for domestic 
operations involving floods, hurricanes, and tropical storms.
National Guard Reaction Force (NGRF)
    Within hours of an incident, upwards of 500 individuals can assist 
state and local law enforcement by providing site security, presence 
patrols, show-of-force, establishment of roadblocks and/or checkpoints, 
control of civil disturbances, force protection and security for other 
responders, and protection of DOD assets as required.
Task Force for Emergency Readiness (TFER)
    The TFER program enlists National Guard officers at the state level 
to write comprehensive ``state'' Homeland Security Plans that address 
the eight national planning scenario sets. The Federal Emergency 
Management Agency (FEMA) is currently funding five pilot states 
(Hawaii, Massachusetts, South Carolina, Washington, and West Virginia) 
with the intent of expanding TFER to all states based on the 
anticipated success of the pilot program.
                          counterdrug programs
    In 2008, some 2,400 National Guard personnel supported law 
enforcement agencies in seizing illegal drugs with a street value of 
approximately $28 billion. The National Guard supports law enforcement 
counterdrug operations with 125 specially equipped Army National Guard 
OH-58A helicopters and 11 Air National Guard counterdrug RC-26B fixed-
wing aircraft.
    Synchronizing counterdrug information-sharing among law enforcement 
agencies, the National Guard, and Department of Defense agencies has 
greatly increased the efficiency and speed of the effort.
Stay on Track
    In 2008, National Guard personnel reached over 3 million people 
with their positive anti-drug messages. Drug demand reduction programs 
such as Stay on Track have reached over 115,000 middle school students 
in 215 schools around the country since 2007. In 2009, Stay on Track 
plans to reach out to another 150,000 students.
                          operation jump start
    The National Guard and the U.S. Border Patrol marked the end of the 
Operation Jump Start (OJS) mission in 2008 with ceremonies in 
Washington, D.C. Operation Jump Start began June 15, 2006, and 
officially ended July 15, 2008. At its peak, the operation saw up to 
6,000 National Guard Citizen-Soldiers and Airmen assisting the Border 
Patrol to increase security and vigilance along the nation's southern 
border.
    OJS assistance not only freed up hundreds of Border Patrol agents 
to perform their normal law enforcement duties, but it also allowed 
time for the Border Patrol to hire and train more agents. ``Within law 
enforcement, there is one word that we put a lot of weight on,'' said 
David V. Aguilar, Chief of the Border Patrol. ``That is the word 
`partner.' Today, I am very proud to call every individual who wears 
the uniform of the National Guard, has ever worn it, or will wear it, 
or is in any way affiliated with the National Guard . . . our true 
partners, and for that we truly thank you.''
    Over the 2-year period, more than 29,000 troops from all 54 states 
and territories participated. As we look back on this operation, we 
count the following successes:
  --Assisted with over 176,000 immigration violation apprehensions;
  --Aided in seizing over 315,000 pounds of marijuana;
  --Aided in seizing 5,000-plus pounds of cocaine;
  --Helped build more than 19 miles of road;
  --Helped repair more than 717 miles of road;
  --Helped construct 38 miles of fencing; and
  --Helped erect 96 miles of vehicle border barriers.
    The National Guard provided the Border Patrol logistical and 
administrative support by operating detection systems, providing 
communications, and analyzing border-related intelligence. Citizen-
Soldiers and Airmen also built new infrastructure, conducted training, 
and provided additional aviation assets and ground transportation.
                     joint and interagency training
    To continue providing quick and effective support of local and 
state response forces, the National Guard must continue expanding its 
capacity to conduct joint and interagency training in a domestic 
environment. We can accomplish this by increasing the number of 
National Guard, state and local response forces, DOD, and federal 
agencies participating in the U.S. Northern Command (USNORTHCOM) and 
NGB Joint Interagency Training Capability (JITC) programs.
    Increased participation by these and other agencies will improve 
tactical interoperability as well as unity of effort among state, 
local, and federal agencies during catastrophic man-made or natural 
disasters. Increasing the number and scope of National Guard regional 
training centers (such as the Joint Interagency Training and Education 
Center (JITEC) in West Virginia) will also improve response proficiency 
and standardize tactics, techniques, and procedures for National Guard 
teams dealing with chemical, biological, radiological, nuclear, and 
high-yield explosives (CBRNE).
Joint Interagency Exercise Program (VIGILANT GUARD)
    This exercise program conducts four National Guard regional 
exercises each year that provide valuable experience and training 
opportunities to the following force elements:
            JTF Commander Training Course
    This course prepares potential JTF commanders to operate, organize, 
and function in the unique federal and state environment. The 4-day in-
residence course is conducted twice a year at USNORTHCOM in Colorado 
Springs.
            JFHQ/JTF Staff Training Course (JSTC)
    This course provides comprehensive training and education for joint 
staff to support JFHQ and JTF missions in state or federal status.
            Collective CBRNE Training Program
    Seventeen CBRNE Enhanced Response Force Packages (CERFPs) and 57 
Weapons of Mass Destruction--Civil Support Teams (WMD-CSTs) learn to 
respond to a catastrophic CBRNE event in this program.
            Joint Interagency Training and Education Center (JITEC)
    In addition to the Joint Interagency Training Capability, JITEC 
plays an integral part in continuing the National Guard's 
transformation for the future by building relationships and 
capabilities with our interagency partners. Joint Interagency 
highlights include:
  --Providing more than 30,000 duty-days of training and interaction in 
        over 800 exercises to some 90 different organizations and 
        agencies since September 11, 2001; and
  --Scheduling more than 200 training, exercise, or assessment 
        activities in 2010.
    With continuing support from both DOD and Congress, the National 
Guard will continue to transform itself into a premier homeland 
security and defense organization, leveraging state and federal 
responses, capabilities, and expertise.
       technology revolutionizes emergency response and training
    Technology has played a key role in enhancing the National Guard 
Joint Staff's effectiveness in America's emergency preparedness and 
response. Emergency response training, information exchange, and 
command and control activities are more robust than ever to support 
local communities during a time of catastrophic events. The following 
highlights our progress.
Joint CONUS Communications Support Environment (JCCSE)
    The JCCSE is the National Guard Bureau and USNORTHCOM umbrella 
platform that establishes communications and information sharing for 
Homeland Defense and Civil Support missions from the national to the 
state or territory level. The JCCSE platform ensures the National 
Guard's capacity to provide Command, Control, Communications, and 
Computer (C\4\) support necessary to carry out National Guard 
responsibilities. These capabilities directly supported FEMA operations 
during Hurricanes Gustav and Ike.
    Communications, situational awareness, and command and control were 
bolstered with the following JCCSE enhancements:
  --NGB acquired 84 Joint Incident Site Communications Capability 
        (JISCC) systems to be distributed to the 54 states and 
        territories. These sets provide interoperable communications at 
        the incident site along with a satellite link to command and 
        control centers to share information and tools needed to 
        request or direct support.
  --NGB established a Joint Command, Control, Communications, and 
        Computer (C\4\) Coordination Center (JCCC) to monitor the 
        status of all National Guard communications to the Joint Force 
        Headquarters in each state, FEMA, and all emergency agencies 
        involved. During an incident, the JCCC provides help-desk and 
        satellite link support to teams deploying with JISCC.
  --NGB established the Joint Information Exchange Environment (JIEE) 
        as a web-based application to provide a common operating 
        picture of all non-federalized National Guard activities. JIEE 
        provides the ability to monitor, track, and share operational 
        information with mission partners in a trusted domestic 
        operations environment that extends down to the incident level. 
        This capability is not currently available in DOD programs of 
        record.
    The domestic information environment in which JCCSE must 
interoperate continues to evolve. Consequently, NGB will continue to 
request funding to both sustain and adapt JCCSE capabilities as the 
domestic response requirements emerge.
Emergency Management Staff Trainer (EMST)
    The Emergency Management Staff Trainer is a new virtual training 
application that provides extremely low-cost, scenario-driven training 
that can be repeated as many times as needed. This capability offers 
training that is geographically specific, allowing National Guard and 
civilian emergency management personnel to engage in training specific 
to their own city or state.
    Scenarios developed to date include Hurricane Preparation and 
Response, Earthquake Response, Building Collapse, and Pandemic 
Influenza Answer.
Regional and State Online Resource--Emergency Management (RaSOR-EM)
    RaSOR-EM supports training activities by combining commercially 
available mapping programs with links to thousands of emergency 
management databases and other information sources, dramatically 
enhancing speed and access to this critical information. All 54 states 
and territories, numerous federal agencies, and personnel from the 
Department of Homeland Security currently use the program. Data layers 
have been added to include critical infrastructure data, locations of 
schools and reserve centers, and other valuable data.
                       supporting the warfighter
    An effective Citizen-Soldier or Airman is one who knows his or her 
family is safe, secure, and able to function efficiently while he or 
she is deployed. An effective Soldier or Airman also needs support in 
transitioning back to civilian life after long deployments. Keeping our 
Soldiers and Airmen ready, both physically and mentally, requires the 
National Guard's support through programs for the individual and the 
family.
Transition Assistance Advisors
    Sixty-two Transition Assistance Advisors (TAAs) were hired in the 
states, territories, and District of Columbia to provide personalized 
service to Guard and family members. They educate and assist them on 
constantly evolving benefits information, assist them in obtaining 
their federal and state benefits and entitlements, and help them file 
and track benefits claims. These personalized services include linking 
Guard members and families to behavioral health resources, disability 
claims filing, and obtaining disability compensation. These advisors 
work closely with the liaisons from the NGB and Department of Veterans 
Affairs (DVA) and have proven themselves invaluable by educating 
National Guard leadership, Guard members, and veterans on the myriad of 
complex benefits and entitlements earned through their military 
service.
    In one instance, the TAA, the Seattle Veterans' regional office, 
and the Washington National Guard teamed up to test an idea that allows 
persons to file for Veterans Administration benefits and process them 
within 6 to 8 days of their units returning from active duty--a method 
previously reserved only for returning active duty units. This is made 
possible by allowing access to military medical records, often a large 
factor for delays in claims. The units also complete medical benefits 
forms on site.
National Guard Joint Family Program
    The National Guard Joint Family Program (JFP) provides direct 
support to the 54 state and territory family program directors, youth 
coordinators, and 92 Wing Family Program Coordinators. The JFP office 
provides guidance, resources, and support to National Guard families 
when Guardsmen are deployed at home or abroad. JFP conducts all 
training events and national-level seminars and workshops for all of 
the above positions as well as for an estimated force of over 10,000 
National Guard family volunteers.
    The program office provides training to families via computer-based 
training modules, centralized classes, and locally provided training to 
help make families self-reliant throughout the deployment cycle 
process.
Family Assistance Centers
    Consider these actual family situations:
    A New Jersey National Guard Soldier, training for deployment to 
Afghanistan, receives word that his family's home is gutted by fire.
    A Soldier suffers from severe post traumatic stress disorder as he 
deals with his wife's declining health and the threat of losing their 
home.
    A catastrophic auto accident has left a Soldier a quadriplegic.
    These are just a few of the situations Family Assistance Centers 
(FACs) deal with each day to help our Soldiers. More than 300 FACs 
across the 54 states and territories provide information, referral, and 
outreach to families of geographically dispersed members from all 
services, whether active or reserve component. Family Assistance 
Centers are critical to mobilization and demobilization and to the 
long-term health and welfare of service members and their families. The 
FAC team believes that Soldiers who know their families are cared for, 
safe, and secure at home, can better concentrate on their tasks and 
missions in theater.
Yellow Ribbon Reintegration Program
    The Yellow Ribbon Program provides information, services, 
referrals, and proactive outreach to service members, spouses, 
employers, and youth from the beginning through the end of the 
mobilization lifecycle.
    The program provides a flexible family support system to meet the 
service member and family readiness needs of the expeditionary service 
component and geographically dispersed families. The program focuses on 
ensuring service members and their families receive the information and 
tools necessary to cope during the mobilization lifecycle.
    Yellow Ribbon Program services include: Marriage Enrichment; 
Employer Support for the Guard and Reserve (ESGR); Warrior Transition 
Unit Information; Traumatic Brain Injury Information and Support; Child 
Behavioral Counselors; Veterans Affairs Information; TRICARE/Medical 
Benefit Information; Family Counseling; Legal Counseling; Financial 
Counseling; Community Relations; School Support; Child Care Services; 
Informational meetings and briefings; Preparations for reintegration; 
and Employment opportunities.
Division of Psychological Health
    The newly created Division of Psychological Health will direct and 
manage a comprehensive psychological health service dedicated to Guard 
members and their families on a variety of conditions associated with 
post traumatic stress disorder(s) and/or traumatic brain injury. Fifty-
four licensed mental health practitioners will cover all the states and 
territories.
    The Psychological Health service goals include:
  --Providing high quality services that are National Guard member-
        specific;
  --Overseeing an individual's mental health and readjustment needs to 
        civilian life;
  --Addressing individual health care situations that may hinder 
        reintegration to civilian life; and
  --Consulting state and territory National Guard senior management on 
        specific mental health needs and trends based on membership 
        demographics.
    The NGB Division of Psychological Health is committed to providing 
quality care and will develop and implement a program that is 
practical, meaningful, and beneficial for our Guard members and their 
families, thereby ensuring our maximum operational readiness.
A Leader in Equal Opportunity
    In 2008, the National Guard Bureau Office of Equal Opportunity and 
Civil Rights developed Reasonable Accommodations procedures that are a 
model for other federal agencies. The National Guard Bureau is also 
officially partnering with Operation War Fighter through job fairs, 
resume reviews from the internet, and participation in ongoing work 
groups to enhance employment opportunities within NGB for wounded 
service members during their rehabilitation.
    This office ensures the effective management of National Guard 
Affirmative Action programs to achieve a military and civilian work 
force structure that reflects the diversity of the 54 states and 
territories.
    With the on-going support from Congress and the American people, 
the National Guard will continue to secure the American homeland while 
defending her interests abroad.
    Your National Guard is ``Always Ready, Always There.''
                        state adjutants general
    Alabama: Major General Abner C. Blalock Jr.
    Alaska: Major General Craig E. Campbell
    Arizona: Major General (AZ) Hugo E. Salazar
    Arkansas: Major General William D. Wofford
    California: Major General William H. Wade II
    Colorado: Major General H. Michael Edwards
    Connecticut: Major General Thaddeus J. Martin
    Delaware: Major General Francis D. Vavala
    District of Columbia: Major General Errol R. Schwartz, Commanding 
General
    Florida: Major General Douglas Burnett
    Georgia: Major General William T. Nesbitt
    Guam: Major General Donald J. Goldhorn
    Hawaii: Major General Robert G. F. Lee
    Idaho: Major General Lawrence F. Lafrenz
    Illinois: Major General William L. Enyart Jr.
    Indiana: Major General R. Martin Umbarger
    Iowa: Major General (Ret.) G. Ron Dardis
    Kansas: Major General Tod M. Bunting
    Kentucky: Major General Edward W. Tonini
    Louisiana: Major General Bennett C. Landreneau
    Maine: Major General John W. Libby
    Maryland: Brigadier General (MD) James A. Adkins
    Massachusetts: Major General (MA) Joseph C. Carter
    Michigan: Major General Thomas G. Cutler
    Minnesota: Major General Larry W. Shellito
    Mississippi: Major General (MS) William L. Freeman Jr.
    Missouri: Brigadier General (MO) Stephen L. Danner
    Montana: Brigadier General (MT) John E. Walsh
    Nebraska: Major General (NE) Timothy J. Kadavy
    Nevada: Major General Cynthia N. Kirkland
    New Hampshire: Major General (Ret.) Kenneth R. Clark
    New Jersey: Major General Glenn K. Rieth
    New Mexico: Major General (NM) Kenny C. Montoya
    New York: Major General Joseph J. Taluto
    North Carolina: Major General William E. Ingram Jr.
    North Dakota: Major General David A. Sprynczynatyk
    Ohio: Major General Gregory L. Wayt
    Oklahoma: Major General Myles L. Deering
    Oregon: Major General Raymond F. Rees
    Pennsylvania: Major General Jessica L. Wright
    Puerto Rico: Brigadier General (Ret.) Antonio J Vicens-Gonzalez
    Rhode Island: Major General Robert T. Bray
    South Carolina: Major General (Ret.) Stanhope S. Spears
    South Dakota: Major General Steven R. Doohen
    Tennessee: Major General Gus L. Hargett Jr.
    Texas: Major General Charles G. Rodriguez
    Utah: Major General Brian L. Tarbet
    Vermont: Major General Michael D. Dubie
    Virginia: Major General Robert B. Newman Jr.
    Virgin Islands: Major General (VI) Renaldo Rivera
    Washington: Major General Timothy J. Lowenberg
    West Virginia: Major General Allen E. Tackett
    Wisconsin: Brigadier General (WI) Donald P. Dunbar
    Wyoming: Major General Edward L. Wright
                              in memoriam
    National Guard Soldiers and Airmen lost during the attacks on 9/11, 
Operation Noble Eagle, Operation Enduring Freedom and Operation Iraqi 
Freedom as of January 1, 2009.

CPT Clayton L. Adamkavicius, KY
PVT Algernon Adams, SC
SGT Jan M. Argonish, PA
SFC Brent A. Adams, PA
SGT Leonard W. Adams, NC
SGT Spencer C. Akers, MI
SPC Segun F. Akintade, NY
PFC Wilson A. Algrim, MI
SPC Azhar Ali, NY
SGT Howard P. Allen, AZ
1LT Louis E. Allen, PA
SSG William A. Allers III, KY
SFC Victor A. Anderson, GA
SPC Michael Andrade, RI
SGT Travis M. Arndt, MT
SSG Daniel L. Arnold, PA
SSG Larry R. Arnold, MS
SGT Jesse A. Ault, VA
SGT Christopher J. Babin, LA
SFC Travis S. Bachman, KS
SSG Nathan J. Bailey, TN
SPC William L. Bailey, NE
SPC Ronald W. Baker, AR
SGT Sherwood R. Baker, PA
MSG Scott R. Ball, PA
1LT Debra A. Banaszak, IL
SGT Derek R. Banks, VA
1LT Gerard Baptiste, NY
SGT Michael C. Barkey, OH
1LT Christopher W. Barnett, LA
SPC Bryan E. Barron, MS
SGT Michael Barry, KS
SSG Robert J. Basham, WI
SPC Todd M. Bates, OH
SSG Tane T. Baum, OR
SPC Alan Bean Jr., VT
SGT Bobby E. Beasley, WV
SSgt Brock A. Beery, TN
CPL Joseph O. Behnke, NY
SGT Aubrey D. Bell, AL
SSG Keith A. Bennett, PA
SGT Darry Benson, NC
SPC Bradley J. Bergeron, LA
LTC Richard J. Berrettini, PA
SSG David R. Berry, KS
SSG Sean B. Berry, TX
SSG Harold D. Best, NC
SSG Richard A. Blakley, IN
SGT Dennis J. Boles, FL
SFC Craig A. Boling, IN
SSG Jerry L. Bonifacio Jr., CA
SSG Darryl D. Booker, VA
COL Canfield Boone, IN
SPC Christopher K. Boone, TX
CPL Samuel M. Boswell, MD
SSG Collin J. Bowen, MD
PFC Samuel R. Bowen, OH
SGT Larry Bowman, NY
SSG Hesley Box Jr., AR
SSG Stacey C. Brandon, AR
SPC Kyle A. Brinlee, OK
SSG Cory W. Brooks, SD
SFC John G. Brown, AR
SGT Lerando Brown, MS
PFC Nathan P. Brown, NY
PFC Oliver J. Brown, PA
SPC Philip D. Brown, ND
SPC Timothy D. Brown, MI
SGT Charles R. Browning, AZ
SFC Daniel A. Brozovich, PA
SSgt Andrew C. Brunn, NY
SPC Jacques E. Brunson, GA
PFC Paul J. Bueche, AL
CPL Jimmy D. Buie, AR
SSG James D. Bullard, SC
SPC Alan J. Burgess, NH
SGT Casey Byers, IA
SGT Charles T. Caldwell, RI
MAJ Jeffrey R. Calero, NY
SSG Joseph Camara, MA
1LT Jaime L. Campbell, WA
LTC David C. Canegata III, VI
SGT Deyson K. Cariaga, HI
SPC Frederick A. Carlson, PA
SSG Nicholas R. Carnes, KY
SPC Jocelyn L. Carrasquillo, NC
MSG Scott M. Carney, IA
SGT James D. Carroll, TN
SPC Dane O. Carver, MI
SGT Frank T. Carvill, NJ
SFC Virgil R. Case, ID
CPT Christopher S. Cash, NC
SPC Stephen W. Castner, WI
SPC Jessica L. Cawvey, IL
CPL Bernard L. Ceo, MD
SPC James A. Chance III, MS
SSG William D. Chaney, IL
MSG Chris S. Chapin, VT
SSG Craig W. Cherry, VA
SPC Don A. Clary, KS
MSG Herbert R. Claunch, AL
SGT James M. Clay, AR
SPC Brian Clemens, IN
SSG Thomas W. Clemons, KY
SGT Russell L. Collier, AR
SFC Kurt J. Comeaux, LA
SPC Anthony S. Cometa, NV
SGT Brian R. Conner, MD
SFC Sean M. Cooley, MS
SSG Travis S. Cooper, MS
SPC Marcelino R. Corniel, CA
SGT Alex J. Cox, TX
SFC Daniel B. Crabtree, OH
MSG Clinton W. Cubert, KY
SSG Daniel M. Cuka, SD
SPC Carl F. Curran, PA
CPT Patrick D. Damon, ME
SGT Jessie Davila, KS
SPC Daryl A. Davis, FL
SSG Kevin D. Davis, OR
SPC Raphael S. Davis, MS
SSG David F. Day, MN
PFC John W. Dearing, MI
SGT Germaine L. Debro, NE
MSG Bernard L. Deghand, KS
SGT Felix M. Del Greco, CT
SPC Daryl T. Dent, DC
SPC Daniel A. Desens, NC
CPT Bruno G. Desolenni, CA
PFC Nathaniel E. Detample, PA
CPL Scott G. Dimond, NH
SPC Joshua P. Dingler, GA
SGT Philip A. Dodson Jr., GA
SPC Ryan E. Doltz, NJ
SSgt Geronimo ``Jerome'' M. P. Dominguez, NY
1LT Mark H. Dooley, NY
SPC Thomas J. Dostie, ME
SSG George R. Draughn Jr., GA
SGT Duane J. Dreasky, MI
SPC Christopher M. Duffy, NJ
CPL Ciara M. Durkin, MA
SGT Arnold Duplantier II, CA
Sgt Lance O. Eakes, NC
SFC Amos C. Edwards Jr., GA
CWO Corry A. Edwards, TX
SFC Mark O. Edwards, TN
2LT Michael I. Edwards, AK
SGT Michael Egan, PA
SGT Christian P. Engeldrum, NY
SGT Daniel M. Eshbaugh, OK
CPT Phillip T. Esposito, NY
SPC Michael S. Evans II, LA
SPC William L. Evans, PA
SSG Christopher L. Everett, TX
SGT Justin L. Eyerly, OR
SPC Huey P. Long Fassbender, LA
SGT Gregory D. Fejeran, GM
CPT Arthur L. Felder, AR
SGT Robin V. Fell, LA
SGT Christopher J. C. Fernandez, GM
SPC William V. Fernandez, PA
SPC Jon P. Fettig, ND
SGT Damien T. Ficek, WA
SGT Courtney D. Finch, KS
SGT Jeremy J. Fischer, NE
CPT Michael T. Fiscus, IN
SPC David M. Fisher, NY
SGT Paul F. Fisher, IA
CW3 William T. Flanigan, TN
CW3 John M. Flynn, NV
SSG Tommy I. Folks Jr., TX
SGT Joseph A. Ford, IN
SGT Joshua A. Ford, NE
SPC Craig S. Frank, MI
SSG Bobby C. Franklin, GA
SSG Jacob Frazier, IL
SPC Carrie L. French, ID
SPC Armand L. Frickey, LA
SSG Joseph F. Fuerst III, FL
SFC Michael T. Fuga, AS \1\
SSG Carl R. Fuller, GA
SPC Marcus S. Futrell, GA
CSM Marilyn L. Gabbard, IA
SGT Jerry L. Ganey Jr., GA
SGT Seth K. Garceau, IA
SPC Tomas Garces, TX
SGT Landis W. Garrison, IL
PFC Alva L. Gaylord, MO
SGT Christopher Geiger, PA
SPC Christopher D. Gelineau, ME
SPC Mathew V. Gibbs, GA
2LT Richard B. Gienau, IL
SSG Charles C. Gillican III, GA
SGT Terrell W. Gilmore, LA
SPC Lee M. Godbolt, LA
SGT Jaime Gonzalez, TX
CPL Nathan J. Goodiron, ND
SPC Richard A. Goward, MI
SGT Shawn A. Graham, TX
SGT Jamie A. Gray, VT
SGT Kevin D. Grieco, IL
SPC James T. Grijalva, IL
SGT Shakere T. Guy, CA
SGT Jonathon C. Haggin, GA
SFC Peter J. Hahn, LA
CSM Roger W. Haller, MD
SSG Jeffrey J. Hansen, NE
SGT Joshua R. Hanson, MN
SGT Joshua W. Harris, IL
SSG Asbury F. Hawn II, TN
SPC Michael R. Hayes, KY
CPT Bruce E. Hays, WY
SGT Paul M. Heltzel, LA
SPC Kyle M. Hemauer, VA
1LT Robert L. Henderson II, KY
SSG Kenneth Hendrickson, ND
SFC John M. Hennen, LA
SGT Gary M. Henry, IN
SPC Michael L. Hermanson, ND
SPC Brett M. Hershey, IN
MSG Michael T. Hiester, IN
SGT Stephen C. High, SC
CPT Raymond D. Hill II, CA
SGT Shawn F. Hill, SC
SFC Matthew L. Hilton, MI
SGT Jeremy M. Hodge, OH
PFC Derek Holland, PA
SFC Robert L. Hollar Jr., GA
SPC Eric M. Holke, CA
SPC James J. Holmes, MN
SPC Jeremiah J. Holmes, ME
SGT Manny Hornedo, NY
SGT Jessica M. Housby, IL
SPC Robert W. Hoyt, CT
SPC Jonathan A. Hughes, KY
SGT Buddy J. Hughie, OK
SGT Joseph D. Hunt, TN
MSG Julian Ingles Rios, PR
SSG Henry E. Irizarry, NY
SPC Benjamin W. Isenberg, OR
SFC Tricia L. Jameson, NE
SGT Brahim J. Jeffcoat, PA
SPC William Jeffries, IN
SPC David W. Johnson, OR
SGT Joshua A. Johnson, VT
SFC Charles J. Jones, KY
SSG David R. Jones Sr., GA
SFC Michael D. Jones, ME
SGT Ryan D. Jopek, WI
SGT Anthony N. Kalladeen, NY
SPC Alain L. Kamolvathin, NJ
SPC Mark J. Kasecky, PA
SSG Darrel D. Kasson, AZ
SPC Charles A. Kaufman, WI
SPC James C. Kearney, IA
SGT Michael J. Kelley, MA
SSG Dale J. Kelly, ME
COL Paul M. Kelly, VA
SSG Stephen C. Kennedy, TN
SSG Ricky A. Kieffer, MI
SSG Bradley D. King, IN
SGT James O. Kinlow, GA
PFC David M. Kirchoff, IA
SGT Timothy C. Kiser, CA
SPC Rhys W. Klasno, CA
SPC Chris Kleinwachter, ND
SGT Floyd G. Knighten Jr., LA
SPC Joshua L. Knowles, IA
SGT Brent W. Koch, MN
SSG Lance J. Koenig, ND
SGT Allen D. Kokesh Jr., SD
CW3 Patrick W. Kordsmeier, AR
SPC Kurt E. Krout, PA
SPC John Kulick, PA
SFC William W. Labadie Jr., AR
SGT Joshua S. Ladd, MS
SGT Dustin D. Laird, TN
SFC Floyd E. Lake, VI
SPC Charles R. Lamb, IL
SPC David E. Lambert, VA
SGT Denise A. Lannaman, NY
SFC Issac S. Lawson, CA
CW4 Patrick D. Leach, SC
SGT Terrance D. Lee Sr., MS
SGT David L. Leimbach, SC
PFC Ken W. Leisten, OR
SSG Jerome Lemon, SC
SPC Brian S. Leon Guerrero, GU
SPC Timothy J. Lewis, VA
SSG Nathaniel B. Lindsey, OR
SGT Jesse M. Lhotka, MN
SSG Victoir P. Lieurance, TN
SFC Daniel R. Lightner Jr., PA
SPC Justin W. Linden, OR
SSG Tommy S. Little, AL
SPC Jeremy Loveless, AL
SSG David L. Loyd, TN
CPT Robert Lucero, WY
2LT Scott B. Lundell, UT
SPC Audrey D. Lunsford, MS
PFC Jonathan L. Luscher, PA
SPC Derrick J. Lutters, CO
SPC Wai Phyo Lwin, NY
CPT Sean E. Lyerly, TX
SGT Stephen R. Maddies, TN
SPC Anthony L. Mangano, NY
SSG William F. Manuel, LA
SPC Joshua S. Marcum, AR
SPC Jeremy E. Maresh, PA
PFC Adam L. Marion, NC
PFC Ryan A. Martin, OH
Sgt Anthony L. Mason, TX
SGT Nicholas C. Mason, VA
SGT John R. Massey, AR
SGT Randy J. Matheny, NE
SGT Patrick R. McCaffrey Sr., CA
SFC Randy D. McCaulley, PA
1LT Erik S. McCrae, OR
SPC Donald R. McCune, MI
SPC Bryan T. McDonough, MN
SGT John E. McGee, GA
SPC Jeremy W. McHalffey, AR
SFC Joseph A. McKay, NY
SPC Eric S. McKinley, OR
LTC Michael E. McLaughlin, PA
SPC Scott P. McLaughlin, VT
SGM Jeffrey A. McLochlin, IN
SSG Heath A. McMillan, NY
SSG Michael J. McMullen, MD
SPC Robert A. McNail, MS
MSG Robbie D. McNary, MT
SSG Jeremiah E. McNeal, VA
SPC Curtis R. Mehrer, ND
PV2 Bobby Mejia II, MI
SPC Mark W. Melcher, PA
SPC Jacob E. Melson, AK
SPC Kenneth A. Melton, MO
SPC Jonathan D. Menke, IN
SSG Chad M. Mercer, GA
SPC Chris S. Merchant, VT
SSG Dennis P. Merck, GA
SGM Michael C. Mettille, MN
SPC Michael G. Mihalakis, CA
SSG Brian K. Miller, IN
SPC John W. Miller, IA
SGT Kyle R. Miller, MN
CPT Lowell T. Miller II, MI
SPC Marco L. Miller, FL
PFC Mykel F. Miller, AZ
SFC Troy L. Miranda, AR
SGT Ryan J. Montgomery, KY
SPC Samson A. Mora, GU
SGT Carl J. Morgain, PA
SPC Dennis B. Morgan, NE
SGT Steve Morin Jr., TX
SGT Shawna M. Morrison, IL
SPC Clifford L. Moxley, PA
LTC Charles E. Munier, WY
SPC Warren A. Murphy, LA
SGT David J. Murray, LA
SPC Nathan W. Nakis, OR
SPC Creig L. Nelson, LA
SGT Paul C. Neubauer, CA
SPC Joshua M. Neusche, MO
SGT Long N. Nguyen, OR
SPC Paul A. Nicholas, CA
SFC Scott E. Nisely, IA
SGT William J. Normandy, VT
PFC Francis C. Obaji, NY
SGT John B. Ogburn III, OR
SGT Nicholas J. Olivier, LA
SSG Todd D. Olson, WI
1LT Robert C. Oneto-Sikorski, MS
1SG Julio C. Ordonez, TX
SPC Richard P. Orengo, PR
SSG Billy Joe Orton, AR
SGT Timothy R. Osbey, MS
SSG Ryan S. Ostrom, PA
SSG Michael C. Ottolini, CA
SSG Paul S. Pabla, IN
SGT Mark C. Palmateer, NY
PFC Kristian E. Parker, LA
SGT Richard K. Parker, ME
SSG Saburant Parker, MS
SGT Lawrence L. Parrish, MO
SSG Michael C. Parrott, CO
SPC Gennaro Pellegrini Jr., PA
SGT Theodore L. Perreault, MA
SSG David S. Perry, CA
SGT Jacob L. Pfingsten, MN
SSG Joseph E. Phaneuf, CT
PFC Sammie E. Phillips, KY
SGT Edward O. Philpot, SC
SGT Ivory L. Phipps, IL
SSG Emanuel Pickett, NC
CW2 Paul J. Pillen, SD
PFC Derek J. Plowman, AR
SGT Foster Pinkston, GA
SGT Darrin K. Potter, KY
SGT Christopher S. Potts, RI
SGT Lynn R. Poulin Sr., ME
SFC Daniel J. Pratt, OH
SFC James D. Priestap, MI
2LT Mark J. Procopio, VT
SGT Joseph E. Proctor, IN
SPC Robert S. Pugh, MS
SFC George A. Pugliese, PA
SPC Joseph A. Rahaim, MS
SPC Eric U. Ramirez, CA
PFC Brandon Ramsey, IL
SPC Christopher J. Ramsey, LA
SSG Jose C. Rangel, CA
SGT Thomas C. Ray II, NC
SSG Johnathan R. Reed, LA
SSG Aaron T. Reese, OH
SGT Gary L. Reese Jr., TN
SGT Luis R. Reyes, CO
SPC Jeremy L. Ridlen, IL
SPC James D. Riekena, WA
SGT Greg N. Riewer, MN
PFC Hernando Rios, NY
SSG Milton Rivera-Vargas, PR
CPL John T. Rivero, FL
SSG William T. Robbins, AR
SSG Christopher L. Robinson, MS
CPL Jeremiah W. Robinson, AZ
SGT Nelson D. Rodriguez Ramirez, MA
SSG Alan L. Rogers, UT
SFC Daniel Romero, CO
SGT Brian M. Romines, IL
SFC Robert E. Rooney, NH
SPC David L. Roustum, NY
SGT Roger D. Rowe, TN
CW3 Brady J. Rudolf, OK
SGT David A. Ruhren, VA
CW4 William Ruth, MD
SPC Lyle W. Rymer II, AR
SPC Corey J. Rystad, MN
SFC Rudy A. Salcido, CA
SGT Paul A. Saylor, GA
SSG Daniel R. Scheile, CA
SPC Ronald A. Schmidt, KS
SFC Richard L. Schild, SD
SGT Jacob S. Schmuecker, NE
SPC Jeremiah W. Schmunk, WA
PFC Benjamin C. Schuster, NY
SGT Andrew Seabrooks, NY
SPC Dennis L. Sellen, CA
SGT Bernard L. Sembly, LA
SPC Daniel L. Sesker, IA
SGT Jeffrey R. Shaver, WA
SGT Kevin Sheehan, VT
SGT Ronnie L. Shelley Sr., GA
SGT James A. Sherrill, KY
1LT Andrew C. Shields, SC
SPC Bradley N. Shilling, MI
PFC Ashley Sietsema, IL
SGT Alfred B. Siler, TN
SGT Alfredo B. Silva, CA
SGT Isiah J. Sinclair, LA
SPC Roshan (Sean) R. Singh, NY
SPC Channing G. Singletary, GA
SPC Aaron J. Sissel, IA
SSG Bradley J. Skelton, MO
1LT Brian D. Slavenas, IL
SGT Eric W. Slebodnik, PA
SPC Erich S. Smallwood, AR
SGT Keith Smette, ND
CW4 Bruce A. Smith, IA
CPL Darrell L. Smith, IN
SGT Michael A. Smith, AR
SPC Norman K. Snyder, IN
SGT Mike T. Sonoda Jr., CA
Lt Col Kevin H. Sonnenberg, OH
SGT Matthew R. Soper, MI
SGT Kampha B. Sourivong, IA
SFC Theodore A. Spatol, WY
SFC William C. Spillers, MS
SPC David S. Stelmat, NH
SGT Patrick D. Stewart, NV
SGT Jonnie L. Stiles, CO
SGT Michael J. Stokely, GA
Maj Gregory Stone, ID
MSG John T. Stone, VT
SPC Brandon L. Stout, MI
SPC Chrystal G. Stout, SC
2LT Matthew R. Stoval, MS
SGT Francis J. Straub Jr., PA
SGT Matthew F. Straughter, MO
SGT Thomas J. Strickland, GA
WO1 Adrian B. Stump, OR
SSG Daniel A. Suplee, FL
SSG Michael Sutter, IL
SGT Robert W. Sweeney III, LA
SGT Deforest L. Talbert, WV
SFC Linda A. Tarango-Griess, NE
SPC Christopher M. Taylor, AL
SPC Deon L. Taylor, NY
CPT Michael V. Taylor, AR
SGT Shannon D. Taylor, TN
SGT Joshua A. Terando, IL
MSG Thomas R. Thigpen Sr., GA
SGT John F. Thomas, GA
MSG Sean M. Thomas, PA
SGT Paul W. Thomason III, TN
CPL Michael E. Thompson, OK
1LT Jason G. Timmerman, MN
SGT Humberto F. Timoteo, NJ
SPC Eric L. Toth, KY
SSG Robin L. Towns Sr., MD
SPC Seth R. Trahan, LA
SPC Quoc Binh Tran, CA
SSG Philip L. Travis, GA
CW4 Chester W. Troxel, AK
SGT Robert W. Tucker, TN
SGT Gregory L. Tull, IA
SPC Nicholas D. Turcotte, MN
1LT Andre D. Tyson, CA
SPC Daniel P. Unger, CA
PFC Wilfredo F. Urbina, NY
SGT Michael A. Uvanni, NY
1LT Robert Vallejo II, TX
SGT Gene Vance Jr., WV
SGT Travis A. Vanzoest, ND
SGT Daniel R. Varnado, MS
SSG Jason A. Vazquez, IL
1LT Michael W. Vega, CA
SSG David M. Veverka, PA
SPC Anthony M. K. Vinnedge, OH
SPC Chad J. Vollmer, MI
PFC Kenneth Gri Vonronn, NY
SPC Jason E. von Zerneck, NY
SSG Michael S. Voss, NC
PFC Brandon J. Wadman, FL
SSG Gregory A. Wagner, SD
SGT Andrew P. Wallace, WI
SGT Daniel W. Wallace, KY
SFC Charles H. Warren, GA
1SG William T. Warren, AR
SFC Mark C. Warren, OR
SPC Glenn J. Watkins, CA
MSG Davy N. Weaver, GA
SGT Matthew A. Webber, MI
SFC Kyle B. Wehrly, IL
SSG David J. Weisenburg, OR
SPC Michael J. Wendling, WI
SPC Cody Lee L. Wentz, ND
SPC Jeffrey M. Wershow, FL
SGT Marshall A. Westbrook, NM
SPC Lee A. Wiegand, PA
LTC James L. Wiley, OR
1LT Charles L. Wilkins III, OH
SGT David B. Williams, NC
SPC Michael L. Williams, NY
SFC Christopher R. Willoughby, AL
SSG Clinton L. Wisdom, KS
SPC Robert A. Wise, FL
SPC Michelle M. Witmer, WI
SSG Delmar White, KY
SGT Elijah Tai Wah Wong, AZ
SPC John E. Wood, KS
SFC Ronald T. Wood, UT
SGT Roy A. Wood, FL
SSG James Wosika, MN
SPC Brian A. Wright, IL
SGT Thomas G. Wright, MI
SGT Joshua V. Youmans, MI
SPC Christopher D. Young, CA

    \1\ American Samoa.

    Chairman Inouye. General Wyatt.
STATEMENT OF LIEUTENANT GENERAL HARRY M. WYATT, III, 
            DIRECTOR, AIR NATIONAL GUARD
    General Wyatt. Thank you, Mr. Chairman, Mr. Vice Chairman, 
Senator Leahy. Thank you for the opportunity to appear before 
the subcommittee today and allowing me to testify on behalf of 
the men and women of the Air National Guard (ANG), authorized 
end strength of 106,756 gallant airmen nationwide, and for the 
first time since 2002, our end strength is approaching 108,500.
    As we meet today, your Air National Guard is protecting the 
skies of the United States of America at 16 of the 18 air 
sovereignty alert sites covering the United States of America.
    We are forward-deployed in over 3,300 locations in our 
States. Our airmen are responding to disasters like hurricanes, 
tornadoes, and fires, and currently today we have airmen 
deployed in South Dakota and Minnesota fighting the floods in 
that region and snowstorms in Montana.
    Our airmen continue to volunteer at unprecedented rates to 
support overseas contingency operations, and we cannot forget 
the backbone of our force, the traditional Guard members who 
provide the efficiencies and the search capacity that make the 
Air National Guard a valued member of the Nation's defense.
    The Air National Guard has three primary themes, three 
primary concerns, as we appear before you today. The first is 
modernizing and recapitalizing the aging fleet of aircraft, to 
bridge the gap in mid-term Air Force capability. Second, we 
intend to leverage the inherent ANG efficiencies that I 
mentioned before and take on additional Air Force missions as 
appropriate. And we seek to maximize the use of associations of 
several different kinds, using the association construct and 
community basing to better support the air force mission.
    I stand ready to answer your questions, sir. Thank you.
    Chairman Inouye. Thank you very much, General.
    If I may, I would like to call upon General Vaughn first. 
The Army Guard is currently at 366,500 end strength. This is 
13,900 more than authorized and exceeds the entire end strength 
growth planned for the Guard. Can you tell us why the Guard has 
exceeded the authorized strength so significantly? And how do 
you plan to pay for the additional guardsmen?
    General Vaughn. Thank you, Mr. Chairman.
    Number one, a couple of years ago, we were tremendously 
under strength, and there were a lot of doubting Thomases that 
we could make end strength; however, we did that, we put 
together a great program. The States worked it hard; I take 
tremendous pride in our forces throughout the Nation.
    The authorization for us and the money for the Army 
National Guard in the supplemental is at 358,200. In fact, we 
are, actually--you know this thing continues to climb in spite 
of putting the levers in place to stop it. And we are 10,000 
over the authorized number.
    Next year, to grow the Army piece, we were supposed to be 
at 358,200. The statutory appropriations, as you outline, is 
exactly on the mark, 352,600. So, long story short, we have to 
reduce by 10,000 soldiers between now and the end of the year 
to get to the authorized level. We will do that.
    The way we will do that is that we will change our system. 
We had an albatross of a system. We had a dinosaur of a system. 
We take youngsters in that want to be in our formations and 
swear them in on the first day, and then they sit in our 
formations for a long time before they ship off to basic 
training. So in order to overcome that and to keep from cross-
leveling like we had to do, we over-drove our end strength with 
a goal toward correcting that deficiency and pulling it down by 
the end of the fiscal year, while at the same time growing 
readiness. We have a plan in place. I have briefed it to 
General McKinley, and there are three phases to this plan. We 
have been discussing that with the staff members, and we have 
discussed it with the Army, and the Army is confident in what 
we are going to do. But our eyes are on readiness, and I want 
to assure you that we will be at a level where we have been 
authorized to be at the end of the year.
    Chairman Inouye. I can assure you that the subcommittee and 
I support you on this, but just for the record, we wanted your 
explanation, sir.
    If I may ask General Wyatt. The Air Guard has announced 
plans to grow by 7,000 in fiscal year 2010. Active duty Air 
Force and Reserve announced similar plans last year to grow 
their end strength levels. They argued that these increases 
were necessary to restore cuts. The Guard was not part of the 
reductions. So why are these additional personnel required?
    General Wyatt. Mr. Chairman, you are correct in that the 
Air National Guard did not take personnel cuts when we were 
asked to respond to a PBD previously. We took those cuts in 
flying hours, took a little risk in their flying hour program.
    To answer your question, sir, if we take a look at the 
missions right now that the Air Force has asked the Air 
National Guard to perform--current authorized end strength of 
106,756--if we look at the validated manpower requirements for 
those missions which we currently have accepted from the Air 
Force, we would need 2,228 additional military positions to 
fully man the missions that the Air Force has assigned the Air 
National Guard.
    We also have a need to populate our joint force 
headquarters which is really the tool that the Adjutants 
General use to execute the missions for the Governors, but also 
to assist in our mobilization and deployments for the Federal 
warfight and to administer a lot of the airmen care programs 
that you mentioned in your opening comments.
    We also understand that the appetite for Air Force 
capability exceeds the authorizations at this point for 
manpower. We are poised with our current upward vector in 
recruiting. We are poised to answer the call should the Air 
Force need our assistance in manning some of these additional 
responsibilities if, again, our senior leaders determine that 
the Air National Guard should play a part in that. So we stand 
ready to answer that call, and those are the reasons why we 
would be looking at a possible increase in manpower if the Air 
Force would so request.
    Chairman Inouye. General, I thank you for your leadership. 
I think you are on the right track.
    General Vaughn, if I recall, in fiscal year 2006, you were 
just about 40 percent of your equipment needs, and now you are 
over 75 percent. How has this affected readiness?
    General Vaughn. Well, Mr. Chairman, it affects readiness in 
a significant way, and the actions, again, that this 
subcommittee has taken has enabled us to have the kind of 
world-class capability that we have today. The Army is making 
good on the promises. I have to tell you that with the pressure 
that has been on this particular issue--and the amount of money 
in it is a substantial amount of money, and our view of this is 
that we are getting better every day at equipping.
    The thing about the Guard, and like the other Reserve 
components back here, it is all about people. And we are moving 
so fast to having a great personnel readiness force that it 
deserves to have its equipment. It is not a hollow force 
anymore. At one time, that was true, but this 75 and 76 percent 
across the board right now--you know, there is a lot of 
turbulence and there is equipment that has been left behind, so 
forth and so on. We are not crying over that. The fact of it is 
that we are now seeing equipment delivered. After we got into 
this thing in 2006, we are now seeing in 2008--and we will see 
more of it in 2009. We are seeing it delivered into our force, 
and what it does for readiness, in a short answer, is 
substantial.

                              AGING FLEET

    Chairman Inouye. Thank you very much. I believe you made a 
statement saying that about 85 percent of your F-16s will reach 
the end of their lives in about 8 years. What are you doing to 
meet this shortfall?
    General Wyatt. Thank you very much, Chairman Inouye, for 
your question.
    That is one of the primary concerns that I have, the 
recapitalization of the Air National Guard. It is not just a 
problem that the Air National Guard faces. It is an issue that 
the entire Air Force faces, active duty, Guard, and Reserve.
    A large percentage of the Air Force F-16 fleet resides 
within the Air National Guard, and because of that fact and 
because of the aging aircraft, the Air National Guard is the 
component that faces the most risk for any delays in 
recapitalization of the United States Air Force. If you take a 
look at the air sovereignty alert (ASA) locations that I 
mentioned in my opening statement, those 16 ASA sites, that the 
Air National Guard mans, 11 of those are manned by F-16 units; 
the rest, F-15 units in the Air National Guard. Because of the 
service life of our jets, we face the very real projection of 
losing 80 percent of those aircraft, beginning in 2010, over 
the next 8 years. That would take the number of F-16 wings, 
squadron equivalents, if you would, in the Air National Guard 
from about 19 down to about 4.
    It is a very serious problem that we have. We are working 
with the United States Air Force, as they address their 
recapitalization issues, and we have received great support 
from Air Combat Command. But those are some decisions, as far 
as the degree of recapitalization, what type of platforms we 
are talking about, and how many, that obviously will be 
answered by our Nation's leaders.
    The Air National Guard stands ready to work with the United 
States Air Force. I have likened our position to flying close 
formation with the Air Force, but doing so cautiously because 
we know there are fiscal pressures to recapitalization entirely 
in fifth generation fighters, and we are preserving our 
options, depending upon the decisions that are made by our 
national leaders, but also by the United States Air Force as 
they address the issue of recapitalizing, not only their own 
fleet but our fleet.
    Talking about F-22s, we, the Air National Guard, need to be 
a part of that, if there are additional acquisitions of F-22s. 
Our position is that the number one mission and the one that 
the Air National Guard is most involved in is the air 
sovereignty alert, and we feel that the best airplane in the 
world needs to be defending the best country in the world.

                                 F-35S

    The question is when and how many. Regardless of the 
number, we need to be with our United States Air Force and Air 
Force Reserve brothers and sisters in a proportional and 
concurrent fielding of that platform. But it also goes to any 
other platforms that may be acquired, depending upon the fiscal 
situation. We need to be concurrently and proportionately 
fielded with the United States Air Force.
    Chairman Inouye. General, we are all sensitive to what is 
happening in our economy, but I believe I speak for the 
subcommittee when I say we will do our very best to make 
certain that replacements for your fighter units would be 
available--the funding.
    General Wyatt. Thank you, Mr. Chairman.
    Chairman Inouye. Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you very much.
    General Vaughn, over the past few years, new programs have 
been implemented to assess the health condition of soldiers 
after they have been deployed overseas, and particular 
attention is being placed, I think, in a review of the Guard 
forces. With a large number of guardsmen and men and women who 
have been deployed or alerted for deployment--many of them are 
in my State, as you know--I am concerned about this ability to 
provide a continuum of medical care and attention for those who 
need to have their medical situation addressed.
    Could you give us a reaction of whether or not there has 
been similar reactions to the stresses of deployments in the 
Guard and Reserve forces as there have been with regular active 
duty forces? And how is the Bureau working with the Department 
of Defense to deal with this challenge?

                             MENTAL HEALTH

    General Vaughn. Mr. Vice Chairman, there have been similar 
things happen to our soldiers. Whether they are active duty 
soldiers or Guard soldiers that come back that transition back 
into the civilian world, there have been several things that 
have happened.
    The chairman mentioned, for instance, suicides. Our suicide 
rate is up in alarming fashion. I mean, if we look at what it 
has been over the last couple years--now, this is on active 
duty and this is off active duty. The great majority of them 
are off active duty when they come back. Now, at the same time, 
a substantial number--the greatest number, have never deployed.
    So you are looking at friction across the whole system in 
the United States of America, our suicides are about 140 to 150 
percent right now in the Army Guard. We are attacking this 
along with the United States Army. General Chiarelli has been 
over and testified. We are embedded in that. You know, the 
Yellow Ribbon, an integration piece that the chairman talked 
about on the front end--we are engaged in that.
    We think we have helped lead the way in something called a 
``blast tracker'' for those soldiers that were involved in 
events down range, explosive events, and they were not hurt 
substantially enough, and nowhere does it appear on the record. 
We are involved in that.
    The sidebar question, are we getting better medically? I 
think we are. I think a number of the problems that are out 
there, last year in 2008, 92 percent of our soldiers went to 
the MOB station in good shape. That is a record. We are better 
than that. There is a program and I think we need to take our 
nondeployables and fix them before they go. I mean, if you had 
a car, you would put the right repair part on and fix them, and 
when do you fix them? Do you fix them a year out? That is 
probably a pretty good tack to take on that.
    But I think overall, what you championed is exactly right. 
We do not need to have two or three levels of citizens. These 
are wonderful citizens that we have defending us and doing the 
things we ask of them. So anything we can do, in terms of 
healthcare and getting this right for this country, we have got 
to do.
    Now, I rambled around on several things, and I think that 
you were getting at two or three of those things when you asked 
that question. So thanks for that question.
    Senator Cochran. General Wyatt, what is your reaction to 
that question?
    General Wyatt. We share the same concerns that General 
Vaughn does. If we look at our statistics, we pretty much 
mirror the United States Air Force in our experience rate as 
far as suicides. Our difficulty is, until recently, we have had 
difficulty tracking the off-duty suicides because we have no 
legal authority to compel investigators to get into the cause 
of a particular death. You cannot tell in an automobile 
accident, for example, if it is accidental or intentional. So 
we have those problems that we are working through. But because 
of the close relationships that the Air National Guard has with 
the local communities, we feel pretty confident that our data 
is correct.
    We have similar programs that the Army National Guard has. 
We are taking steps, through General McKinley's leadership at 
the National Guard Bureau, to integrate our activities with the 
Army National Guard so that our combatant commanders in the 
States, our Adjutants General, when they administer these 
programs to a guardsman, whether it be Army or Air, that they 
efficiently maximize the use of the resources available to 
them.
    And I think what we have got to remember is that the 
Adjutants General on their own--having been one, I have been 
there, and I know that the Adjutants General go to great 
lengths in working with their State resources provided by their 
Governors to help facilitate some of the Federal programs. And 
a lot of the work that is being done at the joint force 
headquarters--I mentioned the need earlier for Air National 
Guard infusion in manpower into our joint force headquarters. 
That would help us facilitate a couple of things, not only 
working with the Army National Guard to make our programs more 
joint and more efficient, but also merging the capabilities 
that the Adjutants General bring in through State health 
departments, mental health programs that may be available in 
the States. And there are some great private programs out there 
too that the Adjutants General know about.

                          JOINT CARGO AIRCRAFT

    The key is that one size does not fit all, as the chairman 
indicated, on some of our programs. We need to allow 
flexibility to the Adjutants General because the needs vary 
from State to State, the programs vary in their availability 
from State to State.
    Senator Cochran. General Wyatt, our subcommittee has 
provided funding for purchasing the Air Force joint cargo 
aircraft, and I wonder if you could tell us what your reaction 
is to the need in the Air National Guard for this aircraft and 
whether or not we have funding that is available for you to 
begin meeting that new requirement.
    General Wyatt. Senator Cochran, thank you for the question.
    That airplane is critical to the Air National Guard not 
just because it addresses some of the States that lost flying 
missions because of BRAC, but because of the capability that it 
provides the United States Air Force and the Joint Warfighter.
    To answer your question about is there a funding stream 
sufficient to acquire the airplane, based upon the data from 
last year, I do not believe so. That is one of the acquisitions 
that I will be talking to the United States Air Force about.
    The need for the airplane, I believe, is there. The way 
that the airplane is operated differs a little bit between the 
Air Force and the United States Army, but I think if you talk 
to the leadership in the United States Air Force, they will 
tell you that they recognize the need of making that aircraft 
available to the land component commander to face the issues 
that the land component commander has. And we stand ready, 
should the President and Congress see fit to fund acquisitions, 
to field those in the Air National Guard and would relish the 
opportunity to do that, sir.
    Senator Cochran. Thank you.
    Thank you, Mr. Chairman.
    Chairman Inouye. Senator Leahy.
    Senator Leahy. Well, thank you, Mr. Chairman. I am glad you 
and Senator Cochran are having this hearing. Senator Bond, of 
course, and I co-chair the National Guard Caucus, and I think 
that is the reason for everybody up here.
    And I am trying to wear two hats at the same time. We also 
have a hearing in the Judiciary Committee with Director Mueller 
of the Federal Bureau of Investigation, and I will be going 
back there.
    General Wyatt, I am glad to see you here at your first 
meeting before this panel, and I appreciate the time you spent 
with me yesterday afternoon in going over some of the issues of 
the Air National Guard.
    General Vaughn, this may be your last appearance before 
this subcommittee, and I want to take the opportunity to 
publicly applaud you for the superb job you have done. I think 
the Army Guard is going to be better equipped, better trained, 
and in a better position because of your service. And I think 
that is service that has been also complemented by the brave 
men and women in the Guard. So, General Vaughn, I compliment 
you, sir.
    General Vaughn, also Senator Bond and I have written to the 
Secretary of Defense and the Chairman of the Joint Chiefs a 
number of times about the issue of transparency in budgeting 
for equipment for the Reserve components. We approve here in 
Congress budget requests based on justification documents that 
say a certain amount of gear will go to the Guard and Reserves, 
but then when it starts going, we do not find where that 
reference is as the actual distribution goes about. And no one 
can actually certify the equipment slated for the Guard and 
Reserve actually made it to the Guard and Reserve.
    How do we fix this? I mean, there ought to be some 
transparent way that we can say, okay, we wanted x amount of 
equipment to go there. It either did or it did not, and if it 
did not, well, then what was the reason? It may have been a 
national emergency. It may have been an international 
emergency. But at least have some reason other than as it is 
now. Senator Bond and I--we talk to the Guard Caucus. We have 
to kind of guess at what happened.
    General Vaughn. Senator Leahy, thanks for your leadership 
and Senator Bond's on this particular issue. A lot of people 
have had their shoulder over the wheel, you know, on this one 
for a long time and I think is making a lot of difference. I 
have a lot of friends inside of the Army, and we are able to 
argue about things and still come back and be comrades in arms. 
And I will tell you that I think that the Army is finally 
making great strides on this, and I have confidence that they 
are trying to deliver the equipment.
    As I stated very early on, we made some assumptions. First 
of all, we went out and tried to get a dollar value of 
everything that we had received lately. And then we made a 
guess as to which appropriations it probably came out of. And 
then we took--together with the G-8 of the Army, we took a 
range of 18 to 24 months and said it is likely that it would 
take this long for this equipment to appear. Now, if the 
assumptions, as you well know, are somewhere near right, it 
appears like we probably got about what we were supposed to 
get.
    The problem is it is not auditable, and Steve Speakes--I am 
sure he will testify later. There will have to be an auditable 
system in place rather than something that takes a battalion of 
folks to come up with some kind of an answer 2 or 3 years 
later.
    Senator Leahy. So should we do something different in the 
appropriation process itself to make it easier?
    General Vaughn. Sir, the appropriations process itself--if 
we knew how complex it would be to have separate appropriations 
for equipment for the Guard and Reserve, I could probably give 
you a pretty good answer. The first thing that has got to be 
sorted out, if you had a separate appropriations that went 
directly toward the Guard or Reserve for this, what else goes 
with it? There may be so much burden in that.
    The first thing I would say is that the Army is on the 
right track now. They finally got this thing teed up, got 
everybody's attention, and they are getting at it. It has to be 
a ``push-of-a-button'' of some kind to give you and us the 
auditable results of what happened with the appropriations and 
the equipment.
    Senator Leahy. I may have my staff work with your staff to 
follow up on that. And I appreciate what you are saying about 
the equipment. I mean, that is our ultimate goal because we 
want to make sure that happens.
    General Wyatt, you and I talked about--just if I can brag 
for just a moment, not that any parochialism ever appears in 
this subcommittee on our different things. But the 158th 
Fighter Wing from Vermont Air National Guard has carried out 
some tremendous air defense missions. I mentioned that right 
after 9/11, they did the air cover over New York City.

                         AIR SOVEREIGNTY ALERT

    But Senator Bond and I recently released a Government 
Accountability Office (GAO) report we commissioned on the 
management of the air defense mission. It says, more than 7 
years after 9/11, the Air Force has yet to budget for the air 
defense mission even though we see some significant areas where 
we need that in the foreseeable future. It mentions what has 
already been mentioned here, about concerns over the Air 
Guard's ability to carry out the mission because of aging 
aircraft. Some of them are flying some of the oldest aircraft 
in the Air Force, particularly the F-16s. They are going to be 
retired before we even see the follow-on.
    What can you suggest to us in that area?
    General Wyatt. Thank you for the question. And if I may 
take a little liberty here to explain where I believe the Air 
National Guard is in response to your question.
    Modernization of the fleet is one thing. Recapitalization 
of the fleet is another. For years, we have embarked upon 
modernization, and thanks to the great support of this 
subcommittee, through the National Guard Reserve Equipment 
Account (NGREA) and some congressional adds, the Air National 
Guard has been able to modernize its fleet, not to the level 
that we need, but when the combatant commanders request a 
certain capability, they expect the Air National Guard to 
answer with that capability.
    We have a process through our Weapons and Tactics Center 
that we run with the Air Force Reserve that identifies fleet-
wide, not just the fighter force, but the lift force, 
intelligence, surveillance, and reconnaissance (ISR) force, all 
the platforms inside the Air National Guard, Air Force Reserve, 
and the Air Force that could use some modernization. And we put 
together a bottom-up driven process that identifies the 
capabilities that we need to modernize, and this subcommittee 
has been very supportive with NGREA accounts that help us 
modernize the force.
    As the GAO report indicates and some of the recent articles 
that I have seen in the Air Force Times indicate and our own 
data indicates that we are at that point in time where we have 
got to start looking toward recapitalization.
    Think of this in contextual themes, if you would, one of 
those being the GAO report that you just mentioned that 
recognizes the resourcing issues that the Air Force has and its 
reluctance to fully fund and fully support the air sovereignty 
alert mission. It is still not into the fight if it is not in 
the budget line. It is handled on a 2-year-by-2-year basis. 
That is one problem.
    The other problem is recapitalization not just of the air 
sovereignty alert (ASA) fleet. We have got to remember that the 
air sovereignty alert fleet, when it is not flying air 
sovereignty alert, is participating in air and space 
expeditionary forces rotations. So it is not a specialized 
fleet. They have a specialized capability, but they can use 
that in AEF rotations and they do. Thirty-six percent of the 
combat sorties flown in Iraq and Afghanistan last year were 
flown by the Air National Guard.
    Senator Leahy. With aging equipment.
    General Wyatt. With aging equipment, yes, sir.
    Think about the comments that General Renuart, the NORTHCOM 
commander, issued just a few days ago. Our ASA posture is a 
non-negotiable in the upcoming quadrennial defense review 
(QDR). I see short- to medium-term risk in our ASA force 
structure due to the legacy age-out issue. That is what you are 
talking about.
    Secretary Donley a couple of weeks ago made the comment: I 
look forward to TFI, total force integration, part 2. He 
recognizes the need to leverage the inherent strengths of the 
three components of the Air Force to efficiently provide the 
capability that we need in the future.
    General Schwartz has said with declining resources and 
increasing demands, we must remember that innovation is still 
free.
    Part of the problem is recapitalizing, but part of the 
problem is also thinking about a force structure and a way for 
the three components to work together that maximizes those 
precious resources that the taxpayer pays for.
    Senator Leahy. General, I think we are going to probably, 
in the coming year, have a lot of conversations on this.
    Thank you, Mr. Chairman.
    I am also going to put into the record a couple of other 
questions. One, General Vaughn refers to our Mountain Division. 
Colonel Roy in Vermont has handled that very well, but with the 
upcoming deployment to Afghanistan--this is more of a personal 
nature--I wish you would take a look at that question. Thank 
you.
    Mr. Chairman, I am going back to the Director.
    Chairman Inouye. Senator Durbin.
    Senator Durbin. Thank you, Mr. Chairman.
    I would like to thank the witnesses.
    Eight years ago, I took up an issue. It was an issue 
related to Guard and Reserve activation and the fact that many 
private employers across the United States make good on the 
income and salary of these Guard and Reserve activated soldiers 
and airmen and others. It turned out that the largest employer 
of the Guard and Reserve activated did not. The largest 
employer, of course, is the Federal Government. If a member of 
the Federal workforce was a member of the Guard and Reserve and 
activated, there was no guarantee or protection that their 
salary would not diminish, and in some instances, it did.
    We have talked a lot about the stress of deployment. In 
these times, we can understand the economic stress.
    Well, I offered this for 8 years and lost it every time. I 
would pass it in the Senate, big votes, and it would disappear 
in conference committee. Or there would be some opposition here 
and there.
    Well, lo and behold, I guess perseverance pays off, and in 
the omnibus bill, it finally passed. So now the Federal 
Government is going to make good on the salaries of activated 
Federal employees in the Guard and Reserve.
    I would like to know if you are aware of this and if you 
are involved in helping it work.
    General Vaughn. I am aware, and it was a great action, 
Senator Durbin. You know, the great capability of the Guard and 
Reserve is really warehoused on the back of the employers of 
the Nation, and when they start to let our soldiers and airmen 
and sailors and marines down, then we have really got a 
problem. At the back we think almost all of the really tragic 
circumstances surrounding suicides and so forth and so on--you 
know, failed relationships, and the key driver, it appears, 
happens to be the ability to take care of their families 
through a lost job or an opportunity.
    And so at every turn--and in fact, in the next panel, the 
champion of something across the Nation for the Reserve is Jack 
Stultz. His program we believe in totally, and we are working 
that program, but it is going to take everyone to have the 
employers--to pat them on the back and guide them in the right 
way and keep this great capability warehoused.
    So thank you very much. I am very, very much aware of that.
    Senator Durbin. Good.
    General Wyatt. Senator, likewise. I had the privilege about 
1 week ago to appear before General Schwartz who was involved 
with the Air Force/Navy warfighter talks, to appear on his 
behalf in Fairbanks, Alaska, for the Chamber of Commerce 
military appreciation night, attended by approximately 500 
Fairbanksans. I learned a new term while I was there. One of 
the comments that I made referenced the Omnibus Appropriations 
Act of 2009 that you sponsored, and the relief that that 
provided our civilian workers.
    The reaction of the crowd was one that you would be proud 
of. Several employers came up afterward and said it is nice to 
know that some of the things that we as private employers have 
been doing have now been validated by the United States 
Government and they have seen fit to follow our lead. So they 
felt like they were out there.
    They obviously did not know how hard you had worked to get 
that passed, but it is a huge thing that you did for the Guard.
    Senator Durbin. I kept telling my colleagues for 8 years it 
was a good idea, finally we do have it. Can I ask you about the 
Individual Ready Reserve (IRR) program? Last week, the 
Department of Defense announced that it was going to end the 
practice of stop loss, and since 2001, 120,000 servicemembers 
have been held past their service obligations in that program. 
Even today, 13,000 servicemembers who have done their duty, 
completed their enlistment, are prevented from moving on with 
their lives. Secretary Gates says the stop loss practice 
``breaks faith,'' with our troops. The Army still uses IRR 
soldiers, Individual Ready Reserve, to fill National Guard 
units that are not at full strength. IRR soldiers have 
fulfilled their enlistment requirements but have time remaining 
on their military service obligations. They are not paid and do 
not train while in the IRR and have moved on with their 
civilian lives without expectation that they are going be 
recalled to active duty except in the most dire situations like 
world war III, God forbid. We have had briefings from the Army 
and believe that the IRR system really needs a close look at 
this point.
    Do you believe the end of the stop loss program, General 
Vaughn, will affect the rate of call-ups from the Individual 
Ready Reserve?
    General Vaughn. Senator Durbin, I do not. I think the end 
of stop loss is a great thing. I do not want to get out too far 
in front of releasing how we are going to execute this program. 
As you know, my buddy Jack Stultz in the Army Reserve is 
supposed to move into that August 1. We move in on September 1. 
We gladly said we are going to move into it September 1. Stop 
loss for the Guard--and I will let Jack talk to the Army 
Reserve piece, obviously, but around 72 percent of our soldiers 
reenlist down range; whereas, on the active side, it is a much 
different figure.
    There will be a bonus that goes with this to stabilize our 
formations, which is what we need. The very best thing to 
stabilize your formations is stop loss for personnel, for 
families and whatnot, maybe that is a very tough thing. 
Unfortunately, we had to cross-level a lot when we first 
started. We have made enormous changes. We do not have to 
cross-level as much now as we did. We think the use of the IRR 
in a sense in our formations is not a good thing. It is not a 
good thing. And so in order to keep from doing that, that is 
why we went to battle on lowering our force structure, taking 
our end strength way up over. The chairman asked me a question 
earlier about the end strength piece. That is why we did it, is 
to keep the stop loss thing from happening.
    So I hope that gets at those two elements of your questions 
sufficiently. Thank you.
    Senator Durbin. So do you anticipate using IRR? I mean, we 
are having to draw down the force in Iraq. And I am trying to 
get to the bottom line here as to whether or not you think that 
we are going to make up the difference by discontinuing stop 
loss and drawing down in Iraq by going to the Individual Ready 
Reserve more.
    General Vaughn. I think what is going to happen with us--
and the economy has probably got something to do with this. One 
year out, we're going to look at all those soldiers whose time 
of service is coming up, and we are going to give them a high 
unit retention bonus if they stay with us. And so we will know 
at 6 months whether or not they are going to stay with us. And 
we think the cross-leveling piece from within our Guard units, 
because this bonus opportunity and the chance to get them in 
the retention window, and our improved strength posture is 
going to keep us from having to go as deep in the IRR. There 
are, as you know, functional areas in the IRR that we are all 
having trouble with, military intelligence being one of those. 
And so there is always going to some number--I'm telling you 
from the Director of the Army Guard, I would like to minimize 
that to nothing.
    Senator Durbin. Thank you. Thank you both for your service 
and for being here today.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    Senator Bond.
    Senator Bond. Thank you very much, Mr. Chairman, and 
Senator Cochran.
    I would like to begin by welcoming back General Vaughn and 
welcoming for the first time General Wyatt. It is good to see 
an Adjutant General assume this very important position, and I 
look forward to working with you on addressing the issues which 
you have already mentioned.
    But first, I have to join with my colleague, Senator Leahy, 
in noting that this is likely General Vaughn's last appearance 
before the subcommittee. And I would be remiss if I did not 
recognize and thank General Vaughn for the exceptional 
leadership and strategic vision he has provided as the Director 
of the Army National Guard. He has put the Army Guard in a 
position of strength and relevance not seen at any time since 
World War II. From his very successful recruitment program, the 
G-RAP, to the visionary agricultural development teams that he 
and I worked on, to filling the critical equipment shortfalls 
that we had after Katrina, General Vaughn's leadership has been 
second to none. We are grateful, General, for your service and 
in your debt.
    And I look forward to working with Senator Leahy and the 
subcommittee to address the equipment shortfalls and ensuring 
transparency, as you mentioned. We must do the latter to ensure 
the equipment this subcommittee provides, especially for dual-
mission homeland defense, is in fact directed to the Guard for 
that very purpose.
    But now, speaking about equipment, regarding the Air 
National Guard, as General Wyatt has already discussed, I think 
we can all agree that tactical fighters are a paramount piece 
of equipment for the Air Guard to fulfill its mission. From 
defending the territorial air sovereignty of the United States 
in Operation Noble Eagle to taking out terrorists in Iraq like 
Abu Musab Al Zarqawi that the Guard got, the Air National Guard 
provides a paramount mission for our country and at a fraction 
of the cost to the taxpayer.
    But, unfortunately, as I have stated in this subcommittee 
for several years, the senior Air Force leaders continue to 
pursue plan A, a fifth-generation-only fighter strategy, a 
strategy in my view that not only ignores the current budget 
constraints but will disproportionately eviscerate the Air 
Guard force structure if left unchanged. This would, in turn, 
atrophy the Nation's aerospace industrial base, diminish the 
Air Guard's ability to perform missions abroad, and put the air 
sovereignty alert mission at significant risk.
    Senator Leahy and General Wyatt both cited the GAO study on 
the air sovereignty alert. They concluded, ``Given the 
importance of the capability to deter, detect, and destroy 
airborne threats to the United States, it is important that the 
Air Force address current and future requirements of the ASA 
mission to ensure its long-term sustainability. Further, the 
Air Force should ensure that it has fighter aircraft available 
to conduct ASA operations since the F-15s and the F-16s used 
for these operations are beginning to reach the end of their 
useful lives.''
    Now, we all know that the bottom line is that the Air Force 
has stated the defense of the homeland is their most important 
mission, but it has not done much to demonstrate that it 
realizes it is an important mission. As the GAO report stated, 
the ASA mission must be established as a steady state mission 
and then put the necessary resources toward fulfilling the 
mission.
    While I believe, as General McKinley does--and I discussed 
it with him yesterday--that regardless of what happens with the 
Joint Strike Fighter (JSF), the Air Guard needs an interim 
bridge to ensure that the Air Guard does not become a hollow 
force.
    The Air Guard cannot rely on the F-35 program to provide a 
sufficient, if any, number of aircraft to address its 
shortfalls in a timely manner. Last week, the GAO released 
another report providing an assessment of the F-35 JSF program. 
Highlights of the program: Program costs have increased by $23 
billion since last year alone. Operating costs, which were 
projected at $346 billion a few years ago, are now estimated at 
$650 billion. GAO's auditors expect development and procurement 
costs to increase substantially and schedule pressures to 
worsen based on performance to date.
    The report says, ``The contractor has extended 
manufacturing schedules several times, but test aircraft 
delivery dates continue to slip. The flight test program has 
barely begun, but faces substantial risks as design and 
manufacturing problems continue to cause delays. If we continue 
to ignore them and rely on the continued Air Force strategy, 
the Air Guard will be eviscerated.'' As a high-ranking official 
told me yesterday, you could buy three F/A-18s for the current 
price, which can only go up, of one F-35.
    Now, General Wyatt, what is your assessment of the future 
of the Air Guard facing these equipment shortfalls?
    General Wyatt. Senator, thank you for the question. I share 
your concerns. I think in answering some of the questions of 
previous members of the subcommittee, we have laid out the 
perilous position that the Air National Guard fighter fleet is 
in.
    We have a plan. I do not call it necessarily a plan B. I 
call it the Air National Guard plan. It is a strategic plan 
that is based upon a matrix of decisions, some of which will be 
made at levels much higher than me, when we talk about the 
national security strategy, defense strategy, military 
strategy, the Air Force's role, QDR decisions that come down, 
budget decisions that we will hope to learn of in the future.
    As you pointed out, the Air Force is on a recapitalization 
vector that relies entirely on fifth-generation fighters. We 
have worked very well with the Air Combat Command (ACC) in 
bringing to their attention that the force most at risk for 
recapitalization is the Air National Guard fleet and 
specifically the ASA fleet that protects the United States of 
America. We think that is job one, and we think that is where 
most of the recapitalization attention should be applied.
    We are making progress in promoting our position to ACC, 
and they have written us in earlier into the fielding plans of 
the F-35. The F-22--obviously, we would need to get into that.
    But I likened this earlier to flying in close formation 
with the United States Air Force, but there are going to be 
some decisions that they will not be able to make. We are 
preserving our options to include a fourth-generation buy. I 
have not ruled that out. Obviously, there are some decisions 
that will be made at a much higher level that may require not 
just the Air National Guard, but also the United States Air 
Force to consider a fourth-generation buy or a 4.5-generation 
buy. That is one of the issues, the platform, the expense.
    The other is, regardless of the platform, whether it is F-
22, F-35, F-15, F-16, fourth-generation, 4.5-generation buys, 
we still need to consider what structure we use. This is the 
other one-half of the plan, is we have to take a look at the 
structure of the United States Air Force. Associations are the 
coin of the realm. It maximizes the efficiencies that all three 
components bring to the Air Force. It minimizes, and in some 
cases eliminates, the weak points that those components bring. 
When we talk about associations and we talk about platforms, we 
have got to merge the thought processes together to provide the 
most capability for the United States, whether that be fifth 
generation or fourth generation.
    Senator Bond. Well, thank you very much, General Wyatt. I 
know you were gratified to hear, as I was, the chairman say 
that within the budget constraints, we will work to make sure 
that we have the aircraft necessary for the Guard and its vital 
missions.
    Mr. Chairman, I appreciate your indulgence. I have a lot 
more to say about this that I will submit for the record, for 
anybody who missed my initial comments. Thank you, sir.
    Chairman Inouye. Thank you.
    Senator Murray.
    Senator Murray. Thanks very much, Mr. Chairman, Senator 
Cochran.
    Thank you both for your service and also to the men and 
women who serve under you. We really appreciate all they are 
doing today.
    General Vaughn, I want to start with you. Since our last 
hearing, I understand that the National Guard has implemented 
the new blast tracking system. You mentioned it a few moments 
ago. That is a system that I know is meant to help us track and 
link soldiers to situations where they might have been exposed 
to an adverse situation like an IED explosion.
    I really want to commend you on this effort. I appreciate 
what you are doing with this, and I think that efforts like 
that are going to help us collect the data so that we make sure 
we have the resources we need to fully address those men and 
women who have traumatic brain injury (TBI) exposure or post-
traumatic stress disorder (PTSD). And I wanted you to share 
with this subcommittee a little bit more about the blast 
tracking system and how it works.
    General Vaughn. Thank you, Senator Murray. To go back to 
the last of your question that you graciously asked about 
this--and as I explain this, when I finished--you know, we had 
a soldier behind me say, sir, you know, that is me. They do not 
have the record of the five explosions that I was in. That is 
me. So I wish I had had him testify. It would have been a lot 
better than me doing it.
    Our issue is this. About 1\1/2\ years ago, we looked at 
this and said, you know, we have got all these soldiers that 
are coming back that are not on active duty and they do not 
have in their medical records a substantial annotated injury. 
They have been returned to duty. But, yet, is this an 
accumulation of effects, I mean, all the questions that are 
being asked of this--there was no tracking mechanism. So simply 
what we wanted to do was put into place a tracking mechanism 
that if a soldier--for instance, the unit that I was watching 
was a route clearance outfit that in--their daily business is 
explosions. And I saw some really tragic ones at the end of 
this, but also I talked to a lot of soldiers that had been 
returned to duty with it.
    And so, I looked at this closely and said, wow. All of 
these are coming back. All of these soldiers will get off 
active duty, and they will be wards of the State. Now, I do not 
mean wards like indigent--I mean the State will end up having 
to deal with them.
    Now, as you know, my sister ran the Head Injury Council in 
Missouri for many years. So I was just battered with all the 
head injury stuff. It has always been in my mind. I thought, 
you know, what is our role? What is the missing link in all 
this? And our role was to help get them on the path if they 
needed treatment or recovery. In other words, are they going to 
come in 5 days, 5 months, 5 years, 15 years, and where are they 
going to come to? Are they going to come to the armory? And if 
they are not, how do we route them into the right State agency? 
And when we do, is there a stigma behind this that prevents 
them from, you know, from doing this, or do they have to 
explain everything?
    And the way we envisioned this was an automated database 
system that was operational in nature that when it happened, it 
was a commander's responsibility to note that this individual 
was in an incident, and, oh, by the way, if he or she was hurt 
badly, they were already in the medical health system, but if 
we noted in such a way and they came back to the State at some 
point, then you would have a mechanism to be able to channel 
them back onto active duty for treatment or into the Veterans 
Administration (VA) with a record behind them, and, oh, by the 
way, you would be able to do research on all the data.
    What we did is we took about $500,000 and sent a team down 
range, and we put together an automated database that was 
already there, the Army system. The greatness of this system 
is--as you well know, you have got to have an LOD, a line-of-
duty investigation, you know, before you can get into the 
system.
    And so where is an LOD 5 or 10 years from now going to be? 
This automated system is the LOD. It will always track with 
them.
    Now, where are we? If we commanded and control everything 
down range through the Adjutants General, this would not be 
hard. But once they go overseas in an active duty environment, 
it gets a little bit tough because most folks are going to come 
back on active duty; whereas, most of ours are not going to 
come back on active duty. So we met with all the personnel 
officers and the Adjutants General and those that we command 
and control--they are doing this. And I think we have 1,700 and 
some odd soldiers today. We will get the precise numbers for 
you.
    Senator Murray. Okay.
    General Vaughn. Are we reaching everybody? No. I met with 
the Surgeon General of the Army and the G-1, and they said, we 
are going to do this. We are not going to wait on everybody to 
cut an order. We have already told them, you know, because we 
are different, the Guard and the Reserve. Again, they are not 
on active duty. And if we do not get this right, we are going 
to have families that are indigent out here looking for care 
and they are still trying to prove what happened to them.
    Senator Murray. Right.
    General Vaughn. It is an emotional issue I think for all of 
us, and I think that we are probably on the right track with 
this, and it will get better and better and better. But I think 
that we need to get this thing--I am getting ready to retire 
here, but we need to push this thing over the goal line and 
have all Army, Navy, Air Force, and marines doing this because, 
again, if they get off of active duty, they are coming back to 
the State, and we have got to figure out then that inter-
linkage, and it is easy because at the State inter-agency level 
between the Adjutant General working for the Governor, there 
has to be someone in the interagency over there on the social 
services side and most head injury councils or MTBI councils or 
whatnot--that this data and this linkage will happen 
seamlessly.
    And so that's a long answer I know. We have done what I 
think that you asked us to do.
    Senator Murray. I really commend you. I think you have made 
a lot of progress with that, and it is so important because 
many soldiers I have talked to do not even remember that they 
were close to a blast. And we also know that the symptoms can 
appear in a vast timeframe, sometimes a few days after 
exposure, sometimes as long as 18 months later. So oftentimes 
people do not link the event with the adverse effect. So that 
is really important, which leads me to my next question, about 
the transferability of the data that you are collecting to the 
VA so that when soldiers leave active duty, the data follows 
them.
    Are you ensuring that that does go into the system as part 
of the seamless transition, or how are you doing that?
    General Vaughn. A great question, and the one that needs 
the work because you know it is not protected. It is not locked 
down. It is an operational tool. And my thoughts were that we 
needed an organization at the interagency level, again, head 
injury council, that in consultation with the Adjutants 
General, so that you had military view of this, we knew which 
way to move it. This was not competition between VA and Army, 
Navy, Air Force, Marine Corps medical care. It is getting them 
back on the right track. I think this record is open to VA. I 
think it is open to the military healthcare systems. Yet to be 
worked out, but again, somebody has got to do that because 
folks like me are not going to be operating a system. We will 
have to get them over to the right people and do it in a very 
caring manner.
    Senator Murray. Are you talking to the VA about the system 
now and making sure it is being transferred, or where is the 
conversation happening?
    General Vaughn. I have folks working with me that I feel 
are talking to the VA. As you know, we having--there is a 
council on this, this afternoon, where it is being discussed 
again, and those--you know, we are in the process now of 
bringing the data back and getting to the next stage. Any 
suggestions as we go forward on this--there needs to be 
everybody involved in it. It is not us coming up with some 
bright idea. I mean, this just needs to be done. And the Army 
is solidly behind this. Secretary Geren is a tremendous 
supporter, as well as the Vice Chief of Staff of the Army. I 
have seen it. He is all over it. He has got it.
    Senator Murray. Okay, good. Well, this is something we will 
continue to follow with you. I really appreciate your work on 
it.
    I also have a continuing concern about the backlog of 
claims for VA disability benefits. And one of the ways that we 
tried to speed up the delivery of the VA benefits has been 
through the benefits delivery discharge, or BDD, program, which 
allows claims to be filed within 180 days of discharge, with a 
goal of providing benefits within 60 days after release or 
discharge from active duty.
    Unfortunately, members of our National Guard and Reserve 
have little or no access to the BDD program and are not able to 
expedite the processing of their VA claims. Can either of you 
talk to me about what members are doing to make sure that the 
VA does get them benefits more quickly?
    General Vaughn. Senator, you know, early on we put liaison 
officers and general officer over there to work these type of 
activities. I think we are getting better. You know, when we 
started out down this track, I mean it was like, you know, we 
were out in left field, you know, on the whole thing. The 
report that I get says that there is progress on this, but this 
is a continuing education piece that kind of goes in line with 
this blast tracking thing. Well, all systems were not set up to 
be advantageous for anyone, you know, that had an injury or 
follow-on care. And, you know, when they talk about the 
seamlessness between the services, you know, and whatnot, it is 
just not true. The benefits in the way we fly into the various 
healthcare systems is the primary bugaboo in all this. And 
again, you know, I'm stumbling around on the answer, but I will 
tell you we have people engaged, you know, with you, with VA, 
and you have heard my answer on the blast tracker. They are key 
to what we are going to do.
    Senator Murray. Yes. General Wyatt.
    General Wyatt. Senator Murray, I echo the comments of 
General Vaughn. The problem on the Air National Guard side is 
that we are kind of late to the game as far as the blast 
tracker and the information that we have.
    I know that--and I am going to relate back to my experience 
as the Adjutant General in Oklahoma. I deployed the 45th 
Infantry Brigade combat team to Iraq in 2007, and we did not 
have such a program. I was not smart enough to figure out that 
we needed the program, but the University of Oklahoma was. And 
they came forward with an offer out of their pockets to fund 
baseline studies of our soldiers. We could not make them do 
that, but we offered that service to them that provided a 
baseline so that if something happened in theater, at least we 
would have a baseline to operate from to measure the degree of 
injury.

                             BLAST TRACKER

    The advantage of the blast tracker is that it does that, 
but it also operationalizes the reporting, which I think is key 
to the whole situation. When we try to tie that to Veterans 
Affairs benefits, when the soldier, airman, sailor, or marine 
comes home, we still have problems in that at the joint force 
headquarters of our various States, some of them are resourced 
rather well to facilitate the integration of those services 
into not only post-mobilization briefings and Yellow Ribbon 
reintegration programs, but also before they deploy.
    And that is one of the reasons that the Air National Guard 
needs to get more in tune with what the Army National Guard is 
doing and to follow their lead, integrate with their program 
because the Adjutants General, whether they wear blue, green, 
whatever color uniform, are responsible for all of the soldiers 
and airmen in their formations. And what I am hearing from the 
Adjutants General is that they need the flexibility to 
administer the program within their States, but they need 
access to the VA. And it needs to rely upon the strength of the 
national VA, not necessarily the strength of the State VA 
programs.
    We have a very strong State VA program in Oklahoma, but I 
am advised that that is not true in a lot of States.
    Senator Murray. Right.
    General Wyatt. And soldiers and airmen should not have to 
rely upon the inequities----
    Senator Murray. Wherever they live. Yes.
    General Wyatt [continuing]. In the State VA systems to 
acquire the care that they need.
    Senator Murray. So we have made some progress, but there is 
lots of work left to do, so don't take our eye off the ball, 
right? Okay.
    General Vaughn, I did want to ask you one other question. 
Since our last hearing, I am excited that you established a 
National Guard Youth Challenge Program in the State of 
Washington. I had the opportunity to meet a couple of cadets 
from the program, and I think it is great. If you can just give 
us a quick update on what is happening with that.
    General Vaughn. You know, a tremendous program. And as you 
know--you mentioned being excited about it. I think 34 States 
that we are up to now. There is always a struggle for 
resources, and so I think that there is probably some language 
that has to do with making it a little bit easier for the 
States right now to be involved in this.
    I would recommend everybody support that to the maximum 
they can. You know, when we look at the great crises that we 
have, one of them is the left-behind, left-out youth of 
America, we really feel good about what we have been able to 
do. The States with Youth Challenge and STARBASE programs for 
the left-out and left-behind--you know, we run one of the 
Nation's largest GED-plus programs to get their GEDs, and then 
ship them on to active duty, and whether they come back to the 
Guard or Reserve or active Army, we care less. We just want to 
turn them around.
    I think there is another piece to this. I think there is a 
high school piece that we need to be involved in, and I think 
this goes to the dropout piece. I think you link great 
programs, Youth Challenge, STARBASE, but in order to get a high 
school degree with those folks who have dropped out, you know, 
after their sophomore year, and you look at the Youth Challenge 
statistics--I mean, the number just jumps day after day about 
all those that make the tragic mistakes and cannot carry on 
with a great life and end up averaging us like $750,000 apiece 
for incarceration for the rest of their lives. And the 
percentage is huge. So it is a staggering problem, and there is 
great talent out there.
    I am not saying we should run social programs necessarily 
in the Army Guard, but we have got such an outreach here that 
the loyalty that you see from, for instance, those folks that 
go through the GED-plus program and Youth Challenge toward our 
Nation and giving everybody a second chance, I think it is the 
way we recruit. I think it is a big piece of the educational 
benefits. I think it is an education piece that we ought to be 
jumping after.
    So am I for big-time Youth Challenge? Absolutely. And you 
have seen the tear-jerking things that I have. We have had 
folks testify that, you know, if you had not given us a 
turnaround, I would not be a surgeon today. We actually had 
that happen 2 years ago, you know. And so we all need to watch 
it, and I know that the question is loaded.
    Senator Murray. I think that is absolutely great.
    General Vaughn. I really appreciate you asking about that.
    Senator Murray. It is a great program, and I want to 
commend you for doing that. We are following it and hoping that 
we can keep it going as long as we have kids out there who need 
a second chance, which I think will be a long time. So thank 
you.
    One last quick question. In December, I sent a letter to 
the National Guard Bureau signed by the whole congressional 
delegation of Washington State requesting to have the HAMMER 
Training Center be named the Western Regional Training Center 
for National Guard Support Teams and Related Training. HAMMER 
is a fantastic facility that trains people on everything from 
weapons of mass destruction to all kinds of other important 
skills. And I wondered if you could give the subcommittee or 
me, if you do not have it today, a written update on HAMMER's 
designation as a national training site.
    General Vaughn. No, I will have to follow up because, you 
know, the way it is broken out, the joint homeland piece comes 
under General McKinley on this. And I'm not pushing--you know 
me. I am candid enough to try to answer the question. But, 
unfortunately, I do not have the data. We will get it to you 
quickly.
    Senator Murray. If you can get it to me, that would be 
great. I appreciate it.
    Thank you very much, Mr. Chairman.
    [The information follows:]

    The Hammer Training Center has provided strong support and 
excellent services to our National Guard Civil Support Teams 
since 2001. The National Guard Bureau has conducted site visits 
to the Hammer Training Center and concurs that the training and 
facilities available for Chemical, Biological, Radiological, 
Nuclear, and high Explosive (CBRNE) training are excellent. At 
present, the number of facilities necessary to meet the 
Nation's CBRNE collective training requirements has not been 
determined and a national training plan for this type of 
mission has not been finalized. We are currently developing a 
capabilities gap analysis and will work in conjunction with 
Northern Command (NORTHCOM) to ascertain the appropriate set of 
CBRNE training facilities. The Army will include the Hammer 
Training Center in its considerations prior to any decisions 
regarding regional training sites.

                     ADDITIONAL COMMITTEE QUESTIONS

    Chairman Inouye. I thank you very much. General Vaughn and 
General Wyatt, on behalf of the subcommittee, I thank you for 
your testimony. And may we, through you, thank the men and 
women of the Air and Army Guards for their service to our 
country? We thank you very much.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
       Questions Submitted to Lieutenant General Clyde A. Vaughn
            Questions Submitted by Chairman Daniel K. Inouye
                        light utility helicopter
    Question. General Vaughn, in the fiscal year 2009 Defense 
Appropriations Act, the Vice Chairman of the subcommittee, Senator 
Cochran, provided the leadership to accelerate the production of Light 
Utility Helicopters. A majority of these helicopters are to be provided 
to the National Guard to meet important MEDEVAC, homeland security, and 
general support missions.
    Could you describe how the accelerated production of the Light 
Utility Helicopter will benefit the Army National Guard?
    Answer. The Army National Guard (ARNG) will begin to see 
significant and positive benefits from the Light Utility Helicopter 
(LUH) production acceleration beginning in fiscal year 2011 and 
subsequent fiscal years. The ARNG Light Utility Helicopter fielding, 
prior to this acceleration, would not have been complete until fiscal 
year 2017. The ARNG, with this acceleration, will now complete fielding 
of its 200 aircraft in fiscal year 2015 which will enhance our ability 
to meet mission readiness in support of our domestic and overseas 
operations. Additionally, this acceleration allows the ARNG to divest 
OH-58 aircraft which the light utility helicopter replaces, over a 
shorter timeframe.
    Question. General Vaughn, approximately three-quarters of the Light 
Utility Helicopters intended for the National Guard are to be equipped 
to support homeland security missions, while the rest are to be 
equipped as MEDEVAC helicopters.
    Is this the right mix of mission equipment to meet the National 
Guard's missions?
    Answer. The Army National Guard (ARNG) and the Army consider 
MEDEVAC Light Utility Helicopters as part of the support capability to 
meet Homeland Security aviation requirements. The MEDEVAC Light Utility 
Helicopter will be an element of the ARNG Security and Support Light 
Utility Helicopter Battalions, one eight ship MEDEVAC company per each 
of the six Security and Support Light Utility Helicopter Battalions. 
The ARNG in coordination with the Army in 2006 developed this mix of 
MEDEVAC and non MEDEVAC Light Utility Helicopters to meet requirements 
for Homeland Security, Domestic Support to Civil Authorities, Training 
and ARNG Post, Camp and Station requirements. We have preliminarily 
indicated to the Army leadership that we believe there are still some 
light utility helicopter capability gaps within the ARNG and that we 
would pursue options to define those gaps and requirements within the 
very near future.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
                         military construction
    Question. In your prehearing testimony, you stated: ``Many of our 
aging facilities are in need of repair or replacement. The continued 
strong support of the Congress for Army National Guard military 
construction and facilities sustainment, restoration, and maintenance 
funding is crucial to our readiness.''
    a. Is the Army sufficiently attentive to the Army National Guard's 
Military Construction needs to ensure the Army National Guard can meet 
its state and federal obligations?
    b. What is the impact of these ``aging facilities'' on the Army 
National Guard's ability to perform its dual state/federal missions?
    Answer. a. Yes. The Army established a Reserve Component Military 
Construction General Officer Steering Committee (MILCON GOSC). The 
MILCON GOSC is a forum in which General Officers from the HQDA Staff 
and ten General Officers from the National Guard and U.S. Army Reserve 
meet every 6 months to discuss priorities and programs of the National 
Guard and Reserve Components.
    Total Long Range Plan requirement for military construction is over 
$13 billion and our current average budgeted level around $500 million.
    b. With the increased demand on the Army National Guard, there is 
an increased risk to carry on in functionally obsolete and energy 
inefficient facilities. There are cases where work functions are spread 
over several buildings or locations, resulting in spending time 
traveling rather than training. Our aging facilities are showing the 
wear with leaky windows, limited insulation and worn our mechanical 
equipment.
    We continue to make strides to improve our facilities and you can 
be assured that the Guard continues to achieve a high performance level 
in support of our dual state/federal missions in spite of aging 
facilities.
                        family readiness levels
    Question. A recent RAND study noted concerns about the readiness 
level for families of deploying members of the Guard and Reserve. Only 
60 percent of spouses surveyed felt their family was ready for the 
deployment. Almost 80 percent reported some type of deployment-related 
problem.
    How does the Army National Guard support families before, during, 
and after their servicemember's deployment? Is the Army Guard pushing 
the right information to families at the specific time it is needed?
    These problems are particularly acute when the servicemember 
deploys with a different unit (such as when an Illinois reservist and 
deploys with a California unit).
    Answer. The National Guard Yellow Ribbon Reintegration Program and 
supporting initiatives are the key instruments to support our families 
before, during and after their Soldier's deployment. The Yellow Ribbon 
Program consists of events at seven critical points during the 
deployment cycle: (1) Alert, (2) Pre-Deployment, (3) During 
Deployment--within 90 day of Soldier's departure, (4) During 
Deployment--within 90 days of Soldier's return, (5) Reintegration--
about 30 days after return from Active Duty (REFRAD), (6) 
Reintegration--about 60 days after REFRAD, and (7) Reintegration--about 
90 days after REFRAD. Events 2-6 are primarily for providing Families 
with information, resources, points-of-contact, and similar information 
to support them before, during and after their Soldier's deployment. 
They will receive briefings on how their benefits will change, where 
they can go if they need information or financial assistance while 
their Soldier is gone, information regarding childcare, respite and 
youth programs designed to support their children and increase their 
resiliency. They will receive Family Program and Family Readiness Group 
points-of-contact, as well as resources within their community. During 
deployment events focus on financial readiness, stress management, 
preparing for the Soldier's return, Battlemind Training, and other 
resiliency-building and life skills seminars. Reintegration events 
include resources that support the Soldier's transition back to 
civilian life and provide information and resources to address the 
potential stresses that may arise during that transition--Job Fairs, 
Strong Bonds Marriage and Single Soldier Relationship Enrichment 
Seminars, Strong Bonds Family Seminars. Local points-of-contact from 
the Department of Labor, Veteran's Affairs, Law Enforcement, and other 
community partners also participate in these events and provide 
information about the programs that support Veterans and their 
families.
    The National Guard Yellow Ribbon Reintegration Program policy 
memorandum outlines the events and resources that should be provided.
    In addition, the Soldiers, Families Support Services Division 
publishes a bimonthly magazine, called The National Guard Soldier & 
Family Foundations. It is distributed to the homes of 350,000 Soldiers. 
The magazine provides information about support programs and resources 
and highlights feature stories about the Soldiers and their families. 
The National Guard Soldier & Family Foundations magazine has been well-
received and reaches even those families that opt not to attend Yellow 
Ribbon events.
    Question. How does the Army National Guard provide family support 
when a servicemember cross-levels with another unit?
    Answer. The family support process may vary by state/territory, but 
in general, when a Soldier is mobilized, his/her information is pulled 
from Standard Installation Division Personnel System (SIDPERS) database 
and downloaded to the Guard Family Management System. The State Family 
Program Director (SFPD) from the Soldier's home state will contact the 
Program Director from the gaining state. When the Soldier goes through 
the Soldier Readiness Process (SRP) at the unit, prior to going to the 
mobilization site, Family contact and location information is gathered. 
The SFPD then distributes this family information to the Family 
Assistance Center closest to where the family lives. For example, if 
Soldiers are cross-leveling from the state of California (CA) to a unit 
in the state of Indiana (IN), the CA SFPD may contact the IN SFPD to 
establish contact and a flow of information regarding the unit to these 
families and vice versa. Once the Soldiers go through SRP, the Family 
Assistance Center located nearest their home will be reached and 
provided their families' contact information. The Family Assistance 
Center Coordinators are responsible for checking in with families of 
deployed Soldiers on a monthly basis to ensure they have the support 
and assistance they need while their Soldier is deployed.
    The deploying unit's commander can establish a Virtual Family 
Readiness Group (VFRG) page as well where family support information 
can be made available to unit families regardless of their geographical 
location.
    Some of our main challenges that we are facing are: Soldiers 
providing incorrect contact information or no contact information for 
their families; families move during the deployment and do not provide 
forwarding information; and families opting not to be contacted.
                         deployment challenges
    Question. Before 9/11, it was uncommon for large units of a 
particular state Guard to deploy as a large group (such as an entire 
brigade). For example, the current Illinois deployment is the largest 
deployment of state Guard members since WWII. Other states have 
likewise had large groups of their civilian populations called to 
active duty to deploy with National Guard units.
    How has the Army Guard managed the administrative challenges of 
deploying so many members from one location at one time?
    Answer. The Army National Guard (ARNG) has developed several 
Information Technology solutions to assist the States and Territories' 
mobilize Soldiers more efficiently. We created ``e-mob'' to leverage 
the interactive Personnel Electronic Records Management System (iPERMS) 
records of individual Soldiers to be accessed anywhere via the WEB. The 
use of the RCAS application of the Mobilization Personnel Data viewer 
and the ability to load records into the Active Components Deployment 
and Reconstitution Tracking Software (DARTS) application has helped to 
process personnel in a more expeditious manner. The Line of Duty (LOD) 
Investigation Module developed into the Army's Medical Operational Data 
System (MODS) has greatly enhanced the processing and documenting of 
injuries incurred during mobilization from approval that used to be 
almost a year down to approval in days from submission. The ARNG 
administers the TRICARE Early Eligibility Program to transition 
Guardsmen and their families to DOD's Healthcare system before 
deployment.
    Today most of our States and Territories Joint Forces Headquarters 
field ``White Cell'' teams consisting of administrative personnel who 
meet the redeploying unit and work with the various Power Projection 
Platforms during the Demob process to ensure Soldiers have completed 
Line of Duty, Evaluations, awards and try to convince Soldiers injured 
and ill while deployed to stay on active duty through the Medical 
Retention Process (MRP) or at least be examined through the MRP-E 
(Examination) program to rule out long term injury that would be better 
treated at a Military Medical Treatment Facility. This effort is an 
unfunded requirement often taken out of other programmed requirements 
in order to better take care of our Soldiers.
    Question. What steps are the Army Guard taking to make sure it is 
ready to deal with the reintegration of so many soldiers of one 
community?
    Answer. The ARNG has implemented the Yellow Ribbon Combat Veteran 
Reintegration program in accordance with the joint guidance issued by 
National Guard Bureau and with funding allocated for this purpose. The 
objective of the Yellow Ribbon program is to facilitate the post-
mobilization reintegration process and reconnect the Service member 
with his or her Family, employer, and community while providing 
information and access to national, state and local resources. Over the 
past few years, the ARNG has established a framework for successful 
Yellow Ribbon events in support of large unit reintegration involving 
Soldiers and units that are dispersed over a multi-state area:
  --Timely and accurate information dissemination at all levels.
  --Emphasis on Family Readiness Group outreach programs including e-
        mails, newsletters, and communication from all levels in the 
        chain of command.
  --Utilization and coordination of resources at the local level to 
        minimize logistical challenges and limit the need for extensive 
        Soldier and Family Member travel.
  --Utilizing the newly fielded Joint Services Support (JSS) portal to 
        coordinate and disseminate Yellow Ribbon events and ensure 
        maximum Soldier and Family Member participation.
  --Providing Yellow Ribbon contractors beginning fiscal year 2009 to 
        augment state efforts; these contractors assist in all phases 
        of the event to provide training, briefings, and activities 
        that support Service Members and their Families while ensuring 
        effective information flow at all levels.
                     individual ready reserve (irr)
    Question. In the last year, how many Individuals Ready Reserve 
(IRR) soldiers has the Army National Guard requested to help fill its 
deploying units? Of that number, how many were involuntarily mobilized? 
Of the number of IRR soldiers requested, how many ultimately mobilized 
and deployed with the Army National Guard?
    Answer. The requirements were for 2,312 Soldiers.
    Mobilized Soldiers--97 were voluntary and 5,671 were involuntary 
for a total 5768.
    The 1,368 Soldiers joined units between July 15, 2008 through July 
15, 2009.
    Question. At the hearing, you stated that the Army National Guard 
will continue to fill certain Military Occupational Specialties with 
IRR soldiers.
    Please provide me with a list of these specialties.
    Answer. Top Military Occupational Skills (MOS) and grade:
  --11B E4 (Infantry)
  --11B E5 (Infantry)
  --11B E3 (Infantry)
  --88M E4 (Transportation)
  --31B E4 (Military Police)
  --88M E3 (Transportation)
  --68W E4 (Health Care Specialist)
  --92F E4 (Fuel Handler Specialist)
  --63B E4 (Mechanic)
  --31B E3 (Military Police)
    Question. As described at the hearing, family support and 
reintegration can be difficult for soldiers and their families when the 
soldier is cross-leveled.
    What changes in procedure are necessary for Army National Guard 
units to be able to cross-level IRR soldiers who already live near the 
unit?
    Answer. The Army National Guard (ARNG) supports drawing IRR 
Soldiers from the same State as the mobilizing unit they will join when 
such is feasible. This could be accomplished via a two-step process for 
filling IRRs that would garner IRR fillers from the same State as the 
mobilizing unit where possible.
    Under the current practice, the ARNG sends a request for IRR 
Soldiers through channels to HQDA G1. The G1 has a contractor (ASM 
Research) run a database query, identify the population of suitable IRR 
Soldiers to fill the requisition, and order them to duty (plus an 
appropriate overage to account for expected attrition). The process as 
currently conducted does not take the Soldier's geographical location 
into account.
    Our proposal would be to add an intermediate step: When ASM 
Research received our IRR requisition, they would identify all 
qualified candidates for fill. From this population, they would first 
apply any qualified IRRs living in the same State as the mobilizing 
unit, and then turn to the national population to fill any shortfall 
not covered by IRR residents of that State (to include the overage 
required to offset attrition at the re-training or ``re-greening'' 
station).
    This modified approach would have at least four benefits:
    First, it would provide a recruiting opportunity for the ARNG. 
Currently we have little opportunity to retain IRR Soldiers that serve 
with our units as they usually live in another geographical area 
outside commuting distance. By filling with IRRs residing in the same 
State first, however, it gives us the opportunity to capture and retain 
IRR Soldiers serving with our units who become bonded with their 
colleagues during the deployment, as there is a greater chance that the 
Soldiers would reside close enough to commute to drill with the 
Soldiers they bonded with in combat.
    Second, it would help the Soldier by enabling the unit to include 
the Soldier's family in all support group activities and family support 
while the Soldier is deployed, which is difficult now as the families 
usually do not live in the same geographical area as the unit.
    Third, by affiliating with the local-area deploying ARNG unit prior 
to attending re-training (as required of all IRR Soldiers) the IRR 
Soldier is now affording the opportunity to prepare for remedial 
training and has a familiar chain of command to assist with any 
personal, family, or administrative issues through the home station 
ARNG unit while at training.
    Fourth, it would facilitate accomplishment of all required 
reintegration activities by the Soldier with the unit he or she 
deployed with--again, difficult now as the Soldier does not reside in 
the same geographical area and may not live near a military 
installation.
                               personnel
    Question. The fiscal year 2009 Omnibus contained the provision to 
help federal employees in the National Guard and Reserves avoid a loss 
of income when they are called the active duty.
    What efforts will the Army National Guard undertake to quickly 
implement this new provision?
    Answer. How quickly the Army National Guard implements any new 
authority/program is dependent upon DOD publishing an Instruction or 
Directive, then the Army must publish guidance to their Components.
    Question. Can you provide the number of current Army Guard members 
who are federal government employees?
    Answer. The Army National Guard has 32,927 Non-AGR personnel who 
are federal government employees.
    Question. Of that number, how many have served at least one tour in 
Operation Enduring Freedom or Operation Iraqi Freedom? How many are 
currently deployed?
    Answer. Of the 32,927 Soldiers who are federal government 
employees; 4,312 are currently mobilized for Operation Iraqi Freedom 
and Operation Enduring Freedom, and are receiving Hostile Fire Pay.
    Since September 11, 2001, there have been 20,688 Army National 
Guard federal government employees (identified by unique social 
security numbers) from the list who have received Hostile Fire Pay for 
Operation Iraqi Freedom or Operation Enduring Freedom.
                                 ______
                                 
               Question Submitted by Senator Patty Murray
                                 hammer
    Question. In December, I sent a letter to the National Guard Bureau 
signed by all the members of the Washington State Congressional 
delegation requested to have HAMMER training center be named the 
western regional training center for National Guard Civil Support Teams 
and related training. In the case of events with weapons of mass 
destruction, National Guardsmen trained there can identify the type of 
agent used to help support police, firefighters and other emergency 
workers who would be the first to respond to the problem. ``HAMMER has 
established a reputation as a premier training site because of its 
excellent chemical, biological, radiological, nuclear and explosive . . 
. facilities and skilled on-site Department of Energy radiation and 
nuclear professionals''. HAMMER had 39 Civil Support Teams conduct 
training on its campus in 2007 and 2008 and already has 12 STEP 
training programs scheduled for fiscal 2009, which started in October.
    General Vaughn, can you provide me any update on HAMMER's 
designation as a regional training site?
    Answer. The HAMMER Training Center has provided strong support and 
excellent services to our National Guard Civil Support Teams since 
2001. The National Guard Bureau has conducted site visits to the HAMMER 
Training Center and concurs that the training and facilities available 
for Chemical, Biological, Radiological, Nuclear, and high Explosive 
(CBRNE) training are excellent. At present, the number of facilities 
necessary to meet the Nation's CBRNE collective training requirements 
has not been determined and a national training plan for this type of 
mission has not been finalized. We are currently developing a 
capabilities gap analysis and will work in conjunction with Northern 
Command (NORTHCOM) to ascertain the appropriate set of CBRNE training 
facilities. The Army will include the HAMMER Training Center in its 
considerations prior to any decisions regarding regional training 
sites.
                                 ______
                                 
             Question Submitted by Senator Byron L. Dorgan
                              end strength
    Question. With increased operational demands placed on the reserve 
component for the past several years, signs of stress and strain are 
showing. All reserve component services are facing increased challenges 
retaining experienced, mid-grade career service members, precisely 
those eligible for retirement after having served 20-years of service. 
I am concerned we are not maintaining a balanced force, retaining 
enough of the very individuals who have gained the benefit of 
experience these past years of increased operations. I'm considering 
introducing legislation that would enhance retention of those 
experienced career servicemembers, providing an incentive to serve 
beyond 20-years, initial retirement eligibility, to continue to serve 
in the reserve component in exchange for lowering the age at which they 
will be eligible to receive retired pay. For example, if a member 
commits to serving 2 years beyond 20, the age for which they are 
eligible to receive retired pay would be lowered by one year.
    What is your opinion of this idea?
    Answer. The Army National Guard (ARNG) agrees, a 1 year reduction 
in retirement eligibility for each additional 2 years spent over 20 
years of service would improve retention and keep experienced mid-grade 
Officers and Non Commissioned Officers (NCO) in our ranks longer.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran
                      monticello readiness center
    Question. General Vaughn, the Monticello Readiness Center in 
Monticello, Mississippi is a 55-year-old facility that is undersized, 
significantly deteriorated, and does not meet Army requirements for 
fire, safety, health codes and force protection. Congress has provided 
planning and design funding for this project and a new facility which 
has been a top concern for the Mississippi Adjutant General for the 
past 6 years; yet it has never been included in the Army's Future Years 
Defense program budget plan. I don't understand how this can be the top 
priority for the State Adjutant General for years and still not be 
included somewhere in the budget.
    In light of the high priority assigned this readiness center by the 
State Adjutant General, I hope you will look into this request and 
ensure this facility and other similar facilities are carefully 
evaluated as a candidate for the Army's construction plans.
    Can you please comment on this?
    Answer. The Readiness Center in Monticello, Mississippi is in poor 
condition and should be replaced. The National Guard Bureau has granted 
design authority funds to the Army National Guard of Mississippi for 
planning and design of the Readiness Center in Monticello. 
Unfortunately, there are insufficient funds available to include this 
project in the Future Years Defense Plan (FYDP).
    The Readiness Center in Monticello, Mississippi is not the only 
Adjutants General top priority project that has not made it to the 
FYDP. These projects compete with other Army priorities for limited 
funds.
                                 ______
                                 
     Questions Submitted to Lieutenant General Harry M. Wyatt, III
             Questions Submitted by Senator Byron L. Dorgan
                        reserve component stress
    Question. With increased operational demands placed on the Reserve 
component for the past several years, signs of stress and strain are 
showing. All Reserve component Services are facing increased challenges 
retaining experienced, mid-grade career servicemembers, precisely those 
eligible for retirement after having served 20 years of service. I am 
concerned we are not maintaining a balanced force, retaining enough of 
the very individuals who have gained the benefit of experience these 
past years of increased operations. I'm considering introducing 
legislation that would enhance retention of those experienced career 
servicemembers, providing an incentive to serve beyond 20 years, 
initial retirement eligibility, to continue to serve in the reserve 
component in exchange for lowering the age at which they will be 
eligible to receive retired pay. For example, if a member commits to 
serving 2 years beyond 20, the age for which they are eligible to 
receive retired pay would be lowered by 1 year.
    What is your opinion of this idea?
    Answer. The Air National Guard is not facing the same challenges as 
our Air Force Reserve counterpart in retaining members past 20 years 
service. Out of 106,635 members assigned 25,378 (23.8 percent) are 
retirement eligible with over 20 years of service, 7,400 (6.94 percent) 
are within 18-20 years service, and 73,857 (69.26 percent) have not 
reached retirement eligibility.
    We agree that legislation to reduce the retirement age for service 
beyond 20 years would be of benefit in retaining members past the 20 
year mark. With the evolution of the increased operational demands we 
believe this incentive would enhance our overall retention.
                      119th wing, hector field, nd
    Question. With the recent increase in the number of Air National 
Guard personnel authorized to provide direct support for contingency 
operations, are there plans to increase the number of authorized and 
assigned personnel in the North Dakota Air National Guard 119th Wing, 
Hector Field, Fargo, North Dakota, providing MQ-1 Predator/MQ-9 Reaper 
unmanned aircraft systems operations?
    Answer. The Program of Record for the 119th Wing, North Dakota Air 
National Guard, is to provide one steady-state Combatant Command 
(COCOM) Combat Air Patrol (CAP) with a surge capability to two CAPs 
utilizing authorized manning through volunteerism and/or mobilization. 
The wings current manning document reflects the necessary manning to 
meet this Program of Record. Currently, the 119th Wing is operating 
under surge conditions, providing two COCOM CAPs utilizing all Air 
Combat Command assigned equipment. Should Air Force requirements change 
to dictate an increase in COCOM CAPs for ANG units, as a steady state 
requirement, the National Guard Bureau will work with to ensure proper 
resourcing, manning and equipping for those units.
    Question. What is the Air National Guard's plan for maintaining 
current C-21 flying mission at the 119th Wing, Hector Field, North 
Dakota? How long will the Air National Guard continue to support this 
mission at its current level of funding, personnel, and equipment?
    Answer. The current C-21 flying mission at the 119th Wing, Hector 
Field, North Dakota is intended to bridge the gap between the loss of 
their F-16s and the establishment of a follow on mission. The National 
Guard Bureau is committed to support the C-21 flying mission at the 
119th Wing until it's follow on mission is in place.
    Question. What is the Air National Guard's plan for procurement, 
assignment and basing the Joint Cargo (C-27) at the 119th Wing, Hector 
Field, Fargo, North Dakota? When will the Air Force procure these 
aircraft, when will they begin to arrive in Fargo, and how many 
aircraft will be permanently assigned to the 119th Wing?
    Answer. The Air National Guard stands ready to support the Air 
Force's commitment and requirement for the C-27 program. The delivery 
schedule and aircraft numbers are dependent upon the Air Force's C-27 
procurement action. The Chief, National Guard Bureau, has announced 
that Hector Field will be one of our units that operate the C-27.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
                air national guard military construction
    Question. In Lieutenant General Vaughn's prehearing testimony, he 
stated: ``Many of our aging facilities are in need of repair or 
replacement. The continued strong support of the Congress for Army 
National Guard military construction and facilities sustainment, 
restoration, and maintenance funding is crucial to our readiness.''
    Is the Air Force sufficiently attentive to the Air National Guard's 
Military Construction needs to ensure the Air National Guard can meet 
its state and federal obligations? What is the impact of these ``aging 
facilities'' on the Air National Guard's ability to perform its dual 
state/federal missions?
    Answer. Air National Guard (ANG) facilities are constructed to 
support the operational and training requirements for federal missions 
assigned to various ANG locations. As the Air Force accepts ``risk in 
infrastructure'' and limits the availability of current mission 
military construction (MILCON) funding, some facilities will continue 
to age beyond the planned replacement timeline previously expected. 
This will require continued investment with operations and maintenance 
(O&M) funding to keep facilities sustained, restored, modernized, and 
operable until they can be recapitalized. In the case of new mission 
beddowns, some MILCON funding has been provided later than the mission 
dictated, causing additional reliance upon O&M funding for mission/
facility workarounds. In all cases the missions have been beddown on an 
initial operational capability basis to provide equipment and 
facilities to being training ANG members until permanent full 
operational capability MILCON investments can be addressed.
    State mission capabilities are assumed to be contingent upon the 
existing equipment and infrastructure being available at the local 
bases. As a community based force, the ANG is responsive to community 
needs in the event of local disasters or acts of nature that would 
require the capabilities in place at ANG bases. Thus, the impact of 
``aging facilities'' on the ANG's ability to perform the State mission 
is judged to be limited and tolerable at the current budget funding 
level.
                   air national guard family support
    Question. A recent RAND study noted concerns about the readiness 
level for families of deploying members of the Guard and Reserve. Only 
60 percent of spouses surveyed felt their family was ready for the 
deployment. Almost 80 percent reported some type of deployment-related 
problem. These problems are particularly acute when the service member 
deploys with a different unit (such as when an Illinois reservist and 
deploys with a California unit).
    How does the Air National Guard support families before, during, 
and after their service member's deployment? Is the Air National Guard 
pushing the right information to the families at the specific time it 
is needed? How does the Air Guard provide family support when a service 
member cross-levels with another unit?
    Answer. The key is to ensure there are effective communications. 
Wing Family Program Coordinators (WFPCs) are trained and are in place 
to assist families and to include them in activities or meetings held 
on base. If there are problems concerning the military member, WFPCs 
work the issue and, as a minimum, they conduct 30 day (monthly) welfare 
calls to maintain regular contact with families to identify issues 
before they become overwhelming.
    During the pre-deployment process, military members fill out a 
family readiness pre-deployment checklist and indicate if the Family 
Readiness Group may contact their loved ones. WFPCs take care of a 
military member's loved ones regardless of location. If they should 
need assistance in a locality other than their home area, WFPCs contact 
the Air National Guard unit that can best provide the services that the 
families are in need of.
    Air National Guard units typically do not deploy all unit members 
at the same time, which is more characteristic of Army National Guard 
units. If there are notional taskings, remaining unit members are 
usually engaged at some level with a deployed member's family (i.e., 
phone calls, e-mails or visits). There are many personnel who tag on or 
fill in other unit line numbers. Rarely do families relocate as a 
result of a deployment situation. So from that standpoint families are 
supported from their Air National Guard unit similar to when a full 
scale deployment occurs.
    The Department of Defense Yellow Ribbon Reintegration Program 
(YRRP) will help the flow of information between units and service 
member families. With the five phases of deployment identified, the Air 
National Guard's Defense Department YRRP contractor and/or WFPCs will 
have more opportunities to communicate with individual members and 
their families. They will identify their needs and assist them as 
needed. This program will also increase pressure on unit commanders to 
provide assistance to and/or contact service member families.
    Prior to the Yellow Ribbon Program, WFPC conducted a pre-deployment 
briefing for Airmen and their families but family members rarely 
attended. The presentation included but was not limited to the 
following topics: Air National Guard at home for impacted family 
members, healthy/unhealthy coping strategies, readiness planning issues 
(i.e., bill paying, power of attorney, wills, organizing vital 
documents, household/seasonal maintenance activities, etc.) as well as 
resources available to assist families. WFPCs distributed a variety of 
handouts such as Military OneSource information, Military Family Life 
Consultant business cards, Family Services contact information, 
personal organizers, and a guide to Family Readiness.
          federal employees in the national guard and reserves
    Question. The fiscal year 2009 Omnibus contained the provision to 
help federal employees in the National Guard and Reserves avoid a loss 
of income when they are called to active duty.
    What efforts will the Air National Guard undertake to quickly 
implement this new provision?
    Answer. The Office of the Assistant Secretary of Defense for 
Reserve Affairs, Manpower and Personnel, and the Office of Personnel 
Management, in coordination with the Department of Defense, will 
implement the federal employee provision for income replacement. The 
Air National Guard will follow those implementation guidelines when 
published.
    Question. Can you provide the number of current Air Guard members 
who are federal government employees? Of that number, how many have 
served at least one tour in Operation Enduring Freedom or Operation 
Iraqi Freedom? How many are currently deployed?
    Answer. Currently, there are 27,603 members of the Air National 
Guard who are federal government employees. Of that number, 18,878 have 
served at least one tour of duty supporting Operations Enduring Freedom 
or Iraqi Freedom. 1,300 of the 27,603 are presently deployed supporting 
a named contingency operation.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
                         f-15 aesa radar system
    Question. General Wyatt, I understand the Air Force previously 
upgraded some of the Air National Guard's F-15s with next-generation 
Active Electronically Scanned Array radar systems, but it has not 
budgeted to complete retrofits on the entire fleet.
    General, can you describe for the Subcommittee the importance of 
the capabilities provided by the next general radars, and provide an 
update on the status of funding for retrofitting the entire Air 
National Guard F-15 fleet?
    Answer. The F-15's air-to-air advantage remains in the Beyond-
Visual-Range arena. Beyond-Visual-Range requires the ability to detect 
current and future generation airborne threats in order to retain the 
first shot, first kill advantage, which is essential to effective 
employment. The APG-63(v)3 AESA radar provides the Air National Guard 
with the capability to detect, track, and kill asymmetric threats, such 
as cruise missiles and drones, which is paramount in both the Homeland 
Defense and wartime roles. This state-of-the-art AESA radar is flexible 
enough to be continuously upgraded, allowing the Air National Guard F-
15s to meet future threats and new mission sets that were not 
previously possible. The APG-63(v)3 is performing very well in flight 
test and is months from operational fielding.
    The Air National Guard's minimum requirement is for 48 AESA-
equipped F-15s. This allows Air National Guard units to provide 
constant 24/7 homeland defense vigilance with AESA radars, while 
simultaneously providing the Air National Guard the ability to deploy 
AESA-equipped F-15s in the Air and Space Expeditionary Force construct 
to meet wartime and combatant commander taskings.
    In fiscal year 2006, Congress appropriated $52.2 million to 
``procure six AESA systems for the Air National Guard.'' In fiscal year 
2007, Congress appropriated $72 million for ``procurement of AESA 
radars only for the Air National Guard F-15C fleet'' which provided 
eight AESA radars. In the fiscal year 2008/fiscal year 2009 Emergency 
Bridge Supplemental, Congress appropriated $34 million for ``Air 
National Guard AESA,'' providing four AESA radars. The current fielding 
plan for these funded AESA radars is six at Jacksonville, Florida 
(installs beginning in January 2010), six at Portland, Oregon (installs 
beginning in October 2010), and six at New Orleans, Louisiana (installs 
beginning in July 2011).
    Our immediate need is $62.5 million to procure and install 
approximately eight APG-63(v)3 AESA radar systems, six at Barnes, 
Massachusetts and two at Great Falls, Montana. Our preferred option 
would be for $110 million to procure approximately 12 APG-63(v)3 AESA 
radar systems for the Air National Guard. Six of these would be 
installed at Barnes, Massachusetts (104th Fighter Wing) and six would 
be installed at Great Falls, Montana (120th Fighter Wing). This would 
bring the total to 30, leaving an additional 18 to meet the Air 
National Guard's 48 minimum requirement.
                        186th air refueling wing
    Question. General Wyatt, the 186th Air Refueling Wing currently 
flies KC-135 tanker aircraft out of Key Field in Meridian, Mississippi. 
Due to a 2005 Base Realignment and Closure decision, all of their 
aircraft will be reassigned by 2011. The Air Force has talked about 
replacing the tankers with Joint Cargo Aircraft, but I'm told those 
planes won't be available for Meridian until 2015. That creates a 4 
year gap without a flying mission. At last year's hearing, General Blum 
said the Guard Bureau was committed to arranging a mission to bridge 
the flying gap at Key Field.
    General, would you provide us an update on the progress you are 
making in assigning a ``bridge'' flying mission to Key Field.
    Answer. The National Guard Bureau is working with the Air Force to 
identify a ``bridge'' to the future C-27 mission at Key Field, 
Meridian, Mississippi. Following the 2005 BRAC, the Air Force 
identified a Component Numbered Air Force augmentation unit as the 
replacement for the KC-135 air refueling mission and the National Guard 
Bureau announced that Meridian, MS would also receive the C-27 (JCA).
    Due to their experience in the RC-26, the 186th Air Refueling Wing 
at Key Field was selected and is currently conducting mission 
qualification training in the MC-12W. The MC-12W is a manned-
intelligence, surveillance, and reconnaissance capability which the Air 
Combat Command is fielding to support overseas contingency operations 
in the U.S. Central Command. While this training mission is currently 
considered to be temporary, there is the possibility that it could be 
an enduring mission depending on Air Force established requirements. 
Should the Air Force determine it to be a long-term requirement, 
Meridian would likely be a strong contender for that mission.
             guard presence on united states/mexican border
    Question. General Wyatt, your testimony outlined some of the 
successes the Guard achieved in assisting the Border Patrol as part of 
Operation Jump Start.
    What presence do we currently have on our southern border?
    Answer. Currently, all Air National Guard personnel on the 
Southwest Border are involved with Counterdrug operations through the 
Joint Force Headquarters of the bordering states of Mexico. The 
missions the Air National Guard participates in include: Incident 
Awareness and Assessment, Linguist support, Aviation Refueling, and 
Innovative Readiness Training (Civil Engineering). Each state controls 
their border operation. The National Guard, both Army and Air, have a 
total of 681 personnel assigned to the counterdrug effort.
    Question. With the recent escalation in violence on the southern 
border, and the plan announced yesterday by the Administration for more 
federal agents, do you see a need for the continued presence of the 
National Guard on the United States/Mexican border?
    Answer. The National Guard involvement in Operation Jump Start 
provides highly effective cross-functional capabilities to the 
Southwest border. If called upon, we stand ready to fulfill any future 
requirements.
                                Reserves

STATEMENT OF LIEUTENANT GENERAL JACK C. STULTZ, CHIEF, 
            ARMY RESERVE
    Chairman Inouye. And now we call upon General Stultz, Vice 
Admiral Debbink, Lieutenant General Bergman, and General 
Stenner to come forward to present their testimony on the 
Reserve component.
    Gentlemen, thank you for joining us this morning, and may I 
assure you that your full statement will be made part of the 
record? May I now call upon General Stultz.
    General Stultz. Yes, sir. Mr. Chairman, Mr. Vice Chairman, 
and Senator Murray, it is an honor to be here.
    Senator Inouye, I would like to report to you first--go for 
broke--that 100th of the 442d, I just visited them recently in 
theater. They are doing very, very well. It is their second 
deployment out of the Pacific. And I also sent a task force 
just recently out to the Pacific to visit their families to 
make sure we are taking care of them. They were in Guam, 
Saipan, and Samoa, and so the 442d is doing well, your old 
regiment, and proud to serve this Nation.
    Thank you, first of all, from the 204,000-plus Army Reserve 
soldiers that I represent here today for what you have done for 
us in terms of your support, things like the National Guard and 
Reserve equipment account and other appropriations, and what 
your staffers have done for us, working very diligently with us 
to maintain support for our Nation through the Army Reserve.
    I have submitted my statement for the record, so I do not 
want to take up any time there, but I do want to highlight one 
thing.
    The theme that you will see in the Army Reserve posture 
statement and us going forward this year is return on 
investment. And what we are trying to highlight is what a great 
return on investment your Army Reserve is for this Nation. The 
dollars that we are given to operate with we value, and we 
invest them very, very carefully to make sure that we are 
getting all for our Nation.
    As you well know, 2009 for the Army is the Year of the 
Noncommissioned Officer, and today I have got three 
noncommissioned officers (NCOs) with me, and I would just ask 
them to stand. And it really is to highlight the Year of the 
Noncommissioned Officer, but for the Army Reserve, it really 
highlights return on investment, return on this investment that 
we get for this Nation. I will give you just a couple of 
tidbits here.
    Sergeant Jason Ford is here with me. Sergeant Ford is a 
drill sergeant. He goes and trains basic trainees at Fort 
Leonard Wood, Missouri. He also deployed for this Nation and 
trained the Iraqi army. While on patrol, leading 25 Iraqis--and 
he was the only American in charge--he came under attack and 
suffered wounds and was awarded the Purple Heart, along with 
the Bronze Star. But when Sergeant Ford finishes his tour in 
Iraq, he comes back home to Brockton, Massachusetts, where he 
is a policeman. That is a return on investment for this Nation. 
That is taking capability that we are building that we provide 
for our military in uniform; but, we bring back to the 
communities of America and put it back into our communities.
    Sergeant Henry Farve from California. He is a diesel 
mechanic, works for the Government, also deployed to Iraq, and 
while there, his son, who happened to be part of 32 Stryker 
from Fort Lewis, was wounded. Sergeant Farve maintained his 
mission even though he had the concerns about his own son, and 
then comes back to America and goes back to work for this 
Government as a diesel mechanic. What a great investment we 
have got.
    We have got to do all we can to retain these great NCOs. 
This is the corps. This is what distinguishes the American Army 
from any other army in the world, our noncommissioned officer 
corps.
    So, I look forward to your questions. I thank you for your 
support. It is because of what you do for us that we are able 
to man America's Army with great NCOs like these individuals, 
as well as bring them back to America's communities. I look 
forward to your questions, sir.
    [The statement follows:]
        Prepared Statement of Lieutenant General Jack C. Stultz
    The annual Army Reserve Posture Statement is an unclassified 
summary of Army Reserve roles, missions, accomplishments, plans, and 
programs. The 2009 Army Reserve Posture Statement also addresses the 
support required in fiscal year 2010 to continue the Army Reserve 
transition to a fully operational force.
    Unless otherwise noted, all statistics and facts are current 
through March 20, 2009. This document is available on the Army Reserve 
Web site at: www.armyreserve.army.mil.

                                                      Winter, 2009.
          the army reserve--a positive investment for america
    After 7 years of war, the most compelling evidence of Army Reserve 
success is the confidence deployed commanders have in the quality and 
ability of our Soldiers. The men and women of the Army Reserve-Warrior-
Citizens are full-time patriots who put their civilian careers on hold 
to protect American interests at home and abroad.
    Army Reserve Warrior-Citizens represent America's best and 
brightest. The Soldiers' and their Families' commitment and willingness 
to sacrifice at home, or by carrying the fight to the enemy on desolate 
battlefields, allow Americans to pursue their dreams and live free from 
fear. In this document, we highlight the remarkable quality of the 
people on the Army Reserve team: men like the Harvard-trained physician 
who, after age 50, applied his medical expertise to saving lives on the 
battlefield; or the commercial airline pilot who put his civilian 
career on hold to serve as a trainer with the Army Reserve; or the 
lawyer with an MBA and a successful professional career, serving as an 
aviation mechanic in the Army Reserve. Men and women like these, and 
countless others, add immeasurable value to the Nation.
    The contribution of Citizen-Soldiers, their Families, and prudent 
investments over the course of this decade, have allowed the Army 
Reserve to evolve from a strategic reserve to an indispensable 
operational force. In this environment of persistent conflict, 
turbulent markets, and tight competition for scarce resources, we must 
continue to invest our national treasure wisely. As an operational 
force, the Army Reserve is one of the best returns American taxpayers 
get for their money. To continue to succeed, the Army Reserve requires 
your support.
    The Army Reserve leverages your investment to attract and develop 
talent. The expertise we nurture is employed on the battlefield and in 
the boardroom. Army Reserve Soldiers bring cutting-edge ideas from the 
marketplace to the military, enabling the Army to accomplish missions 
with maximum impact and minimum risk. In turn, Army Reserve Soldiers 
bring the skills and values they acquire in uniform-leadership skills, 
decision-making ability, confidence, and discipline-back to American 
industry to build stronger businesses and stronger communities.
    To maximize Americans' return on investment, we have streamlined 
our command and control structure, standing down non-deployable support 
commands and establishing in their places operational and functional 
commands. Reducing the number of support headquarters and developing 
more deployable commands is generating more specialized capabilities in 
our core competencies: medicine, transportation, supply, civil affairs, 
military police, engineers, intelligence, and chemical, among others.
    We are aggressively refining our training strategy to reduce post-
mobilization training time and maximize Boots on the Ground 
contributions of our fighting units. Following the dictates of the Base 
Realignment and Closure (BRAC) Commission we are disposing of outdated 
facilities and replacing them with state-of-the-art centers to optimize 
training and support. Our training strategy, along with new facilities, 
will better prepare our Soldiers for the challenges ahead. Continuing 
to refine these efforts requires resources to complete BRAC mandates, 
develop and employ advanced training techniques, and to acquire 
technology enablers: communications and information systems, training 
simulators, and cutting-edge medical processes.
    We continue to improve readiness at all echelons. During our 
transition from a strategic to an operational force, we have recognized 
the need and advantage of having leaders and staff working full-time to 
support and prepare units in advance of their deployment. We continue 
to seek, and have commissioned research to determine, the optimum 
amount of full-time support to build and sustain readiness. We will be 
working with Congress closely this year to achieve this objective.
    The Army Reserve provides capability the Army could ill afford to 
maintain on active duty. The unique skill sets of Warrior-Citizens have 
proven, over the course of a century, to be cost effective and cost 
efficient. We are further striving to improve our value by striking up 
strategic partnerships with industry. Our way ahead is to build 
America's premiere skill-rich organization by teaming with civilian 
employer partners to produce a human capital strategy model for the 
21st century. Our efforts to create a public-private partnership to 
find, develop, and share talent will leverage the creativity and 
responsiveness of the civilian sector with the organizational skills, 
discipline, and leadership talent of the military. Working with 
industry, we develop our greatest asset--people. At the same time, we 
ensure the security of a system to realize peace and prosperity, 
keeping America shining as a beacon of hope for a troubled world.
    Over the history of the grand American democratic experiment, our 
Nation has risen to greatness because of the character of ordinary 
citizens and their willingness to defend freedom. The Warrior-Citizens 
of the Army Reserve and their Families embody that lasting commitment 
to serve. Since September 11, 2001, more than 170 Army Reserve Soldiers 
have sacrificed their lives in the fight against tyranny. Today, 
thousands stand in harms way, while tens of thousands more stand ready 
to answer the call. America can make no better investment.
    Thank you for your untiring support of the Warrior-Citizens of the 
Army Reserve.

                         Lieutenant General Jack C. Stultz,
                                          Chief, U.S. Army Reserve.
                        Command Sergeant Major Leon Caffie,
                         Command Sergeant Major, U.S. Army Reserve.
                 fiscal year 2008 return on investment
    As America remains a Nation at war, the Army Reserve continues to 
be a cost-effective force. In fiscal year 2008, the $6.9 billion Army 
Reserve appropriation represented only 4 percent of the total Army 
budget, yet we achieved remarkable accomplishments:
    Personnel.--In 2008, we recruited 44,455 Soldiers and reenlisted 
16,523 (111 percent of our annual goal), yielding a net gain of 7,142 
in our ranks. Sustaining momentum to build personnel strength is the 
most important priority for the Army Reserve. Due to significant gains 
in end strength for fiscal year 2008, the Army Reserve is on schedule 
to meet its 2010 end strength objective of 206,000 Soldiers. The Army 
Reserve continues to implement a series of programs to attract skill-
rich professionals. Future strategic recruiting initiatives target 
shortage specialties, mission-critical skill sets, and mid-grade 
officer shortages. Through our Employer Partnership Initiative, we 
produce a human capital strategy. Businesses and the Army Reserve now 
share in the training and development of quality individuals who 
contribute to both our Nation's defense and the economy. Our 
collaboration with industry in recruiting eliminates the unnecessary 
expenditure of resources when recruiting in competition with each 
other.
    Readiness.--In 2008, we mobilized more than 27,000 Warrior-Citizens 
in support of the Global War on Terror. We developed Regional and 
Combat Support Training Centers (CSTC) to enhance unit readiness, 
increasing the time our units are available to combatant commanders. 
Our civilian-related skills and highly experienced Soldiers afford our 
Army its extended stability operations capacity. We increased the Boots 
on the Ground time for: Combat Support Hospital units by 45 days, 
Military Police Battalions by 37 days, and Combat Engineer Companies by 
31 days by streamlining pre- and post-mobilization training schedules 
and eliminating all unnecessary and duplicate activities. As a federal 
force with personnel and equipment nationwide, we provide a unique 
capability as a Department of Defense ``first responder'' in times of 
domestic emergencies.
    Materiel.--We attained or exceeded the Army standard of 90 percent 
availability for reportable equipment that requires maintenance. All 
redeployed equipment not inducted into national level maintenance was 
recovered, repaired, and serviced. In light of acknowledged shortages, 
this equipment was then immediately transferred to ``next deployers'' 
or critical training locations in order to sustain pre-mobilization and 
pre-deployment training.
    Services and Infrastructure.--We strengthened programs to improve 
the well-being of our Soldiers and their Families. The development of 
the ``virtual installation,'' which afford Soldiers and Families ready 
access to services and pre/post-mobilization transition assistance, is 
the cornerstone of this effort.
                        army reserve priorities
    Continue to provide the best trained, best lead, best equipped 
Soldiers and units to combatant commanders to achieve U.S. objectives 
and ensure national security.
    Recruit and retain the best and brightest Warrior-Citizens to 
sustain a robust and capable operational Army Reserve.
    Transform the Army Reserve (operational structure, support 
services, and training and equipping paradigms) to optimize the 
efficiency and effectiveness of a fully operational force.
    Provide Warrior-Citizens and their Families with the training, 
support, and recognition to sustain a cohesive, effective fighting 
force.
    Build and maintain a partnership with industry to facilitate the 
Warrior-Citizens' contribution to both a prosperous economy and a 
skilled, experienced, and capable Army.
    To advance these priorities, the Army Reserve must obtain from 
Congress full support and necessary authorities.
    The President's budget requestwill allow the Army Reserve to: Grow 
and maintain Army Reserve end strength; continue Army Reserve 
transformation; improve medical and dental readiness; equip units and 
soldiers to train and fight; provide quality services and support to 
soldiers and their families; and sustain Army Reserve installations and 
facilities.
                           strategic context
    In accordance with Title 10 of the U.S. Code, the United States 
Army Reserve ``provides trained units and qualified persons available 
for active duty in time of war or national emergency.'' Since the 
September 2001 attacks on America, the Army Reserve continues to 
deliver on its Title 10 obligation by serving in a prolonged 
operational capacity for which it was originally neither designed nor 
equipped, but for which it is currently being transformed. Each day, 
Army Reserve Soldiers and their Families make unprecedented sacrifices 
in response to lengthy and repeated deployments. The Army Reserve is an 
operational force providing critical combat, logistics, and stability 
support capabilities for homeland defense, overseas contingencies, and 
war. The demands of today's conflict, coupled with the existing and 
foreseeable stresses on our force, have redefined the way this 
institution, the Army, and the Nation views the Army Reserve.
    The Army Reserve defines itself as a community-based, federal 
operational force of skill-rich Warrior-Citizens, that provides 
integral capabilities for full spectrum operations. The basis of this 
definition is reflected in the fact that today Army Reserve forces 
mobilize almost continuously. The Army Reserve has supported nine major 
operations and several lesser contingencies since 1990. This legacy of 
service and our most recent contributions set the conditions necessary 
to embrace the future for the Army Reserve.
    One way to view this future is to look at the Army Reserve as an 
enterprise organization: a conceptual model applying a holistic 
approach to strategic leadership to improve organizational 
efficiencies. The enterprise approach is fundamentally about seeing the 
entire organization--its relationships among its people, processes, 
functions, and organizational parts.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In this document, we present the Army Reserve enterprise across 
four core management areas: Personnel, Readiness, Materiel, and 
Services and Infrastructure.
    To optimize Army Reserve performance we must:
  --Attract and retain the very best Warrior-Citizens to serve our 
        Nation (Personnel);
  --Prepare, train, organize, and equip Soldiers and units (Readiness);
  --Provide Soldiers with the latest, mission-ready, modular force 
        weapons and equipment (Materiel); and
  --Provide for the well-being of our Soldiers, Families, Army 
        Civilians, and employers while providing state-of-the-art 
        training capabilities, unit facilities, and secure, redundant 
        communications (Services and Infrastructure).
    The following sections of this document highlight our 
accomplishments and discuss the challenges and needs for strengthening 
the organization across these core functions (Personnel, Readiness, 
Materiel, and Services and Infrastructure). The Army Reserve will 
continue to generate a positive return on investment building, 
sustaining, and maintaining warfighting and support capability for 
America.
Personnel
    Today's Army Reserve Soldiers are patriotic men and women who have 
a vision for their lives, have roots in a civilian community, and have 
a desire to serve their country. Their commitment translates into our 
success.
    The Army Reserve exceeded its fiscal year 2008 recruiting and 
retention objectives by accessing 44,455 new recruits and retaining 
16,523 Soldiers. Yet, recruiting an all-volunteer force in a time of 
war presents challenges. The Army and the Nation face significant 
hurdles--from a lower propensity of young people to enlist, to a 
shrinking pool of fully qualified prospects, to an increasing trend of 
mid-grade Soldiers leaving the service.
    One initiative the Army Reserve is advocating to combat the loss in 
mid-grade ranks is a ``continuum of service'' for a fully integrated 
force--active and reserve. By presenting options, the Army Reserve 
hopes to create an environment for Soldiers to move back and forth 
among components as their personal lives and civilian careers dictate. 
We have taken this continuum concept a step further with our Employer 
Partnership Initiative by developing a human capital strategy model to 
leverage the skill sets of volunteers, the innovations of industry, and 
the human development capacity of the Army.
            Increasing Army Reserve End Strength
    During fiscal year 2008, the Army Reserve increased end strength by 
7,142 Soldiers. A successful community-based recruiting effort; 
targeted programs and incentives; and personnel policies to control 
unanticipated losses resulted in this substantial net gain.

    ----------------------------------------------------------------

                             Critical Needs
    Obtain from Congress full support and necessary authorities.
  --Sustaining recruiting and retention incentives for Army Reserve 
        Soldiers, with specific emphasis on mid-grade commissioned and 
        noncommissioned officers;
  --Developing and sustaining adequate full-time support (FTS) to train 
        and administer a fully functioning, robust, and capable 
        operational force, and to ensure Soldier and Family readiness; 
        and
  --Enhancing employer partnerships to optimize the development of 
        human capital for the mutual benefit of industry and national 
        security.

    ----------------------------------------------------------------

    In fiscal year 2008, the Army Reserve achieved 106 percent of its 
accessions goal and 111 percent of its reenlistment mission. Three 
critical initiatives contributed to this progress. Command emphasis and 
guidance provided the greatest impact focusing energy and effort on 
filling the ranks. The Army Reserve Recruiting Assistance Program (AR-
RAP) brought a tangible reward to Soldiers for finding other patriots 
to serve. This innovative recruiting assistance program produced 3,751 
accessions this past fiscal year. Finally, the Critical Skills 
Retention Bonus, Army Reserve (CSRB-AR), allowed us to address specific 
skill-set and grade shortfalls and retain much-needed talent and 
expertise in our ranks. These targeted financial incentives for 
continued service in critical specialties ensured 809 captains and 128 
experienced staff sergeants and sergeants first class stayed in 
uniform.
    As we gain momentum, building to a strength of more than 206,000 
Soldiers, and while the Army Reserve is within the congressionally 
mandated end strength window, we recognize a significant gap in 
capability. Overall, the Army Reserve is short on the order of 10,000 
officers in the grades of captain and major. In the enlisted ranks, we 
are challenged to develop and retain senior mid-grade noncommissioned 
officers (staff sergeants and sergeants first class). We are working 
aggressively to grow and shape the force to overcome these challenges. 
Continued re-sourcing of recruiting and retention incentives will 
maintain our manning momentum.
            Full-Time Support for an Operational Reserve
    We now have a strategy to guide the transformation of Full-Time 
Support (FTS) in the Army Reserve in order to better support our 
operational force in this era of persistent conflict and global 
engagement. In 2008, we developed an initial strategy called FTS 2017, 
which envisioned a culture shift in how we support the readiness and 
mobilization of Army Reserve units on a continual basis. This strategy 
defines and directs the effort to transform all aspects of Army Reserve 
full-time support. The strategy improves operational capability by 
providing a more dynamic, responsive, and flexible system to support 
global operations.
    Completing the transition from a strategic to a fully operational 
force requires more than having the right-sized full-time support 
force. The current full-time support model remains a strategic reserve 
legacy. Key legislative and policy modifications may be required to 
change personnel support processes. Evolving the full-time support 
program requires addressing: active-reserve Soldier staffing (AGRs); 
Army civilians; contractors; and unit members on orders beyond their 
statutory 39 training days per year.
    Currently three studies are under way to quantify full-time support 
issues and inform policy-makers. One study is determining the adequacy 
of full-time support billets across the Army Reserve and Army National 
Guard. Another study is providing a ``capabilities and competencies'' 
analysis of full-time support across the Army Reserve. The third is 
examining the use of dual-status military technicians within the Army 
Reserve. These studies will lead to the development of a capabilities-
based full-time support solution for the operational demands of the 
Army Force Generation (ARFORGEN) unit training and employment 
construct. We anticipate initial study recommendations by early fall 
2009. At that time, working with Congress, we will determine the 
optimum full-time support strategy and identify additional actions 
required to appropriately staff the organization to sustain the Army 
Reserve as an ARFORGEN-enabled operational force.
            Employer Partnerships
    The Army Reserve is implementing leading-edge employer relations 
programs that promote a continuum of service, sustain Soldiers' well-
being during mobilization periods, and provide career-enhancing 
employment opportunities. The Army Reserve's Employer Partnership 
Initiative benefits employers by referring highly qualified, competent, 
disciplined Soldiers to work within their communities. By collaborating 
with employers, the Army Reserve can augment existing Soldier 
proficiencies while simultaneously building new capabilities to 
complement civilian job and military skills. By aligning military and 
civilian credentialing and licensing requirements, the Army Reserve and 
partner employers optimize a shared workforce. As employers are 
critical for sustaining the Army Reserve, sharing the same talent pool 
of Soldier-employees builds mutually beneficial relationships. 
Developing and maintaining effective partnerships allows the Army 
Reserve and employers to capitalize on particular strengths while 
minimizing weaknesses.
    Our way ahead is to build a skill-rich organization by working 
closely with civilian employer partners. From an individual's 
perspective, we see it working this way: a local hospital struggles to 
find quality, skilled personnel to fill technical positions. The Army 
Reserve becomes a personnel source for this hospital through our 
Employer Partnership Initiative. We recruit an individual seeking to be 
a radiology technician. We train that individual as a Soldier and 
certify him or her as a radiology technician. After finishing advanced 
training, the Soldier walks into a civilian job with that local 
hospital where that Soldier continues to develop and refine his or her 
skills. Through our cooperative efforts, the hospital and the Army gain 
a more competent, more experienced, and more capable Soldier-employee.
    We see other advantages of partnering with employers. A major 
trucking company--our civilian partner--uses a state-of-the-art 
training center complete with truck driving simulators. Our Army 
Reserve Soldiers--employees of this trucking company--use the 
simulators to confront an array of driving hazards. The drivers train 
and work daily operating trucks safely on the road. When these Soldiers 
get in the cab of one of our military trucks, they are better, more 
experienced drivers. The training and experience they gain from our 
industry partner benefits the Army Reserve. America gets a better, more 
disciplined, service-oriented employee, a more skilled and capable 
truck driver, and a stronger Soldier.
    Over time, our Employer Partnership Initiative will become more 
than a key human capital strategy. It could well serve as the 
foundation of our identity. Two entities share and enhance the skills 
of one individual who contributes both to the defense of our Nation and 
to sustaining a robust national economy. We are building human capital 
in the Army Reserve and the private sector with highly skilled, career-
oriented Warrior-Citizens.
Readiness
    Our military success in the Global War on Terror depends on our 
ability to train and equip Army Reserve Soldiers and fully cohesive 
units for current and future operations. Training units for full 
spectrum operations is directly linked to resourcing. The Army Reserve 
applies a sophisticated training strategy to ensure Army Reserve 
warfighting unit readiness. Fully funding the Army Reserve integrated 
training strategy will ensure trained and ready Army Reserve units and 
individual Soldiers are available to meet the operational needs of the 
United States Army.
            Building an Effective, Fully Operational Force
    Army Reserve support of the fiscal year 2008 Grow the Army plan 
began with the realignment of 16,000-plus spaces from generating force 
structure to critically needed operating force structure. As the 
planned end-strength objective is to grow the Army Reserve by 1,000 to 
206,000 Soldiers, we are investing an additional 1,000 spaces to 
increase operating force structure. Together this translates to a total 
17,000-plus spaces of capability. In addition, the Army Reserve 
continues to rebalance and right size by employing new operating force 
modular command and control structure and reducing generating force 
command, control, and support structure. Streamlining command and 
control maximizes available forces to support Army operational 
requirements.
    Army Reserve units are now aligned to headquarters in the same way 
they are aligned on the battlefield. The Army Reserve streamlined its 
institutional force by replacing seven institutional training divisions 
with three training commands to provide initial entry, military skill 
reclassification, and professional and leader development. We harvested 
additional structure as four two-star regional support commands assumed 
the base support operations functions for more than 900 Army Reserve 
centers across the country. These four support commands relieve 
operational commands of facility and garrison-type service functions 
allowing the operational commands to focus on unit readiness and 
training. The Army Reserve continues to explore innovative structuring 
options to maximize the number of warfighting units available to 
support operations.

    ----------------------------------------------------------------

                             Critical Needs
    Obtain from Congress full support and necessary authorities.
  --Continuing transformation of Army Reserve support command structure 
        and the building of operational and functional commands, 
        properly organizing Soldiers and units to develop capability 
        for diverse national security missions;
  --Implementing the Army Reserve Training Strategy (ARTS) to develop 
        Soldiers and build cohesive, capable, and effective units while 
        maximizing Boots on the Ground and optimizing the Warrior-
        Citizens' impact and contribution to mission success;
  --Implementation of the training strategy involves three primary 
        elements:
    --Army School System Training Centers--for developing individuals
    --Regional Training Centers--for unit pre-mobilization training
    --Combat Support Training Centers--for rigorous mission-focused 
            training
  --Support for training man-days to sustain the Army Force Generation 
        (ARFORGEN) process and maintain the Army Reserve as a fully 
        operational force.

    ----------------------------------------------------------------

            Improving Medical and Dental Readiness
    Soldier medical and dental conditions have proven to be one of our 
greatest mobilization challenges. More than half of our Soldiers not in 
a mobilization or alert window are not ready to deploy. In 2008, the 
Army Reserve moved aggressively to improve medical and dental readiness 
by addressing a number of Soldier and Family health concerns. The Army 
Reserve Surgeon working with members of the Office of the Surgeon 
General, the U.S. Army Medical Command, U.S. Army Dental Command, the 
Army National Guard, Department of the Army G-3, the Chaplains Office 
and other agencies developed and implemented three paradigm-shifting 
initiatives to improve Soldier and Family readiness:
  --A comprehensive Reserve Component Soldier dental readiness program;
  --A Whole-Life Fitness program to improve the physical, emotional, 
        spiritual, social, family, finance, and career facets of 
        Soldier wellness;
  --A partnership with civilian medical and nursing schools to educate 
        and develop medical professionals for military service.
    Additionally the team identified medical readiness barriers and 
implemented measures to mitigate each obstruction.
    To ensure unit commanders know the status of their Soldiers' 
medical conditions, the Department of Veterans Affairs and the 
Department of Defense must effectively interface. The Reserve Health 
Readiness Program (RHRP) provides the platform for commanders and 
Soldiers to meet medical and dental readiness now. One significant 
advance for the Army Reserve is to develop and adopt automated 
information systems that interface with current medical data systems: 
Medical Protection System (MEDPROS), and eventually Veterans Health 
Information Systems and Technology Architecture (VISTA). The Army 
Reserve adapted a paperless dental record--DENCLASS--and is in the 
process of converting Soldiers' paper treatment records to the 
electronic health readiness records.
    Improving what we know about the status of Army Reserve Soldiers' 
health has set the conditions for the Army Reserve to implement two 
comprehensive treatment programs: Dental Readiness and Whole-Life 
Fitness. Working across agencies and leveraging civilian health care, 
we are treating dental problems and addressing holistically the well-
being of Soldiers and Families. This effort includes a mental health 
component and is appropriately linked with our Yellow Ribbon 
Reintegration Program efforts.
    We are supporting and promoting these medical and dental readiness 
initiatives with a multimedia communication outreach effort to all 
Soldiers and Families. Our communications efforts and these new 
programs coupled with TRICARE and TRICARE Reserve Select have allowed 
us to address in significant ways our medical and dental readiness 
challenges.
            Focus on Training Readiness
    The Army Reserve is committed to providing trained platoons, 
companies, and battle staffs to combatant commands. To fulfill this 
commitment the Army Reserve must be resourced as an operational force. 
While the mobilization training centers provide the finishing touch, 
the Army Reserve is responsible to develop and sustain the following, 
prior to mobilization: Adaptive, competent, and broadly skilled 
Soldiers prepared for changing operational environments; agile, 
adaptive, and culturally astute leaders; and rapidly deployable and 
employable, trained, ready, and cohesive units.
    We develop readiness through the execution of a progressive Army 
Reserve Training Strategy (ARTS). The training strategy uses the 
ARFORGEN model as the ``means'' to meeting mission commitments. 
Further, the strategy uses three training domains--Soldier, Leader 
Development, and Unit--as the ways of achieving desired training end-
states. The ``Soldier'' domain concentrates on completing individual, 
functional, warrior task, tactical and low-level collective training. 
The ``leader development'' domain entails completing professional 
military education and preparing leaders and battle staffs to execute 
full-spectrum operations and directed missions. The ``unit'' domain 
requires, through a progression of collective training events, 
achieving unit technical and tactical proficiency for collective tasks 
in full-spectrum and directed mission environments.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

            Preparing Army Reserve Forces for Future Missions
    Army Reserve forces are arrayed across the Army Force Generation 
(ARFORGEN) training and employment cycle. The duration of the entire 
cycle is 5 years. Our objective is for a unit to train for 4 years in 
preparation for an ``available'' year where the unit could mobilize and 
deploy. Army Reserve units flow through this cycle aligned within Army 
force pools to meet global mission demands. Units are to spend 1 year 
in the Reset pool, 3 years in Train/Ready pool, and 1 year in the 
Available pool. Army Reserve units can expect to deploy to meet theater 
commander requirements in the available year. Upon returning from a 
deployment, a unit begins the cycle anew.
            Army Reserve Training Centers
    Success in operationalizing the Army Reserve has hinged on our 
ability to reduce post-mobilization training in order to maximize in 
theater Boots on the Ground. In 2008, the Army Reserve stood up three 
regional training centers to execute theater-specific required tasks. 
These tasks are those perishable individual, crew, and leader warrior 
tasks and battle drills that Soldiers must complete to standard prior 
to arriving in theater. The regional training center initiative reduced 
the average amount of training time for Army Reserve units in mobilized 
status from 70 to 40 days, adding 30 days to Boots on the Ground time 
in theater. Currently, regional training centers are ad hoc training 
facilities supported by mobilized personnel and resourced with 
supplemental funds. When regional training centers are resourced we are 
able to leverage this success and ensure an enduring, pre-mobilization 
training capability.
    To further enhance readiness, one of the Army Reserve's key 
training efforts has been establishing a major collective training 
exercise capability--Combat Support Training Centers (CSTC). This 
exercise capability provides support forces a realistic collective 
training experience to assess tactical proficiency under rigorous 
conditions. A combat support training event tailors the environment and 
integrates extensive exercise support capabilities to include opposing 
forces and observer/controllers. The event provides opportunities for 
support brigades and their subordinate units to train on directed 
mission-essential tasks. The CSTC program leverages training readiness 
platforms to provide Army Reserve commanders an array of institutional 
and collective training capabilities to meet training requirements. The 
Army Reserve will conduct a CSTC proof of principle exercise at Fort 
McCoy in July 2009.
            Capabilities-based Army Reserve Centers
    To minimize turbulence for Soldiers and their Families caused by 
training demands during the first 2 years of ARFORGEN, the Army Reserve 
initiated an effort to create capabilities-based reserve centers to 
support full-spectrum individual-crew-squad-team training requirements. 
We are outfitting reserve centers with digital training capabilities 
and weapon simulator training rooms. This effort provides an array of 
targeted training enablers to meet the training needs of units. During 
2008, the Army Reserve established 53 digital training facility 
locations and three weapons simulator training rooms. The Army Reserve 
is working with the Army Training and Doctrine Command to determine the 
way ahead to field additional training enablers to make these state-of-
the-art facilities. The Army Reserve is also working to integrate these 
training capabilities into new facilities.
            Training Resources
    We are succeeding in managing unit readiness, with the new paradigm 
for training an operational Army Reserve force. Adequate funding allows 
the Army Reserve to execute pre-mobilization training man-days, develop 
infrastructure, and acquire the latest technology and equipment to meet 
pre-mobilization readiness objectives. We lack, however, the ability to 
fully train Army Reserve Soldiers on the same equipment the Army uses 
in the field.
            Reset Pilot Program
    The Army has established several recent key force readiness 
initiatives to prepare units for future missions. One of these 
initiatives is the Reset Pilot Program. Currently the Army Reserve has 
three pilot units for fiscal year 2008 and three for fiscal year 2009. 
In phase one of the program, units complete inventories in theater, 
report combat losses, direct equipment for reset, reserve quotas in the 
Army School System for unit Soldiers, and prepare for home station 
activities. Upon redeployment, the units move to phase two. The units 
conduct a Welcome Home Warrior-Citizen ceremony, focusing on Soldier, 
Family, and employer reintegration and reconstitution of the unit. If 
successful, this reset program will serve as a model to ensure 
redeploying unit readiness.
            Ready Response Reserve Unit (R\3\U) Pilot Program
    The R\3\U Pilot Program is a Department of the Army-directed 
initiative to test the feasibility of nontraditional access and 
employment of Army Reserve units. This pilot will test our ability to 
man, equip, train, and employ units in three specific capability 
categories: short or no-notice employment; support to known basic 
training surge requirements; and sustainment of dental readiness in the 
Army Reserve force. The pilot units being assessed in each category, 
respectively, are a platoon of a biological detection company, a 
company of drill sergeants, and a dental detachment. After bringing 
these units up to the highest levels of readiness during fiscal year 
2008 we will evaluate their readiness during fiscal year 2009. Key 
tenets of an R\3\U are that they are manned with all volunteers, that 
they sustain a high level of readiness, and that they are used outside 
of the traditional ``one weekend a month, 2 weeks annual training'' 
concept of reserve duty. For example, the drill sergeant company will 
conduct a complete 10-week basic combat training cycle at Fort Jackson, 
South Carolina, during fiscal year 2009. Usually, it takes five drill 
sergeant companies 2 weeks each to accomplish that one cycle. The R\3\U 
Pilot will test the Army Reserve's ability to sustain nontraditional 
units like this and provide non-mobilized, enhanced capabilities to 
meet specific Army requirements.
            Meeting Homeland Defense and Disaster Relief Missions
    The Army Reserve can be a federal first-responder to support civil 
authorities during domestic emergencies. As such, the Army Reserve is 
an important element of the current DOD ``Lead, Support, Enable'' 
strategy for homeland defense and civil support. U.S. military forces 
organize, train, and equip to operate in contaminated environments, as 
well as manage the consequences of chemical, biological, radiological, 
or nuclear explosion incidents. The Army Reserve was recently tasked to 
provide increased support as a federal responder for man-made or 
natural disaster situations.
Materiel
    Patriotic men and women who join the Army Reserve today know that 
mobilization and deployment are a reality, not a possibility. Our 
Nation expects much from our Warrior-Citizens, their Families, and 
their employers.
    When preparing to perform a dangerous mission, our Soldiers must 
have modern equipment and state-of-the-art training facilities. The 
Army Reserve is working hard to make these requirements a reality. 
During fiscal year 2008, we continued to refine our sustainment concept 
supporting the Army Reserve Training Strategy (ARTS) and the ARFORGEN 
model. We fielded new equipment; repaired, reset, and reconstituted 
unit equipment; adjusted equipment sets at regional training centers; 
redeployed support assets (manpower, tools, and support equipment) to 
sustain those sets; and continued to field aviation capability in 
accordance with the Army Campaign Plan. As we develop more competent 
and capable Soldiers and unit teams, we seek to provide those teams 
with the best tools available to accomplish diverse and challenging 
national security missions.
            Unit Equipment
    The Army Reserve has been successful meeting expeditionary demands 
primarily by falling in on stay-behind equipment or receiving new 
equipment in theater. We have managed our domestic contingency response 
and training missions by aggressively managing equipment on hand, 
authorized substitutes, and training sets. Looked at holistically, 
however, today the Army Reserve faces momentous equipping challenges.
    The Army Reserve has 73 percent of its required equipment on hand. 
Under currently programmed funding, the Army Reserve should reach 85 
percent equipment on hand by fiscal year 2016 with the goal of 100 
percent on hand by fiscal year 2019.

    ----------------------------------------------------------------

                             Critical Needs
    Obtain from Congress full support and necessary authorities.
  --Equipping Army Reserve units with the latest, fully integrated, 
        modular force equipment to develop Soldier skills and unit 
        equipment mastery through realistic training in years two and 
        three of the ARFORGEN cycle;
  --Equipping Soldiers and units with all the latest required and 
        authorized, fully integrated, modular force equipment to 
        accomplish deployment and contingency standby missions in 
        accordance with the ARFORGEN construct and national security 
        mission demands of the ARFORGEN employment cycle; and
  --Resetting and reestablishing unit readiness, replacing lost, 
        damaged, and committed (theater stay-behind) equipment 
        expeditiously to ensure optimum training and mission readiness 
        sustaining the world-class operational Army Reserve.

    ----------------------------------------------------------------

            Army Reserve Aviation
    The Army Reserve currently has a fleet of more than 130 aircraft--
fixed and rotary wing for combat and support operations. In addition to 
sustaining current capability, the Army Campaign Plan identifies growth 
of three aviation medical evacuation companies within the Army Reserve. 
The first company is standing-up in Clearwater, Florida. Congress 
initially approved $1.6 million to lease and modify existing hangar 
space for the aviation company over the next 5 years. As the Army 
Reserve aviation capability grows, Department of the Army has agreed to 
replace 10 King Air 350 aircraft the Army Reserve provided for 
operations in Iraq. The Army Reserve needs these aircraft to ensure the 
readiness of fixed wing aviation warfighting formations. Continued, 
previously funded, multi-year procurement and replacement of aircraft 
transferred to theater and associated aviation support infrastructure 
are essential to optimizing the Army Reserve's aviation capability.
            Depot Maintenance
    In fiscal year 2008, the Army Reserve executed $130 million in 
programmed depot maintenance funds to overhaul 3,256 major end items at 
Army depots or by commercial facilities. The Army Reserve depot 
maintenance program allows the Army Reserve to extend equipment service 
life, reduce life cycle costs, and maintain safe operation of older 
pieces of equipment. Through maintenance and restoration programs, the 
Army Reserve is able to restore and maintain older items to sustain 
unit capabilities while we wait for the fielding of modern modular 
force equipment.
Services and Infrastructure
    Our Warrior-Citizens are the lifeblood of the Army Reserve. They 
live and work in civilian communities across the country while 
volunteering to serve the Nation. They all serve at a time when the 
stakes for our national security are high and the demands they and 
their Families face are significant. America owes them the best quality 
of life and health care possible.
    The Services and Infrastructure element of the enterprise approach 
encompasses those programs, facilities, and systems that improve the 
well-being of Soldiers and their Families, and supports key management 
processes to ensure readiness and promote Army Reserve institutional 
transformation.
            Yellow Ribbon Reintegration Program
    The Army Reserve Yellow Ribbon Reintegration Program provides 
information, services, referral, and proactive outreach programs to 
Army Reserve Soldiers and their Families through all phases of the 
deployment cycle. The goal of the Yellow Ribbon Reintegration Program 
is to prepare Soldiers and Families for mobilization, sustain Families 
during mobilization, and reintegrate Soldiers with their Families, 
communities, and employers upon release from active duty. The program 
includes information on current benefits and resources available to 
help overcome the challenges of reintegration. The program is comprised 
of seven events through all four phases of the deployment cycle. 
Soldiers are required, and Families highly encouraged, to attend a 1-
day event at alert and again at pre-deployment to help ensure the 
Soldier and Family are prepared for an extended deployment. During the 
separation, commands provide two 1-day events to help sustain Families 
mentally, spiritually, and emotionally. For the local events, we 
leverage local resources as necessary. Upon redeployment, the Soldier 
is required, and Family members highly encouraged, to attend a 30- and 
60-day reintegration weekend. We conduct a ``Soldiers only'' weekend 
event 90 days post-deployment to perform Post Deployment Health Re-
Assessments (PDHRA). During this weekend, Soldiers also participate in 
small group discussions to explore and resolve any lingering deployment 
issues.

    ----------------------------------------------------------------

                          Critical Challenges
    Obtain from Congress full support and necessary authorities.
  --Developing, improving, and sustaining Soldier and Family programs 
        to achieve comprehensive Soldier and Family well-being across 
        relationship, spiritual, health, and fitness dimensions;
  --Sustain a robust and appropriately integrated secure communications 
        and information technology to connect Army Reserve Soldiers and 
        units across the Army enterprise ensuring the Army Reserve 
        remains an effective, contributing operational component of the 
        total force;
  --Providing the facilities to train and sustain the Army Reserve as 
        an active, integrated, robust, and capable operational force. 
        The Army Reserve is managing facilities and infrastructure 
        transformation through three main efforts:
    --Base Realignment and Closure (BRAC) to consolidate and modernize;
    --Accommodating ``Grow the Army'' and emerging mission set facility 
            and training center requirements to optimize unit 
            disposition, training, and readiness;
    --Improving maintenance facilities and storage capacity to ensure 
            unit readiness and maximize equipment service life.

    ----------------------------------------------------------------

            Spiritual Care
    Army Reserve Soldiers, Families, and Army civilians deserve the 
best religious support and spiritual care available. In addition to 
providing pastoral support and direct ministry, unit ministry teams 
(chaplains and chaplain assistants) provide training and education in a 
variety of fields: Strong Bonds, Basic Human Interaction, Suicide 
Intervention and Prevention, Clinical Pastoral Education, Traumatic 
Event Management, and Family Life Chaplain Skills. All these services 
aid in providing this spiritual care to the Army Reserve Family.
    Over 200 Strong Bonds events were conducted by Army Reserve 
commands throughout the country and territories during fiscal year 
2008, enhancing Soldier and Family communication and relationship 
skills. The Army Reserve provided specialized training for couples, 
Families and single Soldiers during pre- and post-deployment. This 
training helps Soldiers and Families relieve stress and address 
relationship issues during every phase of deployment.
    Army chaplains are key enablers of Soldier well-being. Today there 
is a critical shortage of chaplains in the grades of captain and major. 
To address this issue, the chaplain corps partners with religious 
organization endorsers to help recruit and retain high-quality 
chaplains, chaplain assistants, and civilians committed to a 
professional Army chaplaincy.
            Army Reserve Warrior and Family Assistance Center (AR-WFAC)
    The Army Reserve Warrior and Family Assistance Center ensures that 
Warrior-Citizens receive appropriate support under the Army Medical 
Action Plan. This center provides a sponsor to each Army Reserve 
Soldier and Family currently assigned to a Warrior Transition Unit 
(WTU), Community Based Health Care Organization (CBHCO), or Veterans 
Affairs PolyTrauma Center. It also manages a toll-free hotline (1-866-
436-6290) and Web site (www.arfp.org/wfac) to provide Army Reserve 
Soldiers, Families, and Retirees with assistance in areas such as 
medical, financial, administrative, and pastoral issues.
            Family Programs and Services
    The Army Reserve Family Programs (ARFP) is committed to fostering 
Army Strong Families. We continue to develop and evolve to meet Soldier 
and Family needs. ARFP capabilities include program management, 
marketing, information, follow-up and referral, mobilization, 
deployment and reintegration, partnerships, outreach, training and 
development, crisis management, and command consultation. Our vision is 
to have a Family Programs ``face'' at every battalion or equivalent 
formation to promote resilient Soldiers, Families, and volunteers.
    Army Family Covenant.--The Army Family Covenant recognizes the 
commitment and strength of Soldiers and Families, while committing to a 
supportive environment and a partnership with Army Families. Together, 
we must make the Army Family Covenant a reality, focusing on the five 
deliverables: Family Programs and Services; health care; Soldier and 
Family housing; excellent schools, youth services, and childcare; and 
expanded employment and education opportunities for Family members.
    Family Readiness Groups.--Army Reserve Families participate in 
Virtual Family Readiness Groups (VFRG) utilizing information and 
resources provided by the Army's integrated Family support network, now 
called Army One Source. We have begun hiring 127 Department of the Army 
civilian Family Readiness Support Assistants (FRSA) to provide 
administrative and logistical support to volunteer Family readiness 
group leaders. Taking the administrative burden off volunteers enables 
Family readiness group leaders to concentrate on outreach to Soldiers 
and Families in the command.
    Outreach.--Family Programs published its third issue of ``Family 
Strong''--a full-color quarterly publication providing Family Readiness 
information to all Army Reserve households of deployed Soldiers. The 
entire Army Reserve population will receive future issues of this 
publication. Family Programs continues to enhance its online 
information portal, www.arfp.org, to meet the needs of Soldiers and 
their Families 24 hours a day, 7 days a week. The Family Programs 
outreach and support office is available to Soldiers, Families, and 
civilian employees at 1-866-345-8248.
    Welcome Home Warrior-Citizen Award Program (WHWCAP).--This welcome 
home program publicly recognizes the sacrifices Army Reserve Soldiers 
and their Families make on behalf of the Nation. Since the program's 
inception in fiscal year 2004, 124,887 Soldiers, their Families, and 
employers have received special awards honoring their service and 
support.
    Child, Youth, and School Services (CYSS).--Child, Youth and School 
Services supports readiness and well-being of geographically dispersed 
families by reducing the conflict between parental responsibilities and 
mission requirements. CYSS has 21 full-time staff members dedicated to 
ensuring children of our Warrior-Citizens have support in their 
communities throughout the deployment of their loved ones. Programs and 
initiatives meet the needs of children from youth to young adult and 
include childcare, youth development, and school support services.
    Reserve Enrichment Camps.--Enrichment camps provide youth an 
opportunity to learn new skills, develop relationships, and learn more 
about the Army Reserve. In 2007, we conducted the first two Army 
Reserve Enrichment Camps in North Carolina and Wisconsin, serving 100 
Army Reserve youth. In 2008, we expanded the program to include five 
more campsites that served an additional 250 Army Reserve children.
            Support to Families of Our Fallen Soldiers
    The Army Reserve has lost 170 Warrior-Citizens to date in 
Operations Enduring Freedom and Iraqi Freedom. We recognize the 
ultimate sacrifice these Soldiers and their Families have made for the 
cause of freedom, and we proudly honor our fallen comrades in 
ceremonies and with personal tributes. By remembering the distinguished 
service of our fallen, their selfless acts of bravery and leadership, 
the Army Reserve remains Army Strong. As part of our commitment to the 
Families of the fallen, the Army Reserve conducts memorial services to 
honor their loved ones' sacrifices, offers chaplain support if 
requested, as well as ongoing support to help the Families through the 
difficult time. Soldier Outreach Services currently falls under Army 
Reserve Family Programs and is coordinated through the Chaplains' 
Office in the Warrior and Family Assistance Center.
            Communication (Information Technology)
    The Army Reserve is implementing a 5-year secure communications 
project that includes secure data, voice, and video to the battalion 
level. Secure communications capabilities are essential to unit 
preparation and training. As units move through the ARFORGEN cycle, 
secure communications connectivity will reduce time required for pre-
mobilization by allowing access to classified information and ``real 
world'' data not currently available through unclassified means.
    Supporting Army information technology enterprise operations, the 
Army Reserve is leading the way to consolidating network management and 
data center services. Consolidation of services generates efficiencies 
and supports the Army's Global Network Enterprise Construct (GNEC). The 
return on investment will support future information technology 
improvements to increase Army Reserve unit readiness.
    The Army Reserve must have highly integrated information technology 
capabilities from the tactical to strategic level--technologies that 
are both modular and scalable. In order to provide these integrated 
capabilities, the Army Reserve must move toward network-managed 
services to reduce overall operating costs, while maintaining 
acceptable service levels nationwide. Sustaining Army Reserve 
information technology capabilities is essential to a fully operational 
Army Reserve.
            Army Reserve Facilities and Base Realignment and Closure 
                    (BRAC)
    In the midst of the ongoing war and transformation efforts to grow, 
restation, and modernize the Army, the Army Reserve is building new 
capability. The Army Reserve is disposing of obsolete facilities and 
constructing new state-of-the-art training, maintenance, and 
administrative facilities. In fiscal year 2009, the Army Reserve will 
initiate 12 ``Grow the Army'' projects, 21 BRAC projects, and eight 
Military Construction Army Reserve (MCAR) projects. We are working 
aggressively to address all our facilities and infrastructure 
requirements to ensure Soldiers receive the best training and support 
possible, and that we adequately support and maintain on-hand and 
inbound modular force equipment to ensure unit readiness.
    The initial BRAC 2005 assessment underestimated the facility 
requirements of the number of units and Soldiers in facilities 
identified for closure. This impacts force readiness. To mitigate some 
of these BRAC costs, the Army Reserve, through our Transformation 
Integration Office, provides detailed planning and systematic follow-
through for each BRAC action. We manage from land acquisition, from 
coordination with local redevelopment authorities, to final property 
closure and disposal. This level of attention to specific BRAC mandates 
enables our commanders to plan unit relocation while minimizing impact 
on operational missions.
    Through our construction efforts, we intend to provide a facilities 
support framework to support and sustain Army Reserve transformation. 
We will maximize the utilization of Army Reserve installations and 
facilities at Fort Dix, Fort McCoy, Fort Buchanan, Fort Hunter Liggett, 
and the Combat Support Training Center at Camp Parks to support 
ARFORGEN. We have embraced a ``retool mindset'' and are thinking 
jointly with other components and services wherever possible. We will 
maintain our community-based presence, and provide flexible, multiuse, 
complete facilities for our units. By reducing our footprint where 
possible, we seek to optimize the return on investment. The Army 
Reserve is building readiness.
            Business Transformation
    The Army Reserve is constantly looking for ways to streamline 
operations, improve unit readiness, develop greater efficiencies--in 
short, increase the rate of return on investment Americans make in the 
Army Reserve.
    One example of the success of our efforts is our increasing the 
Boots on the Ground time for Army Reserve units through restructuring 
pre- and post-mobilization training processes. The goal was to reduce 
training time for mobilized units to no more than 45 days, to maximize 
potential ``boots on the ground'' for a 1-year deployment. We 
approached the challenge deliberately identifying three unit elements 
requiring very different training regimens: combat support hospitals, 
military police companies, and engineer companies. By streamlining the 
pre- and post-mobilization training schedules and eliminating 
unnecessary and duplicate activities, we reduced training time by an 
average of 38 days. This resulted in post-mobilization cost savings 
ranging from $768,000 to $5.6 million per unit deployed. Intangible 
benefits identified include compliance with the Train-Alert-Deploy 
foundation of ARFORGEN, reducing rotational span, and realigning pre- 
and post-mobilization training. While these projects focused on 
specific types of units, the results and findings are universally 
applicable to Army Reserve units.
    Through other business transformation initiatives, we improved the 
Army Reserve's active component to reserve component transition rate. 
We achieved the highest transition rate in the program's history, with 
a projected cost avoidance of approximately $13 million in training 
dollars for fiscal year 2008. Through our business process 
transformation efforts we further decreased the processing time for 
incapacitation pay from 79 to 45 days. The Army Reserve is a forward-
looking, progressive organization. We will continue to seek to maximize 
America's return on investment.
              army reserve generating return on investment
    The Army Reserve today is undoubtedly a strong return on investment 
for America. We are an effective, cost efficient organization that 
complements the needs of the Army. The Army Reserve delivers combat 
support and combat service support capability to the Army for America's 
defense. Our value to America goes beyond providing military 
capability. Working with our civilian partners, we are building a human 
capital strategy where both employer and military share and enhance the 
skills of one individual, who contributes both to the defense of our 
Nation and to sustaining a strong national economy. Bottom line, the 
Army Reserve gets a better Soldier; the employer gets a better 
employee. That is a good investment for America.
    The values and talents that are a part of our skill-rich 
organization benefit this nation beyond the traditional role of 
defense. This is the legacy of our Warrior Citizens. When we produce 
truck drivers for America's trucking industry, medical technologists 
for America's medical community, law enforcement officers for America's 
law enforcement agencies, among other specialties, it is a good value 
for America.
    Transitioning the Army Reserve from a strategic reserve to an 
operational force is also good value for this nation. It is difficult 
and complex to operationalize the reserve component, especially in a 
wartime environment; however, we are making it happen. We are moving 
away from a legacy structure that served us well as a strategic reserve 
to a leaner organization that accommodates command and control of an 
operational force. Using the Base Realignment and Closure (BRAC) 
Commission mandate, we are also restructuring to add capability for the 
future. This is the capability we need to support new Army missions, 
such as Stability Operations. We are supporting the requirements of 
this expanding new mission by adding civil affairs professionals, 
transportation specialists, engineers, and military police as part of 
our internal reorganization while adding about 16,000 operational 
spaces of capability for the future. The Army Reserve is doing the 
right thing internally while transforming externally.
    Our success in current and future military operations is dependent 
on our ability to man, equip, train, and prepare Army Reserve Soldiers 
as full cohesive units for current and future operations. Our force of 
Warrior Citizens serves the Nation as an operational force for which 
they are not designed nor resourced; as a result, our primary focus is 
on the demands of current operations. With sufficient means, we cannot 
only grow and transform the force, but we can also train Soldiers and 
units during an era of persistent conflict. We, however, risk failure 
if faced with a rate of change that exceeds our capability to respond.
    We take our commitments to our Nation, to our Army, and to our 
Soldiers, Families, and our Employer Partners seriously. We are 
effective stewards of our Nation's resources. We serve with an 
unwavering pride that the America's sons and daughters willingly answer 
the call to duty in a time of war or national emergency. As we position 
ourselves as an essential provider of combat support and combat service 
support to the United States Army, we look to Congress and our fellow 
citizens for strength and support as our partners in building an 
operational Army Reserve for the 21st century.
                            special honorees
                        award of the silver star
    Sergeant Gregory S. Ruske is the fourth Army Reserve Soldier to 
receive the Silver Star for heroism.
    Sergeant Gregory S. Ruske of Colorado Springs, Colorado, earned the 
Silver Star for placing himself in the line of enemy fire while he 
planned and led the rescue of an Afghan National Police officer felled 
in a firefight. While assigned to Combined Joint Task Force 101, 
operating in Afghanistan's Kapisa province, he and his fellow Soldiers 
from 3rd Platoon, ``A'' Company, Task Force Gladiator, were on a patrol 
in a remote area when Taliban operatives attacked them with heavy 
grenade, machine-gun and rifle fire.
    Trapped with his unit out in the open, Sergeant Ruske returned fire 
so most of the platoon could move to protective cover. After taking a 
bullet to the hip, Sergeant Ruske repositioned himself to a rooftop and 
continued laying fire.
    At that point, Sergeant Ruske realized that two Afghan National 
Police officers were pinned down in the open, taking fire from their 
Taliban attackers. One ran for cover, but the other officer--one 
Sergeant Ruske had worked with at vehicle checkpoints and chatted with 
through an interpreter--had been shot and was trying to crawl to safety 
through a hail of bullets.
    Sergeant Ruske said he did not take time to think about his own 
safety, but simply reacted using the training the Army Reserve gave him 
in preparation for combat.
    Sergeant Ruske credited his mentor during his 3 years of active 
duty, Sergeant First Class Glen Boucher, with instilling the discipline 
and skills that he drew on while under fire.
    ``I don't consider myself a hero,'' he said. ``I was just an 
ordinary guy put in an extraordinary situation. I reacted based on my 
upbringing, training, and compassion, and thankfully, it worked out in 
the end.''
        first army reserve soldier wins army soldier of the year
    ``Best Warrior is a tremendous honor; however, the real `Best 
Warriors' are those who serve, those who have served, and those who 
desire to do so. To represent the United States Army Reserve Command at 
the Department of the Army level means I have a responsibility to bring 
due-credit to the Army Reserve training and leadership of which I am a 
product,'' said Army Soldier of the Year, Specialist David Obray.
    Specialist David Obray is a Construction Equipment Repair 
Specialist with the U.S. Army Reserve, 492nd Engineer Company, 414th 
Engineer Command, Mankato, Minnesota.
    With 3 years experience in the U.S. Army Reserve, Specialist Obray 
is the first Reserve Soldier to win the prestigious Army title.
    A native of Fairmont, Minnesota, Specialist Obray attends Winona 
State University where he is president of the Student Association and 
pursuing a bachelor's degree in Law & Society and Business Law. His 
plans include obtaining a Juris Doctorate and Master of Business 
Administration degree, retiring from the Army Reserve as a Command 
Sergeant Major, and pursuing his dream of becoming a United States 
Senator.
    For Specialist Obray, service to country is a family business. His 
sister and brother currently serve in the Army, and his grandfather and 
great-grandfather served in World War II and World War I respectively.
    Specialist Obray's Army goals include becoming a fire team and 
squad leader and a Battalion Command Sergeant Major. Weighing 300 
pounds at age 16, Specialist Obray credits military discipline with 
giving him the courage and ability to become physically and mentally 
fit. He is proud to represent the U.S. Army as ``Soldier of the Year.'' 
``The Best Warrior is the personified Strength of the Nation,'' says 
Specialist David Obray. ``The title represents the entire United States 
Army and shows the proficiency of all Soldiers and Noncommissioned 
Officers. It is a great honor to be selected.''
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                         army reserve snapshot
    Vision.--A community-based federal operational force of skill-rich 
Warrior-Citizens providing complementary capabilities for joint 
expeditionary and domestic operations.
    Mission.--To provide trained and ready Soldiers and units with the 
critical combat service support and combat support capabilities 
necessary to support national strategy during peacetime, contingencies 
and war.
    Desired End State.--An Army Reserve with a culture that embraces 
continuous transformation, is capable of predictably and perpetually 
providing relevant operational forces to Combatant Commanders, and 
maintains strong mutually supporting Warrior-Citizen relationships 
among Soldiers, Families, Army Reserve Civilians, Employers, and the 
Army.
Key Leaders
    Secretary of the Army: The Honorable Pete Geren
    Army Chief of Staff: General George W. Casey, Jr.
    Chief, Army Reserve and Commanding General, U.S. Army Reserve: 
Lieutenant General Jack C. Stultz
    Deputy Commanding General, U.S. Army Reserve Command: Major General 
Alan D. Bell
    Deputy Chief Army Reserve: Major General Mari K. Eder
    U.S. Army Reserve Command Chief of Staff: Colonel Charles E. 
Phillips, Jr.
    Deputy Chief Army Reserve: Brigadier General Julia A. Kraus
    Director for Resource Management: Mr. John C. Lawkowski
    Chief Executive Officer: Mr. Kenneth N. Williamson
    Command Chief Warrant Officer: Chief Warrant Officer 5 James E. 
Thompson
    Command Sergeant Major: Command Sergeant Major Leon Caffie
Army Reserve Basics
    Established: April 23,1908
    Designated Direct Reporting Unit to Army: October 1, 2007
    2010 Authorized End Strength: 206,000
    Selective Reserve Strength: 202,500
    Accessions for Fiscal Year 2008: 44,455
    Reenlistments for Fiscal Year 2008: 16,523 (111 percent of annual 
goal)
    Accessions Goal for Fiscal Year 2009: 43,154
    Soldiers Currently Deployed: >27,000
    Soldiers Mobilized Since September 11, 2001: >170,000
    Number of Army Reserve Centers: 1,136
Distinctive Capabilities
    The Army Reserve contributes to the Army's Total Force by providing 
100 percent of the:

Chemical Brigades

Internment Brigades

Judge Advocate General Unit

Medical Groups

Railway Units

Training & Exercise Divisions

Water Supply Battalions


    . . . more than two-thirds of the Army's:

Civil Affairs Units

Psychological Operations Units

Transportation Groups

Motor Battalions

Chemical Battalions

Hospitals

Medical Brigades

Theater Signal Commands


    . . . and nearly half of the Army's:

Petroleum Battalions

Adjutant General Units

Petroleum Groups

Transportation Command

Terminal Battalions

Public Affairs Units

Army Reserve Demographics

------------------------------------------------------------------------
                                                                No.
------------------------------------------------------------------------
Ethnicity (in percent):
    Caucasian...........................................            59.7
    Black...............................................            22.0
    Hispanic............................................            12.3
    Asian...............................................             3.4
    Pacific Isl.........................................             1.0
    Native Amer.........................................             0.7
Average Age.............................................            38.8
    Officers............................................            30.6
    Enlisted............................................            41.8
    Warrant.............................................            44.1
Married (in percent)....................................            44.5
    Officers............................................            63.1
    Enlisted............................................            39.6
    Warrant.............................................            73.0
Gender (in percent):
    Male................................................            76.1
    Female..............................................            23.9
------------------------------------------------------------------------

Army Reserve Budget Figures

------------------------------------------------------------------------
                                           Total fiscal    Total fiscal
                                             year 2009       year 2010
                                           budget: $7.5B  program: $7.9B
------------------------------------------------------------------------
Operations and Maintenance..............           $2.6B           $3.1B
Military Personnel......................           $4.6B           $4.4B
Military Construction...................           $282M           $381M
------------------------------------------------------------------------

Army Reserve Installations
    Fort Buchanan, Puerto Rico
    Fort McCoy, Wisconsin
    Devens, Massachusetts
    Fort Hunter Ligget, California
    Fort Dix, New Jersey
    Camp Parks, California

    Chairman Inouye. May I now call upon Admiral Dirk Debbink?
STATEMENT OF VICE ADMIRAL DIRK J. DEBBINK, CHIEF, NAVY 
            RESERVE
    Admiral Debbink. Chairman Inouye, Vice Chairman Cochran, 
pleasure to be with you this morning. Thank you for the 
opportunity to testify before you. As you know, this is my 
first testimony before the subcommittee. I would like to begin 
by thanking you for your terrific support of the 67,217 sailors 
and their families that comprise your Navy Reserve.
    I would like to communicate three things to you in my 
testimony today. First and foremost, my written testimony goes 
into some length describing what we are doing for our Navy 
today and, by extension, our Nation. As I testify this morning, 
Navy Reserve sailors are operating in every corner of the 
world, and you see our sailors in the news, but you do not see 
the caption that reads ``Reserve'' because we are part of the 
total force, and seeking to optimize the way we operate as a 
total force Navy. From certifying strike groups at home before 
they deploy overseas, to our naval special warfare teams in 
Iraq, Afghanistan, and around the world, our sailors are making 
significant contributions across the full spectrum of both 
naval and joint operations. And we are very closely linked with 
the active component and our civilians to constitute the total 
force our Navy depends on every day to execute our maritime 
strategy and our national tasking.
    Second, I would like to tell you more about the outstanding 
sailors who are actually doing the work of our Navy Reserve. 
Following a strength reduction of nearly 25 percent since 2003, 
our central focus of our manpower strategy is now to establish 
a true continuum of service culture. This is a culture that 
offers our sailors the opportunity to truly be a sailor for 
life, providing a life/work balance that accommodates 
individual circumstances while also sustaining the inventory of 
skilled and experienced professionals we need for our total 
force missions.
    And finally, I would like to bridge from the what we are 
doing and who is doing it to communicate what I believe is a 
real value proposition of the Navy Reserve. We are proud of 
what we bring to the fight today. We are also acutely aware of 
the necessity of our long-term contribution to our Navy and our 
Nation, and I believe we are demonstrating that daily by the 
incredible return on investment that your Navy Reserve 
represents. Today's Navy Reserve, from civil affairs to Navy 
SEALs, are integral to total force; and we stand shoulder to 
shoulder with our active component executing full-spectrum 
operations that represent every facet of Navy's global maritime 
strategy for the 21st century. We have proven ourselves to be a 
ready, responsive, and adaptive operational force while 
maintaining our strategic depth. This is an important and, I 
think, very meaningful time for all of us to be serving our 
Nation's defense and particularly, I would assert, as a 
reservist.
    I thank you for your continued support and I look forward 
to your questions, sir.
    Chairman Inouye. I thank you very much, Admiral.
    [The statement follows:]
           Prepared Statement of Vice Admiral Dirk J. Debbink
                              introduction
    Chairman Inouye, Senator Cochran, and distinguished members of the 
Defense Subcommittee, thank you for the opportunity to speak with you 
today about the capabilities, capacity, and readiness of the dedicated 
men and women who serve in our Navy's Reserve Component (RC). I offer 
my heartfelt thanks for all of the support you have provided these 
great Sailors.
    On July 22 last year I had the distinct honor of reporting to the 
Chief of Naval Operations (CNO), Admiral Gary Roughead, as the 12th 
Chief of Navy Reserve. In that capacity, I have the privilege of 
working for over 67,000 Sailors in our Navy's RC. I take to heart that 
each of them has promised to support and defend the Constitution of the 
United States, against all enemies, foreign and domestic. That promise 
is their covenant to our Nation, and my covenant back to these Sailors 
is to do everything I can to make their service truly meaningful, 
significant, and rewarding; these Sailors form an incredibly capable 
and motivated force, and they deserve nothing less. I find myself 
amazed and truly in awe of the daily sacrifices our RC Sailors are 
making for our Nation and our Navy.
    My predecessor, Vice Admiral John Cotton, laid a strong foundation 
during the past 5 years for a more responsive and operational force; 
and we are a better Navy because of his leadership. We remain steady on 
course and we will look to increase speed where able by improving upon 
our strengths and efficiencies to further advance our ``Support to the 
Fleet . . . Ready and Fully Integrated.'' We are also working on new 
initiatives in order to more fully implement the Navy Reserve's vision 
of: ``Ready Now. Anytime, Anywhere.''
    The Navy Reserve is an integral component of our Total Force--
inextricably linked with the Active Component (AC), civil servants, and 
contractor personnel. Our focus is on strategic objectives and specific 
initiatives that will enable us to optimize our support for the CNO's 
priorities: (1) Build the Future Force, (2) Maintain Warfighting 
Readiness, and (3) Develop and Support our Sailors, Navy Civilians, and 
Families. Within this framework, I would like to take this opportunity 
to update you on the operational contributions, support to the Sailor 
and family, and the people policies and programs of the Navy Reserve.
                       operational contributions
    The Navy's RC contributions are directed when and where they make 
the most operational and cost-effective sense--the right Sailor, in the 
right assignment, at the right time, and importantly, at the right 
cost. Leveraging valuable military and civilian skill-sets and 
capabilities--when possible and consistent with volunteerism--Navy 
Reservists operate in all corners of the world. RC Sailors are on the 
ground in Iraq and Afghanistan; they help project power from the 
Arabian Gulf; and they aid in providing a stabilizing influence in the 
Eastern Mediterranean. They patrol waters off the Horn of Africa and 
deliver humanitarian assistance and disaster relief throughout the 
world.
    To meet global requirements, the Navy continues to mobilize 
thousands of Selected Reserve (SELRES) RC personnel. These mobilized 
SELRES personnel provide a growing spectrum of capabilities to 
prosecute our current fights by integrating seamlessly into a multitude 
of augmentation missions, in addition to mobilizing as Navy units. We 
are called to execute missions well beyond core requirements with new 
capability missions (Civil Affairs Units, Mobile Training Teams, and 
Provincial Reconstruction Teams, in particular) and mission-unique 
training such as Detainee Operations and Customs Inspection battalions. 
One-third of Navy augmentees currently serve in non-traditional 
missions that involve new capabilities or require unique training. 
Mobilized SELRES Sailors have sustained their largest footprints in 
Iraq (1,018 Sailors), Kuwait (796 Sailors), and Afghanistan (277 
Sailors). At the Landstuhl Regional Medical Center (LRMC), more than 90 
percent of the expeditionary medical support personnel are RC 
augmentees. Navy RC medical augmentees are generally activated for 
mobilization employment periods from 3 months to 1 year from various 
Operational Health Support Units to form the highly valued Navy 
Expeditionary Medical Units (NEMUs). Over 380 RC medical personnel 
served in our NEMUs in 2008, and 294 are expected to serve in 2009 and 
2010.
    In addition to the contributions of mobilized SELRES and those 
conducting Active Duty Operational Support in fiscal year 2008, an 
additional 21,803 Navy Reservists provided 385,291 man-days of Fleet 
Operational Support above the traditional 39 days each SELRES provides 
under current law. The Navy Expeditionary Combat Command (NECC) sets 
the example of RC's operational contributions. Led by Rear Admiral 
Carol Pottenger--a Full Time Support (FTS) Officer of the RC (the Navy 
RC equivalent of Active Guard and Reserve (AGR)), its expeditionary 
forces deployed across five continents and 12 countries in 2008, and 
continue fighting the war on terror and supporting the Global Maritime 
Strategy. With 48 percent of the NECC force comprised of RC members, 
NECC's global support to the Navy Component Commanders (NCCs) and 
unified Combatant Commanders (COCOMs) is only executable with integral 
contributions from the RC. In 2008 alone, nearly 2,300 RC members from 
17 NECC units deployed globally, with more than 95 percent of the 
deployed units and personnel supporting Operation Iraqi Freedom (OIF) 
and Operation Enduring Freedom (OEF) in the Central Command (CENTCOM) 
Area of Responsibility (AOR). NECC RC forces continue to support 
operations that include: construction/engineering operations with the 
Naval Construction Forces (e.g., Construction Battalions, or SEABEEs), 
maritime expeditionary landward and seaward security with Maritime 
Expeditionary Security Forces (MESF), Customs Inspections and port/
cargo operations with Navy Expeditionary Logistics Support Group 
(NAVELSG), warfighting documentation with Combat Camera, document and 
electronic media exploitation with Navy Expeditionary Intelligence 
Command, and Anti-Terrorism/Force Protection (AT/FP) training with the 
Expeditionary Training Command.
    The Navy's RC has been the driver behind an enormous success story 
Navy-wide through its lead role in the critical Customs Inspection 
mission, currently providing virtually the entire deployed footprint 
with more than 500 RC Sailors on Individual Augmentee (IA) assignments. 
The Navy is projected to sustain this footprint in 2009 with planned 
Customs rotations throughout the year. The mobilized Customs Inspectors 
include police officers, corrections officers, state police/sheriffs, 
full-time students, engineers, and small business owners. Others 
include teachers, postal clerks, carpenters, nurses, emergency medical 
technicians, auto technicians, and fire fighters. The most recent 
rotation of RC Sailors to deploy for an 8-month Customs/Ports tour of 
duty in Iraq and Kuwait departed in November. These Customs personnel 
are drawn from 96 Navy Operational Support Centers (NOSCs) representing 
38 states and territories, including Puerto Rico and Guam.
    RC Sailors are also found in the Navy Special Warfare (NSW), 
Maritime Expeditionary Security, and Explosive Ordnance Disposal (EOD) 
communities. Reservists comprise 17 percent of the NSW community, 
including SEALs and Special Warfare Combatant-Craft Crewmen (SWCC). As 
a CNO initiative to relieve stress on the AC EOD force, the RC EOD 
force was established in 2007. In 2008, RC EOD units deployed to 
support two OIF/OEF/Global Naval Force Presence Posture (GNFPP) 
requirements. Through Maritime Expeditionary Security units, the Navy's 
RC also directly augments the Maritime Expeditionary Security mission.
    The RC aviation community is equally involved in Total Force 
operational support. Electronic Attack Squadron 209 (VAQ 209) 
mobilized, deploying 188 FTS and SELRES personnel to Bagram Air Base, 
Afghanistan in support of Coalition operations from January 14th thru 
March 14th in 2008. Helicopter Sea Combat Squadron 84 (HSC 84) 
continues its deployment to Balad Air Base, Iraq to conduct air assault 
combat missions in support of CENTCOM Joint Special Operations. RC 
members of Helicopter Sea Combat Squadron 85 (HSC 85) are deployed to 
Kuwait to support the 2515th Naval Air Ambulance mission, while RC 
members of Helicopter Mine Countermeasures Squadron 15 (HM 15) are 
deployed alongside the AC to the CENTCOM AOR for Fifth Fleet and Navy 
tasking by the U.S. Central Command. Eight RC Sailors from HM 14 are 
also deployed to Korea, conducting Airborne Mine Countermeasures and 
Vertical Onboard Delivery (VOD) missions.
    A detachment from Carrier Airborne Early Warning Squadron 77(VAW 
77), consisting of more than 30 FTS/SELRES personnel and 25 maintenance 
contractors completed 4 month deployments in 2008 to various sites in 
the Southern Command (SOUTHCOM) AOR for counter-narcotics operations, 
directly assisting in the capture of cocaine and heroin with an 
approximate street value of $700 million. A 25-person detachment from 
Helicopter Antisubmarine (Light) Squadron 60 (HSL 60) deployed aboard 
the USS Dewert (FFG 45) last year to support SOUTHCOM and Fourth Fleet 
counter-narcotics operations, assisting in the interdiction of cocaine 
that was valued at $350 million. Currently, HSL 60 has another 25-
person detachment onboard USS Samuel B. Roberts, seizing seven metric-
tons of narcotics to date. The Navy Air Logistics Office scheduled 
aircraft and forward-deployed detachments from all 15 Fleet Logistics 
Support Wing (VR) squadrons, enabling the efficient and effective 
transport of more than 127,000 personnel and 21.7 million pounds of 
cargo to/from various overseas locations in support of COCOM and 
theater-validated requirements. The VR Wing routinely fulfills three 
CENTCOM Deployment Orders, and in excess of 160 RC personnel from the 
VR Wing are deployed to Japan, Italy, Qatar, and Bahrain each day.
    The VR Wing also enables the Fleet Readiness Training Plan (FRTP) 
by transporting personnel and cargo throughout the Continental United 
States in support of FRTP airlift requirements for Carrier Air Wings 
(CVWs), Carrier Strike Groups, Fleet Replacement Squadron (FRS) 
detachments, and NSW training requirements. Fighter Squadron Composite 
12 (VFC 12), Fighter Squadron Composite 13 (VFC 13), Fighter Squadron 
Composite 111 (VFC 111), and Strike Fighter Squadron 204 (VFA 204) also 
enable FRTP initiatives by executing adversary sorties for multiple CVW 
and FRS detachments. The Squadron Augmentation Units (SAUs) from 
Commander, Naval Air Training Command (CNATRA) flew 20 percent of all 
sorties conducted in support of student Pilot/Naval Flight Officer 
(NFO) production during 2008, while the FRS SAUs flew nearly 10 percent 
of the syllabus flight events in support of Pilot/NFO and aircrew 
production.
                       equipping the navy reserve
    For Navy Reservists to continue providing superior operational 
support to the Navy through the competencies they have acquired both in 
the Fleet and in their civilian careers, the Navy must also have 
interoperability between all elements of the Total Force. The 
acquisition of AC and RC equipment, enhancements and upgrades to 
programs, and equipment redistribution (AC to RC, as well as RC to AC) 
have virtually eliminated capability and compatibility gaps between AC, 
RC, and Joint forces. Current and future RC equipment requirements that 
are vital to our combat forces include aircraft and NECC equipment.
    The aircraft needed to recapitalize the RC and ensure complete 
alignment with the AC are: the EA-18G ``Growler'' for Electronic 
Attack, the P-8A ``Poseidon'' Multi-Mission Aircraft, the KC-130J 
``Hercules'' for over- and out-sized cargo intra-theatre transport, and 
the C-40A ``Clipper'' for intra-theatre cargo and passenger transport. 
In addition to RC operators, the AC will also have aircrew personnel 
who will operate the EA-18G, P-8A, and the KC-130J (USMC AC). The C-40A 
is unique among these aircraft as it is only operated by RC aircrew 
personnel--the AC does not have any ``Clipper'' operators. Further, the 
C-40A is essential to providing flexible, time-critical, and intra-
theater logistics support, serving as a connector between strategic 
airlift points of delivery to Carrier Onboard Delivery and VOD 
locations. The C-40A is the replacement for aging DC-9/C-9B and C-20G 
aircraft, and it can simultaneously transport cargo and passengers. The 
Clipper has twice the range, payload, and days of availability of the 
C-9 models, and it has twice the availability and eight times the 
payload of the C-20G. The C-40A is an outstanding asset and has 
provided enormous operational support, while facilitating the FRTP, 
since its arrival in 2001.
    NECC provides equipment for its subordinate commands, such as 
SEABEE, MESF, EOD, and NAVELSG units. The equipment utilized by these 
type commands include counter-IED (Improvised Explosive Device) 
equipment, tactical vehicles, construction and maintenance equipment, 
material handling equipment, communications gear, boats, and 
expeditionary camp equipment. Like NECC's mission, the equipment it 
operates is both dynamic and diverse.
    The Navy has trimmed the RC force structure to the appropriate 
capacity and capability required to sustain the operational Reserve 
Force. The perceived value and the return on investment that the RC 
delivers in personnel and equipment to the Total Force are measured on 
a daily basis. Critical recapitalization continues to be a priority, 
and budgetary dynamics make us ever reliant on a combination of the 
service priority and the direct appropriation for these aging and 
depreciating assets. Some of these requirements have been mitigated by 
your continued support through the National Guard and Reserve Equipment 
Appropriation.
                    supporting the sailor and family
    As we continue supporting the Fleet, we proactively extend our 
support to individual Sailors and their families. Our Sailors will do 
almost anything we ask of them, and we see evidence of their dedicated 
service everyday, especially in Iraq and Afghanistan. Their expectation 
that we will support their families while they are away from home is 
both fair and reasonable.
    With so many RC Sailors filling IA and mobilization requirements, 
the July 2008 release of the RC IA Business Rules (Navy Administrative 
message 235/08) directly addressed how we care for our RC Sailors. In 
particular, these business rules authorized RC Sailors who volunteer 
for unit mobilization to combat zones inside their 1:5 ``Dwell Time,'' 
to reset their ``Dwell Clock'' and receive Post-Deployment/Mobilization 
Respite Absence (administrative leave).
    To ensure that our Reserve Force was ready to deploy at any time, 
the Navy's RC introduced the Medical Readiness Reporting System (MRRS) 
to address Individual Medical Readiness. MRRS use was expanded in 
fiscal year 2008, and is now used by the Navy's AC and RC, as well as 
the Coast Guard and Marine Corps. In addition, MRRS was recently 
enhanced to allow more accurate tracking of those Sailors at risk due 
to combat operational stress, and to ensure they receive the 
appropriate attention during Post Deployment Health Re-assessments 
(PDHRAs) conducted 90-180 days after demobilization.
    To facilitate a continuum of readiness, given the stress that 
oftentimes results from operational deployments overseas, funding was 
approved in 2008 to establish the Navy Reserve Psychological Health 
Outreach Program. This program provides outreach services to Reservists 
returning from deployment, both during the reintegration process and 
beyond. It ensures early identification and timely clinical assessments 
of Navy Reservists at risk for stress injuries. The Program 
Coordinators facilitate access to psychological health support 
resources for the service members and their families, and serve as 
Facilitators at Psychological Health/Traumatic Brain Injury seminars 
and Returning Warrior Workshops.
    The Navy Reserve continues to make exceptional progress in 
advancing a standardized, world-class Continuum of Care for SELRES 
Sailors, FTS Sailors, and their families through all phases of the 
mobilization deployment cycle. United States Fleet Forces (USFF), as 
executive agent for IA and IA Family Support, was vital to the 
evolution of a Total Force Continuum of Care in 2008 by standing up the 
IA and IA Family Cross Functional Team and Executive Steering 
Committee. The Navy Reserve is a lead stakeholder supporting USFF in 
this initiative, and is well-aligned with the Total Force in developing 
and implementing deployment support and reintegration programs for 
deploying IA personnel and units throughout all phases of the 
mobilization cycle.
    The Returning Warrior Workshop (RWW) is now available to RC and AC 
Sailors, Marines, and their spouses throughout the country. The RWW 
serves as a model in the development of a broad spectrum of additional 
``Continuum of Care'' programs and events. The workshops epitomize 
Sailors taking care of Sailors; they reflect the Navy's dedication to 
supporting, educating, and honoring our Sailors and families, and they 
communicate a strong message that the Navy values their service and 
sacrifice.
    RWWs are ``five-star events'' conducted on weekends and attended by 
up to 200 Sailors, Marines, and spouses. Attending participants have 
the opportunity to address personal, family, or professional situations 
experienced during deployment and receive readjustment and 
reintegration support and resources from a network of counselors, 
psychological health outreach coordinators, chaplains, and Fleet and 
Family Support Center representatives. Throughout the weekend, 
participants benefit greatly from considerable counseling opportunities 
to educate and support the Navy Family and assist Sailors in re-
acclimating with their families and to civilian lives.
    The future for RWWs is bright given the unprecedented success of 
the workshops completed in 2008 and those already completed in 2009. 
The recent event in Albuquerque, New Mexico was the 21st successful 
event since the inception of the program by Navy Region Southwest 
Reserve Component Command (at Navy Operational Support Center, Phoenix) 
in late 2007. Looking ahead, 29 additional workshops are contracted and 
funded through July 2010.
    Our Return-Reunion-Reintegration team is placing strong emphasis on 
the development, implementation, and enhancement of several other 
transformational programs and events. These high profile initiatives 
include: Full implementation of DOD's Yellow Ribbon Reintegration 
Program by Navy; modification of the Chaplain's Religious Enrichment 
Development Operation (CREDO) retreats to provide a ``One-Day Up-
Check'' for returning Sailors as an alternative to the RWW; and 
development of comprehensive roles and responsibilities for 
Psychological Health Outreach Coordinators assigned to each region.
                      people policies and programs
    A central component of Navy's Total Force strategy is the 
establishment of a culture of a ``Continuum of Service'' to provide 
opportunities for Sailors to transition in and out of active service at 
different stages of their careers. The Continuum of Service represents 
a new operating paradigm which can be summarized by the phrase: 
``Recruit once, Retain for life.'' Last year, the Navy's accession and 
retention bonuses for RC Sailors increased to $108 million, enhancing 
our ability to recruit and retain the right people for the right job. 
For fiscal year 2008, Navy Recruiting Command achieved 100 percent of 
the RC enlisted accession goal, and 105 percent of RC General Officer 
goal. As recently stated by our Chief of Naval Personnel, VADM Mark E. 
Ferguson, we believe we are on track to repeat this success in fiscal 
year 2009. Once we recruit, train, and lead these Sailors through their 
initial tours of duty, our imperative is to give them opportunities to 
transition between the Active and Reserve Components, allowing them to 
find the life/work balance that's right for them. This will strengthen 
the focus on retention and reduce the burden on recruiting.
    In addition to achieving the Navy's recruiting goals, the retention 
and attrition for RC personnel have been just as successful. Improved 
retention and lower attrition rates are attributed to a slowing economy 
and an effective recruiting campaign through our ``Stay Navy'' 
initiatives. These efforts target affiliation and retention bonuses on 
skill sets we need the most. In fiscal year 2009, we continue to target 
high-demand/low-supply communities and critical skill sets with 
competitive monetary incentives.
    Navy Reserve end strength has declined by approximately 20,000 
Sailors from 2003 through 2008 (88,156 RC Sailors in 2003 to 68,136 RC 
Sailors in 2008). The anticipated steady state end strength is 
approximately 66,000 in fiscal year 2013. During fiscal year 2008, to 
provide for a stable RC inventory, we implemented several force shaping 
measures that included a reduction in prior service accessions, as well 
as proactive management of Transient Personnel Units (TPUs), overmanned 
designators, and Sailors reaching High Year Tenure. These measures 
proved to be effective, as the Navy ended fiscal year 2008 with 68,136 
RC personnel (approximately 0.5 percent above our statutory end 
strength authorization of 67,800).
    In fiscal year 2009, we already see higher retention and fewer 
losses than planned in the enlisted and officer populations. To 
mitigate this over-execution, we continue to enforce current policies 
and adjust enlisted prior service accessions. Our goal is to finish 
fiscal year 2009 with a more stable, balanced inventory of Sailors that 
positions our Reserve force for continued Total Force support.
    Vice Admiral Ferguson and I are identifying legislative, financial, 
technological, and policy barriers impeding a Continuum of Service and 
developing management practices to quickly and efficiently transition 
Sailors between components to meet changing workforce demands. One of 
our key initiatives is to implement a process that transitions Sailors 
between the AC and RC within 72 hours. As we provide opportunities to 
transition seamlessly between active and reserve statuses, Navy's Total 
Force will capitalize on the spirit of volunteerism to encourage a 
Sailor's lifetime of service to the Nation.
    The Navy needs Total Force systems that will reduce administrative 
impediments to a Continuum of Service. The administrative 
inefficiencies created by multiple electronic pay and manpower systems 
create waste and unnecessary burdens on Sailors, and they also hinder 
Force readiness. A common AC/RC pay and personnel system is crucial to 
building seamless transitions and the success of our Sailor for Life 
and Continuum of Service initiatives. In the future, manpower 
transactions will ideally be accomplished with the click of a mouse, 
and records will be shared through a common data repository within all 
DOD enterprises. Navy fully supports this vision of an integrated set 
of processes to manage all pay and personnel needs for service members, 
concurrently providing necessary levels of personnel visibility to 
support joint warfighter requirements. Manpower management tools must 
facilitate audits of personnel costs, and support accurate, agile 
decision-making at all levels of DOD.
    One constraint to seamless transitions is the multiple RC funding 
categories. We are working closely with the Office of the Secretary of 
Defense to reduce the number of duty types, aiming to improve 
efficiency while retaining the flexibility Navy Reservists need to 
manage their careers and personal lives. Coupled with a well-developed, 
web-enabled personnel management system, this initiative will enable RC 
Sailors to rapidly surge to support validated requirements. The 
consolidation of most RC order writing to the Navy Reserve Order 
Writing System (NROWS) has been a significant evolution in Navy's 
effort to integrate its Total Force capabilities by aligning funding 
sources and accurately resourcing operational support accounts.
    The Honorable Secretary of the Navy Donald C. Winter recently 
approved the Navy's request to transition to a community management-
based promotion policy for the RC Officer community--both SELRES and 
FTS. As a result, the Navy has implemented a policy change to 
``decouple'' its Reserve Officer promotion zones from the AC Officer 
promotion zones, as was the current practice under the Running Mate 
System (RMS). In place since 1947, the RMS linked RC and AC promotion 
zones without consideration of RC community needs. Under the Navy Total 
Force construct, Officer Community Managers (OCMs) now have the 
flexibility to develop promotion plans and policies that meet 
individual community and component needs, especially for SELRES 
Officers.
    For Navy Reservists who look to further their professional 
development, the Navy has recently obtained Joint and Combined 
Warfighting class quotas for RC personnel (both FTS and SELRES) at the 
Joint Forces Staff College. These new class quotas complement the 
Advanced Joint Professional Military Education course that is already 
in place. The Navy is also in the early stages of establishing an RC 
Foreign Area Officer (FAO) program. RC FAOs will be part of a cadre of 
Officers aligned with the AC who have the skills required to manage and 
analyze politico-military activities overseas.
                               conclusion
    Since 9/11, nearly 53,000 contingency activation requirements have 
been filled by SELRES personnel, along with an additional 4,300 
contingency requirements filled by FTS Sailors in support of on-going 
conflicts in Iraq, Afghanistan, and the Horn of Africa. On any given 
day, more than 18,000 Navy Reservists, or about 26 percent of the 
Force, are on some type of orders that provide support to global 
operation requirements of Fleet Commanders and COCOMs. Our more than 
67,000 Sailors serving in the RC are forward deployed in support of 
Coalition forces, at their supported commands around the world, or in 
strategic reserve, ready to surge 24/7 each day if more Navy Total 
Force requirements arise.
    I am proud to be a Navy Reservist, and I am humbled by the 
commitment of the men and women of our Navy Reserve. It is very 
rewarding and fulfilling to stand shoulder to shoulder with the Navy's 
AC as we meet our Nation's requirements. Although I readily admit my 
bias, there has never been a more meaningful time to be part of the 
Navy-Marine Corps team, and our Navy Reserve is clearly an integral 
part of the this hard-working, high-spirited and amazingly capable 
force.
    The Navy's ability to be present in support of any operation, in 
war and peace, without permanent infrastructure in the area of 
operations, is a key advantage that will become even more important in 
the future. Our Navy remains the preeminent maritime power, providing 
our Nation with a global naval expeditionary force that is committed to 
global security, while defending our homeland as well as our vital 
interests around the world. The Navy Reserve's flexibility, 
responsiveness, and ability to serve across a wide spectrum of 
operations clearly enhances the Navy Total Force, acts as a true force 
multiplier, and provides unique skill sets towards fulfilling Navy's 
requirements in an increasingly uncertain world.
    On behalf of the Sailors, civilians, and contract personnel of our 
Navy Reserve, we thank you for the continued support within Congress 
and your commitment to the Navy Reserve and our Navy's Total Force.

    Chairman Inouye. Now may I call upon General Bergman?
STATEMENT OF LIEUTENANT GENERAL JACK W. BERGMAN, 
            COMMANDER, MARINE FORCES RESERVE, UNITED 
            STATES MARINE CORPS
    General Bergman. Good morning, Chairman Inouye, Vice 
Chairman Cochran. First, thank you, to you and all the members 
of the subcommittee, for your continued support, your continued 
strong support because, without it, the Marine Corps Reserve's 
ability to sustain capability, warfighting capability, in the 
longest call-up of Reserve and Guard units in the history of 
the Nation, it has made a big difference. Your support has made 
the Marine Corps Reserve the ready and relevant fighting force 
that it is today.
    During the past several years, a basic underlying change 
has occurred. Instead of being a strategic reserve, we are now 
largely in the Marine Corps as an operational reserve. About 80 
percent of our drilling reservists are unit-based, and that 
makes up our operational reserve. As that unit-based force, we 
have implemented the force generation model. This model creates 
maximum predictability, predictability for everyone, 
predictability for the marines, for their families, for their 
employers, and for our active component as we work on the ever-
complex issues of force flow and who goes in what rotation, 
predictability for manning, equipping, training, all of which 
are tied to budgeting. The force generation model is now just 
beginning to allow us to plan for a 5-year well-budgeted, 
highly effective training/dwell time for our units.
    I would suggest to you that there is nothing more adaptable 
than a marine in the fight. Our force generation model has 
enabled us to transition to that highly adaptable operational 
reserve.
    However, because of recent Marine Corps focus on building 
the active component to 202,000, which we have successfully 
done and will be 2 years ahead of schedule here by the end of 
this fiscal year, some of the manpower planning and policies 
that were focused on the active component are just now 
beginning to be refocused to ensure that this transition from 
the strategic to the operational Reserve is effectively planned 
for and effectively implemented.
    I look forward to your questions.
    Chairman Inouye. Thank you very much.
    [The statement follows:]
        Prepared Statement of Lieutenant General Jack W. Bergman
    Chairman Inouye, Senator Cochran, and distinguished Members of the 
Subcommittee, it is my honor to report to you on the state of your 
Marine Corps Reserve.
    I am pleased to report that your Marine Corps Reserve continues to 
equip and train the best and brightest of our Nation's sons and 
daughters. In an environment where the Marine Corps continues to 
rapidly adapt to broad strategic conditions and wide-ranging threats, 
your Marine Corps Reserve--a primarily Operational Reserve--continues 
to meet all challenges and commitments. Whether in Iraq today, 
Afghanistan tomorrow or in subsequent campaigns, your Marine Corps 
Reserve continues to answer the clarion call to arms in defense of this 
great Nation.
    On behalf of all our Marines, sailors and their families, I would 
like to take this opportunity to thank the Subcommittee for its 
continuing support. The support of Congress and the American people 
reveal both a commitment to ensure the common defense and a genuine 
concern for the welfare of our Marines, sailors and their families.
                      today's marine corps reserve
    Your Marine Corps Reserve continues to be fully capable of war 
fighting excellence. As a vested partner in the Total Force Marine 
Corps, we faithfully continue our steadfast commitment to provide 
Reserve units and personnel who stand shoulder-to-shoulder with their 
Active Component counterparts in all contingencies, operations and 
exercises.
    As of March 3, 2009, 52,369 Reserve Marines and approximately 99 
percent of U.S. Marine Corps Reserve units were activated since 9/11--
98 percent of our activated units deployed to the U.S. Central Command 
area of responsibility.
    Today's Marine Corps Reserve is characterized by a strong resolve 
that enables us to sustain the current operational pace during the 
longest mobilization period in our Nation's history. However, to 
continue this unprecedented pace will require adequate funding. Without 
the total funding, currently provided through baseline and supplemental 
processes, we would be unable to maintain a truly Operational Reserve.
    The Force Generation Model, implemented in October 2006, continues 
to provide predictability of future activation and deployment schedules 
for our Marines and sailors. The predictability the Model provides has 
been well received by our Marines, sailors and employers. The Model 
provides our Reservists the opportunity to effectively plan their lives 
throughout their Reserve contractual agreement, enabling them to 
creatively strike a successful balance between family, civilian career 
and service to community, country and Corps. I am happy to report that 
we recently activated the fifth rotation based upon the Model to 
Operations Iraqi and Enduring Freedom (OIF and OEF) with 5,500 Marines 
being activated and deployed during fiscal year 2008. Additionally, we 
have activated approximately 2,500 more Marines during the timeframe 
November 2008 to February 2009.
    The Force Generation Model continues to assist Service and Joint 
Force planners in maintaining a consistent flow of fully capable Marine 
Corps Reserve units. This steady flow of Reserve units is essential in 
enabling our Active Component to reach a 1:2 dwell time. The Model, 
based on 1-year activation to 4-plus years in a non-activated status, 
continues to be both supportable and sustainable. Predictable 
activation dates permit unit commanders to focus training on core 
mission capabilities early in the dwell period; and then train to 
specific OIF and OEF mission tasks once the unit is within 12 to 18 
months of activation. Additionally, the amount of cross-leveling has 
been significantly reduced. With each subsequent rotation, the 
requirement to cross-level continues to decrease. For example, the 
upcoming activation of the St. Louis, Missouri-based 3rd Battalion, 
24th Marine Regiment, will require minimal cross-leveling of enlisted 
personnel.
    We believe the full benefit of the Force Generation Model will 
begin to be realized once we have completed a full cycle of nine 
rotations and the Active Component reaches the authorized end strength 
of 202,000. A very important byproduct of the Force Generation Model 
will be our emerging ability to more accurately budget for training and 
equipment requirements during the 5 year dwell time.
    In addition to the 5,500 Marines activated and deployed during 
fiscal year 2008 in support of OIF and OEF, we deployed an additional 
3,300 Marines worldwide in support of joint and/or combined Theater 
Security Cooperation Exercises. In each of the past 3 years, between 
OIF, OEF, Theater Security Cooperation Exercises, and recently emerging 
security cooperation mobile training teams that conduct Phase-0 
operations, nearly one-third of our force has deployed outside the 
continental United States both in an activated and non-activated 
status.
    During this past year, more than 3,300 Marines from Fourth Marine 
Division have served in Iraq. Included are two infantry battalions, as 
well as armor, reconnaissance, combat engineer, military police, and 
truck units. Of particular note, the El Paso, Texas-based Battery D, 
2nd Battalion, 14th Marine Regiment, became the second Marine Corps 
High Mobility Artillery Rocket System (HIMARS) unit to be deployed. 
Another highlight was the success of New Orleans, Louisiana-based 3rd 
Battalion, 23rd Marine Regiment, in al-Anbar Province. This infantry 
battalion, with companies in Louisiana and Texas, played a key role in 
the redevelopment of the Haditha K3 Oil Refinery and transport of crude 
oil in al-Anbar Province. Their efforts, spurred primarily by several 
of the battalion's Marines who are consultants and executives within 
the U.S. oil and energy industry, resulted in the successful rail 
transport of crude oil into Anbar and restart of the oil refinery by 
July 2008, several years after the refinery and rail system had ceased 
to operate. Also of note was the ability and flexibility of the 
Division units to train for and conduct ``in lieu of'' or provisional 
missions due to changing operational requirements in OIF/OEF.
    Fourth Marine Division also deployed two of its regimental 
headquarters in the role of Marine Air Ground Task Forces (MAGTF) 
command elements. Kansas City, Missouri-based 24th Marine Regiment 
deployed as a Special Purpose MAGTF to U.S. Southern Command to support 
the new Partnership of the Americas series of small combined Theater 
Security Cooperation Exercises in South America. The San Bruno, 
California-based 23rd Marine Regiment led a combined joint regimental 
headquarters in support of exercise African Lion in Morocco as well as 
a combined joint battalion headquarters in support of Exercise Shared 
Accord in Ghana. These three exercises alone incorporated the 
deployment of more than 1,100 Marines from across Marine Forces 
Reserve. Fourth Marine Division also conducted training to assist our 
allies in foreign militaries from Korea to the Republic of Georgia. 
Calendar Year 2009 will be a busy year for the Division as they conduct 
training in Benin, Brunei, Ukraine, the Dominican Republic, the 
Bahamas, Brazil, Guatemala and Guyana. Returning to exercises in 
Morocco and Australia and supporting the 50th anniversary of UNITAS 
Gold with a command element from 24th Marine Regiment will be key 
engagements. From May through August 2009, an activated Reserve 
reinforced rifle company from the 24th Marine Regiment and a composite 
platoon of Marines from the 4th Amphibious Armored Battalion, in 
partnership with the U.S. Navy, will conduct training and exercises in 
Brunei, Singapore, Malaysia, Indonesia, Thailand and the Philippines 
during exercise Cooperation and Readiness Afloat Training (CARAT).
    Fourth Marine Aircraft Wing has continued to provide essential 
exercise support and pre-deployment training normally provided by 
Active Component squadrons. The Marine Corps' premier pre-deployment 
training exercise, Mojave Viper, received a majority of air support 
from our fixed wing and helicopter squadrons. Fourth Marine Aircraft 
Wing deployed Mount Clemens, Michigan-based, Marine Wing Support 
Squadron 471 as a Provisional Security Company to Camp Lemonier, 
Djibouti, in the Horn of Africa, provided a truck platoon to support 
combat operations for the Active Component's 3rd Battalion, 7th Marine 
Regiment in Iraq, and sourced multiple Marine Air Control detachments 
from Chicago, Illinois-based Marine Air Control Group 48. Marine 
Transport Squadron Belle Chasse (Louisiana) Detachment is currently in 
theater with the UC-35 Citation Encore aircraft providing critical 
Operational Support Airlift capability to U.S. Central Command.
    Additionally, Fourth Marine Aircraft Wing has participated in 
multiple combined, bilateral and joint exercises in Africa, Asia, 
Europe, and South America. Humanitarian Assistance construction 
projects were conducted in Trinidad-Tobago, Peru, and Honduras. 
Participation in these exercises includes support of U.S. and Marine 
Corps forces and facilitates training and interoperability with our 
allies. For example, African Lion participation enabled the Moroccan 
Air Force to develop better close air support and aerial refueling 
techniques.
    Fourth Marine Aircraft Wing continues to be an integral partner in 
the Marine Corps Aviation Transition Strategy. In the near term, 
transition from legacy to leap-ahead aviation capabilities (i.e. MV-22, 
UH-1Y, AH-1Z and JSF) in the Active Component required a transfer of 
certain Reserve Component aviation manpower, airframes and support 
structure to the Active Component Marine Corps. As a result, two 
Reserve Fighter/Attack F/A-18 squadrons were placed in cadre status and 
a Light Attack UH-1N/AH-1W helicopter squadron, a Heavy Lift CH-53E 
helicopter squadron, an Aviation Logistics Squadron and two of four 
Marine Aircraft Group Headquarters were decommissioned. A second Heavy 
Lift CH-53E helicopter squadron has been reduced in size. As the Active 
Component transitions to the new airframes, Fourth Marine Aircraft Wing 
has assumed the Fleet Replacement Squadron role for the legacy model 
KC-130s, UH-1s, and AH-1s. Additionally, as part of the Aviation 
Transition Strategy, two Tactical Air Command Center Augmentation Units 
were commissioned. To complete the Aviation Transition Plan, beginning 
in 2014, Fourth Marine Aircraft Wing will begin transitioning to the 
new airframes and Command and Control (C\2\) capabilities.
    Fourth Marine Logistics Group continues to provide fully capable 
units, detachments and individuals prepared to deliver sustained 
tactical logistics support. In the past year, Fourth Marine Logistics 
Group provided approximately 1,300 Marines and sailors from across the 
spectrum of combat service support to augment the Active Component's 
1st and 2nd Marine Logistics Groups engaged in OIF. In addition to the 
requirements of the Force Generation Model, Fourth Marine Logistics 
Group provided additional support to OIF by sourcing 265 Marines to 
staff the al-Taqauddam Security Force and to OEF by sourcing 279 
Marines from the Portland, Oregon-based 6th Engineer Support Battalion 
to staff Provisional Security Company 8 at Camp Lemonier, Djibouti, in 
the Horn of Africa.
    Increased augmentation in support of OIF/OEF will include a 
complete Combat Logistics Battalion (CLB-46) formed with more than 800 
Marines and sailors from across Fourth Marine Logistics Group's nine 
battalions. Combat Logistics Battalion 46 will provide tactical level 
logistics support to a Marine Regimental Combat Team in al-Anbar 
Province, Iraq. This will be the first CLB formed and deployed by 
Fourth Marine Logistics Group.
    Continuing to aggressively support overseas joint and combined 
exercises, training, and other events in support of the Combatant 
Commanders' Phase-0 operations, Fourth Marine Logistics Group 
participated in 29 overseas events spread across all of the Unified 
Commands, ranging in size from exercises involving 75 Marines down to 
3-person Traveling Country Teams that conducted engagement with foreign 
militaries. Olympic Thrust in June 2008 began the preparation of Fourth 
Marine Logistics Group's battalions' staffs to form the nucleus of a 
CLB headquarters. Exercise Javelin Thrust (June 2009) will be a 
capstone preparation event for CLB-46.
    Fourth Marine Logistics Group has taken the lead on coordinating 
Marine Forces Reserve's participation in Innovative Readiness Training 
(IRT) program events. The purpose of the IRT program is to provide 
civic assistance projects in the United States, possessions and 
territories while simultaneously improving military readiness. Fourth 
Marine Logistics Group has initiated and conducted IRT planning during 
the last year and will execute two events in Alaska and one event in 
the Marianas Islands during 2009. These events will focus on 
infrastructure improvements and medical/dental assistance projects.
    In addition to ground, aviation, and logistic elements, Marine 
Forces Reserve has provided civil affairs capabilities since the start 
of OIF. Air-Naval Gunfire Liaison Detachments from Marine Forces 
Reserve have augmented the supported Marine Air Ground Task Forces and 
adjacent commands with air/ground fires liaison elements. Marine Forces 
Reserve also continues to provide intelligence augmentation, to include 
Human Exploitation Teams, Sensor Employment Teams, and Intelligence 
Production Teams.
    The trend in recent years toward increased participation of Marines 
in the Individual Ready Reserve (IRR) continued in fiscal year 2008. 
During the fiscal year, the Marine Corps Mobilization Command (MOBCOM) 
mustered more than 1,500 Marines from the IRR to screen and prepare 
them for activation. More than 1,500 sets of mobilization orders were 
issued with a total of 1,002 IRR Marines reporting for activation 
during fiscal year 2008. MOBCOM also processed more than 8,100 sets of 
shorter duration active duty orders for IRR Marines during fiscal year 
2008. We have expanded our family programs to reach out to the families 
of our deployed IRR Marines, using local Peacetime/Wartime Support 
Teams as well as MOBCOM assets. With the advent of Yellow Ribbon 
Legislation, we continue to develop programs to better support our 
deploying and returning Marines and their families.
    MOBCOM modified its IRR muster program during 2008, from large 
scale metropolitan musters to a combination of large scale musters and 
smaller, more personalized musters at Reserve sites. We completed the 
fiscal year screening of approximately 11,000 of the 55,000 Marines in 
our IRR population. Our screening effectiveness continues to rise as we 
continue to develop better communication methods with our IRR 
population. For example, MOBCOM contacted and engaged the IRR Marines 
through email, letter correspondence and telephone calls. Higher 
quality communications keeps our Marines better informed and prolongs 
their connection with each other and our Corps. We believe that these 
longer-term connections will be critical as we truly seek to create the 
Continuum of Service necessary to support a sustainable Operational 
Reserve.
    The Marine Corps Reserve's continuing augmentation and 
reinforcement of the Active Component is not without cost. Continuing 
activations and high Reserve operational tempo highlight personnel 
challenges in select military occupational specialties and significant 
strain on Reserve equipment.
                               personnel
    The Selected Marine Corps Reserve is comprised of Reserve unit 
Marines, Active Reserve Marines, Individual Mobilization Augmentees, 
and Reserve Marines in the training pipeline, which when added 
together, form the inventory of the end strength in the Selected Marine 
Corps Reserve.
End Strength
    Although we continue to benefit from strong volunteerism of our 
Reserve Marines, a degradation in our ability to achieve authorized end 
strength has occurred. Fiscal years 2002 to 2005 had percentages of 
authorized end strength above 100 percent and fiscal year 2006 
percentage of authorized end strength at 99.71 percent. Fiscal years 
2007 and 2008 percentages of authorized end strength were at 97.36 and 
94.76 percent--shortfalls of 1,044 and 2,077 Marines respectively. This 
resulted in the only fiscal years since 9/11 that the Selected Marine 
Corps Reserve fell below the Title 10 allowable 3 percent variance from 
authorization.
    As previously stated in my testimonies before the House and Senate 
Appropriations Committees' Subcommittees on Defense during 2008, we 
anticipated an adverse affect on meeting an acceptable percentage of 
authorized Marine Corps Selected Reserve end strength as greater 
numbers of Reserve Component Marines volunteered for full-time active 
duty due to the Marine Corps' accelerated build to a 202,000 Active 
Component Marine Corps.
    During the past fiscal year, we accepted the short-term risk in our 
ability to obtain our Selected Marine Corps Reserve Component end 
strength of 39,600 as the Reserve accession plans were adjusted and our 
experienced and combat tested Reserve Marines were encouraged to 
transition back to active duty to support the build effort, and they 
responded in force: From 2007 to present, approximately 1,946 Reserve 
Marines returned to, or are awaiting return to, active duty.
    The fact is that the Active Component Marine Corps will continue to 
rely heavily upon augmentation and reinforcement provided by our 
Reserve Marines. I firmly believe our authorized end strength of 39,600 
is still highly relevant and appropriate, and will consequently drive 
recruiting and retention. This number provides us with the Marines we 
require to support the Force and to achieve our goal of a 1:5 
deployment-to-dwell ratio in the Selected Marine Corps Reserve.
    Additionally, it is worth noting, the Marine Corps is on pace to 
reach an active duty end strength of 202,000 by the end of fiscal year 
2009, which will enable the Marine Corps to refocus the Reserve 
recruiting and retention efforts to achieve the expected percentage of 
authorized Selected Marine Corps Reserve Component end strength. The 
bonuses and incentives for recruiting and retention provided by the 
Congress are essential tools for helping us accomplish this goal and I 
thank you for your continued support.
Recruiting
    The Marine Corps is unique in that all recruiting efforts (officer, 
enlisted, regular, Reserve, and prior-service) fall under the direction 
of the Marine Corps Recruiting Command. Operationally, this provides 
the Marine Corps with tremendous flexibility and unity of command in 
order to annually meet Total Force Marine Corps objectives.
    Like the Active Component, Marine Corps Reserve units primarily 
rely upon a first term enlisted force. Currently, the Marine Corps 
Reserve continues to recruit and retain quality men and women willing 
to manage commitments to their families, their communities, their 
civilian careers, and their Corps. Despite high operational tempo, the 
morale and patriotic spirit of Reserve Marines, their families, and 
employers remains extraordinarily high.
    The Marine Corps Recruiting Command achieved 100 percent of its 
recruiting goal for non-prior service recruiting (5,287) and exceeded 
its goal for enlisted prior service recruiting (2,672) during fiscal 
year 2007; and achieved 100 percent of its recruiting goal for non-
prior service recruiting (4,235) and prior service recruiting (4,501) 
in fiscal year 2008. As of February 1, 2009, 1,756 non-prior service 
and 1,227 enlisted prior service Marines have been accessed, which 
reflects 48 percent of the annual enlisted recruiting mission for the 
Selected Marine Corps Reserve. We fully expect to meet our Selected 
Marine Corps Reserve recruiting goals again this year.
    An initiative implemented during June 2006 at Marine Forces Reserve 
to enhance recruiting efforts of prior service Marines was the Selected 
Marine Corps Reserve Affiliation Involuntary Activation Deferment 
policy. Realizing that deployments take a toll on Active Component 
Marines, causing some to transition from active duty because of high 
personnel tempo, we continue to offer this program. This program allows 
a Marine who has recently deployed an option for a 2-year deferment 
from involuntary activation if they join a Selected Marine Corps 
Reserve unit after transitioning from active duty. The intent of the 2-
year involuntary deferment is to allow transitioning Marines the 
opportunity to participate in the Selected Marine Corps Reserve without 
sacrificing the ability to build a new civilian career.
    Junior officer recruiting and consequently meeting our Reserve 
company grade requirement remains the most challenging area. 
Historically, the Active Component Marine Corps has been the source of 
company grade officers to the Selected Marine Corps Reserve, due to 
initial active duty contractual requirements of all Reserve-
commissioned officers. There are, however, three programs in place now 
that enable Reserve officer accessions without the typical 3 to 4-year 
active duty obligation: the Reserve Enlisted Commissioning Program 
(RECP), the Meritorious Commissioning Program--Reserve (MCP-R) and the 
Officer Candidate Course--Reserve (OCC-R).
    These programs strive to increase the number and quality of company 
grade officers within deploying Reserve units while addressing our 
overall shortage of junior officers in our Reserve units. The three 
programs combined to access 108 Reserve officers during fiscal years 
2007 and 2008, and are an essential tool to help mitigate company grade 
officer shortages in the Selected Marine Corps Reserve.
    Eligibility for the RECP was expanded to qualified Active Duty 
enlisted Marines. The MCP-R was established for qualified enlisted 
Marines, Reserve and Active, who possess an Associates Degree or 
equivalent number of semester hours. The third program, the OCC-R, has 
proven to be the most successful as 93 candidates have been 
commissioned second lieutenants in the Marine Corps Reserve during 
fiscals years 2007 and 2008. We anticipate commissioning between 50 and 
75 more second lieutenants through the OCC-R this fiscal year.
    The OCC-R focuses on ground-related billets, with an emphasis on 
ground combat and combat service support within Reserve units that are 
scheduled for mobilization. The priority to recruit candidates is tied 
to the Marine Forces Reserve Force Generation Model. Refinement of the 
OCC-R program to target geographic company grade officer shortfalls is 
a logical next step.
Retention
    All subordinate commanders and senior enlisted leaders at each 
echelon of command are required to retain quality Marines. On a monthly 
basis, these leaders identify Marines who either have to re-enlist or 
extend. Identified Marines are counseled concerning the opportunity for 
their retention in the Selected Marine Corps Reserve.
    Enlisted retention trends remain a concern and are being monitored 
very closely, but were obviously affected by the Active Component 
202,000 build. The good news is that the Active Component Marine Corps 
is no longer making a concerted effort to draw personnel from the 
Selected Marine Corps Reserve to active duty.
    For fiscal year 2008, Reserve officer retention remained at the 
same level as during the previous fiscal year, which was above historic 
levels.
    We continue to offer retention incentives for enlisted Marines in 
the Selected Marine Corps Reserve, to include the maximum allowable 
$15,000 Selected Marine Corps Reserve Affiliation Bonus for an initial 
3-year commitment. We also offer a $10,000 Selected Marine Corps 
Reserve Officer Affiliation Bonus for those officers who affiliate with 
a Selected Marine Corps Reserve unit and agree to participate for 3 
years. I greatly appreciate the continuance of the increased 
reenlistment incentive, which was initially provided in the fiscal year 
2008 National Defense Authorization Act.
    These incentives are necessary tools to help us retain quality 
Marines and consequently assist us in achieving an acceptable 
percentage of authorized Selected Reserve end strength.
    I read with interest the Memorandum of July 24, 2008, by Secretary 
Gates concerning the recommendations of the Commission on the National 
Guard and Reserves. I am pleased to see the strong emphasis on study of 
the various recommendations that pertain to the Continuum of Service 
personnel management construct. As the Continuum of Service concept is 
refined, it should facilitate the affiliation of prior service Marines 
into the Selected Marine Corps Reserve as well as retain those good 
Marines already serving.
                               equipment
    The Marine Corps Reserve, like the Active Component, has two 
primary equipping priorities: first--equipping individual deploying 
Marines and sailors, and second--equipping our units to conduct home 
station training. We will continue to provide every deploying Marine 
and sailor with the latest generation of individual combat and 
protective equipment. Our unit equipping efforts include the full 
complement of equipment to support training efforts across the MAGTF. 
This complement includes essential communications; crew-served weapon 
systems such as Light Armored Vehicles (LAVs), Assault Amphibian 
Vehicles (AAVs), Tanks, and Artillery; ground mobility; and ground 
support equipment, which requires continued adequate funding of our 
Operations and Maintenance accounts. Your continued support in this 
area has enabled us to adequately sustain home station training and 
pre-deployment operations.
    As with all we do, our focus will continue to be on the individual 
Marine and sailor. Ongoing efforts to equip and train this most valued 
resource have resulted in obtaining the latest generation individual 
combat and protective equipment: M16A4 service rifles, M4 carbines, 
Rifle Combat Optic scopes, improved helmet pad suspension systems, 
enhanced Small Arms Protective Insert plates, Modular Tactical Vests, 
and the latest generation AN/PVS-14 Night Vision Devices, to name a 
few. Every member of Marine Forces Reserve has deployed fully equipped 
with the most current authorized Individual Combat Clothing and 
Equipment to include Personal Protective Equipment.
    Marine Forces Reserve's unit equipping priority is to obtain the 
principal end items necessary to establish or replenish the appropriate 
inventory of equipment to the level dictated by our Training Allowance 
(TA). Training Allowance is the amount of equipment needed by each unit 
to conduct home station training. Our Reserve units should train with 
the equipment necessary for Marine Forces Reserve to effectively 
augment and reinforce the Active Component.
    Currently, our equipping focus is on mitigating the short-term 
impact of reduced supply of certain principal end items, e.g.; seven 
LAV variants, Digital Terrain Analysis Mapping Systems, and the Theater 
Provide Equipment Sensors. We employ adaptive resourcing and training 
management approaches to ensure our Reserve units can adequately train. 
The inherent latency in procurement timelines and competing priorities 
for resources continue to challenge the training and equipping of our 
Operational Reserve. Since the Marine Corps procures and fields 
equipment as a Total Force, equipment modernization efforts of the 
Marine Corps Reserve are synchronized with the efforts of the Active 
Component. The approved $37.3 million fiscal year 2009 NGREA will 
provide Marine Forces Reserve the funds to procure much needed Tactical 
Laptop Computer Packages (Ruggedized Laptops and General Purpose 
Laptops), Supporting Arms upgrade to Digital Virtual Training 
Environment (DVTE), Bright Star FLIR, Light Armored Vehicle 25 A2 
Variant (LAV-25A2), and a Tactical Remote Sensor Suite (TRSS).
    To maintain an inventory of current equipment necessary to conduct 
home station training, Marine Forces Reserves utilizes several 
resources and programs. Routine preventive and corrective maintenance 
are still performed throughout the country by our Marines. However, 
ground equipment maintenance efforts have expanded over the past few 
years, leveraging contracted services and depot-level capabilities. 
Marine Corps Logistics Command (LOGCOM), through mobile maintenance 
teams, provides preventive and corrective maintenance support to our 
Reserve units. Marine Forces Reserve is actively involved in the Marine 
Corps Depot Level Maintenance Program (DLMP) to support the continued 
operation of principal end items. Marine Corps Logistics Command 
continues to uniquely provide Marine Forces Reserve a ``Repair and 
Return'' (R&R) program which enables us to request additional 
maintenance support when requirements exceed the Marine Forces Reserve 
maintenance capacity.
    Another key maintenance program utilized by Marine Forces Reserve 
is the Corrosion Prevention and Control (CPAC) program which extends 
the useful life of all Marine Corps tactical ground and ground support 
equipment. This program reduces significant maintenance requirements 
and associated costs due to corrosion through the application of 
corrosion-resistant compounds, establishing environmentally-safe wash-
down racks, and providing climate controlled storage. Additionally, the 
program identifies, classifies, and effects repair, or recommends 
replacement of equipment that has already succumbed to the elements.
    Marine Corps Reserve ground equipment readiness rates are currently 
above 90 percent (Maintenance--97 percent and Supply--92 percent as of 
March 9, 2009), based on our Reserve equipment Training Allowance. The 
Marine Corps Reserve equipment investment overseas MAGTF operations 
since 2004 is approximately 5 percent of our overall equipment and 
includes various communications, motor transport, engineer, and 
ordnance equipment, as well as several modern weapons systems such as 
the new HIMARS artillery system and the latest generation Light Armored 
Vehicle. This investment has presented challenges for our home station 
training requirements yet greatly adds to the war fighting capability 
of the Marine Corps. Deliberate planning at the Service level is 
currently underway to reset the Total Force, to include resourcing the 
Reserve equipment. This resourcing will enable the Marine Corps Reserve 
to remain ready, relevant, and responsive to the demands of our Corps.
    Marine Corps Reserve equipment requirements are captured as part of 
Marine Corps Total Force submissions. Priority Reserve equipment 
requirements that cannot be timely met with these vehicles are 
identified in the Commandant's Unfunded Programs List and/or my NGREA 
Request.
    We especially appreciate Congress' support of the Marine Corps 
Reserve through NGREA. It would be impossible for me to overstate the 
importance of NGREA and in particular, the consistency of these 
appropriations. Since 2002, NGREA has provided more than $240 million 
for equipment procurements. The stability of NGREA funding has 
significantly increased our ability to forecast meeting priority 
equipment requirements. The NGREA provides immediate flexibility, 
allowing procurement of items necessary to meet specific combat 
capability, training, and support requirements.
    In the last 3 years, we have been able to close the gap on combat 
equipment requirements necessary to effectively train our Marines and 
sailors. Examples of high-priority combat equipment purchases we have 
made or will make through fiscal years 2007, 2008 and 2009 NGREA 
funding are: the LITENING II Targeting Pod; the AN/ARC-210 (V) Multi-
Modal Radio system for our KC-130 aircraft; the UC-12+ aircraft; 
multiple C\2\ systems component; and as previously stated, the BRITE 
STAR FLIR; the Tactical Remote Sensor System; and the LAV-25A2. Through 
consistent NGREA funding, we have been able to completely eliminate 
some deficiencies.
    Additionally, with NGREA, we have been able to establish a robust 
ground combat modeling and simulation program, our NGREA-procured 
Virtual Combat Convoy Trainers (VCCTs), Combat Vehicle Training 
Simulators (CVTSs), Medium Tactical Vehicle Replacement--Training 
Systems (MTVR-TS), HMMWV Egress Trainer, and Digital Virtual Training 
Environments (DVTEs) enable us to overcome many resource and time-
related challenges while increasing the individual and unit's combat 
readiness. Our fiscal year 2009 NGREA plan includes Supporting Arms-
Helmet Mounted Displays (SA-HMDs) for our DVTEs, giving our Marines the 
ability to enhance Forward Air Control and Indirect Fire Control 
proficiency without leaving the Reserve Training Center. It is accurate 
to say that we could not have provided some critical capabilities 
without these NGREA funds.
                                training
    The collective lessons wrought from our unit and individual combat 
experiences, Theater Security Cooperation Exercises and other Active 
Component operational tempo relief deployments have helped improve 
nearly all facets of our current Reserve Component training. In this 
regard, one of the most exciting areas where we are continuing to 
transform the depth and scope of our training remains the cutting-edge 
arena of Modeling and Simulations Technology.
    Rapid advancement in modeling and simulation software, hardware and 
network technologies are providing new and increasingly realistic 
training capabilities. Marine Forces Reserve is training with and 
continuing to field several complex digital video-based training 
systems which literally immerse our Reserve Component Marines into 
``virtual'' combat environments, complete with the sights, sounds and 
chaos of today's battlefield environment in any climate or place, day 
or night, spanning the full continuum of warfare from high-intensity 
conventional warfare to low-intensity urban conflict.
    One new capability that we are fielding to support our Reserve 
Marines is the Indoor Simulated Marksmanship Trainer-XP. This 
interactive audio/video weapons simulator provides enhanced 
marksmanship, weapons employment and tactical decision making training 
for a variety of small arms. The system consists of infantry weapons 
instrumented with lasers that enable Marines to simulate engaging 
multiple target types.
    Another system addressed in lasts year's testimony that continues 
to prove invaluable in the pre-deployment training of our tactical 
drivers is the Virtual Combat Convoy Trainer-Reconfigurable Vehicle 
System. This is an advanced, full-scale vehicle simulator that trains 
Marines in both basic and advanced combat convoy skills using variable 
terrain and roads in a variety of weather, visibility and vehicle 
conditions. The simulator is a mobile, trailer-configured platform that 
utilizes a HMMWV mock-up, small arms, crew-served weapons, 360-degree 
visual display with after-action review/instant replay capability. 
Marine Forces Reserve was the lead agency for initial procurement, 
training and evaluation of this revolutionary training system, which is 
now being used throughout the Marine Corps. We are now preparing to 
accept the fourth generation of this invaluable training system at Camp 
Wilson aboard the Marine Air Ground Combat Center in Twenty Nine Palms, 
California. Upon installation, student throughput capability for combat 
convoy training will double.
    It is important to recognize the key role that Congress has played 
in the fielding of all four generations of the VCCT. Procurement of the 
VCCT resulted directly from NGREA. Of all the training packages our 
deploying units complete, returning combat veterans have consistently 
praised the invaluable benefits of having had the opportunity to train 
in tactics, techniques and procedures using this advanced simulation 
system.
    Beginning this summer, Marine Forces Reserve will field the newly 
developed Deployable Virtual Training Environment (DVTE). This 
advanced, first-person, immersive, simulation-based training system, 
made up of 16 laptops and peripherals packaged in ruggedized deployable 
cases, is capable of emulating and simulating a wide variety of weapons 
systems and generating hi-fidelity, relevant terrain databases. The 
DVTE also provides small-unit echelons with the opportunity to 
continuously review and rehearse Command and Control procedures and 
battlefield concepts in a virtual environment. The system consists of 
two components, the Combined Arms Network, which provides integrated 
first person combat skills, and Tactical Decision Simulations, which 
provides individual, fire team, squad and platoon-level training 
associated with patrolling, ambushes and convoy operations. Additional 
features include combat engineer training, small-unit tactics training, 
tactical foreign language training and event-driven, ethics-based, 
decision-making training.
    One of our newest and rapidly advancing training initiatives 
involves the collocation of a select number of the previously cited 
training systems aboard Camp Upshur at Marine Corps Base Quantico, 
Virginia. Our intent is to provide an advanced, unit-level training 
capability within easy access of the I-95 corridor. When fully 
established this summer, the Camp Upshur training capabilities will 
include eight mobile VCCT trailers, two mobile HMMWV egress trainers, a 
mobile multi-platform tactical vehicle operator simulation system, 
three Indoor Simulated Marksmanship Trainers that are networked for 
combined arms training, and 80 DVTE terminals. These resources, in 
combination with the billeting, training ranges and facilities 
available aboard MCB Quantico, will provide the opportunity for 
reinforced battalions to conduct training and force-on-force exercises 
using combinations of live, virtual and constructive training systems 
and resources. This initiative provides state-of-the-art training 
support to units while revitalizing long-established Camp Upshur into a 
cost effective, vital and dynamic training resource for Marine Forces 
Reserve and other agencies. In addition to facilitating training at 
Camp Upshur, the numerous mobile training systems will remain available 
for movement and redeployment anywhere in the lower 48 states in 
support of training Reserve Marines.
    All of these advanced training systems have been rapidly acquired 
and fielded with vital Supplemental and NGREA funding. These critical 
funding resources are not only providing a near-term training 
capability in support of combat deployments, but are also providing a 
solid foundation for the transformation of our training environment 
from legacy static training methods to more realistic virtual combat 
training environments designed to prepare our Marines and sailors to 
succeed on future battlefields.
                               facilities
    Marine Forces Reserve is comprised of 185 locations in 48 states, 
the District of Columbia, and Puerto Rico. These facilities are 
comprised of 32 owned and 153 tenant locations. In contrast to Active 
Duty installations that are normally closed to the general public, our 
Reserve sites are openly located within civilian communities. This 
arrangement requires close partnering with state and local entities 
nationwide. Thus, the condition and appearance of our facilities may 
directly influence the American people's perception of the Marine Corps 
and the Armed Forces as well as possibly impacting our recruiting and 
retention efforts.
    Marine Forces Reserve Facilities Sustainment, Restoration, and 
Modernization (FSRM) program funding levels continue to address 
immediate maintenance requirements and longer-term improvements to our 
older facilities. Sustainment funding has allowed us to maintain our 
current level of facility readiness without further facility 
degradation. Your continued support for both the Military Construction 
Navy Reserve (MCNR) program and a strong FSRM program are essential to 
addressing the aging infrastructure of the Marine Corps Reserve. With 
more than 57 percent of our Reserve Centers being more than 30 years 
old and 44 percent being more than 50 years old, the continued need for 
support of both MCNR and FSRM cannot be overstated.
    The Base Realignment and Closure (BRAC) 2005 continues to move 
forward and the Marine Corps Reserve will begin relocating many Reserve 
units to new consolidated Reserve centers during fiscal year 2009. Like 
other BRAC Business Plans, the Marine Corps Reserve BRAC program is 
tightly linked to other service's business plans for our shared reserve 
centers. Of the 25 BRAC actions for the Marine Corps Reserve, 21 are in 
conjunction with Army and Navy military construction projects.
    In September 2008, the Department of the Navy and the State of 
Louisiana signed a lease for a new Federal City in New Orleans, which 
will provide a new headquarters compound for Marine Forces Reserve. The 
state of Louisiana is providing construction dollars for the new 
headquarters facility and saving the federal government more than $130 
million.
    Our Marine Forces Reserve Environmental Program promotes accepted 
stewardship principles as well as compliance with all regulatory 
requirements in support of training both on site and outside the fence 
line. We employ the Environmental Management System (EMS), which uses a 
systematic approach ensuring that environmental activities are well 
managed and continuously improving. Additionally, Marine Forces Reserve 
has initiated a nationwide program to reduce waste production and 
ensure proper disposal at our centers. We have also executed several 
major projects to protect the nation's waterways near our Reserve 
centers.
                            health services
    Military healthcare support (medical prevention and treatment) 
programs have grown exponentially over the past few years--fiscal year 
2008 being one of the most significant. A myriad of programs are now 
provided to our Marines, sailors, and their families during pre-
deployment, deployment and post deployment.
    Our Health Services priorities are: (1) maximize education and 
awareness of TRICARE support for Reservists; (2) attain DOD/DON 
Individual Medical Readiness (IMR) goals; and (3) ensure general 
awareness of all health service programs in support of our service 
members.
    TRICARE remains the foundation of our medical support programs, 
providing the full spectrum of medical, dental and behavioral health 
services. As a result of the 2009 Defense Authorization Act analysis of 
TRICARE Reserve Select costs, monthly premiums for TRICARE Reserve 
Select dropped by 42 percent for individual coverage and by 29 percent 
for family coverage on January 1, 2009. Reservists now pay $47.51 a 
month for single coverage, down from $81, while the cost for families 
is down from $253 to $180.17 a month. Reservists and their family 
members are eligible for different TRICARE benefits depending on their 
status: as a member of the Select Reserve, a Reservist may qualify for 
and purchase TRICARE Reserve Select; on military duty for 30 days or 
less a Reservist is covered under Line of Duty care; when activated he 
and his family are covered by TRICARE Prime; and when deactivated a 
Reservist is eligible for transitional health plan options.
    All deploying service members are now required to complete a 
Baseline Pre-Deployment Neuro-Cognitive Functional Assessment. The tool 
used to complete this assessment is called the Automated Neuro-
Psychological Assessment Metric (ANAM). Results from the ANAM will 
assist leaders and medical providers with evaluating service members 
who screen positive and require necessary medical treatment. The intent 
is that ANAM results and implementation of the Psychological Health 
Outreach Program will provide standardized guidance for providers who 
follow up on identified issues and concerns from results of the Post-
Deployment Health Assessments, to include development of protocols and 
creation and implementation of an information/benefits tracking system. 
Our Commanders and staff are coordinating with the Navy's Bureau of 
Medicine (BUMED) in order to ensure that deploying Marines and sailors 
are properly evaluated prior to deployment.
    Efforts to assess health post deployment have also increased 
significantly over the past year. In addition to completing a Post 
Deployment Health Assessment prior to returning to the United States, 
our Marines and sailors now complete a Post Deployment Health 
Reassessment (PDHRA) 3 to 6 months after returning from deployment. The 
PDHRA is crucial in identifying and addressing health concerns with 
specific emphasis on mental health issues which may have emerged since 
returning from deployment. Active tracking of this process ensures that 
we meet the post-deployment health care needs of our Marines and 
sailors.
    The Psychological Health Outreach Program, introduced by BUMED, is 
another specialty program which addresses post deployment behavioral 
health concerns. This program is designed to provide early 
identification and clinical assessment of our Reserve Marines and 
sailors who return from deployment at risk for not having stress-
related injuries identified and treated in an expeditious manner. This 
program, funded by supplemental Defense Health Program appropriations, 
provides outreach and educational activities to improve the overall 
psychological health of our Reservists and identifies long-term 
strategies to improve psychological health support services for the 
Reserve community. We are currently developing our concept and 
implementation strategy to best support the Force.
    Individual medical and dental readiness for our Marines and sailors 
remains a top priority. To improve current readiness of our Reservists, 
which is 64 percent and 73 percent as of March 1, 2009 respectively, we 
continue to utilize the Reserve Health Readiness Program (RHRP). This 
program funds medical and dental contracted specialists to provide 
health care services to units specifically to increase individual 
medical and dental readiness. During fiscal year 2008, this service 
provided more than 3,020 Preventive Health Assessments; 4,013 Dental 
examinations, 402 Dental Panoramic x-rays; 529 Blood Draws; 803 
Immunizations; and 3,149 PDHRAs for our Marines and sailors.
    The Armed Forces Health Longitudinal Technology Application 
(AHLTA), which provides electronic health records for the entire U.S. 
Armed Forces, is currently being rolled out to all Reserve Components 
to include Marine Forces Reserve. The transition to electronic medical 
records will enable optimal health services to our Marines and sailors 
with the end result being increased individual and unit medical 
readiness.
                            quality of life
    We continue to aggressively institute new Family Readiness 
Programs, revitalize services, and proactively reach out to our 
Reservists and their families to ensure our programs and services meet 
the needs and expectations of our Marines and their families.
    As part of widespread Marine Corps reforms to enhance family 
support, we are placing full-time Family Readiness Officers (FROs), 
staffed by either civilians or Active Duty Marines, at the battalion/
squadron level and above to support the Commander's family readiness 
mission. Modern communication technologies, procedures and processes 
are being expanded to better inform and empower family members 
including spouses, children and parents of single Marines.
    The Marine Forces Reserve Lifelong Learning Program continues to 
provide educational information to service members, families, retirees, 
and civilian employees. More than 1,200 Marine Forces Reserve personnel 
(Active and Reserve) enjoyed the benefit of Tuition Assistance, 
utilizing more than $2.4 million that funded more than 4,000 courses 
during fiscal year 2008. Tuition Assistance greatly eases the financial 
burden of education for our service members while enabling them to 
maintain progress toward their education goals.
    The Marine Corps' partnership with the Boys and Girls Clubs of 
America (BGCA) and the National Association for Child Care Resources 
and Referral Agencies (NACCRRA) continues to provide a great resource 
for service members and their families in selecting child care, before, 
during, and after a deployment in support of overseas contingency 
operations. The Boys and Girls Clubs of America provide outstanding 
programs for our Reserve Marines' children between the ages of 6 and 18 
after school and on the weekends. Under our agreement with BGCA, 
Reserve families can participate in more than 40 programs at no cost. 
With NACCRRA, we help families of our Reservists locate affordable 
child care that is comparable to high-quality, on-base, military-
operated programs. The NACCRRA provides child care subsidies at quality 
child care providers for our Reservists who are deployed in support of 
overseas contingency operations and for those Active Duty Marines who 
are stationed in regions that are geographically separated from 
military installations. We also partnered with the Early Head Start 
National Resource Center Zero to Three to expand services for family 
members of our Reservists who reside in isolated and geographically-
separated areas. Additionally, our Marine families (on active duty 30 
or more days) enrolled in the Exceptional Family Member Program are 
offered up to 40 hours of free respite care per month for each 
exceptional family member. This allows our families the comfort that 
their family member will be taken care of when they are in need of 
assistance.
    We fully recognize the strategic role our families have in mission 
readiness, particularly mobilization preparedness. We prepare our 
families for day-to-day military life and the deployment cycle (Pre-
Deployment, Deployment, Post-Deployment, and Follow-On) by providing 
educational opportunities at unit Family Days, Pre-Deployment Briefs, 
Return and Reunion Briefs, and Post-Deployment Briefs. This is 
accomplished through unit level Family Readiness programs that are the 
responsibility of the Commanding Officer managed by the full-time, non-
deploying FRO and supported by trained volunteers and Force level 
programs such as Lifestyle Insights, Networking, Knowledge, and Skills 
(L.I.N.K.S.).
    Every Marine Corps Reserve unit throughout the country has a Family 
Readiness program that serves as the link between the command and 
family members--providing official communication, information, and 
referrals. The FRO proactively educates families on the military 
lifestyle and benefits, provides answers for individual questions and 
areas of concerns, and enhances the sense of community and camaraderie 
within the unit. The L.I.N.K.S. program is a training and mentoring 
program designed by Marine spouses to help new spouses thrive in the 
military lifestyle and adapt to challenges--including those brought 
about by deployments. This program has recently been expanded to 
support the extended family of a Marine--children and parents. Online 
and CD-ROM versions of L.I.N.K.S. make this valuable tool more readily 
accessible to families of Reserve Marines who are not located near 
Marine Corps installations.
    To better prepare our Marines and their families for activation, 
Marine Forces Reserve is fully engaged with OSD to implement the Yellow 
Ribbon Reintegration Program, much of which we have had in place for 
quite some time. We continue to implement an interactive approach that 
provides numerous resources and services throughout the deployment 
cycle. Available resources include, but are not limited to, family-
related publications, online volunteer training opportunities, and a 
family readiness/mobilization support toll free number. Family 
readiness educational materials have been updated to reflect the 
current deployment environment. Specifically, deployment guide 
templates that are easily adapted to be unit-specific were distributed 
to unit commanders and family readiness personnel, as well as Marine 
Corps families, and are currently available on our Web site. Services 
such as pastoral care, Military OneSource, and various mental health 
services are readily available to our Reserve Marines' families. Also, 
through the DOD contract with the Armed Services YMCA, the families of 
our deployed Reserve Marines are enjoying complimentary fitness 
memberships at participating YMCA's throughout the United States and 
Puerto Rico. Our Active Duty Marines and their families located at 
Independent Duty Stations have the ability to access these services as 
well.
    Managed Health Network (MHN) is an OSD-contracted support resource 
that provides surge augmentation counselors for our base counseling 
centers and primary support at sites around the country to address 
catastrophic requirements. This unique program is designed to bring 
counselors on-site at Reserve Training Centers to support all phases of 
the deployment cycle. Marine Forces Reserve has incorporated this 
resource into post-demobilization drill periods, Family Days, Pre-
Deployment Briefs, and Return and Reunion Briefs. Follow-up services 
are scheduled after Marines return from combat at various intervals to 
facilitate on-site individual and group counseling. Additionally, we 
are utilizing these counselors to conduct post-demobilization 
telephonic contact with IRR Marines in order to assess their needs and 
connect them to services.
    The Peacetime/Wartime Support Team and the support structure within 
the Inspector-Instructor staffs at our Reserve sites provides families 
of activated and deployed Marines with assistance in developing 
proactive, prevention-oriented steps such as family care plans, powers 
of attorney, family financial planning, and enrollment in the Dependent 
Eligibility and Enrollment Reporting System. During their homecoming, 
our Marines who have deployed consistently cite the positive importance 
of family support programs.
    To strengthen family support programs, we will continue to enhance, 
market, and sustain outreach capabilities. The current OSD-level 
oversight, sponsorship, and funding of family support programs properly 
corresponds to current requirements. We are particularly supportive of 
Military OneSource, which provides our Reservists and their families 
with an around-the-clock information and referral service via toll-free 
telephone and Internet access on a variety of subjects such as 
parenting, childcare, education, finances, legal issues, elder care, 
health, wellness, deployment, crisis support, and relocation.
    Marines and their families, who sacrifice so much for our Nation's 
defense, should not be asked to sacrifice quality of life. We will 
continue to be a forceful advocate for these programs and services. We 
will continue to evolve and adapt to the changing needs and 
environments in order to ensure that quality support programs and 
services are provided to our Marines and their families.
            casualty assistance and military funeral honors
    One of the most significant responsibilities of the Reserve site 
support staff is that of casualty assistance. It is at the darkest hour 
for our Marine families that our support is most needed. By virtue of 
our dispersed composition, Marine Forces Reserve site support staffs 
are uniquely positioned to accomplish the vast majority of all Marine 
Corps casualty notifications and are trained to provide assistance to 
the family. Historically, Marine Forces Reserve personnel have been 
involved in approximately 90 percent of all notifications and follow-on 
assistance to the next of kin. There is no duty to our families that we 
treat with more importance, and the responsibilities of our Casualty 
Assistance Officers continue well beyond notification. We ensure that 
our Casualty Assistance Officers are adequately trained, equipped, and 
supported by all levels of command. Once a Casualty Assistance Officer 
is designated, he or she assists the family members in every possible 
way, from planning the return and final rest of their Marine to 
counseling them on benefits and entitlements to providing a strong 
shoulder to lean on when needed. The Casualty Assistance Officer is the 
family's central point of contact and support; available to serve as a 
representative or liaison with the media, funeral home, government 
agencies, or any other agency that may become involved.
    Additionally, Marine Forces Reserve units provide significant 
support for military funeral honors for our veterans. The active duty 
site support staff members, with augmentation from their Reserve 
Marines, performed more than 12,000 military funeral honors in 2008 (91 
percent of the Marine Corps total) and we anticipate supporting nearly 
13,000 during 2009. The authorization and funding to bring Reserve 
Marines on active duty to assist in the performance of military funeral 
honors has greatly assisted us at sites such as Bridgeton, Missouri, 
Chicago, and Fort Devens, Massachusetts, where we frequently perform 
more than 10 funerals each week. As with Casualty Assistance, we place 
enormous emphasis on providing military funeral honor support.
                               conclusion
    The Marine Corps Reserve--your Operational Reserve--continues to 
shoulder the war fighting burden with our Active Component 
counterparts. Operations Enduring and Iraqi Freedom, as well as support 
to Combatant Commanders' Theater Support Cooperation Exercises, have 
required continuous activations of Selected Marine Corps Reserve 
forces. We will continue to focus upon the future challenges to the 
Total Force and corresponding requirements of modernization, training 
and personnel readiness to ensure that the Marine Corps Reserve remains 
on equal footing with our Active Component. Your consistent and 
steadfast support of our Marines, sailors and their families directly 
contributes to our ability to do so. Semper Fidelis!

    Chairman Inouye. General Stenner.
STATEMENT OF LIEUTENANT GENERAL CHARLES E. STENNER, 
            JR., CHIEF, AIR FORCE RESERVE
    General Stenner. Chairman Inouye and Vice Chairman Cochran, 
Senator Murray, I am very, very happy to be here today on 
behalf of the Air Force Reserve and the Air Force Reserve 
Command.
    Before I go any farther, I would like to tell you that I am 
joined today by my command chief, Chief Master Sergeant Troy 
MacIntosh, who is the senior ranking enlisted member of that 
very, very powerful and strong backbone that we have as an Air 
Force Reserve, the enlisted force. And I am pleased that he has 
been around to help me as we move through the transitions that 
we have been making and keep us strong in that regard. So thank 
you very much, Chief, for being here.
    I also have to say thank you, as have the rest of my 
compatriots, for all of the things that this Appropriations 
Committee has done for the Air Force Reserve. The fact that we 
are, in fact, able to provide 14 percent of this Nation's total 
air force for just a little over 5 percent of the military 
personnel budget is a very cost-effective way to deliver the 
capability that the combatant commanders need.
    I believe that we are, in fact, funded appropriately to be 
that tier-one force that can join our two component partners in 
the Guard and the active duty regular Air Force, to seamlessly 
provide that capability as we are showing on a daily basis, 
whether it is deployed or whether it is in place at home 
station. And the capability we provide from home station is 
sometimes a little bit unnoticed as well because we do fight in 
place with our mobility forces and our space forces and our 
cyber forces, our intercontinental ballistic missile (ICBM) 
forces, et cetera, all of which play a part in a three-
component Air Force.
    I will also tell you that the modernization has happened. 
Our Air Force is modernizing and recapitalizing, and the NGREA 
dollars have been well used to take the equipment that we have 
and get it into the fight earlier, quicker, along with our 
Guard and active component partners.
    My priorities--and I am on the record as to how we are 
about to do business and continue to do business--are to be 
cognizant of the fact that we are, first and foremost, a 
strategic reserve, which I believe we are leveraging on a daily 
basis to provide an operational capability and be that 
operational force around the world. And we will continue to do 
that and retain and recruit the best and the brightest. And as 
a Reserve, we are able to be everywhere we need to be and move 
folks to and from, growing into the new capabilities, and then 
adjust what we need to do in that capability, both in the unit 
world and in that very unique individual mobilization augmentee 
world that we have as well, bringing again a dramatic 
capability to the Air Force.
    The military construction that is required and the manpower 
that we will need to do the new mission sets that are coming 
in, the unmanned aerial systems, the intelligence, 
surveillance, reconnaissance and with our nuclear fleet of 
bombers--all of these things are part and parcel of what we as 
an Air Force Reserve do as part of that three-component Air 
Force. And we are very, very proud of the 67,400 men and women 
that are deployed around the world today doing what the Nation 
needs us to do, and we look forward to your questions about how 
we can do that better.
    Thank you, sir.
    Chairman Inouye. Thank you very much.
    [The statement follows:]
    Prepared Statement of Lieutenant General Charles E. Stenner, Jr.
    Mr. Chairman and distinguished members of the committee, I 
appreciate the opportunity to appear before you today and discuss the 
state of the Air Force Reserve.
    The Air Force Reserve is a powerful manifestation of the finest 
American qualities; pursuit of happiness and dedication to our Nation. 
It is an organization of ordinary working people, wedded to the fabric 
of our great Nation through their individual pursuits. Reserve Airmen 
are linguists, utility technicians, police, railway engineers, 
entomologists, school teachers, salespeople, analysts, aviators, and 
nurses, to name just a few. All are dedicated to the greater purpose of 
serving our Nation; all are essential.
    The Air Force Reserve provides these dedicated individuals the 
opportunity to be a citizen and an Airman. Like the Reserve Components 
from our sister services, we perform the essential task of bringing 
citizens to service. In doing so we gain from them their civilian 
skills, capabilities and experience; alternative approaches to solving 
problems; and expertise and judgment. Civilian employers benefit from 
Air Force Reservists who are instilled with the enduring values of the 
Air Force--integrity, service before self, and excellence in all we do.
    Secretary of Defense Robert Gates recently remarked that if we are 
to meet the myriad of challenges facing our Nation, we must strengthen 
and fully integrate other important elements of national power; that 
military success is not sufficient to win in conflict; that we must 
urgently devote time, energy and thought to how we better organize 
ourselves to meet these challenges.
    The Air Force is already recognizing the benefits of using all of 
its resources from the Reserve, Guard, and Regular Components as it 
increasingly relies on Reservists to support operational missions 
throughout the world. Moreover, the Air Force is encouraging the 
Reserve and Guard to integrate more fully with the Regular Air Force in 
a whole host of missions, adding tremendous value to the forces the Air 
Force provides to the joint warfighter.
    As the Nation looks for ways to strengthen its organizations and 
integrate all of the untapped resources it will need in facing the 
challenges of the 21st Century, we submit that a model by which 
ordinary people, dedicated to serving their country in a way that meets 
both their needs and the needs of the Nation, is already manifest in 
the U.S. Air Force everyday--in the extraordinary Americans of the Air 
Force Reserve.
    I'm proud to serve along side these great Airmen and as Chief and 
Commander of the Air Force Reserve, I have made a promise to them that 
I will advocate on their behalf for resources and legislation that will 
allow them to serve more flexibly in peace and war with minimum impact 
to their civilian career and employer. I will work to eliminate 
barriers of service, so that they can more easily serve in the status 
that meets their needs and those of the Air Force. And, I will work to 
efficiently and effectively manage our Air Force Reserve to meet the 
requirements of the Joint warfighter and the Nation.
                        recruiting and retention
    Over the last 8 years, the Air Force Reserve has exceeded its 
recruiting goals. Our success in great part has been due to the 
accessions of experienced Regular Air Force members upon completion of 
their active duty commitments. Indeed, recruiting highly trained 
individuals is essential to lowering training costs for the Air Force 
Reserve. For the past couple of years we have been able to recruit 
experienced Airmen from the Regular Air Force as a result of force 
structure changes and internal Departmental decisions.
    We no longer have the luxury of large numbers of experienced Airmen 
leaving Regular service. As both the Regular Air Force and the Air 
Force Reserve once again build end strength, we expect we will face 
some recruiting challenges in the near future: not only will the Air 
Force Reserve have access to fewer prior service members, but we will 
be competing with all other services for non-prior recruits.
    We are also facing challenges with retention. The Air Force Reserve 
continued to execute force structure changes in fiscal year 2008, to 
include BRAC and Total Force Initiatives, which prompted a reduction of 
over 7,000 positions. As a result, we again missed our historical 
officer and enlisted retention targets but met end strength 
requirements. Second term reenlistments and extensions fell slightly 
for the third straight year--we also attribute this to the large 
population of Airmen affected by the Air Force drawdown over the past 
few years. There is, however, a bright spot: in fiscal year 2008, for 
the first time in 3 years, we saw a dramatic upswing in reenlistments/
extensions for first-termers and a modest gain for career Airmen.
    Nevertheless, our forecast models indicate that we will continue to 
face challenges. Accordingly, as outlined in our Air Force Reserve 
priorities discussed below in greater detail, we are striving to 
improve Reserve Airmen awareness of benefits, incentives and policies 
affecting deployments; we are emphasizing the importance of the 
Employer Support of the Guard and Reserve (ESGR) program and the Yellow 
Ribbon Reintegration Program (YRRP); and we are striving to better 
understand this very complicated dynamic by surveying the attitudes and 
beliefs of our Airmen on the array of policies, benefits and incentives 
that affect them to determine what appropriate adjustments can be made 
to improve our retention outlook. The Department of Defense and the Air 
Force have improved our ability to make deployments more predictable. 
And as I discuss below, I believe we need to take a hard look at the 
number of Airmen held in Reserve.
    I am confident that as we act on not only our Air Force Reserve 
priorities, but those of the Air Force and the Department of Defense, 
and with the continued support of this committee and Congress, we will 
be able to continue to meet the needs of combatant commanders and the 
Nation with a viable operational and strategic Air Force Reserve.
 preserving, leveraging and improving air force reserve value and our 
                               priorities
    The Air Force Reserve is a repository of experience and expertise 
for the Air Force. Air Force Reserve Airmen are among the most 
experienced Airmen in the Air Force. Air Force Reserve officers average 
roughly 15 years of experience, and enlisted members average 14 years 
of experience, compared to 11 years and 9 years for Regular Air Force 
officers and enlisted respectively. In fact, roughly 64 percent of Air 
Force Reserve Airmen have prior military experience.
    Airmen of the Selected Reserve remain mission-ready, training to 
the same standards and maintaining the same currencies as those in the 
Regular Air Force, and are capable of deploying within 72 hours of 
notification. These Airmen provide the insurance policy the Air Force 
and the Nation need: a surge capability in times of national crises.
    Reserve Airmen are a cost-effective force provider, comprising 
nearly 14 percent of the total Air Force authorized end-strength at 
only 5.3 percent of the military personnel budget. Put differently, Air 
Force Reserve Airmen cost per capita is 27.7 percent of that of Regular 
Air Force Airmen, or roughly 3.5 Reserve Airman to one Regular 
Airman.\1\
---------------------------------------------------------------------------
    \1\ Fiscal year 2008 President's Budget request, figures derived 
from ABIDES (Automated Budget Interactive Data Environment System), the 
budget system currently in use by the Air Force and recognized as the 
official Air Force position with respect to the Planning, Programming 
and Budget Execution (PPBE) system. Inflation data used for any 
constant dollar calculations were based on average Consumer Price Index 
for All Urban Consumers (CPI-U) rates for the past 10 years: roughly 
2.6 percent average annual rate of inflation. Medicare Eligible 
Retirement Health Care (MERHC) is an accrual account used to pay for 
health care of Medicare-eligible retirees (age 65 and beyond). Cost per 
capita figures were derived dividing cost of Selected Reserve program 
by Selected Reserve end-strength. When MERHC figures are included, the 
cost of Air Force Reserve Airmen to Regular Air Force Airmen increases 
to 30.4 percent.
---------------------------------------------------------------------------
    The Air Force leverages the inherent value of the Air Force Reserve 
in furtherance of its priorities, which are to: reinvigorate the Air 
Force nuclear enterprise; partner with the joint and coalition team to 
win today's fight; develop and care for Airmen and their families; 
modernize our air and space inventories, organizations and training; 
and recapture acquisition excellence.
    Preserving, utilizing and improving this value in pursuit of Air 
Force priorities underlie each of our Air Force Reserve priorities. We 
must provide an operational, combat ready force while maintaining a 
strategic reserve. We must preserve the viability of the triad of the 
relationships Reservists must sustain with their families, the Air 
Force Reserve and their employers. We must broaden Total Force 
Initiatives. And we must modernize our equipment and facilities. Each 
of these priorities is vital to preserving our value and sustaining our 
forces as we meet the needs of the Nation.
 operational, combat ready force while maintaining a strategic reserve
    The Air Force Reserve is first and foremost a strategic reserve, 
providing the Air Force with a surge capacity in times of national 
crisis. Over time, the Reserve has become a mission-ready reserve force 
capable of serving operationally throughout the world. Since OPERATION 
DESERT STORM, Air Force Reserve Airmen have been continuously engaged 
around the world supporting ongoing contingencies, serving side by side 
with the joint team.\2\
---------------------------------------------------------------------------
    \2\ Airmen of the Selected Reserve are mission-ready, capable of 
performing ongoing operations. Collectively, they have met the 
operational needs of the Air Force for decades--largely through 
volunteerism, but also through full-time mobilization. For example, 
Reserve and Guard Airmen have continuously supported Operation Coronet 
Oak in Southern Command year-round, 24/7, since 1977. Between 1991 and 
2003, Reservists supported the no-fly areas of Operations Northern and 
Southern Watch. Since the attacks on September 11, 2001, 54,000 
Reservists have been mobilized to participate in Operations Enduring 
Freedom, Noble Eagle and Operation Iraqi Freedom--6,000 remain on 
active duty status today. It is a fact that the Air Force, more than 
any other time, now relies on members of the Reserve and Guard to meet 
its operational requirements around the globe.
    Our Reserve community continues to answer our Nation's call to duty 
with large numbers of volunteer Reservists providing essential support 
to Combatant Commanders. Forty-six percent of the Air Force's strategic 
airlift mission and 23 percent of its tanker mission capability are 
provided by Reserve Airmen. We currently have over 450 C-17, C-5, KC-
135 and KC-10 personnel on active duty orders supporting the air 
refueling and airlift requirements.
    In Operations Enduring and Iraqi Freedom, Reserve C-130 crews flew 
over 6,000 hours in 2008; Reserve F-16 and A-10 crews flew over 3,700 
hours. The Air Force Reserve provides 24 crews and 12 fighter aircraft 
to USCENTCOM in their regularly scheduled rotations for the close air 
support mission.
    The Air Force Reserve maintains 60 percent of the Air Force's total 
Aeromedical Evacuation (AE) capability. Reserve AE crews and operations 
teams provide a critical lifeline home for our injured warfighters. Our 
highly trained AE personnel fill 39 percent of each AEF rotation and 
fulfill 12 Tanker Airlift Control Center tasked AE channel missions 
each quarter--all on a volunteer basis. On the home front in 2008, the 
Air Force Reserve provided 21 of 24 AE crews, 88 percent of the mission 
requirement, for the response to Hurricane's Ike and Gustav. 
Additionally, the Reserve provided 4 standby crews, 100 percent of the 
mission requirement, in support the Democratic and Republican National 
Conventions.
    In 2008, the men and women of our Combat Search and Rescue forces 
have been heavily engaged in life saving operations at home and abroad. 
Since February, Airmen of the 920th Rescue Wing at Patrick Air Force 
Base, Florida, and their sister units in Arizona and Oregon, flew over 
745 hours and saved more than 300 U.S. troops on HH-60 helicopter 
missions in support of U.S. Army medical evacuation operations in Iraq 
and Afghanistan. While mobilized for 14 months in support of combat 
missions abroad, the 920th continued to provide humanitarian relief in 
response to natural disasters at home, as well as provide search and 
rescue support for NASA shuttle and rocket launches.
    The Reserve made use of its organic ISR and firefighting 
capabilities to protect the lives and property of our citizens 
threatened by an especially severe fire season. Defense Support to 
Civilian Authorities engagement started with planning and directing 
exploitation and analysis of the first Global Hawk imagery to support 
Incident Analysis and Assessments. In fact, the first Distributed 
Ground System Mission Commander was an Air Force Reserve Officer that 
directed analysis of the areas devastated and movement of the fire 
lines. Aircrews in the 302nd Air Expeditionary Group (AEG) flew more 
than 980 airdrops and delivered in excess of 1.3 million gallons of 
fire retardant to help firefighters on the ground and mitigate further 
damage and destruction. The AEG is a Joint unit made up of eight C-130 
Hercules aircraft equipped with the Air Force Modular Airborne Fire 
Fighting System, six Marine Corps helicopters, and two Navy Reserve 
helicopters. Two of the C-130s belong to the Air Force Reserve's 302nd 
Airlift Wing at Peterson Air Force Base, Colorado. Reserve and Guard 
personnel helped fight the more than 2,000 fires that ravaged the 
California wilderness this past summer.
    The Air Force Reserve provides 100 percent of the airborne weather 
(hurricane hunting) capability for the Department of Defense. This past 
hurricane season tied as the fourth most active with 16 named storms 
and five major hurricanes. Throughout the year, Air Force Reserve 
``Hurricane Hunters'', C-130J aircraft flown by citizen Airmen of the 
403rd Wing at Keesler Air Force Base, Mississippi flew over 1,000 
hours, collecting life-saving data that was sent directly to the 
National Hurricane Center in Miami, Florida, contributing to better 
forecasts and landfall predictions. Following the end of the hurricane 
season in the Caribbean, the 403rd deployed 2 aircraft and 4 crews to 
the Pacific region to continue its support of storm research.
    In addition to our hurricane mission, the Air Force Reserve 
provides 100 percent of the aerial spray mission in support of the 
Federal Emergency Management Agency, the Centers for Disease Control, 
and state public health officials. Air Force Reserve aircrews and C-
130s from the 910th Airlift Wing, Youngstown Air Reserve Station, Ohio, 
sprayed more than a million storm ravaged acres of land with pesticides 
to control the spread of disease.
    Our intelligence, surveillance and reconnaissance professionals are 
providing critical information as they answer the Nation's call to 
service. In 2008, 192 intelligence personnel deployed in support of 
world-wide contingency missions to include Afghanistan and Iraq. For 
the foreseeable future, Reserve intelligence professionals will 
continue to be deployed throughout the Combatant Command theaters, 
engaged in operations ranging from intelligence support to fighter, 
airlift, and tanker missions to ISR operations in Combined Air 
Operations Centers and Combined/Joint Task Forces.
    These are but a few examples of the dedication and contributions 
our Air Force Reserve Airmen have made and will continue to make around 
the clock, around the world, each and every day.
---------------------------------------------------------------------------
    Using Reservists in operational missions makes sense: it leverages 
the experience and comparatively lower costs of a predominantly part-
time force. Moreover, it improves relationships between Regular Air 
Force and Air Force Reserve members--it gives Airmen of each component 
an opportunity to demonstrate their capability and relevancy to each 
other, as well as Sister Services and coalition forces; it provides 
Airmen of each component the opportunity to lead each other. Equally 
important, operational duty provides Reserve Airmen the benefit of 
operating as a member of the joint team in diverse environments. 
Operational taskings also improve unit morale and enhance unit pride--
important factors in achieving and sustaining high performance.
    Yet, for all of our operational capability and contributions, we 
must not lose sight that we--along with our Air National Guard brothers 
and sisters--are also a strategic reserve that must be available to 
surge in times of national emergency. For us to serve as both an 
operational and strategic reserve, it is critical that we find the 
right balance between the two. Too few Reserve Airmen means a higher 
operational tempo for all Airmen--Regular or Reserve; it means less 
capacity to surge in times of national emergency; it means exhausting 
our people and jeopardizing the cornerstone of Air Force Reserve 
service.
    We are now 18 years in continuous combat operations, and in our 
eighth year of OPERATION ENDURING FREEDOM; soon to be in our sixth year 
of OPERATION IRAQI FREEDOM. By any measure, our Airmen are performing 
admirably. But, our retention rates are dropping, our experience levels 
are dropping, indeed the Air Force is ``going deep'' into the Inactive 
Ready Reserve and Retired Reserve with its Limited Pilot Recall 
Program. Are these anomalies that can each be explained; or are they 
the signposts of a more serious problem? My concern and challenge, 
indeed our collective challenge, is to ensure we are able to refocus, 
reconstitute and recapitalize while remaining engaged in the full 
spectrum of operations--in a word, our efforts must be ``sustainable'' 
over the long run.
    Volunteerism is vital to the overall capability of not just the Air 
Force Reserve, but the entire Air Force--today we meet roughly 80 
percent of our taskings through volunteerism. Without it, I do not 
believe we can sustain this level of commitment indefinitely. From this 
essential fact flow all of my other priorities.
   preserving the viability of the reserve triad (family, air force 
                         reserve and employer)
    Air Force Reserve Airmen must strike a balance between their 
commitments to the Air Force, their families and their civilian 
employers, i.e., their main source of income. We must be ever mindful 
of these commitments and the balancing act our Reservists undertake to 
sustain these relationships. We must strive to preserve these 
relationships through open communication with each of these essential 
partners. And, we must strive to provide predictability in deployments, 
and parity with benefits. Doing so is critically important in ensuring 
we provide ready and capable Reserve Airmen to the Nation.
    This past year, the Air Force Reserve has endeavored to improve 
communication with Reservists by rolling out awareness campaigns 
concerning the differences in benefits Congress has provided over the 
past few years, and how these accrue for those who voluntarily deploy 
and those who are mobilized. We have also put a spotlight on other 
important benefits such as reduced eligibility age for retirement pay, 
improved availability of health benefits, and lower premiums for 
TRICARE Reserve Select. We have begun surveying focus groups within the 
Air Force Reserve to better understand the needs of our Reservists and 
whether we are meeting these needs. And I personally send e-mails to 
all of our Selected Reserve members to highlight important issues 
concerning their service. In the coming months, as we learn more, we 
will be rolling out an awareness campaign on the Post 9/11 Montgomery 
GI Bill and how it works vis-a-vis other education benefits.
    We have worked with the Small Business Association to provide 
Reservists and Employers awareness of improved access to increased, 
uncollateralized, low interest loans that Congress authorized last 
year. We have made it a point to educate our Airmen about the 
importance of the ESGR program, and we have asked that they nominate 
their employers for ESGR recognition and take time to accurately fill 
out employer data in the DOD employer database. I am pleased to report 
that we have increased our nominations by 149 percent this past year.
    We are moving ahead with implementation of the YRRP to support 
Reserve members and their families throughout the entire deployment 
cycle. Prior to the enactment of this program, Air Force Reserve Wings 
dedicated time and a notable level of effort to support their deploying 
Airmen and families, as evidenced by the number of deployment support 
and reintegration activities in the past. In 2008, the Air Force 
Reserve hosted 58 YRRP events that served over 1,250 Airmen and 500 
family members.
    In addition, the Air Force Reserve Command has formed a Yellow 
Ribbon Reintegration Office. This multi-functional team has begun 
identifying challenges, assessing strategic, operational and fiscal 
gaps, and evaluating effective and implementable options. We're working 
towards full implementation of Department of Defense directives.
    In the future, the Air Force Reserve will publish an overarching 
YRRP strategy that optimizes benefits to service members and their 
families. A key component of this strategy will be to support and unify 
the current independent efforts, and identify the successes of those 
efforts.
    As a Total Force, we continue to work through continuum of service 
(CoS) challenges to better enable varying degrees of service commitment 
that members can provide as their life circumstances change throughout 
their career. The Air Force and the Air Reserve Components are taking a 
coordinated approach to identifying the issues that make reserve 
component members disinclined to frequently volunteer for active duty 
tours. We're identifying barriers and options for reducing or removing 
impediments to service. These impediments range from financial, 
cultural, technological to policy and legislative. Through this program 
the services have thus far identified dozens of impediments, three of 
which were mitigated by improving policies concerning enlisted 
promotion, chaplain service age waiver, and security clearances. 
Although still in its formative stage, the Air Force developed a CoS 
Tracking Tool which is gaining wider DOD acceptance and we hope will 
continue to gain momentum as all Services look to act on this important 
reform initiative.
    The fiscal year 2008 National Defense Authorization Act included 
legislation to authorize reimbursement of travel expenses not to exceed 
$300 for certain Selected Reserve members who travel outside the normal 
commuting distance because they are assigned to a unit with a critical 
manpower shortage, or assigned to a unit or position that is 
disestablished or relocated as a result of defense base closure, 
realignment or another force structure reallocation. Because of this 
authorization, the Air Force Reserve has been able to retain trained 
and qualified personnel, rather than having to recruit and train new 
personnel.
                    broaden total force initiatives
    The Air Force leverages the value of its reserve components through 
association constructs. The basic model is an associate wing in which a 
unit of one component has primary responsibility for operating and 
maintaining equipment (such as aircraft), while a unit of another 
component (Air Force Reserve, Air National Guard, or Regular Air Force) 
also operates and maintains that equipment.\3\ This arrangement 
effectively places more people against a piece of equipment, thereby 
gaining more utility from each piece of equipment, and the ability to 
surge as needed, and pull back when not.
---------------------------------------------------------------------------
    \3\ The Air Force uses three types of associations to leverage the 
combined resources and experience levels of all three components: 
``Classic Association'', ``Active Association'', and ``Air Reserve 
Component Association''.
    Under the ``Classic'' model, so-called because it is the first to 
be used, a Regular Air Force unit is the host unit and retains primary 
responsibility for the weapon system, and a Reserve or Guard unit is 
the tenant. This model has flourished in the Military Airlift and Air 
Mobility Commands for over 40 years. We are now beginning to use it in 
the Combat Air Forces (CAF): our first fighter aircraft ``Classic'' 
association at Hill Air Force Base, Utah, attained Initial Operational 
Capability in June 2008. This association combined the Regular Air 
Force's 388th Fighter Wing, the Air Force's largest F-16 fleet, with 
the Air Force Reserve's 419th Fighter Wing, becoming the benchmark and 
lens through which the Air Force will look at every new mission. The 
477th Fighter Group, an F-22 unit in Elmendorf, Alaska, continues to 
mature as the first F-22A associate unit. This unit also achieved 
Initial Operating Capability in 2008 and will eventually grow into a 
two-squadron association with the Regular Air Force.
    The Air Force Reserve also established its first Intelligence 
Squadron Association with the 50th Intelligence Squadron at Beale Air 
Force Base, California. This unit of Reserve and Regular Airmen 
delivers real-time, tailored intelligence to combat forces engaged in 
missions in Iraq and Afghanistan, with data derived from theater 
Predator/Reapers, Global Hawks and U-2s, in partnership with the Total 
Force team. The Air Force is considering additional associate 
intelligence units for Beale and Langley Air Force Bases. These new 
capabilities create a strategic reserve force ready to respond to the 
call of our Nation, capable of being leveraged as operational crews 
ready and willing to support the Regular Air Force in everyday missions 
around the world. This model has proven itself and is the basis for the 
growth of associations over the last 5 years.
    Under the ``Active'' model, the Air Force Reserve or Guard unit is 
host and has primary responsibility for the weapon system while the 
Regular Air Force provides additional aircrews to the unit. The 932nd 
Airlift Wing is the first ever Operational Support Airlift Wing in the 
Air Force Reserve with 3 C-9Cs and 3 C-40s. Additionally, the Air Force 
Reserve will take delivery of an additional C-40 in fiscal year 2011, 
appropriated in the fiscal year 2009 Consolidated Security, Disaster 
Assistance and Continuing Appropriations Act. This additional C-40 will 
help to replace the 3 C-9Cs, which are costly to maintain and fly. To 
better utilize the current fleet of C-40s at the 932nd, the Air Force 
created an Active Association. We also are benefiting from our first C-
130 Active Association with the 440th AW at Pope AFB.
    Under the ``Air Reserve Component (ARC)'' model, now resident at 
Niagara Falls Air Reserve Station (ARS) in New York, the Air Force 
Reserve has primary responsibility for the equipment while the Guard 
shares in the operation of the equipment and works side by side with 
the Reserve to maintain the equipment. The Air National Guard has 
transitioned from the KC-135 air refueling tanker to the C-130, 
associating with the 914th Reserve Airlift Wing. The 914th added four 
additional C-130s, resulting in 12 C-130s at Niagara ARS. This ARC 
Association model provides a strategic and operational force for the 
Regular Air Force while capitalizing on the strengths of the Air 
National Guard and Air Force Reserve. Additionally, in this case it 
provides the State of New York with the needed capability to respond to 
state emergencies.
    The Air Force Reserve has 9 host units and is the tenant at 53 
locations. There are currently more than 100 integration initiatives 
being undertaken by the Air Force and Air Reserve Components.
---------------------------------------------------------------------------
    Beyond fiscal efficiencies, however, associations use the inherent 
values that each component brings to the mix. For example, less 
experienced Airmen from Regular Air Force can be more favorably 
balanced against higher experienced Reserve Component Airmen. Moreover, 
these constructs can foster mutual respect among components, and can 
lead to a cross flow of ideas. Regular Air Force Airmen can bring a 
wider perspective of Air Force operations to an associate unit based on 
their ability to change assignments on a regular basis. For their part, 
Reserve Airmen lend stability and continuity to the organization and 
the mission. The ultimate goal is to provide the Air Force and 
combatant commanders the best possible capabilities with fewer physical 
resources by leveraging the combined resources of the Regular Air 
Force, Air National Guard, and Air Force Reserve.
    The Air Force has been using associations modestly, with varying 
degrees of success, since 1968, primarily in the air mobility missions. 
However, during the last 5 years we have aggressively pursued 
fundamental change to maintain our war fighting capabilities. Our 
central strategy is to use integration/association initiatives to 
leverage the strengths of all three components to make one strong Air 
Force in many mission areas. Failing to consider the Air Force 
holistically risks unbalancing the contributions of each component, 
which are central to the success of the efficient and effective 
delivery of combat capability to the war fighter.
    Associations also present new challenges in the way we develop 
plans to meet the needs of combatant commanders. It used to be, and in 
some cases still is, that our mobilization plans were developed for a 
unit and its equipment to deploy together in support of a given 
operations plan. Associations now must be worked into those plans. We 
have made progress in developing war mobilization plans that deploy 
equipment separately from the units that deploy. But we will 
undoubtedly encounter difficulties in the execution of these plans. We 
still will have to find the sweet spot in the Regular Air Force/Air 
Reserve Component (ARC) manpower mix when allocating our people against 
various missions within the Air and Space Expeditionary Force 
construct. We will have to determine how long and how best to access 
ARC personnel--i.e., mobilize or volunteer--to meet that mix so that we 
can give combatant commanders the most effective force. And we should 
consider measuring taskings by associations instead of wings.
    If it is to succeed, the Air Force must educate Airmen about the 
unique challenges of associations--at all levels, within and among each 
of the components. Advancement within each Service is premised upon 
joint education and experience; advancement should also be premised on 
joint component education and experience. Candidates for leadership in 
associations should be screened and selected based on their experience 
and abilities to lead and work well with other components.
    Force integration is not a process unto itself; it has a purpose, 
an end state. Properly understood, an integrated force is a unified, 
harmonious, effective entity. We are merely at the beginning of this 
process; it will take many, many years before we approach the end 
state. We must look beyond the fiscal efficiencies touted as the basis 
for our undertaking, roll up our sleeves, and get to the hard work 
needed to make us a more effective combat force. Should we do so, we 
will some day look about us and recognize a truly integrated Air Force.
                   modernize equipment and facilities
    The Department of Defense's goal is to fully equip Reserve 
Component units, thereby providing a trained and ready force at every 
stage of the service's force rotation plan. The Air Reserve Components, 
along with the Regular Air Force, face significant modernization and 
recapitalization challenges, for both our aircraft and infrastructure. 
Some Air Force Reserve platforms remain out of the fight due to lack of 
defensive and countermeasure systems needed in the USCENTCOM Area of 
Responsibility, including some of our C-5A, A-10 and C-130 aircraft. In 
addition, as with the Regular Air Force, we are facing unpredictable 
fatigue, corrosion, and structural component availability concerns on 
platforms that even our superior maintainers cannot correct forever, as 
we have seen in our C-5, KC-135 and A-10 fleets. While we continue to 
meet the requirements of the Air Force and the Joint team, the current 
high operations tempo has led to our current reality--the increasing 
uncertainty of our long-term fleet viability. Similarly, continued risk 
in the Air Force Military Construction (MILCON) program has caused a 
significant growth in the Air Force Reserve Command's facility project 
backlog. Timely modernization is critical to remaining a relevant and 
capable combat ready Reserve force.
National Guard Reserve Equipment Account (NGREA)
    The NGREA appropriation has resulted in an increase in readiness 
and combat capability for both the Reserve and the Guard. For fiscal 
year 2009, we received $37.5 million in NGREA appropriations which 
resulted in the Air Force Reserve Command's ability to purchase 
additional upgrades for Reserve owned equipment. Some of the items that 
we purchased using NGREA funding include: Defensive Systems for C-5s, 
Line of Sight/Beyond Line of Sight capability and new upgraded radar 
for our C-130 aircraft, and an upgrade to the F-16 Commercial Fire 
Control Computer. Many of these new capabilities are directly tied to 
better air support for our Soldiers and Marines in Iraq and 
Afghanistan. NGREA funding has helped the Air Force Reserve to remain 
relevant in today's fight as well as the ability to remain ready and 
capable in future conflicts. We thank you for your support with this 
critical program.
Milcon and Facilities Modernization
    Along with challenges in modernizing our equipment, we face 
challenges modernizing our facilities. During the fiscal year 2008 
budget formulation, both the Regular Air Force and the Air Force 
Reserve took risk in MILCON appropriation in order to fund higher 
priorities. This reduction coupled with past shortfall funding in 
MILCON has resulted in a backlog nearing $1 billion for the Air Force 
Reserve.
    We will continue to work within the fiscal constraints and mitigate 
risk where possible to ensure our equipment and facilities are 
modernized to provide a safe and adequate working environment for all 
of our Airmen.
                               conclusion
    Mr. Chairman and Members of this Committee, I am excited to have 
been able to take on this role as Chief of the Air Force Reserve and 
Commander of Air Force Reserve Command. I take pride in the fact that 
when our Nation calls on the Air Force Reserve, we are trained and 
ready to go to the fight. Over 67,000 strong, we are a mission-ready 
reserve force capable of serving operationally throughout the world 
with little or no notice.
    The rapidly changing security and economic environment will cause 
Congress, the Department of Defense, and the Air Force to make some 
difficult choices in the year ahead. The Air Force Reserve is highly 
experienced, cost-effective force provider well-suited for this 
challenge. I submit it is a hedge against the uncertainties we are 
facing for which you pay a relatively small premium. I firmly believe 
paying this premium will enable the Air Force to achieve its force 
integration goals and address not only its priorities, but also help 
Congress address the more pressing issues we will face as a nation in 
the years to come.
    I appreciate the support of this committee for the appropriations 
it provides to fund our readiness and combat capability. I look forward 
to working with each of you in the future on the challenges facing the 
Air Force Reserve, the Air Force, and the Nation.

                  YELLOW RIBBON REINTEGRATION PROGRAM

    Chairman Inouye. I would like to begin asking a question. 
In the fiscal year 2008 Defense Authorization Act, the Defense 
Department was directed to establish a centralized office for 
the Yellow Ribbon Reintegration Program. Now, some have 
questioned the wisdom of this. I would like to get your 
thoughts on this. General Stultz.
    General Stultz. Yes, sir. I think my candid assessment on 
that, it probably slowed down the process for us to implement 
the Yellow Ribbon Program because anytime we try to bring all 
the services together and gain some kind of consensus of how we 
are going to implement something, it takes a long time. And I 
think what we came to agreement on is we cannot apply a cookie-
cutter approach. Each service is different in terms of the way 
we mobilize and deploy soldiers, in terms of the length of time 
we deploy them, and to what they are exposed to during those 
deployments. And so at the end of the day, we came back and 
said--you know, let each service sort of design its own 
implementation plan. So I think we have slowed down part of the 
implementation by going through that process.
    At the same time, I will say when you do raise it to that 
level, to the OSD level, you get buy-in as a Department that 
this is not just a program we are going to throw to the 
services and say you figure it out. It is something that 
Congress has mandated this to us, and as the OSD level, we are 
going to fund it, we are going to buy into it, fund it, and 
make sure it gets implemented properly.
    From the Army Reserve's perspective, we have already 
conducted 70 of the programmed events this year. We are well on 
our way. We have got another 70 or so already scheduled. The 
challenge we are finding with the Yellow Ribbon Program is the 
difficulty in trying to bring a dispersed force back together. 
Unlike an active duty force where everybody comes back home to 
Fort Hood and you can go through a reintegration process there 
at Fort Hood, with the Army Reserve, because our units are 
geographically dispersed, you may have a soldier who lives 
three States away from the unit and he is willing to travel, a 
lot of times at his own expense, to be part of that unit, but 
when we come back for a Yellow Ribbon event and we try to 
engage the families, it makes it tough.
    One approach that was developed was to say, okay, let us 
have a regional approach. Let us have geographic events, and 
that way soldiers can choose where to go to the reintegration 
event based on their geography. I have an issue with that, and 
I have told my commanders that because I think it is imperative 
that we bring soldiers back together as a unit and we look the 
soldiers in the eye and put them through that reintegration 
together as a unit. If you took me and said you go somewhere 
off to an event that is not part of your unit and I go sit in 
the corner and sit there and nobody else knows who I am there, 
they are going to say, well, he's just a quiet guy. If I go and 
do the same thing with my unit, they are going to say something 
is wrong with Jack. He needs help because he is not himself. 
And so it is imperative, if we implement a Yellow Ribbon 
Program properly, it is a unit-based program and the exceptions 
are where we have to disperse geographically. We will always 
have the exceptions.
    Of particular concern to me on Yellow Ribbon is the IRR, 
the Individual Ready Reserve. We do not really have a Yellow 
Ribbon Program for them, in my opinion. I get occasionally, not 
very often, an IRR soldier that is assigned to the Army 
Reserve. It is my, I think, obligation to take care of that 
soldier and his family with the Yellow Ribbon Program. Even 
though the unit may be from Pennsylvania and he goes back to 
Texas, I have got to figure out how to get him the 
reintegration he needs back in Texas. But I just get a very 
small piece of the IRR.
    Most of the IRR are filling active duty units, and when 
that unit comes back to Fort Hood and that soldier goes back to 
Pennsylvania, nobody looks out for him. I have raised this at 
the Vice Chief and the Chief of Staff level to say we have got 
to figure out to do Yellow Ribbon for our IRR soldiers, as well 
as my active Reserve soldiers.
    I think it is a great program, sir, and I appreciate the 
funding we have gotten for that. I think we are still learning 
as to the best way to implement it, and we have been a little 
bit slow to get there.
    Chairman Inouye. Admiral, any thoughts on this?
    Admiral Debbink. Yes, sir, Chairman. The Yellow Ribbon 
Program has been instrumental in the Navy Reserve to helping us 
really propel our Returning Warrior Workshop, as our main 
program, forward with the funding that came with it. It has 
been a very successful program. They're done on weekends not 
because it is a Reserve program, but because that is when we 
can get the spouses there too, which is also very important to 
us because it is a reintegration event. You want to bring the 
members back together who served, as well as the families.
    The other thing we have done is employed the funds from 
Yellow Ribbon to deploy psychological health outreach 
coordinators to each of our regions, and they have been 
instrumental as well, staying in touch with our sailors, 
particularly those who might be at risk for psychological 
health reasons. And I have had a couple of great new stories of 
interventions of possible suicides. So we have been very 
pleased with the funding. It has been very instrumental to our 
programs.
    Chairman Inouye. Thank you.
    General Bergman.
    General Bergman. Yes, sir. General Stultz articulated it 
very, very well. I will just add to the fact that the unit-
based approach is important because the marines in the unit 
know the other marines. They know who is in distress quicker 
than if you just show up at an individual event by yourself. 
That has paid dividends.
    Number two, Mobilization Command, which is the Marine 
Corps' element in charge of managing the IRR, has been a great 
asset in ensuring that, at least to the 80 percent level, we 
maintain some level of in-touch capability with those IRR 
members. Regardless of whether they went to an active component 
unit or whether they came to a reserve unit, they are included.
    And as Admiral Debbink said, the Marine Corps also utilizes 
a psychological health outreach program that has been 
established for us. We are in the process of building the 32 
teams across the country which will be comprised of about four 
mental health professionals each that will allow us to ensure 
that we dig a little deeper each time. So we appreciate the 
continued funding and support.
    Chairman Inouye. Thank you.
    General Stenner.
    General Stenner. Mr. Chairman, thanks. I do agree with just 
about everything that has been said as far as units are 
concerned. We would love to be able to deploy as a unit. We 
would love to be able to reintegrate and take a look at 
everybody as they come home at the 30-, 90-, 180-day point as a 
unit. We are, however, also involved with our individual 
mobilization augmentees (IMA) who do regularly deploy. So we 
are reintegrating them as well.
    Some of the things the program has done, regardless of the 
implementation, has certainly raised the awareness of what is 
out there, what is necessary, and how we might go about doing 
this. As an example, I was at Youngstown, Ohio, a couple of 
weeks ago, and they had a wonderful Yellow Ribbon Program event 
that brought a security forces squadron back together with 
their families, and it was a wonderful time for all.
    Across the river in Pennsylvania at Pittsburgh 2 weeks 
earlier they had had a similar event, their first. Those two 
units, being in proximity, have in fact generated some great 
discussion, and they are going to share assets, will be able to 
share resources, will be able to, as an example, use the time 
that they are having at one location to have other folks come 
over, if they cannot make it somewhere else.
    We are looking at all those kinds of locations to put our 
IMAs, who also need to be understood and taken care of as well, 
as well as the Individual Ready Reserve. And I think that one 
of the best things that we can do right now is we can get a 
database that shows where these things are. It is up to each of 
us as commanders and unit-equipped members to figure out how 
best to monitor and watch and get all of our folks, regardless 
of unit, IMA, IRR, reintegrated appropriately and monitored 
carefully. So we are working together with our service partners 
to do that as well.
    Thank you, sir.
    Chairman Inouye. Thank you.
    General Stultz, you have implemented an Employer 
Partnership Program. How is that working?
    General Stultz. Yes, sir. It has probably been about 1\1/2\ 
years ago, we started really looking seriously. If we are going 
to sustain the up tempo we have with our Army Reserve force, we 
have got to have the employers. I have got to have soldiers who 
have the confidence that they can have a civilian career and be 
in the Army Reserve. And that led us into some discussions with 
employers to sit down and talk about how we are going to work 
together, make sure we have got their support.
    What we found is that the employers of America have the 
same challenge we have in the military, and that is finding the 
talent--not the workers, the talent--that they need to run good 
corporations or good industry in America. And so rather than 
having the discussion about what is going to happen when I take 
workers away from those employers to be soldiers for me, I said 
we ought to be having a discussion--let me bring soldiers to 
you to be workers for you because I have got great talent in my 
ranks. These three individuals that I introduced earlier 
represent that.
    And what we found is there is a natural synergy where we 
have in the Army Reserve, because we are a combat support, 
service support, the same skill sets in our ranks that American 
industry is looking for. We have truck drivers. The American 
Truckers Association said they were desperately short of long-
haul truck drivers in America. We have medical technologists. 
America's medical centers said that we are desperately short of 
medical technologists, respiratory, x-ray, surgical, ER. Law 
enforcement. We have military police. A lot of law enforcement 
agencies, to include right here in the District of Columbia, 
said we are desperately short of law enforcement. And it goes 
on and on and on.
    So we started this initiative called the Employer 
Partnership where we basically said let the Army Reserve become 
a reservoir of talent to help populate America's industry. Let 
us develop a human capital strategy where I can go recruit a 
soldier to be a medical technologist for me in one of my Army 
Reserve hospitals on the battlefield in Bilad. But when they 
come home, they will come to work for you here at Inova Health 
Care Center in Northern Virginia.
    And so we started signing agreements where we said we will 
go help you. We will find the talent. And as word got out, it 
just kind of snowballed. To date, we have 225 companies that 
have come to us and said we want to sign up with the Army 
Reserve to be partners with you. We have got probably another 
100 that are on a waiting list.
    The recognition is when we bring an Army Reserve--and I 
would just say not Army Reserve. It is Navy Reserve, Marine 
Corps Reserve, National Guard, Air Reserve, whatever--that 
comes to work for us, these industries tell us it is a 
different individual, different work ethic. They understand 
leadership. They understand team work. They understand 
responsibility. They are drug-free. They are physically fit. 
They have an aptitude. And so it is very, very positive.
    I was just a few weeks ago in Kosovo visiting one of my 
units, and a sergeant came up and said, sir, I was not sure 
what I was going to do when I got home, but I went on the Army 
Reserve Employer Partnership website and I have three offers 
now for a job when I get home. So it is very, very encouraging.
    We are still in the infant stages of how we properly 
implement this to match the talent and then expand it across 
all the services that are represented here. But it is very, 
very successful to date, and we have got companies, everything 
from Joe's garage in Slidell, Louisiana, to General Electric, 
which has 300,000 employees around the world, and Wal-Mart or 
somebody like that. So it spans the spectrum in terms of 
employers that really are reaching out and saying we want to 
engage with the talent that you bring us.
    Chairman Inouye. Congratulations.
    General Stultz. Thank you, sir.
    Chairman Inouye. Do the other Reserve components have 
similar programs?
    General Stenner. Sir, I will tell you that one of the most 
valuable resources that we deal with, as far as an Air Force 
Reserve, is the rated crew member that generally has a civilian 
job as an airline participant one way or the other, whether as 
a pilot or in some other kind of other capacity. So right now, 
to share that resource, to understand how we use them, and 
where we can, leverage the talents that come from the Air Force 
Reserve, we are working with the Airline Transport Association 
to see how we can, in fact, deploy our folks, get them back, 
and get that talent where it needs to be. And we bring in folks 
that the airlines would like to have for exactly the same 
reasons that General Stultz is talking about, and I think that 
we are leveraging that, at least in that capacity right now. 
And I will emulate his program. It sounds like it is a good 
one.
    Thank you, sir.
    Chairman Inouye. Admiral.
    Admiral Debbink. Mr. Chairman, I would offer that we are 
terrifically excited about the program that the Army Reserve 
has put in place, and the four of us, plus the National Guard 
Chiefs as well, get together on a monthly basis and share these 
stories. And so we are eager, as this program continues, to see 
how we can piggyback on it.
    In the meantime, we think one of the very important 
programs that we are all very supportive of that has been a 
longstanding program in a similar vein is the employer support 
of the Guard and Reserve and using that as a very important 
outreach to the employers that really are the third leg of the 
stool that we all rely upon, the servicemember, the family, and 
the employer.
    Chairman Inouye. General Bergman.
    General Bergman. Sir, back when General Jones was 
Commandant in around the 1999-2000 timeframe, the Marine Corps 
implemented the Marine for Life Program which put drilling 
marine reservists, some on active duty, some on the drilling 
reserve status, around the country to facilitate reintegration 
into the communities for the marines coming back, whether it be 
through helping them find jobs, connect with employers, or just 
in general reassimilating back into their community.
    Our program is not anywhere near as evolved as the Army's, 
but nonetheless, for the last 8-plus years, it has been serving 
on a smaller level. So I applaud the Army Reserve and General 
Stultz for what they have done because they really have become 
the model for all of us.
    Chairman Inouye. Thank you very much.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, I just wanted to raise one 
issue. I noticed in the Army's report, it talks about meeting 
homeland defense and disaster relief missions and how you need 
to maintain a training level and equipment status in order to 
make that kind of contribution. I was just curious to know 
whether in Hurricane Katrina you had experiences in helping to 
provide assistance to the victims of that terrible tragedy?
    General Stultz. Yes, sir, very much so. A lot of those CH-
47 helicopters you saw picking people up off the roofs or 
dropping sandbags into the dikes were Army Reserve helicopters 
that we sent down there. A lot of the trucks that you saw 
bringing in bottled water and other medical supplies and 
everything were Army Reserve trucks that we dispatched down 
there to that location. Some of the engineers that were down 
there working hand in hand with the Guard folks were Army 
Reserve engineers.
    The challenge we have got is I had no authority to do that 
because it had not been declared a Federal disaster at that 
point. Knowing that my counterparts in the National Guard and 
all, as well as my own soldiers and their families who lived in 
Mississippi, Louisiana, and that area, were suffering, we said 
we cannot wait. We have got to go ahead and get the help down 
there.
    You know, we went through this in Hurricane Andrew when I 
was in Florida, and the question from some of the Guard folks 
was, how come we are driving past Army Reserve equipment that 
could be helping us? And we said, we do not have the authority 
yet to put that equipment into the operation.
    What I did is I put them on annual training. You know, I am 
authorized to do annual training every year, and so I said, 
okay, this is going to be a training exercise for you guys. Get 
down to Louisiana and get those helicopters down there, get 
everything down there, and eventually we will get you into a 
proper status, but we cannot wait.
    What we have said--and the Office of the Secretary of 
Defense has taken it on as far as legislative initiative--we 
need to put some kind authority in place for call-ups of title 
10 forces for homeland emergencies other than just the one we 
have now, which is for weapons of mass destruction. But we have 
a lot of resources populated around America that are ideal for 
these homeland type missions, but again, because of the way the 
laws are written and the title 32 status for the National Guard 
being responsive but it is still a State response, even though 
I have got units sitting there available, they cannot be 
utilized. That is what I am pushing for. We have got to change 
the law to be able to say let us be able to utilize the Marine 
Corps Reserve, the Navy Reserve, the Army Reserve, the Air 
Reserve in homeland missions and give us the authority to put 
these people on orders on short notice.
    Senator Cochran. I wonder if any of the other services have 
had similar experiences, maybe not with Hurricane Katrina. 
General Stenner.
    General Stenner. Yes, sir. Thank you very much for that 
question because it is, in fact germane, I think to all of the 
services here, as our title 10 reserve status puts us in that 
predicament.
    But our combat search and rescue helicopters have been very 
much involved in almost every one of these kind of disasters. 
We know that our spray mission at Youngstown, Ohio is going to 
be called upon almost immediately afterward to start making 
sure that we do not have those infestations that we have had in 
the past with bugs and disease. We know that our lift capacity 
is going to be just as essential as anything else that is in 
there as the supplies continue to get to where they need to be.
    So all of those things that--we have gone out of our way to 
make sure they are positioned as far as we can take them before 
we have the authorities to get them into the fight. So we will 
bring them from all over the country, preposition and prestige 
with our component Air Force. We will coordinate in-house as 
far as we can to the point of what General Stultz said and put 
them on an appropriate order to get the job done until we can 
get the rest of the authorities in place.
    So I have the same issues. I have the same, I think, 
requirements and what we can do as four services would be 
wonderful.
    Senator Cochran. Thank you.
    General Bergman.
    General Bergman. Yes, sir. Well, as I am sure you are very 
well aware, our amphibious assault vehicles, headquartered in 
Gulfport, were out swimming literally before Katrina had moved 
all the way through doing lifesaving kinds of missions and 
continued to do that throughout as necessary.
    We had also in advance, from both the east and the west, 
prepositioned some long-haul vehicles to a point, let us say, 
somewhere between their station of assignment and the central 
gulf coast area in anticipation of a potential event. We were 
as prepared as we could be.
    But more importantly, the lesson learned from that that I 
think paid dividends, let us say, in Hurricane Ike was the fact 
that, for example, the advance coordination between the local 
community and the local governments with our Reserve unit there 
in Galveston allowed for a clearer understanding of who was 
going to do what, who had the capabilities to do what. In other 
words, do not count on us because we are probably going to be 
evacuated. We will be coming back from a different direction.
    In echoing what General Stultz has said, the need for 
ongoing dialogue to understand in our region of the country--
and I would suggest to you every region, but we just happen to 
have a defined hurricane season every year that allows us to 
preplan for--the lesson learned from Katrina and from follow-on 
hurricanes has helped us become better prepared.
    Senator Cochran. Admiral Debbink.
    Admiral Debbink. Mr. Vice Chairman, I'd offer our example 
would be the California wildfires last year where HSC-85, a 
Reserve helicopter squadron, worked through our regional 
organization there, Navy Region Southwest, to provide support. 
Using this total force look at things, one of our Navy 
reservist's home was threatened by the fire, and Navy Region 
Southwest, the active component, relocated that sailor. So the 
way we see it is employing it through our total force, and it 
is working pretty well for us.
    Senator Cochran. Well, thank you very much for the 
contributions you have made to not only our national security 
interests in terms of traditional military activities, but some 
of these other events that are just as important and can be 
just as deadly. But thank you very much for your service.

                     ADDITIONAL COMMITTEE QUESTIONS

    Chairman Inouye. General Stultz, Admiral Debbink, General 
Bergman, General Stenner, we thank you very much for your 
testimony and for your vision and your wisdom. And through you, 
may we thank the men and women in your Reserve components for 
their service to our country.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
        Questions Submitted to Lieutenant General Jack S. Stultz
             Question Submitted by Senator Byron L. Dorgan
                              end strength
    Question. With increased operational demands placed on the reserve 
component for the past several years, signs of stress and strain are 
showing. All reserve component services are facing increased challenges 
retaining experienced, mid-grade career service members, precisely 
those eligible for retirement after having served 20-years of service. 
I am concerned we are not maintaining a balanced force, retaining 
enough of the very individuals who have gained the benefit of 
experience these past years of increased operations. I'm considering 
introducing legislation that would enhance retention of those 
experienced career service members, providing an incentive to serve 
beyond 20-years, initial retirement eligibility, to continue to serve 
in the reserve component in exchange for lowering the age at which they 
will be eligible to receive retired pay. For example, if a member 
commits to serving 2 years beyond 20, the age for which they are 
eligible to receive retired pay would be lowered by one year.
    What is your opinion of this idea?
    Answer. The Army Reserve continues to seek to shape the force 
ensuring we keep the right talent, expertise and experience to sustain 
a superior level of operational performance. Benefits and incentives 
are among the tools the Army Reserve can utilize to shape the force. We 
are looking at other targeted incentives to retain the right talent as 
well. There is no evidence that a reduced retirement age would serve as 
an incentive to retention. RAND studies and current information does 
not support this assertion. Furthermore, reduced retirement would 
create expensive entitlements with no demonstrated improvements in 
force management. It does little to improve the compensation and 
benefits for those who are bearing the burden of mobilization and 
deployment.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
                     individual ready reserve (irr)
    Question. As the Army Reserves have transitioned from a strategic 
force to an operational force, what is your opinion on whether the 
Individual Ready Reserve has kept pace with that transformation? What, 
if any, role do you see for the Army Reserves to manage the Individual 
Ready Reserve?
    Answer. With the creation of the Army Human Resources Command (HRC) 
in 2003, the Individual Ready Reserve (IRR) was moved from the command 
and control of the Chief, Army Reserve and placed under the command of 
the Commanding General, HRC. In 2006, the Secretary of the Army 
approved the IRR Transformation Plan, which was an integrated and 
systemic approach to reset and reinvigorate the IRR. Since 
implementation, the IRR, along with the rest of the Army Reserve, has 
undergone major transformation from a strategic to an operational force 
and made significant progress towards creating a viable pool of 
trained, ready and deployable Soldiers to meet the needs of today's 
Army.
    However, this transformation and the recent operational pace have 
also caused the IRR to evolve away from its traditional role as a place 
where Soldiers can ``take a knee.'' No longer can Soldiers simply wait 
in the IRR while catching up on military education or choosing to focus 
on family and civilian work after a deployment--they are subject to 
mobilization in the IRR. Some active component Soldiers are even 
choosing to be discharged rather than opt to serve in the IRR upon 
transitioning out of the Active Component.
    I believe the Army Reserve needs a place for Soldiers to disengage 
from traditional unit affiliation or possible mobilization in the IRR 
and provide them with a short-term, transitional status. Additionally, 
I think that the Army Reserve would benefit from a program that 
affiliates IRR Soldiers with Army Reserve Units to serve as a ``force 
in reserve'' for contingency operations. This would also benefit the 
IRR Soldiers by providing a home unit for training and support 
requirements.
    Management of the IRR must continue to be a coordinated effort 
between both the Active Army and Army Reserve since the IRR plays an 
integral part in the readiness of the Total Force. I see a role for the 
Chief, Army Reserve in the management of programs that would affiliate 
IRR Soldiers with Troop Program Units and provide a respite for 
Soldiers in transition.
                               personnel
    Question. The fiscal year 2009 Omnibus contained the provision to 
help federal employees in the National Guard and Reserves avoid a loss 
of income when they are called the active duty.
    What efforts will the Army Reserve undertake to quickly implement 
this new provision?
    Answer. At this point, we are coordinating with the relevant 
agencies within the Army to develop the appropriate policies to 
implement these initiatives. It doesn't appear that legislation is 
necessary, but if that viewpoint changes, we will inform the Committee 
promptly.
    Question. Can you provide the number of current Army Reserve 
members who are federal government employees?
    Answer. The Army does not maintain a central data base that allows 
us to garner the data for all Army Reserve Soldiers who are employed by 
the Federal Government.
    Currently we are able to provide information on the Dual Status 
Military Technicians. There are 8,180 Army Reserve Soldiers employed as 
Military Technicians.
    Question. Of that number, how many have served at least one tour in 
Operation Enduring Freedom or Operation Iraqi Freedom? How many are 
currently deployed?
    Answer. Of the Dual Status Military Technician population:
  --There are 894 currently mobilized; 375 for OEF, 516 for OIF. Of the 
        894 currently mobilized, 667 have past mobilizations.
  --There are 4,723 not currently mobilized that have past 
        mobilization.
  --There are 2,563 with no mobilization (current or past).
    Source is FTS provided file of employee SSN and DFAS pay files 
(mid-month July 2009) using APC directly correlating to OIF and OEF 
only.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
                                tricare
    Question. Is there a need to find a way to extend TRICARE service 
to cover the ``gray area'' between the end of affiliation with the 
Reserves and the start of retirement benefits?
    Answer. Expanding TRICARE coverage to ``gray area'' retirees must 
be weighed against costs and the ultimate impact to overall force 
readiness--an effort to be undertaken by the Army Surgeon General and 
Program Analysis. Study and validation of cost estimates and cost 
sharing is required. Expanding TRICARE coverage (authority to utilize 
TRICARE Reserve Select) similar to the fee based enrollment offered to 
members of the National Guard and Army Reserve in the National Defense 
Authorization Act of Fiscal Year 2007, offers potential benefits to the 
force, which would become clearer once cost study analysis is 
furthered. Expanding TRICARE coverage as a benefit for ``gray area'' 
retirees could be used as a retention/force management tool, through 
appropriate qualifying criteria, to retain or release select 
populations of service members--advancing a ``continuum of service'' to 
more effectively manage the total force.
                              end strength
    Question. Gentlemen, each of you has a full time support entity 
within your organization. With the increase in usage of the Reserve 
component, do you feel you have the full time end strength to fulfill 
your obligations to each of your active duty components requirements?
    Answer. The increased demand and resultant operational tempo since 
September 11, 2001 caused the Army to integrate and employ the Army 
Reserve as an operational force. The Army Reserve has realigned the 
force in accordance with the Army Force Generation (ARFORGEN) unit 
deployment construct and changed its training paradigm from a 
``mobilize, train, deploy'' to a ``train, mobilize, deploy'' process. 
To sustain the Army Reserve as a truly operational force requires 
increased readiness best achieved by evolving and improving full time 
support (FTS) manning and processes.
    While we have commissioned studies (to be completed by September 
2009) to determine the optimum strength and balance of FTS staffing 
(Active Guard and Reserve (AGR), full time equivalents (FTE), military 
technicians, civilians) we have recognized we must increase FTS to 
support the unit deployment model. FTS provides both steady-state 
support for generating ready forces but also must be flexible enough 
(potentially through FTEs) to meet dynamic, evolving Army Reserve 
mission requirements. A unit in a reset posture may require current 
``strategic reserve'' staffing (12 percent), however, as the unit moves 
through progressives years of training in preparation for deployment 
FTS must increase until ultimately the entire unit is mobilized on to 
active duty (100 percent). Our preliminary estimates suggest, at a 
minimum, Army Reserve FTS must increase as a percent of total strength 
of between 3 to 6 percent (bringing FTS/FTE to approximately 15 
percent). Appropriately building FTS capability is required for the 
Army Reserve to continue to fulfill obligations to the Army.
    Question. If you do not have the end strength numbers, what 
increase would each of you like to see if there was an acceleration 
plan for your projected future growth?
    Answer. The Army Reserve has reached its fiscal year 2013 end-
strength objective of 206,000. We are postured to continue to grow. 
However, we have select grade and skill set shortages that will require 
us to continue to shape the force so we have the highest quality force 
available. Further growth of the Army Reserve will be determined by the 
needs of the total force and future mission demands.
                                 ______
                                 
          Questions Submitted to Vice Admiral Dirk J. Debbink
            Questions Submitted by Chairman Daniel K. Inouye
    Question. Admiral Debbink, the Navy Reserve is initiating a 
Continuum of Service program to make it easier for sailors to 
transition between the active and reserve components.
    What is the timeline for implementing this program?
    Answer. The Navy's Continuum of Service is a personnel management 
strategy, to include a series of policy initiatives, enhancements and 
management actions designed to simplify the processes used by Sailors 
to move between Active and Reserve Components. Opportunities for this 
type of movement have always existed; the Navy's current focus is to 
remove barriers and establish or revise policies and programs to 
streamline the process. The Navy needs to better integrate both HR 
business processes between the Components and develop a single Navy pay 
and personnel system to streamline a Sailor's transition between 
Components.
    I am working closely with the Chief of Naval Personnel, VADM Mark 
Ferguson, on the many moving parts involved in the Continuum of 
Service. The timeline for implementing initiatives to develop career 
and workforce flexibilities that encourage volunteerism, increase 
options to ``Stay Navy,'' and promote a lifetime of service to the Navy 
Total Force is 2012. Efforts are underway to make seamless transitions 
a reality sooner than our overall 2012 objective.
    Question. Given the current economic situation, are you concerned 
that these initiatives could temporarily hurt Navy Reserve retention as 
reservists transition to full time active duty positions?
    Answer. We do not expect Active or Reserve retention to be 
negatively affected by the Continuum of Service. Opportunities for 
Reservists to transition to the Active Component will be managed 
closely to maximize FIT and health of officer and enlisted communities 
within fiscal and end strength controls for both the Reserve and Active 
Components.
    Question. Admiral Debbink, with the active duty Navy currently well 
over its authorized end strength, do you expect that there will be 
active duty slots available for reservists to fill? How will the active 
component afford to pay for these additional personnel given the 
budgetary constraints that the Navy is currently under?
    Answer. Movement between the Active and Reserve Components is built 
into annual officer and enlisted strength plans, and funding is 
programmed accordingly. Plans are monitored and adjusted continuously 
through the fiscal year to ensure the Navy remains within fiscal and 
end strength controls established by Congress.
                                 ______
                                 
             Question Submitted by Senator Byron L. Dorgan
    Question. With increased operational demands placed on the reserve 
component for the past several years, signs of stress and strain are 
showing. All reserve component services are facing increased challenges 
retaining experienced, mid-grade career servicemembers, precisely those 
eligible for retirement after having served 20 years of service. I am 
concerned we are not maintaining a balanced force, retaining enough of 
the very individuals who have gained the benefit of experience these 
past years of increased operations. I'm considering introducing 
legislation that would enhance retention of those experienced career 
servicemembers, providing an incentive to serve beyond 20 years, 
initial retirement eligibility, to continue to serve in the reserve 
component in exchange for lowering the age at which they will be 
eligible to receive retired pay. For example, if a member commits to 
serving 2 years beyond 20, the age for which they are eligible to 
receive retired pay would be lowered by 1 year. What is your opinion of 
this idea?
    Answer. Current Navy manpower policies provide the necessary 
incentives for the individuals the Navy Reserve needs to deliver its 
required capabilities, including career personnel.
    Bonus payment plans for retention strategically targeted at 
specific year groups (to include those service members with 20 years of 
qualifying service) and critical wartime specialties. These bonuses 
enhance the Navy's ability to recruit and retain the right people for 
the right job. The Reserve bonuses also target the ``right type'' of 
Sailor and focus on undermanned ratings and critical skills. Congress 
has been generous with the authorization of these bonus plans, and I 
appreciate the Congress' foresight and concern for retention of our 
Reserve servicemembers.
    Another key aspect that enables high RC retention, at all pay-
grades, is to provide the Sailors with real and meaningful work. Having 
recently visited the Central Command Area of Responsibility, I met with 
many RC Sailors in-theatre and know that their motivation is high and 
that their desire to continue serving is remarkable. My job as the 
Chief of Navy Reserve is to ensure that RC Sailors are provided the 
opportunities for such real and meaningful work--I intend to do that.
    For amplification, Enlisted and Officer Reserve retention rates 
remain high, and attrition rates remain at historic lows. The fiscal 
year 2008 Enlisted attrition rate was 25 percent, and the fiscal year 
2008 Officer attrition rate was 15 percent, down from the 3-year 
rolling averages of 29 percent and 19 percent, respectively. As a 
result, the Navy Reserve Officer corps is actually ``over-manned'' in 
the ranks that are tied to 20 years of qualifying service. In addition, 
we continue to enforce policies to shape the Force and maximize 
``Fit,'' while targeting the optimal number of prior service Enlisted 
accessions to ensure we remain within budgetary limits and strength 
controls.
    Our goal remains to finish fiscal year 2009 with a stable, balanced 
inventory of Sailors that positions our Reserve Force for continued, 
outstanding Total Force support, now and well into the future.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
    Question. The fiscal year 2009 Omnibus contained the provision to 
help federal employees in the National Guard and Reserves avoid a loss 
of income when they are called the active duty.
    What efforts will the Navy Reserve undertake to quickly implement 
this new provision?
    Answer. The Navy Reserve, in coordination with the Employer Support 
of the Guard and Reserve (ESGR), is planning an informational campaign 
aimed at highlighting Section 751 benefits to Reservists throughout the 
country. The specifics of this program will be discussed at ESGR 
presentations and annual pre-deployment briefings at Navy Operational 
Support Centers (NOSCs) and other Navy Reserve Activities (NRAs).
    Question. Can you provide the number of current Navy Reserve 
members who are federal government employees?
    Answer. There are currently 4,720 current Navy Reservists who are 
federal government employees.
    Question. Of that number, how many have served at least one tour in 
Operation Enduring Freedom or Operation Iraqi Freedom? How many are 
currently deployed?
    Answer. Of the 4,720 Navy Reservists that are federal government 
employees, 2,014 have been mobilized during OEF/OIF operations. 
Currently, there are six such Reservists who are deployed, plus another 
89 Reservists from this group who have been identified for deployment 
in the next 3 months.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
    Question. Gentlemen, each of you has a full time support entity 
within your organization. With the increase in usage of the Reserve 
component, do you feel you have the full time end strength to fulfill 
your obligations to each of your active duty components requirements? 
If you do not have the end strength numbers, what increase would each 
of you like to see if there was an acceleration plan for your projected 
future growth?
    Answer. I do feel that Navy has the Full Time Support end strength 
required to fulfill obligations.
    Since 2004 the Navy has conducted two extensive and comprehensive 
Flag Pole studies of the Reserve Component (RC) Full Time Support (FTS) 
community. These studies included all aspects of Selected Reserve 
(SELRES) training and administration as well as FTS community health 
and career progression. The studies also focused on ways to further 
optimize active-reserve integration (ARI) and maximize operational 
support.
    During the second Flag Pole study, several management options were 
analyzed and the one chosen allowed each Warfare Enterprise (Air, 
Surface, Sub, etc.) to determine what percentage of their Total Force 
(AD, FTS, SELRES, CIV, and Contractor) would provide full-time support 
to the Reserve component. This was essential due to the significant 
operational differences between the various warfare communities. In the 
end, senior leadership concluded that a rigid ``one size fits all'' 
approach was not the optimum solution for Navy. At the completion of 
the study, Warfare Enterprises implemented changes as part of their PR-
09 and POM-10 budget submissions.
    As the Navy continues to institutionalize its operational and 
strategic reserve, the training, administration and overall management 
of manpower requirements will be continually reevaluated by each of the 
Warfare Enterprises. The size of each component of the Navy's Total 
Force (AD, FTS, SELRES, CIV, and Contractor) required to support the 
Reserve component will be adjusted as needed in the annual POM/PR 
process.
    Question. Is there a need to find a way to extend TRICARE service 
to cover the ``gray area'' between the end of affiliation with the 
Reserves and the start of retirement benefits?
    Answer. With changes to the frequency and duration of service for 
activated Guard and Reserve components since 1991, and recognizing the 
tremendous sacrifice of those members and their families, we need to 
carefully balance the benefit structure supporting both active and 
reserve components without adversely affecting our ability to attract, 
recruit and retain in both programs while at the same time recognizing 
potential healthcare implications.
    Extending TRICARE benefits for the ``gray area'', the period 
between retirement under official orders from the selected Guard or 
Reserve component after satisfactorily completing 20 or more years of 
service and eligible for retired pay at age 60 should strongly be 
considered. Currently, ``gray area'' reserve members may purchase the 
TRICARE Retiree Dental Program even before they draw retirement pay. A 
similar program could be shaped to provide healthcare benefits under 
the TRICARE Reserve Select Program, a premium-based health plan which 
requires a monthly premium and offers coverage similar to TRICARE 
Standard and Extra. This option should be carefully reviewed to ensure 
it has its desired affects on personnel programs as well as addressing 
potential access and monetary challenges associated with delivering the 
expanded healthcare benefit.
    The implications of an individual going without healthcare coverage 
during the ``gray period'' are profound. During this period, routine 
healthcare preventive measures that should be incorporated may not be, 
and may result in undiagnosed, treatable disease(s). This failure to 
monitor age appropriate conditions could possibly lead to increased 
disease morbidity as well as increases in the severity of the 
disease(s) when there is delay in detection. An increase in undiagnosed 
diseases could result in cost increases for healthcare at age 60.
                                 ______
                                 
       Questions Submitted to Lieutenant General Jack W. Bergman
             Question Submitted by Senator Byron L. Dorgan
    Question. With increased operational demands placed on the Reserve 
Component for the past several years, signs of stress and strain are 
showing. All Reserve Component services are facing increased challenges 
retaining experienced, mid-grade career servicemembers, precisely those 
eligible for retirement after having served 20 years of service. I am 
concerned we are not maintaining a balanced force, retaining enough of 
the very individuals who have gained the benefit of experience these 
past years of increased operations. I'm considering introducing 
legislation that would enhance retention of those experienced career 
servicemembers, providing an incentive to serve beyond 20 years, 
initial retirement eligibility, to continue to serve in the reserve 
component in exchange for lowering the age at which they will be 
eligible to receive retired pay. For example, if a member commits to 
serving 2 years beyond 20, the age for which they are eligible to 
receive retired pay would be lowered by 1 year. What is your opinion of 
this idea?
    Answer. Although incentives designed to encourage continued service 
in the Reserve Component can be an important tool for maintaining a 
healthy force, they must be implemented carefully to ensure that second 
and third order effects do not manifest unintended consequences such as 
stagnating promotions or exceeding controlled grade strength limits. 
Therefore, while Marine Forces, Reserve (MARFORRES) is always 
interested in exploring new ideas to promote the overall readiness of 
the Reserve force, and consequently the Total Force, we are reluctant 
to take a firm stance one way or the other, absent details that can be 
subject to a thorough manpower analysis. However, as we strive to 
define and implement the Continuum of Service concept, any legislation 
or program that enhances the ability to lengthen the careers of highly 
performing Marines will be a distinct benefit.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
    Question. The fiscal year 2009 Omnibus contained the provision to 
help federal employees in the National Guard and Reserves avoid a loss 
of income when they are called to active duty.
    What efforts will the Marine Forces Reserve undertake to quickly 
implement this new provision?
    Answer. The Marine Corps is preparing information for dissemination 
to Reserve members who are slated to mobilize, or currently mobilized, 
to ensure all members who are civilian federal employees are notified 
of this provision. Additionally, the Marine Corps will publish 
administrative guidance on command and member responsibilities to 
ensure federal government agencies receive accurate information on the 
military compensation, and any income differential, of mobilized 
Reserve members.
    Question. Can you provide the number of current Marine Forces 
Reserve members who are federal government employees?
    Answer. The Marine Corps attempted to access this information 
through the Defense Manpower Data Center (DMDC). However, DMDC is 
unable to provide a macro-level report on the total number of Reserve 
members who are federal government employees, as the data entry fields 
in the Guard and Reserve Portal list employers individually. In 
September and October, the Department of Defense expects to receive 
reports from all agencies of the federal government on civilian federal 
employees who are Reservists, as part of initiatives pertaining to 
Tricare Reserve Select, and the Marine Corps will validate these 
reports in an effort to answer this question.
    Question. Of that number, how many have served at least one tour in 
Operation Enduring Freedom or Operation Iraqi Freedom? How many are 
currently deployed?
    Answer. Once the actions described in the above answer are complete 
the Marine Corps will be able to respond to this question.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
    Question. Gentlemen, each of you has a full time support entity 
within your organization. With the increase in usage of the Reserve 
component, do you feel you have the full time end strength to fulfill 
your obligations to each of your active duty components requirements?
    Answer. The Marine Corps deems the end strength of the Reserve 
Component is adequate. Our full time support program, called our Active 
Reserve (AR), has been under review as required by the NDAA of 2009. 
That review is not yet complete. If we require growth in the AR 
program, however, it will likely be limited and designed to address 
specific grades and specialties affected by the increased operational 
tempo for the Reserves.
    Question. If you do not have the end strength numbers, what 
increase would each of you like to see if there was an acceleration 
plan for your projected future growth?
    Answer. The analysis of the Marine Corps Active Reserve (AR) 
program (full-time support) is a part of the review of full-time 
support requirements identified in the response to Senator Murray's 
question concerning full-time support end strength. We cannot evaluate 
the AR program except in the context of the full-time support 
requirement. The Marine Corps expects to be able to address the need 
for changes to AR strengths and ``composition'' as we go through our 
review of full-time support requirements.
    Question. Does the Marine Corps have a need to extend TRICARE 
service to cover the ``gray area'' between the end of affiliation with 
the Reserves and the start of retirement benefits?
    Answer. If an additional TRICARE Retiree Medical Benefit can be 
offered that covers this ``gray area'' without raising the cost of 
existing programs for the Service or Reservists or otherwise detracting 
from coverage already available, the Marine Corps would be inclined to 
support such a program.
                                 ______
                                 
             Questions Submitted to Charles E. Stenner, Jr.
            Questions Submitted by Chairman Daniel K. Inouye
                           force realignment
    Question. General Stenner, for several years now the Air Force 
Reserve has implemented force structure realignments as part of the 
Total Force Integration and base closure initiatives. The resulting 
closures and mission realignments have hurt retention levels. At the 
same time, the Reserve now plans to grow its end strength by 7,000 
airmen.
    Do you think the Air Force Reserve will be able to recruit and 
retain these additional personnel given the instability of the ongoing 
realignments?
    Answer. Yes. We have completed all of our programmed manpower 
realignments and are now stable and growing. The Air Force and Air 
Force Reserve (AFR) have identified additional mission requirements and 
the AFR needs to grow proportionately to the regular component to meet 
these requirements. Recruiting for the AFR is strong--having exceeded 
recruiting goals for 8 consecutive years. Nevertheless we are bringing 
on additional recruiters to ensure that we meet any additions to our 
end strength.
    On the retention side, losses realized over the last 3 to 5 years 
were a direct result of programmed force structure changes and 
realignments. Now that this era is behind us, we are confident that we 
will be able to retain the appropriate number of personnel to stay 
within Department of Defense mandated end strength limits. Measures 
recently enacted by Congress such as expanded TRICARE Reserve Select, 
Reduced Eligibility Age for Retirement Pay, the Post 9/11 GI Bill, and 
authorized travel entitlements for certain Selected Reserve members who 
serve outside the normal commuting distance have generated much 
interest. We have undertaken great efforts to make our members aware of 
these benefits. We believe these benefits and our efforts to improve 
awareness will greatly improve our ability to retain our members as we 
go forward.
    Question. General Stenner, with personnel and mission adjustments, 
the Air Force Reserve will have to train and retrain a large number of 
personnel.
    Have you been provided the training slots and funding needed to 
meet your training requirements?
    Answer. Ensuring the Air Force Reserve maintains individual and 
unit readiness standards to support all aspects of the Air Force's 
missions remains a top priority. The help we received from your 
Committee in moving funding into our training program has allowed us to 
keep pace with the increasing demands resulting from changing missions 
and demographics.
    In terms of formal classroom training, we work closely with 
Headquarters Air Education and Training Command (AETC) in projecting 
and securing the appropriate number of quotas to provide our reservists 
with the required training to meet basic requirements. While there are 
limits to the number of class seats AETC has to offer, we have not had 
any notable issues obtaining quotas for our people in the past and do 
not anticipate any in the future.
    While classroom training is vital, it is our ``seasoning training 
program'' that gives our members the hands-on training needed to become 
fully mission capable. When members return from formal school, they 
must still complete several requirements to become fully proficient in 
their assigned mission. The Air Force Reserve has implemented the 
``seasoning training program'' to bring members back to their units in 
a paid status so that they can more quickly receive the required 
training needed to become fully mission capable in their specialty. 
This program has enabled to us to more readily meet increased demands 
for reserve members needed to augment active duty to prosecute our 
national security objectives.
    Due to the outstanding results we've experienced with this program, 
we would like to expand its reach and scope, but our limited funding 
and inability to tradeoff and reallocate dollars in the year of 
execution inhibits expansion.
    The Air Force Reserve will continue pursue all the avenues 
necessary to ensure we are providing the best trained, combat ready 
force available to meet mission requirements.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
          federal employees in the national guard and reserves
    Question. The fiscal year 2009 Omnibus contained the provision to 
help federal employees in the National Guard and Reserves avoid a loss 
of income when they are called to active duty.
    What efforts will the Air Force Reserve undertake to quickly 
implement this new provision?
    Answer. The provision is directed to the federal agencies rather 
than to the Reserve Components. Section 751 of the Omnibus 
Appropriations Act, 2009 (Public Law 111-8, March 11, 2009) amends 
Title 5, United States Code, Section 5538, to require federal agencies 
to pay a supplemental payment to eligible civilian employees who are 
absent from their civilian employment while on active duty in support 
of a contingency operation under specific paragraphs of Title 10 of the 
United States Code.
    For each covered biweekly pay period, eligible civilian employees 
will receive a supplemental payment equal to the amount by which 
civilian basic pay exceeds (if at all) military pay and allowances 
allowable to the given period. Civilian employees are not eligible for 
this supplemental payment in pay periods during which they use any 
other form of paid leave from the civilian position.
    Question. Can you provide the number of current Air Force Reserve 
members who are federal government employees? Of that number, how many 
have served at least one tour in Operation Enduring Freedom or 
Operation Iraqi Freedom? How many are currently deployed?
    Answer. A total of 14,016 out of 66,871 Air Force Reservists in the 
Selected Reserve are DOD federal employees. A total of 8,729 of the 
14,016 federal employees have been activated in support of Operations 
Enduring Freedom or Iraqi Freedom. Currently, 403 of the 14,016 federal 
employees are activated in support of a named contingency operation.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
                                tricare
    Question. Is there a need to find a way to extend TRICARE service 
to cover the ``gray area'' between the end of affiliation with the 
Reserves and the start of retirement benefits?
    Answer. Yes. Extending TRICARE service to cover the ``gray area'' 
between retirement from the reserves and the start of retirement health 
benefits would improve our ability to care for reserve members and 
their families, and could serve as an effective recruitment/retention 
tool.
    Such a benefit directly addresses my concerns about caring for our 
people and recognizing the increased service of our reserve forces due 
to higher operations tempo and more frequent deployments: it provides 
``gray area'' reservists--who might have difficulty securing or may 
otherwise not be able to secure health care coverage--the opportunity 
to purchase affordable health care coverage.
    Congress recently dramatically improved TRICARE for Reserve 
component members to mitigate switching back and forth between civilian 
health plans and the military TRICARE system, by offering TRICARE 
Reserve Select as a full time option to our part-time members at a 
reduced cost. An unintended consequence of subscribing to this offering 
is the member could be without any health coverage upon retirement from 
the reserve. A newly retired reservist with ongoing personal or family 
health issues would have difficulty re-engaging in the civilian 
healthcare insurance market.
    As a recruiting tool, this would be an added benefit for recruiting 
new members into the Reserve components. Increased civilian healthcare 
costs, increased co-payments, and employers eliminating plans make 
healthcare issues a topic of concern for individuals, families, and as 
a nation.
    As a retention tool, TRICARE Reserve Select has provided an 
incentive for continued Reserve component participation. Continued 
service by our Reserve component members reduces training costs, 
retains experience, and strengthens our nation.
    I am always concerned about the effects on our overall bottom line: 
such a benefit must be affordable over the long run. A benefit in which 
the ``gray area'' retiree pays 100 percent of the premium cost for 
TRICARE Reserve Select would minimize the impact to our bottom. 
Moreover, the cost differential between reduced premiums for those 
still in service and the full premiums for ``gray area'' retirees would 
also serve as an incentive to stay in service longer. Lastly, although 
the premiums would be greater to them, ``gray area'' retirees would 
have relatively affordable, continued healthcare coverage available to 
them.
    This benefit would provide for the care of our people who have done 
so much for our nation.
                     reserve full time end strength
    Question. Gentlemen, each of you has a full time support 
requirement with your organization.
    With the increase in usage of the Reserve component, do you feel 
you have the full time strength to fulfill your obligations to each of 
your active duty components requirements?
    Answer. The Air Force Reserve is first and foremost a strategic 
reserve. Our full time support is meant to provide trained and equipped 
Airmen to the active component. In that capacity, we have sufficient 
full time strength to meet our active duty component requirements. 
However, the strategic reserve is a Cold War paradigm that was designed 
for short term high intensity warfare. The conflicts in Iraq and 
Afghanistan are low intensity wars of unknown duration requiring the 
Reserve to continuously provide trained and ready Airmen. Consequently, 
this demand for Airmen requires that we send a portion of our full time 
support away from home station to support operations, thus reducing our 
ability to train and equip Airmen at home station. If the Air Force 
Reserve is to be used operationally, we will need more full time 
strength to support active component requirements.
    Question. If you do not have the end strength numbers, what 
increase would each of you like to see if there was an acceleration 
plan for your projected future growth?
    Answer. The Air Force Reserve's workforce is currently 80 percent 
traditional (part time) citizen Airmen. Our full time support program 
ensures these traditional Airmen are trained and ready to meet the 
requirements of a strategic reserve. For 18 years we've operated at 
higher operations tempo than during peacetime, yet we continued to 
program as if next year this operations tempo will subside and 
peacetime strategic reserve tempo will return. To manage our force and 
sufficiently meet requirements of this new steady state, an increase in 
full time support is needed. We know that certain careers fields like 
security forces and combat search and rescue are enduing higher than 
normal operations tempo and would greatly benefit from an increase in 
full time support end strength. Although we cannot determine an exact 
figure at this time, we will continue to analyze our data to establish 
the right level to ensure our traditional reservist continue to receive 
the proper training.
                 changes in reserve personnel policies
    Question. With increased operational demands placed on the Reserve 
component for the past several years, signs of stress and strain are 
showing. All Reserve component Services are facing increased challenges 
retaining experienced, mid-grade career service members, precisely 
those eligible for retirement after having served 20 years of service. 
I am concerned we are not maintaining a balanced force, retaining 
enough of the very individuals who have gained the benefit of 
experience these past years of increased operations. I'm considering 
introducing legislation that would enhance retention of those 
experienced career service members, providing an incentive to serve 
beyond 20 years, initial retirement eligibility, to continue to serve 
in the reserve component in exchange for lowering the age at which they 
will be eligible to receive retired pay. For example, if a member 
commits to serving 2 years beyond 20, the age for which they are 
eligible to receive retired pay would be lowered by 1 year.
    What is your opinion of this idea?
    Answer. This proposal would be a huge benefit to reserve members 
and anything that helps with recruiting and increased retention is most 
welcomed. However, we recently did some analysis to determine if 
reservist were leaving earlier after reaching retirement age than they 
have historically. The analysis determined that we have not seen 
significant increases through the era of Base Realignment and Closure, 
Total Force Integration or with the increased operations tempo. 
However, in recognition of the contributions our members are making to 
the nation's security, the fiscal year 2008 National Defense 
Authorization Act authorized a similar benefit for members who serve at 
least 90 aggregate days on most active duty and reserve tours. For each 
90 aggregate days served per fiscal year, on most active duty and 
reserve tours, member's retirement will be reduced by 3 months up to 
age 50. This proposal would serve as additional recognition for those 
reservists that continue to serve beyond retirement age. A legitimate 
concern may be the potential impact this proposal will have on the Air 
Force's retirement account. Given that people are living longer now, we 
must be sure that we are able to sustain this initiative over the long 
run. Bottom line: the proposal would likely encourage members to 
continue to serve beyond retirement age and therefore positively impact 
retention.

                          SUBCOMMITTEE RECESS

    Chairman Inouye. The Defense Subcommittee will meet next on 
Tuesday, April 22, at 10:30 a.m., at which time we will receive 
testimony from Secretary Michael Donley and General Norton 
Schwartz on the United States Air Force fiscal year 2010 budget 
request. Until then, we will stand in recess.
    [Whereupon, at 11:59 a.m., Wednesday, March 25, the 
subcommittee was recessed, to reconvene at 10:30 a.m., Tuesday, 
April 22.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2010

                              ----------                              


                         TUESDAY, MAY 12, 2009

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:30 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Leahy, Cochran, and Bond.

                         DEPARTMENT OF DEFENSE

                         DEPARTMENT OF THE ARMY

                        Office of the Secretary

STATEMENTS OF:
        HON. PETE GEREN, SECRETARY OF THE ARMY
        GENERAL GEORGE W. CASEY, JR., CHIEF OF STAFF

             OPENING STATEMENT OF CHAIRMAN DANIEL K. INOUYE

    Chairman Inouye. This morning we welcome the Honorable Pete 
Geren, Secretary of the Army, and General George Casey, the 
Army's Chief of Staff.
    Gentlemen, thank you for being with us today as the 
subcommittee reviews the Army's budget request for fiscal year 
2010.
    The Army's fiscal year budget request is $142 billion, an 
increase of almost $2 billion over last year's inactive budget 
excluding the funding appropriated to the Army in the fiscal 
year 2009 supplemental. The Army has also requested $83.1 
billion for overseas contingencies for fiscal year 2010.
    As we review the request, we are mindful of the fact that 
in this era of persistent conflict, the Army and its soldiers 
remain a constant in any strategy to ensure our national 
security. The Army remains highly engaged in overseas 
contingency operations, while continuing to transform itself.
    But fighting in today's security environment while 
continuing to rebuild and reset has stretched the service and 
the Army has to balance decisions among the strains of meeting 
the high demand of the forces maintaining a debt of forces 
needed to be prepared for other contingencies and managing the 
limited time between deployments.
    At the end of the fiscal year, the active duty Army and the 
Reserve components will have reached its final end strength 
goals, and I wish to congratulate achieving this goal several 
years ahead of schedule, and I hope that these additional 
soldiers will help relieve the current strain on the force.
    There's no question that the continuous hard pace of 
operations has taken a toll on both Army personnel and 
equipment, yet as we address current urgent needs, we cannot 
lose sight of the future.
    The Secretary recently made it clear that the Department of 
Defense is not going to move forward into the future with a 
business-as-usual approach, and last month, Secretary Gates 
held a press conference announcing sweeping cuts and other 
major changes to the budget, including changing the ways the 
Pentagon buys weapons.
    This decision was fueled by outrage over programs that 
exceed cost estimates, and often do not meet operational needs.
    Secretary Gates also acknowledged that major structural 
changes are needed to place the Defense Department on a 
fiscally sustainable path, especially regarding personal 
accounts.
    Facing this new fiscal environment, I think the Army must 
rethink its modernization approach to reflect an increased 
focus on cost, as well as a need to integrate lessons learned 
from ongoing operations. Procurement dollars, as you can 
imagine, will be tighter as the Army faces higher personnel 
costs.
    The subcommittee expects that many of the hard decisions 
facing the Army will be reflected, both in the upcoming 
Quadrennial Defense Review (QDR), and overall modernization 
planning, and it is our hope that this morning's hearing will 
help answer some of these questions, and eliminate how the 
Army's fiscal year 2010 request addresses these challenges in a 
responsible manner.
    Gentlemen, we sincerely appreciate your service to our 
Nation, and the dedication and sacrifice made daily by men and 
women in our Army. We could not be more grateful for what those 
who wear our Nation's uniform do for our country, each and 
every day.
    And, as always, your full statements will be made part of 
the record, and I wish to turn to my vice chairman, Senator 
Cochran, at this time for his opening statement.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you for your 
leadership of this subcommittee, and in the Senate, generally. 
And we welcome our witnesses today to review the request for 
funding for the Department of the Army.
    I first want to commend you for your leadership and your 
success in managing the resources of the United States Army, 
our men and women in uniform, and their families, who are 
performing services that are very important for the safety and 
security of our country and for stability in the world, and for 
that, we're very grateful.
    We want to thank you, too, for the definition of your 
priorities, in terms of funding for programs and activities, 
procurement, resetting the force, all of the things that are 
under your responsibility, and we appreciate your giving us a 
statement and an outline of your thoughts on these subjects. It 
will be very helpful to us as we proceed to consider the budget 
request.
    We welcome you to the subcommittee and look forward to your 
comments.
    Chairman Inouye. I recognize Secretary Geren.
    Secretary Geren. Thank you, Mr. Chairman, Mr. Vice 
Chairman.
    It's an honor for General Casey and me to appear before you 
to discuss our United States Army. An Army that's built on a 
partnership between soldiers and the Congress, it's a 
partnership that pre-dates the independence of our Nation.
    We have provided the subcommittee the full posture 
statement, I ask that it be included in the record.
    Chairman Inouye. Without objection.
    [The statement follows:]
 Prepared Statement of the Honorable Pete Geren and General George W. 
                               Casey, Jr.
2009 army posture statement--america's army: the strength of the nation
                                               May 5, 2009.

    Our Nation is in its eighth year of war, a war in which our Army--
Active, Guard, and Reserve--is fully engaged. The Army has grown to 
more than 1 million Soldiers, with 710,000 currently serving on active 
duty and more than 255,000 deployed to nearly 80 countries worldwide. 
Our Soldiers and Army Civilians have performed magnificently, not only 
in Afghanistan and Iraq, but also in defense of the homeland and in 
support to civil authorities in responding to domestic emergencies.
    Much of this success is due to our Noncommissioned Officers. This 
year, we specifically recognize their professionalism and commitment. 
To honor their sacrifices, celebrate their contributions, and enhance 
their professional development, we have designated 2009 as the ``Year 
of the Army NCO.'' Our NCO Corps is the glue holding our Army together 
in these challenging times.
    Today, we are fighting a global war against violent extremist 
movements that threaten our freedom. Violent extremist groups such as 
Al Qaeda, as well as Iran-backed factions, consider themselves at war 
with western democracies and even certain Muslim states. Looking ahead, 
we see an era of persistent conflict--protracted confrontation among 
state, non-state, and individual actors that are increasingly willing 
to use violence to achieve their political and ideological ends. In 
this era, the Army will continue to have a central role in providing 
full spectrum forces necessary to ensure our security.
    The Army remains the best led, best trained, and best equipped Army 
in the world, but it also remains out of balance. The demand for our 
forces over the last several years has exceeded the sustainable supply. 
It has stretched our Soldiers and their Families and has limited our 
flexibility in meeting other contingencies. In 2007, our Army initiated 
a plan based on four imperatives: Sustain our Soldiers and Families; 
Prepare our forces for success in the current conflicts; Reset 
returning units to rebuild readiness; and Transform to meet the demands 
of the 21st Century. We have made progress in all of these and are on 
track to meet the two critical challenges we face: restoring balance 
and setting conditions for the future.
    Our Army is the Strength of this Nation, and this strength comes 
from our values, our ethos, and our people--our Soldiers and the 
Families and Army Civilians who support them. We remain dedicated to 
improving their quality of life. We are committed to providing the best 
care and support to our wounded, ill, and injured Soldiers--along with 
their Families. And our commitment extends to the Families who have 
lost a Soldier in service to our Nation. We will never forget our moral 
obligation to them.
    We would not be able to take these steps were it not for the 
support and resources we have received from the President, Secretary of 
Defense, Congress, and the American people. We are grateful. With 
challenging years ahead, the Soldiers, Families, and Civilians of the 
United States Army require the full level of support requested in this 
year's base budget and Overseas Contingency Operations funding request. 
Together, we will fight and win the wars in Afghanistan and Iraq, 
restore balance, and transform to meet the evolving challenges of the 
21st Century. Thank you for your support.
                                       George W. Casey, Jr.
                        General, United States Army Chief of Staff.
                                                Pete Geren,
                                             Secretary of the Army.

    ----------------------------------------------------------------

    ``As we consider the road that unfolds before us, we remember with 
humble gratitude those brave Americans who, at this very hour, patrol 
far-off deserts and distant mountains. They have something to tell us, 
just as the fallen heroes who lie in Arlington whisper through the 
ages. We honor them not only because they are guardians of our liberty, 
but because they embody the spirit of service; a willingness to find 
meaning in something greater than themselves. And yet, at this moment--
a moment that will define a generation--it is precisely this spirit 
that must inhabit us all.''----President Barack Obama Inaugural 
Address, January 2009.

    ----------------------------------------------------------------

                              introduction
    Our combat-seasoned Army, although stressed by 7 years of war, is a 
resilient and professional force--the best in the world. The Army--
Active, National Guard, and Army Reserve--continues to protect our 
Nation, defend our national interests and allies, and provide support 
to civil authorities in response to domestic emergencies.
    The Army is in the midst of a long war, the third longest in our 
Nation's history and the longest ever fought by our All-Volunteer 
Force. More than 1 million of our country's men and women have deployed 
to combat; more than 4,500 have sacrificed their lives, and more than 
31,000 have been wounded. Our Army continues to be the leader in this 
war, protecting our national interests while helping others to secure 
their freedom. After 7 years of continuous combat, our Army remains out 
of balance, straining our ability to sustain the All-Volunteer Force 
and maintain strategic depth. The stress on our force will not ease in 
2009 as the demand on our forces will remain high. In 2008, the Army 
made significant progress to restore balance, but we still have several 
challenging years ahead to achieve this vital goal.
    As we remain committed to our Nation's security and the challenge 
of restoring balance, we remember that the Army's most precious 
resources are our dedicated Soldiers, their Families, and the Army 
Civilians who support them. They are the strength of the Army--an Army 
that is the Strength of the Nation.
                           strategic context
An Era of Persistent Conflict
    The global security environment is more ambiguous and unpredictable 
than in the past. Many national security and intelligence experts share 
the Army's assessment that the next several decades will be 
characterized by persistent conflict--protracted confrontation among 
state, non-state, and individual actors that are increasingly willing 
to use violence to achieve their political and ideological ends. We 
live in a world where global terrorism and extremist ideologies, 
including extremist movements such as Al Qaeda, threaten our personal 
freedom and our national interests. We face adept and ruthless 
adversaries who exploit technological, informational, and cultural 
differences to call the disaffected to their cause. Future operations 
in this dynamic environment will likely span the spectrum of conflict 
from peacekeeping operations to counterinsurgency to major combat.
Global Trends
    Several global trends are evident in this evolving security 
environment. Globalization has increased interdependence and prosperity 
in many parts of the world. It also has led to greater disparities in 
wealth which set conditions that can foster conflict. The current 
global recession will further increase the likelihood of social, 
political, and economic tensions.
    Technology, which has enabled globalization and benefited people 
all over the world, also is exploited by extremists to manipulate 
perceptions, export terror, and recruit people who feel disenfranchised 
or threatened.
    Population growth increases the likelihood of instability with the 
vast majority of growth occurring in urban areas of the poorest regions 
in the world. The limited resources in these areas make young, 
unemployed males especially vulnerable to antigovernment and radical 
ideologies. The inability of governments to meet the challenges of 
rapid population growth fuels local and regional conflicts with 
potential global ramifications.
    Increasing demand for resources, such as energy, water, and food, 
especially in developing economies, will increase competition and the 
likelihood of conflict. Climate change and natural disasters further 
strain already limited resources, increasing the potential for 
humanitarian crises and population migrations.
    The proliferation of weapons of mass destruction (WMD) remains a 
vital concern. Growing access to technology increases the potential for 
highly disruptive or even catastrophic events involving nuclear, 
radiological, chemical, and biological weapons or materials. Many 
terrorist groups are actively seeking WMD. Failed or failing states, 
lacking the capacity or will to maintain territorial control, can 
provide safe havens for terrorist groups to plan and export operations, 
which could include the use of WMD.
    These global trends, fueled by local, regional, and religious 
tensions, create a volatile security environment with increased 
potential for conflict. As these global trends contribute to an era of 
persistent conflict, the character of conflict in the 21st Century is 
changing.
The Evolving Character of Conflict
    Although the fundamental nature of conflict is timeless, its ever-
evolving character reflects the unique conditions of each era. Current 
global trends include a diverse range of complex operational challenges 
that alter the manner and timing of conflict emergence, change the 
attributes and processes of conflict, require new techniques of 
conflict resolution, and demand much greater integration of all 
elements of national power. The following specific characteristics of 
conflict in the 21st Century are especially important.
    Diverse actors, especially non-state actors, frequently operate 
covertly or as proxies for states. They are not bound by 
internationally recognized norms of behavior, and they are resistant to 
traditional means of deterrence.
    Hybrid threats are dynamic combinations of conventional, irregular, 
terrorist, and criminal capabilities. They make pursuit of singular 
approaches ineffective, necessitating innovative solutions that 
integrate new combinations of all elements of national power.
    Conflicts are increasingly waged among the people instead of around 
the people. Foes seeking to mitigate our conventional advantages 
operate among the people to avoid detection, deter counterstrikes, and 
secure popular support or acquiescence. To secure lasting stability, 
the allegiance of indigenous populations becomes the very object of the 
conflict.
    Conflicts are becoming more unpredictable. They arise suddenly, 
expand rapidly, and continue for uncertain durations in unanticipated, 
austere locations. They are expanding to areas historically outside the 
realm of conflict such as cyberspace and space. Our nation must be able 
to rapidly adapt its capabilities in order to respond to the 
increasingly unpredictable nature of conflict.
    Indigenous governments and forces frequently lack the capability to 
resolve or prevent conflicts. Therefore, our Army must be able to work 
with these governments, to create favorable conditions for security and 
assist them in building their own military and civil capacity.
    Interagency partnerships are essential to avoid and resolve 
conflicts that result from deeply rooted social, economic, and cultural 
conditions. Military forces alone cannot establish the conditions for 
lasting stability.
    Images of conflicts spread rapidly across communication, social, 
and cyber networks by way of 24-hour global media and increased access 
to information through satellite and fiber-optic communications add to 
the complexity of conflict. Worldwide media coverage highlights the 
social, economic, and political consequences of local conflicts and 
increases potential for spillover, creating regional and global 
destabilizing effects.
    Despite its evolving character, conflict continues to be primarily 
conducted on land; therefore, landpower--the ability to achieve 
decisive results on land--remains central to any national security 
strategy. Landpower secures the outcome of conflict through an 
integrated application of civil and military capabilities, even when 
landpower is not the decisive instrument. The Army, capable of full 
spectrum operations as part of the Joint Force, continues to transform 
itself to provide the prompt, sustainable, and dominant effects 
necessary to ensure our Nation's security in the 21st Century.
                           global commitments
    In this era of persistent conflict, the Army remains essential to 
our Nation's security as a campaign capable, expeditionary force able 
to operate effectively with Joint, interagency, and multinational 
partners across the full spectrum of conflict. Today, the Army has 
243,000 Soldiers deployed in nearly 80 countries around the world, with 
140,000 Soldiers in active combat theaters. To fulfill the requirements 
of today's missions, including defending the homeland and supporting 
civil authorities, the Army has over 710,000 Soldiers on active duty 
from all components. Additionally, 258,000 Army Civilians are 
performing critical missions in support of the Army. More than 4,100 of 
our Civilians and more than 33,000 U.S. contractors are forward-
deployed, performing vital missions abroad.
    The Army's primary focus continues to be combined counter-
insurgency operations in Iraq and Afghanistan, while training each 
nation's indigenous forces and building their ability to establish 
peace and maintain stability. Our Army is also preparing ready and 
capable forces for other national security requirements, though at a 
reduced rate. These forces support combatant commanders in a wide 
variety of military missions across the entire spectrum of conflict. 
Examples of Army capabilities and recent or ongoing missions other than 
combat include:
    Responding to domestic incidents by organizing, training, and 
exercising brigade-sized Chemical, Biological, Radiological, Nuclear, 
and high yield Explosive Consequence Management Reaction Forces--the 
first in 2008, the second in 2009, and the third in 2010.
    Supporting the defense of South Korea, Japan, and many other 
friends, allies, and partners.
    Conducting peacekeeping operations in the Sinai Peninsula and the 
Balkans.
    Supporting the establishment of Africa Command, headquartered in 
Germany, and its Army component, U.S. Army Africa, headquartered in and 
Italy.
    Providing military observers and staff officers to U.N. 
peacekeeping missions in Haiti, Iraq, Liberia, the Republic of Georgia, 
Israel, Egypt, Afghanistan, and Chad.
    Conducting multinational exercises that reflect our longstanding 
commitments to our allies and alliances.
    Supporting interagency and multinational partnerships with 
technical expertise, providing critical support after natural 
disasters.
    Continuing engagements with foreign militaries to build 
partnerships and preserve coalitions by training and advising their 
military forces.
    Supporting civil authorities in responding to domestic emergencies.
    Participating, most notably by the Army National Guard, in securing 
our borders and conducting operations to counter the flow of illegal 
drugs.
    Supporting operations to protect against WMD and prevent their 
proliferation.
    Protecting and eliminating chemical munitions.
    Current combat operations, combined with other significant demands 
placed on our forces, have stressed our Army, our Soldiers, and their 
Families. While we remain committed to providing properly manned, 
trained, and equipped forces to meet the diverse needs of our combatant 
commanders, we face two critical challenges.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                        two critical challenges
    While fully supporting the demands of our Nation at war, our Army 
faces two major challenges--restoring balance to a force experiencing 
the cumulative effects of 7 years of war and setting conditions for the 
future to fulfill our strategic role as an integral part of the Joint 
Force.
    The Army is out of balance. The current demand for our forces in 
Iraq and Afghanistan exceeds the sustainable supply and limits our 
ability to provide ready forces for other contingencies. Even as the 
demand for our forces in Iraq decreases, the mission in Afghanistan and 
other requirements will continue to place a high demand on our Army for 
years to come. Current operational requirements for forces and 
insufficient time between deployments require a focus on 
counterinsurgency training and equipping to the detriment of 
preparedness for the full range of military missions. Soldiers, 
Families, support systems, and equipment are stressed due to lengthy 
and repeated deployments. Overall, we are consuming readiness as fast 
as we can build it. These conditions must change. Institutional and 
operational risks are accumulating over time and must be reduced in the 
coming years.
    While restoring balance, we must simultaneously set conditions for 
the future. Our Army's future readiness will require that we continue 
to modernize, adapt our institutions, and transform Soldier and leader 
development in order to sustain an expeditionary and campaign capable 
force for the rest of this Century.
    Modernization efforts are essential to ensure technological 
superiority over a diverse array of potential adversaries. Our Army 
must adapt its institutions to more effectively and efficiently provide 
trained and ready forces for combatant commanders. We will continue to 
transform how we train Soldiers and how we develop agile and adaptive 
leaders who can overcome the challenges of full spectrum operations in 
complex and dynamic operating environments. We also must continue the 
transformation of our Reserve Components to an operational force to 
achieve the strategic depth necessary to successfully sustain 
operations in an era of persistent conflict.
    Through the dedicated efforts of our Soldiers, their Families, and 
Army Civilians, combined with continued support from Congressional and 
national leadership, we are making substantial progress toward these 
goals. Our continued emphasis on the Army's four imperatives--Sustain, 
Prepare, Reset, and Transform--has focused our efforts. We recognize, 
however, that more remains to be done in order to restore balance and 
set conditions for the future.
Restoring Balance: The Army's Four Imperatives
            Sustain
    We must sustain the quality of our All-Volunteer Force. Through 
meaningful programs, the Army is committed to providing the quality of 
life deserved by those who serve our Nation. To sustain the force, we 
are focused on recruitment and retention; care of Soldiers, Families, 
and Civilians; care for our wounded Warriors; and support for the 
Families of our fallen Soldiers.
                Recruit and Retain
    Goal.--Recruit quality men and women through dynamic incentives. 
Retain quality Soldiers and Civilians in the force by providing 
improved quality of life and incentives.
    Progress.--In 2008, nearly 300,000 men and women enlisted or 
reenlisted in our All-Volunteer Army. In addition, the Army created the 
Army Preparatory School to offer incoming recruits the opportunity to 
earn a GED in order to begin initial entry training. All Army 
components are exceeding the 90 percent Tier 1 Education Credential 
(high school diploma or above) standard for new recruits. In addition, 
our captain retention incentive program contributed to a nearly 90 
percent retention rate for keeping experienced young officers in the 
Army.
                Care of Soldiers, Families, and Civilians
    Goal.--Improve the quality of life for Soldiers, Families, and 
Civilians through the implementation of the Soldier and Family Action 
Plan and the Army Family Covenant. Garner support of community groups 
and volunteers through execution of Army Community Covenants.
    Progress.--The Army hired more than 1,000 new Family Readiness 
Support Assistants to provide additional support to Families with 
deployed Soldiers. We doubled the funding to Family programs and 
services in 2008. We began construction on 72 Child Development Centers 
and 11 new Youth Centers and fostered community partnerships by signing 
80 Army Community Covenants. Our Army initiated the ``Shoulder to 
Shoulder, No Soldier Stands Alone'' program to increase suicide 
awareness and prevention.
    The Army also committed to a 5-year, $50 million study by the 
National Institute for Mental Health for practical interventions for 
mitigating suicides and enhancing Soldier resiliency. In addition, the 
Army implemented the Intervene, Act, Motivate (I A.M. Strong) Campaign 
with a goal of eliminating sexual harassment and sexual assault in the 
Army. To enhance the investigation and prosecution of criminal 
behavior, the Army's Criminal Investigation Command and Office of the 
Judge Advocate General have taken new measures to support victims, 
investigate crimes and hold offenders accountable. The Army also has 
provided better access to quality healthcare, enhanced dental readiness 
programs focused on Reserve Component Soldiers, improved Soldier and 
Family housing, increased access to child care, and increased 
educational opportunities for Soldiers, children, and spouses.
                Warrior Care and Transition
    Goal.--Provide world-class care for our wounded, ill, and injured 
Warriors through properly resourced Warrior Transition Units (WTUs), 
enabling these Soldiers to remain in our Army or transition to 
meaningful civilian employment consistent with their desires and 
abilities.
    Progress.--The Army established 36 fully operational WTUs and 9 
community-based healthcare organizations to help our wounded, ill, and 
injured Soldiers focus on their treatment, rehabilitation, and 
transition through in-patient and out-patient treatment. We initiated 
programs to better diagnose and treat Post-Traumatic Stress Disorder, 
Traumatic Brain Injury and other injuries through advanced medical 
research. We also have made investments in upgrading our clinics and 
hospitals including a $1.4 billion investment in new hospitals at Forts 
Riley, Benning, and Hood.
                Support Families of Fallen Comrades
    Goal.--Assist the Families of our fallen comrades and honor the 
service of their Soldiers.
    Progress.--The Army is developing and fielding Survivor Outreach 
Services, a multi-agency effort to care for the Families of our 
Soldiers who made the ultimate sacrifice. This program includes benefit 
specialists who serve as subject matter experts on benefits and 
entitlements, support coordinators who provide long-term advocacy, and 
financial counselors who assist in budget planning.
            Prepare
    We must prepare our force by readying Soldiers, units, and 
equipment to succeed in the current conflicts, especially in Iraq and 
Afghanistan. We continue to adapt institutional, collective, and 
individual training to enable Soldiers to succeed in combat and prevail 
against adaptive and intelligent adversaries. We are equally committed 
to ensuring Soldiers have the best available equipment to both protect 
themselves and maintain a technological advantage over our adversaries. 
To prepare our force, we continue to focus on growing the Army, 
training, equipping, and better supporting the Army Force Generation 
(ARFORGEN) process.
                Grow the Army
    Goal.--Accelerate the end strength growth of the Army so that by 
2010 the Active Component has 547,400 Soldiers and the National Guard 
has 358,200 Soldiers. Grow the Army Reserve to 206,000 Soldiers by 2012 
even as the Army Reserve works an initiative to accelerate that growth 
to 2010. Grow the Army's forces to 73 Brigade Combat Teams (BCTs) and 
approximately 227 Support Brigades with enabling combat support and 
combat service support structure by 2011. Simultaneously develop the 
additional facilities and infrastructure to station these forces.
    Progress.--With national leadership support, our Army has achieved 
our manpower growth in all components during 2009. The Army grew 32 
Modular Brigades in 2008 (7 Active Component Brigades and 25 Brigades 
in the Reserve Component). This growth in the force, combined with 
reduced operational deployments from 15 months to 12 months, eased some 
of the strain on Soldiers and Families.
                Training
    Goal.--Improve the Army's individual, operational, and 
institutional training for full spectrum operations. Develop the tools 
and technologies that enable more effective and efficient training 
through live, immersive, and adaptable venues that prepare Soldiers and 
leaders to excel in the complex and challenging operational 
environment.
    Progress.--The Army improved training facilities at home stations 
and combat training centers, increasing realism in challenging 
irregular warfare scenarios. Army Mobile Training Teams offered career 
training to Soldiers at their home station, preventing them from having 
to move away for schooling and providing more time for them with their 
Families. Our Army continues to improve cultural and foreign language 
skills.
                Equipment
    Goal.--Provide Soldiers effective, sustainable, and timely 
equipment through fully integrated research and development, 
acquisition, and logistical sustainment. Continue modernization efforts 
such as the Rapid Fielding Initiative and the Rapid Equipping Force, 
using a robust test and evaluation process to ensure the effectiveness 
of fielded equipment.
    Progress.--In 2008, the Army fielded more than 1 million items of 
equipment including over 7,000 Mine-Resistant, Ambush-Protected (MRAP) 
vehicles, providing Soldiers fighting in Iraq and Afghanistan the best 
equipment available.
                Army Force Generation (ARFORGEN) Process
    Goal.--Improve the ARFORGEN process to generate trained, ready, and 
cohesive units for combatant commanders on a rotational basis to meet 
current and future strategic demands. Achieve a degree of balance by 
reaching a ratio of 1 year deployed to 2 years at home station for 
Active Component units, and 1 year deployed to 4 years at home for 
Reserve Component units by 2011.
    Progress.--Recent refinements in the ARFORGEN process have 
increased predictability for Soldiers and their Families. When combined 
with the announced drawdown in Iraq, this will substantially increase 
the time our Soldiers have at home.
            Reset
    In order to prepare Soldiers, their Families, and units for future 
deployments and contingencies, we must reset the force to rebuild the 
readiness that has been consumed in operations. Reset restores deployed 
units to a level of personnel and equipment readiness necessary for 
future missions. The Army is using a standard reset model and is 
continuing a reset pilot program to further improve the effectiveness 
and efficiency of the ARFORGEN process. To reset our force, we are 
revitalizing Soldiers and Families; repairing, replacing, and 
recapitalizing equipment; and retraining Soldiers.
                Revitalize Soldiers and Families
    Goal.--Increase the time our Soldiers and Families have together to 
reestablish and strengthen relationships following deployments.
    Progress.--In the reset pilot program, units have no readiness 
requirements or Army-directed training during the reset period (6 
months for the Active Component and 12 months for the Reserve 
Components). This period allows units to focus on Soldier professional 
and personal education, property accountability, and equipment 
maintenance, and also provides quality time for Soldiers and their 
Families.
                Repair, Replace, and Recapitalize Equipment
    Goal.--Fully implement an Army-wide program that replaces equipment 
that has been destroyed in combat and repairs or recapitalizes 
equipment that has been rapidly worn out due to harsh conditions and 
excessive use. As units return, the Army will reset equipment during 
the same reconstitution period we dedicate to Soldier and Family 
reintegration.
    Progress.--The Army reset more than 125,000 pieces of equipment in 
2008. The maintenance activities and capacity at Army depots increased 
to their highest levels in the past 35 years.
                Retrain Soldiers, Leaders, and Units
    Goal.--Provide our Soldiers with the critical specialty training 
and professional military education necessary to accomplish the full 
spectrum of missions required in today's strategic environment.
    Progress.--The Army is executing a Training and Leader Development 
Strategy to prepare Soldiers and units for full spectrum operations. 
The Army is 60 percent complete in efforts to rebalance job skills 
required to meet the challenges of the 21st Century.
                Reset Pilot Program
    Goal.--Provide lessons learned that identify institutional 
improvements that standardize the reset process for both the Active and 
Reserve Components and determine timing, scope, and resource 
implications.
    Progress.--In 2008, the Army initiated a 6-month pilot reset 
program for 13 units (8 Active Component and 5 Reserve Components). The 
Army has learned many significant lessons and is applying them to all 
redeploying units to allow units more time to accomplish reset 
objectives at their home stations.
Transform
    We must transform our force to provide the combatant commanders 
dominant, strategically responsive forces capable of meeting diverse 
challenges across the entire spectrum of 21st Century conflict. To 
transform our force, we are adopting modular organizations, 
accelerating delivery of advanced technologies, operationalizing the 
Reserve Components, restationing our forces, and transforming leader 
development.
            Modular Reorganization
    Goal.--Reorganize the Active and Reserve Components into 
standardized modular organizations, thereby increasing the number of 
BCTs and support brigades to meet operational requirements and creating 
a more deployable, adaptable, and versatile force.
    Progress.--In addition to the 32 newly activated modular brigades, 
the Army converted 14 brigades from a legacy structure to a modular 
structure in 2008 (5 Active Component and 9 Reserve Component 
Brigades). The Army has transformed 83 percent of our units to modular 
formations--the largest organizational change since World War II.
            Advanced Technologies
    Goal.--Modernize and transform the Army to remain a globally 
responsive force and ensure our Soldiers retain their technological 
edge for the current and future fights.
    Progress.--The Army will accelerate delivery of advanced 
technologies to Infantry BCTs fighting in combat today through ``Spin-
outs'' from our Future Combat Systems program. This aggressive fielding 
schedule, coupled with a tailored test and evaluation strategy, ensures 
Soldiers receive reliable, proven equipment that will give them a 
decisive advantage over any enemy.
            Operationalize the Reserve Components
    Goal.--Complete the transformation of the Reserve Components to an 
operational force by changing the way we train, equip, resource, and 
mobilize Reserve Component units by 2012.
    Progress.--The Army continued efforts to systematically build and 
sustain readiness and to increase predictability of deployments for 
Soldiers, their Families, employers, and communities by integrating the 
ARFORGEN process.
            Restationing Forces
    Goal.--Restation forces and families around the globe based on the 
Department of Defense's (DOD) Global Defense Posture and Realignment 
initiatives, Base Realignment and Closure (BRAC) statutes, and the 
expansion of the Army directed by the President in January 2007.
    Progress.--To date, in support of BRAC, our Army has obligated 95 
percent of the $8.5 billion received. Of more than 300 major 
construction projects in the BRAC program, 9 have been completed and 
another 139 awarded. The Army has also completed 77 National 
Environmental Policy Act actions, closed 1 active installation and 15 
U.S. Army Reserve Centers, terminated 9 leases, and turned over 1,133 
excess acres from BRAC 2005 properties. The Army is on track to 
complete BRAC by 2011.
            Soldier and Leader Development
    Goal.--Develop agile and adaptive military and Civilian leaders who 
can operate effectively in Joint, interagency, intergovernmental, and 
multinational environments.
    Progress.--The Army published Field Manual (FM) 3-0, Operations, 
which includes a new operational concept for full spectrum operations 
where commanders simultaneously apply offensive, defensive, and 
stability operations to achieve decisive results. Additionally, the 
Army published FM 3-07, Stability Operations and FM 7-0, Training for 
Full Spectrum Operations and is finalizing FM 4-0, Sustainment. The 
doctrine reflected in these new manuals provides concepts and 
principles that will develop adaptive leaders to train and sustain our 
Soldiers in an era of persistent conflict.
 setting conditions for the future: six essential qualities of our army
    In an era of persistent conflict, our Army is the primary enabling 
and integrating element of landpower. The Army's transformation focuses 
on distinct qualities that land forces must possess to succeed in the 
evolving security environment. In order to face the security challenges 
ahead, the Army will continue to transform into a land force that is 
versatile, expeditionary, agile, lethal, sustainable, and 
interoperable.
    Versatile forces are multipurpose and can accomplish a broad range 
of tasks, moving easily across the spectrum of conflict as the 
situation demands. Our versatility in military operations--made 
possible by full spectrum training, adaptable equipment, and scalable 
force packages--will enable us to defeat a wide range of unpredictable 
threats.
    Our Army must remain an expeditionary force--organized, trained, 
and equipped to go anywhere in the world on short notice, against any 
adversary, to accomplish the assigned mission, including the ability to 
conduct forcible entry operations in remote, non-permissive 
environments. Working in concert with our force projection partners, 
the United States Transportation Command and sister services, we will 
enhance our expeditionary force projection and distribution capability 
to provide rapid, credible, and sustainable global response options for 
the Joint Force.
    Agile forces adapt quickly to exploit opportunities in complex 
environments. Our Army is developing agile Soldiers and institutions 
that adapt and work effectively in such environments.
    A core competency of land forces is to effectively, efficiently, 
and appropriately apply lethal force. The lethal nature of our forces 
enables our ability to deter, dissuade, and, when required, defeat our 
enemies. Because conflicts will increasingly take place among the 
people, the Army will continue to pursue technological and intelligence 
capabilities to provide lethal force with precision to minimize 
civilian casualties and collateral damage.
    Our Army must be organized, trained, and equipped to ensure it is 
capable of sustainable operations for as long as necessary to achieve 
national objectives. In addition, we will continue to improve our 
ability to guarantee the logistical capacity to conduct long-term 
operations while presenting a minimal footprint to reduce exposure of 
support forces.
    The extensive planning and organizing capabilities and experience 
of U.S. land forces are national assets. These capabilities are 
essential to preparing and assisting interagency, multinational, and 
host nation partners to execute their roles in conflict prevention and 
resolution. Our force needs to be increasingly interoperable to 
effectively support and integrate the efforts of Joint, interagency, 
intergovernmental, multinational, and indigenous elements to achieve 
national goals.
    As we look to the future, our Army is modernizing and transforming 
to build a force that exhibits these six essential qualities in order 
to meet the challenges of the security environment of the 21st Century. 
The Army's adoption of a modular, scalable brigade-based organization 
provides a broad range of capabilities that are inherently more 
versatile, adaptable, and able to conduct operations over extended 
periods.
    Another critical transformation initiative to enhance the Army's 
capabilities is the modernization of our global information network 
capabilities through integration of the Global Network Enterprise 
Construct (GNEC). The GNEC will enable network warfighting 
capabilities, dramatically improve and protect the LandWarNet, improve 
both efficiency and effectiveness of the network, and ensure Army 
interoperability across DOD.
    As part of our transformation, the Army is adapting as an 
institution principally in three areas: streamlining the Army Force 
Generation (ARFORGEN) process, implementing an enterprise approach, and 
establishing a more effective requirements process. A streamlined 
ARFORGEN process more efficiently mans, equips, and trains units to 
strengthen our expeditionary capability. The enterprise approach--a 
holistic method to improve the effectiveness and efficiency of the 
Army's policies and processes--will make our institutions more 
efficient and more responsive to the needs of the combatant commanders. 
An improved requirements process will provide more timely and flexible 
responses to meet the needs of our Soldiers. In transforming our 
training and leader development model, we produce more agile Soldiers 
and Civilians who are capable of operating in complex and volatile 
environments.
    The Army's modernization efforts are specifically designed to 
enhance these six essential land force qualities by empowering Soldiers 
with the decisive advantage across the continuum of full spectrum 
operations. Modernization is providing our Soldiers and leaders with 
leading-edge technology and capabilities to fight the wars we are in 
today while simultaneously preparing for future complex, dynamic 
threats. The Army is improving capabilities in intelligence, 
surveillance, and reconnaissance; information sharing; and Soldier 
protection to give our Soldiers an unparalleled awareness of their 
operational environment, increased precision and lethality, and 
enhanced survivability.
    The Army also is addressing the capability gaps in our current 
force by accelerating delivery of advanced technologies to Soldiers in 
Infantry BCTs. For example, more than 5,000 robots are currently in 
Iraq and Afghanistan, including an early version of the Small Unmanned 
Ground Vehicle (SUGV). Soldiers are using the SUGV prototype to clear 
caves and bunkers, search buildings, and defuse improvised explosive 
devices. In addition, an early version of the Class I Unmanned Aerial 
Vehicle (UAV) is currently supporting Soldiers in Iraq with 
reconnaissance, surveillance, and target acquisition. The Class I UAV 
operates in open, rolling, complex, and urban terrain and can take off 
and land vertically without a runway. It is part of the information 
network, providing real time information that increases Soldier agility 
and lethality while enhancing Soldier protection.
    Overall, Army modernization efforts provide a technological edge 
for our Soldiers in today's fight and are essential to the Army's 
efforts to empower Soldiers with the land force qualities needed in the 
21st Century.
                        stewardship/innovations
    The Nation's Army remains committed to being the best possible 
steward of the resources provided by the American people through the 
Congress. We continue to develop and implement initiatives designed to 
conserve resources and to reduce waste and inefficiencies wherever 
possible.
    The recent establishment of two organizations highlights the Army's 
commitment to improving efficiencies. In 2008, the Secretary of the 
Army established the Senior Energy Council to develop an Army 
Enterprise Energy Security Strategy. The Senior Energy Council is 
implementing a plan that reduces energy consumption and utilizes 
innovative technologies for alternative and renewable energy, including 
harvesting wind, solar and geothermal energy, while leveraging energy 
partnerships with private sector expertise. The Army is replacing 4,000 
petroleum-fueled vehicles with electric vehicles. We also are underway 
in our 6-year biomass waste-to-fuel technology demonstrations at six of 
our installations.
    As part of the Army's efforts in adapting institutions, we also 
established the Enterprise Task Force to optimize the ARFORGEN process 
for effectively and efficiently delivering trained and ready forces to 
the combatant commanders.
    In addition, in order to increase logistical efficiencies and 
readiness, the Army is developing 360 Degree Logistics Readiness--an 
initiative that proactively synchronizes logistics support capability 
and unit readiness. This new approach will allow the Army to see, 
assess, and synchronize enterprise assets in support of our operational 
forces. The 360 Degree Logistics Readiness bridges the information 
system gaps between selected legacy logistics automation systems and 
the Single Army Logistics Enterprise. It will improve visibility, 
accountability, fidelity, and timeliness of information to facilitate 
better decisions at every managerial level.
    Finally, the Army is committed to reforming our acquisition, 
procurement, and contracting processes to more efficiently and 
responsively meet the needs of our Soldiers. A streamlined requirements 
process based on reasonable requirements with adequately mature 
technology will produce a system with greater urgency and agility and 
guard against ``requirements creep.'' The Army also will continue to 
grow its acquisition workforce and provide disciplined oversight to its 
acquisition programs.
                            accomplishments
    The Army has been fully engaged over the past year. We remain 
focused on prevailing in Iraq and Afghanistan, while concurrently 
working to restore balance and transforming to set the conditions for 
success in the future. Despite the high global operational tempo and 
our continuing efforts to restore balance and prepare for future 
contingencies, we have accomplished much in the last year:
Army Accomplishments
    Manned, trained, equipped, and deployed 15 combat brigades, 34 
support brigades, and 369 military and police transition teams in 
support of Iraq and Afghanistan.
    Deployed more than 293,000 Soldiers into or out of combat in Iraq 
and Afghanistan.
    Repaired more than 100,000 pieces of Army equipment through the 
efforts at the Army's depot facilities.
    Invested in the psychological health of the Army by investing over 
$500 million in additional psychological health providers, new 
facilities, and world-class research.
    Reduced the on-duty Soldier accident rate by 46 percent in 2008 
through Soldier and leader emphasis on Army safety measures.
    Reduced the Army's ground accidents by 50 percent and the Army's 
major aviation accidents by 38 percent in 2008 through leader 
application of the Army's Composite Risk Management model.
    Implemented Family Covenants throughout the Army and committed more 
than $1.5 billion to Army Family programs and services.
    Improved on-post housing by privatizing more than 80,000 homes, 
building 17,000 homes, and renovating 13,000 homes since 2000 at 39 
different installations through the Residential Communities Initiative.
    Reduced energy consumption in Army facilities by 10.4 percent since 
2003 through the implementation of the Army's energy strategy.
    Won six Shingo Public Sector Awards for implementing best business 
practices.
    Destroyed more than 2,100 tons of chemical agents, disposed of 
70,000 tons of obsolete or unserviceable conventional ammunition, and 
removed 163,000 missiles or missile components from the Army's arsenal.
    Fostered partnerships with allies by training more than 10,000 
foreign students in stateside Army schools and by executing over $14.5 
billion in new foreign military sales to include $6.2 billion in 
support of Iraq and Afghanistan.
    Saved $41 million by in-sourcing more than 900 core governmental 
functions to Army Civilians.
    Improved Soldier quality of life by constructing or modernizing 
29,000 barracks spaces.
               america's army--the strength of the nation
    The Army's All-Volunteer Force is a national treasure. Less than 1 
percent of Americans wear the uniform of our Nation's military; they 
and their Families carry the lion's share of the burden of a Nation at 
war. Despite these burdens, our Soldiers continue to perform 
magnificently across the globe and at home, and their Families remain 
steadfast in their support. Our Civilians remain equally dedicated to 
the Army's current and long-term success. They all deserve the best the 
Nation has to offer.
    America's Army has always served the Nation by defending its 
national interests and providing support to civil authorities for 
domestic emergencies. Seven years of combat have taken a great toll on 
the Army, our Soldiers, and their Families. To meet the continuing 
challenges of an era of persistent conflict, our Army must restore 
balance and set the conditions for the future while sustaining our All-
Volunteer Force. We must ensure our Soldiers have the best training, 
equipment, and leadership we can provide them. Our Army has made 
significant progress over the last year, but has several tough years 
ahead. With the support of Congress, the Army will continue to protect 
America's national security interests while we transform ourselves to 
meet the challenges of today and the future.
                     addendum a--information papers
360 Degree Logistics Readiness
Accelerate Army Growth
Active Component Reserve Component (ACRC) Rebalance
Adaptive Logistics
Add-on Armor for Tactical Wheeled Vehicles
Africa Command (AFRICOM)
Armed Forces Recreation Centers
Army Asymmetric Warfare Office (AAWO)
Army Career and Alumni Program (ACAP)
Army Career Tracker (ACT) Program
Army Civilian University (ACU)
Army Community Service (ACS) Family Programs
Army Community Service (ACS) Family Readiness Programs
Army Energy Plan (AEP)
Army Environmental Programs
Army Evaluation Task Force (AETF)
Army Family Action Plan (AFAP)
Army Force Generation (ARFORGEN)
Army Geospatial Enterprise (AGE)
Army Integrated Logistics Architecture (AILA)
Army Leader Development Program (ALDP)
Army Modernization Strategy
Army Onesource
Army Physical Fitness Research Institute
Army Physical Readiness Training (FM 3-22.02)
Army Preparatory School
Army Prepositioned Stocks (APS)
Army Reserve Employer Relations (ARER) Program
Army Reserve Voluntary Education Services
Army Reserve Voluntary Selective Continuation
Army Spouse Employment Partnership (ASEP) Program
Army Strong
Army Suicide Prevention Program (ASPP)
Army Values
Army Volunteer Program
ARNG Active First Program
ARNG Agribusiness Development Team
ARNG Community Based Warrior Transition Units
ARNG Critical Skills Retention Bonus
ARNG Education Support Center
ARNG Environmental Programs
ARNG Every Soldier a Recruiter
ARNG Exportable Combat Training Capability
ARNG Family Assistance Centers
ARNG Freedom Salute Campaign
ARNG GED Plus Program
ARNG Muscatatuck Army Urban Training Center
ARNG Operational Support Airlift Agency
ARNG Periodic Health Assessment (PHA)
ARNG Post Deployment Health Reassessment (PDHRA)
ARNG Recruit Sustainment Program
ARNG Recruiting Assistance Program (G-RAP)
ARNG Strong Bonds
ARNG Western Army Aviation Training Site (WAATS)
Asymmetric Warfare Group
Base Realignment and Closure (BRAC) Program
Basic and Advanced NCO Courses
Basic Officer Leader Course (BOLC)
Behavioral Health
Better Opportunity for Single Soldiers (BOSS)
Biometrics
Broad Career Groups
Building Partnership Capacity Through Security Cooperation
Campaign Capable Force
Capabilities Development for Rapid Transition (CDRT)
Career Intern Fellows Program
CBRNE Consequence Management Reaction Force (CCMRF)
CENTCOM Rest and Recuperation (R&R) Leave Program
Changing the Culture
Chemical Demilitarization Program
Child and Youth Services School Support
Child Care Program
Civil Works
Civilian Corps Creed
Civilian Education System
College of the American Soldier
Combat Casualty Care
Combat Training Center (CTC) Program
Combating Weapons of Mass Destruction (WMD)
Commander's Appreciation and Campaign Design (CACD)
Common Levels of Support
Common Logistics Operating Environment (CLOE)
Community Covenant
Comprehensive Soldier Fitness Program
Concept Development and Experimentation
Condition-Based Maintenance Plus (CBM+)
Construction and Demolition Recycling Program
Continuum of Service
Contractor-Acquired Government Owned (CAGO) Equipment
Cultural and Foreign Language Capabilities
Cyber Operations
Defense Integrated Military Human Resources System (DIMHRS)
Defense Support to Civil Authorities (DSCA)
Defense Support to Civil Authorities--Defense Coordinating Officer
Defense Support to Civil Authorities--Special Events
Deployment Cycle Support
Depot Maintenance Initiatives
Digital Training Management System (DTMS)
Distributed Common Ground System--Army (DCGS-A)
Diversity
Document and Media Exploitation (DOMEX)
Enhanced Use Leasing
Enlistment Incentives
Enlistment Incentives Program Enhancements
Equal Opportunity and Prevention of Sexual Harassment (EO/POSH)
Equipment Reset
Equipping Enterprise and Reuse Conference
Equipping the Reserve Components
Exceptional Family Member Program (EFMP)
Expanding Intelligence Training
Expeditionary Basing
Expeditionary Capabilities
Expeditionary Contracting
Expeditionary Theater Opening
Family Advocacy Program (FAP)
Family Covenant
Family Housing Program
Foreign Military Sales
FORSCOM Mission Support Elements (MSE)
Freedom Team Salute
Freedrop Packaging Concept Project (FPCP)
Full Replacement Value (FRV) and Defense Property System (DPS)
Full Spectrum Operations in Army Capstone Doctrine (FM 3-0)
Funds Control Module
Future Force Integration Directorate
General Fund Enterprise Business System
Generating Force Support for Operations
Global Force Posture
Global Network Enterprise Construct (GNEC)
Helicopter, Black Hawk Utility Helicopter (UH-60)
Helicopter, Chinook Heavy Lift Helicopter (CH-47)
Helicopter, Lakota (UH-72)
Helicopter, Longbow Apache (AH-64D)
Human Terrain System (HTS)
HUMINT: Growing Army Human Intelligence (HUMINT) Capabilities
Information Doctrine
In-Sourcing
Installation Planning Board
Institutional Adaptation
Institutional Training Under Centers of Excellence (COE)
Intelligence Transformation
Interceptor Body Armor (IBA)
Interpreter/Translator Program
Irregular Warfare Capabilities
Joint Basing
Joint Knowledge Development and Distribution Capstone Program (JKDDC)
Joint Precision Airdrop System (JPADS)
Leader Development Assessment Course--Warrior Forge
Lean Six Sigma: Continuous Process Improvement Initiative
Lean Six Sigma: G-4 Initiative
Life Cycle Management Initiative
Live, Virtual, Constructive Integrated Training Environment
Manpower Personnel Integration Program (MANPRINT)
March 2 Success
Medical and Dental Readiness
Military Construction (MILCON) Program
Military Construction (MILCON) Transformation
Military Family Life Consultants (MFLC) Program
Military Intelligence Capacity
Mine-Resistant, Ambush-Protected (MRAP) Vehicles
Mobile Training Teams (MTT) for Warrior Leader Course (WLC)
Mobilization Tiger Team
Modular Force Conversion
Morale Welfare and Recreation (MWR)
Multinational Exercises
Multi-Source Assessment and Feedback (MSAF) Program
National Guard CBRNE Enhanced Response Force Package (CERFP)
National Guard Counterdrug Program
National Guard Public Affairs Rapid Response Team (PARRT)
National Guard State Partnership Program
National Guard Weapons of Mass Destruction Civil Support Teams (WMD-
CSTs)
National Guard Yellow Ribbon Program
National Guard Youth ChalleNGe
National Security Personnel System (NSPS)
Next Generation Wireless Communications (NGWC)
Officer Education System (OES)
Officer Education System--Warrant Officers
Officer Retention
Pandemic Influenza Preparation
Partnership for Youth Success Programs (PaYS)
Persistent Air and Ground Surveillance to Counter IED
Persistent Conflict
Physical Disability Evaluation System (PDES)
Post Deployment Health Reassessment (PDHRA)
Power Projection Platform
Privatization of Army Lodging
Property Accountability
Rapid Equipping Force (REF)
Rapid Fielding Initiative (RFI)
Real-Estate Disposal
Red Team Education and Training
Redeployment Process Improvements
Referral Bonus Pilot Program
Reset
Residential Communities Initiative (RCI)
Restructuring Army Aviation
Retained Issue OCIE
Retention Program
Retiree Pre-Tax Healthcare
Retirement Services
Retrograde
Risk Management
Robotics
Safety and Occupational Training
Safety Center Online Tools and Initiatives
Science and Technology
Sexual Harassment/Assault Response and Prevention (SHARP) Program
Single Army Logistics Enterprise (SALE)
Soldier and Family Action Plan (SFAP)
Soldier and Family Assistance Center Program and Warrior in Transition 
Units
Soldier as a System
Soldier's Creed
Stability Operations (FM 3-07)
Strong Bonds
Structured Self Development
Survivor Outreach Services
Sustainability
Sustainable Range Program
The Army Distributed Learning Program (TADLP)
The Human Dimension: The Concept and Capabilities Development
Training Counter-IED Operations Integration Center (TCOIC)
Training for Full Spectrum Operations (FM 7-0)
Training Support System (TSS)
Transferability of GI Bill Benefits to Family Members
Transforming the Reserve Components to an Operational Force
Traumatic Brain Injury (TBI)
Unaccompanied Personnel Housing
Unit Combined Arms Training Strategies
Unmanned Aircraft, Raven Small System
Unmanned Aircraft, Shadow System
Unmanned Aircraft, Sky Warrior System
Up-Armored High Mobility Multipurpose Wheeled Vehicle (HMMWV)
War Reserve Secondary Items
Warfighter's Forums (WfF)
Warrior Ethos
Warrior in Transition
Warrior Tasks and Battle Drills
Warrior University
Western Hemisphere Institute for Security Cooperation (WHINSEC)
Wounded Warrior Program Youth Programs
                          addendum b--websites
Headquarters, Department of the Army and other Commands
    This site has links for information regarding the Headquarters, 
Department of the Army (HQDA), Army Command Structure, Army Service 
Component Commands (ASCC), and Direct Reporting Units (DRU).
    http://www.army.mil/institution/organization/
The Army Homepage
    This site is the most visited military website in the world, 
averaging about 7 million visitors per month or approximately 250 hits 
per second. It provides news, features, imagery, and references.
    http://www.army.mil/
The Army Modernization Strategy
    http://www.g8.army.mil/G8site_redesign/modStrat.html
The Army Posture Statement
    This site provides access to archived Army Posture Statements from 
1997 to 2008.
    http://www.army.mil/aps
The Army Staff
            Personnel: G-1
    http://www.armyg1.army.mil/
            Intelligence: G-2
    http://www.dami.army.pentagon.mil/
            Operations, Plans, and Policy: G-3/5/7
    https://www.g357extranet.army.pentagon.mil
            Logistics: G-4
    http://www.hqda.army.mil/logweb/
            Programs: G-8
    This site provides information on material integration and 
management.
    http://www.army.mil/institution/organization/unitsandcommands/dcs/
g-8/
Installation Management
    This site provides information about policy formulation, strategy 
development, enterprise integration, program analysis and integration, 
requirements and resource determination, and best business practices 
for services, programs, and installation support to Soldiers, their 
Families, and Army Civilians.
    http://www.acsim.army.mil/
Army Commands (ACOMs)
    Army Forces Command (FORSCOM)
    http://www.forscom.army.mil/
    Army Training and Doctrine Command (TRADOC)
    http://www.tradoc.army.mil/
    Army Materiel Command (AMC)
    http://www.army.mil/institution/organization/unitsandcommands/
commandstructure/amc/
Reserve Components
            Army Reserve
    http://www.armyreserve.army.mil
            Army National Guard
    http://www.arng.army.mil
Other informative websites
            Army Wounded Warrior Program
    This site provides information on the Army's Wounded Warrior 
Program which provides support to severely wounded Soldiers and their 
Families.
    https://www.aw2.army.mil
            My ArmyLifeToo Web Portal
    This site serves as an entry point to the Army Integrated Family 
Network and Army OneSource.
    http://www.myarmylifetoo.com
                          addendum c--acronyms
    AC--Active Component
    ACOM--Army Command
    ACP--Army Campaign Plan
    AETF--Army Evaluation Task Force
    ARFORGEN--Army Force Generation
    AFRICOM--Africa Command
    AMAP--Army Medical Action Plan
    AMC--Army Material Command
    APS--Army Prepositioned Stocks
    AR--Army Regulation
    ARCIC--Army Capabilities Integration Center
    ARNG--Army National Guard
    ASC--Army Sustainment Command
    ASCC--Army Service Component Command
    AWG--Asymmetric Warfare Group
    AWO--Asymmetric Warfare Office
    AW2--Army Wounded Warrior Program
    BCT--Brigade Combat Team
    BCTP--Battle Command Training Program
    BOLC--Basic Officer Leader Course
    BRAC--Base Realignment and Closure
    CBRN--Chemical, Biological, Radiological, and Nuclear
    CBRNE--Chemical, Biological, Radiological, Nuclear, and (High-
Yield) Explosives
    CCDR--Combatant Commander
    CCMRF--CBRNE Consequence Management Reaction Force
    CES--Civilian Education System
    C4ISR--Command, Control, Communications, Computer, Intelligence, 
Surveillance and Reconnaissance
    CMETL--Core Mission Essential Task List
    CMTC--Combat Maneuver Training Center
    COCOM--Combatant Command
    COE--Center of Excellence; Common Operating Environment; 
Contemporary Operating Environment
    COIN--Counterinsurgency
    COTS--Commercial Off-The-Shelf
    CS--Combat Support
    CSS--Combat Service Support
    CT--Counter Terrorism
    CTC--Combat Training Center
    DA--Department of the Army
    DA PAM--Department of the Army Pamphlet
    DCGS-A--Distributed Common Ground System--Army
    DMDC--Defense Manpower Data Center
    DMETL--Directed Mission Essential Task List
    DoD--Department of Defense
    DOTMLPF--Doctrine, Organization, Training, Material, Leadership and 
Education, Personnel, and Facilities
    EBCT--Evaluation Brigade Combat Team
    EOD--Explosive Ordnance Disposal
    ES2--Every Soldier a Sensor
    ETF--Enterprise Task Force
    FCS--Future Combat Systems
    FM--Field Manual
    FORSCOM FY--Forces Command Fiscal Year
    GBIAD--Global Based Integrated Air Defense
    GCSS-A--Global Combat Service Support-Army
    GDPR--Global Defense Posture Realignment
    GNEC--Global Network Enterprise Construct
    HBCT HMMWV--Heavy Brigade Combat Team High Mobility Multipurpose 
Wheeled Vehicle
    HUMINT--Human Intelligence
    IBA--Improved Body Armor
    IBCT--Infantry Brigade Combat Team
    IED--Improvised Explosive Device
    ISR--Intelligence, Surveillance, and Reconnaissance
    IT--Information Technology
    JIEDDO--Joint Improvised Explosive Device Defeat Organization
    JIIM--Joint, Interagency, Intergovernmental, and Multinational
    JRTC--Joint Readiness Training Center
    JTF--Joint Task Force
    LMP--Logistics Modernization Program
    LSS--Lean Six Sigma
    MI--Military Intelligence
    METL--Mission Essential Task List
    MOUT--Military Operations in Urban Terrain
    MRAP--Mine-Resistant, Ambush-Protected
    MRE--Mission Readiness Exercise
    MRX--Mission Rehearsal Exercise
    MTOE--Modified Table of Organization and Equipment
    MTT--Mobile Training Teams
    NBC--Nuclear, Biological, Chemical
    NEPA--National Environmental Protection Act
    NET--New Equipment Training
    NCO--Noncommissioned Officer
    NDAA--National Defense Authorization Act
    NDS--National Defense Strategy
    NLOS-C--Non Line of Sight-Cannon
    NMS--National Military Strategy
    NSPS--National Security Personnel System
    NSS--National Security Strategy
    NTC--National Training Center
    OCO--Overseas Contingency Operations
    OEF--Operation Enduring Freedom
    OIF--Operation Iraqi Freedom
    OPTEMPO--Operational Tempo
    O&M--Operations and Maintenance
    POM--Program Objective Memorandum
    PSYOP--Psychological Operations
    PTSD--Post-Traumatic Stress Disorder
    QDR--Quadrennial Defense Review
    QOL--Quality of Life
    RC--Reserve Components
    RCI--Residential Communities Initiative
    REF--Rapid Equipping Force
    RFI--Rapid Fielding Initiative
    SALE--Single Army Logistics Enterprise
    SBCT--Stryker Brigade Combat Team
    SFAP--Soldier and Family Action Plan
    SHARP--Sexual Harassment/Assault Response and Prevention (SHARP) 
Program
    SIGINT--Signal Intelligence
    SOF--Special Operations Forces
    SOS--Survivor Outreach Services
    TBI--Traumatic Brain Injury
    TDA--Table of Distribution and Allowances
    TRADOC--Training and Doctrine Command
    TTP--Tactics, Techniques, and Procedures
    UAH--Up-Armored HMMWV
    UAS--Unmanned Aircraft System
    UAV--Unmanned Aerial Vehicle
    UGV--Unmanned Ground Vehicle
    USAR--United States Army Reserve
    VBIED--Vehicle Borne Improvised Explosive Device
    WMD--Weapons of Mass Destruction
    WO--Warrant Officer
    WTBD--Warrior Tasks and Battle Drills
    WTU--Warrior Transition Units

    Secretary Geren. The President's budget for fiscal year 
2010 is now before the Congress. It includes $142 billion for 
the United States Army.
    The Army budget is mostly about people, and the operations 
and maintenance (O&M) to support those people. Our personnel 
and O&M accounts make up two-thirds of the Army budget, 
reflecting General Abrams' axiom that people are not in the 
Army, people are the Army.
    The Army is stretched by the demands of this long war, but 
it remains the best-led, best-trained, and best-equipped Army 
we have ever fielded, and this subcommittee's ongoing support 
has a lot to do with that, and we thank you for that.
    Mr. Chairman, we've designated 2009 as the year of the 
noncommissioned officer (NCO), and I've asked that three 
noncommissioned officers join us today, and with the permission 
of the chairman, I'd like to introduce them to the 
subcommittee.
    Chairman Inouye. Please do.
    Secretary Geren. We have Sergeant First Class, Chairman 
Wiles. He's a Platoon Sergeant from the 3d Infantry Old Guard. 
He deployed to Operation Iraqi Freedom/Operation Enduring 
Freedom (OIF/OEF). He's married with four children, he's from 
Louisburg, Tennessee. Appreciate his being here.
    Sergeant Aron Aus, he's a light-wheel vehicle mechanic with 
the 3d Infantry Old Guard at Fort Meyer. He's been forward 
stationed for 15 months in Korea, and he's married with one 
child.
    Sergeant Dulashti is a wounded warrior from Cincinnati, 
Ohio. He was with 82d Airborne Division, was assigned to their 
sniper platoon, graduated at the top of his class from AIT 
Infantry Sniper School, and he was deployed to Afghanistan with 
the 82d forward-deployed along the Pakistani border.
    He was wounded during the recon and sniper mission, was 
caught in an ambush, and was shot through his left knee, right 
knee, and stomach. He is a distinguished soldier, he received a 
Purple Heart, Army Commendation Medal with a V-Device. Also has 
a combat infantry badge, and a parachutist badge.
    I want to thank all three of these outstanding 
noncommissioned officers for joining us today. Thank you for 
your service.
    General Casey. I just want you to know, Mr. Chairman, that 
I feel a heck of a lot better with them sitting behind me than 
I usually do.
    Secretary Geren. As you know, at the front of every Army 
mission, here or overseas, you'll find a noncommissioned 
officer. NCOs lead the way in education, training, and 
discipline, and they share their strength of character with 
every soldier they lead, every officer they support, and every 
civilian with whom they serve.
    Our NCOs are empowered and entrusted like no other NCOs in 
the world, and the most advanced armies in the world today are 
going to school on our model.
    This year, the Year of the NCO, we're giving special 
recognition to them, and we're redoubling our commitment to 
enhance their professional development.
    Mr. Chairman, as a former NCO, this year we honor you and 
all noncommissioned officers, past and present. Thank you for 
your service, and thank you for the men and women who are our 
noncommissioned officers, who are the glue that hold us 
together during these challenging times.
    Currently, our Army has 710,000 soldiers serving on active 
duty, with 243,000 deployed in 80 countries around the world--
140,000 are deployed to Iraq and Afghanistan, and additionally 
there are 250,000 Army civilians who are providing critical 
support to our soldiers around the world.
    Our National Guard and our Reserves continue to shoulder a 
heavy burden for our Nation. Since 9/11, our Nation has 
activated over 400,000 reservists and guardsman in support of 
OIF and OEF.
    Our Reserve component soldiers also have answered the call 
at home for domestic emergencies--hurricanes, floods, forest 
fires, and support along our borders.
    Today, we truly are one Army--active, Guard, and Reserves, 
and our Guard and Reserves are transitioning from the strategic 
Reserve, to an operational force. And I would like to discuss 
some of the progress we've made in that regard.
    Go back to 2001, and we spent about $1 billion a year 
equipping the National Guard. We're now spending about $4 
billion a year, and that continues under this budget.
    As a result, we anticipate that the last Huey helicopter, 
the venerable work horse of the Vietnam era, will leave Guard 
service by the end of this fiscal year. At that time, the Guard 
will have 40 light utility helicopters, and nearly 800 
Blackhawk helicopters.
    Over 8,000 new trucks have been provided to our Guard, the 
famous Deuce and a half truck is planned to disappear in fiscal 
year 2011. This hurricane season will be the first since 2004 
in which the Guard will not have to borrow from the active 
component to meet its operational and equipment needs.
    We've also made substantial progress in implementing the 
recommendations of the Commission on National Guard and 
Reserves. Of the 19 Army-led implementation plans, 14 are 
completed. Among them, ensuring that members are provided with 
a 2-year notice of mobilization, with orders at least 1 year 
out--major change, major improvement for our soldiers, and for 
the operation of our Reserve component.
    Furthermore, although not an Army lead, we are supporting 
DOD improvements to increase transparency of RC-component 
equipment funding. Soldiers are our most valuable assets. The 
strength of our soldiers depends on the strength of Army 
families and as Admiral Mullen said recently, if we don't get 
the people part of our budget right, nothing else matters.
    This Army budget, and this DOD budget has taken care of 
people as the top priority. From fiscal year 2007-2009, with 
your support, we have more than doubled funding for Army family 
programs. In this budget that we bring to you today, we include 
$1.7 billion in the base budget for family programs.
    In fiscal year 2009, we started a new program, we hired 279 
military family-life consultants to work with our families on 
installations to work with the soldiers. Under this budget we 
will grow that to nearly 300. And we've provided full-time 
family support personnel, down to the battalion level, 
providing support and help to those volunteer spouses who carry 
so much of the load for deployments.
    We've provided expanded childcare for families of deployed 
soldiers with 16 hours, per child, per month, at no cost, along 
with free recreational and instructional classes. In this 
budget, we sustain loss and SRM at levels that will ensure we 
continue to provide our families a quality of life equal to the 
quality of their service.
    This budget continues improvement in the case of our 
wounded, ill, and injured soldiers. Your support has enabled us 
to add needed medical personnel, provide better healthcare for 
our wounded warriors and meet the needs of family members who 
are supporting their loved ones, and we've initiated programs 
to better diagnosis and treat the invisible wounds of war--
post-traumatic stress disorder (PTSD) and traumatic brain 
injury (TBI).
    With your leadership, we are investing unprecedented 
amounts in brain injury research. This fiscal year 2010 budget 
will let us advance these initiatives, address personnel 
shortages, improve facilities, expand research, and work toward 
the long-term goal of providing seamless transition from the 
Department of Defense to the Veterans Affairs for those 
soldiers who choose to return to private life.
    With 7 plus years of war in an all-volunteer force, we are 
in uncharted waters for our soldiers and their families. Our 
soldiers and families are carrying a heavy burden for our 
Nation, and we are working to reduce the stress on our force, 
and on those families.
    We are working to reverse the tragic rise in soldier 
suicides--it's a top priority throughout our Army, with the 
Vice Chief of Staff of our Army serving as the lead.
    We've partnered with the National Institute of Mental 
Health on a 5-year, $50 million groundbreaking study, to 
leverage their world-renowned expertise in suicide prevention 
in bringing that wisdom, that knowledge, and that experience 
into our Army.
    We're educating all soldiers in new, innovative ways of 
suicide risk identification and reduction, including 
intervention and prevention.
    Every NCO in this Army knows how to recognize the onset of 
heat stroke, and knows what to do about it. Our goal for 
suicide prevention is that every soldier in our Army be able to 
identify the signs of potential suicide, and know what to do 
about it.
    We also have launched new initiatives to attack the problem 
of sexual assault and harassment, with our Sexual Harassment 
Response and Prevention Program, focusing on intervention and 
prevention. As we work to prevent sexual harassment and sexual 
assault, our goal also is to become the Nation's best in the 
investigation and prosecution of this heinous crime. Sexual 
assault and sexual harassment has no place in the United States 
Army.
    We are hiring national experts, with a highly qualified 
expert authority that Congress has given us to bring their 
expertise into the United States Army, hiring top notch 
investigators, and training our prosecutors. We want to be the 
Nation's model for the prevention, investigation and 
prosecution of sexual assault crimes.
    And whether the problem is PTSD, suicidal ideation, the 
trauma of sexual assault, or dealing with any emotional or 
mental health issue, we're working hard to remove the stigma 
that has caused some soldiers to decline help.
    We also are improving our business processes, and have 
instituted major reforms for our contracting and acquisition 
processes, while continuing to provide world-class equipment 
and support to more than a quarter of a million soldiers 
scattered around the world.
    We have set up a two-start contracting command and enhanced 
training and career opportunities for contracting officers. 
Last year, we thanked Congress for authorizing five new 
contracting general officers, help us build the bench that had 
been depleted over the last 20 years.
    We're adding nearly 600 military, and over 1,000 civilians 
over the next 3 years for our contracting workforce, also 
reversing a trend that began in the early nineties of depleting 
the contracting workforce. We're turning away from contractors, 
and turning toward in-sourcing and hiring as civil service, and 
training those civil service.
    Being a good steward is more than just money. Our goal, 
also, is to lead the Department of Defense and the entire 
Federal Government in protecting the environment and saving 
energy. And I'm pleased to report that the Army has won several 
awards in recognition of our environmental efforts.
    The Army's energy security strategy reduces energy 
consumption and carbon dioxide emissions by using innovative 
technologies for alternative and renewable energy, including 
wind, solar, and geothermal.
    At Fort Carson, we've recently completed a 2 megawatt solar 
project that covers 12 acres. We have solar projects now at 28 
locations, and geothermal projects at many others. We are in 
the planning stages for a 500 megawatt solar farm at Fort Irwin 
in California, bigger than any solar project in the country 
today.
    This year we've begun--and we'll complete it over the next 
2 years--we are acquiring 4,000 electrical vehicles to use on 
installations. You can see some of those today at Fort Meyer; 
these 4,000 electric cars will cut the Army's fuel consumption 
by 11.5 million gallons, and reduce carbon dioxide emissions by 
115,000 tons per year. And our plan is to invest over $54 
billion in green buildings by 2012, leading the Department in 
the investment in this new technology. It will help us save 
over 30 percent in energy consumption on our building program.
    In theater, our investment of the filming of tents slashes 
the energy use at our FOBs and reduces the number of convoys 
taking fuel over dangerous routes to remote locations.
    And I'm pleased to report that we are on track to finish 
the base realignment and closure (BRAC) by September 2011.
    Mr. Chairman, in summary, we are a busy, stretched, and 
stressed Army, with soldiers, civilians and Army families doing 
the extraordinary as the ordinary every single day. Our 
Nation's finest young men and women are ready to respond to 
whatever our Nation's leaders demand, around the world, and 
here at home.
    In 2008, in this time of war, nearly 300,000 men and women 
are reenlisted in our United States Army. They're volunteer 
soldiers and volunteer families. They're proud of what they do, 
and they're proud of who they are.
    For the past 7\1/2\ years, we've watched soldiers go off to 
war, and watched their families stand with them, and watched 
our Congress stand alongside them every step of the way.
    Mr. Chairman, and members of the subcommittee, thank you 
for your support of our soldiers and their families, and for 
the resources and support you provide them, every year. Thank 
you very much.
    Chairman Inouye. I thank you very much, Mr. Secretary, for 
your very comprehensive report, and a very hopeful one.
    May I now recognize General Casey?

                              ARMY POSTURE

    General Casey. Thank you, Mr. Chairman, Senator Cochran, 
Senator Bond. Great to have the opportunity here today to 
update you on the 2010 budget, and really, where we are as an 
Army.
    And I'd like to give you a little progress report about 
what we've accomplished here over the last year, and then talk 
a little bit about the way ahead.
    You may recall that last year when I talked to you, I said 
the Army was out of balance. I said that we were so weighed 
down by current commitments that we couldn't do the things we 
knew we needed to do to sustain this all-volunteer force for 
the long haul, and to restore a strategic flexibility, to 
prepare to do other things.
    I can tell you that we have made progress in getting 
ourselves back in balance, but we are not out of the woods, 
yet.
    In 2007, we developed a plan based on four imperatives, the 
four most important things we said we needed to do to put this 
Army in balance--sustain our soldiers and families, continue to 
prepare our soldiers for success in the current conflict, reset 
them effectively when they return, and continue to transform 
for an uncertain future. And I'd like to give you an update 
just on the--where we are on our six major objectives, here.
    Our first objective was to finish the growth. And as you 
said in your opening statement, Mr. Chairman, we're actually 
doing a little better than that. We were originally scheduled 
to complete our growth in 2012, with the Secretary of Defense's 
support, we moved it forward to 2010, and as of this month, all 
of our components--active, Guard and Reserve--have met the end 
strength targets that they were originally to meet in 2012, and 
that's a big lift for us.
    Now, we still have to put those people in units, and match 
them with the equipment and the training, and there's about 
20,000 spaces to do that, but that's a very positive step 
forward, here.
    A positive step forward from a couple of perspectives--one, 
it allows us to begin coming off of stop-loss this year. And 
the Reserves will begin coming off in August, the Guard in 
September, and the active force in 2010, and we will--what that 
means is we will begin deploying units without stop loss on 
those dates.
    This has always been our goal, as we have built our modular 
organizations and put them on a rotational cycle, and we're on 
track to meet that goal by 2011.
    Our second key objective was to increase the amount of time 
that our soldiers spend at home between deployments. And over 
the past 2 years, I have come to realize that this is the 
single-most important element of putting our forces back in 
balance.
    And it's important from three perspectives: one, so that 
our soldiers have time to recover from these repeated combat 
deployments. Second, it gives them a more stable preparation 
time for their next mission. When they're home just for 12 
months, they have to start going to the field shortly after 
they get back, and that doesn't give them the time that they 
need to recover.
    And last, it gives them time to prepare to do other things, 
besides Iraq and Afghanistan. I will tell you that originally 
in 2007, I thought we would get not quite to 1 year out, 2 
years back, by 2011. But the President's drawdown plan in Iraq, 
if it's executed according to plan--and I have no reason to 
doubt that it will be--we will get--we will do slightly better 
than that. And that's very important for us, because we must 
increase the time our soldiers spend at home if we are going to 
get ourselves back in balance.
    The third thing, element of balance, Mr. Chairman, is we 
are moving away from our cold war formations, to formations 
that are far more relevant today. And in 2004 we began 
converting to modular organizations. We're 85 percent done. 
That's about 300 brigades who will convert--have converted or 
will convert--between now and 2011.
    We're also two-thirds of the way through re-balancing the 
force--taking soldiers who were in skills we needed more in the 
cold war, and putting them into skills more relevant today. 
That's about 150,000 people that will change jobs.
    Let me give you an example--since 2004, we have stood down 
about 200 tank companies, artillery batteries, and air defense 
batteries, and we have stood up an equivalent number of 
military police companies, engineers, special forces, and civil 
affairs companies, the skills that you hear that we need every 
day.
    So, put together, that's the largest organizational 
transformation of the Army since World War II and we have done 
it while we were deploying 150,000, or 140,000 over and back to 
Iraq and Afghanistan every year. A huge accomplishment for us.
    Fourth, we're moving to put the whole Army on a rotational 
cycle much like the Navy and the Marine Corps have been on for 
years, and we believe that is the only way that we can one, 
field trained and ready forces regularly for our combat 
commanders, but two, to give our soldiers and families a 
predictable deployment tempo, and we're well on our way to 
being able to do that.
    Fifth, as the Secretary mentioned, we're about halfway 
through our rebasing effort. With the base realignment and 
closure reposturing, modular conversions, and growth of the 
Army, we will actually restation about 380,000 soldiers, 
families, and civilians between now and the end of 2011. That's 
a huge accomplishment, but it is resulting in a great 
improvement in the quality of the facilities for our soldiers 
and families.
    And our last objective, Chairman, is to restore strategic 
flexibility--the ability for our soldiers to quickly do other 
things. And again, that's a function of the time they spend at 
home, and what I've told our soldiers is, that if you're home 
for 18 months or less, stay focused on your current mission. If 
you're home for 18 months or more, begin rekindling the skills 
that may have atrophied during your time in Iraq and 
Afghanistan. And as we progressively have more time at home, we 
will progressively rekindle those skills.
    So, to wrap up, we have made progress, but we are not out 
of the woods, yet. And the next 12 to 18 months are going to 
continue to be difficult for us, because we will actually 
increase the numbers of forces we've had deployed as we make 
the shift from Iraq to Afghanistan before the Iraq drawdown 
starts. So, we get through the next 12 to 18 months, Mr. 
Chairman, I think we'll be in fairly good shape.
    Now, let me just say just a couple of words, if I might, 
about each of the imperatives and what this budget does for 
those imperatives.
    First of all, sustaining our soldiers and families is, as 
the Secretary said, our first priority, and this is where the 
budget makes a difference. Housing, barracks, child care 
centers, youth care centers, warrior transition units, 
operational facilities, all of that is in there, and all of 
that is critical. We are continuing to work hard to deliver on 
our soldier-family action plan, and we have more than $1.7 
billion in this budget for soldiers and families--that's about 
double what it was 2 years ago.
    I can tell you, I've just finished--in the last 7 weeks--
visiting five of our installations in the United States, 
visiting soldiers in Djibouti and Afghanistan. My feedback to 
you, Chairman, is the families continue to be the most 
stretched and stressed part of the force, which is why we're 
taking--paying so close attention to improving what we're doing 
for them.
    On the prepare side, probably the most significant 
accomplishment in the last year is the fielding of about 10,000 
mine-resistant, ambush-protected (MRAPs) to our soldiers in 
theater, and they have made a huge difference. And I talked to 
some of the crews in Afghanistan, and they said, ``Well, 
sometimes it was harder to drive off-road,'' but anybody that 
had been hit by an improvised explosive device (IED) can 
survive, spoke glowingly of it, and so it's made a huge 
difference.
    Third, on reset--we are putting the whole Army on a 6-month 
reset model. This is a work in progress, but the money that is 
in the base and the OCO budget, here, about $11 million for 
reset is essential to our ability to continue to deploy our 
forces for combat in Iraq and Afghanistan.
    Last, transforming. And you mentioned an era of persistent 
conflict, Mr. Chairman, I could not agree with you more. And I 
believe that to see that--for us, for our country--to succeed 
in an era of persistent conflict, I believe that we need land 
forces that can, one, prevail in a global counterinsurgency 
campaign; two, engage to help others to build the capacity to 
deny their country to terrorists; three, to provide support to 
civil authorities both at home and abroad; and four, deter and 
defeat hybrid threats and hostile state actors around the 
world. And we are building an Army to do that.
    It's an Army that has a versatile mix of tailorable 
organizations, and that's organized on a rotational cycle, so 
we can provide a sustained flow of trained and ready forces to 
combatant commanders and against unexpected contingencies. The 
budget will help us continue on a path to building that force.
    And Mr. Chairman, Secretary Geren mentioned the Year of the 
Non-Commissioned Officer. Thank you for your service as an Army 
noncommissioned officer and I recognize these three great 
noncommissioned officers here.
    I'll close with a story about Staff Sergeant Christopher 
Wayers, who received the Distinguished Service Cross for 
actions in Baghdad in April 2007. He was riding on a Stryker 
vehicle in a patrol when a Bradley fighting vehicle in front of 
him struck an IED. The Bradley burst into flames. He realized 
that the crew was still inside, he left his Stryker, fought his 
way to the Bradley, dragged out the driver and one of the 
crewman back 100 yards to his Stryker, provided aid to them, 
when he realized there was still another soldier left in the 
vehicle.
    Again, fighting his way across 100 yards of open space back 
to the Bradley vehicle, he went inside, the ammunition was 
cooking off, and he realized that the soldier inside was dead. 
He went back to his vehicle, got a body bag, went back and 
recovered the fallen soldier out of the vehicle. That's the 
kind of men and women that you have in your Armed Forces today, 
and that's why our noncommissioned officers are the best in the 
world at what they do.
    Mr. Chairman, Senators, thank you for your attention, and 
the Secretary and I look forward to handling your questions.
    Chairman Inouye. I thank you very much, General.
    And through you, we thank all of the men and women of the 
Army, and those three men there--thank you very much. We 
appreciate your service to our Nation.

                             GROW THE ARMY

    General, in January 2007, a decision was made to build up 
to 48 active combat brigades. Recently, Secretary Gates 
announced that it will be stopped at 45. Now, will this have an 
impact on the Army? If so, what will it be?
    General Casey. Chairman, I would tell you that it will have 
a negligible impact on our ability to put ourselves back in 
balance by 2011. All of those brigades were scheduled to just 
start being built in 2011, and we actually had already had to 
slip two of their starts, one 6 months, and once a year. So, it 
will not have any kind of a significant impact on our plan to 
get ourselves back in balance.
    It will also--not building those brigades--will actually 
have a positive impact on our ability to fill the rest of the 
units that we are building and deploying, with an increased 
level of manpower. Our manpower is probably our most--our 
personnel system is probably our most--stretch system. And we 
have a good number of soldiers who are unavailable to us to put 
in units, because they're already deployed on a transition 
team, or in headquarters. They're in a warrior transition unit, 
or running a warrior transition unit, or they have some type of 
nondeployable, disabling injury. And so, this helps us--gives 
us a little edge, here, to fill those forces.
    And the last thing I'd tell you, Mr. Chairman, is that the 
Secretary of Defense has left the door open that if conditions 
don't abate as is our plan in Iraq, and he's left the door open 
for us to continue to grow those, if we still feel them 
necessary. So, I am comfortable with that decision.
    Chairman Inouye. So, you're saying, then, it won't have an 
impact on dwell time, either?
    General Casey. The number of brigades--a month or two. On 
overall drill, overall dwell. So it is not, as I said, a 
significant impact on us.
    Chairman Inouye. Thank you very much.

                                STRYKER

    Secretary, in order to maintain the industrial base of the 
Stryker, we have to purchase 200 deployed. I notice that we're 
planning to do much less than that. Is there anything we can 
do?
    Secretary Geren. We are constantly weighing our needs for 
the Strykers and Stryker replacement. As far as examining the 
industrial base issue, it's not something that, at the Army 
level, we have focused on, and what I'd like to do is get back 
with you on that, if I could.
    And I know the Office of the Secretary of Defense (OSD) has 
been focused on the industrial base issue for many of the 
manned ground vehicles, as well as many of the other systems, 
so to give you a full answer as to the impact on the industrial 
base, I'd like to get back to you for the record, if I could, 
Mr. Chairman.
    [The information follows:]

    The contractor for the Stryker Family of Vehicles, General 
Dynamics Land Systems (GDLS), has stated that a yearly 
production of 240 Stryker vehicles is the minimum sustainment 
rate to maintain the production facilities at Anniston Army 
Depot, Alabama, and London, Ontario (Canada). At the time of 
the hearing, the projected fiscal year 2009 production was 82 
Stryker vehicles. To mitigate the risk of not maintaining the 
minimum sustainment rate (MSR) in fiscal year 2009, the Army 
laid the groundwork for adjusting the fiscal year 2008 Stryker 
delivery schedule over a longer period of time to maintain the 
MSR while allowing the Army time to complete the Quadrennial 
Defense Review that will assess force structure and force mix. 
Subsequently, Congress has increased the Stryker program's 
fiscal year 2009 Overseas Contingency Operations (OCO) funding 
by $200 million in addition to the original $112 million 
request from the fiscal year 2009 OCO. An additional $238 
million became available as a result of vehicle contract 
definitization. Stryker vehicle procurement in fiscal year 2009 
is now projected at 353 Stryker vehicles (271 Strykers above 
the original 82 projected).

    Chairman Inouye. And do you have plans to continue getting 
something equivalent to the Stryker, if that base runs out?
    Secretary Geren. We expect to have the Strykers in our--as 
part of the inventory of our Army many years into the future. 
I've seen nothing that would project that we would be phasing 
them out.
    We do have plans, we've got a partnership with the marines 
to come up with another joint vehicle. We're also looking at--
as we develop the new manned ground vehicle, after we made 
the--after the Secretary made the decision to start the future 
combat system, manned ground vehicle system. So, we are looking 
at all of our--the future of all our vehicles, going forward--
looking at them as they relate to each other, but I know the 
Stryker is certainly an important part of our future.
    Chairman Inouye. Do we have any plans to acquire Stryker 
ambulances?
    Secretary Geren. At this point, our requirement for Stryker 
ambulances has been addressed. I know it's an issue that has 
been raised, and we're going to study it further, the House 
Appropriations Subcommittee on Defense has put additional 
ambulances, MEVs, in their appropriations bill, and we're going 
back and looking at our requirements in that regard. At the 
present time, we believed that the requirements that we had had 
been met with our budget, but that issue has been raised with 
Chairman Murtha's subcommittee, and we're going back and 
revisiting that issue.
    Chairman Inouye. Thank you.
    May I recognize the vice chairman?
    Senator Cochran. Mr. Chairman, thank you.

                           HELICOPTER PILOTS

    One of the priorities that has been announced by the 
Secretary of Defense for the Army would be to increase the 
number of helicopter units that are deployable and can be 
deployed to the theater where they're needed.
    A recent article stated that there was a shortage of 
pilots--up to 300 personnel--to meet the needs for Army 
helicopter crews.
    Mr. Secretary, we understand that there has been a new 
initiative begun, to recruit and train more helicopter 
personnel. Could you give us a status report on how that is 
going, and what your outlook is?
    Secretary Geren. Well, this budget includes an additional 
$500 million over the original proposed budget for 2010 to 
recruit and train helicopter pilots. Secretary Gates recently 
went to Fort Rucker and met with the leadership down there, and 
has tasked the Army to look at the infrastructure, look at our 
capabilities to support the training requirements.
    We have helicopters in the inventory that are not being 
used to the maximum extent, and this additional $500 million 
will allow us to bring additional trained pilots and crew into 
the Army, and allow us to better utilize those existing assets. 
But we are looking at what the future requires for development 
of that capability down at Fort Rucker, and are putting 
together a proposal to enhance the infrastructure and the 
resources down there.
    Senator Cochran. How many total personnel will be needed to 
meet the shortfall of helicopter personnel? If we provide the 
$500 million, as requested, when do you expect you'd be able to 
have the personnel trained and assigned to deployable units?
    Secretary Geren. I don't have the insight on--the Chief, if 
you could get--I'd like to get back to the record on that. I 
don't have the answer with me, but I'll certainly let you know. 
We're working to identify the resources that we'll need, the 
infrastructure that we'll need, and lay out a game plan for 
applying those funds.
    [The information follows:]

                          Helicopter Training

    Currently, the Army trains an annual student load of 1,200 
with 442 instructor personnel (includes 228 instructor pilots). 
We will increase student output in a phased approach over 2 to 
4 years. In fiscal years 2010 and fiscal year 2011, the annual 
student load will increase to 1,375 with an increase of the 
instructor staff to 568 (includes 312 instructor pilots). Army 
will reach its training requirement of 1,498 between fiscal 
year 2012-14. Increasing from 1,375 to 1,498 is dependent on 
the delivery of additional aviation motion simulators. New 
simulators that are needed are three TH-67 Instrument Flight 
Trainers, one CH-47D Operator Flight Trainer, one Longbow Crew 
Trainer, and to convert three UH60A/L Instrument Flight 
Trainers to Operator Flight Trainers. Delivery and conversions 
of the above simulators are projected in fiscal year 2011-14. A 
total of 624 instructors (includes 334 instructor pilots) will 
be required to support the 1,498 sustained training requirement 
for fiscal year 2014 and beyond. Finally, the effect of 
increased trained pilot output will be evident immediately in 
fiscal year 2010, when deploying units in all three Army 
Components will start receiving a greater number of initial 
rotary wing trained pilots. The number of trained pilots will 
increase by 12.7 percent (1,375) in fiscal year 2010 and will 
increase by 20 percent between fiscal year 2012 and 14 (1,498) 
over the current fiscal year 2009 (1,200) output.

                             FIRE SCOUT UAS

    Senator Cochran. Another program--deployment program and 
procurement--involves the unmanned aerial systems (UAS), a 
tactical, vertical takeoff capability, the Fire Scout unmanned 
aerial system is the description given of the unit to be built. 
How soon do you think an operational Fire Scout--will be able 
to be delivered to the Army for evaluation?
    General Casey. Senator, that Fire Scout is currently part 
of our--the spinout program of the future combat system--and it 
is moving forward in its development. I do not recall when the 
first unit will be delivered to us for testing, but I would 
say, it's in the next 3 to 4 years.
    [The information follows:]

    Class IV Unmanned Aerial System, XM-157 (Fire Scout) will 
begin testing on April 29, 2011 under the current System 
Development and Demonstration program schedule.

                           ARMY END STRENGTH

    Senator Cochran. General, I understand the Army is over the 
end strength by 1,500 personnel. Do you think the goal can be 
attained by the end of the fiscal year? Or, what is the outlook 
for dealing with that?
    General Casey. In this town, there's always good news and 
bad news, isn't it, Senator? The good news is, we've met our 
end strength targets early, the bad news is we have to pay for 
it for the rest of this year.
    But I do believe, to answer your question, that we will be 
able to get down and meet our end strength targets at the end 
of this year.
    Senator Cochran. That's good. Well, we wish you well, and 
we want to be sure that the bill that we recommend provides the 
funds that are needed to meet those goals.
    Chairman Inouye. Thank you very much.
    Senator Bond.
    Senator Bond. Thank you very much, Mr. Chairman.
    And welcome, Secretary Geren, General Casey. Thank you for 
being here today. Special thanks to Secretary Geren for your 
steadfast service on behalf of the Army. You've been a great 
champion for our Nation's most vital asset--our assets, our 
troops and their families, and a very capable Secretary. I 
particularly applaud your talking about fully resourcing the 
Guard, which is where we've made great progress--and it's been 
needed in the last few years.
    The electric vehicles that you're talking about, we will be 
making some light-duty electric trucks and vans in Missouri 
that we hope will be competing for some of those--for some of 
that opportunity.

                         MANNED GROUND VEHICLES

    General Casey, we look forward to working with you, and 
thank you for leading the Army. You referenced the future 
combat systems (FCS), of course, we all know it took a big hit, 
the manned ground vehicles. And what is the way forward the 
Army plans to do for bringing into the FCS system manned ground 
vehicles?
    General Casey. Thank you, Senator. And for giving me the 
opportunity to comment on that.
    First of all, it's only the manned ground vehicle element 
of the FCS program that will be stopped. All of the other 
elements of it--the network and the spinouts--are not only 
going to go forward, but they will be fielded to all 73 brigade 
combat teams.
    What we plan to do--there's a meeting going on this week--
it's called the System of Systems Design Review. And when that 
is over we, with the Department of Defense, will issue an 
acquisition decision memorandum that will halt the future 
combat systems program as we know it today. And we will then 
work with the contractor to split out the manned ground vehicle 
from the other systems so that the--and attempt to do that in a 
way that does not slow the development and fielding of the 
spinout.
    We have already begun and given direction to our training 
and doctrine command to build a development document for a new 
ground combat vehicle. And as we went through the discussions 
on this program with the Secretary of Defense, I could not 
convince him that we had sufficiently integrated the lessons 
from the current fight----
    Senator Bond. That would be incorporating the v-shape to 
the MRAP, as well as the IEP protection on the sides? Is that--
--
    General Casey. Exactly, those kinds of systems.
    And the good thing is, what we've gotten from the future 
combat system program, is we know the state of technology for 
those type of protective systems. I mean, we're at the limits 
of it, right now. And so, we will work to include both lessons 
from the current fight, and what we've learned from technology, 
and build a better vehicle. And build a better vehicle with the 
support of the Secretary and the Department of Defense, which I 
think will significantly help us move this forward.
    We--our goal is to come forward after Labor Day--with a new 
concept, design for the new manned ground vehicle, so that we 
can move forward, and our attempt will be to get a new vehicle 
in 5 to 7 years, and so we don't stretch this process out, any 
longer than it is.
    Secretary Geren. Let me add one thing, if I might, Senator.
    Senator Bond. Sure.
    Secretary Geren. Just so there's no misunderstanding on 
this one. The Secretary made the decision to terminate the 
manned ground vehicle, he included within that the non-line of 
sight cannon. It's actually a separate program under the 
authorization bill, but there's been some question about 
whether or not that was included in the Secretary's decision. 
He's made it clear that it covers the manned ground vehicles, 
and the non-line of sight cannon. So, just for the record, I 
wanted to----

                    ARMY NATIONAL GUARD END STRENGTH

    Senator Bond. Mr. Secretary, turning to the Army National 
Guard, I'm concerned about some of the personnel readiness. The 
Guard has over 73,000 troops activated in support of OIF and 
OEF, and they had over 300,000 call-ups since 9/11.
    And there's no question they're doing a tremendous job, 
whether it's fighting insurgency, assisting local Afghanis in 
agriculture development, but as the Army expands to 547 active 
duty, or whatever the number will be--I'm concerned that the 
Guard force will be stretched thin. The Guard has stated that 
the current operational environment requires a 371,000 soldier 
end strength. Does the Army have a--Guard have enough troops to 
fulfill its mission, both at home and abroad? With an end 
strength of the 358,000 outlined in the current budget?
    Secretary Geren. What the Secretary of Defense has directed 
us, the current end strength holds for active Guard and Reserve 
are set for this year, but he has left the door open to 
reconsider that issue, as we get into the future, if 
circumstances require additional end strength.
    But, with the Guard, as the Guard has transformed from a 
strategic Reserve to an operational force, many of the changes 
that they have underway are allowing them to better utilize 
their--the resources and the personnel.
    The Guard is going toward the R-4 Gen model, with the goal 
of 1 year deployed, 4 years at home. As you know, modularity, 
as well, with this additional equipping--we're doing a better 
job in the, frankly, with--much of this came from congressional 
leadership on the medical and dental readiness, so we've got a 
much higher percent today--almost double the medical-dental 
readiness that we had just 4 years ago.
    So, the transformation that the Guard is going through, 
with extraordinary leadership that's coming out of these Guard 
officers and NCOs that have had the experience of these last 7 
years, is they're transforming building a new Guard.
    Is the end strength number exactly right? It is set for 
this year, and they're having to reduce the numbers to get to 
that end strength total by the end of the year--I'm confident 
that they will. But I--for the time being, we're set at that 
end strength. We're working to make sure that the personnel in 
the Guard is assigned to the right MOSs, has the proper 
training, and is properly equipped and is ready, from a medical 
standpoint.
    So, I think we're where we need to be for the moment, and 
as the situation changes over the coming years, we'll see what 
the demand signal is, and have a better sense of whether that's 
the right number, long term.

                     ARMY NATIONAL GUARD EQUIPPING

    Senator Bond. Mr. Secretary, I'll have several other 
questions for the record, but about--on the equipment issues, 
as you indicated, you've made great progress in the way you 
track equipment procurement and distribution. The current 
tracking procedures are very labor-intensive, but if the Army 
can institutionalize and automate them, the Army National Guard 
should have the full visibility of resources intended for it by 
Congress. But how would you suggest the Army increase the 
transparency in the allocation of equipment to the Army 
National Guard, in light of the emerging threats that require a 
host of contingencies, both at home and abroad?
    Secretary Geren. One of the most important initiatives from 
the Ponarous Commission, we're working with OSD on it, OSD is 
working across all of the services on this issue, coming up 
with a system and approach that will allow us to have the kind 
of transparency that we'll be able to track the procurement and 
follow the equipment to the Guard unit, and keep track of it 
there.
    It's--as we've learned, as we've dug into it over the last 
7 or 8 months, and it's easier said than done, but we're 
building systems to enable us to do that. It's partly a 
technical challenge, but partly just a commitment to get it 
done. It's an area that I think it really had suffered from 
some neglect over the years. There was not a commitment to 
ensure that we could track it.
    Dr. Gates has made it a priority for all of the services, 
OSD really has the lead on it, but we're working with them to 
ensure that we accomplish that. It's a very high priority for 
us.
    Senator Bond. Thank you very much, Mr. Secretary, General.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.

                          STRESS ON THE FORCE

    Gentlemen, I'd like to submit my questions for the record, 
but I want one other question, Mr. Secretary, General.
    In recent years, divorce and suicide rates have sharply 
increased, and the day before yesterday, five men were killed 
by a stressed out patient, I believe, stressed. This was at a 
stress clinic. Do you believe that the initiatives that we are 
taking to address these problems is sufficient, sir?
    Secretary Geren. Mr. Chairman, I think the initiatives that 
we have underway are steps in the right direction. But this is 
a very stressed force, and as General Casey noted, our families 
are perhaps the most stressed component of our all-volunteer 
force.
    The investments that we're making are going to help better 
support families. Long term, I think the most important thing 
we can do is increase the dwell time, move it beyond the--
currently 1 to--about 1.3 that it is today, and get to the R-4 
Gen model of 1 year deployed to 2 years at home--ultimate goal, 
3 years at home. I don't think there's any substitute for 
giving these soldiers and these families time together.
    These investments we're making, we believe, will better 
support the families, but there's no substitute for the 
families being together--the family unit being together, and 
being able to support each other.
    So, long term, the most important initiative is to get the 
demand in line with our ability to provide forces, and ensure 
that our soldiers have the time to be home, be with their 
families, regenerate, reconnect with their families.
    You mentioned this, the tragedy of suicide. As we attempt 
to better understand suicides, we see in these suicides that we 
can determine the cause, it's the same issues that cause people 
to commit suicide on the outside.
    Mostly, at the top of the list, it's problems with 
relationships--failed relationships--divorce, some type of 
failure of a very significant relationship, either with a 
husband and a wife, or a parent and a child.
    And when you have the kind of separation that our soldiers 
are experiencing from their families, some soldiers on their 
third, fourth, and fifth deployment, it's obvious that that's 
going to put a relationship under strain. And in some cases, 
push a family to the breaking point.
    So, we are investing--the Chief and I spend a lot of time 
listening to spouses, and talking to children, figuring out 
what we can do to help them. But long term, ultimately, there's 
no substitute for soldiers having time with their families. And 
the most important initiative in relieving the stress on this 
force is going to be get on this R-4 Gen model, and have the 
soldiers be able to spend more time at home.
    Chairman Inouye. General.
    General Casey. Could I add to that, Mr. Chairman? Because 
you asked, are we doing enough.

                 COMPREHENSIVE SOLDIER FITNESS PROGRAM

    We are putting the finishing touches on a program called 
the Comprehensive Soldier Fitness Program, and I expect to 
initiate it this summer. And the intent of that program is to 
raise the attention that we give to mental fitness, to the same 
level that we give to physical fitness. And to give all 
soldiers the skills they need to be resilient, and to succeed 
in combat.
    Now, a lot of people think that everybody that goes to 
combat gets post-traumatic stress, and you know that's not 
true. In fact, the vast majority of the people that go to 
combat have a growth experience, because they're exposed to 
something very, very difficult, and they succeed.
    And so we're trying to give the skills to all soldiers, so 
that more people have a growth experience when they go.
    We, actually, this week have our first group of 
noncommissioned officers going to the University of 
Pennsylvania to become master resilience trainers, to get the 
skills they need to go back to their unit to help them develop 
effective programs.
    Now, we're modeling that after a program we have for master 
fitness trainers--we have guys that can teach you how to do 
good pushups. This is going to be the same type of thing for 
mental fitness.
    We're also developing a self-diagnostic test that can be 
taken--and will be taken--at various times during a soldier's 
career, and results will be reported to them. And it will give 
them an assessment of where they are in several areas, and then 
we'll connect them to several self-help modules, so that they 
can get the personal assistance there, in building their 
resilience.
    And I look to roll both of those out here, probably in the 
fall. But we had to get beyond just being reactive. And so this 
program is designed to give our soldiers the skills that they 
need to enhance their performance across the board.
    Chairman Inouye. Thank you very much.
    Senator Leahy.
    Senator Leahy. Thank you, both.
    General Casey, and Secretary Geren, so good to see you 
both. I know you both know the 86th Mountain Brigade, that's 
upward of 1,800 very proud citizen soldiers from the Vermont 
Army National Guard are going to begin a deployment, either end 
of this year or early next year, to Afghanistan. They're going 
to make up the bulk of Task Force Phoenix, to carry out the 
training of Afghan troops, and I've been glad to work with both 
of your offices to make sure the National Guard, and also the 
Army National Guard, to make sure they, the brigade has the 
equipment it needs, as well as the vehicle and body armor.

               MINE-RESISTANT, AMBUSH PROTECTED VEHICLES

    What I have been concerned about are the increased use of 
roadside bombs. I mean, not just--obviously not just for the 
Vermonters--but for all of our service people that are over 
there. The MRAP, which is the best protection against that 
has--requires paved roads, is fairly heavy--you know better 
than I--it doesn't work well in undeveloped Afghanistan.
    I understand the overseas contingency operations, a portion 
of the budget includes a request pending for the so-called MRAP 
all-terrain vehicle (ATV). I talked with Secretary Gates about 
this, when he was here before this subcommittee. I sent him a 
personal note about it. Will that remain a priority? I would 
like very much to see that, get it into operation, I know we 
have testing, and so on, but can I just kind of raise that up 
into the level of you two gentlemen?
    Secretary Geren. Very high priority--the same type of 
priority emphasis that led to the very rapid development and 
fielding of the original MRAPs, once the decision was made to 
go forward--that same type of commitment is behind bringing 
the--this MRAP ATV, or some are calling it ``MRAP Light,'' but 
a lighter version that would be more suitable for the Afghani 
terrain. A top priority for the Department, I can assure you.
    Senator Leahy. General Casey.
    General Casey. I was just going to say, Senator, I was 
there about 10 days ago, and heard, basically, the same thing 
that you said about--that there are off-road challenges with 
some of the larger MRAPs. But, what the soldiers do, is when 
they go on patrol, they figure out where they're going, and 
then they tailor the mix of vehicles that they take with them 
for that mission, and they vary the mix of up-armored RVs and 
MRAPs, depending on where they're going. And so they're quite 
agile at doing that. But as the Secretary said, this lighter 
MRAP is, indeed, a priority, and we will continue to work that.
    I will also tell you that we are working to integrate the 
MRAP into the design of all of our units. And, you know, 
those--the MRAPs have been procured by the supplemental budgets 
for the forces in the field. But we, I'm sure, like you believe 
that the improvised explosive device is going to be part of any 
battlefield that we deal with in our lifetime. And so those 
need to become an integral part of our force.
    Senator Leahy. And I would add, again, Secretary and 
General, that I don't raise this just out of a parochial 
concern for the 1,800 from Vermont, but for obviously, for 
everybody who is there. And for the flexibility that you might 
have in being able to train Afghans take over something.
    And I realize, also, that as you say about planning where 
you're going, but of course we also have times when the 
deployment is on very, very short notice--there's been an 
ambush, there's been other things that you see probably too 
often in the reports from there.

                    ARMY NATIONAL GUARD END STRENGTH

    And I also noticed, Mr. Secretary, the Army Guard has 
planned to get to 100 percent readiness, fully manned units, no 
more cross-leveling. When it deploys, it would not have to raid 
other units for people. To get that plan in place--which I 
think is a good plan--you have to ensure every unit in the 
Guard's force structure has all of the people it needs, the end 
strength of the National Guard to have to get to 371,000, I'm 
told, and a special holding account for those awaiting for 
training.
    I understand the Army's approved the holding account, but 
not the formal increase in the size of the force. Am I correct 
on that? Is that just being--is that just a monetary issue--or 
will we get to that?
    General Casey. Senator, we're working with them to reduce 
their training backlog of new recruits, because the challenge 
the Guard has is they recruit for a position, and until that 
soldier has been through basic training and advanced training, 
they're not qualified in their skills, so the unit cannot count 
them as a ready soldier, and we're working with them to reduce 
the backlog.
    We have not increased the end strength beyond the 5--
358,000 that was their target for fiscal year 2011.
    Senator Leahy. Will it be increased?
    General Casey. I do not--I don't see it. We're going to 
continue to work closely with the Guard on this, Senator, but I 
do not see an end strength increase for the Guard in the near 
future.
    Senator Leahy. I'm not quite sure how I see you doing 
this--how you get away from no more cross-leveling, and the 
rating.
    General Casey. We spoke--the Secretary and I both spoke in 
our opening statements about putting the Army on a rotational 
model--it's not just the active Army. It's also the Guard and 
Reserve. And our goal by 2011, is to have the Guard and Reserve 
on a 1 year out, 4 year back model.
    And what happens is, their readiness--both personnel and 
equipment--improves as they get closer to deployment. And just 
as--this is the same model that we will use for the active 
force. And that is the method that we are using to decrease 
cross-leveling.
    We're never going to get completely away from cross-
leveling. But it's this rotational model that gives us much 
better flexibility to build capability.
    So, in the first year, availability, they have every piece 
of equipment and all that the active force has, and they're 
manned for the mission. In the second year, they're manned at a 
little slightly lower level for their training, on the third 
year, slightly lower than that.
    Senator Leahy. And I'll close with this, on having the 
equipment, Senator Bond and I, we're co-chairs of the Guard 
Caucus, which both Members--both parties--belong to, here.

                               EQUIPPING

    We've written to you on the question of more transparency 
of where equipment goes--we appropriate the money for it, and 
we kind of lose sight as it comes off the assembly line, where 
it goes. I would just kind of give you a heads up that you're 
going to, kind of, follow-up question on that, because I really 
would like to see more transparency--which is actually to your 
advantage. Because if you have the transparency, you also have 
the ability to have some flexibility.
    If there's a concern here that it's not being done the way 
we want it, you're going to have these scriptures written into 
the appropriations law, which actually doesn't help you, and 
ultimately it doesn't help us.
    Secretary Geren. No, we're working--it's one of the most 
significant initiatives under the Punaro Commission, this 
transparency, and something we're working with OSD on, for 
the--all of the services Reserve component--this transparency 
has been a struggle for us. We're working to put together a 
system so that we will be able to track that equipment. Dr. 
Gates has made it a high priority, we certainly, in the Army, 
embrace it. It's a very high priority, and we'll--and are 
working hard to develop the processes and procedures to enable 
us to do that.
    And just the fact that it's become a very high priority for 
the Department--Congress, you all have made your intentions 
well-known in that regard. It may have taken us a little while 
to get the message, but we've gotten it, and we're working it 
very hard. We understand the importance of it to the Reserve 
component, we understand the importance of it for us as we try 
to manage all of our forces.
    I'll mention one other initiative that is significant as 
far as reducing the amount of cross-leveling. For the Guard 
units that are deploying next summer, they already have their 
orders--I mean, summer 2010, not summer 2009. We are now giving 
notice of mobilization 2 years out, and actually orders 1 year 
out. So, this allows every Guard unit the opportunity to manage 
their force, and determine who's going to stay, and start 
filling the holes, 1 year plus out, and much better able to 
manage their force.
    Senator Leahy. Thank you.
    Chairman Inouye. Thank you.
    Senator Cochran.

                     ARMY HELICOPTER MODERNIZATION

    Senator Cochran. Mr. Chairman, I have just one other 
question--there have been two efforts made to modernize the 
armed helicopter capability for the Army, and there have been 
problems in both instances. I wonder whether consideration can 
now be given to modifying an existing platform to provide these 
capabilities? We've suggested in a letter to the Secretary of 
Defense that be considered. What is the status of that 
situation, and is there an interest in moving forward to select 
some alternative that's workable and affordable?
    Secretary Geren. There is, Senator. In fact, after we went 
through the--worked through what happened with the armed 
reconnaissance helicopter, after the Nunn-McCurdy breach, and 
the decision to terminate the program, we went and studied what 
the--we felt our options were, and concluded that our best step 
would be to do a full analysis of all alternatives. And we're 
going to begin this summer, we're going to look at all options, 
including what's available in modifying commercial, off-the-
shelf platforms.
    So, we've got the aperture wide open--it's an analysis of 
all of the alternatives, and then we're going to move ahead, 
and produce the helicopter that serves the needs of our Army, 
but we're starting over, really, with a blank slate and looking 
at all of the options that are out there.
    Chairman Inouye. General Casey, Secretary, I thank you very 
much on behalf of the subcommittee. We thank you for your 
testimony and your service to our Nation.

                     ADDITIONAL COMMITTEE QUESTIONS

    And we'd like to thank the three gallant men sitting before 
us, here. Thank you for your service, Sergeants.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted by Chairman Daniel K. Inouye
                       future combat system (fcs)
    Question. Secretary Geren, the fiscal year 2010 defense budget 
drastically changes the Future Combat System, which has long been 
touted as the Army's modernization program. I believe this is the 
fourth major restructure to the FCS program since its inception. We 
have spent almost $18 billion on FCS since 2003, including at least 
$4.2 billion on efforts to develop a new class of manned ground 
vehicles that are now being terminated, and while we have started 
fielding some spin out technologies, they are not delivering the 
capabilities envisioned by the original FCS.
    Tell us Mr. Secretary, what lessons have you learned from the FCS 
program history to ensure the Army is developing a program that 
addresses the needs of the warfighter?
    Answer. Army challenges to modernization remain consistent in a 
complex operational environment against adaptive enemies. The Army is 
adapting using the hard won lessons learned over 7 years of war, which 
highlight the demand for greater versatility, lethality, and 
interoperability across the entire Army.
    The Army is transitioning elements of the Future Combat Systems 
(FCS) (such as sensors, unmanned ground and aerial vehicles, and 
network development) to the new Brigade Combat Team (BCT) Modernization 
program in compliance with the anticipated Acquisition Decision 
Memorandum from the Milestone Decision Authority. This proposed 
transition completes a shift in the Army's modernization strategy--
moving from equipping only 15 BCTs with all of the FCS equipment to 
holistic modernizing of all Army BCTs.
    The Training and Doctrine Command established a task force to work 
over the course of the summer to develop an affordable, incremental BCT 
Modernization plan. They will reexamine force design, analyze and 
determine the appropriate mix of systems to field in capability 
packages, develop incremental network capability packages to support 
them, and refine requirements for a new ground combat vehicle. This 
work will be informed by views and perspectives from a broad spectrum 
of thought including individuals from think tanks, retired officers, 
currently serving officers and civilian leaders, senior non-
commissioned officers, and program managers.
    We have learned much from the FCS program in the past decade and 
appreciate the commitment of industry to provide our Soldiers the best 
available equipment. We will work closely with the Office of the 
Secretary of Defense, Congress and FCS contractors/subcontractors in 
the days ahead to capture what we have learned, to implement program 
change decisions, to maintain the momentum of the spin-outs, and to 
move forward expeditiously with a ground combat vehicle.
                          joint cargo aircraft
    Question. General Casey, the budget before the Congress proposes to 
restructure the Joint Cargo Aircraft program by fielding the aircraft 
only to the Air Force, and reducing the total program from 78 airplanes 
to 38. One of the major reasons for the Army's participation in the 
Joint Cargo Aircraft has been the need to provide airlift for the 
``last tactical mile'' to support soldiers serving on the front lines.
    Will the proposals to transfer the program to the Air Force or to 
reduce the number of aircraft have an impact on supporting our forward-
deployed troops?
    Answer. It is Air Force's intent that the transfer of JCA have no 
negative impact on the forward deployed Soldier. The Army and Air Force 
have partnered since July 2005 to shape complementary capability 
requirements for the Joint Cargo Aircraft (JCA) program. The Army 
requires the JCA to focus on responsive, direct support transportation 
of Time-Sensitive Mission-Critical (TS/MC) resupply and key personnel 
transport at the tactical level (``the last tactical mile''). The Army 
will continue to provide time-sensitive, mission-critical, direct 
support with a combination of contract air, Sherpas, and CH-47s until 
the USAF begins performing that mission in the summer of fiscal year 
2010. To mitigate the reduced number of airframes procured, the Air 
Force is studying the feasibility of using other cargo aircraft to 
supplement the C-27J. A valid requirement remains with the Army for the 
replacement of the C-23B/B+ Sherpa Cargo Airplane as operational and 
sustainment costs are exceedingly high. The Army, Air Force, Joint 
Staff, and Office of the Secretary of Defense are working closely 
together to develop operational procedures and measures to meet the 
Army's mission needs and to determine the final procurement quantity of 
Joint Cargo Aircraft. This analysis will include the potential use of 
C-130s to meet a portion of the Army's requirement. If a determination 
is made to procure more JCAs, there is still time to do that.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
          integrated vehicle health management system (ivhms)
    Question. General Casey, I understand that the Integrated Vehicle 
Health Management System (IVHMS) is providing significant maintenance, 
safety, and operational benefits on the UH-60 fleet.
    Could you highlight some of those benefits and cost savings?
    Answer. The Integrated Vehicle Health Management System (IVHMS) 
provides early detection of impending aircraft component failures and 
eliminates guesswork when performing maintenance actions. The IVHMS 
also provides the ability to automate preventative and recurring 
maintenance checks. Through the automation of regular maintenance 
checks such as the 120-hour vibration check, the Army will potentially 
realize a savings in scheduled maintenance man-hours. The IVHMS also 
allows insight into the health of the aircraft, which is changing the 
way aviation maintenance operations are planned and conducted. For 
example during a recent deployment to Iraq, 22 IVHMS equipped UH-60 
aircraft indicated a high engine temperature and/or an excessive speed 
condition. These conditions normally require engine replacement for 
analysis. Due to the IVHMS health monitoring abilities, 21 of the 22 
UH-60 engine replacements were not required, avoiding $9.7 million in 
unscheduled maintenance cost. It is anticipated that IVHMS, which is an 
enabler of Condition Based Maintenance, will allow the Army to avoid 
unnecessary component removal in the future due to data collected 
through health monitoring systems.
    Question. Further, can you provide an update on the status of fully 
outfitting the UH-60 fleet with the IVHMS?
    Answer. As of June 8, 2009, 542 Army H-60 aircraft are equipped 
with Integrated Vehicle Health and Usage Management System (IVHMS) in 
the field (including 98 UH-60Ms that are delivered from the factory 
with IVHMS installed). In addition, 344 IVHMS kits were funded and are 
on contract for installation on the legacy fleet of H-60A/Ls, for an 
IVHMS equipped total of 886 (542+344). Therefore, 46 percent of the 
1,931 H-60 objective fleet either has IVHMS installed or is funded to 
be installed.
    Question. Is current funding adequate to outfit all of the UH-60 
aircraft currently scheduled to deploy to Iraq and Afghanistan so they 
continue to realize the benefits of IVHMS?
    If not, how much is needed by the Army to do so?
    Answer. For the fiscal year 2010-11 rotation being prepared 
currently, only 10 aircraft will not be equipped with IVHMS kits. The 
cost to procure and install 10 additional kits is estimated to be 
approximately $2.9 million, subject to operational availability of 
individual aircraft as they near their deployment date.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran
                          joint cargo aircraft
    Question. General Casey, the budget proposes transferring Joint 
Cargo Aircraft purchased by the Army and the mission associated with 
those aircraft to the Air Force. In the past, the Army has maintained 
that they must maintain a role in this program to fulfill a service-
unique requirement to provide time sensitive, mission critical supplies 
such food, water, repair parts and ammunition directly to Army units? 
Do you support transferring this mission to the Air Force and do you 
see any change in requirements for the Department?
    Answer. I support transferring this mission to the Air Force. The 
Air Force can and will support the end-to-end distribution of time 
sensitive, mission critical (TS/MC) equipment, personnel, and supplies 
to the forward deployed Army forces. There has been no change in this 
requirement. It is just a matter of which Service operates and 
maintains the aircraft to conduct the TS/MC mission. Currently, the 
Army and Air Force are determining the concepts of operations and 
employment and preparing the transfer of the Joint Cargo Aircraft (JCA) 
program from the Army to the Air Force.
                                 ______
                                 
           Questions Submitted by Senator Christopher S. Bond
                     individual ready reserve force
    Question. My final question is about the Individual Ready Reserve 
Force, or IRR. General Casey and Secretary Geren, I know you both 
advocate for the movement away from calling on our IRR forces if we can 
prevent it. However, the realities abroad and within our armed forces 
present serious challenges--namely that we are fighting with men and 
woman who, at one point or another, believed they had completed their 
service obligation to their country.
    Unfortunately, maintaining a robust IRR force is necessary to 
protect our country's interests. However, these call ups are designed 
for full-scale mobilization emergencies, not as manning solutions for 
today's multifaceted counter-insurgency. Grasping the complexities of 
today's battlefield is an exhaustive training process for our active 
duty ranks that takes months and even years.
    How do you tell a 23 year old who has been out of the service for 2 
years that he must re-learn the subtleties and nuances of the Afghan 
terrain and culture?
    Now imagine he's married with two kids, maintaining a full-time 
job, and has never been to Afghanistan?
    Answer. An IRR Soldier being called to active duty goes through a 
medical screening and participates in military occupational specialty 
refresher training, and in unit collective training. These measures 
reintegrate the Soldier into the force and prepare the Soldier for the 
upcoming deployment, just like any other Soldier who has been out of a 
theater of operations for any significant period of time. IRR Soldiers 
who have family care issues, medical issues, or other issues that would 
prevent them from being called to active duty in accordance with their 
orders, may request a delay or an exemption through the Army's Delay 
and Exemption Request Process. Historically, more than two-thirds of 
exemption requests and nearly nine-tenths of the delay requests have 
been approved.
    Question. Clearly, many former war fighters find difficulty in 
summoning the requisite will, training, and discipline to carry out the 
full spectrum operations occurring today in Iraq and Afghanistan 
because they have fundamentally moved on. Many times, our deployed IRR 
soldiers only know how to pursue a strategy that does not center on 
winning, but purely how to survive, not lose, and get back home to a 
normal life again, before it was interrupted.
    Are the odds of getting called up increasing among the IRR force?
    Answer. The odds of an IRR Soldier being called to active duty 
depend more on his or her military occupational specialty (MOS) than on 
the overall population of Soldiers in the IRR. Soldiers with low-
density/high-demand MOSs (e.g., Civil Affairs, Engineers, Signal Corps, 
and mechanics) have a higher probability of being mobilized than other 
IRR Soldiers.
    Question. Do you believe that filling units with IRR soldiers is an 
effective manning solution for operations characterized by full-
spectrum conflict and irregular warfare?
    Answer. IRR Soldiers began their Army careers in an active status, 
whether it was with the Regular Army or the Reserves. They are 
experienced and trained Soldiers who either elect to stay in the Army 
past their Military Service Obligation (MSO), or are in the IRR 
completing their MSO. IRR Soldiers are called to active duty to fill 
unit vacancies in units that have been notified of their pending 
mobilization. Once they are assigned to a unit, IRR Soldiers are 
integrated into the unit and participate in their collective training 
prior to their deployment in theater.
                                 ______
                                 
                Question Submitted by Senator Judd Gregg
 third generation extended cold weather clothing system (gen iii ecwcs)
    Question. I would like to commend the Army for its hard work and 
initiative in developing the Third Generation Extended Cold Weather 
Clothing System (GEN III ECWCS). I feel strongly that the system 
ensures the safety and health of our soldiers while bolstering mission 
readiness and combat capability. I understand that GEN III ECWCS has 
proven to be a combat advantage for our troops, but I remain concerned 
about the Army's present and future plans to fully field and fund the 
GEN III ECWCS.
    What is the Army's requirement for GEN III ECWCS, and in the 
absence of supplemental funding, how does the Army plan to fund the 
deployment of GEN III in future years?
    Answer. The Army requirement to provide its Soldiers effective 
protection from the environment without hindering their performance is 
documented in our Core Soldier System Capability Production Document 
(CPD). The Third Generation Extended Cold Weather Clothing System (GEN 
III ECWCS) supports this requirement as a product improvement over 
previously fielded Soldier items. At this time, one set of GEN III 
ECWCS is fielded per deploying Soldier as part of our Rapid Fielding 
Initiative issue process. The Army's future requirement for GEN III 
ECWCS is currently being staffed as part of an update to the Core 
Soldier System CPD, and will likely be one set per Soldier.
    Current GEN III ECWCS fielding is supported primarily with 
supplemental funding; however, there is limited sustainment funding for 
select layers as part of Army Clothing Bag and Central Issue Facility 
support. For future years the Army Staff is in the process of 
developing fielding and sustainment processes that will be integrated 
into the Equipping and Sustainment Program Objective Memorandum 
requests for fiscal years 2012 and beyond.
                                 ______
                                 
            Questions Submitted by Senator Robert F. Bennett
    dugway proving ground--u.s. army unmanned aerial vehicle testing
    Question. The Utah delegation was pleased to announce last week 
that Dugway Proving Ground in Utah's west desert has been chosen to 
integrate systems and conduct testing on the U.S. Army's Hunter, Shadow 
and Sky Warrior Unmanned Aerial Vehicles (UAVs).
    The Army's decision to establish the Rapid Integration and 
Acceptance Center at Dugway could bring as many as several hundred 
good-paying jobs to Utah within 2 years and provide a welcome economic 
boost to the state. The center's primary missions will be to 
consolidate all acceptance testing of the Shadow, Hunter and Sky 
Warrior UAVs and to help the Army streamline the introduction of new 
UAV technology to combat units.
    I consider the Utah Test and Training Range and Dugway Proving 
Grounds to be national assets and would welcome any plans for future 
expansion of the mission. It's clear in the budget materials that I 
have seen that the overall use of unmanned aerial systems (UAS) is 
increasing. In an unclassified setting could you tell me more about the 
U.S. Army's plans for expanding the use of UAS's and how we can support 
it?
    Answer. Much of the Army UAS work at Dugway Proving Ground (DPG) 
will be related to acceptance test procedure (ATP) flights for the 
Shadow, Hunter and Extended Range Multi-Purpose (ERMP) aircraft. During 
ATP flights, the government formally accepts aircraft delivered by the 
prime contractors. Up to this point, these ATP flights have taken place 
at three separate locations. To streamline the ATP as well as other 
airframe integration activities, Program Manager (PM) UAS consolidated 
his assets and established a Rapid Integration Acceptance Center (RIAC) 
which is currently being moved to DPG.
    Several other critical activities will take place at the RIAC. To 
better meet Warfighter needs, PM UAS will conduct rapid integration, 
flight assessment, and deployment of new UAS technologies from the RIAC 
into theater. At the RIAC, PM UAS will conduct rapid integration of new 
technologies to support not only Army priorities, but Marine Corps and 
Special Operations Command requirements (or other Service needs, as 
required). By consolidating all Army UAS aircraft and ancillary 
equipment at Dugway, we will have all the assets necessary in one place 
to accelerate and achieve true interoperability between aircraft, the 
Universal Ground Control Station (UGCS) and the One System Remote Video 
Terminal (OSRVT).
    The RIAC infrastructure will allow a great opportunity to include 
academic experimentation. Many universities are working various 
technologies to include payloads, sense and avoid technologies, etc. 
However, they are limited as far as platform availability to validate 
these technologies. Having this capability at the RIAC will allow 
academia to bring the best of breed technologies to fruition for 
potential follow-on efforts and will provide better enabling 
technologies to the Warfighter.
    The Army Reserve recently selected DPG to consolidate Reserve UAS 
units with PM UAS facilities. This will allow synergy for training, 
shared resources, etc. Additionally, the Utah National Guard (at a 
minimum), as well as other National Guard units across the United 
States, will be able to leverage the infrastructure being established 
for the RIAC, as well as the available airspace over DPG property.
    As noted earlier, having all the assets necessary in one place 
allows the PM to accelerate and achieve true interoperability between 
the various aircraft and systems, the UGCS and OSRVT. Additionally, if 
the Army is truly to achieve the capability to have a universal 
operator, it is critical to be able to validate the technology and 
procedures in one location flying more than one type aircraft from one 
UGCS.
    To truly establish a first-class facility, funds will be required 
to purchase hangars, office space and bonded storage. DPG has all the 
runway capability (near and long-term) and some temporary hangar 
capabilities for the near-term; however, with an influx of several 
systems and possibly more than 200 personnel, additional space is 
needed for office and hangar space over what DPG currently offers. The 
PM UAS staff is finalizing the facility requirements and expects to 
have a rough estimate of funds required in the next month.
    The timeline for arrival of Shadow, Hunter and Warrior on site is 
staggered. Shadow is already on site at DPG for some engineering 
flights, to include the re-wing effort and additional laser designator 
payload testing. Shadow ATP will be fully transitioned from Fort 
Huachuca by February 2010. Hunter will have its initial flight assets 
at DPG by late October, early November 2009, with additional test 
assets on site by February 2010. Warrior-A and Block-0 will also be on 
site around November 2009. The ERMP program will start arriving on site 
during 4th Quarter, fiscal year 2010 and is expected to be fully 
operational with its ATP process established by 1st Quarter, fiscal 
year 2011. Other RIAC efforts will be integrated into the schedule as 
they become available and approved/funded for integration and testing.
    Critical to the entire success of the RIAC effort, along with other 
associated activities for the Army noted above, is the availability of 
the restricted airspace above DPG land property for the Army to fly 
with impunity. Recently, there have been concerns noted by the 388th 
Range Squadron at Hill Air Force Base (AFB) that they want to retain 
control of scheduling of the restricted airspace over DPG. However, 
with the changing mission at DPG for aircraft testing, mostly unmanned, 
it is imperative that the Army (DPG specifically) retain that priority 
for use and scheduling over its airspace. Any additional airspace 
needed in the Utah Test and Training Range area would be coordinated 
per standard procedures already in place with Hill AFB, to include 
long-range data link testing and weapons firing during certain flight 
profiles.
                national guard state partnership program
    Question. I'm sure you are both familiar with the National Guard 
State Partnership Program. The Utah National Guard has been very 
pleased with their experience to date in partnering with Morocco and I 
am pleased to report that things are going well.
    I recently cosponsored S. 775, which would formalize the 
relationship at an institutional level if passed into law.
    What can you tell me about the Army's view of this program, its 
effectiveness and impact on military-to-military relationships around 
the globe?
    Answer. Senate Bill 775 would provide the National Guard with the 
clear, unambiguous authority needed to continue strengthening its State 
Partnership Program and, consequently, will ensure that the National 
Guard SPP continues its very effective contribution to our national 
security. While it does not call for any additional funds for the 
program, which operates with a modest budget of about $8 million in 
fiscal year 2009 (drawn from both the Air Force and Army), it would 
codify the authority for the National Guard to continue expending funds 
for international activities under the SPP program, in support of our 
national security strategy.
    The SPP plays a critical role in building capacities in strategic 
nations and regions throughout the world. SPP develops unique, 
sustainable, cooperative partnerships between individual U.S. States 
and Territories paired up with foreign partner countries. Today, SPP 
consists of 53 U.S. States and Territories partnered with 61 countries 
around the world.
    The SPP builds partner capacity by allowing Army and Air Guardsmen 
to share both civilian and military experiences at the individual and 
unit levels. The focus of SPP remains to develop military to civilian 
contacts and activities that promote defense and security-related 
cooperation in critical areas such as emergency management and disaster 
response, border and port security, leadership and NCO development, 
medical capacities, economic security, natural resource protection, 
peacekeeping operations, counter trafficking, counter proliferation and 
counter and anti-terrorism. Additionally, SPP encourages Guardsmen to 
facilitate civilian, state, and local government relationships 
strengthen and develop broad spectrum civil security cooperation 
between our nation and the SPP partner.
    The SPP supports military to military contacts and activities 
between the United States and those nations partnering with us in the 
SPP program. All SPP activities support the Combatant Commanders, as 
well as the individual mission plans of the U.S. Ambassadors.
    The SPP can be measured by the support Combatant Commanders and 
U.S. missions around the world continue to give to the SPP, and the 
growing demands for SPP expansion to include more countries. The 
ambiguous regulatory authorities currently in place inhibit mission 
flexibility and resourcing necessary for the program to achieve its 
full potential. S. 775 will ensure that SPP can continue building 
strong, lasting bilateral relationships and support to key nations 
whose stability will in turn promote regional and, ultimately, global 
security.
                             camp williams
    Question. Camp Williams is one of the finest training sites in the 
country, offering a wide variety of training opportunities to soldiers. 
In addition to Utah Guard units, many regular Army, Army Reserve, 
Marine Corps and Air Force units utilize the facilities, both at Camp 
Williams and at the licensed facilities at Dugway Proving Ground. Camp 
Williams facilities are also used by the FBI, law enforcement agencies 
from across the state, and other state agencies for training and 
leadership conferences. It has also become a regular training area for 
many youth groups. To keep up with demand, the Camp is continually 
improving its facilities, both in the cantonment area and in its range 
areas.
    Despite the high value the area offers for national security and 
law enforcement training, one of the growing issues its leadership must 
face is that of the expanding local communities physically encroaching 
the fence line and seeking to place legal restrictions on training and 
operations there due to issues such as noise complaints, hiking 
requests and spreading wildfires. These seemingly small issues have the 
possibility of incrementally disabling its mission that supports our 
national security. Will you discuss what Army efforts have been made to 
address encroachment issues in general and any efforts specific to Camp 
Williams?
    Answer. Camp Williams and the National Guard Bureau (NGB) are 
responding to this issue through a variety of means. First, the Utah 
Army National Guard (UTARNG) applied for participation in the Joint 
Land Use Study (JLUS) program of the DOD Office of Economic Adjustment. 
Camp Williams made it through the nomination process, and on May 7, 
2009, held a kick off meeting with a JLUS project manager from DOD.
    Second, UTARNG regularly participates in the planning commission 
meetings of all communities in their vicinity. This helps them partner 
with the communities, develop relationships and a presence, and express 
their issues and concerns. NGB provided UTARNG with information on and 
examples of local ordinances and legislation that could protect their 
training mission from encroachment.
    Third, we are developing an Army Compatible Use Buffer (ACUB) 
proposal. A group of installation and headquarters staff met with state 
and local government officials and potential partners to explain the 
ACUB program as a possible solution. There is considerable interest in 
the program from the local communities. The cost of property is 
extremely high adjacent to Camp Williams: a prior appraisal assessed an 
approximately 3,400-acre parcel at $39 million. A concern is that the 
ACUB proposal would depend upon significant partner contributions as 
the program is currently not funded. Camp Williams is currently working 
on aligning willing partners and developing their proposal.
    Finally, UTARNG is working with staff from the NGB to address 
unexploded ordnance on property along and beyond the northern boundary 
of the Camp Williams under the Military Munitions Response Program. As 
part of this effort, UTARNG will be conducting Public Safety Awareness 
training to educate the surrounding community about safety issues 
related to munitions releases that occurred in the past, beyond the 
facility boundaries. This effort should assist in raising community 
awareness of the Camp Williams' mission and the importance of 
maintaining a buffer around this valuable military facility.

                          SUBCOMMITTEE RECESS

    Chairman Inouye. The subcommittee will reconvene on 
Thursday, May 14, at 10:30 in the morning. At that time we'll 
have a closed hearing to receive testimony on classified 
information.
    And now, we'll stand in recess.
    [Whereupon, at 11:38 a.m., Tuesday, May 12, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2010

                              ----------                              


                         TUESDAY, JUNE 2, 2009

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:29 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Cochran, and Bond.

                         DEPARTMENT OF DEFENSE

                         DEPARTMENT OF THE NAVY

                        Office of the Secretary

STATEMENT OF HON. RAYMOND MABUS, SECRETARY OF THE NAVY

             OPENING STATEMENT OF CHAIRMAN DANIEL K. INOUYE

    Chairman Inouye. This morning the subcommittee meets to 
receive testimony on the fiscal year 2010 budget request from 
the Secretary of the Navy, the Honorable Raymond Mabus; the 
Chief of Naval Operations, Admiral Gary Roughead; and the 
Commandant of the Marine Corps, General James Conway. I'd like 
to welcome each of you and extend special greetings to the 
Secretary. This is your first appearance before us.
    For fiscal year 2010, the President has requested $156.4 
billion for the Navy and the Marine Corps, plus an additional 
$15.3 billion in supplemental wartime costs. Although the 
Secretary of Defense has proposed a number of terminations and 
delays in major weapons systems, relatively few of these 
decisions would have an immediate impact on the Navy or Marine 
Corps. In fact, the $9 billion in growth in the Navy budget is 
50 percent greater than the growth in the Army and the Air 
Force combined.
    The budget supports many Department of Navy priorities, 
including truncating the DDG 1000 in favor of additional DDG 51 
destroyers, continuing production and test of the Joint Strike 
Fighter (JSF), accelerating the production of Virginia class 
submarines next year, and completing the growth of the Marine 
Corps to 202,100 personnel.
    Despite the growth in the budget, there is bound to be 
controversy over other investment decisions. Funds for 
shipbuilding are not sufficient to achieve our 313 ship Navy, 
our carrier fleet would be reduced to 10 by year 2040, and it 
will be very difficult to purchase more littoral combat ships 
within the statutory cost cap.
    While plans for sea basing and amphibious warfare are 
getting additional scrutiny, the Expeditionary Fighting Vehicle 
Program continues unchanged. Many have questioned the 
cancellation of the VH-71 Presidential helicopter and others 
are asking whether enough F-18s are being bought to close the 
strike fighter shortfall.
    These are but some of the controversies before us this 
year. It is also clear that next year will be even more 
challenging, as the administration has warned that the 2011 
budget will have additional spending constraints. Future 
decisions will be guided by the results of the Quadrennial 
Defense Review (QDR) and the Nuclear Posture Review (NPR) which 
are now under development. Yet there has already been a shift 
in balancing the demands of the current fight with the 
preparations for future threats. Today's fight involves 
supporting the surge in Afghanistan, managing the drawdown from 
Iraq, meeting irregular threats such as terrorism, drug 
smuggling, and piracy. Each of these missions require different 
capabilities, some of which have been funded in base budgets 
and others were loaded into supplemental appropriation 
requests.
    For the first time, the administration has submitted both 
pieces of the DOD budget at the same time. This will give 
Congress a clearer view of what is needed to support our 
warfighters, and the subcommittee welcomes the testimony of our 
witnesses on these matters, in addition to their views on the 
fiscal year 2010 base budget request.
    The full statements of each of the witnesses will be 
included in the record in total and I'd like to now turn to the 
vice chairman for any remarks he wishes to make.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, I'm pleased to join you in 
welcoming this distinguished panel of witnesses to our 
subcommittee hearing to review the Department of the Navy's 
budget request.
    Mr. Secretary, it is a special pleasure to welcome you in 
your new capacity as Secretary of the Navy. We look forward to 
working with you closely to respond to the challenges facing 
the Department of the Navy. As everyone knows, this new 
Secretary served as the Governor of our State of Mississippi 
with great distinction, and we appreciate his public service.
    The Navy and Marine Corps team has been a very important 
part of our national security organization and throughout 
history they have performed their missions in a very impressive 
fashion, and continue to contribute to the safety and security 
of all Americans. We need to be sure we provide them with the 
funding needed to continue to carry out their missions in the 
way they have in the past.
    The Department has performed with a high degree of 
professional distinction and we congratulate the individual 
members of the panel on the roles they have played and will 
continue to play in carrying out our national security 
responsibilities.
    Thank you.
    Chairman Inouye. Thank you very much.
    Senator Bond, would you wish to say something?

                STATEMENT OF SENATOR CHRISTOPHER S. BOND

    Senator Bond. Thank you very much, Mr. Chairman. Yes, on 
this subject I do have a lot to say. But I appreciate your 
holding the hearing and I welcome good friends, the Secretary, 
the Admiral, and the General. This is very important. I will 
ask some questions and, Admiral Roughead, you know where I'm 
coming from. In the Navy Posture Review, you stated:

    Navy and Marine Corps carrier-based F/A-18 aircraft are 
providing precision strike in support of the forces on the 
ground in Iraq and Afghanistan. The F/A-18E/F is the aviation 
backbone of our Navy's ability to project power ashore without 
bases that infringe on a foreign nation's sovereign territory. 
At the rate we are operating these aircraft, the number of our 
carrier-capable strike fighters will decrease between 2016 and 
2020, which will affect our air wing capacity and 
effectiveness.

    Admiral, I couldn't agree with you more, which is why I'm 
baffled and concerned and stunned about the budget 
recommendation to underfund the Super Hornet. The inventory of 
strike fighters currently falls short of the number that we 
have heard you say in the past is required to support fully the 
requirement of the Navy air wings and the Marine Corps air 
wings. In March of this year it was projected, if no action is 
taken, the Navy strike fighter shortfall will increase to 243 
aircraft in the next decade.
    But instead of dealing with that, we saw a recommendation 
for $4.4 billion in the long delayed, overbudget, and so far 
unavailable F-35 Joint Strike Fighter, the JSF, which at best, 
as the cost continues to escalate past $150 million, you could 
buy three F/A-18s for every one F-35 or JSF, save hundreds of 
millions of dollars, and get a multiyear which would bring the 
price down.
    We have seen that in the past, that we can't afford to make 
these sacrifices and short fund the operations that we know are 
needed. So I will be asking questions about that, and I thank 
you, Mr. Chairman.
    Chairman Inouye. I thank you, sir.
    Now may I call upon the Secretary.

                       STATEMENT OF RAYMOND MABUS

    Mr. Mabus. Mr. Chairman, my distinguished home State 
Senator, Senator Cochran, and members of the subcommittee: It's 
an honor to be here before you with Admiral Roughead and 
General Conway on behalf of our sailors, marines, civilians, 
and their families.
    Two weeks ago, 2 weeks ago today, I assumed the 
responsibilities as Secretary of the Navy. In this very short 
period of time, it's been my privilege to gain first-hand 
insight into our Nation's exceptional Navy and Marine Corps. 
This naval force serves today around the world, providing a 
wide range of missions in support of our Nation's interests.
    I'm here today to discuss with you, as the chairman pointed 
out, the fiscal year 2010 budget, the various missions of the 
Navy and Marine Corps, and some priorities of the Department. 
The Department's fiscal year 2010 budget reflects commitment to 
our people, shaping our force, providing adequate 
infrastructure, and sustaining and developing the right 
capabilities for the future. The ongoing Quadrennial Defense 
Review will also aid in shaping the Department's contribution 
to the national effort in the future.
    As I have taken on these new duties, my first priority is 
to ensure that we take care of our people--sailors, marines, 
civilians, and their families. Thousands of brave marines and 
sailors are currently engaged in Iraq and Afghanistan. 
Thousands more carry out other hazardous duties around the 
globe. These inspirational Americans volunteered to serve and 
they are protecting us and our way of life with unwavering 
commitment. We must show them the same level of commitment when 
providing for their health and welfare and that of their 
families.
    Last week I made a visit to the National Naval Medical 
Center in Bethesda and visited with our wounded. It was both a 
humbling and inspirational experience. It reinforced the 
enduring commitment we owe them in terms of treatment, 
transition, and support. Programs such as the Marine Corps 
Wounded Warrior Regiment, the Navy's Safe Harbor Program, 
advances in treatment of traumatic brain injuries, and programs 
that offer training and support in stress control must continue 
to be our priorities.
    Today our sailors and marines are serving and responding to 
a wide variety of missions, from combat operations to 
humanitarian assistance and maritime interdiction. The Navy has 
13,000 sailors ashore and 9,500 sailors at sea in Central 
Command's area of responsibility. More than 25,000 marines are 
deployed in Iraq and Afghanistan. Our civilian force is also 
heavily engaged in supporting these operational efforts.
    We have to ensure that the Department of the Navy will 
continue to meet these missions while investing to provide the 
right naval force for future challenges.
    Real acquisition reform too has to be a priority. The 
Department of the Navy has begun to implement the Weapons 
Systems Acquisition Reform Act and is ready to use this act and 
other tools to try to ensure that we get the right capabilities 
on time and at an affordable cost.

                           PREPARED STATEMENT

    I look forward to working together with you in our shared 
commitment to our Nation and the marines, the sailors, the 
civilians, and their families. On behalf of all of them, thank 
you for your commitment and your support, and I look forward to 
your questions.
    Senator Durbin. Thank you very much, Mr. Secretary.
    [The statement follows:]
                    Prepared Statement of Ray Mabus
    Chairman Inouye, Senator Cochran, and Members of the Committee, 
thank you for the opportunity to appear before you today as the 75th 
Secretary of the Navy. It is my great honor to serve with and represent 
the over 800,000 men and women of the United States Navy and Marine 
Corps--active, reserve, and civilian and their families. I am committed 
to ensuring that the Naval Force remains the preeminent sea power, 
ready to meet both current and future challenges.
    I assumed my duties as Secretary of the Navy very recently. So 
please allow me to begin by expressing my gratitude to the members of 
the Senate for the trust that has been placed in me. I am humbled by 
and proud of the responsibility of representing the wonderful men and 
women of our Navy and Marine Corps.
    Our enduring seapower has been essential to furthering America's 
interests worldwide. Its importance cannot be overstated, over 70 
percent of the planet is covered by water, 80 percent of the world's 
inhabitants live near the oceans, and 90 percent of global commerce is 
transported by sea. By maintaining U.S. maritime dominance, our Sailors 
and Marines promote security, stability, and trust around the world. 
Together, we provide a persistent forward presence, power projection 
abroad, and protection of the world's sea lanes. Our Sailors and 
Marines, in cooperation with our foreign partners and allies, continue 
to provide training, deliver humanitarian aid, disaster relief and 
other assistance throughout the globe.
    Our naval forces are uniquely postured to deter aggression and 
prevent escalations. Should deterrence fail, we stand ready to fight 
America's wars and defeat our adversaries. In times of crisis, Navy and 
Marine Corps units are often already on the scene or the first U.S. 
assets to arrive in force. And they accomplish this all as a seaborne 
force with a minimum footprint.
    To ensure and sustain an effective Navy and Marine Corps in an 
increasingly complex security environment, we must emphasize and 
promote a number of essential priorities.
    First, we must ensure the proper care for our forces and their 
families. America's greatest military assets are the dedicated men and 
women who wear the uniform. Thousands of brave Sailors and Marines are 
currently engaged in Iraq and Afghanistan; thousands more carry out 
hazardous duties around the globe. Every one of these incredible 
Americans volunteered to serve, and they are protecting us and our way 
of life with unwavering commitment. As we drawdown in Iraq and increase 
our strength in Afghanistan, they once again stand ready to answer our 
Nation's call. We must show them the same level of commitment when 
providing for their health and welfare and that of their families.
    Second, we must ensure that the Department of the Navy continues to 
meet our many missions of today, while preparing for the unknowable but 
inevitably complex challenges of tomorrow.
    Third, we must continue to balance the Department of the Navy's 
programs, choosing to maintain or establish only those that are 
achievable, affordable, and responsive to our Nation's needs. We are 
committed to refining fiscal and budgetary discipline, tackling waste 
and cost overruns, and building our acquisition workforce. I look 
forward to working with you to make sure that the Department of the 
Navy does not shortchange our Sailors, Marines or our taxpayers.
        take care of our sailors and marines and their families
    The Department continues to shape the force to balance today's 
missions and to provide flexibility for the future. The Marine Corps 
has accomplished its goal of growing the force to 202,000 Marines. This 
will help to provide our Marines greater dwell time and will provide 
the opportunity to address other training and missions that have not 
been accomplished in our recent history. The Navy force has stabilized. 
Both the Navy and Marine Corps are meeting their recruiting goals both 
in numbers and quality. Our reserves continue to play a key role as 
part of the Total Force and our civilians are a bedrock providing 
support around the globe to our warfighters and to our naval 
capabilities. Together, we thank you for your support in sustaining the 
people who stand in our ranks--military and civilian.
    We must support and strive to find ways to improve the initiatives 
that provide for their physical and mental welfare. The following 
programs exemplify some of the actions we are taking.
Wounded Warrior Medical Care
    We as a Nation have no higher obligation than to care for our 
wounded heroes who have sacrificed so much to serve our Nation. We have 
a solemn duty to ensure that when our forces go into harm's way, there 
is an excellent, comprehensive and sustainable plan for the care of our 
wounded, ill, or injured. The budget request reflects the Department of 
the Navy's commitment to this highest priority, providing exceptional, 
individually tailored assistance to our wounded warriors, with a 
comprehensive approach designed to optimize their recovery, 
rehabilitation, and reintegration. The Navy Safe Harbor Program and the 
Marine Corps Wounded Warrior Regiment extend this assistance to the 
wounded, ill, and injured warriors and their families. The Navy 
Department is also collaborating with the Department of Defense (DOD) 
and the Department of Veterans Affairs (VA) to foster continuity of 
care across all systems and facilitate efficient and effective 
transitions.
Traumatic Brain Injury
    Traumatic Brain Injury is the defining wound of Operation Iraqi 
Freedom. The National Naval Medical Center Bethesda has a new state-of-
the-art Unit to treat Traumatic Brain Injury. I recently had the 
opportunity to visit this unit and was deeply impressed both by the 
staff and the facilities. This clinic provides unsurpassed inpatient 
care for polytrauma patients with TBI, serving all blast-exposed or 
head-injured casualties medically evacuated from theater. The medical 
professionals are highly trained and actively manage symptomatic 
patients and evaluate complex cases to fashion appropriate, individual 
treatment and rehabilitation plans.
    To increase TBI detection during deployments, the Department of the 
Navy has implemented a strategy of lowering the index of suspicion for 
TBI symptoms and improving screening, detection, and treatment 
coordination between line and medical leaders.
    The Department of the Navy has also expanded TBI research. Navy 
Medical Research Command is using new techniques to identify 
transmissibility of blast-wave energy into the brain, focusing on the 
nexus between the blast-wave energy transmission and the resulting 
brain pathology.
Psychological Health
    To address Post Traumatic Stress Disorder (PTSD) and other 
psychological conditions that effect more and more of our force, the 
Navy and the Marine Corps continue to improve their Operational Stress 
Control (OSC) programs. This comprehensive approach seeks to not only 
promote psychological resilience, but also a culture of psychological 
health among Sailors and Marines and their families. I am committed to 
removing any stigma associated with seeking help for mental health. To 
address this, the Bureau of Medicine and Surgery has established a 
centralized and comprehensive OSC program to indoctrinate psychological 
health-stigma reduction into the broader Navy-Marine Corps culture. 
This includes training and tools that line leadership can use from the 
newest accessions to flag and general officers. OSC is targeting 
perceptions within individuals and command leadership, as well as 
working to help care-givers overcome barriers to psychological health 
care.
    Navy Medicine has established 17 Deployment Health Clinics as 
portals of care for service members, staffed with primary-care medical 
and psychological health providers who support early recognition and 
treatment of deployment-related psychological health issues within the 
primary care setting. These examples are not all inclusive. Thank you 
for your continued support of these programs that are so vital to the 
overall strength of the Department.
Housing and Child Care
    The world's finest naval force deserves the world's finest family 
support programs, including community and health care services and 
access to quality, affordable child care. The budget request 
demonstrates a commitment to our Navy and Marine Corps families by 
investing in family programs, housing, and infrastructure.
                     meeting the missions of today
    While naval forces are conducting combat and combat-support 
missions in Iraq and Afghanistan, the Navy and the Marine Corps also 
stand ready to answer our Nation's call across the full spectrum of 
military operations. Despite a high operational tempo, our naval forces 
remain resilient and motivated, and they are performing superbly around 
the globe. We will work to continue their proud tradition of readiness 
and to ensure that they are fully trained and equipped for their 
assigned missions.
    Today our Marines and Sailors are undertaking a myriad of missions, 
from combat operations in the mountains of Afghanistan, to humanitarian 
assistance in Africa. The Navy has over 9,900 Individual Augmentees and 
more then 6,600 reservists deployed on the ground around the world in 
support of Overseas Contingency Operations. Nearly half of the combat 
air missions over Afghanistan are flown by naval air forces. There are 
283 active ships in service--76 percent of these ships, including four 
aircraft carriers and two large-deck amphibious ships, are underway. 
Over 50 percent of our attack submarines are underway, with nearly 
forty percent of our submarine force on deployment.
    More than 25,000 Marines are deployed in support of Operations 
IRAQI FREEDOM (OIF) and ENDURING FREEDOM (OEF). The large majority are 
in Iraq; however, the process has begun drawing down those forces and 
increasing the number of Marines in Afghanistan. Nearly 5,700 Marines 
are deployed to various regions throughout Afghanistan--either as part 
of the Special Purpose Marine Air Ground Task Force, Afghanistan, or in 
the 2d Marine Expeditionary Brigade, Marine Special Operations 
Companies, Embedded Training Teams, or Individual Augments.
    One of the most significant readiness challenges facing the Navy 
and the Marine Corps is balancing their current obligations to overseas 
contingency operations with other anticipated readiness requirements. 
To address these concerns, the Department of the Navy is working to 
expand our engagements with other nations in order to meet our common 
challenges.
    Fostering trust and cooperative relationships with foreign partners 
is critical to national security, but trust cannot be simply summoned 
in moments of crisis. It must be developed over time. To revitalize 
existing relationships and create new ones, we need to show long-term 
commitment.
    Our Naval Forces contribute significantly to cooperative security 
operations through forward presence and sustained, routine engagement 
with foreign partners and allies. We are committed to sustaining this 
core capability of the Maritime Strategy and ask for your continued 
support.
    Additionally, in order to meet our readiness challenges, the 
Department is working to develop greater energy independence and 
conservation ashore and afloat. Energy costs siphon resources away from 
vital areas. The potential for disruption and the possible 
vulnerability of energy supplies could threaten our ability to perform 
on the battlefield.
    The Department of the Navy has made good progress in increasing 
energy efficiency, reducing energy consumption, and capitalizing on 
renewable energy sources. We are the Department of Defense lead for 
solar, geothermal, and ocean energy, and today, 17 percent of our total 
energy requirements are provided through alternative or renewable 
sources.
    The Navy and Marine Corps can, and should, do more. As we continue 
to increase conservation and develop alternative energy options, the 
Department of the Navy can mitigate the impact of energy volatility, 
use energy as a strategic resource for operational advantage, and 
become a leader in environmental stewardship.
          building and balancing the naval force of the future
    The Department of the Navy will continue to meet America's current 
commitments worldwide, while simultaneously developing a force capable 
of meeting the challenges of the future. We will focus on irregular 
warfare and hybrid campaigns, while continuing those more conventional 
capabilities where our technology gives us a strategic advantage. The 
fiscal year 2010 budget request puts us on the path towards the goal of 
balancing near-term requirements with those of the next decade and 
beyond.
    The budget request provides balanced support for deployed and non-
deployed steaming days, associated flight hours, and related ship and 
aircraft maintenance. It works to bolster our naval forces' 
independence and flexibility by building on their unique ability to 
operate at great distance with long staying power. This budget would 
also fund the critical ``eyes and ears'' of our forces with increases 
to Intelligence, Reconnaissance, and Surveillance programs and Command, 
Control, Communications, Computers programs. The budget shows 
commitment to maintain key capabilities such as power projection, sea 
control, interdiction, deterrence, and humanitarian assistance.
    In an effort to continue to shape our future contributions to the 
joint force and our country, I look forward to engaging in the 
Quadrennial Defense Review, which strives to define the best, most 
affordable collective military force to defend our national interests 
at home and abroad.
    Changes to how equipment is acquired are essential to building our 
forces for the future. We are committed to pursuing acquisition reform 
and cost control measures and look forward to implementing 
Congressional acquisition reform, as well as working with you to 
continue to find ways to produce the best results out of our 
acquisition process.
    Our Sailors and Marines are a superb fighting force which can be 
lethal or compassionate, patient or quick, as situations dictate. They 
are well-trained, proud warriors that continue to deserve the 
appreciation of a grateful Nation. As their new Secretary, I look 
forward to working together with you to continue to enhance a 
relationship built on trust and commitment to our Nation, and the 
Sailors, Marines, civilians and their families who sacrifice for its 
cause.
    On behalf of the more then 800,000 dedicated men and women of the 
United States Navy and Marine Corps, I express our grateful 
appreciation to Congress for its continuing and unflagging support.

    Senator Durbin. May I call upon the Chief of Naval 
Operations, Admiral Roughead.
STATEMENT OF ADMIRAL GARY ROUGHEAD, CHIEF OF NAVAL 
            OPERATIONS, DEPARTMENT OF THE NAVY
    Admiral Roughead. Thank you, Mr. Chairman. Chairman Inouye, 
Senator Cochran, distinguished members of the subcommittee: On 
behalf of the 600,000 sailors, Navy civilians, and their 
families, thank you for your continued support and for the 
opportunity and the honor to represent our Navy alongside 
Secretary Mabus and General Conway.
    Today we have 40,000 sailors on station making a difference 
around the world. We are more versatile and agile than we have 
ever been, with approximately 13,000 sailors on the ground in 
Central Command, to include SEALs, explosive ordnance disposal 
technicians, Seebees, and many individual augmentees.
    The 2010 budget balances the needs of those sailors around 
the world, our current operations, and the needs for our future 
fleet, in accordance with our maritime strategy. However, we 
are progressing at an adjusted pace. Our risk is moderate 
today, trending toward significant because of challenges posed 
by our fleet capacity, operational requirements, manpower, 
maintenance, and infrastructure costs. Our Navy is operating at 
its highest levels in recent years and, while we remain ready 
and capable, we are stretched in our ability to meet additional 
operational demands while balancing our obligation to our 
people and to building the future fleet.
    We require additional capacity to meet combatant commander 
demands and to maintain our operational tempo. A fleet of at 
least 313 ships is needed, along with the capabilities that 
include more ballistic missile defense, irregular warfare, and 
open ocean anti-submarine warfare capabilities. These needs 
drove the decision to truncate the DDG 1000 and restart DDG 51 
with its blue water anti-submarine warfare capability and 
integrated air and missile defense, and also to procure three 
littoral combat ships this year.
    As I articulated last year, our Navy must have a stable 
shipbuilding program that provides the right capability and 
capacity while preserving our Nation's industrial base. The 
balance among capability, capacity, affordability, and 
executability in our procurement plans, however, is not 
optimal. I continue to focus on the control of requirements, 
integration of total ownership costs into our decisionmaking, 
maturing new ship designs before production, and pursuing 
proven designs, the use of common hull forms and components, 
and longer production runs to control costs as we build the 
future fleet.
    To best maintain the ships we have, we've reinstituted an 
engineering-based approach to maintenance for our surface ships 
through the surface ship life cycle management activity. 
Meanwhile, our board of inspection and survey teams will 
continue to use our internal INSURV process to conduct rigorous 
self-assessments on the condition of our ships and submarines.
    All that we do is made possible by our dedicated sailors 
and Navy civilians. I am committed to providing the necessary 
resources and shaping our personnel policies to ensure our 
people and their families are properly supported. We are 
stabilizing our force this year by seeking authorization and 
funding for an end strength of 328,800 sailors, including 
overseas contingency operations funding for 4,400 individual 
augmentees who are in today's fight.
    We continue to provide a continuum of care that governs all 
aspects of individual medical, physical, psychological, and 
family readiness to our returning warriors and sailors. In 2008 
we added 170 care managers to our military treatment facilities 
and ambulatory care clinics for our 1,800 wounded warriors and 
their families. In addition, we continue to move mental health 
providers closer to the battlefield and are actively working 
against the stigma of post traumatic stress disorder (PTSD).
    Achieving the right balance within and across my three 
priorities of the future fleet, current operations, and people 
is critical today and for the future. I ask Congress to fully 
support our 2010 budget and identified priorities.

                           PREPARED STATEMENT

    Thank you for all you do and your continued support and 
commitment to our Navy. I look forward to your questions today. 
Thank you very much.
    Chairman Inouye. Thank you, Admiral.
    [The statement follows:]
              Prepared Statement of Admiral Gary Roughead
    Chairman Inouye, Senator Cochran, and members of the Committee, it 
is an honor to appear before you today representing the more than 
600,000 Sailors and civilians of the U.S. Navy. We are making a 
difference around the world. We are globally deployed, persistently 
forward, and actively engaged. I greatly appreciate your continued 
support as our Navy defends our Nation and our national interests.
    Last year, I came before you to lay out my priorities for our Navy, 
which were to build tomorrow's Navy, remain ready to fight today, and 
develop and support our Sailors, Navy civilians, and families. We made 
great progress on those priorities this past year. Sustaining our 
Navy's maritime dominance requires the right balance of capability and 
capacity for the challenges of today and those we are likely to face in 
the future. It demands our Navy remain agile and ready.
    Our Maritime Strategy, issued by the Navy, Marine Corps, and Coast 
Guard over a year ago, continues to guide our efforts. The strategy 
recognizes the importance of naval partnerships, elevates the 
importance of preventing war to the ability to fight and win, and 
identifies six core capabilities: forward presence, deterrence, sea 
control, power projection, maritime security, and humanitarian 
assistance and disaster response (HA/DR). We have increased the breadth 
and depth of our global maritime partnerships. We have engaged, more 
than ever, in stability operations and theater security cooperation. 
Moreover, we are performing each of our six core capabilities as part 
of the joint force in Operation Enduring Freedom (OEF) and Operation 
Iraqi Freedom (OIF), and across the globe.
    We continue to build tomorrow's Navy. As I articulated last year, 
our Navy needs a stable shipbuilding program that provides the right 
capability and capacity for our Fleet while preserving our Nation's 
industrial base. Since I came before you last year, 10 new ships have 
joined our Fleet. Among them, is U.S.S. Freedom (LCS 1), an important 
addition that addresses critical warfighting gaps. We have increased 
oversight and are working closely with industry to lower LCS costs and 
meet program milestones. I am pleased to announce we have awarded fixed 
price, incentive fee contracts for the third and fourth LCS ship. We 
are aggressively working to ensure LCS is a successful and affordable 
program. The introduction of U.S.S. George W. Bush (CVN 77) earlier 
this year also re-affirmed the strength and power of the American 
shipbuilder and our industrial base. I remain committed to a carrier 
force of 11 for the next three decades. In our drive to build the 
future Fleet, I continue to demand that we accurately articulate 
requirements and remain disciplined in our processes. As I testified 
last year, effective procurement requires affordable and realistic 
programs to deliver a balanced future Fleet.
    We reached several key milestones in Navy aviation over the last 
year. Recently, the first P-8A Poseidon aircraft successfully completed 
its first flight. The P-8A will replace our aging P-3 Orion maritime 
patrol aircraft, which we have adapted to the fight we are in by 
providing critical Intelligence, Surveillance, and Reconnaissance 
capabilities to current operations in Iraq and Afghanistan. We also 
issued our first contract for the Broad Area Maritime Surveillance 
aircraft, which will provide capability to meet the challenges we are 
likely to face in the future. As I identified last year, we continue to 
expect a decrease in the number of our strike fighters between 2016 and 
2020 which will affect the capacity and effectiveness of our carrier 
air wings. The timely delivery of the F-35 Joint Strike Fighter is 
critical to meeting our strike fighter needs.
    While we have been building our Navy for tomorrow, we have also 
been focused intensely on today's fight. Our Sailors are fully engaged 
on the ground, in the air, and at sea in support of operations in Iraq 
and Afghanistan. On the ground, our Navy has more than 13,000 active 
and reserve Sailors in Central Command supporting Navy, Joint Force, 
and Combatant Commander requirements. Navy Commanders are leading six 
of the 12 U.S.-led Provincial Reconstruction Teams in Afghanistan. Our 
elite teams of Navy SEALs are heavily engaged in combat operations. 
Navy Explosive Ordnance Disposal platoons are defusing Improvised 
Explosive Devices (IEDs) and landmines. Our SEABEE construction 
battalions are rebuilding schools and restoring critical 
infrastructure. Navy sealift is delivering the majority of heavy war 
equipment to Iraq, while Navy logisticians are ensuring materiel 
arrives on time. Our Navy doctors are providing medical assistance in 
the field and at forward operating bases. In addition, I am thankful 
for the support of Congress for Navy Individual Augmentees who are 
providing combat support and combat service support for Army and Marine 
Corps personnel in Iraq and Afghanistan. On the water, Navy 
Expeditionary Combat Command Riverine forces are working closely with 
the Iraqi Navy to safeguard Iraqi infrastructure and provide maritime 
security in key waterways. Navy forces are also intercepting smugglers 
and insurgents and protecting Iraqi and partner nation oil and gas 
infrastructure. We know the sea lanes must remain open for the transit 
of oil, the lifeblood of the Iraqi economy, and our ships and Sailors 
are making that happen.
    Beyond the fight in Iraq and Afghanistan, however, we remain an 
expeditionary force, engaged around the world. As the dramatic capture 
of Maersk Alabama and subsequent rescue of Captain Richard Phillips 
demonstrated, we do not have the luxury to be otherwise. We are engaged 
in missions from the Horn of Africa, to the Caribbean and the 
Philippines. Our operations range from tracking attempted ballistic 
missile launches from North Korea, to interacting with international 
partners at sea, to providing medical and humanitarian assistance from 
the sea. Our Sailors continue to be ambassadors for our Nation. This 
past October marked the first visit ever of a U.S. nuclear-powered 
ship, U.S.S. Theodore Roosevelt, to South Africa, the first year Navy 
ships were engaged in operations on both the East and West Coasts of 
Africa, and the first visit ever of a U.S. CNO to South Africa. 
Additionally, my recent visit to China continued a dialogue with the 
PLA(N) that will enhance our military-to-military relationships. In 
total, we have more than 50,000 Sailors deployed and more than 10,500 
in direct support of global Requests for Forces and Joint manning 
requirements.
    My commitment to developing and supporting our Sailors and Navy 
civilians in their global operations endures. We have met overall 
officer and enlisted (active and reserve) recruiting goals for 2008 and 
are on track for success in 2009. We are also improving the diversity 
of our Navy through significant outreach and mentorship. We continue to 
provide, support, and encourage training and education for our 
warfighters in the form of Joint Professional Military Education, 
Language Regional Expertise and Cultural programs, and top-notch 
technical schoolhouses. In addition, to help our Sailors balance 
between their service to the Nation and their lives at home and with 
their families, we have expanded access to childcare, and improved 
housing for families and bachelors through Public Private Ventures 
(PPV). We also continue to address the physical and mental needs of our 
Wounded and Returning Warriors and their families, as well as the needs 
of all our Sailors who deploy. I appreciate the support of Congress for 
these incredible men and women.
    My focus as CNO is to ensure we are properly balanced to answer the 
call now and in the decades to come. As I indicated last year, the 
balance among capability, capacity, affordability, and executability in 
our procurement plans is not optimal. This imbalance has increased our 
warfighting, personnel, and force structure risk in the future. Our 
risk is moderate today trending toward significant in the future 
because of challenges associated with Fleet capacity, increasing 
operational requirements, and growing manpower, maintenance, and 
infrastructure costs.
    We remain a ready and capable Navy today, but the stress on our 
platforms and equipment is increasing. We can meet operational demands 
today but we are stretched in our ability to meet additional 
operational demands while taking care of our people, conducting 
essential platform maintenance to ensure our Fleet reaches its full 
service life, and modernizing and procuring the Navy for tomorrow. Our 
fiscal year 2010 budget aligns with the path our Maritime Strategy has 
set; however, we are progressing at an adjusted pace. Our budget 
increases our baseline funding, yet our Navy continues to rely on 
contingency funding to meet current operational requirements and remain 
the Nation's strategic reserve across the entire spectrum of conflict.
    Achieving the right balance within and across my priorities will be 
critical as we meet the challenges of today and prepare for those of 
tomorrow. I request your full support of our fiscal year 2010 budget 
request and its associated capabilities, readiness, and personnel 
initiatives highlighted below.
                         build tomorrow's navy
    To support our Nation's global interests and responsibilities, our 
Navy must have the right balance of capability and capacity, across 
multiple regions of the world, to prevent and win in conflict today 
while providing a hedge against the challenges we are most likely to 
face tomorrow. You have provided us with a Fleet that possesses the 
capabilities Combatant Commanders demand. Our budget request for fiscal 
year 2010 increases the capacity of our Fleet to respond to those 
demands.
    We are addressing our aviation capability and capacity by investing 
in both new and proven technologies. Our E/A-18G aircraft utilize the 
same airframe as the F/A-18F, which improves construction costs and 
efficiencies, but it is equipped for airborne electronic attack, rather 
than strike missions. The E/A-18G will complete operational testing 
this year and eventually replace our existing EA-6B Fleet. Our budget 
includes procurement and RDT&E funding for this aircraft and for our P-
8A Multi-mission Maritime Aircraft, which will replace our aging P-3 
Orion Fleet. In addition to manned aviation, our Navy is investing in 
unmanned aircraft, such as Firescout, which is more affordable, can be 
built in larger numbers, and can do the missions needed in the small 
wars and counterinsurgencies we are likely to face in the near to mid-
term. We are also investing in the Broad Area Maritime Surveillance 
System (BAMS), which is the only unmanned aircraft that can provide 
long-range intelligence, surveillance, and reconnaissance in the 
maritime environment. Our aviation programs increased by more than $4.2 
billion from fiscal year 2009 to fiscal year 2010 to achieve the right 
balance of capability and capacity.
    Our Navy's operational tempo over the past year reaffirms our need 
for a minimum of 313 ships. The mix of those ships has evolved in 
response to the changing security environment and our investments in 
fiscal year 2010 support growing Combatant Commander demands for 
ballistic missile defense, irregular warfare, and open ocean anti-
submarine warfare. We are also addressing demands for high speed and 
intra-theater lift, as well as a variety of missions in the littoral. 
Specifically, our fiscal year 2010 budget funds eight ships: the 12th 
Virginia class submarine, three Littoral Combat Ships (LCS), two T-AKE 
Dry Cargo and Ammunition Ships, a second Joint High Speed Vessel (JHSV) 
for the Navy, and an advanced Arleigh Burke Class Destroyer that will 
restart the DDG 51 program. The budget also funds the balance of LPD 26 
and DDG 1002 construction, and provides third-year funding for CVN 78.
    American shipbuilding is not broken, but improvements are needed. 
Since becoming CNO, I have focused on our need to address and control 
procurement and total ownership costs. Shipbuilding costs have been 
increasing as a result of reductions in number of ships procured, 
overtime costs, and challenges associated with the introduction of new 
technologies and sophisticated systems. We are addressing these costs 
by maturing new ship designs to adequate levels before commencing 
production, and by pursuing common hull forms, common components, 
proven designs, and repeat builds of ships and aircraft to permit 
longer production runs and lower construction costs. Additionally, our 
shipbuilding plans incorporate open architecture for hardware and 
software systems and increasingly use system modularity. These 
initiatives reduce costs from inception to decommissioning and allow 
ease of modernization in response to evolving threats.
    In 2008, we introduced a more comprehensive acquisition governance 
process to better link requirements and costs throughout the 
procurement process. I will work closely with the Secretary of the Navy 
to grow our acquisition workforce and enhance our ability to properly 
staff and manage our acquisition programs. I also enthusiastically 
support reviewing the overall acquisition and procurement processes to 
determine how the Services can best address costs and accountability.
    A solid and viable industrial base is essential to national 
security and our future Navy, and is a significant contributor to 
economic prosperity. Shipbuilding alone is a capital investment that 
directly supports more than 97,000 American jobs and indirectly 
supports thousands more in almost every U.S. State. Similarly, aircraft 
manufacturing provides extraordinary and unique employment 
opportunities for American workers. Like the manufacturing base in 
other sectors of our economy, the shipbuilding and aircraft industries 
depend upon stable and predictable workloads to stabilize their 
workforce and maximize efficiencies. Level loading of ship and aircraft 
procurements helps retain critical skills and promotes a healthy U.S. 
shipbuilding and aircraft industrial base.
    I seek your support for the following initiatives and programs:
Aircraft Carrier Force Structure
    The Navy remains committed to a force of 11 carriers for the next 
three decades that can respond to national crises and provide options 
when access is not assured. Our carrier force provides the Nation the 
unique ability to overcome political and geographic barriers to access 
critical areas and project power ashore without the need for host 
nation ports or airfields.
    The 11-carrier requirement is based on a combined need for world-
wide presence requirements, surge availability, training and exercises, 
and maintenance. During the period between the planned 2012 
inactivation of U.S.S. Enterprise (CVN 65) and the 2015 delivery of 
Gerald R. Ford (CVN 78), however, legislative relief is needed to 
temporarily reduce the operational carrier force to 10. Extending 
Enterprise beyond 2012 involves significant technical risk, challenges 
manpower and the industrial base, and requires expenditures in excess 
of $2.8 billion with a minimal operational return on this significant 
investment. Extending Enterprise would result in only a minor gain in 
carrier operational availability and adversely impact carrier 
maintenance periods and operational availability of the force in the 
future. The temporary reduction to 10 carriers can be mitigated by 
adjustments to deployments and maintenance availabilities. I request 
your approval of this legislative proposal.
F/A-18 and Joint Strike Fighter (JSF)
    Navy and Marine Corps carrier-based F/A-18 aircraft are providing 
precision strike in support of forces on the ground in Iraq and 
Afghanistan. The F/A-18 E/F is the aviation backbone of our Navy's 
ability to project power ashore without bases that infringe on a 
foreign nation's sovereign territory. At the rate we are operating 
these aircraft, the number of our carrier-capable strike fighters will 
decrease between 2016 and 2020, which will affect our air wing capacity 
and effectiveness. The F-35 Joint Strike Fighter (JSF) is essential to 
addressing the Navy's strike fighter needs. Stable funding of JSF will 
facilitate the on-time and within budget delivery of the aircraft to 
our Fleet. I also appreciate the support of Congress for our fiscal 
year 10 request that continues to fund F/A-18 E/F production while 
transitioning to JSF.
Littoral Combat Ship (LCS)
    LCS is a fast, agile, and networked surface combatant with 
capabilities optimized to support naval and joint force operations in 
littoral regions. LCS fills warfighting gaps in support of maintaining 
dominance in the littorals and strategic choke points around the world. 
It will operate with focused-mission packages, which will include 
manned and unmanned vehicles, to execute a variety of missions, 
primarily anti-submarine warfare (ASW), anti-surface warfare (SUW), and 
mine countermeasures (MCM).
    LCS' inherent characteristics of speed, agility, shallow draft, 
payload capacity, reconfigurable mission spaces, and air/water craft 
capabilities, combined with its core Command, Control, Communications, 
Computers and Intelligence, sensors, and weapons systems, make it an 
ideal platform for engaging in irregular warfare and maritime security 
operations, to include counter-piracy missions.
    I am pleased to report that U.S.S. Freedom (LCS 1) is at sea and 
Independence (LCS 2) will deliver later this year. We have issued 
fixed-price incentive fee contracts for construction of the next two 
LCS ships based on a limited competition between the current LCS 
seaframe prime contractors.
    The Navy is aggressively pursuing cost reduction measures to ensure 
delivery of future ships on a schedule that affordably paces evolving 
threats. We are applying lessons learned from the construction and test 
and evaluation periods of the current ships, and we are matching 
required capabilities to a review of warfighting requirements. I am 
committed to procuring 55 LCS, however legislative relief may be 
required regarding the LCS cost-cap until manufacturing efficiencies 
can be achieved. Our fiscal year 2010 budget includes funding for three 
additional LCS seaframes.
DDG 1000/DDG 51
    Ballistic missile capability is rapidly proliferating and, since 
1990, the pace of that proliferation has increased markedly. Non-state 
actors are also acquiring advanced weapons, as demonstrated in 2006 
when Hezbollah launched a sophisticated anti-ship missile against an 
Israeli ship. In addition, while DDG 1000 has been optimized for 
littoral anti-submarine warfare, the number of capable submarines 
worldwide does not allow us to diminish our deep-water capabilities. 
The world has changed significantly since we began the march to DDG 
1000 in the early 1990's and, today, Combatant Commander demands are 
for Ballistic Missile Defense, Integrated Air and Missile Defense, and 
Anti-Submarine Warfare.
    To align our surface combatant investment strategy to meet these 
demands, we are truncating the DDG 1000 program at three ships and 
appropriately restarting the DDG 51 production line. The technologies 
resident in the DDG 51 provide extended range air defense now, and when 
coupled with open architecture initiatives, will best bridge the 
transition to the enhanced ballistic missile defense and integrated air 
and missile defense capability envisioned in the next generation 
cruiser. In our revised plan, we are addressing the changing security 
environment and the dynamic capability requirements of the Fleet, while 
providing maximum stability for the industrial base.
    Our fiscal year 2010 budget requests $1.084 billion to provide the 
balance of incremental funding for the third ship of the DDG 1000 class 
authorized in 2009. In addition, $2.241 billion is requested to re-
start the DDG 51 program. The SWAP II Memorandum of Agreement (MOA) 
will align construction responsibilities to ensure shipyard workload 
stability, stabilize and minimize cost risk for the DDG 1000 program, 
and efficiently re-start DDG 51 construction. Research, development, 
test and evaluation efforts for the DDG 1000 program, will continue in 
order to deliver the necessary technology to complete the DDG 1000 
class ships and support the CVN 78 Class.
Ballistic Missile Defense
    The increasing development and proliferation of ballistic missiles 
threatens our homeland, our allies, and our military operations. 
Current trends indicate adversary ballistic missile systems are 
becoming more flexible, mobile, survivable, reliable, accurate, and 
possess greater range. Threats posed by ballistic missile delivery are 
likely to increase and become more complex over the next decade.
    Our Navy is on station today performing ballistic missile defense 
(BMD) as a core mission. Maritime BMD is a joint warfighting enabler. 
Aegis BMD contributes to homeland defense through long range 
surveillance and tracking and Aegis BMD ships can conduct organic 
midcourse engagements of short and medium range ballistic missiles in 
support of regional and theater defense. Our Navy and partner nation 
Aegis BMD capability, proven and deployed around the world, has an 
impressive record of success: 18 of 22 direct hits on target, of which 
3 of 3 were successful engagements within the earth's endo-atmosphere.
    Today, Navy Aegis BMD capability is currently installed on 18 
ships: three guided missile cruisers and 15 guided missile destroyers. 
In response to an urgent Combatant Commander demand, the Defense 
Department budget requests $200 million to fund conversion of six 
additional Aegis ships to provide BMD capability. Ultimately, our plan 
is to equip the entire Aegis Fleet with BMD capability, to provide 
Joint Commanders an in-stride BMD capability with regularly deploying 
surface combatants. While development and procurement funding is 
covered under the Missile Defense Agency budget, Navy has committed 
$14.5 million in fiscal year 2010 for operations and sustainment of 
Aegis BMD systems and missiles that have transferred to the Navy.
Modernizing Cruisers and Destroyers
    Our Cruiser and Destroyer modernization programs provide vital mid-
life upgrades to the combat systems and hull, mechanical, and 
engineering systems. These upgrades complement our engineered ship 
life-cycle maintenance efforts, which are necessary to ensure our ships 
maintain their full service life. Combat systems upgrades, in 
particular, reduce technology risk for future surface combatants and 
provide a rapid and affordable capability insertion process. 
Maintaining the stability of the Cruiser and Destroyer modernization 
programs will be critical to our future Navy capability and capacity. 
Our fiscal year 2010 budget includes funds to modernize two Cruisers 
and two Destroyers.
Joint High Speed Vessel (JHSV)
    Intra-theater lift is key to enabling the United States to rapidly 
project, maneuver, and sustain military forces in distant, anti-access 
or area-denial environments. The Joint High Speed Vessel (JHSV) program 
is an Army and Navy joint program to deliver a high-speed, shallow 
draft surface ship capable of rapid transport of medium payloads of 
cargo and personnel within a theater to austere ports without reliance 
on port infrastructure for load/offload. The detail design and lead 
ship construction contract was awarded to Austal USA on November 13, 
2008, and includes contract options for nine additional ships for the 
Army and Navy. Delivery of the first vessel will be to the Army and is 
expected in 2011. Our fiscal year 2010 budget includes $178 million for 
the construction of the Navy's second JHSV. Navy will oversee 
procurement of the second Army funded vessel.
LPD 17 Class Amphibious Warfare Ship
    The LPD 17 Class of amphibious warfare ships represents the Navy's 
commitment to a modern expeditionary power projection Fleet that will 
enable our naval force to operate across the spectrum of warfare. The 
class will have a 40-year expected service life and serve as the 
replacement for four classes of older ships: the LKA, LST, LSD 36, and 
the LPD 4. San Antonio Class ships will play a key role in supporting 
ongoing overseas operations by forwardly deploying Marines and their 
equipment to respond to global crises. U.S.S. Green Bay (LPD 20) was 
commissioned in January 2009 and U.S.S. New Orleans (LPD 18) deployed 
the same month. New York (LPD 21) is planned to deliver this fall. LPDs 
22-25 are in various stages of construction. Our fiscal year 2010 
budget requests $872 million for the balance of the funding for LPD 26, 
which was authorized in 2009. Further, we request $185 million of 
advance procurement for LPD 27 to leverage production efficiencies of 
the existing LPD 17 class production line. Amphibious lift will have my 
highest attention as we address it in the ongoing Quadrennial Defense 
Review.
P-3 Orion and P-8 Multi-mission Maritime Aircraft
    Your continued support of the P-3 and P-8A force remains essential. 
The legacy P-3 Orion, is providing critical intelligence, surveillance 
and reconnaissance (ISR) to the current fight and it is a key enabler 
in the execution of our Maritime Strategy. An airframe in very high 
demand, the P-3 supports the joint warfighter with time-critical ISR, 
contributes directly to our maritime domain awareness across the globe, 
and is our Nation's pre-eminent airborne deterrent to an increasing 
submarine threat. Thirty-nine P-3s were grounded in December 2007 due 
to airframe fatigue. I thank Congress for providing $289.3 million to 
our Navy in the fiscal year 2008 Supplemental to fund the initial phase 
of the recovery program.
    Boeing has resolved labor issues with their workforce and is 
implementing a recovery plan for the P-8A within fiscal resources that 
will restore the program schedule from delays caused by last year's 
strike.
    The P-8A Poseidon will start to fill the P-3 capability in 2013. I 
am pleased to report the program reached a critical milestone this 
April when the first P-8A test aircraft successfully completed its 
first flight. I request your support of our fiscal year 2010 budget 
request for six P-8A aircraft.
E-2D Advanced Hawkeye
    The E-2D Advanced Hawkeye aircraft replaces the E-2C Hawkeye 
aircraft. The aircraft's APY-9 radar is a two-generation leap in 
airborne surveillance radar capability, significantly improving 
detection and tracking of small targets in the overland and littoral 
environment when compared to the E-2C. The E-2D improves nearly every 
facet of tactical air operations, maintains open ocean capability, and 
adds overland and littoral surveillance to support Theater Air and 
Missile Defense capabilities against air threats in high clutter, 
electro-magnetic interference, and jamming environments. I ask Congress 
to support our fiscal year 2010 budget request for two E-2D Hawkeye 
aircraft.
Unmanned Aerial Systems
    We are investing in unmanned systems to enhance our capacity to 
meet increasing global demands for Intelligence, Surveillance and 
Reconnaissance (ISR) capability. The Broad Area Maritime Surveillance 
(BAMS) UAS enhances situational awareness of the operational 
environment and shortens the sensor-to-shooter kill chain by providing 
persistent, multiple-sensor ISR to Fleet commanders and coalition and 
joint forces. Our fiscal year 2010 budget requests funding for 
continued research and development of BAMS. We are also requesting 
funding for the procurement of five MQ-8 Vertical Takeoff and Landing 
Tactical UAVs (VTUAV). The MQ-8 supports LCS core mission areas of ASW, 
Mine Warfare, and SUW. It can operate from all air-capable ships and 
carry modular mission payloads to provide day and night real time 
reconnaissance, surveillance and target acquisition capabilities. VTUAV 
began operational testing this March aboard U.S.S. McInerny (FFG 8).
MH-60R/S Multi-Mission Helicopter
    The MH-60R multi-mission helicopter program will replace the 
surface combatant-based SH-60B and carrier-based SH-60F with a newly 
manufactured airframe and enhanced mission systems. The MH-60R provides 
forward-deployed capabilities, including Surface Warfare, and Anti-
Submarine Warfare, to defeat area-denial strategies, which will enhance 
the ability of the joint force to project and sustain power. MH-60R 
deployed for the first time in January 2009 with the U.S.S. John C. 
Stennis. Our fiscal year 2010 budget requests funding to procure 24 MH-
60R helicopters.
    The MH-60S will support deployed forces with combat logistics, 
search and rescue, air ambulance, vertical replenishment, anti-surface 
warfare, airborne mine counter-measures, and naval special warfare 
mission areas. Our fiscal year 2010 budget requests funding to procure 
18 MH-60S helicopters.
Virginia Class SSN
    The Virginia Class submarine is a multi-mission submarine that 
dominates in the littorals and open oceans. Now in its 10th year of 
construction, the Virginia program is demonstrating that this critical 
undersea capability can be delivered affordably and on time. We have 
aggressively reduced construction costs of the Virginia Class to $2 
billion per submarine, as measured in fiscal year 2005 dollars, through 
construction performance improvements, redesign for affordability, and 
a multi-year procurement contract, which provides an assured build rate 
for shipyards and vendors and offers incentives for cost, schedule, and 
capital expenditure for facility improvements. Not only are these 
submarines coming in within budget and ahead of schedule, their 
performance is exceeding expectations and continues to improve with 
each ship delivered. I consider Virginia Class cost reduction efforts a 
model for all our ships, submarines, and aircraft.
SSBN
    Our Navy supports the Nation's nuclear deterrence capability with a 
credible and survivable Fleet of 14 Ohio Class ballistic missile 
submarines (SSBN). Originally designed for a 30-year service life, this 
class will start retiring in 2027 after over 40 years of service life.
    As long as we live in a world with nuclear weapons, the United 
States will need a reliable and survivable sea-based strategic 
deterrent. Our fiscal year 2010 budget requests research and 
development funds for the Ohio Class Replacement, to enable the start 
of construction of the first ship in fiscal year 2019. The United 
States will achieve significant program benefits by aligning our 
efforts with those of the United Kingdom's Vanguard SSBN replacement 
program. The United States and United Kingdom are finalizing a cost 
sharing agreement.
Foreign Military Sales
    Our Navy also supports the development of partner capability and 
capacity through a robust Foreign Military Sales (FMS) program. FMS is 
an important aspect of security cooperation programs designed to 
improve interoperability, military-to-military relations, and global 
security. Navy uses the FMS program to help build partner nation 
maritime security capabilities through transfers of ships, weapon 
systems, communication equipment, and a variety of training programs. 
Sales and follow-on support opportunities may also result in production 
line efficiencies and economies of scale to help reduce USN costs. In 
the past year, Navy FMS has worked with over 147 nations and 
international organizations, coordinating 2 ship transfers and 25 ship 
transfer requests, providing military training to over 12,000 
international military members, with total foreign military sales of 
roughly $6.8 billion. Congressional support is key to the successful 
transfer of U.S. equipment to our partners. I thank you for your 
continued support in this area.
Next Generation Enterprise Network (NGEN)
    To pace the complex and adaptive techniques of potential 
adversaries, we need survivable and persistent network communications 
that enable secure and robust means to command and control our assets, 
and to use, manage, and exploit the information they provide. These 
functions come together in cyberspace, a communication and warfighting 
domain that includes fiber optic cables on the ocean floor, wireless 
networks, satellite communications, computer systems, databases, 
Internet, and most importantly, properly trained cyber personnel to 
execute cyberspace effects. Cyberspace presents enormous challenges and 
unprecedented opportunities to shape and control the battlespace. 
Recent activities, such as the cyber attacks on Georgia and Estonia 
last year, highlight the complex and dynamic nature of cyber threats.
    Our Navy has provided cyber capabilities to the joint force for 
more than 11 years and we continue to make security and operations in 
the cyberspace domain a warfighting priority. The challenge we face 
today is balancing our need to collect and share information with our 
need to protect against 21st century cyber threats. We are taking steps 
to effectively organize, man, train, and equip our Navy for cyber 
warfare, network operations, and information assurance. We are also 
working closely with Joint and interagency partners to develop 
offensive and defensive cyberspace capabilities, infrastructure, 
experience, and access, rather than developing independent, Navy-only 
capabilities.
    As we move from the Navy-Marine Corps Intranet (NMCI) to the Next 
Generation Enterprise Network (NGEN), the sophistication, speed, and 
persistence of cyber threats we observe today makes it imperative that 
we continually improve our network capabilities, improve our 
flexibility to adapt to changing environment, and maintain complete 
operational control of the network. NGEN Block 1 is the follow-on to 
the existing NMCI contract that expires 30 September 2010. It replaces 
the services currently provided by NMCI and takes advantage of lessons 
learned from that network. Future NGEN Blocks will upgrade services 
provided by NMCI and the OCONUS Navy Enterprise Network. NGEN will also 
integrate with shipboard and Marine Corps networks to form a globally 
integrated, Naval Network Environment to support network operations. 
NGEN will leverage the Global Information Grid (GIG) and, where 
possible, utilize DOD enterprise services. A comprehensive transition 
strategy is currently being developed to detail the approach for 
transition from NMCI to NGEN. I appreciate the support of Congress as 
we execute a Continuity of Services Contract to assist in this 
transition.
                      remain ready to fight today
    Our Navy is operating at its highest levels in recent years. As I 
testified last year, even as our Nation shifts its focus from Iraq to 
Afghanistan, our Navy's posture, positioning, and frequency of 
deployment remain high. Combatant Commanders recognize the value of 
Navy forces to the current fight and to operations world-wide. We are 
meeting new needs for ballistic missile defense in Europe and the 
Pacific, counter-piracy and maritime security in Africa and South 
America, and humanitarian assistance in the Caribbean and Southeast 
Asia. Many of these demands started as one-time sourcing requests and 
have evolved into enduring requirements for Navy forces. As a result, 
we have experienced a significant difference between our budgeted and 
actual Fleet operations from year to year, as well as an increase in 
maintenance requirements for our Fleet as a result of its increased 
operational tempo.
    We have been able to meet these requirements by relying on a 
combination of base budget and contingency funding and the continuous 
readiness of our force generated by the Fleet Response Plan (FRP). FRP 
allows us to provide continuous availability of Navy forces that are 
physically well-maintained, properly manned, and appropriately trained 
to deploy for ongoing and surge missions. Any future funding reductions 
or increased restrictions limit our Navy's ability to respond with as 
much flexibility to increased Combatant Commander demands world-wide.
    Our bases and infrastructure enable our operational and combat 
readiness and are essential to the quality of life of our Sailors, Navy 
civilians, and their families. I appreciate greatly your enthusiastic 
support and confidence in the Navy through the inclusion of Navy 
projects in the American Reinvestment and Recovery Act. The funding 
provided through the Recovery Act addresses some of our most pressing 
needs for Child Development Centers, barracks, and energy improvements. 
Our projects are prioritized to make the greatest impact on mission 
requirements and quality of life. All of our Recovery Act projects meet 
Congress' intent to create jobs in the local economy and address 
critical requirements. These projects are being quickly and prudently 
executed to inject capital into local communities while improving 
mission readiness and quality of work and life for our Sailors and 
families.
    I appreciate your support for the following initiatives:
Training Readiness
    The proliferation of advanced, stealthy, nuclear and non-nuclear 
submarines, equipped with anti-ship weapons of increasing range and 
lethality, challenge our Navy's ability to guarantee the access and 
safety of joint forces. Effective Anti-Submarine Warfare (ASW) remains 
a remarkably and increasingly complex, high-risk warfare area that will 
require continued investment in research and development to counter the 
capabilities of current and future adversaries.
    Active sonar systems, particularly medium frequency active (MFA) 
sonar, are key enablers of our ability to conduct effective ASW. MFA 
sonar is the Navy's most effective tool for locating and tracking 
submarines at distances that preclude effective attack on our ships. We 
must conduct extensive integrated training, to include the use of 
active sonar, which mirrors the intricate operating environment present 
in hostile waters, particularly the littorals. This is of the highest 
importance to our national security and the safety of our Sailors and 
Marines.
    Over the past 5 years, Navy has expended significant effort and 
resources preparing comprehensive environmental planning documentation 
for our at sea training and combat certification activities. The Navy 
remains a world leader in marine mammal research, and we will continue 
our robust investment in this research in fiscal year 2010 and beyond. 
Through such efforts, and in full consultation and cooperation with our 
sister federal agencies, Navy has developed effective measures that 
safely protect marine mammals and the ocean environment from adverse 
impacts of MFA sonar while not impeding vital naval training.
    In overruling attempts to unduly restrain Navy's use of MFA sonar 
in Southern California training ranges, the Supreme Court cited 
President Teddy Roosevelt's quote ``the only way in which a navy can 
ever be made efficient is by practice at sea, under all conditions 
which would have to be met if war existed.'' We can and do balance our 
responsibility to prepare naval forces for deployment and combat 
operations with our responsibility to be good stewards of the marine 
environment.
Depot Level Maintenance
    Optimum employment of our depot level maintenance capability and 
capacity is essential to our ships and aircraft reaching their expected 
service life. Depot maintenance is critical to the safety of our 
Sailors and it reduces risk caused by extension of ships and aircraft 
past their engineered maintenance periodicity. Effective and timely 
depot level maintenance allows each ship and aircraft to reach its 
Expected Service Life, preserving our existing force structure and 
enabling us to achieve our required capacity.
    I have taken steps to enhance the state of maintenance of our 
surface combatants. In addition to our rigorous self-assessment 
processes that identify maintenance and readiness issues before our 
ships and aircraft deploy, I directed the Commander, Naval Sea Systems 
Command to reinstate an engineered approach to surface combatant 
maintenance strategies and class maintenance plans with the goal of 
improving the overall condition of these ships. Our Surface Ship Life 
Cycle Maintenance Activity will provide the same type of planning to 
address surface ship maintenance as we currently have for carriers and 
submarines.
    Consistent, long term agreements and stable workload in both the 
public and private sector are necessary for the efficient utilization 
of depots, and it is the most cost effective way to keep our ships and 
aircraft at the highest possible state of readiness. Consistent with my 
intent to drive our Navy to better articulate requirements and costs in 
all we do, we have rigorously updated the quantitative models we use to 
develop our maintenance budgets, increasing their overall fidelity. 
These initial editions of the revised maintenance plans have resulted 
in increased maintenance requirements and additional costs. Our 
combined fiscal year 2010 budget funds 96 percent of the projected 
depot ship maintenance requirements necessary to sustain our Navy's 
global presence. Our budget funds aviation depot maintenance at 100 
percent for deployed squadrons and at 87 percent for aviation 
maintenance requirements overall. I request the support of Congress to 
fully support our baseline and contingency funding requests for our 
operations and maintenance to ensure the safety of our Sailors and the 
longevity of our existing ships and aircraft.
Shore Readiness
    Our shore infrastructure enables our operational and combat 
readiness and is essential to the quality of life and quality of work 
for our Sailors, Navy civilians, and their families. For years, 
increased operational demand, rising manpower costs, and an aging Fleet 
have led our Navy to underfund shore readiness and, instead, invest in 
our people, afloat readiness, and future force structure. As a result, 
maintenance and recapitalization requirements have grown and the cost 
of ownership for our shore infrastructure has increased. At current 
investment levels, our future shore readiness, particularly 
recapitalization of our facilities infrastructure, is at risk.
    In an effort to mitigate this risk in a constrained fiscal 
environment, we are executing a Shore Investment Strategy that uses 
informed, capabilities-based investment decisions to target our shore 
investments where they will have the greatest impact to our strategic 
and operational objectives. I appreciate the enthusiastic support and 
confidence of Congress in the Navy through the inclusion of Navy 
projects in the American Reinvestment and Recovery Act. Through the 
Recovery Act, you allowed our Navy to address some of our most pressing 
needs for Child Development Centers, barracks, dry dock repairs, and 
energy improvements. These Navy projects are located in 22 states and 
territories and fully support the President's objectives of rapid and 
pervasive stimulus efforts in local economies. I am committed to 
further improvements in our shore infrastructure but our Navy must 
balance this need against our priorities of sustaining force structure 
and manpower levels.
Energy
    Our Navy is actively pursuing ways to reduce our energy consumption 
and improve energy efficiency in our operations and at our shore 
installations. Our emerging Navy Energy Strategy spans three key areas, 
afloat and on shore: (1) an energy security strategy to make certain of 
an adequate, reliable, and sustainable supply; (2) a robust investment 
strategy in alternative renewable sources of energy and energy 
conservation technologies; and (3) policy and doctrine changes that are 
aimed at changing behavior to reduce consumption.
    I will be proposing goals to the Secretary of the Navy to increase 
energy independence in our shore installations, increase use of 
alternative fuels afloat and reduce tactical petroleum consumption, and 
to reduce our carbon footprint and green house gas emissions. We are 
leveraging available investment dollars and current technological 
advances to employ technology that reduces energy demand and increases 
our ability to use alternative and renewable forms of energy for shore 
facilities and in our logistics processes. This technology improves 
energy options for our Navy today and in the future. Our initial 
interactions with industry and academic institutions in public symposia 
over the past few months have generated an enthusiastic response to our 
emerging strategy.
United Nations Convention on the Law of the Sea
    The Law of the Sea Convention codifies navigation and overflight 
rights and high seas freedoms that are essential for the global 
mobility of our armed forces. It directly supports our national 
security interests. Our current non-party status constrains efforts to 
develop enduring maritime partnerships, inhibits efforts to expand the 
Proliferation Security Initiative, and elevates the level of risk for 
our Sailors as they undertake operations to preserve navigation rights 
and freedoms, particularly in areas such as the Strait of Hormuz and 
Arabian Gulf, and the East and South China Seas. Accession to the Law 
of the Sea Convention remains a priority for our Navy.
           develop and support our sailors and navy civilians
    Our talented and dedicated Sailors and Navy civilians are the 
critical component to the Navy's Maritime Strategy. I am committed to 
providing the necessary resources and shaping our personnel policies to 
ensure our people are personally and professionally supported in their 
service to our Nation.
    Since 2003, the Navy's end strength has declined by approximately 
10,000 per year aiming for a target of 322,000 Active Component (AC) 
and 66,700 Reserve Component (RC) Sailors. While end strength declined, 
we have increased operational availability through the Fleet Response 
Plan, supported new missions for the joint force, and introduced the 
Maritime Strategy. This increased demand includes maritime 
interdiction, riverine warfare, irregular and cyber warfare, 
humanitarian and disaster relief, an extended individual augmentee 
requirement in support of the joint force, and now, counter-piracy.
    To meet increased demands, maintain required Fleet manning levels 
with minimal risk, and minimize stress on the force, we have 
transitioned from a posture of reducing end strength to one of 
stabilizing the force. We anticipate that we will finish this fiscal 
year within two percent above our authorized level.
    The fiscal year 2010 budget request supports an active component 
end strength of 328,800. This includes 324,400 in the baseline budget 
to support Fleet requirements, as well as increased capacity to support 
the individual augmentee missions. The budget also supports the 
reversal of the Defense Health Program military-to-civilian conversions 
as directed by the Congress. The fiscal year 2010 budget also requests 
contingency funding for individual augmentees supporting the joint 
force in non-traditional Navy missions. To maintain Fleet readiness, 
support Combatant Commanders, and to minimize the stress on the force, 
our Navy must be appropriately resourced to support this operational 
demand.
    I urge Congress to support the following manpower and personnel 
initiatives:
Recruiting and Retention
    Navy has been successful in attracting, recruiting, and retaining a 
highly-skilled workforce this fiscal year. The fiscal year 2010 budget 
positions us to continue that success through fiscal year 2010. We 
expect to meet our overall officer and enlisted recruiting and 
retention goals, though we remain focused on critical skills sets, such 
as health professionals and nuclear operators.
    As demand for a professional and technically-trained workforce 
increases in the private sector, Navy must remain competitive in the 
marketplace through monetary and non-monetary incentives. Within the 
health professions, Navy increased several special and incentives pays, 
and implemented others, targeting critical specialties, including 
clinical psychology, social work, physician assistant, and mental 
health nurse practitioners. We are also offering mobilization 
deferments for officers who immediately transition from active to 
reserve status. We have increased bonuses and other incentives for 
nuclear trained personnel to address an increasing demand for these 
highly-trained and specialized professionals in the private sector.
    We continually assess our recruiting and retention initiatives, 
taking a targeted investment approach, to attract and retain high-
performing Sailors. We appreciate Congressional support for the Post-9/
11 GI Bill. Navy's goal is to maintain a balanced force, in which 
seniority, experience, and skills are matched to requirements.
Total Force Integration
    Navy continues to invest in Navy Reserve recruiting, retention and 
training while achieving Total Force integration between active and 
reserve components. The Navy Reserve Force provides mission capable 
units and individuals to the Navy and Marine Corps team through a full 
range of operations. Navy's goal is to become a better aligned Total 
Force in keeping with Department of Defense and Department of the Navy 
strategic guidance, while providing fully integrated operational 
support to the Fleet. Navy continues to validate new mission 
requirements and an associated Reserve Force billet structure to meet 
future capability requirements. Navy has leveraged incentives to best 
recruit Sailors within the Total Force and is developing and improving 
programs and policies that promote a continuum of service through Navy 
Reserve affiliation upon separating from the active component. Navy is 
removing barriers to ease transition between active and reserve 
components and is developing flexible service options and levels of 
participation to meet individual Sailor ability to serve the Navy 
throughout a lifetime of service.
Sailor and Family Continuum of Care
    Navy continues to provide support to Sailors and their families, 
through a ``continuum of care'' that covers all aspects of individual 
medical, physical, psychological, and family readiness. Through an 
integrated effort between Navy Medicine and Personnel headquarters 
activities and through the chain of command, our goal is reintegrating 
the individual Sailor with his or her command, family, and community.
    Our Navy and Coast Guard recently signed a memorandum of agreement 
for the Coast Guard to share the services provided by the Navy Safe 
Harbor Program. The program is currently comprised of approximately 375 
lifetime enrollees and 217 individuals receiving personally-tailored 
care management. It provides recovery coordination and advocacy for 
seriously wounded, ill, and injured Sailors and Coast Guardsmen, as 
well as a support network for their families. We have established a 
headquarters support element comprised of subject matter expert teams 
of non-medical care managers and recovery care coordinators, and 
Reserve surge support to supplement field teams in mass casualty 
situations.
    We have also developed the Anchor Program, which leverages the 
volunteer services of Navy Reserve members and retirees who assist 
Sailors in reintegrating with family and community. Navy recently 
institutionalized our Operational Stress Control (OSC) Program which 
provides an array of initiatives designed to proactively promote 
psychological resilience and sustain a culture of psychological health 
among Sailors and their families. We are developing a formal curriculum 
which will be integrated into the career training continuum for all 
Sailors throughout their Navy careers.
Active and Reserve Wounded, Ill and Injured
    Navy Medicine continues to assess the needs of wounded, ill and 
injured service members and their families. In 2008, Navy Medicine 
consolidated all wounded, ill and injured warrior healthcare support 
with the goal of offering comprehensive implementation guidance, the 
highest quality and most compassionate care to service members and 
their families. As of October 2008, 170 additional clinical care 
managers were assigned to military treatment facilities (MTFs) and 
ambulatory care clinics caring for approximately 1,800 OIF/OEF 
casualties. Over 150 clinical medical case managers at Navy MTFs 
advocate on behalf of wounded warriors and their family members by 
working directly with the multi-disciplinary medical team caring for 
the patient.
    The Navy recognizes the unique medical and administrative 
challenges faced by our Reserve Wounded Sailors when they return from 
deployment, and we know their care cannot end at the Military Treatment 
Facility (MTF). In 2008, we established two Medical Hold Units 
responsible for managing all aspects of care for Reserve Sailors in a 
Medical Hold (MEDHOLD) status. Co-located with MTFs in Norfolk and San 
Diego, these units are led by Line Officers with Senior Medical 
Officers supporting for medical issues. Under their leadership, case 
managers serve as advocates who proactively handle each Sailor's 
individualized plan of care until all medical and non-medical issues 
are resolved. We have reduced the numbers of Sailors in the MEDHOLD 
process and the length of time required to resolve their cases. The RC 
MEDHOLD program has become the single, overarching program for 
providing prompt, appropriate care for our Reserve Wounded Sailors.
Traumatic Brain Injury (TBI)
    TBI represents the defining wound of OIF/OEF due to the 
proliferation of improvised explosive devices (IED). The Department of 
the Navy has implemented a three-pronged strategy to increase detection 
of TBI throughout the deployment span, which includes mental health 
stigma reduction efforts, lowering the index of suspicion for TBI 
symptoms and improving seamless coordination of screening, detection 
and treatment among line and medical leaders. Navy Medicine continues 
to expand its efforts to identify, diagnosis and treat TBI. The 
traumatic stress and brain injury programs at National Naval Medical 
Center (NNMC) Bethesda, Naval Medical Center San Diego (NMCSD), Naval 
Hospital (NH) Camp Pendleton, and NH Camp Lejeune are collaborating to 
identify and treat service members who have had blast exposure. 
Furthermore, Navy Medicine has partnered with the Line community to 
identify specific populations at risk for brain injury such as front 
line units, SEALS, and Navy Explosive Ordinance disposal units.
Psychological Health
    The number of new cases of Post Traumatic Stress Disorder (PTSD) in 
the Navy has increased in the last year, from 1,618 in fiscal year 2007 
to 1,788 in fiscal year 2008 and we have expanded our efforts to reach 
out to service members. We continue to move mental health providers 
closer to the battlefield and remain supportive of the Psychologist-at 
Sea program. Incentives for military mental health providers have also 
increased to ensure the right providers are available. We are actively 
working to reduce the stigma associated with seeking help for mental 
health. Our recently established Operational Stress Control (OSC) 
program implements training and tools that line leadership can use to 
address stigma. Since inception, OSC Awareness Training, which included 
mental health stigma reduction, has been provided to over 900 non-
mental health care givers and 16,000 Sailors including over 1,395 at 
Navy's Command Leadership School and Senior Enlisted Academy.
Diversity
    We have had great success in increasing our diversity outreach and 
improving diversity accessions in our ranks. We are committed to a Navy 
that reflects the diversity of the Nation in all specialties and ranks 
by 2037. Through our outreach efforts, we have observed an increase in 
NROTC applications and have increased diverse NROTC scholarship offers 
by 28 percent. The NROTC class of 2012 is the most diverse class in 
history and, with your help through nominations, the U.S. Naval Academy 
class of 2012 is the Academy's most diverse class in history. Our Navy 
is engaging diversity affinity groups such as the National Society of 
Black Engineers, Thurgood Marshall College Fund, Society of Hispanic 
Professional Engineers, American Indian Science and Engineering 
Society, Mexican American Engineering Society, and the Asian Pacific 
Islander American Scholarship Fund to increase awareness of the 
opportunities for service in the Navy. Our engagement includes Flag 
attendance, junior officer participation, recruiting assets such as the 
Blue Angels, direct Fleet interaction. We have also established 
Regional Outreach Coordinators in Atlanta, Chicago, Houston, Los 
Angeles, and Miami to build Navy awareness in diverse markets.
    As we continue to meet the challenges of a new generation, the Navy 
is already being recognized for our efforts through receipt of the Work 
Life Legacy Award (Families and Work Institute), the Work Life 
Excellence Award (Working Mother Media), Most Admired Employer (U.S. 
Black Engineer and Hispanic Engineer Magazine), and Best Diversity 
Company (Diversity/Careers in Engineering and IT).
Life-Work Integration
    Thank you for your support of our Navy's efforts to balance work 
and life for our Sailors and their families. You included two important 
life-work integration initiatives in the fiscal year 2009 National 
Defense Authorization Act (NDAA) in which our Sailors have consistently 
expressed strong interest. The NDAA authorized 10 days of paternity 
leave for a married, active duty Sailor whose wife gives birth to a 
child, establishing a benefit similar to that available for mothers who 
receive maternity leave and for parents who adopt a child. The NDAA 
also included a career intermission pilot program, allowing 
participating Sailors to leave active duty for up to three years to 
pursue personal and professional needs, while maintaining eligibility 
for certain medical, dental, commissary, travel and transportation 
benefits and a portion of basic pay. In addition to these new 
authorities, Navy is also exploring other life-work integration 
initiatives, such as flexible work schedules and telework in non-
operational billets through use of available technologies such as 
Outlook Web Access for e-mail, Defense Connect Online, and Defense 
Knowledge Online for document storage and virtual meetings. The Virtual 
Command Pilot, implemented within the Total Force Domain for an initial 
group of officers, will allow individuals to remain in their current 
geographic locations while working for parent commands located 
elsewhere within the United States.
Education
    We recognize the importance both to the individual and to our 
mission of providing a life-long continuum of learning and development. 
Education remains a critical component of this continuum. The Navy's 
Professional Military Education Continuum, with an embedded Joint 
Professional Military Education (JPME) component, produces leaders 
skilled in maritime and joint planning. Additionally, we offer several 
college-focused incentives. Tuition assistance provides funds to 
individuals to pay for college while serving. The Navy College Fund 
provides money for college whenever the Sailor decides to end his or 
her Navy career. The Navy College Program Afloat College Education 
(NCPACE) provides educational opportunities for Sailors while deployed. 
Furthermore, officers are afforded the opportunity to pursue advanced 
education through the Naval Postgraduate School (NPS), NPS distance 
learning programs, the Naval War College, and several Navy fellowship 
programs. In addition, our Loan Repayment Program allows us to offer 
debt relief up to $65,000 to recruits who enlist after already earning 
an advanced degree. The Advanced Education Voucher (AEV) program 
provides undergraduate and graduate off-duty education opportunities to 
selected senior enlisted personnel as they pursue Navy-relevant 
degrees. The Accelerate to Excellence (A2E) program, currently in the 
second year of a three-year pilot, combines two semesters of education 
completed while in the Delayed Entry Program, one semester of full-time 
education taken after boot camp, and college credit earned upon 
completion of ``A'' school to complete an Associates Degree. The Navy 
Credentialing Opportunities Online (COOL) program matches rate training 
and experience with civilian credentials, and funds the costs of 
credentialing and licensing exams. As of the end of March 2009, there 
have been more than 35 million visits to the COOL web site, with more 
than 13,000 certification exams funded and approximately 8,500 civilian 
certifications attained.
                               conclusion
    Despite the challenges we face, I remain optimistic about the 
future. The men and women, active and reserve, Sailor and civilian, of 
our Navy are extraordinarily capable, motivated, and dedicated to 
preserving our national security and prosperity. We are fully committed 
to the current fight and to ensuring continued U.S. global leadership 
in a cooperative world. We look forward to the upcoming Quadrennial 
Defense Review, which will address how we can best use our military 
forces to meet the complex and dynamic challenges our Nation faces 
today and will face in the future. We have seen more challenging times 
and emerged prosperous, secure, and free. I ask Congress to fully 
support our fiscal year 2010 budget and identified priorities. Thank 
you for your continued support and commitment to our Navy, and for all 
you do to make the U.S. Navy a force for good today and in the future.

    Chairman Inouye. Now may I call upon the Commandant of the 
Marine Corps, General Conway.
STATEMENT OF GENERAL JAMES T. CONWAY, COMMANDANT, 
            UNITED STATES MARINE CORPS, DEPARTMENT OF 
            THE NAVY
    General Conway. Mr. Chairman, Senator Cochran, Senator 
Bond: Thank you, sirs, for the opportunity to report to you on 
your Marine Corps. My pledge, as always, is to provide you with 
a candid and honest assessment, and I appear before you in that 
spirit today.
    Our number one priority remains your marines in combat. 
Since testimony before your subcommittee last year, progress in 
the Anbar Province of Iraq continues to be significant. Indeed, 
our marines are in the early stages of the most long-awaited 
phase of operations, the reset of our equipment and the 
redeployment of the force. Having recently returned from a trip 
to theater, I'm pleased to report to you that the magnificent 
performance of our marines and sailors in al-Anbar continues 
across a whole spectrum of tasks and responsibilities.
    In Afghanistan, we have substantially another story, as 
thus far in 2009 the Taliban have increased their activity. The 
2d Marine Expeditionary Brigade, an air-ground task force 
numbering more than 10,000 marines and sailors, has just 
assumed responsibility for its battle space under Regional 
Command South. They're operating primarily in the Helmand 
Province, where 93 percent of the country's opium is harvested 
and where the Taliban have been most active.
    We are maintaining an effort to get every marine to the 
fight and today more than 70 percent of your Marine Corps has 
done so. Yet our force remains resilient, in spite of an 
average deployment-to-dwell that is slightly better than one to 
one in most occupational specialties.
    We believe retention is a great indicator of the morale of 
the force and the support of our families. By the halfway point 
of this fiscal year, we had already met our reenlistment goals 
for first term marines and for our career force.
    Our growth in the active component by 27,000 marines has 
proceeded and 2\1/2\ years now ahead of schedule, with no 
change to our standards. We have reached the level of 202,100 
marines and have found it necessary to throttle back our 
recruiting efforts. We attribute our accelerated growth to four 
factors: quality recruiting, exceptional retention levels, 
reduced attrition, and, not least, a great young generation of 
Americans who wish to serve their country in wartime.
    Our Corps is deeply committed to the care and welfare of 
our wounded and their families. Our Wounded Warrior Regiment 
reflects this commitment. We seek through all phases of 
recovery to assist in the rehabilitation and transition of our 
wounded, injured or ill, and their families. I would also like 
to thank those of you on the subcommittee who have set aside 
your personal time to visit with our wounded warriors.
    Secretary Gates seeks to create a balanced U.S. military 
through the efforts of the Quadrennial Defense Review. We have 
always believed that the Marine Corps has to be able to play 
both ways, to be a two-fisted fighter. Our equipment and major 
programs reflect our commitment to be flexible in the face of 
uncertainty. That is to say that 100 percent of United States 
Marine Corps (USMC) procurement can be employed either in a 
hybrid conflict or in major combat.
    Moreover, we seek to remain good stewards of the resources 
provided by Congress through innovative adaptation of our 
equipment. The tilt rotor technology of the M-22 Osprey is 
indicative of this commitment. We are pleased to report that 
this airframe has continued to exceed our expectations through 
three successful combat deployments to Iraq and now a fourth 
aboard ship. Beginning this fall, there will be at least one 
Osprey squadron in Afghanistan for as long as we have marines 
deployed there.
    The future posture of our Corps includes a realignment of 
marine forces in the Pacific. As part of the agreement between 
Tokyo and Washington, we are planning the movement of 8,000 
marines off Okinawa to Guam. We support this move. However, we 
believe the development of training areas and ranges on Guam 
and the adjoining islands in the Marianas are key prerequisites 
for the realignment of our forces. We are actively working 
within the Department of Defense to align USMC requirements 
with ongoing environmental assessments and political 
agreements.
    Finally, on behalf of your Marine Corps I extend my 
gratitude for the support that we have received to date. Our 
great young patriots have performed magnificently and have 
written their own page in history. They know as they go into 
harm's way that their fellow Americans are behind them. On 
their behalf, I thank you for your enduring support. We pledge 
to spend wisely every dollar you generously provide in ways 
that contribute to the defense of this great land.

                           PREPARED STATEMENT

    Thank you once again for the opportunity to report to you 
today and I look forward, sir, to your questions.
    Chairman Inouye. Thank you very much, Commandant.
    [The statement follows:]
                 Prepared Statement of James T. Conway
                              introduction
    Chairman Inouye, Senator Cochran, and distinguished Members of the 
Committee, my pledge to you remains the same--to always provide my 
forthright and honest assessment of your Marine Corps. The following 
pages detail my assessment of the current state of our Corps and my 
vision for its future.
    First and foremost, on behalf of all Marines, I extend deep 
appreciation for your magnificent support of the Marine Corps and our 
families--especially those warriors currently engaged in Iraq and 
Afghanistan. Extremists started this war just over 25 years ago in 
Beirut, Lebanon. Since then, our country has been attacked and 
surprised repeatedly, at home and abroad, by murderers following an 
extreme and violent ideology. I am convinced, given the chance, they 
will continue to kill innocent Americans at every opportunity. Make no 
mistake, your Marines are honored and committed to stand between this 
great Nation and any enemy today and in the future. Whether through 
soft or hard power, we will continue to fight the enemy on their land, 
in their safe havens, or wherever they choose to hide.
    A selfless generation, today's Marines have raised the bar in 
sacrifice and quality. They know they will repeatedly go into harm's 
way, and despite this, they have joined and reenlisted at exceptional 
rates. Exceeding both the Department of Defense and our own high school 
graduate standards, more than 96 percent of our enlistees in fiscal 
year 2008 had earned their high school diploma. Furthermore, based on a 
recent study from the Center for Naval Analyses, we are also retaining 
higher quality Marines.
    The success in Al Anbar directly relates to the quality of our 
Marines. Several years ago, few would have thought that the conditions 
we see in Al Anbar today were possible, but rotation after rotation of 
Marines, Sailors, Soldiers, and Airmen practiced patience, 
perseverance, and trigger control until the Sunni leadership realized 
that we were not the enemy. Now, the vast majority of our actions in Al 
Anbar deal with political and economic issues--the Corps looks forward 
to successfully completing our part in this initial battle of the Long 
War.
    However, our Marines are professionals and understand there is 
still much work to be done. As we increase our strength in Afghanistan, 
Marines and their families are resolved to answer their Nation's call. 
There are many challenges and hardships that lie ahead, but our Marines 
embrace the chance to make a difference. For that, we owe them the full 
resources required to complete the tasks ahead--to fight today's 
battles, prepare for tomorrow's challenges, and fulfill our commitment 
to our Marine families.
    Our Marines and Sailors in combat remain my number one priority.--
The resiliency of our Marines is absolutely amazing. Their performance 
this past year in Iraq and Afghanistan has been magnificent, and we 
could not be more proud of their willingness to serve our great Nation 
at such a critical time. Our concerns are with our families; they are 
the brittle part of the equation, yet through it all, they have 
continued to support their loved ones with the quiet strength for which 
we are so grateful.
    To fulfill the Marine Corps' commitment to the defense of this 
Nation, and always mindful of the sacrifices of our Marines and their 
families that make it possible, our priorities will remain steadfast. 
These priorities will guide the Corps through the battles of today and 
the certain challenges and crises in our Nation's future. Our budget 
request is designed to support the following priorities:
  --Right-size the Marine Corps for today's conflict and tomorrow's 
        uncertainty
  --Reset the force and prepare for the next contingency
  --Modernize for tomorrow to be ``the most ready when the Nation is 
        least ready''
  --Provide our Nation a naval force fully prepared for employment as a 
        Marine Air Ground Task Force across the spectrum of conflict
  --Take care of our Marines and their families
  --Posture the Marine Corps for the future
    Your support is critical as we continue to reset the force for 
today and adapt for tomorrow. As prudent stewards of the Nation's 
resources, we are committed to providing the American taxpayer the 
largest return on investment. The future is uncertain and invariably 
full of surprises, but continued support by Congress will ensure a 
balanced Marine Corps--increasingly agile and capable--ready to meet 
the needs of our Nation and a broadening set of missions. From 
humanitarian assistance to large-scale conventional operations, your 
Marines have never failed this great Nation, and thanks to your 
steadfast support, they never will.
                   our marines and sailors in combat
    Our Corps' most sacred resource is the individual Marine. It is 
imperative to the long-term success of the institution that we keep 
their well being as our number one priority. Over the past several 
years, sustained deployments in Iraq, Afghanistan, and across the globe 
have kept many Marines and Sailors in the operating forces deployed as 
much as they have been at home station. They have shouldered our 
Nation's burden and done so with amazing resiliency. Marines understand 
what is required of the Nation's elite warrior class--to stand up and 
be counted when the Nation needs them the most. For this, we owe them 
our unending gratitude.
    Marines and their families know that their sacrifices are making a 
difference, that they are part of something much larger than 
themselves, and that their Nation stands behind them. Thanks to the 
continued support of Congress, your Marines will stay resolved to fight 
and defeat any foe today or in the future.
USMC Operational Commitments
    The Marine Corps is fully engaged in a generational, multi-faceted 
Long War that cannot be won in one battle, in one country, or by one 
method. Our commitment to the Long War is characterized by campaigns in 
Iraq and Afghanistan as well as diverse and persistent engagements 
around the globe. As of 6 May 2009, there are more than 25,000 Marines 
deployed to the U.S. Central Command's Area of Responsibility in 
support of Operations IRAQI FREEDOM (OIF) and ENDURING FREEDOM (OEF). 
The vast majority are in Iraq; however, we are in the process of 
drawing down those forces and increasing the number of Marines in 
Afghanistan.
    In Afghanistan, we face an enemy and operating environment that is 
different than that in Iraq. We are adapting accordingly. Nearly 5,700 
Marines are deployed to various regions throughout Afghanistan--either 
as part of Special Purpose Marine Air Ground Task Force (SPMAGTF)--
Afghanistan, 2d Marine Expeditionary Brigade, Marine Special Operations 
Companies, Embedded Training Teams, or Individual Augments and those 
numbers will grow substantially. The Embedded Training Teams live and 
work with the Afghan National Army and continue to increase the Afghan 
National Army's capabilities as they grow capacity. Other missions 
outside Afghanistan are primarily in the broader Middle East area, with 
nearly 2,800 Marines, to include the 13th Marine Expeditionary Unit.
    While we recognize the heavy demand in Iraq and Afghanistan, the 
Marine Corps is very conscious of the need for deployed forces 
throughout the rest of the globe. As of 6 May 2009, there are roughly 
2,800 Marines deployed in the U.S. Pacific Command's Area of 
Responsibility alone, to include the 31st Marine Expeditionary Unit and 
a 62-man detachment in the Philippines. More than 100 Marines are 
deployed in support of Combined Joint Task Force--Horn of Africa in 
Djibouti. Additionally, the Marine Corps has participated in more than 
200 Theater Security Cooperation events, ranging from small mobile 
training teams to MAGTF exercises in Latin America, Africa, Eastern 
Europe, and the Pacific.
                      right-size the marine corps
    The needs of a Nation at war demanded the growth of our active 
component by 27,000 Marines. We have had great success and will reach 
our goal of 202,000 Marines during fiscal year 2009--more than 2 years 
earlier than originally forecasted. Solid planning and your continued 
support will ensure we meet the training, infrastructure, and equipment 
requirements resulting from this growth. This growth will significantly 
improve the ability of your Corps to train to the full range of 
military operations. It will also increase our capacity to deploy 
forces in response to contingencies and to support security cooperation 
with our partners, ultimately reducing operational risk and posturing 
the Corps for continued success in the future.
    Before we were funded to grow our force, we were forced into an 
almost singular focus on preparing units for future rotations and 
counterinsurgency operations. This narrowed focus and the intense 
deployment rate of many units weakened our ability to maintain 
traditional skills, such as amphibious operations, combined-arms 
maneuver, and mountain warfare. Congressionally-mandated to be ``the 
most ready when the Nation is least ready,'' this growth is an 
essential factor to improve our current deployment-to-dwell ratio and 
allow our Corps to maintain the sophisticated skills-sets required for 
today and the future.
    In fiscal year 2008, we activated another infantry battalion and 
increased capacity in our artillery, reconnaissance, engineer, military 
police, civil affairs, intelligence, and multiple other key units that 
have seen a significantly high deployment tempo. With your continued 
support, we will continue to build capacity according to our planned 
growth.
    Improving the deployment-to-dwell ratio for our operating forces 
will also reduce stress on our Marines and their families. Achieving 
our goal of a 1:2 deployment-to-dwell ratio for active duty and a 1:5 
ratio for Reserves is crucial to the health of our force and our 
families during this Long War. Our peacetime goal for active duty 
remains a 1:3 deployment-to-dwell ratio.
Achieving and Sustaining a Marine Corps of 202,000
    The Marine Corps grew by more than 12,000 Marines in fiscal year 
2008 and is on pace to reach an active duty end strength of 202,000 by 
the end of fiscal year 2009--more than 2 years ahead of schedule. We 
attribute our accelerated growth to four factors: quality recruiting, 
exceptional retention levels, reduced attrition, and--not least--an 
incredible generation of young Americans who welcome the opportunity to 
fight for their country. Our standards remain high, and we are 
currently ahead of our fiscal year 2009 goal in first term enlistments 
and are on track with our career reenlistments. Attrition levels are 
projected to remain at or below fiscal year 2008 rates.
            Recruiting
    Recruiting is the strategic first step in making Marines and 
growing the Corps. With first-term enlistments accounting for more than 
70 percent of our end strength increase, our recruiting efforts must 
not only focus on our overall growth, but also on attracting young men 
and women with the right character, commitment, and drive to become 
Marines.
    We continue to exceed Department of Defense quality standards and 
recruit the best of America into our ranks. The Marine Corps achieved 
over 100 percent of the Active Component accession goal for both 
officer and enlisted in fiscal year 2008. We also achieved 100 percent 
of our Reserve component recruiting goals.
            Retention
    Retention is a vital complement to recruiting and an indicator of 
the resiliency of our force. In fiscal year 2008, the Marine Corps 
achieved an unprecedented number of reenlistments with both the First 
Term and Career Force. We established the most aggressive retention 
goals in our history, and our achievement was exceptional. Our 16,696 
reenlistments equated to a first-term retention rate of almost 36 
percent and a Career Marine retention rate of 77 percent. Through 17 
March 2009:
  --7,453 first-term Marines reenlisted, meeting 101.6 percent of our 
        goal. This represents the fastest attainment of a fiscal year 
        first-term reenlistment goal in our history and equates to a 
        retention rate of 31.4 percent retention rate; traditional 
        reenlistments average 6,000 or a retention rate of 24 percent.
  --7,329 Marines who have completed at least two enlistment contracts 
        chose to reenlist again. This number represents 98.2 percent of 
        our goal of 7,464 reenlistments, and a 72.2 percent retention 
        rate among the eligible population.
    Our retention success may be attributed to several important 
enduring themes. First, Marines are motivated to ``stay Marine'' 
because they are doing what they signed up to do--fighting for and 
protecting our Nation. Second, they understand that the Marine Corps 
culture is one that rewards proven performance. Third, our reenlistment 
incentives are designed to retain top quality Marines with the most 
relevant skill sets. The continued support of Congress will ensure 
continued success.
            The Marine Corps Reserve
    Our Reserves continue to make essential contributions to our Total 
Force efforts in The Long War, particularly in Iraq and Afghanistan. As 
we accelerated our build to 202,000 Active Component Marines, we 
understood that we would take some risk in regards to obtaining our 
Reserve Component end strength of 39,600. During the 202,000 build-up, 
we adjusted our accession plans and encouraged our experienced and 
combat-tested Reserve Marines to transition back to active duty in 
support of these efforts. They responded in force, and as a result, we 
came in under our authorized Reserve Component end strength limit by 
2,077. As a Total Force Marine Corps, we rely heavily upon the 
essential augmentation and reinforcement provided by our Reserve 
Marines. We believe our authorized end strength of 39,600 is 
appropriate and provides us with the Marines we require to support the 
force and to achieve our goal of a 1:5 deployment-to-dwell ratio. With 
the achievement of the 202,000 active duty force, we will refocus our 
recruiting and retention efforts to achieve our authorized Reserve 
Component end strength. The bonus and incentives provided by Congress, 
specifically the authorization to reimburse travel expenses to select 
members attending drill, will be key tools in helping us accomplish 
this goal.
Infrastructure
    The Marine Corps remains on track with installation development in 
support of our personnel growth. With the continued support of 
Congress, we will ensure sufficient temporary facilities or other 
solutions are in place until permanent construction can be completed.
            Military Construction: Bachelor Housing
    Due to previous fiscal constraints, the Marine Corps has routinely 
focused on critical operational concerns, and therefore we have not 
built barracks. With your support, we have recently been able to expand 
our construction efforts and have established a program that will 
provide adequate bachelor housing for our entire force by 2014. 
Additional support is required for our fiscal year 2010 program to 
provide 3,000 new barracks spaces and meet our 2014 goal. We are also 
committed to funding the replacement of barracks' furnishings on a 7-
year cycle as well as the repair and maintenance of existing barracks 
to improve the quality of life of our Marines.
    We are constructing our barracks to a two-person room configuration 
and assigning our junior personnel (pay grades E1-E3) at two Marines 
per room. We are a young Service; the majority of our junior Marines 
are 18-21 years old, and assigning them at two per room helps 
assimilate them into the Marine Corps culture, while fostering 
camaraderie and building unit cohesion. As Marines progress to 
noncommissioned officer rank and take on the added responsibilities of 
corporal (E4) and sergeant (E5), our intent is to assign them one per 
room.
            Public Private Venture (PPV) Housing
    The Marine Corps supports the privatization of family housing. To 
date, the Public Private Venture (PPV) program has been a success 
story. We have benefited from the construction of quality homes and 
community support facilities, as well the vast improvement in 
maintenance services. PPV has had a positive impact on the quality of 
life for our Marines and families. The feedback we have received has 
been overwhelmingly positive.
    PPV has been integral to accommodating existing requirements and 
the additional family housing requirements associated with the growth 
of our force. By the end of fiscal year 2007, with the support of 
Congress, the Marine Corps privatized 96 percent of its worldwide 
family housing inventory. By the end of fiscal year 2010, we expect to 
complete our plan to privatize 97 percent of our existing worldwide 
family housing inventory.
    We again thank the Congress for its generous support in this area. 
In fiscal years 2008 and 2009, you provided the funding to construct or 
acquire nearly 3,000 additional homes and two related Department of 
Defense Dependent Schools through this program; and by 2014, PPV will 
result in all of our families being able to vacate inadequate family 
housing.
                            reset the force
    Operations in Iraq and Afghanistan have placed an unprecedented 
demand on ground weapons systems, aviation assets, and support 
equipment. These assets have experienced accelerated wear and tear due 
to the harsh operating environments and have far exceeded the planned 
peacetime usage rates. Additionally, many equipment items have been 
destroyed or damaged beyond economical repair. High rates of degraded 
material condition require the Marine Corps to undergo significant 
equipment reset for our operational forces and our prepositioning 
programs. Reset will involve all actions required to repair, replace, 
or modernize the equipment and weapons systems that will ensure the 
Nation's expeditionary force in readiness is well prepared for future 
missions. We appreciate the generous support of Congress to ensure that 
Marines have the equipment and maintenance resources they need to meet 
mission requirements. It is our pledge to be good stewards of the 
resources you so generously provide.
Reset Costs
    Costs categorized as ``reset'' meet one of the following criteria: 
maintenance and supply activities that restore and enhance combat 
capability to unit and prepositioned equipment; replace or repair 
equipment destroyed, damaged, stressed, or worn out beyond economic 
repair; or enhance capabilities, where applicable, with the most up-to-
date technology.
    Congressional support has been outstanding. Thus far, you have 
provided more than $12 billion toward reset. We thank you for this 
funding; it will help ensure that Marines have the equipment they need 
to properly train for and conduct combat operations.
Equipment Readiness
    Sustained operations have subjected our equipment to more than a 
lifetime's worth of wear and tear stemming from mileage, operating 
hours, and harsh environmental conditions. The additional weight 
associated with armor plating further exacerbates the challenge of 
maintaining high equipment readiness. Current Marine Corps policy 
dictates that as forces rotate in and out of theater, their equipment 
remains in place. This policy action was accompanied by an increased 
maintenance presence in theater and has paid great dividends as our 
deployed ground force readiness remains above 90 percent. While we have 
witnessed a decrease in supply readiness rates for home station units, 
the delivery of supplemental procurements is beginning to bear fruit 
and we expect our readiness rates in supply to rise steadily.
Aviation Equipment and Readiness
    Marine Corps Aviation supports our Marines in combat today while 
continuing to plan for crisis and contingency operations of tomorrow. 
Our legacy aircraft are aging, and we face the challenge of maintaining 
current airframes that have been subjected to heavy use in harsh, 
austere environments while we transition to new aircraft. Our aircraft 
have been flying at rates well above those for which they were 
designed; however, despite the challenge of operating in two theaters, 
our maintenance and support personnel have sustained a 74.5 percent 
aviation mission-capable rate for all Marine aircraft over the past 12 
months. We must continue to overuse these aging airplanes in harsh 
environments as we transition forces from Iraq to Afghanistan.
    To maintain sufficient numbers of aircraft in squadrons deployed 
overseas, our non-deployed squadrons have taken significant cuts in 
available aircraft and parts. Reset and supplemental funding have 
partially alleviated this strain, but we need steady funding for our 
legacy airframes as age, attrition, and wartime losses take their toll 
on our aircraft inventory.
Prepositioning Programs
    Comprised of three Maritime Prepositioning Ships Squadrons (MPSRON) 
and other strategic reserves, the Marine Corps' prepositioning programs 
are a critical part of our ability to respond to current and future 
contingency operations and mitigate risk for the Nation. Each MPSRON, 
when married with a fly in echelon, provides the equipment and 
sustainment of a 17,000-man Marine Expeditionary Brigade for employment 
across the full range of military operations. Withdrawal of equipment 
from our strategic programs has been a key element in supporting combat 
operations, growth of the Marine Corps, and other operational 
priorities. Generous support from the Congress has enabled long-term 
equipment solutions, and as a result, shortfalls within our strategic 
programs will be reset as equipment becomes available from industry.
            Maritime Prepositioning Squadrons (MPSRON)
    Our MPSRONs will be reset with the most capable equipment possible, 
and we have begun loading them with capabilities that support lower 
spectrum operations while still maintaining the ability to generate 
Marine Expeditionary Brigades capable of conducting major combat 
operations. The MPSRONs are currently rotating through Maritime 
Prepositioning Force Maintenance Cycle-9. MPSRON-1 completed MPF 
Maintenance Cycle-9 in September 2008 and is currently at 86 percent of 
its full equipment set. As I addressed in my 2008 report, equipment 
from MPSRON-1 was required to outfit new units standing up in fiscal 
year 2007 and fiscal year 2008 as part of our end strength increase to 
202,000. MPSRON-1 is expected to be fully reset at the completion of 
its next maintenance cycle in 2011.
    MPSRON-2 is currently undergoing its rotation through MPF 
Maintenance Cycle-9. Equipment from MPSRON-2 was offloaded to support 
Operation IRAQI FREEDOM and much of that equipment remains committed to 
forward operations today. With projected deliveries from industry, 
MPSRON-2 will complete MPF Maintenance Cycle-9 in June 2009 with 
approximately 90 percent of its planned equipment set. Our intent is to 
finish the reset of MPSRON-2 when it completes MPF Maintenance Cycle-10 
in fiscal year 2012. MPSRON-3 was reset to 100 percent of its equipment 
set during MPF Maintenance Cycle-8 in March 2007 and remains fully 
capable.
    We are currently in the process of replacing the aging, leased 
vessels in the Maritime Prepositioning Force with newer, larger, and 
more flexible government owned ships from the Military Sealift Command 
fleet. Two decades of equipment growth and recent armor initiatives 
have strained the capability and capacity of our present fleet--that 
was designed to lift a Naval Force developed in the early 1980s. As we 
reset MPF, these changes are necessary to ensure we incorporate hard 
fought lessons from recent combat operations.
    Five of the original 13, leased Maritime Prepositioning Ships will 
be returned to Military Sealift Command by July 2009. In their place, 
we are integrating 3 of Military Sealift Command's 19 large, medium-
speed, roll-on/roll-off ships (LMSR), a fuel tanker and a container 
ship into the MPF Program. One LMSR was integrated in September 2008 
and two more are planned for January 2010 and January 2011. The fuel 
tanker and container ship will be incorporated in June 2009. These 
vessels will significantly expand MPF's capacity and flexibility and 
will allow us to reset and optimize to meet current and emerging 
requirements. When paired with our amphibious ships and landing craft, 
the LMSRs provide us with platforms from which we can develop advanced 
seabasing doctrine and tactics, techniques, and procedures for 
utilization by the Maritime Prepositioning Force (Future) program.
            Marine Corps Prepositioning Program: Norway
    The Marine Corps Prepositioning Program--Norway (MCPP-N) was also 
used to source equipment in support of current operations in both 
Operations Iraqi and Enduring Freedom and to provide humanitarian 
assistance in Georgia. The Marine Corps continues to reset MCPP-N in 
accordance with our operational priorities while also exploring other 
locations for geographic prepositioning that will enable combat and 
theater security cooperation operations in support of forward deployed 
Naval Forces.
                         modernize for tomorrow
    Surprise is inevitable; however, its potentially disastrous effects 
can be mitigated by a well-trained, well-equipped, and disciplined 
force--always prepared for the crises that will arise. To that end and 
taking into account the changing security environment and hard lessons 
learned from 7 years of combat, the Marine Corps recently completed an 
initial review of its Operating Forces' ground equipment requirements. 
Recognizing that our unit Tables of Equipment (T/E) did not reflect the 
challenges and realities of the 21st century battlefield, the Corps 
adopted new T/Es for our operating units. This review was synchronized 
with our modernization plans and programs, and provided for enhanced 
mobility, lethality, sustainment, and command and control across the 
MAGTF. They reflect the capabilities required not only for the Corps' 
current mission, but for its future employment across the range of 
military operations, against a variety of threats, and in diverse 
terrain and conditions. The MAGTF T/E review is an integral part of the 
critical work being done to reset, reconstitute, and revitalize the 
Marine Corps.
    Additionally, we recently published the Marine Corps Vision and 
Strategy 2025, which guides our development efforts over the next two 
decades. Programs such as the Expeditionary Fighting Vehicle and the 
Joint Strike Fighter are critical to our future preparedness. 
Congressionally-mandated to be ``the most ready when the Nation is 
least ready,'' your multi-capable Corps will be where the Nation needs 
us, when the Nation needs us, and will prevail over whatever challenge 
we face.
Urgent Needs Process
    The Marine Corps Urgent Needs Process synchronizes abbreviated 
requirements, resourcing, and acquisition processes in order to 
distribute mission-critical warfighting capabilities on accelerated 
timelines. Operating forces use the Urgent Universal Need Statement to 
identify mission-critical capability gaps and request interim 
warfighting solutions to these gaps. Subject to statutes and 
regulations, the abbreviated process is optimized for speed and 
involves a certain degree of risk with regard to doctrine, 
organization, training, materiel, leadership and education, personnel, 
and facilities integration and sustainment, along with other deliberate 
process considerations. A Web-based system expedites processing; 
enables stakeholder visibility and collaboration from submission 
through resolution; and automates staff action, documentation, and 
approval. This Web-based system is one of a series of process 
improvements that, reduced average time from receipt through Marine 
Requirements Oversight Council decision from 142 days (December 2005 
through October 2006) to 85 days (November 2006 through October 2008).
Enhancing Individual Survivability
    We are providing Marines the latest in Personal Protection 
Equipment (PPE)--such as the Scalable Plate Carrier, Modular Tactical 
Vest, Lightweight Helmet, and Flame Resistant Organizational Gear 
(FROG). The Scalable Plate Carrier features a smaller area of coverage 
to reduce weight, bulk, and heat load for operations at higher 
elevations like those encountered in Afghanistan. Coupled with the 
Modular Tactical Vest, the Scalable Plate Carrier provides commanders 
options to address various mission/threat requirements. Both vests use 
Enhanced Small Arms Protective Inserts (E-SAPI) and Side SAPI plates 
and provide the best protection available against a wide variety of 
small arms threats--including 7.62 mm ammunition.
    The current Lightweight Helmet provides a high degree of protection 
against fragmentation threats and 9 mm bullets, and we continue to 
challenge industry to develop a lightweight helmet that will stop the 
7.62 mm round. The lifesaving ensemble of Flame-Resistant 
Organizational Gear (FROG) clothing items help to mitigate potential 
heat and flame injuries to our Marines from improvised explosive 
devices.
    We are also upgrading our Counter Radio-controlled Electronic 
Warfare (CREW) systems to meet evolving threats. Our Explosive Ordnance 
Disposal (EOD) equipment has been reconfigured and modernized to be 
used with CREW systems and has provided EOD technicians the capability 
of remotely disabling IEDs.
Marine Aviation Plan
    The fiscal year 2009 Marine Aviation Plan provides the way ahead 
for Marine Aviation through fiscal year 2018, with the ultimate long-
range goal of fielding an all-short-takeoff/vertical landing aviation 
force by 2025. We will continue to transition from our 12 legacy 
aircraft models to six new airframes and expand from 64 to 69 flying 
squadrons while adding 565 officers and more than 4,400 enlisted 
Marines.
            Joint Strike Fighter (JSF)
    The F-35 Lightning II, Joint Strike Fighter, will provide the 
Marine Corps with an affordable, stealthy, high performance, multi-role 
jet aircraft to operate in the expeditionary campaigns of the future. 
The JSF acquisition program was developed using the concept of cost as 
an independent variable (CAIV), which demands affordability, aggressive 
management, and preservation of the warfighting requirement. The F-
35B's cutting edge technology and STOVL design offer greater safety, 
reliability, and lethality than today's tactical aircraft.
    This aircraft will be the centerpiece of Marine Aviation. Our 
program of record is to procure 420 aircraft (F-35B, STOVL). Our first 
flight of the STOVL variant was conducted in the summer of 2008, and 
the manufacture of the first 19 test aircraft is well under way, with 
assembly times better than planned. We will reach initial operational 
capability in 2012, with a standing squadron ready to deploy.
            MV-22 Osprey
    The MV-22 is the vanguard of revolutionary assault support 
capability and is currently replacing our aged CH-46E aircraft. In 
September 2005, the MV-22 Defense Acquisition Board approved Full Rate 
Production, and MV-22 Initial Operational Capability was declared on 1 
June 2007, with a planned transition of two CH-46E squadrons per year 
thereafter. We have 90 operational aircraft, a quarter of our planned 
total of 360. These airframes are based at Marine Corps Air Station New 
River, North Carolina; and Pawtuxet River, Maryland. Recently, we 
welcomed back our third MV-22 squadron from combat. By the end of 
fiscal year 2009, we will have one MV-22 Fleet Replacement Training 
Squadron, one test squadron, and six tactical VMM squadrons.
    The MV-22 program uses a block strategy in its procurement. Block A 
aircraft are training aircraft and Block B are operational aircraft. 
Block C aircraft are operational aircraft with mission enhancements 
that will be procured in fiscal year 2010 and delivered in fiscal year 
2012.
    Teaming with Special Operations Command, we are currently on 
contract with BAE systems for the integration and fielding of a 7.62mm, 
all aspect, crew served, belly mounted weapon system that will provide 
an enhanced defensive suppressive fire capability. Pending successful 
developmental and operational testing we expect to begin fielding 
limited numbers of this system later in 2009.
    This aircraft, which can fly higher, faster, farther, and longer 
than the CH-46, provides dramatically improved support to the MAGTF and 
our Marines in combat. On deployments, the MV-22 is delivering Marines 
to and from the battlefield faster, ultimately saving lives with its 
speed and range. Operating from Al Asad, the MV-22 can cover the entire 
country of Iraq. The Marine Corps asked for a transformational assault 
support aircraft--and Congress answered.
            KC-130J Hercules
    The KC-130J Hercules is the workhorse of Marine aviation, providing 
state-of-the-art, multi-mission capabilities; tactical aerial 
refueling; and fixed-wing assault support. KC-130Js have been deployed 
in support of Operations IRAQI FREEDOM and ENDURING FREEDOM and are in 
heavy use around the world.
    The success of the aerial-refuelable MV-22 in combat is tied to the 
KC-130J, its primary refueler. The forced retirement of the legacy KC-
130F/R aircraft due to corrosion, fatigue life, and parts obsolescence 
requires an accelerated procurement of the KC-130J. In addition, the 
Marine Corps will replace its 28 reserve component KC-130T aircraft 
with KC-130Js, simplifying the force to one Type/Model/Series. The 
Marine Corps is continuing to plan for a total of 79 aircraft, of which 
34 have been delivered.
    In response to urgent requests from Marines currently engaged in 
combat in Afghanistan, additional capabilities are being rapidly 
fielded utilizing existing platforms and proven systems to enhance 
intelligence, surveillance, and reconnaissance (ISR) as well as fire 
support capability. The ISR/Weapon Mission Kit being developed for use 
onboard the KC-130J will enable the MAGTF commander to take advantage 
of the Hercules' extended endurance to provide persistent over-watch of 
ground units in a low-threat environment. A targeting sensor coupled 
with a 30mm cannon, Hellfire missiles, and/or standoff precision guided 
munitions will provide ISR coverage with a sting. Additionally, this 
added capability will not restrict or limit the refueling capability of 
the KC-130J. The USMC is rapidly pursuing fielding of the first two 
kits to support operations in Afghanistan in 2009.
            H-1 Upgrade
    The H-1 Upgrade Program (UH-1Y/AH-1Z) resolves existing operational 
UH-1N power margin and AH-1W aircrew workload issues while 
significantly enhancing the tactical capability, operational 
effectiveness, and sustainability of our attack and utility helicopter 
fleet. Our Vietnam-era UH-1N Hueys are reaching the end of their useful 
life. Due to airframe and engine fatigue, Hueys routinely take off at 
their maximum gross weight with no margin for error. Rapidly fielding 
the UH-1Y remains a Marine Corps aviation priority and was the driving 
force behind the decision to focus on UH-1Y fielding ahead of the AH-
1Z. Three UH-1Ys deployed aboard ship with a Marine Expeditionary Unit 
in January of 2009.
    Twenty production H-1 aircraft (14 Yankee and 6 Zulu) have been 
delivered. Operation and Evaluation Phase II commenced in February 
2008, and as expected, showcased the strengths of the upgraded 
aircraft. Full rate production of the UH-1Y was approved during the 
fourth quarter fiscal year 2008 at the Defense Acquisition Board (DAB) 
with additional Low Rate Initial Production (LRIP) aircraft approved to 
support the scheduled fleet introduction of the AH-1Z in the first 
quarter of fiscal year 2011.
            CH-53K
    The CH-53K is a critical ship-to-objective maneuver and seabasing 
enabler; it will replace our CH-53E, which has been fulfilling our 
heavy lift requirements for over 20 years. The CH-53K will be able to 
transport 27,000 pounds externally to a range of 110 nautical miles, 
more than doubling the CH-53E lift capability under similar 
environmental conditions while maintaining the same shipboard 
footprint. Maintainability and reliability enhancements of the CH-53K 
will significantly decrease recurring operating costs and will 
radically improve aircraft efficiency and operational effectiveness 
over the current CH-53E. Additionally, survivability and force 
protection enhancements will dramatically increase protection for 
aircrew and passengers; thereby broadening the depth and breadth of 
heavy lift operational support to the joint task force commander. 
Initial Operational Capability for the CH-53K is scheduled for fiscal 
year 2015. Until then, we will upgrade and maintain our inventory of 
CH-53Es to provide heavy lift capability in support of our warfighters.
            Unmanned Aerial Systems (UAS)
    When fully fielded, the Corps' Unmanned Aerial Systems will be 
networked through a robust and interoperable command and control system 
that provides commanders an enhanced capability applicable across the 
spectrum of military operations. Revolutionary systems, such as those 
built into the Joint Strike Fighter, will mesh with these UAS to give a 
complete, integrated picture of the battlefield to ground commanders.
    Our Marine Expeditionary Forces have transitioned our Unmanned 
Aerial Vehicle Squadrons (VMU) to the RQ-7B Shadow; reorganized the 
squadrons' force structure to support detachment-based flexibility 
(operating three systems versus one for each squadron); and are 
preparing to stand up our fourth active component VMU squadron. The 
addition of a fourth VMU squadron is critical to sustaining operations 
by decreasing our deployment-to-dwell ratio--currently at 1:1--to a 
sustainable 1:2 ratio. This rapid transition and reorganization, begun 
in January 2007, will be complete by the middle of fiscal year 2010.
    In Iraq and Afghanistan, the Marine Corps is currently using an ISR 
Services contract to provide Scan Eagle systems to our forces, but we 
anticipate fielding Small Tactical UAS (STUAS), a combined Marine Corps 
and Navy program, in fiscal year 2011 to fill that void at the regiment 
and Marine Expeditionary Unit (MEU) level. In support of battalion-and-
below operations, the Marine Corps is transitioning from the Dragon Eye 
to the joint Raven-B program.
            Airborne Electronic Attack (AEA)
    The EA-6B remains the premier electronic warfare platform within 
the Department of Defense. The Marine Corps is fully committed to the 
Prowler. While the Prowler continues to maintain a high deployment 
tempo, supporting operations against new and diverse irregular warfare 
threats, ongoing structural improvements and the planned Improved 
Capabilities III upgrades will enable us to extend the aircraft's 
service life through 2018.
    Beyond the Prowler, the future of electronic warfare for the Marine 
Corps will be comprised of a networked system-of-systems. The 
constituent components of this network include the F-35B Joint Strike 
Fighter, Unmanned Aerial Systems, Intelligence, Surveillance, and 
Reconnaissance pods and payloads, the Next Generation Jammer (NGJ), and 
ground systems already fielded or under development. Our future vision 
is to use the entire array of electronic warfare capabilities 
accessible as part of the distributed electronic warfare network. This 
critical and important distinction promises to make Marine Corps 
electronic warfare capabilities accessible, available, and applicable 
to all MAGTF and joint force commanders.
Ground Tactical Mobility Strategy
    The Army and Marine Corps are leading the Services in developing 
the right tactical wheeled vehicle fleets for the joint force. Through 
a combination of resetting and replacing current systems and developing 
several new vehicles, our work will provide the joint force with 
vehicles of appropriate expeditionary mobility, protection level, 
payload, transportability, and sustainability. As we develop new 
vehicles, it is imperative that our ground tactical vehicles provide 
adequate protection while still being sized appropriately for an 
expeditionary force.
            Expeditionary Fighting Vehicle (EFV)
    The EFV is the cornerstone of the Nation's forcible entry 
capability and the Marine Corps is in a period of critical risk until 
the EFV is fielded. Based on current and future threats, amphibious 
operations must be conducted from over the horizon and at least 25 
nautical miles at sea. The EFV is the sole sea-based, surface oriented 
vehicle that can project combat power from the assault echelon over the 
horizon to the objective. EFVs are specifically suited to maneuver 
operations from the sea and sustained operations ashore. It will 
replace the aging Assault Amphibious Vehicle, which has been in service 
since 1972. Complementary to our modernized fleet of tactical vehicles, 
the EFV's amphibious mobility, day and night lethality, enhanced force 
protection capabilities, and robust communications will substantially 
improve joint force capabilities.
    During the program's Nunn-McCurdy restructure in June 2007, the EFV 
was certified to Congress as essential to National security. EFV System 
Development and Demonstration was extended 4\1/2\ years to allow for 
design reliability. The EFV program successfully released a Critical 
Design Review in the first quarter of fiscal year 2009 during a 
capstone event that assessed the EFV design as mature with a predicted 
reliability estimate of 61 hours mean time between operational mission 
failures greatly exceeding the exit criteria of 43.5 hours. These 
improvements will be demonstrated during the Developmental Test and 
Operational Test phases starting second quarter fiscal year 2010 on the 
seven new EFV prototypes currently being manufactured at the Joint 
Services Manufacturing Center in Lima, Ohio. The Low Rate Initial 
Production decision is programmed for fiscal year 2012. The current 
acquisition objective is to produce 573 EFVs. Initial Operational 
Capability is scheduled for 2015 and Full Operational Capability is 
scheduled for 2025.
            Mine Resistant Ambush Protected (MRAP) Vehicles
    The Marine Corps is executing this joint urgent requirement to 
provide as many highly survivable vehicles to theater as quickly as 
possible. In November 2008, the Joint Requirements Oversight Council 
established a new 16,238-vehicle requirement for all Services and 
SOCOM. The current Marine Corps requirement of 2,627 vehicles supports 
our in-theater operations and home station training and was satisfied 
in June 2008. We are currently developing modifications that will 
provide for greater off-road mobility and utility in an Afghan 
environment in those vehicles that have been procured.
Vehicle Armoring
    The evolving threat environment requires proactive management of 
tactical wheeled vehicle programs in order to provide Marine 
warfighters with the most well protected, safest vehicles possible 
given technological limitations. Force protection has always been a 
priority for the Marine Corps. We have fielded a Medium Tactical 
Vehicle Replacement (MTVR) Armor System for the MTVR; Fragmentation 
Armor Kits for the High Mobility Multipurpose Wheeled Vehicles (HMMWV); 
Marine Armor Kits (MAK) armor for the Logistics Vehicle System (LVS); 
and the Mine Resistant Ambush Protected (MRAP) vehicles. We have 
developed increased force protection upgrades to the MTVR Armor System, 
safety upgrades for the HMMWVs, and are developing improved armor for 
the Logistics Vehicle System. We will continue to work with the Science 
& Technology community and with our sister Services to develop and 
apply technology as required to address force protection. Congressional 
support for our force protection efforts has been overwhelming, and we 
ask that Congress continue their life-saving support in the coming 
years.
Marine Air Ground Task Force (MAGTF) Fires
    In 2007, we initiated ``The MAGTF Fires Study.'' This study 
examined the current organic fire support of the MAGTF to determine the 
adequacy, integration, and modernization requirements for ground, 
aviation, and naval surface fires. The study concluded that the MAGTF/
Amphibious Task Force did not possess an adequate capability to engage 
moving armored targets and to achieve a volume of fires in all weather 
conditions around the clock. This deficiency is especially acute during 
Joint Forcible Entry Operations. We are currently conducting a study 
with the Navy to analyze alternatives for meeting our need for naval 
surface fires during this phase. Additionally, we performed a 
supplemental historical study using Operation IRAQI FREEDOM data to 
examine MAGTF Fires across the range of military operations. These 
studies reconfirmed the requirement for a mix of air, naval surface, 
and ground-based fires as well as the development of the Triad of 
Ground Indirect Fires.
            Triad of Ground Indirect Fires
    The Triad of Ground Indirect Fires provides for complementary, 
discriminating, and non-discriminating fires that facilitate maneuver 
during combat operations. The Triad requires three distinct systems to 
address varying range and volume requirements. Offering improved 
capabilities and mobility, the M777 is a medium-caliber artillery piece 
that is currently replacing the heavy and aged M198 Howitzer. The High 
Mobility Artillery Rocket System is an extended range, ground-based 
rocket capability that provides precision and volume fires. The 
Expeditionary Fire Support System (EFSS) is a towed 120mm mortar. It 
will be the principal indirect fire support system for heli-borne and 
tilt rotor-borne forces executing Ship-to-Objective Maneuver. When 
paired with an Internally Transportable Vehicle, the EFSS can be 
transported aboard MV-22 Osprey and CH-53E aircraft. EFSS-equipped 
units will have immediately responsive, organic indirect fires at 
ranges beyond those of current infantry battalion mortars. Initial 
operational capability is planned in 2009 with full operational 
capability expected for fiscal year 2012.
            Naval Surface Fire Support
    In the last year, the Naval Services have focused on reinvigorating 
our strategy for building naval surface fire support capable of 
engaging targets at ranges consistent with our Ship-to-Objective 
Maneuver concept. In March 2008, the Extended Range Guided Munition 
development effort, which was designed to provide naval gunfire at 
ranges up to 53 nautical miles, was cancelled due to numerous technical 
and design flaws. The DDG 1000 program, which provides for an Advanced 
Gun System firing the Long Range Land Attack Projectile 70 nautical 
miles as well as for the Dual Band RADAR counter-fire detection 
capability, was truncated as priorities shifted to countering an 
emerging ballistic missile threat. As a result, the Marine Corps and 
Navy are committed to re-evaluating methods for providing required 
naval fires.
            Aviation Fires
    Marine aviation is a critical part of the MAGTF fires capability. 
The Joint Strike Fighter will upgrade missile and bomb delivery, 
combining a fifth-generation pilot-aircraft interface, a 360-degree 
view of the battlefield, and a new generation of more lethal air-
delivered ordnance coming online through 2025. Systems, such as 
Strikelink, will mesh forward air controllers with pilots and infantry 
officers at all levels. Laser and global positioning systems will 
provide terminal phase precision to less-accurate legacy bombs, 
missiles and rockets, providing more-lethal, all-weather aviation 
fires.
Infantry Weapons
    We are also developing infantry weapons systems based on our combat 
experience and supporting studies. These systems not only support the 
current fight, but also posture Marines to respond across the full 
spectrum of war. Our goals include increased lethality and combat 
effectiveness, reduced weight, improved modularity, and integration 
with other combat equipment. The Marine Corps and Army are co-leading a 
joint Service capabilities analysis in support of future developments.
    The M16A4 and the M4 carbine are collectively referred to as the 
Modular Service Weapon. While both weapons have proven effective and 
reliable in combat operations, we must continually seek ways of 
improving the weapons with which we equip our warriors. With that in 
mind, we are re-evaluating current capabilities and determining 
priorities for a possible future service rifle and pistol.
    We are in the process of acquiring the Infantry Automatic Rifle, 
which is shorter and lighter than the M249 Squad Automatic Weapon and 
will enable the automatic rifleman to keep pace with the fire team 
while retaining the capability to deliver accurate and sustained 
automatic fire in all tactical environments. The Infantry Automatic 
Rifle will increase the lethality of our rifle squads while reducing 
logistical burden.
    The Marine Corps is also upgrading its aging Shoulder-launched 
Multipurpose Assault Weapon (SMAW) with a lighter launcher and enhanced 
targeting and fire control. In concert with this, we are developing a 
``fire from enclosure'' rocket that will enable Marines to fire the 
SMAW from within a confined space.
            Non-lethal Weapons
    Our joint forces will continue to operate in complex security 
environments where unintended casualties and infrastructure damage will 
work against our strategic goals. Therefore, our warfighters must have 
the capability to respond using both lethal and non-lethal force. As 
the Executive Agent for the Department of Defense Non-Lethal Weapons 
Program, the Marine Corps oversees and supports joint Service 
operational requirements for non-lethal weapons and their development 
to meet identified capability gaps. Our efforts extend across the 
globe, as reflected by the Department of Defense's engagement with the 
North Atlantic Treaty Organization in identifying emerging non-lethal 
capabilities. Directed-energy technology is proving to hold much 
promise for the development of longer-range, more effective non-lethal 
weapons. Non-lethal weapon applications will provide new options for 
engaging personnel, combating small boat threats, and stopping 
vehicles, and are critical to our success against today's hybrid 
threats.
Command and Control
    The Marine Corps' Command and Control Harmonization Strategy 
articulates our goal of delivering seamless support to Marines. We are 
taking the best of emerging technologies to build an integrated set of 
capabilities that includes the Common Aviation Command and Control 
System (CAC2S), Joint Tactical Radio System, Very Small Aperture 
Terminal, the Combat Operations Center (COC), Joint Tactical COP 
Workstation, and Blue Force tracking system.
            Combat Operations Center (COC)
    By 2010, the MAGTF Combat Operations Center capability will 
integrate air and ground tactical situations into one common picture. 
The COC program has a current Authorized Acquisition Objective of 260 
systems, of which 242 are COCs supporting regimental/group-size and 
battalion/squadron-size operating forces. As of 1 May 2009, 22 COCs 
have been deployed overseas in support of units participating in 
Operation IRAQI FREEDOM; 16 COCs are deployed in support of Operation 
ENDURING FREEDOM. COC systems will eventually support the warfighter 
from the Marine Expeditionary Force-level to the company-level and 
below.
Marine Corps Enterprise Network (MCEN)
    The Marine Corps Enterprise Network (MCEN) enables the Marine 
Corps' warfighters and business domains to interface with joint forces, 
combatant commands, and the other Services on our classified and 
unclassified networks.
    To meet the growing demands for a modern, networked force, the 
Marine Corps, as part of a Department of Navy-led effort, is 
transitioning its Non-Secure Internet Protocol Routing Network 
(NIPRNET) from the contract owned and contract operated Navy-Marine 
Corps Intranet (NMCI) to a government owned and government operated 
Next Generation Enterprise Network (NGEN). This transition will provide 
the Marine Corps unclassified networks increased security, control, and 
flexibility.
    The Marine Corps continues to invest in the expansion and 
enhancement of our Secret Internet Protocol Routing Network (SIPRNET) 
to ensure a highly secure and trusted classified network that meets our 
operational and intelligence requirements.
    The Marine Corps has enhanced its security posture with a defense-
in-depth strategy to respond to cyber threats while maintaining network 
accessibility and responsiveness. This layered approach, aligned with 
Department of Defense standards, provides the Marine Corps networks 
that support our warfighting and business operations while protecting 
the personal information of our Marines, Sailors, and their families.
Intelligence, Surveillance, and Reconnaissance (ISR)
    We continue to improve the quality, timeliness, and availability of 
actionable intelligence through implementation of the Marine Corps 
Intelligence, Surveillance, and Reconnaissance Enterprise (MCISR-E). 
This approach incorporates Marine Corps ISR capabilities into a 
flexible framework that enables us to collect, analyze, and rapidly 
exchange information necessary to facilitate increased operational 
tempo and effectiveness. Through development of the Distributed Common 
Ground System--Marine Corps (DCGS-MC), the enterprise will employ fully 
integrated systems architecture compliant with joint standards. This 
will allow our units to take advantage of joint, national, interagency, 
and coalition resources and capabilities, while making our intelligence 
and combat information available to the same. MCISR-E will integrate 
data from our ground and aerial sensors as well as from non-traditional 
intelligence assets, such as from battlefield video surveillance 
systems, Joint Strike Fighter sensors, and unit combat reports. This 
will enhance multi-discipline collection and all-source analytic 
collaboration. Additionally, MCISR-E will improve interoperability with 
our command and control systems and facilitate operational reach-back 
to the Marine Corps Intelligence Activity and other organizations.
    Recent growth in intelligence personnel permitted us to establish 
company-level intelligence cells, equipped with the tools and training 
to enable every Marine to be an intelligence collector and consumer. 
This capability has improved small unit combat reporting and enhanced 
operational effectiveness at all levels. Collectively, these efforts 
provide an adaptive enterprise that supports Marine Air-Ground Task 
Force intelligence requirements across the full range of military 
operations.
Improved Total Life Cycle Management
    To assure effective warfighting capabilities, we are improving the 
Total Life Cycle Management of ground equipment and weapons systems. 
Overall mission readiness will be enhanced through the integration of 
the Total Life Cycle Management value stream with clear aligned roles, 
responsibilities, and relationships that maximize the visibility, 
supportability, availability, and accountability of ground equipment 
and weapons systems.
    This will be accomplished through the integration of activities 
across the life cycle of procuring, fielding, sustaining, and disposing 
of weapon systems and equipment. Some of the expected benefits include:
  --``Cradle to grave'' material life cycle management capability
  --Clearly defined roles and responsibilities for life cycle 
        management across the enterprise
  --Availability of reliable fact-based information for decision making
  --Full cost visibility
  --Full asset visibility
  --Standardized processes and performance metrics across the 
        enterprise
  --Improved internal management controls
Water and Energy Conservation
    The Marine Corps believes in good stewardship of water and energy 
resources aboard our installations. In April 2009, we published our 
Facilities Energy & Water Management Campaign Plan, which includes the 
steps we are taking to reduce greenhouse gas emissions and our 
dependence on foreign oil. In our day-to-day operations and long-term 
programs, we intend to reduce the rate of energy use in existing 
facilities, increase energy efficiency in new construction and 
renovations, expand the use of renewable resources, reduce usage rates 
of water on our installations, and improve the security and reliability 
of energy and water systems.
                a naval force, for employment as a magtf
    Your Corps provides the Nation a multi-capable naval force that 
operates across the full range of military operations. The Navy, Marine 
Corps, and Coast Guard will soon publish the Naval Operations Concept 
2009 (NOC 09). This publication describes how, when, and possibly where 
U.S. naval forces will prevent conflict--and/or prevail in war--as part 
of a maritime strategy. In this era of strategic uncertainty, forward 
deployed naval forces are routinely positioned to support our national 
interests. The ability to overcome diplomatic, geographic, and anti-
access impediments anywhere on the globe is a capability unique to 
naval forces. Our strategies and concepts address the following 
requirements: The ability to maintain open and secure sea lines of 
communication for this maritime nation; the ability to maneuver over 
and project power from the sea; the ability to work with partner 
nations and allies to conduct humanitarian relief or non-combatant 
evacuation operations; and the ability to conduct sustained littoral 
operations along any coastline in the world. These strategies and 
concepts highlight the value of naval forces to the Nation and 
emphasize the value of our Marine Corps-Navy team.
Seabasing
    The ability to operate independently from the sea is a core 
capability of the Navy and Marine Corps. Seabasing is our vision of 
future joint operations from the sea. Seabasing is the establishment of 
a port, an airfield, and a replenishment capability at sea through the 
physical coupling and interconnecting of ships beyond the missile range 
of the enemy. We believe sea-based logistics, sea-based fire support, 
and the use of the ocean as a medium for tactical and operational 
movement will permit our expeditionary forces to move directly from 
their ships to the objectives--on the shoreline or far inland. From 
that base at sea--with no footprint ashore--we will be able to conduct 
the full range of operations, from forcible entry to disaster relief or 
humanitarian assistance.
Forcible Entry
    Naval forces afford the Nation's only sustainable forcible entry 
capability. Two Marine Expeditionary Brigades (MEBs) constitute the 
assault echelon of a sea-based Marine Expeditionary Force. Each MEB 
assault echelon requires 17 amphibious warfare ships--resulting in an 
overall ship requirement of 34 operationally available amphibious 
warfare ships. In order to meet a 34-ship availability rate based on a 
Chief of Naval Operations approved maintenance factor of 10 percent 
(not available for deployment), this calls for an inventory of 38 
amphibious ships. This amphibious fleet must be composed of not less 
than 11 amphibious assault ships (LHA/LHD), 11 amphibious transport 
dock ships (LPD-17 class), and 12 dock landing ships (LSD), with 4 
additional amphibious ships, which could be either LPDs or LSDs. This 
arrangement accepts a degree of risk but is feasible if the assault 
echelons can be rapidly reinforced by the Maritime Prepositioning Force 
(future). The Navy and Marine Corps agreed to this requirement for 38 
amphibious warfare ships.
            LPD-17
    The recent deployment of the first of the San Antonio-class 
amphibious warfare ship demonstrates the Navy's commitment to a modern 
expeditionary power projection fleet that will enable our naval force 
to operate across the spectrum of conflict. It is imperative that, at a 
minimum, 11 of these ships be built to support the 2.0 MEB assault 
echelon amphibious lift requirement. Procurement of the 10th and 11th 
LPD remains one of our highest priorities. The Marine Corps recognizes 
and appreciates the support Congress has provided in meeting the 
requirement for 11 LPD-17 ships.
    To assist the Navy in transitioning to an optimum number and types 
of common hull forms, the LPD-17 remains the leading candidate for 
replacing the dock landing ships (LSD). Constructing new amphibious 
ships based on the incremental refinement of common hull forms will 
greatly enhance our ability to meet evolving MAGTF lift requirements. 
Critical to this strategy is the development of a shipbuilding schedule 
that will provide a smooth transition from legacy ship decommissioning 
to new ship delivery, minimizing operational risk while driving costs 
down.
    Today and in the future, LPD-17 class ships will play a key role by 
forward deploying Marines and their equipment to execute global 
commitments throughout all phases of engagement. The ship's flexible, 
open-architecture design will facilitate expanded force coverage and 
decrease reaction times of forward deployed Marine Expeditionary Units. 
It will also offer the capacity to maintain a robust surface assault 
and rapid off-load capability in support of combatant commander forward 
presence and warfighting requirements.
            LHA(R)/LH(X)
    A holistic amphibious shipbuilding strategy must ensure that our 
future warfighting capabilities from the sea are fully optimized for 
both vertical and surface maneuver capabilities. The MV-22 and Joint 
Strike Fighter, combined with CH-53 K and the UH-1 Y/Z, will provide an 
unparalled warfighting capacity for the combatant commanders. Two 
Amphibious Assault (Replacement) (LHA(R)) ships with enhanced aviation 
capabilities will replace two of the retiring Amphibious Assault (LHA) 
class ships and join the eight LHD class amphibious assault ships. The 
LHA(R) design traded surface warfare capabilities to provide enhanced 
aviation hangar and maintenance spaces to support aviation maintenance, 
increase jet fuel storage and aviation ordnance magazines, and increase 
aviation sortie generation rates.
    Operational lessons learned and changes in future operational 
concepts have caused changes in MAGTF equipment size and weight and 
have reinforced the requirement for amphibious ships with flexible 
surface interface capabilities. The Marine Corps remains committed to 
meeting the long-standing requirement for simultaneous vertical and 
surface maneuver capabilities from the seabase. Toward that end, 
follow-on big deck amphibious ship construction to replace LHAs will 
incorporate surface interface capabilities while retaining significant 
aviation enhancements of the LHA Replacement ship.
Maritime Prepositioning Force (Future)
    The Maritime Prepositioning Force (Future) (MPF(F)) is a key 
Seabasing enabler and will build on the success of the legacy Maritime 
Prepositioning Force program. MPF(F) will provide support to a wide 
range of military operations, from humanitarian assistance to major 
combat operations, with improved capabilities such as at-sea arrival 
and assembly; selective offload of mission sets; persistent, long-term, 
sea-based sustainment; and at-sea reconstitution. The squadron is 
designed to provide combatant commanders a highly flexible operational 
and logistics support capability to meet widely varied expeditionary 
missions ranging from reinforcing and supporting the assault echelon 
during Joint Forcible Entry Operations to conducting independent 
operations throughout the remaining range of military operations. The 
squadron will preposition a single MEB's critical equipment and 
sustainment capability for delivery from the sea base without the need 
for established infrastructure ashore.
    The Acting Secretary of the Navy, the Chief of Naval Operations, 
and the Commandant of the Marine Corps approved MPF(F) squadron 
capabilities and ship composition in May 2005, as documented in the 
MPF(F) Report to Congress on 6 June 2005. Those required capabilities 
and ship composition remain fully valid today in meeting the full range 
of combatant commander mission requirements. The MPF(F) squadron is 
designed to be comprised of three aviation-capable ships, three 
modified Large Medium-Speed Roll-on/roll-off ships (LMSR), three Dry 
Cargo/Ammunition (T-AKE) supply ships, three Mobile Landing Platforms, 
and two legacy dense-packed (T-AK) ships.
            MPF(F) Aviation Capable Ships: ``An Airfield Afloat''
    MPF(F) aviation-capable ships are the key Seabasing enablers that 
set it apart from legacy prepositioning programs. These ships are 
multifaceted enablers that are vital to the projection of forces from 
the seabase, offering a new level of operational flexibility and reach. 
MPF(F) aviation capable ships contain the MEB's command and control 
nodes as well as medical capabilities, vehicle stowage, and berthing 
for the MEB. They serve as a base for rotary wing/tilt-rotor aircraft, 
thus supporting the vertical employment of forces to objectives up to 
110 nautical miles from the sea base as well as surface reinforcement 
via the LHD well deck. These ships allow for the stowage, operation, 
arming, control, and maintenance of aircraft in the seabase, which 
directly allows for the vertical and surface employment, projection, 
and sustainment of forces ashore.
    Without these ships, the MPF(F) squadron would have to compensate 
for the necessary operational capabilities and lift capacities, 
increasing the number of ships, modifying the remaining platforms in 
the squadron, and/or accepting significant additional operational risk 
in areas such as vertical maneuver, command and control, and medical.
            Mobile Landing Platform (MLP): ``A Pier in the Ocean''
    The Mobile Landing Platform (MLP) is perhaps the most flexible 
platform in the MPF(F) squadron. MLP will provide at-sea vehicle, 
equipment, and personnel transfer capabilities from the Large Medium 
Speed Roll-on/Roll-off ship (LMSR) to air-cushioned landing craft via 
the MLP's vehicle transfer system currently under development. The MLP 
also provides organizational and intermediate maintenance that enables 
the surface employment of combat ready forces from over the horizon. In 
short, the MLP is a highly flexible, multi-purpose intermodal 
capability that will be a key interface between wide varieties of 
seabased platforms. Instead of ships and lighters going to a terminal 
on shore, they will conduct at-sea transfers of combat-ready personnel, 
vehicles, and equipment to and from the MPF(F).
    Beyond its critical role within the MPF(F) squadron, the MLP also 
serves as the crucial joint interface platform with other Services and 
coalition partners. The MLP will possess an enhanced container-handling 
capability, allowing it to transfer containerized sustainment from 
military and commercial ships to forces ashore.
            Dry Cargo/Ammunition Ship (T-AKE): ``A Warehouse Afloat''
    The Dry Cargo/Ammunition Ship (T-AKE) is a selectively off-
loadable, afloat warehouse ship that is designed to carry dry, frozen, 
and chilled cargo, ammunition, and limited cargo fuel. It is a 
versatile supply platform with robust underway replenishment 
capabilities for both dry and wet cargo that can re-supply other ships 
in the squadron and ground forces as required. Key holds are 
reconfigurable for additional flexibility. It has a day/night capable 
flight deck. The squadron's three T-AKEs will have sufficient dry cargo 
and ammunition capacities to provide persistent sustainment to the 
Marine Expeditionary Brigade operating ashore. The cargo fuel--in 
excess of a million gallons--will greatly contribute to sustaining the 
forces ashore. These ships can support the dry cargo and compatible 
ammunition requirements of joint forces and are the same ship class as 
the Combat Logistics Force T-AKE ships.
            Large Medium-Speed Roll-on/Roll-off (LMSR) Ship: ``Assembly 
                    at Sea''
    A Large Medium Speed Roll on/Roll off ship (LMSR) platform will 
preposition MEB assets and will enable at-sea arrival and assembly 
operations and selective offload operations. Expansive vehicle decks 
and converted cargo holds will provide sufficient capacity to stow the 
MEB's vehicles, equipment, and supplies in an accessible configuration. 
This, combined with selective offload via the MLP's vehicle transfer 
system, will permit at-sea arrival and assembly operations within the 
ship. The LMSR will have sufficient berthing for assembly and 
integration of MEB personnel and associated vehicles and equipment. 
LMSR modifications will include two aviation operating spots, underway 
replenishment equipment, a controlled assembly area, and ordnance 
magazines and elevators. Specific modifications, such as the side port 
hatch design and inclusion of anti-roll tanks, will facilitate 
employing the MLP's vehicle transfer system with the MPF(F) LMSR during 
seabased operations. The LMSR will also have dedicated maintenance 
areas capable of supporting organizational intermediate maintenance 
activities for all ground combat equipment.
                        our marines and families
    While our deployed Marines never question the need or ability to 
live in an expeditionary environment and harsh climates, they have 
reasonable expectations that their living quarters at home station will 
be clean and comfortable. Those who are married want their families to 
enjoy quality housing, schools, and family support. It is a moral 
responsibility for us to support them in these key areas. A quality of 
life survey we conducted in late 2007 reflected that despite the 
current high operational tempo, Marines and spouses were satisfied with 
the support they receive from the Marine Corps. Marines make an 
enduring commitment to the Corps when they earn the title Marine. In 
turn, the Corps will continue its commitment to Marines and their 
families. We extend our sincere appreciation for Congress' commitment 
to this Nation's wounded warriors and their direction for the 
establishment of Centers of Excellence within the Department of Defense 
that address Traumatic Brain Injury, Post-traumatic Stress Disorder, 
eye injuries, hearing loss, and a joint Department of Defense/
Department of Veterans Affairs Center addressing loss of limbs.
Family Readiness Programs
    Last year, we initiated a multi-year plan of action to put our 
family support programs on a wartime footing. We listened to our 
families and heard their concerns. We saw that our commanders needed 
additional resources, and we identified underfunded programs operating 
largely on the strength and perseverance of hard-working staff and 
volunteers.
    To address the above concerns, we have established full-time Family 
Readiness Officer billets in more than 400 units and have also acted to 
expand the depth and breadth of our family readiness training programs. 
The Family Readiness Officer is supported in this mission by the Marine 
Corps Community Services Program. For the families communication with 
their deployed Marines is their number one quality of life requirement. 
With the Family Readiness Officer serving as the focal point, we have 
used information technology tools to expand the communication between 
Marines and their families.
    These initiatives and others demonstrate the commitment of the 
Marine Corps to our families and underscore the significance of family 
readiness to mission readiness. We thank Congress for the supplemental 
funding during fiscal years 2008 and 2009 that enabled initial start-
up. Beginning in fiscal year 2010, the funding required to maintain 
these critical programs will be part of our baseline budget.
Casualty Assistance
    Our casualty assistance program is committed to ensuring that 
families of our fallen Marines are treated with the utmost compassion, 
dignity, and honor. We have taken steps to correct the unacceptable 
deficiencies in our casualty reporting process that were identified in 
congressional hearings and subsequent internal reviews.
    Marine Corps commands now report the initiation, status, and 
findings of casualty investigations to the Headquarters Casualty 
Section in Quantico, which has the responsibility to ensure the next of 
kin receive timely notification of these investigations from their 
assigned Casualty Assistance Calls Officer.
    The Headquarters Casualty Section is a 24-hour-per-day operation 
manned by Marines trained in casualty reporting, notification, and 
casualty assistance procedures. These Marines have also taken on the 
additional responsibility of notifying the next of kin of wounded, 
injured, and ill Marines.
    In October 2008, we implemented a mandatory training program for 
Casualty Assistance Calls Officers that includes a Web-based capability 
to expand the reach of the course. This training covers notification 
procedures, benefits and entitlements, mortuary affairs, and grief and 
bereavement issues. We will continue to monitor the effectiveness of 
these changes and make adjustments where warranted.
Wounded Warrior Regiment
    The Marine Corps is very proud of the positive and meaningful 
impact that the Wounded Warrior Regiment is having on wounded, ill, and 
injured Marines, Sailors, and their families. Just over 18 months ago, 
we instituted a comprehensive and integrated approach to Wounded 
Warrior care and unified it under one command. The establishment of the 
Wounded Warrior Regiment reflects our deep commitment to the welfare of 
our wounded, ill, and injured, and their families throughout all phases 
of recovery. Our single process provides active duty, reserve, and 
separated Marines with non-medical case management, benefit information 
and assistance, resources and referrals, and transition support. The 
nerve center of our Wounded Warrior Regiment is our Wounded Warrior 
Operations Center--where no Marine is turned away.
    The Regiment strives to ensure programs and processes adequately 
meet the needs of our wounded, ill, and injured and that they remain 
flexible to preclude a one-size-fits-all approach to that care. For 
example, we have transferred auditing authority for pay and 
entitlements from the Defense Finance and Accounting Service in 
Cleveland directly to the Wounded Warrior Regiment, where there is a 
comprehensive awareness of each wounded Marine's individual situation. 
We have also designed and implemented a Marine Corps Wounded, Ill, and 
Injured Tracking System to maintain accountability and case management 
for the Marine Corps Comprehensive Recovery Plan. To ensure effective 
family advocacy, we have added Family Readiness Officers at the 
Regiment and our two battalions to support the families of our wounded, 
ill, and injured Marines.
    While the Marine Corps is aggressively attacking the stigma and 
lack of information that sometimes prevents Marines from asking for 
help, we are also proactively reaching out to those Marines and Marine 
veterans who may need assistance. Our Sergeant Merlin German Wounded 
Warrior Call Center not only receives calls from active duty and former 
Marines, but also conducts important outreach calls. In the past year, 
the Marine Corps added Battalion contact cells that make periodic 
outreach to Marines who have returned to duty in order to ensure their 
recovery needs are being addressed and that they receive information on 
any new benefits. The Call centers between them have made over 40,000 
calls to those Marines injured since September 2001 to assess how they 
are doing and offer our assistance.
    To enhance reintegration, our Job Transition Cell, manned by 
Marines and representatives of the Departments of Labor and Veterans 
Affairs, has been proactively reaching out to identify and coordinate 
with employers and job training programs to help our wounded warriors 
obtain positions in which they are most likely to succeed and enjoy 
promising careers. One example is our collaboration with the U.S. House 
of Representatives to establish their Wounded Warrior Fellowship 
Program for hiring disabled veterans to work in congressional offices.
    The Marine Corps also recognizes that the needs of our wounded, 
ill, and injured Marines and their families are constantly evolving. We 
must ensure our wounded Marines and their families are equipped for 
success in today's environment and in the future.
    As we continue to improve the care and management of our Nation's 
wounded, the Marine Corps is grateful to have the support of Congress. 
In addition to the support provided in the fiscal year 2009 National 
Defense Authorization Act, I would like to thank you for your personal 
visits to our Wounded Warriors in the hospital wards where they are 
recovering and on the bases where they live. The Marine Corps looks 
forward to continuing to work with Congress in ensuring that our 
wounded, ill, and injured Marines receive the best care, resources, and 
opportunities possible.
Traumatic Brain Injury (TBI)
    With 2,700 new cases of Marines with TBI entered into the 
Department of Defense and Veteran's Brain Injury Center (DVBIC) in 
calendar year 2008, we continue to see TBI as a significant challenge 
that we are confronting. Many of these new cases represent older 
injuries that are just now being diagnosed, and our expectation is 
that, with the institution of the Automated Neuropsychological 
Assessment Metrics (ANAM) for all Marines, we will discover mild 
Traumatic Brain Injuries more promptly post-deployment. While the 
Marine Corps is providing leadership and resources to deal with this 
problem, we cannot solve all the issues on our own.
    The Marine Corps continues to work closely with Military Medicine, 
notably DOD's Center of Excellence for Psychological Health and 
Traumatic Brain Injury, to advance our understanding of TBI and improve 
care for all Marines. We are grateful for your continued support in 
this area.
Psychological Health Care
    Marine Corps commanders are fully engaged in promoting the 
psychological health of our Marines, Sailors, and family members. The 
message to our Marines is to look out for each other and to know that 
it is okay to get help. While culture change is hard to measure, we 
feel that the efforts we have made to reduce the stigma of combat 
stress are working.
    The Marine Corps Combat and Operational Stress Control Program 
encompasses a set of policies, training, and tools to enable leaders, 
individuals, and families to prepare for and manage the stress of 
operational deployment cycles. Our training emphasizes ways in which to 
recognize stress reactions, injuries, and illnesses early and manage 
them more effectively within operational units. Our assessments of 
stress responses and outcomes are rated on a continuum: unaffected; 
temporarily or mildly affected; more severely impaired but likely to 
recover; or persistently distressed or disabled. Combat stress deserves 
the same attention and care as any physical wound of war, and our 
leaders receive extensive training on how to establish an environment 
where it is okay to ask for help.
    To assist leaders with prevention, rapid identification, and early 
treatment of combat operational stress, we are expanding our program of 
embedding mental health professionals in operational units--the 
Operational Stress Control and Readiness (OSCAR) program--to provide 
direct support to all active and reserve ground combat elements. This 
will be achieved over the next 3 years through realignment of existing 
Navy structure supporting the operating forces, and increases in Navy 
mental health provider inventory. Our ultimate intent is to expand 
OSCAR to all elements of the Marine Air-Ground Task Force. In the 
interim, OSCAR teams are filled to the extent possible on an ad hoc 
basis with assets from Navy Medicine.
Exceptional Family Member Program (EFMP)
    Last year, I reported on our intent to establish a continuum of 
care for our EFMP families. We are actively helping more than 6,000 
families in the Exceptional Family Member Program gain access to 
medical, educational, and financial care services that may be limited 
or restricted at certain duty stations. We have assigned case managers 
to all of our enrolled EFMP families, obtained the help of the Bureau 
of Medicine and Surgery and TRICARE to resolve health care concerns at 
several bases, and directed legal counsel to advise the EFMP and our 
families on State and Federal entitlements and processes. Additionally, 
we are developing assignment policies that will further facilitate the 
continuum of care.
    While no family should have to endure interruptions in care, 
gaining access to services can be most challenging to families who have 
Autism Spectrum Disorder (ASD). We sincerely appreciate the support of 
Congress for our ASD families and others who are entitled to the 
TRICARE Extended Care Health Option (ECHO) program. For fiscal year 
2009, you have increased the monthly reimbursement rate for Applied 
Behavioral Analysis (ABA)--a specific therapy that our Marine families 
value.
    However, there is still more to do. While appropriate TRICARE 
reimbursement rates are important, the highly specialized services 
these families require are not always available. We are evaluating how 
we can partner with other organizations to increase the availability of 
these specialized services in areas where resources are currently 
lacking.
Water Contamination at Camp Lejeune
    Past water contamination at Camp Lejeune has been, and continues to 
be, a very important issue for the Marine Corps. Using good science, 
our goal is to determine whether past exposure to the contaminated 
water at Camp Lejeune resulted in any adverse health effects for our 
Marines, their families, or our civilian workers.
    The Marine Corps continues to support the Agency for Toxic 
Substances and Disease Registry (ATSDR) in their health study, which is 
estimated to be completed in late 2009. With the help of Congress, the 
National Academy of Sciences is assisting us in developing a way ahead 
on this difficult issue.
    The Marine Corps continues to make progress notifying former 
residents and workers. We have established a call center and registry 
where the public can provide contact information so that we can notify 
them when these health studies are complete.
    Our outreach efforts include a range of communication venues to 
include letters to individuals located from Department of Defense 
databases, paid print and broadcast advertising, publications in 
military magazines, press releases, and a fully staffed call center. As 
of 22 March 2009, we have had 131,000 total registrations and mailed 
more than 200,000 direct notifications.
Sexual Assault Prevention and Response
    Sexual assault is a crime, and we take every reported incident very 
seriously. The impact on its victims and the corrosive effect on unit 
and individual readiness are matters of great concern. A recent 
Government Accountability Office study reported several shortcomings in 
our program. To address these findings, we are refreshing our training 
program and assessing the requirement to hire full-time Sexual Assault 
Prevention and Response Program coordinators at installations with 
large troop populations. We have trained more than 3,200 victim 
advocates to provide assistance upon the request. All Marines receive 
sexual assault prevention and awareness training upon entry and are 
required to receive refresher training at least annually. We have also 
incorporated sexual assault prevention into officer and noncommissioned 
officer professional development courses and key senior leader 
conferences and working groups. At the request of our field commanders, 
we have also increased the number of Marine Corps judge advocates who 
attend specialized training on prosecution of these crimes and have 
assembled a mobile training team to teach our prosecutors how to better 
manage these cases.
Suicide Prevention
    With 42 Marine suicides in 2008, we experienced our highest suicide 
rate since the start of Operation Enduring Freedom and Operation Iraqi 
Freedom. The number of confirmed Marine suicides has increased from 25 
in Calendar Year 2006, to 33 in 2007, to 42 in 2008. Through March 
2009, we have 8 presumed suicides this year, which place us on a 
trajectory for 32 this calendar year. Our numbers are disturbing; we 
will not accept them, or stand idle while our Marines and families 
suffer.
    Our studies have found that regardless of duty station, deployment, 
or duty status, the primary stressors associated with Marine suicides 
are problems in romantic relationships, physical health, work-related 
issues such as poor performance and job dissatisfaction, and pending 
legal or administrative action. This is consistent with other Services 
and civilian findings. Multiple stressors are usually present in 
suicide.
    In November 2008, we reviewed our suicide awareness and prevention 
program and directed the development of a leadership training program 
targeted at noncommissioned officers. As in combat, we will rely upon 
our corporals and sergeants to chart the course and apply their 
leadership skills to the challenge at hand. This program includes high-
impact, engaging videos, and a Web-ready resource library to provide 
additional tools for identifying their Marines who appear at risk for 
suicide. Further, during March 2009, we required all of our commanders 
to conduct suicide prevention training for 100 percent of the Marines 
under their charge. This training educated Marines on the current 
situation in our Corps; it taught them how to identify the warning 
signs; it reinforced their responsibility as leaders; and it informed 
them of the resources available locally for support.
    The Marine Corps will continue to pursue initiatives to prevent 
suicides, to include reevaluating existing programs designed to reduce 
the stressors most correlated with suicidal behavior; developing and 
distributing new prevention programs; and refreshing and expanding 
training materials.
Child Development Programs
    To ensure Children, Youth, and Teen Programs continue to transition 
to meet the needs of our families, a Functionality Assessment was 
conducted in June 2008 to identify program improvements, such as the 
development of staffing models to improve service delivery, as well as 
recommendations to explore and re-define services to meet the unique 
and changing needs of Marines and their families living both on and off 
our installations. In addition, the Marine Corps has expanded 
partnerships to provide long- and short-term support for geographically 
dispersed Marines. We can now provide 16 hours of reimbursed respite 
care per month for families with a deployed Marine. We are expanding 
our care capacity in many ways, including extended hours as well as 
through partnerships with Resource and Referral agencies, off-base 
family childcare, and Child Development Home spaces.
    We are currently providing 11,757 childcare spaces and meeting 63.6 
percent of the calculated total need. It is important to note that the 
Marine Corps has initiated rigorous data collection and analysis 
improvements. As a result, it will be necessary to correct the 2007 
annual summary due to identified reporting errors. Our reported rate of 
71 percent of potential need last year is more accurately stated as 
59.1 percent. We are not satisfied with our progress to date, and have 
planned for 10 Child Development Center Military Construction projects 
in Program Years 2008 through 2013. Two of those projects were executed 
in fiscal year 2008, and one is approved for fiscal year 2009. These 
approved projects will provide an additional 915 spaces.
    We also are considering additional modular Child Development 
Centers, subject to more detailed planning and availability of funds. 
Planned MILCON and modular centers would add approximately 2,600 
spaces, and although our need is expanding, based on our current 
calculations, this expansion would bring us much closer to the 
Department of Defense goal. Continued Congressional support will help 
us provide these needed facilities. As the needs of our families 
change, our program is committed to grow and adapt to meet these 
developments.
School Liaison Program
    The education of more than 51,000 school-age children of Marine 
parents has been identified as a readiness and retention issue of great 
concern. Our Marine children, who are often as mobile as their military 
parent, face additional stress and challenges associated with frequent 
moves between schools with differing educational systems and standards. 
Exacerbating this is the varying degree of satisfaction Marines and 
their spouses have with the quality and sufficiency of local education 
systems. The Marine Corps is addressing this issue by establishing 
national, regional, and installation level School Liaison capability. 
The School Liaison will help parents and commanders interact with local 
schools, districts, and State governments to help resolve educational 
issues. The increased family readiness funding has allowed us to 
establish a School Liaison position at each Marine Corps installation. 
Complementing our local effort, the Marine Corps is working with the 
Department of Defense to establish an ``Education Compact'' with States 
to enable reciprocal acceptance of entrance, subject, testing, and 
graduation requirements. The Education Compact has been enacted in 
North Carolina and Arizona, and is under varying stages of 
consideration in the other States with Marine Corps installations.
                posture the marine corps for the future
    As we prepare for an unpredictable future, we must continue to 
assess the potential future security environments and the challenges of 
tomorrow's battlefields. Our solid belief is that a forward deployed 
expeditionary force, consistently engaged and postured for rapid 
response, is as critical for national security in the future as it is 
today. The Marine Corps, with its inherent advantages as an 
expeditionary force, can be rapidly employed in key areas of the globe 
despite challenges to U.S. access. Our sea-based posture will allow us 
to continue conducting security cooperation activities with a variety 
of allies and partners around the world to mitigate sources of 
discontent and deter conflict. We must increase our capacity to conduct 
security cooperation operations without compromising our ability to 
engage in a major regional conflict.
Realignment in the Pacific: Defense Policy Review Initiative (DPRI)
    The Defense Policy Review Initiative was established in 2002 by the 
United States and Japan as a means to review each nation's security and 
defense issues. One of the key outcomes of this process was an 
agreement to move approximately 8,000 Marines from Okinawa to Guam. The 
movement of these forces will address encroachment issues facing 
Marines on Okinawa. Moreover, the relocation will afford new 
opportunities to engage with our partners in Asia, conduct multilateral 
training on American soil, and be better positioned to support a broad 
range of contingencies that may confront the region. Furthermore, the 
political agreements brokered by the Office of the Secretary of Defense 
provide for a long term presence of Marines on Okinawa as well as 
substantial financial support by the Government of Japan.
    As can be expected with an effort of this scale and complexity, 
there are a number of challenges. Developing training areas and ranges 
on Guam and the Commonwealth of Northern Mariana Islands is a key pre-
requisite for moving Marine forces to Guam. We also seek a contiguous 
base design on Guam where housing, operations, and quality of life 
facilities can be collocated. This will reduce the road traffic on Guam 
and provide for a better security posture. We have also found that 
collocated facilities--where Marines live and work--tend to be used 
more often, and serve to unify the military community.
    We continue to work within the Department of Defense to align our 
training and installation requirements with ongoing environmental 
assessments and political agreements. Planned and executed properly, 
this relocation to Guam will result in Marine forces that are combat 
ready, forward postured, and value-added to U.S. interests in the 
Pacific for the next 50 years.
Security Cooperation MAGTF
    The Security Cooperation Marine Air Ground Task Force (SC MAGTF) 
provides geographic combatant commanders with a security cooperation 
capability for employment in remote, austere locations across the 
globe. SC MAGTFs will be organized based upon the specific requirements 
of each training event or operation they are requested to support and 
will enhance the combatant commander's ability to alleviate the 
conditions that cause instability to proliferate.
Training and Education
    Our training and education systems, from recruit training to top-
level Professional Military Education schools, rigorously instill in 
our Marines the physical and mental toughness and intellectual agility 
required to successfully operate in today's and tomorrow's complex 
environments. Marine Corps forces are organized, trained, equipped, and 
deployed with the expectation of operating under inhospitable 
conditions against committed and competent foes. Our forces are heavy 
enough to sustain major combat operations against conventional and 
hybrid threats but light enough to facilitate rapid deployment. 
Capability enhancements across the board are supported by a vigorous 
application of lessons learned from current operations.
            Operation ENDURING FREEDOM Pre-deployment Training Program
    The Afghanistan Pre-deployment Training Plan provides well-trained 
individuals and units that are prepared to operate in the austere and 
challenging environment of Afghanistan. While similar to the current 
Iraq Pre-Deployment Training Program, the Afghanistan Pre-deployment 
Training Program emphasizes the inherent capability of the MAGTF to 
conduct combined arms operations within a joint, multinational, and 
interagency framework. The capstone event of the Afghanistan Pre-
Deployment Training Program incorporates all elements of the MAGTF.
            Combined Arms Training, Large Scale Exercises, and 
                    Amphibious Operations
    Our training programs must prepare Marines to support current 
commitments and maintain MAGTF proficiency in core warfighting 
capabilities. We are developing a program of nested training exercises 
that focus on interagency and coalition operations to support the 
current fight and prepare the Marine Corps for the Long War.
    The Combined Arms Exercise-Next is a service-level, live-fire 
training exercise that develops the core capability of combined arms 
maneuver from the individual Marine to the regimental-sized unit level. 
This exercise focuses on the integration of functions within and 
between the MAGTF elements. The MAGTF Large Scale Exercise is a 
service-level training exercise that develops the MAGTF's capability to 
conduct amphibious power projection and sustained operations ashore in 
a joint and inter-agency environment.
    Amphibious operations are a hallmark of the Marine Corps. Through a 
combination of amphibious-focused professional military education, 
classroom training, and naval exercises, we will ensure MAGTFs are 
capable of fulfilling Maritime Strategy amphibious requirements, 
combatant commanders' operational plans, and future national security 
requirements.
            Training and Simulation Systems
    Cost-effective training requires a combination of live, virtual, 
and constructive training to attain the requisite level of combat 
readiness. We have leveraged technologies and simulations to augment, 
support, and create training environments for Marines to train at the 
individual, squad, and platoon levels. Virtual and constructive 
simulations support the pre-deployment training continuum, while live 
training systems create a training environment that replicates 
battlefield effects and conditions. Our long-range effort for infantry 
skills simulation training is the Squad Immersive Training Environment. 
This provides realistic training for our infantry squads. Over the past 
year, we have increased our efficiency and provided greater training 
opportunities for the individual Marine up to the MAGTF and joint level 
to satisfy Title 10 and joint training readiness standards.
            Training Range Modernization--Twentynine Palms Land 
                    Expansion
    Our facilities at Twentynine Palms are critical to the pre-
deployment training of our deploying Marine units. These facilities 
support the integration of fires and maneuver of new and emerging 
weapons systems, which cannot be accomplished within current boundaries 
of other Marine Corps bases. The Corps believes that to meet 
obligations to the Nation's defense, we must conduct live-fire and 
maneuver exercises at the Marine Expeditionary Brigade level.
    The Marine Corps' Mission Capable Ranges Initiative guides Marine 
Corps range planning and investment. A key to this initiative is the 
proposed expansion of the Marine Air-Ground Task Force Training 
Command's range complex at Marine Corps Base Twentynine Palms, 
California. This 507,000-acre installation, established in the 1950s, 
requires expansion to meet today's training requirements. We have begun 
the National Environmental Policy Act-required environmental studies to 
guide decisions during the acquisition process, and we expect 
acquisition to commence in 2012.
            Core Values and Ethics
    In an effort to improve values-based training and address the 
difficult ethical dilemmas faced by Marines, the John A. Lejeune 
Leadership Institute implemented several initiatives and publications 
to strengthen core values training. Publications include the 
Leadership, Ethics, and Law of War Discussion Guide. These guides offer 
15 contemporary case studies with suggested topics for discussion group 
leaders. We have also published a primer on the Law of War and 
Escalation of Force, a discussion aid on moral development, and Issues 
of Battlefield Ethics and Leadership--a series of brief, fictionalized 
case studies to develop Small Unit Leaders. These are used in our 
schools, beginning with recruit training at boot camp and continuing 
into MOS training and PME schools.
    Two video versions of case studies were created to sharpen the 
focus of our semiannual Commandant's Commanders' Program on the 
commander's role in setting a climate of positive battlefield ethics, 
accountability, and responsibility. In addition, the John A. Lejeune 
Leadership Institute held the first Russell Leadership Conference since 
2002 with 230 first-line leaders from across the Corps. The conference 
broadened and reinforced our leaders' understanding of the role they 
fill as ethical decision-makers, mentors, and critical thinkers.
            Marine Corps University
    The Marine Corps University established a Middle East Institute in 
2007 to research, publish, and promote regional awareness. A highly 
successful Iran Conference clearly demonstrated the utility of the 
institute. The new Marine Corps University Press was a successful step 
in our outreach program that includes publishing a professional 
journal. These initiatives were all part of Marine Corps University's 
health assessment and are an integral part of the University Strategic 
Plan.
                               conclusion
    Marines take extreme pride in the comment attributed to journalist 
Richard Harding Davis, ``The Marines have landed, and the situation is 
well in hand.'' Our history has repeatedly validated that statement. 
Our training and organization ensures our fellow Americans that they 
should never doubt the outcome when her Marines are sent to do the 
Nation's work. Our confidence comes from the selfless sacrifices we 
witness every day by courageous young Marines. They responded 
magnificently after 9/11--took the fight to the Taliban and Al Qaeda, 
conducted a lightening-fast offensive campaign in Iraq, and turned the 
tide in the volatile Al Anbar province. Now, we are ready to get back 
to the fight in Afghanistan--or wherever else our Nation calls.
    Your Marine Corps is grateful for your support and the support of 
the American people. Our great young patriots have performed 
magnificently and written their own page in history. They have proven 
their courage in combat. Their resiliency, dedication, and sense of 
self-sacrifice are a tribute to this great Nation. They go into harm's 
way knowing their country is behind them. On their behalf, I thank you 
for your enduring support. We pledge to be good stewards of the 
resources you most generously provide and remain committed to the 
defense of this great land. Thank you again for the opportunity to 
report to you today.

                               SHIP COUNT

    Chairman Inouye. Mr. Secretary, the events of recent days 
have been of much concern to many of us. For example, in North 
Korea there's a lot of saber-rattling and a lot of promise-
breaking. We've had tests notwithstanding our complaints and 
our sanctions. They seem to ignore everything and continue on, 
and now testing a missile that has a capability of reaching 
Alaska.
    On the other side of the world in Iran, similar rattling 
goes on. Notwithstanding the United Nations, notwithstanding 
the pleas of Europeans and Americans and such, the Iranians 
seem to move merrily along with their testing.
    Taking these and events such as piracy into consideration, 
do you believe that we have enough ships to do the job? I ask 
this because I've been on this subcommittee long enough to 
recall that it wasn't too long ago when the goal was 600. Then 
it became 500-something, came down to 400. Now it's 313 and I 
believe we have about 280.
    What are your thoughts, Mr. Secretary, as you come in just 
2 weeks old? I'd like to hear your thoughts.
    Mr. Mabus. Thank you, Mr. Chairman. As you just pointed 
out, the number 313 came out of the last Quadrennial Defense 
Review and that number was supported by the CNO at the time, 
who is now Chairman of the Joint Chiefs, Admiral Mullen. It's 
supported by Admiral Roughead, the current CNO, who put it in 
his statement.
    You're correct in that we have about 284 ships today in the 
active fleet. We do need a fleet of 313 ships, and it points 
out the need to take some strong steps in acquisition reform. 
If we continue to build ever more exotic, ever more expensive, 
but ever fewer numbers of ships, we simply won't have the 
numbers that we need. At some point, even though these ships 
are far more capable than the ships in the 600 ship Navy, for 
example, the individual capabilities--you can't put two ships 
at the same place, at the same time.
    So if we're going to have a forward deployed Navy, which I 
believe we should, if we're going to have a Navy which can 
respond to whatever crises or whatever events it needs to 
respond to, then we have an obligation to make sure that we get 
enough ships into this fleet and to do so to bring down the 
cost of these ships, to make the schedule stay on time, and to 
make sure that we have sufficient ships to meet any eventuality 
that we may face.
    Chairman Inouye. Admiral Roughead, do you have any 
additional comments to make?
    Admiral Roughead. Yes, sir. As you know, Mr. Chairman, I've 
maintained for some time that 313 is the floor with regard to 
fleet capacity. But I would also submit that this budget that 
is before you really begins to address the direction where we 
have to go. The truncation of the DDG 1000, which we began some 
months ago, and the restart of the DDG 51 line, which has 
terrific ballistic missile defense capability, and we're seeing 
those types of missiles being tested by Korea, by Iran, and 
they proliferate globally, that is exactly the direction where 
we have to go.
    The three littoral combat ships that we have in the budget 
are able to operate with our high-end forces, but I would 
submit they're ideally suited to the maritime security missions 
that we see in the counter-piracy operations.
    So our budget really does begin to take us there. The start 
of the Joint High Speed Vessel line is also important to us and 
to the combatant commanders so that we can get at some of these 
challenges.
    But I would also say that in order to get to the 313, it's 
not just about the acquisition that's represented in this 
budget, but it's also in our ability to take the ships that we 
have today and allow them to achieve their full service life, 
because most of the ships that we have in service today will be 
in service in 2020. So maintaining that force is also equally 
important.

                               SHIPYARDS

    Chairman Inouye. Mr. Secretary, another question. In order 
to maintain these ships, do you believe that our depots, our 
shipyards, are up to par and prepared?
    Mr. Mabus. Yes, sir, I do. I think they will continue to be 
as long as we work with them to ensure a stable industrial 
base, to make sure that we have a trained, skilled workforce in 
place, by making sure that our shipbuilding requirements are 
made known to them, that they are able to invest in the 
equipment and the people that we will need, and to give them 
the stability that they need to provide this incredibly vital 
service.
    Chairman Inouye. Admiral, have you got any thoughts on 
that?
    Admiral Roughead. As I mentioned, Senator, I think the 
maintenance of our fleet is what also allows us to achieve the 
313 level. The public shipyards that we have that are so much a 
part of maintaining our very high-end forces, our nuclear 
submarines and our aircraft carriers, absolutely key. Then the 
involvement of the private sector that we call on throughout 
the country is extraordinarily important and allows us to 
achieve that force level and readiness that's so important to 
the Navy today.

                        MARINE CORPS FORCE SIZE

    Chairman Inouye. Commandant, at this moment South Korean 
troops are on alert. The alert status for that peninsula is 
four, I believe, just one less than the top. Taking those 
things in consideration, do you believe that the projected 
number in our force is sufficient?
    General Conway. Yes, sir, I do. There are plans that we 
can't talk about in an open hearing that would provide for our 
ability to respond to an additional major contingency, such as 
Korea would represent. Although there is a level of risk 
associated with our ability to I think conduct and complete 
those war plans, we think that our forces that are present 
today would be able to do that. There would be issues, sir. We 
have equipment that would have to be moved all over the globe 
in order to be able to satisfy those demands. The force 
structure would not be as organic as we would like. There would 
have to be a level of ad hoc conglomeration of forces, if you 
will. But in the end I am convinced we would prevail.
    Chairman Inouye. I thank you, sir.
    Senator Cochran.
    Senator Cochran. Thank you, Mr. Chairman.

                    SECNAV NAVAL OFFICER EXPERIENCE

    Mr. Secretary, we are grateful that you are a person who's 
had experience personally in the Navy and now assuming 
responsibilities as Secretary of the Navy. I wonder what 
experiences you've had as a naval officer do you think will be 
important to you in carrying out your responsibilities as 
Secretary?
    Mr. Mabus. Well, Senator, I do think that time that I spent 
in the Navy was some of the most profound times that I've spent 
in my life. The Navy has changed a lot in the nearly 40 years 
since I was a surface warfare officer on board the U.S.S. 
Little Rock, and it's changed almost totally for the better. 
The training level, the caliber of recruits that are coming 
into the Navy, into our forces, the education that they are 
getting once in, the commitment that they have to the Navy and 
to the country, the deployment tempo, which is much higher and 
more flexible than when I was in, allowing us to get ships to 
places faster and better equipped. The thing the CNO talked 
about, about maintaining our fleet, has improved so 
dramatically since that time.
    But I think the thing that my experience in the Navy--I 
hope I brought with me, is the importance of the sailors, that 
it doesn't matter in the end how capable our equipment is if 
our sailors cannot match that equipment. In today's Navy, I'm 
happy to say that I think we have as fine a trained force as 
the world has ever seen.
    Senator Cochran. Thank you. I think that's an eloquent and 
important assessment for all of us to understand. I think the 
leadership we have in the military today is so much more 
sophisticated and impressive in terms of intellectual and 
educational fitness for these hugely important jobs. I think 
we're very fortunate to have the benefit of that kind of 
leadership in the Navy and the Marine Corps and at the civilian 
posts that are important to the management of these important 
assets.

                     JOINT COMMAND SHIP REPLACEMENT

    General Conway, I notice the Department of the Navy is 
looking at the LPD 17 amphibious ships and the T-AKE dry cargo 
ship hull forms for joint command ship replacement 
responsibilities. What in your opinion are the key factors in 
determining which hull form is suitable, and do you believe 
that survivability is a critical factor?
    General Conway. Sir, we have examined it and made 
recommendations to the CNO and ultimately to the Secretary of 
the Navy on the value associated with a consistent hull form, 
both for purposes of the research and development (R&D) 
associated with what would otherwise be new hull forms and with 
regard to the sustainability and the maintenance factors that 
exist with a single hull form.
    We have been a proponent of maintaining the LPD 17 form 
throughout the near term with regard to additional command and 
control ships. We think that that would be beneficial for the 
shipyards. We think it would be beneficial for the ultimate 
product that's produced there, and we think it would help to 
provide for the numbers of amphibious ships that we need both 
for forcible entry--and it was interesting that the chairman's 
question referenced at least two areas where forcible entry 
could be necessary--but also for purposes of day to day 
requirements that we see on the part of our combatant 
commanders.
    Interestingly, the numbers come together to be about the 
same for both of those types of requirements. It will be 
discussed in the Quadrennial Defense Review and we see it I 
think as our collective mission to make sure that there's a 
clear understanding that amphibs are not just high-end 
capability. They have very much a role in the low-end scheme of 
things on a day to day basis in support of combatant 
commanders.
    Senator Cochran. Thank you.

                          CNO PRIOR EXPERIENCE

    Admiral Roughead, we first met down at Pascagoula, 
Mississippi, when you were assuming command of one of the new 
ships being built there at Ingalls. What personal experiences 
did you have as a result of that responsibility that have 
shaped your views about shipbuilding and the efficiencies and 
the importance of taking advantage of new technologies in 
helping ensure that we can protect our naval interests around 
the world?
    Admiral Roughead. Yes, sir. Thank you, sir. I would say the 
first thing that I took away was that the strength and the 
viability of our Navy depends on the American shipbuilder. No 
one builds ships as capable or as tough as the American 
shipbuilder. That was my first take away and I have not lost 
that sentiment ever since that time.
    I would also say that it's important that we get production 
runs as consistent and as long running as we can, that we 
should look at every opportunity to take advantage of designed 
hull forms and adapt them to other uses, as you mentioned with 
regard to command ships. Command ships have to be survivable. 
We have to make sure that they have the capacity for the type 
of function that will be performed on them and that they also 
can be modified at the least cost to fulfill those missions.
    But I think it's extremely important that we get as much 
commonality as we can in our fleet. It reduces operating costs. 
It will reduce maintenance costs and logistics costs, and I 
believe we need to continue down that path.

                              NAVY RESERVE

    Senator Cochran. I had the pleasure of spending several 
years as a Reserve officer following active duty in the Navy. I 
enjoyed the opportunities of going back to Newport, Rhode 
Island, for example and being on the staff of the faculty at 
Officer Candidate School, continuing to be involved. Do you 
still have a strong reserve program utilizing the experience 
and talents of former active duty officers in the reserve 
activities? Is that a wise investment? What is your impression 
of the Navy Reserve mission today and how it complements the 
active duty forces?
    Admiral Roughead. Senator, we are one force today. The 
integration of our active component and our Reserve component 
is as close as it has ever been. In fact, most of the 
individual augmentees that have gone into the Central Command 
area of operation over the past 8 years are Reserve sailors and 
officers.
    We cannot be the Navy we are today without our Reserve 
component. The way that they move into our active force after 
having served in an active capacity is absolutely seamless. The 
importance that we place on our Reserve programs is extremely 
high, and the Navy that the Secretary was referring to as being 
as professional and as competent and as agile as it is today is 
a function of that active-Reserve integration that has taken 
place.
    Senator Cochran [presiding]. Senator Bond.
    Senator Bond. Thank you very much, Senator Cochran.
    To the Commandant, congratulations on the excellent job 
that you have done in al-Anbar. We had a CODEL over there in 
May 2007 and saw not only were they clearing the area, but the 
hold and build, which is the new wave of the smart power use of 
our military, was working so well. That is a great credit to 
the leadership up and down the line, as well as to the marines 
who did it. It is a great story that has convinced many people, 
as they now see how it resolves.
    Mr. Secretary and Admiral, again I congratulate you on the 
support you're providing to the sailors, the SEALs, and the 
marines in the field, and particularly for what you're doing to 
the wounded warriors. I've had some opportunities, not by 
planning, but to spend some time at Bethesda, and I have 
visited the wounded warriors there and seen the great care. 
This is truly outstanding. Your reference to dealing with the 
PTSD and the traumatic brain injury (TBI), which is so 
important, is something we're going to have to continue to 
address because it really sneaked up on us.

                          JOINT STRIKE FIGHTER

    But I need to go back to the point I made in my opening 
statement, cutting production of the one effective carrier-
based aircraft, the F/A-18 that we have, from 45 to 30, and 
only 9 of those are going to be combat aircraft. The rest are 
Growlers. Right now the Joint Strike Fighter is behind 
schedule, way over budget. It's only 2 percent flight tested. 
Under your most optimistic circumstances, what kind of 
contribution can the JSF make to that shortfall on the carrier 
decks in 2016 through 2020, Admiral?
    Admiral Roughead. Senator, we have just in this budget put 
in the money for the first carrier variants of JSF. JSF is 
extraordinarily important to where we are going with naval 
aviation, because we can never in my opinion have all of one 
type of an airplane on our carrier deck. There should always be 
a generational movement taking place, so that in the event 
there's a problem in any particular airframe or type of 
airplane we don't ground an entire wing. So we have to get to 
JSF.
    We are the last service to take delivery of JSF and that 
begins in 2015. As we looked at our 2010 budget, what we did 
with what I'll call the 18 line--that includes both the Growler 
and the E's and F's--was to put in the budget what we needed 
for electronic attack and then also, as we balanced across our 
programs, to put in place the nine E's and F's, because, as you 
know, in the Quadrennial Defense Review all of the services 
that fly tactical aviation are going to be conducting the 
review. We will look at where we are collectively and where we 
must go in order to continue to provide the capability and 
capacity in our air wings.
    That may be through life extension programs, but that's 
what we're going to examine in the QDR.
    Senator Bond. Well, very respectfully, Admiral, you are 
deciding to cut that, cut off the E and F production, before 
you have even proven that this JSF, called by some the ``Joint 
Strike Failure.'' If you read the Government Accountability 
Office (GAO) reports, it's been so far behind schedule, it's 
been over production costs, and it is now only 2 percent flight 
tested, and you haven't even thought about seeing whether it 
can land on an aircraft carrier.
    To me it looks like you've made a bad bet if you have not 
proven something that can take its place and you're cutting it 
off. To me, the first rule of digging is if you dig yourself 
into a hole, stop digging, because this is a bad decision, made 
a number of years previously, to put all of the production of 
the JSF into one company. Unfortunately, that line is not 
producing.
    I cannot believe that you can ignore reality and say, until 
we know that we have a follow-on plane, we ought to keep the 
plane that is working. As I recall, there was a requirement in 
the law that you produce by March 1 of this year a report on 
the costs and benefits of a multiyear procurement of the F/A-
18. You can get at least three for what one JSF would cost you.
    When is that report coming out? And is anybody looking 
seriously at the need to keep something until and unless the 
JSF can land on a carrier?
    Admiral Roughead. What we have done, Senator, with the 18 
line, to include both the Growler and the E's and F's, is that 
we in the 2010 budget have more than what is the sustaining 
rate for that 18 production line. So as we go into the QDR we 
have not stopped in 2010 the 18s. We still are working on that 
second multiyear that allows the production to continue. When 
we get into the QDR discussions on tactical air wings, I 
believe that we will be making the decisions we have to make 
while we've preserved the manufacturing of the F-18s.

                            INDUSTRIAL BASE

    Senator Bond. Well, as a final question for the Secretary, 
I certainly appreciate your speaking about the need to protect 
the defense industrial base, because if we go down the same 
path that our fine ally Great Britain has gone, their 
industrial base was allowed to atrophy, so they can no longer 
build aircraft and they're struggling to build ships. We are--
unless somebody rethinks the tragic decision that was made to 
go with only one tac air producer, unless that decision is made 
in the QDR, we're going to find ourselves in a real hole.
    Why is it acceptable in your view to have only one 
production line for a tac air fighter, a tac airplane?
    Mr. Mabus. Senator, I will echo what the CNO just said in 
terms of making sure that the E and F production line in the 
fiscal year 2010 budget is at a level that can sustain that 
production and sustain that workforce and sustain that 
industrial base through fiscal year 2010 as we go through the 
Quadrennial Defense Review to see what our tactical air 
requirements are, just as the CNO has pointed out.
    So I think that you do have that capacity maintained 
through the industrial base and through the trained workforce 
by this purchase of F-18s, both the Growlers and the E and F's.
    Senator Bond. Well, thank you, Mr. Secretary. I hope in the 
QDR there's some realism that strikes and that you do take a 
look at the costs. We'd still like to see that report due March 
1 of this year on the 18, because you can't continue to make 
good sound investments unless and until you prove that you do 
have an alternative. I hope you will take that into serious 
consideration.
    Mr. Chairman, I've filibustered long enough and I'll let 
you take on. Thank you.
    Senator Inouye [presiding]. You did a good job.
    Mr. Secretary, there's a vote on, so that's why we're 
moving in and out.

                                  GUAM

    Commandant, by the year 2014 your 8,000 marines and 9,000 
dependents are supposed to be out of Okinawa into Guam. 
However, we're concerned with the relocation of Futenma. 
Apparently the prefectural government is against the location. 
Is the time 2014 going to be kept or do we have to extend that?
    General Conway. Sir, we hope so. At this point the Futenma 
replacement facility, which the Japanese are at least on 
schedule to build for us off Camp Schwab, which is near the 
middle of the island, is very much a keystone to the 2014 date. 
There are some preliminary efforts that are underway, but if 
you have seen that space--and I think you have--it will require 
a tremendous amount of fill into the sea, into some fairly deep 
water in the sea, at some I think fairly significant expense to 
the Japanese Government. So we watch and encourage their 
efforts very closely, because again that sort of kicks off the 
game for other things that will take place associated with the 
move.
    So I think that will be the primary determinant as to 
whether or not we're able to maintain the 2014 date.
    Chairman Inouye. The estimated costs of movement, if I 
recall, was about $10 billion. Now it's been estimated to go up 
to $15 billion; is that correct?
    General Conway. Sir, I haven't seen the $15 billion figure. 
In the initial negotiations with the Japanese Government it was 
on the order of about $6 billion plus for the Japanese 
Government and $4 billion plus for the United States 
Government. Our independent estimates, if you will, for all of 
the required training, infrastructure, family, quality of life 
issues associated with that move, would put it closer to about 
$12 billion from our perspective.
    We have floated those figures past the folks in the Office 
of the Secretary of Defense. They are taking them under 
advisement. We're looking at how the Department of the Navy 
might be able to afford that kind of money in the out-years. 
The discussion I think is on table as to whether or not that 
ought to be a corporate bill for the Department of Defense as 
opposed to a Navy-Marine Corps bill.
    But we think that the cost estimates are significantly 
greater than initially estimated, but I have not heard a figure 
of $15 billion to date.
    Chairman Inouye. Do you believe Guam is a better place than 
Okinawa for your troops?
    General Conway. Sir, Guam has advantages for us. It is U.S. 
soil, and to the degree that we have a level of certainty in 
terms of U.S. forces' presence in the Pacific for 50, 75 years 
assurance, I think it is very positive in that regard. In some 
ways it moves us farther away from some critical engagements, 
but in some ways it puts us closer to some other engagements in 
the South Pacific Basin.
    So we support the move and we're at this point trying to 
make sure that it does happen along the time line that's been 
suggested and that the training requirements associated with 
putting 8,000 marines in Guam are necessarily taken care of in 
advance of the move. So we're engaging, sir, but at least at 
this point we're trying not to spend a lot of money until such 
time as, again, we see that Futenma replacement facility start 
to give us relief and move out of Futenma.

                                 PIRACY

    Chairman Inouye. Admiral, one thing that very few of us 
anticipated was piracy, and now it's a new job description for 
you. How are we coping with pirates?
    Admiral Roughead. Yes, sir. We've kind of come full circle 
since our origins as a Navy, and I give great credit to our 
sailors who are performing the counter-piracy mission. The 
rescue that they performed on Maersk Alabama and the return of 
Captain Phillips I think speaks volumes about the value and the 
quality of training and the contributions that are made every 
day by our sailors in that part of the world.
    I'm pleased that since the May 7 there have been no 
successful piracy actions in the area around Somalia. I also 
believe that our counter-piracy effort has drawn navies of the 
world more closely together in a meaningful way than ever 
before. Not only do we have the North Atlantic Treaty 
Organization (NATO) that is contributing, the European Union is 
contributing, but we have Indian ships, Chinese ships, 
Malaysian ships, and Turkish ships. In fact, the commander of 
Task Force 151, our counter-piracy task force, is a Turkish 
admiral.
    So it has really brought the focus in. That said, the real 
solution to piracy, as we saw in Southeast Asia, is a solution 
that must include the maritime dimension, to be sure, what 
we're doing today, but piracy will not be eradicated unless 
there is the ability to provide for some governance ashore, for 
legal action to be taken against those who commit piracy and 
those who finance piracy. So there must be a two-pronged 
approach: the maritime piece that we're doing today; but there 
must be an effort to get some form of lawful behavior ashore in 
Somalia and to go after where the networks are operating from.
    Chairman Inouye. Is Somalia cooperating?
    Admiral Roughead. Somalia in my opinion, Senator, right now 
does not have the capacity or the capability to cooperate. The 
lack of governance there is going to be a problem for some 
time.
    Chairman Inouye. Mr. Secretary, do you have any final 
thoughts? Because I'd like to submit all of my questions for 
your perusal and response.
    Mr. Mabus. I look forward to getting those questions, Mr. 
Chairman. My final thought is just to once again express our 
deep appreciation to you and to this subcommittee for the 
support that you have given our sailors and our marines over 
the years and that you continue to give to them and to their 
families as they go in harm's way for all of us.
    Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Chairman Inouye. I thank you very much, Mr. Secretary. 
Thank you very much, Admiral Roughead. Thank you very much, 
General Conway.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subject to the 
hearing:]
                    Questions Submitted to Ray Mabus
            Questions Submitted by Chairman Daniel K. Inouye
                     vh-71 sustainment of aircraft
    Question. Secretary Mabus, the Department's plan for presidential 
helicopters, in the absence of the VH-71 program, is not well 
understood. In particular, the choice to pay substantial termination 
costs and not field any of the Increment 1 helicopters has been 
questioned.
    Two weeks ago, the cost of terminating the VH-71 contract was 
estimated to be $555 million. Critics could say that figure is more 
than the cost of finishing testing on the five existing Increment 1 
helicopters. This, on the surface, appears problematic.
    Unfortunately, the budget submission does not shed any light on how 
much the decisions made today will cost the taxpayer in the future. 
Secretary Mabus, what further information can you share with the 
Subcommittee to inform our decisions on whether the termination of the 
VH-71 is the right course? Could you provide Congress the detailed 
budget estimates of the impact of the decisions proposed by the 
Department?
    Answer. On January 28, 2009, the Secretary of the Navy notified 
Congress that the cost growth in the VH-71 Presidential Helicopter 
program had breached the critical Nunn-McCurdy threshold. As a result 
of this, as well as the subsequent review of the program in building 
the President's fiscal year 2010 budget submission, the decision was 
made to cancel the VH-71 program.
    The President's fiscal year 2010 budget requests funding to extend 
the service lives of the VH-3D and VH-60N. In total, the service life 
extension is currently estimated to cost about $500 million over the 
life of the program. The cost of terminating the VH-71 prime contract 
is being developed by the VH-71 prime contractor and will be negotiated 
with the contracting officer over the coming year. This total is 
significantly less than the amount that would have been needed to 
complete development of Increment 1, procure additional Increment 1 
aircraft and logistics support, and develop configuration improvements 
required for long term operation. Accordingly, the contracting officer 
has prudently implemented the cancellation decision by issuing a notice 
of termination.
    Because there remains the need to replace the current fleet of 
Presidential helicopters, the Navy is preparing a plan to develop 
options for a Presidential helicopter replacement program. The 
President's fiscal year 2010 budget requests $30 million for efforts 
associated with the new program. Part of that plan will include 
evaluation of technologies developed under the VH-71 program to 
identify potential benefit to other programs.
                       vh-71 impact of decisions
    Question. With cancellation of the VH-71 program, how is Navy 
addressing sustainment for the existing aircraft? Are sufficient funds 
in the fiscal year 2010 budget to invest in the reliability of the 
current systems?
    Answer. The Navy received RDT&E funding in fiscal year 2009 to 
conduct a Service Life Assessment on both the VH-3D and VH-60N. The 
President's fiscal year 2010 budget requests funding to extend the 
service lives of the VH-3D and VH-60N. As submitted, the Department of 
the Navy's budget supports the requirements of the VH-3D and VH-60N for 
fiscal year 2010.
                        strike fighter shortfall
    Question. Secretary Mabus, a recent Congressional Research Service 
report states that the Department of the Navy is facing a shortage of 
strike fighters that peaks at 243 aircraft in 2018. This is almost 
double the 125 aircraft shortfall projected at this time last year. The 
report says that shortages will begin this year and continue through 
2025. What is your plan to address this problem and what are the risks 
involved with the plan?
    Answer. The Department has four primary avenues for addressing its 
strike fighter inventory requirements within current force structure 
and force scheduling requirements. These include:
  --Maintaining wholeness of the JSF program: 2012 F-35B Initial 
        Operating Capability (IOC), 2015 F-35C IOC with targeted 
        procurement ramp to 50 aircraft per year;
  --Service life extension of F/A-18A-D Hornets from 8,600 flight hours 
        to 10,000 flight hours service life;
  --Continued sustainment of legacy aircraft; and
  --Further procurement of F/A-18E/F Super Hornet.
    The challenge that Navy leadership is undertaking during the 
Quadrennial Defense Review and upcoming budget year, is to determine 
the necessary balance of these options in terms of force requirements 
as they become evident over this summer's review.
    Question. Secretary Mabus, it would appear that buying more of the 
lower cost aircraft is a way to mitigate the risks of the shortfall. 
Why is the Navy reducing procurement of F/A-18s now?
    Answer. The Navy presently has the necessary tactical strike 
fighter aircraft--F/A-18A/C and F/A 18E/F--to properly resource its 
force structure requirements in support of its current Maritime 
Strategy and Fleet Response Plan (FRP) scheduling for 10 carrier air 
wings (CVW) of 44 strike fighters each and one unit deployment program 
(UDP) F/A-18C squadron in support of DoN TACAIR Integration (TAI).
    Fiscal year 2010, represented in PB10, reflects a reduction of nine 
F/A-18E/F from PB09 fiscal year 2010 planning. While this is a present 
reduction in F/A-18E/F procurement for a single year, there is no 
immediate detrimental affect to the Navy's near-term (out to 2013) 
strike fighter inventory with this decision. PB10 represents balanced 
funding that meets DOD's requirements.
    Continued procurement of F/A-18E/F is one of four areas that Navy--
and DON as a whole--will continue to assess through this summer's 
Quadrennial Defense Review (QDR) and into the following year's budget 
submission. The DON has four inter-related avenues for addressing its 
strike fighter inventory requirements to meet current force structure 
requirements:
  --Maintaining wholeness of the JSF program: 2012F-35 Initial 
        Operating Capability (IOC), 2015 F-35C IOC with targeted 
        procurement ramp to 50 aircraft per year;
  --Service life extension of F/A-18A-D Hornets from 8,600 flight hours 
        to 10,000 flight hours service life;
  --Continued sustainment of legacy aircraft;
  --Further procurement of F/A-18E/F Super Hornet.
    The challenge that Navy leadership is undertaking during the QDR 
and upcoming budget year, is to determine the necessary balance of 
these options in terms of force requirements as they become evident 
over this summer's review.
           nuclear aircraft carrier move to mayport, florida
    Question. Secretary Mabus, in January, the Navy formally endorsed 
plans to relocate a nuclear-powered aircraft carrier to Florida's 
Mayport Naval Station. This announcement came after a lengthy process 
of studying the benefits and risks of dispersing East Coast carriers. 
Please share with the Committee how this decision supports the Navy's 
mission and our national security interests.
    Answer. Secretary Gates decided that the larger issue of whether 
Mayport will be upgraded to enable it to serve as a homeport for CVNs 
should be objectively evaluated during the Department's Quadrennial 
Defense Review (QDR). We believe that the QDR will provide the best 
forum to assess the costs and benefits associated with a strategic move 
of this scale.
    Strategic dispersal and CVN homeporting are important and 
complicated issues that deserve serious consideration. The Secretary 
and I are committed to arriving at decisions that are in the best 
interests of the nation, the Department, and the U.S. Navy.
    Question. Secretary Mabus, some argue that relocating a nuclear-
powered aircraft carrier is cost-prohibitive, especially since the 
infrastructure already exists in Norfolk. How much did the cost of this 
relocation weigh into deliberations of whether or not to move an 
aircraft carrier to Mayport Naval Station?
    Answer. Secretary Gates recently testified that he is troubled by 
the idea of having only one port capable of providing maintenance 
support for East Coast CVNs. Any large magnitude event, a Katrina-like 
hurricane, a terrorist attack, or an accident that blocks the Norfolk 
shipping channel, could have the effect of rendering East Coast carrier 
operations ineffective. Therefore, Secretary Gates has taken the 
prudent step of seeking funding for the dredging of the Mayport channel 
within the fiscal year 2010 budget to provide an alternative port to 
dock East Coast carriers in the event of a disaster.
                                 ______
                                 
          Questions Submitted by Senator Kay Bailey Hutchison
                 naval aviation training in south texas
    Question. Aviation training performed in South Texas is important 
for our Navy and for the local community. Are there any plans to 
upgrade these squadrons?
    Answer. The six training squadrons based in South Texas are 
undergoing numerous upgrades.
    Training Squadrons Twenty One and Twenty Two at NAS Kingsville.--
VT-21 and VT-22 will receive the last five production T-45C aircraft 
from Boeing this year while their inventory of T-45A aircraft is being 
upgraded to the T-45C configuration as part of the Required Avionics 
Modernization Program (RAMP). 15 T-45A aircraft have been upgraded to 
the T-45C with 56 aircraft remaining to be completed by mid 2014 at the 
rate of 12 per year. The Navy has submitted a Request for Proposal 
(RFP) for accelerating RAMP production to 18 aircraft per year in order 
to complete the transition by early 2013.
    T-45 simulators are also being upgraded to the T-45C digital 
cockpit configuration. A new Jet Engine Test Cell facility (P-278; 
$12.675 million) is currently under construction at NAS Kingsville.
    Training Squadrons Twenty Seven and Twenty Eight at NAS Corpus 
Christi.--VT-27 and VT-28 will transition from the T-34C primary 
trainer to the T-6B starting in March 2012. The transition will begin 
with the delivery of two simulators in March 2012 with three additional 
simulators to be delivered over the following 2 years. The T-6B 
aircraft will be delivered starting in July 2012 at a rate of three to 
four aircraft per month finishing by August 2015 with a total of 110 T-
6Bs. A new Trainer Facility (P-353; $14.290 million) is currently under 
construction at NAS Corpus.
    Training Squadrons Thirty One and Thirty Five at NAS Corpus 
Christi.--VT-31 and VT-35 are transitioning multi-engine pilot training 
to the upgraded T-44C. 20 T-44A aircraft have been upgraded to the T-
44C configuration with 34 aircraft remaining to be completed by mid 
2013 at the rate of nine per year. Four T-44 simulators are also being 
upgraded to the T-44C digital cockpit configuration.
    Question. What is the plan for equitable sustainment funding for 
South Texas?
    Answer. The sustainment requirement for the Navy is determined by 
the Facility Sustainment Model (FSM) according to OSD policy. The model 
determines the equitable distribution to installations based on the 
total Navy inventory. Commander Navy Region Southeast (CNRSE) received 
$13 million for fiscal year 2009 in support of NAS Corpus Christi and 
NAS Kingsville sustainment efforts.
    Additionally, the following special projects were approved for 
execution in South Texas.
    Fiscal year 2009 Approved CNRSE SRM Projects ($K) NAS Kingsville RM 
002-05 Repair Runway 13L and 31L $6,100.
    Fiscal year 2009 Approved CNRSE ARRA Projects ($K) NAS Corpus 
Christi RM004-04 Repair Various Taxiways $3,283.
                       t-6 operational facilities
    Question. Currently, there are funds in the base budget for 
``operational facilities for T-6. I have been advised that these funds 
will be used for the acquisition of an Outlaying Landing Field (OLF) 
called Goliad at NAS Kingsville, Texas. What is the timeline for this 
acquisition?
    Answer. The Navy is considering acquisition of the Goliad County 
Industrial Airpark (GCIA) to support training requirements of the T-6 
Joint Primary Aircraft Training System that is scheduled to arrive at 
NAS Corpus Christi in July 2012. MILCON P437 ($19.764 million) would 
provide funds for acquiring the GCIA (1,136 acres) and constructing 
supporting facilities. An Environmental Assessment is currently 
underway and is scheduled for completion in September 2009. Assuming a 
subsequent Finding of No Significant Impact, appraisal and title work 
will begin and is projected to be complete by October 31, 2009. 
Negotiations and land acquisition would then occur between November 
2009 and February 2010. Award of the construction contract for 
supporting facilities at Goliad is anticipated in June 2010, with 
completion in June 2012 to support the July arrival of the T-6 
aircraft.
    Goliad County Industrial Airpark (GCIA) is approximately 77 miles 
north of Naval Air Station (NAS) Kingsville and 66 miles north-
northwest of NAS Corpus Christi.
                    aviation support nas fort worth
    Question. What is the plan to provide aircraft and support to the 
units at the Naval Air Station at Fort Worth?
    Answer. There are currently seven Navy Reserve aircraft assigned to 
units at NAS JRB Fort Worth (3 C-40s, 3 C-9s, and 1 C-12). This number 
of aircraft represents the planned inventory for permanent Navy Reserve 
aircraft at that base.
    Two Navy construction projects are underway on the base. The first 
project is part of the Base Closure and Realignment (BRAC) legislation 
in 2005 that moved a Navy Air Forces Reserve squadron to Fort Worth 
from NAS Atlanta, Georgia. This project will upgrade a hangar to 
provide additional space necessary to protect the aircraft that 
completed the BRAC move. The second project, the construction of a 
maintenance facility that will support Navy, Marine Corps, and Texas 
Air National Guard aircraft, is 99 percent complete. A third project, 
designed to upgrade a hangar that Navy Reserve units share with other 
services, is approved and pending contract award.
                        strike fighter shortfall
    Question. There is common knowledge in the Navy that there will be 
a significant fighter shortfall in the future if the Joint Strike 
Fighter program isn't kept on track or accelerated. What would the 
impact be on the Navy and Marine Corps if procurement was reduced or 
slowed? If the decisions are made to procure a second engine for the 
Joint Strike Fighter, will this result in delays in overall production 
or result in reductions in other programs?
    Answer. One of the primary avenues for addressing strike fighter 
inventory requirements within current force structure and force 
scheduling requirements is maintaining wholeness of the JSF program 
(2012 F-35B IOC, 2015 F-35 IOC with PB10 procurement ramp to 50 
aircraft per year for a DON total procurement of 680 JSF). It is 
foundational to Naval Aviation's future force structure and a central 
assumption in current strike fighter inventory predictions. Delaying or 
reducing DON JSF procurement would exacerbate Naval Aviation's 
predicted strike fighter trend.
    The Department has not funded the JSF alternate engine effort in 
the fiscal year 2010 President's budget. The various studies that have 
been done by the OSD CAIG, GAO, and IDA are mixed in terms of the 
likelihood the Department would ever recover such an investment. While 
there are many intangible benefits associated with competition and a 
second source engine, the Department continues to maintain that the 
benefits do not outweigh the significant investment to develop, 
procure, and maintain two JSF engines.
    The cost impact of procuring F-136 across the FYDP is estimated at 
$4.7 billion (DOD).
                                 ______
                                 
            Question Submitted by Senator Robert F. Bennett
                      demands of irregular warfare
    Question. I am intrigued by the growing significance that 
``irregular warfare'' and so-called ``hybrid campaigns'' play in our 
national defense strategy. In your prepared remarks, you mentioned the 
need to achieve balanced growth through a focus on these new elements, 
as well as continuing to promote more conventional capabilities. How 
specifically do you plan to focus the Navy on the future demands 
imposed by Irregular Warfare? Given what I imagine to be the ever-
evolving nature of these challenges, how effectively is the Navy 
changing and developing its strategies to meet these threats? In what 
ways can Congress help support the Navy in addressing future concerns?
    Answer. As demonstrated by past and ongoing efforts in the 
irregular arena, the Navy is uniquely equipped and postured to have an 
enduring effect in this complex security environment. Today, the Navy 
provides one-half of the combat air sorties in Iraq and Afghanistan, 
protecting our ground troops in an irregular fight. The Navy is 
building partner capacity and sustainable regional maritime security 
force capability as shown in the ongoing Africa Partnership Station 
initiative. The goal of these efforts is to help countries at risk 
become net contributors to maritime security and good governance as 
part of a whole-of-government approach to diminish and counter violent 
extremism and other Irregular Warfare threats. We continue to evaluate 
opportunities in this environment, orient our force, and develop new 
means for applying the general purpose forces to meet irregular 
challenges.
    Two prime examples are the Littoral Combat Ship (LCS) and the Joint 
High-Speed Vessel (JHSV). LCS's inherent speed, agility, shallow draft, 
payload capacity, reconfigurable mission spaces, and air/water craft 
capabilities, combined with its core Command, Control, Communications, 
Computers and Intelligence, sensors, and weapons systems, make it an 
ideal platform for Irregular Warfare and maritime security operations, 
to include counter-piracy missions. JHSV also has some of the same 
characteristics as LCS (i.e. speed, agility, shallow draft, payload 
capacity, reconfigurable mission spaces, and air/water craft 
capabilities). JHSV is built to commercial American Bureau of Shipping 
(ABS) standards with minor military modification. The vessel can be 
operated with a core crew of civilian mariners as a non-combatant. It 
is less robust than LCS in terms of C\4\I system, sensors, and weapons 
systems (.50 cal only). Its ability to offload Army and Marine Corps 
equipment and personnel in austere or degraded ports can contribute to 
Irregular Warfare operations.
    Consistent with the ``Cooperative Strategy for 21st Century 
Seapower'', the Navy is at the front end of aligning its organizations 
and processes to be more adaptive across a broad range of challenges. 
In conjunction with DOD Directive (3000.07), tasking the Services to 
increase their proficiency in Irregular Warfare, and lessons learned 
through operations, the Navy is developing its vision and an 
operational concept for becoming a fundamental enabler to whole of 
government efforts to confront irregular challenges through balanced 
diplomacy, development, and defense.
    As the Navy continues to refine the capabilities and capacities to 
address irregular challenges, Congress can advocate for the Navy's 
employment in preventive maritime security and remain responsive to 
resource requirements that expand the Navy's ability to address future 
concerns. The Navy remains postured to deter near-peer competitors, but 
with 70 percent of the world's population living within 100 miles of 
the coast, irregular challenges will grow in the maritime domain and 
the Navy's role in Irregular Warfare will be pivotal to addressing 
those challenges. As the Navy expands its aperture for Irregular 
Warfare, continued funding will be needed to equip our sailors with the 
training, resources, and equipment they need to carry out Irregular 
Warfare missions.
                                 ______
                                 
              Questions Submitted to Admiral Gary Roughead
            Questions Submitted by Chairman Daniel K. Inouye
                       future of testing at pmrf
    Question. The Missile Defense Agency (MDA) together with the Navy 
has conducted Aegis Ballistic Missile Defense (BMD) tests at the 
Pacific Missile Range Facility (PMRF) for years. However, the future of 
that testing at PMRF is in jeopardy since MDA plans to move both Aegis 
and Terminal High Altitude Area Defense (THAAD) tests to the Reagan 
Test Site in Kwajalein, which will be expensive and cause delays in the 
test program.
    What are the costs associated with moving Aegis ballistic missile 
defense tests out of the Pacific Missile Range Facility to the Reagan 
Test Site in Kwajalein? How will the delay in testing caused by moving 
to Kwajalein impact the Aegis BMD program?
    Answer. The Navy has not yet assessed the impact to the program or 
costs associated with moving Aegis BMD tests to the Reagan site; 
however, I anticipate there will be increased logistics and support 
costs for Aegis ships operating in the vicinity of Kwajalein for BMD 
tests.
    While some MDA Aegis BMD tests may require support from the Reagan 
Test Site or the Kodiak Launch Center because the tests require more 
complex, longer-range targets, the future MDA flight test program will 
continue to leverage the significant capabilities of PMRF. The 
communications architecture, data collection assets, logistics 
infrastructure, and ability to draw on an experienced and technically 
superb cadre of test planning and execution professionals have and 
continue to enable Aegis BMD to conduct a progressively more robust and 
realistic flight test program since 1995.
    Question. What is the MDA's rationale for moving the Aegis BMD and 
THAAD tests out of PMRF?
    Answer. Certain tests, such as the upcoming Aegis BMD-THAAD Flight 
Test Mission (FTM-15), may be moved to the Reagan Test Site in 
Kwajalein where MDA can conduct increasingly complex tests with longer-
range targets, and higher engagement altitudes and velocities. Debris 
patterns from tests such as these produce larger debris patterns than 
previous Aegis BMD tests. If conducted at PMRF, these tests could 
result in debris that impacts the Hawaiian Islands in violation of the 
1998 PMRF Enhanced Capability Environmental Impact Statement.
    While MDA may require the use of the Reagan site to conduct BMD 
tests in certain threat-realistic regimes, MDA will continue to use 
PMRF for BMD and THAAD testing. Test plans indicate the majority of 
Aegis BMD testing will take place at PMRF and MDA will conduct more 
tests at PMRF than any other test range.
    Question. What do the Navy and MDA need to do in order to continue 
Aegis and THAAD tests, including the future long range tests, at PMRF?
    Answer. According to developed test plans, Aegis and THAAD testing 
at PMRF will continue and MDA will conduct more tests at PMRF than any 
other test range. However, selected future tests with longer-range 
targets, and higher engagement altitudes and velocities may result in 
debris patterns that could impact the Hawaiian Islands. These tests 
will be considered for the Reagan Test Site.
    Question. What are the potential environmental hazards and risks 
for the Hawaiian Islands if the Navy and MDA continued to do more 
complex testing at PMRF?
    Answer. More complex testing at PMRF may result in debris falling 
on the Hawaiian Islands. PMRF has consistently interpreted the 1998 
PMRF Enhanced Capability Environmental Impact Statement (EIS), as 
allowing ``no debris on island.'' Further EIS analysis of potential 
environmental impacts and safety risk analysis will be required to 
determine the feasibility of more complex tests.
                         ship depot maintenance
    Question. Admiral Roughead, on May 14, 2009, the Committee received 
a letter responding to an authorization requirement certifying that the 
Navy has fully funded the 2010 requirements for ship steaming days and 
projected depot maintenance for ships and aircraft.
    Less than a week after that letter was sent, on May 19, the 
Committee received the Navy's fiscal year 2010 Unfunded Programs List. 
The only items on that list are depot maintenance for aircraft and 
ships in the amount of $395 million. Please explain how there are 
unfunded requirements for depot maintenance if the Committee has a 
letter certifying that sufficient funding has been requested to meet 
mission requirements in fiscal year 2010.
    Answer. The fiscal year 2010 Department of the Navy Assessment of 
Ship Steaming Days, Ship Depot Maintenance and Air Depot Maintenance 
Workload delivered with the May 14, 2009 letter to the Committee 
reported that ship depot maintenance was funded to 96 percent of the 
requirement, accepting some risk in deferred ship maintenance. It also 
reported that aircraft depot maintenance was funded at 100 percent for 
deployed squadrons, 97 percent for non-deployed squadrons, and 67 
percent for engine maintenance. The Navy's fiscal year 2010 Unfunded 
Programs List is consistent with this report. Funding levels for 
maintenance represent the best balance of risk across the entire Navy 
program. The Navy remains committed to funding ship and aviation depot 
maintenance accounts within acceptable risk levels and meeting expected 
service life for our platforms.
    Question. Admiral Roughead, what kind of actions is the Navy 
undertaking to reduce the reliance on supplemental funding for ship and 
aircraft depot maintenance?
    Answer. The Navy is committed to accurately programming and 
budgeting costs into our baseline budget and reducing our reliance on 
supplemental funding. To that end, we continue to refine our 
performance models to better predict future maintenance requirements 
and operating costs for ships and aircraft. These performance models 
undergo a rigorous review process and are validated by an independent 
assessor. In addition to modeling, our Fleet Maintenance Board of 
Directors (FMBOD) provide additional oversight of the requirements 
definition phase for ship depot maintenance to ensure that hull-unique 
requirements are factored into our baseline. The Navy does not budget 
for unanticipated maintenance requirements; we address these emergent 
requirements in the year of execution.
                    aegis ballistic missile defense
    Question. Admiral Roughead, in last year's testimony before this 
Committee, you told us that it was the appropriate time to consider 
migrating the ``fielding wedge'' of Aegis ballistic missile defense 
from the Missile Defense Agency to the Navy. Can you elaborate on what 
the ``fielding wedge'' entails and the status of that migration?
    Answer. The ``fielding wedge'' is the common term MDA had used for 
the Department of Defense-wide account that provided funding for 
fielding Ballistic Missile Defense System assets, such as SM-3 missiles 
and additional Aegis BMD installations. Currently, procurement of SM-3 
missiles is an MDA program and funds in the ``fielding wedge'' have 
been allocated to MDA.
    When the SM-3 procurement program is transitioned to the Navy in 
the future, it may be appropriate for SM-3 procurement funding to 
migrate to the Navy.
    The SM-3 missile used for exo-atmospheric (in space) intercepts is 
launched from our Aegis BMD capable cruisers and destroyers. Over the 
last 5 years MDA and the Navy developed and installed this capability 
in 3 cruisers and 15 destroyers for a total of 18 ships. In the fall of 
2008, due to an increasing demand for BMD capable ships, MDA and the 
Navy collaborated in co-funding the installation of Aegis BMD 
capability in three additional East Coast Aegis ships in 2009 and 2010, 
increasing the Aegis BMD fleet to 21 ships. In the President's budget 
for fiscal year 2010, the Department added $200 million across the FYDP 
to install the Aegis BMD capability on six additional Aegis ships.
                           surface combatants
    Question. Admiral Roughead, last year this committee supported 
continued funding for the DDG 1000 program and provided $200 million in 
advance procurement funding to restart the DDG 51 program. We 
understand that the Navy has made decisions on how to proceed with 
these programs and has reached an agreement with shipyards on a 
construction plan. Would you explain the agreement and explain how this 
approach will benefit the Navy?
    Answer. After extensive discussions with General Dynamics 
Corporation Bath Iron Works (BIW) and Northrop Grumman Shipbuilding 
(NGSB), the Navy will build all three DDG 1000 Class ships at BIW and 
the first three DDG 51 Class ships under the restarted program at NGSB. 
This agreement will ensure workload stability at both shipyards, 
leverage learning, stabilize and minimize cost risk for the DDG 1000 
program, efficiently re-start DDG 51 construction, facilitate 
performance improvement opportunities at both shipyards, and maintain 
two sources of supply for future Navy surface combatant shipbuilding 
programs.
    This plan most affordably meets the requirements for surface 
combatants, commences the transition to improved missile defense 
capability in new construction, and provides significant stability for 
the industrial base.
    Question. Admiral Roughead, will the DDG 1000 be the precursor to 
the future cruiser?
    Answer. Future surface combatant requirements are being studied. 
Capabilities and technologies inherent in both the DDG 51 class and DDG 
1000 class will inform this study and help us better approach future 
combatant requirements definition and designs.
    Question. Admiral Roughead, how do you plan to employ the three DDG 
1000s once they are delivered to the Navy?
    Answer. The three DDG 1000 ships will be employed globally as U.S. 
Navy Fleet assets in traditional destroyer roles, as well as integral 
members of joint and combined expeditionary forces. The DDG 1000 will 
provide forward presence, deterrence, and support to ground forces 
through all-weather precision gun fire and inland strikes and littoral 
anti-submarine warfare.
                      advance seal delivery system
    Question. Last November, the Advanced SEAL Delivery System suffered 
a catastrophic fire which brought into question whether a repair was 
feasible. It now appears that the ASDS could be repaired, although the 
repair could take several years and cost several hundreds of millions 
of dollars.
    Admiral Roughead, do you have firm estimates on what it would take 
to repair the ASDS? Has Special Operations Command and the Navy 
developed a proposal for how to pay that bill?
    Answer. The current ASDS repair estimate is approximately $250 
million. The program cost estimates have been reviewed by cost 
engineers and are considered reasonable for the anticipated repairs, 
however, the Naval Sea Systems Command Program Office will continue to 
refine the cost estimate. USSOCOM is pursuing various options to obtain 
funding to effect the repairs.
    Question. Admiral Roughead, SOCOM is planning to build a new ASDS-
like submarine, with research and development funds requested in this 
budget. Do you believe there is an urgent case to repair the ASDS, 
considering that a new capability is expected to be available soon 
after the ASDS repairs would be completed?
    Answer. The estimated repair timeline would return ASDS to service 
in fiscal year 2012. The acquisition plan for the Joint Multi-Mission 
Submersible has the first vehicle achieving Initial Operational 
Capability in fiscal year 2016. SOCOM has validated numerous missions 
for this capability in the near term. Failure to repair ASDS-1 would 
result a capability gap for four years and, therefore, delay such 
missions.
                            amphibious ships
    Question. Admiral Roughead, what is the current status of the 
seabasing concept?
    Answer. Seabasing concept supports our Maritime Strategy. Seabasing 
enables operational commanders to project capabilities ashore whether 
access is opposed, infrastructure (air and sea ports) are non-existent, 
or a large footprint ashore is politically undesirable.
    In recent years we have expanded upon the seabasing concept. 
Examples of seabasing include: U.S. Fifth Fleet's Combined Task Force 
151 counter-piracy operations, U.S. Pacific Fleet's Pacific Partnership 
humanitarian civic assistance missions, Naval Forces Africa's/Naval 
Forces Europe's Africa Partnership Station initiative to improve 
maritime safety and security in West and Central Africa, U.S. Fourth 
Fleet's Continuing Promise humanitarian civic assistance operation in 
U.S. Southern Command's area of responsibility, the 2006 non-combatant 
evacuation operation from Lebanon, the 2005 Pakistan earthquake 
response, and the 2005 Asian tsunami response.
    The ongoing Seabasing Capabilities Based Assessment (CBA) will 
identify and prioritize capability gaps and propose solutions that 
could enhance our ability to meet future requirements.
                      amphibious lift requirement
    Question. Admiral Roughead, would you comment on the 38 ship 
amphibious lift requirement, and the future requirements for seabasing?
    Answer. In the January 2009 Report to Congress on Naval Amphibious 
Force Structure, the Commandant of the Marine Corps and I reaffirmed 
that 38 amphibious ships are required to lift the assault echelon of 
2.0 Marine Expeditionary Brigades (MEBs). We agreed to sustain, 
resources permitting, an amphibious force of about 33 total amphibious 
ships in the assault echelon, evenly balanced at 11 aviation capable 
ships, 11 LPD-17 class ships, and 11 LSD 41 class ships. The 33 ship 
force accepts risk in the arrival of combat support and combat service 
support elements of the MEB but has been judged to be adequate in 
meeting the needs of all parties within the limits of today's fiscal 
realities.
    The Navy and Marine Corps continuously evaluate amphibious lift 
capabilities to meet current and projected requirements. In addition to 
our internal reviews, the Quadrennial Defense Review is assessing 
future amphibious force structure requirements.
    Seabasing concept supports our Maritime Strategy. Seabasing enables 
operational commanders to project capabilities ashore whether access is 
opposed, infrastructure (air and sea ports) are non-existent, or a 
large footprint ashore is politically undesirable.
    In recent years we have expanded upon the seabasing concept. 
Examples of seabasing include: U.S. Fifth Fleet's Combined Task Force 
151 counter-piracy operations, U.S. Pacific Fleet's Pacific Partnership 
humanitarian civic assistance missions, Naval Forces Africa's/Naval 
Forces Europe's Africa Partnership Station initiative to improve 
maritime safety and security in West and Central Africa, U.S. Fourth 
Fleet's Continuing Promise humanitarian civic assistance operation in 
U.S. Southern Command's area of responsibility, the 2006 non-combatant 
evacuation operation from Lebanon, the 2005 Pakistan earthquake 
response, and the 2005 Asian tsunami response.
    The ongoing Seabasing Capabilities Based Assessment (CBA) will 
identify and prioritize capability gaps and propose solutions that 
could enhance our ability to meet future requirements.
                  next generation ballistic submarine
    Question. The President announced in April a new series of nuclear 
arms control efforts, including negotiations on an arms reduction 
treaty with Russia and a goal to eventually retire our nuclear arsenal. 
But the budget request includes $387 million to begin development of 
the next generation ballistic missile submarine, which would go into 
production approximately 10 years from now.
    Admiral Roughead, given these new arms control initiatives and the 
upcoming Nuclear Posture Review, why is this the appropriate time to 
begin developing a new platform for our strategic arsenal?
    Answer. The President has reaffirmed the need to maintain a strong 
strategic deterrent for the foreseeable future. To ensure there is no 
gap in strategic coverage when the OHIO class SSBNs begin to retire in 
2027, we need to start concept and system definition for the OHIO class 
replacement in fiscal year 2010. Starting this work now is consistent 
with the 20-year timeline used to develop, build, and test the existing 
OHIO class submarines. There are key technical and schedule drivers 
that require the fiscal year 2010 start so design and technology can 
mature to support a fiscal year 2019 ship construction schedule. 
Additionally, we will achieve significant program benefits by aligning 
our efforts with those of the United Kingdom as they move forward with 
their SSBN replacement program.
    Question. Admiral Roughead, there are significant concerns about 
the cost of a new ballistic missile submarine. Some are saying that it 
could cost as much as an aircraft carrier. Is there a target cost for 
this new submarine to allow it to fit into our long-term shipbuilding 
plan?
    Answer. No cost target has been established for the SSBN 
replacement. The Navy is currently conducting an Analysis of 
Alternatives (AoA) and will develop an estimated Shipbuilding and 
Conversion, Navy (SCN) cost for the new ballistic submarine after the 
completion of the AoA in early 2010.
                    long-term plan for end strength
    Question. Admiral Roughead, this year the Navy decided to halt its 
personnel reductions, believing the current plan cut too deep. The Navy 
now plans to reach an end strength of 328,800 in fiscal year 2010. What 
is the long term plan for the Navy's end strength?
    Answer. The Navy fiscal year 2010 budget requests baseline end 
strength of 324,400 plus Overseas Contingency Operations (OCO) funding 
to support temporary augmentation requirements of up to 4,400 
additional personnel. Navy manpower requirements are determined by the 
Navy's force structure, assigned missions, and job related tasks; 
therefore, Navy's long-term plan for end strength will be shaped by 
decisions from the Quadrennial Defense Review regarding these factors. 
With QDR guidance, Navy will review job tasks and processes, identify 
manpower and training requirements to support new missions or cease 
work that may no longer be required, and recommend improvements to 
training and distribution processes. Navy is committed to size, shape, 
and stabilize the force to fit current and future manpower requirements 
to meet future threats.
            considerations to resource additional personnel
    Question. Admiral, what tradeoffs is the Navy considering to be 
able to resource these additional personnel?
    Answer. The President's budget submitted to the Congress provides 
the necessary funding for the Navy's requested baseline end strength 
requirements. Navy has requested Overseas Contingency Operations (OCO) 
funding to support temporary augmentation requirements of up to 4,400 
in fiscal year 2010.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
                           common hull forms
    Question. Admiral Roughead, you are on record as being a strong 
advocate for the use of common hull forms to permit longer production 
runs to help reduce shipbuilding costs. As you have said in the past, 
``We can no longer design a different ship for every different mission 
that we have.'' We must plan and build ships more efficiently, and I 
agree with your commonality approach as one means to make headway in 
this area.
    With this in mind, do you see any utility in using the LPD-17 hull 
as the future replacement for joint command ships and dock landing 
ships?
    Answer. In general, the Navy's long range vision for shipbuilding 
includes reducing the types and models of ships in the Fleet, 
maximizing the reuse of ship designs and components, and building ship 
variants that leverage existing production lines. Regarding the LPD-17 
hull, we are currently considering this hull, along with the existing 
T-AKE hull in an Analysis of Alternatives for the replacement of our 
two existing LCC ships.
                   fire scout unmanned aerial vehicle
    Question. Admiral Roughead, the Fire Scout unmanned aerial vehicle 
is being developed for deployment aboard Littoral Combat Ships. I have 
been informed the Navy has been testing the Fire Scout at-sea aboard 
frigates and plans to deploy the system aboard the U.S.S. McInerney 
this fall. Could you update the committee on how testing is progressing 
and what operational impact deployment of the system will have for the 
Navy?
    Answer. The Fire Scout is successfully completing developmental 
testing and is on track to deploy in the fall of 2009 on-board the 
U.S.S. McInerney. Three productive ship test periods aboard the U.S.S. 
McInerney have been completed. Systems testing of the Vertical Takeoff 
and Landing Tactical Unmanned Aerial Vehicle (VTUAV) Command and 
Control, Data Links, landing sub-system, flight deck procedures, and 
Ground Control Station were performed during the February 2009 at sea 
period. Dynamic Interface testing was completed in the April 2009 and 
May 2009 at sea periods, clearing an operationally acceptable flight 
envelope.
    During the U.S.S. McInerney deployment, the Fire Scout will enhance 
the ship's war fighting capability by using its sensors and persistence 
to increase battle space awareness. Specifically, during drug 
interdiction operations, the Fire Scout can use its speed and electro-
optical/infra-red (EO/IR) sensor to maintain visual contact on high 
speed trafficking boats and provide evidence suitable for prosecution.
                        fire scout uav benefits
    Question. Admiral Roughead, do you believe there are benefits to 
deploying Fire Scout aboard all air-capable ships?
    Answer. Fire Scout has capabilities that are applicable to all air-
capable ships. Presently, the requirement and funding support 
integration on the LCS class and one frigate deployment in support of 
Fire Scout Initial Operational Test and Evaluation. Future plans for 
Fire Scout to be deployed on additional ships will be guided by the 
operational value, other Navy priorities and our budget.
                          littoral combat ship
    Question. Admiral Roughead, the original cost estimate for the 
Littoral Combat Ship was $220 million per ship. The Navy's fiscal year 
2010 budget request includes the procurement of three Littoral Combat 
Ships funded at a congressionally mandated cost cap of $460 million per 
ship. However, current estimates are that the fiscal year 2010 ships 
will cost about $100 million more per ship than you have requested. How 
does the Navy intend to execute the fiscal year 2010 Littoral Combat 
Ship request given this shortfall?
    Answer. Navy is actively engaged with industry to implement cost 
reductions with the intent to procure the fiscal year 2010 ships within 
the $460 million cost cap. We have formalized a cost reduction effort 
that primarily targets cost drivers in design, Navy specifications, and 
program management costs. Until manufacturing efficiencies can be 
achieved for the follow on ships Navy may require some legislative 
relief regarding the fiscal year 2010 LCS cost-cap.
                     joint high speed vessel (jhsv)
    Question. Admiral Roughead, the Administration's budget proposal 
requests two Joint High Speed Vessels, one funded by the Navy and one 
funded by the Army. Would you describe to the committee the 
Department's procurement plans for these vessels? In addition, please 
explain the capability strengths and weaknesses of the Joint High Speed 
Vessel and the sea state limitations?
    Answer. The current requirement for the Joint High Speed Vessel 
(JHSV) program is 20 ships: 15 ships to be operated by the Navy and 5 
ships to be operated by the Army. The Detail Design and Construction 
contract for the first vessel, funded in fiscal year 2008 for the Army, 
was awarded to Austal USA on November 13, 2008. Funding for the second 
and third ships (one Navy and one Army) was provided in the fiscal year 
2009 Defense Appropriations Act. Funding for fourth and fifth ships 
(one Navy and one Army) is included in the fiscal year 2010 budget 
request. Delivery of the first Army JHSV is expected in 2011. Delivery 
of the first Navy ship is expected in 2012.
    JHSV will be a high-speed, shallow-draft surface ship that will be 
able to rapidly transport medium payloads of cargo and personnel in-
theater, reconfigure and rearrange loads when missions change and 
access to port facilities that are too austere or shallow for other 
larger auxiliary ships. JHSV, while performing a variety of lift and 
support missions, will be a non-combatant ship that will operate in 
permissive environments or in higher threat environments under the 
protection of combatant vessels and other Joint forces. JHSV is a 
commercial-design and does not require the development of any new 
technology. JHSV is being built to American Bureau of Shipping (ABS) 
High Speed Naval Craft Code. It has no combat system capability.
    JHSV capabilities include:
  --High speed transits of 35 knots.
  --Open architecture and rapid reconfigurability for Command, Control, 
        Communications, Computers, and Intelligence (C\4\I).
  --High payload fraction and large, rapidly reconfigurable, payload 
        volume.
  --Shallow 13-foot draft.
  --Support for helicopter operations; and at-sea replenishment of fuel 
        and cargo extended range transits of greater than 3,000 nm in 
        up to Sea State 3.
                                 ______
                                 
            Question Submitted by Senator Robert F. Bennett
                 f/a-18 e/f's retire and jsf shortfall
    Question. Admiral Roughead, considering the numerous challenges 
currently facing the Navy, I am impressed by the variety of tasks that 
you undertake, particularly the sizable portion of missions flown by 
Navy airmen over Afghanistan. I am concerned by the drop in the number 
of airframes that will be available to the Navy due to battle-worn F/A-
18 E/F's having to be retired sooner than anticipated. While I 
understand the fundamental role that the new F-35 Joint Strike Fighter 
(JSF) will play in addressing this shortfall, how do you plan to 
maintain the Navy's ability to carry out its air operations should the 
JSF program become significantly delayed? What actions are currently 
being taken to address this problem? How can the Congress assist you in 
meeting this responsibility?
    Answer. The Navy is experiencing a decrease in strike fighter 
capacity due to the continued high pace of operating our older F/A-18 
A-D aircraft. The timely delivery of the Joint Strike Fighter is 
critical to our ability to meet operational demands for expeditionary 
strike and maintain a mix of strike fighter aircraft on our carrier 
decks.
    Until JSF reaches initial operating capability in 2015, we are 
managing our existing strike fighter inventory by extending service 
life of our F/A-18A-D Hornets beyond their originally-designed 6,000-
hour service life to 8,000 flight hours. There is also the potential to 
extend the service lives of some of our A-D Hornets further, to 10,000 
hours.
    The Quadrennial Defense Review (QDR) will review TACAIR 
requirements across all the Services to include the required number of 
carrier-capable strike fighters our nation needs. Navy will then do a 
cost-benefit analysis to determine the best option for buying 
additional life in our strike fighter inventory: through service life 
extensions of existing aircraft, through procurement of new aircraft, 
or through a combination of these two options. The fiscal year 2010 
budget contains appropriate funding to continue development and 
procurement of JSF and buy an adequate number of F/A-18 aircraft to 
keep that production line open until QDR completes its review.
                                 ______
                                 
             Questions Submitted to General John T. Conway
            Questions Submitted by Chairman Daniel K. Inouye
                       marine corps end strength
    Question. General Conway, as the Army and Marine Corps complete 
their planned end strength growth, there has been discussion about 
whether the Army should continue to grow to sustain the current 
operational tempo. Has the Marine Corps undertaken a similar analysis? 
Do you think the Marine Corps has reached an end strength that is large 
enough to sustain operations and relieve the strain on the force?
    General, what does the increased commitment to Afghanistan mean for 
the end strength of the Marine Corps? How will this affect the Marine 
Corps ability to sustain its current commitments?
    Answer. The Marine Corps has undertaken similar analysis by 
conducting the Uncompensated Review Board (URB) for the last 2 years. 
The URB conducts an annual review and validation of the Marine Corps' 
capabilities to assess new active duty uncompensated force structure 
requirements and prioritize these adjustments against my approved force 
structure plan. If analysis supports, the URB will recommend that the 
end strength of the Marine Corps be increased. Following the URB, a 
standing DOTMLPF (Doctrine, Organization, Training, Materiel, 
Leadership and Education, Personnel and Facilities) Working Group is 
overseeing the implementation and synchronization of this plan. This 
working group consists of a cross section of my staff and the Marine 
Forces Commanders.
    The Marine Corps has reached an end strength that is large enough 
to sustain operations and relieve the strain on the force. I continue 
to stress that the growth to 202,000 active-duty Marines will enable 
the Corps to meet current and future challenges in an increasingly 
demanding operational environment. Growth to 202,000 gives the Marine 
Corps the capacity to deploy forces in response to contingencies and to 
support security cooperation efforts with our partners across all 
theaters, Our forces are multi-capable, transitioning seamlessly from 
fighting conventional and hybrid threats to promoting stability and 
mitigating conditions that lead to conflict. By building to 202,000, we 
improve training, upgrade readiness, and enhance the quality of life 
for all our Marines and their families by allowing them more recovery 
time between deployments.
                 marine corps suicide and divorce rates
    Question. General Conway, the Marine Corps' suicide and divorce 
rate have risen sharply this past year. It appears that the strain of 
frequent deployments is beginning to show in the emotional health of 
our Marines. What more can the Marine Corps do to support Marines and 
their families?
    General, the Marine Corps what additional support could the 
Committee provide to help alleviate the strain on the force?
    Answer. There is no question that continued OPTEMPO puts stress on 
the force, not just for deploying Marines, but for those who remain 
behind and face increased workloads. There were year on year increases 
for 2008 in suicide incidents and divorces.
    Health of the Force.--Marine Corps commanders are fully engaged in 
promoting the psychological health of our Marines, Sailors, and family 
members. To enable leaders, individuals, and families to prepare for 
and manage the stress of operational deployment cycles, the Combat and 
Operational Stress Control (COSC) Program provides a set of policies, 
training, and tools to prepare for the upcoming deployment, recognize 
stress reactions early and manage them more effectively within 
operational units. Marine leaders are assisted by mental health 
professionals, chaplains, and COSC regional training coordinators in 
the operating forces, to detect stress problems in warfighters as early 
as possible, and are provided the resources to effectively manage these 
stress problems in theater or at home base. Resources are also provided 
for the family members left behind to provide support, communications, 
and information flow.
    This training is being incorporated in formal Professional Military 
Education schools for both officer and enlisted Marines, such as the 
Expeditionary Warfare School and the Staff Non-commissioned Officer 
Advanced Course. We have staffed full-time COSC training coordinators 
at each of our Marine Expeditionary Force headquarters.
    To assist with prevention, rapid identification, and effective 
treatment of combat operational stress, we are expanding the 
Operational Stress Control and Readiness (OSCAR) Program--our program 
of embedding mental health professionals in operational units--to 
directly support all active and reserve ground combat elements. This 
year, we begin placing mental health professionals organic to the 
active Divisions and Marine Forces Reserve. By fiscal year 2011, full 
OSCAR teams will be fielded to the Infantry Regiment level. OSCAR will 
eventually be expanded to all deployed elements of the Marine Air-
Ground Task Force.
    Our Marine Operational Stress Training (MOST) program was developed 
with Tri-Marine Expeditionary Force (TRI MEF) Commanders based on the 
USMC COSC stress continuum model, now adopted by OSD. Our program 
supports the full deployment cycle by focusing on Leaders, Marines and 
families from pre-deployment through post-deployment, providing 
information on what's to come, what to look for, and what to do when 
stress reactions appear. COSC concepts have also been incorporated in 
family readiness training.
    Suicide.--We are taking proactive action to address the issue of 
suicide. The Sergeant Major hand-selected a senior enlisted Marine 
leader to add unique insight to our efforts in suicide prevention, and 
the Assistant Commandant (ACMC), through the Executive Safety Board, is 
directing a series of initiatives which are currently in accelerated 
development:
  --Training.--Since 90 percent of suicides have tended to occur in the 
        ranks of E1-E5 Marines, a half-day, high impact, relevant 
        workshop has been designed to reach the NCO/FMF Sailor 
        community and facilitate their work with junior enlisted 
        Marines. This training is expected to be ready by this summer. 
        In March, I directed that an all-hands training on suicide 
        prevention be conducted throughout the Corps.
  --Leadership Suicide Prevention Video Messages.--All O6 and higher 
        commanding officers have been directed to produce videos 
        focusing on leadership and suicide prevention to set the tone 
        for stigma reduction and an imperative of prevention.
  --Integration of Suicide Prevention and the Marine Corps Martial Arts 
        Program (MCMAP).--A prevention message was incorporated in the 
        MCMAP program in a manner appropriate and engaging to reach all 
        Marines.
  --Relationship Distress Hotline.--Relationship problems, both 
        romantic and marital, remain the number one associated stressor 
        related to suicidal behavior. Suicide is complex and while this 
        is not the only problem, it is the most common. A hotline by 
        phone, email and live internet chat that is marketed 
        specifically to assist with relationship distress and questions 
        may reduce risk of suicide related behaviors that result from 
        this type of stress. In the interim, we have partnered with The 
        Outreach Call Center of the Defense Center of Excellence on 
        Psychological Health and Traumatic Brain Injury, and Military 
        OneSource to strategically market their relationship building 
        resources to Marines and family members.
    We will continue to aggressively pursue suicide prevention 
initiatives; reevaluate existing programs designed to reduce the 
stressors most correlated with suicidal behavior; develop and 
distribute new prevention programs; and refresh and expand training 
materials.
    Divorce.--Relationship problems leading to distress may result from 
difficulties in communication, parenting, sexual intimacy, finances or 
immaturity. The average age of married enlisted Marines is 27 and the 
average age of Marine Corps spouses is 28, the youngest of all the four 
military services. Coupling this young age with the demands of a 
military lifestyle can result in significant challenges for Marine 
couples.
    The Marine Corps takes a proactive stance in supporting healthy 
marital relationships. Most leaders are keenly aware of how 
relationships can impact mission readiness. When Marines are confident 
that their relationships are in good standing and their spouses are 
supported, they are able to focus on the mission at hand.
    Leaders encourage participation in such marital support programs 
as:
  --Marriage Enrichment Workshops.--The chaplain and Marine Corps 
        Family Team Building offer this workshop which is built on the 
        very successful Personal Relationship Enhancement Program 
        (PREP). This program focuses on skill building in a fun and 
        relaxed environment.
  --Face to Face Counseling Support.--Services of MCCS One Source 
        supplement the existing support system for Marines and their 
        families by providing assistance 24 hours a day, 7 days a week 
        via toll free telephone and Internet access. In addition, MCCS 
        One Source supports geographically dispersed Marines and their 
        families (recruiters, Inspector and Instructor staffs, and 
        mobilized reservists) who do not have traditional services 
        available. Military OneSource provides counseling support, 24/
        7, 7 days a week, for anyone seeking to learn more about 
        building a strong relationship that lasts. One Source can 
        provide assistance through referrals to military and community 
        resources, online articles, newsletters, and workshops, prepaid 
        booklets and audio recordings.
  --Couples Counseling.--The Counseling Center at Marine and Family 
        Services provides individual, marriage, and family counseling 
        as needed. Services are intended to be solution-focused on 
        well-defined problem areas amenable to brief intervention and 
        rehabilitation, such as adult adjustment issues, crisis 
        intervention, academic and occupational problems, parent-child 
        communication, grief and loss issues, and nonviolent marital 
        problems. Licensed clinical providers assist clients to 
        identify and clarify the nature and extent of problems based on 
        an initial assessment, and to develop a collaborative plan for 
        solving problems; and
  --Spouse Support.--These programs are aimed at reducing the social 
        isolation many young spouses experience and help to establish 
        more realistic expectations of what marriage in the Marine 
        Corps is all about. Some of these programs include:
    --L.I.N.K.S.--A Marine Corps Family Team Building program that 
            offers an orientation to the Marine lifestyle for all 
            spouses. The orientation includes spouse-to-spouse 
            mentorship and small group discussion, and provides a 
            positive, supportive environment for spouses of all ages to 
            learn to manage the demands of Marine Corps life and to 
            work together as team;
    --Key Volunteer Network--This program is an integral part of the 
            commander's official family readiness program and is the 
            primary communication link between the Commanding Officer 
            and unit families for the enhancement of mission readiness. 
            The Network supports families on the home front when 
            Marines are deployed. Not only does the Network provide 
            information on local programs and services but also 
            provides support through unit based activities;
    --Spouse Learning Series.--One-day seminar provided by MCCS and 
            hosted by Marine Corps Family Team Building to equip 
            spouses with techniques and skills that help to develop 
            leadership skills.
                            amphibious ships
    Question. General Conway, the ability to operate independently from 
the sea is a core capability of the Navy and the Marine Corps. The 
Marine Corps is developing new tactical vehicles and aviation systems 
for future warfighting capability. Are you concerned about these 
systems making the Marine Corps is too heavy, and that our amphibious 
lift capability may be inadequate to allow the Marine Corps to continue 
to operate as units from ships?
    Answer. Yes, I'm concerned that we are getting heavier. As a result 
of our current operations in Iraq and Afghanistan, much of the 
equipment we have has gotten heavier because of our efforts to provide 
more protection for our Marines and Sailors. This increased weight, 
coupled with increased dimensions, affects how we are able to embark on 
amphibious ships as well as prepositioning ships and other strategic 
sealift platforms and how we tactically move ashore. Our requirement 
for square foot vehicle stowage on Assault Echelon amphibious ships has 
grown, along with the weight of the vehicles; consequently, we are 
working to find the right balance between protection and 
transportability for our future forces. Further, we are examining how 
tactical movement ashore (assault) times have been affected because of 
weight for the vertical landing and by both weight and vehicle square 
for surface landings.
          mine resistant all terrain vehicles for afghanistan
    Question. General Conway, Mine Resistant Ambush Protected Vehicles, 
referred to as ``MRAPs'' in short, have saved thousands of lives in 
Iraq. To address the complex terrain in Afghanistan, the Department 
will purchase a lighter version of the MRAP vehicle, known as the ``M-
ATV''. But we are hearing that the Marine Corps is opting to upgrade 
its MRAPs instead of purchasing the lighter M-ATV for troops deploying 
to Afghanistan. Can you tell us the advantages of this strategy?
    Answer. We are upgrading current Mine Resistant Ambush Protected 
(MRAPs) vehicles with a modified independent suspension system that is 
being used on the highly reliable Medium Tactical Vehicle Replacement 
(MTVR) vehicles. This will significantly increase the vehicles' off 
road mobility while retaining crew survivability. The MRAP All Terrain 
Vehicle (M-ATV) will be used to complement the other tactical vehicles 
that are already in the theater of operations. We anticipate awarding 
M-ATV contracts by the end of June 2009.
    Question. General Conway, can you assure the Committee that 
upgraded MRAPs will provide the same level of force protection for our 
troops as the newer, lighter M-ATVs?
    Answer. Yes. Survivability is always a priority in our ongoing 
spiral development efforts. All MRAPs undergo rigorous testing and 
evaluation to ensure the greatest survivability capabilities are 
available to our forces to meet the warfighters' requirements.
    Question. General Conway, the original MRAP program was managed 
through the Marine Corps. The M-ATV program is being managed through 
the Army. What caused this transition and how is it affecting the 
Program Office's ability to move forward on the program?
    Answer. The MRAP program continues to be managed by the Marine 
Corps. The Office of the Secretary of Defense (OSD) determined the M-
ATV is within the MRAP family of vehicles. MRAP Joint Program Office 
(JPO) personnel are leveraging the resources of the U.S. Army Tank-
automotive and Armaments Command (TACOM) Contracting Center to conduct 
the competitive acquisition and award the contract.
                 marine corps move from okinawa to guam
    Question. General Conway, the original plan to move Marines from 
Okinawa to Guam included moving 8,000 and 9,000 dependants. Are those 
numbers still accurate or has the size of the move been reexamined.
    Answer. The relocation of Marine units to Guam alleviates growing 
encroachment issues on Okinawa and creates a long-term, enduring force 
posture in the Pacific. The Agreed Implementation Plans (AIPs) calls 
for approximately 8,000 Marines to relocate to Guam and approximately 
10,000 Marines to remain on Okinawa.
    Many things have changed since the planning and development of the 
2006 Roadmap and associated AIPs. These changes have forced planners to 
re-evaluate what is the proper force lay down in the Pacific, 
specifically the appropriate array of MAGTF units to properly support 
the PACOM commander's operational requirements. While the Marine Corps 
is executing strictly toward the AIP force laydown, it looks forward to 
opportunities that may re-examine the force posture, such as the 
Quadrennial Defense Review and the Deputy Secretary of Defense Guam 
Oversight.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
                      amphibious ship requirements
    Question. General Conway, based on current major contingency plans 
what is the requirement for amphibious ships, and how can these plans 
be conducted with the current number of amphibious ships?
    Answer. The Marine Corps' contribution to the Nation's forcible 
entry requirement is a single, simultaneously-employed two Marine 
Expeditionary Brigade (MEB) assault capability--as part of a seabased 
Marine Expeditionary Force (MEF). Although not a part of the MEF 
Assault Echelon (AE), a third reinforcing MEB is required and will be 
provided through MPF(F) shipping. Each MEB AE requires seventeen 
amphibious warfare ships--resulting in an overall ship requirement for 
thirty-four amphibious warfare ships. To make thirty-four operationally 
available amphibious ships based on a CNO approved maintenance factor 
of 10 percent, four additional ships are required for an inventory of 
thirty-eight amphibious ships which also covers our forward presence 
requirement. The Navy and Marine Corps have agreed to this requirement 
in a January 7, 2009 letter to members of the House Appropriations 
Committee which also states that: ``Understanding this requirement, and 
in light of the fiscal constraints with which the Navy is faced, the 
Department of the Navy will sustain a minimum of 33 total amphibious 
ships in the assault echelon. This 33 ship force accepts risk in the 
arrival of combat support and combat service support elements of the 
MEB, but has been adjudged to be adequate in meeting the needs of the 
naval service within today's fiscal limitations.''
    Again, this arrangement accepts some degree of risk but is feasible 
with the assault echelons being rapidly reinforced by Maritime 
Prepositioning Force Future (MPF-F).
    Question. General Conway, what is the current readiness status of 
amphibious ships particularly with crew manning and material readiness?
    Answer. This question is more appropriately aimed at the CNO and 
his staff to answer the details; however, I will say that amphibious 
class ships are among the ships with the highest Operational tempo 
(OPTEMPO) in the Surface Fleet.
    Question. General Conway, how does the move of Marines from Okinawa 
to Guam change or shape the requirement for amphibious ships either in 
their homeport lay down and/or numbers?
    Answer. The Pacific realignment will result in a disaggregation of 
III MEF forces on Okinawa, Guam, and Hawaii. This disaggregation 
creates inherent challenges in sustaining MAGTF core competencies and 
rapidly responding to contingencies in the theater. The realignment 
highlights the need for increased theater mobility, which is provided 
by a combination of tactical airlift, high-speed vessels, amphibious 
ships, black-bottom shipping (MSC), and strategic airlift. The quantity 
and mix of theater mobility assets, some of which may be sourced 
globally, will be reviewed as the force laydown, training requirements, 
Theater Security Cooperation plans, and OPLANS are refined as we 
progress with Pacific realignment planning. Currently, amphibious 
shipping is home stationed in Sasebo, Japan, and Honolulu, Hawaii, to 
support Marines on Okinawa and Hawaii, and could be used to support 
Marines on Guam with additional transit time. A review of amphibious 
shipping support for Marine forces based on Guam has not been initiated 
as key issues, such as force laydown and training, are still being 
studied within the Quadrennial Defense Review.
    Question. General Conway, does the Army or Special Operations 
Command have any requirement for amphibious ships? If not, why not? And 
if yes, how are their requirements factored into the overall program?
    Answer. According to our research, the U.S. Army and USSOCOM 
currently have no requirement for amphibious ships. The U.S. Marine 
Corps provides the nation's ``forcible entry from the sea,'' it is our 
core competency.
    Question. General Conway, we have seen amphibious ships used for 
non-traditional functions such as disaster relief and humanitarian-
assistance. What other missions or requirements exist for amphibious 
ships; could they be used for, mine counter measure ships, Afloat 
Forward Staging Bases for Special Operations Forces, Theater Security 
Cooperation Platforms, and Marine Air-Ground Task Force. Would these 
missions or requirements change the overall requirement for amphibious 
ships?
    Answer. Broadly stated, there are three competing demands for 
amphibious ships. The first two, maintaining persistent forward 
presence and episodically aggregating sufficient numbers to deliver the 
assault echelon in a joint forcible entry operation, are both tied to 
lifting Marine air-ground task forces. The third demand is tied to key 
joint enablers.
  --Forward Presence.--Amphibious forces in general, and Amphibious 
        Ready Groups with embarked Marine Expeditionary Units (ARG/MEU) 
        in particular, have proven themselves invaluable for regional 
        deterrence and crisis response. In recent years amphibious 
        ships have also demonstrated their utility for missions such as 
        security cooperation and civil support to include humanitarian 
        assistance and disaster relief. They allow the United States to 
        discretely interact with partner nations without the unintended 
        consequences often generated by a large footprint ashore in 
        politically sensitive areas. As a result, in this era of 
        declining overseas access the geographic combatant commanders' 
        (GCC) have an increased demand for forward-postured amphibious 
        forces. The cumulative GCC demand for forward-postured 
        amphibious forces can be met with an inventory of 38 ships.
  --Assault Echelon.--An amphibious inventory of 38 ships will also 
        support Marine Corps forcible entry requirements. The assault 
        echelon of a Marine Expeditionary Force can be accommodated on 
        34 ships. Our challenge is one of aggregating those 34 ships 
        from an inventory of 38. Essentially, that means we can have no 
        more than four ships--10 percent of the inventory--in 
        maintenance at any one time and that the United States is 
        willing to sail the remaining 34 ships away from all other 
        global commitments.
  --Joint Enablers.--Extant operation plans and recent experience prove 
        the need for amphibious ships specifically dedicated to support 
        Special Operations Forces (SOF) and Mine Countermeasure (MCM) 
        forces. Inasmuch as SOF and MCM support are critical enablers 
        for forcible entry, these requirements must be supported either 
        by the acquisition of additional amphibious ships--over and 
        above the 38 needed to satisfy Marine Corps forward presence/
        assault echelon requirements--or the provision of other 
        suitable platforms.
                 medevac mission support in afghanistan
    Question. General Conway, the issue of providing timely medical 
care for our service members in combat is of great concern to us all. A 
major contributor to being able to providing timely care is associated 
with having full medical evacuation capabilities in Theater. Have you 
seen any improvement in lowering the response time in Afghanistan for 
medical evacuations? If so, do these efforts meet your expectations for 
providing support to the additional personnel being stationed in 
Afghanistan and what other improvements are planned to support the 
medical needs of additional ground forces?
    Answer. I am very pleased with the procedures initiated by CENTCOM 
to monitor the Secretary of Defense's directed 60-minute MEDEVAC 
standard. We have to give the newly arriving forces time on the ground 
to become Fully Operational Capable (FOC) before improvements can be 
measured. When the units are declared FOC and start conducting 
missions, CENTCOM will analyze their progress and conduct reassessments 
on capabilities including MEDEVAC. I am of the belief that the initial 
medical and MEDEVAC forces requested by USFOR-A and CENTCOM as well as 
the additional Forward Surgical Teams and MEDEVAC recommended by the 
Joint Staff and approved by the Secretary of Defense are capable of 
providing care to the additional force structure and will meet the 
directed 60-minute MEDEVAC standard. The standard is measured from 
``point of injury'' to ``surgical intervention.''
             marine corps cargo unmanned air systems (uas)
    Question. General Conway, I have been informed that the Marine 
Corps is interested in an unmanned aerial system for cargo operations 
for troop resupply in Afghanistan and that you hope to have this 
capability by February of next year. Could you please discuss the 
Marine Corps' immediate need for this unmanned air cargo system in 
Afghanistan? We would also like to hear more about the requirements and 
potential solutions for this capability.
    Answer. The objective of the Marine Corps Warfighting Lab's (MCWL) 
effort is to find a technology capable of removing, in whole or in 
part, the need to move supplies to Forward Operating Bases (FOBs) by 
ground transportation. The focus is ``getting trucks off the road'' as 
soon as possible in Afghanistan to reduce the vulnerability of supply 
lines. In general, the capability need is for an unmanned air vehicle 
to be able to deliver 10,000-20,000 pounds of cargo in a 24 hour period 
to a round-trip distance of 150 nautical miles and hover in ground 
effect/hover out of ground effect (HIGE/HOGE) at 12,000 feet density 
altitude (DA) but fly at 15,000 feet DA with a full cargo load.
    In the next 6 months we hope to demonstrate currently available 
technologies that may be operationally relevant. We will then 
transition the successful technologies to the appropriate acquisition 
command immediately thereafter for future operational deployment. The 
Naval Research Enterprise is also investigating longer term technology 
candidates for future capabilities.
    MCWL is currently in the process of conducting a source selection 
to select vendor(s) capable of demonstrating the capability of 
providing an immediate cargo unmanned aerial systems. For the 
demonstration, a single airframe must deliver at least 2,500 lbs of 
cargo in a 6 hour period to a location 75NM from the starting point 
(which is a representation of 10,000 lbs in a 24 hour period with a 
round-trip distance of 150 nautical miles), Beyond Line Of Sight (BLOS) 
from origination. The System shall be able to terminally control the 
vehicle from a destination location which is BLOS from the launch 
location with a remote controller. Terminal control will consist of the 
following options at the destination location: Deliver at programmed 
location, abort delivery, and return to launch location with original 
load. The smallest element in a cargo package shall be equivalent to at 
least a standard wood pallet (48 by 40 in. Stack  67 in.) of cubic 
volume.
    It is anticipated that a contract(s) will be awarded on or about 17 
July 2009.
                     joint high speed vessel (jhsv)
    Question. General Conway, given the sea state limitations of the 
Joint High Speed Vessel, what is the impact or potential impact on 
Marine operations and training.
    Answer. According to the JHSV Capability Development Document, it 
is designed for a speed of 35 knots in a sea state 3 (SS3) carrying the 
threshold payload of 600 short tons. The high speed of the vessel 
allows it to maneuver and change course to mitigate forecasted higher 
sea conditions allowing it to maintain the mission profile. The HSV-2 
Swift supported humanitarian assistance operations in Beirut, Lebanon 
in 2006 as part of a record breaking 2-year deployment period (2005-
2007) in which Swift successfully completed various missions in support 
of EUCOM, CENTCOM, PACOM, and SOUTHCOM. Further, the WestPac Express 
continues to provide critical intra-theater sealift support to III MEF, 
so there is no impact on our operations and training.
                                 ______
                                 
            Question Submitted by Senator Robert F. Bennett
                                  v-22
    Question. General Conway, in your efforts to ``modernize for 
tomorrow,'' I am interested in the progress being made on a tactical 
vehicle that readily fits inside the V-22. What is the status of 
identifying and procuring an effective vehicle that meets Marine 
requirements? What assistance can Congress provide to ensure that our 
V-22 transported assault forces have the mobility that they need to 
carry out their mission?
    Answer. The Internally Transported Vehicle (ITV) is a family of 
vehicles developed and procured by the Marine Corps to provide a 
deployed Marine Air Ground Task Force (MAGTF) with a ground vehicle 
that is internally transportable in the MV-22 and CV-22 tilt-rotor 
aircraft, CH-53, and MH-47 aircraft. The vehicle serves primarily as a 
high mobility weapons-capable platform to support a variety of 
operations (reconnaissance, raids, etc.) and to provide ground units 
greater mobility, thereby enhancing their mission performance and 
survivability. The ITV was judged Operationally Effective and 
Operationally Suitable during Operational Testing in early 2008, and 
met all Key Performance Parameters and critical requirements. Full Rate 
Production (FRP) for the Light Strike Variant (LSV) of the ITV was 
granted by the Milestone Decision Authority (MDA) on July 10, 2008.
    To date a total of 21 LSVs have been fielded to the following east 
coast units; MarSoc (10), 2nd Marines (6), and 1/10 (5). Currently 
another 15 LSVs are being fielded to 1/9. New Equipment Training with 
1/9 will be completed on June 25, at which point Initial Operational 
Capability (IOC) will have been achieved for the ITV (LSV). IOC is 
achieved when, ``one Infantry Battalion assigned to a MEU is fully 
equipped with the ITV, the assigned mechanics and operators have 
received initial training, and sufficient repair parts are in place to 
support operations,'' as defined by the vehicle's requirement document. 
Fielding will begin to I MEF units in late September/early October with 
the exact date being determined at the upcoming I MEF Fielding 
Conference.
    The goal of the fielding effort for the first year is to establish 
a foundation in the operating forces to be able to support East and 
West Coast MEU deployments, the MarSoc requirement, and 1st and 2nd 
Recon Battalion's operational requirements. Fielding of LSVs will then 
continue to III MEF units. At this point the program is on track to 
purchase and field about 80-100 vehicles per year. Our current 
requirement (Approved Acquisition Allowance-AAO) is 729 vehicles.
    I ask for your continued support for all current and future funding 
requests that allow us to field this vehicle to our active and reserve 
units as quickly as possible.

                          SUBCOMMITTEE RECESS

    Chairman Inouye. The subcommittee will stand in recess 
until Thursday, June 4, and at that time we'll hear from the 
Secretary of the Air Force and the Chief of Staff of the Air 
Force on the fiscal year 2010 budget request. With that, thank 
you very much.
    [Whereupon, at 11:25 a.m., Tuesday, June 2, the 
subcommittee was recessed, to reconvene at 10:30 a.m., 
Thursday, June 4.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2010

                              ----------                              


                         THURSDAY, JUNE 4, 2009

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:30 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Dorgan, Murray, Cochran, Bond, 
Shelby, and Bennett.

                         DEPARTMENT OF DEFENSE

                      DEPARTMENT OF THE AIR FORCE

                        Office of the Secretary

STATEMENTS OF:
        HON. MICHAEL B. DONLEY, SECRETARY OF THE AIR FORCE
        GENERAL NORTON A. SCHWARTZ, CHIEF OF STAFF, UNITED STATES AIR 
            FORCE

             OPENING STATEMENT OF CHAIRMAN DANIEL K. INOUYE

    Chairman Inouye. This morning, the subcommittee convenes to 
hear testimony from the Air Force on its budget request for 
fiscal year 2010, and I am pleased to welcome the Secretary of 
the Air Force, the Honorable Michael Donley, and the Chief of 
Staff of the Air Force, General Norton Schwartz.
    Gentlemen, welcome. And I realize this is your first time 
here, but I can assure you that we are looking forward to 
working with you in the coming years because we believe that 
the Air Force is a very important part not just of the defense 
community, but of the United States.
    So let me begin by commending you both for the measures 
taken to strengthen stewardship of the Air Force's nuclear 
arsenal. The fiscal year 2010 budget includes several key 
improvements, including an increase in personnel for the 
nuclear mission and the establishment of the Global Strike 
Command. Your leadership has been essential, and we look 
forward to continued progress.
    For fiscal year 2010, the Air Force is requesting $160.5 
billion in the base budget and $16 billion in the overseas 
contingency operations budget. This budget submission is 
notable in a number of ways.
    First, it funds a more robust active duty end strength 
level of 331,000 personnel rather than continuing the drawdown 
that we have witnessed up until now. It is important to 
stabilize the Air Force manpower levels, especially now when 
mission demands are increasing.
    More personnel will help to meet the needs of irregular 
warfare, aerial surveillance support, cyberspace and 
acquisition excellence, and in restoring the nuclear 
enterprise. The subcommittee will be interested in how the Air 
Force plans to allocate personnel across these critical 
missions.
    It is noteworthy that this budget supports the continued 
emphasis on irregular warfare and building up the intelligence, 
surveillance, and reconnaissance assets needed in today's 
fight. It will increase the Predator and the Reaper unmanned 
aerial vehicle (UAV) coverage to 43 combat air patrols. The 
budget also supports the training and operation of the MC-12 
Liberty ISR aircraft. The Air Force has made great strides in 
improving its posture in this mission area.
    Third, this budget reflects the hard and controversial 
decisions that the Department is making on future investments. 
In this request, the F-22 Raptor, the C-17 airlifter, and the 
transformational communications satellite programs are 
terminated. The joint cargo aircraft program is reduced from 78 
to 38 aircraft and is no longer a joint program with the Army.
    The request restructures the combat air forces and retires 
249 fighter aircraft. The subcommittee will be interested in 
understanding both the risks and benefits of these choices.
    Gentlemen, I remain concerned about the aging aircraft 
fleet, especially the tanker fleet. The average aircraft age is 
now over 24 years. The average age of the KC-135 fleet is close 
to 50 years. The tanker aircraft must be replaced, and I have 
several questions on this program and many others today.
    And I look forward to hearing your testimony this morning. 
Your full statements will be made part of the record, but 
first, I would like to turn it over to the vice chairman of 
this subcommittee, Senator Cochran of Mississippi, for any 
opening remarks he may wish to make.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, it is a pleasure to work 
with you on this important subcommittee and to join you in 
welcoming our distinguished witnesses before the subcommittee 
today.
    The Air Force is playing a unique and important role in the 
defense of our Nation. We respect all of you who are involved 
in that. We thank you for your dedicated service and bringing 
to the challenge the expertise and results of the training and 
experience you have had in the defense of our Nation.
    The aircraft and forces of the Air Force have been 
protecting our Nation's interests in a very remarkable and 
praiseworthy way. We especially appreciate the dangers that are 
faced in Iraq, Afghanistan, and other areas around the world 
where the Air Force is playing a very important and active role 
in helping ensure that our Nation's policies succeed in those 
areas.
    We look forward to hearing your testimony to help us 
determine how best to allocate the resources that are available 
to this subcommittee for the Air Force in carrying out your 
missions.
    Thank you very much.
    Chairman Inouye. Thank you very much.
    Senator Bond.

                STATEMENT OF SENATOR CHRISTOPHER S. BOND

    Senator Bond. Thank you very much, Mr. Chairman.
    And I join with the chairman in congratulating you on the 
good work you are doing to restore the reliability and 
assurance of our Nation's nuclear mission, and we welcome 
Secretary Donley. We thank both of you for your distinguished 
service.
    Gentlemen, as you know, we have had discussions about 
concerns over the tactical fighter's air shortfalls and, as the 
chair mentioned, 24 years age on the Air Force fleet. Last 
year, before the Airland Subcommittee of SASC, the Air Force 
testified it was facing a shortfall of 800 plus aircraft Air 
Force wide. And the Air National Guard testified that over the 
next 8 to 9 years, Air Guard is facing a fighter shortfall that 
will result in 80 percent of the aircraft used to defend the 
skies of the United States, the Air Sovereignty Alert mission, 
being retired.
    And it is clear from what the Government Accountability 
Office (GAO) has told us that accelerating the Joint Strike 
Fighter (JSF) will not prevent the fighter gap. In March of 
this year, GAO concluded it would cost $33 billion to 
accelerate the JSF program and said, ``Accelerating procurement 
in a cost reimbursement contract environment, where 
uncertainties in contract performance do not permit costs to be 
estimated with sufficient accuracy to use any type of fixed-
price contract, places very significant financial risk on the 
Government.''
    My view, now is not the time to be placing significant 
financial risk on the Government, and it is never time to place 
the country at a security risk. But it is my view that is what 
the present budget is proposing.
    I know a lot of people will talk about the Quadrennial 
Defense Review (QDR), but as in years past, we have seen that. 
We have got the T-shirt. I know that it will be an attempt to 
justify the budget reductions by saying we don't need as many 
fighters. It is a massive budget drill. But none of that 
analysis--I will review that when it comes out--will be 
available in time for this budget session.
    So I remain convinced and we will discuss whether it is 
time to rethink the plan. JSF is too big to fail. So we are not 
going to let it go, but is it time to look at an 85 percent 
solution at one-half to two-thirds of the cost, giving the Air 
Force the proven platforms that will bridge us to the time, if 
and when, the JSF can complete its mission?
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    Senator Shelby.

                 STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. And I just want to say welcome to Secretary 
Donley and General Schwartz, and I look forward to their 
testimony. And of course, I have some questions, especially, as 
the chairman mentioned, in dealing with the tanker competition. 
And also, Mr. Secretary, with the UAVs and so forth. We will 
get into that after your testimony.
    Thank you.
    Chairman Inouye. Mr. Secretary?

              SUMMARY STATEMENT OF HON. MICHAEL B. DONLEY

    Mr. Donley. Thank you, Mr. Chairman, Senator Cochran, 
members of the subcommittee.
    It is, indeed, a privilege to be with you today to testify 
on the fiscal year 2010 budget and Air Force's future plans.
    It has been almost a year since General Schwartz and I took 
on these roles, and I will tell you that it has been both a 
pleasure and a privilege to work with General Schwartz in this 
effort. He has been an outstanding partner and wingman in our 
work together over the last year.
    In recent months, Secretary Gates and Admiral Mullen led a 
constructive dialogue about necessary changes in our national 
defense priorities and areas of emphasis. Our discussions 
emphasized taking care of our most important asset, which is 
our people; rebalancing our capabilities to fight and win the 
current and most likely conflicts in front of us, while also 
hedging against other risks and contingencies; and reforming 
how and what we buy.
    We have contributed our analysis and judgment to these 
discussions throughout. With OSD and our sister services and 
interagency partners, we have undertaken several strategic 
reviews of the Air Force in the last year.

                     AIR FORCE STRATEGIC PRIORITIES

    Last fall, we refined the Air Force mission statement, 
articulated our five strategic priorities, and refined the core 
functions of the Air Force to more clearly articulate our role 
in the defense and national security establishment. We also 
made progress in areas that required focused attention in the 
near term, such as strengthening the Air Force's nuclear 
enterprise, preparing to stand up our cyber numbered air force, 
articulating our strategy for irregular warfare and 
counterinsurgency operations, consolidating our approach in the 
Air Force for global partnerships, and advancing stewardship of 
our energy program.
    Our reviews were guided by the concept of strategic 
balance, which has several meanings for us. As Secretary Gates 
and Admiral Mullen have described, balance means prevailing in 
today's fight while also being able to respond across the 
spectrum of conflict to emerging hybrid threats.
    Balance also means allocating investment across our 12 
diverse, but complementary core functions, and balance also 
means organizing training and equipping across the Air Force 
components--active, Guard, Reserve, and our civilian workforce 
as well.

                          AIR FORCE PERSONNEL

    Our budget proposal recognizes that our people are the 
heart and soul of America's Air Force, and without them, our 
organizations and equipment would simply grind to a halt. In 
fiscal year 2010, we are reversing previously planned 
reductions in Air Force active duty end strength with 
commensurate adjustments in the Reserve components as well. We 
will also grow our civilian cadre, with focused attention on 
the acquisition workforce.
    At the same time, we will continue to reshape our skill 
sets, with particular emphasis on stressed career fields and 
missions that need our attention now, such as intelligence, 
surveillance, and reconnaissance (ISR); acquisition; 
maintenance; cyber operations; and nuclear matters.
    For fiscal year 2010, we are also driving more balance into 
our force structure. In theater, the demand for ISR and special 
operations capabilities continues to increase. So we will 
increase unmanned aerial system combat air patrols, as the 
chairman mentioned, from 34 today to 43 by the end of fiscal 
year 2010, as well as increase our special operations forces 
end strength by about 550 personnel.

                      AIR FORCE COMBAT CAPABILITY

    We also took a broader strategic look at the total combat 
Air Force capability, and there is a general view in the 
Department's leadership that the United States has enough 
tactical air capability. With that in mind, we determined that 
this was a prudent opportunity to accelerate the retirement of 
older aircraft, as we have done in this budget.
    As a result, we will reshape the portfolio of the fighter 
force by retiring about 250 of our oldest tactical fighters. We 
will complete the production of the F-22 fighter at 187 
aircraft and continue our planned modernization of the F-22 
going forward. And we are readying another fifth generation 
fighter, the F-35 Joint Strike Fighter, to become the workhorse 
of our new fighter fleet in the future.
    We will ensure balance for joint airlift needs by 
completing the C-17 production, subject to continued 
congressional action in that area, continuing to modernize our 
C-5s, reinitiating the C-130J production line, and 
transitioning the C-27J program office from the Army to the Air 
Force.
    In particular, the Department made a judgment that the 316 
strategic airlift tails in the program of record is adequate to 
meet our needs. We also conducted a business case analysis that 
identified alternatives to improve our current strategic 
airlift fleet at less cost than simply buying more C-17s. We 
know that is an issue with Congress, and we look forward to 
further discussions with you on that subject.
    Our plan is to enhance the stability and remove risk in our 
military satellite communications (SATCOM) programs by 
extending our advanced extremely high frequency (AEHF) and 
wideband global SATCOM (WGS) inventories and continuing our 
partnerships with commercial providers.
    While AEHF does not give us all the capabilities projected 
for the transformational satellite (TSAT) program, additional 
AEHF and WGS satellites provide additional SATCOM capability 
until we can gain confidence about the affordability and the 
requirements for TSAT-like capabilities in the future.

                         AIR FORCE ACQUISITION

    We have also placed additional emphasis on Air Force 
acquisition. We recently published an acquisition improvement 
plan to focus our efforts in several key areas. First, 
revitalizing the Air Force acquisition workforce. Second, 
improving our requirements generation process. Third, 
instilling more budget and financial discipline in our work. 
Fourth, improving Air Force major system source selections in 
the Air Force. And last, establishing clear lines of authority 
and accountability within our acquisition organizations.
    We will continue to work on these issues going forward with 
Secretary Gates and Dr. Carter.
    Over the coming months, we will, of course, participate in 
several major reviews underway in the Department--the QDR, the 
nuclear and space posture reviews. And from these analyses, we 
will better understand the needs, the requirements, and 
available technologies for long-range strike, as well as our 
requirements and potential joint solutions for personnel 
recovery.

                           PREPARED STATEMENT

    Mr. Chairman, stewardship of the United States Air Force is 
a responsibility that we take very seriously, and we know this 
subcommittee does as well. We thank you for your support for 
our airmen and for our national security in general, and we 
look forward to the continued support of this subcommittee and 
working with you in the future.
    Thank you.
    Chairman Inouye. I thank you very much, Mr. Secretary.
    [The statement follows:]
   Prepared Statement of the Honorable Michael B. Donley and General 
                           Norton A. Schwartz
    The 2009 Air Force Posture Statement articulates our vision of an 
Air Force ready to fulfill the commitments of today and face the 
challenges of tomorrow through strong stewardship, continued precision 
and reliability, and dedication to persistent Global Vigilance, Reach 
and Power for the Nation.
                              introduction
    Today, the United States faces a spectrum of challenges to our 
national security and global interests. As an integral member of the 
Joint team, America's Air Force provides the critical capabilities of 
Global Vigilance, Global Reach, and Global Power. The U.S. Air Force is 
``All In'' today's Joint fight. At the same time, our investments in 
new capabilities will ensure we are ready for tomorrow's challenges. 
The mission of the U.S. Air Force is to ``fly, fight, and win . . . in 
air, space and cyberspace''--as an integral member of the Joint team 
that ensures our Nation's freedom and security.
                          a balanced approach
    Today's uncertain international security environment requires a 
balance-driven approach to prevail in today's operations, and prepare 
for tomorrow's challenges by identifying and investing in new 
capabilities and force structure. This balanced approach postures the 
Air Force to provide an array of capabilities to Combatant Commanders 
across the spectrum of conflict--from building partnership capacity to 
ensuring the readiness of strategic deterrence forces.
                        air force core functions
    Our Air Force's foremost responsibility is to organize, train, and 
equip Airmen to meet the needs of our national leadership and Combatant 
Commanders. Our fiscal year 2010 budget proposal reflects a commitment 
to the 12 Air Force Core Functions, which provide the framework for 
investment and training.
Air Force Core Functions
Nuclear Deterrence Operations
Air Superiority
Space Superiority
Cyberspace Superiority
Global Precision Attack
Rapid Global Mobility
Special Operations
Global Integrated ISR
Command and Control
Personnel Recovery
Building Partnerships
Agile Combat Support

    The Air Force fiscal year 2010 budget proposal reflects a 
commitment to our Core Functions that will be informed by numerous 
reviews of the overall defense-planning construct. Through the 
Quadrennial Defense Review (QDR), the Nuclear Posture Review (NPR), the 
Space Posture Review (SPR) and internal mid-term reviews, we will 
continue to sharpen and institutionalize our Core Functions. These 
capabilities, combined with the extraordinary commitment and dedication 
of our Airmen, provide our Nation with truly exceptional air, space, 
and cyber power.
                     nuclear deterrence operations
    For more than 60 years, the Air Force has proudly served as 
stewards of a large portion of our Nation's nuclear arsenal. We 
operate, maintain and secure these nuclear forces to deter potential 
adversaries and to prevail if deterrence fails. Recent incidents and 
assessments have highlighted performance shortfalls, and we are 
diligently working to ensure the safety, security, and reliability 
demanded for this vital capability.
    Our fiscal year 2010 budget proposal addresses many of the 
recommendations provided by the various assessments of the Air Force 
nuclear enterprise. Our overall investment in nuclear deterrence 
operations in fiscal year 2010 is $4.9 billion, which includes 
increasing nuclear related personnel by 2,500 and adding a fourth B-52 
squadron. The fiscal year 2010 budget proposal places additional 
emphasis on nuclear weapons security, committing $72 million to 
strengthen the physical integrity of our Weapon Storage Areas.
    Through a back-to-basics approach, the Air Force is re-emphasizing 
accountability, compliance, and precision in the nuclear enterprise. We 
are reorganizing our nuclear forces in a manner that reduces 
fragmentation of authority and establishes clear chains of supervision 
for nuclear sustainment, surety and operations. These changes include: 
(1) consolidating all nuclear sustainment matters under the Air Force 
Nuclear Weapons Center; (2) establishing a new Air Staff nuclear 
directorate responsible for policy oversight and integration of our 
nuclear enterprise activities; and (3) standing up Air Force Global 
Strike Command, which is already operating in a provisional status at 
an interim location. Global Strike Command will consolidate Air Force 
Intercontinental Ballistic Missiles and nuclear-capable bombers under a 
single command, and is on track to activate later this year.
              air superiority and global precision attack
    Air Superiority and Global Precision Attack remain the foundations 
of our ability to deliver Global Power. In fiscal year 2010, we are 
investing $21 billion into these Core Functions.
    New and unprecedented challenges to our Nation's Air Superiority 
continue to emerge, and threaten to remove the technological advantage 
enjoyed by our Air Force. Our adversaries continue to invest in highly 
capable surface-to-air missile technology, which threatens even our 
most advanced combat aircraft. Likewise, emerging adversaries may now 
pose a significant air threat by leveraging inexpensive technology to 
modify existing airframes with improved radars, sensors, jammers, and 
weapons.
    To meet these challenges and assure freedom of movement for the 
Joint team, the Air Force continues to invest in weapons and platforms 
for Global Precision Attack. The Joint Air Surface Standoff Missile--
Extended Range, will enable our aircrews to attack targets precisely 
while negating or avoiding surface threats. Similarly, the Laser Joint 
Direct Attack Munition will enhance our capability to strike moving or 
static targets efficiently and precisely.
    The F-22 and F-35 are key components of the Air Force's future Air 
Superiority and Global Precision Attack Core Functions. Given their 
low-observable characteristics and ability to fuse information from 
multiple sensors--key components of their 5th Generation designs--these 
aircraft are far more survivable and lethal than our current 4th 
Generation force. While the F-35 is optimal for Global Precision 
Attack, it also serves as a complementary capability to the F-22, which 
is optimal for Air Superiority. Together, they form the backbone of a 
fighter force that will ensure the United States maintains a decisive 
edge in an increasingly lethal threat environment. We support the 
current investment strategy that ends F-22 production at 187 aircraft. 
The Air Force will invest $4.1 billion in fiscal year 2010 to procure 
10 F-35s as part of the Department of Defense's strategy to ramp up 
production. By accelerating the procurement ramp, we can lower unit 
procurement costs while also making the platform more cost competitive 
for our Coalition partners.
    Our fiscal year 2010 budget proposal accelerates the integration of 
our Guard and Reserve components into new and emerging mission sets, 
including unmanned aerial systems, F-22 and F-35 missions. By 
considering Air National Guard and Air Force Reserve Command for 
inclusion in emerging mission areas and basing strategies, we 
capitalize on the experience and unique skill sets that our Air Reserve 
Components contribute to the Total Force.
    We are also modernizing our existing bomber force to increase its 
effectiveness and survivability against emerging threats, while meeting 
the requirements of today's Joint Force Commanders. We have fielded a 
state-of-the-art infrared, electro-optical targeting pod on the B-1 to 
provide an additional, persistent sensor on the battlefield to self-
target weapons, or provide real-time streaming video to ground forces. 
We are also modernizing our B-2 fleet by improving the radar, 
integrating the Link-16 data link and adding extremely high frequency 
satellite communication capabilities for nuclear command and control. 
In addition, investments in low observable maintenance improvements 
will decrease sustainment costs and reduce aircraft downtime. In 
accordance with the Secretary of Defense's budget guidance, we will not 
pursue the development of the Next Generation Bomber until we have a 
better understanding of the requirements, technologies, and concept of 
operations for this capability--all of which are expected to be 
addressed in the QDR.
Restructuring Our Combat Air Forces
    This year, the Department of Defense provided guidance for the 
military to eliminate excessive overmatch in our tactical fighter force 
and consider alternatives in our capabilities. Acting on this guidance, 
the Air Force examined emerging, advanced threats and then analyzed our 
Combat Air Forces' capabilities against them. Our intent was to ensure 
the proper mix of platforms that meet requirements while minimizing 
excess inventory and deriving the most capability from our limited 
resources.
    After a comprehensive review of alternatives, the Air Force saw an 
opportunity to reshape our aging fighter force via an accelerated 
retirement of our oldest legacy fighters. The review weighed the 
benefits of retiring aircraft nearing their expected service life, 
against near-term risk. The analysis also considered the ``game-
changing'' capabilities of low observable platforms like the B-2, F-22, 
and F-35 that possess the ability to access areas defended by advanced 
surface-to-air missile systems.
    Once the size and scope of the reduction was determined, the Air 
Force presented its implementation plan to the Combatant Commanders, 
Joint Staff and the Office of the Secretary of Defense. Accelerating 
the retirement of roughly 250 legacy F-15s, F-16s, and A-10s enables us 
to redistribute over $3.5 billion in the next 6 years to modernize our 
Combat Air Forces into a smaller, but more capable force--one that is 
balanced across our Active and Reserve Components and meets our 
commitments at home and abroad. This restructuring also facilitates the 
movement of approximately 4,000 manpower positions that will be 
realigned to support growth in priority missions such as manned and 
unmanned aerial surveillance systems, ISR support, and the nuclear 
enterprise.
    Our current fleet of legacy and 5th Generation aircraft represent 
our readiness to fulfill today's commitments, while our fiscal year 
2010 budget proposal invests in a future force mix to meet tomorrow's 
challenges.
                         rapid global mobility
    Global Reach ensures our Joint team can deploy, maneuver and 
sustain large forces on a global scale. In Iraq and Afghanistan, Air 
Force air mobility assets are central to sustaining the Joint and 
Coalition team. On any given day, Air Force C-5s deliver life-saving 
Mine Resistant Ambush Protected vehicles into theater; C-17s airdrop 
critical supplies to forward-based ground forces via the revolutionary 
GPS-aided Joint Precision Airdrop System; and C-130s provide tactical 
airlift to move theater-based personnel and equipment. Highly skilled 
aeromedical transport teams swiftly evacuate combat casualties, 
ensuring our wounded warriors receive the best possible medical care. 
And Air Force air refueling aircraft continue to play a vital, daily 
role in extending the range and persistence of almost all other 
aircraft of the Joint force. The fiscal year 2010 budget proposal 
reflects our commitment to sustaining and modernizing these critical 
national capabilities.
    Replacing the aging KC-135 fleet remains the Air Force's top 
acquisition priority. The fiscal year 2010 budget proposal supports the 
release of a request for proposal in summer 2009 with a contract award 
early in fiscal year 2010.
    The fiscal year 2010 budget proposal continues efforts for 
modernization and includes funding to begin the shut down of the C-17 
production with a fleet of 205 aircraft. Modernization of our C-5 fleet 
continues through the Avionics Modernization Program and Reliability 
Enhancement and Re-engining Programs, and during fiscal year 2010 we 
will continue recapitalizing our intra-theater airlift capability by 
re-initiating the C-130J production line following one year procurement 
gap and procuring three C-130J aircraft for $394 million.
    The Air Force will also begin procuring C-27J in fiscal year 2010 
to provide mission-critical/time-sensitive airlift in direct support of 
our Joint partners. The fiscal year 2010 budget proposal procures 8 C-
27Js, as the first step toward a total procurement of 38 C-27Js. The 
Air Force continues to work closely with the U.S. Army to accept full 
management of the Joint Cargo Aircraft (JCA) program and the direct 
support airlift mission.
                           special operations
    Air Force special operations capabilities are playing an 
increasingly vital role in supporting U.S. Special Operations Command 
(USSOCOM) and geographical Combatant Commanders. We are also responding 
to significant growth in the requirements for Irregular Warfare (IW) 
capabilities with major investments in special operations airlift, 
close air support and Intelligence, Surveillance and Reconnaissance 
(ISR).
    Our fiscal year 2010 budget proposal reflects the Air Force's 
commitment to special operations capabilities, and includes $862.6 
million for the procurement of 4 MC-130Js and 5 CV-22s. AFSOC will 
expand its special operations ISR force structure by activating a 
squadron of MQ-9 Reapers, in addition to the already operational MQ-1 
Predator squadron. Additionally, we are recapitalizing our MC-130E/P 
fleet with newer, more capable MC-130Js for low-level air refueling, 
infiltration, exfiltration and resupply of special operations forces. 
At the same time, we will convert 8 MC-130Ws to AC-130 gunships, and 
procure additional CV-22s.
                         global integrated isr
    Operations in Iraq and Afghanistan have highlighted the increasing 
need for timely, fused data from all available sources. To meet this 
need, we are greatly expanding our airborne ISR force structure of 
manned and unmanned ISR assets. In fiscal year 2009, we will field the 
MC-12W to provide increased full-motion video and signals intelligence. 
Additionally, our fiscal year 2010 budget proposal continues major 
investments in unmanned aircraft, transitioning from the MQ-1 Predator 
to the MQ-9 Reaper, with $489 million for 24 additional MQ-9s to 
increase our total UAS combat air patrols from 34 CAPs today to our 
goal of 50 CAPs by the end of fiscal year 2011. We are also investing 
$84 million to integrate the Wide Area Airborne Surveillance (WAAS) 
onto existing and new MQ-9s, providing 12 times the number of streaming 
video spots per aircraft. Our fiscal year 2010 budget proposal also 
contains funding for five RQ-4 Global Hawk UAVs, which provide 
persistent ISR from high-altitude orbits. We are also balancing our ISR 
personnel requirements by re-examining our training programs for 
intelligence professionals, creating new duty specialty codes, and 
establishing trial programs to develop ISR operators.
                          command and control
    The Air Force has established Air and Space Operations Centers 
(AOCs) aligned with each geographical Combatant Commander to integrate 
air, space, cyber, and missile defense capabilities into Joint 
operations. We have also improved our Tactical Air Control System 
(TACS) to account for increasingly distributed air-ground operations in 
Iraq and Afghanistan. Our restructured Air Liaison Officer program 
offers these Airmen a viable career path. We are also training 
additional terminal air controllers and equipping them with 
increasingly capable, portable and flexible air strike control systems 
like Remote Operated Video Receiver (ROVER) version 5.
                           space superiority
    America's ability to operate effectively across the spectrum of 
conflict rests heavily on our space capabilities. Recognizing this 
importance, our fiscal year 2010 budget proposal includes $4.4 billion 
for procurement of space and related support systems.
    The Joint force depends upon space capabilities provided by the Air 
Force, which fall into five key areas: Early Warning; Space Situational 
Awareness; Military Satellite Communications; Positioning, Navigation 
and Timing; and Weather capabilities. We will field several new 
satellites, including the Global Positioning System Block IIF, Advanced 
Extremely High Frequency (AEHF), Space Based Surveillance System 
(SBSS), and the Space Based Infrared System--Geostationary (SBIRS-
Geo)--recapitalization programs that are important to both the United 
States and its Allies. The fiscal year 2010 budget proposal 
discontinues the Transformational Satellite (TSAT) program and supports 
procurement of additional AEHF and Wideband Global SATCOM (WGS) 
satellites.
                         cyberspace superiority
    Operating within the cyber domain has become an increasingly 
critical requirement for our networked force. In order to develop and 
institutionalize cyberspace capabilities, and to better integrate them 
into the Joint cyberspace structure, we are consolidating many Air 
Force cyberspace operations into a new 24th Air Force under Air Force 
Space Command. The Air Force is firmly committed to developing the 
necessary capabilities to defend the cyber domain, and our fiscal year 
2010 budget proposal includes $2.3 billion to grow this important Core 
Function.
                           personnel recovery
    Personnel Recovery (PR) remains an imperative, fulfilling our 
promise to never leave an American behind. Air Force PR forces are 
fully engaged in Iraq and Afghanistan, accomplishing crucial missions 
that include command and control, intelligence, CSAR, convoy support, 
hostage recovery, and reintegration.
    The fiscal year 2010 budget proposal terminates the current CSAR-X 
program to allow for additional discussion on platform requirements and 
quantities across the Joint force. We will continue to sustain our HH-
60 helicopter fleet, while exploring Joint solutions to ensure 
sufficient PR capabilities in the coming years. We are continuing to 
extend our current capabilities by recapitalizing our HC-130P/N fleet 
with newer, more capable HC-130Js to provide low-level air refueling, 
infiltration, exfiltration, and resupply of CSAR forces. In fiscal year 
2010, we will invest $605 million to procure an additional five HC-
130Js.
                         building partnerships
    The Air Force continues to seek opportunities to develop our 
partnerships around the world, and to enhance our long-term 
capabilities through security cooperation. For example, in the Central 
Command AOR, deployed Airmen are working with our Afghan and Iraqi 
partners to build a new Afghan National Army Air Corps and the Iraqi 
Air Force. We are also working to further partnerships with more 
established allies, with programs like the Joint Strike Fighter, where 
our allies have committed $4.5 billion in research and development 
funding. Australia's commitment to fund a communications satellite in 
the WGS constellation is another example of the value and synergy of 
lasting partnerships.
    In the recently released Global Partnership Strategy, we outlined a 
path to cultivate these key partnerships, nurturing the global 
relations, fortifying our geographic access, safety and security around 
the world. The strategy seeks to develop partners who are able to 
defend their respective territories while ensuring the interoperability 
and integration necessary for Coalition operations.
                          agile combat support
    Underpinning the work of all Air Force Core Functions are the 
capabilities included in Agile Combat Support. As part of our fiscal 
year 2010 budget proposal initiatives, Agile Combat Support accounts 
for efforts affecting our entire Air Force, from the development and 
training of our Airmen to revitalizing our processes in the acquisition 
enterprise. Agile Combat Support reflects a large portion of the Air 
Force budget proposal, totaling approximately $42 billion.
Developing and Caring for Airmen and Their Families
    The Air Force remains committed to recruiting and retaining the 
world's highest quality force, while meeting the needs of their 
families. Our fiscal year 2010 budget proposal enables us to recruit, 
train, educate, and retain the right number and mix of personnel, and 
to provide Quality of Service worthy of our Airmen's commitment to 
serve in the Armed Forces of the United States and supports an end 
strength of 331,700 active duty personnel.
            Sharpening Our Skills
    Our fiscal year 2010 budget proposal enables us to train Airmen to 
fulfill both our Core Functions and the Combatant Commander's 
requirements. These changes span the vast array of skill sets, from 
improving language and cultural instruction to accelerated training for 
network operators. In fiscal year 2010, we will also enhance 
foundational training received by all enlisted personnel entering the 
Air Force by constructing a $32 million state-of-the-art training 
facility at Lackland Air Force Base.
            Quality of Service
    The Air Force leadership is committed not only to the quality of 
life of our Airmen and families, but also to their Quality of Service--
ensuring each Airman is able to perform consistently meaningful work 
and make a daily impact on the Air Force mission.
    We also understand the burdens placed on the families of our 
Airmen. To meet the needs of our Airmen and their families, our fiscal 
year 2010 budget proposal funds a range of needed Quality of Life 
initiatives, including expanded legal assistance, advanced educational 
opportunities and new family housing. For example, our fiscal year 2010 
budget proposal invests $20 million to build two new Child Development 
Centers, as well as $66 million to improve and modernize military 
family housing overseas. The Air Force is also continuing to execute 
its Family Housing Master Plan, which synchronizes the military 
construction, operations and maintenance, and privatization efforts 
necessary to improve our family housing. By fiscal year 2010, we will 
have all the funds necessary to award the privatization and MILCON 
projects needed to eliminate all of our inadequate homes, both in the 
United States and abroad--with all projects scheduled to be completed 
by fiscal year 2015. To this end, we are on track to award contracts to 
privatize 100 percent of Military Family Housing in the CONUS, Hawaii, 
Alaska, and Guam by the end of fiscal year 2010. For Airmen concerned 
about foreclosure, we provide assistance at the Airmen and Family 
Readiness Center at each Air Force installation. Additionally, we are 
working with the Department of Defense as it expands the Homeowners 
Assistance Program to wounded warriors/civilians, surviving spouses, 
and eligible military members affected by permanent changes of station.
            Shaping the Force
    America's Air Force draws its strength from its outstanding Airmen, 
with over 660,000 members of our Regular, Reserve, Guard, and Civilian 
personnel dedicated to the mission of the Air Force. In accordance with 
the Secretary of Defense's guidance, we will halt active duty manpower 
reductions at 331,700 for fiscal year 2010. We will also make 
commensurate adjustments in the Reserve Components, with 69,500 Airmen 
in the Air Force Reserve and 106,700 Airmen in the Air National Guard. 
We will also grow our Civilian cadre to 179,152, which includes 4,200 
contractor-to-civilian conversions.
    Retaining quality Airmen with critical skill sets remains a top 
priority. For fiscal year 2010, we have proposed $641.4 million for 
retention bonuses and recruiting, which includes a $88.3 million 
increase for recruiting and retaining health professionals. In 
addition, we will retrain Airmen to fill undermanned career fields to 
balance and shape our force in accordance with emerging requirements. 
Further efforts to shape our force will also include diversity 
initiatives designed to leverage the unique qualities of all Airmen to 
achieve mission excellence.
            Warrior Care
    As part of our commitment to Airmen, we, in collaboration with the 
rest of the Department of Defense, are strengthening our focus on 
wounded warrior care. The importance of ensuring that our wounded 
warriors receive the service and support they need throughout the 
recovery process cannot be overstated. Through specific budget proposal 
items, such as increased funding to bolster the size of our Recovery 
Care Coordinators cadre, our wounded care programs will continue to 
provide our Airmen the best medical and professional support possible.
    Other advances in wounded warrior care are also underway including 
work with Interagency and local partners to create the necessary 
support networks to ensure success in continued military service or in 
the transition to civilian life. We are also reinforcing our commitment 
to our Air Force wounded warrior families through support programs 
specifically designed to help allay their burdens and honor their 
sacrifices.
Recapturing Acquisition Excellence
    To most effectively meet the demands of our warfighters, the Air 
Force has made Recapturing Acquisition Excellence a top priority. We 
recognize the profound importance of this capability, which enables us 
to acquire and recapitalize platforms that provide Global Vigilance, 
Reach, and Power. As stewards of the taxpayer's resources, the Air 
Force will solidify an Acquisition system that delivers the right 
capabilities to the warfighter in the field--on-time and within budget.
    To accomplish this we have published an Acquisition Improvement 
Plan (AIP) that outlines the steps we will take to improve Air Force 
Acquisition, informed by a series of internal and external reviews. 
This plan focuses on five initiatives that: revitalize the Air Force 
acquisition workforce; improve the requirements generation process; 
instill budget and financial discipline; improve Air Force major 
systems source selection; and establish clear lines of authority and 
accountability within acquisition organizations.
    Through this plan, the Air Force will focus on better developing 
our acquisition workforce to ensure that it is appropriately sized to 
perform essential, inherently governmental functions and flexible 
enough to meet continuously evolving demands. We will also work to 
develop requirements that meet the users' needs while, at the same 
time, ensuring that they can be incorporated into effective acquisition 
strategies that maximize competition and allow for a fair and open 
source selection process.
    Our reviews also emphasized that establishing adequate and stable 
budgets continues to be critical for program success. Therefore, the 
AIP emphasizes realistic budgeting based on comprehensive program cost 
estimates. Once budget baselines are established, achieving program 
stability and cost control will be given the same priority as technical 
performance and schedule.
    We also found some weaknesses in our procedures for large system 
acquisition source selections and shortages in the skill sets required 
to conduct major source selections. So we are going back to the basics; 
building processes to ensure that our personnel have the experience and 
training required to conduct source selections and, where necessary, 
revising our processes and policies and increasing our use of multi-
functional independent review teams (MIRTs). We are also reassessing 
our Program Executive Officer (PEO) and wing/group/squadron 
organizations to determine if they are properly structured, and 
identifying specific actions that could be taken to improve them.
                        readiness and resourcing
    In the past year, we have continued to see stresses on our Air 
Force, both in our people and in our platforms. The Air force has 
conducted nearly 61,000 sorties in Operation Iraqi Freedom and over 
37,000 sorties supporting Operation Enduring Freedom, delivering over 2 
million passengers and 700,000 tons of cargo. In doing so, Airmen 
averaged nearly 265 sorties per day. Tens of thousands of America's 
Airmen are deployed to locations across the globe, including 63 
locations in the Middle East. To support the efforts of our Airmen and 
provide for the recruiting and retention of the highest quality Air 
Force, our fiscal year 2010 budget proposal includes $28.6 billion in 
Military Personnel funding. It provides for an across the board 2.9 
percent pay increase, a Basic Allowance for Housing increase of 5.6 
percent--resulting in zero out-of-pocket housing expenses for our 
Airmen--and a Basic Allowance for Subsistence increase of 5 percent. 
Additionally it halts the end strength drawdown which allows for 
rebalancing of the total force to cover new and emerging missions and 
stabilizes the active component end strength at 331,700; Reserve 
Component end strength at 69,500 Airmen and Air National Guard end 
strength at 106,700 Airmen. It also funds recruiting and retention 
bonuses targeted at critical wartime skills, including key specialties 
such as command and control, public affairs, contracting, pararescue, 
security forces, civil engineering, explosive ordnance disposal, and 
special investigations.
    This high operations tempo requires focused attention on readiness. 
We use aircraft availability as our enterprise-level metric for 
monitoring fleet health, and the fiscal year 2010 budget proposal 
provides $43.4 billion in Operations and Maintenance funding, a $1.3 
billion increase over our fiscal year 2009 appropriation, to mitigate 
the stresses of continuous combat operations on our aircraft. The 
fiscal year 2010 Operations and Maintenance appropriation funds pay and 
benefits for 179,000 civilian personnel, including 4,200 contractor to 
civilian conversions, an increase of 200 civilian acquisition 
professionals and a 2 percent pay raise. It fully funds 1.4 million 
flying hours, produces 1,200 pilots and sustains over 5,400 aircraft 
while accelerating the retirement of roughly 250 aged aircraft, 
producing a smaller, more capable fighting force.
    Our aging air and space fleet requires focused attention. For 
example, we have grounded our F-15, F-16, A-10, C-130, and T-6 fleets 
for limited periods during the past 2 years. The skill and 
determination of our maintainers have ensured that we return aircraft 
to service as quickly as possible, but 2 percent of the fleet remains 
grounded and many aircraft fly restricted profiles. To ensure stable 
aircraft availability and mission capable rates, we continue to 
integrate Fleet Viability Boards into our normal life-cycle sustainment 
processes and strengthen centralized asset management.
    Additionally, in fiscal year 2010 O&M funds will be used to rebuild 
the nuclear infrastructure by fortifying operations, developing people 
and sustaining 76 B-52s for global strike capability. The AF is also 
increasing MQ-1 and MQ-9 ISR capability to 43 unmanned Command Air 
Patrols. The O&M budget request honors the AF commitment to our Airmen 
and their families by increasing child care availability and special 
programs for children of deployed parents, providing for both legal 
assistance and advanced educational opportunities. Dollars are also 
committed to dormitory initiatives, unaccompanied housing, active 
Warfighter/Family Support Centers and Fitness Centers while still 
providing for the operating expenses of 83 major installations 
including two space lift ranges.
    Our $19.4 billion fiscal year 2010 Budget proposal for Research, 
Development, Test and Evaluation (RDT&E) is an increase of $600 million 
from fiscal year 2009. This request funds requirements for next 
generation weapons and platforms by maturing technologies essential to 
equipping our Nation to defeat near-term and forecasted threats. We 
continue to develop and invest in future systems such as the KC-X 
Tanker program, F-35 Joint Strike Fighter, and the next enhancement of 
the Global Positioning System. Science and technology efforts advance 
propulsion, space-based airborne and ground sensors, directed energy, 
and command and control for both air and space. Modernizing our current 
fleet initiatives will provide upgrades to legacy fighters, bombers, 
strategic radar, and mobility requirements. Systems and technologies 
designed to improve space situational awareness are also critical 
elements of this Budget Request. Additionally we are rebalancing the 
portfolio towards procurement of proven and multi-role platforms.
    We are committed to supporting today's warfighter while building 
tomorrow's weapon systems capability. The fiscal year 2010 procurement 
budget request provides $21.7 billion to deliver immediate and future 
capabilities through investments made across four specific procurement 
appropriations: aircraft, missiles, ammunition, and other. The fiscal 
year 2010 Budget Request supports the Irregular Warfare Mission by 
increasing ISR platforms while modifying the existing fleet, provides 
joint warfighter support funding and balances investment in advanced 
aircraft platforms and legacy aircraft modifications. These funds will 
allow for the acquisition and modification of manned and unmanned 
aircraft, missiles, munitions, vehicles, electronic and 
telecommunications equipment, satellites and launch vehicles, and 
support equipment.
    Funding critical infrastructure projects while meeting the needs of 
the Air Family are critical to our mission. The $2.4 billion budget 
request for military construction, military family housing and base 
realignment and closure supports a $300 million increase in military 
construction from fiscal year 2009. Projects will be focused on 
supporting the rebalance of AF and DOD priorities. Additionally the 
budget request continues our emphasis on providing quality housing for 
Airmen and their families. Finally, the AF is on target to deliver 17 
BRAC 2005 projects on time while continuing the environmental clean-up 
of legacy BRAC locations.
    To ensure proper stewardship of our resourcing, we have designated 
a Deputy, Chief Management Officer (DCMO) in line with the Department 
of Defense Strategic Management Plan. The DCMO is responsible for 
continuing our momentum in refining internal processes for reducing 
workloads or eliminating unnecessary work. Through a culture of 
continuous improvement, we are further improving warfighter 
effectiveness through integrated processes and systems, process 
improvement, and technology investments aligned with our priorities.
                                summary
    We believe the Air Force's total proposed fiscal year 2010 budget 
of $160.5 billion--which includes $115.6 billion for Air Force managed 
programs, $28.9 billion in other funded programs such as the National 
Foreign Intelligence, Special Operation Forces, and the Defense Health 
Programs, and $16 billion in Overseas Contingency Operations provides 
the balance necessary to ensure support of today's commitments, while 
posturing the Air Force for success against tomorrow's challenges.

    Chairman Inouye. Now may I call upon General Schwartz?

            SUMMARY STATEMENT OF GENERAL NORTON A. SCHWARTZ

    General Schwartz. Mr. Chairman, Senator Cochran, and other 
members of the subcommittee, I am proud to be here with 
Secretary Donley, representing your Air Force.

                         AIR FORCE CORE VALUES

    The United States Air Force is committed to effective 
stewardship of the resources the American people place in our 
trust, a commitment founded on our core values of integrity 
first, service before self, and excellence in all we do. Guided 
by our core values, American airmen are all-in, working 
courageously every day with precision and reliability.
    I recently had a chance to take a trip and visit with some 
of our airmen performing at several locations around the world, 
and they are providing game-changing capabilities for the 
combatant commanders in the air and on the ground.
    Last year, American airmen conducted 61,000 sorties in 
Operation Iraqi Freedom (OIF), some 37,000 sorties in Operation 
Enduring Freedom (OEF), and that is about 265 sorties a day. 
Airmen also serve in convoys and in coalition operations 
centers and deliver 2 million passengers and some 700,000 tons 
of cargo in the United States Central Command (USCENTCOM) area 
of responsibility.
    And dedicated airmen directly support USCENTCOM operations 
from right here in the United States by providing command and 
control of unmanned aerial systems, while our nuclear 
operations professionals support the umbrella of deterrence for 
the Nation and our allies across the globe. And our space 
professionals are providing truly amazing capabilities, ranging 
from early warning to precise global positioning navigation and 
timing.

           BALANCING AIR FORCE PRIORITIES TO MEET CHALLENGES

    Through Secretary Donley's guidance and his leadership, we 
have set the course to provide even greater capabilities for 
America and to balance our priorities across and to meet the 
spectrum of challenges. The top priority is to reinvigorate the 
nuclear enterprise as outlined in our nuclear roadmap.
    We are fielding capabilities that allow us to innovate 
partnerships with joint and coalition teammates to win today's 
fight by expanding intelligence, surveillance, and 
reconnaissance with the procurement of 24 MQ-9 Reaper unmanned 
aerial systems.
    And at the same time, we will continue to support our most 
precious asset, our people. We are focused on providing 
programs that develop and care for our airmen and their 
families with world-class quality of service and honor our 
commitments that we all have made to our wounded warriors.
    Part of ensuring support for our airmen means providing the 
tools they need to do their jobs effectively. Therefore, we are 
modernizing our air and space inventories, organizations, and 
training with the right, if difficult, choices.
    In addition to the programs that Secretary Donley just 
mentioned, we are committed to providing a robust air refueling 
capability. We also intend to increase efficiency by retiring 
aging aircraft, and we will complete production of the F-22 at 
187 aircraft and the C-17 at 205 aircraft, subject to 
congressional approval.
    In recent testimony, Admiral Mullen stated that we are what 
we buy. Following his lead, we intend to maintain stewardship 
of America's resources for our warfighters in the field and our 
taxpayers at home by recapturing acquisition excellence and 
fielding the right capabilities for our Nation on time and 
within budget.
    Mr. Chairman, with our core values guiding us, the Air 
Force will continue to provide the best military advice and 
stewardship, delivering global vigilance, reach, and power for 
America.
    Thank you for your continued support of the United States 
Air Force, and particularly for our airmen and their families.
    Sir, I look forward to your questions.
    Chairman Inouye. I thank you very much.
    As both of you are well aware, this subcommittee has been 
deeply involved in recent weeks in what we call the 
supplemental appropriations process. It seems likely that this 
week, we will close the shop and sign the bill. And hopefully, 
we will have this matter sent to the White House.
    In all likelihood, this measure will include eight 
additional C-17s. It will have five additional C-130s and 
several other items. But I will leave those matters up to my 
colleagues who are experts in this area. But I would like to 
touch upon other items that may not be touched upon by my 
colleagues.

                           IRREGULAR WARFARE

    Secretary Gates has been speaking of irregular warfare as 
being just as important as traditional warfare. And in your 
proposal, you have requested funds to build this capability to 
carry out your mission in this irregular warfare.
    For the record, because many of my colleagues who are not 
on this subcommittee may not be familiar with what irregular 
warfare is all about, can you tell us what it is? And second, 
how you hope to build up the capability to involve yourself in 
this? General?
    General Schwartz. Mr. Chairman, irregular warfare is--I 
would describe it as something different than the traditional 
confrontation of major maneuver units on the battlefield.
    It is a distributed battle. It involves high concentrations 
of civilian populations. It involves having to exert governance 
and control in the battlespace in a way that might not 
typically be the case in more conventional employment of our 
forces. And significantly, I think it requires a level of 
precision that perhaps is, again, not as needed in sort of 
traditional force-on-force engagements.
    Now our basic approach to this is, again, not just for the 
Air Force, but rather recognition that this kind of employment 
requires a joint team that is very well integrated and can 
employ forces across the spectrum.
    So that includes, for us, things all the way from lift and 
transportation to strike, very precision strike, and just as 
importantly as intelligence, surveillance, and reconnaissance 
capability because that is--intelligence is a key factor in 
success in this domain. And likewise, a whole range of skills 
that are required to build partner capacity.
    So, for example, while the traditional aspect of training 
others depend on aircrew skills, it is much, much broader than 
that now and includes how do you run an airfield? How do you 
operate a safety shop? How do you maintain a runway? How do you 
maintain a budget?
    These are things that are necessary for nascent air forces 
to achieve a capability to serve their nations well and 
effectively. And typically, they are not as sophisticated as we 
are and certainly don't have the benefit of the resources that 
you all put at our disposal.
    And so, it means in terms of equipage perhaps having things 
that allow us to train others on that is something that they 
might be able to employ. It is not so sophisticated it can't be 
maintained or so sophisticated that perhaps it is beyond the 
natural ability of a growing, maturing Air Force.
    I guess I would finally conclude, sir, by indicating that 
this is an area that requires skills that, as I was growing up, 
were not sufficiently appreciated--language and the capacity to 
interact with other cultures and appreciate that how we sit, 
how we present ourselves, how we interact with elders matters a 
lot in terms of our ultimate success. That is how I would 
capture it for you, sir.
    Chairman Inouye. Mr. Secretary, do you have anything to add 
to that?

        EFFECTIVE USE OF FORCES ACROSS THE SPECTRUM OF CONFLICT

    Mr. Donley. I think the chief has captured it very well. I 
would also add I think, as we have approached our role in 
helping to train the emerging Afghan and Iraqi air forces, we 
are learning some good lessons along the way.
    I think the Secretary's challenge to us is not just to 
improve our irregular warfare (IW) capability in specialized 
areas that we are all familiar with in the special operations 
forces (SOF). And we have additional resources put against our 
SOF forces, additional investments that are well understood by 
the subcommittee. The CV-22 is coming online, MC-130s. These 
kinds of capabilities will continue to be improved.
    But what the Secretary is asking us to do is to think about 
how to use our general purpose forces more effectively in the 
irregular warfare part of the conflict spectrum. He has not 
asked us to fundamentally overhaul the capabilities of the 
United States Air Force or the other services, which are 
required to meet the full range of potential contingencies 
across the conflict spectrum, all the way from irregular, all 
the way up through high-intensity operations. And of course, we 
have the nuclear deterrent mission as well in the Air Force.
    He is asking us to figure out ways to use the bulk of our 
forces, which are deployed across this conflict spectrum, 
figure out ways to be able to tailor those capabilities more 
effectively for IW work. So, as the chief has, I think, laid 
out pretty well, our issues are focused on how do we use our 
education and training system and our support for other nations 
to build up their capabilities more effectively?
    And we are seeing that come through in a couple of 
different areas. One is, for example, the JCA, the C-27, which 
our Department has been working on. That mission, as you know, 
is transferring from the Army to the Air Force.
    But a light mobility aircraft such as this is of interest 
and is of use potentially to partners like Iraq and Afghanistan 
that may or may not have a C-130 kind of capability. Or if they 
do, it will be fairly circumscribed. They certainly won't be in 
the C-17 business, for example.
    So we think having a capability like this in the United 
States Air Force makes us better teachers for potential 
partners who are not going to be buying JSFs or C-17s, the 
high-end capabilities that we will produce. So we see that in 
mobility, in the C-27. We see it also in the intelligence, 
surveillance, and reconnaissance (ISR) platforms, in the MC-12 
capability that we are building that might, in the future, have 
some applicability.
    That small, twin-engine airframe has applicability for 
partners who cannot afford and will not be in the unmanned 
aerial systems business and will not have thousands of 
personnel in their intelligence, surveillance, and 
reconnaissance systems. But, yes, they may be able to operate 
that MC-12-like capability going forward to give them an ISR 
capability.

                           TRAINING AIRCRAFT

    And the third area is in our trainers, which, consistent 
with past practice, are often able to evolve from a training 
aircraft to a light attack aircraft, and there are different 
options for how to do this.
    So certainly in our T-6 trainer programs, there are 
opportunities going forward to make T-6 and/or Super Tucano or 
propeller-driven airplanes of this class into light attack 
aircraft that could be utilized by partners again who are not 
going to be able to and do not have a need to operate at that 
higher end of the conflict spectrum. They can't afford to do 
that.
    So having these capabilities inside our force structure we 
think will help us be better teachers and better partners and 
help us build up the security capabilities of partners facing 
counterterrorist operations, counterinsurgency operations whom 
we have an interest in building up to be not only better 
partners for us internationally, but to be good regional 
partners and able to take care of their own neighborhoods.
    I apologize for the lengthy answer, but this is a good 
question.

                         24TH AIR FORCE MISSION

    Chairman Inouye. Well, the Secretary said, it is just as 
important as traditional warfare. Your 24th Air Force is going 
to be a focal point for cyber warfare. Can you tell us what you 
have in mind to carry out this mission, Mr. Secretary?
    Mr. Donley. Well, sir, I will let the chief discuss it in 
more detail, but in general, we have information operation 
wings and network warfare wings and network operations 
capabilities that are responsible for taking care of Air Force 
networks, for defending them against cyber threats, which are 
growing and are at increasing risk. And so, we are growing this 
capability in the Air Force.
    We made a decision last fall to put those capabilities 
under a numbered Air Force, which is our operational level 
inside the Air Force, to more effectively manage and oversee 
this work.
    Chairman Inouye. General?
    General Schwartz. Mr. Chairman, just to emphasize, the 
thrust here is on two basic themes within what really is 
emerging as a contested domain. And that is, one, as the 
Secretary mentioned, to defend ourselves, to defend our nets 
because, increasingly, these networks are not just 
administrative conveniences, but they are, in fact, the way 
that we bring the integration of the magnitude of all of our 
capabilities to bear and command and control them in real time.
    So defending our nets is vital to our combat capability, 
and that is a major function for the 24th Air Force. As well, 
there are more offensive kinds of capabilities here. For 
example, one can envision that it might be prudent to disable 
an integrated air defense array that we might want to penetrate 
by use of cyber rather than kinetic means, or some mix of the 
two. And advancing our capabilities in this regard will also be 
within the portfolio of the 24th Air Force.
    I would conclude, sir, by indicating that, as you know, the 
President announced a cyber initiative last week. As part of 
that, there will likely be an organizational realignment within 
the Department of Defense. And the 24th will be the Air Force 
contribution to that larger enterprise for the entire 
Department.
    Chairman Inouye. Thank you.
    Senator Cochran.

     AIR FORCE NONTRADITIONAL SUPPORT TO ARMY AND COALITION FORCES

    Senator Cochran. Mr. Chairman, thank you.
    General Schwartz, I understand that the Air Force has 
established as one of its top priorities greater support for 
the Army and coalition forces overseas in nontraditional Air 
Force missions on the ground. Could you give us some examples 
of this activity and the impact that that may be having in 
terms of your overall end strength?
    Is it going to require you to reorganize or ask for more 
authority from the Congress to continue to carry out this 
mission?
    General Schwartz. Sir, the proposal, which is embedded 
within this fiscal year 2010 program proposal at 331,700 active 
duty end strength, is where we need to be, and I don't see us 
climbing much higher than that, if at all.
    With regard to the so-called nontraditional tasks, our 
sense is and the leadership of our Air Force acknowledges, 
recognizes the country is at war, and that there are needs at 
this time that need to be fulfilled. They are requirements that 
the joint team needs to have accomplished.
    And if your Air Force can do this, if we can make a 
contribution, that is what we are going to do. We will do 
whatever is required, wherever it is needed, for however long 
it is needed, provided that our youngsters are properly 
trained. That is our obligation.
    And so, sir, we have folks that are doing convoy duty in 
Iraq. I visited with some at Arifjan a couple of months ago, 
and believe me, these folks do not see what they are doing as 
peripheral or not worthy. They know very well how important the 
work they are doing is.
    And that is true whether it is medics or transportation 
folks or security forces operating outside the fence, whatever 
the discipline. It is needed. It is part of the joint effort, 
and our Air Force is proud to do it, sir.
    Senator Cochran. Well, I compliment you for the initiative 
and showing flexibility of responding to something that is 
clearly needed and in our national interest. And we hope we 
will be able to provide the resources that you need to carry 
out these important activities.

         HIRING OF GOVERNMENT CIVILIANS TO REPLACE CONTRACTORS

    Secretary Donley, I understand the Air Force intends to 
reduce its reliance on contracted workers by hiring several 
thousand Government civilians to replace contractors. Has the 
Air Force identified what positions or functions it intends to 
resource from within your organization, and what savings, if 
any, do you anticipate through this initiative?
    Mr. Donley. Sir, this is a DOD wide initiative, and a very 
important one. I believe there is a strong consensus in the 
Department and I believe also here in Congress that the 
reliance of the Department on contractors to do some work that 
was previously done within the Government has probably run its 
course, and the pendulum is starting to swing back the other 
way.
    We are much more sensitized at this point to the need to 
bring back into the organic Government capability some of those 
functions that have been contracted out. And our target for 
fiscal year 2010, as I recall it, is about 4,000 of these 
conversions.
    Almost about 2,000, about one-half of that is targeted for 
us on our acquisition workforce and growing our acquisition 
workforce in some critical areas that need reinforcement--
contracting, systems engineering, and cost estimating. These 
are examples of capabilities we plan to beef up by relying less 
on contractor support and bringing those capabilities in-house.
    Senator Cochran. As you know, we have a very large training 
facility on the Mississippi gulf coast at Keesler Air Force 
Base and very proud of the role that they have played over the 
years in our national defense. They are currently hosting the 
81st Training Wing. I think it is the largest technical 
training unit and is a so-called ``center of excellence'' for 
computer and electronics training.
    Anyway, I am going to put in the record some facts and 
figures that I understand are currently reflected in the hiring 
and the activities there. But they are being tasked now with 
developing infrastructure capacity to potentially host a new 
mission, the undergraduate cyber training mission for the Air 
Force.

          COMMUNICATIONS AND ELECTRONICS CENTER OF EXCELLENCE

    I wonder, General, if you have taken a role in this or have 
any information that you can give us about this possibility of 
a new center of excellence for electronics and computer-related 
training at Keesler?
    General Schwartz. Sir, as you know, Keesler Air Force Base 
has been for decades the center of excellence for training our 
entry-level communications and electronics specialists. And a 
natural extension of that could very well be the training of 
the workforce that 24th Air Force will employ in this 
increasingly digital and cyber era.
    That decision has not been formally taken where that 
element will go, but clearly, Keesler Air Force Base is a very 
strong candidate, and we will have a range of courses from 
entry level on the cyber side to, obviously, what we call 5 and 
7 level courses, increasingly more demanding courses, so that 
our people have the breadth and background required to do this 
work.
    That is an important piece of the 24th, too. My focus 
naturally was on operations, but you have to make sure that the 
workforce has the skills necessary to do this. And that is the 
task that we are focused on, sir.
    Senator Cochran. Well, thank you very much. And thank you 
for your excellent leadership in the roles that you have. We 
appreciate it.
    Chairman Inouye. Thank you.
    Senator Bond.

                    NEXT GENERATION FIGHTER AIRCRAFT

    Senator Bond. Thank you very much, Mr. Chairman.
    As I mentioned earlier, General Schwartz, I have some very 
real concerns about the intermediate term plans and, to be 
honest, what I see as a lack of intermediate plans.
    I said that right now we have available proven platforms 
that have about an 85 percent solution. They are not fifth 
generation, but they are 4.8, 4.9, and you, yourself, mentioned 
the ability of externalities to enable some of those fourth 
generations to do things that one would have expected we could 
only achieve with the fifth generation. We won't go into that 
here, but we have discussed that previously.
    And so, I am asking if you and the Secretary would be 
willing to take a look at the outstanding shortfall in the Air 
National Guard and the Air Sovereignty Alert mission, as well 
as the other needs in the Air Force? To determine whether there 
are fourth-plus generations of planes that will be needed that 
are affordable and that will be available unless and until the 
JSF or the F-35 is able to get online, which, at this point, 
having only completed, as I understand, 2 percent of its flight 
tests, may be some time.
    General Schwartz. Senator, as we have exchanged in the 
past, there is nothing off the table. I certainly am willing to 
revisit the formula and our positions that we have developed, 
as new information comes in. It would be foolish to do 
otherwise. And in fact, we met as recently as yesterday on this 
issue with Lieutenant General Harry (Bud) Wyatt from the Air 
National Guard and others.
    Senator Bond. I understand. I am well aware of that, well 
aware of those discussions. I am not going to bring out the 
chart or anything like that because I know the discussions.
    General Schwartz. Right. Yes, sir. But I think that is what 
I would like to do, it is still my view that the high 
confidence path for us is to make the leap to the F-35. That 
is--it will populate the preponderance of our force as we go 
forward.
    And the vital thing here is that in order for the F-35 to 
do the work that is required not just for us, but for the 
Marine Corps, for the Navy, and importantly, international 
partners, the F-35 needs to be produced at rates which will 
help us manage our fleet aging issue that you mentioned, not 
less than 80 and probably higher, maybe as high as 110 a year.
    And the other not insignificant benefit is to keep the 
average unit cost down for F-35 so that it can compete 
internationally.
    Senator Bond. As we know, it is already--our international 
partners have already made the decision. The other broader 
question that needs to be considered is the aircraft industrial 
base.
    Earlier this week, Secretary Mabus said they need to 
maintain a competitive shipbuilding base. Right now, we know we 
have gone from five or six primary aircraft producers down to 
two. And this budget annihilates one of those two. If this 
budget were carried out, we would be down to one.
    And quite frankly, I ask you to look at the performance, 
the timeliness, the performance and the cost to see whether you 
would be comfortable going down to one, and I think there is a 
very good argument not to go down to one. And I just ask you to 
look at that.
    General Schwartz. You have my commitment to do so, sir.

                         NEXT-GENERATION BOMBER

    Senator Bond. Next-generation bomber is part of that. 
Actually, the next-generation bomber and the sixth generation 
fighter have to be competed. They have to bring in these 
others, and the next-generation bomber was designed to force 
our adversaries to invest in their own defensive weapons.
    Current bombers are having increasing access challenges. 
The warfighters analysis of alternatives completed in 2006 said 
that they were very comfortable with the NGB. The Center for 
Strategic and Budgetary Analysis replied to a question on NGB 
saying we have studied the NGB issue to death. The need, the 
requirement, and the technology are in hand and reasonably well 
understand.
    And I believe Secretary Gates last week said, ``My personal 
view is that we probably do need a follow-on bomber.''
    I would ask you, Mr. Secretary and General, whether it is 
time to be moving forward, looking at the industrial base as 
well as the need for the NGB?
    Mr. Donley. Well, Senator, I think there is pretty good 
consensus that our national defense capabilities need to 
include more long-range strike and that we need to start 
modernizing that part of our force structure.
    My sense is that the Secretary's decision in this regard 
earlier this year was based on the fact that we did not quite 
have all of the parameters of this capability locked down. I 
will let the chief talk to those in more detail.
    So we made a decision to cancel the program that we had 
laid in. I do think we will need to return to this issue in the 
QDR. I do think there needs to be a good, thorough discussion 
about the attributes of the long-range strike capability we 
need. Its relationship to the Nuclear Posture Review is going 
to be very important. Obviously, that had not played out yet 
earlier this year.
    So I think the Secretary, as he has indicated, will be open 
to further discussion.

                     RETIRING OBSOLESCENT AIRCRAFT

    Senator Bond. Well, we will look forward to discussing that 
with you. I won't take up the time of my colleagues here.
    One final question. You are talking about the C-5. General 
Schwartz, you mentioned retiring obsolescent aircraft. I know 
you are constrained by congressional mandate not to retire 
those C-5s, some of which, not all of which, may be a very 
uneconomical way. Modernization isn't going to cut the mustard.
    Should we be revisiting that to give the Air Force more 
flexibility to save costs by retiring inefficient, outmoded 
aircraft that will not meet the current needs so you can put it 
into other areas?
    General Schwartz. Senator Bond, too much aluminum is almost 
as bad as not enough. And as the Secretary indicated earlier, 
316 tails is about the sweet spot right now. And if it is the 
decision to have the Air Force take on additional C-17s, it 
makes sense to begin to alter the fleet mix in a way that 
maintains that top line. So, yes, retiring older, less reliable 
C-5As certainly makes sense in the context if we go above 205 
C-17s.
    And sir, if I may take one minute perhaps of your privilege 
just to address the bomber briefly, your earlier question? This 
is important. Long-range strike is an essential capability for 
the Nation.
    As the Secretary indicated, we weren't quite together with 
the Secretary of Defense on how we define this thing. What is 
the range? What is the payload? Is it supersonic? Is it 
subsonic? Is it manned? Is it unmanned? Is it nuclear, non-
nuclear? Is it low observable, very low observable? These are 
the parameters we need to get together with the Secretary on.
    There is an unfunded request that we have come forward with 
that addresses this to keep a concept development activity 
going so that we can answer these questions, as well as to keep 
certain technology efforts underway that apply regardless of 
how we define the platform. These are antennas, low observable 
antennas. These are data links. These are radars. Stuff like 
that.
    Senator Bond. These have application to others across the 
fleet, not just long strike?
    General Schwartz. They do. Yes, sir. Thank you, sir.
    Senator Bond. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman.

                           TANKER ACQUISITION

    It has been my long-held belief that our military should 
procure the most capable tanker possible for our airmen using a 
fair, open, and transparent acquisition process. In separate 
discussions with both Defense Secretary Robert Gates and 
Acquisition Chief Dr. Ashton Carter, they assured me that this 
would be the case. Do you both agree?
    Mr. Donley. We do, sir.
    Senator Shelby. Okay. This process, I believe, should also 
utilize a best value method that does not contain an option 
based purely on lowest cost. I will closely follow, as this 
subcommittee will, the procurement process to ensure that our 
men and women in uniform receive the best equipment possible.
    Secretary Donley, the Air Force tanker competition is 
scheduled to begin later this summer with the release of the 
request for proposal. There has been some discussion that a 
lowest price technically acceptable process could be utilized 
in the competition. I have concerns with this acquisition 
method because it clearly would not reach everyone's stated 
objective, that is, that the Air Force procures the best tanker 
for our warfighters.
    Mr. Secretary, is it your belief that our pilots should fly 
the best, most capable tanker possible and not just the 
cheapest?
    Mr. Donley. Sir, we always--we always balance capability 
and cost----
    Senator Shelby. Right.
    Mr. Donley [continuing]. In our acquisition process.
    Senator Shelby. You have got to balance it.
    Mr. Donley. We will continue to do that going forward. We 
are working on the acquisition strategy for KC-X right now at 
the senior levels in the Department, and we are committed to 
sharing with the Congress the results of our work when the 
Secretary has made a decision exactly how to proceed.
    Senator Shelby. General Schwartz, I know there has been 
some concerns about protecting, and should be, about the 
industrial base as the tanker competition moves forward. We are 
all concerned about jobs in the United States.
    I believe any assertion that the Northrop Grumman tanker 
program steals jobs from American aerospace workers and sends 
them overseas is factually incorrect. By assembling the 
Northrop tanker in a new aircraft assembly and militarization 
facility, this proposal would create almost 50,000 new jobs in 
50 States and comply with all current procurement laws in the 
Buy American Act.
    Do you agree that given the vast quantity of jobs that 
would be created in selecting either Northrop Grumman or Boeing 
as the winner, it would have a positive impact on our Nation's 
industrial base? Either one.
    General Schwartz. Senator, as you are well aware, my role 
is to define requirements----
    Senator Shelby. That is right.
    General Schwartz [continuing]. And so on. Clearly, as 
others have suggested, what we want is to get the best possible 
airplane as quickly as we possibly can. And so, I, frankly, am 
agnostic about how this exactly gets done, provided we get on 
with it. And that is what I certainly have offered my 
Secretary, as well as the Secretary of Defense, is my best 
advice.
    Senator Shelby. Thank you.

                        UNMANNED AERIAL VEHICLES

    Mr. Secretary, if I could do a little transition to the 
UAVs. I know you are working with the Army and the other 
services to develop a UAV acquisition roadmap. While I 
understand the benefits for the services to work together on 
this vital issue--I think it is important to do so--I have 
stated the importance of the Army retaining tactical control of 
their UAVs.
    Do you feel that you can continue to work together with the 
Army, Navy, and Marine Corps to allow them continued control of 
the tactical assets that are so critically important to our 
troops on the ground and commanders in the field, especially as 
we move forward through the QDR?
    Mr. Donley. Senator, these are very important capabilities 
that are being developed for our defense establishment. I will 
let the chief address the operational piece of this, but let me 
just say at the DOD level, we do cross-level and look very 
carefully at production capacity and how that is spread across 
different platforms, Predators versus Reapers, and other 
classes of UAVs.
    And that is well balanced at the DOD level in terms of who 
is investing how much where to get the best balance across the 
services when we put together the budget.
    Senator Shelby. General Schwartz, do you have any comment?
    General Schwartz. Yes, sir. Senator Shelby, what General 
George Casey, the Army Chief of Staff, and I want is what works 
best, and whatever the division of labor is, is a very 
pragmatic call. And there is no emphasis within the Air Force 
of trying to assert ownership. This is a question of how one 
can best employ the fleet.
    Now the reality is, is that, for example, unmanned systems, 
you have to take account for them in the airspace. You don't 
want airplanes running together, so on and so forth. If you 
have an air defense situation, you have got to know who is 
friendly and who is not. So there is a need for a level of 
coordination that must continue, regardless of who is operating 
the platform.
    Senator Shelby. Absolutely.
    General Schwartz. But the bottom line is that you should 
have little concern about whether the Army and the Air Force 
can collaborate on this. We can, and we are.
    Senator Shelby. And the marines and Navy, too?
    General Schwartz. Of course. Yes, sir.
    Senator Shelby. Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you very much.
    I have been at a markup of the Energy Committee. So I am 
sorry I have been delayed.
    General Schwartz and Secretary Donley, welcome.
    I want to ask about the UAV and UAS issues. My 
understanding is that you plan to go from 34 Predator/Reaper 
combat air patrols to about 50 by the end of 2011. Have you 
decided where you might assign additional units of personnel to 
operate that many additional combat air patrol units?
    General Schwartz. Senator, we have not done specific 
assignment of those assets, which will be coming on down the 
road. Those which are coming on in fiscal year 2010, we have a 
much firmer idea. Those beyond are not quite as firm at this 
time.

                       C-27 JOINT CARGO AIRCRAFT

    Senator Dorgan. All right. What is the status of the C-27 
joint cargo aircraft program?
    General Schwartz. Sir, let me start big on that, if I may, 
and then get small. At the strategic level, what this is is a 
question about who will do the direct support mission for the 
ground forces in the United States Army in particular? The Air 
Force traditionally does general support very well. As the 
Secretary of Defense has commented, it is sort of like running 
an airline, and you do it to both accomplish the tasks 
assigned, but to do it as efficiently as possible.
    On the other hand, there is a different model which is a 
direct support model, which means that certain assets are 
dedicated to certain commanders or maneuver units, maybe not 
quite as efficient, but improves the reliability of that 
service to that particular organization or commander.
    And what General George Casey, the Chief of Staff of the 
Army, and I have agreed is that the United States Air Force, if 
the decision is that the C-27 should migrate to the United 
States Air Force, we will do the direct support mission of the 
United States Army the way they think it needs to be done. And 
that is a commitment.
    Now with respect to the program, the Secretary of Defense 
made a decision. It is not an instantaneous change. The Army is 
currently in charge of the program, has a program office. We 
have Air Force people assigned there. We will increase that 
number of Air Force people assigned or attached. And so, there 
will be a migration of the program management responsibility 
over about a year's time from the Army to the Air Force.
    And a significant mark on the wall is the deployment of 
four aircraft to United States Central Command later in fiscal 
year 2010. That is driving us in terms of how we make the 
transition to make sure that we have got aircrews and 
maintainers and so on who can operate these aircraft forward.
    Frankly, it might be a mix of Army and Air Force for that 
first deployment. That is not a problem, I don't think. But 
ultimately, we will incorporate the C-27 mission into the Air 
Force and provide the capabilities to the Army that they need 
and want.

                       RECRUITMENT AND RETENTION

    Senator Dorgan. What kind of experience are you having with 
recruitment and retention?
    General Schwartz. Senator, we actually are in pretty good 
shape. Arguably, the economy is an asset in this regard in 
terms of recruiting, and retention has been good. In the 
noncommissioned officer (NCO) ranks, there is a little bit of 
softness, not something to be alarmed about. But a little bit 
of softness in the middle-grade NCOs, and we are watching that 
carefully.
    In both officer and NCO recruitment and retention, we have 
difficulty in the medical career fields. There is keen 
competition for medical professionals, nurses, physicians, and 
so on. And that is an area where we have increased bonuses up 
to I think $88 million in the 2010 program in order to try to 
compete better to bring medical professionals into our Air 
Force.

          B-52 SQUADRON AT MINOT AIR FORCE BASE, NORTH DAKOTA

    Senator Dorgan. Just two other questions, if I still have 
time? What is your status with respect to standing up the new 
B-52 squadron at Minot Air Force Base?
    General Schwartz. On track, sir. And that is part of our 
nuclear roadmap to do that, and it is on schedule, on track.

         AIR FORCE ACTIVITY IN USCENTCOM AREA OF RESPONSIBILITY

    Senator Dorgan. And could you just give the subcommittee a 
general description of the Air Force presence and activities in 
the war theaters of Iraq and Afghanistan so we get a sense of 
assets and personnel and so on?
    General Schwartz. Yes, sir. Of the 38,000 roughly folks 
that we have deployed overseas, about 30,000 of those personnel 
are in Iraq and Afghanistan or in the adjacent spaces. Of that, 
about 8,000 are Reservists, 5,000 Air National Guard, 3,000 Air 
Force Reserve. And they are performing a range of missions, 
certainly from lift to strike to intelligence, surveillance, 
and reconnaissance.
    We run the hospitals at both Bagram Air Base and Balad Air 
Base on behalf of the joint team. We have, as I mentioned 
earlier, some of our youngsters performing convoy duties from 
Kuwait into Iraq, security forces, engineers, the whole array. 
It is a significant commitment.
    We will grow in Afghanistan from about 5,000 today to maybe 
6,500 total Air Force personnel as the numbers increase in 
theater. It is a significant commitment and one we do proudly.
    Senator Dorgan. Well, let me thank you, Secretary Donley, 
and you, General Schwartz, for your willingness to be always 
available to us. And I would like to send you some additional 
questions on the C-27 and the combat air patrol future. So I 
will submit those questions.
    And again, let me thank both of you for the work you do. I 
am very pleased.
    Chairman Inouye. Thank you very much.
    Senator Bennett.
    Senator Bennett. Thank you, Mr. Chairman.

       HILL AIR FORCE BASE AND ICBM SOLID ROCKET INDUSTRIAL BASE

    And I want to say to our two witnesses thank you for coming 
to Utah and for the experience you had. I hope the weather was 
good enough for you and the hospitality, et cetera. We 
appreciated your being there. They were there for the Air Force 
Association meetings last week.
    I trust I can be forgiven for being a little parochial and 
discuss some of the issues relating to Hill Air Force Base and 
also the intercontinental ballistic missile (ICBM) solid rocket 
industrial base. On that latter issue, let me thank you for the 
news that I have received that the Air Force is going to 
maintain the solid rocket motor industrial base that supports 
the Minuteman III. What is the status of your request to 
reprogram fiscal 2009 funds?
    Mr. Donley. Yes, sir. We do intend to request reprogramming 
just to beef up this program. The Department is looking at the 
reprogramming right now, awaiting first the results of the 
overseas contingency operations (OCO) work that the chairman 
referred to earlier. So once we have seen the results of the 
OCO, then the Department will proceed with its reprogramming 
work.
    Senator Bennett. Do you have any idea how many solid rocket 
motors you are planning to buy?
    Mr. Donley. Off the top of my head, I do not have that 
information. But we will get you that for the record.
    Senator Bennett. Okay. Thank you. Thank you very much.
    [The information follows:]

    The intent of the warm line is to exercise industry's 
Minuteman III-unique solid rocket motor production 
capabilities. Identifying a specific number of solid rocket 
motors is not an accurate measure of the ability to maintain 
this industrial base. Our fiscal year 2010 effort will initiate 
a low-rate production of the Minuteman solid rocket motors 
which will maintain design-unique material availability, sub-
tier material supplier viability, touch labor currency, and 
design engineering personnel continuity unique to the Minuteman 
weapon system. In addition, our fiscal year 2010 effort will 
maintain systems engineering assessment capability and utilize 
independent verification of production processes. However, the 
actual production quantities are unknown until the contract is 
finalized.

              F-16 REDUCTIONS AT HILL AIR FORCE BASE, UTAH

    Senator Bennett. Now I want to talk about what appears to 
be something of a donut hole on the fighter situation. 
Naturally, we are disappointed to learn that Hill is going to 
lose one of its three F-16 fighter squadrons as a part of the 
restructuring, and I understand the restructuring has to go 
forward and that there are logical reasons for it. But as I 
look at the locations where the F-16s are going to be removed 
around the country, they seem to be focused primarily in bases 
in the intermountain and southwest regions, and that will be 
geographically the area where you will see most of the F-16s 
withdrawn. And yet the Utah Test and Training Range (UTTR) is 
most accessible to those regions, and it seems to me that it 
would make most sense to take the aircraft away from something 
that is farther away from the Utah Test and Training Range.
    I know Senator Cochran is very proud of the training range 
in Mississippi, but UTTR is the biggest land-based training 
range we have and, I think, a major, major asset to the Air 
Force. So has any thought been given to the fact that it might 
make more sense to keep the airplanes closer to the training 
range and take the reductions perhaps someplace else?
    General Schwartz. Senator Bennett, we have given thought to 
an array of considerations. The model of aircraft, their age, 
the proximity to training opportunities, the arrangements 
related to total force initiatives, and so on and so forth at 
various locations. Just to give you a sense, the rough 
reductions were predominantly in the training area. Air Combat 
Command took substantially less reductions than did our Air 
Education and Training Command.
    The bottom line is that we have looked at that. It is true 
that Hill Air Force Base is a candidate to lose 24 F-16s. That 
is--from a people point of view, sir, that is 591 spaces. We 
know that is not trivial.
    But we have looked at this as a package. And yes, Tucson 
will lose some airplanes, largely training platforms. Hill Air 
Force Base will take some down. There are roughly--the split is 
some overseas, some in Europe, some in the Pacific, a number 
here in the continental United States.
    But I think the key thing here is that we have done this 
from a fleet management point of view, from a construct which 
suggests that if we do this now, it will allow us to leap to F-
35 more rapidly and that we need to look to the future and less 
to the past.
    Senator Bennett. All right. That brings up the donut hole I 
am talking about because you are going to combine the 388th and 
the 419th, merge them as a prototype for further efforts to mix 
active and Reserve fighters, and that is an effort that has 
seen good results so far.
    But the impact on the depot is that they are going to see 
not just the 500 people you are talking about, but you are 
going to see a significant drop in depot work. And it is fine 
to say, well, the F-35 will come in at some particular point, 
but if that particular point is stretched out, you then lose--
we are back to the question of manufacturing base. Only in this 
case, it is maintenance base. You lose the expertise that is 
there that could be maintained if there were some way to deal 
with the question of the F-16s.

                              F-35 BASING

    Now it has been over 1\1/2\ years, the other side of the 
donut hole, stretching it out, that I have been told that Hill 
would be one of the first Air Force bases to receive an 
operational F-35 squadron. And now I understand that there is 
some backing away from that commitment, at least on the timing.
    So do you still say that Hill is going to receive one of 
the first two operational F-35 squadrons? And if so, can you 
give me some hope that it will come sooner rather than later so 
that the donut hole can be filled with work?
    General Schwartz. Senator, I can't. I can't tell you it 
will be the first. We haven't made that decision yet. And one 
thing that the Secretary and I have tried very hard to do is 
not to make promises we can't keep. And so, I am being 
straight.
    Senator Bennett. Sure. Obviously, we prefer that.
    General Schwartz. Understood, sir. I think, just to give 
you a sense of what is at play here, there are multiple demands 
on the new system, as you can well imagine. There are--our 
commander in the Pacific Air Forces and certainly Admiral 
Keating at United States Pacific Command (USPACOM) has levied a 
demand signal for modernization in the Pacific with regard to 
potential threats on the Asia-Pacific rim.
    Likewise, General John Craddock and the United States 
European Command has indicated that because the allies will 
gain F-35s in Europe, there will be a need for us to have F-35 
presence or we will be out of sync with our allies on the 
European continent. And likewise, we know very well that we 
have needs--donut holes, if you will--in the United States.
    So there are a lot of moving parts on this. The bottom line 
is that, and I am not saying anything that I don't think 
anybody believes, Hill Air Force Base is a great place to fly 
airplanes. And that is well known, and that certainly will be 
factored into basing decisions as we sort of integrate all of 
these demand signals.
    Senator Bennett. Well, I thank you for that. And it is not 
just a great place to fly airplanes. It is a great place to 
repair airplanes. And my concern is that if we see the 
workforce on the repair side, on the depot side drop down 
because of the action with respect to the F-16 and then a delay 
in bringing in the F-35, we wake up to discover that the 
capacity that we have always identified with Hill suddenly 
isn't there. Well, not suddenly isn't there, but isn't there.
    So I would ask you to take a look at that and say is there 
any way we can kind of nudge both of these, that is, nudge the 
F-16 in one way to close that end of the donut hole and nudge 
the F-35 in the other way to close that end of the donut hole? 
Yes, it is parochial on my part, but I also think it makes 
sense for the Air Force's capability to service the F-35 when 
the time comes.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you very much.
    Senator Murray.
    Senator Murray. Mr. Chairman, thank you very much for 
having this hearing.
    General Schwartz, Secretary Donley, thank you to both of 
you. It is good to see you again. Let me just start by saying 
thank you to all the work you and the men and women serving in 
the Air Force do today to successfully perform the very 
critical missions that they are doing to safeguard our country.

                 TANKER COMPETITION AND INDUSTRIAL BASE

    It is really important to me that our airmen have 
everything they need to fight our wars overseas, both today and 
in the future. So I am going to start my questions today with a 
shocker. What can you tell me about tankers?
    But before I do that, let me just frame that question about 
the upcoming tanker competition from the standpoint of our 
domestic industrial base. Mr. Chairman, I am very worried about 
our domestic industrial base. I am worried about its long-term 
ability to provide our military forces with what they need to 
accomplish their national security missions.
    During last year's KC-X competition, everybody had real 
high hopes that it was going to be the best and brightest 
example of how the acquisition process could function and 
provide for the needs of our warfighters. Here we are today 
without a much-needed replacement of our aging fleet of 
refueling tankers.
    Now I applaud the work of Chairman Levin and Senator 
McCain. They have championed efforts here to move acquisition 
reform through Congress. As part of that, I included a 
provision that requires DOD to report on the effects that 
canceling an acquisition program would have on our Nation's 
industrial base.
    I have talked with both Secretary Gates and Secretary 
Carter about this issue. I want to make sure that we maintain a 
domestic industrial base that can respond to the ongoing need 
of our warfighters.
    This is of particular concern to me as a Senator from a 
State that represents really the entire spectrum of 
constituencies on this issue. One end of the scale, we have end 
users who are the servicemembers at many military facilities in 
Washington State. We have two outstanding Air Force bases, 
Fairchild and McChord, who rely on the goods and services this 
industry produces. At the other end, we have the hard-working 
men and women of the industry, including the smallest supplier 
companies to the major manufacturers that tirelessly work to 
support our servicemembers.
    So how we move forward with this acquisition is very 
important to me and to everyone I represent. General Schwartz, 
so I would like to ask you today how you are taking into 
account the health and longevity of our domestic industrial 
base as you tackle acquisition reform in the Air Force?
    General Schwartz. Ma'am, the basic approach, the mandate 
for doing this is clear to our Air Force. The way it has 
traditionally been done, and I, frankly, think it is 
appropriate, is that industrial base considerations are 
typically not considered within specific source selection 
activity on specific programs.
    The acquisition technology and the logistics organization 
in OSD has the role to do that at particular milestones in the 
acquisition process. So they have the more global perspective, 
if you will, not just whether it is a tanker or a fighter or a 
lift platform or a satellite, but rather, the broader 
implications for industrial base.
    And so, again, not completely in my lane, but the way that 
is currently being done makes sense to me. And it is clear that 
the civilian leadership understands the mandate.
    Senator Murray. Secretary Donley, do you want to add 
anything?
    Mr. Donley. No question that the Department has an interest 
in tracking how industrial base issues get affected by 
Departmental-level decisions and making sure those are taken 
into account as we go forward.
    Senator Murray. We have to think about the future while we 
are thinking about today.
    Well, let me talk about the timeframe for the tanker 
competition. Secretary Gates said that he needed a full team in 
place before this competition could be restarted. Now, 
Secretary Donley and General Schwartz, you are here. 
Secretaries Lynn and Carter, they have been confirmed and are 
in place. I have been told that we are going to begin work on 
this competition process this summer.

                 TIMING OF TANKER REQUEST FOR PROPOSAL

    That is a couple weeks away from now. Can you provide an 
update on the timing for the request for proposal (RFP) and how 
this process will follow that?
    Mr. Donley. Ma'am, we have been working on this issue for a 
couple of months now fairly intensively with Deputy Secretary 
Lynn, Secretary Carter, and other members of the acquisition 
team, and we are in the process of carrying forward the results 
of that work to the Secretary for his consideration. And we 
still do hope to get an RFP out this summer on the street.
    Senator Murray. Hope to is not a definite timeframe.
    Mr. Donley. No, this is our intent. And we have pledged, 
Secretary Gates has and I would certainly echo it, that when we 
have completed the results of our internal work and we are 
ready to go out, we will be briefing the Congress on the way 
forward.
    Senator Murray. Okay. So we are still in the timeframe of 
summer?
    Mr. Donley. Yes, ma'am.
    Senator Murray. Can you tell me what measures are being 
taken to prevent the claims of an unfair evaluation or scales 
being tipped to one side or the other?
    Mr. Donley. Well, we are committed from the get-go to a 
fair and open competition. There is no doubt of that.
    We have taken measures inside the Air Force to strengthen 
our source selection process. We have, since the events of last 
summer, increased our focused training on lessons learned from 
the two protests that were sustained last year, the KC-X and 
the CSAR-X, to get those lessons learned into our source 
selection process.
    With respect to the KC-X program in particular, we have put 
a few more senior people into that program office. We have 
moved contract approval authority up to the Secretary of the 
Air Force level, and we are undertaking other measures to 
strengthen the KC-X team and our source selection process as we 
lead into this RFP process going forward.
    Senator Murray. Well, this is a difficult process, and all 
of us want the best aircraft as soon as possible. But I think I 
share with everyone on this subcommittee, we want to make sure 
that this is a fair and transparent competition. We are really 
urging you to make sure that that is very clear.
    We want it to be good for the warfighter and good for the 
taxpayer, which leads me to the question of whether a dual buy 
is a viable option?
    Mr. Donley. Well, we share the Secretary's view that a dual 
buy would be more expensive for the taxpayer in at least three 
dimensions. It would require the development of two airplanes 
instead of one. We would end up with two logistics and two sort 
of depot infrastructure processes in support of that effort 
instead of one. And in the near term especially, we are 
concerned about the impact on the Air Force's budget and the 
Department of Defense's budget generally by going to a dual 
track approach.
    Our program has been structured around a buy of about 15 
airplanes per year. To accommodate a dual award strategy, where 
you are buying airplanes from two providers, probably the 
minimum order quantity for each is 12 aircraft. So that means 
instead of buying 15 per year, we would need to be buying about 
24 per year.
    Senator Murray. And we do not have the budget capacity for 
that?
    Mr. Donley. Well, this would eat significantly into our 
procurement program going forward. It potentially would almost 
double the tanker piece of the Air Force's procurement program 
within the FYDP going forward.
    Senator Murray. Which means other things would be left off 
the table?
    Mr. Donley. At the same time, we are trying to ramp up JSF, 
et cetera. So this is a concern to us, and this is basically 
the reason why we think the dual award would not make sense.

     FAIRCHILD AIR FORCE BASE, WASHINGTON--AERIAL REFUELING MISSION

    Senator Murray. Okay. I appreciate that, and I want this 
tanker competition done. You, of course, know I am hoping one 
plane company wins it. Just as high on the list for me is 
making sure that we protect our taxpayers in this process. So I 
appreciate your answer to that question.
    Beyond the tanker competition, you are simultaneously 
working on tanker beddown. So I want to talk about Fairchild 
Air Force Base in my home State and how it is uniquely 
positioned to support the KC-X beddown.
    We have two air wings who have a very proud refueling 
history there. I have seen them in action. They are incredible. 
We have a large runway and a strategic location for the 
execution of global reach mission, which is important.
    I recently met with the wing commander at Fairchild, and we 
talked about the excellent relationship that Fairchild has with 
the Spokane community, as well as some of the challenges that 
they have faced of late. I am sure you are aware that last 
winter one of Fairchild's key training facilities had its roof 
collapse during a major snowstorm there. Even though its runway 
is the right size, it is due as well for some very important 
maintenance and continued upkeep so it is ready for KC-X.
    Can you confirm for me that we are doing everything we can 
to make sure that Fairchild is ready for the KC-X when the time 
comes?
    General Schwartz. Again, ma'am, I don't want to suggest 
that, again, promises--not a promise. But certainly Fairchild 
Air Force Base is an obvious candidate for early beddown. There 
are others in the country, too, and we will see sort of what 
the production rate allows us to do. But Fairchild Air Force 
Base certainly is in the long-term plan.

   FUTURE OF 36TH RESCUE FLIGHT--FAIRCHILD AIR FORCE BASE, WASHINGTON

    Senator Murray. Okay. Well, I stand ready to help you do 
whatever we need to do there to make sure we are ready for that 
as well.
    In addition to supporting the refueling mission, Fairchild 
is also home to the 36th Rescue Flight. They are very 
important. They support the 336th Training Group and Air Force 
Survival School. We know that these helicopters evacuate and 
help locate students who become lost during their survival 
training. They are very important.
    It also supports civilian search and rescue operations. 
They have actually saved about 600 people during recent 
missions in a variety of States, not only mine, but Idaho, 
Oregon, and Montana. They are just extraordinary. Their 
crewmembers are unbelievable, and everybody just is amazed at 
their capability. So, first of all, my thanks to them.
    But I wanted to make sure that you all were committed to 
work with us on the future of that 36th Rescue Flight. This is 
so that we can maintain that very critical training in 
emergency rescue operations that they have.
    General Schwartz. Yes, ma'am. And I would also indicate 
that that is related to the decision to discontinue the CSAR-X 
program. And the Secretary made a call on that particular 
program, but clearly, the mission remains important for the 
Department of Defense, and that unit is part of that tapestry.
    Senator Murray. Okay. Well, they are very important to us. 
I know they are important to you, and I will work with you to 
make sure we have what we need within the budget process on 
that.
    So thank you very much.
    And thank you, Mr. Chairman.
    Chairman Inouye. Thank you very much.
    Senator Shelby, do you have any questions?
    Senator Shelby. I have no further questions.
    Chairman Inouye. Then Mr. Secretary, General Schwartz, I 
would like to thank both of you for your testimony today.

                     ADDITIONAL COMMITTEE QUESTIONS

    I will be submitting questions on the tanker fleet. I am 
concerned personally because of the age factor. And I will also 
inquire into your thoughts further on dual purchase because I 
have received a report suggesting that there may be massive 
savings if you had two sources, but I will leave it up to you.
    I am also asking questions on the possibility of developing 
an export version of the F-22. I have had inquiries from our 
friends and allies abroad indicating strong interest in 
acquiring such aircraft.
    And so, with that, I would like to thank you once again.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
             Questions Submitted to Hon. Michael B. Donley
            Questions Submitted by Chairman Daniel K. Inouye
                         tanker contract award
    Question. Secretary Donley, will the tanker replacement program 
request for proposals go out to industry this summer? Is the Department 
on track to make a contract award for the tanker replacement in early 
fiscal year 2010?
    Answer. We expect to release the draft request for proposal in late 
September 2009, with a planned contract award in summer 2010.
    Question. Secretary Donley, why is the Department confident that 
the upcoming tanker contract award will not result in a protest to the 
Government Accountability Office? What is the Department's plan if 
another protest is lodged and upheld?
    Answer. Protests are the prerogative of industry afforded by law. 
The Air Force cannot guarantee that the losing bidder will not file a 
protest with the Government Accountability Office. However, the Air 
Force has worked closely with the Office of the Secretary of Defense to 
ensure that the source selection strategy we implement will withstand 
outside scrutiny. If a protest is lodged and upheld, the Air Force will 
take the Government Accountability Office recommendation into 
consideration, and evaluate the next steps to recapitalize our tanker 
fleet.
                        tanker dual buy strategy
    Question. Secretary Donley, what are the pros and cons of the 
Department of Defense awarding a split buy of tankers between the two 
industry competitors? What are the costs associated with this 
acquisition strategy for the full tanker replacement program?
    Answer. The pros and cons of the Department of Defense awarding a 
split buy of tankers are as follows:
    Pros:
  --Will likely expand U.S. wide-body aircraft manufacturer industrial 
        base; and
  --Lowers risk of protest.
    Cons:
  --Doubles development cost from approximately $3.5 billion to $7 
        billion;
  --To produce the minimum Economic Order Quantity of 12 aircraft per 
        year per competitor would increase average annual production 
        costs from approximately $3.6 billion per year to $6.2 billion 
        per year;
  --Magnifies training, operations, logistics, and support costs by 
        introducing two new and different airframes at the same time; 
        and
  --Would result in a significantly increased cost per aircraft if we 
        pursued a split buy at the current funding level, due to 
        production inefficiencies.
    Note: If additional production funds were available to support the 
procurement of 24 aircraft per year, there would be a faster 
recapitalization of our tanker fleet; but, we could achieve at least 
equal benefit from buying 24 aircraft per year from a single offeror
    OSD (AT&L) estimates the costs associated with a dual award 
strategy for the whole KC-X program would be between $11-$14 billion 
(Net Present Value).
                  structural repairs of kc-135 tankers
    Question. Secretary Donley, based on the current tanker replacement 
program, it will take over 30 years to recapitalize the KC-135 fleet.
    Can you elaborate on the cost of the structural repairs that will 
need to be done on the KC-135 fleet during the acquisition of the 
replacement tankers? Can these costs be avoided if the fleet is 
replaced sooner?
    Answer.
Discussion of Approach
    Skin replacements are the major structural repairs that occur on 
the KC-135 over and above the existing Programmed Depot Maintenance 
(PDM) scheduled maintenance. To date, these skin replacements have been 
manageable. Replacements in PDM have been limited, and there is a 
reasonable amount of rework that can be accomplished before most of the 
structures require replacement. However, the lack of a methodology 
accounting for the interaction of corrosion with fatigue generates 
uncertainty in our ability to accurately predict structure degradation.
    The following assumptions were made to determine the cost and 
schedule for replacing the skins:
  --The dates we have forecast for replacement were selected to gain 
        the most benefit from the work that will be accomplished, 
        therefore the initiation date was schedule and not technically 
        driven.
  --To minimize the impact to aircraft availability, it was assumed 
        that no more than 12 aircraft would be down at any one time, 
        and the tasks were grouped to be accomplished concurrently.
  --Each estimate uses current year (fiscal year 2009) dollars and is 
        per aircraft; then year dollars will be more.
    The information below can be compared with the proposed adjusted 
schedule for the KC-X. For example, the crown and center wing (wing 
box) upper skins (see below) would not require replacement until fiscal 
year 2026. Acquisition of KC-X would eliminate the requirement to 
modify 230 of the KC-135 aircraft.
            Aft Body Skins
    Replacement of these skins is already programmed to be done as part 
of PDM fiscal year 2012-fiscal year 2017.
    Estimated cost per airplane: $0.3 million.
    Schedule: Fiscal year 2012-fiscal year 2017, 416 aircraft.
    Estimated total cost: $124.8 million.
    Maximum aircraft down: N/A--concurrent with PDM.
            Upper Wing and Horizontal Stabilizer Skins
    These would be done concurrently, separate from PDM, in a speed 
line, and include replacement of substructure components that are 
important to continued use of the aircraft and accessible when the 
skins are removed.
    Estimated cost per airplane: $6.7 million.
    Schedule: Fiscal year 2016-fiscal year 2034, 416 aircraft.
    Estimated total cost: $2.8 billion.
    Maximum aircraft down: 12 (at any one time).
            Crown and Center Wing (wing box) Upper Skins
    This replacement is planned further in the future since recent 
experience has not indicated significant problems with corrosion or 
cracking. They are planned to be done concurrently in a speed line and 
separate from PDM. We have accounted for planned retirements in this 
increment.
    Estimated cost per airplane: $4.6 million.
    Schedule: Fiscal year 2026-fiscal year 2034, 230 aircraft.
    Estimated total cost: $1.1 billion.
    Maximum aircraft down: 12 (at any one time).
    Due to the materials and the assembly techniques used when the KC-
135 aircraft was originally procured, occurrences of corrosion and 
stress corrosion cracking will continue to be a primary area of 
concern. These materials are susceptible to corrosion or stress 
corrosion cracking. Corrosion is aggravated by the assembly techniques 
that did not use modern methods of corrosion prevention during 
assembly. Continued inspections, repairs, and preventive maintenance 
are required to ensure a viable fleet.
    Can these costs be avoided if the fleet is replaced sooner? Yes, as 
indicated in the answers above, some of the costs could be avoided, 
depending on timing of KC-X replacement and retirement schedule for the 
KC-135.
                              end strength
    Question. Secretary Donley, we understand that the Air Force will 
be allocating personnel to new or growing mission areas such as cyber 
security, the nuclear enterprise, intelligence, surveillance and 
reconnaissance and other air support activities.
    What tradeoffs are you considering that will enable the Air Force 
to dedicate more people to these missions?
    Answer. In the fiscal year 2010 President's budget, we source these 
new and emerging missions primarily through the proposed Combat Air 
Forces (CAF) restructuring plan. This effort accelerates the retirement 
of approximately 250 of our oldest fighters, funding a smaller but more 
capable, flexible, and lethal force, and redistributing manpower to 
emerging high priority missions.
    Implementation of the CAF restructure allows the Air Force to 
realign approximately 4,000 manpower authorizations to emerging and 
priority missions such as manned and unmanned surveillance operations 
and nuclear deterrence operations. This restructure is a major step, 
and was proposed only after a careful assessment of the current threat 
environment and our current capabilities. In addition to being a 
significant investment in bridge capabilities to our fifth generation-
enabled capability, this action shifts manpower to capabilities needed 
now for operations across the entire spectrum of conflict.
    Question. Secretary Donley, how do you see the roles and missions 
of the Air National Guard and Air Force Reserve changing in the future?
    Answer. As the Air Force moves forward, we must capitalize on the 
tremendous talent the Air National Guard and Air Force Reserve 
contribute to the Total Force, as both a strategic and operational 
resource. It is critical to build on the success of Total Force 
Integration to drive even greater gains in effectiveness and 
efficiency, and expanding integration initiatives across the force 
maximizes our capabilities across the spectrum of conflict--from 
building partnerships and irregular warfare to conventional operations 
and strategic deterrence. The Air Force will need to expand 
associations, both classic and active, as part of our broad effort to 
modernize our organizations into a more capable Air Force. This 
expansion also includes examining new mission areas, such as unmanned 
aerial systems, space and cyber, for Air Reserve component units as 
appropriate.
                              c-17 program
    Question. Secretary Donley, there are some critics of the 
Department's plan to terminate production of the C-17 strategic airlift 
aircraft in fiscal year 2010. The next mobility capabilities and 
requirements study which will inform a decision has not been completed 
and C-17 is the only warm production line we have for strategic lift 
aircraft.
    What are your views about the adequacy of planned strategic 
airlift?
    Answer. The Air Force's planned fleet of 324 strategic airlift 
aircraft (213 C-17s, 52 C-5Ms and 59 C-5As) is more than sufficient to 
meet the current National Military Strategy. The C-5 RERP Nunn-McCurdy 
review of the 2005 Mobility Capabilities Study established a strategic 
airlift capability requirement of 33.95 million ton-miles per day, and 
the Air Force's strategic airlift program of record meets this 
requirement. The ongoing Mobility Capabilities and Requirements Study 
2016, expected in December 2009, will help establish the future 
strategic airlift requirement.
                      air force nuclear enterprise
    Question. Last fall, the Air Force published a strategic plan on 
``Reinvigorating the Air Force Nuclear Enterprise.''
    Secretary Donley, please walk us through the Air Force's plan to 
restore credibility in delivering secure and reliable nuclear 
deterrence capabilities to the American people.
    Answer. The Air Force has undertaken major efforts to reinvigorate 
our Nuclear Enterprise, to include a major step by activating a new 
major air command, Air Force Global Strike Command (AFGSC), at 
Barksdale AFB, Louisiana. The AFGSC organizational construct clearly 
aligns nuclear missile and nuclear capable bomber units under a single 
command and demonstrates a visible commitment to the nuclear deterrence 
mission. AFGSC will now foster a robust strategic deterrence enterprise 
and standardized self-assessment culture.
    Additionally, we realigned and consolidated nuclear sustainment 
under the Nuclear Weapons Center in Air Force Materiel Command. The 
Nuclear Weapons Center is now the focal point for nuclear weapons life 
cycle management and positive inventory control for nuclear weapons 
related material.
    The Air Force has also established a new directorate on the Air 
Staff responsible for Strategic Deterrence and Nuclear Integration 
under the leadership of a major general. These actions represent the 
largest reorganization the Air Force has undertaken since the early 
1990s, and provides the leadership and focus necessary to accomplish 
this critical mission with the precision and reliability it demands in 
today's environment and into the future.
    In addition to this significant reorganization effort we have also 
instituted changes to the Air Force corporate process by adding the 
Nuclear Panel for specific focus on nuclear issues and charged the 
Under Secretary of the Air Force to be responsible for broad nuclear 
policy and oversight. We also founded the Nuclear Issues Resolution and 
Integration Board and the Nuclear Oversight Board. These boards meet 
quarterly to ensure Air Force senior leaders involvement and 
notification on recent events occurring in the nuclear enterprise. The 
Nuclear Oversight Board is made up of major command commanders with 
equity in the enterprise and chaired by General Schwartz and me.
    We have also examined our inspection and self-assessment culture 
across the nuclear enterprise and have made improvements there as well. 
The Air Force Inspection Agency will have oversight of every nuclear-
related inspection. Inspection teams will consist of approximately 20 
``core'' team members who have undergone a standardized training and 
certification process to ensure consistent rigor. We have implemented a 
root cause analysis methodology to determine why mistakes were made and 
if they are a symptom of a larger problem.
    Finally, we have undertaken initiatives to deliberately develop 
leaders in the nuclear enterprise. We have reviewed every Air Force 
professional military education course from basic training to senior 
developmental education to ensure every Airman knows and understands 
the United States' policy and strategy for nuclear weapons. 
Additionally, we have established a process to track nuclear experience 
and developed new courses to prepare leaders to fill key nuclear 
billets. These processes will help ensure we place the right person, 
with the right skill set, in the right job, and at the right time.
    Question. Secretary Donley, how do you plan to rebuild the Air 
Force's culture and institutions so that each Airman understands the 
importance of the nuclear deterrence mission?
    Answer. The Air Force has conducted a review of the curriculum in 
every professional military education course from basic training 
through senior development education to ensure Airman are taught Air 
Force nuclear policy and strategy at key points throughout their 
careers.
    We have also refocused our nuclear inspection mindset. Instead of 
inspection teams identifying errors and the units simply fixing 
identified problems, we now do an extensive root cause analysis to 
determine why the mistake occurred, and if it is the symptom of a 
larger problem. This encourages our organizations to take a look at 
their entire processes to find ways to improve instead of just fixing 
what is broken. This new process strengthens self-assessment 
capabilities and instills a ``culture of excellence'' mentality.
                          joint cargo aircraft
    Question. Secretary Donley, the Joint Cargo Aircraft program is now 
an Air Force responsibility rather than a joint Army-Air Force program. 
In addition, the validated requirement of 78 aircraft appears to have 
dropped to 38 aircraft.
    Why has the Air Force assumed responsibility for this program and 
what has changed to reduce the requirement?
    Answer. The transfer of Army Time Sensitive/Mission Critical 
airlift support to the Air Force intends to capitalize on efficiencies 
gained by operating the tactical airlift fleet under a single service. 
The Department of Defense is now engaged in an overall look to leverage 
existing intra-theater airlift capability to maximize effectiveness and 
minimize expenditure of taxpayer dollars. The changes reflected in the 
fiscal year 2010 President's budget request balance the C-27J 
capabilities with the existing capabilities in the Department. The Air 
Force will continue to evaluate the entire intra-theater fleet as 
mission needs develop.
                   fighters in the air national guard
    Question. Secretary Donley, the Committee recently received 
testimony from the Air National Guard alerting us to the fact that 80 
percent of their F-16 fighter inventory will face retirement beginning 
in 2017. Retiring these aircraft will almost eliminate the fighter 
aircraft that the Air National Guard has dedicated to the Combat 
Aviation and Air Sovereignty Alert missions.
    What steps are you taking to ensure that the Air National Guard is 
properly equipped for its important homeland security mission over the 
United States?
    Answer. Homeland Defense is the Department of Defense's first 
priority and we are committed to the Operation NOBLE EAGLE mission 
through the long term. Recapitalization of the fighter and tanker fleet 
will require many years, and within the available funding, we will 
maximize the life of existing aircraft.
    We continue shaping our force structure to meet the threat with the 
best mix of capabilities. To do this, we are acting swiftly to remedy 
our potential capability gaps, based on accurate service life and fleet 
health projections over the next 5-15 years. The Quadrennial Defense 
Review will also take a close look at Homeland Defense requirements and 
provide us further insight on the force structure required to meet our 
Nation's air defense needs.
    Question. Secretary Donley, is the Air Force looking at new 
missions for the Air National Guard? Are additional association 
relationships with active Air Force units planned?
    Answer. The Air Force continues to examine opportunities for 
integration with the Air National Guard and all existing and emerging 
mission areas are considered for Total Force Integration initiatives. 
Currently, there are additional fighter associations planned for the 
Air National Guard. The Air Force recognizes the significant 
contributions that experienced Air National Guard Airmen bring to Total 
Force Integration associations and expects those benefits to continue 
in legacy and next generation missions.
    Question. Secretary Donley, if delays in the F-35 Joint Strike 
Fighter program keep the Air Force from filling the empty fighter spots 
in the Air National Guard with the new aircraft, will you consider 
buying 4th generation F-15s and F-16s, which provide improved 
capability over the aircraft being flown today?
    Answer. The United States Air Force has invested heavily in the F-
35 program, and we are closely tracking developments in order to ensure 
that it stays on track. The Chief of Staff of the Air Force, General 
Schwartz, has stated on many occasions that the key to the Air Force's 
fighter recapitalization is the F-35, and any initiatives to procure 
fighter weapons systems other than the F-35 would require buying fewer 
F-35s. Subsequently, delays in F-35 procurement would also cause an 
increase in cost and further delay the F-35 for the Air Force, Navy, 
and Marine Corps.
    After the Quadrennial Defense Review is completed, we expect to 
have a more accurate picture of what the Nation's and Air Force's 
requirement will be for fighter force structure. If there is going to 
be a gap in capabilities, this could be addressed by extending the 
service life of the F-15s and F-16s. We are currently conducting 
fatigue testing on the F-15 and F-16 fleets to provide a scope and 
focus on the structural modifications that might be necessary. Once 
these structural tests are complete, we will have a sense of whether or 
not we will need a Service Life Extension Program. Beyond this, we have 
no plans to procure additional 4th generation F-15s and F-16s.
             intelligence, surveillance and reconnaissance
    Question. Secretary Donley, what is the status of discussions to 
bring the C-12 programs together, possibly under the Air Force, and 
avoid duplicative efforts in areas such as sensor development and 
training programs? What are the disadvantages of a joint approach here?
    Answer. The C-12 class of aircraft is made up of over 26 different 
aircraft variations, and the numerous sensor configurations easily 
triple the number of overall configurations in separate Services. 
Consolidation of these converted civilian platforms under one program 
would be extremely challenging and time-consuming. A few discussions 
have occurred with regard to merging the C-12 class aircraft under one 
Service; however, to satisfy urgent warfighter needs, the Air Force's 
focus has been on producing, modifying, and fielding aircraft as 
rapidly as possible. Due to the numerous variations and capabilities of 
currently fielded C-12 systems, separate management is the most rapid 
way forward for today's needs. To determine the full range of 
advantages and disadvantages for a common future platform, further 
discussion and in-depth analysis will be required.
                       export version of the f-22
    Question. Secretary Donley, I believe the Department should 
consider an export program for the F-22 Raptor fighter aircraft. Under 
the rules for such a program, the costs for developing an export 
variant is borne by the interested nation, not the United States. This 
would enable us to provide advanced fighter capabilities to our close 
friends and allies.
    Secretary Donley, what is your view of an export program for an F-
22 variant?
    Answer. The Obey amendment to the fiscal year 1998 Defense 
Appropriations Act, reenacted annually in every subsequent 
appropriations act, prohibits foreign military sales of the F-22A 
Raptor. However, I believe the F-35 is the aircraft of the future, for 
both the United States military and our partner nations. It would be 
very expensive for Japan, Australia, or other nations to buy an export 
model of the F-22, and this funding is potentially better spent on 
collectively developing the F-35 and the interoperability that enables 
us to work together in future joint and coalition operations around the 
world.
    Question. Secretary Donley, could you give the Committee a rough 
order of magnitude estimate on the cost and schedule to develop an 
export version of the F-22?
    Answer. The rough order of magnitude cost and schedule estimate to 
develop an export version of the F-22 is estimated at $2.3 billion for 
non-recurring development and manufacturing, with the first delivery of 
an operational aircraft 6.5 years from the Engineering Manufacturing 
and Development contract.
    These figures came from a recent study which was reported to SAC-D 
staff and Senator Inouye in May 2009. The study also identified an 
additional cost estimate of $9.3 billion for the production of 40 
aircraft, resulting in a total estimated cost of $11.6 billion (average 
aircraft cost of $290 million). A Letter of Agreement signed in early 
2010 would result in the first operational aircraft delivery no sooner 
than 2017.
    The cost and schedule estimates above only include the air vehicle 
(aircraft, engines, and avionics). The study did not include recurring 
or non-recurring costs for support and training systems, initial 
spares, base stand-up, interim contractor support, U.S. government 
program offices, foreign military sales surcharges or production 
shutdown.
    Question. Secretary Donley, do you think the availability of an 
export version of the F-22 would change the international market for 
the F-35 Joint Strike Fighter?
    Answer. Introducing the F-22 into the export market as another 
available fifth generation fighter would have a pronounced effect in 
reducing international interest in acquiring the F-35. Reduced foreign 
sales of the F-35 would cause an attendant increase in unit cost to the 
United States--Air Force, Navy, and Marine Corps--and would have the 
same effect on those international partners dependant on the F-35 for 
their future airpower capabilities; potentially decreasing 
international sales, resulting in even greater unit cost increase.
    The benefit of interoperability to the U.S. warfighter is another 
major concern. The Air Force will maintain a small fleet of F-22s, 
while acquiring F-35s. The Air Force, Navy, and Marine Corps will have 
much greater interoperability with partner air forces employing the F-
35 than with the F-22.
    Finally, non-recurring engineering costs associated with hardware 
and software re-design to produce an exportable version will be 
substantial--well over $2 billion. The result would be an airframe 
different in many respects from the Air Force F-22, complicating the 
training of international pilots and adversely affecting 
interoperability even beyond considerations of fleet size. 
Additionally, Air Force personnel and technical resources required to 
develop and oversee such a program would detract from resources needed 
to properly manage our own acquisition programs.
                           the cyber command
    Question. Secretary Donley, the 24th Air Force, which will stand-up 
this year at Lackland Air Force Base, Texas, is the Air Force's focal 
organization for dealing with cyber operations and network warfare. The 
mission is new and success will depend on developing a highly skilled 
workforce drawn from a number of Air Force career fields.
    What are your plans for identifying and managing the cyber warrior 
career force?
    Answer. The Air Force is committed to establishing dedicated 
officer, enlisted and civilian career fields to meet the emerging 
demand and address recruiting, training and retention challenges. Air 
Force Space Command, as the lead command for cyber, and the Air Staff 
are collaborating to identify personnel and positions that are 
performing or will perform cyber duties. So far, the enlisted Network 
Warfare Operations (1B4) and officer Cyber Operations (17D) career 
fields were approved on April 15, 2008, to be established not later 
than October 2010. No date has been established for civilian career 
field solutions, as we are still in the early stages of investigation 
and development.
    Question. Secretary Donley, since the cyber field is relatively 
new, this is an opportunity to optimize a DOD-wide approach to training 
and operations.
    How is the Air Force working with the other Services to develop 
joint training, joint certifications or shared facilities?
    Answer. Joint cyber training standards and certification remain a 
work in progress. The Office of the Secretary of Defense and Joint 
Staff are leading the Department of Defense effort in collaboration 
with the Services, U.S. Strategic Command, and Joint Forces Command. 
The Air Staff and Air Force Space Command, as lead command for cyber 
operations, are heading Air Force efforts. Current Joint and Service 
efforts focus on enhancing existing training programs to further mature 
and professionalize the force. A robust cyber training enterprise has 
emerged, composed of Service, Joint, academic and commercial solutions. 
This initial effort should be complete by spring 2010.
                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd
                              c-5 aircraft
    Question. Mr. Secretary, I believe premature repeal of Section 132 
of the fiscal year 2004 National Defense Authorization Act (NDAA) that 
pertains to the retirement of C-5A strategic lift aircraft language 
could result in the U.S. Air Force's (USAF) making uninformed force 
structure decisions, just as the Army and Marine Corps are growing in 
size and lift requirements. Section 132 was enacted to ensure the USAF 
does not prematurely retire C-5A aircraft without having the objective 
data from the C-5 Reliability Enhancement and Re-Engining Program 
(RERP) Operational Test and Evaluation (OT&E) and a report submitted to 
the Congressional defense committees.
    Should Section 132 be repealed and will the USAF undertake a 
thorough review of the C-5 OT&E data, which is expected to be available 
this year, prior to issuing any decisions to retire any C-5 aircraft?
    Answer. The United States Air Force will fully consider all 
information at its disposal, to include the IDA study, prior to making 
any programmatic decisions.
    Question. Mr. Secretary, the fiscal year 2008 NDAA-directed 
Institute for Defense Analysis (IDA) Study on Size and Mix of Airlift 
Force (February 2009) affirmed the value of C-5s and their 
modernization programs. IDA considered 36 alternative mixes and sizes 
and compared them against the current program of record (316 strategic 
airlifters). The study found; ``that retiring C-5As to release funds to 
buy and operate more C-17s is not cost-effective''. Additionally, 
``virtually all the C-5s and C-17s have lifetimes beyond 2040''.
    Will the IDA study's overall conclusion that C-5A RERP is 
preferable to additional C-17s be fully considered by the USAF prior to 
moving forward with any plans to retire any C-5A aircraft?
    Answer. The United States Air Force fully considers all information 
at its disposal prior to any programmatic decisions and will fully 
consider the IDA study if there is a proposal to retire C-5A aircraft.
    Question. Mr. Secretary, I do not support repeal of Section 132 of 
the fiscal year 2004 NDAA. I believe the Office of the Secretary of 
Defense and the Congress should consider all objective data in support 
of future fact-based force structure decisions. It is my hope that 
Section 132 be allowed to expire in the February/March 2010 timeframe 
following submission, and proper consideration of the C-5 RERP OT&E 
report to Congress.
    Should Section 132 be repealed and a decision made to prematurely 
retire a portion of, or the entire, C-5A fleet, what would be the 
impact on the 167th Airlift Wing of the West Virginia Air National 
Guard, which was just officially designated as a fully operational C-5A 
unit on April 1, 2009?
    Answer. Repeal of Section 132 of the fiscal year 2004 National 
Defense Authorization Act would provide the Air Force maximum 
flexibility in managing its strategic airlift fleet. We value the 
information that reports such as the Reliability Enhancement and Re-
engining Program Operational Test and Evaluation provide and weigh them 
accordingly in our analysis. In addition, we are awaiting the Mobility 
Capabilities and Requirement Study 2016 final report, expected in late 
2009, to make an updated, fact-based analysis of our strategic airlift 
fleet. Any future decision to alter the force structure will be based 
on a detailed evaluation of factors.
    Question. Mr. Secretary, at a February 21, 2007, Senate 
Appropriations Defense Subcommittee hearing on the USAF's fiscal year 
2008 budget request, I asked your predecessor, Secretary Wynne to 
respond to comments made by then-USAF Chief of Staff General Moseley 
that the USAF would like to retire 25-30 of the worst performing C-5 
aircraft. My specific question was, ``Under what timeline is the USAF 
planning to act and to inform Congress and the impacted bases of such 
retirements?'' His response was: ``If relieved of legislative 
restrictions, the USAF would be able to effectively manage the mix of 
various aircraft fleets. Preliminary options under review include 
replacing retiring strategic airlift aircraft with newer C-17s or 
backfilling with newer C-5Bs from within the USAF. No new units are 
anticipated. Likewise, closures of existing units are not planned. The 
USAF will be open and transparent with regard to basing plans.
    If relieved of legislative restrictions regarding the C-5A aircraft 
in the near future, do you and General Schwartz intend to replace 
retiring strategic airlift aircraft with newer C-17s or backfill with 
newer C-5Bs from within the USAF? You may be assured that I will be 
following up with you in this regard in the near future.
    Answer. The United States Air Force will fully consider all 
information at its disposal, to include the IDA study, prior to making 
any programmatic decisions.
                                 ______
                                 
             Questions Submitted by Senator Byron L. Dorgan
                          joint cargo aircraft
    Question. C-27 Joint Cargo Aircraft (JCA): the Defense Department 
recently realigned executive agency of the C-27 Joint Cargo Aircraft 
(JCA) from the U.S. Army to the U.S. Air Force. Concurrent with this 
action, the total planned procurement of the C-27 aircraft was reduced 
from 78 to 38. Originally, the Air Force was to procure and assign 24 
aircraft to the Air National Guard. Now the plan is for the Air Force 
to operate all 38 JCAs.
    What is the Air Force plan for basing these aircraft?
    Answer. Given recent Department of Defense decisions regarding the 
JCA program, the Air Force is working with the National Guard Bureau 
and the Army to determine how to best meet domestic requirements and 
the strong demand for direct support airlift in overseas contingency 
operations. Similarly, the Air Force is working closely with the 
National Guard Bureau and the Air National Guard to determine the 
basing plans for the C-27J. Final basing decisions for this system are 
still pending.
    Question. When and how many C-27 aircraft will be assigned to the 
119th Air Guard Wing in Fargo, ND?
    Answer. Given recent Department of Defense decisions regarding the 
JCA program, the Air Force is working with the National Guard Bureau 
and the Army to determine how to best meet domestic requirements and 
the strong demand for direct support airlift in overseas contingency 
operations. Similarly, the Air Force is working closely with the 
National Guard Bureau and the Air National Guard to determine the 
basing plans for the C-27J. Final basing decisions for this system are 
still pending.
                         next generation bomber
    Question. Next Generation Bomber (NGB): in the fiscal year 2010 
budget, the Air Force is no longer funding continued development of a 
new long range strike aircraft, the Next Generation Bomber (NGB). 
Previous Air Force budget submissions indicated a need to obtain an 
initial capability by the year 2018.
    Explain why the Air Force cancelled the NGB program and outline its 
plans for addressing this need and fulfilling the requirement for a new 
long range strike platform.
    Answer. The decision to cancel the Next Generation Bomber was 
directed by the Secretary of Defense in the fiscal year 2010 
President's budget submission. The Air Force supports the Quadrennial 
Defense Review and Nuclear Posture Review to assess future strategic 
requirements.
    Question. If the Service is not continuing the new NGB, what steps 
are being taken to modernize and keep our legacy bomber fleet healthy 
and viable until a follow-on bomber is fielded?
    Answer. The Air Force plans to maintain the current bomber force 
(B-1s, B-2s, and B-52s) and continue with planned sustainment and 
modernization programs. The B-1 has five sustainment programs to 
prevent grounding and one developmental program, which adds data link 
capability. The B-2 also has robust sustainment and modernization 
programs. These programs have been in previous budget requests and 
continue in the fiscal year 2010 President's budget request.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran
                   reductions to contractor workforce
    Question. Secretary Donley, will efforts to reduce your reliance on 
contractors and hire additional civilian government workers mean an end 
to ``Public-Private'' competitions conducted under the Office of 
Management and Budget A-76 Circular process?
    Answer. The Air Force views in-sourcing as one of many efficiency 
tools that comprise our overall human capital strategy. We do not view 
it as necessarily being mutually exclusive from reasoned and strategic 
application of public-private competitions. Presently, the Air Force 
has no new public-private competitions identified for the remainder of 
this fiscal year due to the moratorium established by the fiscal year 
2009 Omnibus Appropriations Act.
                                 ______
                                 
          Questions Submitted by Senator Kay Bailey Hutchison
                       additional f-22 purchases
    Question. Does the Air Force plan to purchase additional F-22 
aircraft to fill the gap if and when F-22 attrition occurs?
    Answer. The Air Force does not plan to purchase additional F-22s. 
The fiscal year 2010 President's budget request completes the F-22 
program of record at 187 aircraft and the last aircraft will be 
delivered in March 2012. No further procurement is planned or 
programmed beyond the program of record. Air Force fleet management 
actions will ensure the long-term viability and combat capability of 
the F-22.
                        f-35 technical training
    Question. F-35 technical training is currently conducted in several 
locations. Follow-on technical training for F-15s, F-16s, and A-10s 
(Air Force legacy platforms that the F-35 is set to replace) is 
completed at four additional locations. I believe that there are many 
benefits to consolidate training at a valued Air Force installation 
such as Sheppard Air Force Base in Wichita Falls, Texas. This may 
include reduced costs, experience with allied and international 
training, expertise and core competencies in fifth-generation fighter 
technical training, strong positive community support, and reduced 
permanent change of station and temporary duty moves for our airmen and 
women.
    Please share your thoughts on consolidation of F-35 technical 
training as well as possible timelines for this to become a reality.
    Answer. All F-35 maintenance technicians will receive their initial 
skills training at Sheppard Air Force Base, Texas. Crew chief, avionics 
and armament specialists will receive follow-on specialized F-35 
training at Eglin Air Force Base, Florida. This arrangement will 
provide our Airmen with the skills needed.
    Beginning in 2013, F-35 maintenance technicians will complete basic 
military training at Lackland Air Force Base, Texas and then proceed to 
Sheppard Air Force Base, Texas for maintenance fundamentals training. 
Thereafter, crew chief, avionics and armament specialists will receive 
F-35-unique apprentice training at Eglin Air Force Base, Florida. All 
other Air Force F-35 maintenance technicians will receive initial 
skills training at Sheppard Air Force Base and F-35-unique hands-on 
training at a field training detachment at their first operational 
base.
          support to states--potential mobility capability gap
    Question. Currently The Texas National Guard Sherpa (C-23) are 
scheduled to deploy to support overseas operations. The extreme demands 
of intra-theater cargo airlift will pose significant stress on an 
already aging airframe.
    How does the Air Force plan to provide adequate replacement support 
to the States to sustain high maintenance and potential replacement of 
aircraft attrition if the anticipated and validated C-27 Joint Cargo 
Aircraft program is not moved forward?
    Answer. In accordance with Chapter 1011 of Title 10, the National 
Guard Bureau is the channel of communication between the States and the 
Air Force on all matters pertaining to the National Guard. In 
stationing and allocating Air National Guard capabilities across the 
States, the National Guard Bureau has historically endeavored to 
disperse capabilities geographically in such as way as to facilitate 
access by States when needed. This practice is expected to continue.
    Given recent Department of Defense decisions regarding the JCA 
program, the Air Force is working with the National Guard Bureau and 
the Army to determine how to best meet domestic requirements and the 
strong demand for direct support airlift in overseas contingency 
operations. Similarly, the Air Force is working closely with the 
National Guard Bureau and Air National Guard to determine the basing 
plans for the C-27J. Final basing decisions for this system are still 
pending.
                          joint cargo aircraft
    Question. The Joint Cargo Aircraft (JCA) mission was validated at 
the Joint Capabilities Integration Development Systems (JCIDS) process 
and approved by the Joint Requirements Oversight Council. The 2009 
Quadrennial Roles and Missions Review report found that Service 
Capabilities were appropriately assigned.
    What new information has over-ridden the extensive validation of 
this thoroughly vetted program?
    Answer. The adjustments made to the fiscal year 2010 President's 
budget request will maximize the robust capabilities resident in our 
current airlift fleet and ensure all intra-theater requirements are 
met. The transfer of Army Time Sensitive/Mission Critical airlift 
support is intended to capitalize on efficiencies gained by operating 
the tactical airlift fleet under a single Service. The Department of 
Defense is now engaged in an overall look to leverage existing intra-
theater airlift capability as we look to maximize effectiveness and 
minimize expenditure of taxpayer dollars.
    While the requirement for Joint Cargo Aircraft capability remains, 
the Air Force will, whenever possible, apply existing capability to 
fill a requirement before procuring additional hardware. Determining 
the extent to which we can apply our current fleet to this mission area 
is the task at hand and the Mobility Capability Requirements Study 2016 
will help resolve this question.
                      test and evaluation support
    Question. The new Administration's budget request cuts PE 0605807F 
almost $50 million when compared to the fiscal year 2009 budget and by 
almost $60 million compared to the first fiscal year 2010 budget 
request submitted in January. A portion of the cut is just that, a cut. 
The second element of the cut is based upon the assertion that there 
will be a savings realized when 750 contractor positions are converted 
to civil service solutions.
    What analysis has been done to identify what the workforce mix of 
contractor and civil service should be?
    Answer. The Service components received Office of the Secretary of 
Defense-directed contractor to Department of Defense civilian 
conversion targets which begin in fiscal year 2010. While currently 
there is no analysis, the Air Force is in the process of identifying 
specific in-sourcing candidates to comply with the requirement.
                   contractor to civilian conversions
    Question. The new Administration's budget request cuts PE 0605807F 
almost $50 million when compared to the fiscal year 2009 budget and by 
almost $60 million compared to the first fiscal year 2010 budget 
request submitted in Jan. A portion of the cut is just that, a cut. The 
second element of the cut is based upon the assertion that there will 
be a savings realized when 750 contractor positions are converted to 
civil service solutions.
    What analysis has been done showing the savings that will result 
from the conversion of contractor positions to civil services 
positions? Did the analysis include fully burdened costs of civil 
service positions similar to costs clearly visible for contractor 
support (i.e., overhead, G&A, material & handling, etc.)?
    Answer. The Service components received Office of the Secretary of 
Defense-directed contractor to Department of Defense civilian 
conversion targets which begin in fiscal year 2010. The associated 
funding reductions were based on the Office of the Secretary of 
Defense's estimate of 40 percent savings. While currently there is no 
analysis, the Air Force is in the process of identifying specific in-
sourcing candidates to satisfy the requirement.
    Question. What is the hiring ramp-up schedule for achieving the 
contractor to civil service conversions? What analysis has been done to 
verify that OPM and AF offices can achieve the ramp-up schedule?
    Answer. The Service components received Office of the Secretary of 
Defense-directed contractor to Department of Defense civilian 
conversion targets which begin in fiscal year 2010. The associated 
funding reductions were based on the Office of the Secretary of 
Defense's estimate of 40 percent savings.
    Question. What assessments of disruption to programs (operational 
readiness perspective) have been completed?
    Answer. The Service components received Office of the Secretary of 
Defense-directed contractor to Department of Defense civilian 
conversion targets which begin in fiscal year 2010. The associated 
funding reductions were based on the Office of the Secretary of 
Defense's estimate of 40 percent savings.
                     major range and test facility
    Question. Defense Test Resource Management Center (DTRMC) is 
required by law to do an independent scrub of Major Range & Test 
Facility Base (MRTFB) budgets of the Services. That was accomplished 
when the fiscal year 2010 President's budget request was delivered to 
Congress in January of this year which exceeded the current funding 
level by $60 million. No such assessment has been, nor is intended, for 
the new Administration's budget.
    What is the Department's plan to avoid circumventing the law and 
Congress?
    Answer. The Defense Test Resource Management Center has issued an 
addendum to its previous certification of the fiscal year 2010 
President's budget request. This addendum addresses the new 
Administration's budget request.
                                 ______
                                 
            Questions Submitted by Senator Robert F. Bennett
                             minuteman iii
    Question. I deeply appreciate the news I received that the Air 
Force is going to maintain the solid rocket motor industrial base that 
supports the Minuteman III land-based portion of our nation's strategic 
missile defense and nuclear deterrence. Only the prompt transfer of 
funds will prevent further disruptions in production and provide a 
desirable continuity of employment for the highly sought after 
engineers and workers of the solid rocket industrial base.
    What is the status of the Air Force's request to the Department of 
Defense to reprogram fiscal year 2009 funds?
    Answer. As part of Department of Defense's fiscal year 2009 Omnibus 
Reprogramming request, the Air Force has submitted a new start request 
to initiate an ICBM solid rocket motor warm line. Once new start 
authority is granted by the Congressional Defense Committees and 
propulsion replacement program contract close-out finalization is 
completed, the Air Force intends to internally reprogram available 
funding from within the Minuteman squadrons program element to fund 
initial warm line activities as a bridge to fiscal year 2010. The 
fiscal year 2010 President's budget request includes $43 million for 
the ICBM solid rocket motor warm line.
    Question. How many solid rocket motors is the Air Force planning to 
buy? If this is not an accurate measure of the ability to maintain a 
warm line, please explain the rationale that is driving the budget 
numbers we have seen.
    Answer. The number of solid rocket motors is not an accurate 
measure of the ability to maintain an industrial base. We believe the 
ability to maintain the industrial base is captured in the fiscal year 
2010 effort which is structured to maintain design-unique material 
availability; sub-tier material supplier viability; touch labor 
currency; and design engineering personnel continuity unique to the 
Minuteman weapon system. In addition, the fiscal year 2010 effort is 
designed to maintain systems engineering assessment capability and 
utilize independent verification of production processes.
    Actual production quantities will not be known until the contract 
is finalized.
                          force restructuring
    Question. I was disappointed to learn that Hill will lose one of 
its three F-16 fighter squadrons as a part of the recently announced 
force-wide restructuring. However, upon reviewing the list of locations 
from which the Air Force plans to remove F-16s, I noticed bases in the 
intermountain and southwest regions appear to bear the brunt of F-16 
force reductions. I find this puzzling due to the tremendous training 
opportunities afforded by ranges in these regions.
    If the Air Force is seeking cost reductions, is it not more 
efficient to station aircraft near the ranges, like the Utah Test and 
Training Range, which affords the most effective training environments?
    Answer. Proximity to training ranges is one of many criteria the 
Air Force uses to make basing decisions. The Combat Air Forces fighter 
force restructuring plan will provide the United States with a smaller, 
but more flexible, capable, and lethal force as we bridge to our 
ultimate goal of a 5th generation-enabled force. As we developed this 
plan over the last year, we focused on balancing planned force 
reductions across active duty, Guard, and Reserve components, as well 
as overseas and U.S. locations. We carefully analyzed the missions 
across our units in all the Air Force components to achieve the force 
mix that made the most strategic sense. The changes in this plan were 
closely coordinated with our Air National Guard and Air Force Reserve 
partners, as well as our major commands and affected regional combatant 
commanders.
    Question. I also wanted to ask about the confusing signals I've 
received regarding the restructuring that could take place at Hill. 
Under the total force integration concept, the 388th and 419th fighter 
wings were merged together as a prototype for further efforts to mix 
active and reserve fighters, an effort that has seen great results so 
far. Despite this the restructuring calls for one full squadron of F-
16s to be removed from that combined wing.
    Can you explain to me how the Air Force came to this decision, and 
what you have determined are the real impacts on the total force 
integration program?
    Answer. The fiscal year 2010 Combat Air Forces fighter force 
restructuring plan offers the Air Force an opportunity to reap 
significant savings in funds and manpower by accelerating the 
retirement of approximately 250 of our oldest fighters, reinvest in 
critical modifications to our combat forces fleet, procure preferred 
air-to-air and air-to-ground munitions and critical Air Force and Joint 
enabling technologies, and redistribute manpower to national priority 
missions.
    These actions will provide the United States with a smaller, but 
more flexible, capable, and lethal force as a capability-based bridge 
from our legacy-dominated force to our ultimate goal of a 5th 
generation-enabled force. The proposed Hill Air Force Base, Utah 
changes are part of a global resource allocation process that makes 
strategic sense.
    As we developed this plan over the last year, we were successful in 
balancing planned force reductions across our active duty, Guard, and 
Reserve components, as well as in the States and overseas locations. We 
carefully analyzed the missions across our units in all the Air Force 
components to achieve the force mix that made the most strategic sense. 
The changes in this plan were closely coordinated with our Air National 
Guard and Air Force Reserve partners, as well as our major commands and 
affected regional combatant commanders.
    The partnership between the active duty and Air Force Reserve 
components at Hill Air Force Base, Utah was one of the first Total 
Force Integration (TFI) initiatives. The classic association with the 
Air Force Reserve regarding F-16s at Hill Air Force Base, Utah has a 
proven record of success and it has yielded valuable lessons learned 
for other TFI associations. This association with the Air Force Reserve 
at Hill Air Force Base will continue to meet the needs of the combatant 
commanders during and after any force structure changes. The Air Force 
will continue to assess the impact of force structure changes on 
associate units in order to maintain an efficient and effective combat 
air force.
                       f-35 squadron at hill afb
    Question. It has been over a year and half since I was informed 
that Hill is to be one of the first two Air Forces Bases in the 
continental United States to receive an operational F-35 squadron. Now, 
I understand that Hill is only ``on track'' to receive the F-35. Why is 
the Air Force stepping back from the commitment it made?
    Is Hill going to receive one of the first two operational F-35 
squadrons in the continental United States?
    Answer. A corporate, across the Air Force, review was not used in 
developing the previous ``roadmap.'' To ensure the Air Force did not 
considered all potential basing opportunities to support basing, I 
directed the current ``Enterprise-Wide Look'' (EWL), which will include 
Hill Air Force Base, Utah. The basing process prior to Fall 2008 was 
de-centrally executed by our major commands. Basing decisions are now 
at the Headquarters Air Force level. Bringing the basing decision to 
this level improves the decision making process to meet corporate Air 
Force requirements and the EWL planning process will assist in defining 
a measured, transparent and repeatable process; allowing for a 
narrowing of the list of potential F-35 basing locations. Upon 
completion of its internal review, the Air Force will release the 
results of the EWL and its content consistent with requests for 
information from the public. It would be premature at this time to 
presuppose the results of the EWL, but we expect to finalize the 
initial candidate list for the first increment of operational bases by 
October 2009.
                         f-35 software workload
    Question. I understand 22 percent of the depot maintenance for the 
F-35 is software. Hill's Software Maintenance Group is ranked as one of 
the top software engineering corporations in the world with a Level 5 
Carnegie Mellon Software Capability Maturity rating. The additions to 
Hill's Software Center will be completed shortly.
    How is Hill's performance rated in the competition for the F-35 
software workload?
    Answer. The F-35 depot source of repair decision process for 
software is not complete, and we are several years away from any 
selection process involving the organic depots. There are ongoing 
discussions between the F-35 Program Office, the Services, and the 
prime contractor on the most cost effective method to transition 
software maintenance from the developing contractors to organic depots. 
Specifics for the timing of depot activation are dependent on 
completion of software development, results of flight test, and the 
maturation of software through the end of the system development and 
demonstration program. The F-35 Program Office will perform a study 
during 2011 on the activation costs associated with standing up organic 
software capability through the Future Years Defense Program. The depot 
source of repair decision for F-35 software is currently scheduled to 
be completed by the end of 2014.
                                 ______
                                 
           Questions Submitted to General Norton A. Schwartz
            Questions Submitted by Chairman Daniel K. Inouye
                     age and health of tanker fleet
    Question. General Schwartz, I am concerned about the aging Air 
Force tanker fleet and the health and age of the KC-135 tankers by the 
time they are replaced.
    Can you update the Committee on the status of the Air Force tanker 
fleet, including the age of the fleet and any current safety and flight 
concerns?
    Answer. The Air Force tanker force structure includes 415 KC-135 R 
and T models, and 59 KC-10A aircraft with average fleet ages of 48 
years and 24 years, respectively. Upon retirement of the last KC-135 
planned for 2040, this tanker will have reached 80 years of service. 
The KC-10 will have achieved 60 years of service upon its planned 
retirement. Investment programs for both airframes focus on safety of 
flight and obsolescence issues. The KC-135 aircraft has six ongoing 
fleet-wide modification programs:
  --Control Column Actuated Brake.--Modification preventing an unsafe 
        stabilizer trim wheel runaway condition--fleet modification 
        complete in fiscal year 2010.
  --VOR/ILS Antennae Replacement.--Replaces the obsolescent antennae 
        used for navigation and precision instrument landing systems--
        this is an fiscal year 2010 New Start program.
  --Block 45 Upgrade.--Cockpit avionics modernization replacing 
        obsolescent Autopilot, Flight Director, Radar Altimeter, and 
        Engine Instruments--contract award late fiscal year 2009.
  --Global Air Traffic Management.--Updates and replaces Communication 
        Navigation Surveillance/Air Traffic Management (CNS/ATM) 
        equipment to meet restricted airspace requirements worldwide; 
        modification complete in fiscal year 2011.
  --Enhanced Surveillance.--Replaces APX-110 transponder with APX-119, 
        providing enhanced aircraft tracking and Identify Friend or Foe 
        Mode 5 capability (complete by fiscal year 2010).
  --Mode 5.--DOD-mandated upgrade to the IFF system used for aircraft 
        identification in Air Defense Operations (fiscal year 2010 to 
        fiscal year 2012).
    The KC-10, a commercial derivative of the McDonnell Douglas DC-10-
30 delivered in 1981, provides both strategic air refueling and airlift 
for deployment, employment, redeployment and Joint/Combined support 
operations. In its current configuration, the KC-10 does not meet 
future Federal Aviation Administration/International Civil Aviation 
Organization (ICAO) CNS/ATM requirements for 2015 airspace 
restrictions. To mitigate operational risk, two modification programs 
exist for the KC-10:
  --CNS/ATM Modification.--Addresses near-term issues required to keep 
        aircraft operational within 2015 air traffic mandates/
        restrictions.
  --Boom Control Unit Replacement.--Replaces unsustainable Boom Control 
        Unit (complete 2012).
                              end strength
    Question. General Schwartz, how do you see Air Force missions 
changing as operations draw down in Iraq and increase in Afghanistan?
    Answer. The Air Force will continue to provide critical air, space 
and cyberspace capabilities to the warfighter in both Joint Operating 
Areas--Iraq and Afghanistan. Continued improvement in Iraqi security 
will permit the Air Force to move from a ``combat'' posture toward one 
more aligned with ``advise and assist,'' to include shifting focus 
toward training the Iraqi Air Force.
    In Afghanistan, the Air Force continues to provide unique 
capabilities to the Commander International Security Assistance Force 
and U.S. Forces Afghanistan. Since January 2009, the Air Force has 
increased its efforts in airlift, intelligence, surveillance and 
reconnaissance, space support, electronic warfare, close air support, 
engineering and logistics to improve the security environment in 
preparation for the Afghanistan national elections. In addition, the 
U.S. Air Force component of U.S. Central Command will increase its 
theater engagement efforts across the area of responsibility as a long-
term and enduring measure to enhance regional security and stability.
                           irregular warfare
    Question. General Schwartz, Secretary Gates has made it clear that 
irregular warfare is of equal strategic importance as the more 
traditional methods of warfare.
    Can you tell us how the Air Force plans to build its irregular 
warfare capability and how these initiatives are reflected in the Air 
Force's fiscal year 2010 budget request?
    Answer. The Air Force recognizes the important need to rebalance 
our forces with additional irregular warfare capabilities, and we have 
prioritized investments to continue growing these capabilities. 
Operations in Iraq and Afghanistan have also increased the requirement 
for low-density/high-demand personnel and platforms, and we expect this 
high demand to continue as we prosecute counterterrorism and irregular 
warfare missions. As such, we have invested additional resources in our 
Airmen and force structure to ensure that we are able to meet the 
Combatant Commander's needs, both today and in the future.
    Specifically, for the fiscal year 2010 President's budget request:
  --The Air Force gained the Direct Support airlift mission from the 
        U.S. Army. The Service will use 38 C-27J aircraft to support 
        the Time Sensitive/Mission Critical cargo requirements of the 
        U.S. Army to support irregular warfare operations. These 
        aircraft are well suited for the small fields often associated 
        with irregular warfare type missions.
  --The Air Force will support USSOCOM's equipping of 8 MC-130Ws with 
        Precision Strike packages to augment the current AC-130 fleet. 
        This will provide more aircraft for armed overwatch of ground 
        forces engaging in dispersed irregular warfare operations.
  --The Air Force will also establish in fiscal year 2010 a formal air 
        advisor training unit at a base that is yet to be determined to 
        build our international partners' ability to train partner Air 
        Forces.
  --The Air Force will be adding an additional 52 (fiscal year 2010)/
        437 (FYDP) Joint Terminal Attack Controllers and Tactical Air 
        Control Party personnel in support of Army Modularity and their 
        growth to 45 Active Duty Brigade Combat Teams. To ensure that 
        training requirements will be met, the Air Force has also 
        invested in 42 Joint Tactical Controller Training Rehearsal 
        Systems that provide high-fidelity simulator training.
  --The Air Force will also be providing dedicated liaison support 
        aligned at the Army Division level by growing from six to 
        eleven Air Support Operations Centers (ASOCs). These ASOCs will 
        add 51 (fiscal year 2010)/201 (FYDP) personnel and five 
        communications, vehicle, and battlefield equipment packages 
        that will ultimately allow the Air Force and Army airspace 
        control elements to merge into one joint organization.
  --Additional air liaison manpower (21 fiscal year 2010/91 FYDP) will 
        be added at the Army division and corps level to bolster Air 
        Force leadership and expertise of key enablers in intelligence, 
        surveillance, and reconnaissance; air mobility; space; and 
        electronic warfare.
  --The irregular campaigns we are waging in Iraq and Afghanistan are 
        ISR driven. For the foreseeable future we expect this 
        insatiable demand for ISR to continue, but in an effort to meet 
        this demand, the Air Force has surged unmanned aerial systems 
        (UASs) into the fight achieving 36 combat air patrols orbiting 
        24 hours a day, 365 days a year. The Air Force has also 
        increased investment to expand to a total of 50 UAS combat air 
        patrols by fiscal year 2011. We are also adding manpower, as 
        the number of personnel that operate and maintain these 
        systems, and process, exploit, and disseminate the intelligence 
        they gather has dramatically increased.
                       fifth generation aircraft
    Question. General Schwartz, the Air Force has gained a great deal 
of experience in building fifth generation aircraft. The F-22 aircraft 
still has a substantial maintenance burden to sustain its stealth 
characteristics.
    Will the F-35 have a more sustainable stealth profile, or will we 
be facing the time-consuming maintenance issues that the F-22 demands?
    Answer. The F-35 Program is applying low observable maintainability 
lessons learned across the spectrum, centered on designed-in 
maintainability (materials, design, repair), assessment and 
verification, and training. The low observable coating material for the 
F-35 is different than that of the F-22, and the techniques required to 
repair the F-35 coatings are different than those required for the F-
22. With the lessons learned from the F-22 program, we expect the F-35 
low observable coatings to be easier to maintain and support.
                          joint cargo aircraft
    Question. General Schwartz, we recently heard that the Air National 
Guard was expecting to receive about 48 of these aircraft with more 
going to Army Guard units.
    With a buy of just 38 aircraft, what is the basing plan?
    Answer. The fiscal year 2010 President's budget request provides 
funding for 8 C-27J aircraft for the Air Force to perform direct 
support missions. The Office of the Secretary of Defense, Joint Staff, 
National Guard Bureau, Army, and Air Force are working to develop a 
joint implementation plan which will include basing recommendations.
    The first 6 locations for 24 aircraft have been previously 
announced. They are Martin State, MD; Mansfield, OH; Bradley, CT; 
Battle Creek, MI; Fargo, ND, and Meridian, MS. Each location will 
receive four aircraft.
    The remaining 14 aircraft will be based in accordance with the Air 
Force Strategic Basing Process. The National Guard Bureau, the lead 
agency, will present the C-27J basing criteria to the Strategic Basing/
Executive Steering Group in October 2009. The recommended criteria will 
then be presented to the Secretary and Chief of Staff for final 
approval.
                   fighters in the air national guard
    Question. General Schwartz, the Air Force is focusing its fighter 
acquisition on fifth generation, or low observable, aircraft. Is 
stealth required for the Air Sovereignty mission?
    Answer. Homeland Defense is the Department of Defense's first 
priority and we are committed to the Operation NOBLE EAGLE mission 
through the long term. Stealth technology is not required to protect 
aircraft fulfilling this mission under any currently projected threat 
scenario. However, these Operation NOBLE EAGLE fighter aircraft are not 
dedicated solely to air defense and should be capable to support the 
full spectrum of combat operations.
             intelligence, surveillance and reconnaissance
    Question. General Schwartz, the Army and the Air Force have 
invested in C-12 airplanes to provide full motion video and other 
capabilities to our troops in Iraq and Afghanistan.
    Do you believe that greater efficiencies could be gained through 
common management of these programs, and if so, what might those be?
    Answer. Multiple Service acquisition entities have been tasked to 
develop and field unique, quick reaction capabilities to meet the 
increasing and urgent need for full motion video (FMV) in current 
overseas contingency operations. In response to this urgent need, the 
Air Force has already fielded 8 MC-12W Project Liberty aircraft that 
incorporate a combination of sensors (to include FMV) and are proving 
their worth in combat on each mission. The Air Force will continue this 
effort to provide a total of 37 Project Liberty aircraft. At this time, 
potential increased efficiencies of C-12 class aircraft management may 
not be possible due the wide variety and combination of C-12 aircraft 
in separate Services. These aircraft have varying sensor combinations 
assembled under quick reaction timelines required by the warfighter. 
Additionally, numerous aircrew manning and training requirements may 
preclude potential efficiencies gained through a common approach at 
this time.
    Question. General Schwartz, we have recently been informed that 
there are delays in delivering some of the Project Liberty aircraft.
    What do these delays mean for fielding the capability, and do you 
have a plan in place to fix the problems?
    Answer. The Secretary of Defense tasked the Air Force to get him a 
70 percent solution to the fight as rapidly as possible. The Air Force 
delivered an 80 percent solution to the warfighters in less than 9 
months and is now following up with an aggressive plan to add the 
remaining 20 percent through a quick reaction block upgrade program. 
The initial scope of this development effort was estimated at 8 months; 
actual results were a 7 month delivery date for aircraft numbers 1-7. 
We are now implementing lessons learned from the modification of 
aircraft tails numbers 1-7 to improve the modification process for the 
remaining deliveries. These include opening additional integration and 
kit production lines on a 24/7 schedule and improvements to the 
manufacturing and quality control processes. The first Phase II 
aircraft (tail #8) has been successfully tested in all aspects of 
mission performance and is the baseline for tails numbers 9-37. 
Lessons-learned from the development of tail #8 have been applied to 
the production line for aircraft numbers 9-37 to prevent any further 
delivery and deployment delays similar to the ones already experienced. 
No delays in the remaining aircraft deliveries are anticipated.
                       export version of the f-22
    Question. Secretary Donley, I believe the Department should 
consider an export program for the F-22 Raptor fighter aircraft. Under 
the rules for such a program, the costs for developing an export 
variant is borne by the interested nation, not the United States. This 
would enable us to provide advanced fighter capabilities to our close 
friends and allies.
    General Schwartz, how could the export of F-22 to U.S. allies in 
the Pacific Rim region affect our international relationships there? 
Would this be beneficial?
    Answer. Due to legal restrictions on discussing F-22 exports, and 
the overriding technology transfer issues involved, the Air Force does 
not have a well vetted position on this subject. However, I believe the 
export of F-22 aircraft to partner air forces would likely have a net 
negative effect on U.S. international relationships in the Pacific.
    An F-22 export program can be expected to shift focus away from F-
35 exports, likely driving undesirable price and schedule changes to 
the F-35 program. For instance, the manufacturer would divert 
engineering and management resources away from the F-35 to developing 
an F-22 export variant. Any perturbations in our close allies' F-35 
programs, induced by a mid-course U.S. Government policy modification, 
could tend to disrupt our current stable relationships.
    Finally, the exorbitant costs (well over $2 billion) associated 
with development of an export variant could well become a point of 
contention with our partners. The resulting airframe, likely different 
in many respects from the Air Force F-22 because of technology transfer 
issues, would also reduce interoperability and lessen partner 
satisfaction. Although F-22 export could also provide another avenue 
for security assistance activities, the size of the Air Force F-22 
inventory, unlike the F-15 and F-16, will prevent its development into 
a robust instrument of security cooperation. In contrast, the planned 
F-35 fleet size translates into much greater security cooperation 
opportunities which F-22 purchasers would forego. For these reasons, I 
believe F-22 export would likely have an overall negative effect.
                           irregular warfare
    Question. General Schwartz, in this time of fiscal challenge, how 
will the Air Force ensure it maintains its existing conventional 
superiority while investing in these new capabilities? Where do you 
envision trade-offs?
    Answer. The fiscal year 2010 President's budget request reflects 
tough, thoughtful decisions aimed at properly resourcing capabilities 
that enable ongoing operations, while maintaining our superiority in 
conventional capabilities. We have taken aggressive measures to balance 
our portion of the fiscal year 2010 President's budget request in a 
fiscally-constrained environment, amidst the challenges of continuing 
high operations tempo and rising operating costs. To meet the demands 
of an uncertain and dynamic international security environment, the 
fiscal year 2010 President's budget request reflects strategic balance 
across these diverse mission sets and functions.
    Question. General Schwartz, if these new initiatives are 
implemented, how will you ensure that they complement, and do not 
unnecessarily duplicate, the capabilities of existing Air Force Special 
Operations Command air advisory units?
    Answer. The Air Force strives to be a good steward of taxpayer 
dollars. Changes in doctrine, organization, training, materiel, 
leadership and education, personnel, and facilities are evaluated 
before a material solution is funded. For example, the establishment of 
the Air Advisor Schoolhouse is a foundational step towards expanding 
the Building Partner Capacity and Security Force Assistance structure 
resident in the general purpose forces of our Air Force. They will 
definitely complement the Aviation Foreign Internal Defense roles of AF 
Special Operations Squadron units, primarily the 6th Special Operations 
Squadron. The 6th Special Operations Squadron is considered the ``gold 
standard'' for aviation advising, and the time, talent, and treasure 
invested in this capability result in a graduate-level capability with 
expertise focused at regions around the globe. However, the demand 
signal for advising partner nations in aviation far exceeds what 
Special Operations Squadron units can support. But just as important, a 
large percentage of these engagement efforts do not require the 
graduate-level of expertise that a Special Operations Squadron 
provides. By developing tiered levels of expertise within the general 
purpose forces, we can work with ambassadors and country teams for a 
tailored engagement approach that complements Special Operations 
Squadron activities.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
                          joint cargo aircraft
    Question. General Schwartz, you may know that the 186th Air 
Refueling Wing currently flies KC-135 tanker aircraft out of Key Field 
in Meridian, MS. Due to a 2005 Base Realignment and Closure decision, 
all of their aircraft will be reassigned and they are scheduled to be 
replaced with Joint Cargo Aircraft. Given this direct impact on my 
State, you are probably not surprised when I tell you that I have been 
watching the Joint Cargo Aircraft program over the last few years. With 
this budget, the Department of Defense announced its decision to 
transfer the Joint Cargo Aircraft mission from the Army to the Air 
Force.
    Is it the Department's intent that only the Air Force operates the 
Joint Cargo Aircraft? If so, can you explain to the committee what 
steps you are taking to ensure the Army's logistics requirements will 
be meant in a timely manner?
    Answer. While the C-27J has been transferred exclusively to the Air 
Force, aircraft manning and basing are still being worked. As for 
ensuring we meet the Army's logistical needs, the Air Force, in 
conjunction with the Army, is rapidly developing a Concept of 
Employment (CONEMP) for the Time-Sensitive/Mission Critical (TS/MC) 
Direct Support airlift mission closely mirroring the Army's current 
operational construct. In addition, 25 percent of the crew force in the 
initial C-27J deployment in 2010 will consist of Army personnel to 
ensure an experienced core cadre to facilitate initial Air Force 
operations. Close coordination with the Army throughout the program 
transfer and into the first deployment of the C-27J in the fall of 2010 
will be the cornerstone to ensuring mission success.
                          f-15 radar upgrades
    Question. General Schwartz, I noticed funding for five additional 
Active Electronically Scanned Array radars for F-15C aircraft is number 
eight on your Unfunded Priority List. I understand this type of radar 
is being used on a number of other fighters as well and that it 
significantly enhances the capability of these aircraft in detecting 
and engaging enemy threats.
    General Schwartz, could you elaborate on the importance of the 
Active Electronically Scanned Array radar system and also tell us about 
the need for these five additional systems?
    Answer. Active Electronically Scanned Array radar on the remaining 
long-term F-15 C/Ds in the Air Force inventory adds significant 
capability ensuring their viability and utility. Among the advantages 
are significantly improved performance against cruise missiles; a near 
doubling of improvement in target acquisition and combat identification 
range; a baseline capability for digital radio frequency memory 
protection; the ability to detect and track multiple targets, and 
connectivity with on-board and off-board sensors.
    We will also obtain a smaller deployment footprint (nine to one 
pallets) and greatly improve the meantime between failures.
    Question. If funded, would these systems be installed on Active 
Duty or Air National Guard F-15C aircraft?
    Answer. Eighteen APG-63v3 Active Electronically Scanned Array 
(AESA) radars have already been funded by the Congress for the Air 
National Guard. The first 14 radars will be installed in the first 
quarter of calendar year 2010. The remaining four radars are being 
procured. Only long-term F-15s (Golden Eagles) are slated for APG-63v3 
AESA installation. The five AESA radars noted above for active duty F-
15s will be installed at the same time as the ANG radars.

                          SUBCOMMITTEE RECESS

    Chairman Inouye. And this subcommittee will meet next 
Tuesday, June 9 at 10:30 a.m. At that time, we will receive 
testimony from the Secretary of Defense, the Honorable Robert 
Gates, and from the Chairman of the Joint Chiefs of Staff, 
Admiral Michael Mullen.
    And with that, we would like to thank the men and women of 
the Air Force for their service to our country. Thank you very 
much, sir.
    General Schwartz. Thank you, Mr. Chairman, for your 
support.
    [Whereupon, at 12 noon, Thursday, June 4, the subcommittee 
was recessed, to reconvene at 10:30 a.m., Tuesday, June 9.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2010

                              ----------                              


                         TUESDAY, JUNE 9, 2009

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:28 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Leahy, Feinstein, Murray, 
Specter, Cochran, Bond, and Shelby.

                         DEPARTMENT OF DEFENSE

                        Office of the Secretary

STATEMENTS OF:
        HON. ROBERT M. GATES, SECRETARY OF DEFENSE
        ADMIRAL MICHAEL G. MULLEN, U.S. NAVY, CHAIRMAN, JOINT CHIEFS OF 
            STAFF
ACCOMPANIED BY HON. ROBERT F. HALE, UNDER SECRETARY OF DEFENSE 
            (COMPTROLLER)

                 STATEMENT OF CHAIRMAN DANIEL K. INOUYE

    Chairman Inouye. This morning the subcommittee is pleased 
to welcome Dr. Robert Gates, Secretary of Defense, and Admiral 
Mike Mullen, the Chairman of the Joint Chiefs of Staff, to 
testify on the administration's budget for fiscal year 2010. 
Mr. Secretary, while the full Senate Appropriations Committee 
has already had the pleasure of meeting with you earlier this 
year regarding the so-called supplemental bill, let me extend a 
warm welcome to you on behalf of the Defense Subcommittee.
    Your continued willingness to put your Nation's needs ahead 
of your personal interests demonstrates your unwavering 
commitment to public service and your dedication to the men and 
women in our military, and our Nation owes you a great debt of 
gratitude.
    The administration has requested $534 billion for the base 
budget of the Department of Defense, an increase of $21 billion 
over the amount enacted in the last fiscal year. Additionally, 
the administration has requested $130 billion in supplemental 
nonemergency funding for overseas contingency operations in the 
next fiscal year.
    Mr. Secretary, you have called this a reform budget and in 
recent months you have given several keynote speeches 
emphasizing in particular the need for greater balance in our 
force structure between competing requirements for irregular 
warfare and conventional warfare and for changing the way the 
Defense Department does business. This budget request before us 
reflects these priorities and, as you're well aware, it will 
raise a few questions.
    A key theme you have emphasized in recent months is the 
need to improve an institutional home in the Department of 
Defense for the warfighter engaged in the current irregular 
fight. Much of the critical force protection equipment that is 
used with great success in the theater today has been funded 
outside the regular defense budget process and is being managed 
by newly created ad hoc organizations that appear to be 
temporary in nature.
    For example, since 2005 the Department has procured over 
16,000 mine-resistant ambush-protected vehicles, funded 
entirely with supplemental appropriations. Yet even after 5 
years, the role of these vehicles in our force structure and 
the future role of the office that manages this program within 
the Department are undefined.
    Another example is the ISR Task Force, which is to 
accelerate the fielding of critical intelligence, surveillance, 
and reconnaissance assets into the theater. You have made it a 
point to emphasize these capabilities by adding $2 billion to 
the base budget for the ISR capabilities. Yet the role of this 
task force within the Department's institutional chain of 
command remains ad hoc and the future is undetermined.
    There's no question that these capabilities will be needed 
in the future. So we hope today you can illustrate to the 
subcommittee how we can institutionalize the lessons learned 
with respect to equipping our warfighter and permanently 
address the warfighter's requirements in the DOD bureaucracy 
without continuously adding bureaucratic layers.
    At the same time, Mr. Secretary, conventional threats to 
our national security remain. While irregular warfare is and 
will presumably continue to be the preferred tactic of non-
state actors, we cannot lose sight of threats from traditional 
nation states such as North Korea, Iran, and others. So as we 
consider the many adjustments your budget proposes to modernize 
programs designed to address conventional threats, it is 
important that we understand the strategic underpinnings and 
consequences of curtailing or terminating programs such as the 
F-22, the C-17 transport, or future combat systems manned 
ground vehicles.
    Now, there's no question, Mr. Secretary, that the 
requirements to winning irregular conflicts have been neglected 
too long. But I believe we must ensure that we strike the right 
balance between preparing for both irregular and regular wars, 
and we look forward to hearing your thoughts on that matter.
    Finally, Mr. Secretary, your budget emphasizes our Nation's 
greatest military asset, the All Volunteer Force, by fully 
funding end strength growth, providing for increased medical 
research, and increased funding for warfighter families. These 
programs have long been funded through supplemental 
appropriations and we welcome your commitment to our 
servicemembers and their families by institutionalizing these 
programs in the base budget.
    On the other hand, the rising military personnel and 
healthcare costs are creating budget pressures on our 
acquisition programs, calling into question the affordability 
of many high-priced platforms designed to meet specific 
military requirements.
    So, gentlemen, we have much to discuss this morning. We 
very much appreciate your being here with us today and we look 
forward to your testimony. However, before proceeding with your 
opening statements, may I call upon the vice chairman of the 
subcommittee, Senator Cochran, for comments.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you. I'm pleased to 
join you in welcoming the distinguished panel to review the 
budget request of the Department of Defense.
    Mr. Secretary, Admiral Mullen, and Comptroller Hale, we 
appreciate the hard work you're doing and the challenges you 
face, and we want to be sure that what we do will help deal 
with the problems that we face in the national security arena, 
and we thank you for your distinguished service.
    Chairman Inouye. Senator Leahy.

                 STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. Just very briefly, Mr. Chairman. I am glad 
to see the Secretary and Admiral Mullen. I've had many 
conversations with them and I appreciate their help, as well as 
Mr. Hale's assistant. I just had an opportunity to lead a 
Senate delegation on a trip to Iraq and Pakistan and 
Afghanistan. You've made some visits of your own there, which I 
think is of significance to the troops, although I think 
they're probably more excited to see Steven Colbert than they 
were to see me.
    But we did see some extremely hard-working men and women in 
uniform in each of the places we went. We also saw our 
coalition forces, especially in Afghanistan, working diligently 
and taking a large number of casualties. Canada, our neighbor 
to the North, has had many, as have other coalition nations, 
and yet they're working very, very hard.
    I wanted to be there because, as I've mentioned before, Mr. 
Secretary, the end of the year we'll see 1,800 members, up to 
1,800 members, of the 86th Infantry Brigade Combat Team from 
the Vermont National Guard going there. They're one of the only 
units with mountain skills. They train both summertime and in 
20 degree below zero weather in Vermont in the wintertime. They 
are training very hard.
    I will, Mr. Chairman, ask some questions on that. Of 
course, I'm very proud of these men and women that are going. 
But this is the largest deployment we've ever had. I see 
Senator Feinstein here. It would be the equivalent on a per 
capita basis of about 100,000 people going from California.
    Mr. Secretary, I appreciate your response and your 
willingness to work with us on some of the special situations 
the Guard will have.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    Senator Shelby.
    Senator Shelby. Mr. Chairman, I just want to welcome 
Secretary Gates here, Admiral Mullen, and Comptroller Hale. 
Thank you.
    Chairman Inouye. Thank you, Senator Shelby.Senator 
Feinstein.
    Senator Feinstein. No opening statement, Mr. Chairman. I 
just welcome Secretary Gates and Admiral Mullen.
    Chairman Inouye. Senator Bond.

                STATEMENT OF SENATOR CHRISTOPHER S. BOND

    Senator Bond. Thank you very much, Mr. Chairman.
    Welcome, Secretary Gates, Admiral Mullen. We congratulate 
you on the progress you're making in Afghanistan and Pakistan. 
It's not easy, but I think you have a way ahead with the 
counterinsurgency strategy. I will be back to ask some 
questions, but two points I want to raise with you.
    First, you have said we need to shift away from the 99 
percent exquisite, service-centric platforms that are so costly 
and so complex that they take forever to build, deploy in 
limited quantities, and we must look more to the 80 percent 
multiservice solutions that can be produced on time, on budget, 
and in significant numbers. Mr. Secretary, I'd like to know how 
that fits with the recommendation in the overhead area to go 
with the NGEO when there are a number of less expensive 
solutions that can provide a multitude of opportunities for 
getting the overhead collection we need. Chair Feinstein and I 
on the Intelligence Committee have been looking at that very 
intensely and we would like to continue the discussions with 
you on that.
    The second thing, Admiral Roughead recently stated the F/A-
18E and F is the aviation backbone of our Navy's ability to 
project power ashore, and the way the numbers of carrier-
capable strike fighters will decrease between 2016 and 2020 to 
affect our air wing capacity effectiveness. We had asked last 
year and actually set in law a requirement that there be a 
report on the multiyear procurement of the F/A-18. I believe 
that was due in March. We think that is a very important 
element to consider, particularly with the delays in time, the 
budget being exceeded, and the failure to meet operational 
standards of the plane forecast to take its place to date.
    So I will look forward to asking more about those and may 
have some questions for the record. I have another meeting I 
have to go to, but I will come back for the questions. I thank 
the chairman and the members of the subcommittee for the 
indulgence.
    Chairman Inouye. Thank you.
    Now, Mr. Secretary.
    Secretary Gates. Mr. Chairman, Senator Cochran, members of 
the subcommittee: Thank you for inviting us to discuss the 
details of the President's fiscal year 2010 defense budget. 
There is a tremendous amount of material here and I know that 
there are a number of questions, so I'll keep my opening 
remarks brief and focus on the strategy and thinking behind 
many of these recommendations. My submitted testimony has more 
detailed information on specific programmatic decisions.
    First and foremost, as you suggested and commented on, Mr. 
Chairman, this is a reform budget, reflecting lessons learned 
in Iraq and Afghanistan, yet also addressing the range of other 
potential threats around the world now and in the future. I 
visited Afghanistan last month and as we increase our presence 
there and refocus our efforts with a new strategy, I wanted to 
get a sense from the ground level of the challenges and needs 
so we can give our troops the equipment and the support to be 
successful and come home safely.
    Indeed, listening to our troops and commanders unvarnished 
and unscripted has from the moment I took this job been the 
greatest single source for ideas on what this Department needs 
to do, both operationally and institutionally. As I told a 
group of soldiers in Afghanistan, they have done their job; now 
it is time for us in Washington to do ours.
    In many respects this budget builds on all the meetings I 
have had with troops and commanders and everything that I have 
learned over the past 2\1/2\ years, all underpinning this 
budget's three principal objectives: First, to reaffirm our 
commitment to take care of the All Volunteer Force, which in my 
view represents America's greatest strategic asset. As Admiral 
Mullen says, if we don't get the people part of this business 
right, none of the other decisions will matter.
    Second, to rebalance this Department's programs in order to 
institutionalize and enhance our capabilities to fight the wars 
we are in and the scenarios we are most likely to face in the 
years ahead, while at the same time providing a hedge against 
other risks and contingencies.
    Third, in order to do this we must reform how and what we 
buy, making a fundamental overhaul of our approach to 
procurement, acquisition, and contracting.
    From these priorities flow a number of strategic 
considerations, more of which are included in my submitted 
testimony. The base budget request is for $533.8 billion for 
fiscal year 2010, a 4 percent increase over the fiscal year 
2009 enacted level. After inflation, that is 2.1 percent real 
growth. In addition, the Department's budget request includes 
$130 billion to support overseas contingency operations, 
principally in Iraq and Afghanistan.
    I know that there has been discussion about whether this is 
in fact sufficient to maintain our defense posture, especially 
during a time of war. I believe that it is. Indeed, I have 
warned in the past that our Nation must not do what we have 
done after various previous times of conflict on so many 
occasions and slash defense spending. I can assure you that I 
will do everything in my power to prevent that from happening 
on my watch.
    This budget is intended to help steer the Department of 
Defense toward an acquisition and procurement strategy that is 
sustainable over the long term, that matches real requirements 
to needed and feasible capabilities.
    As you know, this year we have funded the costs of the war 
through the regular budgeting process, as opposed to emergency 
supplementals. By presenting this budget together, we hope to 
give a more accurate picture of the costs of the wars and also 
create a more unified budget process to decrease some of the 
churn usually associated with funding for this Department.
    This budget aims to alter many programs and many of the 
fundamental ways that the Department of Defense runs its 
budgeting, acquisition, and procurement processes. In this 
respect, three points come to mind about the strategic thinking 
behind these decisions. First, sustainability. By that I mean 
sustainability in light of current and potential fiscal 
constraints. It simply is not reasonable to expect the defense 
budget to continue increasing at the same rate it has over the 
last number of years. We should be able to secure our Nation 
with a base budget of more than half a trillion dollars, and I 
believe this budget focuses money where it can most effectively 
do that.
    I also mean sustainability of individual programs. 
Acquisition priorities have changed from defense secretary to 
defense secretary, administration to administration, and 
Congress to Congress. Eliminating waste and ending requirements 
creep, terminating programs that go too far outside the line, 
and bringing annual costs for individual programs down to a 
more reasonable level will reduce this friction.
    Second, balance. We have to be prepared for the wars we are 
most likely to fight, not just the ones we have been 
traditionally best suited to fight or threats we conjure up 
from potential adversaries, who in the real world also have 
finite resources. As I've said before, even when considering 
challenges from nation states with modern militaries, the 
answer is not necessarily buying more technologically advanced 
versions of what we built on land, at sea, and in the air to 
stop the Soviets during the cold war.
    At the same time, this budget robustly funds many 
modernization programs that will sustain our significant 
advantages for potential future conflict. Where certain 
modernization programs have been cancelled because of 
acquisition, technological or requirements issues, such as FCS 
vehicles, it is our intention to re-launch those modernization 
programs on a much sounder and more sustainable basis after 
completion of the Quadrennial Defense Review (QDR), the nuclear 
posture review, the ballistic missile defense review, and the 
space policy review later this year.
    Finally, there are all the lessons learned from the last 8 
years, on the battlefield and, perhaps just as importantly, 
institutionally at the Pentagon. The responsibility of this 
Department first and foremost is to fight and win the Nation's 
wars, not just constantly prepare for them. We have to do 
better. In that respect, the conflicts we are in have revealed 
numerous problems that I am working to improve and this budget 
makes real headway in that respect.
    At the end of the day, this budget is less about numbers 
than it is about how the military thinks about the nature of 
war and prepares for the future, about how we take care of our 
people and institutionalize support for the warfighter in the 
long term, about the role of the services in how we can buy 
weapons as jointly as we fight, about reforming our 
requirements and acquisition processes.
    I know that some will take issue with individual decisions. 
I would ask, however, that you look beyond specific programs 
and instead at the full range of what we are trying to do, the 
totality of the decisions and how they will change the way we 
prepare for and fight wars in the future.
    As you consider this budget and specific programs, I would 
caution that each program decision is zero sum. A dollar spent 
for capabilities excess to our real needs is a dollar taken 
from capability we do need, often to sustain our men and women 
in combat and bring them home safely.

                           PREPARED STATEMENT

    Once again, I thank you for this subcommittee's ongoing 
support of our men and women in uniform, and we look forward to 
your questions.
    Chairman Inouye. Thank you very much, Mr. Secretary.
    [The statement follows:]
                 Prepared Statement of Robert M. Gates
                              introduction
    Mr. Chairman, Senator Cochran, members of the committee, thank you 
for inviting me to discuss the details of the President's fiscal year 
2010 defense budget. First and foremost, this is a reform budget--
reflecting lessons learned in Iraq and Afghanistan, yet also addressing 
the range of other potential threats around the world, now and in the 
future.
    I was in Afghanistan last month. As we increase our presence 
there--and refocus our efforts with a new strategy--I wanted to get a 
sense from the ground level of what the challenges and needs are so 
that we can give our troops the equipment and support to be successful 
and come home safely. Indeed, listening to our troops and commanders--
unvarnished and unscripted--has from the moment I took this job been 
the single greatest source for ideas on what the Department needs to do 
both operationally and institutionally. As I told a group of soldiers 
in Afghanistan, they have done their job. Now it is time for us in 
Washington to do ours. In many respects, this budget builds on all the 
meetings I have had with service members, and all that I have learned 
over the past 2\1/2\ years--all underpinning this budget's three 
principal objectives:
  --First, to reaffirm our commitment to take care of the all-volunteer 
        force, which, in my view represents America's greatest 
        strategic asset; as Admiral Mullen says, if we don't get the 
        people part of our business right, none of the other decisions 
        will matter;
  --Second, to rebalance this department's programs in order to 
        institutionalize and enhance our capabilities to fight the wars 
        we are in and the scenarios we are most likely to face in the 
        years ahead, while at the same time providing a hedge against 
        other risks and contingencies; and
  --Third, in order to do all this, we must reform how and what we buy, 
        meaning a fundamental overhaul of our approach to procurement, 
        acquisition, and contracting.
    From these priorities flow a number of strategic considerations, 
which I will discuss as I go through the different parts of the budget.
    The base budget request is for $533.8 billion for fiscal year 
2010--a 4 percent increase over the fiscal year 2009 enacted level. 
After inflation, that is 2.1 percent real growth. In addition, the 
Department's budget request includes $130 billion to support overseas 
contingency operations, primarily in Iraq and Afghanistan. I know there 
has been some discussion about whether this is, in fact, sufficient to 
maintain our defense posture--especially during a time of war. I 
believe it is. Indeed, I have warned in the past that our Nation must 
not do what we have done after previous times of conflict and slash 
defense spending. I can assure you that I will do everything in my 
power to prevent that from happening on my watch. This budget is 
intended to help steer the Department of Defense toward an acquisition 
and procurement strategy that is sustainable over the long term--that 
matches real requirements to needed and feasible capabilities.
    I will break this down into three sections: our people, today's 
warfighter, and the related topics of acquisition reform and 
modernization.
                               our people
    Starting with the roll-out of the Iraq surge, my overriding 
priority has been getting troops at the front everything they need to 
fight, to win, and to survive while making sure that they and their 
families are properly cared for when they return. So, the top-priority 
recommendation I made to the President was to move programs that 
support the warfighters and their families into the services' base 
budgets, where they can acquire a bureaucratic constituency and long-
term funding. To take care of people, this budget request includes, 
among other priorities:
  --$136 billion to fully protect and properly fund military personnel 
        costs--an increase of nearly $11 billion over the fiscal year 
        2009 budget level. This means completing the growth in the Army 
        and Marines while halting reductions in the Air Force and Navy. 
        The Marine Corps and Army will meet their respective end-
        strengths of 202,100 and 547,400 by the end of this fiscal 
        year, so this money will be for sustaining those force levels 
        in fiscal year 2010 and beyond;
  --$47.4 billion to fund military health care;
  --$3.3 billion for wounded, ill and injured, traumatic brain injury, 
        and psychological health programs, including $400 million for 
        research and development. We have recognized the critical and 
        permanent nature of these programs by institutionalizing and 
        properly funding these efforts in the base budget; and
  --$9.2 billion for improvements in child care, spousal support, 
        lodging, and education, some of which was previously funded in 
        the bridge and supplemental budgets.
    We must move away from ad hoc funding of long-term commitments. 
Overall, we have shifted $8 billion for items or programs recently 
funded in war-related appropriations into the base budget.
                           today's warfighter
    As I told the Congress in January, our struggles to put the defense 
bureaucracies on a war footing these past few years have revealed 
underlying flaws in the priorities, cultural preferences, and reward 
structures of America's defense establishment--a set of institutions 
largely arranged to prepare for conflicts against other modern armies, 
navies, and air forces. Our contemporary wartime needs must receive 
steady long-term funding and must have a bureaucratic constituency 
similar to conventional modernization programs and similar to what I 
have tried to do with programs to support our troops. The fiscal year 
2010 budget reflects this thinking:
    First, we will increase intelligence, surveillance and 
reconnaissance (ISR) support for the warfighter in the base budget by 
some $2 billion. This will include:
  --Fielding and sustaining 50 Predator-class unmanned aerial vehicle 
        orbits by fiscal year 2011 and maximizing their production. 
        This capability, which has been in such high demand in both 
        Iraq and Afghanistan, will now be permanently funded in the 
        base budget. It will represent a 62 percent increase in 
        capability over the current level and 127 percent from over a 
        year ago;
  --Increasing manned ISR capabilities such as the turbo-prop aircraft 
        deployed so successfully as part of ``Task Force Odin'' in 
        Iraq; and
  --Initiating research and development on a number of ISR enhancements 
        and experimental platforms optimized for today's battlefield.
    Second, we will also spend $500 million more in the base budget 
than last year to boost our capacity to field and sustain more 
helicopters--an urgent demand in Afghanistan right now. Today, the 
primary limitation on helicopter capacity is not airframes but 
shortages of maintenance crews and pilots. So our focus will be on 
recruiting and training more Army helicopter crews.
    Third, to strengthen global partnership efforts, we will fund $550 
million for key initiatives. These include training and equipping 
foreign militaries to undertake counterterrorism and stability 
operations.
    Fourth, to grow our special operations capabilities, we will 
increase personnel by more than 2,400--or 4 percent--and will buy more 
aircraft for special operations forces. We will also increase the buy 
of Littoral Combat Ships (LCS)--a key capability for presence, 
stability, and counterinsurgency operations in coastal regions--from 
two to three ships in fiscal year 2010.
    Fifth, to improve our intra-theater lift capacity, we will increase 
the charter of Joint High Speed Vessels (JHSV) from two to four until 
our own production program begins deliveries in 2011.
    And, finally, we will stop the growth of Army Brigade Combat Teams 
(BCTs) at 45 versus the previously planned 48, while maintaining the 
planned increase in end strength to 547,400. This will ensure that we 
have better-manned units ready to deploy, and help put an end to the 
routine use of stop loss--which often occurs because certain 
specialties are in high demand. This step will also lower the risk of 
hollowing the force.
                   acquisition reform and insourcing
    In today's environment, maintaining our technological and 
conventional edge requires a dramatic change in the way we acquire 
military equipment. I welcome legislative initiatives in the Congress 
to help address some of these issues and look forward to working with 
lawmakers in this regard. This budget will support these goals by:
  --Reducing the number of support service contractors from our current 
        39 percent of the workforce to the pre-2001 level of 26 percent 
        and replacing them with full-time government employees. Our 
        goal is to hire as many as 13,800 new civil servants in fiscal 
        year 2010 to replace contractors and up to 33,600 new civil 
        servants in place of contractors over the next 5 years;
  --Increasing the size of the defense acquisition workforce, 
        converting 10,000 contractors, and hiring an additional 10,000 
        government acquisition professionals by 2015--beginning with 
        4,080 in fiscal year 2010; and
  --Terminating and delaying programs whose costs are out of hand, 
        whose technologies are immature, or whose requirements are 
        questionable--for example, the VH-71 presidential helicopter.
                             modernization
    We must be prepared for the future--prepared for challenges we can 
see on the horizon and ones that we may not even have imagined. I know 
that some people may think I am too consumed by the current wars to 
give adequate consideration to our long-term acquisition needs. This 
budget provides $186 billion for modernization, which belies that 
claim.
    As I went through the budget deliberations process, a number of 
principles guided my decisions:
    The first was to halt or delay production on systems that relied on 
promising, but as yet unproven, technologies, while continuing to 
produce--and, as necessary, upgrade--systems that are best in class and 
that we know work. This was a factor in my decisions to cancel the 
Transformational Satellite (TSAT) program and instead build more 
Advanced Extremely High Frequency (AEHF) satellites.
    Second, where different modernization programs within services 
existed to counter roughly the same threat, or accomplish roughly the 
same mission, we must look more to capabilities available across the 
services. While the military has made great strides in operating 
jointly over the past two decades, procurement remains overwhelmingly 
service-centric. The Combat Search and Rescue helicopter, for example, 
had major development and cost problems to be sure. But what cemented 
my decision to cancel this program was the fact that we were on the 
verge of launching yet another single-service platform for a mission 
that in the real world is truly joint. This is a question we must 
consider for all of the services' modernization portfolios.
    Third, I looked at whether modernization programs had incorporated 
the experiences of combat operations since September 11th. This was 
particularly important to the ground services, which will be in the 
lead for irregular and hybrid campaigns of the future. The Future 
Combat Systems' ground vehicle component was particularly problematic 
in this regard.
    Fourth, I concluded we needed to shift away from the 99 percent 
``exquisite'' service-centric platforms that are so costly and so 
complex that they take forever to build, then are deployed in very 
limited quantities. With the pace of technological and geopolitical 
change, and the range of possible contingencies, we must look more to 
the 80 percent multi-service solution that can be produced on time, on 
budget, and in significant numbers.
    This relates to a final guiding principle: the need for balance--to 
think about future conflicts in a different way--to recognize that the 
black and white distinction between irregular war and conventional war 
is an outdated model. We must understand that we face a more complex 
future than that, a future where all conflict will range across a broad 
spectrum of operations and lethality. Where near-peers will use 
irregular or asymmetric tactics that target our traditional strengths. 
And where non-state actors may have weapons of mass destruction or 
sophisticated missiles. This kind of warfare will require capabilities 
with the maximum possible flexibility to deal with the widest possible 
range of conflict.
    Overall, we have to consider the right mix of weapons and platforms 
to deal with the span of threats we will likely face. The goal of our 
procurement should be to develop a portfolio--a mixture of capabilities 
whose flexibility allows us to respond to a spectrum of contingencies. 
It is my hope that the Quadrennial Defense Review will give us a more 
rigorous analytical framework for dealing with a number of these 
issues. That is one reason I delayed a number of decisions on programs 
such as the follow-on manned bomber, the next generation cruiser, as 
well as overall maritime capabilities. But where the trend of future 
conflict is clear, I have made specific recommendations.
                            air capabilities
    This budget demonstrates a serious commitment to maintaining U.S. 
air supremacy, the sine qua non of American military strength for more 
than six decades. The key points of this budget as it relates to air 
capabilities are:
  --An increase in funding from $6.8 to $10.4 billion for the fifth-
        generation F-35, which reflects a purchase of 30 planes for 
        fiscal year 2010 compared to 14 in fiscal year 2009. This money 
        will also accelerate the development and testing regime to fix 
        the remaining problems and avoid the development issues that 
        arose in the early stages of the F-22 program. More than 500 F-
        35s will be produced over the next 5 years, with more than 
        2,400 total for all the services. Russia is probably 6 years 
        away from Initial Operating Capability of a fifth-generation 
        fighter and the Chinese are 10 to 12 years away. By then we 
        expect to have more than 1,000 fifth-generation fighters in our 
        inventory;
  --This budget completes the purchase of 187 F-22 fighters--
        representing 183 planes plus the four funded in the fiscal year 
        2009 supplemental to replace one F-15 and three F-16s 
        classified as combat losses;
  --We will complete production of the C-17 airlifter program this 
        fiscal year. Our analysis concludes that we have enough C-17s 
        with the 205 already in the force and currently in production 
        to meet current and future needs;
  --To replace the Air Force's aging tanker fleet, we will maintain the 
        KC-X aerial refueling tanker schedule and funding, with the 
        intent to solicit bids this summer. Our aging tankers, the 
        lifeblood of any expeditionary force, are in serious need of 
        replacement;
  --We will retire approximately 250 of the oldest Air Force tactical 
        fighter aircraft in fiscal year 2010; and
  --Before continuing with a program for a next-generation manned 
        bomber, we should first assess the requirements and what other 
        capabilities we might have for this mission--and wait for the 
        outcome of the Quadrennial Defense Review, the Nuclear Posture 
        Review, and the outcome of post-START arms-control 
        negotiations.
                         maritime capabilities
    The United States must not take its current maritime dominance for 
granted and needs to invest in programs, platforms, and personnel to 
ensure that dominance in the future. But rather than go forward under 
the same assumptions that guided our shipbuilding during the Cold War, 
I believe we need to reconsider a number of assumptions--a process that 
will, as I mentioned, be greatly helped by the QDR.
    We must examine our blue-water fleet and the overall strategy 
behind the kinds of ships we are buying. We cannot allow more ships to 
go the way of the DDG-1000: since its inception the projected buy has 
dwindled from 32 to three as costs per ship have more than doubled.
    The healthy margin of dominance at sea provided by America's 
existing battle fleet makes it possible and prudent to slow production 
of several shipbuilding programs. This budget will:
  --Shift the Navy Aircraft Carrier program to a 5-year build cycle, 
        placing it on a more fiscally sustainable path. This will 
        result in a fleet of 10 carriers after 2040;
  --Delay the Navy CG-X next generation cruiser program to revisit both 
        the requirements and acquisition strategy; and
  --Delay amphibious ship and sea-basing programs such as the 11th 
        Landing Platform Dock (LPD) ship and the Mobile Landing 
        Platform (MLP) ship to fiscal year 2011 in order to assess 
        costs and analyze the amount of these capabilities the Nation 
        needs.
    The Department will continue to invest in areas where the need and 
capability are proven by:
  --Accelerating the buy of the Littoral Combat Ship, which, despite 
        its development problems, is a versatile ship that can be 
        produced in quantity and go to places that are either too 
        shallow or too dangerous for the Navy's big, blue-water surface 
        combatants;
  --Adding $200 million to fund conversion of six additional Aegis 
        ships to provide ballistic missile defense capabilities;
  --Beginning the replacement program for the Ohio class ballistic 
        missile submarine; and
  --Using fiscal year 2010 funds to complete the third DDG-1000 
        Destroyer and build one DDG-51 Destroyer. The three DDG-1000 
        class ships will be built at Bath Iron Works in Maine and the 
        DDG-51 Aegis Destroyer program will be restarted at Northrop 
        Grumman's Ingalls shipyard in Mississippi.
                           land capabilities
    As we have seen these last few years, our land forces will continue 
to bear the burdens of the wars we are in--and also the types of 
conflicts we may face in the future, even if not on the same scale. As 
I said earlier, we are on track with the expansion of the ground 
forces, and have added money for numerous programs that directly 
support warfighters and their families.
    Since 1999, the Army has been pursuing its Future Combat Systems--
an effort to simultaneously modernize most of its platforms, from the 
way individual soldiers communicate to the way mechanized divisions 
move. Parts of the FCS program have already demonstrated their 
adaptability and relevance to today's conflicts. For example, the 
connectivity of the Warfighter Information Network will dramatically 
increase the agility and situational awareness of the Army's combat 
formations.
    But the FCS vehicle program is, despite some adjustments, based on 
the same assumptions as when FCS was first conceived. The premise 
behind the design of these vehicles is that lower weight, greater fuel 
efficiency, and, above all, near-total situational awareness, 
compensate for less heavy armor--a premise that I believe was belied by 
the close-quarters combat, urban warfare, and increasingly lethal forms 
of ambush that we've seen in both Iraq and Afghanistan. I would also 
note that the current vehicle program does not include a role for our 
recent $25 billion investment in the MRAP vehicles being used to good 
effect in today's conflicts.
    With that in mind:
  --We have canceled the existing FCS ground vehicle program, and will 
        reevaluate the requirements, technology, and approach and then 
        relaunch a new Army vehicle modernization program, including a 
        competitive bidding process;
  --The FCS budget in fiscal year 2010 is $3 billion. I have directed 
        that the new FCS program be fully funded in the out-years; and
  --We will accelerate FCS's Warfighter Information Network development 
        and field it, along with proven FCS spin-off capabilities, 
        across the entire Army.
                            missile defense
    The United States has made great technological progress on missile 
defense in the last two decades, but a number of questions remain about 
certain technologies and the balance between research and development 
on one hand, and procurement on the other. This is one area where I 
believe the overall sustainability of the program depends on our 
striking a better balance. To this end, this budget will:
  --Restructure the program to focus on the rogue state and theater 
        missile threat. We will not increase the number of current 
        ground-based interceptors in Alaska as had been planned. But we 
        will continue to robustly fund research and development to 
        improve the capability we already have to defend against long-
        range rogue missile threats--threats that North Korea's missile 
        launch reminds us are real;
  --Cancel the second airborne laser (ABL) prototype aircraft. We will 
        keep the existing aircraft and shift the program to an R&D 
        effort. The ABL program has significant affordability and 
        technology problems and the program's proposed operational role 
        is highly questionable;
  --Terminate the Multiple Kill Vehicle (MKV) program because of its 
        significant technical challenges and the need to take a fresh 
        look at the requirement. Overall, the Missile Defense Agency 
        program will be reduced by $1.2 billion; and
  --Increase by $700 million funding for our most capable theater 
        missile defense systems like the THAAD and SM-3 programs.
                             cyber security
    To improve cyberspace capabilities, this budget:
  --Increases funding for a broad range of Information Assurance 
        capabilities to improve the security of our information as it 
        is generated, stored, processed, and transported across our IT 
        systems;
  --Increases the number of cyber experts this department can train 
        from 80 students per year to 250 per year by fiscal year 2011; 
        and
  --Establishes a cyber test range.
    There is no doubt that the integrity and security of our computer 
and information systems will be challenged on an increasing basis in 
the future. Keeping our cyber infrastructure safe is one of our most 
important national-security challenges. While information technology 
has dramatically improved our military capabilities, our reliance on 
data networks has at the same time left us more vulnerable. Our 
networks are targets for exploitation, and potentially disruption or 
destruction, by a growing number of entities that include foreign 
governments, non-state actors, and criminal elements.
                    overseas contingency operations
    As you know, this year we have funded the costs of the wars through 
the regular budgeting process--as opposed to emergency supplementals. 
By presenting this budget together, we hope to give a more accurate 
picture of the costs of the wars and also create a more unified budget 
process to decrease some of the churn usually associated with funding 
for the Department of Defense.
    We are asking for $130 billion to directly support the missions in 
Iraq and Afghanistan. This is less than the $141.7 billion we asked for 
last year through the bridge fund and the remaining supplemental 
request--which in part reflects shifting some programs into the base 
budget.
    The OCO request includes $74.1 billion to maintain our forces in 
Afghanistan and Iraq--from pre-deployment training, to transportation 
to or from theater, to the operations themselves.
  --In Afghanistan, this will support an average of 68,000 military 
        members and six Brigade Combat Team (BCT) equivalents--plus 
        support personnel; and
  --In Iraq, this will fund an average of 100,000 military members, but 
        also reflects the President's decision to cut force levels to 
        six Advisory and Assistance Brigades by August 31, 2010. 
        Compared to the fiscal year 2008 enacted levels for Operation 
        Iraqi Freedom, we are asking for less than half.
    Aside from supporting direct operations, the OCO funding also 
includes, among other programs:
  --$17.6 billion to replace and repair equipment that has been worn-
        out, damaged, or destroyed in theater. The major items include 
        helicopters, fixed-wing aircraft, trucks, Humvees, Bradleys, 
        Strykers, other tactical vehicles, munitions, radios, and 
        various combat support equipment;
  --$15.2 billion for force protection, which includes $5.5 billion for 
        MRAPs--$1.5 billion to procure 1,080 new MRAP All Terrain 
        Vehicles (ATV) for Afghanistan and $4 billion for sustainment, 
        upgrades, and other costs for MRAPs already fielded or being 
        fielded.
  --$7.5 billion for the Afghan National Security Forces (ANSF). 
        Ultimately, the Afghan people will shoulder the responsibility 
        for their own security, so we must accelerate our training of 
        their security forces in order to get more Afghans into the 
        fight;
  --$1.5 billion for the Commander's Emergency Response Fund (CERP)--a 
        program that has been very successful in allowing commanders on 
        the ground to make immediate, positive impacts in their areas 
        of operation. It will continue to play a pivotal role as we 
        increase operations in Afghanistan and focus on providing the 
        population with security and opportunities for a better life. I 
        should note that the Department has taken a number of steps to 
        ensure the proper use of this critical combat-enhancing 
        capability;
  --$1.4 billion for military construction--most of which will go 
        toward infrastructure improvements in Afghanistan to support 
        our increased troop levels; and
  --$700 million for the Pakistan Counterinsurgency Capability Fund 
        (PCCF). This program will be carried out with the concurrence 
        of the Secretary of State and will complement existing and 
        planned State Department efforts by allowing the CENTCOM 
        commander to work with Pakistan's military to build 
        counterinsurgency capability. I know there is some question 
        about funding both the PCCF and the Foreign Military Financing 
        program, but we are asking for this authority for the unique 
        and urgent circumstances we face in Pakistan--for dealing with 
        a challenge that simultaneously requires military and civilian 
        capabilities. This is a vital element of the President's new 
        Afghanistan-Pakistan strategy.
                               conclusion
    Let me close with a few final thoughts.
    This budget aims to alter many programs, and many of the 
fundamental ways that the Department of Defense runs its budgeting, 
acquisition, and procurement processes. In this respect, three key 
points come to mind about the strategic thinking behind these 
decisions.
    First of all, sustainability. By that, I mean sustainability in 
light of current and potential fiscal constraints. It is simply not 
reasonable to expect the defense budget to continue increasing at the 
same rate it has over the last number of years. We should be able to 
secure our Nation with a base budget of more than half a trillion 
dollars--and I believe this budget focuses money where it can more 
effectively do just that.
    I also mean sustainability of individual programs. Acquisition 
priorities have changed from defense secretary to defense secretary, 
administration to administration, and congress to congress. Eliminating 
waste, ending ``requirements creep,'' terminating programs that go too 
far outside the line, and bringing annual costs for individual programs 
down to more reasonable levels will reduce this friction.
    Second of all, balance. We have to be prepared for the wars we are 
most likely to fight--not just the wars we have traditionally been best 
suited to fight, or threats we conjure up from potential adversaries 
who, in the real world, also have finite resources. As I've said 
before, even when considering challenges from nation-states with modern 
militaries, the answer is not necessarily buying more technologically 
advanced versions of what we built--on land, at sea, or in the air--to 
stop the Soviets during the Cold War.
    Finally, there are all the lessons learned from the last 8 years--
on the battlefield and, perhaps just as important, institutionally back 
at the Pentagon. The responsibility of this department first and 
foremost is to fight and win wars--not just constantly prepare for 
them. In that respect, the conflicts we are in have revealed numerous 
problems that I am working to improve; this budget makes real headway 
in that respect.
    At the end of the day, this budget is less about numbers than it is 
about how the military thinks about the nature of warfare and prepares 
for the future. About how we take care of our people and 
institutionalize support for the warfighter for the long term. About 
the role of the services and how we can buy weapons as jointly as we 
fight. About reforming our requirements and acquisition processes.
    I know that some of you will take issue with individual decisions. 
I would, however, ask you to look beyond specific programs, and instead 
at the full range of what we are trying to do--at the totality of the 
decisions and how they will change the way we prepare for and fight 
wars in the future.
    Once again, I thank you for your ongoing support of our men and 
women in uniform. I look forward to your questions.

    Chairman Inouye. Admiral Mullen.

                 STATEMENT OF ADMIRAL MICHAEL G. MULLEN

    Admiral Mullen. Mr. Chairman, Senator Cochran, 
distinguished members of this subcommittee: Thank you for the 
opportunity to appear before you today.
    Let me start by saying I fully support not only the 
President's fiscal year 2010 budget submission for this 
Department, but more specifically the manner in which Secretary 
Gates developed it. He presided over a comprehensive and 
collaborative process the likes of which, quite frankly, I've 
not seen in more than a decade of doing this sort of work in 
the Pentagon.
    Over the course of several months and a long series of 
meetings and debates, every service chief and every combatant 
commander had a voice and every one of them used it. Normally, 
as you know, budget proposals are worked from the bottom up, 
with each service making the case for specific programs and 
then fighting it out at the end to preserve those that are most 
important to them. This proposal was done from the top down. 
Secretary Gates gave us broad guidance, his overall vision, and 
then gave us the opportunity to meet it.
    Everything was given a fresh look and everything had to be 
justified. Decisions to curtain or eliminate a program were 
based solely on its relevance and on its execution. The same 
can be said for those we decided to keep. If we are why we buy, 
I believe the force we are asking you to help us buy today is 
the right one, both for the world we're living in and the world 
we may find ourselves living in 20 to 30 years down the road.
    This submission before you is just as much a strategy as it 
is a reform budget. First and foremost, it makes people our top 
strategic priority. I've said many times and I remain 
convinced, the best way to guarantee our future security is to 
support our troops and their families. It is the recruit and 
the retain choices of our families and, quite frankly, American 
citizens writ large, that will make or break the All Volunteer 
Force. They will be less inclined to make those decisions 
should we not be able to offer them viable career options, 
adequate healthcare, suitable housing, advanced education, and 
the promise of a prosperous life long after they've taken off 
the uniform.
    This budget devotes more than one-third of the total 
request to what I would call the people account, with the great 
majority of that figure, nearly $164 billion, going to pay 
military pay and healthcare. I am particularly proud of the 
funds we've dedicated to caring for our wounded. There is in my 
view no higher duty for this Nation or for those of us in 
leadership positions than to care for those who sacrificed so 
much and who must now face lives forever changed by wounds both 
seen and unseen.
    I know you share that feeling, and thank you for the work 
you've done in this subcommittee and throughout the Congress to 
pay attention to these needs and to the needs of the families 
of our fallen. Our commitment to all of them must be for the 
remainder of their lives.
    That's why this budget allocates funds to complete the 
construction of additional wounded warrior complexes, expands 
the pilot program designed to expedite the processing of 
injured troops through the disability evaluation system, 
increases the number of mental health professionals assigned to 
deployed units, and devotes more resources to the study and 
treatment of post-traumatic stress and traumatic brain 
injuries.
    After nearly 8 years of war, we are the most capable and 
combat experienced military we've ever been, certainly without 
question the world's best counterinsurgency force. Yet, for all 
this success, we are pressed and still lack a proper balance 
between OPTEMPO and home tempo, between unconventional and 
conventional capabilities, between readiness today and 
readiness tomorrow.
    That, Mr. Chairman, is the second reason this budget of 
ours acts as a strategy for the future. It seeks balance. By 
investing more heavily in critical enablers, such as aviation, 
special forces, cyber operations, civil affairs, language 
skills, it rightly makes winning the wars we are in our top 
operational priority. By adjusting active army BCT growth to 
45, it helps ensure our ability to impact the fight sooner, 
increase dwell time, and reduce our overall demand on 
equipment. By authorizing Secretary Gates to transfer money to 
the Secretary of State for reconstruction, security, or 
stabilization, it puts more civilian professionals alongside 
warfighters in more places like Iraq and Afghanistan.
    I said it before, but it bears repeating: More boots on the 
ground are important, but they will never be completely 
sufficient. We need people with graphing tablets and shovels 
and teaching degrees. We need bankers and farmers and law 
enforcement experts.
    As we draw down responsibly in Iraq and shift the main 
effort to Afghanistan, we need a more concerted effort to build 
up the capacity of our partners. The same can be said of 
Pakistan, where boots on the ground aren't even an option.
    Some will argue this budget devotes too much money to these 
sorts of low intensity needs, that it tilts dangerously away 
from conventional capabilities. In my view it does not. A full 
35 percent of this submission is set aside for modernization 
and much of that will go to what we typically consider 
conventional requirements. We know there are global risks and 
threats out there not tied directly to the fight against Al 
Qaeda and other extremist groups, threats like those we awoke 
to on this past Memorial Day, when the stability of an entire 
region was shaken by the increasing belligerence of North 
Korea.
    The work of defending this Nation does not fit nicely into 
any one bucket. It spans the entire spectrum of conflict. We 
must be ready to deter and win all wars, big and small, near 
and far. With this budget submission, the Nation is getting the 
military it needs for that challenge. It's getting a strategy 
for the future.

                           PREPARED STATEMENT

    Thank you all for your continued support and for all you do 
to support the men and women of the United States military and 
their families.
    Chairman Inouye. Thank you very much, Admiral Mullen.
    [The statement follows:]
            Prepared Statement of Admiral Michael G. Mullen
    Chairman Inouye, Senator Cochran, distinguished members of the 
Committee, it is my privilege to report on the posture of the United 
States Armed Forces.
    First, I would like to thank our Service men and women and their 
families. Those who defend this Nation and the families who support 
them remain our most valuable national assets and deserve continued 
gratitude. I want especially to honor the sacrifices of our wounded, 
their families, and the families of the fallen. We are redefining our 
duty to them as a Nation, a duty which I believe lasts for life. I 
thank everyone in this distinguished body for their continued efforts 
in support of this cause.
    Your Armed Forces stand as the most combat experienced in this 
Nation's history. Deeply experienced from decades of deployments in 
harm's way and from 7\1/2\ years of war, they have remained resilient 
beyond every possible expectation. They make me, and every American, 
very proud.
    I am grateful for your understanding of the stress our Armed Forces 
and their families are under. Your recognition of their burdens and 
uncertainties has been a vital constant throughout these challenging 
times. Thank you for your support of initiatives such as transferring 
G.I. Bill benefits to military spouses and children, military spouse 
employment support, expanded childcare and youth programs, homeowner's 
assistance programs, and, most importantly, long-term comprehensive 
support of Wounded Warrior families.
    This testimony comes after a notable transition of administration, 
the first during wartime since 1968 and the first since the 9/11 
attacks on the homeland. Conducted in the face of threats and continued 
wartime missions overseas, the transition was marked by courtesy and 
concern for the mission and our forces from start to finish. Transition 
obviously means change, but in this case, it also meant continuity in 
providing for the common defense. Continuity has been and is 
particularly important at this juncture as we implement the key 
strategic changes underway that end the war in Iraq through a 
transition to full Iraqi responsibility and reinforce a whole of 
government effort in Afghanistan and Pakistan.
    While several key developments have emerged since I last testified, 
in particular the global economic crisis, the three strategic 
priorities for our military that I outlined last year remain valid. 
First, we must continue to improve stability and defend our vital 
national interests in the broader Middle East and South Central Asia. 
Second, we must continue efforts to reset, reconstitute, and revitalize 
our Armed Forces. Third, we must continue to balance global strategic 
risks in a manner that enables us to deter conflict and be prepared for 
future conflicts. The three strategic priorities are underpinned by the 
concept of persistent engagement, which supports allies and partners 
through programs abroad and at home and which must be led by and 
conducted hand-in-hand with our interagency partners to achieve 
sustainable results.
                            key developments
    Over the past year your Armed Forces continued to shoulder a heavy 
burden worldwide, particularly in the Middle East and South Central 
Asia. Our emphasis has rightfully remained on the ongoing wars in 
Afghanistan and Iraq and against al-Qaeda extremists, though we remain 
ready to face other global challenges.
    Per the President's guidance on February 27th, we will end our 
combat mission in Iraq by August 31, 2010. The Joint Chiefs and I 
believe this is a prudent course given the sustained security gains we 
have seen to date and Iraq's positive trajectory. This current plan 
preserves flexibility through early 2010 by conducting the majority of 
the drawdown after the Iraqi election period. In the meantime, our 
troops are on course to be out of Iraqi cities by June of this year and 
two more brigades will return to the United States without replacement 
by the end of September. Drawing down in Iraq is not without risks. 
Lingering political tensions remain and violence could flare from time 
to time. Assuming no major surprises, however, we will successfully 
transition fully to the advise and assist mission over the next 16 
months and lay the groundwork for a continued partnership with Iraq 
that promotes security in the region.
    In Afghanistan and Pakistan we are providing additional resources 
to address the increase in violence. The strategic goal as outlined by 
the President on March 27, 2009, is to disrupt, dismantle, and defeat 
al-Qaeda and its extremist allies in Pakistan and Afghanistan and to 
prevent their return to either country. As that strategy was being 
developed, we began responding to conditions on the ground by 
reinforcing the International Security and Assistance Force commander 
with some 17,700 troops, the majority of which will arrive by this 
summer. Our aim in Afghanistan is to check the momentum of the 
insurgency, train additional forces, and ensure security for the Afghan 
national elections in August, while in Pakistan we will work with the 
Pakistani military to further develop their counterinsurgency skills 
and build stronger relationships with Pakistani leaders at all levels.
    We will shift the main effort from Iraq to Afghanistan in the 
coming year, though our residual footprint in Iraq will remain larger 
than in Afghanistan until well into 2010. The strategic environment we 
face beyond these ongoing conflicts is uncertain and complex. In the 
near term, we will maintain focus on threats to our vital national 
interests and our forces directly in harm's way. Increasingly, the 
greatest mid-term military threats will come from transnational 
concerns--the proliferation of nuclear weapons and missile technology, 
transnational terrorism, competition over energy, water, and other 
vital resources, natural disasters and pandemics, climate change, and 
space vulnerabilities.
    A prominent aspect of this shifting strategic environment is the 
disturbing trend in cyber attacks, where we face both state and non-
State actors. Cyberspace is a borderless domain wherein we operate 
simultaneously with other U.S. Government agencies, allies, and 
adversaries. Effectiveness is increasingly defined by how well we share 
information, leverage technology, and capitalize on the strength of 
others. When appropriate, DOD will lead. Likewise, when appropriate, 
DOD will provide support and ensure collective success. Our national 
security and that of our allies is paramount.
    A critical new challenge has been added to the strategic 
environment--the global economic crisis. Although we do not fully 
understand the impact or depth of this worldwide recession, dire 
economic conditions increase the pressures for protectionism. They also 
staunch the flow of remittances, which provide enormous benefits to 
developing nations. Prolonged downturns can generate internal strife, 
authoritarian rule, virulent nationalism, manufactured crises, and 
state conflict. Decreased energy prices have also affected the global 
economy, on one hand reducing the resources available to some malicious 
actors, but on the other hand hurting some key allies. Any conflict 
involving a major energy producer, however, could escalate prices 
rapidly, which would undoubtedly hamper prospects for a quicker global 
recovery. Economic concerns will increasingly be the lens through which 
we--and our partners and competitors--filter security considerations. 
Many nations may decrease expenditures on defense and foreign 
assistance, thus making smaller the pool of collective resources with 
which we have to address challenges. We will work through our routine 
military-to-military contacts to address this tendency directly and 
help to coordinate priorities, emphasizing that we are all bound 
together in this global economy.
    Winning our Nation's current and future wars requires concurrent 
efforts to restore the vitality of the Armed Forces and balance global 
risk. I am grateful for Congress's continued support of the programs 
designed to return our units to the desired levels of readiness and for 
the honest debate engendered in these chambers to ascertain national 
interests and determine the best mix of capabilities and programs to 
protect those interests. The ability to debate these national choices--
openly and transparently--is just one of the attractive features of our 
Republic that others seek to emulate.
    Our military remains capable of protecting our vital national 
interests. At the same time, the strain on our people and equipment 
from more than 7 years of war has been tremendous. There is no tangible 
``peace dividend'' on the horizon given the global commitments of the 
United States. We still face elevated levels of military risk 
associated with generating additional ground forces for another 
contingency should one arise. I do not expect the stress on our people 
to ease significantly in the near-term given operations in the Middle 
East, the strategic risk associated with continued regional instability 
in South Central Asia, and the uncertainty that exists globally. Over 
the next 2 years the number of forces deployed will remain high. The 
numbers will reduce, but at a gradual pace. The drawdown in Iraq is 
weighted in 2010, with the bulk of the combat brigades coming out after 
the Iraqi elections. At the same time, through the course of 2009 and 
into 2010, we will be reinforcing the effort in Afghanistan. Only in 
2011 can we expect to see marked improvements in the dwell time of our 
ground forces.
    We cannot--and do not--face these global challenges alone. We 
benefit greatly from networks of partners and allies. Despite the 
economic downturn, the bulk of the world's wealth and the majority of 
the world's most capable militaries are found in those nations we call 
friends. Persistent engagement maintains these partnerships and lays 
the foundation upon which to build effective, collective action in 
times of security and economic crisis. In the coming years we must be 
careful not to shunt aside the steady work required to sustain these 
ties. By maintaining regional security partnerships, developing and 
expanding effective information sharing networks, and continuing 
military-to-military outreach, we improve the ability to monitor the 
drivers of conflict and help position our Nation for engagement rather 
than reaction. Such engagement also propels us toward the common good, 
relieves some of the burden on our forces, improves the protection of 
the homeland, and helps secure U.S. vital national interests.
 defend vital national interests in the broader middle east and south 
                              central asia
    Given its strategic importance and our vital national interests, 
the United States will continue to engage in the broader Middle East 
and South Central Asia--as a commitment to friends and allies, as a 
catalyst for cooperative action against violent extremism, as a 
deterrent against state aggression, as an honest broker in conflict 
resolution, and as a guarantor of access to natural resources. Yet we 
recognize that our presence in these regions can be more productive 
with a lower profile. The Iraq drawdown is the first step on the path 
to that end.
    Attaining our goals in these critical regions requires time, 
resources, and endurance. Most of the challenges in the region are not 
military in nature and can only be met successfully from within. Our 
role remains one essentially of consistent, transparent partnership 
building. These actions send an unmistakable message to all that the 
United States remains committed to the common good, while steadily 
expanding the sets of partnerships available to address future 
challenges.
    Central to these efforts in the Middle East and South Central Asia 
will be the relentless pressure we maintain on al-Qaeda and its senior 
leadership. Al-Qaeda's narrative will increasingly be exposed as 
corrupt and self-limiting. Though too many disaffected young men still 
fall prey to al-Qaeda's exploitation, I believe the populations in the 
region will ultimately reject what al-Qaeda offers. Our priority effort 
will remain against al-Qaeda, but we will also take preventative 
measures against the spread of like-minded violent extremist 
organizations and their ideologies to neighboring regions such as the 
Horn of Africa and the Sahel. The U.S. military's task is to partner 
with affected nations to combat terrorism, counter violent extremism, 
and build their capacity to shoulder this same burden.
    Afghanistan and Pakistan are central fronts in the fight against 
al-Qaeda and militant global extremism and must be understood in 
relation to each other. Afghanistan requires additional resources to 
counter a growing insurgency partially fed by safe havens and support 
networks located within Pakistan. Additional U.S. troops will conduct 
counterinsurgency operations to enhance population security against the 
Taliban in south/southwest Afghanistan and to accelerate and improve 
training and mentoring of Afghan security forces. As in Iraq, our 
troops will live among the population. We must make every effort to 
eliminate civilian casualties, not only because this is the right thing 
to do but also because it deprives the Taliban of a propaganda tool 
that exploits Afghan casualties and calls into question U.S./NATO 
endurance and effectiveness in providing security. Although we must 
expect higher Alliance casualties as we go after the insurgents, their 
sanctuaries, and their sources of support, our extended security 
presence must--and will--ultimately protect the Afghan people and limit 
both civilian and military casualties. Our troops will integrate 
closely with Afghan forces, with the objective of building Afghan 
security forces that are capable of assuming responsibility for their 
country's security.
    We expect the reinforcements to have the most pronounced effect 
over the next 12-24 months. Security gains can only be assured when 
complemented by development and governance programs designed to build 
greater self sufficiency over time. Our commanders in the field can lay 
some of this groundwork through the proven Commanders Emergency 
Response Program to start smaller projects quickly, but these projects 
can not compensate for the larger, enduring programs required. A 
temporary boost in security that is not matched with commensurate 
political and economic development will not only fail to generate faith 
in the Afghan government and fail to convince Afghans of our 
commitment, but also fail to accomplish our objectives. Over time, 
these objectives will be met more through civilian agencies and non-
governmental organizations, with a lighter military presence. Getting 
to that point, however, requires that military forces generate the 
security required for political and economic initiatives to take root.
    Pakistan is crucial to our success in Afghanistan. In my nine trips 
to Pakistan, I've developed a deeper understanding of how important it 
is that we, as a Nation, make and demonstrate a long term commitment to 
sustaining this partnership. We are taking multiple approaches to 
rebuild and strengthen relationships and address threats common to both 
of our nations. One key approach in the near term is to help Pakistan's 
military to improve its overall--and specifically its 
counterinsurgency--capabilities. Beyond the trainers we will continue 
to provide, the Pakistani Counterinsurgency Capability Fund and 
Coalition Support Funds provide us the means to address this issue 
directly, and I ask the Congress to support these initiatives and 
provide the flexibility to accelerate their implementation. We are 
committed to comprehensive accountability measures to ensure that these 
funds go exactly where they are intended to go and do not compromise 
other USG humanitarian assistance objectives. These programs will help 
the Pakistanis take continued action to combat extremist threats in 
western Pakistani territories which will complement the reinforcement 
of troops and special operations efforts in Afghanistan to maintain 
pressure on al-Qaeda and Taliban leadership. In addition to these 
initiatives, steady support of the Foreign Military Sales and Foreign 
Military Financing programs will help us to address the needs expressed 
by Pakistan's leaders and validated by our civil-military leadership. 
We will also be well served by the substantially larger request for 
International Military Education and Training exchanges with Pakistan, 
to help reconnect our institutions and forge lasting relationships. 
Military programs must also be supplemented by non-military investment 
and continued engagement, which further confirm our Nation's long term 
commitment.
    In all, we must recognize the limits of what can be accomplished at 
what price and at what pace in both countries. This will be a long 
campaign. We are committed to providing sustained, substantial 
commitment to Afghanistan and Pakistan. Progress in Afghanistan and 
Pakistan will be halting and gradual, but we can steadily reduce the 
threats to our Nation that emanate from conditions in those countries.
    In Iraq, we are on the path to stability and long-term partnership 
as codified in the Security Agreement. Political, ethnic, and sectarian 
tensions may continue to surface in sporadic bouts of violence. But we 
also expect that Iraq's Security Forces will continue to improve, 
malign Iranian influence will not escalate, and, although resilient, 
al-Qaeda in Iraq will not be able to regroup and reestablish the 
control it once had. I am heartened by the conduct of Iraq's provincial 
elections in January and the election of a new Speaker of the Council 
of Representatives and expect additional political progress in the 
coming year.
    The drawdown in Iraq carries inherent risks. But the plan that is 
underway provides sufficient flexibility for the ground commander to 
adjust to Iraqi political and security developments and to deal with 
the unexpected. We are currently working with Multi-National Force-
Iraq, CENTCOM, SOCOM, TRANSCOM, and the Services on the mechanics of 
the drawdown and the composition of the roughly 35,000- to 50,000-
strong transition force provided for in the Status of Forces Agreement 
that will remain in Iraq after August 31, 2010, to advise and assist 
the Iraqi Security Forces, conduct counter terrorism operations, and 
provide force protection to civilian agencies.
    The Iranian government's sponsorship of violent surrogates and 
failure to improve the confidence of the international community in the 
intent of its nuclear program, contribute to instability in the broader 
Middle East. Iran's Islamic Revolutionary Guard Corps--Qods Force 
orchestrates the activities of its proxies in Iraq and Afghanistan, 
across the Levant, and beyond. Through these proxies, Iran inserts 
itself into the Israeli-Palestinian situation and Lebanese internal 
politics by its direct support of Hamas and Hizballah. Iran's continued 
failure to comply with U.N. Security Council resolutions and cooperate 
fully with the IAEA cast doubt on the exclusively peaceful nature of 
its nuclear program. Our allies in the region share our deep concerns 
about Iran's nuclear policies, which if unchecked could lead to further 
regional proliferation as other States would seek nuclear weapons as a 
hedge--an outcome that would serve neither Iran nor the region. Iran 
could be an immensely constructive actor in the region, and its choices 
in the near term will have far reaching consequences. As the 
administration pursues diplomacy with Iran to address these serious 
concerns, we will continue to work with the international community to 
convince Iran to comply with its international obligations under U.N. 
Security Council resolutions.
    Al-Qaeda has expressed the desire for WMD and its intent to strike 
the homeland is undisputed. Al-Qaeda would also likely use WMD against 
populations in the broader Middle East. Consequently, the nexus between 
violent extremism and the proliferation of WMD remains a grave threat 
to the United States and our vital national interests. The defeat of 
al-Qaeda would significantly diminish the threat from this nexus, but 
does not fully remove it given the conceptual blueprint already 
established for other extremists. We will continue to support national 
efforts to counter, limit, and contain WMD proliferation from both 
hostile state and non-State actors. We will also team with partners 
inside and outside the broader Middle East to reduce vulnerabilities 
and strengthen regional governments' confidence that we can address the 
WMD threat. But we must recognize that this threat requires vigilance 
for the duration, given the magnitude of damage that can be wrought by 
even a single incident.
    The Israeli-Palestinian conflict, in particular the violence in 
Gaza in from Operation Cast Lead in the Gaza Strip in late December 
2008 and January 2009, continues to cast a pall across the region. The 
Peace Process is primarily a diplomatic endeavor, but one we support 
fully through such initiatives as the training and advising of 
legitimate Palestinian security forces, exchanges with Israeli 
counterparts, and cooperation with Arab military partners. These 
initiatives support broader national endeavors aimed at a reduction in 
violence, greater stability, and peaceful co-existence in this critical 
region.
          reset, reconstitute, and revitalize the armed forces
    Protecting our Nation's interests in recent years has required the 
significant commitment of U.S. military forces. Indeed, extensive 
security tasks remain before us as we pursue the stated objectives in 
Iraq, Afghanistan and Pakistan, defeat the al-Qaeda network, prevent 
the spread of WMD, deter conflict, preserve our ability to project and 
sustain military power at global distances, and maintain persistent 
engagement with allies and partners around the globe. At the core of 
our ability to accomplish all of these tasks are the talented, trained, 
and well-equipped members of the Armed Forces. I remain convinced that 
investment in our people is the best investment you make on behalf of 
our citizens.
    The pace of current commitments has prevented our forces from fully 
training for the entire spectrum of operations. Consequently, readiness 
to address the range of threats that might emerge has declined. The 
demands we have put on our people and equipment over the past 7 years 
are unsustainable over the long-term. As we continue to 
institutionalize proficiency in irregular warfare, we must also restore 
the balance and strategic depth required to ensure national security. 
Continued operations that are not matched with appropriate national 
resources will further degrade equipment, platforms, and, most 
importantly, our people.
    Our Nation's service members and their families are at the core of 
my efforts to reset, reconstitute, and revitalize our forces. Every 
decision I make takes into consideration their well-being. The All-
Volunteer Force has accomplished every mission it has been given, but 
at a high price. I do not take their service for granted and recognize 
the limits of their endurance. I remain extremely concerned about the 
toll the current pace of operations is taking on them and on our 
ability to respond to crises and contingencies beyond ongoing 
operations in Iraq and Afghanistan.
    The dwell time of units is one key metric we watch closely for the 
Army and Marine Corps. Dwell time remains at approximately 1:1 for 
ground units, meaning 1 year deployed and 1 year at home for the Army, 
7 months deployed/7 months at home for the Marine Corps, and similar 
cycles for the Airmen and Sailors serving in joint expeditionary 
taskings. Dwell time will improve, but we cannot expect it to return to 
an interim 1:2 or the desired 1:3 or better for several years given the 
number of ground forces still tasked with re-posturing to Afghanistan, 
the advise and assist mission in Iraq after drawdown, and other global 
commitments. Special Operations Forces (SOF) face similar deployment 
cycles but improvements in their dwell time will lag the Army and 
Marine Corps given the demand for SOF expertise in the irregular 
warfare environment we face. A key part of the effort to improve dwell 
time is the continued commitment to the size of the Army, Marine Corps, 
and Special Operations Forces as reflected in the 2010 budget. 
Institution of the ``Grow the Force'' initiative is an indispensable 
element of the long-term plan to restore readiness.
    Our recruiters met the missions of their military departments for 
fiscal year 2008 and are well on track for fiscal year 2009. The 
Services have been able to reduce the number of conduct waivers issued 
and the Army in the recruiting year to date has seen a marked increase 
in the number of high school graduates joining its ranks, exceeding the 
Department of Defense Tier 1 Educational Credential Standard of 90 
percent for all three Army components--Active, Army National Guard, and 
Army Reserve. Retaining combat-proven leaders and the people with the 
skills we need is just as important. The Services have benefited from 
the full range of authorities given to them by Congress as retention 
incentives. I ask for your continued support of these programs, in 
particular the bonuses used by the Services to retain key mid-career 
active duty officers and enlisted. I also ask for your continued 
support of incentives for Reserve and National Guard service to provide 
flexibility and enhanced retirement benefits. We have made important 
strides in the past year in equipping these vital members of the Total 
Force, and their performance over the past 7 years of war has been 
superb. Economic conditions will ameliorate some of the recruiting and 
retention pressure in the coming year, but we must recognize that 
personnel costs will continue to grow as we debate the national level 
of investment in defense.
    As Chairman of the Joint Chiefs of Staff, I have spent the last 18 
months meeting with Soldiers, Sailors, Airmen, Marines, Coast 
Guardsmen, and civilian public servants. In them I recognize the 
differences in our generations, with the younger ones ever more 
comfortable with social networking and technology. Yet I recognize in 
all of them a strong thread of continuity that stretches back to the 
Nation's beginnings. That thread is a keen awareness of how they and 
their influencers--parents, teachers, coaches, and peers--perceive the 
manner in which today's veterans are treated. Service members know that 
the American people stand fully behind them, regardless of varying 
opinions over American policy. The All-Volunteer Force has earned this 
trust and confidence. This contract must be renewed every day with the 
American people, who can never doubt that we will be good stewards of 
their most precious investment in their armed forces--the sons and 
daughters who serve our Nation.
    Emblematic of that stewardship is the way we treat returning 
Wounded Warriors and the parents, spouses and family members who 
support them. As a Nation, we have an enduring obligation to those who 
have shouldered the load and who bear the visible and invisible scars 
of war, some of whom we unfortunately find in the ranks of the 
homeless. As leaders, we must ensure that all Wounded Warriors and 
their families receive the care, training, and financial support they 
need to become self-sufficient and lead as normal a life as possible--a 
continuum of care that lasts for life. This continuum extends 
especially to the families of the fallen. Our focus must be more on 
commitment rather than compensations, and on transition and ability 
rather than disability. To the degree that we fail to care for them and 
their families, and enable their return to as normal a life as 
possible, we undermine the trust and confidence of the American people.
    One other area that has been particularly troubling since I last 
testified is the rise in the number of service member suicides. The 
Army in particular has been hit hard by a troubling increase over the 
past 4 years and an already disturbing number of suicides in 2009. We 
do not know precisely why this is occurring, though the increased 
stress of wartime is certainly a factor. All Service leaders are 
looking hard at the problem, to include ensuring that we make a service 
member's ability to seek mental health care both unimpeded and stigma 
free. This approach requires a cultural change in all of the Services 
that will take time to inculcate, but the seeds are planted and taking 
root. The program at Fort Hood, Texas, is just one example of how a 
commander-empowered that understands the problem as a result of stress 
rather than weakness and incorporates families can sharply reduce the 
number of suicides in a specific community.
    The Department and the Services have also continued to expand 
comprehensive programs designed to prevent sexual abuse in the 
military. Such abuse is intolerable and an unacceptable betrayal of 
trust. We will continue work towards the goal of eliminating this crime 
from our ranks.
    Although the strain on our people is most acute, the strain on 
equipment and platforms is likewise significant. Through the 
reconstitution effort over the next decade, we will repair, rebuild, 
and replace the equipment that has been destroyed, damaged, stressed, 
and worn out beyond repair after years of combat operations. As 
Congress is well aware, Service equipment has been used at higher rates 
under harsher conditions than anticipated. The drawdown in Iraq through 
the end of next summer will provide us even greater first-hand insight 
into the state of ground force equipment as we retrograde multiple 
brigade combat team and enabler sets.
    Beyond the wear and tear experienced by ground vehicles in Iraq and 
Afghanistan, our airframes are aging beyond their intended service 
lives. Indeed since Desert Storm, 18 years ago, the U.S. Air Force and 
U.S. Navy have flown near continuous combat missions over the Middle 
East and the Balkans with the F-15s, F-16s, and F-18s that were 
designed in the 1960s and 1970s and which, with upgrades, have proven 
their worth repeatedly over time. We have struggled with a wide variety 
of airframes, as seen in the fleet-wide groundings of all major fighter 
weapons systems at various times over the past 5 years, the strains on 
30-year-old P-3 Orion reconnaissance aircraft, and ongoing efforts to 
retire some of our C-130 Hercules and KC-135 Strato-tankers. 
Maintaining and acquiring sufficiently robust air and naval forces 
remain pressing requirements as these assets are central to ensuring 
the command of the sea and air that enables all operations. To help pay 
for these pressing requirements we must continue to look towards 
acquisition transformation that supports accelerated fielding of 
equipment before the speed of technology eclipses its value. We also 
need to reduce stove-piped Information Technology service solutions and 
replace them wherever possible with joint enterprise solutions and 
capabilities that are more effective at reduced costs.
    Our forces have relied upon the funds appropriated in the fiscal 
year 2009 budget request to accomplish equipment reset and to address 
readiness shortfalls. Congress's continued support is necessary for the 
predictable, adequate funding required for the repair and replacement 
of both operational and training equipment. I ask for your continued 
support for the upcoming fiscal year 2010 funding request. I fully 
support the vision Secretary Gates has laid out--and which the 
President has endorsed and forwarded--for the Department and the joint 
force. This vision and its program decisions emphasize our people 
first. Our advanced technology, superior weapons systems, and proven 
doctrine won't produce effective organizations absent quality men and 
women. These decisions also balance our efforts by addressing the 
fights we are in and most likely to encounter again without sacrificing 
conventional capability. That balance helps to check programs that have 
exceeded their original design, improve efficiency, and steward the 
resources taxpayers provide us for the common defense. The holistic 
changes we are making work in combination with one another and span the 
joint force. I am confident that they not only preserve our war 
fighting edge but also inject the flexibility required to address 
today's most relevant challenges.
    An area of particular interest is energy--which is essential to 
military operations. Our in-theater fuel demand has the potential to 
constrain our operational flexibility and increase the vulnerability of 
our forces. Thus your Armed Forces continue to seek innovative ways to 
enhance operational effectiveness by reducing total force energy 
demands. We are also looking to improve energy security by 
institutionalizing energy considerations in our business processes, 
establishing energy efficiency and sustainability metrics, and 
increasing the availability of alternative sources.
    The ongoing revitalization of the joint force makes our 
conventional deterrent more credible, which helps prevent future wars 
while winning the wars we are now fighting. Restoring our forces is an 
investment in security--one which is hard in tough economic times--but 
one that is required in an exceedingly uncertain and complex security 
environment. Understanding that environment and having forces capable 
of the full range of military operations is central to balancing global 
strategic risk.
                    balancing global strategic risk
    My third priority of balancing global strategic risk is aimed at 
the core functions of our military--to protect the homeland, deter 
conflict, and be prepared to defeat enemies. Each function is tied to 
today's conflicts and each requires continuous attention. Successful 
campaigns in Iraq and Afghanistan and improved partnership with 
Pakistan will take us far in the fight against al-Qaeda, although the 
network has spread tentacles across Asia, Africa, and Europe that we 
will continue to attack. These campaigns have two functions: first, 
deterring future conflict, and second, staying prepared by building 
networks of capable partners who help us see conflict brewing and are 
ready to stand with us if prevention fails. These functions help to 
protect and secure the global commons: sea, air, space, and cyberspace. 
Increasingly, we are encountering more security challenges to these 
nodes and networks of global commerce. In cyberspace, we are continuing 
proactive steps to pursue effective organizational constructs and to 
reshape attitudes, roles, and responsibilities; we must increasingly 
see our information systems as war fighting tools equal in necessity to 
tanks, aircraft, ships, and other weapon systems. The Nation must work 
to increase the security of all vital government and commercial 
internet domains and improve coordination between all U.S. Government 
agencies and appropriate private sectors. One related step in 
strengthening the military's operations in the commons that I continue 
to support is the United States' accession to the Law of the Sea 
Convention. This Convention provides a stable legal regime by 
reaffirming the sovereign immunity of our warships, preserving the 
right to conduct military activities in exclusive economic zones, 
ensuring unimpeded transit passage through international straits, and 
providing a framework to counter excessive claims of other States.
    We must be sized, shaped, and postured globally to detect, deter, 
and confront the threats of the future. At the same time we must 
leverage the opportunities for international cooperation while building 
the capacity of partners for stability. These capacity building efforts 
are investments, with small amounts of manpower and resources, which 
can, over time, reduce the need to commit U.S. forces. I recognize, as 
do the Combatant Commanders, that our ability to do so is constrained 
by ongoing operations, but that does not make building partner capacity 
any less important. We can magnify the peaceful effects we seek by 
helping emerging powers become constructive actors in the international 
system. Fostering closer international cooperation, particularly in 
today's distressed economic climate, is one method of preventing 
nations from turning inward or spiraling into conflict and disorder.
    The wars we are fighting limit our capacity to respond to future 
contingencies and preclude robust global partnership building programs. 
While necessary, our focus on the current mission also offers potential 
adversaries, both state and non-State, incentives to act. We must not 
allow today's technological and organizational arrangements to impede 
our preparation for tomorrow's challenges, which include irregular, 
traditional and cyber warfare. In cyberspace, one often overlooked 
challenge is the need for military forces to maintain access to and 
freedom of action in this global domain. Our command and control and 
most sensitive information are constantly threatened by intrusion, 
interruption, and exploitation efforts. We must understand these risks 
in the context of the combined arms fight and carefully weigh their 
effects on our national security and global missions. This is true for 
the military as well as our Nation's public and private sector 
cyberspace. In all, we continue to mitigate the risk we face in the 
ability to respond rapidly to other contingencies through a variety of 
measures. Restoring balance to our forces, however, remains the 
principal mitigation necessary for the long-term.
    Enduring alliances and partnerships extend our reach. In each 
relationship we remain wedded to this Nation's principles which respect 
human rights and adhere to the rule of law. The 28-nation North 
Atlantic Treaty Organization, designed for a far different mission 
decades ago, has proven adaptive to the times and now leads the 
security and stability mission in Afghanistan. Australia, New Zealand, 
South Korea, and Japan have made key contributions to operations in 
Afghanistan and Iraq. India has emerged as an increasingly important 
strategic partner. We seek to mature this partnership and address 
common security challenges globally as well as within the region. 
Singapore, Indonesia, Australia, New Zealand, and the Philippines 
continue to work with us to counter international terrorist threats in 
Southeast Asia while Thailand remains a significant partner in 
supporting humanitarian assistance and disaster response in South and 
Southeast Asia. The Trans-Sahara Counterterrorism Partnership has 
worked to counter transnational terrorist threats in north and west 
Africa, and cooperative efforts with the Gulf of Guinea nations has 
generated improvements in maritime security against piracy, illegal 
trafficking, and overfishing off Africa's west coast. Multinational 
efforts in the Gulf of Aden are helping stem the unwanted scourge of 
piracy emanating from Somalia, though much work remains to be done. 
Colombia continues a successful counterinsurgency campaign in the 
Andean Ridge that reflects the patient, steady partnership between our 
nations, and we are particularly grateful for the Colombian Armed 
Forces' impressive rescue of three Americans held in FARC captivity 
last July. Military-to-military relationships with Mexico and Canada 
help to improve homeland security. In the coming year, in coordination 
with the Department of Homeland Security, we will work to improve 
cooperation with Mexico via training, resources, and intelligence 
sharing as Mexico takes on increased drug-related violence. The 
examples above represent far broader efforts and partially illuminate 
how enhancing teamwork with allies and partners helps to protect our 
shared interests. The interdependency of nations should not be allowed 
to unravel under economic duress, and these security focused programs 
are one way of reinforcing beneficial ties that bind.
    We also seek to further cooperation with States not in our formal 
alliances. We have established relationships with the nations in the 
Caucasus and Central Asia to build a transportation network in support 
of our efforts in Afghanistan. We recognize the key role Russia plays 
and are encouraged by Russian assistance with this project. There is 
more we can do together to bring peace and security to the people of 
Afghanistan. At the same time, we are troubled by the Russian-Georgian 
conflict last August and while we acknowledge Russia's security 
concerns, its actions created a more difficult international situation 
and damaged its relationship with NATO and the United States. We look 
forward to resuming military-to-military engagement, as part of our 
broader relationship, in a manner that builds confidence, enhances 
transparency, and rights the path towards cooperation.
    We likewise seek to continue improved relations with China, which 
is each year becoming a more important trading partner of the United 
States. We acknowledge the positive trends in our bilateral relations 
with China even as we maintain our capabilities to meet commitments in 
the region, given the security and stability that credible U.S. power 
has promoted in the western Pacific for over 60 years. We seek common 
understanding on issues of mutual concern but must recognize China's 
unmistakable and growing strength in technological, naval, and air 
capabilities, and this growth's effect on China's neighbors. While we 
are concerned over events such as the confrontation between U.S.N.S. 
Impeccable and Chinese vessels, we support China's growing role as a 
regional and global partner. I believe both governments can synchronize 
common interests in the Pacific. Key among these interests are 
continued joint efforts aimed at reducing the chance of conflict on the 
Korean peninsula and the return of North Korea to the Six Party Talks. 
This is particularly true given North Korea's recent nuclear test and 
continued testing of intercontinental ballistic missiles in the face of 
United Nations Security Council Resolutions demanding that it halt 
nuclear tests or launch of ballistic missiles.
    Rebalancing strategic risk also means addressing capability gaps. 
Our Nation's cyber vulnerabilities could have devastating ramifications 
to our national security interests. Interruption of access to 
cyberspace, whether in the public or private sectors, has the potential 
to substantively damage national security. We cannot conduct effective 
military operations without freedom of action in cyberspace. Addressing 
this threat, the President's budget for fiscal year 2010 includes funds 
to reduce cyber vulnerabilities and to close some of the operational 
and policy seams between military, government, and commercial Internet 
domains. Likewise, and related to maintaining a secure global 
information grid, freedom of action in Space remains vital to our 
economic, civil, and military well-being. We need to ensure access to 
cyberspace and Space as surely as we must have access to the sea and 
air lanes of the global commons. We must also balance the needs of the 
Combatant Commanders in Intelligence Surveillance and Reconnaissance 
sensors and processing infrastructure that are proving ever more 
crucial in missions that span the globe.
    Fighting and winning wars will always be the military's most 
visible mission. Preventing wars through deterrence, however, is 
preferable. In our strategic deterrence mission, deterring nuclear 
threats is most crucial. Our Nation remains engaged in many vital 
efforts to counter nuclear proliferation and reduce global stockpiles 
through international agreements and support activities. Still, many 
States and non-State actors have or actively seek these weapons. To 
preserve a credible deterrent we will need safe, secure, and reliable 
nuclear weapons, an effective infrastructure to sustain that 
enterprise, and skilled people to support it. In addition, as our 
strategic deterrence calculus expands to address new and varied 
threats, proven missile defense capabilities will remain essential as 
tools to deter, dissuade and assure in an environment of WMD and 
ballistic missile proliferation.
                         persistent engagement
    Our vital national interests call for a wise, long-term investment 
in global persistent engagement. For military forces, persistent 
engagement requires successfully conducting ongoing stability 
operations and building capacity with allies and partners. These 
efforts range from advising defense ministries to training host nation 
forces to conducting joint exercises to sharing intelligence to 
exchanging professional students. Over time, such actions help to 
provide the basic level of security from which economic development, 
representative political institutions, and diplomatic initiatives can 
take permanent root. Persistent engagement demonstrates enduring U.S. 
commitment, though, importantly, this commitment must be tempered with 
humility and a realistic assessment of the limits of our influence. The 
goal is always to empower partners, who are ultimately the only ones 
who can achieve lasting results.
    During my travels, I've developed a more comprehensive appreciation 
of the value that personal relationships, fostered over time, bring to 
our security endeavors. At the senior level, these relationships 
provide insight and alert us to signals we might have otherwise missed, 
as such, providing us warning of conflict which can then be used to 
head off a brewing storm in some cases. These relationships should not 
be limited to just senior leaders. Rather, they should be developed 
throughout the careers of our officers and their partner nation 
colleagues. Such sustained cooperation builds a network of military-to-
military contacts that ultimately provides avenues to defuse crises, 
assure access, institutionalize cooperation, and address common 
threats.
    As I noted in particular with Pakistan, the criticality of ``mil-
to-mil'' exchanges, combined exercises, schoolhouse visits, 
professional education collaboration, and many other programs are all 
part of the robust outreach we require. In particular, I ask that the 
Congress fully fund the Department of State's Foreign Military 
Financing (FMF) and International Military Education and Training 
(IMET) programs and Global Train and Equip Programs, which the 
Departments of State and Defense jointly manage. While many militaries 
around the world clamor to train with us, we reap far more than the 
costs of these programs in terms of personal, sustained relationships. 
These relationships help us bridge difficult political situations by 
tapping into trust developed over the course of years. I cannot 
overemphasize the importance of these programs. They require only small 
amounts of funding and time for long term return on investment that 
broadly benefits the United States.
    I endorse a similar approach for and with our interagency partners, 
and I fully support the building of a Civilian Response Corps. 
Achieving the objectives of any campaign requires increased emphasis 
not only on fully developing and resourcing the capacity of other U.S. 
agencies (State, USAID, Agriculture, Treasury, and Commerce and so 
forth), but also on increasing our Nation's ability to build similar 
interagency capacities with foreign partners.
                               conclusion
    In providing my best military advice over the past 18 months, one 
important point I have made, consonant with Secretary Gates, is that 
our military activities must support rather than lead our Nation's 
foreign policy. Our war fighting ability will never be in doubt. But we 
have learned from the past 7 years of war that we serve this Nation 
best when we are part of a comprehensive, integrated approach that 
employs all elements of power to achieve the policy goals set by our 
civilian leaders. To this end, I believe we should fully fund the State 
Department as the lead agent of U.S. diplomacy and development, an 
action that would undoubtedly resonate globally. This approach 
obviously requires the backing of a robust military and a strong 
economy. As we win the wars we are fighting and restore the health of 
our Armed Forces, the military's approach will increasingly support our 
diplomatic counterparts through the persistent engagement required to 
build networks of capable partners. By operating globally, hand-in-hand 
with partners and integrated with the interagency and non-governmental 
organizations, we will more successfully protect the citizens of this 
Nation.
    On behalf of our service members, I would like to thank Congress 
for the sustained investment in them and for your unwavering support in 
time of war.

                           ACQUISITION REFORM

    Chairman Inouye. Mr. Under Secretary?
    If I may now begin my questioning. Mr. Secretary, our 
troops entered Afghanistan in 2001 and our troops entered Iraq 
in 2003 and we soon learned that it wasn't what we expected and 
in some ways we weren't quite prepared. So we rapidly developed 
platforms like the MRAP and the anti-improvised explosive 
device (IED) mines. Now, why was it necessary to go outside the 
regular DOD acquisition process to get these things? And how 
can we institutionalize these activities instead of continually 
adding layers of new bureaucracy?
    Secretary Gates. We've had to go outside the regular 
bureaucracy, I think, in four major areas, one before I became 
Secretary and three subsequently. The first, that was formed 
before I became Secretary, was the effort to counter the IEDs, 
as you suggest. The subsequent ones have been for dealing with 
wounded warriors, for building the MRAPs, and for greater 
intelligence, surveillance and reconnaissance needs.
    The problem is that there were too few people that came to 
work in the Pentagon every day asking, what can I do today to 
help our warfighters succeed and come home safely. So we needed 
to go outside the regular procurement processes, because 
frankly without the top-down direction from the Secretary of 
Defense these efforts would not have been successful.
    In the case of the MRAPs, it required using a number of 
authorities provided by law only to the Secretary of Defense in 
terms of acquisition of materials and priorities and so on. But 
in other cases the solution was across multiple services and 
outside the normal bureaucratic structure.
    I believe that the services are changing the way they do 
business. For example, the Air Force just in the last year or 
so under General Schwartz's leadership has taken on board the 
significance of the ISR challenge and the need to have 
significantly larger numbers of pilots who can pilot, who can 
run these UAVs and so on. So the services I think are beginning 
to embrace the needs of the current warfighter and provide for 
them.
    Frankly, the reason for my putting a number of these things 
into the base budget is because that's where the services draw 
the resources to be able to go ahead and pursue these programs. 
For example, the ISR Task Force, my anticipation is that it 
will disappear, and one of the challenges that I've had is 
keeping it focused on what can we do in the next 2 or 3 months 
to help get more ISR capabilities into the field. The natural 
bureaucratic propensity has been to try and squeeze, because 
I'm paying attention to that task force, to try and squeeze all 
kinds of new long-term programs that'll take years and so on 
into it. So we've had to be very disciplined about keeping it 
focused on the near term while the longer term issues are taken 
care of in the regular bureaucracy.
    But I'm satisfied enough with the progress that the Air 
Force and the Army are making in the ISR area that I believe 
this task force can go away. The truth of the matter is, in the 
case of the MRAPs, had it not been for the generosity of the 
Congress and the American people, we never could have built the 
MRAPs. As you suggest, Mr. Chairman, we built and deployed some 
16,000 of these. We are now developing a new kind of MRAP for 
Afghanistan. But the total cost of that program to date has 
been about $26 billion. If we had tried to carve $26 billion 
out of the current Pentagon budget, there would have been a 
real blood-letting. So the only way we were able to do the 
MRAPs was through the special funding from the Congress.
    What I am trying to do is to bring about a change in the 
culture of the Pentagon so we can, as I described it in another 
hearing, walk and chew gum at the same time, so that we can 
energetically and with a sense of urgency deal with the wars we 
are in and at the same time plan for the future wars, which, as 
you rightfully suggested, we have to be prepared to fight.
    Chairman Inouye. Thank you.
    Admiral Mullen, many have described the acquisition process 
in DOD to be cumbersome and inflexible because we tend to seek 
the perfect solution. It takes many years to do this. But for 
the wars in Iraq and Afghanistan, we, as the Secretary pointed 
out, we have expedited the process, maybe not seeking 100 
percent, but going for 75. My question to you as a leader of 
troops: Do you believe that we are meeting the needs of 
warfighters?
    Admiral Mullen. Yes, sir. If I were to use the task force 
analogy just briefly, because I've been in this building, in 
and out, but in certainly in the last decade or so for a long 
time, I just think it takes the kind of leadership focus that 
has been offered in those to create the sense of urgency, to 
constantly update the guidance so the system does not take off 
by itself.
    It is really in those areas that the Secretary and you have 
talked--in addition, the equipment, the personal equipment for 
our warfighters, which all of us have taken a great interest 
in, and service chiefs certainly lead that as well. So from an 
equipment standpoint, absolutely. That doesn't mean that we 
won't continue to advance in some of these areas, because we 
still need more capability in terms of capacity. ISR would be a 
great example.
    I also, having participated in this acquisition for a long 
period of time, think we don't move swiftly, with the sense of 
urgency and the speed, and we do look too far out to meet the 
current needs. I've seen the kind of focus that these task 
forces have created and the leadership that's on top of them be 
able to do that. I just don't believe our system could have 
done that.
    I do think they need to at some point in time sunset, have 
a sunset clause, set the criteria out there to be absorbed in 
the system. As the Secretary has indicated, that's the case for 
the ISR Task Force.
    So I am confident we have the equipment we need. We also 
need to stay focused as the enemy changes to ensure that we 
stay ahead of the enemy as he changes his tactics.
    Secretary Gates. Mr. Chairman, let me add one more example 
of, frankly, where we, the Chairman and I, have to fight the 
inertia of the Department on a daily basis. One of the things 
that we've been trying to do this spring--this goes to Senator 
Leahy's point about his troops going to Afghanistan--is drive 
the medevac time, the time required for medevac, from 2 hours 
down to the same golden hour that exists in Iraq.
    We've made some substantial headway in this. We're now on 
average at about 68 minutes and many are much faster. I sent a 
number of additional resources forward from the Air Force and 
the Army earlier this spring, including three additional field 
hospitals. But the sad reality is that without the Chairman and 
I paying attention to this almost daily, getting it done and 
getting it done in a timely manner is just a real challenge.

                            BUDGET RATIONALE

    So at the end of the day I'm not sure that there is a 
permanent bureaucratic fix, but what it does take is the focus 
of the leadership on what's important. And that priority in my 
view, when we are at war is taking care of those who are at 
war.
    Chairman Inouye. Mr. Secretary, you suggested about 10 
percent of this budget will be for irregular warfare, about 50 
percent for conventional, strategic, traditional warfare, and 
40 percent for dual use. How did you divide it up in that 
fashion?
    Secretary Gates. Well, actually those numbers came after 
the fact, Mr. Chairman. I made the decisions on each of the 
program areas independently and in the context of each other 
from a strategic standpoint and capabilities standpoint. It was 
only after I had made all the decisions that, frankly, the guys 
who manage the money told me that that was about how the 
breakout of the percentages worked. So it basically was a 
recognition of a reality that was formed by the decisions that 
had already been made. I didn't go into it with the goal of 
shifting x dollars.
    Chairman Inouye. Thank you.
    Senator Cochran.
    Senator Cochran. Mr. Chairman.

                             MRAP VEHICLES

    I appreciate your mentioning the MRAP vehicles, the 
vehicles that have been used in Afghanistan. I wonder about 
whether the budget requests funding for the new all-terrain 
vehicle (ATV) as well, the M-ATV as it's now referred to. Will 
that be useful in Afghanistan or do you foresee other uses of 
those vehicles besides in our efforts to deal with the 
challenges in Afghanistan?
    Secretary Gates. They're primarily being designed for use 
in Afghanistan, where the extraordinary weight of the regular 
MRAPs we've designed for Iraq sometimes limits their usefulness 
off road. So what we have done in the all-terrain MRAP is to 
try and provide essentially the same level of protection, but 
with a different design that will give it more capability off 
road. There is money in the budget, both in the overseas 
contingency operation funds and also in the base budget, that 
will fund most of the requirement for the all-terrain vehicles. 
The requirement has been growing since we submitted the budget, 
and so I don't think that there's enough money in the budget to 
buy all of those needed to meet the requirement, but a 
substantial number. In fact, Mr. Hale can give you the exact 
numbers.
    Mr. Hale. We have 1,000 MRAP ATVs in the 2009 remaining 
supplemental and 1,080 in the fiscal 2010 OCOA. I believe 
Congress is adding some to the fiscal 2009 supplemental.
    Senator Cochran. In connection with ship requirements, 
we've noticed the increase in the amphibious ship fleet needs 
that go beyond traditional military missions. The tsunamis, the 
hurricanes in the Gulf of Mexico, led the military to 
contribute ships, some aircraft carrier capabilities, for 
humanitarian relief and providing food and medical supplies to 
these areas that were hard-hit.
    Do you see a continuing need for shipbuilding in the 
amphibious area because of the willingness to use those vessels 
for nontraditional missions?

                              NAVAL ISSUES

    Secretary Gates. This is one of the issues where I did not 
make any significant decisions, because I didn't feel that I 
had the analytical basis to do so. So one of the subjects that 
the Quadrennial Defense Review is addressing is the role of 
amphibious capability going forward, and not whether we need 
it, but how much we need. So that will be one of the areas of 
the QDR where I will be looking for some analytical guidance.
    But it's clear that those capabilities range far beyond the 
kind of armed intrusiveness or the armed intervention that was 
the original design purpose.

                            MISSILE DEFENSE

    Senator Cochran. The activity we've noticed with concern in 
North Korea in the recent short-range missile testing has led 
to concerns about whether or not we are moving fast enough with 
a ground-based interceptor production line. What is the 
impression that you have about the request in this budget as it 
relates to our capacity to defend ourselves against what looks 
to be an emerging and a continuing threat from North Korea and 
maybe others?
    Secretary Gates. The ground-based interceptors in Alaska 
and California clearly are an important element of defense 
against rogue state launches, and I would say in particular 
North Korea. I think the judgment and the advice that I got was 
that the 30 silos that we have now or are under construction 
are fully adequate to protect us against the North Korean 
threat for a number of years.
    Now, the reality is that if that threat were to begin to 
develop more quickly than anybody anticipates or in a way that 
people haven't anticipated, where the 30 interceptors would not 
look like they were sufficient, it would be very easy to resume 
this program and expand the number of silos.
    I was just in Fort Greeley last week and it's an immensely 
capable system, and one of the things that I think is important 
to remember is it is still a developmental system. It has real 
capabilities and I have confidence that if North Korea launched 
a long-range missile in the direction of the United States that 
we would have a high probability of being able to defend 
ourselves against it.
    But one of the things this budget does is robustly fund 
further development and testing of the interceptors at Fort 
Greeley and at Vandenberg, so that as new interceptors with new 
capabilities and that are more sophisticated are developed we 
will put those into the silos and take the old interceptors 
out. So the idea is this is not just a static system up in Fort 
Greeley, but something that is undergoing continuing 
improvement. If the circumstances should change in a way that 
leads people to believe that we need more interceptors than the 
30, then there's plenty of room at Fort Greeley to expand.
    Senator Cochran. Well, we thank you and Admiral Mullen and 
the Department and the soldiers and sailors who carry out your 
decisions well and continued success as we protect our Nation.
    Thank you.
    Chairman Inouye. Thank you very much.
    Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman.

                                MRAP ATV

    Secretary Gates, I was going to ask some questions about 
the MRAP ATV, but Senator Cochran and others have. Chairman 
Inouye has been very helpful on funding on that critical 
program.
    Mr. Hale, you had mentioned the money for it. In the 2009 
supplemental budget, we doubled it here in the Senate. We're 
now in negotiations with the other body of that. I have a 
particular interest in this. Everybody I've talked with when I 
was in Afghanistan told me how much they need this for the same 
reasons that the Secretary described. I heard from the 
commanding generals to the coalition forces and others.
    You know this terrain probably far better than I, but you 
just look at the terrain--coming from a rural mountainous area 
myself, I can easily understand why the MRAPs, as great as they 
are, with their weight, when they go off road, they're just 
going to tip over. So I hope it will happen.

                              AFGHANISTAN

    Incidentally, when we were there we visited the Kabul 
Military Training Center, Senator Whitehouse, Senator Warner--
at that sprawling former Soviet base, where the Afghan National 
Army go through a kind of basic training. I went to the 
training courses and saw what they do. The extraordinary high 
rate of illiteracy among the recruits there has to be a cause 
of concern. I saw so many of the training things where they 
were written in their language, but also almost like a comic 
book showing diagrams of people doing things.
    Then I read the article, which I'm sure you've seen, the 
C.J. Chivers article from the New York Times about the 
failures, especially in the police force, in the training of 
the police force, and then in the military and on patrol. One 
of the things that struck me is when one Afghan insulted the 
other and they started into a fistfight in the middle of 
patrol, when you're out in an area where you have to depend on 
everybody being on their highest level.
    That's on the bad side. On the good side, I heard from so 
many there how they don't see us as occupiers; they see us as 
people trying to help. They see a country, unlike some of its 
neighbors, a country probably with the potential of pulling 
this out, with our help. Our help means a lot of money and, 
unfortunately, a lot of casualties.
    How do you feel? Are we going to have a cohesive, trained 
Afghan National Army and police force? Because I don't see how 
we leave until there is one. I mean, you just look at this all 
the time, Mr. Secretary.
    Secretary Gates. Let me start and then ask Admiral Mullen 
to add in. I think our commanders are very optimistic about 
particularly the Afghan National Army. It is I think at this 
point perhaps the strongest national institution that exists in 
Afghanistan, and we are on a path to increase the size from 
about 82,000 to 134,000.
    I think a lot of the problems with the police are being 
addressed. Part of that problem is the lack of sufficient 
trainers, and part of the added forces that we're sending in 
will in fact be for training the police. We have a program 
where we're going back into districts, pulling the police force 
out, retraining them, giving them new equipment, and then 
putting them back in with police mentors. The experience with 
that program so far has been encouraging. It's still pretty 
small scale and it needs to be expanded and accelerated, and I 
hope that the addition of our trainers will be able to do that.
    But there's no question but that our ticket out of 
Afghanistan is the ability of the Afghans to maintain their own 
security. I think our commanders feel that we're on the right 
track.
    But let me ask Admiral Mullen.
    Admiral Mullen. I would only echo that, Senator Leahy, from 
the point of view that these are warriors. They are a warrior 
nation and they have been in many cases at war over the last 30 
years. We share the concern about illiteracy. That said, in my 
many visits this kind of issue has never routinely raised its 
head as something that we can't take into account and move 
forward with.
    Senator Leahy. Would you agree that there is a significant 
difference between the police and the Army.
    Admiral Mullen. Yes, sir, actually not unlike Iraq. In Iraq 
the army came quicker. It's the same thing in Afghanistan.
    Senator Leahy. But the average person is going to see the 
police before they're going to see the army in many, many 
instances in their day to day life.
    Admiral Mullen. Yes, sir.
    Senator Leahy. And if they see bribery and corruption and 
all that, that's the face of the government. I mean, it's the 
same in our country. The difference is that we've evolved so 
most of our police forces are extraordinarily well trained.
    Do you feel confident we can turn that around?
    Admiral Mullen. Yes, sir. I think it's actually Minister of 
Interior Otmar, and I don't know if you met him.
    Senator Leahy. I did.
    Admiral Mullen. He's a very impressive guy. He understands 
the problems he has and he's addressing them. It's going to 
take some time.
    This program the Secretary mentioned, which is this focused 
district development, where they go off to school for 8 or 9 
weeks and then return with mentors, is another significant step 
in the right direction. But it's going to take time, and the 
police are not going to come as fast as the army is. But it is 
the way out.
    Senator Leahy. And if your staff could keep me posted, both 
of you, on how that's going, because I'm one who wants to see 
it work, and I know a number of our Vermonters are going to be 
involved in helping to train. I think the potential is there. I 
think it's a real uphill battle.
    Thank you.
    Chairman Inouye. Thank you.
    Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman.

               AIR FORCE/ARMY AIRCRAFT ACQUISITION ISSUES

    Secretary Gates, I believe that we must have a fair, open, 
and honest Air Force tanker acquisition process that ensures 
that our men and women in uniform receive the best possible 
aircraft. It's also my belief that the upcoming request for 
proposals should utilize the best value process so that we're 
procuring the most capable tanker for our warfighters.
    We've talked about this earlier this year and it's my 
understanding that you stated that you believe the process 
should be fair, open, transparent. With regard to the process, 
who will be the acquisition authority for the upcoming tanker 
competition? Would it be the Office of the Secretary of Defense 
or the Air Force? Also, do you believe that the draft RFP will 
be released this month?
    Secretary Gates. I don't know that it will be released this 
month, and I'm in the process, the final decision process in 
terms of the acquisition authority and the structure we're 
going to put into place to ensure that it is a fair, open, and 
transparent process.
    I would expect to make the decision on the acquisition 
process within the next week or 10 days. All I have heard is 
that their hope is to put the RFP out this summer, perhaps next 
month. I'm not entirely sure about that. And we will fulfill 
the commitment that we have made to you to share the draft RFP 
here in the Congress as part of being a transparent process.
    Senator Shelby. Mr. Secretary, shifting to Army aviation, 
your proposed budget calls for an additional $500 million over 
last year's funding level to field and sustain helicopters. As 
stated in your testimony, this is an urgent demand in 
Afghanistan right now, and I support this initiative.
    I understand you've indicated the focus will be on 
recruiting and training more Army helicopter crews. Could you 
provide additional details regarding how this money would be 
spent, either now or for the record?
    Secretary Gates. I'd be pleased to do that for the record.
    [The information follows:]

    As you noted, we have an urgent need to train more 
helicopter pilots and crews. The budget request includes 
procurement to buy additional helicopters and expand operation 
and maintenance for the training. More specifically, as the 
Army developed their fiscal year 2010 budget they planned for 
an increase of $70 million for 22 light utility helicopters 
above the quantities approved for fiscal year 2009. During the 
final review of the budget, we increased the Army's aircraft 
account for the UH-60 by $156 million to bring the total 
quantity to 95 or an increase of 26 airframes above the fiscal 
year 2009 level. I am satisfied that this provides for a 
balanced increase in these various airframes.
    To meet the near-term demand for more trained pilots and 
crews, we also increased funding by $276 million for aviation 
training at Fort Rucker. This level of funding allows the Army 
to support the goal of increasing pilot throughput to 1,375 per 
year in fiscal year 2010.

    Senator Shelby. Okay.
    Secretary Gates. But let me just say that, having visited 
Fort Rucker, it's clear that the schoolhouse needs to be 
expanded and modernized.
    Senator Shelby. Thank you.

                           NAVAL SHIP ISSUES

    Admiral Mullen, the LCS, littoral combat ships. The 
Department's 2010 budget provides an increase in purchase in 
the littoral combat ship from two to three ships. Do you 
believe that this program will play a vital role in our Navy's 
future fleet, and could you tell us here the advantages that 
the Navy will gain once the service begins to utilize the LCS 
around the world?
    Admiral Mullen. I need LCS at sea deployed today. The 
urgency of that requirement has been there for a number of 
years, which is why we started this program, and that urgency 
hasn't gone away. I'll be very specific about its need in 
places like the Persian Gulf. It offers unique characteristics 
in terms of speed and mobility.
    Senator Shelby. Also firepower.
    Admiral Mullen. And firepower. It certainly provides--back 
to helicopters, if I'm short one thing sort of across the 
Department, helicopter qualifies for being at the top.
    The LCS also has a small crew. It has flexibility in its 
mission. It has the modules, depending on where you're going to 
apply it, where you're going to deploy it, whether it's mine 
warfare or anti-submarine warfare or surface warfare.
    So it's a very adaptable platform. I need them out and I 
need them in numbers as rapidly as we can get them out.
    Senator Shelby. You need them now, too, if you can.
    Admiral Mullen. Yes, sir.
    Senator Shelby. Thank you, Admiral.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    Senator Feinstein.

                        INTELLIGENCE/SATELLITES

    Senator Feinstein. Thank you very much, Mr. Chairman.
    Mr. Secretary, I'd like to put on my Intelligence hat for a 
minute. I note Senator Bond has come back. Without getting into 
details or classified matters, I wanted to ask you about the 
overhead architecture program. I think it's fair to say that 
both sides of the aisle on the Intelligence Committee are very 
concerned about matters dealing with this program, particularly 
the huge investment in electrical-optical satellites.
    Senator Bond mentioned your statement that you would not 
necessarily favor a 99 percent solution, but a lesser solution. 
So my question is, can the Department's imagery needs be met 
with a larger number of lower resolution systems?
    Secretary Gates. I have agreed with Admiral Blair on the 
architecture that is before you and before this subcommittee. I 
would say first of all that I think that the primary need for 
the very high resolution of the upper tier of capabilities is 
needed above all by the intelligence community. We have had 
those kinds of satellites--obviously, the new ones are much 
more sophisticated than when I was last in the intelligence 
business. But we have always needed that kind of resolution and 
multimission capability.
    My view, the reason that I supported going with the lower 
tier satellites, frankly is because there is some schedule and 
technology risk associated with the upper tier. I felt very 
strongly about having a capability that was proven technology 
and that we would have high confidence would work and meet, 
with the upper tier, the needs of the military.
    I would have to get back to you for the record in terms of 
what military needs are satisfied by the higher resolution 
capability.
    [The information follows:]

    Classified response was sent directly from the SECDEF's 
office to the subcommittee on August 11, 2009.

    Senator Feinstein. Well, if you would, I think both Senator 
Bond and I would appreciate it.
    We have extraordinarily serious concern involving the waste 
of many, many dollars over a period of years and are rather 
determined that that not happen again. We also have information 
that the so-called lesser tiered satellites can be just as 
effective and have a stealth capability. So if you would get 
back to us on that point, we hope to sit down with Senator 
Inouye and Senator Cochran and our staff and talk very 
seriously on this issue, because you know, to make a mistake 
once or twice is all right, but to continue that mistake 
doesn't make sense, I think, to the vice chairman or to myself 
or to other members of the subcommittee or to our technical 
advisory group who has looked at this as well.
    So if you would, I would appreciate it very much.

                                  IRAN

    Let me move on to another thing. There has been a lot of 
discussion in the public press about the possibility of Israel 
attacking Iran. I think we asked you the last time you were 
before us: In the last year, do you believe that the chances of 
that happening have gone up or down?
    Secretary Gates. Well, I'd hesitate to speculate about the 
decisions of another government. But I would say that our 
concern about the nature of the Iran problem has continued to 
rise as they continue to make further progress in enriching 
uranium and particularly in their public statements and also as 
they have enjoyed some success in their missile field.
    So I would say that our concerns with Iran's programs--and 
I believe I can say also Israel's--has continued to grow, given 
the unwillingness of the Iranians to slow, stop, or even 
indicate a willingness to talk about their programs.
    Senator Feinstein. Thank you very much.

                        AFGHANISTAN TROOP LEVELS

    A final question if I may, Mr. Chairman. It's on the 
subject of Afghanistan. We have slipped into this very easily, 
very quickly. I believe there are about 68,000 men and women 
either due to Afghanistan or already there. Is that a correct 
figure?
    Secretary Gates. Yes, ma'am.
    Senator Feinstein. And you look back at 48 years of 
history, and let me just give you one quote from a recent 
Government Accountability Office report. It said: ``Some 
progress has occurred in areas such as economic growth, 
infrastructure development, and training of the Afghan national 
security forces. But the overall security situation in 
Afghanistan has not improved after more than 7 years of United 
States and international efforts.''
    I'm one that has deep concern as to how you turn this 
country around after 40 years into a much more secure area. I 
know you're making changes and maybe they work and maybe they 
don't work. I don't know. But could you share with us how you 
see this going, because this is a large commitment over a 
substantial unknown period of time, with no known benchmarks, 
no known exit strategy at this time, but just a continuation of 
beefing up troops and changing commanders.
    So if you could give us some idea of what benchmarks you 
would hold, how you would evaluate success, where you would 
look for it, and within what timeframe, I think it would be 
very helpful.
    Secretary Gates. Let me open and then ask Admiral Mullen to 
add his thoughts. First of all, I think that the 
administration's new strategy gives us some opportunities that 
we have not had before, and I think the strategy brings a focus 
to our efforts that we may not have had before.

                              AFGHANISTAN

    The reality is the situation in Afghanistan went along okay 
after 2002 until about 2006, and it coincided to a considerable 
degree to--the beginning of greater Taliban activity in 
Afghanistan began as Pakistan began to do these peace 
agreements with various insurgent and extremist groups on their 
western border, which then freed the Taliban to come across the 
border because they had no pressure from the Pakistani army.
    That situation has continued to worsen, and it is a 
combination of the Taliban, which are the heart of the problem 
we face, but not the only piece of it--the Hakkani network, Al 
Qaeda, and Gulbaddin Hekmatyar and these others. So as this 
problem became worse in terms of the violence caused by the 
Taliban coming across the border from Pakistan, I think that 
it's self-evident that we were underresourced to deal with it. 
We did not have the military capabilities or the civilian 
capabilities in terms of counterinsurgency to be able to deal 
with it.
    I think under the administration's new strategy we'll have 
both the military and the civilian capacity to be able to make 
headway with the Afghans. I think the key here is the 
strengthening of the Afghan National Army and police that we 
talked about earlier. It is the strengthening of other 
institutions in Afghanistan.
    I think one of the things that's important to remember 
about Afghanistan is that we have 40 some other nations there 
as our allies. This is not just the United States carrying this 
by ourselves. Now, do we wish they had more troops? Do we wish 
they spent more money? Absolutely. But the fact is our allies 
have 32,000 troops in Afghanistan. This is not a trivial 
commitment on their part. As I think Senator Leahy pointed out, 
the Canadians, the British, the Australians, the Danes, and 
others have been in the fight and have lost a lot of people.
    So I think that the new strategy and now the newest 
development which gives me more hope than I've had in quite a 
while--the newest development of the Pakistani army taking on 
these extremists in Swat and elsewhere I think is an extremely 
important development, and the possibility of the Afghans, the 
Pakistanis, ourselves, and our allies together working against 
this problem has given me more optimism about the future than 
I've had in a long time in Afghanistan.
    I will say we have developed in the inter-agency benchmarks 
for success. I've pressed very hard for these because I said 
the last administration had benchmarks forced upon it; let's 
volunteer them. Let's say, here's what we think we need to 
achieve and here's how we can measure ourselves against this.
    My own view is it's very important for us to be able to 
show the American people that we are moving forward by the end 
of the year or a year from now, to show some shift in momentum. 
This is a long-term commitment, but I think the American people 
will be willing to sustain this endeavor if they believe it's 
not just a stalemate and that we're sacrificing lives and not 
making any headway. So I think the benchmarks are important and 
I think making an evaluation a year from now of where we are is 
important.
    The last point I'd make before turning it over to Admiral 
Mullen is I'm very sensitive about the number of troops we put 
into Afghanistan. I'm too familiar with the Soviets having had 
110,000 troops there and still losing. If you don't have the 
right strategy and if you don't have the Afghan people on your 
side, you will not win in Afghanistan because, as the Admiral 
said, they are a warrior nation.
    So I think that we have to be very cautious about 
significantly further expanding the American military footprint 
in Afghanistan, in my view.
    Admiral.
    Admiral Mullen. Ma'am, I'm encouraged there is a strategy 
and it's a regional strategy. It's not just Afghanistan or 
Pakistan, because I think they're inextricably linked and we've 
got to approach it in that, with that in mind.
    Second, I recognize that it has changed a lot since 2002 
and the resources we're putting in there now meet a need that 
we've had for some time. Our lessons learned from Iraq, the 
counterinsurgency force that we are, the civilian-military 
approach that we now have, obviously with Ambassador Holbrooke, 
who has focused this effort and does so full time--I believe we 
know what we need to do. I too am concerned about time and 
think that with these forces we're putting in there now we've 
got to reverse the trend of violence over the next 12 to 18 
months.
    I think it's possible. So I think we have the strategy 
right. We're resourcing it right. But I do not underestimate 
the difficulty of the challenge here, the benchmarks, not only 
in security, which are important, but also in governance and 
improvement in whether local tribal leaders, local district, 
sub-district leaders are providing for their people, and that 
we make the Afghan people the center of gravity here.
    We've been through some difficult times with civilian 
casualties. We can't keep doing that. The more we do that, the 
more we back up, and it hurts our strategy. So I am actually 
optimistic, more than I was, but I think the next 12 to 18 
months will really tell the tale.
    Secretary Gates. We heard two statistics on a 
teleconference, videoconference, with Kabul this morning from 
one of our commanders. They believe this year will be the first 
year in 30 years that Afghanistan will not need to import 
wheat, that the wheat crop is sufficiently robust that they 
won't need to import.
    And just as important, it's at basically price parity with 
poppies, and in some districts even higher value than poppies. 
So maybe I'm grasping at straws, but I thought that was pretty 
interesting.
    Senator Feinstein. It's a good one to grasp.
    Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Inouye. Senator Bond.
    Senator Bond. Thank you, Mr. Chairman.
    With respect to Afghanistan and Pakistan, I agree with what 
you've said. I believe the counterinsurgency strategy is 
important. I think we have to realize that, while our North 
Atlantic Treaty Organization (NATO) allies had many people over 
there, they very often didn't get into the fight. They were 
restrained in the compounds. They traveled around in armored 
tanks and went back home at night, and the Taliban works at 
night. We did not have an effective force.
    The Admiral has said we have to have an Afghan face. We've 
got to do that. The counterinsurgency strategy is essential. I 
know the commanders emergency response, the CERP funds, were 
used to buy wheat, at least in Nangahar Province, and that kind 
of rebuilding of agriculture I think is a critical key.
    But I would just ask you: Is it reasonable to expect the 
counterinsurgency to pacify the whole country in 12 or 18 or 
even 24 months? It seems to me we have to be realistic and we 
have to say, yes, we're seeing signs of progress. Nangahar 
Province for example is an area that I know about and poppy 
production has dropped almost to nothing. But still, does it 
not take some time to get the full benefits of the 
counterinsurgency strategy? Should we be looking at a slightly 
longer timeframe?
    Secretary Gates. Absolutely, Senator. What I was referring 
to and I think what Admiral Mullen was referring to is hoping 
to see a shift in the momentum over the course of the next year 
to 18 months. This problem will not be over in 18 months. This 
problem will not be over in 2 years. This is, let's be honest, 
a long-term commitment that we are involved in in Afghanistan 
if we are to ultimately be successful.
    I think what we are saying simply is that we think that the 
strategy needs to show some signs that it's working, not that 
it has been totally successful a year or 18 months from now.
    Senator Bond. I think you can cite Nangahar as one little 
province that's working. With the marines going into Helmand, I 
think that you'll see some changes there.
    I would mention, following up on what my good friend from 
California said, the kinds of overhead requirements you have. I 
was talking with Admiral Blair earlier this morning about 
intelligence needs in Afghanistan for the PRTs and others. He 
needed some overhead. That's the kind of thing that we think 
can very well be supplied in terms of military needs by the 
smaller, cheaper, more flexible alternatives that we would like 
to see with NGEO. We would welcome the opportunity to talk and 
we will look forward to talking with the chairman, the ranking 
member, and other members of the subcommittee in a classified 
setting about some of the problems and some of the 
opportunities.
    I hope that we will be able to continue to talk with you 
about that, because we feel very strongly about the overhead.

                          JOINT STRIKE FIGHTER

    I want to ask one other point. I agree with Admiral Mullen 
on so many things. At breakfast last week you said: ``We're all 
concerned about the industrial base. I have been for a period 
of time. The competition for who is going to build the Joint 
Strike Fighter (JSF) was done years ago, essentially moving 
down to one contractor, and that's where we are. What I worry 
about, you want as much competition for as long as you can. 
That said, we years ago got down to a minimum number of 
competitors. I'm concerned about how I do not have a lot of 
other choices about where to go to build. I think it's an 
important consideration. We need to pay attention to it.''
    I would agree with those statements and I think that 
maintaining the F/A-18 as a bridge, moving forward on the C-17, 
and the next generation bomber, which you, Mr. Secretary, you 
indicated you wish to pursue, are all parts of that strategy. I 
happen to think that, no matter who won the competition, giving 
the entire purchase was a tragic mistake on the tac air. I 
would like to hear your comments, both Secretary and Admiral, 
on the defense industrial base.
    Secretary Gates. Well, it is a concern and, frankly, the 
last time I was in Government in 1993 we had a lot of choices, 
and when we wanted to build satellites we had multiple choices 
as well. So I think that, with respect to the F/A-18, we have 
31 in the budget for fiscal year 2010. We will probably buy 
more in 2011. One of the subjects that the Quadrennial Defense 
Review is examining is the right balance for our tactical air, 
and I look forward to the conclusions of the QDR on that.

                            AIRCRAFT ISSUES

    Admiral Mullen. Senator Bond, it's a great airplane. It's 
actually at a great price. You've certainly dealt with the 
multiyear aspect of this. One of the reasons it is at a great 
price is because it has been under multiyear a number of times.
    That said, we're at a point in time where we're trying to 
figure out how long the program goes on, how many more years. 
That's really the analysis that's at the heart of this.
    As I said the other day, although I'm amazed you got 
absolutely every word I said very accurately----
    Senator Bond. My other business is intel.
    Admiral Mullen. And I do have a concern about the 
industrial base, in airplanes, in ships, in satellites. We 
dramatically brought the defense contractors together in the 
90s and that, by virtue of that, eliminated an awful lot of 
competition.
    So I don't have the answer with how we go ahead here, 
except I think we do have to pay attention to it over the long 
run and make some strategic decisions. I think the ``we'' there 
is the Department, the services, the industry itself, as well 
as here in Congress. It's that strategic relationship which I 
think is important, which says this is how much of America's 
industrial base we are going to make sure is in good shape for 
the future. The requirements of that obviously drive that 
continuation.
    As I said before and would only repeat, it was years ago 
this decision was made about the JSF and at that point in time 
it's my view we made a national decision to go down to, 
essentially to go down to one contractor for the future, and 
we're living with the results of that now.
    Senator Bond. I think that's a tragedy. I've made my point 
time and time again at these hearings year after year. I have 
an answer for you. If you ever want to call me some time, I'll 
be happy to share it with you. But I'm not the witness today, 
Mr. Secretary.
    Secretary Gates. You know, I used to be in intelligence and 
I think I know the answer.
    Senator Bond. I'll bet you do. We'll see if we can 
communicate by mental telepathy.
    But can we expect the study assessing the cost-benefits of 
an F/A-18 multiyear any time soon? I think it was requested in 
law to be delivered a couple of months ago.
    Secretary Gates. We can certainly provide a response, 
Senator. I think that what we are hoping to do is be able to 
give you a meaningful response after the QDR. If the decision, 
for example, were made to continue the F/A-18 line, then a 
multiyear contract would make all the sense in the world, for 
exactly the reasons you and Admiral Mullen have been talking 
about.
    We can provide you an interim response if you would like.
    Senator Bond. I just think that was required in law, and 
the QDR, I know everybody hypes it, but if it's just a 
justification of what you put in the budget--I hope there will 
be some thinking on that, broader thinking along the lines that 
maybe Admiral Mullen suggested and your intelligence suggests.
    So thank you, Mr. Chairman. I appreciate the opportunity.
    Chairman Inouye. Senator Specter.
    Senator Specter. Thank you, Mr. Chairman.

                            MISSILE DEFENSE

    Mr. Secretary, I was intrigued with one of the points you 
made in testifying before the Appropriations Committee on the 
war supplement, where you said that it would be useful in our 
dealings with Iran to have a missile defense that is aimed only 
at Iran, and that played into the relationship that we have 
with Russia; and it is generally recognized that if we're to be 
successful in dealing with Iran we're going to have to have 
cooperation of other countries, perhaps mostly Russia.
    We've talked before about the issue of having Russia enrich 
Iran's uranium, which Russia has offered to do and Iran has 
declined, as a way of being sure that Iran is not moving toward 
the use of enriched uranium for military purposes.
    A two-part question. No. 1: Is any progress being made on 
publicizing Russia's offer, which I think has gotten scant 
little attention, and the Iranian refusal really shows--raises 
the inference of potential bad faith? Second, where do we stand 
on efforts to pick up your suggestion that missile defense be 
aimed only at Iran and not at Russia, which has given so many 
political problems?
    Secretary Gates. First, I think that, although it's 
certainly not been a secret, it has not been I think widely 
enough publicized, Russia's offer and Iran's turn-down of it. I 
think equally not publicized was the fact that the United 
States indicated that we thought that was a pretty good idea 
and would be supportive.
    With respect to the missile defense, I still have hope that 
we can get the Russians to partner with us on missile defense 
directed against Iran.
    Senator Specter. Have we made that offer, suggesting that 
missile defense would not be aimed at Russia?
    Secretary Gates. Oh, yes. And I've made it myself to then-
President Putin and I've made it to President Medvedev. We've 
made a number of offers in terms of how to partner, and I think 
there are still some opportunities, for example perhaps putting 
radars in Russia, having data exchange centers in Russia.
    So I think the administration is very interested in 
continuing to pursue this prospect with the Russians, and it 
may be that our chances are somewhat improved or making 
progress because I think the Russians--when I first met with 
President Putin and talked about this, he basically dismissed 
the idea that the Iranians would have a missile that would have 
the range to reach much of Western Europe and much of Russia 
before 2020 or so, and he showed me a map that his intelligence 
guys had prepared. And I told him he needed a new intelligence 
service.
    The fact of the matter is the Russians have come back to us 
and acknowledged that we were right in terms of the nearness of 
the Iranian missile threat. So my hope is--and that they had 
been wrong. So my hope is we can build on that and perhaps, 
perhaps at the President's summit meeting with President 
Medvedev, perhaps begin to make some steps where they will 
partner with us and Poland and the Czech Republic in going 
forward with missile defense in this third site.
    I would say, although I took the money out of the 2010 
budget for the third site, the reason I did that is because we 
have enough money in the budget from 2009 that would enable us 
to do anything in the way of construction necessary.
    Senator Specter. Mr. Chairman, how much time do I have 
remaining? There's no clock here.

                                 SYRIA

    I'm pleased to see the announcement of the joint military 
operations or sending military commanders to Syria. It appears 
to be part of a general change in U.S. policy which I believe 
is long overdue in trying to at least explore with Syria the 
possibilities of having them stop destabilizing Lebanon and 
stop supplying Hamas and moving toward negotiations, which have 
been brokered so long now by Turkey, with Israel.
    What do you say for the opportunities to improve 
relationships with Syria along those lines?
    Secretary Gates. Well, I guess my attitude would be that 
there's no harm in trying. The CENTCOM representatives who will 
be going to Syria--I think their mandate is focused on the 
security of the border between Syria and Iraq, and particularly 
to try and enlist Syria's support in stopping the foreign 
fighters from crossing that border into Iraq and attacking us 
and the Iraqis.
    Senator Specter. I have one more question. There may be 
good news in the offing with what is happening along a number 
of fronts. The election results in Lebanon with Hezbollah 
losing and the dominance of U.S.-backed interests is certainly 
encouraging. There's speculation that President Obama's speech 
in Cairo may have had some effect on that. The political 
campaign in Iran by all press accounts is about as much of a 
political brawl as you see, I'm about to pick south 
Philadelphia as an illustration.
    The question that is in my mind, I'm interested in your 
views as to whether the change in policy toward Lebanon and 
Syria and the speech that President Obama has made--is there 
any intelligence that that is having an impact on the 
forthcoming Iranian elections and whether it has had any impact 
on the elections in Lebanon?
    Secretary Gates. I have not seen any intelligence 
specifically relating to either Lebanon or Iran on that.
    Senator Specter. Thank you very much, Mr. Secretary.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman.
    Secretary Gates and Admiral Mullen, thank you all for being 
here and for what you do for all of our men and women who serve 
this country. I really do appreciate it.
    I apologize for my voice. I was out in Seattle this week 
and it was warm weather and the allergy season went crazy. 
Secretary Gates, you're going to be out there, I believe, to 
speak to the University of Washington, so be prepared. But I 
apologize for my voice.

                              ACQUISITION

    I understand I missed some questions from Senator Shelby on 
the tanker competition and your statement that you expected 
some kind of decision on how to move forward in the next 7 to 
10 days. I wanted to ask you, is that discussion going to 
include who will lead the process, whether it's you or the Air 
Force?
    Secretary Gates. The period 7 to 10 days was how we will 
structure the acquisition and who the acquisition authority 
will be. I'm in the process of making those decisions right 
now, but have not made final decisions. I don't know with 
specificity, but, as I told Senator Shelby, our hope is to 
probably try and get the RFP out mid-summer, and we will 
fulfill our commitment to bring the draft up for you to look 
at.
    Senator Murray. I really appreciate that.
    I just wanted to ask you if you're thinking about what kind 
of measures you're going to take to make sure that we don't 
have claims of unfair evaluation or the scales being tipped one 
way or the other as we move through this.
    Secretary Gates. Well, part of the process I'm going 
through right now is to try and structure this in a way that 
puts the best people on this program and that provides a 
supervisory role; and right now, tentatively thinking, I'm 
going to clearly ask the Deputy Secretary to take a very close 
interest in this process.
    Senator Murray. Clearly this is a real challenge. We all 
want the best aircraft at the end of the day. We all want fair 
and transparent competition. Everybody's saying that and I 
think that's clear. We all want the best for the warfighter. We 
also want what's best for the taxpayer as well.
    You have been a strong proponent of the winner-take-all 
competition. Is that still your opinion at this point?
    Secretary Gates. Yes, ma'am.
    Senator Murray. Thank you very much.

                           ACQUISITION REFORM

    Secretary Gates, let me ask you. You've referred to your 
budget as a reform budget, reforming how and what we buy. I'm 
really worried about how we are balancing this acquisition 
reform effort in relation to our domestic industrial base. I'm 
worried about the long-term ability of our domestic industrial 
base to provide our military forces what they need to 
accomplish their national security missions.
    Since we talked last April, I have worked with Chairman 
Levin on the acquisition reform bill and included language to 
require a report regarding the effects that cancelling a major 
acquisition program would have on the Nation's industrial base. 
I wanted to ask you today if you can tell me how you are taking 
into account the health and longevity of our domestic 
industrial base, including our suppliers, design engineers, 
manufacturers, as you tackle acquisition reform in the DOD?
    Secretary Gates. Well, I think so far, in terms of the 
decisions that I've made, most of the decisions have not been 
taken with a view to the industrial base, but rather 
acquisition programs that had been extremely badly managed, in 
substantial measure by the Department of Defense. So I would 
say that, in all honesty, not very many of the decisions that I 
have made were made with the industrial base being as an 
important consideration, but rather as acquisition programs 
gone badly awry.
    But as we go forward, as Admiral Mullen talked about a few 
minutes ago, clearly we have concerns about the industrial 
base. But to be perfectly honest, decisions made a long time 
ago have limited our options in this respect. The best example, 
as he cited, is the Joint Strike Fighter. So we are where we 
are, and----
    Senator Murray. We are where we are, but if we keep going 
down this road then 10 years from now have to ask, oh my gosh, 
what happened? If we don't start thinking about it now, we're 
going to be in a bad place. So I agree with you, we've looked 
at acquisition reform in terms of contracts gone bad. I do 
think we have to start talking about acquisition reform in 
terms of our industrial base as well. I hope we can work with 
you on that.
    Admiral Mullen.
    Admiral Mullen. If I could just offer one other thing, and 
I spoke to this earlier. But the other thing that I have found 
which keeps primes very focused as well as subs is 
predictability. We can't keep changing the program, whatever it 
is, whoever ``we'' is, because we all do this, year after year 
after year, because they just won't plan. They won't invest in 
the industrial base if there is great uncertainty and great 
risk associated with that.
    So as we come to grips with this whole issue of 
acquisition, which I think we need to do and which this budget 
really attempts to do and the acquisition reform legislation is 
critical to that, is that is a key piece, is can we get 
programs into some level of predictability and stability.
    Senator Murray. I think that's really important. So thank 
you with that.

                          MILITARY HEALTHCARE

    Secretary Gates, I wanted to applaud the budget plan in 
terms of military healthcare. I really think it goes a long 
ways toward ensuring that all our servicemembers and their 
eligible family members have access to and get the best medical 
care possible. I just want to say, I am still, as I think all 
of you are, still very concerned about the psychological health 
of our servicemembers. We continue to see reports--and Admiral 
Mullen, I know combat-related stress is a great concern for 
you. If you can just address that for a minute here and tell us 
what you're doing systemwide to continue to focus on that?
    Admiral Mullen. Again, this budget puts a lot more money in 
that direction and that's key. We, leadership throughout the 
Department and clearly the military leadership, is very focused 
on making more capability and capacity, more mental health 
providers available. I won't rest on the fact that we're short 
nationally. If I do that, then I just accept that we're going 
to be short, and I'm not going to do that until I have no other 
choice, and I just don't believe we've wrung it out.
    We've taken some steps in the stigma issue, but that's 
still a huge issue. I don't think we really remove that until 
we get to a point where everybody receives an effective 
screening and it's not voluntary--you must do it--and create 
again opportunities to both understand when somebody is 
suffering, as so many are right now, which is pretty normal and 
pretty human.
    So leadership will continue to focus on this. In fact, it 
was at Fort Lewis--I was there maybe 18 months ago now--that 
really--Madigan has really got some very innovative staff 
personnel, medical personnel there. We're trying to pay 
attention to them and to spread those kinds of best practices.
    But we're not there yet. As long as we've been at this, 
it's still early.
    Secretary Gates. Let me just add two things. First of all, 
the Admiral mentioned money. This budget, we budgeted $428 
million just for psychological health in 2009, fiscal year 
2009. The fiscal year 2010 budget will have $750 million in it, 
so a substantial increase focused strictly on psychological 
health.

                           MENTAL HEALTHCARE

    Second, one of the things that I'd like to explore with the 
Congress and it goes to the issue of the availability of mental 
healthcare providers. The truth is there are a lot of places in 
this country where we are trying to hire them and they aren't 
available. We have hired a lot, but not as many as we would 
like.
    One of the things that I'd like to explore with the 
Congress is expanding the military medical education program so 
that it goes beyond just physicians and includes mental 
healthcare professionals, whether it's people getting master's 
degrees--and I'm not talking necessarily about funding somebody 
to become a psychiatrist, but somebody who can do counseling 
and somebody who is the first-line provider for mental 
healthcare, and to pay for that education for someone in 
exchange for a commitment to the military, and then frankly we 
will have done the country a service because then they can go 
out into the broader population.
    Senator Murray. Mr. Secretary, I think that's exactly what 
we need to be doing because, as the Admiral mentioned, this 
isn't just a DOD problem; it's a problem for everyone. And we 
can't just say we hope that they come through the other system. 
I think if the military really focuses on that and promotes and 
sustains a program within itself, it will help the military. It 
will also help the rest of us. So I think it's a great idea and 
I really would like to work with you on making that happen.
    Thank you very much, Mr. Chairman.
    Mr. Secretary, I look forward to seeing you out in Seattle 
at the Husky graduation.

                            AIRCRAFT ISSUES

    Chairman Inouye. Mr. Secretary, Admiral Mullen, as we close 
this session I'd like to make a couple of observations if I 
may. Your decision to terminate the acquisition of the C-17s, 
the F-22s, the DDG 1000, and the future combat system vehicles, 
we have concerns that it may send the wrong signal to our 
friends and our potential aggressors that we are reducing our 
capability. It may also have a long-term impact on our defense 
industrial base. It may diminish our capacity to provide 
deterrence and reduce our strength that we provide to our 
allies. We hope that this is not the consequence, but some have 
the concern.

                       VETERAN HEALTH/MENTAL CARE

    The second observation is that in that ancient war in which 
I involved myself about 65 years ago, the casualties were high, 
but the survival rate was not as good as the ones we have 
today. For example, in my regiment, which in 1 year's time we 
went through, from 5,000 men, 12,000 because of replacements, 
we had no double amputee survivor. None of those survived. Yet 
if you go to Walter Reed today, double amputations are 
commonplace.
    We had no brain injury survivors. As a result, as I look 
back, we had very little psychological concerns. But today we 
have survival rates so well because of high technology that 
double amputees, triple amputees are surviving, brain injuries 
are surviving. As we can anticipate, as Senator Murray pointed 
out, psychological problems become commonplace. I just hope 
that we are preparing ourselves to cope with all of these 
problems.

                     ADDITIONAL COMMITTEE QUESTIONS

    With that, I'd like to thank you, Mr. Secretary, Admiral 
Mullen, Secretary Hale, for your contributions today. We hope 
that we can continue our discussions because we will be 
submitting to you, if we may, questions for your concern and 
response.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                 Questions Submitted to Robert M. Gates
            Questions Submitted by Chairman Daniel K. Inouye
           institutionalizing irregular warfare capabilities
    Question. Secretary Gates, our troops entered Afghanistan in 2001 
and Iraq in 2003. We soon realized that the threat environment for our 
military operations was quite different than what we were prepared and 
equipped for. We responded by rapidly developing and fielding thousands 
of anti-IED jammers, more than 16,000 mine resistant ambush protective 
vehicles and countless intelligence, surveillance and reconnaissance 
assets. All of these programs have saved American lives, yet none of 
them are Programs of Record and they are all managed outside of the 
traditional Defense Department bureaucracy. Why was it necessary to go 
outside of the regular Department of Defense acquisition process? And 
how can we institutionalize these capabilities instead of continuously 
adding more layers to the bureaucracy?
    Answer. Force protection has always been a priority for our troops. 
The enemy we face and the tactics and technology we have employed have 
been truly remarkable. The evolving threat environment requires 
continued, proactive management of anti-IED programs to keep 
warfighters protected and as safe as possible given technological 
limitations. We learn from each innovation and that knowledge will be 
reflected in all our IED-related acquisition programs. I am very 
interested in applying these lessons to Afghanistan and to our future 
programs.
    Question. One of the reasons our acquisition system is so 
cumbersome and inflexible lies in requirements that often demand gold-
plated solutions that can take years to develop. Many of the rapid 
fielding capabilities we're now sending to theater may only represent a 
75 percent solution, but collectively, they seem to get the job done. 
What is your assessment of the new equipment we've been sending into 
theater? Are we addressing our warfighters' needs?
    Answer. In general, the new equipment fielded has had a huge impact 
in theater, especially in Iraq. The Department is capitalizing on the 
wartime procurement lessons learned so that Afghanistan can benefit 
from these experiences. Much of the rapidly, urgently fielded ISR, C2, 
UAS, force protection, and Counter-IED capabilities are typically low-
cost, commercial-off-the-shelf (COTS) or slightly modified-COTS 
solutions. The short, time-certain need period is a determinant factor. 
The speed of development and production is increasingly important. Our 
focus is to improve our ability to anticipate requirements and 
therefore minimize the need for partial solutions.
                           irregular warfare
    Question. Secretary Gates, roughly 6 months ago, your office issued 
guidance declaring irregular warfare to be as ``strategically important 
as traditional warfare''. You state that the fiscal year 2010 budget 
rebalances capabilities and provides roughly 10 percent for irregular 
warfare, 50 percent for traditional, strategic and conventional 
conflict, and 40 percent for dual-use capabilities. However, with no 
outyear budget data and no movement by the military services to 
significantly adapt doctrine and training, how can the Committee be 
assured that ``irregular warfare'' is not just a convenient way to cut 
programs or justify new programs?
    Answer. You cannot be assured that the Department of Defense is 
genuinely increasing its emphasis on irregular warfare until we 
complete our Quadrennial Defense Review and send you our fiscal year 
2011 budget and outyear plans reflecting the results of that Review. My 
decisions for the fiscal year 2010 budget were only a beginning. We 
still have to make some tough decisions and then explain how our new 
emphasis on irregular warfare is not just a convenient way to cut 
programs and justify new ones.
    Question. How will you ensure that the military services will not 
scale back their full spectrum readiness training too much, so that we 
can continue to dominate and prevail in major combat operations?
    Answer. We will ensure that prudent readiness is maintained the 
same way we traditionally do--by insisting on sufficient funding for 
readiness requirements and by having our military and civilian leaders 
checking on readiness in the field.
                    acquisition reform--requirements
    Question. Secretary Gates, as we look at improving the acquisition 
system due to massive cost overruns and schedule delays, perhaps we 
should think about the way that weapon system requirements are 
generated and validated. It appears that too often, ``requirements 
creep'', or reaching for immature technologies makes programs too 
costly and off-schedule. How can the Department better manage 
requirements, and perhaps change the service cultures, so that 
acquisition programs are more likely to provide needed capabilities on 
time and on cost?
    Answer. The Department has established a number of important new 
policies to improve requirements formulation, establish more effective 
program technical foundations, and control ``requirements creep'':
  --To reduce technical risk and refine program requirements, our 
        practice will be to conduct competitive prototyping and 
        complete Preliminary Design Reviews before we initiate a 
        program,
  --We will employ independent technical reviews to certify the 
        maturity of program technologies before we permit a program to 
        proceed to the costly final phases of development and finally,
  --We have established Configuration Steering Boards (CSBs) with broad 
        executive membership to review all requirements changes and 
        significant technical configuration changes that have the 
        potential to result in cost and schedule impacts to the 
        program.
    The intent is to prevent ``requirements creep'' and defer any 
changes to future program increments. We believe these actions, 
complemented by those directed in the Weapons System Acquisition Reform 
Act, will ensure that our requirements and acquisition approach are 
tightly related, and that this disciplined approach will result in 
significantly improved program outcomes.
    Question. Do you believe that your staff has the analytic support, 
such as modeling and simulation tools, for objective analysis to help 
prioritize requirements?
    Answer. The procedures established in the Joint Capabilities 
Integration and Development System (JCIDS) support the Chairman of the 
Joint Chiefs of Staff (CJCS) and the Joint Requirements Oversight 
Council (JROC) in identifying, assessing, and prioritizing joint 
military capability needs/requirements.
    Models and simulations are an important part of the process to 
identify capability gaps and potential materiel and non-materiel 
solutions. These are used to support the analytical process by 
objectively considering a range of operating, maintenance, sustainment, 
and acquisition approaches through the incorporation of innovative 
practices. Specifically, as new requirements are identified, models and 
simulations are used in an analysis of alternatives process to 
determine if the new requirements can be satisfied through changes in 
tactics, techniques, procedures, doctrine, training, or leadership. If 
the analysis of alternatives does not identify alternate solutions to 
the need, then models and simulations play an important role in concept 
exploration to identify costs and benefits to potential materiel 
solutions.
    Modeling and simulation tools are available and adequate for 
objective analysis; through outreach and education, we are continuing 
to improve the knowledge and expertise of the DOD modeling and 
simulation workforce.
    Question. What improvements or changes would you recommend in order 
to better manage requirements?
    Answer. We are continuously evaluating methods to streamline the 
management of requirements. To that end, we have made recent changes in 
the requirements development and management process.
  --We are limiting the number of documents that must go through joint 
        review and oversight to those that impact joint operations.
  --We have provided guidance to better scope the analysis done in the 
        capability gap assessment process. This will reduce time and 
        resources required while presenting an appropriately defined 
        requirements gap to the Joint Requirements Oversight Council 
        (JROC) for validation. This will allow the Department to move 
        more quickly from the requirements process into the acquisition 
        process.
  --We have recognized that information technology systems need to have 
        a more flexible requirements management process than 
        traditional hardware programs. To address this, we have better 
        tailored the requirements process as it applies to information 
        technology systems. Once the JROC approves the initial 
        performance requirements and provides overarching cost and 
        schedule constraints, it will delegate requirements management 
        and oversight to an appropriate Flag level body that has the 
        time and flexibility to effectively manage the development of 
        these systems.
    We are also working on future improvements to the requirements 
management process:
  --We are developing an information technology data management tool 
        which will allow us to structure the data in requirements 
        documents to make the information more readily available and 
        visible for comparison and analysis.
  --We are developing a similar tool for managing joint urgent needs to 
        allow for more rapid information sharing so that we can make 
        decisions more rapidly and get solutions into the hands of the 
        warfighter more quickly.
    We will continue to identify opportunities to improve the 
requirements management process to ensure we provide the correct level 
of oversight balanced with the ability to respond efficiently to the 
warfighter's needs.
             strategic implications of program terminations
    Question. Secretary Gates, we understand that the fiscal year 2010 
budget is a step towards rebalancing resources to build irregular 
warfare capacity applicable to the current fight. But we still face 
threats from traditional nation states such as North Korea and 
potentially Iran or others. How do program terminations such as the F-
22, C-17 and Future Combat System Manned Ground Vehicle affect our 
ability to respond to traditional threats? Are we swinging the pendulum 
too far the other way?
    Answer. Although the proposed fiscal year 2010 defense budget 
reflects some shifts in emphasis, it is important for the United States 
to maintain its capabilities for conventional warfare dominance. All of 
the Military Departments are challenged to find the right balance 
between making the changes necessary to win the wars we are in and to 
be prepared for likely future threats. With this budget, I have tried 
to make a holistic assessment of the capabilities, requirements, risks 
and needs across the Military Departments.
                  de-militarizing u.s. foreign policy
    Question. Secretary Gates, you have repeatedly made statements 
about the need to improve the coordination and collaboration of efforts 
among the Department of Defense, the State Department, the U.S. Agency 
for International Development and non-governmental organizations. Mr. 
Secretary, you have even taken the highly unusual step for a Defense 
Secretary to support an increased budget for the State Department. Can 
you give the Committee some examples of where this inter-agency effort 
is currently being employed and how it could be expanded?
    Answer. There are many examples of where interagency work is 
ongoing and could be expanded. What follows are a few examples of such 
cooperation:
  --Strategic Planning.--Civilian agencies have participated in DOD's 
        strategic planning processes, including the development of 
        DOD's strategic guidance for employing its forces, Combatant 
        Command Theater Campaign Plans, and the Quadrennial Defense 
        Review. DOD participates in a range of planning activities led 
        by the Department of State, U.S. Agency for International 
        Development (USAID), and Department of Homeland Security.
  --Building Partner Capacity.--Innovative ``dual key'' tools like 
        Section 1206 allow DOD and the Department of State to address 
        security challenges that are the shared responsibility of both 
        Departments. The Secretary of Defense, with Secretary of State 
        concurrence, has leveraged the expertise resident in both 
        departments to execute over $700 million in train and equip 
        programs in over 40 countries. Separately, DOD, the Department 
        of State, and USAID have published guidance on security sector 
        reform to better integrate train-and-equip programs with 
        efforts that build partner institutions to sustain long-term 
        security.
  --Reconstruction and Stabilization.--DOD has worked closely with the 
        Department of State's Coordinator for Reconstruction and 
        Stabilization in developing an Interagency Management System 
        (IMS) to provide reconstruction and stabilization expertise and 
        whole-of-government planning support for complex contingencies. 
        Realization of the full potential of IMS requires full funding 
        of the Department of State's Civilian Stabilization Initiative.
  --Humanitarian Assistance.--DOD's humanitarian assistance guidance 
        ensures that projects align with wider foreign policy 
        objectives and do not duplicate or replace the work of civilian 
        organizations. DOD is formalizing a USAID role in the clearance 
        process.
  --Military-Non-Governmental Organization (NGO) Relations.--DOD and 
        InterAction--the umbrella for many U.S.-based NGOs--jointly 
        developed guidelines for how the U.S. Armed Forces and NGOs 
        should relate to one another in hostile environments. We 
        continue to educate both communities about the guidelines, 
        foster dialogue, and develop NGO-military liaison arrangements.
    Effective interagency coordination and collaboration also depend on 
giving our civilian partners greater capacity. When our civilian 
departments and agencies are more robust and engaged with DOD, military 
risk is reduced and deployments are minimized. For these reasons, I 
strongly urge you to support the President's fiscal year 2010 foreign 
affairs and foreign assistance requests. We also need your help in 
fully funding and authorizing Section 1207 ``Security and Stabilization 
Assistance'' for fiscal year 2010. The President requested $200 million 
for this important program for fiscal year 2010. Unfortunately, the 
House Armed Services Committee reduced Section 1207 spending authority 
from $100 million to $25 million in its National Defense Authorization 
Act mark-up. Section 1207 allows DOD to help the Department of State 
and USAID address security challenges and defuse crises that might 
otherwise require a U.S. military response, and it has catalyzed 
interagency collaboration on Country Teams and in Washington.
           ground-based missile defense (alaska interceptors)
    Question. Secretary Gates, the budget request would effectively 
stop the emplacement of ground-based interceptors in Fort Greely, 
Alaska. Has the ballistic missile threat to the U.S. homeland changed 
to warrant curtailing this program?
    Answer. The Ground-Based Interceptor (GBI) is designed to defeat 
the relatively small number of unsophisticated missiles that could be 
launched by a rogue nation against U.S. territory. The rogue country 
ICBM threat has not evolved as rapidly as was originally projected in 
2002. I am confident that deployment of 26 interceptors in Alaska and 4 
in California with four spare missiles plus additional missiles for 
testing gives the Nation a robust capability. The modified program 
would retain all previously planned reliability upgrades to the GBIs 
and maintain the planned number of Ground-Based Missile Defense flight 
tests. We will close the older, prototype Missile Field One and move 
those missiles into the newly constructed Missile Field Two resulting 
in an overall higher reliability rate for those missiles. If the threat 
were to expand, the United States has time to build additional 
interceptors.
  national polar-orbiting operational environmental satellite system 
                                (npoess)
    Question. Secretary Gates, as you know, the Department has had a 
troubled history with its satellite programs. One of the programs that 
continue to be plagued with cost growth and schedule problems is 
NPOESS. Who in the Department of Defense is in charge of making 
decisions on this program, and what is the plan for the future of the 
satellite system?
    Answer. The May 1994 Presidential Decision Directive/NSTC-2 
directed the merging of the DOD and DOC operational weather satellite 
systems with the objective of reducing the cost of space based data 
collection for weather prediction. The PDD/NSTC-2 and the December 2008 
Amendment to the Tri-agency Memorandum of Agreement (MOA) outline the 
roles and responsibilities of each agency. DOD is named as the lead 
agency for systems acquisition. As such, the Under Secretary of Defense 
for Acquisition, Technology, and Logistics (USD(AT&L)), as Milestone 
Decision Authority (MDA), makes the final acquisition decisions for 
NPOESS.
    Since NPOESS is such a large portion of the NOAA budget, NOAA has 
dedicated several senior executives to management and oversight of 
NPOESS. A significant part of the continued cost growth on NPOESS stems 
from the growing acknowledgment of climate data as critical to our 
national interest. The program was not initially set up, nor was it set 
up after the Nunn-McCurdy restructure, to provide the complex 
instrumentation desired for climate assessment.
    Senior DOD and DOC officials have engaged in discussions concerning 
management of NPOESS. The DOD and DOC are reviewing a number of courses 
of action to help alleviate the friction. Options range from enforcing 
the current MOA to single agency management of the program to a split 
management strategy. DOD and DOC are also engaged with the Office of 
Science and Technology Policy to help craft a path forward to benefit 
all parties involved. The importance of NPOESS and the need to avoid a 
continuity gap is understood by DOD, DOC, and NASA.
    Question. Secretary Gates, there are too many people within the 
Department of Defense that believe they are in charge of satellite 
acquisition. With no one actually empowered to make decisions on 
satellite programs, we continue to see large cost growth and schedule 
delays in these systems. Do you have a plan to fix this chronic problem 
or will it be addressed in the ongoing Quadrennial Defense Review?
    Answer. Ensuring future space systems are delivered within promised 
cost and schedule targets requires the proper checks and balances 
necessary to appropriate management and oversight of the Nation's 
acquisition programs. In June 2008, the DOD established the Space and 
Intelligence Capabilities Organization, reporting directly to the Under 
Secretary of Defense for Acquisition, Technology, and Logistics 
(USD(AT&L)), to perform and be accountable for all acquisition 
oversight and related matters concerning DOD Space and Intelligence 
programs. A wide range of space related issues are being addressed in 
the Space Posture Review.
        fiscal year 2010 overseas contingency operations request
    Question. Secretary Gates, the fiscal year 2010 budget request 
includes $130 billion in non-emergency spending for overseas 
contingency operations. In the past, the administration has had 
difficulty predicting the full year costs of these operations. For 
example, in fiscal year 2008, the administration submitted along with 
the regular budget request a full-year supplemental request for 
operations in Iraq and Afghanistan. But within 8 months, the 
administration submitted two budget amendments to this supplemental 
request. How confident are you in the fiscal year 2010 overseas 
contingency operations request that you've submitted to the Congress?
    Answer. I am very confident about the $130 billion war-funding 
request the President sent to Congress on May 7, just over a month ago. 
However, I acknowledge that as the months go by security situations in 
Iraq, Afghanistan, and Pakistan can change, and that might mean that 
there might be changes in what exactly needs to be funded in fiscal 
year 2010.
    Question. How will you ensure that urgent, unforeseen warfighter 
requirements are addressed in the fiscal year 2010 overseas contingency 
operations budget? Can you assure us that the Committee will be 
informed of any necessary adjustments?
    Answer. Yes, I can assure you that my staff and I will keep 
Congress informed of any needed adjustments in our fiscal year 2010 
request, and that is how both Congress and the Department of Defense 
can address unforeseen warfighter needs.
                          strain on the force
    Question. Secretary Gates, the Army's and Marine Corps' suicide and 
divorce rates have risen sharply this past year. It appears that the 
strain of frequent deployments is affecting the emotional health of our 
soldiers and Marines. Do you believe the Department is doing enough to 
support service members and their families? What more could we do?
    Answer. The health and wellbeing of our service members and their 
families is one of the Department's top priorities and we are 
addressing suicide prevention and the psychological health of our 
service members in many ways. The military is the pre-eminent example 
in suicide prevention, targeting its members with a frequency and 
number of efforts unparalleled by any other organization.
    We are engaged in comprehensive preventive education initiatives. 
Within the Military Health System (MHS), there are many programs for 
service members that include the family when providing care and 
services, especially those deployed or returning from theater. 
Dedicated resources are focused on identifying the unique problems of 
military families and establishing or enhancing programs that 
specifically address the needs of the family. The Defense Centers of 
Excellence (DCoE) for Psychological Health and Traumatic Brain Injury 
(TBI) was established in November of 2007 and assesses, validates, 
oversees, and facilitates prevention, resilience, identification, 
treatment, outreach, rehabilitation, and reintegration programs for 
psychological health to ensure the Department meets the needs of the 
Nation's military communities, service members, and families. We have 
made significant contributions in support of the service members and 
their families with psychological health and TBI concerns. Furthermore, 
the services have a forum to discuss their current suicide prevention 
programs and best practices through the Department of Defense (DOD) 
Suicide Prevention and Risk Reduction Committee. The Army has 
specifically been taking multiple proactive steps to address the issue 
of suicide within its ranks, including the creation of a suicide 
prevention task force. The task force was developed as part of a month-
long ``stand down'' to address soldier suicides.
Access to Care
    Lack of access to mental health professionals is a particular 
problem in the MHS due to a shortage of providers and an increased 
demand for services. The services established an effort to aggressively 
recruit and retain mental health providers to ensure better access for 
service members and their families. In the past 2 years, we have placed 
1,700 mental health professionals in primary care clinics to increase 
access and reduce the stigma associated with visiting a mental health 
facility. In addition, the TRICARE Network has added 10,000 mental 
health providers, including child psychiatrists and psychologists.
Quality of Care
    Research continues to help DOD better understand the mental health 
status of military families by providing data to develop programs 
specifically targeted to current needs. Evolving evidence has been used 
to develop psychological health (including post-traumatic stress 
disorder) clinical practice guidelines and training materials to ensure 
service members and families receive the best possible care. In 
addition to providing additional training to the MHS providers and 
staff, we are sharing military psychological health resources and 
clinical guidelines with local and community organizations and 
providers throughout the country who are often the first line in 
treating Reserve Component beneficiaries. Training is also offered to 
TRICARE network providers to continually improve their skills.
Resilience, Protection, Prevention
    As with many conditions, prevention and early diagnosis are 
critical for those who are in need of psychological healthcare. The 
services and DOD have recognized that family, friends, and others in 
the military member's support system need to be aware of the signs that 
psychological health or TBI treatment may be necessary, and have 
instituted programs to inform and train them. The Battlemind Transition 
Office runs the Army's Resiliency Program, a preventive approach 
intended to strengthen individual service members, their families, 
their units, and communities and enhance their ability to cope with 
stress.
Research
    DOD funded research is underway to more precisely identify the 
effects of war on service members, their families, and especially their 
children. We are also conducting research to compare the effect on 
family members of service members who return from deployment wounded 
versus non-injured. The National Child Traumatic Stress Network Center, 
based at the Uniformed Services University of the Health Science's 
Center for the Study of Traumatic Stress, develops knowledge related to 
military childhood experiences, develops effective public education 
materials, and expands and studies effective intervention strategies. 
We also have an ongoing Family Program Assessment to identify the 
antecedents and consequences of different levels of family readiness by 
collecting longitudinal data from Army families across the deployment 
cycle. This study will identify potential predictors of divorce in 
military families. This information will then be used to design 
programs to reduce the rate of divorce in military families. The 
possibility of expanding this study to all services is being actively 
considered.
Non-Medical Approaches
    Six years of deployments and multiple deployments prompted the 
Department to rethink methods and strategies to deliver family support. 
Now, Military OneSource provides support services 24 hours per day, 7 
days per week to Active Duty, National Guard, and Reserve component 
service members and their families worldwide. Toll-free confidential 
telephonic support and a website, www.militaryonesource.com, provide 
interactive tools, educational materials, discussion boards, links to 
military and community resources, and tax filing services, among other 
services. Outreach non-medical counseling offer service members and 
their family members confidential, short term, situational, problem 
solving assistance that is instrumental for coping with normal 
reactions to the stressful situations created by deployments, family 
separations, and reintegration. Military OneSource offers confidential 
face-to-face, telephonic, and online counseling up to 12 sessions. The 
Military and Family Life Consultant program provides professional, 
confidential, and flexible service delivery on a 30-90 day rotational 
basis on military installations to meet surge support requirements and 
to support National Guard and Reserve events. Child and youth 
behavioral health specialists work with families and educators to 
identify and help struggling children and families. Additionally, 
financial counseling is available to assist with the financial concerns 
of military members and their families during all stages of the 
deployment cycle.
    These are just some of the initiatives we have underway, but we are 
always looking at the conditions and indicators to determine if there 
are other actions that can benefit our service members and their 
families work through their difficult problems.
    Question. Do you believe that the Army and Marine Corps force 
structure is large enough to relieve the operational strain on the 
force?
    Answer. Yes, but I will be reviewing the conclusion of the 
Quadrennial Defense Review on ground forces before making a final 
assessment.
    Question. Secretary Gates, you recently returned from a trip to 
Afghanistan. What is your assessment of how our troops are holding up 
under the continued high operational tempo?
    Answer. The troops I had an honor to meet with displayed a high 
level of morale. It was inspiring to see their level of commitment and 
positive demeanor in light of all we are asking them to do.
                     age and health of tanker fleet
    Question. Secretary Gates, I am concerned about the aging Air Force 
tanker fleet and the health and age of the KC-135 tankers by the time 
they are replaced. Can you update the Committee on the status of the 
Air Force tanker fleet, including the age of the fleet and any present 
safety and flight concerns with the current fleet?
    Answer. The USAF tanker force structure includes 415 KC-135 R and T 
models and 59 KC-10A aircraft with average fleet ages of 48 years and 
24 years, respectively. Upon retirement of the last KC-135 planned for 
2040, this tanker will have reached 80 years of service. The KC-10 will 
have achieved 60 years of service upon its planned retirement. Per the 
fiscal year 2010 Annual Planning and Program Guidance (APPG) and to 
maintain fleet viability, investment programs for these airframes are 
focused on safety of flight and obsolescence issues. To this extent, 
the KC-135 aircraft has six and the KC-10 has two on-going fleet-wide 
modification programs. Regarding safety of flight issues, the CCAB 
program addresses the only known ``safety of flight'' issue for the KC-
135. There are no KC-10 safety of flight issues at this time.
    The six KC-135 programs consist of the following:
  --Control Column Actuated Brake (CCAB).--Modification preventing an 
        unsafe stabilizer trim wheel runaway condition--fleet 
        modification complete in fiscal year 2010;
  --VOR/ILS Antennae Replacement.--Replaces the obsolescent antennae 
        used for navigation and precision instrument landing systems--
        this is an fiscal year 2010 New Start program;
  --Block 45 Upgrade.--Cockpit avionics modernization replacing 
        obsolescent Autopilot, Flight Director, Radar Altimeter, and 
        Engine Instruments--contract award late fiscal year 2009;
  --Global Air Traffic Management (GATM).--Updates and replaces 
        Communication Navigation Surveillance/Air Traffic Management 
        (CNS/ATM) equipment to meet restricted airspace requirements 
        worldwide; modification complete in fiscal year 2011;
  --Enhanced Surveillance (EHS).--Replaces APX-110 transponder with 
        APX-119 providing enhanced aircraft tracking and IFF Mode 5 
        capability (complete by fiscal year 2010);
  --Mode 5.--DOD-mandated upgrade to the Identify Friend or Foe (IFF) 
        system used for aircraft identification in Air Defense 
        Operations (fiscal year 2010 to fiscal year 2012).
    The KC-10 provides both strategic air refueling and airlift for 
deployment, employment, redeployment and Joint/Combined support 
operations. This aircraft is a commercial derivative of the McDonnell 
Douglas DC-10-30 and since its first delivery in 1981, no major 
avionics upgrades have been completed. As such, in its current 
configuration, the KC-10 does not meet future Federal Aviation 
Administration (FAA)/International Civil Aviation Organization (ICAO) 
CNS/ATM requirements for 2015 airspace restrictions. To mitigate 
operational risk, two modification programs exist for the KC-10:
  --CNS/ATM Modification: addresses near term issues required to keep 
        aircraft operational within 2015 air traffic mandates/
        restrictions;
  --Boom Control Unit Replacement: replaces unsustainable Boom Control 
        Unit (complete 2012).
            fiscal year 2010 tanker contract award schedule
    Question. Secretary Gates, will the tanker replacement program 
request for proposals go out to industry this summer? Is the Department 
on track to make a contract award for the tanker replacement in early 
fiscal year 2010?
    Answer. Yes. The Department anticipates being able to issue a draft 
solicitation this summer with award of a contract by late spring 2010.
                      tanker contract competition
    Question. Secretary Gates, do you have confidence that the upcoming 
tanker contract award will not result in another protest to the 
Government Accountability Office (GAO)? What is your plan if another 
protest is upheld by the GAO?
    Answer. Contractors have the right to protest any contract award. 
There is no guarantee there will not be a protest in the upcoming 
tanker competition. I am confident the Department has a process in 
place to address the original GAO protest decision findings and to 
ensure a fair competition. If another protest is upheld by the GAO, we 
will address it at that time.
                  structural repairs of kc-135 tankers
    Question. Secretary Gates, based on the current tanker replacement 
program, it will take over 30 years to recapitalize the KC-135 fleet. 
Can you elaborate on the cost of the structural repairs that will need 
to be done on the KC-135 fleet during the acquisition of the 
replacement tankers? Can these costs be avoided if the fleet is 
replaced sooner?
    Answer. Skin replacements are the major structural repairs that 
occur on the KC-135 when the skins exceed reparable limits. To date, 
the number of skins needing replacement has been manageable and have 
not greatly affected Program Depot Maintenance (PDM) flow and overall 
aircraft availability. There is a reasonable amount of rework that can 
be accomplished before most of the structures require replacement. Over 
time, however, the skins will need to be replaced.
    The Air Force is planning for three structural repairs to the KC-
135 fleet: replacement of Aft Body Skins, replacement of Upper Wing and 
Horizontal Stabilizer Skins, and replacement of Crown and Center Wing 
(wing box) Upper Skins. The KC-X recapitalization rate will influence 
the number of aircraft requiring each structural repair. The 
calculations below assume 416 KC-135s require replacement of Aft Body 
and Upper Wing and Horizontal Stabilizer Skins, but that only 230 KC-
135s will require replacement of Crown and Center Wing (wing box) Upper 
Skins (see below). The dates used in the forecasts were selected to 
gain the most benefit from the work that will be accomplished. Each 
estimate uses current year, fiscal year 2009, dollars and is per 
aircraft. Then year dollars would be more.
Aft Body Skins
    Replacement of these skins is already programmed to begin in the 
current FYDP.
    Estimated cost per airplane: $0.3 million.
    Estimated total cost: $124.8 million (416 aircraft).
    Max aircraft down: N/A--concurrent with PDM. (Note: Air Force 
programming this work into the fiscal year 2012 PDM work package 
reduces potential delays from unscheduled ``over and above'' work.)
Upper Wing and Horizontal Stabilizer Skins
    These would be done concurrently, separate from PDM, in a ``speed 
line,'' and would include replacement of substructure components that 
are important to continued use of the aircraft and accessible when the 
skins are removed. (Note: The ``speed line'' will be a stand alone 
repair line dedicated solely to the upper wing and horizontal 
stabilizer skin replacement work.)
    Estimated cost per airplane: $6.7 million.
    Estimated total cost: $2.8 billion (416 aircraft).
    Max aircraft down: 12 (at any one time).
Crown and Center Wing (Wing Box) Upper Skins
    This replacement is planned further in the future since recent 
experience has not indicated significant problems with corrosion or 
cracking. They are planned to be done concurrently in a speed line and 
separate from PDM. We have accounted for planned retirements in this 
increment.
    Estimated cost per airplane: $4.6 million.
    Estimated total cost: $1.1 billion (230 aircraft).
    Max aircraft down: 12 (at any one time).
    Due to the materials and the assembly techniques used when the KC-
135 aircraft was originally procured, occurrences of corrosion will 
continue to be a primary area of concern. Continued inspections, 
repairs, and preventive maintenance are required to ensure a viable 
fleet.
    Question. Can these costs be avoided if the fleet is replaced 
sooner?
    Answer. Yes; as indicated in the answers above, some of the costs 
could be avoided, depending on timing of KC-X replacement and 
retirement schedule for the KC-135.
                        tanker dual buy strategy
    Question. Secretary Gates, I understand that you are strongly 
opposed to awarding contracts to two tanker manufacturers. Can you 
elaborate on the pros and cons of this dual buy approach and the costs 
associated with this type of acquisition strategy?
    Answer. The Department's analysis and experience convinces us that 
dual sourcing of the KC-X tanker would be costly and ineffective. We 
oppose the introduction of two separate training, maintenance and 
logistics requirements simultaneously into the fleet. Developing two 
tankers at once would require approximately $14 billion over The FYDP 
10-15. Over the life cycle of KC-X we estimate that dual sourcing would 
cost the taxpayers $7-8 billion when compared to a single source. 
Doubling the number of tanker platforms complicates the Air Force's 
mission. The Air Force will have to increase its allocation of limited 
financial and human capital to support the logistics, maintenance and 
training needs of two tanker platforms over the lifecycle of these 
aircraft. These lifecycle inefficiencies and complications are 
unnecessary, and can be avoided by selecting a single tanker platform.
                   special operations command (socom)
    Question. Secretary Gates, the Commander of the Special Operations 
Command, Admiral Olson, recently stated that escalating requirements 
for capabilities provided by Special Operations Forces have outpaced 
SOCOM's ability to train new personnel and develop critical enablers in 
the areas of aviation, intelligence, and communications. To mitigate 
these shortfalls, Admiral Olson has requested that the military 
services provide Special Operations Command with additional assistance 
and manpower in these critical support areas. Are the services able to 
meet these additional requirements? How will this plan be managed, and 
to what degree has it been incorporated in the fiscal year 2010 budget 
request?
    Answer. USSOCOM is working with the Military Departments to 
leverage capabilities to address Special Operations Forces (SOF) 
shortages in critical mission areas. USSOCOM is currently coordinating 
with the Military Departments to address critical support areas. Of 
note, the Military Departments are opening their recruiting and 
training aperture to increase the number of students at their training 
centers, including aviation training, to support SOF requirements. The 
Military Departments are also assisting with providing a mix of organic 
and dedicated intelligence, surveillance, reconnaissance and 
communications support for USSOCOM.
    The demand for SOF capabilities will continue to increase for the 
foreseeable future. One of the major focus areas for the Quadrennial 
Defense Review (QDR) is to balance the force for irregular warfare 
capabilities, which includes addressing the support of the Military 
Departments to Special Operations Forces.
    Question. Secretary Gates, funding for Special Operations Command 
has grown from $2.1 billion in 2001 to nearly $8.6 billion, including 
supplemental funding, in fiscal year 2010. During this same time period 
Special Operations Command's mission has grown exponentially, as 
evidenced most recently by its designation as the DOD Proponent for 
Security Force Assistance (SFA). Given this rapid growth in both budget 
and responsibility, how are you ensuring programmatic and fiscal 
accountability within Special Operations Command?
    Answer. The resources requested and executed by the U.S. Special 
Operations Command (USSOCOM) are scrutinized and justified throughout 
the Department's rigorous planning, programming, budgeting and 
execution process. The discipline of our department-wide processes 
along with additional actions that USSOCOM has taken internally help 
ensure that they maintain programmatic and fiscal accountability for 
the funds allocated to them. Specifically, USSOCOM has implemented 
several organizational changes and processes to ensure effective 
stewardship of appropriated funding. The Command has doubled the size 
of the Financial Management workforce to ensure the appropriate checks 
and balances are in place, establishing separate Directorates within 
the Comptroller organization that provide the Command Program and 
Budget, Policy and fiscal oversight across the enterprise. Also, the 
Comptroller is now a stand-alone center with direct reporting to the 
Commander, USSOCOM. on all fiscal matters. Further, USSOCOM complies 
with the full complement of regulatory and legislative requirements, 
such as the Federal Managers' Financial Integrity Act (FMFIA) of 1982, 
and the DOD Managers' Internal Control Program (MICP), as well as the 
Chief Financial Officers' Act of 1990, as amended. Finally, there are a 
broad range of accounting tools and processes to provide an additional 
layer of visibility over the use of MFP-11 funds and help identify any 
potential abnormalities during execution.
                       export version of the f-22
    Question. Secretary Gates, I believe the Department should consider 
an export program for the F-22 Raptor fighter aircraft. Under the rules 
for such a program, the costs for developing an export variant is borne 
by the interested nation, not the United States. This would enable us 
to provide advanced fighter capabilities to our close friends and 
allies. Secretary Gates, what is your view of an export program for an 
F-22 variant?
    Answer. The Department of Defense does not plan to promote the sale 
of an exportable variant of the F-22. The F-22 was designed and 
developed solely to meet U.S. requirements and, based on a recent 
analysis by the Department, would require over $2 billion of non-
recurring investment by a purchasing nation to meet United States 
Government (USG) exportability requirements. We will continue to 
implement our longstanding plans to offer the F-35 Lightning II to 
selected allied and friendly nations through Foreign Military Sales 
(FMS) channels based on the USG's evaluation of our foreign policy and 
national security interests in relation to the potential purchasing 
nation. The F-35 program, which already has eight cooperative partner 
nations and two potential FMS purchasers, was developed with 
exportability in mind. The USG consults closely with our friends and 
allies on the capability requirements for the current and emerging 
security environment. The F-35 incorporates coalition warfighting 
capability and interoperability features in a highly capable, 
affordable, and supportable 5th generation strike fighter that was 
designed from its inception to meet the requirements of both the United 
States and international partners.
                    military personnel compensation
    Question. Secretary Gates, in the last 10 years, active duty 
military personnel compensation costs have increased by 91 percent. Do 
you believe that these costs are sustainable? How are these rising 
costs affecting the Department's ability to adequately fund your 
acquisition priorities?
    Answer. All rising costs, not just military compensation, diminish 
our ability to fund acquisition adequately.
    Whether or not these rising costs are sustainable will depend on 
several factors, most notably:
  --Our progress in moderating the escalating cost of military 
        healthcare.
  --Our overhaul of acquisition programs and our ability to control 
        costs in acquisition programs that continue.
  --Cooperation with Congress on minimizing non-essential funding in 
        DOD appropriations.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
    Question. Secretary Gates, in your testimony, you highlighted the 
need to have the right programs in place for the future to meet our 
shifting defense requirements.
    A few years ago, DOD and NSA developed the Trusted Foundry Program 
to ensure government access to computer chips for a diverse range of 
mission critical programs and to slow the erosion of the domestic 
supply base. At that time, the government faced challenges producing 
required chips itself and was having trouble maintaining pace with the 
rapid advances in chip technology.
    The Trusted Foundry Program has been successful in providing our 
government with access to domestically produced chips and cutting edge 
microelectronic technologies and processes. In fact, I understand that 
under the Trusted Foundry Program the access to new technologies in a 
``trusted'' environment, has led to an increase in government demand 
for more advanced domestically produced semiconductors.
    Do you agree that demand for the services provided by the Trusted 
Foundry Program has met and/or exceeded expectations? What do you 
foresee to be the role of the Trusted Foundry Program and its network 
of more than 10 foundries over the next 3-5 fiscal years?
    Answer. Yes, demand for the Trusted Foundry has exceeded our 
expectations. The role of the Trusted Foundry Program and its network 
of suppliers over the next 3-5 years will be expanded to cover the full 
defense-wide requirements for trusted microelectronics for Defense 
systems and weapons.
                            trusted foundry
    Question. Does the demand for the chips and services from the 
Trusted Foundry currently exceed the contracted services provided for 
in the fiscal year 2009 budget?
    Answer. Yes, current demand has exceeded the services contracted 
directly through the Trusted Access Program Office. Several programs 
like JTRS and GPS have used their program funds to purchase trusted 
microelectronics through the TAPO when the resources needed by those 
programs exceeded the capabilities provided within the Trusted Foundry 
Program.
    Question. Does the current budget request fiscal year 2010 support 
the majority of pending projects that are proposed to use Trusted 
Foundry services?
    Answer. No. Recent estimates are that the DOD purchases about $3-5 
billion in integrated circuits per year. Based on the cyber-threats and 
direct threats to our systems from counterfeit and tampered parts, we 
believe that all of those should be trusted. The current 2010 budget 
request is based on the projected needs for the few programs that have 
requested support for obtaining trusted parts. The majority of programs 
are not yet in full compliance with the Secretary's directive-type memo 
that calls for full scale implementation of trusted components for our 
systems. The Trusted Foundry Program is making a concerted effort to 
align program offices and services with the ability to obtain trusted 
components from trusted sources.
    Question. If Congress were to provide additional funding for the 
Trusted Foundry Program above the President's fiscal year 2009 request, 
what additional capacity or services would be your highest priority?
    Answer. The priorities of an expanded program are to establish 
direct contracts with all of the trusted foundries and suppliers to 
provide trusted parts, drive new leading-edge technologies into the 
Trusted Foundry, and provide additional fabrication runs for defense 
programs.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
    Question. How, if at all, has the Department of Defense turned to 
the interagency process to provide rule-of-law training in Afghanistan?
    Answer. Working to reduce corruption in Afghanistan has been a U.S. 
Government objective from the beginning. The principal Department of 
Defense efforts to reduce corruption include the Department's training 
and mentoring of Afghan National Security Forces and personnel of the 
associated Afghan ministries. These efforts support and are supported 
by other U.S. Government agency efforts to reduce corruption. For 
example, USAID anti-corruption efforts include training Afghan judges 
and judicial staff and restructuring personnel and pay structures in 
the Afghan court system.
    Question. Please provide the following: The total number of lawyers 
(military and civilian) whose primary responsibility is to provide 
rule-of-law training in Afghanistan on behalf of the Department of 
Defense; the offices within the Department of Defense (or United States 
Government) or organization to which these individuals are assigned; 
the total number of Afghanis who have received rule-of-law training 
from these individuals; an estimate of the total number of Afghanis for 
which the Department of Defense anticipates it will provide rule-of-law 
training.
    Answer. The lead U.S. agency for rule-of-law and other governance 
development initiatives is the Department of State. There are no 
military or civilian lawyers providing rule-of-law training as a 
primary duty on behalf of the Department of Defense.
    Question. The President's policy towards Afghanistan notes that 
part of our counter-insurgency strategy must include building effective 
local governance.
    What is the Department of Defense's plan for combating corruption 
in the Afghan government entities with which it works on a regular 
basis, including the Afghan National Army and Afghan National Police?
    Answer. The Department works to reduce corruption in Afghanistan 
principally through training, mentoring, and partnering with the Afghan 
National Security Forces and the associated Afghan ministries. The 
training and mentoring programs ensure that Afghan National Army 
soldiers and officers, Afghan National Police (ANP) officers, and 
ministry staff understand the potential impact that corrupt practices 
could have on the population. Partnering with ANP units that have 
completed the Focused District Development program conducted by 
International Security Assistance Force units, U.S. and Coalition 
personnel seek to ensure that ANP officers do not return to corrupt 
practices. Indirectly, counternarcotics efforts by the Department of 
Defense and other U.S. Government agencies will help reduce corruption 
by removing a source of funding for corrupt practices.
    Question. What office or offices within the Department of Defense 
are responsible for anti-corruption policies that the Department of 
Defense will apply when working with Afghan government entities?
    Answer. The Department of State is responsible for rule-of-law and 
anti-corruption policies at the national level. The Combined Security 
Transition Command--Afghanistan develops training and mentoring 
programs and curricula for the Afghan National Security Forces and the 
relevant ministries in support of U.S. rule-of-law and anti-corruption 
policies.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
         conflicts between the military mission and wind power
    Question. Earlier this year, my Senate colleagues and I wrote to 
you to request a more coordinated response to conflicts between the 
military mission and wind power. Please let me know when we can expect 
an answer to our request.
    Answer. The Office of the Secretary of Defense tasked the Under 
Secretary of Defense for Acquisition, Technology and Logistics 
(USD(AT&L)) with responding to the Senator's letter. The response 
required extensive coordination within the Department because mapping 
areas feasible for energy development impacts DOD missions and 
training. It is not simply an issue of the Department's obtaining or 
using energy. The USD(AT&L) response, which is attached, was finalized 
and sent on August 13, 2009.
                            The Under Secretary of Defense,
                                   Washington, DC, August 13, 2009.
Hon. Dianne Feinstein,
U.S. Senate,
Washington, DC.
    Dear Senator Feinstein: Thank you for your May 14 letter to the 
Secretary of Defense requesting the Department of Defense (DOD) 
establish clear policy to support renewable energy development projects 
while maintaining necessary protections for military airspace. I am 
responding on behalf of the Secretary.
    The Department has set ambitious goals for the use of renewable 
energy and is aggressively pursuing efforts on military bases across 
the Nation. By 2025, the Department plans to procure or produce the 
equivalent of 25 percent of the electricity it consumes from renewable 
sources. The national security challenges posed by reliance on foreign 
sources of energy are clear, and the transition to renewable sources is 
a key element of the DOD strategy to respond.
    As you know, the Department must balance goals to increase 
renewable energy with maintenance of critical testing, training and 
homeland defense capabilities. Some renewable energy projects on or 
near military installations or surveillance radars can have substantial 
adverse effects on DOD test and training ranges, training routes, 
special use airspace, and our air defense and border surveillance 
assets.
    You offered suggestions in two broad areas, one of which being the 
process by which proposals for renewable energy projects get reviewed. 
For the very reasons you cited, the Department must evaluate each 
proposed project on an individual, site-specific basis. The 
Department's red-yellow-green maps are intended to serve merely as 
guides. In practice, each proposal must be assessed on the basis of the 
specific factors such as the physical characteristics of the proposed 
construction, training, test and surveillance needs, and the local 
geography. For this reason, it is not feasible to fully centralize 
decision making on wind development projects. However, my staff will 
work with other offices in the Department to review the current, 
decentralized decision process and recommend ways to expedite it and 
improve transparency.
    You also suggested that better technology can help mitigate the 
limitations on placement of wind energy projects. The Department is 
conducting flight trials and analytic studies to develop tools to 
improve prediction of impacts and explore possible mitigations. My 
staff will explore how we might accelerate development of technical 
mitigation approaches.
    I appreciate your suggestions for ways in which the Department can 
improve the prospects for the development of wind energy in particular. 
I share your view that the U.S. Government needs to take the steps 
necessary to allow our country to exploit the benefits of wind energy 
generation without compromising national security.
    A similar letter has been sent to the other signatories of your 
letter. I look forward to working with you to address this challenge.
            Sincerely,
                                                  Ashton B. Carter.

    Question. As you know, there is a great deal of potential and 
interest in producing significant amounts of solar electricity on 
military bases in southern California. At least three bases are 
considering significant projects, which could make the bases 
independent of the power grid, combat global warming, and increase our 
energy security. These efforts are often the result of serious 
initiative by good base commanders and other people in uniform. (1) 
What is the Pentagon doing to facilitate the use of solar power on 
military bases in Southern California? (2) What resources and personnel 
have you dedicated to this effort? (3) What coordination is occurring 
between services? (4) Would you consider setting a goal that Southern 
California bases should attempt to produce enough solar power on base 
that they are able to meet or exceed all of their net energy needs?
    Answer. What is the Pentagon doing to facilitate the use of solar 
power on military bases in Southern California? The abundance of 
available solar energy presents opportunities for the Department of 
Defense (DOD) to increase the energy security of military bases in 
California. DOD is employing photovoltaic technologies at many 
installations in California using Energy Conservation Investment 
Program (ECIP) funding. Using 2008 and 2009 funds (including funds 
appropriated in the ARRA), DOD is designing and constructing more than 
30 solar projects, including thermal systems for domestic hot water, 
heating pools, and photovoltaics on roofs to provide building power for 
a variety of operational needs. In addition to carrying out solar 
technology applications tailored toward specific buildings, DOD is 
exploring large, utility-scale solar energy plants in partnership with 
utility companies and energy developers. For example, the Army recently 
selected its commercial partners for a project at Fort Irwin that could 
ultimately provide 500 MW of solar power. Finally, DOD envisions 
military installations can serve as testbeds for renewable energy 
technologies that are not yet commercially feasible, including, but not 
limited to, solar technologies, and we are talking with the Department 
of Energy (DOE) about potential opportunities.
    Note, however, that some proposed large-scale commercial solar 
development projects, including projects that would be located on land 
adjacent to military installations, may be incompatible with the 
military's mission. For example, solar towers can obstruct flight 
operations and interfere with radar. Photovoltaic arrays can also 
impact testing and training by degrading habitat for threatened and 
endangered species. Thus, we must carefully evaluate the impact of 
these proposed projects. Still, we are committed to transparency 
wherever possible, and we will try to provide information to 
stakeholders as early in the process as possible.
    What resources and personnel have you dedicated to this effort? 
Each installation has an energy manager, and many installations have a 
Resource Efficiency Manager (REM) who works with the installation's 
engineering and operations staffs to determine which renewable energy 
technologies can be employed to satisfy installation energy 
requirements. In addition, the installation-level staff relies on the 
energy subject matter experts at major commands and field-operating 
agencies to verify the technical solutions and then authorize a 
contracting method to implement those solutions. Finally, the military 
services work closely with the Department of Energy Federal Energy 
Management Program (FEMP). Drawing on the vast expertise of the DOE's 
many laboratories, FEMP provides technical assistance to individual 
installations. FEMP also provides enterprise-wide solutions in areas 
like utility contracting, power purchase agreements, and utility-scale 
renewable energy development.
    What coordination is occurring between services? Installation-
energy issues are coordinated through the Defense Energy Working Group 
(DEWG), which is chaired by the Deputy Under Secretary of Defense for 
Installations and Environment (DUSD(I&E)), Dr. Dorothy Robyn. Members 
of the DEWG include the senior military service officials responsible 
for installations and energy and the services' chief engineers. The 
DEWG has met monthly since November 2008, and it has proved to be an 
invaluable forum. Among other things, the DEWG is trying to identify 
and reduce key impediments to expanded development of renewable energy 
at military installations. Complementing the DEWG (and with many of the 
same members) is the Energy Infrastructure Compatibility Working Group, 
which focuses on potential encroachment issues, particularly on the 
ranges used for military training and testing. For example, this group 
worked with Interior's Bureau of Land Management to draft a Wind Energy 
Protocol that defines a process for DOD evaluation of proposed wind 
projects on BLM lands. DOD and Interior are exploring the expansion of 
the protocol to include solar energy.
    Would you consider setting a goal that Southern California bases 
should attempt to produce enough solar power on base that they are able 
to meet or exceed all of their net energy needs? For a variety of 
reasons, it would be premature to set a solar or renewable energy goal 
for Southern California bases beyond those established in law today. To 
review, the Energy Policy Act of 2005 establishes as a goal that 
Federal agencies produce or purchase 3 percent of their electricity 
from renewable sources by 2007-2009, 5 percent by 2010-2012, and 7.5 
percent by 2013. Moreover, in November 2005, DOD established as an 
internal goal that it would produce or procure 25 percent of its 
facilities energy from renewable sources by 2025. This 25-percent goal 
was included in the National Defense Authorization Act for fiscal year 
2007. Nevertheless, even these goals represent a challenge, because key 
technologies are not yet commercially mature or cost-competitive, and, 
in some cases, mission needs may preclude their use at a particular 
military installation. In sum, while we plan to be aggressive in 
pursuing opportunities for greater reliance on renewable energy, we 
want to be cost effective and consistent with mission needs.
    Question. It is my understanding that there are fuel cell 
technologies that may meet the emerging requirements of the military. 
Solid oxide fuel cell systems generate clean, cost-effective, onsite 
electricity that (1) eliminates dependence on the power grid, (2) uses 
significantly less fuel than traditional generators, and (3) would 
improve our overall security posture through reliance on domestic fuel 
sources.
    Have you considered including these options to our military energy 
portfolio as a way to increase energy security?
    Answer. Yes. The Army's Research, Development and Engineering 
Command, along with DARPA and DOE, is evaluating solid oxide fuel cell 
(SOFC) technology for military uses. Specifically, they are looking at 
how SOFC systems can be used at installations and forward operating 
locations in conjunction with other fuel cell technologies (e.g., 
reformed methanol and direct methanol) to deliver power to a 250 W 
battery charger fueled by JP-8. However, in spite of the promising 
advances in recent years, the successful development of a militarized 
SOFC for a battery charger is probably some years away.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
    Question. Secretary Gates, I understand the Department intends to 
reduce its reliance on contracted workers by hiring more than 13,000 
government civilians to replace contractors. Has the Department 
identified what positions or functions it intends to in-source, and 
what savings do you anticipate achieving through this initiative?
    Answer. The Department is currently working to identify the 
specific positions that will be insourced. This identification is not 
constrained to specific functional communities although the Department 
does have a focus on the acquisition workforce and functions that have 
been determined to be inherently governmental, closely associated with 
inherently governmental, or will increase government oversight. The 
Department has budgeted for 40 percent savings efficiency from the 
conversion of these support contractors to civil servants.
    Question. Secretary Gates, the cost of providing contracted 
healthcare for our military beneficiaries and their families has 
increased substantially in the past 5 years, and shows no sign of 
decreasing in the near future. As the Department looks to in-source 
throughout the Department, is there consideration for increasing 
capacity for care in military clinics and hospitals to reduce the need 
and the associated cost of contracted care?
    Answer. While the cost of providing care for military beneficiaries 
has certainly escalated in the past several years, it is important to 
point out the cost increase has been across the Military Health System 
(MHS) and not just in the Purchased Care Sector. Much of the increase 
in cost can be attributed to a significant increase in the total number 
of beneficiaries within the MHS and an expansion of the TRICARE 
benefit. Having said this, however, most of the cost and workload 
increase has indeed been seen in the Purchased Care Sector. This has 
been well recognized by MHS leadership and broad-based efforts are 
underway to both optimize access to military treatment facilities 
(MTFs) and the Direct Care Sector and to improve the efficiency and 
quality of the healthcare experience within facilities. Each of the 
services has addressed the issue head on.
    The Army's ``Access To Care Initiative,'' the Navy's ``Patient 
Centered Medical Home'' projects at National Naval Medical Center and 
San Diego, and the Air Force's innovative ``Family Health Initiative'' 
are all excellent examples of the commitment each of the services have 
made to improving the healthcare experience of beneficiaries and 
maximizing MTF enrollment within existing capacity and budget. So far, 
these initiatives have demonstrated early success and the Department 
hopes to capitalize on these successes to improve performance 
throughout the system. In addition, Health Affairs/TRICARE Management 
Activity has piloted a ``Pay for Performance'' project that has been 
engineered to incentivize individual MTFs to optimize efforts to 
improve healthcare quality, access, continuity, and patient 
satisfaction. Again, the purpose is to stimulate innovation, highlight 
best practices, and promote their adoption across the MHS.
    Question. Secretary Gates, you and Secretary Clinton supported 
transferring the ``Pakistan Counterinsurgency Capability Fund'' to the 
State Department over the next 2 years. What efforts are underway 
within the interagency to implement this initiative, and where would 
you like to see the fiscal year 2010 funding appropriated?
    Answer. For fiscal year 2010, the Pakistan Counterinsurgency 
Capability Fund (PCCF) has been appropriated to the Department of State 
in the Supplemental Appropriations Act, 2009. The Department of Defense 
is working with the Department of State to build its capacity to manage 
a wartime program in support of DOD requirements, and needs to ensure 
that the Department of State has the authorities, resources, and 
processes necessary to provide our commanders the flexibility sought 
under PCCF. DOD and the Department of State will work together over the 
coming months and year to make sure the transfer of management 
responsibility to the Department of State takes place without any 
degradation of the support required by DOD to build Pakistan's 
counterinsurgency capabilities in support of U.S. forces' efforts in 
Afghanistan.
    Question. Admiral Mullen, can you give us your thoughts on how the 
Pakistan Counterinsurgency Capability Fund will help secure Pakistan's 
tribal areas, and what actions may be necessary to improve the 
interagency coordination so these funds are used effectively?
    Answer. The Pakistan Counterinsurgency Capability Fund (PCCF) 
focuses on building enduring capabilities for the Pakistani military to 
conduct counterinsurgency operations in support of U.S. efforts in 
Operation Enduring Freedom (OEF). The funding is designed to accelerate 
development of the Government of Pakistan's capacity to secure its 
borders, including the tribal areas, deny safe haven to extremists, and 
provide security for the indigenous population in the border areas with 
Afghanistan.
    PCCF will fund counterinsurgency requirements such as helicopters, 
soldier equipment, and training. The Department proposed $400 million 
for PCCF in the fiscal year 2009 supplemental and $700 million in the 
fiscal year 2010 overseas contingency operations request. We are 
grateful to Congress for supporting our request for $400 million for 
the Pakistan Counterinsurgency Fund (PCF) in fiscal year 2009.
    For fiscal year 2010, we have requested a clean transfer to DOD of 
the $700 million Congress provided to the Department of State to ensure 
uninterrupted execution of this crucial program while the Departments 
work closely on developing plans for the Department of State to 
implement the program in fiscal year 2011.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell
    Question. Recently, it was announced that a heavy armor brigade 
from Europe will not go to White Sands Missile Range in New Mexico, as 
originally planned. Will DOD be giving serious consideration to sending 
that brigade to Fort Knox? If not, why not?
    Answer. Senator, the Army released the Grow the Army Stationing 
Plan in December 2007 after it was approved by the Department of 
Defense and the President. We will adhere to the same plan once the 
Quadrennial Defense Review determines force structure end state in 
Europe. The criteria we would use for a returning Germany brigade would 
be similar to the criteria we used in December 2007.
    Question. What criteria or requirements will be evaluated in order 
to match resources and capabilities of installations with the returning 
heavy armor brigade?
    Answer. The same criteria will be considered in this decision as 
was used in the installation analysis for Grow the Army 2007: 
Maximizing Army installation capabilities; growth capacity; power 
projection; training; and quality of life. The Base Realignment and 
Closure 2005 Military Value Model will also be used for computation. 
Other factors that will be considered include minimizing community 
impact and disruption to the current plan, while maintaining 
flexibility for future force mix decisions. Our final stationing 
decision will reflect the results of analysis and best Military 
Judgment.
    Question. Section 8119 of Public Law 110-116 provides in relevant 
part that: ``(b) REPORT--(1) Not later than December 31, 2007, and 
every 180 days thereafter, the Secretary of Defense shall submit to the 
parties described in paragraph (2) a report on the progress of the 
Department of Defense toward compliance with this section . . . (3) 
Each report submitted under paragraph (1) shall include the updated and 
projected annual funding levels necessary to achieve full compliance 
with this section. The projected funding levels for each report shall 
include a detailed accounting of the complete life-cycle costs for each 
of the chemical disposal projects . . .'' In its latest report to 
Congress, the Department did not include funding totals for the out-
years for the Blue Grass Army Depot and Pueblo Depot in contravention 
of this provision. It only included the fiscal year 2010 request 
figures.
    Why was this long-term budget information not included? What was 
the Department's legal rationale for not including these funding 
levels? How does this comport with President Obama's promise ``not to 
nullify or undermine Congressional instructions as enacted into law?'' 
Please provide all of the info required by Section 8119 of Public Law 
110-116.
    Answer. The Department did not finalize the outyear estimate when 
the fiscal year 2010 Presidents budget plan was formulated. The outyear 
programs and funding will not be settled until completion of 
Quadrennial Defense Review and the follow-on program and budget review 
later this year.
    DOD fully supports President Obama's promise, and doing the 
legislatively-mandated QDR does not ``nullify or undermine 
Congressional instructions as enacted into law.''
    We will provide the information required by Section 8119 as soon as 
we can.
                                 ______
                                 
            Questions Submitted by Senator Robert F. Bennett
    Question. Iran's leadership uses despicable rhetoric regarding 
Israel, continues its support for international terrorist groups such 
as Hezbollah and Hamas, and disregards the international community's 
concerns over its efforts to obtaining nuclear power and possibly 
weapons. It seems clear that the regional effect of these actions will 
be destabilizing in an area of the world vital for U.S. strategic 
interests.
    I want to ask your opinion on the possible change in Iran's 
attitude, if any, based on the outcome of last week's presidential 
elections. Do you believe there is any chance that a change in 
leadership would temper their growing sense of regional importance and 
detrimental national pride? Would a second term with Ahmadenijad at the 
helm cause further military concern in the region based on his rhetoric 
and the state's support of terrorist groups in the region?
    Answer. We are watching the events in Iran very closely. Regardless 
of how the current political dispute is resolved, U.S. and 
international concerns about Iran's nuclear program and support for 
terrorism remain unchanged and DOD will continue to focus on steps 
required to safeguard U.S. security interests.
    Question. There has been a great deal of discussion as of late over 
cyber security. May I commend you for the active and engaged role that 
the DOD is taking in recognizing and addressing the very real threats 
posed by cyber security attacks. Having chaired the Senate Special 
Committee on the Year 2000 Technology Problem (Y2K Committee), I am 
convinced that a significant national security threat exists. It is 
clearly short-sighted to suppose that by increasing funding for one 
year that we will solve all current and future problems. Because 
threats will evolve, so must our responses. This then would call in to 
question not so much our individual responses to cyber threats, but the 
system put in place to address them. Can you describe current efforts 
to effectively structure the systems that will determine how to secure 
cyberspace?
    Answer. The Department has taken steps to address risk effectively, 
and ensure our freedom of action in cyberspace. The Department recently 
established USCYBERCOMMAND, a subunified command under USSTRATCOM. As 
part of that effort we are reviewing all cyberspace policy and strategy 
to develop a comprehensive approach to DOD cyberspace operations. 
Additionally, we are currently reviewing how we acquire information 
technology (IT) systems within the Department. The end result of the 
establishment of USCYBERCOMMAND and the policy, strategy and 
acquisition reviews currently underway will determine how the 
Department secures cyberspace for our operations.
    Question. One of the tests of the new administration's cyber 
security policy is whether it can move beyond what some say has been 
outdated or inadequate thinking that had permeated previous debate. Can 
you describe the right balance in determining the proper role of 
government intervention so that it does not impose too much bureaucracy 
on the private sector, but still offers sufficient protection of 
government resources and assets, especially defense assets?
    Answer. An example of creating the right balance is the 
Department's Defense Industrial Base (DIB) Cyber Security and 
Information Assurance (CS/IA) program. The DIB CS/IA program was 
established in September 2007 by the Department to partner with cleared 
defense contractors to secure critical unclassified DOD information 
resident on, or transiting, DIB unclassified systems and networks. This 
DOD-DIB partnering model provides the mechanism to exchange relevant 
cyber threat and vulnerability information in a timely manner, provides 
intelligence and digital forensic analysis on threats, supports damage 
assessments for compromised information, and expands government-to-
industry cooperation, while ensuring that industry equities and privacy 
are protected.
                                 ______
                                 
            Questions Submitted to Admiral Michael G. Mullen
            Questions Submitted by Chairman Daniel K. Inouye
           institutionalizing irregular warfare capabilities
    Question. Admiral Mullen, our troops entered Afghanistan in 2001 
and Iraq in 2003. We soon realized that the threat environment for our 
military operations was quite different than what we were prepared and 
equipped for. We responded by rapidly developing and fielding thousands 
of anti-IED jammers, more than 16,000 mine resistant ambush protective 
vehicles and countless intelligence, surveillance and reconnaissance 
assets. All of these programs have saved American lives, yet none of 
them are Programs of Record and they are all managed outside of the 
traditional Defense Department bureaucracy. Why was it necessary to go 
outside of the regular Department of Defense acquisition process? And 
how can we institutionalize these capabilities instead of continuously 
adding more layers to the bureaucracy?
    Answer. The experiences of MRAP, the rapid fielding of Army's Task 
Force Odin and other ISR capabilities into theater, and the UAS ``max 
capacity'' push (more Predators/Global Hawk Block 10s) were invaluable. 
These exceptional efforts were successful because we prioritized 
requirements and expedited traditional processes to obtain the agility 
and responsiveness required for wartime acquisition. Several of these 
initiatives now are programs of record or transitioning to programs of 
record.
    We are working to institutionalize the procurement of urgently-
needed resources in wartime to meet current and future requirements. At 
Congressional request, GAO and the Defense Science Board (DSB) are 
currently looking at this problem and we look forward to their 
recommendations for improvement. The rapid acquisition, deployment, and 
sustainment activities must be harmonized. Additionally, the Department 
must balance the need for high-tech and low-tech equipment solutions, 
while institutionalizing processes and procedures that field 
capabilities quickly and efficiently, when and where needed.
    Question. Admiral Mullen, one of the reasons our acquisition system 
is so cumbersome and inflexible lies in requirements that often demand 
gold-plated solutions that can take years to develop. Many of the rapid 
fielding capabilities we're now sending to theater may only represent a 
75 percent solution, but collectively, they seem to get the job done. 
What is your assessment of the new equipment we've been sending into 
theater? Are we addressing our warfighters' needs?
    Answer. In general, the new equipment fielded has had a huge impact 
in theater, especially in Iraq. The Department is capitalizing on the 
wartime procurement lessons learned so that Afghanistan can benefit 
from these experiences. Much of the rapidly, urgently fielded ISR, C2, 
UAS, force protection, and Counter-IED capabilities are typically low-
cost, commercial-off-the-shelf (COTS) or slightly modified-COTS 
solutions. The short, time-certain need period is a determinant factor. 
The speed of development and production is increasingly important. Our 
focus is to improve our ability to anticipate requirements and 
therefore minimize the need for partial solutions.
                           irregular warfare
    Question. Admiral Mullen, roughly 6 months ago, your office issued 
guidance declaring irregular warfare to be as ``strategically important 
as traditional warfare''. You state that the fiscal year 2010 budget 
rebalances capabilities and provides roughly 10 percent for irregular 
warfare, 50 percent for traditional, strategic and conventional 
conflict, and 40 percent for dual-use capabilities. However, with no 
outyear budget data and no movement by the military services to 
significantly adapt doctrine and training, how can the Committee be 
assured that ``irregular warfare'' is not just a convenient way to cut 
programs or justify new programs?
    Answer. Recent conflicts around the world highlight how irregular 
warfare is increasingly being employed against conventional military 
forces, and I am absolutely certain that irregular warfare will be with 
us in future conflicts. I see joint doctrine, education and training 
adapting accordingly; we have new doctrine in counterinsurgency, 
stability operations, security force assistance (amongst others) on-
line and coming on-line, near-term. IW has also been a specific 
emphasis area of mine in both joint education and training for a number 
of years. I fully support the balance between conventional, dual-use, 
and irregular capabilities in the fiscal year 2010 President's budget 
request. The program decisions in this budget request emphasize our 
people first, while balance our efforts by addressing the fights we are 
in and most likely to encounter again without sacrificing conventional 
capability. That balance helps to check programs that have exceeded 
their original design, improve efficiency, and steward the resources 
taxpayers provide us for the common defense. I am confident that this 
balance not only preserves our war fighting edge but also inject the 
flexibility required to address today's most relevant challenges.
    Question. How will you ensure that the military services will not 
scale back their full spectrum readiness training too much, so that we 
can continue to dominate and prevail in major combat operations?
    Answer. We acknowledge adjusting joint force combat capabilities 
and capacities to provide greater emphasis on fighting irregular forces 
potentially risks reducing combat capabilities and capacities with 
respect to regular forces, a less likely but potentially more dangerous 
security threat. This risk will be mitigated to the extent that combat 
capabilities and organizations are designed from the outset for maximum 
versatility and specialized capabilities essential for success against 
regular forces or for deterrence are preserved. It can also be 
mitigated by the development and application of training techniques and 
technologies that help leaders and their subordinates master new skills 
more quickly than more traditional training methods. There are 
processes in place for the service chiefs and combatant commanders to 
provide annual comprehensive assessments of their ability to meet Title 
10 and Unified Command Plan responsibilities including the entire range 
of military operations. The Department's readiness reporting processes 
assess readiness to meet the demands of the National Military Strategy 
across the entire set of NMS missions, and are based largely on 
information reported by the services and combatant commands. Decreases 
in preparedness for major combat operations caused by increasing IW 
preparedness would be evident through reporting by the combatant 
commanders and service chiefs, and managed appropriately. Lastly, 
Congress receives the Quarterly Readiness Report produced by OSD in 
conjunction with the Joint Staff and the services.
                    acquisition reform--requirements
    Question. Admiral Mullen, as we look at improving the acquisition 
system due to massive cost overruns and schedule delays, perhaps we 
should think about the way that weapon system requirements are 
generated and validated. It appears that too often, ``requirements 
creep'', or reaching for immature technologies makes programs too 
costly and off-schedule. How can the Department better manage 
requirements, and perhaps change the service cultures, so that 
acquisition programs are more likely to provide needed capabilities on 
time and on cost?
    Answer. The Department is committed to improve systems acquisition 
performance. We must generate greater agility and responsiveness in our 
acquisition system, especially wartime procurements and foreign 
military sales. The Department made a number of key revisions to its 
acquisition policies and procedures. It is important to 
institutionalize these changes with discipline and better measures of 
effectiveness.
    Part of improving the acquisition process is improving the front 
end of the process--our requirements definition. To improve overall 
performance, the Joint Staff has implemented Requirements Management 
training for all those who occupy positions of responsibility in 
defining and vetting requirements documents. The Joint Requirements 
Oversight Council (JROC) has also continued to refine its processes and 
aims to establish well defined, realistic requirements. To improve this 
process, the JROC has focused and streamlined the capabilities-based 
assessment (CBA) to ensure it provides an appropriate definition of 
capability needs to support a decision for a material solution and the 
warfighter defined requirements to be met. In order to provide the 
warfighter an increased role in the requirements process, the JROC has 
begun to experiment with delegation of Joint Capabilities Board (JCB) 
authority to appropriate functional combatant commands (JFCOM for C2 
and SOCOM for special operations related capabilities). The JROC is 
continuing to evaluate this delegation of JCB authorities and will next 
look at delegation to TRANSCOM for logistics capabilities and STRATCOM 
for net-centric and battlespace awareness capabilities. The JROC has 
updated its instruction and procedures to provide additional direction 
delineating capabilities the JROC must approve to ensure they receive 
appropriate oversight without undue delay. Finally, the JROC is working 
to fully implement the provisions and changed enacted in the Weapon 
Systems Acquisition Reform Act of 2009.
    Question. Do you believe that your staff has the analytic support, 
such as modeling and simulation tools, for objective analysis to help 
prioritize requirements?
    Answer. The Joint Staff has adequate analytical support both in 
terms of qualitative methods (human in the loop war gaming 
capabilities) and quantitative methods (modeling and simulation 
capabilities) to validate assumptions and outcomes. These analytic 
tools help frame the front end of the requirements development process 
and feed into Capability Based Assessments which are conducted to 
assess and prioritize specific capability gaps.
    Question. What improvements or changes would you recommend in order 
to better manage requirements?
    Answer. We are continuously evaluating methods to streamline the 
management of requirements. To that end, we have made recent changes in 
the requirements development and management process.
  --We are limiting the number of documents that must go through joint 
        review and oversight to those that impact joint operations.
  --We have provided guidance to better scope the analysis done in the 
        capability gap assessment process. This will reduce time and 
        resources required while presenting an appropriately defined 
        requirements gap to the Joint Requirements Oversight Council 
        (JROC) for validation. This will allow the Department to move 
        more quickly from the requirements process into the acquisition 
        process.
  --We have recognized that information technology systems need to have 
        a more flexible requirements management process than 
        traditional hardware programs. To address this, we have better 
        tailored the requirements process as it applies to information 
        technology systems. Once the JROC approves the initial 
        performance requirements and provides overarching cost and 
        schedule constraints, it will delegate requirements management 
        and oversight to an appropriate Flag level body that has the 
        time and flexibility to effectively manage the development of 
        these systems.
    We are also working on future improvements to the requirements 
management process:
  --We are developing an information technology data management tool 
        which will allow us to structure the data in requirements 
        documents to make the information more readily available and 
        visible for comparison and analysis.
  --We are developing a similar tool for managing joint urgent needs to 
        allow for more rapid information sharing so that we can make 
        decisions more rapidly and get solutions into the hands of the 
        warfighter more quickly.
    We will continue to identify opportunities to improve the 
requirements management process to ensure we provide the correct level 
of oversight balanced with the ability to respond efficiently to the 
warfighter's needs.
             strategic implications of program terminations
    Question. Admiral Mullen, we understand that the fiscal year 2010 
budget is a step towards rebalancing resources to build irregular 
warfare capacity applicable to the current fight. But we still face 
threats from traditional nation states such as North Korea and 
potentially Iran or others. How do program terminations such as the F-
22, C-17 and Future Combat System Manned Ground Vehicle affect our 
ability to respond to traditional threats? Are we swinging the pendulum 
too far the other way?
    Answer. I don't think the President's fiscal year 2010 budget (PB-
10) swings the pendulum too far away from traditional threats. PB-10 
provides a rebalancing of the Department's programs in order to enhance 
our capability to fight the wars we are in today and the scenarios we 
are most likely to face in the years ahead. This rebalancing also 
provides a hedge against other risks and contingencies. Last year's 
National Defense Strategy concluded that although U.S. predominance in 
conventional warfare is not unchallenged, it is sustainable for the 
medium term given current trends. PB-10 focused on what programs are 
necessary to deter aggression, project power when necessary, and 
protect our interests and allies around the globe.
                  de-militarizing u.s. foreign policy
    Question. Admiral Mullen, earlier this year, you suggested that the 
military should be ``brave enough not to lead'' when it comes to 
foreign policy. Can you elaborate on that concept for us?
    Answer. We have learned from the past 7 years of war that we serve 
this Nation best when we are part of a comprehensive, integrated 
approach that employs all elements of power to achieve the policy goals 
set forth by our civilian leaders. The lead agent of U.S. diplomacy and 
development should be the State Department, which obviously requires 
the backing of a robust military and a strong economy. As we win the 
wars we are fighting and restore the health of our Armed Forces, the 
military's approach will increasingly support our diplomatic 
counterparts through the persistent engagement required to build 
networks of capable partners. Integrated with these partners and the 
interagency and non-governmental organizations, we will more 
successfully protect the citizens of this Nation.
           ground-based missile defense (alaska interceptors)
    Question. Admiral Mullen, the Department's budget request would 
effectively stop the emplacement of ground-based interceptors in Fort 
Greely, Alaska. Has the ballistic missile threat to the U.S. homeland 
changed to warrant curtailing this program?
    Answer. The threat of long-range ballistic missile attacks by rogue 
states, such as North Korea today and Iran in the near-future, remain a 
threat to the U.S. homeland. The fiscal year 2010 budget adequately 
addresses the current North Korean threat and provides limited 
protection against future threats from the Middle East.
        fiscal year 2010 overseas contingency operations request
    Question. Admiral Mullen, how will you ensure that urgent, 
unforeseen warfighter requirements are addressed in the fiscal year 
2010 overseas contingency operations budget? Can you assure us that the 
Committee will be informed of any necessary adjustments?
    Answer. We built the fiscal year 2010 overseas contingency 
operations budget with the best information available. The new 
administration provided us with the decisions necessary to produce 
estimates reflective of the current policies of the United States for 
the operations in Iraq and Afghanistan for fiscal year 2010.
    However, changing conditions on the ground and the commander's 
assessment of needs to prevail in the operations could drive the 
requirement for changes in force structure or in other areas that would 
compel the Department to make adjustments to the budget. We ask for 
your support of legislative proposals that would increase our 
flexibility for responding to these types of adjustments. Legislative 
proposals such as raising the threshold level for urgent minor 
construction, expanding or continuing train/equip authorities, and 
continuing or expanding authority for the transfer of equipment to the 
Iraqi/Afghan security forces increase our flexibility and are essential 
to the successful conduct of the operations. Should we experience 
significant urgent, unforeseen requirements we cannot resolve on our 
own, we will work with the administration to inform the committee as 
appropriate.
                          strain on the force
    Question. Admiral Mullen, the Army's and Marine Corps' suicide and 
divorce rates have risen sharply this past year. It appears that the 
strain of frequent deployments is affecting the emotional health of our 
soldiers and Marines. Do you believe the Department is doing enough to 
support service members and their families? What more could we do?
    Answer. The high suicide rates are a sobering gauge of challenges 
currently facing all the services. Failed relationships, alcohol abuse, 
legal, financial and occupational difficulties all remain established 
risk factors for suicide. We know that high mission tempo associated 
with the wars in Iraq and Afghanistan, increased deployment lengths, 
repeated deployments and limited downtime between deployments are all 
associated with increased mental health issues. We believe that combat 
deployments, combat stress and suicide rates are all very much related, 
although analytical data citing this direct correlation is not yet 
available.
    In response to this belief, we are actively engaged in efforts to 
reduce the stress on the force and their families by increasing dwell 
time at home between deployments. Over the next 18-24 months, we 
anticipate a move toward 2 years at home for every 1 year deployed for 
our active duty forces and 5 years at home for every one year deployed 
for our reserve component forces.
    Meanwhile, the services are actively engaged in educating service 
members and leaders at all levels on suicide prevention, and programs 
targeting risk factors and incorporating protective factors have been 
instituted. Joint initiatives, such as the establishment of the Defense 
Centers of Excellence for Psychological Health and Traumatic Brain 
Injury and the DOD Suicide Prevention and Risk Reduction Committee 
provide infrastructure to assess, validate, oversee and facilitate best 
practice prevention, resilience, identification, treatment, outreach, 
rehabilitation and reintegration programs to ensure we meet the needs 
of the Nation's military communities.
    The military has made large strides to provide improved and 
increased mental health support for service members and families. Each 
service has been addressing this issue since 2003, most actively since 
2007. DOD has made sufficient funding available to meet the 
psychological health requirements as currently established by OSD(HA) 
and the services through 2010. We have increased military/civilian 
mental health provider numbers by 75 percent and network mental health 
providers by 25 percent since 2001.
    Despite these overall increases in mental health provider staffing 
to support our military communities, shortfalls remain. Although the 
services are funded, a shortfall of nearly 1,000 additional mental 
health providers is reported across the services this year. 
Complicating this shortfall is the similar overall shortage of 
providers in the civilian sector, as well as difficulty hiring 
clinicians for the relatively remote locations of the posts, camps, and 
installations where service members and their families reside. Numerous 
mental health recruitment and retention staffing initiatives continue 
in order to try to fill this gap, including direct hire authority of 
civilians, scholarships, critical skills retention bonuses and loan 
repayment programs. However, dedicated efforts to address our military 
health system's current distribution/utilization of mental health 
personnel, staffing models, standard of care and practice issues and 
manpower accounting capabilities must be further examined and modified 
where required.
    Senator Inouye, your sponsorship of significant telemedicine 
legislation and research is greatly appreciated. We are striving to 
leverage these assets.
    Because of the nature of the problem and the number of service 
members affected, the medical community alone will not succeed without 
increased leadership emphasis targeting prevention and cultural change. 
A continued concerted effort is required to first identify and then 
successfully reverse the root causes of the complex issues we confront 
as well as fighting the mental health stigma at every level. I do not 
consider the elimination of mental health stigma to be a heath issue, 
but a leadership issue. I am determined to change our culture and 
assure you this is a top priority.
    Question. The Army and Marine Corps have now both completed their 
planned end strength growth. Do you believe that the Army and Marine 
Corps force structure is large enough to relieve the operational strain 
on the force?
    Answer. The Army and Marine Corps force structure will be large 
enough to relieve the operational strain on the force when, in the 
Army's case, the 22,000 personnel are fully accessed and trained. With 
respect to the Marine Corps, the authorized 202,000 active duty end 
strength is sufficient to meet 1:2 Active Duty dwell and 1:5 Reserve 
Force dwell in the mid-term.
    The Army sought and received a temporary increase of up to 22,000 
personnel in end strength to alleviate the continued pressure of global 
demands. This increase will serve to relieve the strain on the force by 
improving the Army's ability to fill deploying units (both BCTs and 
enablers) in order to offset increasing non-deployable rates (13 
percent in 2009, primarily medical conditions) and the elimination of 
the Stop Loss program.
    Additionally, when fully implemented, the temporary increase will 
improve the strength of units in RESET by achieving over 100 percent 
authorized strength for TRAIN/READY units to provide more units with 
deployable strength at or above 93 percent.
    Up to 2,000 of the 22,000 will be focused on officer increases 
(through retiree recalls) and NCO increases (retention actions and 
retiree recalls) with the priority for the retiree recalls to fill/
offset Worldwide Individual Augmentation System (WIAS) requirements.
    The Army's decision to seek the full 22,000 temporary increase will 
be based on detailed analysis of the demand assumptions projected for 
summer 2010 and the impact on readiness of the first 15,000 of the 
temporary end-strength increase which will be complete by September, 
2010.
    With respect to force readiness, the improvement in readiness will 
be incremental as we bring increasing numbers of the 22,000 into the 
force. The first priority is to increase deployer fill. We have 
determined the priority Military Occupational Specialties (MOS) and 
training base capacity allowing us to impact those units with goal of 
bringing the first 5,000 on by the end of the fiscal year.
    The transition to the Afghanistan-focused CENTCOM theater campaign 
plan before a sufficiently reduced demand for forces in Iraq impacted 
the overall demand for Army forces. Of the 43 Active Component Brigade 
Combat Teams (BCT), all are either committed to global operations, in 
transit to those operations, in Army force regeneration, RESET, or 
training phases with a Boots-On-Ground (BOG) to dwell ratio of 1:1.4. 
The Army's manning guidance for deploying BCTs is to man to 105 percent 
assigned strength in order to attain 95 percent deployed strength. U.S. 
Army in coordination with CENTCOM guidance deploys all combat arms 
forces at or above 90 percent deployed strength. Deploying units that 
do not achieve a manning level of 90 percent at Latest Arrival Date 
(LAD) plus 30 days must ``deploy by exception'' as approved by the 
Chief of Staff of the Army.
                     age and health of tanker fleet
    Question. Admiral Mullen, I am concerned about the aging Air Force 
tanker fleet and the health and age of the KC-135 tankers by the time 
they are replaced. Can you update the Committee on the status of the 
Air Force tanker fleet, including the age of the fleet and any present 
safety and flight concerns with the current fleet?
    Answer. Our current Air Force tanker fleet has been operating 
without readiness issues, but with the age of KC-135s averaging 48 
years, future operational availability will depend on flight hours and 
usage patterns.
                   special operations command (socom)
    Question. Admiral Mullen, the Commander of the Special Operations 
Command, Admiral Olson, recently stated that escalating requirements 
for capabilities provided by Special Operations Forces have outpaced 
SOCOM's ability to train new personnel and develop critical enablers in 
the areas of aviation, intelligence, and communications. To mitigate 
these shortfalls, Admiral Olson has requested that the military 
services provide Special Operations Command with additional assistance 
and manpower in these critical support areas. Are the services able to 
meet these additional requirements? How will this plan be managed, and 
to what degree has it been incorporated in the fiscal year 2010 budget 
request?
    Answer. Through the generous support of Congress, the services have 
been able to meet the additional requirements for conventional support 
to special operations. In limited situations, the services have 
supported special operations requests with ``ad hoc'' solutions and by 
detailing ``in lieu of'' manpower or assets to assist. Looking forward, 
achieving the Grow the Force Initiatives in the Army and Marine Corps 
and the significant increases in ISR and rotary wing aviation training 
requested in the fiscal year 2010 President's budget will ensure 
critical conventional force enablers to special operations forces are 
provided to support current conflicts and prepare for future 
challenges.
    Question. Funding for Special Operations Command has grown from 
$2.1 billion in 2001 to nearly $8.6 billion, including supplemental 
funding, in fiscal year 2010. During this same time period Special 
Operations Command's mission has grown exponentially, as evidenced most 
recently by its designation as the DOD Proponent for Security Force 
Assistance (SFA). Given this rapid growth in both budget and 
responsibility, how are you ensuring programmatic and fiscal 
accountability within Special Operations Command?
    Answer. Special Operations Command (SOCOM) has developed rigorous 
strategic planning, programming, budgeting and execution processes. The 
command submits its program for Special Operations Forces (SOF)-
peculiar requirements, funded through defense-wide appropriations 
lines, directly to the Department, in much the same way the services 
do. While the four component commands work their SOF-peculiar 
requirements through SOCOM's processes, they must also work through 
their individual parent services to ensure the approval and resourcing 
of service-common requirements.
    Commander, SOCOM has taken several steps since 2001 to help ensure 
effective stewardship of appropriated funding. SOCOM has not only 
increased the number of military and civilian financial management 
personnel who execute and oversee resources, and in June 2008, the 
commander made the financial management function a stand-alone center, 
and the Comptroller reports directly to him.
    Specifically, there are several programs and processes in place to 
help command financial managers maintain visibility over the command's 
SOF-peculiar Major Force Program (MFP)-11 funding. The command 
established a quarterly resourcing process, the Joint Resources 
Management Program (JRMP) with the Deputy Commander as the final 
decision-making authority. Further, the component command and the 
Theater Special Operations Command (TSOC) comptrollers participate in 
the allocation of SOCOM's funding. The JRMP oversees all MFP-11 
resources; this year, the process was more closely aligned with the 
command's Center for Acquisition and Logistics, and includes quarterly 
execution reviews of all procurement and RDTE programs.
    The command has established controls to reasonably ensure that 
obligations and costs are in compliance with any applicable laws; its 
funds, property, and other assets are safeguarded against waste, loss, 
unauthorized use or misappropriation; and they properly record and 
account for revenues and expenditures.
    Finally, SOCOM uses accounting processes and tools to provide 
additional visibility over the use of MFP-11 funds, and to help 
identify potential abnormalities during execution. These include: the 
analysis of the monthly Appropriation Status FY Programs and 
Subaccounts Report (AR(M)1002); Tri-Annual Reviews (TARs), which 
require financial analysts to formally review all open documents to 
determine validity of funds obligated and committed, and de-obligates 
for other purposes those that are not valid; electronic databases such 
as the Financial Information System that provide command personnel with 
real-time fund status; and the Defense Departmental Reporting System, 
which provides SOCOM's official financial reports and Auditable 
Financial Statements.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
    Question. In 2008, the Department of Defense's Defense Institute 
for International Legal Studies (DIILS) began its ``Afghan National 
Army Legal Development Program'' in response to a request for rule-of-
law training from the Combined Security Transition Command--
Afghanistan. Approximately eight Afghanis were trained to be the 
trainers for future Afghan Legal Advisor training programs. In March 
2009, the first course, taught by these trainers trained 50 Afghan 
National Army and Afghan Ministry of Defense legal advisors on various 
aspects of the ``rule of law.''
    What is the Department of Defense's comprehensive plan to ensure 
that its rule-of-law training in Afghanistan is conducted in a 
consistent, systematic, and integrated manner?
    Answer. Defense Institute for International Legal Studies (DIILS) 
has been active in Afghanistan since February 2004. DIILS was part of a 
Legal Development Training Team (LDTT) engaged in the development of a 
Comprehensive Legal Officer Training Plan (CLOTP) for the Afghan 
National Army (ANA). The CLOTP entailed working with eight experienced 
ANA legal personnel to develop a curriculum and instructional materials 
for a formal course of instruction for ANA legal officers. The LDTT and 
the Afghan legal personnel co-authored, co-produced, and implemented 
the training program and provided the training to a mix of 50 officers 
from the ANA and the MOD. The goal of this course is that every Afghan 
legal officer be able to participate and attend this course over the 
next 1-2 years. This program is under the overall oversight of the 
Staff Judge Advocate (SJA) for CSTC-A. The SJA is responsible for the 
conduct of this course and will continue to encourage the cadre of 
Afghan instructors to implement this program of instruction.
    Question. What is the Department of Defense's plan to monitor 
adherence to rule-of-law principles within the Afghan National Army, 
Afghan National Police, and Afghan Ministry of Defense and provide 
follow-up training?
    Answer. The Department of State is the department responsible for 
rule-of-law and other governance and development initiatives. Please 
also see the answer to the previous question.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell
    Question. Admiral Mullen recently predicted that in 2009 the Army 
would see a record number of suicides. So far this year, the highest 
reported number of suicides on an Army installation has been at Fort 
Campbell in my home State of Kentucky, with 11 suicides. I find this 
deeply troubling. What immediate action is being taken at Fort Campbell 
to prevent further suicides among soldiers?
    Answer. In April 2009, the Army published Annex D of the Army 
Campaign Plan for Health Promotion, Risk Reduction and Suicide 
Prevention which was distributed to Commanders throughout the Army. 
This was followed by an All-Army Action (ALARACT) from VCSA GEN Peter 
W. Chiarelli encouraging Commanders to utilize the guidance provided in 
Annex D. Annex D directs Installation, Garrison and Military Treatment 
Facility Commanders to optimize efforts of already existing programs by 
ensuring their coordination, integration, evaluation and marketing. 
There were specific steps and tasks to be completed in preparation for 
further ongoing programmatic changes initiated by the group of subject 
matter experts.
    In addition, those experts have worked closely with command 
elements at Fort Campbell and the Army's Office of the Surgeon General 
to address the unique needs of the military community at that 
installation. Consequently, Fort Campbell developed a concept of 
``resilience teams'' which will supplement current medical assets. The 
resilience team is placed into each Brigade and works closely with unit 
leaders, soldiers and families to identify high risk individuals. 
Medical personnel have also been ``surged'' to Fort Campbell from other 
installations to supplement existing assets while Fort Campbell works 
to expeditiously fill vacancies.
    Fort Campbell has redistributed its behavioral health assets to 
maximize access to care among its supported Soldier population, to 
include relocating some behavioral health assets to fill brigade-level 
behavioral science officer positions.
    In addition, the Army's Center for Health Promotion and Preventive 
Medicine (CHPPM) sent a team to assess whether leadership turnover and 
training were contributing factors. A senior psychiatrist from the Army 
Surgeon General's office performed a staff assistance visit in June and 
will conduct a follow up visit in July.
    Question. What mental health and counseling resources are currently 
available to soldiers and their families at Fort Campbell?
    Answer. Blanchfield Army Community Hospital (BACH) supports a 
military population of 78,222 eligible beneficiaries with an average of 
8,000 claims per month for mental healthcare in the BACH network area. 
The current staffing picture for services provided by the Community 
Counseling Center, Adult Behavior Health Unit, Child and Adolescent 
Psychiatry Unit, Social Work Service and the Family Advocacy Program 
includes a total of 201 behavioral health providers (military, civilian 
and contractors). Twenty-five additional positions have been recently 
funded and filled, and recruiting actions are underway for another 15 
positions which are funded, but unfilled. (Information provided by U.S. 
Army Office of the Surgeon General on July 27, 2009.)
    In addition to the services listed in the previous paragraph, the 
Substance Abuse Program currently has eight available counselors and 
two counselor vacancies. BACH is actively engaged in recruitment 
efforts to increase the total number of substance abuse counselors to 
15. All soldiers are seen on a walk-in basis; however, rehabilitation 
team meetings are not meeting the 7-day completion standard due to the 
staffing shortfalls. Group treatment settings are provided for all 
participating soldiers; however, group participation is limited to 
generic pre-treatment groups for the first 4-5 weeks, until which time 
space in specific treatment groups becomes available.
    Office of the Secretary of Defense (OSD) Military OneSource (MOS) 
supplements existing Fort Campbell Army Family programs by providing a 
24-hour toll-free information and referral telephone line and Internet/
web based service. MOS has received a total of 3,802 calls for 
counseling with 11 of those resulting in telephonic counseling, 1,455 
in-person counseling and 1,200 referrals to in-person counseling. 
Seventy percent of these contacts were from service members and 30 
percent for family members. The top five reasons for in person 
counseling includes relationship, stress management, depression, 
personal growth and returning from deployment. All soldiers and their 
families have access to Military OneSource which provides up to 12 
counseling sessions free of charge with providers from the local 
community.
    Each battalion at Fort Campbell has a chaplain who is available for 
soldiers and family members and there are additional chaplains 
integrated throughout the installation.
    As of June 23, 2009 the U.S. Army OTSG Headquarters reports 2,735 
behavioral health providers in the U.S. Army staffing inventory with a 
current shortfall of 336. This is an increase of 156 providers since 
the last update provided June 9, 2009 with March 2009 numbers. Funding 
is available for the shortage of 336 mental health providers. The Army 
is using a number of incentives with continuous positive outcomes shown 
in an increase in positions being filled. There continues to be work in 
the area of determining the correct staffing model and numbers to meet 
the needs of all locations of the military population.
    Question. Are these resources going to be increased in light of the 
rise in the suicide rate? If not, why not?
    Answer. Yes, the Army Medical Command (MEDCOM) has sent 31 
additional behavioral health specialists to support Fort Campbell's 
soldiers and families. Specifically, it doubled the number of Army 
Substance Abuse Counselors from 8 to 16; it sent 3 additional 
psychiatrists, 6 additional clinical psychologists, and 3 additional 
licensed clinical social workers. These personnel will stay in place at 
Fort Campbell until permanent military, civilian, and contract 
personnel arrive at Fort Campbell.
    There is a very active and robust recruiting effort at Fort 
Campbell which aims to fill vacant behavioral health positions while 
maintaining standards to ensure the highest quality of care for our 
soldiers and families.
    In the interim, Fort Campbell developed a concept of ``resilience 
teams'' which will supplement the already existing medical assets at 
Fort Campbell by placing these teams into each Brigade. These teams 
will work closely with unit leaders, soldiers and families to identify 
high risk individuals. Medical personnel have been ``surged'' to Fort 
Campbell from other installations to supplement existing assets while 
Fort Campbell works to expeditiously fill vacancies. In addition, the 
Army Office of the Surgeon General and MEDCOM are actively reviewing 
the Automated Staffing Assessment Model to evaluate the necessity of 
modifying the required number of behavioral health and primary care 
providers given the effects of protracted conflict on the soldiers, 
families and the military health system.
    Question. More broadly, what is the Army doing across the board to 
address this deeply troubling trend?
    Answer. The Army is focusing, but not limiting, its efforts through 
the Army Campaign Plan for Health Promotion, Risk Reduction and Suicide 
Prevention. This plan was developed through a group of subject matter 
experts convened by the VCSA GEN Peter W. Chiarelli. The experts 
developed approximately 250 tasks which span the entire Policy, 
Doctrine, Organization, Training, Materiel, Leadership, Personnel, 
Facilities and Resource (P-DOTMLPeF-R) spectrum and incorporated those 
tasks in a synchronization matrix. This matrix is a working document 
and has been staffed with the Army Suicide Prevention Council which is 
made up of senior representatives from across the Army Staff. The tasks 
are designed to approach suicide prevention from a holistic perspective 
with the belief that if we address areas which contribute to suicide, 
the rate of suicide will decline.
    The Army also completed Phase I of Suicide Prevention Training 
during an unprecedented stand down from February 15 to March 15. The 
Army is currently executing Phase II of suicide prevention training 
(March 16 to July 16). Phase III will follow and will consist of 
ongoing efforts that are developed and modified to address the evolving 
needs of the Army.
    Question. Does the military need greater authority or resources in 
this area? If so, what are they?
    Answer. DOD recognizes the need for comprehensive mental health 
programs to support our soldiers, sailors, airmen, marines and their 
families. The services currently have an estimated staffing need for 
4,935 mental health professionals (3,072 Army, 1,011 Air Force and 852 
Navy); 479 (9.7 percent) of these positions are unfilled (337 Army, 100 
Air Force and 42 Navy). DOD has budgeted over $1.7 billion and $1.8 
billion for fiscal years 2009-2010 respectively to pay for these 
shortfalls; significant hiring initiatives and overall progress 
continue to be made across the services, although challenges remain. We 
continue to refine our staffing models (accounting for increased 
deployments, occupational issues, risks for combat-related illness and 
injuries and cumulative stress on servicemembers and families) in order 
to best define numbers and types of staffing necessary to most 
effectively meet our goals of building resilience, reducing stigma and 
providing timely access to preventive and therapeutic mental healthcare 
while maintaining servicemember and family satisfaction. Requirements 
will continue to evolve and additional authorities and resources may be 
required in the future.
    The Nation's overall shortage and maldistribution of mental health 
providers is a significant impediment to filling our currently funded, 
yet empty mental health provider billets. According to experts from the 
U.S. Department of Health and Human Services' Health Resources and 
Services Administration, a shortage of over 5,000 mental health 
practitioners exists in the civilian mental health provider communities 
serving United States underserved areas. This shortage is likely to 
grow, as witnessed by recent media attention to increased demand for 
mental health services by the U.S. civilian population as well. The 
national shortage compounds our problem of attracting non-uniformed 
providers to the rural areas in which many military installations are 
located, negatively impacting both military and TRICARE network 
staffing. Greater authority and resourcing to provide scholarships to 
civilians-in-training in exchange for medical service within our 
military health system would benefit DOD mental health professional 
recruitment efforts.
    In an effort to find alternative solutions to the ongoing national 
mental health professional shortage, Internet technologies are being 
explored within the military and network health communities. We believe 
telehealth technologies could be utilized to expand services to 
military members and their families in these underserved areas. TRICARE 
Management Activity has recently modified the managed care support 
contracts to allow Employee Assistance Program level consultations at 
home. A study protocol for in-home psychiatric consultation capability 
using these modalities is also being developed. Legislative change 
providing relief for healthcare provider State licensure requirements 
and restrictions during telemedicine has the potential to foster 
greater telemedicine access and would help military families and the 
Nation as a whole.
    Finally, we believe that non-medical factors such as recruitment, 
retention, training, leadership and stigma are critical aspects of the 
larger, complex problem which must continue to be closely examined if 
we are to effectively deal with the issues facing our servicemembers 
and their families.
                                 ______
                                 
            Questions Submitted by Senator Robert F. Bennett
    Question. I understand the State Department is considering placing 
North Korea back on its list of state sponsors of terrorism. The recent 
missile tests, nuclear detonation and farcical trial of two American 
journalists are only the most recent examples of the North Korean 
regime's intentionally bellicose actions intended to antagonize the 
international community and provide diplomatic maneuvering from which 
to blackmail the rest of the world. The new administration's view of 
missile defense focuses on rogue state and theater missile threats. It 
seems especially pertinent at this time to look at the missile defense 
system in Alaska that has been targeted for reduction.
    Is it wise at this point to reduce the number of ground-based 
interceptors and await the result of the Quadrennial Defense Review and 
the Nuclear Posture Review to determine the best capabilities to defend 
against threats from an obvious rogue state whose missile are already 
capable of striking our northern-most state?
    Answer. The interceptors in place (to include programmed 
improvements), plus those planned for in the fiscal year 2010 budget, 
are sufficient to defend against the North Korean ballistic missile 
threat capable of striking U.S. homeland. Given the current shot 
doctrine, 30 operational GBIs provide sufficient fire power to protect 
the United States from ICBMs given the number of ICBM launch complexes 
and the long development time required for additional ICBM launch 
complexes in North Korea and Iran. The U.S. inventory of operational 
GBIs may be expanded in the future should the threat grow.
    Question. The United States has an obvious and immediate interest 
in the future of Pakistan, a nuclear-armed state with a history of 
military coups, ethnic and religious instability that contains lawless, 
drug-filled hinterlands that harbor international terrorists. With this 
explosive mix geographically adjacent to our troops in Afghanistan and 
cross-border cooperation between drug cartels, Al-Qaeda and the Taliban 
I am very concerned about our future military plans for the region. I 
understand the budget request for $700 million for the Pakistan 
Counterinsurgency Capabilities Fund will compliment Department of State 
efforts and be coupled with the Foreign Military Financing Program 
underway.
    Can you describe in an unclassified setting the contingency plans 
we may have with regard to the Pakistani military, its nuclear weapons 
and stability in the region should the Pakistani government fail or be 
overthrown by Islamic militants?
    Answer. The Department of Defense routinely plans for a variety of 
contingencies around the world. For security reasons, we cannot comment 
further.

                          SUBCOMMITTEE RECESS

    Chairman Inouye. Our next hearing will be held on June 19 
at 10:30, at which time we'll listen to public witnesses.
    Mr. Secretary, Admiral Mullen, Mr. Hale, we thank you very 
much for your service to our country and, through you, we thank 
the men and women of our uniformed services. Thank you very 
much.
    [Whereupon, at 12:09 p.m., Tuesday, June 9, the 
subcommittee was recessed, to reconvene at 10:30 a.m., Friday, 
June 19.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2010

                              ----------                              


                        THURSDAY, JUNE 18, 2009

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:30 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye and Cochran.

                       NONDEPARTMENTAL WITNESSES

STATEMENT OF ALEC PETKOFF, DEPUTY DIRECTOR, NATIONAL 
            SECURITY COMMISSION, THE AMERICAN LEGION

             OPENING STATEMENT OF CHAIRMAN DANIEL K. INOUYE

    Chairman Inouye. I'm pleased to welcome all of you to this 
hearing, where we'll receive public testimony pertaining to 
various issues related to the fiscal year 2010 Defense 
appropriations request.
    Because we have so many witnesses who wish to present 
testimony, I'd like to remind each witness that, unfortunately, 
they'll have to be limited to 3 minutes. Like to have this all 
day, but I have a supplemental appropriations pending on the 
floor.
    So at this point, I'd like to recognize the first witness, 
Mr. Alec Petkoff, deputy director of the--national security of 
The American Legion.
    Mr. Petkoff. Thank you, Mr. Chairman.
    Mr. Chairman, I want to thank you for inviting The American 
Legion to share its views on defense appropriations for fiscal 
year 2010.
    Since its founding in 1919, The American Legion remains 
steadfast in support of a strong national defense. The United 
States is a Nation at war, still battling against extremist 
Islamists all over the world. The United States also must be 
prepared for any number of threats to our national security, 
whether they arise from powerful nation states, rogue nation 
states, nonstate violent extremists, natural disasters, or 
instability resulting from economic downturns in the world 
economy.
    Our need for a ready and robust military is clear. Now is 
not the time to slow down or reduce the level of spending 
required to keep our country safe from this spectrum of 
threats. From quality-of-life issues, to force structure, to 
military healthcare, to procurement, none of these areas should 
be neglected at the expense of the other. With this in mind, we 
would like to briefly highlight some vital areas of concern.
    The first area of concern is the size of the active duty 
force. For decades, The American Legion has advocated for an 
active duty force of at least 2.1 million members. Since 
September 11, 2001, we have seen the results of having a force 
that is too small in relation to our national security needs. 
The results have been dramatically bad for our military 
servicemembers. These results are multiple deployments without 
adequate dwell time, straining military servicemembers, and 
likewise their families, to the breaking point; the required 
implementation of stop-loss, and the dramatic transformation of 
the National Guard from a strategic force to an operational 
force, which has increased our risk and reduced our strategic 
freedom of action. These results have had negative impacts on 
readiness and quality of life.
    Three years ago, Congress decided to increase the size of 
the force, adding 65,000 soldiers to the Army. This initiative 
has been a success. The Army reached its increased recruiting 
goal earlier this year, 2 years ahead of schedule. The Grow the 
Force Initiative has been successful, but that does not mean it 
should end.
    This is reinforced by Defense Secretary Robert Gates, who 
said, in testimony before the Senate Armed Services Committee 
last month, that despite the success of the Grow the Force 
Initiative, he remains concerned by the limited dwell time that 
our soldiers have between deployments. Therefore, The American 
Legion recommends further funding to significantly increase the 
size of the force beyond the original Grow the Force 
Initiative.
    The American Legion also has the following recommendations 
for the subcommittee:
    In military personnel, The American Legion supports a 
military pay raise from the suggested 2.9 percent to 3.9 
percent, to help close the civilian-military pay gap, and 
additional funds for Reserve Officer Training Corps.
    In operation and maintenance, with respect to defense 
health programs, The American Legion supports the full funding 
of TRICARE for retirees, dependents, and all Reserve forces. 
The American Legion also supports wounded warrior care 
improvements, to include outreach and treatment for traumatic 
brain injury and all mental and combat-stress related 
illnesses. And finally, funding for a standalone DOD research 
program into blood cancers, through the congressionally 
directed medical research program.
    In procurement, the Army should obtain necessary equipment 
to man the full complement of 48 brigade combat teams, as 
opposed to the proposed cutback to 45, and continue to refit 
and update the equipment of our Reserve forces, and timely 
procurement of advanced Air Force and Navy weapons systems, 
aircraft, and ships.
    In research, development, testing and evaluation, increases 
in missile defense, electronic warfare technology, and weapons 
technology are needed. Cuts to missile defense seem unwise.
    And finally, military construction--construction 
improvements to base medical facilities, commissaries, 
exchanges, and other facilities. And we urge that whenever a 
base realignment and closure is conducted, that certain base 
facilities, such as medical facilities, commissaries, 
exchanges, and other facilities, be preserved for use by active 
duty, reservists, retired military, veterans, and their 
families.
    The American Legion, again, thanks the chairman for having 
this important hearing, and for inviting us to present our 
views. I look forward to continue working with this 
subcommittee on these important issues of national defense.
    Chairman Inouye. Thank you very much. I would welcome any 
written material you may have.
    Mr. Petkoff. I would like to submit our written testimony 
for the record at this time, Mr. Chairman.
    Chairman Inouye. Thank you.
    [The statement follows:]
                   Prepared Statement of Alec Petkoff
    Mr. Chairman and members of the Subcommittee, thank you for 
inviting The American Legion to share its views on defense 
appropriations for fiscal year 2010. Since its founding in 1919, The 
American Legion remains steadfast in its support of a strong national 
defense which is reflected in the Preamble to The American Legion 
Constitution, namely, ``To uphold and defend the Constitution of the 
United States of America,'' and ``to inculcate a sense of individual 
obligation to the community, state and nation.''
    The United States is a Nation at war still battling against 
extremist Islamists all over the world. The United States also must be 
prepared for any number of threats to our national security whether 
they arise from powerful nation-states like Russia or China; rogue 
nation-states like Iran, North Korea or Somalia; natural disasters; or 
instability resulting from economic downturns in the world economy. Our 
need for a robust military is clear. Now is not the time to slow down 
or reduce the level of spending required to keep our country safe. With 
this in mind, The American Legion offers the following recommendations 
with a brief summary of explanation followed by a more complete 
rendering of The American Legion's views and recommendations:

 APPROPRIATIONS PROPOSALS FOR SELECTED GENERAL DISCRETIONARY PROGRAMS FOR DEPARTMENT OF DEFENSE FOR FISCAL YEAR
                                                     2010\1\
                                                  [In Billions]
----------------------------------------------------------------------------------------------------------------
                                                                                    Proposed
                                                                   Funding for       defense       The American
                                                                   fiscal year     funding for   Legion's fiscal
                                                                      2009         fiscal year      year 2010
                                                                                      2010       recommendations
----------------------------------------------------------------------------------------------------------------
Total Defense Spending.........................................          $654.7          $663.7           $728.2
Military Personnel.............................................          $142.7          $149.6             $150
Operation and Maintenance......................................          $273.5          $276.2           $315.7
Defense Health Programs (Operation and Maintenance)............           $25.7           $26.9        \2\ $63.2
Procurement....................................................          $133.2          $131.2           $136.2
Research, Development, Test and Evaluation.....................           $81.7           $78.9             $100
Military Construction..........................................             $28           $22.9           $26.3
----------------------------------------------------------------------------------------------------------------
 \1\ Includes Overseas Contingency Operations or OCO funding.
 \2\ Increase already included in Operation and Maintenance.

    Military Personnel.--Military pay raise from 2.9 to 3.4 percent to 
help close the civilian/military pay gap. Additional funds for Reserve 
Officer Training Corps (ROTC).
    Operation and Maintenance.--The Administration's overall modest 
increase in operations and maintenance is found mostly in the line 
item, ``Administration and Servicewide Activities'' while the line item 
``Operation Forces'' actually gets a decrease. While one can only 
assume the decrease is predicated on a drawdown of forces in Iraq, The 
American Legion recommends that more funds be allocated in case the 
plans for withdrawal are found to be premature by either the Iraqi 
government or more importantly our commanders on the ground.
    Defense Health Programs.--Fully fund TRICARE for retirees, 
dependents and all reserve forces; Stand alone fund for blood cancers; 
Wounded Warrior Care improvements.
    Procurement--Army.--Obtain necessary equipment to man the full 
complement of 48 BCTs, Navy--Oppose shifting the Navy Aircraft Carrier 
program to a 5-year build cycle. Longer cycles only mean larger costs 
and a weakened force. Air Force--Continue to purchase more F-22 Raptors 
and to hasten purchase and building of the aerial refueling tankers. 
Reserve Forces--Continue to refit and update equipment.
    Research, Development, Test and Evaluation.--Increases in missile 
defense, electronic warfare technology, and weapons technology needed. 
Cuts to missile defense are unwise.
    Military Construction.--Construction and improvements to base 
medical facilities, commissaries, exchanges and other facilities.
    The American Legion upholds the following national security 
principles as fundamental to the best interests of the United States:
  --The National Security Strategy needs to be reassessed so that 
        missions and resources are more closely aligned, particularly 
        during the upcoming Quadrennial Defense Review.
  --The credibility of the United States in an unstable world needs to 
        be maintained by retaining requisite military capabilities to 
        deal with actual and potential threats.
  --Such a strategy requires that the Armed Forces be more fully 
        structured, equipped and budgeted to achieve this strategy.
  --Active and reserve military end strengths should be increased to an 
        absolute minimum of 2.1 million for the foreseeable future.
  --At least 12 full-strength Army Divisions, 11 deployable Navy 
        aircraft carrier battle groups, three or more Marine Corps 
        Expeditionary Forces, and 13 or more active Air Force fighter 
        wing equivalents should be retained, as the minimum needed 
        baseline force.
  --Defense budgets should be funded at least 4 percent of Gross 
        Domestic Product (GDP) during time of peace, and at 5 percent 
        or more during time of war to fund both people and weapons 
        requirements.
  --The National Guard and Reserves must be realistically manned, 
        structured, equipped, trained, fully deployable and maintained 
        at high readiness levels, and not over-utilized in order to 
        accomplish their increasing and indispensable missions and 
        roles in the national defense.
  --Peacetime Selective Service registration should be retained so as 
        to maintain a viable capability to rapidly reconstitute forces 
        in the event of emergencies or war.
  --Force modernization for the Armed Forces needs to be realistically 
        funded, and not further delayed, or the United States is likely 
        to unnecessarily risk American lives in the years ahead. 
        Production of airlift and sealift assets needs to be expedited.
  --The American people expect that whenever Armed Forces are 
        committed, that they will be committed only when America's 
        vital national interests are threatened and only as a last 
        resort after all reasonable alternatives have been explored and 
        tried.
  --Peacekeeping, peace enforcement, peace-making and humanitarian 
        operations detract from military readiness to conduct combat 
        operations across the full spectrum of potential conflicts. 
        Such operations should be limited, congressionally approved and 
        separately appropriated on a case-by-case basis.
  --The honorable nature of military service should be upheld, as it 
        not only represents fulfillment of American patriotic 
        obligation, but is also a privilege and responsibility of 
        citizenship that embodies the highest form of service to the 
        Nation.
  --The United States Government must honor its obligations to all 
        service members, veterans, military retirees and their families 
        with equitable earned benefits, lasting military retirement 
        compensation and other appropriate incentives, such as timely 
        access to quality health care for all beneficiaries.
  --Major incentives for military service should include an enhanced GI 
        Bill for education and training, improved quality-of-life 
        features, and a reduced operational tempo in order to recruit 
        and retain a high-quality and fully manned, professionally led 
        force.
  --The United States Government is urged to retain the necessary 
        deployed forces worldwide to accomplish short-term as well as 
        long-term commitments and contingencies.
    The American Legion would like to thank Subcommittee Members for 
their hard work on previous legislation to improve the quality-of-life 
for America's Total Force military, retirees, and their families.
    This portion of the statement will contain issues on the following 
subject areas:
  --Quality-of-Life;
  --Force Structure;
  --Manpower and Weapons Systems;
  --POW/MIA.
                            quality-of-life
    It is with particular purpose that The American Legion address 
quality-of-life issues before the issues of ``force structure'' and 
``manpower and weapons systems'' as concerns our national defense. 
Maintaining a high quality-of-life for our service members has to be 
the first priority of any nation that seeks to defend its interests at 
home or abroad. Whether it be the infantryman, the pilot, the mechanic, 
or the cook, America needs to be able to attract and retain the best 
and brightest our Nation has to offer. Without such Americans to answer 
the call to service, all other money spent on defense will be in vain. 
And so it is with good reason that The American Legion is first 
concerned with the enhancement of quality-of-life issues for active-
duty service members, Reservists, the wounded and disabled, military 
retirees, and their families. If we are to win the war on terror, and 
prepare for the wars of tomorrow--in this decade and beyond--we must 
take care of the DOD's (Department of Defense) greatest assets; namely, 
its men and women in uniform.
    The United States must honor its obligations to all service members 
(past, present and future) and their families. The American Legion 
urges the Congress and DOD to support and fund quality-of-life features 
for Active-Duty, National Guard and Reservists as well as military 
retirees, veterans and their dependents, and military survivors. This 
is including but not limited to, the following:
  --Military pay comparability for the Armed Forces and regular 
        increases in the Basic Allowances for Quarters; renovation and 
        construction of military quarters and increased funding for 
        child day care centers are direly needed. Pay raises must be 
        competitive with the private sector;
  --Adequate medical, mental and dental health services; morale, 
        welfare and recreational facilities; and non-privatized 
        exchanges and commissary facilities. The Defense Commissary 
        Agency (DECA) and its functions should be retained and not 
        relegated to the military services;
  --Preserving an attractive retirement system for the active and 
        Reserve components and annual cost-of-living adjustments 
        (COLAs) paid at the same rate and concurrently with other 
        Federal retiree COLAs; oppose any changes to the military 
        retirement system, whether prospective or retroactive, that 
        would violate contracts made with military retirees and 
        undermine morale and readiness;
  --Requiring that the Services perform mandatory physical 
        examinations, without waivers, for all separating veterans;
  --Fully funding the concurrent receipt of military retirement pay, 
        military separation pays, and Department of Veterans Affairs 
        (VA) disability compensation as well as Special Compensation 
        pays for disabled military retirees;
  --That the Survivor Benefit Plan and Dependency and Indemnity 
        Compensation (SBP/DIC) offset be eliminated;
  --TRICARE for Life and the TRICARE Senior Pharmacy program for 
        Medicare-eligible military retirees, their dependents and 
        military survivors, should be adequately funded; and regular 
        cost-of-living adjustments to military retirement deployment 
        pay, capital gains tax exclusions, tax-free and increased death 
        gratuity payments, and combat zone tax exclusions for service 
        in South Korea;
  --Congressional re-enactment of Impact Aid to fund the local public 
        school education of military dependents;
  --Adequately protecting the American public and the Armed Forces from 
        the actual or potentially harmful effects of friendly and 
        hostile chemical, biological and nuclear agents or munitions;
  --Urging the Congress to extend and improve additional quality-of-
        life benefits, allowances and privileges to the National Guard 
        and Reserves involved in homeland security and other missions 
        so as to more closely approximate those of the active force. 
        Military retirement pay and TRICARE healthcare for members of 
        the Reserve Components should be authorized before age 60. 
        Hazardous duty and incentive pays for Reservists should be the 
        same as active duty; tax credits to private businesses that pay 
        the difference between military and civilian salaries to 
        mobilized Reservists and restore travel exemptions for Reserve 
        and Guard members for expenses associated with attending 
        drills;
  --Military health care should also be provided to members of the 
        Reserve Components and their dependents, who become injured 
        while on active duty status regardless of the number of days 
        served on active duty, to the same degree as active duty 
        members under the same circumstances;
  --Whenever a Base Realignment and Closure (BRAC) is conducted, The 
        American Legion will urge that certain base facilities such as 
        base medical facilities, commissaries, exchanges and other 
        facilities be preserved for use by active duty and Reservist 
        personnel and military retired veterans and their families;
  --Walter Reed Army Medical Center not be closed until after Overseas 
        Contingency Operations have ended;
  --That the numerous, recurring and serious pay problems experienced 
        by the Active and Reserve Components be immediately resolved; 
        and
  --Traumatic Brain Injury and Combat Stress Disorders be diagnosed and 
        effectively treated in the military.
Wounded Warrior Care
    The respective branches of the military often like to pontificate 
on how they all ``take care of their own.'' Nowhere is this statement 
put more to the test than when dealing with the combat and severely 
wounded. Since the Building 18 episode at Walter Reed Army Medical 
Center, a well-deserved spotlight was put on the whole transition 
process for outgoing military personnel. The resulting findings were 
somewhat surprising in that it was not the quality of medical care that 
was in question, but rather it was everything else. Some of those 
issues included electronic transference of medical records; scheduling 
of appointments; housing; family support issues; the Physical 
Evaluation Board (PEB) and Medical Evaluation Board (MEB) process; 
applying for VA benefits and receiving them without a gap in pay upon 
discharge from the military; endless forms, paperwork and tests.
    The American Legion supports many of the reforms, most of which are 
still in the form of pilot programs, that address these issues. Warrior 
Transition Units (WTUs) need to be fully funded and fully staffed. PEB/
MEB process needs to be overhauled. Great strides have been made since 
2007, but the progress made (particularly in the area of the WTUs) not 
only needs to be maintained but expanded.
    The American Legion supports some of the recommendations of the 
President's Commission on Care for America's Returning Wounded Warriors 
(the Dole/Shalala Commission). Under the Commission's proposal, service 
members found unfit for military duty (a determination made by DOD 
based on a joint VA/DOD collaborative examination process) would be 
awarded a lifetime annuity payment by DOD based on years of service and 
rank. The purpose of this annuity is to compensate for the loss of the 
service member's military career.
    As these reforms are instituted, the new rating system and 
compensation should be made retroactive to correct those past egregious 
disability decisions and call for the re-rating and reevaluation of 
immediate past military disability retired personnel.
    Since Operations Enduring Freedom and Iraqi Freedom began, over 
5,000 Americans have given their lives in our operations in Iraq and 
Afghanistan and over 34,000 have been wounded in action. Of those 
wounded, over 15,700 did not return to duty. Caring for our military 
and ensuring good quality-of-life for the service member and the family 
is part of the ongoing cost of war and national security.
    The fiscal year 2009 budget has $3 billion to improve army 
barracks, military hospitals, and other facilities. The American Legion 
recommends a minimum of $3.4 billion for fiscal year 2010 in order to 
ensure that there are no delays in construction and improvement of 
living quarters and medical facilities.
    The fiscal year 2009 budget has $25.8 billion, $2.4 billion above 
2008, for medical care. This includes $300 million for traumatic brain 
injury (TBI) and psychological health. The American Legion applauds 
Congress for this increase and recommends that funding for fiscal year 
2010 be $28 billion in order to sustain current costs and to improve 
treatment for TBI and psychological health professionals, particularly 
for the Reserve force that may live in rural areas.
Force Health Protection
    The American Legion continues to actively monitor the DOD's 
implementation of Force Health Protection policies and urges continual 
congressional oversight to ensure that all Force Health Protection laws 
and policies, including thorough pre- and post-deployment physical and 
mental examinations, are being properly implemented in a consistent 
manner by all military branches.
    The American Legion also urges DOD to actively track and follow-up, 
with proper medical care, adverse reactions to vaccinations as well as 
any and all health-related complaints associated with the ingestion of 
controversial drugs such as pyridostigmine bromide and Lariamand. In 
addition, The American Legion urges DOD to continually improve its 
treatment of service personnel who have been diagnosed with post-
traumatic stress disorder and/or traumatic brain injury.
Concurrent Receipt of Military Retired and Severance Pays and 
        Disability Compensation and Their Dependents
    Military retired pay and disability compensation have been 
erroneously equated in one form or another for too long. One pay is 
earned through service and the other is compensation for debilitating 
injuries that were acquired while in service (on the job, so to speak). 
To offset one against the other is clearly unfair.
    The American Legion expresses its gratitude to the Congress for the 
authorization of both Combat-Related Special Compensation (CRSC) and 
partial concurrent receipt for over 200,000 disabled military retirees 
but urges the Congress to authorize and fund full concurrent receipt 
for all disabled military retirees to include those rated at 40 percent 
and below and to authorize the CRSC payment of military disability 
retiree pay and VA disability compensation for those disabled military 
retirees.
    Additionally, The American Legion urges Congress to eliminate the 
phase-in of provisions in Public Law 108-136 so as to accelerate 
restored retired pay in less than 10 years and to authorize the 
concurrent receipt of military severance pay for less than 30 percent 
disabled service members and VA disability compensation.
TRICARE
    The American Legion has a longstanding position that it should 
prevail upon any Administration and DOD to reconsider any proposals to 
implement any increases in the military retirees' TRICARE enrollment 
fees, deductibles, or premiums. The American Legion urges Congress to 
fully fund military and VA healthcare programs for beneficiaries as 
well as a permanent TRICARE program for Guardsmen and Reservists. The 
American Legion recommends that the following guidelines be 
incorporated as part of the DOD healthcare package for military 
retirees, dependents and military survivors:
  --Administrative barriers to an effective TRICARE system to include 
        raising TRICARE provider reimbursements; program portability 
        between TRICARE regions; reducing delays in claim payments; and 
        increasing electronic claims processing need to be removed. 
        Improve TRICARE enrollment procedures, beneficiary education, 
        decrease administrative burdens, eliminate non-availability 
        requirements and eliminate unnecessary reporting requirements;
  --TRICARE programs to include the TRICARE for Life and the TRICARE 
        Senior Pharmacy programs which are used by 1.3 million 
        Medicare-eligible military retirees and their dependents should 
        be fully funded annually;
  --Restore TRICARE reimbursement policy to pay up to what TRICARE 
        would have paid had there been no other health insurance as was 
        the policy before 1993;
  --Dual eligible disabled retirees continue to receive health care 
        from both military treatment facilities and VA medical centers. 
        TRICARE Prime Remote should be included for military retirees, 
        dependents and military survivors;
  --All military beneficiaries should be authorized to receive dental 
        and visual care at military treatment facilities;
  --Retired Reservists and their dependents should be eligible for 
        TRICARE coverage when they become eligible to receive 
        retirement pay; The American Legion urges that all discharging 
        service members, active and Reservists be required to have 
        discharge and retirement physical examinations; physicals 
        should not be optional or abbreviated;
  --Adequate military medical personnel, to include graduates of the 
        Uniformed Services University of Health Sciences and members of 
        the Commissioned Officer Corps of the Public Health Service, 
        should be retained on active duty to provide health care for 
        active duty and retired military personnel and their 
        dependents;
  --The Federal Employee Health Benefits Plan (FEHBP) should be 
        authorized as an alternative to TRICARE for those military 
        retirees and dependents who can afford such premiums;
  --TRICARE fees should not be increased except as authorized by 
        Congress, not by DOD;
  --Military construction funding should be authorized for the 
        construction of Walter Reed Military Medical Center and the 
        Fort Belvoir Army Community Center;
  --If Congress increases TRICARE fees, the increases should be at a 
        rate no larger than the rate of pay increases for Active, 
        Reserve, National Guard, military and medical retirees, and 
        military survivors.
Quality-of-Life for National Guard and Reserve Forces
    The American Legion urges Congress and DOD to pass legislation and 
create policy that addresses all the needs of the Reserve forces to 
include:
  --Full range of active duty retention bonuses and recruiting 
        incentives, pay promotions and health care quality-of-life be 
        applicably activated to the National Guard and Reserve;
  --Qualified Reservists should be authorized to receive Military 
        retirement pay and TRICARE healthcare before age 60;
  --Hazardous duty and incentive pays for Reservists set the same as 
        active-duty;
  --Creating tax credits to private businesses paying the difference 
        between military and civilian salaries to mobilized Reservists;
  --Restoring travel exemptions for Reserve and Guard members for 
        expenses associated with attending drills;
  --Military health care provided to members of the Reserve Components 
        and their dependents, who become injured while on active duty 
        status regardless of the number of days served on active duty;
  --Retired Reservists and their dependents should be eligible for 
        TRICARE coverage when they become eligible to receive 
        retirement pay;
  --All discharging Reservists should be required to have complete 
        discharge and/or retirement physical examinations to the same 
        standard as the active-duty force.
General Quality-of-Life Issues
            Armed Forces Retirement Homes
    The American Legion urges the Congress to support and fund those 
measures, to include annual Congressional appropriations, which will 
provide for the long-term solvency and viability of the Armed Forces 
Retirement Home--Washington. The American Legion also strongly supports 
the rebuilding of the Armed Forces Retirement Home at Gulfport, 
Mississippi.
            Support for the Selective Service Registration Program
    The American Legion supports the retention of the Selective Service 
Registration Program as being in the best interests of all Americans, 
and its maintenance is a proven cost-effective, essential, and rapid 
means of reconstituting the required forces to protect our national 
security interests.
            Reforming the Military Absentee Voting System
    The American Legion urges that appropriate laws and guidelines be 
developed at Federal, State and local levels with the intent that all 
military absentee voters and their families will have their votes 
counted in every election. The American Legion also recommends that the 
sending and receiving of blank and completed military absentee ballots 
be accomplished electronically as much as possible.
            Military Commissaries
    The American Legion urges DOD and the Congress to continue full 
Federal funding of the military commissary system and to retain this 
vital non-pay compensation benefit system. This quality-of-life benefit 
is essential to the morale and readiness of the dedicated men and women 
who have served, and continue to serve, the national security interests 
of the United States. The American Legion opposes any efforts to 
institute ``variable pricing'' or to privatize the military commissary 
system or to dismantle or downsize the Defense Commissary Agency.
            Military Funeral Honors
    The American Legion reaffirms that the Congress should mandate and 
appropriately fund DOD and the Military Services, to include 
reimbursing the National Guard, so as to provide military honors upon 
request at veterans' funerals in coordination with Veterans' Service 
Organizations such as The American Legion at local levels. The 
Department of Defense should implement equitable and expedient 
reimbursement procedures for members of the veterans' service 
organizations who participate in military funeral honors.
    The American Legion also recommends that an action be taken to 
change the wordage, as currently written in Section 578 Public Law 106-
65 to: That any and all funeral directors performing services for any 
veteran of The United States armed forces shall be required to ask the 
veteran's family member or other interested party if military honors 
are requested, at no expense to the family, rather than placing the 
burden upon the veteran's family at this time of bereavement.
                            force structure
    The current active-duty personnel level has been funded to maintain 
just under 1.37 million active-duty service members. Military leaders 
had been making up manpower shortages by increasing the OPTEMPO, 
increasing rotations to combat zones, and by over-utilizing the Reserve 
Components. American military personnel are deployed to over 150 
countries worldwide. Many of these personnel are from the Reserve 
Components. Multiple deployments, particularly to combat zones, are 
often the core element of the recruitment and retention challenges that 
have confronted the Army. While all the services have met or exceeded 
their recruitment goals for 2008, this is due in large part to the 
uncertainty in the economy and to the great successes our forces are 
having in Iraq. All of the services could find themselves in 
recruitment difficulties again if the economy recovers quickly or if 
casualties begin to rise again either in Iraq, Afghanistan or some 
other area of the world where our national security is threatened. We 
applaud Congress for funding the requested end strength increases of 
7,000 for the Army, 5,000 for the Marine Corps, and 1,300 for the Army 
Guard for fiscal year 2009. However, The American Legion insists that 
these nominal increases are not enough to adequately provide for the 
needs of a strong national security posture. The active force combined 
with the reserve force still only totals under 1.75 million. As stated 
previously, The American Legion urges an active and reserve force of 
2.1 million.
    Modernization of weapons systems is vital to properly equip the 
armed forces, but is totally ineffective without adequate personnel to 
effectively operate state-of-the-art weaponry. No military personnel 
should go into battle with unarmed or under-armored vehicles or without 
body armor or with vehicles and helicopters that are approaching or 
exceeding their service lives. America stands to lose its service 
members on the battlefield and during training exercises due to aging 
equipment. The current practice of trading off force structures and 
active-duty personnel levels to recoup or bolster modernization or 
transformation resources must be discontinued. The Army and the Marine 
Corps need to be immediately funded to reset their combat forces so as 
to maintain their readiness.
    The American Legion recommends restoring former military force 
structures and increasing active-duty end strengths so as to improve 
military readiness and to more adequately pursue the Overseas 
Contingency Operations (OCO). The American Legion seeks to improve 
alignment of service levels with missions to ease deployment rates and 
improve quality-of-life features. Ensuring readiness also requires 
retaining the peacetime Selective Service System to register young men 
for possible military service in case of a national emergency. Military 
history repeatedly demonstrates that it is far better to err on the 
side of preserving robust forces to protect America's interests than to 
suffer the consequences of an inadequate force structure or military 
non-readiness, especially during time of war.
    America needs a more realistic strategy with appropriate force 
structure, weaponry, and equipment with increased active-duty and 
Reserve components and readiness levels to achieve its national 
security objectives.
Other Force Structure Issues and Recommendations
            Support for the Non-Federal Roles of the National Guard
    The active-duty force must be able to better accomplish its 
operational objectives around the globe without relying so heavily on 
the National Guard. The Guard must go back to its primary roles in 
homeland security and used as a mainly strategic asset and not as an 
operational one. The American Legion urges the Congress to retain 
National Guard units at reasonable readiness levels so that in addition 
to their active duty missions they may continue to provide civil 
disturbance and natural and man-made disaster assistance; perform civil 
defense and drug interdictions functions as well as other essential 
State or Federal roles as required to include border security.
            Uniformed Services University of the Health Sciences (USU)
    The American Legion urges the Congress to: continue its 
demonstrated commitment to USU, as a national asset, for the continued 
provision of uniquely educated and trained uniformed physicians, 
advanced practice nurses, and scientists dedicated to careers of 
service in the Army, Navy, Air Force, and the United States Public 
Health Service; support timely construction at the USU campus during 
fiscal years 2009-2010; continue funding the University's collaborative 
effort for sharing its chemical, radiological and biological, nuclear 
and high yield explosive (CBRNE) expertise and training; support 
development of the USU Immersive, Wide Area Virtual Environment (WAVE) 
Simulation for CBRNE/WMD Medical Readiness Training; support funding 
for the Graduate School of Nursing Teaching/Educational Programs; and, 
encourage continued close collaboration and progress towards the OSD-
proposed Joint Medical Command and WRNMMC with USU as the core academic 
health center.
            Aeronautical and Space Exploration
    The American Legion deems it imperative that the United States, in 
the face of increasing competition, maintain its hard-won status as the 
world leader in aeronautics and aircraft production and in space 
exploration and research. To realize this goal, we urge the Congress to 
provide:
  --Adequate funding for the Nation's civilian and military aerospace 
        research and development programs to maintain U.S. 
        technological leadership.
  --Adequate funding to build, upgrade and enhance the Nation's 
        civilian and military aerospace research facilities and wind 
        tunnels.
  --A renewed national commitment to education involving academia in 
        aeronautical and aerospace engineering research and 
        technologies insuring a state-of-the art educated work force.
  --Over-watch and investigate functions and related activities with 
        respect to the transfer of American aerospace technology 
        abroad.
            Combating Cyberspace Threats
    The American Legion urges the Congress to appropriate the necessary 
funding and resources to combat the continuing cyberspace and other 
threats to the United States in the 21st Century.
            National Missile Defense System
    The American Legion urges the United States Government to develop 
and continue to deploy a national missile defense system which is in 
the national interest of the United States and the American people and 
an essential ingredient of our homeland security.
    Considering the growing threats of rocket and missile attacks by 
Iran and North Korea, proposed cuts to missile defense seem unwise. 
Even if cuts are being made in systems that are not deemed successful, 
those monies should be reallocated to those defense systems that are 
working.
                      manpower and weapons systems
    The President's fiscal year 2010 Defense budget request should 
require continued funding to sustain current Overseas Contingency 
Operations (OCO) while maintaining the war-fighting capabilities of the 
Armed Forces. For years, the increased Operations Tempo (OPTEMPO), OCO, 
and budgetary shortfalls have had a devastating impact on military 
readiness, modernization, and personnel.
    The American Legion recommends that the fiscal year 2010 Defense 
appropriations bill should include higher military pay raises and 
allowances as well as recruitment bonuses and incentives. The Defense 
Health Program, to include the TRICARE health care system, needs to be 
fully funded without new or increased TRICARE fees. Authorizations for 
continued higher spending on modernization must include: the resetting, 
repairing and procuring of Army weapons systems and equipment; 
continued spending for development of, and fielding, Joint Strike 
Fighters for the Air Force and Navy; and, procurement of more F-22A 
Raptor fighter jets and aerial refueling tankers for the Air Force.
    The American Legion urges Congress to increase defense spending to 
levels that represent at least 5 percent of GDP. This represents not 
only ongoing needs, but also the shared burden of the American people 
during a time of war.
    Defense budgets, military manpower and force structures are 
currently one-third of their 1986 peacetime levels. Military 
capabilities are at significantly lower levels than the Persian Gulf 
War in 1991. With only 10 active Army divisions in the inventory, it is 
little wonder that thousands of Reservists and Guardsmen have been 
called to active-duty to bolster homeland security and in fighting the 
wars in Iraq and Afghanistan. The current plan to cap the Brigade 
Combat Team numbers to 45, as opposed to the recommended 48, is a 
terrible case of robbing Peter to pay Paul. While the size of the force 
will still increase, the actual size of combat ready ground forces will 
still be inadequate. If our national security needs require more 
administrators and trainers, then so be it, but it should not come at a 
cost of a reduction in combat ready forces.
    The American Legion, along with its previous quality-of-life and 
force structure recommendations, further recommends the following as 
regards the purchasing of weapons systems and armaments in general:
Rebuilding America's Defense Industrial Base
    The American Legion urges the new administration and the Congress 
to rebuild America's industrial base by continuing to adequately fund 
research, development and acquisition budgets to assure that our 
military production can meet national requirements especially when U.S. 
military power is committed. Rebuilding America's industrial base 
could, and perhaps should, be part of the administration's plan to 
reinvigorate the economy.
    We encourage the new Administration and the Congress in the 
rebuilding of America's defense industrial base by having a proper 
balance of policies that:
  --Increase and then sustain domestic production at levels that 
        maintain a robust and internationally competitive defense 
        industry.
  --Keep the arms industry internationally competitive.
  --Ensure that the United States is not putting itself at risk by 
        having our armaments produced offshore.
            Buy American
    The American Legion urges Congress to require Government 
contractors to utilize American-made components and subsystems in 
construction of their equipment over those made by foreign 
subcontractors for use by the United States military services to ensure 
the defense of the country, as well as the continued employment of 
Americans and veterans at subcontractor facilities.
            Foreign Investments in the American Defense Industry
    The American Legion urges the U.S. Government to ensure that 
foreign entities are not permitted to own critical industries, 
especially those involved in producing defense items. The American 
Legion further opposes the transfer and sales of sensitive technologies 
which may endanger our national security and economic interests.
            Commercial Shipbuilding for Defense
    The American Legion urges the Congress to vigorously act to stop 
the further erosion of our vital maritime capability by boosting naval 
budgets, promoting commercial shipbuilding, expanding the use of U.S. 
flagships in world commerce, and resisting foreign actions that would 
further damage America's defense industrial base.
            Procurement of Sufficient F-22 Aircraft
    The American Legion advocates that the procurement of F-22 Raptor 
aircraft should be approved and funded by Congress for the stated USAF 
requirement of 381 and that such procurement be funded through 
additional appropriations even if that should result in an increase in 
the overall National Defense Budget.
                         military construction
    Military Construction is directly related to the quality-of-life of 
the service member and their dependants. As such, Military Construction 
must be funded to a level that meets the immediate and future needs of 
DOD. The cornerstone to a strong national defense is not based on 
weapon systems purchased or the way the force structure is organized, 
but rather, the way military service members and their families are 
treated and cared for on military installations within the continental 
United States and overseas. In today's All-Volunteer Armed Forces, 
maintaining the highest quality-of-life standards is the least we 
should do in the interest of national security and as the thanks of a 
grateful Nation to those who serve.
Military Construction
    The $26.3 billion recommendation is based of the current force 
structure of 1.75 million. This recommendation also accounts for the 
modest upcoming authorized increases in the sizes of the Army and 
Marine Corps.
    In fiscal year 2009, $25 billion, ($4.4 billion above fiscal year 
2008) was appropriated for Military Construction. The large increase is 
mostly due to the costs of implementing Base Realignment and Closure 
(BRAC) and plans to increase the size of the Army and Marine Corps. It 
should be noted that The American Legion recommends a 2.1 million man 
force structure as opposed to the current force size. As such, if 
authorization and funding for the expansion of the active-duty and 
reserve force increased by an additional 50,000 service members for 
fiscal year 2010 (in order to get closer to The American Legion's 
recommended force structure level), The American Legion would recommend 
$31.3 billion for Military Construction funding for the construction 
associated with such an expansion of forces.
Quality-of-Life and BRAC
    A quality-of-life concern that must be considered is the welfare of 
our retired military. Often, when a service member retires from 
service, whether medically of by longevity, they choose to live in 
close proximity to a military installation. They choose this in order 
to have access to the benefits they earned from honorable service. 
Those benefits include access to base medical facilities, commissaries, 
exchanges and other facilities.
    Whenever a Base Realignment and Closure (BRAC) is conducted, The 
American Legion will urge that certain base facilities (such as base 
medical facilities, commissaries, exchanges and other facilities) be 
preserved for use by active-duty and Reservist personnel and military 
retired veterans and their families.
    One key element of quality of life for service members and their 
families is the quality of their housing, whether it is supplied by the 
military in the form of on-base housing, or the availability and 
quality of off-base housing. Long standing policy of DOD has been to 
rely on local community housing. This policy comes into conflict with 
reality where there is a localized influx of military families, whether 
from BRAC or ``Grow the Army''-like programs.
    Currently, roughly 63 percent of all military families reside in 
off-base, private sector housing. A further 26 percent reside in 
residences built under the Military Housing Privatization authorities. 
Of the remaining 11 percent, 8 percent live in Government-owned housing 
and 3 percent in (primarily overseas) leased housing. However, the 
transience of forces may cause localized market problems in the coming 
years, as changes occur resulting from BRAC, Grow the Force 
initiatives, global re-posturing and joint basing. Some installations 
may suddenly find they have a surplus of housing as a result, while in 
other areas housing availability may be in deficit. Ensuring that 
service members and their families have access to safe, affordable and 
sufficient housing must remain a priority in order to address the 
quality of life for these families.
    One initiative which has received excellent reviews from the 
services has been the Military Housing Privatization Initiative (MHPI) 
which encourages high quality construction, sustainment, and renovation 
of military housing by leveraging capital and expertise from the 
private sector. Under this initiative, 94 projects have been awarded, 
allowing the DOD to eliminate nearly all inadequate domestic family 
housing. This program should be continued and expanded with additional 
resources.
    Numerous media reports surfaced last year of troops returning from 
OCO to barracks that were unsatisfactory. In one case, a distraught 
father of a soldier with the 82nd Airborne at Fort Bragg, NC went so 
far as film the living conditions and to publicize it through social 
networking sites. Following this renewed interest, the Army in 
particular began a sweeping inspection of all its living facilities and 
barracks to ascertain the level of need that many of them required in 
terms of maintenance and repair. The reforms resulted in the First 
Sergeants Barracks Initiative (FSBI) where the barracks are continually 
monitored for needed repairs, and ``ownership'' of barracks for 
deployed troops is transferred to post control for the duration of the 
deployment. This successful innovation should be adequately funded to 
accomplish these needed renovations.
    In October of 2007, Secretary of the Army Pete Geren initiated a 
program entitled the ``Army Family Covenant.'' At the time he stated:
    The Health of our all-volunteer force, our Soldier-volunteers, our 
Family-volunteers, depends on the health of the Family. The readiness 
of our all-volunteer force depends on the health of the Families. I can 
assure you that your Army leadership understands the important 
contribution each and every one of you makes. We need to make sure we 
step up and provide the support families need so the army stays healthy 
and ready.
    This covenant addressed various ways to improve family readiness 
by:
  --Standardizing and funding existing family programs and services;
  --Increasing accessibility and quality of healthcare;
  --Improving Soldier and Family Housing;
  --Ensuring excellence in schools, youth services, and child care; and
  --Expanding education and employment opportunities for family 
        members.
    While we enlist soldiers, airmen, marines and navy personnel, we 
also re-enlist families. Issues of the covenant from which funding 
comes under the rubric of the Military Construction appropriations 
should be funded fully to ensure that we maintain a high level of 
quality of life, and thereby ensure a higher rate of reenlistment for 
the Armed Forces.
    The commitment to this program by the Army was demonstrated by the 
testimony of Keith Easton, Assistant Secretary of the Army for 
Installations on March 12. He noted that the Army Family Covenant 
Program has shown significant progress in meeting its' goals since it 
came into existence. The program itself shows a commitment and 
understanding of the importance of family in our force structure and 
maintaining readiness and force levels. This program is another which 
should be expanded through adequate funding, to ensure the well being 
of service members and demonstrate the national commitment towards 
helping them individually and collectively prosper and reach their 
potential.
    Increased spending in the area of military construction not only 
serves the strategic needs of the armed forces but also the needs of 
the service members. It takes approximately 8 years to build a senior 
Non-Commissioned Officer. To lose a member of the armed forces like 
that to the civilian world, because they feel they can have a better 
quality of life for them and their family outside of the services, is a 
cost that can not be recouped.
    The American Legion fully supports the Army Family Covenant Program 
and engages all of its 14,000+ local American Legion posts to become 
involved.
Wounded Warrior Care
    All branches of the armed forces ascribe to the ethic that they 
``take care of their own.'' Nowhere is this statement put more to the 
test than when dealing with the combat and severely wounded. Since the 
Building 18 episode at Walter Reed Army Medical Center, a well-deserved 
spotlight was put on the whole transition process for outgoing military 
personnel. The fiscal year 2009 budget has $3 billion to improve army 
barracks, military hospitals, and other facilities. The American Legion 
recommends a minimum of $3.4 billion for fiscal year 2010 in order to 
ensure that there are no delays in construction and improvement of 
living quarters and medical facilities.
    Further, The American Legion advocates that Walter Reed Army 
Medical Center should not be closed until after the wars in Iraq and 
Afghanistan have ended. As such Walter Reed Army Medical Center needs 
to be funded at levels high enough to meet and exceed the high 
standards of care our service members deserve.
Uniformed Services University of the Health Sciences
    The American Legion has supported the Uniformed Services University 
of the Health Sciences (USU), since its establishment in 1972 as the 
Nation's Federal Academic Health Center. USU is dedicated to providing 
uniquely educated and trained uniformed officers for the United States 
Army, Navy, Air Force and Public Health Service. USU alumni are 
currently serving over 20-year careers and thus providing continuity 
and leadership for the Military Health System (MHS) as physicians, 
advanced practice nurses and scientists. USU F. Edward Heert School of 
Medicine has a year-round, 4-year curriculum that is nearly 700 hours 
longer than found at other U.S. medical schools. These extra hours 
focus on epidemiology, health promotion, disease prevention, tropical 
medicine, leadership and field exercises. Doctoral and Masters degrees 
in the biomedical sciences and public health are awarded by 
interdisciplinary and department-based graduate programs within the 
School of Medicine. Programs include infectious disease, neuroscience, 
and preventive medicine research.
    USU Graduate School of Nursing offers a Master of Science in 
Nursing degree in Nurse Anesthesia, Family Nurse Practitioner, 
Perioperative Clinical Nursing, Psychiatric Mental Health Nurse 
Practitioner, and a full and part-time program for a Ph.D. degree in 
Nursing Science. The university's continuing education program is 
unique and extensive, serving and sustaining the professional and 
readiness requirements of the Defense Department's worldwide military 
healthcare community.
    The university's nationally ranked military and civilian faculty 
conduct cutting edge research in the biomedical sciences and in areas 
specific to the DOD health care mission such as combat casualty care, 
infectious diseases and radiation biology. The university specializes 
in military and public health medicine, focusing on keeping people 
healthy, disease prevention, and diagnosis and treatment. USU faculty 
offer significant expertise in tropical medicine and hygiene, 
parasitology, epidemiologic methods and preventive medicine.
    The Department of Defense and the United States Congress have 
recognized that the extensive military-unique and preventive health 
care education provided in the multi-service environment of USU ensures 
Medical Readiness and Force Health Protection for the MHS. USU is 
recognized as the place where students receive thorough preparation to 
deal with the medical aspects of Weapons of Mass Destruction, including 
chemical, radiological and biological, nuclear and high yield explosive 
(CBRNE) terrorism or other catastrophe. USU has developed similar 
training for civilian first responders, medical professionals and 
emergency planners. USU is also uniquely qualified and experienced in 
simulation technology, education and training.
    With the establishment by the Office of the Secretary of Defense 
(OSD) of a Joint Medical Command in fiscal year 2008, the role of USU 
will expand. Plans to establish the Walter Reed National Military 
Medical Center (WRNMMC) by 2011 has created close collaboration between 
the Armed Services Flag Officers and the President of USU to create a 
world-class military academic health center, expanding the role of USU.
    As stated previously, The American Legion urges the Subcommittee 
to: continue its demonstrated commitment to USU, as a national asset, 
for the continued provision of uniquely educated and trained uniformed 
physicians, advanced practice nurses, and scientists dedicated to 
careers of service in the Army, Navy, Air Force, and the United States 
Public Health Service; support timely construction at the USU campus 
during fiscal years 2009-2010; continue funding the University's 
collaborative effort for sharing its chemical, radiological and 
biological, nuclear and high yield explosive (CBRNE) expertise and 
training; support development of the USU Immersive, Wide Area Virtual 
Environment (WAVE) Simulation for CBRNE/WMD Medical Readiness Training; 
support funding for the Graduate School of Nursing Teaching/Educational 
Programs; and, encourage continued close collaboration and progress 
towards the OSD-proposed Joint Medical Command and WRNMMC with USU as 
the core academic health center.
Armed Forces Retirement Homes
    The United States Soldiers' and Airmen's Home (USSAH) and the 
United States Naval Home (USNH), jointly called the Armed Forces 
Retirement Home (AFRH), are continuing care facilities which were 
created more than 150 years ago to offer retirement homes for 
distinguished veterans who had served as soldiers, sailors, airmen and 
Marines in our Nation's conflicts. The AFRH system, which is available 
to retiree veterans from all the Armed Services whose active duty was 
at least 50 percent enlisted or warrant officer, has been supported by 
a trust fund resourced by 50 cents a month withheld from active duty 
enlisted and warrant officer paychecks as well as from fines and 
forfeitures from disciplinary actions, resident fees and interest 
income. The extensive downsizing of the Armed Forces has resulted in a 
39 percent decrease in that revenue and, coupled with rising nursing 
home care costs, the Homes have been operating at an $8-10 million 
annual deficit which would reportedly require both Homes to close their 
doors.
    The American Legion urges the Subcommittee to support measures 
which will provide for the long-term solvency and viability of the 
Armed Forces Retirement Home--Washington, DC. The American Legion also 
strongly supports the rebuilding of the Armed Forces Retirement Home at 
Gulfport, Mississippi which was destroyed by Hurricane Katrina.
American Battle Monuments Commission
    The American Battle Monuments Commission (ABMC) was established by 
law in 1923, as an independent agency of the Executive Branch of the 
United States Government. The Commission's commemorative mission 
includes:
  --Designing, constructing, operating and maintaining permanent 
        American cemeteries in foreign countries.
  --Establishing and maintaining U.S. military memorials, monuments and 
        markers where American armed forces have served overseas since 
        April 6, 1917, and within the United States when directed by 
        public law.
  --Controlling the design and construction of permanent U.S. military 
        monuments and markers by other U.S. citizens and organizations, 
        both public and private, and encouraging their maintenance.
    The resulting United States Military Cemeteries have been 
established throughout the world and are hallowed grounds for America's 
war dead. United States Military Cemeteries existing in foreign 
countries today are in need of adequate funding for repair, 
maintenance, additional manpower and other necessities to preserve the 
integrity of all monuments and cemeteries which are realizing increased 
numbers of visitors annually.
    Adequate funding and human resources to the American Battle 
Monuments Commission must be provided in order to properly maintain and 
preserve these hallowed, final resting places for America's war dead 
located on foreign soil. In fiscal year 2009, $59.5 million, $15 
million above fiscal year 2008 was provided for the care and operation 
of our military monuments and cemeteries around the world. The American 
Legion applauded this increased funding and supports the continued full 
funding for the needs of the American Battle Monuments Commission.
Funding for Joint POW/MIA Accounting Command
    The American Legion has long been deeply committed to achieving the 
fullest possible accounting for U.S. personnel still held captive, 
missing and unaccounted for from all of our Nation's wars. The level of 
personnel and funding for the Joint POW/MIA Accounting Command (JPAC) 
has not been increased at a level commensurate with the expanded 
requirement to obtain answers on Americans unaccounted from wars and 
conflicts prior to the Vietnam War. It is the responsibility of the 
U.S. Government to account as fully as possible for America's missing 
veterans, including--if confirmed deceased--the recovery of their 
remains when possible. The Congress has a duty and obligation to 
appropriate funds necessary for all Government agencies involved in 
carrying out strategies, programs and operations to solve this issue 
and obtain answers for the POW/MIA families and our Nation's veterans. 
This accounting effort should not be considered complete until all 
reasonable actions have been taken to achieve the fullest possible 
accounting. The American Legion calls on Congress to provide increases 
in personnel and full funding for the efforts of JPAC, the Defense POW/
Missing Personnel Office (DPMO), the Life Sciences Equipment 
Laboratory, and the Armed Forces DNA Laboratory, including specific 
authorization to augment assigned personnel when additional assets and 
resources are necessary. The American Legion remains steadfast in our 
commitment to the goal of achieving the fullest possible accounting for 
all U.S. military and designated civilian personnel missing from our 
Nation's wars.
    JPAC was forced to reduce field operations in pursuit of missing 
U.S. personnel in early 2006 due to a failure of DOD to provide 
adequate funding. The mission of JPAC has been expanded by Congress to 
include investigation and recovery operations dating back to and 
including unaccounted for WWII personnel, while funding levels have not 
increased to meet this requirement. The headquarters currently utilized 
by JPAC is no longer capable of housing neither the expanded command 
nor the expanded laboratory requirements for forensic identifications. 
The American Legion calls on the Congress to ensure that JPAC has at 
least $62 million per year in operation funds and an additional $64 
million per year for fiscal year 2010 through fiscal year 2011 for JPAC 
military construction funds as part of the budget for the Department of 
Defense in connection with JPAC. The American Legion calls on the 
Congress to ensure that such funds be approved and restricted for use 
for no purpose other than those included in the mission statement of 
the Joint POW/MIA Accounting Command, Hickam AFB, Hawaii.
    The American Legion commends Admiral Timothy Keating, Commander, 
U.S. Pacific Command, for his commitment to seek U.S. Navy funding in 
the amount of $105 million to begin construction of a new JPAC 
headquarters, including a state-of-the-art laboratory in fiscal year 
2010, to be completed in fiscal year 2011. Furthermore, The American 
Legion urges the Congress to fully fund this U.S. Navy military 
construction project to ensure that those who serve our Nation--past, 
present, and future--are returned and accounted for as fully as 
possible.
                               conclusion
    The United States continues to fight in OCO and defend our vital 
national interests. While America may be safer and has not suffered 
another tragic event on our soil since the tragic day of 9/11/01, the 
world is still not a safe place. The American Legion thanks the 
Subcommittee for inviting The American Legion to this hearing and looks 
forward to working with Congress and the administration on the many 
issues in National Defense facing our country.

    Chairman Inouye. And now the deputy director of the 
National Military Family Association, Ms. Kelly Hruska.
STATEMENT OF KELLY B. HRUSKA, GOVERNMENT RELATIONS, 
            DEPUTY DIRECTOR, NATIONAL MILITARY FAMILY 
            ASSOCIATION
    Ms. Hruska. Thank you, Mr. Chairman, for the opportunity to 
highlight the National Military Family Association's belief 
that policies and programs should provide a firm foundation for 
families buffeted by the uncertainties of deployment and 
transformation. It is imperative full funding for these 
programs be included in the regular budget process, not merely 
added on as a part of supplemental funding. Programs must 
expand and grow to adapt to the changing needs of 
servicemembers and families as they cope with multiple 
deployments and react to separations, reintegration, and the 
situation of those returning with both visible and invisible 
wounds.
    Standardization in delivery, accessibility, and funding are 
essential. Programs should provide for families in all stages 
of deployment, and reach out to them in all geographic 
locations. Families should be given the tools to take greater 
responsibility for their own readiness. We appreciate your help 
over the past years in addressing many of these important 
issues.
    The increased access to resources and programs by the Joint 
Family Support Assistance Program, now offered in all States 
and territories, allows families to receive added help when 
they need it, during all cycles of deployment. The Military 
Family Readiness Council held its first informal meeting in 
December. We feel this will be an effective tool in identifying 
programs that work, and in helping to eliminate overlapping or 
redundant programs, as the council reviews existing resources 
for military families. In an effort to make their efforts more 
credible, our association would like to see more funding set 
aside to be used for pilot programs that may come out of the 
council's recommendations, or allows DOD to replicate best 
practices, as necessary. This seed funding would streamline the 
bureaucracy and get the pilot programs out to families faster.
    Huge strides have been made in the building of brick-and-
mortar child development centers on military installations. 
Within the next year or two, thousands of spaces will become 
available for our military families. But, the need for more 
spaces will still exist. Innovative strategies are needed to 
address the non-availability of after-hours childcare and 
respite care. We applaud the partnership between the services 
and the National Association of Childcare Resources and 
Referral Agencies that provides subsidized childcare to 
families who cannot access installation-base child development 
centers. Including National Guard and Reserve families. 
Families often find it difficult to obtain affordable, quality 
care, especially during hard-to-fill hours and on weekends.
    Both the Navy and the Air Force have piloted 24/7 programs. 
These innovative programs must be expanded to provide care to 
more families at the same high standard as the services' 
traditional child development programs.
    The Army, as part of the funding attached to the Army 
Family Covenant, has rolled out more resources for respite care 
of families of deployed services. Respite care is needed across 
the board for families of the deployed, and the wounded, ill, 
and injured. We are pleased the services have rolled out more 
respite care for special-needs families, but since the programs 
are new we are unsure of the impact it will have on families. 
We appreciate the recent increase to the special survivor 
indemnity allowance, for surviving spouses, but the elimination 
of the dependency and indemnity compensation offset to the 
survivor benefit plan annuity should still remain a high 
priority.
    Our association recognizes and appreciates the many 
resources and programs that support our military families 
during this time of war. The need will not go away the day the 
war ends. We believe it is imperative these programs be 
included in the regular budget process.
    In our written statement we have identified other ways to 
assist military families, and will be glad to expand on those 
suggestions, should you have any questions.
    Military families--one size does not fit all, but they are 
united in their sacrifices in support of their servicemembers 
and our Nation. We ask you to help the Nation sustain and 
support them.
    Thank you, sir.
    Chairman Inouye. I thank you very much, Ms. Hruska.
    And to all the witnesses, if you have supporting documents 
and memos, please feel free to submit them, because I can 
assure you we'll read them.
    [The statement follows:]
                 Prepared Statement of Kelly B. Hruska
    Chairman Inouye and Distinguished Members of this Subcommittee, the 
National Military Family Association would like to thank you for the 
opportunity to present testimony on the quality of life of military 
families--the Nation's families. You recognize the sacrifices made by 
today's service members and their families by focusing on the many 
elements of their quality of life package: access to quality health 
care, robust military pay and benefits, support for families dealing 
with deployment, and special care for the families of the wounded, ill 
and injured and those who have made the greatest sacrifice.
    In this statement, our Association will expand on several issues of 
importance to military families: Family Readiness; Family Health; 
Family Transitions.
                            family readiness
    The National Military Family Association believes policies and 
programs should provide a firm foundation for families buffeted by the 
uncertainties of deployment and transformation. It is imperative full 
funding for these programs be included in the regular budget process 
and not merely added on as part of supplemental funding. We promote 
programs that expand and grow to adapt to the changing needs of service 
members and families as they cope with multiple deployments and react 
to separations, reintegration, and the situation of those returning 
with both visible and invisible wounds. Standardization in delivery, 
accessibility, and funding are essential. Programs should provide for 
families in all stages of deployment and reach out to them in all 
geographic locations. Families should be given the tools to take 
greater responsibility for their own readiness.
    We appreciate provisions in the National Defense Authorization Acts 
of the past several years that recognized many of these important 
issues. The increased access to resources and programs provided by the 
Joint Family Support Assistance Program (JFSAP), now offered in all 
States and territories, allows families to receive added help when they 
need it during all cycles of deployment. The Military Family Readiness 
Council held its first informal meeting in December. We feel this will 
be an effective tool in identifying programs that work and in helping 
to eliminate overlapping or redundant programs as the Council reviews 
existing resources for military families. Our Association is proud to 
represent military families as a member of the Council.
    Our Association believes that it is imperative full funding for 
family readiness programs be included in the regular budget process and 
not merely added on as part of supplemental funding.
Child Care
    The Services--and families--continue to tell us more child care is 
needed to fill the ever growing demand, including hourly, drop-in, 
respite, and after-hour child care. We've heard stories like this:

    Child care facilities on base are beyond compare--for spouses and 
military members who work nine to five. In our increasingly service-
oriented economy, the job I have has me working until at least seven 
most days, and usually as late as midnight 1 to 2 days a week. When my 
husband deploys or has a stint on second shift, I run out of options 
quickly. I have been unable to get another, more conventional job in 
the 2 years I have been in this area . . . there are minimum 
requirements as to what shifts I need to work to maintain full-time 
employment at my current workplace, and I cannot have those waived for 
an entire deployment.

    Innovative strategies are needed to address the non-availability of 
after-hour child care (before 6 a.m. and after 6 p.m.) and respite 
care. We applaud the partnership between the Services and the National 
Association of Child Care Resource and Referral Agencies (NACCRRA) that 
provides subsidized childcare to families who cannot access 
installation based child development centers. Families often find it 
difficult to obtain affordable, quality care especially during hard-to-
fill hours and on weekends. Both the Navy and the Air Force have 
programs that provide 24/7 care. These innovative programs must be 
expanded to provide care to more families at the same high standard as 
the Services' traditional child development programs. The Army, as part 
of the funding attached to its Army Family Covenant, has rolled out 
more space for respite care for families of deployed soldiers. Respite 
care is needed across the board for the families of the deployed and 
the wounded, ill, and injured. We are pleased that the Services have 
rolled out more respite care for special needs families, but since the 
programs are new we are unsure of the impact it will have on families.
    At our Operation Purple Healing Adventures camp for families of 
the wounded, ill and injured, we were told there is a tremendous need 
for access to adequate child care on or near military treatment 
facilities. Families need the availability of child care in order to 
attend medical appointments, especially mental health appointments. Our 
Association encourages the creation of drop-in child care for medical 
appointments on the DOD or VA premises or partnerships with other 
organizations to provide this valuable service.
    Our Association urges Congress to ensure resources are available to 
meet the child care needs of military families to include hourly, drop-
in and increased respite care for families of deployed service members 
and the wounded, ill and injured.
Working with Youth
    Older children and teens must not be overlooked. School personnel 
need to be educated on issues affecting military students and be 
sensitive to their needs. To achieve this goal, schools need tools. 
Parents need tools, too. Military parents constantly seek more 
resources to assist their children in coping with military life, 
especially the challenges and stress of frequent deployments. Parents 
tell us repeatedly they want resources to ``help them help their 
children.'' Support for parents in their efforts to help children of 
all ages is increasing, but continues to be fragmented. New Federal, 
public-private initiatives, increased awareness, and support by DOD and 
civilian schools educating military children have been developed. 
However, many military parents are either not aware such programs exist 
or find the programs do not always meet their needs.
    Our Association is working to meet this pressing need through our 
Operation Purple summer camps. Unique in its ability to reach out and 
gather military children of different age groups, Services, and 
components, Operation Purple provides a safe and fun environment in 
which military children feel immediately supported and understood. Last 
year, with the support of private donors, we achieved our goal of 
sending 10,000 military children to camp. We also were successful in 
expanding the camp experience to families of the wounded and bereaved. 
This year, we expect to maintain those numbers by offering 95 weeks of 
camp in 37 States and territories, as well as conducting several pilot 
family reintegration retreats in the National Parks.
    Through our Operation Purple camps, our Association has begun to 
identify the cumulative effects multiple deployments are having on the 
emotional growth and well being of military children and the challenges 
posed to the relationship between deployed parent, caregiver, and 
children in this stressful environment. Understanding a need for 
qualitative analysis of this information, we contracted with the RAND 
Corporation in 2007 to conduct a pilot study aimed at the current 
functioning and wellness of military children attending Operation 
Purple camps and assessing the potential benefits of the OPC program in 
this environment of multiple and extended deployments. The results of 
the pilot study were published last spring and confirmed much of what 
we have heard from individual families. They also highlighted gaps in 
our current knowledge, including how family relationships are affected 
by deployment and reintegration. The study looked at differences in 
child and caregiver experiences based on Service component, such as how 
life is different during deployment for families from the Active 
Component compared to those in the Guard or Reserve.
    In May 2008, we embarked on phase two of the project--a 
longitudinal study on the experience of 1,507 families, which is a much 
larger and more diverse sample than included in our pilot study. RAND 
is following these families for 1 year, and interviewing the non-
deployed caregiver/parent and one child per family between 11 and 17 
years of age at three time points over that year. Recruitment of 
participants has been extremely successful because families are eager 
to share their experiences. RAND is currently gathering information 
from these families for the 6-month follow-up survey. Preliminary 
findings from the first round of surveys provide additional support for 
the pilot study results and identify new areas to investigate. This 
includes examining the relationship between the total months of 
deployment that a family experiences and its association with non-
deployed caregiver's mental health and child's well-being at school and 
at home. In addition, RAND is assessing the impact of reintegration on 
the families and how this varies by a service member's rank and Service 
component.
    This study will provide valuable data to inform the future creation 
and implementation of services for children and families. More 
specifically, we hope this study will provide more detailed and clearer 
understanding of the impact of multiple and extended deployments on 
military children and their families. We expect to present the final 
study results in Spring 2010.
National Guard and Reserve
    Our Association would like to thank Congress for authorizing many 
provisions that affect our Reserve Component families, who have 
sacrificed greatly in support of our Nation. We continue to ask 
Congress to fully fund these programs so vital to the quality of life 
of our National Guard and Reserve families.
    The National Military Family Association has long realized the 
unique challenges our Reserve Component families face and their need 
for additional support. This need was highlighted in the final report 
from the Commission on the National Guard and Reserves, which confirmed 
what we had always asserted: ``Reserve Component family members face 
special challenges because they are often at a considerable distance 
from military facilities and lack the on-base infrastructure and 
assistance available to active duty families.'' While citing a robust 
volunteer network as crucial, the report also stated that family 
readiness suffers when there are too few paid staff professionals 
supporting the volunteers.
    Our Association would also like to thank Congress for the 
provisions which allowed for the implementation of the Yellow Ribbon 
Reintegration program which is so crucial to the well-being of our 
Reserve Component families. We urge Congress to make the funding for 
this program permanent. We also believe that family members should be 
paid a travel allowance to attend these important reintegration 
programs. Furthermore, DOD and service providers need to move away from 
the one-size fits all approach to reintegration which does not work for 
all the Reserve Components due to the specific nature of each mission 
and the varying length of deployments.
    Our Association asks Congress to fully fund the Yellow Ribbon 
Reintegration program and other provisions affecting our Reserve 
Component families and to move away from the one-size fits all approach 
to reintegration.
Military Housing
    Privatized housing is a welcome change for military families and we 
are pleased the fiscal year 2009 NDAA called for an annual report that 
addresses the best practices for executing privatized housing 
contracts. With our depressed economy, increased oversight is critical 
to ensure timely completion of these important projects. Project delays 
negatively impact the quality of life of our families.
    Commanders must be held accountable for the quality of housing and 
customer service in privatized communities. Housing areas remain the 
responsibility of the installation Commander even when managed by a 
private company. Services members who are wounded and must move to a 
handicap accessible home or break their lease provisions due to short-
notice PCS orders should not be penalized. Service members should not 
languish on wait lists while civilians occupy housing. While 
privatization contracts permit other non-military occupants for vacant 
units, Commanders must ensure that privatized housing is first and 
foremost meeting the needs of the active duty population of the 
installation. In some cases, this will require modification or 
renegotiation of contracts.
    Our Association feels there needs to be a review of BAH standards. 
While families who live on the installation are better off, families 
living off the installation are forced to absorb more out-of-pocket 
expenses in order to live in a home that will meet their needs. BAH 
standards are based on an outdated concept of what would constitute a 
reasonable dwelling. For example, in order to receive BAH for a single 
family dwelling a service member must be an E9. However, if that same 
service member lived in military housing, he or she would likely have a 
single family home at the rank of E6 or E7. BAH standards should mirror 
the type of dwelling a service member would occupy if government 
quarters were available.
    Our Association believes that BAH standards should be reviewed and 
should better reflect the type of dwelling the service member would 
occupy if government quarters were available.
Commissaries and Exchanges
    The commissary is a key element of the total compensation package 
for service members and retirees and is valued by them, their families, 
and survivors. Not only do our surveys indicate that military families 
consider the commissary one of their most important benefits, during 
this economic downturn, many families are returning to the commissary 
to help them reduce their grocery budget. In addition to providing 
average savings of more than 30 percent over local supermarkets, 
commissaries provide an important tie to the military community. 
Commissary shoppers get more than groceries at the commissary. They 
gain an opportunity to connect with other military family members and 
to get information on installation programs and activities through 
bulletin boards and installation publications. Finally, commissary 
shoppers receive nutrition information and education through commissary 
promotions and educational campaigns contributing to the overall health 
of the entire beneficiary population.
    Our Association appreciates the provision included in the fiscal 
year 2009 NDAA allowing the use of proceeds from surcharges collected 
at remote case lot sales for Reserve Component members to help defray 
the cost of those case lot sales. This inclusion helps family members, 
not located near an installation partake in the valuable commissary 
benefit.
    Our Association is concerned there will not be enough commissaries 
to serve areas experiencing substantial growth, including those 
locations with service members and families relocated by BRAC. The 
surcharge was never intended to pay for DOD and Service transformation. 
Additional funding is needed to ensure commissaries are built or 
expanded in areas that are gaining personnel as a result of these 
programs.
    The military exchange system serves as a community hub, in addition 
to providing valuable cost savings to members of the military 
community. Equally important is the fact that exchange system profits 
are reinvested in important Morale, Welfare and Recreation (MWR) 
programs, resulting in quality of life improvements for the entire 
community. We believe that every effort must be made to ensure that 
this important benefit and the MWR revenue is preserved, especially as 
facilities are down-sized or closed overseas. Exchanges must also 
continue to be responsive to the needs of deployed service members in 
combat zones and have the right mix of goods at the right prices for 
the full range of beneficiaries.
Family Care Plans
    We have heard from single parent and dual military families about 
the expenses incurred when they have to relocate their children to 
another location when they are activated for deployment. This issue was 
raised within the Army Family Action Plan process. Service members 
requiring activation of Family Care Plans are not compensated for the 
travel of dependents and shipment of the dependent's household goods. 
Some items such as infant equipment, computers and toys are necessary 
for the emotional and physical well-being of the children in their new 
environment during an already stressful time. Implementation of the 
Family Care Plan should not create additional financial hardship and 
emotional stress on the service member and family.
    We recommend that changes be made to the DOD Joint Travel 
Regulations to provide for travel and shipment of household goods to 
fulfill the needs of a deploying service member's Family Care Plan.
                             family health
    Family readiness calls for access to quality health care and mental 
health services. Families need to know the various elements of their 
military health system are coordinated and working as a synergistic 
system. Our Association is concerned the DOD military health care 
system may not have all the resources it needs to meet both the 
military medical readiness mission and provide access to health care 
for all beneficiaries. It must be funded sufficiently, so the direct 
care system of military treatment facilities (MTF) and the purchased 
care segment of civilian providers can work in tandem to meet the 
responsibilities given under the TRICARE contracts, meet readiness 
needs, and ensure access for all military beneficiaries.
Military Health System
            Improving Access to Care
    In an interview with syndicated Military Update columnist Tom 
Philpott in December of 2008, MG (Dr.) Elder Granger, deputy director 
of TRICARE, gave the Military Health System (MHS) an overall grade of 
``C-plus or B-minus''. His discussion focused on access issues in the 
direct care system--our military hospitals and clinics--reinforcing 
what our Association has observed for years. We have consistently heard 
from families that their greatest health care challenge has been 
getting timely care from their local military hospital or clinic. In 
previous testimony before this subcommittee we have noted the failure 
of MTFs to meet TRICARE Prime access standards and to be held 
accountable in the same way as the TRICARE contractors are for meeting 
those standards in the purchased care arena.
    In discussions with families the main issues are: access to their 
Primary Care Managers (PCM); getting appointments; getting someone to 
answer the phone at central appointments; having appointments available 
when they finally got through to central appointments; after hours 
care; getting a referral for specialty care; being able to see the same 
provider or PCM; and having appointments available 60, 90, and 120 days 
out in our MTFs. Families familiar with how the MHS referral system 
works seem better able to navigate the system. Those families who are 
unfamiliar experienced delays in receiving treatment or decide to give 
up on the referral process and never obtain a specialty appointment.
    Case management for military beneficiaries with special needs is 
not consistent across the MHS, whether within the MTFs or in the 
purchased care arena. Thus, military families end up managing their own 
care. The shortage of available health care providers only adds to the 
dilemma. Beneficiaries try to obtain an appointment and then find 
themselves getting partial health care within the MTF, while other 
health care is referred out into the purchased care network. Meanwhile, 
the coordination of the military family's care is being done by a non-
synergistic health care system. Incongruence in the case management 
process becomes more apparent when military family members transfer 
from one TRICARE region to another and is further exasperated when a 
special needs family member is involved. Each TRICARE Managed Care 
Contractor has created different case management processes. There needs 
to be a seamless transition and a warm handoff between TRICARE regions 
for these families and the establishment of a universal case management 
process across the MHS.
    Our wounded, ill, and injured service members, veterans, and their 
families are assigned case managers. In fact, there are many different 
case managers: Federal Recovery Coordinators (FRC), Recovery Care 
Coordinators, each branch of Service, TBI care coordinators, VA 
liaisons, etc. The goal is for a seamless transition of care between 
and within the two governmental agencies: DOD and the VA. However, with 
so many to choose from, families often wonder which one is the 
``right'' case manager. We often hear from families, some who have long 
since been medically retired with a 100 percent disability rating or 
others with less than 1 year out from date-of-injury, who have not yet 
been assigned a FRC. We need to look at whether the multiple, layered 
case managers have streamlined the process, or have only aggravated it. 
Our Association still finds these families alone trying to navigate a 
variety of complex health care systems trying to find the right 
combination of care. Many qualify for and use Medicare, VA, DOD's 
TRICARE direct and purchased care, private health insurance, and State 
agencies. Does this population really need all of these different 
systems of receiving health care? Why can't the process be streamlined?
            TRICARE
    While Congress temporarily forestalled increases over the past 2 
years, we believe DOD officials will continue to support large 
increased retiree enrollment fees for TRICARE Prime combined with a 
tiered system of enrollment fees, the institution of a TRICARE standard 
enrollment fee and increased TRICARE Standard deductibles. Two reports, 
the Task Force on the Future of the Military Health Care and The Tenth 
Quadrennial Review of Military Compensation Volume II, recently 
recommended the same.
    We acknowledge the annual Prime enrollment fee has not increased in 
more than 10 years and that it may be reasonable to have a mechanism to 
increase fees. With this in mind, we have presented an alternative to 
DOD's proposal should Congress deem some cost increase necessary. The 
most important feature of our proposal is that any fee increase be no 
greater than the percentage increase in the retiree cost of living 
adjustment (COLA). If DOD thought $230/$460 was a fair fee for all in 
1995, then it would appear that raising the fees simply by the 
percentage increase in retiree pay is also fair. We also suggest it 
would be reasonable to adjust the TRICARE Standard deductibles by tying 
increases to the percentage of the retiree annual COLA. We stand ready 
to provide more information on this issue if needed.
            Support for Special Needs Families
    We applaud Congress and DOD's desire to create a robust health care 
and educational service for special needs children. But, these robust 
services do not follow them when they retire. We encourage the Services 
to allow these military families the opportunity to have their final 
duty station be in an area of their choice. We suggest the Extended 
Care Health Option (ECHO) be extended for 1 year after retirement for 
those already enrolled in ECHO prior to retirement.
    There was discussion last year by Congress and military families 
regarding the ECHO program. The fiscal year 2009 NDAA included a 
provision to increase the cap on certain benefits under the ECHO 
program to $36,000 per year for training, rehabilitation, special 
education, assistive technology devices, institutional care and under 
certain circumstances, transportation to and from institutions or 
facilities, because certain beneficiaries bump up against it. The ECHO 
program was originally designed to allow military families with special 
needs to receive additional services to offset their lack of 
eligibility for State or federally provided services impacted by 
frequent moves. We suggest that before making any more adjustments to 
the ECHO program, Congress should direct DOD to certify if the ECHO 
program is working as it was originally designed and has been effective 
in addressing the needs of this population. We need to make the right 
fixes so we can be assured we apply the correct solutions.
            National Guard and Reserve Member Family Health Care
    National Guard and Reserve families need increased education about 
their health care benefits. We also believe that paying a stipend to a 
mobilized National Guard or Reserve member for their family's coverage 
under their employer-sponsored insurance plan may prove to be more 
cost-effective for the government than subsidizing 72 percent of the 
costs of TRICARE Reserve Select for National Guard or Reserve members 
not on active duty.
            TRICARE Reimbursement
    Our Association is concerned that continuing pressure to lower 
Medicare reimbursement rates will create a hollow benefit for TRICARE 
beneficiaries. As the 111th Congress takes up Medicare legislation, we 
request consideration of how this legislation will impact military 
families' health care, especially access to mental health services.
    National provider shortages in the psychological health field, 
especially in child and adolescent psychology, are exacerbated in many 
cases by low TRICARE reimbursement rates, TRICARE rules, or military-
unique geographic challenges--for example large populations in rural or 
traditionally underserved areas. Many psychological health providers 
are willing to see military beneficiaries on a voluntary status. 
However, these providers often tell us they will not participate in 
TRICARE because of what they believe are time-consuming requirements 
and low reimbursement rates. More must be done to persuade these 
providers to participate in TRICARE and become a resource for the 
entire system, even if that means DOD must raise reimbursement rates.
    We have heard the main reason for the VA not providing health care 
and psychological health care services is because they cannot be 
reimbursed for care rendered to a family member. However, the VA is a 
qualified TRICARE provider. This allows the VA to bill for services 
rendered in their facilities to a TRICARE beneficiary. There may be a 
way to bill other health insurance companies as well. The VA needs to 
look at the possibility for other methods of payments.
            Pharmacy
    We caution DOD about generalizing findings of certain beneficiary 
pharmacy behaviors and automatically applying them to our Nation's 
unique military population. We encourage Congress to require DOD to 
utilize peer-reviewed research involving beneficiaries and prescription 
drug benefit options, along with performing additional research 
involving military beneficiaries, before making any recommendations on 
prescription drug benefit changes, such as co-payment and tier 
structure changes for military service members, retirees, their 
families, and survivors.
    We appreciate the inclusion of Federal pricing for the TRICARE 
retail pharmacies in the fiscal year 2008 NDAA. However, we need to 
examine its effect on the cost of medications for both beneficiaries 
and DOD. Also, we will need to see how this potentially impacts the 
overall negotiation of future drug prices by Medicare and civilian 
private insurance programs.
    We believe it is imperative that all medications available through 
TRICARE Retail Pharmacy (TRRx) should also be available through TRICARE 
Mail Order Pharmacy (TMOP). Medications treating chronic conditions, 
such as asthma, diabetes, and hypertension should be made available at 
the lowest level of co-payment regardless of brand or generic status. 
We agree with the recommendations of The Task Force on the Future of 
Military Health Care that OTC drugs be a covered pharmacy benefit and 
there be a zero co-pay for TMOP Tier 1 medications.
            National Health Care Proposal
    Our Association is cautious about current rhetoric by the 
Administration and Congress regarding the establishment of a National 
health care insurance program. As the 111th Congress takes up a 
National health care insurance proposal, we request consideration of 
how this legislation will also impact TRICARE, military families' 
access to health care, and especially recruitment and retention of our 
service members at a time of war.
            DOD Must Look for Savings
    We ask Congress to establish better oversight for DOD's 
accountability in becoming more cost-efficient. We recommend:
  --Requiring the Comptroller General to audit MTFs on a random basis 
        until all have been examined for their ability to provide 
        quality health care in a cost-effective manner;
  --Creating an oversight committee, similar in nature to the Medicare 
        Payment Advisory Commission, which provides oversight to the 
        Medicare program and makes annual recommendations to Congress. 
        The Task Force on the Future of Military Health Care often 
        stated it was unable to address certain issues not within their 
        charter or the timeframe in which they were commissioned to 
        examine the issues. This Commission would have the time to 
        examine every issue in an unbiased manner;
  --Establishing a Unified ``Joint'' Medical Command structure, which 
        was recommended by the Defense Health Board in 2006.
    Our Association does not support the recommendation of the Task 
Force on the Future of Military Health Care to carve out one regional 
TRICARE contractor to provide both the pharmacy and health care 
benefit. We agree a link between pharmacy and disease management is 
necessary, but feel this pilot would only further erode DOD's ability 
to maximize potential savings through TMOP. We were also disappointed 
to find no mention of disease management or a requirement for 
coordination between the pharmacy contractor and Managed Care Support 
Contractors in the Request for Proposals for the new TRICARE pharmacy 
contract. The ability certainly exists for them to share information 
bi-directionally and should be established.
    Our Association believes optimizing the capabilities of the 
facilities of the direct care system through timely replacement of 
facilities, increased funding allocations, and innovative staffing 
would allow more beneficiaries to be cared for in the MTFs, which DOD 
asserts is the most cost effective. The Task Force made recommendations 
to make the DOD MHS more cost-efficient which we support. They conclude 
the MHS must be appropriately sized, resourced, and stabilized; and 
make changes in its business and health care practices.
    Our Association suggests this Subcommittee DOD reassess the 
resource sharing program used prior to the implementation of the T-Nex 
contracts and take the steps necessary to ensure Military Treatment 
Facilities (MTF) meet access standards with high quality health care 
providers.
    We also suggest this Subcommittee direct the Department to make 
case management services more consistent across the direct and 
purchased care segments of the MHS.
    Our Association recommends a 1-year transitional active duty ECHO 
benefit for the family members of service members who retire.
    We believe tying increases in TRICARE enrollment fees to the 
percentage increase in the Retiree Cost of Living Adjustment (COLA) is 
a fair way to increase beneficiary cost shares should Congress deem an 
increase necessary.
    We oppose DOD's proposal to institute a TRICARE Standard enrollment 
fee and believe Congress should reject this proposal because it changes 
beneficiaries' entitlement to health care under TRICARE Standard to 
just another insurance plan.
    Our Association strongly believes an enrollment fee for TFL is not 
appropriate.
    We believe that Reserve Component families should be given the 
choice of a stipend to continue their employer provided care during 
deployment.
Behavioral Health Care
    Our Nation must help returning service members and their families 
cope with the aftermaths of war. DOD, VA, and State agencies must 
partner in order to address behavioral health issues early in the 
process and provide transitional mental health programs. Partnering 
will also capture the National Guard and Reserve member population, who 
often straddle these agencies' health care systems.
            Full Spectrum of Care
    As the war continues, families' need for a full spectrum of 
behavioral health services--from preventative care to stress reduction 
techniques, to individual or family counseling, to medical mental 
health services--continues to grow. The military offers a variety of 
psychological health services, both preventative and treatment, across 
many agencies and programs. However, as service members and families 
experience numerous lengthy and dangerous deployments, we believe the 
need for confidential, preventative psychological health services will 
continue to rise. It will also remain high for some time even after 
military operations scale down.
            Access to Behavioral Health Care
    Our Association is concerned about the overall shortage of 
psychological health providers in TRICARE's direct and purchased care 
network. DOD's Task Force on Mental Health stated timely access to the 
proper psychological health provider remains one of the greatest 
barriers to quality mental health services for service members and 
their families. While families are pleased more psychological health 
providers are available in theater to assist their service members, 
they are disappointed with the resulting limited access to providers at 
home. Families are reporting increased difficulty in obtaining 
appointments with social workers, psychologists, and psychiatrists at 
their MTFs and clinics. The military fuels the shortage by deploying 
some of its child and adolescent psychology providers to combat zones. 
Providers remaining at home report they are overwhelmed by treating 
active duty members and are unable to fit family members into their 
schedules. This can lead to compassion fatigue, creating burnout and 
exacerbating the provider shortage problem.
    We have seen an increase in the number of psychological health 
providers joining the purchased care side of the TRICARE network. 
However, the access standard is 7 days. We hear from military families 
after accessing the psychological health provider list on the 
contractor's websites that the provider is full and no longer taking 
patients. The list must be up-to-date in order to handle real time 
demands by families. We need to continue to recruit more psychological 
health providers to join the TRICARE network and we need to make sure 
we specifically add those in specialty behavioral health care areas, 
such as child and adolescence psychology and psychiatrists.
    Families must be included in mental health counseling and treatment 
programs for service members. Family members are a key component to a 
service member's psychological well-being. We recommend an extended 
outreach program to service members, veterans, and their families of 
available psychological health resources, such as DOD, VA, and State 
agencies. Families want to be able to access care with a psychological 
health provider who understands or is sympathetic to the issues they 
face.
    Frequent and lengthy deployments create a sharp need in 
psychological health services by family members and service members as 
they get ready to deploy and after their return. There is also an 
increase in demand in the wake of natural disasters, such as hurricanes 
and fires. We need to maintain a flexible pool of psychological health 
providers who can increase or decrease rapidly in numbers depending on 
demand on the MHS side. Currently, Military Family Life Consultants and 
Military OneSource counseling are providing this type of service for 
military families on the family support side. We need to make the 
Services, along with military family members, more aware of resources 
along the continuum. We need the flexibility of support in both the MHS 
and family support arenas.
            Availability of Treatment
    Do DOD, VA and State agencies have adequate psychological health 
providers, programs, outreach, and funding? Better yet, where will the 
veteran's spouse and children go for help? Many will be left alone to 
care for their loved one's invisible wounds resulting from frequent and 
long combat deployments. Who will care for them when they are no longer 
part of the DOD health care system?
    The Army's Mental Health Advisory Team (MHAT) IV report links 
reducing family issues to reducing stress on deployed service members. 
The team found the top non-combat stressors were deployment length and 
family separation. They noted soldiers serving a repeat deployment 
reported higher acute stress than those on their first deployment and 
the level of combat was the major contribution for their psychological 
health status upon return. These reports demonstrate the amount of 
stress being placed on our troops and their families.
    Our Association is especially concerned with the scarcity of 
services available to the families as they leave the military following 
the end of their activation or enlistment. Due to the service member's 
separation, the families find themselves ineligible for TRICARE, and 
are very rarely eligible for healthcare through the VA. Many will 
choose to locate in rural areas lacking available psychological health 
providers. We need to address the distance issues families face in 
finding psychological health resources and obtaining appropriate care. 
Isolated service members, veterans, and their families do not have the 
benefit of the safety net of services and programs provided by MTFs, VA 
facilities, Community-Based Outpatient Centers and Vet Centers. We 
recommend:
  --using alternative treatment methods, such as telemental health;
  --modifying licensing requirements in order to remove geographic 
        practice barriers that prevent psychological health providers 
        from participating in telemental health services outside of a 
        VA facility; and
  --educating civilian network psychological health providers about our 
        military culture as the VA incorporates Project Hero.
            National Guard and Reserve Members
    The National Military Family Association is especially concerned 
about fewer mental health care services available for the families of 
returning National Guard and Reserve members as well as service members 
who leave the military following the end of their enlistment. They are 
eligible for TRICARE Reserve Select, but as we know, National Guard and 
Reserve members are often located in rural areas where there may be no 
mental health providers available. Policy makers need to address the 
distance issues that families face in linking with military mental 
health resources and obtaining appropriate care. Isolated National 
Guard and Reserve families do not have the benefit of the safety net of 
services provided by MTFs and installation family support programs. 
Families want to be able to access care with a provider who understands 
or is sympathetic to the issues they face. We recommend the use of 
alternative treatment methods, such as telemental health; increasing 
mental health reimbursement rates for rural areas; modifying licensing 
requirements in order to remove geographic practice barriers that 
prevent mental health providers from participating in telemental health 
services; and educating civilian network mental health providers about 
our military culture.
            Wounded, Ill, and Injured Families
    When designing support for the wounded, ill, and injured in today's 
conflict, our Association believes the government, especially DOD, VA, 
and State agencies, must take a more inclusive view of military and 
veterans' families. Those who have the responsibility to care for the 
wounded service member must also consider the needs of the spouse, 
children, parents of single service members, siblings, and other 
caregivers. Family members are an integral part of the health care team 
and recovery process.
    Caregivers need to be recognized for the important role they play 
in the care of their loved one. Without them, the quality of life of 
the wounded service members and veterans, such as physical, psycho-
social, and mental health, would be significantly compromised. They are 
viewed as an invaluable resource to DOD and VA health care providers 
because they tend to the needs of the service members and the veterans 
on a regular basis. And, their daily involvement saves DOD, VA, and 
State agency health care dollars in the long run. Their long-term 
psychological care needs must be addressed. Caregivers of the severely 
wounded, ill, and injured services members who are now veterans have a 
long road ahead of them. In order to perform their job well, they will 
require access to mental health services.
    The Vet Centers are an available resource for veterans' families 
providing adjustment, vocational, and family and marriage counseling. 
The VA health care facilities and the community-based outpatient 
clinics (CBOCs) have a ready supply of mental health providers, yet 
regulations restrict their ability to provide mental health care to 
veterans' families unless they meet strict standards. Unfortunately, 
this provision hits the veteran's caregiver the hardest. We recommend 
DOD partner with the VA to allow military families access to mental 
health services. We also believe Congress should require the VA, 
through its Vet Centers and health care facilities to develop a 
holistic approach to care by including families when providing mental 
health counseling and programs to the wounded, ill, or injured service 
member or veteran.
    The Defense Health Board has recommended DOD include military 
families in its mental health studies. We agree. We encourage Congress 
to direct DOD to include families in its Psychological Health Support 
survey; perform a pre and post-deployment mental health screening on 
family members (similar to the PDHA and PDHRA currently being done for 
service members); and sponsor a longitudinal study, similar to DOD's 
Millennium Cohort Study, in order to get a better understanding of the 
long-term effects of war on our military families.
            Children
    Our Association is concerned about the impact deployment and/or the 
injury of the service member is having on our most vulnerable 
population, children of our military and veterans. Multiple deployments 
are creating layers of stressors, which families are experiencing at 
different stages. Teens especially carry a burden of care they are 
reluctant to share with the non-deployed parent in order to not ``rock 
the boat.'' They are often encumbered by the feeling of trying to keep 
the family going, along with anger over changes in their schedules, 
increased responsibility, and fear for their deployed parent. Children 
of the National Guard and Reserve members face unique challenges since 
there are no military installations for them to utilize. They find 
themselves ``suddenly military'' without resources to support them. 
School systems are generally unaware of this change in focus within 
these family units and are ill prepared to lookout for potential 
problems caused by these deployments or when an injury occurs. Also 
vulnerable, are children who have disabilities that are further 
complicated by deployment and subsequent injury of the service members. 
Their families find stress can be overwhelming, but are afraid to reach 
out for assistance for fear of retribution to the service member's 
career. They often choose not to seek care for themselves or their 
families.
    The impact of the wounded, ill, and injured on children is often 
overlooked and underestimated. Military children experience a 
metaphorical death of the parent they once knew and must make many 
adjustments as their parent recovers. Many families relocate to be near 
the treating Military Treatment Facility (MTF) or the VA Polytrauma 
Center in order to make the rehabilitation process more successful. As 
the spouse focuses on the rehabilitation and recovery, older children 
take on new roles. They may become the caregivers for other siblings, 
as well as for the wounded parent. Many spouses send their children to 
stay with neighbors or extended family members, as they tend to their 
wounded, ill, and injured spouse. Children get shuffled from place to 
place until they can be reunited with their parents. Once reunited, 
they must adapt to the parent's new injury and living with the ``new 
normal.''
    We encourage partnerships between government agencies, DOD, VA and 
State agencies and recommend they reach out to those private and non-
governmental organizations who are experts on children and adolescents. 
They could identify and incorporate best practices in the prevention 
and treatment of mental health issues affecting our military children. 
We must remember to focus on preventative care upstream, while still in 
the active duty phase, in order to have a solid family unit as they 
head into the veteran phase of their lives. School systems must become 
more involved in establishing and providing supportive services for our 
Nation's children.
            Caregivers
    In the 7th year of the Global War on Terror, care for the 
caregivers must become a priority. Our Association hears from the 
senior officer and enlisted spouses who are so often called upon to be 
the strength for others. We hear from the health care providers, 
educators, rear detachment staff, chaplains, and counselors who are 
working long hours to assist service members and their families. They 
tell us they are overburdened, burnt out, and need time to recharge so 
they can continue to serve these families. These caregivers must be 
afforded respite care; given emotional support through their command 
structure; and, be provided effective family programs.
            Education
    The DOD, VA, and State agencies must educate their health care and 
mental health professionals of the effects of mild Traumatic Brain 
Injury (mTBI) in order to help accurately diagnose and treat the 
service member's condition. They must be able to deal with polytrauma--
Post-Traumatic Stress Disorder (PTSD) in combination with multiple 
physical injuries. We need more education for civilian health care 
providers on how to identify signs and symptoms of mild TBI and PTSD.
    The families of service members and veterans must be educated about 
the effects of mTBI and PTSD in order to help accurately diagnose and 
treat the service member/veteran's condition. These families are on the 
``sharp end of the spear'' and are more likely to pick up on changes 
attributed to either condition and relay this information to their 
health care providers.
            Reintegration Programs
    Reintegration programs become a key ingredient in the family's 
success. Our Association believes we need to focus on treating the 
whole family with programs offering readjustment information; education 
on identifying mental health, substance abuse, suicide, and traumatic 
brain injury; and encouraging them to seek assistance when having 
financial, relationship, legal, and occupational difficulties.
    Successful return and reunion programs will require attention over 
the long term, as well as a strong partnership at all levels between 
the various mental health arms of DOD, VA, and State agencies.
    DOD and VA need to provide family and individual counseling to 
address these unique issues. Opportunities for the entire family and 
for the couple to reconnect and bond must also be provided. Our 
Association has recognized this need and is piloting two family 
retreats in the National Parks to promote family reintegration 
following deployment.
    We recommend an extended outreach program to service members, 
veterans, and their families of available psychological health 
resources, such as DOD, VA, and State agencies.
    We encourage Congress to request DOD to include families in its 
Psychological Health Support survey; perform a pre and post-deployment 
mental health screening on family members (similar to the PDHA and 
PDHRA currently being done for service members); and sponsor a 
longitudinal study, similar to DOD's Millennium Cohort Study, in order 
to get a better understanding of the long-term effects of war on our 
military families.
    We recommend the use of alternative treatment methods, such as 
telemental health; increasing mental health reimbursement rates for 
rural areas; modifying licensing requirements in order to remove 
geographic practice barriers that prevent mental health providers from 
participating in telemental health services; and educating civilian 
network mental health providers about our military culture.
    Caregivers must be afforded respite care; given emotional support 
through their command structure; and, be provided effective family 
programs.
Wounded Service Members Have Wounded Families
    Our Association asserts that behind every wounded service member 
and veteran is a wounded family. It is our belief the government, 
especially the DOD and VA, must take a more inclusive view of military 
and veterans' families. Those who have the responsibility to care for 
the wounded, ill, and injured service member must also consider the 
needs of the spouse, children, parents of single service members and 
their siblings, and the caregivers. We appreciate the inclusion in the 
fiscal year 2008 NDAA Wounded Warrior provision for health care 
services to be provided by the DOD and VA for family members. DOD and 
VA need to think proactively as a team and one system, rather than 
separately; and addressing problems and implementing initiatives 
upstream while the service member is still on active duty status.
    Reintegration programs become a key ingredient in the family's 
success. In the spring of 2008, our Association held a focus group 
composed of wounded service members and their families to learn more 
about issues affecting them. Families find themselves having to 
redefine their roles following the injury of the service member. They 
must learn how to parent and become a spouse/lover with an injury. Each 
member needs to understand the unique aspects the injury brings to the 
family unit. Parenting from a wheelchair brings a whole new challenge, 
especially when dealing with teenagers. Parents need opportunities to 
get together with other parents who are in similar situations and share 
their experiences and successful coping methods. Our Association 
believes we need to focus on treating the whole family with programs 
offering skill based training for coping, intervention, resiliency, and 
overcoming adversities. Injury interrupts the normal cycle of 
deployment and the reintegration process. We must provide opportunities 
for the entire family and for the couple to reconnect and bond, 
especially during the rehabilitation and recovery phases. We piloted a 
Operation Purple Healing Adventures camp to help wounded service 
members and their families learn to play again as a family and plan one 
more in the summer of 2009.
    Brooke Army Medical Center (BAMC) has recognized a need to support 
these families by expanding in terms of guesthouses co-located within 
the hospital grounds and a family reintegration program for their 
Warrior Transition Unit. The on-base school system is also sensitive to 
issues surrounding these children. A warm, welcoming family support 
center located in guest housing serves as a sanctuary for family 
members. The DOD and VA could benefit from looking at successful 
programs like BAMC's which has found a way to embrace the family unit 
during this difficult time.
            Transitioning for the Wounded and Their Families
    Transitions can be especially problematic for wounded, ill, and 
injured service members, veterans, and their families. The DOD and the 
VA health care systems, along with State agency involvement, should 
alleviate, not heighten these concerns. They should provide for 
coordination of care, starting when the family is notified that the 
service member has been wounded and ending with the DOD, VA, and State 
agencies working together, creating a seamless transition, as the 
wounded service member transfers between the two agencies' health care 
systems and, eventually, from active duty status to veteran status.
    Transition of health care coverage for our wounded, ill, and 
injured and their family members is a concern of our Association. These 
service members and families desperately need a health care bridge as 
they deal with the after effects of the injury and possible reduction 
in their family income. We have created two proposals. Service members 
who are medically retired and their families should be treated as 
active duty for TRICARE fee and eligibility purposes for 3 years 
following medical retirement. This proposal will allow the family not 
to pay premiums and be eligible for certain programs offered to active 
duty, such as ECHO for 3 years. Following that period, they would pay 
TRICARE premiums at the rate for retirees. Service members medically 
discharged from service and their family members should be allowed to 
continue for 1 year as active duty for TRICARE and then start the 
Continued Health Care Benefit Program (CHCBP) if needed.
            Caregivers
    Caregivers need to be recognized for the important role they play 
in the care of their loved one. The VA has made a strong effort in 
supporting veterans' caregivers. The DOD should follow suit and expand 
their definition. Caregivers of the severely wounded, ill, and injured 
services members have a long road ahead of them. In order to perform 
their job well, they must be given the skills to be successful. This 
will require the caregiver to be trained through a standardized, 
certified program, and appropriately compensated for the care they 
provide. The time to implement these programs is while the service 
member is still on active duty status.
    Our Association proposes that new types of financial compensation 
be established for caregivers of injured service members and veterans 
that could begin while the hospitalized service member is still on 
active duty and continue throughout the transition to care under the 
VA. This compensation should recognize the types of medical and non-
medical care services provided by the caregiver, travel to appointments 
and coordinating with providers, and the severity of injury. It should 
also take into account the changing levels of service provided by the 
caregiver as the veteran's condition improves or diminishes or needs 
for medical treatment changes. These needs would have to be assessed 
quickly with little time delay in order to provide the correct amount 
of compensation. The caregiver should be paid directly for their 
services, but the compensation should be linked to training and 
certification paid for by the VA and transferable to employment in the 
civilian sector if the care is no longer needed by the service member. 
Our Association looks forward to discussing details of implementing 
such a plan with Members of this Subcommittee.
    Consideration should also be given to creating innovative ways to 
meet the health care and insurance needs of the caregiver, with an 
option to include their family. Perhaps, caregivers of severely injured 
service members or veterans can be given the option of buying health 
insurance through the Federal Employees Health Benefit Program or 
through enrollment in CHAMPVA. A mechanism should also be established 
to assist caregivers who are forced out of the work force to save for 
their retirements, for example, through the Federal Thrift Savings 
Plan.
    There must be a provision for transition for the caregiver if the 
caregiver's services are no longer needed, chooses to no longer 
participate, or is asked by the veteran to no longer provide services. 
The caregiver should still be able to maintain health care coverage for 
1 year. Compensation would discontinue following the end of services/
care provided by the caregiver.
    The VA currently has eight caregiver assistance pilot programs to 
expand and improve health care education and provide needed training 
and resources for caregivers who assist disabled and aging veterans in 
their homes. DOD should evaluate these pilot programs to determine 
whether to adopt them for themselves. Caregivers' responsibilities 
start while the service member is still on active duty.
            Relocation Allowance
    Active Duty service members and their spouses qualify through the 
DOD for military orders to move their household goods (known as a 
Permanent Change of Station (PCS)) when they leave the military 
service. Medically retired service members are given a final PCS move. 
Medically retired married service members are allowed to move their 
family; however, medically retired single service members only qualify 
for moving their own personal goods.
    The National Military Family Association is requesting the ability 
for medically retired single service members to be allowed the 
opportunity to have their caregiver's household goods moved as a part 
of the medical retired single service member's PCS move. This should be 
allowed for the qualified caregiver of the wounded service member and 
the caregiver's family (if warranted), such as a sibling who is married 
with children or mom and dad. This would allow for the entire 
caregiver's family to move, not just the caregiver. The reason for the 
move is to allow the medically retired single service member the 
opportunity to relocate with their caregiver to an area offering the 
best medical care, rather than the current option that only allows for 
the medically retired single service member to move their belongings to 
where the caregiver currently resides. The current option may not be 
ideal because the area in which the caregiver lives may not be able to 
provide all the health care services required for treating and caring 
for the medically retired service member. Instead of trying to create 
the services in the area, a better solution may be to allow the 
medically retired service member, their caregiver, and the caregiver's 
family to relocate to an area where services already exist.
    The decision on where to relocate for optimum care should be made 
with the Federal Recovery Coordinator (case manager), the service 
member's medical physician, the service member, and the caregiver. All 
aspects of care for the medically retired service member and their 
caregiver shall be considered. These include a holistic examination of 
the medically retired service member, the caregiver, and the 
caregiver's family for, but not limited to, their needs and 
opportunities for health care, employment, transportation, and 
education. The priority for the relocation should be where the best 
quality of services is readily available for the medically retired 
service member and his/her caregiver.
    The consideration for a temporary partial shipment of caregiver's 
household goods may also be allowed, if deemed necessary by the case 
management team.
    Provide transitioning wounded, ill and injured service members and 
their families a bridge of extended active duty TRICARE eligibility for 
3 years, comparable to the benefit for surviving spouses.
    Caregivers of the wounded, ill and injured must be provided with 
opportunities for training, compensation and other support programs 
because of the important role they play in the successful 
rehabilitation and care of the service member.
    Service members medically discharged from service and their family 
members shall be allowed to continue for 1 year as active duty for 
TRICARE and then start the Continued Health Care Benefit Program 
(CHCBP) if needed.
            Senior Oversight Committee
    Our Association is appreciative of the provision in the fiscal year 
2009 NDAA continuing the DOD/VA Senior Oversight Committee (SOC) for an 
additional year. We understand a permanent structure is in the process 
of being established and manned. We urge Congress to put a mechanism in 
place to continue to monitor DOD and VA's partnership initiatives for 
our wounded, ill, and injured service members and their families, while 
this organization is being created.
    The National Military Family Association encourages the Armed 
Service Committee along with the Veterans' Affairs Committee to talk on 
these important issues. We can no longer be content on focusing on each 
agency separately because this population moves too frequently between 
the two agencies, especially our wounded, ill, and injured service 
members and their families.
    We would like to thank you again for the opportunity to provide 
information on the health care needs for the service members, veterans, 
and their families. Military families support the Nation's military 
missions. The least their country can do is make sure service members, 
veterans, and their families have consistent access to high quality 
mental health care in the DOD, VA, and within network civilian health 
care systems. Wounded service members and veterans have wounded 
families. The caregiver must be supported by providing access to 
quality health care and mental health services, and assistance in 
navigating the health care systems. The system should provide 
coordination of care with DOD, VA, and State agencies working together 
to create a seamless transition. We ask Congress to assist in meeting 
that responsibility.
                           family transitions
    Our Association will promote policies and access to programs 
providing training and support for families during the many transitions 
they experience.
Survivors
    In the past year, the Services have been focusing on outreach to 
surviving families. In particular, the Army's SOS (Survivor Outreach 
Services) program makes an effort to remind these families that they 
are not forgotten. DOD and the VA must work together to ensure 
surviving spouses and their children can receive the mental health 
services they need, through all of VA's venues. New legislative 
language governing the TRICARE behavioral health benefit may also be 
needed to allow TRICARE coverage of bereavement or grief counseling. 
The goal is the right care at the right time for optimum treatment 
effect. DOD and the VA need to better coordinate their mental health 
services for survivors and their children.
    We ask that the active duty TRICARE Dental benefit be extended to 
surviving children to mirror the active duty TRICARE medical benefit to 
which they are now eligible. We also ask that eligibility be expanded 
to those Reserve Component family members who had not been enrolled in 
the active duty TRICARE Dental benefit prior to the service member's 
death.
    Our Association recommends that surviving children be allowed to 
remain in the TRICARE Dental Program until they age out of TRICARE 
eligibility and that eligibility be expanded to those Reserve Component 
survivors who had not been enrolled prior to the service member's 
death.. We also recommend that grief counseling be more readily 
available to survivors.
    Our Association still believes the benefit change that will provide 
the most significant long-term advantage to the financial security of 
all surviving families would be to end the Dependency and Indemnity 
Compensation (DIC) offset to the Survivor Benefit Plan (SBP). Ending 
this offset would correct an inequity that has existed for many years. 
Each payment serves a different purpose. The DIC is a special indemnity 
(compensation or insurance) payment paid by the VA to the survivor when 
the service member's service causes his or her death. The SBP annuity, 
paid by DOD, reflects the longevity of the service of the military 
member. It is ordinarily calculated at 55 percent of retired pay. 
Military retirees who elect SBP pay a portion of their retired pay to 
ensure that their family has a guaranteed income should the retiree 
die. If that retiree dies due to a service connected disability, their 
survivor becomes eligible for DIC.
    Surviving active duty spouses can make several choices, dependent 
upon their circumstances and the ages of their children. Because SBP is 
offset by the DIC payment, the spouse may choose to waive this benefit 
and select the ``child only'' option. In this scenario, the spouse 
would receive the DIC payment and the children would receive the full 
SBP amount until each child turns 18 (23 if in college), as well as the 
individual child DIC until each child turns 18 (23 if in college). Once 
the children have left the house, this choice currently leaves the 
spouse with an annual income of $13,848, a significant drop in income 
from what the family had been earning while the service member was 
alive and on active duty. The percentage of loss is even greater for 
survivors whose service members served longer. Those who give their 
lives for their country deserve more fair compensation for their 
surviving spouses.
    We appreciate the establishment of a special survivor indemnity 
allowance as a first step in the process to eliminate the DIC offset to 
SBP.
    We believe several other adjustments could be made to the Survivor 
Benefit Plan. Allowing payment of the SBP benefits into a Special Needs 
Trust in cases of disabled beneficiaries will preserve their 
eligibility for income based support programs. The government should be 
able to switch SBP payments to children if a surviving spouse is 
convicted of complicity in the member's death.
    We ask the DIC offset to SBP be eliminated to recognize the length 
of commitment and service of the career service member and spouse. We 
also request that SBP benefits be allowed to be paid to a Special Needs 
Trust in cases of disabled family members.
Spouse Employment, Unemployment
    Our Association appreciates the expansion of the Military Spouse 
Career Advancement Accounts. We look forward to the rollout and full 
implementation of the expanded program and hope that the definition of 
``portable careers'' is broad enough to support the diverse military 
spouse population. To further spouse employment opportunities, we 
recommend an expansion to the Workforce Opportunity Tax Credit for 
employers who hire spouses of active duty and Reserve component service 
members, and to provide tax credits to military spouses to offset the 
expense in obtaining career licenses and certifications when service 
members are relocated to a new duty station within a different State.
Families on the Move
    Our Association is concerned about the timely implementation of the 
Defense Personal Property Program, formerly titled ``Families First.'' 
Worldwide rollout is still incomplete and it is unclear if customer 
satisfaction surveys are incorporated into the carrier ranking process. 
Full Replacement Value has been rolled out, but is handled differently 
by each carrier. Families are confused about how and where to file 
claims. Congressional oversight is needed to press for implementation 
of this program and deliver the best possible service to our families.
    Our Association is grateful for the addition of the weight 
allowance for spousal professional materials. We ask that Congress 
broaden the language to require the Service Secretaries to implement 
this much needed benefit.
    A PCS move to an overseas location can be especially stressful. 
Military families are faced with the prospect of being thousands of 
miles from extended family and living in a foreign culture. At many 
overseas locations, there are insufficient numbers of government 
quarters resulting in the requirement to live on the local economy away 
from the installation. Family members in these situations can feel 
extremely isolated; for some the only connection to anything familiar 
is the local military installation. Unfortunately, current law permits 
the shipment of only one vehicle to an overseas location, including 
Alaska and Hawaii. Since most families today have two vehicles, they 
sell one of the vehicles.
    Upon arriving at the new duty station, the service member requires 
transportation to and from the place of duty leaving the military 
spouse and family members at home without transportation. This lack of 
transportation limits the ability of spouses to secure employment and 
the ability of children to participate in extra curricular activities. 
While the purchase of a second vehicle alleviates these issues, it also 
results in significant expense while the family is already absorbing 
other costs associated with a move. Simply permitting the shipment of a 
second vehicle at government expense could alleviate this expense and 
acknowledge the needs of today's military family.
    Our Association requests that Congress ease the burden of military 
PCS moves on military families by pressing for the full implementation 
of the Defense Personal Property Program and by authorizing the 
shipment of a second vehicle for families assigned to an overseas 
location on accompanied tours.
Education of Military Children
    While our Association remains appreciative for the additional 
funding you provide to civilian school districts educating large 
numbers of military children, DOD Impact Aid still remains under-
funded. We urge Congress to increase funding for schools educating 
large numbers of military children to $60 million for fiscal year 2010. 
We also encourage you to make the additional funding for school 
districts experiencing growth available to all school districts 
experiencing significant enrollment increases and not just to those 
districts meeting the current 20 percent enrollment threshold. The 
arrival of several hundred military students can be financially 
devastating to any school district, regardless of how many of those 
students the district already serves. This supplement to Impact Aid is 
vital to school districts that have shouldered the burden of ensuring 
military children receive a quality education despite the stresses of 
military life.
    As increased numbers of military families move into new communities 
due to Global Rebasing and BRAC, their housing needs are being met 
further and further away from the installation. Thus, military children 
may be attending school in districts whose familiarity with the 
military lifestyle may be limited. Educating large numbers of military 
children will put an added burden on schools already hard-pressed to 
meet the needs of their current populations. With over 70,000 military 
families returning to the United States, at the same time the Army is 
moving over one third of its soldiers within the United States, we urge 
Congress to authorize an increase in this level of funding until BRAC 
and Global Rebasing moves are completed.
    Although it does not fall under the purview of this Subcommittee, 
we thank Congress for passing the Higher Education Opportunity Act of 
2008, which contained many new provisions affecting military families. 
Chief among them was a provision to expand in-State tuition eligibility 
for military service members and their families. Under this provision, 
colleges and universities receiving Federal funding under the act will 
be required to offer in-State tuition rates for active duty service 
members and their families and provide continuity of in-State rates if 
the service member receives orders for an assignment out of State. 
However, family members have to be currently enrolled in order to be 
eligible for continuity of in-State tuition. Our Association is 
concerned that this would preclude a senior in high school from 
receiving in-State tuition rates if his or her family PCS's prior to 
matriculation. We urge Congress to amend this provision.
    Our Association congratulates the DOD Office of Personnel and 
Readiness and the Council of State Governments (CSG) for drafting the 
Interstate Compact on Educational Opportunity for Military Children and 
for spearheading the adoption of this important legislation. Designed 
to alleviate many of the transition issues facing military children, 
the Compact has now been adopted in 20 States. In addition, Hawaii has 
a Compact bill awaiting their Governor's signature, and 11 other States 
are working active legislation this year. With 10 States needed to 
enact the Compact, the first meeting of the Interstate Commission on 
Educational Opportunity for Military Children met in October 2008. Our 
Association is pleased to have been a member of both the Advisory Group 
and Drafting Team, and has been working actively to support the 
adoption of this Compact, which will greatly enhance the quality of 
life of our military children and families.
    We ask Congress to increase the DOD supplement to Impact Aid to $60 
million to help districts better meet the additional demands caused by 
large numbers of military children, deployment-related issues, and the 
effects of military programs and policies. We also ask Congress to 
allow all school districts experiencing a significant growth in their 
military student population due to BRAC, Global Rebasing, or 
installation housing changes to be eligible for the additional funding 
currently available only to districts with an enrollment of at least 20 
percent military children.
Spouse Education
    Since 2004, our Association has been fortunate to sponsor our 
Joanne Holbrook Patton Military Spouse Scholarship Program, with the 
generosity of donors who wish to help military families. In 2007, we 
published Education and the Military Spouse: The Long Road to Success, 
based on spouse scholarship applicant survey responses, identifying 
education issues and barriers specific to military spouses. The entire 
report may be found at www.nmfa.org/education.
    The survey found military spouses, like their service members and 
the military as a whole, value education and set education goals for 
themselves. Yet, military spouses often feel their options are limited. 
Deployments, the shortage of affordable and quality child care, 
frequent moves, the lack of educational benefits and tuition assistance 
for tuition are discouraging. For military spouses, the total cost of 
obtaining a degree can be significantly higher than the cost for 
civilian students. The unique circumstances that accompany the military 
lifestyle have significant negative impacts upon a spouse's ability to 
remain continuously enrolled in an educational program. Military 
spouses often take longer than the expected time to complete their 
degrees. More than one-third of those surveyed have been working toward 
their goal for 5 years or more. The report offers recommendations for 
solutions that Congress could provide:
  --Ensuring installation education centers have the funding necessary 
        to support spouse education programs and initiatives;
  --Providing additional child care funding to support child care needs 
        of military spouse-scholars;
  --Helping to defray additional costs incurred by military spouses who 
        ultimately spend more than civilian counterparts to obtain a 
        degree.
    Our Association wishes to thank Congress for passing the Post 9/11 
G.I. Bill for service members and for including transferability of the 
benefit to spouses and children. We will continue to monitor the 
implementation of this benefit, and hope to see the regulations posted 
soon.
Military Families--Our Nation's Families
    We thank you for your support of our service members and their 
families and we urge you to remember their service as you work to 
resolve the many issues facing our country. Military families are our 
Nation's families. They serve with pride, honor, and quiet dedication. 
Since the beginning of the war, government agencies, concerned citizens 
and private organizations have stepped in to help. This increased 
support has made a difference for many service members and families, 
yet, some of these efforts overlap while others are ineffective. In our 
testimony, we believe we have identified improvements and additions 
that can be made to already successful programs while introducing 
policy or legislative changes that address the ever changing needs of 
our military population. Working together, we can improve the quality 
of life for all these families.

    Chairman Inouye. Our next witness represents the Fleet 
Reserve Association: Mr. John Davis, director of legislative 
programs.
    Mr. Davis.
STATEMENT OF JOHN R. DAVIS, DIRECTOR, LEGISLATIVE 
            PROGRAMS, FLEET RESERVE ASSOCIATION
    Mr. Davis. Good morning, Chairman Inouye. My name is John 
Davis, and I want to thank you for the opportunity to express 
FRA's views today.
    The association also wants to thank the Obama 
administration for adequately funding healthcare without a 
proposed TRICARE fee increase.
    FRA believes that raising TRICARE fees during the war on 
terror would send the wrong message, and that could impact 
recruitment and retention. A recent FRA survey indicates that 
more than 90 percent of all active duty, retired, and veteran 
respondents cited healthcare as their top quality-of-life 
benefit. That is why FRA supports the Military Retirees Health 
Care Protection Act, H.R. 816, that would prohibit increasing 
TRICARE fees unless approved by Congress.
    FRA welcomes the 10-percent increase in funding to provide 
case managers and mental health counselors to heal and 
rehabilitate our wounded warriors. Adequate funding is 
necessary for a seamless transition and quality services for 
wounded warriors, especially those with traumatic brain injury 
(TBI) and post traumatic stress disorder (PTSD).
    FRA is also grateful for the administration calling for 
improvements to concurrent receipt. And it's also mentioned in 
the budget resolution.
    The offset for chapter 61 retirees would be phased out over 
5 years. FRA supports legislation authorizing the immediate 
payment of concurrent receipt of full military retired pay and 
veterans disability compensation for all disabled retirees. And 
this improvement is a big step toward achieving that goal. And 
if authorized, we urge the subcommittee to provide funding.
    FRA strongly supports the funding of the 3.4 percent pay 
increase for active duty pay, which is one-half of 1 percent 
above the administration's request. Pay increases, in recent 
years, have contributed to improved morale, readiness, and 
retention. Better pay reduces family stress, especially for 
junior enlisted. Military pay and benefits must reflect the 
fact that military service is very different from work in the 
private sector. FRA strongly supports the fully funded family 
readiness program and stands foursquare in support of our 
Nation's reservists. Due to the demands of the war on terror, 
Reserve units are now increasingly being mobilized to augment 
active duty components. As a result of these operational 
demands, the Reserve component is no longer a strategic 
reserve, but is now an operational reserve. And that is an 
integral part of the total force. That is why, if authorized, 
FRA supports funding for retroactive eligibility for early 
retirement benefit, to include reservists who have supported 
contingency operations since September 11, 2001.
    The 2008 Defense Authorization Act reduced the Reserve 
retirement age by 3 months for every 90 days of active duty, 
but this only applies to the service after the effective date 
of the legislation, which is January 28, 2008, and leaves out 
more than 600,000 reservists mobilized since 9/11.
    Thank you again for giving me this opportunity to speak.
    Chairman Inouye. Thank you very much, Mr. Davis.
    [The statement follows:]
                  Prepared Statement of John R. Davis
                                overview
    Mr. Chairman, ensuring that wounded troops, their families and the 
survivors of those killed in action are cared for by a grateful Nation 
remains an overriding priority for the Fleet Reserve Association (FRA). 
The Association thanks you and the entire Subcommittee for your strong 
and continuing support of funding for the Department of Defense (DOD) 
portion of the Wounded Warrior Assistance Program. Another top FRA 
priority is full funding of the Defense Health Program (DHP) to ensure 
quality care for active duty, retirees, Reservists, and their families.
                      the fiscal year 2010 budget
    The DOD request totals $663.8 billion for fiscal year 2010, which 
is a base budget increase of $20.5 billion representing a 4-percent 
increase over fiscal year 2009 (2.1 percent in real growth). It is 
noteworthy that for the first time in 4 years, the proposed budget 
fully funds military health care programs without calling for a TRICARE 
fee increase. FRA appreciates the reluctance of the new administration 
to shift health care costs to beneficiaries, and the inclusion of 
additional money to make improvements in current receipt to expand the 
number of disabled military retirees receiving both their full military 
retired pay and VA disability compensation. The budget also calls for a 
2.9-percent active duty pay increase that equals the Employment Cost 
Index (ECI), $1.1 billion to fund military housing and support programs 
for service members and their families, and $3.3 billion to support 
injured service members in their recovery, rehabilitation, and 
reintegration.
    As Operation Iraqi Freedom ends and troops depart from Iraq, some 
will be urging reductions in spending, despite the need to bolster 
efforts in Afghanistan and other operational commitments around the 
world. FRA understands the budgetary concerns generated by the current 
economic slowdown but advocates that cutting the DOD budget during the 
Global War on Terror would be short sighted and that America needs a 
Defense budget that will provide adequate spending levels for both 
``benefits and bullets.''
    This statement lists the concerns of our members, keeping in mind 
that the Association's primary goal is to endorse any positive safety 
programs, rewards, quality of life improvements that support members of 
the Uniform Services, particularly those serving in hostile areas, and 
their families, and survivors.
                            wounded warriors
    A two-front war, a lengthy occupation and repeated deployments for 
many service members has put a strain on the DOD/VA medical system that 
treats our wounded warriors. The system is impacted not only by volume 
but by the complexity of injuries and the military has shown that it is 
woefully inadequate in recognizing and treating cases of Traumatic 
Brain Injury (TBI) and Post Traumatic Stress Disorder (PTSD).
    In recent years substantial progress has been made in the treatment 
of the Nation's wounded warriors. The fiscal year 2010 budget provides 
$3.3 billion to support injured service members in their recovery and 
rehabilitation and FRA appreciates the $300 million increase over 
fiscal year 2009 for mental health programs which includes additional 
case managers, and mental health counselors. The budget also provides 
for an expedited Disability Evaluation System (DES), and construction 
of 12 additional wounded warrior transition complexes. The budget also 
continues implementation of the Walter Reed National Military Medical 
Center, Bethesda, Maryland, DeWitt Army Community Hospital, Fort 
Belvoir, Virginia, and BRAC projects within the national capitol 
region. More than $400 million is targeted for medical research for 
Traumatic Brain Injury (TBI) and other casualty treatment issues. FRA 
advocates for resources to support an effective delivery system between 
DOD and VA to ensure seamless transition and quality services for 
wounded personnel, particularly those suffering from PTSD and TBI.
    Adequate funding is essential to providing pre- and post-deployment 
screenings for mental and physical injuries, and if authorized 
compensation, training, and health care coverage for family members 
forced into service as full-time caregivers for the severely wounded 
warriors. Further, the War on Terror has seen an increasing percentage 
of women serving in the military (15 percent in 2009 as compared to 4.4 
percent in 1988) and combined with the asymmetrical nature of the 
conflict will undoubtedly cause an increasing number of women 
casualties that will place unique demands upon the military health care 
system requiring additional associated funding.
                              health care
    Adequately funding health care benefits for all beneficiaries is 
part of the cost of defending our Nation and a recent FRA survey 
indicates that more than 90 percent of all active duty, retired, and 
veteran respondents and most Reserve participants cited health care as 
their top quality-of-life benefit. Accordingly, protecting and/or 
enhancing health care access for all beneficiaries is FRA's top 2009 
legislative priority.
    Health care costs both in the military and throughout society have 
continued to increase faster than the Consumer Price Index (CPI) making 
this a prime target for those wanting to cut the DOD budget. Many 
beneficiaries targeted in recent proposals to drastically increase 
health care fees are those who served prior to enactment of the recent 
and significant pay and benefit enhancements and receive significantly 
less in retired pay than those serving and retiring in the same pay 
grade with the same years of service today. They clearly recall 
promises made to them about the benefit of health care for life in 
return for a career, and many believe they are entitled to ``free'' 
health care for life based on the Government's past commitments.
    For these reasons, FRA strongly supports ``The Military Retirees' 
Health Care Protection Act'' (H.R. 816) sponsored by Representatives 
Chet Edwards (TX) and Walter Jones (NC). The legislation would prohibit 
DOD from increasing TRICARE fees, specifying that the authority to 
increase TRICARE fees exists only in Congress.
    DOD must continue to investigate and implement other TRICARE cost-
saving options as an alternative to shifting costs to retiree 
beneficiaries. FRA notes progress in this area in expanding use of the 
mail order pharmacy program, Federal pricing for prescription drugs and 
a pilot program of preventative care for TRICARE beneficiaries under 
age 65, and elimination of co-pays for certain preventative services. 
The Association believes these efforts will prove beneficial in slowing 
military health care spending in the coming years.
    Our Nation is at war and imposing higher health care costs on 
retirees would send a powerful negative message not only to retirees, 
but to those currently serving about the value of their service. The 
prospect of drastically higher health care fees for retirees is also a 
morale issue with the senior enlisted communities who view this as an 
erosion of their career benefits. Unlike private sector employees, 
military retirees have answered the call to serve, and most have done 
so under extremely difficult circumstances while separated from their 
families to defend the freedoms we enjoy today.
                           concurrent receipt
    FRA appreciates a boost in compensation for benefiting disabled 
retirees in the new Administration's budget. The fiscal year 2010 
budget includes funding for expansion of concurrent receipt of military 
retired pay and VA disability compensation to retirees who were 
medically retired from service (Chapter 61 Retirees). Under current law 
these benefits (CRDP) are offset by the amount of VA disability 
compensation. This offset would be phased-out over 5 years. FRA 
supports legislation authorizing the immediate payment of concurrent 
receipt of full military retired pay and veterans' disability 
compensation for all disabled retirees, and these improvements reflect 
a big step toward achieving this goal.
                       protect personnel programs
    Active Duty Pay.--FRA strongly supports the authorization and 
funding of a 3.4 percent fiscal year 2010 pay increase which is 
consistent with past support of annual active duty pay increases that 
are at least 0.5 percent above the Employment Cost Index (ECI). The 
Association also supports targeted increases, as appropriate for mid-
career and senior enlisted personnel to help close the remaining 2.9 
percent pay gap between active duty and private sector pay.
    Adequate and targeted pay increases authorized in recent years, 
particularly for middle grade and senior petty and noncommissioned 
officers, have contributed to improved morale, readiness, and 
retention. Better pay reduces family stress, especially for junior 
enlisted and may reduce the need for military personnel use of short-
term pay day loans unaware of the ruinous long-term impact of excessive 
interest rates. Military pay and benefits must reflect the fact that 
military service is very different from work in the private sector.
    End Strength.--Adequate active duty and Reserves end strengths are 
essential to success in Operations Enduring Freedom (OEF) and Iraqi 
Freedom, and other commitments around the world. The fiscal year 2010 
budget supports additional end strength for the Marine Corps (202,000) 
and halts Navy end strength reductions. The Association supports 
funding to support these proposals and also strongly supports funding 
for bonuses for service members with extended deployments.
                            family readiness
    FRA supports a fully funded, robust family readiness program which 
is crucial to overall readiness of our military, especially with the 
demands of frequent and extended deployments. Resource issues continue 
to plague basic installation support programs at a time when families 
are dealing with increased deployments, and they often are being asked 
to do without in other important areas.
    The availability of child care is especially important when so much 
of the force is deployed and this program, along with other family 
readiness programs must be adequately funded in fiscal year 2010 and 
beyond.
    BRAC and Rebasing.--Adequate resources are required to fund 
essential quality of life programs and services at bases impacted by 
the Base Realignment and Closure (BRAC) and rebasing initiatives. FRA 
is concerned about sustaining commissary access, MWR programs and other 
support for service members and their families particularly at 
installations most impacted by these actions. These include Guam, where 
a significant number of Marines and their families are being relocated 
from Okinawa. The shortage of funds is curtailing or closing some of 
the activities while the costs of participating in others have recently 
increased.
    Family Housing.--The Association welcomes the $200 million more for 
family housing, child care, and other support services over the fiscal 
year 2009 budget. Adequate military housing that's well maintained is 
critical to retention and morale.
    Child and Youth Programs.--MCPON Rick West testified before the 
House Appropriations Subcommittee on Military Construction and Veterans 
Affairs in February 2009 that there is a need for more child care 
facilities since the Navy currently provides for only 72 percent of 
capacity while the goal is 80 percent. Access to child care is 
important and FRA urges Congress to authorize adequate funding for this 
important program.
                             reserve issues
    FRA stands foursquare in support of the Nation's Reservists. Due to 
the demands of the War on Terror, Reserve units are now increasingly 
being mobilized to augment active duty components. As a result of these 
operational demands, Reserve component is no longer a strategic Reserve 
but is now an operational Reserve that is an integral part of the total 
force. And because of these increasing demands on Reservists to perform 
multiple missions abroad over longer periods of time, it's essential to 
improve compensation and benefits to retain currently serving personnel 
and attract quality recruits.
    Retirement.--If authorized, FRA supports funding retroactive 
eligibility for the early retirement benefit to include Reservists who 
have supported contingency operations since 9/11/2001 (S. 831/S. 644). 
The fiscal year 2008 Defense Authorization Act (H.R. 4986) reduces the 
Reserve retirement age (age 60) by 3 months for each cumulative 90-days 
ordered to active duty. The provision however only applies to service 
after the effective date of the legislation, and leaves out more than 
600,000 Reservists mobilized since 9/11 for Afghanistan and Iraq and to 
respond to natural disasters like Hurricane Katrina. About 142,000 of 
them have been deployed multiple times in the past 6 years.
    Family Support.--FRA supports resources to allow increased outreach 
to connect Reserve families with support programs. This includes 
increased funding for family readiness, especially for those 
geographically dispersed, not readily accessible to military 
installations, and inexperienced with the military. Unlike active duty 
families who often live near military facilities and support services, 
most Reserve families live in civilian communities where information 
and support is not readily available. Congressional hearing witnesses 
have indicated that many of the half million mobilized Guard and 
Reserve personnel have not received transition assistance services they 
and their families need to make a successful transition back to 
civilian life.
                               conclusion
    FRA is grateful for the opportunity to present the organization's 
views to this distinguished Subcommittee. The Association reiterates 
its profound gratitude for the extraordinary progress this 
Subcommittee, with outstanding staff support, has made in advancing a 
wide range of enhanced benefits and quality-of-life programs for all 
uniformed services personnel, retirees, their families and survivors. 
Thank you.

    Chairman Inouye. I'd like to point out that, at this 
moment, several subcommittees are having their meetings or 
conferences. As a result, you can see that they're busy 
elsewhere. The vice chairman of this subcommittee had to go to 
the Energy Committee subcommittee, because he is the senior 
member there.
    So, if I may, I'd like to call upon him for any remarks he 
may have.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you very much.
    I'm pleased to be able to come by and join you in thanking 
these witnesses for preparing testimony, and giving us the 
benefit of your observations and experience and interest as we 
review the budget for this next fiscal year for the Department 
of Defense and related agencies.
    Because of your experiences and your knowledge, we take 
what you say very seriously, and we will carefully review your 
statements and make sure that the subcommittee considers them 
as we proceed through our appropriations process for this next 
fiscal year.
    Thank you.
    Chairman Inouye. Thank you very much.
    And next, the Chief Executive Officer of the Air Force 
Sergeants Association, Command Master Sergeant John McCauslin, 
of the Air Force.
STATEMENT OF COMMAND MASTER SERGEANT JOHN R. McCAUSLIN, 
            UNITED STATES AIR FORCE (RET.), CHIEF 
            EXECUTIVE OFFICER, AIR FORCE SERGEANTS 
            ASSOCIATION
    Sergeant McCauslin. Good morning, Chairman Inouye, Senator 
Cochran.
    On behalf of the 125,000 members of the Air Force Sergeants 
Association, I thank you for your continued support of our 
airmen and their families. I appreciate this opportunity to 
present our perspective of six important areas of priority for 
the fiscal year 2010 defense appropriations.
    First, Air Force manpower and equipment. AFSA strongly 
believes the aging fleet of legacy Air Force systems, 
facilities, and equipment needs to be modernized. However, we 
also know the truly most valuable weapon that America has are 
those serving this Nation, especially the men and women wearing 
chevrons.
    Operational demands, including deployments, have greatly 
increased to include intelligence activity, reconnaissance, and 
surveillance resources, the newest combatant command in Africa, 
the new Air Force Cyber Command, increased activity in 
Afghanistan and elsewhere overseas. Therefore, AFSA supports 
General Schwartz's request for more F-35 aircraft to do our job 
of preserving peace through deterrence.
    Quality of life. Our Nation's military should not be 
considered a financial burden, but considered a national 
treasure, as they preserve our national security for all that 
live here. If we expect to retain this precious resource, we 
simply must provide they and their families with decent and 
safe work centers, family housing and dormitories, healthcare, 
childcare, physical fitness centers, and recreational programs 
and facilities. Tremendous strides have been made to improve 
access to quality childcare and fitness centers on our military 
installations, and we're grateful to the Department of Defense 
and Congress for these collective efforts. However, there's 
still much work to be done. I have personally visited over 125 
Air Force installations in the States and overseas these past 3 
years, and I can assure you that the demand for adequate 
childcare and decent, affordable housing is a top priority 
among our airmen and their families' decision to stay or get 
out.
    Veterans Affairs healthcare funding. AFSA believes that the 
healthcare portion of Veterans Affairs (VA) funding should be 
moved to mandatory annual spending. One of the Nation's highest 
obligations is their willingness to fully fund VA healthcare 
facilities and other programs for those who have served in the 
past or are serving today and will serve in the future.
    On a positive note, we're particularly pleased by the 
tremendous support of Congress and this subcommittee to 
implement and fund wounded warrior programs across America.
    The Air Force Sergeants Association applauds the actions of 
this subcommittee, other committees and subcommittees, to 
directly address the issue of unique health challenges faced by 
our women veterans. AFSA urges an increase to the VA budget so 
that they can appropriately care for these female veterans, now 
and in the future.
    Regarding the educational benefits. The post-9/11 GI bill 
was a giant step forward, even though there are still some 
funding shortfalls being currently worked by Senator Webb's 
office, and we urge your subcommittee's support.
    And finally, my final point concerns basic military pay and 
the tremendous pay gap, for these last 15 years, that you've 
helped us close. However, we still have serious problems in the 
junior enlisted. For example, enrollment in food stamps rose 25 
percent in the military this last year alone. Our junior 
enlisted are all volunteers serving our Nation, yet thousands 
remain on food stamps.
    In conclusion, this was a very brief presentation of our 
perspective for you. Our detailed, typed testimony has been 
personally delivered to your subcommittee staff for inclusion 
today.
    Thank you very much.
    Chairman Inouye. I thank you very much, Command Master 
Sergeant.
    [The statement follows:]
            Prepared Statement of John R. ``Doc'' McCauslin
    Mr. Chairman and distinguished committee members, on behalf of the 
125,000 members of the Air Force Sergeants Association, (AFSA), I thank 
you for your continued support of Airmen and their families. I 
appreciate this opportunity to present our perspective on priorities 
for the fiscal year 2010 defense appropriations.
    The Air Force Sergeants Association (AFSA) represents Air Force 
Active Duty, Air National Guard, Air Force Reserve Command, including 
active, retired and veteran enlisted Airmen and their families. We are 
grateful for this subcommittee's efforts, and I cannot overstate the 
importance your work is to those serving this Nation.
    You certainly have a daunting task before you and shoulder the 
tremendous responsibility as you wisely appropriate limited resources 
based on many factors. The degree of difficulty deciding what is funded 
isn't lost on us. It is significant.
                           air force manpower
    AFSA strongly believes the aging fleet of legacy Air Force systems, 
facilities, and equipment needs to be modernized. However, we also know 
the truly most valuable weapon America has are those serving this great 
Nation, especially the men and women wearing chevrons of the enlisted 
grades.
    We are deeply concerned about the recent Air Force drawdown of 
manpower in order to facilitate funding of system modernization and 
recapitalization but we greatly appreciate Congressional support that 
has reinstated some of that lost resource. The impact on Air Force 
ability to maintain the highest level of readiness was felt throughout 
the smaller force and it placed even more stress on our maintainers and 
security forces.
    Although well-intended, that drawdown did not appear to have 
yielded the results envisioned. Some efficiency was gained as Airmen 
exercised innovation and continuous process improvement in order to 
accomplish more. The ole adage ``do more with less'' certainly and 
quickly became a reality.
    Operational demands including deployments have increased over this 
same time--increased intelligence activity, reconnaissance and 
surveillance (ISR) resources, supporting the newest combatant command 
in Africa, the new Air Force Cyber Command based in Louisiana, 
increased activity in Afghanistan, and elsewhere overseas. The Air 
Force has increased its capabilities to ward off threats from the cyber 
domain and accomplishing the expanding workload associated with more 
inspections and maintenance to keep aging airframes mission ready.
    With the appropriate recommendations from the Armed Service 
committees, we need to continue offering enlistment bonuses for those 
career fields that are physically demanding and highly skilled hard to 
fill jobs since 2001. With Congressional assistance, coupled with the 
hard work of our Air Force recruiters, we can continue to meet the 
required annual needs of new Combat Controllers, Para-rescue; Tactical 
Air Control Party; Explosive Ordinance Disposal; Security Forces; 
Linguist and Survival, Evasion, Resistance, and Escape Instructors. The 
amount offered at the initial enlistment ranges from $2,000 to $13,000, 
depending on the career specialty and terms of enlistment. These are 
currently the only fields offering enlistment bonuses for fiscal year 
2009. Congress authorized hazardous duty allowance for all DOD 
firefighters, still today the services have not funded this program. 
The Air Force has over 3,000 firefighters who have been authorized this 
allowance by Congress but not funded.
    AFSA believes a course correction is needed to avert severe 
adverse, long-term consequences that have already begun to affect 
morale, retention and combat readiness. We strongly support increasing 
and fully funding Air Force end strength to 332,800.
                            quality of life
    Our Nation's military should not be considered a financial burden 
but considered a national treasure as they preserve our national 
security for all that live here. If we expect to retain this precious 
resource, we must provide they and their families, with decent and safe 
work centers, family housing and dormitories, health care, child care 
and physical fitness centers, and recreational programs and facilities. 
These areas are a prime recruitment and retention incentive for our 
Airmen and their families. This directly impacts their desire to 
continue serving through multiple deployments and extended separations 
from family and friends.
    This Nation devotes considerable resources to train and equip 
America's sons and daughters--a long term investment--and that same 
level of commitment should be reflected in the facilities and equipment 
they use and in where they live, work, and play.
    We urge extreme caution in deferring these costs, especially at 
installations impacted by base realignment and closure (BRAC) decisions 
and mission-related shifts.
    We applaud congressional support for military housing privatization 
initiatives. This has provided housing at a much faster pace than would 
have been possible through military construction alone.
    AFSA urges Congress to fully fund appropriate accounts to ensure 
our installations eliminate substandard housing and work centers as 
quickly as possible. Those devoted to serving this Nation deserve 
better.
    Tremendous strides have been made to improve access to quality 
child care and fitness centers on military installations, and we are 
grateful to the Department of Defense and Congress for these collective 
efforts. However, there is still much more work to be done. I have 
personally visited over 125 Air Force installations in the states and 
overseas these past three years and I can assure you that the demand 
for adequate child care is a top priority among our Airmen and their 
families. The importance of this is directly reflected in the military 
members' family decision to remain in the service or exit.
                  veterans affairs healthcare funding
    AFSA believes that the healthcare portion of Veterans Affairs (VA) 
funding should be moved to mandatory annual spending. One of this 
Nation's highest obligations is the willingness to fully fund VA health 
care, facilities, and other programs for those who have served in the 
past, are serving today and will serve in the future.
    There are many challenges facing veterans and we are encouraged by 
the initiatives centered on improving access for all veterans 
regardless of their VA designated category. Much more emphasis has to 
be focused on continuity of care and addressing the scars of war, some 
obvious and others not so, such as traumatic brain injuries and post 
traumatic stress disorders. We are particularly pleased by the 
tremendous support of Congress and this Committee to implement and fund 
Wounded Warrior programs across America. The outpouring of support from 
civilian communities and volunteer support has been truly amazing and 
very much appreciated.
                    women veterans healthcare issues
    The Air Force Sergeants Association applauds the actions of this 
committee, other committees and sub-committees to directly address the 
issue of the unique health challenges faced by women veterans. Between 
1990 and 2000, the women veteran population increased by over 33 
percent from 1.2 million to 1.6 million, and women now represent 
approximately 9 percent of the total veteran population. By next year, 
the VA estimates women veterans will comprise well over 10 percent of 
the veteran population. Currently women make up more than 20 percent of 
the active duty Air Force, Air National Guard 19 percent, and 
approximately 26 percent of the Air Force Reserves with thousands 
serving, or having already returned from serving, in Iraq, Afghanistan 
and other places a long way from our shores. AFSA urges an increase to 
the VA budget so they can appropriately care for these veterans now and 
in the future.
                               impact aid
    Military leaders often use the phrase, ``we recruit the member, but 
we retain the family'' when talking about quality of life and 
retention. Impact Aid is a program at the very core of this premise, 
because it directly affects the quality of educational programs 
provided to the children of military service members. In the Department 
of Defense Dependent Schools, there are over 79,000 children of our 
active duty force scattered all over the globe.
    These children lead unique lives, fraught with challenges 
associated with frequent changes in schools, repeatedly being uprooted 
and having to readjust to new communities and friends. Many of these 
school children are in other countries in either the DODDS system or 
host nation schools that are not affected by Impact Aid funding. 
Worrying about what resources might or might not be available to school 
administrators should not be yet another concern heaped upon them and 
their parents.
    The Impact Aid program provides Federal funding to public school 
districts in the United States with enrollment of students that have a 
parent who is a member of the Armed Forces, living on and/or assigned 
to a military installation.
    The budget proposed by the administration is identical to the 
approved funding in 2009 in spite of increased financial obligations by 
the servicing local school districts. It has a completely detrimental 
effect on the military member and their decision to take that next 
assignment or opt to get out for the good of his or her family. The 
implicit statement in this action is military children are a lower 
priority than others in our Nation. We ask this committee to take the 
steps necessary to show our military men and women that the education 
of their children is as important at the next child.
    AFSA is grateful that Congress funded Impact Aid with 1.265.7 
million this past fiscal year. We strongly urge increased funding of 
this important family quality of life area that has a direct bearing on 
reenlistment rates and military families quality of life. We urge 
Congress restore this program to its rightful full funding.
                           basic military pay
    Tremendous progress has been made over the last 15+ years to close 
the gap between civilian sector and military compensation. AFSA 
appreciates these steady efforts and we encourage further steps. We 
believe linking pay raises to the employment cost index (ECI) is 
essential to recruiting and retaining the very best and brightest 
volunteers. AFSA urges the formula for determining annual pay increases 
to be ECI + 0.5 percent until the gap is completed eliminated. If we 
want to continue having an all volunteer force then we must continue on 
the path to close the aforementioned pay gap. Enrollment in food stamps 
rose 25 percent in the military last year. Our junior enlisted are all 
volunteers serving our Nation, yet they remain on monthly use of food 
stamps.
                     transition assistance programs
    The all-volunteer military force repeatedly answers this Nation's 
call to duty and at the end of their tours of duty, whether a few years 
or after decades of service, all transition to civilian life.
    Section 502 of the National Defense Authorization Act of Fiscal 
Year 1991 codified in sections 1141-1143 and 1144-1150 of title 10, 
United States Code, authorized comprehensive assistance benefits and 
services for separating service members and their spouses.
    From that legislation, grew a valuable partnership between the 
Department of Labor and the Departments of Defense, Veterans Affairs 
and Homeland Security to provide Transition Assistance Program (TAP) 
employment workshops, VA Benefits Briefings and the Disabled Transition 
Assistance Program (DTAP). These programs and briefings provide service 
members valuable job placement assistance, training opportunities, and 
education on veteran benefits so they make informed choices about post-
service opportunities.
    We urge the committee to continue fully funding transition 
assistance programs at a level that serves our deserving volunteer 
veterans.
    In addition, we ask you to support the initiatives in this Congress 
to pass legislation and fund a program that would create hiring 
preferences across the Federal Government for military spouses. Under 
current law, veterans of America's Armed Forces are entitled to 
preferences over others in competitive hiring positions in Federal 
Government. We believe the sacrifice of family members warrant this 
consideration as well.
                      veterans education benefits
    There's no escaping the fact that college costs are rising. As the 
gap between the cost of an education and value of the MGIB widens, the 
significance of the benefit becomes less apparent. For that reason, the 
Post 9-11 GI Bill was a giant step forward. However, we must make sure 
that the new post 9-11 stays current at all times, so that this benefit 
will not lose its effectiveness when it comes to recruiting this 
Nation's finest young men and women into service. As a member of The 
Military Coalition and the Partnership for Veterans' Education, we 
strongly recommend you make the technical corrections to the Post 9-11 
Veterans GI Bill that need to be done prior to its implementation this 
August 1st.
    When young enlisted men and women opt for military service, they 
should know that this Nation will provide them with a no-cost, complete 
education, as do numerous companies in the private industry. We, as a 
Government, give them a one-time chance to enroll in the MGIB during 
basic training. The Department of Defense charges them $1,200 to enroll 
at a time when they can least afford it. Service-members are even 
offered an opportunity to increase their education benefit by paying an 
additional $600.
    Now that the new Post 9-11 GI bill is coming on board for free, 
those who already paid for but who have not yet utilized the Montgomery 
GI Bill, will now have to wait until their chapter 33 entitlements are 
exhausted before they will be allowed to receive a refund on their 
Montgomery GI bill contributions. Under current law, those who have 
contributed the additional $600, will not have that money returned to 
them at all.
    This is unacceptable.
    In good faith and trusting their Government-funded education will 
be provided in their best interest, service-members now find a program 
that does not require further investment in their education. However 
the Government will withhold the service-member's Montgomery GI Bill 
initial investment and not refund it. Our recommendation is that the 
service-members who chose to enroll in the chapter 33 benefit, and who 
bought the additional benefit for $600, should be given their 
investment back or granted an additional 2 years of chapter 30 benefits 
to roll their $600 education investment into the new education bill. 
The latest shortfall with the new bill is that all active duty will not 
receive the $1,000 book allowance. We urge the appropriate committees 
to make the necessary corrections to ensure those on active duty 
receive this allowance.
    Mr. Chairman, we appreciate your efforts and thank you for this 
opportunity to share our perspective. AFSA realizes the many difficult 
decisions this committee must make and hope the information presented 
today proves helpful. As always, the Air Force Sergeants Association 
remains ready to support you in matters of mutual concern.

    Chairman Inouye. And our next witness represents the 
American Psychological Association, Dr. Gavin O'Shea.
STATEMENT OF GAVIN O'SHEA, Ph.D., ON BEHALF OF THE 
            AMERICAN PSYCHOLOGICAL ASSOCIATION
    Dr. O'Shea. Good morning Mr. Chairman and members of the 
subcommittee. I'm Dr. Gavin O'Shea from HumRRO, the Human 
Resources Research Organization. I'm submitting testimony on 
behalf of the American Psychological Association, or APA, a 
scientific and professional organization of more than 148,000 
psychologists.
    For decades, clinical and research psychologists have used 
their unique and critical expertise to meet the needs of our 
military and its personnel, playing a vital role within the 
Department of Defense. My own military-oriented research and 
consulting focuses on organizational commitment, personnel 
selection, and leadership assessment.
    This morning, I focus on APA's request that Congress 
reverse disturbing administration cuts to DOD's science and 
technology budget and maintain support for important behavioral 
sciences research on counterterrorism and counterintelligence 
operations.
    In terms of the overall DOD S&T budget, the President's 
request for fiscal year 2010 represents a dramatic step 
backward for defense research. Defense S&T would fall from the 
current fiscal year 2009 level of $13.6 billion to $11.6 
billion, with cuts across the board. With very few exceptions, 
all basic and applied research accounts within military labs 
would face cuts, some as high as 50 percent.
    This is not the time to reduce support for research that is 
vital to our Nation's continued security in a global atmosphere 
of uncertainty and asymmetric threats. APA urges the 
subcommittee to reverse this cut to the critical defense 
science program by providing $14 billion for defense S&T in 
fiscal year 2010.
    Finally, APA is also concerned about the potential loss of 
invaluable human-centered research programs related to 
counterintelligence and counterterrorism due to the 
reorganization of the CIFA office into the Defense Intelligence 
Agency (DIA). APA urges the subcommittee to provide ongoing 
funding in fiscal year 2010 for DIA's behavioral research 
programs on cyberdefense, insider threat, credibility 
assessment, detection of deception, and other operational 
challenges.
    As noted in a recent National Research Council report, 
``People are the heart of all military efforts. People operate 
the available weaponry and technology, and they constitute a 
complex military system composed of teams and groups at 
multiple levels. Scientific research on human behavior is 
crucial to the military, because it provides knowledge about 
how people work together, and use weapons and technology to 
extend and amplify their forces.''
    The defense research programs need your help more than ever 
this year, and we look forward to your support.
    Thank you.
    Chairman Inouye. I thank you very much, Dr. O'Shea.
    [The statement follows:]
                   Prepared Statement of Gavan O'Shea
    The American Psychological Association (APA) is a scientific and 
professional organization of more than 148,000 psychologists and 
affiliates.
    For decades, psychologists have played vital roles within the 
Department of Defense (DOD), as providers of clinical services to 
military personnel and their families, and as scientific researchers 
investigating mission-targeted issues ranging from airplane cockpit 
design to human intelligence-gathering. More than ever before, 
psychologists today bring unique and critical expertise to meeting the 
needs of our military and its personnel. APA's testimony will focus on 
reversing Administration cuts to the overall DOD Science and Technology 
(S&T) budget and maintaining support for important behavioral sciences 
research within DOD.
                              dod research
    ``People are the heart of all military efforts. People operate the 
available weaponry and technology, and they constitute a complex 
military system composed of teams and groups at multiple levels. 
Scientific research on human behavior is crucial to the military 
because it provides knowledge about how people work together and use 
weapons and technology to extend and amplify their forces.''----Human 
Behavior in Military Contexts, Report of the National Research Council, 
2008.
    Just as a large number of psychologists provide high-quality 
clinical services to our military service members stateside and abroad, 
psychological scientists within DOD conduct cutting-edge, mission-
specific research critical to national defense.
    In terms of the overall DOD S&T budget, the President's request for 
fiscal year 2010 represents a dramatic step backward for defense 
research. Defense S&T would fall from the estimated fiscal year 2009 
level of $13.6 billion to $11.6 billion with cuts across the board. 
With the exception of a less-than-1-percent increase in Air Force basic 
(6.1) research and an increase in basic research in the Office of the 
Secretary of Defense, all military labs would see cuts to their 6.1, 
6.2 and 6.3 accounts, some as high as 50 percent.
    The President's budget request for basic and applied research at 
DOD in fiscal year 2010 is $11.6 billion, which represents a stunning 
decrease of almost $2 billion or 15 percent from the enacted fiscal 
year 2009 level of $13.6 billion. APA urges the Subcommittee to reverse 
this cut to the critical defense science program by providing a total 
of $14 billion for Defense S&T in fiscal year 2010. This is not the 
time to cut back on research vital to our Nation's continued security 
in a global atmosphere of uncertainty and asymmetric threats.
      behavioral research within the military service labs and dod
    Within DOD, the majority of behavioral, cognitive and social 
science is funded through the Army Research Institute (ARI) and Army 
Research Laboratory (ARL); the Office of Naval Research (ONR); and the 
Air Force Research Laboratory (AFRL), with additional, smaller human 
systems research programs funded through the Office of the Secretary of 
Defense, the Defense Advanced Research Projects Agency (DARPA), and 
DOD's Defense Intelligence Agency (DIA).
    The military service laboratories provide a stable, mission-
oriented focus for science, conducting and sponsoring basic (6.1), 
applied/exploratory development (6.2) and advanced development (6.3) 
research. These three levels of research are roughly parallel to the 
military's need to win a current war (through products in advanced 
development) while concurrently preparing for the next war (with 
technology ``in the works'') and the war after next (by taking 
advantage of ideas emerging from basic research). All of the services 
fund human-related research in the broad categories of personnel, 
training and leader development; warfighter protection, sustainment and 
physical performance; and system interfaces and cognitive processing.
National Academies Report Calls for Doubling Behavioral Research
    The 2008 National Academies report on Human Behavior in Military 
Contexts recommended doubling the current budgets for basic and applied 
behavioral and social science research ``across the U.S. military 
research agencies.'' It specifically called for enhanced research in 
six areas:
  --intercultural competence;
  --teams in complex environments;
  --technology-based training;
  --nonverbal behavior;
  --emotion; and
  --behavioral neurophysiology.
    Behavioral and social science research programs eliminated from the 
mission labs due to cuts or flat funding are extremely unlikely to be 
picked up by industry, which focuses on short-term, profit-driven 
product development. Once the expertise is gone, there is absolutely no 
way to ``catch up'' when defense mission needs for critical human-
oriented research develop. As DOD noted in its own Report to the Senate 
Appropriations Committee: ``Military knowledge needs are not 
sufficiently like the needs of the private sector that retooling 
behavioral, cognitive and social science research carried out for other 
purposes can be expected to substitute for service-supported research, 
development, testing, and evaluation . . . our choice, therefore, is 
between paying for it ourselves and not having it.''
Defense Science Board Calls for Priority Research in Social and 
        Behavioral Sciences: Mapping the Human Terrain
    This emphasis on the importance of social and behavioral research 
within DOD is echoed by the Defense Science Board (DSB), an independent 
group of scientists and defense industry leaders whose charge is to 
advise the Secretary of Defense and the Chairman of the Joint Chiefs of 
Staff on ``scientific, technical, manufacturing, acquisition process, 
and other matters of special interest to the Department of Defense.''
    In its 2007 report on 21st Century Strategic Technology Vectors, 
the DSB identified a set of four operational capabilities and the 
''enabling technologies'' needed to accomplish major future military 
missions (analogous to winning the Cold War in previous decades). In 
identifying these capabilities, DSB specifically noted that ``the 
report defined technology broadly, to include tools enabled by the 
social sciences as well as the physical and life sciences.'' Of the 
four priority capabilities and corresponding areas of research 
identified by the DSB for priority funding from DOD, the first was 
defined as ``mapping the human terrain.''
         maintaining behavioral research on counterintelligence
    In addition to strengthening the DOD S&T account, and behavioral 
research within the military labs in particular, APA also is concerned 
with maintaining invaluable human-centered research programs formerly 
within DOD's Counterintelligence Field Activity (CIFA) now that staff 
and programming have been transferred to the Defense Intelligence 
Agency. Within this DIA program, psychologists lead intramural and 
extramural research programs on counterintelligence issues ranging from 
models of ``insider threat'' to cybersecurity and detection of 
deception. These psychologists also consult with the three military 
services to translate findings from behavioral research directly into 
enhanced counterintelligence operations on the ground.
    APA urges the Subcommittee to provide ongoing funding in fiscal 
year 2010 for counterintelligence behavioral science research programs 
at DIA in light of their direct support for military intelligence 
operations.
                                summary
    On behalf of APA, I would like to express my appreciation for this 
opportunity to present testimony before the Subcommittee. Clearly, 
psychological scientists address a broad range of important issues and 
problems vital to our national security, with expertise in modeling 
behavior of individuals and groups, understanding and optimizing 
cognitive functioning, perceptual awareness, complex decision-making, 
stress resilience, recruitment and retention, and human-systems 
interactions. We urge you to support the men and women on the front 
lines by reversing another round of cuts to the overall defense S&T 
account and the human-oriented research projects within the military 
laboratories and CIFA.
    As our Nation rises to meet the challenges of current engagements 
in Iraq and Afghanistan as well as other asymmetric threats and 
increased demand for homeland defense and infrastructure protection, 
enhanced battlespace awareness and warfighter protection are absolutely 
critical. Our ability to both foresee and immediately adapt to changing 
security environments will only become more vital over the next several 
decades. Accordingly, DOD must support basic Science and Technology 
(S&T) research on both the near-term readiness and modernization needs 
of the department and on the long-term future needs of the warfighter.
    Below is suggested appropriations report language for fiscal year 
2010 which would encourage the Department of Defense to fully fund its 
behavioral research programs within the military laboratories and 
protect counterintelligence research:
Department of Defense
            Research, Development, Test, and Evaluation
    Behavioral Research in the Military Service Laboratories.--The 
Committee notes the increased demands on our military personnel, 
including high operational tempo, leadership and training challenges, 
new and ever-changing stresses on decision-making and cognitive 
readiness, and complex human-technology interactions. To help address 
these issues vital to our national security, the Committee has provided 
increased funding to reverse cuts to psychological research through the 
military research laboratories: the Air Force Office of Scientific 
Research and Air Force Research Laboratory; the Army Research Institute 
and Army Research Laboratory; and the Office of Naval Research.
    Human-Centered Counterintelligence Research.--The Committee urges 
the Department of Defense to continue supporting human-centered 
research, formerly coordinated through the Counterintelligence Field 
Activity, at the Defense Intelligence Agency.

    Chairman Inouye. And now may I call upon the chair of the 
Extremities War Injuries Project Team of the American Academy 
of Orthopaedic Surgeons, Dr. Andrew Pollak.
STATEMENT OF ANDREW N. POLLAK, M.D., CHAIR, EXTREMITY 
            WAR INJURIES AND DISASTER PREPAREDNESS 
            PROJECT TEAM, AMERICAN ACADEMY OF 
            ORTHOPAEDIC SURGEONS
    Dr. Pollak. Good morning, Senators. I'm Dr. Andy Pollak, 
and I chair the Extremity War Injuries Project Team for the 
American Academy of Orthopaedic Surgeons. During the day, I 
serve as chief of orthopaedic surgery at the Shock Trauma 
Center at the University of Maryland in Baltimore.
    On behalf of military and civilian orthopaedic surgeons and 
researchers throughout the country, I take this opportunity to 
urge the subcommittee to continue to provide significant 
resources for peer-reviewed medical research in the area of 
extremity war injuries, injuries arising from trauma to the 
bones, joints, muscles, and tendons of the arms and legs.
    We thank you for providing the DOD with the funding for 
this purpose since fiscal year 2006, including $117 million 
total in fiscal year 2009, and we urge you to consider 
increasing funding for this program, in fiscal year 2010, to 
$150 million.
    Chairman Inouye, we know of your personal experience 
involving extremity trauma during war, and appreciate the fact 
that you have both personal and professional perspectives from 
which to address this issue.
    We're very grateful for the dedicated work of Senators 
Harkin and Hutchison, both members of the subcommittee. They 
worked together in support of last year's appropriation, and 
have both expressed support for growing this program to $150 
million for fiscal year 2010.
    Mr. Chairman, I've had the privilege of performing surgery 
in military facilities in Balad, Iraq, and Landstuhl, Germany. 
I can assure this subcommittee of the outstanding quality of 
trauma care being delivered by the military health system 
there. The problem facing surgeons emanates from limitations in 
medical knowledge and techniques in the management of these 
horrific injuries. We need your help to advance the state of 
the art. We also need your help to improve our ability to treat 
consequences of severe injury to the extremities, such as 
arthritis, nerve damage, infection, and failure of bones to 
heal properly.
    I'll keep the statistics short. Extremity injury is the 
most common type of injury sustained in battle, affecting over 
80 percent of wounded warriors. Extremity wounds are the 
greatest source of expense related to hospitalization of 
wounded warriors after combat injury. Extremity war wounds are 
the greatest source of war-related disability expense for the 
military, expected to total $1.8 billion, lifetime, for 
payments related to injuries sustained to American warriors in 
Iraq and Afghanistan, exclusive of costs associated with their 
medical care. And conditions analogous to arthritis were the 
most common reason for disability-related retirement from the 
Army in 2008.
    The peer-reviewed orthopaedic research programs were 
designed to help military surgeons find new, limb-sparing 
techniques, with the goals of avoiding amputations, and 
preserving and restoring the function of injured extremities, 
limiting disability and suffering, and, whenever possible, 
allowing our warriors to return to duty as soon as it's safely 
possible.
    The interest and capacity of the U.S. research community is 
very strong. This past year, as a result of funding made 
available in the fiscal year 2008 supplemental appropriation, 
the DOD accepted applications for development of a consortium 
of military and civilian trauma centers to begin work on the 
critically important clinical studies necessary to understand 
the best ways to treat extremity injuries, and to translate 
recent scientific advances in bone growth and tissue 
regeneration to the real world, where these advances can help 
improve the lives of our injured heroes.
    Mr. Chairman, Mr. Vice Chairman, you've recognized the 
urgent need to finance extremity research over the past 4 
years, and we're extremely grateful for that support. Based on 
the level of scientific need, our goal is to see the Defense 
Department programs achieve an operating level of $150 million 
per year.
    Thank you and the entire subcommittee for your vision and 
leadership in responding to this appeal. We strongly urge your 
continued action.
    Chairman Inouye. All right, thank you very much, Dr. 
Pollak.
    [The statement follows:]
                 Prepared Statement of Andrew N. Pollak
    Chairman Inouye, Vice Chairman Cochran, Members of the Senate 
Defense Appropriations Subcommittee, thank you for the opportunity to 
testify today. I am Andrew N. Pollak, M.D., and I speak today on behalf 
of the American Academy of Orthopaedic Surgeons (AAOS), of which I am 
an active member, as well as my military and civilian orthopaedic 
surgery colleagues who are involved in extremity trauma research and 
care.
    I am Chair of the Academy's Extremity War Injuries and Disaster 
Preparedness Project Team, past-chair of its Board of Specialty 
Societies, and a subspecialist in orthopaedic traumatology. I am 
Associate Director of Trauma and Head of the Division of Orthopaedic 
Traumatology at the R Adams Cowley Shock Trauma Center and the 
University of Maryland School of Medicine. My Division at Shock Trauma 
is responsible for providing education and training in orthopaedic 
traumatology to residents from eight separate training programs 
nationally, including the Bethesda Naval, Walter Reed Army and Tripler 
Army military orthopaedic residency programs. In addition, Shock Trauma 
serves as the home for the Air Force Center for the Sustainment of 
Trauma and Readiness Skills (CSTARS) program. I also serve as Second 
Vice President of the Orthopaedic Trauma Association.
    Senators, on behalf of all the military and civilian members of the 
American Academy of Orthopaedic Surgeons, please allow me to take this 
opportunity today to thank you both, as well as the Members of this 
Subcommittee, for your vision and leadership in providing funding in 
fiscal years 2006 through 2009 for the peer reviewed medical research 
program on orthopaedic and extremity war injuries. In particular, we 
thank you for providing $66 million in your fiscal year 2009 Conference 
Bill and for creating the Peer Reviewed Orthopedic Research Program to 
cover the full range of research--from basic to clinical trials.
    We also thank you most sincerely for your consideration of 
providing funding in the fiscal year 2009 Supplemental Appropriations 
Bill. Your commitment to building this research enterprise and enabling 
the Department of Defense to pursue answers to its critical medical 
needs must be recognized. Clearly this effort by the Congress will 
provide medical benefit through improved treatments and procedures to 
help our Wounded Warriors heal better and quicker.
    We are very grateful for the dedicated work of Senators Tom Harkin 
and Kay Bailey Hutchison--both Members of this Subcommittee--in 
sponsoring a ``Dear Colleague'' letter this year supporting the 
ultimate goal of achieving an annual operating level of $150 million 
per year for this critical peer reviewed research program.
    It really cannot be overstated: the level and consistency of 
appropriations you are providing are ``game-changing.'' It provides the 
Department with the ability to move rapidly in developing the full 
research continuum, especially clinical trials--an essential form of 
investigation that has not existed in the extremity injury field 
previously because of a lack of significant and sustained resources. 
Just last month because of your support the U.S. Army's Medical 
Research and Materiel Command accepted applications in response to its 
first ever call for the formation of network for clinical research into 
these challenges. In addition because of this critical funding, in 
April the Command hosted a 2-day scientific conference to further 
examine needs, and prioritize areas for its broadened research agenda.
    Mr. Chairman, our message is straightforward:
  --Extremity trauma and its sequelae represent the single most common 
        injury class our wounded warriors suffer, the greatest source 
        of inpatient medical care expense for the DOD, the single 
        greatest source of injury related disability expense for the 
        military, and the most common cause for disability retirement 
        from all branches of the armed services;
  --the state of the science must be advanced to provide better 
        treatment options for our wounded service members who suffer 
        extremity trauma and other injuries to their bone and muscles 
        with a goal of limiting the profound long-term disability 
        associated with these injuries;
  --the current peer reviewed research program has great potential to 
        address a wide range of bone and muscle injuries and conditions 
        that are sidelining our troops at increasing rates; and
  --the Defense Department must be convinced to proactively budget for 
        research on military-related orthopaedic injuries, including 
        extremity trauma, but until that occurs, we believe that the 
        Congress has an obligation to ensure--as you have done--that 
        the necessary resources are appropriated and directed to the 
        task.
    As the Iraq and Afghanistan conflicts enter their seventh year, the 
Nation continues to face a profound need for focused medical research 
to help military surgeons find new limb-sparing techniques with the 
goal of avoiding amputations and preserving and restoring the function 
of injured extremities.
    Chairman Inouye, we know of your experience with extremity trauma 
during war and appreciate the fact that you have both personal and 
professional perspectives from which to address this issue and we honor 
your service as well as that of Vice Chairman Cochran.
    U.S. military researchers have documented that approximately 82 
percent of war injuries suffered fighting the global war on terror 
involve the extremities--often severe and multiple injuries to the arms 
and legs.
    The evidence is also reflected in legislative documents. House 
Report 111-105 accompanying the recent fiscal year 2009 Supplemental 
Appropriations Bill, H.R. 2346, correctly states that ``. . . extremity 
injuries are the most prevalent injury, and amputations following 
battlefield injury now occur as twice the rate as in past wars. 
Understanding how to treat and facilitate rapid recovery from 
orthopedic injuries should be one of the top priorities for the 
Military Health System.''
    The Report accompanying the fiscal year 2009 House Appropriations 
Bill made similar points and added: ``. . . the committee believes that 
every aspect of research shall be considered during a time when unique 
and dynamic research and treatment is necessary to provide the soldiers 
the greatest ability to recover from injuries sustained on the 
battlefield.''
    House Report 110-279 accompanying the fiscal year 2008 Defense 
Appropriations Bill stated that ``Extremity injuries are the number one 
battlefield injury . . . dynamic research and treatment is necessary to 
provide service members the greatest ability to recover from injuries 
sustained on the battlefield.''
    A recent U.S. Army analysis of soldiers injured in Iraq and 
Afghanistan from 2001 through 2005 shows that extremity injuries 
account for the greatest proportion of medical resource utilization and 
cause the greatest number of disabled soldiers. In fact, soldiers with 
extremity injuries had the longest average inpatient stays, accounted 
for 65 percent of total inpatient resource utilization and 64 percent 
of projected disability benefits costs in the future. The projected 
disability cost for extremity injuries sustained in this conflict to 
date--exclusive of ANY short or long-term medical costs--is estimated 
to be approximately $1.2 billion.
    In addition, muscle and bone injuries are sidelining a growing 
number of troops in our current conflicts. Data from the U.S. Army 
reported 257,000 acute orthopaedic injuries in 2007--an increase of 
10,000 over the previous year. Increasing numbers of troops are listed 
as ``non-deployable'' as a result of injuries related to carrying heavy 
combat gear in repeated deployments, and, in the case of Afghanistan, 
carrying those loads in high altitude settings.
    A February 1, 2009 Washington Post article on this challenge stated 
that ``Army leaders and experts say the injuries--linked to the stress 
of bearing heavy loads during repeated 12- or 15-month combat tours--
have increased the number of soldiers categorized as ``non 
deployable.''
    The article goes on to quote General Peter W. Chiarelli, the Army 
Vice Chief of Staff: ``You can't hump a rucksack at 8,000 to 11,000 
feet for 15 months, even at a young age, and not have that have an 
impact on your body, and we are seeing an increase in muscular-skeletal 
issues.''
             the peer reviewed orthopaedic research program
    Chairman Inouye, the AAOS and military and civilian orthopaedic 
surgeons and researchers are very grateful for your Subcommittee's 
vision in providing support for Peer Reviewed Orthopedic Research. This 
is the first program created in the Department of Defense dedicated 
exclusively to funding peer-reviewed intramural and extramural 
orthopaedic research. Having the program administered on behalf of the 
Defense Health Program by the U.S. Army Medical Research and Materiel 
Command, Fort Dietrick, ensures that the funding closely follows the 
research priorities established by the Armed Forces. With the 
assistance of the Army's Institute of Surgical Research, MRMC has 
extensive experience administering military-related research grant 
programs. Military orthopaedic surgeons have also had significant input 
into the creation of this program and fully support its goals.
    The design of the program fosters collaboration between civilian 
and military orthopaedic surgeons and researchers and various 
facilities. Civilian researchers have the expertise and resources to 
assist their military colleagues with the growing number of patients 
and musculoskeletal injuries and war wound challenges in building the 
military research program. As can been seen in extensive numbers of 
research applications submitted under each RFP, civilian investigators 
are extremely interested in advancing this research and have responded 
enthusiastically to engage in this important work which will also 
provide wide ranging spin-off benefits to civilian trauma patients.
    The program is growing to encompass the full spectrum of research, 
from basic and translational studies to clinical trials. It focuses on 
targeted, competitively-awarded research where peer reviewers score 
proposals on the degree of (1) military relevance, (2) military impact, 
and (3) scientific merit. Military and civilian orthopaedic surgeons 
are highly involved in defining the research topics and in evaluating 
and scoring the proposals. This unique process ensures that projects 
selected for funding have the highest chance for improving treatment of 
battlefield injuries and deployment related musculoskeletal injuries.
    Significant new funding from the Congress will allow for more 
robust numbers of grants, a broader scope of work and increased multi-
institutional collaboration. As mentioned earlier, clinical trials and 
more in-depth tracking of long term outcomes are in the planning 
stages--important components in rapidly advancing the state of the 
science.
    By funding the Peer Reviewed Orthopedic Research Program--operated 
on behalf of all services by the Army's Medical Research and Materiel 
Command--your committee is advancing the state of the science in this 
field to the benefit of our current servicemen and women--and those who 
will step forward in the future to defend our Nation. Your action will 
directly result in improved treatments for our Wounded Warriors and 
injured troops now and in future conflicts.
    It is important to point out that unique to the current conflicts 
is a new type of patient, a war fighter with multiple and severely 
mangled extremities who is otherwise free of life-threatening injury to 
the torso or whose life-threatening injuries have been successfully 
addressed because of improvements in protective body armor and the 
excellent care quickly delivered through the echelon treatment system. 
Such injuries are rarely seen in civilian surgical hospitals, even in 
Level 1 trauma centers like my own at Shock Trauma in Baltimore. 
Current challenges that often compound the battlefield injuries include 
serious infections due to the nature of the injuries and the 
environment in which they are sustained, and the need for immediate 
transport for more complex surgery.
    The Academy's interest in this effort began in the very early days 
of Operation Enduring Freedom when our deployed military Academy 
members began to report the great clinical needs that were emerging as 
they went about their work in surgery to save injured servicemen and 
women. Soon studies on the nature of injuries in Iraq and Afghanistan 
documented the high proportion of extremity injuries as well as the 
severity of injuries.
    I have been fortunate to travel to and operate in the U.S. Army 
Hospital in Landstuhl, Germany several times and to the Air Force 
Theater Hospital in Balad, Iraq to initiate the Academy's Distinguished 
Visiting Scholars Program. This program is a joint initiative between 
the AAOS and the Orthopaedic Trauma Association. The activity allows 
civilian orthopaedic trauma specialists with demonstrated clinical 
expertise and national recognition for their teaching abilities to 
volunteer two weeks at a time to be away from their practices 
performing surgery and teaching at Landstuhl Regional Medical Center. I 
also had the privilege of operating in Balad, Iraq as part of a request 
by Air Force Surgeon General James Roudebush to evaluate the trauma 
care being delivered at the Air Force Theater Hospital and to 
investigate the feasibility and value of extending the Distinguished 
Visiting Scholars Program into Iraq and Afghanistan. Based on my 
experiences in Balad, I can assure this committee of the outstanding 
quality of trauma care being delivered there by the military health 
system. I believe the quality of medical care being delivered to our 
injured warriors in Balad is at or above the care being delivered in 
our finest trauma centers within the United States.
    On January 21-23 of this year, the fourth annual Extremity War 
Injuries Scientific Symposium was held in Washington, DC, sponsored by 
our Academy, along with the Society of Military Orthopaedic Surgeons, 
The Orthopaedic Research Society and the Orthopaedic Trauma 
Association. This combined effort of three major associations and the 
United States military began in 2006 in an initiative to examine the 
nature of extremity injuries sustained during Operation Enduring 
Freedom and Operation Iraqi Freedom and to plan for advancing the state 
of the science and treatment of these injuries. Each year the meetings 
are attended by over 175 military and civilian leaders in orthopaedic 
and extremity medical research and treatment from around the world. We 
have been very fortunate to have had many outstanding leaders speak to 
the conference audiences in the past about their perspectives on 
injuries being sustained by our armed forces. These speakers have 
included Joint Chiefs Chairman Adm. Michael Mullen, Senator Tom Harkin, 
Representatives John Murtha, Dutch Ruppersberger, and Tom Latham, and 
the previous Assistant Secretary of Defense for Health Affairs, Ward 
Casscells. This conference series has produced widely referenced 
scientific publications describing the clinical challenges posed by 
extremity war injuries, and a research agenda to guide the scientific 
community and the managers of the Peer Reviewed Orthopedic Research 
Program in planning and executing the program.
orthopaedic trauma from operation iraqi freedom and operation enduring 
                                freedom
    The likelihood of surviving wounds on the battlefield was 69.7 
percent in WWII and 76.4 percent in Vietnam. Now, thanks in part to the 
use of body armor, ``up-armored'' vehicles, intense training of our 
combat personnel and surgical capability within minutes of the 
battlefield, survivability has increased dramatically to 90.2 percent 
as of February 2007.
    The Armed Forces are attempting to return significantly injured 
warriors to full function or limit their disabilities to a functional 
level in the case of the most severe injuries. The ability to provide 
improved recovery of function moves toward the goal of keeping injured 
warriors part of the military team. Moreover, when they do leave the 
Armed Forces, these rehabilitated warriors have a greater chance of 
finding worthwhile occupations outside of the service to contribute 
positively to society. The military believes that it has a duty and 
obligation to provide the highest level of care and rehabilitation to 
those men and women who have suffered the most while serving the 
country and our Academy fully supports those efforts.
    It comes as no surprise that the vast majority of trauma 
experienced in Iraq and Afghanistan is orthopaedic-related, especially 
upper and lower extremity and spine. A recent article in the Journal of 
Orthopaedic Trauma reports on wounds sustained in Operation Iraqi 
Freedom (OIF) and Operation Enduring Freedom (OEF) based on data from 
the Joint Theater Trauma Registry, a database of medical treatment 
information from theater of combat operations at U.S. Army medical 
treatment facilities. From October, 2001 through January, 2005, of 
1,566 soldiers who were injured by hostile enemy action, 1,281 (82 
percent) had extremity injuries, with each solider sustaining, on 
average, 2.28 extremity wounds. These estimates do not include non-
American and civilians receiving medical care through U.S. military 
facilities. (Owens, Kragh, Macaitis, Svoboda and Wenke. 
Characterization of Extremity Wounds in Operation Iraqi Freedom and 
Operation Enduring Freedom. J Orthopaedic Trauma. Vol. 21, No. 4, April 
2007. 254-257.)
    An earlier article reported on 256 battle casualties treated at the 
Landstuhl Regional Medical Center in Germany during the first 2 months 
of OIF, finding 68 percent sustained an extremity injury. The reported 
mechanism of injury was explosives in 48 percent, gun-shot wounds in 30 
percent and blunt trauma in 21 percent. As the war has moved from an 
offensive phase to the current counter-insurgency campaign, higher 
rates of injuries from explosives have been experienced. (Johnson BA. 
Carmack D, Neary M, et al. Operation Iraqi Freedom: the Landstuhl 
Regional Medical Center experience. J Foot Ankle Surg. 2005; 44:177-
183.) According to the JTTR, between 2001 and 2005, explosive 
mechanisms accounted for 78 percent of the war injuries compared to 18 
percent from gun shots.
    While medical and technological advancements, as well as the use of 
fast-moving Forward Surgical Teams, have dramatically decreased the 
lethality of war wounds, wounded soldiers who may have died in previous 
conflicts from their injuries are now surviving and have to learn to 
recover from devastating injuries. While body armor is very effective 
in protecting a soldier's torso, his or her extremities are 
particularly vulnerable during attacks.
Characteristics of Military Orthopaedic Trauma
    At this point there have been almost 40,000 warriors evacuated to 
Landstuhl Regional Medical Center in the Global War on Terror. Of 
these, almost 16,000 have been wounded in action. As mentioned earlier, 
the vast majority have injuries to their extremities--often severe and 
multiple injuries to the arms and legs. Most wounds are caused by 
exploding ordinance--frequently, improvised explosive devices (IEDs), 
rocket-propelled grenades (RPGs), as well as high-velocity gunshot 
wounds. Military surgeons report an average of 3 wounds per casualty.
    According to the New England Journal of Medicine, blast injuries 
are producing an unprecedented number of ``mangled extremities''--limbs 
with severe soft-tissue and bone injuries. (``Casualties of War--
Military Care for the Wounded from Iraq and Afghanistan,'' NEJM, 
December 9, 2004). The result of such trauma is open, complex wounds 
with severe bone fragmentation. Often there is nerve damage, as well as 
damage to tendons, muscles, vessels, and soft-tissue. In these types of 
wounds, infection is often a problem. According to the JTTR, 53 percent 
of the extremity wounds are classified as penetrating soft-tissue 
wounds, while fractures compose 26 percent of extremity wounds. Other 
types of extremity wounds composing less than 5 percent each are burns, 
sprains, nerve injuries, abrasions, amputations, contusions, 
dislocations, and vascular injuries.
    The sheer number of extremity injuries represents a staggering 
health burden. Between January 2003, and February 2009, over 15,000 
U.S. Warriors have been wounded-in-action severely enough to require 
evacuation out of theater. In addition, 780 American patients have lost 
at least one limb.
Military Versus Civilian Orthopaedic Trauma
    While there are similarities between military orthopaedic trauma 
and the types of orthopaedic trauma seen in civilian settings, there 
are several major differences that must be noted.
    With orthopaedic military trauma, there are up to five echelons of 
care, unlike in civilian settings when those injured are most likely to 
receive initial treatment at the highest level center. Instead, wounded 
warriors get passed from one level of care to the next, with physicians 
and other health care providers rendering the most appropriate type of 
care possible in the context of the limitations of a battlefield 
environment in order to ensure the best possible outcome. The surgeon 
in each subsequent level of care must try to recreate what was 
previously done. In addition, a majority of injured soldiers have to be 
``med-evaced'' to receive care and transportation is often delayed due 
to weather or combat conditions. It has been our experience that over 
65-percent of the trauma is urgent and requires immediate attention.
    Injuries from IEDs and other explosive ordnance in Iraq and 
Afghanistan differ markedly from those of gunshot wounds sustained in 
civilian society. The contamination, infection and soft-tissue injury 
caused by exploding ordnance requires more aggressive treatment and new 
techniques, especially when the wounded warrior was in close proximity 
to the blast radius.
    Warriors are usually in excellent health prior to injury. However, 
through the evacuation process they may not be able to eat due to 
medical considerations resulting in impaired body nitrogen stores and 
decreased ability to heal wounds and fight infections. This presents 
many complicating factors when determining the most appropriate care.
    The setting in which care is initially provided to wounded soldiers 
is less than ideal, to say the least, especially in comparison to a 
sterile hospital setting. The environment, such as that seen in Iraq 
and Afghanistan, is dusty and hot, leading to concerns about secondary 
contamination of wounds in the hospital setting. For example, infection 
from acinetobacter baumanni, a ubiquitous organism found in the desert 
soil of Afghanistan and Iraq, is extremely common. In addition, the 
surgical environment is under constant threat of attack by insurgents. 
Imagine teams of medical specialists working in close quarters to save 
an injured serviceman while mortars or rockets are raining down on the 
hospital. Finally, the forward-deployed surgical team is faced with 
limited resources that make providing the highest level of care 
difficult.
    While, as I have stated, there are many unique characteristics of 
orthopaedic military trauma, there is no doubt that research done on 
orthopaedic military trauma also benefits trauma victims in civilian 
settings. Many of the great advancements in orthopaedic trauma care 
have been made during times of war, including principles of debridement 
of open wounds, utilization of external fixation and use of tourniquets 
for control of hemorrhage which has been used extensively during the 
current conflict.
    Research Needs.--With such strong research interest and capacity, 
and the great need for medical breakthroughs in this field, the 
scientific community believes that a sustained, multi-year program 
funded at $150 million per year is justified. Such significant funding 
is required allow the Defense Department to conduct multi-center 
clinical trials--research projects that would greatly advance the field 
and significantly benefit the battlefield injured warriors. In 
addition, basic and translational research also must be sustained, as 
in any major research undertaking, to provide the underpinnings for 
advancing clinical breakthroughs. Research in the management of 
extremity injuries and other disabling orthopaedic conditions will lead 
to quicker recovery times, improved function of limbs, better response 
rates to infection, and new advances in rehabilitation benefiting both 
military and civilian patients. General areas of research need include 
bone regeneration, improved healing of massive soft tissue damage, 
prevention of wound infection, techniques to improve irrigation and 
debridement of blast injuries, prevention of bone reformation 
abnormalities, and epidemiology of current battle-related injuries.
    Specific areas of research need include:
  --Prevention and treatment of post-traumatic arthritis;
  --Prevention and treatment of infections following high-energy 
        extremity war injury;
  --Management of segmental bone defects;
  --Establishment of tissue viability markers--this would assist 
        surgeons in better understanding the ideal frequency and 
        techniques of debridement wound cleaning);
  --Timing of treatment--early versus late surgical treatment;
  --Prevention and treatment of chronic neck and low back arthritic 
        conditions resulting from combat associated stress and overuse 
        injury;
  --Treatment of severe muscle, nerve, ligament and other soft-tissue 
        injury associated with combat trauma; and
  --Rehabilitation of high-performance warriors after significant 
        combat related injury.
Future Needs of Orthopaedic Research
    As mentioned earlier, an important development in this scientific 
effort has been the convening of the annual Extremity War Injury 
Symposia, which began in January of 2006. These widely attended medical 
conferences in Washington, D.C. bring together leading military and 
civilian clinicians and researchers to focus on the immediate needs of 
personnel sustaining extremity injuries. Discussions at the conferences 
have confirmed that there is tremendous interest and much untapped 
research capacity in the Nation's military and civilian research 
community.
    These extraordinary scientific meetings were a partnership effort 
between organized orthopaedic surgery, military surgeons and 
researchers. They were attended by key military and civilian physicians 
and researchers committed to the care of extremity injuries. The first 
conference addressed current challenges in the management of extremity 
trauma associated with recent combat in Iraq and Afghanistan. The major 
focus was to identify opportunities to improve care for the sons and 
daughters of America who have been injured serving our Nation. The 
second focused on the best way to deliver care within the early 
echelons of treatment. The third explored the wide spectrum of needs in 
definitive reconstruction of injuries. Scientific proceedings from the 
symposia have been published by our Academy and made available to the 
military and civilian research community. Each conference has continued 
to refine the list of prioritized research needs which I will 
summarize:
            Timing of Treatment
    Better data are necessary to establish best practices with regard 
to timing of debridement, timing of temporary stabilization and timing 
of definitive stabilization. Development of animal models of early 
versus late operative treatment of open injuries may be helpful. 
Prospective clinical comparisons of treatment groups will be helpful in 
gaining further understanding of the relative role of surgical timing 
on outcomes.
            Techniques of Debridement
    More information is necessary about effective means of 
demonstrating adequacy of debridement. Current challenges, particularly 
for surgeons with limited experience in wound debridement, exist in 
understanding how to establish long-term tissue viability or lack 
thereof at the time of an index operative debridement. Since patients 
in military settings are typically transferred away from the care of 
the surgeon performing the initial debridement prior to delivery of 
secondary care, opportunities to learn about the efficacy of initial 
procedures are lost. Development of animal models of blast injury could 
help establish tissue viability markers. Additional study is necessary 
to understand ideal frequencies and techniques of debridement.
            Transport Issues
    Clinical experience suggests that current air evacuation techniques 
are associated with development of complications in wound and extremity 
management although the specific role of individual variables in the 
genesis of these complications is unclear. Possible contributing 
factors include altitude, hypothermia and secondary wound 
contamination. Clinical and animal models are necessary to help develop 
an understanding of transport issues.
            Coverage Issues
    Controlled studies defining the role of timing of coverage in 
outcome following high-energy extremity war injuries are lacking. Also 
necessary is more information about markers and indicators to help 
assess the readiness of a wound and host for coverage procedures. 
Additional animal modeling and clinical marker evaluation are necessary 
to develop understanding in this area.
            Antibiotic Treatments
    Emergence of resistant organisms continues to provide challenges in 
the treatment of infection following high-energy extremity war 
injuries. Broader prophylaxis likely encourages development of 
antibiotic resistance. In the context of a dwindling pipeline of new 
antibiotics, particularly those directed toward gram-negative 
organisms, development of new technologies to fight infection is 
necessary. This patient population offers opportunity to assess 
efficacy of vaccination against common pathogens. Partnerships with 
infectious disease researchers currently involved in addressing similar 
questions warrants further development.
            Management of Segmental Bone Defects
    A multitude of different techniques for management of segmental 
bone defects is available. These include bone transport, massive onlay 
grafting with and without use of recombinant proteins, delayed 
allograft reconstruction, and acute shortening. While some techniques 
are more appropriate than others after analysis of other clinical 
variables, controlled trials comparing efficacy between treatment 
methods are lacking. Variables that may affect outcome can be grouped 
according to patient characteristics including co-morbidities, injury 
characteristics including severity of bony and soft-tissue wounds, and 
treatment variables including method of internal fixation selected. 
Evaluation of new technologies for treatment of segmental bone defects 
should include assessment of efficacy with adequate control for 
confounding variables and assessment of cost-effectiveness. 
Partnerships with other military research programs may be particularly 
effective in improving clinical capabilities in this area.
            Development of an Animal Model
    A large animal survival military blast injury model is necessary to 
serve as a platform for multiple research questions including: negative 
pressure wound therapy v. bead pouch v. dressing changes; wound 
debridement strategy; effect of topical antibiotics; modulation of 
inflammatory response; timing of wound closure; and vascular shunt 
utilization.
            Prevention of Post-Traumatic Arthritis
    More research is necessary to better understand how to address 
traumatic injuries to articular cartilage with associated articular 
loss. Current treatment options include artificial joint replacement 
and joint fusion. Regeneration of cartilage and re-growth of joint 
surfaces is poorly understood and warrants further investigation. 
Similarly, the role of cadaver joint surfaces in replacing injured 
joints in soldiers warrants further consideration and investigation. 
Initial research has been exciting in this area, particularly in the 
area of allograft hand transplantation.
            Amputee Issues
    Development and validation of ``best practice'' guidelines for 
multidisciplinary care of the amputee is essential. Treatment protocols 
should be tested clinically. Studies should be designed to allow for 
differentiation between the impacts of the process versus the device on 
outcome. Failure mode analysis as a tool to evaluate efficacy of 
treatment protocols and elucidate shortcomings should be utilized. 
Clinically, studies should focus on defining requirements for the 
residual limb length necessary to achieve success without proceeding to 
higher level amputation. Outcomes based comparisons of amputation 
techniques for similar injuries and similar levels should be performed. 
Use of local tissue lengthening and free tissue transfer techniques 
should be evaluated. In the context of current results and increasing 
levels of expectation for function following amputation, development of 
more sensitive and military appropriate outcomes monitors is necessary.
            Heterotopic Ossification
    This condition, known as ``H.O.'' by the many soldiers who 
experience it, is abnormal and uncontrolled bone growth that often 
occurs following severe bone destruction or fracture. Animal models of 
heterotopic ossification should be utilized to develop early markers 
for heterotopic ossification that could identify opportunities for 
early treatment and prevention. Better information is needed about 
burden of disease including prevalence following amputation for 
civilian versus military trauma and frequency with which symptoms 
develop. Treatment methods such as surgical debridement, while 
effective, necessarily interrupt rehabilitation. Prevention could 
expedite recovery and potentially improve outcome.
                               conclusion
    With extremity trauma injuries being the most common form of injury 
seen in current military conflicts and musculoskeletal injuries 
becoming an increasing factor in sidelining our troops, it is crucial 
that significant funding be directed specifically to the advancement of 
research. The AAOS has worked closely with the top military orthopaedic 
surgeons and medical leaders, at world-class facilities such as the 
U.S. Army Institute of Surgical Research, Brooke Army Medical Center, 
Bethesda Naval Hospital, Landstuhl Regional Medical Center, the Medical 
Research and Materiel Command and Walter Reed Army Medical Center to 
identify the gaps in research and clinical treatment--and the 
challenges are many.
    Orthopaedic research currently being carried out at those and other 
facilities, and at civilian medical centers, is vital to the health of 
our soldiers and to the Armed Forces' objective to return injured 
soldiers to full function in hopes that they can continue to be 
contributing soldiers and active members of society.
    The 17,000 members of our Academy thank you for sustaining the Peer 
Reviewed Orthopedic Research Program. While Congress funds an extensive 
array of medical research through the Department of Defense, with over 
80 percent of military trauma being extremity-related, I can assure you 
that this type of medical research will greatly benefit our men and 
women serving in the Global War on Terror and in future conflicts.
    Mr. Chairman and Mr. Vice Chairman, the American Academy of 
Orthopaedic Surgeons, as well as the entire orthopaedic trauma 
community, stands ready to work with this Subcommittee to identify and 
prioritize research opportunities for the advancement in the care of 
extremity and orthopaedic injuries. Military and civilian orthopaedic 
surgeons and researchers are committed to pursuing scientific inquiry 
that will benefit the unfortunately high number of soldiers afflicted 
with such conditions and return them to the highest level of function 
possible. This investment to improve treatment for our soldiers will be 
well spent. It is imperative that the Federal Government--when 
establishing its defense health research priorities in the future--
continues to ensure that research on treating orthopaedic and extremity 
war injuries remains a top priority. We appreciate your consideration 
of our perspective on this critical issue and urge your continued 
action on behalf of our Nation's servicemen and women.

    Chairman Inouye. And we'd like to thank the whole panel and 
now call upon the new panel.
    Thank you very much.
    The next panel consists of Ms. Frances Visco, Ms. Jackie S. 
Rowles, Mr. Rick Jones, Ms. Cara Tenenbaum, Colonel William 
Holahan, and Ms. Elizabeth Cochran.
    I've been advised that Mr. Wicks will be substituting for 
Ms. Jackie Rowles.
    And our next witness is the president of the National 
Breast Cancer Coalition, Ms. Frances Visco.
STATEMENT OF FRAN VISCO, J.D., PRESIDENT, NATIONAL 
            BREAST CANCER COALITION
    Ms. Visco. Thank you, Chairman Inouye, Senator Cochran.
    I'm here as a 22-year breast cancer survivor, a wife, a 
mother, and the president of the National Breast Cancer 
Coalition. As you know, NBCC is a coalition of more than 600 
organizations from across the country whose mission is to end 
breast cancer.
    I want to thank you, as I do every year, for your continued 
support of this program. And I want to report to you that this 
program continues to be incredibly successful. It continues to 
create new models of science, new models of research, through a 
competitive, peer-reviewed process that releases funding to 
scientists around the world.
    This program has funded innovative research, it has filled 
the gaps in the traditional funding mechanisms. It has also 
been copied by the National Institutes of Health, by private 
foundations. The models that this program has launched have now 
changed science in many different areas within the Department 
of Defense, collaborations within the Defense Department, and 
without. It has resulted in bringing many new young scientists 
into the field of research, and biomedical research. And I'm 
very proud to say--very proud of the military--that this 
program has incredibly low administrative costs, so that 90 
percent--more than 90 percent of the appropriations go directly 
to research funding.
    There's an incredibly high return on the investment of 
these funds. And, most importantly, this program is 
transparent, and it is accountable to the taxpayers. It is 
possible to see where every dollar of these funds has gone. And 
the public gets a report of the results of the research that 
has been funded with these dollars.
    It has made an incredible difference to women with breast 
cancer, to their families, but really to all disease research. 
And I want to take my last moments to say how grateful we are 
to the members of the military, to--who administer this 
program. They are passionately committed to this mission, and 
they do an incredible job. And I want to thank you very much 
for continuing and allowing this program to proceed.
    Thank you.
    Chairman Inouye. Thank you very much, Ms. Visco.
    [The statement follows:]
                    Prepared Statement of Fran Visco
    Thank you, Mr. Chairman and members of the Appropriations 
Subcommittee on Defense, for the opportunity to submit testimony today 
about a Program that has made a significant difference in the lives of 
women and their families.
    I am Fran Visco, a 21-year breast cancer survivor, a wife and 
mother, a lawyer, and President of the National Breast Cancer Coalition 
(NBCC). My testimony represents the hundreds of member organizations 
and thousands of individual members of the Coalition. NBCC is a 
grassroots organization dedicated to ending breast cancer through 
action and advocacy. The Coalition's main goals are to increase Federal 
funding for breast cancer research and collaborate with the scientific 
community to implement new models of research; improve access to high 
quality health care and breast cancer clinical trials for all women; 
and expand the influence of breast cancer advocates wherever breast 
cancer decisions are made.
    You and your Committee have shown great determination and 
leadership in funding the Department of Defense (DOD) peer-reviewed 
Breast Cancer Research Program (BCRP) at a level that has brought us 
closer to eradicating this disease. Chairman Inouye and Ranking Member 
Cochran, we appreciate your longstanding personal support for this 
Program. I am hopeful that you and your Committee will continue that 
determination and leadership.
    I know you recognize the importance of this Program to women and 
their families across the country, to the scientific and health care 
communities and to the Department of Defense. Much of the progress in 
the fight against breast cancer has been made possible by the 
Appropriations Committee's investment in breast cancer research through 
the DOD BCRP. This Program has launched new models of biomedical 
research that have benefited other agencies and both public and private 
institutions. It has changed for the better the way research is 
performed and has been replicated by programs focused on other 
diseases, by other countries and states. To support this unprecedented 
progress moving forward, we ask that you support a separate $150 
million appropriation for fiscal year 2010. In order to continue the 
success of the Program, you must ensure that it maintain its integrity 
and separate identity, in addition to the requested level of funding. 
This is important not just for breast cancer, but for all biomedical 
research that has benefited from this incredible government Program. In 
addition, as Institute of Medicine (IOM) reports concluded in 1997 and 
2004, there continues to be excellent science that would go unfunded 
without this Program. It is only through a separate appropriation that 
this Program is able to continue to focus on breast cancer yet impact 
all other research. The separate appropriation of $150 million will 
ensure that this Program can rapidly respond to changes and new 
discoveries in the field and fill the gaps in traditional funding 
mechanisms.
    Since its inception, this Program has matured into a broad-reaching 
influential voice forging new and innovative directions for breast 
cancer research and science. Breast cancer is an extraordinarily 
complex disease. Despite the enormous successes and advancements in 
breast cancer research made through funding from the DOD BCRP, we still 
do not know what causes breast cancer, how to prevent it, or how to 
cure it. It is critical that innovative research through this unique 
Program continues so that we can move forward toward eradicating this 
disease.
           overview of the dod breast cancer research program
    The DOD peer-reviewed Breast Cancer Research Program has 
established itself as a model medical research program, respected 
throughout the cancer and broader medical community for its innovative, 
transparent and accountable approach. The pioneering research performed 
through the Program has the potential to benefit not just breast 
cancer, but all cancers, as well as other diseases. Biomedical research 
is being transformed by the DOD BCRP's success.
    This Program is both innovative and incredibly streamlined. It 
continues to be overseen by an Integration Panel including 
distinguished scientists and advocates, as recommended by the IOM. 
Because there is little bureaucracy, the Program is able to respond 
quickly to what is currently happening in the research community. 
Because of its specific focus on breast cancer, it is able to rapidly 
support innovative proposals that reflect the most recent discoveries 
in the field. It is responsive, not just to the scientific community, 
but also to the public. The flexibility of the Program has allowed the 
Army to administer it with unparalleled efficiency and effectiveness.
    An integral part of this Program has been the inclusion of consumer 
advocates at every level. Breast cancer is not just a problem of 
scientists; it is a problem of people. Advocates bring a necessary 
perspective to the table, ensuring that the science funded by this 
Program is not only meritorious, but it is also meaningful and will 
make a difference in people's lives. The consumer advocates bring 
accountability and transparency to the process. Many of the scientists 
who have participated in the Program have said that working with the 
advocates has changed the way they approach research. Let me quote Dr. 
Michael Diefenbach of Mount Sinai School of Medicine:

    ``I have served as a reviewer for the Department of Defense's 
Breast and Prostate Cancer Review programs and I am a member of the 
behavioral study section for the National Cancer Institute . . . I find 
survivors or advocate reviewers as they are sometimes called bring a 
sense of realism to the review process that is very important to the 
selection and ultimately funding process of important research . . . 
Both sides bring important aspects to the review process and the 
selected projects are ultimately those that can fulfill scientific 
rigor and translatability from the research arena to clinical practice. 
I urge that future review panels include advocate reviewers in the 
review process.''

    Since 1992, nearly 600 breast cancer survivors have served on the 
BCRP peer review panels. As a result of this inclusion of consumers, 
the Program has created an unprecedented working relationship between 
the public, scientists, and the military, and ultimately has led to new 
avenues of research in breast cancer. The vital role of the advocates 
in the success of the BCRP has led to consumer inclusion in other 
biomedical research programs at DOD. This Program now serves as an 
international model.
    It is important to note that the Integration Panel that designs 
this Program has a strategic plan for how best to spend the funds 
appropriated. This plan is based on the state of the science--both what 
scientists know now and the gaps in our knowledge--as well as the needs 
of the public. While this plan is mission driven, and helps ensure that 
the science keeps that mission--eradicating breast cancer--in mind, it 
does not restrict scientific freedom, creativity or innovation. The 
Integration Panel carefully allocates these resources, but it does not 
predetermine the specific research areas to be addressed.
                      unique funding opportunities
    The DOD BCRP research portfolio includes many different types of 
projects, including support for innovative ideas, networks to 
facilitate clinical trials, and training of breast cancer researchers.
    Developments in the past few years have begun to offer breast 
cancer researchers fascinating insights into the biology of breast 
cancer and have brought into sharp focus the areas of research that 
hold promise and will build on the knowledge and investment we have 
made. The Innovative Developmental and Exploratory Awards (IDEA) grants 
of the DOD Program have been critical in the effort to respond to new 
discoveries and to encourage and support innovative, risk-taking 
research. Concept Awards support funding even earlier in the process of 
discovery. These grants have been instrumental in the development of 
promising breast cancer research by allowing scientists to explore 
beyond the realm of traditional research and unleash incredible new 
ideas. IDEA and Concept grants are uniquely designed to dramatically 
advance our knowledge in areas that offer the greatest potential. IDEA 
and Concept grants are precisely the type of grants that rarely receive 
funding through more traditional programs such as the National 
Institutes of Health and private research programs. They therefore 
complement, and do not duplicate, other Federal funding programs. This 
is true of other DOD award mechanisms also.
    Innovator awards invest in world renowned, outstanding individuals 
rather than projects, by providing funding and freedom to pursue highly 
creative, potentially groundbreaking research that could ultimately 
accelerate the eradication of breast cancer. The Era of Hope Scholar 
Award supports the formation of the next generation of leaders in 
breast cancer research, by identifying the best and brightest 
scientists early in their careers and giving them the necessary 
resources to pursue a highly innovative vision of ending breast cancer.
    These are just a few examples of innovative funding opportunities 
at the DOD BCRP that are filling gaps in breast cancer research. 
Scientists have lauded the Program and the importance of these award 
mechanisms. In 2005, Zelton Dave Sharp wrote about the importance of 
the Concept award mechanism:

    ``Our Concept grant has enabled us to obtain necessary data to 
recently apply for a larger grant to support this project. We could 
have never gotten to this stage without the Concept award. Our eventual 
goal is to use the technology we are developing to identify new 
compounds that will be effective in preventing and/or treating breast 
cancer . . . Equally important, however, the DOD BCRP does an 
outstanding job of supporting graduate student trainees in breast 
cancer research, through training grants and pre-doctoral fellowships . 
. . The young people supported by these awards are the lifeblood of 
science, and since they are starting their training on projects 
relevant to breast cancer, there is a high probability they will devote 
their entire careers to finding a cure. These young scientists are by 
far the most important `products' that the DOD BCRP produces.''----
Zelton Dave Sharp, Associate Professor, Interim Director/Chairman, 
Institute of Biotechnology/Dept. Molecular Medicine, University of 
Texas Health Science Center (August 2005).

    The DOD BCRP also focuses on moving research from the bench to the 
bedside. DOD BCRP awards are designed to fill niches that are not 
addressed by other Federal agencies. The BCRP considers translational 
research to be the application of well-founded laboratory or other pre-
clinical insight into a clinical trial. To enhance this critical area 
of research, several research opportunities have been offered. Clinical 
Translational Research Awards have been awarded for investigator-
initiated projects that involve a clinical trial within the lifetime of 
the award. The BCRP has expanded its emphasis on translational research 
by also offering five different types of awards that support work at 
the critical juncture between laboratory research and bedside 
applications.
    The Centers of Excellence award mechanism brings together the 
world's most highly qualified individuals and institutions to address a 
major overarching question in breast cancer research that could make a 
significant contribution towards the eradication of breast cancer. Many 
of these Centers are working on questions that will translate into 
direct clinical applications. These Centers include the expertise of 
basic, epidemiology and clinical researchers, as well as consumer 
advocates.
    Dr. John Niederhuber, now the Director of the National Cancer 
Institute (NCI), said the following about the Program when he was 
Director of the University of Wisconsin Comprehensive Cancer Center in 
April, 1999:

    ``Research projects at our institution funded by the Department of 
Defense are searching for new knowledge in many different fields 
including: identification of risk factors, investigating new therapies 
and their mechanism of action, developing new imaging techniques and 
the development of new models to study [breast cancer] . . . Continued 
availability of this money is critical for continued progress in the 
Nation's battle against this deadly disease.''

    Scientists and consumers agree that it is vital that these grants 
continue to support breast cancer research. To sustain the Program's 
momentum, $150 million for peer-reviewed research is needed in fiscal 
year 2010.
                        scientific achievements
    One of the most promising outcomes of research funded by the DOD 
BCRP was the development of the first monoclonal antibody targeted 
therapy that prolongs the lives of women with a particularly aggressive 
type of advanced breast cancer. This drug could not have been developed 
without first researching and understanding the gene known as HER-2/
neu, which is involved in the progression of some breast cancers. 
Researchers found that over-expression of HER-2/neu in breast cancer 
cells results in very aggressive biologic behavior. The same 
researchers demonstrated that an antibody directed against HER-2/neu 
could slow the growth of the cancer cells that over-expressed the gene. 
This research, which led to the development of the targeted therapy, 
was made possible in part by a DOD BCRP-funded infrastructure grant. 
Other researchers funded by the DOD BCRP are identifying similar kinds 
of genes that are involved in the initiation and progression of cancer.
    Another example of innovation in the Program is in the area of 
imaging. One DOD BCRP awardee developed a new use for medical 
hyperspectral imaging (MHSI) technology. This work demonstrated the 
usefulness of MHSI as a rapid, noninvasive, and cost-effective 
evaluation of normal and tumor tissue during a real-time operating 
procedure. Application of MHSI to surgical procedures has the potential 
to significantly reduce local recurrence of breast tumors and may 
facilitate early determination of tumor malignancy.
    Studies funded by the DOD BCRP are examining the role of estrogen 
and estrogen signaling in breast cancer. For example, one study 
examined the effects of the two main pathways that produce estrogen. 
Estrogen is often processed by one of two pathways; one yields 
biologically active substances while the other does not. It has been 
suggested that women who process estrogen via the biologically active 
pathway may be at higher risk of developing breast cancer. This 
research will yield insights into the effects of estrogen processing on 
breast cancer risk in women with and without family histories of breast 
cancer.
    Another example of success from the Program is a study of sentinel 
lymph nodes (SLNs). This study confirmed that SLNs are indicators of 
metastatic progression of disease. The resulting knowledge from this 
study and others has led to a new standard of care for lymph node 
biopsies. If the first lymph node is negative for cancer cells, then it 
is unnecessary to remove all the lymph nodes. This helps prevent 
lymphodema which can be painful and have lasting complications.
                        federal money well spent
    The DOD BCRP is as efficient as it is innovative. In fact, 90 
percent of funds go directly to research grants. The flexibility of the 
Program allows the Army to administer it in such a way as to maximize 
its limited resources. The Program is able to quickly respond to 
current scientific advances and fulfills an important niche by focusing 
on research that is traditionally under-funded. This was confirmed and 
reiterated in two separate IOM reports released in 1997 and 2004. The 
areas of focus of the DOD BCRP span a broad spectrum and include basic, 
clinical, behavioral, environmental sciences, and alternative therapy 
studies, to name a few. The BCRP benefits women and their families by 
maximizing resources and filling in the gaps in breast cancer research.
    The Program is responsive to the scientific community and to the 
public. This is evidenced by the inclusion of consumer advocates at 
both the peer and programmatic review levels. The consumer perspective 
helps the scientists understand how the research will affect the 
community and allows for funding decisions based on the concerns and 
needs of patients and the medical community.
    The outcomes of the BCRP-funded research can be gauged, in part, by 
the number of publications, abstracts/presentations, and patents/
licensures reported by awardees. To date, there have been more than 
12,241 publications in scientific journals, more than 12,000 abstracts 
and nearly 550 patents/licensure applications. The American public can 
truly be proud of its investment in the DOD BCRP. Scientific 
achievements that are the direct result of the DOD BCRP grants are 
undoubtedly moving us closer to eradicating breast cancer.
               independent assessments of program success
    The success of the DOD peer-reviewed Breast Cancer Research Program 
has been illustrated by several unique assessments of the Program. The 
IOM, which originally recommended the structure for the Program, 
independently re-examined the Program in a report published in 1997. 
They published another report on the Program in 2004. Their findings 
overwhelmingly encouraged the continuation of the Program and offered 
guidance for program implementation improvements.
    The 1997 IOM review of the DOD peer-reviewed Breast Cancer Research 
Program commended the Program, stating, ``the Program fills a unique 
niche among public and private funding sources for cancer research. It 
is not duplicative of other programs and is a promising vehicle for 
forging new ideas and scientific breakthroughs in the Nation's fight 
against breast cancer.'' The 2004 report spoke to the importance of the 
program and the need for its continuation.
               transparent and accountable to the public
    The DOD peer-reviewed Breast Cancer Research Program not only 
provides a funding mechanism for high-risk, high-return research, but 
also reports the results of this research to the American people every 
2 to 3 years at a public meeting called the Era of Hope. The 1997 
meeting was the first time a federally-funded program reported back to 
the public in detail not only on the funds used, but also on the 
research undertaken, the knowledge gained from that research and future 
directions to be pursued.
    Sixteen hundred and consumers and researchers met for the fifth Era 
of Hope meeting in June, 2008. As MSNBC.com's Bob Bazell wrote, this 
meeting ``brought together many of the most committed breast cancer 
activists with some of the Nation's top cancer scientists. The 
conference's directive is to push researchers to think `out of the box' 
for potential treatments, methods of detection and prevention in 
ways.'' He went on to say ``the program . . . has racked up some 
impressive accomplishments in high-risk research projects . . .''
    One of the topics reported on at the meeting was the development of 
more effective breast imaging methods. An example of the important work 
that is coming out of the DOD BCRP includes a new screening method 
called molecular breast imaging, which helps detect breast cancer in 
women with dense breasts--which can be difficult using a mammogram 
alone. I invite you to log on to NBCC's new website http://
influence.stopbreastcancer.org/ to learn more about the exciting 
research reported at the 2008 Era of Hope.
    The DOD peer-reviewed Breast Cancer Research Program has attracted 
scientists across a broad spectrum of disciplines, launched new 
mechanisms for research and facilitated new thinking in breast cancer 
research and research in general. A report on all research that has 
been funded through the DOD BCRP is available to the public. 
Individuals can go to the Department of Defense website and look at the 
abstracts for each proposal at http://cdmrp.army.mil/bcrp/.
           commitment of the national breast cancer coalition
    The National Breast Cancer Coalition is strongly committed to the 
DOD BCRP in every aspect, as we truly believe it is one of our best 
chances for finding cures for and ways to prevent breast cancer. The 
Coalition and its members are dedicated to working with you to ensure 
the continuation of funding for this Program at a level that allows 
this research to forge ahead. From 1992, with the launch of our ``300 
Million More Campaign'' that formed the basis of this Program, until 
now, NBCC advocates have appreciated your support.
    Over the years, our members have shown their continuing support for 
this Program through petition campaigns, collecting more than 2.6 
million signatures, and through their advocacy on an almost daily basis 
around the country asking for support of the DOD BCRP.
    There are 3 million women living with breast cancer in this country 
today. This year, more than 40,000 will die of the disease and more 
than 240,000 will be diagnosed. We still do not know how to prevent 
breast cancer, how to diagnose it truly early or how to cure it. It is 
an incredibly complex disease. We simply cannot afford to walk away 
from this program.
    Since the very beginning of this Program in 1992, Congress has 
stood with us in support of this important investment in the fight 
against breast cancer. In the years since, Chairman Inouye and Ranking 
Member Cochran, you and this entire Committee have been leaders in the 
effort to continue this innovative investment in breast cancer 
research.
    NBCC asks you, the Defense Appropriations Subcommittee, to 
recognize the importance of what has been initiated by the 
Appropriations Committee. You have set in motion an innovative and 
highly efficient approach to fighting the breast cancer epidemic. We 
ask you now to continue your leadership and fund the Program at $150 
million and maintain its integrity. This is research that will help us 
win this very real and devastating war against a cruel enemy.
    Thank you again for the opportunity to submit testimony and for 
giving hope to all women and their families, and especially to the 3 
million women in the United States living with breast cancer.

    Chairman Inouye. And now may I call upon Mr. Wicks, 
representing the American Association of Nurse Anesthetists.
STATEMENT OF TERRY WICKS, PAST PRESIDENT, ON BEHALF OF 
            THE AMERICAN ASSOCIATION OF NURSE 
            ANESTHETISTS (AANA)
    Mr. Wicks. Chairman Inouye, Senator Cochran, and members of 
the subcommittee, good morning.
    My name is Terry Wicks, and I am a past president of the 
40,000-member American Association of Nurse Anesthetists. The 
quality of healthcare America provides our servicemen and women 
and their dependents has long been this subcommittee's high 
priority. Today, I report to you the contributions that 
certified registered nurse anesthetists, or CRNAs, make toward 
our services' mission. I will also provide you our 
recommendations to further improve military healthcare for 
these challenging times.
    I also ask that--unanimous consent that my written 
statement be entered into the record.
    Chairman Inouye. So ordered.
    Mr. Wicks. America's CRNAs provide some 30 million 
anesthetics annually, in every healthcare setting requiring 
anesthesia care. And we provide that care safely. The Institute 
of Medicine reported, in 2000, that anesthesia care is 50 times 
safer than it was in the early 1980s.
    For the United States Armed Forces, CRNAs are particularly 
critical. In 2005, 493 active duty and 790 reservist nurse 
anesthetists provided anesthesia care indispensable to our 
Armed Forces' current mission. Not long ago one CRNA, Major 
General Gail Pollock, served as Acting Surgeon General of the 
Army.
    Today, CRNAs serve in major military hospitals, in 
educational institutions, aboard ships, and in isolated bases 
abroad and at home, and as members of forward surgical teams, 
and they are as close to the tip of the spear as they can be. 
In most of these environments, CRNAs provide anesthesia 
services, alone, with anesthesiologists, enabling surgeons and 
other clinicians to safely deliver lifesaving care to our 
soldiers.
    In recent years, however, the number of CRNAs needed in the 
Armed Forces has fallen below--the number of CRNAs in the 
services has fallen below the number needed. The private market 
for nurse anesthetists is extremely strong, and the military 
has struggled to compete. The services, this subcommittee, and 
the authorizing committees have responded with increased 
benefits to CRNAs, incentive specialty pay, and the health 
professions loan repayment program, focusing on incentives for 
multiyear agreements.
    The profession of nurse anesthesia has likewise responded. 
Our Council on Certification of Nurse Anesthetists reports 
that, in 2008, our schools produced 2,161 graduates, double the 
number since the year 2000, and 2,100 nurse anesthetists were 
certified. That growth is expected to continue, and the Council 
on Accreditation of Nurse Anesthesia Educational Programs 
projects that nurse anesthesia programs will produce over 2,400 
graduates in 2009.
    These combined actions have helped strengthen the services' 
readiness and the quality of healthcare available to our 
servicemen and women.
    So, our first recommendation to you is to extend and 
strengthen this successful incentive service pay program for 
CRNAs. The authorizing committee has extended the ISP program, 
and we encourage this subcommittee to continue funding ISP 
levels sufficient for the services to recruit and retain CRNAs 
needed for the mission.
    Our second recommendation is for the subcommittee to 
encourage all the services to adopt the joint scope of 
practice. Standard practice across the services enhances 
patient safety and the quality of healthcare of our servicemen 
and women. The Navy, in particular, has made a great deal of 
progress toward adopting the joint scope of practice of 
independent practitioners. We encourage its adoption in all the 
services.
    Like our military CRNAs that serve each and every day, the 
American Association of Nurse Anesthetists stands ready to work 
with Congress to ensure that all our Nation's military men and 
women get the care they need and deserve.
    Thank you, and I'll be happy to answer any question that 
you may have.
    Chairman Inouye. All right. Thank you very much, Mr. Wicks.
    [The statement follows:]
     Prepared Statement of Jackie S. Rowles, CRNA, MBA, MA, FAAPM, 
      President, American Association of Nurse Anesthetists (AANA)
    Chairman Inouye, Ranking Member Cochran, and Members of the 
Subcommittee: The American Association of Nurse Anesthetists (AANA) is 
the professional association that represents over 40,000 Certified 
Registered Nurse Anesthetists (CRNAs) across the United States, 
including more than 500 active duty and over 750 reservists in the 
military reported in 2009. The AANA appreciates the opportunity to 
provide testimony regarding CRNAs in the military. We would also like 
to thank this committee for the help it has given us in assisting the 
Department of Defense (DOD) and each of the services to recruit and 
retain CRNAs.
           crnas and the armed forces: a tradition of service
    Let us begin by describing the profession of nurse anesthesia, and 
its history and role with the Armed Forces of the United States.
    In the administration of anesthesia, CRNAs perform the same 
functions as anesthesiologists and work in every setting in which 
anesthesia is delivered including hospital surgical suites and 
obstetrical delivery rooms, ambulatory surgical centers, health 
maintenance organizations, and the offices of dentists, podiatrists, 
ophthalmologists, and plastic surgeons. Today, CRNAs administer some 30 
million anesthetics given to patients each year in the United States. 
Nurse anesthetists are also the sole anesthesia providers in the vast 
majority of rural hospitals, assuring access to surgical, obstetrical 
and other healthcare services for millions of rural Americans.
    Our tradition of service to the military and our Veterans is 
buttressed by our personal, professional commitment to patient safety, 
made evident through research into our practice. In our professional 
association, we state emphatically ``our members' only business is 
patient safety.'' Safety is assured through education, high standards 
of professional practice, and commitment to continuing education. 
Having first practiced as registered nurses, CRNAs are educated to the 
master's degree level, and some to the doctoral level, and meet the 
most stringent continuing education and recertification standards in 
the field. Thanks to this tradition of advanced education and clinical 
practice excellence, we are humbled and honored to note that anesthesia 
is 50 times safer now than in the early 1980s (National Academy of 
Sciences, 2000). Research further demonstrates that the care delivered 
by CRNAs, physician anesthesiologists, or by both working together 
yields similar patient safety outcomes. In addition to studies 
performed by the National Academy of Sciences in 1977, Forrest in 1980, 
Bechtoldt in 1981, the Minnesota Department of Health in 1994, and 
others, Dr. Michael Pine, MD, MBA, recently concluded once again that 
among CRNAs and physician anesthesiologists, ``the type of anesthesia 
provider does not affect inpatient surgical mortality'' (Pine, 2003). 
Thus, the practice of anesthesia is a recognized specialty in nursing 
and medicine. Most recently, a study published in Nursing Research 
confirmed obstetrical anesthesia services are extremely safe, and that 
there is no difference in safety between hospitals that use only CRNAs 
compared with those that use only anesthesiologists (Simonson et al, 
2007). Both CRNAs and anesthesiologists administer anesthesia for all 
types of surgical procedures from the simplest to the most complex, 
either as single providers or together.
                   nurse anesthetists in the military
    Since the mid-19th century, our profession of nurse anesthesia has 
been proud and honored to provide anesthesia care for our past and 
present military personnel and their families. From the Civil War to 
the present day, nurse anesthetists have been the principal anesthesia 
providers in combat areas of every war in which the United States has 
been engaged.
    Military nurse anesthetists have been honored and decorated by the 
U.S. and foreign governments for outstanding achievements, resulting 
from their dedication and commitment to duty and competence in managing 
seriously wounded casualties. In World War II, there were 17 nurse 
anesthetists to every one anesthesiologist. In Vietnam, the ratio of 
CRNAs to physician anesthetists was approximately 3:1. Two nurse 
anesthetists were killed in Vietnam and their names have been engraved 
on the Vietnam Memorial Wall. During the Panama strike, only CRNAs were 
sent with the fighting forces. Nurse anesthetists served with honor 
during Desert Shield and Desert Storm.
    Military CRNAs also provide critical anesthesia support to 
humanitarian missions around the globe in such places as Bosnia and 
Somalia. In May 2003, approximately 364 nurse anesthetists had been 
deployed to the Middle East for the military mission for ``Operation 
Iraqi Freedom'' and ``Operation Enduring Freedom.'' When President 
George W. Bush initiated ``Operation Enduring Freedom,'' CRNAs were 
immediately deployed. With the new special operations environment new 
training was needed to prepare our CRNAs to ensure military medical 
mobilization and readiness. Brigadier General Barbara C. Brannon, 
Assistant Surgeon General, Air Force Nursing Services, testified before 
this Senate Committee on May 8, 2002, to provide an account of CRNAs on 
the job overseas. She stated, ``Lt. Col Beisser, a certified registered 
nurse anesthetist (CRNA) leading a Mobile Forward Surgical Team (MFST), 
recently commended the seamless interoperability he witnessed during 
treatment of trauma victims in Special Forces mass casualty incident.''
    Data gathered from the U.S. Armed Forces anesthesia communities 
reveal that CRNAs have often been the sole anesthesia providers at 
certain facilities, both at home and while forward deployed. For 
decades CRNAs have staffed ships, isolated U.S. Bases, and forward 
surgical teams without physician anesthesia support. The U.S. Army 
Joint Special Operations Command Medical Team and all Army Forward 
Surgical Teams are staffed solely by CRNAs. Military CRNAs have a long 
proud history of providing independent support and quality anesthesia 
care to military men and women, their families and to people from many 
nations who have found themselves in harm's way.
    In the current mission, CRNAs are deployed all over the world, on 
land and at sea. This committee must ensure that we retain and recruit 
CRNAs for now and in the future to serve in these military deployments 
overseas. This committee must ensure that we retain and recruit CRNAs 
now and in the future to serve in these military overseas deployments 
and humanitarian efforts, and to ensure the maximum readiness of 
America's armed services.
nurse anesthesia provider supply and demand: solutions for recruitment 
                             and retention
    In all of the Services, maintaining adequate numbers of active duty 
CRNAs is of utmost concern. For several years, the number of CRNAs 
serving in active duty fell short of the number authorized by the 
Department of Defense (DOD). This is further complicated by strong 
demand for CRNAs in both the public and private sectors.
    It is essential to understand that while there is strong demand for 
CRNA services in the public and private healthcare sectors, the 
profession of nurse anesthesia is working effectively to meet this 
workforce challenge. The AANA anticipates growing demand for CRNAs. Our 
evidence suggests that while vacancies exist, the demand for anesthesia 
professionals can be met if appropriate actions are taken. As of 
January 2009, there are 108 accredited CRNA schools to support the 
profession of nurse anesthesia. The number of qualified registered 
nurses applying to CRNA schools continues to climb. The growth in the 
number of schools, the number of applicants, and in production 
capacity, has yielded significant growth in the number of nurse 
anesthetists graduating and being certified into the profession, while 
absolutely maintaining and strengthening the quality and competence of 
these clinicians. The Council on Certification of Nurse Anesthetists 
reports that in 2008, our schools produced 2,161 graduates, double the 
number since 2000, and 2,110 nurse anesthetists were certified. The 
growth is expected to continue. The Council on Accreditation of Nurse 
Anesthesia Educational Programs (COA) projects that CRNA schools will 
produce over 2,417 graduates in 2009.
    This Committee can greatly assist in the effort to attract and 
maintain essential numbers of nurse anesthetists in the military by 
their support to increase special pays.
                    incentive special pay for nurses
    According to a March 1994 study requested by the Health Policy 
Directorate of Health Affairs and conducted by DOD, a large pay gap 
existed between annual civilian and military pay in 1992. This study 
concluded, ``this earnings gap is a major reason why the military has 
difficulty retaining CRNAs.'' In order to address this pay gap, in the 
fiscal year 1995 Defense Authorization bill Congress authorized the 
implementation of an increase in the annual Incentive Special Pay (ISP) 
for nurse anesthetists from $6,000 to $15,000 for those CRNAs no longer 
under service obligation to pay back their anesthesia education. Those 
CRNAs who remained obligated receive the $6,000 ISP.
    Both the House and Senate passed the fiscal year 2003 Defense 
Authorization Act Conference report, H. Rept. 107-772, which included 
an ISP increase to $50,000. The report included an increase in ISP for 
nurse anesthetists from $15,000 to $50,000. The AANA is requesting that 
this committee fund the ISP at $50,000 for all the branches of the 
armed services to retain and recruit CRNAs now and into the future. Per 
the testimony provided in 2006 from the three services' Nurse Corps 
leaders, the AANA is aware that there is an active effort with the 
Surgeons General to closely evaluate and adjust ISP rates and policies 
needed to support the recruitment and retention of CRNAs. In 2006, 
Major General Gale Pollock, MBA, MHA, MS, CRNA, FACHE, Deputy Surgeon 
General, Army Nurse Corps of the U.S. Army stated in testimony before 
this Subcommittee, ``I am particularly concerned about the retention of 
our certified registered nurse anesthetists (CRNAs). Our inventory of 
CRNAs is currently at 73 percent. The restructuring of the incentive 
special pay program for CRNAs last year, as well as the 180 (day)-
deployment rotation policy were good first steps in stemming the loss 
of these highly trained providers. We are working closely with the 
Surgeon General's staff to closely evaluate and adjust rates and 
policies where needed.''
    There have been positive results from the Nurse Corps and Surgeons 
General initiatives to increase incentive special pays for CRNAs. In 
testimony before the House Armed Services Committee in 2007, Gen. 
Pollock stated, ``We have . . . increased the Incentive Special Pay 
(ISP) Certified Registered Nurse Anesthetist, and expanded use of the 
Health Professions Loan Repayment Program (HPLRP). The . . . Nurse 
Anesthetist bonuses have been very successful in retaining these 
providers who are critically important to our mission on the 
battlefield.'' She also stated in that same statement, ``In 2004, we 
increased the multi-year bonuses we offer to Certified Registered Nurse 
Anesthetists with emphasis on incentives for multi-year agreements. A 
year's worth of experience indicates that this increased bonus, 180-day 
deployments, and a revamped Professional Filler system to improve 
deployment equity is helping to retain CRNAs.''
    There still continues to be high demand for CRNAs in the healthcare 
community leading to higher incomes widening the gap in pay for CRNAs 
in the civilian sector compared to the military. However, the ISP and 
other incentives the services are providing CRNAs has helped close that 
gap the past 3 years, according to the most recent AANA membership 
survey data. In civilian practice, all additional skills, experience, 
duties and responsibilities, and hours of work are compensated for 
monetarily. Additionally, training (tuition and continuing education), 
healthcare, retirement, recruitment and retention bonuses, and other 
benefits often equal or exceed those offered in the military. 
Therefore, it is vitally important that the Incentive Special Pay (ISP) 
be supported to ensure retention of CRNAs in the military.
    AANA thanks this Committee for its support of the annual ISP for 
nurse anesthetists. AANA strongly recommends the continuation in the 
annual funding for ISP at $50,000 or more for fiscal year 2010, which 
recognizes the special skills and advanced education that CRNAs bring 
to the DOD healthcare system, and supports the mission of our U.S. 
Armed Forces.
                   board certification pay for nurses
    Included in the fiscal year 1996 Defense Authorization bill was 
language authorizing the implementation of a board certification pay 
for certain clinicians who are not physicians, including advanced 
practice nurses.
    AANA is highly supportive of board certification pay for all 
advanced practice nurses. The establishment of this type of pay for 
nurses recognizes that there are levels of excellence in the profession 
of nursing that should be recognized, just as in the medical 
profession. In addition, this pay may assist in closing the earnings 
gap, which may help with retention of CRNAs.
    While many CRNAs have received board certification pay, some remain 
ineligible. Since certification to practice as a CRNA does not require 
a specific master's degree, many nurse anesthetists have chosen to 
diversify their education by pursuing an advanced degree in other 
related fields. But CRNAs with master's degrees in education, 
administration, or management are not eligible for board certification 
pay since their graduate degree is not in a clinical specialty. Many 
CRNAs who have non-clinical master's degrees either chose or were 
guided by their respective services to pursue a degree other than in a 
clinical specialty. The AANA encourages DOD and the respective services 
to reexamine the issue of restricting board certification pay only to 
CRNAs who have specific clinical master's degrees.
     dod/va resource sharing: u.s. army-va joint program in nurse 
             anesthesia, fort sam houston, san antonio, tx
    The establishment of the joint U.S. Army-VA program in nurse 
anesthesia education at the U.S. Army Graduate Program in Anesthesia 
Nursing, Fort Sam Houston, in San Antonio, TX holds the promise of 
making significant improvements in the VA CRNA workforce, as well as 
improving retention of DOD registered nurses in a cost effective 
manner. The current program utilizes existing resources from both the 
Department of Veterans Affairs Employee Incentive Scholarship Program 
(EISP) and VA hospitals to fund tuition, books, and salary 
reimbursement for student registered nurse anesthetists (SRNAs). This 
joint program also serves the interests of the Army.
    This VA nurse anesthesia program started in June 2004 with three 
openings for VA registered nurses to apply to and earn a Master of 
Science in Nursing (MSN) in anesthesia granted through the University 
of Texas Houston Health Science Center. In the future, the program is 
granting degrees through the Northeastern University Bouve College of 
Health Sciences nurse anesthesia educational program in Boston, Mass. 
At a time of increased deployments in medical military personnel, this 
type of VA-DOD partnership is a cost-effective model to fill these gaps 
in the military healthcare system. At Fort Sam Houston, the VA faculty 
director has covered her Army colleagues' didactic classes when they 
are deployed at a moments notice. This benefits both the VA and the DOD 
to ensure the nurse anesthesia students are trained and certified in a 
timely manner to meet their workforce obligation to the Federal 
Government as anesthesia providers. We are pleased to note that the 
Department of Veterans' Affairs Acting Deputy Under Secretary for 
Health and the U.S. Army Surgeon General approved funding to start this 
VA nurse anesthesia school in 2004. In addition, the VA director has 
been pleased to work under the direction of the Army program director 
LTC Thomas Ceremuga, CRNA, PhD to further the continued success of this 
U.S. Army-VA partnership. With modest levels of additional funding in 
the VA EISP, this joint U.S. Army-VA nurse anesthesia education 
initiative can grow and thrive, and serve as a model for meeting other 
VA workforce needs, particularly in nursing.
                               conclusion
    In conclusion, the AANA believes that the recruitment and retention 
of CRNAs in the armed services is of critical concern. By Congress 
supporting these efforts to recruit and retain CRNAS, the military is 
able to meet the mission to provide benefit care and deployment care--a 
mission that is unique to the military.
    The AANA would also like to thank the Surgeons General and Nurse 
Corp leadership for their support in meeting the needs of the 
profession within the military workforce. Last, we commend and thank 
this committee for their continued support for CRNAs in the military.

    Chairman Inouye. Our next witness is the legislative 
director of the National Association for Uniformed Services, 
Mr. Rick Jones.
STATEMENT OF RICHARD A. ``RICK'' JONES, LEGISLATIVE 
            DIRECTOR, NATIONAL ASSOCIATION FOR 
            UNIFORMED SERVICES
    Mr. Jones. Chairman Inouye, Ranking Member Cochran, it's a 
privilege to be invited before your subcommittee.
    My association is very proud of the job our young 
generation is doing overseas. They risk their lives every day, 
and what we do for them is vital for the debt we owe them and 
the vital job they do for security.
    Mr. Chairman, quality healthcare is a strong incentive for 
a military career. My association asks that you ensure full 
funding is provided to maintain the value of the healthcare 
benefit that has been earned by these men and women who have 
served a career in our military.
    Mr. Chairman, the war on terror is fought by an 
overstretched force. There are signs of wear; simply too many 
missions and too few troops. We must increase troop strength; 
it must be resourced. We ask that you give priority to funding 
operation and maintenance accounts to reset, recapitalize, and 
renew the force.
    My association asks, also, that you maintain the Walter 
Reed facility. Its operations support and medical services 
require an uninterrupted care for those who are 
catastrophically wounded. We request that funds be in place to 
ensure that Walter Reed remain open, fully operational, fully 
functional, until the planned facilities at Bethesda and Fort 
Belvoir are in place and ready to give appropriate care to 
these young servicemen and women.
    Our wounded warriors deserve the Nation's best quality 
treatment. They earned it the hard way. With proper resources, 
we know our Nation will continue to hold the well-being of 
these troops in hand.
    Traumatic brain injury is the signature injury of the war 
overseas. We request that the subcommittee fund a full spectrum 
of traumatic brain injury care. The approach to this problem 
requires resources for hiring doctors, nurses, clinicians, 
general caregivers. And we must meet the needs of these men and 
women and their families. They have given so much for our 
Nation.
    We encourage the subcommittee to ensure funding for the 
Defense Department prosthetic research, to make sure that that 
is adequately funded. We support the Uniformed Service 
University Healthcare. That Federal school has the--provides 
medical instruction to all active duty troops who provide for 
wartime casualties, for national disasters, for emerging 
diseases. And we support the Armed Forces Retirement Home in 
Washington, DC, and in Gulfport, Mississippi.
    Mr. Chairman, regarding the supplemental, NAUS received a 
message from one of our members who wanted us to assure that we 
support a strong, timely action on the emergency supplemental. 
The bill will assure that, as our sons and daughters go into 
harm's way under the flag of the United States, they will have 
the vital wherewithal to carry out their mission. He's 
concerned, however, that when he sees not one dime, one penny, 
nor a shadow of concern is given to our military survivors, yet 
$1 billion will be spent on a program to replace older cars--
cash for clunkers--he says he's concerned about our survivors.
    Thank you very much for the opportunity to testify.
    Chairman Inouye. Thank you very much, Director Jones.
    [The statement follows:]
                    Prepared Statement of Rick Jones
    Chairman Inouye, Ranking Member Cochran, and members of the 
Subcommittee, it is a pleasure to appear before you today to present 
the views of the National Association for Uniformed Services on the 
fiscal year 2010 Defense Appropriations Bill.
    My name is Richard ``Rick'' Jones, Legislative Director of the 
National Association for Uniformed Services (NAUS). And for the record, 
NAUS has not received any Federal grant or contract during the current 
fiscal year or during the previous 2 years in relation to any of the 
subjects discussed today.
    As you know, the National Association for Uniformed Services, 
founded in 1968, represents all ranks, branches and components of 
uniformed services personnel, their spouses and survivors. The 
Association includes all personnel of the active, retired, Reserve and 
National Guard, disabled veterans, veterans community and their 
families. We love our country, believe in a strong national defense, 
support our troops, and honor their service.
    Mr. Chairman, the first and most important responsibility of our 
government is the protection of our citizens. As we all know, we are at 
war. That is why the defense appropriations bill is so very important. 
It is critical that we provide the resources to those who fight for our 
protection and our way of life. We need to give our courageous men and 
women everything they need to prevail. And we must recognize as well 
that we must provide priority funding to keep the promises made to the 
generations of warriors whose sacrifice has paid for today's freedom.
    At the start, I want to express NAUS concern about the amount of 
our investment in our national defense. At the height of the War on 
Terror, our current defense budget represents only a little more than 4 
percent of the gross national product, as opposed to the average of 5.7 
percent of GNP in the peacetime years between 1940 and 2000.
    We cannot look the other way in a time when we face such serious 
threats. Resources are required to ensure our military is fully 
staffed, trained, and equipped to achieve victory against our enemies. 
Leaders in Congress and the administration need to balance our 
priorities and ensure our defense in a dangerous world.
    Here, I would like to make special mention of the leadership and 
contribution this panel has made in providing the resources and support 
our forces need to complete their mission. Defending the United States 
homeland and the cause of freedom means that the dangers we face must 
be confronted. And it means that the brave men and women who put on the 
uniform must have the very best training, best weapons, best care and 
wherewithal we can give them.
    The members of this important panel have taken every step to give 
our fighting men and women the funds they need, despite allocations we 
view as insufficient for our total defense needs. You have made 
difficult priority decisions that have helped defend America and taken 
special care of one of our greatest assets, namely our men and women in 
uniform.
    And the National Association for Uniformed Services is very proud 
of the job this generation of Americans is doing to defend America. 
Every day they risk their lives, half a world away from loved ones. 
Their daily sacrifice is done in today's voluntary force. What they do 
is vital to our security. And the debt we owe them is enormous.
    Our Association does, however, have some concerns about a number of 
matters. Among the major issues that we will address today is the 
provision of a proper health care for the military community and 
recognition of the funding requirements for TRICARE for retired 
military. Also, we will ask for adequate funding to improve the pay for 
members of our armed forces and to address a number of other challenges 
including TRICARE Reserve Select and the Survivor Benefit Plan.
    We also have a number of related priority concerns such as the 
diagnosis and care of troops returning with Post Traumatic Stress 
Disorder (PTSD) and Traumatic Brain Injury (TBI), the need for enhanced 
priority in the area of prosthetics research, and providing improved 
seamless transition for returning troops between the Department of 
Defense (DOD) and the Department of Veterans Affairs (VA). In addition, 
we would like to ensure that adequate funds are provided to defeat 
injuries from the enemy's use of Improvised Explosive Devices (IEDs).
           tricare and military quality of life: health care
    Quality health care is a strong incentive to make military service 
a career. The provision of quality, timely care is considered one of 
the most important benefits afforded the career military. The TRICARE 
benefit, earned through a career of service in the uniformed services, 
reflects the commitment of a Nation, and it deserves your wholehearted 
support.
    It should also be recognized that discussions have once again begun 
on increasing the retiree-paid costs of TRICARE earned by military 
retirees and their families. We remember the outrageous statement of 
Dr. Gail Wilensky, a co-chair of the Task Force on the Future of 
Military, calling congressional passage of TRICARE for Life ``a big 
mistake.''
    And more recently, we heard Admiral Mike Mullen, the current 
Chairman of Joint Chiefs of Staff, call for an increase in TRICARE 
fees. Mullen said, ``It's a given as far as I'm concerned.''
    Fortunately, President Obama has taken fee increases off the table 
this year in the administration budget recommendation. However, with 
comments like these from those in leadership positions, there is little 
wonder that retirees and active duty personnel are upset.
    Seldom has NAUS seen such a lowing in confidence about the 
direction of those who manage the program. Faith in our leadership 
continues, but it is a weakening faith. And unless something changes, 
it is bound to affect recruiting and retention.
    criminal activity costs medicare and tricare billions of dollars
    Recent testimony and studies from the Government Accountability 
Office (GAO), the investigative arm of the United States Congress, 
shows us that at least $80 billion worth of Medicare money is being 
ripped off every year. Frankly, it demonstrates that criminal activity 
costs Medicare and TRICARE billions of dollars.
    Here are a couple of examples. GAO reports that one company billed 
Medicare for $170 million for HIV drugs. In truth, the company 
dispensed less than a million dollars. In addition, the company billed 
$142 million for nonexistent delivery of supplies and parts and medical 
equipment.
    In another example, fake Medicare providers billed Medicare for 
prosthetic arms on people who already have two arms. The fraud amounted 
to $1.4 billion of bills for people who do not need prosthetics.
    TRICARE is closely tied to Medicare and its operations are not 
immune. According to Rose Sabo, Director of the TRICARE Program 
Integrity Office, the Government Accountability Office says that 10 
percent of all health care expenditures are fraudulent. With a military 
health system annual cost of $47 billion, fraudulent purchase of care 
in the military health system would amount to $4.7 billion.
    Last year a Philippine corporation was ordered to pay back more 
than $100 million following a TRICARE fraud conviction. But despite 
TRICARE efforts to uncover this type of criminal activity, money 
continues to go out the door with insufficient resources dedicated to 
its recovery.
    Regarding TRICARE efforts to uncover fraud problems, it should be 
noted that documents by the Department of Defense Inspector General 
(DODIG) reported the fraud as early as 1998 to TRICARE Management 
Activity (TMA). But it wasn't until 2005 that TMA stopped paying the 
fraudulent claims reported 7 years earlier by DODIG.
    NAUS urges the Subcommittee to challenge DOD and TRICARE 
authorities to put some guts behind efforts to drive fraud down and out 
of the system. If left unchecked, fraud will increasingly strip away 
resources from government programs like TRICARE. And unless Congress 
directs the administration to take action, you know who will be left in 
the breach, holding the bag--the law abiding retiree and family.
    We recently learned of an incident of clear outright healthcare 
fraud involving a Medicare/TRICARE provider. The patient was a member 
of a veterans-related survivor organization and a TRICARE for Life 
beneficiary. She went to visit a doctor for the first time but was not 
content with the provider so she did not see him again. But bills 
against TRICARE continued to roll in for visits and services that were 
never provided. The beneficiary reported this suspicious activity to 
the TRICARE Management Activity. TRICARE officials were reticent to 
talk to the individual when she called them again to report additional 
fraudulent bills. When the individual's survivor organization became 
involved, it was told by TRICARE not to worry about the billings 
because the bogus charges only added up to about $2,500, which fell 
below the level of investigative action. The TMA rational is 
troublesome on many levels. It is, of course, quite possible that the 
same doctor charged TRICARE for the ``care'' of other patients.
    A fair portion of the cost of controlling Medicare and TRICARE 
fraud can be directly attributed to the detection of it. In this 
instance, a beneficiary attempted to perform her civic duty by 
``sounding the alarm'' only to be ignored by the agency that claims to 
be committed to preventing, identifying, and assisting in the 
prosecution of healthcare fraud, not only to save valuable benefit 
dollars but also to ensure that eligible beneficiaries receive 
appropriate medical care. Deceitful schemes can adversely impact the 
quality of the care received. NAUS believes that criminal activity 
should be identified and prosecuted to the fullest extent of the law, 
whether it is for $2,500 or $250,000.
    America expects its government to move courageously and tackle the 
real problems of issues like fraud in the TRICARE system and the 
Medicare system. The government should direct and resource its 
investigative teams to root out criminal activity, rather than looking 
to take money out of the pockets of military retirees. With hard work 
and honest public service, we are confident Congress will have more 
than enough money to pay for earned benefits like TRICARE.
    The National Association for Uniformed Services urges increased 
funding for the Defense Criminal Investigative Service (DCIS), the 
criminal investigative arm of the DOD Inspector General, and for the 
TRICARE Program Integrity Office, responsible for anti-fraud activity 
in the military health system.
    We urge the Subcommittee to take the actions necessary for honoring 
our obligation to those men and women who have worn the Nation's 
military uniform. Root out the corruption, fraud and waste. And confirm 
America's solemn, moral obligation to support our troops, our military 
retirees, and their families. They have kept their promise to our 
Nation, now it's time for us to keep our promise to them.
                     military quality of life: pay
    For fiscal year 2010, the administration recommends a 2.9 percent 
across-the-board pay increase for members of the Armed Forces. The 
proposal is designed, according to the Pentagon, to keep military pay 
in line with civilian wage growth.
    The National Association for Uniformed Services calls on you to put 
our troops and their families first. Our forces are stretched thin, at 
war, yet getting the job done. We ask you to express the Nation's 
gratitude for their critical service, increase basic pay and drill pay 
one-half percent above the administration's request to 3.4 percent.
    Congress and the administration have done a good job over the 
recent past to narrow the gap between civilian-sector and military pay. 
The differential, which was as great as 14 percent in the late 1990s, 
has been reduced to just under 4 percent with the January 2009 pay 
increase.
    However, we can do better than simply maintaining a rough measure 
of comparability with the civilian wage scale. To help retention of 
experience and entice recruitment, the pay differential is important. 
We have made significant strides. But we are still below the private 
sector.
    In addition, we urge the appropriations panel to never lose sight 
of the fact that our DOD manpower policy needs a compensation package 
that is reasonable and competitive. Bonuses have a role in this area. 
Bonuses for instance can pull people into special jobs that help supply 
our manpower for critical assets, and they can also entice ``old 
hands'' to come back into the game with their skills.
    The National Association for Uniformed Services asks you to do all 
you can to fully compensate these brave men and women for being in 
harm's way, we should clearly recognize the risks they face and make 
every effort to appropriately compensate them for the job they do.
         military quality of life: basic allowance for housing
    The National Association for Uniformed Services strongly supports 
revised housing standards within the Basic Allowance for Housing (BAH). 
We are most grateful for the congressional actions reducing out-of-
pocket housing expenses for servicemembers over the last several years. 
Despite the many advances made, many enlisted personnel continue to 
face steep challenge in providing themselves and their families with 
affordable off-base housing and utility expenses. BAH provisions must 
ensure that rates keep pace with housing costs in communities where 
military members serve and reside. Efforts to better align actual 
housing rates can reduce unnecessary stress and help those who serve 
better focus on the job at hand, rather than the struggle with meeting 
housing costs for their families.
           military quality of life: family housing accounts
    The National Association for Uniformed Services urges the 
Subcommittee to provide adequate funding for military construction and 
family housing accounts used by DOD to provide our service members and 
their families quality housing. The funds for base allowance and 
housing should ensure that those serving our country are able to afford 
to live in quality housing whether on or off the base. The current 
program to upgrade military housing by privatizing Defense housing 
stock is working well. We encourage continued oversight in this area to 
ensure joint military-developer activity continues to improve housing 
options. Clearly, we need to be particularly alert to this challenge as 
we implement BRAC and related rebasing changes.
    The National Association for Uniformed Services also asks special 
provision be granted the National Guard and Reserve for planning and 
design in the upgrade of facilities. Since the terrorist attacks of 
Sept. 11, 2001, our Guardsmen and reservists have witnessed an upward 
spiral in the rate of deployment and mobilization. The mission has 
clearly changed, and we must recognize they account for an increasing 
role in our national defense and homeland security responsibilities. 
The challenge to help them keep pace is an obligation we owe for their 
vital service.
                     increase force readiness funds
    The readiness of our forces is in decline. The long war fought by 
an overstretched force tells us one thing: there are simply too many 
missions and too few troops. Extended and repeated deployments are 
taking a human toll. Back-to-back deployments means, in practical 
terms, that our troops face unrealistic demands. To sustain the service 
we must recognize that an increase in troop strength is needed and it 
must be resourced.
    In addition, we ask you to give priority to funding for the 
operations and maintenance accounts where money is secured to reset, 
recapitalize and renew the force. The National Guard, for example, has 
virtually depleted its equipment inventory, causing rising concern 
about its capacity to respond to disasters at home or to train for its 
missions abroad.
    The deficiencies in the equipment available for the National Guard 
to respond to such disasters include sufficient levels of trucks, 
tractors, communication, and miscellaneous equipment. If we have 
another overwhelming storm, hurricane or, God forbid, a large-scale 
terrorist attack, our National Guard is not going to have the basic 
level of resources to do the job right.
                    walter reed army medical center
    Another matter of great interest to our members is the plan to 
realign and consolidate military health facilities in the National 
Capital Region. The proposed plan includes the realignment of all 
highly specialized and sophisticated medical services currently located 
at Walter Reed Army Medical Center in Washington, DC, to the National 
Naval Medical Center in Bethesda, MD, and the closing of the existing 
Walter Reed by 2011.
    While we herald the renewed review of the adequacy of our hospital 
facilities and the care and treatment of our wounded warriors that 
result from last year's news reports of deteriorating conditions at 
Walter Reed Army Medical Center, the National Association for Uniformed 
Services believes that Congress must continue to provide adequate 
resources for WRAMC to maintain its base operations' support and 
medical services that are required for uninterrupted care of our 
catastrophically wounded soldiers and marines as they move through this 
premier medical center.
    We request that funds be in place to ensure that Walter Reed 
remains open, fully operational and fully functional, until the planned 
facilities at Bethesda or Fort Belvoir are in place and ready to give 
appropriate care and treatment to the men and women wounded in armed 
service.
    Our wounded warriors deserve our Nation's best, most compassionate 
healthcare and quality treatment system. They earned it the hard way. 
And with application of the proper resources, we know the Nation will 
continue to hold the well-being of soldiers and their families as our 
number one priority.
   department of defense, seamless transition between the dod and va
    The development of electronic medical records remains a major goal. 
It is our view that providing a seamless transition for recently 
discharged military is especially important for servicemembers leaving 
the military for medical reasons related to combat, particularly for 
the most severely injured patients.
    The National Association for Uniformed Services is pleased to 
receive the support of President Obama and the forward movement of 
Secretaries Gates and Shinseki toward this long-supported goal of 
providing a comprehensive e-health record.
    The National Association for Uniformed Services calls on the 
appropriations committee to continue the push for DOD and VA to follow 
through on establishing a bi-directional, interoperable electronic 
medical record. Since 1982, these two departments have been working on 
sharing critical medical records, yet to date neither has effectively 
come together in coordination with the other.
    The time for foot dragging is over. Taking care of soldiers, 
sailors, airmen, and marines is a national obligation, and doing it 
right sends a strong signal to those currently in military service as 
well as to those thinking about joining the military.
    DOD must be directed to adopt electronic architecture including 
software, data standards, and data repositories that are compatible 
with the system used at the Department of Veterans Affairs. It makes 
absolute sense and it would lower costs for both organizations.
    If our seriously wounded troops are to receive the care they 
deserve, the departments must do what is necessary to establish a 
system that allows seamless transition of medical records. It is 
essential if our Nation is to ensure that all troops receive timely, 
quality health care and other benefits earned in military service.
    To improve the DOD/VA exchange, the hand-off should include a 
detailed history of care provided and an assessment of what each 
patient may require in the future, including mental health services. No 
veteran leaving military service should fall through the bureaucratic 
cracks.
                  defense department force protection
    The National Association for Uniformed Services urges the 
Subcommittee to provide adequate funding to rapidly deploy and acquire 
the full range of force protection capabilities for deployed forces. 
This would include resources for up-armored high mobility multipurpose 
wheeled vehicles and add-on ballistic protection to provide force 
protection for soldiers in Iraq and Afghanistan, ensure increased 
activity for joint research and treatment effort to treat combat blast 
injuries resulting from improvised explosive devices (IEDs), rocket 
propelled grenades, and other attacks; and facilitate the early 
deployment of new technology, equipment, and tactics to counter the 
threat of IEDs.
    We ask special consideration be given to counter IEDs, defined as 
makeshift or ``homemade'' bombs, often used by enemy forces to destroy 
military convoys and currently the leading cause of casualties to 
troops deployed in Iraq. These devices are the weapon of choice and, 
unfortunately, a very efficient weapon used by our enemy. The Joint 
Improvised Explosive Device Defeat Organization (JIEDDO) is established 
to coordinate efforts that would help eliminate the threat posed by 
these IEDs. We urge efforts to advance investment in technology to 
counteract radio-controlled devices used to detonate these killers. 
Maintaining support is required to stay ahead of our enemy and to 
decrease casualties caused by IEDs.
             defense health program--tricare reserve select
    Mr. Chairman, another area that requires attention is reservist 
participation in TRICARE. As we are all aware, National Guard and 
Reserve personnel have seen an upward spiral of mobilization and 
deployment since the terrorist attacks of Sept. 11, 2001. The mission 
has changed and with it our reliance on these forces has risen. 
Congress has recognized these changes and begun to update and upgrade 
protections and benefits for those called away from family, home, and 
employment to active duty. We urge your commitment to these troops to 
ensure that the long overdue changes made in the provision of their 
heath care and related benefits is adequately resourced. We are one 
force, all bearing a critical share of the load.
               department of defense, prosthetic research
    Clearly, care for our troops with limb loss is a matter of national 
concern. The global war on terrorism in Iraq and Afghanistan has 
produced wounded soldiers with multiple amputations and limb loss who 
in previous conflicts would have died from their injuries. Improved 
body armor and better advances in battlefield medicine reduce the 
number of fatalities, however injured soldiers are coming back 
oftentimes with severe, devastating physical losses.
    In order to help meet the challenge, Defense Department research 
must be adequately funded to continue its critical focus on treatment 
of troops surviving this war with grievous injuries. The research 
program also requires funding for continued development of advanced 
prosthesis that will focus on the use of prosthetics with 
microprocessors that will perform more like the natural limb.
    The National Association for Uniformed Services encourages the 
Subcommittee to ensure that funding for Defense Department's prosthetic 
research is adequate to support the full range of programs needed to 
meet current and future health challenges facing wounded veterans. To 
meet the situation, the Subcommittee needs to focus a substantial, 
dedicated funding stream on Defense Department research to address the 
care needs of a growing number of casualties who require specialized 
treatment and rehabilitation that result from their armed service.
    We would also like to see better coordination between the 
Department of Defense Advanced Research Projects Agency and the 
Department of Veterans Affairs in the development of prosthetics that 
are readily adaptable to aid amputees.
 post traumatic stress disorder (ptsd) and traumatic brain injury (tbi)
    The National Association for Uniformed Services supports a higher 
priority on Defense Department care of troops demonstrating symptoms of 
mental health disorders and traumatic brain injury.
    It is said that Traumatic Brain Injury (TBI) is the signature 
injury of the Iraq war. Blast injuries often cause permanent damage to 
brain tissue. Veterans with severe TBI will require extensive 
rehabilitation and medical and clinical support, including neurological 
and psychiatric services with physical and psycho-social therapies.
    We call on the Subcommittee to fund a full spectrum of TBI care and 
to recognize that care is also needed for patients suffering from mild 
to moderate brain injuries, as well. The approach to this problem 
requires resources for hiring caseworkers, doctors, nurses, clinicians, 
and general caregivers if we are to meet the needs of these men and 
women and their families.
    The mental condition known as Post Traumatic Stress Disorder (PTSD) 
has been well known for over a hundred years under an assortment of 
different names. For example more than 60 years ago, Army psychiatrists 
reported, ``That each moment of combat imposes a strain so great that . 
. . psychiatric casualties are as inevitable as gunshot and shrapnel 
wounds in warfare.''
    PTSD is a serious psychiatric disorder. While the government has 
demonstrated over the past several years a higher level of attention to 
those military personnel who exhibit PTSD symptoms, more should be done 
to assist service members found to be at risk.
    Pre-deployment and post-deployment medicine is very important. Our 
legacy of the Gulf War demonstrates the concept that we need to 
understand the health of our service members as a continuum, from pre- 
to post-deployment.
    The National Association for Uniformed Services applauds the extent 
of help provided by the Defense Department, however we encourage that 
more resources be made available to assist. Early recognition of the 
symptoms and proactive programs are essential to help many of those who 
must deal with the debilitating effects of mental injuries, as 
inevitable in combat as gunshot and shrapnel wounds.
    We encourage the Members of the Subcommittee to provide for these 
funds and to closely monitor their expenditure and to see they are not 
redirected to other areas of defense spending.
                      armed forces retirement home
    The National Association for Uniformed Services encourages the 
Subcommittee's continued interest in providing funds for the Armed 
Forces Retirement Home (AFRH).
    We urge the Subcommittee to continue its help in providing adequate 
funding to alleviate the strains on the Washington home. Also, we 
remain concerned about the future of the Gulfport home, so we urge your 
continued close oversight on its re-construction. And we thank the 
subcommittee for the construction of a new Armed Forces Retirement Home 
at its present location in Gulfport.
    The National Association for Uniformed Services also asks the 
Subcommittee to closely review administration plans to sell great 
portions of the Washington AFRH to developers. The AFRH home is a 
historic national treasure, and we thank Congress for its oversight of 
this gentle program and its work to provide for a world-class quality-
of-life support system for these deserving veterans.
   improved medicine with less cost at military treatment facilities
    The National Association for Uniformed Services is also seriously 
concerned over the consistent push to have Military Health System 
beneficiaries age of 65 and over moved into the civilian sector from 
military care. That is a very serious problem for the Graduate Medical 
Education (GME) programs in the MHS; the patients over 65 are required 
for sound GME programs, which, in turn, ensure that the military can 
retain the appropriate number of physicians who are board certified in 
their specialties.
    TRICARE/HA policies are pushing out those patients not on active 
duty into the private sector where the cost per patient is at least 
twice as expensive as that provided within Military Treatment 
Facilities (MTFs). We understand that there are many retirees and their 
families who must use the private sector due to the distance from the 
closest MTF; however, where possible, it is best for the patients 
themselves, GME, medical readiness, and the minimizing the cost of 
TRICARE premiums if as many non-active duty beneficiaries are taken 
care of within the MTFs. As more and more MHS beneficiaries are pushed 
into the private sector, the cost of the MHS rises. The MHS can provide 
better medicine, more appreciated service and do it at improved medical 
readiness and less cost to the taxpayers.
          uniformed services university of the health sciences
    As you know, the Uniformed Services University of the Health 
Sciences (USUHS) is the Nation's Federal school of medicine and 
graduate school of nursing. The medical students are all active-duty 
uniformed officers in the Army, Navy, Air Force, and U.S. Public Health 
Service who are being educated to deal with wartime casualties, 
national disasters, emerging diseases, and other public health 
emergencies.
    The National Association for Uniformed Services supports the USUHS 
and requests adequate funding be provided to ensure continued 
accredited training, especially in the area of chemical, biological, 
radiological, and nuclear response. In this regard, it is our 
understanding that USUHS requires funding for training and educational 
focus on biological threats and incidents for military, civilian, 
uniformed first responders, and healthcare providers across the Nation.
                joint pow/mia accounting command (jpac)
    We also want the fullest accounting of our missing servicemen and 
ask for your support in DOD dedicated efforts to find and identify 
remains. It is a duty we owe to the families of those still missing as 
well as to those who served or who currently serve. And as President 
Bush said, ``It is a signal that those who wear our country's military 
uniform will never be abandoned.''
    In recent years, funding for the Joint POW/MIA Accounting Command 
(JPAC) has fallen short, forcing the agency to scale back and even 
cancel many of its investigative and recovery operations. NAUS supports 
the fullest possible accounting of our missing servicemen. It is a duty 
we owe the families, to ensure that those who wear our country's 
uniform are never abandoned. We request that appropriate funds be 
provided to support the JPAC mission for fiscal year 2010.
              appreciation for the opportunity to testify
    As a staunch advocate for our uniformed service men and women, the 
National Association for Uniformed Services recognizes that these brave 
men and women did not fail us in their service to country, and we, in 
turn, must not fail them in providing the benefits and services they 
earned through honorable military service.
    Mr. Chairman, the National Association for Uniformed Services 
appreciates the Subcommittee's hard work. We ask that you continue to 
work in good faith to put the dollars where they are most needed: in 
strengthening our national defense, ensuring troop protection, 
compensating those who serve, providing for DOD medical services 
including TRICARE, and building adequate housing for military troops 
and their families, and in the related defense matters discussed today. 
These are some of our Nation's highest priority needs and we ask that 
they be given the level of attention they deserve.
    The National Association for Uniformed Services is confident you 
will take special care of our Nation's greatest assets: the men and 
women who serve and have served in uniform. We are proud of the service 
they give to America every day. They are vital to our defense and 
national security. The price we pay as a Nation for their earned 
benefits is a continuing cost of war, and it will never cost more nor 
equal the value of their service.
    We thank you for your efforts, your hard work. And we look forward 
to working with you to ensure we continue to provide sufficient 
resources to protect the earned benefits for those giving military 
service to America every day.
    Again, the National Association for Uniformed Services deeply 
appreciates the opportunity to present the Association's views on the 
issues before the Defense Appropriations Subcommittee.

    Chairman Inouye. Our next witness represents the Ovarian 
Cancer National Alliance, Ms. Cara Tenenbaum.
STATEMENT OF CARA TENENBAUM, SENIOR POLICY DIRECTOR, 
            OVARIAN CANCER NATIONAL ALLIANCE
    Ms. Tenenbaum. Good morning, Mr. Chairman, Vice Chairman. I 
want to thank you and all the members of the subcommittee for 
the opportunity to testify today. I'm here to talk about the 
Department of Defense's Ovarian Cancer Research Program, one of 
the congressionally directed medical research programs.
    For more than 10 years, the Ovarian Cancer National 
Alliance has worked with you to fund groundbreaking research 
that will help women diagnosed with, and women at high risk 
for, ovarian cancer. The ovarian cancer community is so 
grateful for the money you've appropriated in the past and last 
year, and we respectfully request further funding for this 
year, fiscal year 2010.
    Simply put, the ovarian cancer research program's mission 
is to eliminate ovarian cancer. It's the only Federal research 
program with that mission, conquering the disease. Of course, 
that's a complicated effort. It requires understanding the 
cause of the disease, its development, how the disease spreads, 
and recurrence.
    The Ovarian Cancer Research Program has a two-tiered peer-
review system that chooses the best potential research. Much of 
this research has been published, patented, granted further 
Federal funding by the National Cancer Institute, and/or gone 
into commercial development.
    Ovarian cancer is rarely diagnosed in early stages, when 
survival is best. There is no reliable early-detection test, 
but the Ovarian Cancer Research Program has made progress on 
this front. There is one early-detection test that's currently 
looking at commercialization--it's a urine biomarker test--and 
another you may have read about in the newspaper, the cancer-
sniffing dogs.
    The Ovarian Cancer Research Program has also developed two 
working models--animal models of ovarian cancer--for ovarian 
cancer: the mouse model, which is commonly used in research, 
but also the chicken model, which is the only other known 
animal to get ovarian cancer.
    I'm here, not only as an employee of the Ovarian Cancer 
National Alliance, but as someone with a personal interest in 
ovarian cancer. I'm an Ashkenazi Jew, my family is from Eastern 
Europe, and I have a strong family history of cancer. My 
mother, a breast cancer survivor, is here with me. And I know 
that I'm at high risk for both breast cancer and ovarian 
cancer. Because there is no early-detection test, I know that 
I, and so many other women, have to remain vigilant about our 
health.
    I'm here, and I'm honored to be here, on behalf of the 
ovarian cancer community. And I ask, on behalf of all of these 
daughters, mothers, and sisters, like my own--my sister is also 
here--that you continue to support the Ovarian Cancer Research 
Program, so that we all have a better chance at detecting 
ovarian cancer early. We ask you to continue supporting the 
Ovarian Cancer Research Program's mission to eliminate this 
deadly disease.
    Thank you for your time.
    Chairman Inouye. All right. Thank you very much, Ms. 
Tenenbaum.
    [The statement follows:]
                  Prepared Statement of Cara Tenenbaum
    Mr. Chairman, Ranking Member, and Members of the Committee, thank 
you for the opportunity to testify before you today about the 
Department of Defense's Ovarian Cancer Research Program, one of the 
Congressionally Directed Medical Research Programs.
    My name is Cara Tenenbaum, and I'm the Senior Policy Director at 
the Ovarian Cancer National Alliance. For more than 10 years, we have 
worked with you to fund ground breaking research that will help women 
diagnosed with, and women at high risk for, ovarian cancer. The ovarian 
cancer community is so grateful for the $20 million you appropriated to 
the Ovarian Cancer Research Program for fiscal year 2009. This year we 
respectfully request $30 million for this program.
    Simply put, the Ovarian Cancer Research Program's mission is to 
eliminate ovarian cancer. It is the only Federal research program that 
seeks to conquer this disease, rather than explore it. Of course, 
conquering ovarian cancer is a complicated effort that requires 
understanding the causes of the disease, its development, how it 
spreads and recurrence. The Ovarian Cancer Research Program has a two 
tiered peer review system that chooses the best potential research. 
Much of this research has been published, patented, granted further 
Federal funding by the National Cancer Institute and/or gone into 
commercial development.
    Ovarian cancer is rarely diagnosed in the early stages when 
survival is best. There is no reliable early detection test, which is 
an urgent priority for the ovarian cancer community. The Ovarian Cancer 
Research Program has funded two early detection tests that are in 
development: one in progress is the discovery and commercialization of 
a urine biomarker test; the second is a breath test, which you may have 
read about in the popular press under headlines like ``Cancer Sniffing 
Dogs.''
    The Ovarian Cancer Research Program has also developed working 
animal models of ovarian cancer: the mouse model, which is commonly 
used in medical research; and the chicken model, which is the only 
other animal known to get ovarian cancer.
    What makes this program unique is not just its use of ovarian 
cancer survivors as patient reviewers, and its transparency and low 
overhead, but the numerous grant mechanisms that provide a flexible 
model that funds innovative research.
    I am here, not only as an employee of the Ovarian Cancer National 
Alliance, but as someone with a personal interest in ovarian cancer. As 
an Ashkenazi Jew with a strong family history of cancer--my mother, a 
breast cancer survivor is here with me--I know that I am at high risk 
for both breast and ovarian cancer. As there is no reliable early 
detection test for ovarian cancer, I, like so many others, have to rely 
on my own vigilance for early detection of ovarian cancer.
    As a single woman who hopes to have children one day, I'm not ready 
for prophylactic surgery, although many of the patients I speak with 
have urged me to consider it. I am not even interested in genetic 
testing at this point, because without any action steps, I'm left with 
more worry than solutions. And so, on behalf of the millions of 
daughters, mothers, and sisters, like my own who has joined me here, I 
ask that you continue to support funding the Ovarian Cancer Research 
Program so that we all have a better chance of detecting ovarian cancer 
early, fighting it with better treatments and fulfilling the Ovarian 
Cancer Research Program's mission to eliminate this deadly disease.
    I am honored to be here representing the ovarian cancer community 
in respectfully requesting that Congress provide $30 million for the 
Ovarian Cancer Research Program (OCRP) in fiscal year 2010 as part of 
the Federal Government's investment in the Department of Defense's 
Congressionally Directed Medical Research Programs (CDMRP).
                  the ovarian cancer research program
    The Ovarian Cancer Research Program was created in 1997 to address 
a lack of ovarian cancer research, which remains the deadliest 
gynecologic cancer. The program uses a two tier peer review system, 
including patient advocates in both levels of review. Reviews are made 
not only on scientific rigor, but on the impact the proposed research 
will have on the disease and patients.
    To date, accomplishments reported by awardees include 371 
publications, 431 abstracts/presentations, and 15 patents applied for/
obtained. The Ovarian Cancer Research Program meets each year to 
evaluate the science and determine funding priorities for the upcoming 
year. This flexibility, along with input from patient advocates and 
leading researchers, allows the Ovarian Cancer Research Program to fill 
current research gaps. Much of the research funded by the Ovarian 
Cancer Research Program continues to get larger grants from this seed 
money, including four Ovarian Cancer Specialized Programs of Research 
Excellence (SPORES) funded by the National Cancer Institute.
    The program provides awards in the following categories: 
Collaborative Translational Research Award, Consortium Development 
Award, Idea Development Award, Ovarian Cancer Academy Award, Career 
Development Award, Translational Research Partnership Award, 
Historically Black Colleges and Universities/Minority Institution 
Collaborative Research Awards, Pilot Awards, and the New Investigator 
Research Award. From 1997 to 2009 more than $140 million has been 
awarded through these mechanisms.
    In fiscal year 2009 alone:
  --A New Investigator Award funded a research project using 
        immunotherapy, rather than chemotherapy or surgery, to fight 
        tumors;
  --An Idea Development award funded a research project on biomarkers, 
        including the discovery of a biomarker that is elevated 3 years 
        prior to clinical diagnosis of ovarian cancer;
  --An Idea Development award to explore the use of a new drug as a 
        single agent and in combination with existing chemotherapy 
        regimens to shrink tumors;
  --An Idea Development Award to fund preclinical studies of DNA 
        therapies that induce ovarian cancer cell death without any 
        toxicity to normal cells;
  --Phase II research in angiogenisis inhibitors, which stop new blood 
        vessels from forming in a tumor.
                   ovarian cancer's deadly statistics
    According to the American Cancer Society, in 2009, more than 21,000 
American women will be diagnosed with ovarian cancer, and more than 
15,000 will lose their lives to this terrible disease. Ovarian cancer 
is the fifth leading cause of cancer death in women. Currently, more 
than half of the women diagnosed with ovarian cancer will die within 5 
years. When detected early, the 5-year survival rate increases to more 
than 90 percent, but when detected in the late stages, the 5-year 
survival rate drops to less than 29 percent.
    In the more than 30 years since the War on Cancer was declared, 
ovarian cancer mortality rates have not significantly improved. A valid 
and reliable screening test--a critical tool for improving early 
diagnosis and survival rates--still does not exist for ovarian cancer. 
Behind the sobering statistics are the lost lives of our loved ones, 
colleagues, and community members. While we have been waiting for the 
development of an effective early detection test, thousands of our 
wives, mothers, daughters, and sisters have lost their battle with 
ovarian cancer.
    More than three-quarters of women diagnosed with ovarian cancer 
will have at least one recurrence. These recurrences may indicate that 
the tumor cells are no longer responsive to some therapies, leaving 
women with fewer treatment options. The Ovarian Cancer Research Program 
spends almost 20 percent of its grant money studying recurrence. Almost 
a third is spent on understanding ovarian cancer cell biology, 
genetics, and molecular biology, areas that we hope will lead to a more 
reliable early detection test.
    In 2007, a number of prominent cancer organizations released a 
consensus statement identifying the early warning symptoms of ovarian 
cancer. Without a reliable diagnostic test, we can rely only on this 
set of vague symptoms of a deadly disease, and trust that both women 
and the medical community will identify these symptoms and act promptly 
and quickly. Unfortunately, we know that this does not always happen. 
Too many women are diagnosed late due to the lack of a test; too many 
women and their families endure life-threatening and debilitating 
treatments to kill cancer; too many women are lost to this horrible 
disease.
                                summary
    The Ovarian Cancer National Alliance has made commitments to work 
with Congress, the Administration, and other policymakers and 
stakeholders to improve the survival rate from ovarian cancer through 
education, public policy, research, and communication. Please know that 
we appreciate and understand that our Nation faces many challenges and 
that Congress has limited resources to allocate; however, we are 
concerned that without increased funding to bolster and expand ovarian 
cancer research efforts, the Nation will continue to see growing 
numbers of women losing their battle with this terrible disease.
    On behalf of the entire ovarian cancer community--patients, family 
members, clinicians, and researchers--we thank you for your leadership 
and support of Federal programs that seek to reduce and prevent 
suffering from ovarian cancer. Thank you in advance for your support of 
$30 million in fiscal year 2010 funding for the Ovarian Cancer Research 
Program.

    Chairman Inouye. You know, I just can't resist this 
temptation but if you'll forgive me, the Ovarian Cancer 
Treatment Program and the Breast Cancer Treatment Program are 
earmarks. They were not suggested by the administration or by 
experts. The Congress did that. And today we're being condemned 
for earmarks. But----
    The next witness represents the Reserve Officers 
Association, Colonel William Holahan.
STATEMENT OF COLONEL WILLIAM HOLAHAN, UNITED STATES 
            MARINE CORPS (RET.), DIRECTOR, MEMBER 
            SERVICES, RESERVE OFFICERS ASSOCIATION OF 
            THE UNITED STATES
    Colonel Holahan. Mr. Chairman, Senator Cochran, we ask the 
subcommittee that our submitted written testimony, particularly 
with regard to the unfunded equipment and priorities of those 
Reserve components noted therein, be accepted for the record.
    Chairman Inouye. It will be made part of the record.
    Colonel Holahan. Thank you for the opportunity to speak 
once again on the issue of funding for our Nation's Reserve 
components.
    Today the United States cannot conduct extended military 
operations without the augmentation and reinforcement of its 
active component. That reinforcement must come from one of two 
sources: a draft, or the National Guard and Reserve.
    The 700,000 men and women of our Nation's Reserve 
components have provided that reinforcing and augmenting force 
since 2001. They have saved the country from a draft. Every 
indication I see and hear is that they can and will continue to 
do so, if they are properly trained, equipped, and supported. 
The Congress has made great strides in increasing the funding 
for these important needs, but realism demands that we 
recognize the armed services frequently push the needs of their 
Reserve components to a lower priority in times when funding is 
tight.
    The Reserve Officers Association--and I have been 
authorized to speak on this subject for the Reserve Enlisted 
Association, as well--urges this subcommittee to specifically 
identify appropriations for resetting of both the National 
Guard and the Reserve, such that it must be spent to train and 
re-equip the Reserve components for both their homeland defense 
mission and any overseas contingency operations that they may 
be assigned.
    Each Reserve component has shared with ROA that there is a 
continued problem of tracking equipment specifically 
appropriated to the Reserves from manufacturers to a service's 
Reserve component. Frustrations continue with the belief that 
the active component either pushes out Reserve items during 
production, or actually redirects equipment in distribution 
channels before it reaches their reserve.
    At the end of the day, the Nation wants an All-Volunteer 
Force, and it does not want a draft. The only way to achieve 
both of these objectives is to ensure that the Reserve and the 
National Guard continue to be filled with the same type of 
great American patriots who serve, today. To do that, you must 
ensure that they are fully trained, properly re-equipped, and 
that their families are adequately supported. And you ensure 
that your appropriations get where you intend that they go.
    Thank you for your consideration.
    Chairman Inouye. Thank you very much, Colonel Holahan.
    [The statement follows:]
                 Prepared Statement of William Holahan
                               priorities
    CY 2009 Legislative Priorities are:
    Providing adequate resources and authorities to support the current 
recruiting and retention requirements of the Reserves and National 
Guard.
    Reset the whole force to include fully funding equipment and 
training for the National Guard and Reserves.
    Support citizen warriors, families and survivors.
    Assure that the Reserve and National Guard continue in a key 
national defense role, both at home and abroad.
Issues To Help Fund, Equip, and Train
    Advocate for adequate funding to maintain National Defense during 
overseas contingency operations.
    Regenerate the Reserve Components (RC) with field compatible 
equipment.
    Fence RC dollars for appropriated Reserve equipment.
    Fully fund Military Pay Appropriation to guarantee a minimum of 48 
drills and 2 weeks training.
    Sustain authorization and appropriation to National Guard and 
Reserve Equipment Account (NGREA) to permit flexibility for Reserve 
Chiefs in support of mission and readiness needs.
    Optimize funding for additional training, preparation and 
operational support.
    Keep Active and Reserve personnel and Operation & Maintenance 
funding separate.
    Equip Reserve Component members with equivalent personnel 
protection as Active Duty.
Issues To Assist Recruiting and Retention
    Support continued incentives for affiliation, reenlistment, 
retention and continuation in the Reserve Component.
            Pay and Compensation
    Provide permanent differential pay for Federal employees.
    Offer Professional pay for RC medical professionals.
    Eliminate the 1/30th rule for Aviation Career Incentive Pay, Career 
Enlisted Flyers Incentive Pay, Diving Special Duty Pay, and Hazardous 
Duty Incentive Pay.
            Education
    Continued funding for the GI Bill for the 21st Century.
            Health Care
    Provide Medical and Dental Readiness through subsidized preventive 
health care.
    Extend military coverage for restorative dental care for up to 180 
days following deployment.
            Spouse Support
    Repeal the SBP-Dependency Indemnity Clause (DIC) offset.
        national guard & reserve equipment & personnel accounts
    It is important to maintain separate equipment and personnel 
accounts to allow Reserve Component Chiefs the ability to direct 
dollars to needs.
Key Issues Facing the Armed Forces Concerning Equipment
    Developing the best equipment for troops fighting in overseas 
contingency operations.
    Procuring new equipment for all U.S. Forces.
    Maintaining or upgrading the equipment already in the inventory.
    Replacing the equipment deployed from the homeland to the war.
    Making sure new and renewed equipment gets into the right hands, 
including the Reserve Component.
Reserve Component Equipping Sources
    Procurement.
    Cascading of equipment from Active Component.
    Cross-leveling.
    Recapitalization and overhaul of legacy (old) equipment.
    Congressional adds.
    National Guard and Reserve Appropriations (NGREA).
    Supplemental appropriation.
                    continued resetting of the force
    Resetting or reconstitution of the force is the process to restore 
people, aircraft and equipment to a high state of readiness following a 
period of higher-than-normal, or surge, operations.
    Some equipment goes through recapitalization: stripping down and 
rebuilding equipment completely. Recapitalization is one of the fastest 
ways to get equipment back to units for use, and on some equipment, 
such as trucks, recapitalization costs only 75 percent of replacement 
costs. A second option is to upgrade equipment, such as adding armor. A 
third option is to simply extend the equipment's service life through a 
maintenance program.
    Theater operations in Iraqi and Afghanistan are consuming the 
Reserve Component force's equipment. Wear and tear is at a rate many 
times higher then planned. Battle damage expends additional resources. 
New equipment suited for mountain warfare will be needed with the shift 
back into Afghanistan.
    In addition to dollars already spent to maintain this well-worn 
equipment for ongoing operations, the Armed Forces will likely incur 
large expenditures in the future to repair or replace (reset) a 
significant amount of equipment when hostilities cease. It is still 
unknown how much equipment will be left in Afghanistan.
                           personnel training
    When Reserve Component personnel participate in an operation they 
are focused on the needs of the particular mission, which may not 
include everything required to maintain qualification status in their 
military occupation specialty (MOS, AFSC, NEC).
  --There are many different aspects of training that are affected:
    --Skills that must be refreshed for specialty;
    --Training needed for upgrade but delayed by mission;
    --Ancillary training missed;
    --Professional military education needed to stay competitive;
    --Professional continuing education requirements for single-managed 
            career fields and other certified or licensed specialties 
            required annually;
    --Graduate education in business related areas to address force 
            transformation and induce officer retention.
  --Loss, training a replacement: There are particular challenges that 
        occur to the force when a loss occurs during a mobilization or 
        operation and depending on the specialty this can be a 
        particularly critical requirement that must be met:
    --Recruiting may require particular attention to enticing certain 
            specialties or skills to fill critical billets;
    --Minimum levels of training (84 days basic, plus specialty 
            training);
    --Retraining may be required due to force leveling as emphasis is 
            shifted within the service to meet emerging requirements.
                              end strength
    The ROA would like to place a moratorium on reductions to the Guard 
and Reserve manning levels. Manpower numbers need to include not only 
deployable assets, but individuals in the accession pipeline. ROA urges 
this subcommittee to fund to support:
  --Army National Guard of the United States, 358,200.
  --Army Reserve, 206,000.
  --Navy Reserve, 66,700.
  --Marine Corps Reserve, 39,600.
  --Air National Guard of the United States, 106,756.
  --Air Force Reserve, 69,900.
  --Coast Guard Reserve, 10,000.
    In a time of war and the highest OPTEMPO in recent history, it is 
wrong to make cuts to the end strength of the Reserve Components. We 
need to pause to permit force planning and strategy to catch-up with 
budget reductions.
    With the Navy's requested increase by 2,500 sailors, corresponding 
increases need to be made in the Navy Reserve. The Navy Reserve is 
providing most of the individual augmentee support for the Navy in 
overseas operations. Five years ago was the last time the Navy 
evaluated its USNR requirements; such a study needs to be done again.
                               readiness
    Readiness is a product of many factors, including the quality of 
officers and enlisted, full staffing, extensive training and exercises, 
well-maintained weapons and authorized equipment, efficient procedures, 
and the capacity to operate at a fast tempo.
    The Defense Department does not attempt to keep all Active units at 
the C-1 level. The risk is without resetting the force returning Active 
and Reserve units will be C-4 or lower because of missing equipment, 
and without authorized equipment their training levels will 
deteriorate.
               nonfunded army reserve component equipment
    The Army National Guard and Army Reserve have made significant 
contributions to ongoing military operations, but equipment shortages 
and personnel challenges continue and if left unattended, may hamper 
the Reserves' preparedness for future overseas and domestic missions. 
To provide deployable units, the Army National Guard and the Army 
Reserve have cross-leveled large quantities of personnel and equipment 
to deploying units, an approach that has resulted in growing shortages 
in nondeployed units.
Army Reserve Unfunded Requirements
    The 21st Century Army Reserve mobilizes continuously with 12 
percent of its force consistently deployed in support of the current 
contingencies. However, the Army Reserve lacks the ability to fully 
train Army Reserve Soldiers on the same equipment the Army uses in the 
field. To prepare to perform a dangerous mission, soldiers must have 
modern equipment and state-of-the-art training facilities. The Army 
Reserve has 73 percent of its required equipment on hand. Under 
currently programmed funding, the Army Reserve should reach 85 percent 
equipment on hand by fiscal year 2016 with the goal of 100 percent on 
hand by fiscal year 2019.
            C-12 Huran Cargo Transport Airplane (7)--$63 Million
    Replace aircraft permanently transferred to Intelligence, 
Surveillance and Reconnaissance (ISR) mission. Seven below total 
authorized count. Capacity lift 5,185 lbs, distance 1,710 miles.
            Communications Security (COMSEC) AKMS/Computer Sets 
                    (3648)--$8.6 Million
    Provide secure communications to (4) companies with AN/GYK-49(V)1 
&AN/PYQ-10(C) sets.
            Cargo Bed, Demountable PLS 8 x20 (5498)--$109.7 Million
    Transportation Support: pacing item for Medium Truck Company, 360 
each.
            Optical Data Entry Reader (115)--$25.5 Million
    Imaging/Reader automation to fix trailer transfer and Inland Cargo 
units.
            Heavy/Medium Trailers (1760)--$115.8 Million
    Cargo--MTV with dropsides (M1095); flatbed--LMTV w/dropsides 
(M1086)
Army National Guard Unfunded Equipment Requirements
    Army National Guard (ARNG) units deployed overseas have the most 
up-to-date equipment available. However, a significant amount of 
equipment is currently unavailable to the Army National Guard in the 
States due to continuing rotational deployments and emerging 
modernization requirements. Many States have expressed concern about 
the resulting shortfalls of equipment for training as well as for 
domestic emergency response operations.
            Aviation Upgrade Kits--$100.5 Million
    UH-60A to UH-60L Upgrade Kits; LUH-72A S&S Mission Equipment 
Package.
            Homeland Security Command and Control Package--$168.4 
                    Million
    Joint Incident Site Communications and Interim Satcom Incident 
Site. (JISC & ISISCS); Wideband Imagery Satellite Terminals, and Full 
Motion Video (FMV) downlink to support state and local leaders during 
natural and manmade disasters.
            M777A2 Lightweight 155mm Howitzer (18)--$54 Million
    To ensure readiness of Army National Guard (ARNG) Fire Support, 
Field Artillery units.
            Transportation--$1.15 Billion
    FMTV/LMTV Cargo Trucks; HMMWV; HTV 8x8 Heavy Trucks; Tactical 
Trailers.
            Force XXI Battlefield Command Brigade and Below (FBCB2)--
                    $179 Million
    To ensure readiness of ARNG Combat Support and Combat Service 
Support (CS/CSS) units.
    Also needed: To organize a second Stryker Brigade Combat Team 
(SBCT)
            air force reserve component equipment priorities
    ROA continues to support military aircraft Multi-Year Procurement 
(MYP) beginning with 15 for more C-17s and 8 more C-130Js for USAir 
Force and its Reserve. Further, ROA supports additional funding for 
continued Research and Development of the next generation bomber.
Air Force Reserve Unfunded Requirements
    The Air Force Reserve (AFR) mission is to be an integrated member 
of the Total Air Force to support mission requirements of the joint 
warfighter. To achieve interoperability in the future, the Air Force 
Reserve top priorities for nonfunded equipment are:
            C-40 D multi-role airlift (3)--$370 Million
    To replace aging C-9 C's at Scott Air Force Base: mission requests 
exceed aircraft availability.
            KC-130J Aircraft (2)--$148 Million
    These Aircraft are needed to fill the shortfall in Search and 
Rescue refueling capabilities.
            Cyber Systems Defense--$109 Million
    Upgrade Active Duty and AF Reserve network infrastructure to ensure 
overall A.F. mission.
            Helmet Mounted Cueing System--$38 Million
    Upgrade and enhancement to engagement systems.
Defensive Systems
    Airlift Defensive Systems (16) Install ADS systems onto (16) AFRC 
C-5As at Lackland Air Force Base against IR missile threats.
    Infra-Red Counter Measures (42) Procure and install (42) LAIRCM 
lite systems on AFRC C-5s. Protects high value national assets against 
advanced IR missile threats.
    Missile Warning System (MWS) Upgrade/replacement--Improve and 
integrate the existing Electronic Attack (EA) for A-10 and F-16 and 
Electronic Protection (EP) for A-10, F-16 and HC-130.
Air National Guard Unfunded Equipment Requirements
    Shortfalls in equipment will impact the Air National Guard's 
ability to support the National Guard's response to disasters and 
terrorist incidents in the homeland. Improved equipping strengthens 
readiness for both overseas and homeland missions and improves the ANG 
capability to train on mission-essential equipment.
            Infra-Red Counter Measures--$240.7 Million
    Procure and install LAIRCM systems on C-5, C-17, C-130, 130, HC-
130, EC-130, KC-135 a/c.
            Air Defensive Systems--$59.31 Million
    Install ADS systems onto C-5, C-17, F-15 aircraft.
            Missile Warning Systems--$22.48 Million
    Upgrade/replacement--Improve and integrate the existing Electronic 
Attack (EA) and Electronic Protection (EP) for A-10, C-130.
            Rear Aspect Visual Scan Capability/Safire--$57.2 Million
    Increase the field of view on C-5, C-17 transports and add a larger 
window in the C-130 paratroop doors.
            Personal Protective Equipment, M4 Rifles--$34.77 Million
            Force Protection Mobility Bag Upgrades/Replacements--
                    $113.72 Million
                    navy reserve unfunded priorities
    Active Reserve Integration (ARI) aligns Active and Reserve 
component units to achieve unity of command. Navy Reservists are fully 
integrated into their Active component supported commands. Little 
distinction is drawn between Active component and Reserve component 
equipment, but unique missions remain.
            C-40 A Combo Cargo/Passenger Airlift (4)--$402 Million
    The Navy requires a Navy Unique Fleet Essential Airlift Replacement 
Aircraft. The C-40A is able to carry 121 passengers or 40,000 pounds of 
cargo, compared with 90 passengers or 30,000 pounds for the C-9.
            KC-130J Super Hercules Aircraft Tankers (4)--$160 Million
    These Aircraft are needed to fill the shortfall in Navy Unique 
Fleet Essential Airlift (NUFEA). Procurement price close to upgrading 
existing C-130Ts with the benefit of a long life span.
            P-3 Maritime Patrol Aircraft Fixes--$312 Million
    Due to the grounding of 39 airframes in December 2007, there is a 
shortage of maritime patrol and reconnaissance aircraft, which are 
flown in associate Active and Reserve crews. P-3 wing crack kits are 
still needed for fiscal year 2010.
            F-5 Radar/Electronic Attack Block-2--$148.3 Million
    Aircraft used in adversarial training of F-18 pilots. Heightens 
adversary competition conditions.
            C-40 Hangar, Oceana--$31.4 Million
                marine corps reserve unfunded priorities
    The Marine Corps Reserve faces two primary equipping challenges, 
supporting and sustaining its forward deployed forces in the Long War 
while simultaneous resetting and modernizing the Force to prepare for 
future challenges. Only by equally equipping and maintaining both the 
Active and Reserve forces will an integrated Total Force be seamless.
            KC-130J Super Hercules Aircraft tankers (4)--$160 Million
    These Aircraft are needed to fill the shortfall in Marine Corps 
Essential Airlift. Procurement price close to upgrading existing C-
130Ts with the benefit of a long life span. Commandant, USMC, has 
testified that acquisition must be accelerated.
            Light Armored Vehicles--LAV (14)--$21 Million
    A shortfall in a USMCR light armor reconnaissance company, the LAV-
25 is an all-terrain, all-weather vehicle with night capabilities. It 
provides strategic mobility to reach and engage the threat, tactical 
mobility for effective use of fire power.
            Training Allowance (T/A) Shortfalls--$187.7 Million
    Shortfalls consist of over 300 items needed for individual combat 
clothing and equipment, including protective vests, poncho, liner, 
gloves, cold weather clothing, environmental test sets, took kits, 
tents, camouflage netting, communications systems, engineering 
equipment, combat and logistics vehicles and weapon systems.
            MCB Vehicle Maintenance Facility--$10.9 Million
    Additional vehicle storage and maintenance: routine preventive and 
corrective maintenance are still performed throughout the country by 
Marines. Ground equipment maintenance efforts have expanded over the 
past few years, leveraging contracted services and depot-level 
capabilities.
                      transparency of procurement
    Each Reserve Component has shared with ROA that there is a 
continued problem of tracking equipment specifically appropriated to 
the Reserves from manufacturer to a service's Reserve Component. 
Frustrations continue with a belief that the Active Component either 
pushes out Reserve items during production or actual misappropriates 
equipment in distribution before it reaches the Reserve.
           national guard and reserve equipment appropriation
    Much-needed items not funded by the respective service budget are 
frequently purchased through this appropriation. In some cases it is 
used to bring unit equipment readiness to a needed State for 
mobilization. With the war, the Reserve and Guard are faced with 
mounting challenges. Funding levels, rising costs, lack of replacement 
parts for older equipment, etc. have made it difficult for the Reserve 
Components to maintain their aging equipment, not to mention 
modernizing and recapitalizing to support a viable legacy force. The 
Reserve Components benefit greatly from a National Military Resource 
Strategy that includes a National Guard and Reserve Equipment 
Appropriation.
                       cior/ciomr funding request
    The Interallied Confederation of Reserve Officers (CIOR) was 
founded in 1948, and its affiliate organization, The Interallied 
Confederation of Medical Reserve Officers (CIOMR) was founded in 1947. 
The organization is a nonpolitical, independent confederation of 
national reserve associations of the signatory countries of the North 
Atlantic Treaty (NATO). Presently there are 16 member nation 
delegations representing over 800,000 reserve officers. CIOR supports 
four programs to improve professional development and international 
understanding.
    Military Competition.--The CIOR Military Competition is a strenuous 
3-day contest on warfighting skills among Reserve Officers teams from 
member countries. These contests emphasize combined and joint military 
actions relevant to the multinational aspects of current and future 
Alliance operations.
    Language Academy.--The two official languages of NATO are English 
and French. As a non-government body, operating on a limited budget, it 
is not in a position to afford the expense of providing simultaneous 
translation services. The Academy offers intensive courses in English 
and French as specified by NATO Military Agency for Standardization, 
which affords international junior officer members the opportunity to 
become fluent in English as a second language.
    Partnership for Peace (PfP).--Established by CIOR Executive 
Committee in 1994 with the focus of assisting NATO PfP nations with the 
development of Reserve officer and enlisted organizations according to 
democratic principles. CIOR's PfP Committee, fully supports the 
development of civil-military relationships and respect for democratic 
ideals within PfP nations. CIOR PfP Committee also assists in the 
invitation process to participating countries in the Military 
Competition.
    Young Reserve Officers Workshop.--The workshops are arranged 
annually by the NATO International Staff (IS). Selected issues are 
assigned to joint seminars through the CIOR Defense and Security Issues 
(SECDEF) Commission. Junior grade officers work in a joint seminar 
environment to analyze Reserve concerns relevant to NATO.
    Dues do not cover the workshops and individual countries help fund 
the events. The Department of the Army as Executive Agent hasn't been 
funding these programs. Senate leadership support would be beneficial.
                               conclusion
    DoD is in the middle of executing a war and operations in Iraq and 
Afghanistan. The impact of these operations is affecting the very 
nature of the Guard and Reserve, not just the execution of Roles and 
Missions. Without adequate funding, the Guard and Reserve may be viewed 
as a source to provide funds to the Active Component. It makes sense to 
fully fund the most cost efficient components of the Total Force, its 
Reserve Components.
    At a time of war, we are expending the smallest percentage of GDP 
in history on National Defense. Funding now reflects close to 4 percent 
of GDP including supplemental dollars. ROA has a resolution urging that 
defense spending should be 5 percent to cover both the war and homeland 
security. While these are big dollars, the President and Congress must 
understand that this type of investment is what it will take to equip, 
train and maintain an all-volunteer force for adequate National 
Security.
    The Reserve Officers Association, again, would like to thank the 
sub-committee for the opportunity to present our testimony. We are 
looking forward to working with you, and supporting your efforts in any 
way that we can.

    Chairman Inouye. Our next witness is the Secretary of the 
Associations for America's Defense, Ms. Elizabeth Cochran.
STATEMENT OF ELIZABETH COCHRAN, SECRETARY, ASSOCIATIONS 
            FOR AMERICA'S DEFENSE
    Ms. Cochran. Thank you, Mr. Chairman and Mr. Vice Chairman.
    The Associations for America's Defense is very grateful to 
testify today, and we'd like to submit written testimony at 
this time.
    We would like to thank this subcommittee for its 
stewardship on defense issues and setting an example by its 
nonpartisan leadership. The Associations for America's Defense 
is concerned that U.S. defense policy is sacrificing future 
security for near-term readiness. It's been suggested that the 
United States should focus on wars we're fighting today, not on 
future wars that may not occur. The Pentagon's priorities sound 
like money will be redirected to more immediate needs.
    Erosion in the capability in the force means added risk 
will be faced today and tomorrow. According to the Office of 
Management and Budget, base defense spending, projected at $534 
billion in 2010, will stay relatively flat for the next 5 
years. We disagree with placing such budgetary constraints on 
defense, because it can lead to readiness and effectiveness 
being subtly degraded, which won't be immediately evident. We 
support increasing defense spending to 5 percent of the gross 
domestic product during times of war to cover procurement, and 
prevent unnecessary personnel end-strength cuts.
    The Associations for America's Defense is alarmed about the 
fiscal year 2010 unfunded programs list, submitted by the 
military services, which is 87 percent lower than fiscal year 
2009's request. We're concerned the unfunded requests were 
driven by budgetary factors more than risk assessment, which 
will impact national security.
    As always, our military will do everything to accomplish 
its missions, but response time is measured by equipment 
readiness. Due to the DOD's tactical aircraft acquisition 
programs having been blunted by cost and schedule overruns, the 
Air Force has offered to retire 250 fighter jets in one year, 
which the Secretary of Defense has accepted. Until new systems 
are acquired in sufficient quantities to replace legacy fleets, 
those legacy systems must be sustained. Airlift contributions 
in moving cargo and passengers are indispensable to American 
warfighters. As the military continues to become more 
expeditionary, more airlifts in C-17 and C-130Js will be 
required. Procurement needs to be accelerated and modernized, 
and mobility requirements need to be reported upon.
    The need for air refueling is utilized worldwide in DOD 
operations. But, significant numbers of tankers are old and 
plagued with structural problems. The Air Force would like to 
retire as many as 131 of the Eisenhower-era KC-135E tankers by 
the end of the decade. These aircraft must be replaced.
    Finally, we ask this subcommittee to continue to provide 
appropriations for the National Guard and Reserve equipment 
requirements. The National Guard's goal is to make at least 
one-half the army and air assets available to Governors and 
adjutants general at any given time. Appropriating funds to 
Guard and Reserve equipment provides Reserve chiefs with 
flexibility prioritizing funding.
    Once again, I thank you for your ongoing support for the 
Nation's armed services and the fine men and women who defend 
our country. Please contact us with any questions.
    Thank you.
    Chairman Inouye. Thank you very much, Ms. Cochran.
    And I thank the panel.
    [The statement follows:]
                Prepared Statement of Elizabeth Cochran
                              introduction
    Mister Chairman and distinguished members of the Committee, the 
Associations for America's Defense (A4AD) is again very grateful for 
the invitation to testify before you about our views and suggestions 
concerning current and future issues facing the defense appropriations.
    The Association for America's Defense is an adhoc group of 12 
military and veteran associations that have concerns about national 
security issues. Collectively, we represent armed forces members and 
their families, who are serving our Nation, or who have done so in the 
past.
              current versus future: issues facing defense
    The Associations for America's Defense would like to thank this 
subcommittee for the on-going stewardship that it has demonstrated on 
issues of Defense. At a time of war, its pro-defense and non-partisan 
leadership continues to set the example.
Emergent Risks
    Members of this group are concerned that U.S. Defense policy is 
sacrificing future security for near term readiness. So focused are our 
efforts to provide security and stabilization in Afghanistan and a 
withdrawal from Iraq, that risk is being accepted as an element in 
future force planning. Force planning is being driven by current 
overseas contingency operations, and to allow for budget limitations. 
Careful study is needed to make the right choice. A4AD is pleased that 
Congress and this subcommittee continue oversight in these decisions.
    What seems to be overlooked is that the United States is involved 
in a Cold War as well as a Hot war. With the United States preoccupied 
with the Middle East, North Korea, China, Russia, and Iran are growing 
areas of risk.
Korean Peninsula
    Provocatively, North Korea successfully tested a nuclear weapon at 
full yield, unilaterally withdrew from that 1953 armistice, and 
continues to test-fire missiles from both its coasts. The South sent a 
high speed missile patrol boat into Western waters in response to a 
reported amphibious assault training staged by the North. South Korean 
and U.S. troops have been put on the highest alert level in 3 years, 
and the South Korean Coast Guard is escorting its fishing boats.
    North Korea has 1.2 million troops, with the 655,000 South Korean 
soldiers and 30,000 U.S. troops stationed to the South. While not an 
immediate danger to the United States, North Korea is still viewed as a 
threat by its neighbors, and represents a destabilizing factor in Asia. 
Recent events may be mere posturing, but North Korea is still a failed 
state, where misinterpretation clouded by hubris could start a war. The 
North has prepositioned and could fire up to 250,000 rounds of heavy 
artillery in the first 48 hours of war along the border and into Seoul.
China
    China remains the elephant in the war room. As the United States 
expends resources in the Middle East and continues to restructures the 
military to fight terrorism, China patiently waits for America's 
ability to project force to weaken.
    China's armed forces are the biggest in the world and have 
undergone double-digit increases in military spending since the early 
1990s. The Pentagon has reported that China's actual spending on 
military is up to 250 percent higher than figures reported by the 
Chinese government, and their cost of materials and labor is much 
lower. This year, China chose to increase its defense budget by almost 
15 percent. China's build-up of sea and air military power appears 
aimed at the United States, according to Admiral Michael Mullen, the 
chairman of the U.S. Joint Chiefs of Staff.
    The U.S. military strategy cannot be held hostage by international 
debts. While China is the biggest foreign holder of U.S. Treasuries 
with $768 billion at the end of the first quarter, we can't be lulled 
into a sense of complacency.
Russia
    Russian President Dmitry Medvedev has called for ``comprehensive 
rearmament.'' Last March, in televised remarks to defense ministry 
officials, Medvedev proclaimed the ``most important task is to re-equip 
the [Russian] armed forces with the newest weapons systems.'' Russia's 
defense budget could jump 30 percent this year, increasing Moscow's 
military might and preserving its arms-export industry, reports Peter 
Brookes of the Heritage Foundation. The country will aim for 70 percent 
of its weaponry to be ``modern'' by 2020, Defense Minister Anatoly 
Serdyukov said, according to RIA-Novosti, the state-run news agency.
    Following an April meeting with President Medvedev, the Obama 
administration is seeking a new start with Russia. Underlying U.S.-
Russian frictions are issues of NATO military expansion to countries 
like Georgia and Ukraine, and U.S. plans to base a missile defense 
system in Poland and the Czech Republic to defend against attacks from 
countries like Iran. Concerns have been voiced about a European 
military threat to Russian gas and oil fields.
Iran
    While Iran lobs petulant rhetoric towards the United States, the 
real international tension is between Israel and Iran. Israel views 
Tehran's atomic work as a threat, and would consider military action 
against Iran. If Iran was attacked, it has threatened to ``eliminate 
Israel.'' Israeli leadership has warned Iran that any attack on Israel 
would result in the ``destruction of the Iranian nation.'' Israel is 
believed to have between 75 to 200 nuclear warheads with a megaton 
capacity.
Force Structure: An Erosion in Capability
    Supporting the National Security Strategy requires that the United 
States to maintain robust and versatile military forces that can 
accomplish a wide variety of missions. The two major theater war (2MTW) 
approach was an innovation at the end of the Cold War. It was based on 
the proposition that the United States should prepare for the 
possibility that two regional conflicts could arise at the same time, 
so that if the United States were engaged in a conflict in one theater, 
an adversary in a second theater could be prevented from gaining his 
objectives in the other. In 1996, the United States adopted the ``win-
hold-win'' concept--a strategy to fight and win one major regional 
contingency, with enough force to hold another foe at a stalemate until 
the first battle is won, and then to move the forces to the second 
theater.
    The Bush Administration's ``1-4-2-1 strategy'' from the 2001 
Quadrennial Defense Review (QDR) called their new military strategy 
``1-4-2-1,'' which meant: ``1'' Defend the United States; ``4'' Deter 
aggression in four critical regions: Europe, Northeast Asia, Southwest 
Asia, the Middle East; ``2'' Maintain the capability to combat 
aggression in two of these regions simultaneously; and ``1'' Maintain a 
capability to ``win decisively'' up to and including forcing regime 
change and occupation in one of those two conflicts ``at a time and 
place of our choosing.''
    A top to bottom review in 2005, suggested change to the national 
strategy as to mount one conventional campaign while devoting more 
resources to defending American territory and antiterrorism efforts.
    In a speech announcing the fiscal year 2010 Defense Budget, 
Secretary of Defense Robert Gates stated ``Our conventional 
modernization goals should be tied to the actual and prospective 
capabilities of known future adversaries--not by what might be 
technologically feasible for a potential adversary given unlimited time 
and resources . . .''
    ``This budget is less about numbers than it is about how the 
military thinks about the nature of warfare and prepares for the 
future,'' Secretary of Defense Robert Gates testified before the Senate 
Armed Services Committee on May 14, 2009. Gates says that the United 
States should focus on the wars that we are fighting today, not on 
future wars that may never occur. He also asserts that U.S. 
conventional capabilities will remain superior for another 15 years. 
Anthony Cordesman, a national security expert for the Center for 
Strategic and International Studies, says that Gates' plan should be 
viewed as a set of short-term fixes aimed at helping ``a serious cost 
containment problem,'' not a new national security policy.
    War planners are often accused of planning for the last war. 
Secretary Gates speaks to enhancing the capabilities of fighting 
today's wars. A concern arises on whether the Pentagon's focus should 
be on irregular or conventional warfare, and whether it should be 
preparing for a full scale ``peer'' war. From his priorities, it sounds 
like Secretary Gates will be redirecting money to more immediate needs.
    Each strategy permitted change to resize a force that was 
originally oriented to global war to a smaller force focused on smaller 
regional contingencies. But the erosion in the capability and the force 
means added risks will be faced today and tomorrow than when the 2MTW 
standard was established. ``The danger is in the poverty of 
expectation, a routine obsession with danger that are familiar rather 
than likely,'' wrote Thomas Schelling, in the Forward to: Pearl Harbor: 
Decision and Warning (1962).
Funding for the Future
    Base defense spending, projected at $534 billion in 2010, will stay 
relatively flat for the next 5 years, counting inflation, according to 
spending outlines by the Office of Management and Budget. ``It is 
simply not reasonable to expect the defense budget to continue 
increasing at the same rate it has over the last number of years,'' 
Secretary Gates told the Senate committee. ``We should be able to 
secure our Nation with a base budget of more than half a trillion 
dollars.''
Hollow Force
    The Associations for America's Defense couldn't disagree more by 
placing such budgetary constraints on the defense. A4AD members 
question the spending priorities of the current administration. 
``Fiscal restraint for defense and fiscal largesse for everything 
else,'' commented Rep. John McHugh at a HASC hearing on the Defense 
Budget in May.
    The result of such budgetary policy could again lead to a hollow 
force whose readiness and effectiveness has been subtly degraded and 
whose lessened efficiency will not be immediately evident. This process 
which echoes of the past, raises no red flags and sounds no alarms, and 
the damage can go unnoticed and unremedied until a crisis arises that 
highlights just how much readiness has decayed.
Defense as a Factor of GDP
    Secretary Gates has warned that that each defense budget decision 
is ``zero sum,'' providing money for one program will take money away 
from another. A4AD encourages the appropriations subcommittee on 
defense to scrutinize the recommended spending amount for defense. Each 
member association supports increasing defense spending to 5 percent of 
Gross Domestic Product during times of war to cover procurement and 
prevent unnecessary personnel end strength cuts.
A Changing Manpower Structure
    Secretary Gates proposed spending an extra $11 billion to finish 
enlarging the Army and the Marine Corps and to halt reductions in the 
Air Force and the Navy. The Navy has asked for an increase in end 
strength of nearly 2,500 to 328,800 sailors. The Navy Reserve (USNR) on 
the other hand would be reduced to 65,506, a cut of 1,194. The Navy 
Reserve continues to be cut, and it is the main contributor to the 
Navy's individual augmentees (IA) force on the ground in Iraq and, now, 
Afghanistan. Of the requested dollars to support 4,400 by the Navy, the 
Navy Reserve supplies 3,000.
    A4AD supports a moratorium on further cuts including the Navy 
Reserve. We further suggest that a Zero Based Review (ZBR) be performed 
to evaluate the manning level of the USNR. The last review was done 
over 5 years ago, and much has changed since.
Maintaining a Surge Capability
    The armed forces need to provide critical surge capacity for 
homeland security, domestic and expeditionary support to national 
security and defense, and response to domestic disasters, both natural 
and man-made that goes beyond operational forces. A strategic surge 
construct includes manpower, airlift and air refueling, sealift 
inventory, logistics, and communication to provide a surge-to-demand 
operation. This requires funding for training, equipping and 
maintenance of a mission-ready strategic reserve composed of active and 
reserve units. An additional requirement is excess infrastructure which 
would permit the housing of additional forces that are called-up beyond 
the normal operational force.
Dependence on Foreign Partnership
    Part of the U.S. military strategy is to rely on long-term 
alliances to augment U.S. forces. ``To succeed in any efforts the 
Department must harness and integrate all aspects of national power and 
work closely with a wide range of allies, friends and partners,'' as 
stated in a DOD progress report. ``Our strategy emphasizes the 
capacities of a broad spectrum of partners . . . We must also seek to 
strengthen the resiliency of the international system . . . helping 
others to police themselves and their regions.'' It's been recommended 
in the budget to increase funding of global partnerships efforts by 
$500 million in the fiscal year 2010 base budget proposal, to support 
training and equipping foreign militaries to undertake counter 
terrorism and stability operations. Performances by allies have yet 
proven to be a good return on investment.
    The risk of basing a national security policy on foreign interests 
and good world citizenship is increasingly uncertain because the United 
States does not necessarily control our foreign partners; countries 
whose objectives may differ with from own. This is more an exercise of 
consensus building rather than security integration. Alliances should 
be viewed as a tool and a force multiplier, but not the foundation of 
National Security.
                         unfunded requirements
    The fiscal year 2010 Unfunded Program Lists submitted by the 
military services to Congress was 87 percent less than was requested 
for fiscal year 2009 with requests for only $3.44 billion versus $29.9 
billion the year before. A4AD has concerns that the unfunded requests 
were driven more by budgetary factors than risk assessment which will 
impact national security. The following are lists submitted by A4AD 
including additional non-funded recommendations.
Tactical Aircraft
    DOD's efforts to recapitalize and modernize its tactical air forces 
have been blunted by cost and schedule overruns in its new tactical 
aircraft acquisition programs. The Air Force has offered a plan to 
retire 250 fighter jets in 1 year alone, which the Secretary of Defense 
has accepted.
    Until new systems are acquired in sufficient quantities to replace 
legacy fleets, legacy systems must be sustained and kept operationally 
relevant. The risk of the older aircraft and their crews and support 
personnel being eliminated before the new aircraft are on line could 
result in a significant security shortfall.
Airlift
    Hundreds of thousands of hours have been flown, and millions of 
passengers and tons of cargo have been airlifted. Their contributions 
in moving cargo and passengers are absolutely indispensable to American 
warfighters in the Global War on Terrorism. Both Air Force and Naval 
airframes and air crew are being stressed by these lift missions. As 
the U.S. military continues to become more expeditionary, it will 
require more airlift. Procurement needs to be accelerated and 
modernized, and mobility requirements need to be reported upon.
    DOD should buy an additional (35) C-17s above the current 205 to 
ensure an adequate airlift force for the future and allow for 
attrition--C-17s are being worn out at a higher rate than anticipated 
in the Global War on Terrorism. Given the C-5's advanced age, it makes 
more sense to retire the oldest and most worn out of these planes and 
use the upgrade funds to buy more C-17s. DOD should also continue with 
a joint multi-year procurement of C-130Js.
    The Navy and Marine Corps need C-40-A replacements for the C-9B 
aircraft. The Navy requires Navy Unique Fleet Essential Airlift. The C-
40A, a derivative of the 737-700C a Federal Aviation Administration 
(FAA) certified, while the aging C-9 fleet is not compliant with either 
future global navigation requirements or noise abatement standards that 
restrict flights into European airfields.
Tankers
    The need for air refueling is reconfirmed on a daily basis in 
worldwide DOD operations. A significant number of tankers are old and 
plagued with structural problems. The Air Force would like to retire as 
many as 131 of the Eisenhower-era KC-135E tankers by the end of the 
decade. DOD and Congress must work together to replace of these 
aircraft.
NGREA
    A4AD asks this committee to continue to provide appropriations for 
unfunded National Guard and Reserve Equipment Requirements. The 
National Guard's goal is to make at least half of Army and Air assets 
(personnel and equipment) available to the Governors and Adjutants 
General at any given time. To appropriate funds to Guard and Reserve 
equipment provides Reserve Chiefs with a flexibility of prioritizing 
funding.

                     UNFUNDED EQUIPMENT REQUIREMENTS
            [The services are not listed in priority order.]
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Air Force:
    C-17 Globemaster III transport aircraft (15)........    $3.9 billion
    C-130J Super Hercules (5)...........................     395 million
    Battlefield Airborne Communications Node (2) lease     180.2 million
     and operation......................................
    Upgrade kits for the EC-130s/Compass Call                 78 million
     Modifications (4)..................................
    HH-60G Pave Hawk (3) Search and Rescue..............     120 million
    AAQ-29 Forward Looking Infra Red System--FLIR (81)        81 million
     HH-60G.............................................
Air Force Reserve:
    C-5A Airlift Defense system (ADS) (42)..............    17.3 million
    C-130H LAIRCM--Large Aircraft I/R Counter Measures      56.6 million
     (6)................................................
    C-130J LAIRCM (2)...................................      22 million
    Missile Warning Systems and Electronic Protection, A-   27.9 million
     10, F-16...........................................
    C-5 Structural repair...............................      22 million
Note: USAFR has a $1 billion MILCON backlog.

Air National Guard:
    C-40C pax aircraft, procurement (1) and avionics        98.6 million
     upgrade............................................
    C-38 aircraft, replacement program..................     110 million
    Radio, Beyond Line of Sight (BLOS) ADS TACSAT, F-15,   109.7 million
     F-16C..............................................
    Electronic Attack Pod, A-10, F-16C..................      44 million
    Helmet Mounted Cueing System, A -10, F-16C, HH-60G..      38 million
Note: Air National Guard faces a MILCON backlog of $2
 billion to recapitalize facilities.

Army:
    Aviation Support Equipment..........................    36.2 million
    Field Feeding.......................................    30.7 million
    Force XXI Battlefield Command Brigade and Below.....     179 million
    Information System Security COMSEC..................    44.8 million
    Liquid Logistics Storage and Distribution...........       2 million
Army Reserve:
    Palletized Load System (PLS) Trailer................    27.8 million
    Tactical Light Truck (Ambulance HMMWV, Armament        183.8 million
     Carrier HMMWV, Troop/Cargo Carrier HMMWV)..........
    Command Post (FBCB2/TOCS/UYK-128) computer set,        181.4 million
     shelter............................................
    Support (Antenna-OE-361(V)/Loudspeakers tactical)...    13.4 million
    HEMTT (Tactical Heavy wrecker)......................    55.9 million
Army National Guard:
    CH-47F Chinook helicopters (6) in fiscal year 10....      66 million
    UH-60M Black Hawk medium-lift helicopter (10) in         164 million
     fiscal year 10.....................................
    Warfighter Information Network-Tactical (WIN-T).....     1.2 billion
    Communication Systems (JNN, SINCGARS, HF)...........     1.5 billion
    Stryker combat vehicles, various configurations          1.4 billion
     (549)..............................................
Note: $280 million/year is the investment necessary to
 effectively recapitalize MILCON.

Navy:
    P-3 Repair/Recovery Plan, kit installation..........     462 million
    Aviation Depot Maintenance, to fund 86 deferred          195 million
     airframes and 314 engines..........................
    Ship Depot Maintenance, for 20 surface ship              200 million
     availabilities.....................................
    C-130J Super Hercules (1) to replace Blue Angels          64 million
     transport..........................................
Navy Reserve:
    C-40A Combo cargo/passenger airlift aircraft (4)....     402 million
    KC-130J Super Hercules aircraft (4).................     256 million
    Maritime Expeditionary Warfare Equipment............    35.5 million
    Maritime Prepositioning Force Utility Boats (RHIB)..     6.6 million
    Information Systems Security Program................     5.5 million
Marine Corps:
    MTVR trailers (buys 352) to cover shortfall.........    28.9 million
    Engineer Equipment for Logistics Support:
        TRAMs, bucket loader (93).......................      21 million
        Forklift, Light Rough Terrain--LRTF (96)........      13 million
        Forklift, Extended Boom (177)...................      24 million
    MV-22 Osprey Aircraft, Improvements, and Upgrades...    17.4 million
    Mountain Terrain Support Vehicles (10)..............    10.2 million
    Tier I UAS (146) Digital Data Link upgrade kits.....    10.5 million
Note: Military Construction requirements are $70.5
 million.

Marine Forces Reserves:
    KC-130Js Super Hercules tanker aircraft (2).........     128 million
    Light Armored Vehicles (14).........................      21 million
    Helmet Mounted Displays (SA-HMDs) Systems...........  ..............
    Theater Provided Equipment Sensors..................  ..............
------------------------------------------------------------------------

Conclusion
    A4AD is a working group of military and veteran associations 
looking beyond personnel issues to the broader issues of National 
Defense.
    This testimony is an overview, and expanded data on information 
within this document can be provided upon request.
    Thank you for your ongoing support of the Nation, the Armed 
Services, and the fine young men and women who defend our country. 
Please contact us with any questions.

    Chairman Inouye. Now we have our final panel, consisting of 
Dr. Philip Boudjouk; the president and CEO, Ms. Sandra Raymond, 
Dr. George Zitnay, Captain Ike Puzon, of the Navy, Ms. Mary 
Hesdorffer, Dr. Jonathan Berman, vice president--Mr. George 
Dahlman, and General Michael Dunn.
    Thank you very much.
    Representing the Coalition of EPSCoR/IDeA States, Dr. 
Philip Boudjouk. Is that the correct pronunciation?
    Dr. Boudjouk. Mr. Chairman, ``boo-jock'' is the correct 
pronunciation.
    Chairman Inouye. Boudjouk.
    Dr. Boudjouk. Boudjouk, thank you.
STATEMENT OF PHILIP BOUDJOUK, Ph.D., VICE PRESIDENT, 
            RESEARCH, CREATIVE ACTIVITIES AND 
            TECHNOLOGY TRANSFER, NORTH DAKOTA STATE 
            UNIVERSITY; CHAIR, COALITION OF EPSCoR/IDeA 
            STATES
    Dr. Boudjouk. Chairman Inouye, Ranking Member Cochran, 
members of the subcommittee, thank you for the opportunity to 
testify today on the importance of maintaining and adequately 
funding the Department of Defense DEPSCoR program.
    My name is Philip Boudjouk, and I serve as the vice 
president of research, creative activities, and technology 
transfer at North Dakota State University, and I also serve as 
chair of the Coalition of EPSCoR/IDeA States, a nonprofit 
organization representing the 21 States and two territories 
currently eligible to receive DOD DEPSCoR research awards.
    DEPSCoR was originally authorized by section 257 of the 
National Defense Authorization Act of 1995 to ensure a 
nationwide, multi-State infrastructure to support the 6.1 basic 
research needs of the Department of Defense. In recent years, 
Congress has generously provided funding for DEPSCoR between 
$15 and $17 million, and has affirmatively rejected efforts by 
the previous administration to reduce the size of the program.
    In the fiscal year 2009 National Defense Authorization Act, 
the Senate directed a federally funded Research and Development 
Center assessment of the DEPSCoR program to determine its value 
to the Department and to the American taxpayer. The Institute 
for Defense Analyses concluded that DEPSCoR has strengthened 
the nationwide basic research capacity. More importantly, the 
assessment determined that the DEPSCoR States' share of 
nondefense--non-DEPSCoR DOD science and engineering funding 
increased steadily from inception of the program to today.
    However, the administration's proposed 2010 DOD budget 
recommends no funding for DEPSCoR. The 23 eligible DEPSCoR 
jurisdictions must therefore rely on Congress to ensure the 
DEPSCoR program is adequately funded, at a level that ensures 
our Nation maintains a nationwide infrastructure of DOD 
research capabilities.
    Allowing the DEPSCoR program to go unfunded in fiscal year 
2010 will not only create a critical shortfall in our national 
research infrastructure, but it will, likewise, have dire 
consequences for DEPSCoR States that otherwise may not receive 
an investment of DOD research funding. Therefore, we 
respectfully request that the DEPSCoR program at a minimum of 
$20 million.
    Mr. Chairman, every State has important contributions to 
make to our Nation's research competitiveness, and every State 
has scientists and engineers that can contribute significantly 
to supporting the research needs of DOD.
    Thank you for the opportunity to testify before the 
subcommittee.
    Chairman Inouye. I thank you very much, sir.
    [The statement follows:]
                 Prepared Statement of Philip Boudjouk
    Chairman Inouye, Ranking Member Cochran, Members of the 
Subcommittee: Thank you for the opportunity to testify today on the 
importance of maintaining and adequately funding the Department of 
Defense Experimental Program to Stimulate Competitive Research 
(DEPSCoR) \1\.
---------------------------------------------------------------------------
    \1\ Alabama, Alaska, Arkansas, Delaware, Hawaii, Idaho, Kansas, 
Kentucky, Louisiana, Maine, Mississippi, Montana, Nebraska, Nevada, New 
Hampshire, New Mexico, North Dakota, Oklahoma, Puerto Rico, Rhode 
Island, South Carolina, South Dakota, Vermont, Virgin Islands, West 
Virginia, and Wyoming.
    States in bold letters are eligible for the DEPSCoR program. All of 
the States listed above are also eligible for the EPSCoR program.
---------------------------------------------------------------------------
    My name is Philip Boudjouk and I serve as the Vice President of 
Research, Creative Activities and Technology Transfer at North Dakota 
State University. I also currently serve as Chair of the Coalition of 
EPSCoR/IDeA States, a non-profit organization representing the 21 
States and 2 territories currently eligible to receive Department of 
Defense DEPSCoR research awards.
    EPSCoR States have a vast reservoir of talent and capacity. They 
represent 20 percent of the U.S. population, 25 percent of the research 
and doctoral universities, and 18 percent of the Nation's scientists 
and engineers. The EPSCoR program is critical to ensuring that we 
maintain a national infrastructure of research and engineering by 
providing much needed funding to these leading universities and 
scientists.
    As you know, DEPSCoR was initially authorized by Section 257 of the 
National Defense Authorization Act of 1995 (Public Law 103-337) to 
ensure a nationwide, multi-State infrastructure to support the 6.1 
basic research needs of the Department of Defense. Today, 21 States and 
two territories participate in DEPSCoR, receiving grants from the 
Department to perform research that directly responds to specific 
priorities identified by the Department and announced under competitive 
solicitations to the eligible DEPSCoR States.
    At the program's peak funding level, DEPSCoR received nearly $25 
million to fund Department of Defense basic research in eligible 
States. In recent years, Congress has generously provided funding for 
DEPSCoR between $15 million and $17 million, and has affirmatively 
rejected efforts by the previous administration to reduce the size of 
the DEPSCoR program.
    Additionally, in the fiscal year 2009 National Defense 
Authorization Act, the Senate directed a federally funded research and 
development center assessment of the DEPSCoR program to determine its 
value to the Department and to the American taxpayer. The Institute for 
Defense Analayses (IDA) was entrusted with the assessment and concluded 
in its study that DEPSCoR has strengthened the nationwide basic 
research capacity in the following areas:
  --DEPSCoR awards have funded first-time investigators in defense-
        related basic research;
  --DEPSCoR awards have contributed to publications and patents;
  --DEPSCoR awards have supported graduate student and postdoctoral 
        training;
  --DEPSCoR awards have supported purchase and maintenance of cutting 
        edge research equipment; and
  --DEPSCoR awards have supported collaborations among researchers in 
        all States.
    Perhaps most importantly, the IDA assessment determined that the 
DEPSCoR States' share of non-DEPSCoR Department of Defense science and 
engineering funding increased steadily from inception of the program to 
today. This finding provides firm evidence that DEPSCoR is a valuable 
use of taxpayer dollars because it demonstrates that DEPSCoR provides a 
return on investment to the Department of Defense that far exceeds the 
funding amount provided for the program each year.
    Mr. Chairman, DEPSCoR is also a valuable use of taxpayer dollars 
because it represents Federal research money well spent. Past DEPSCoR 
research has included:
  --designing helicopter rotors;
  --modeling sea ice predictions to aid ship and submarine navigation;
  --prediction of river currents for Navy operations;
  --securing critical software systems;
  --developing chem.-biodefense agents;
  --enhancing stored energy density for weapons;
  --improving wireless communication for warfighter systems;
  --determining the effect of exposure of military personnel to extreme 
        physical and climatic conditions;
  --preventing laser damage to aircraft optical guidance systems;
  --increasing durability of lightweight composite materials; and
  --developing small plastic air-vehicles for the Air Force.
    Despite this important work, and despite the positive assessment 
provided to the Senate by the Institute for Defense Analyses, the 
administration's proposed fiscal year 2010 Department of Defense budget 
recommends no funding for DEPSCoR. The 23 DEPSCoR eligible 
jurisdictions must therefore rely on Congress once again to ensure the 
DEPSCoR program is adequately funded at a level that ensures our Nation 
maintains a nationwide infrastructure of Department of Defense research 
capabilities.
    Mr. Chairman, every State has important contributions to make to 
our Nation's research competitiveness and every State has scientists 
and engineers that can contribute significantly to supporting the 
research needs of the Department of Defense. Accordingly, it is vital 
that we build a Department of Defense research infrastructure that 
leaves no State behind. Allowing the DEPSCoR program to go unfunded in 
fiscal year 2010 will not only create a critical shortfall in our 
national research infrastructure, but it will likewise have dire 
consequences for DEPSCoR States that otherwise may not receive an 
investment of Department of Defense research funding.
    As the Committee considers the President's fiscal year 2010 budget 
proposal for the Department of Defense, the Coalition of EPSCoR/IDeA 
States, representing major research universities and institutions 
across 23 participating jurisdictions, respectfully requests that the 
DEPSCoR program be funded at a minimum of $20 million. Participating 
DEPSCoR institutions continue to advance the basic research priorities 
of the Department of Defense and it is the sincere hope of our 
Coalition that this Subcommittee will consider robustly funding the 
DEPSCoR program in fiscal year 2010.
    The Coalition of EPSCoR/IDeA States is grateful for this 
opportunity to testify before the Subcommittee. We look forward to 
continuing to work with the Senate to ensure the DEPSCoR program fully 
supports our Nation's critical research infrastructure requirements.
    Thank you Mr. Chairman.

    Chairman Inouye. And our next witness is the president and 
chief executive officer of the Lupus Foundation of America, Ms. 
Sandra Raymond.
    Ms. Raymond?
STATEMENT OF SANDRA C. RAYMOND, PRESIDENT AND CHIEF 
            EXECUTIVE OFFICER, LUPUS FOUNDATION OF 
            AMERICA, INC.
    Ms. Raymond. Thank you, Chairman Inouye, Ranking Member 
Cochran, and all of the subcommittee members. We thank you for 
the work that you are doing to serve and protect our country 
and the health of our servicemen and women. I'm here today to 
talk with you about a largely undiagnosed health issue of 
concern in the military and in the population at large, and 
that is lupus.
    In April 2003, a 22-year-old female soldier was about to be 
deployed to Iraq. As is the practice, she was given the 
standard battery of vaccines, and soon after she received the 
shots, she died. This soldier had undiagnosed lupus, and the 
live viruses in the vaccine were said, by a panel of medical 
experts, to have caused a fatal reaction.
    In people with compromised immune systems, live viruses and 
other triggers can cause the body to attack its own tissues and 
organs, and this can lead to morbidity and death.
    Lupus is a chronic, life-threatening disease of the immune 
system. It's the prototypical autoimmune disease, and learning 
more about it will provide clues to understanding autoimmune 
diseases that affect 23 million Americans.
    The disease principally affects young women in their 
childbearing years, but men and children also develop lupus. It 
is two to three times more common among African-Americans, 
Hispanics, Asian Americans and Pacific Islanders, and American 
Indians. This health disparity remains unexplained.
    Three issues make lupus directly relevant to the DOD's 
medical research program.
    First, vaccinations given routinely to American servicemen 
and women may trigger fatal reactions, especially since 
military doctors have no way to screen for lupus or underlying 
autoimmune diseases.
    Second, lupus disproportionately affects minority 
populations and young people, those most likely to be in the 
military. Minorities comprise over one-third of the active duty 
military members; and among enlisted women the percentage in 
2004 was almost 40 percent.
    Third, environmental stresses are known to cause lupus. We 
know that genes linked to lupus are triggered by environmental, 
hormonal, and stress factors. These may be exacerbated by 
intense training, foreign deployment, exposure to chemical 
agents, battle, and more.
    But, there is a way to insure that military personnel are 
protected, and that is through identification of biological 
markers that can detect lupus. We all know that measurement of 
blood pressure or cholesterol are biological markers that can 
tell us if we're at risk for cardiovascular disease or stroke. 
In lupus, scientists have now identified a number of biomarkers 
that are prime candidates for validation. And, once validated, 
an early detection test can be developed to screen for lupus. 
With the leadership of military lupus scientists, and academic 
centers across the United States, this research can get off to 
a running start.
    While it's important that lupus remain in the peer-review 
program, we respectfully ask you to consider initiating what we 
call the Lupus Biomarker and Test Development Research Project. 
As part of the defense program, or the clinical investigation 
program of force health protection and readiness, establishing 
this program has the potential to save lives. Start-up costs 
are estimated to be $6 million.
    We thank you for the opportunity to speak today, and we 
look forward to working with you to address this public health 
issue.
    Thank you.
    Chairman Inouye. Thank you very much, Ms. Raymond.
    [The statement follows:]
                Prepared Statement of Sandra C. Raymond
    Chairman Inouye, Ranking Member Cochran, and Distinguished 
Subcommittee Members, my name is Sandra Claire Raymond and I am the 
President and CEO of the Lupus Foundation of America. I want to take 
this opportunity to thank you for all you are doing to serve and 
protect our country and the health of our servicemen and women.
    In April of 2003, a 22-year-old female soldier about to be deployed 
to Iraq was given the standard battery of vaccines and soon after these 
were administered she died. This soldier had undiagnosed lupus and live 
viruses in the vaccines triggered a fatal reaction. Lupus is a chronic 
and life-threatening disease that causes the immune system to become 
unbalanced, causing inflammation and tissue damage to virtually every 
organ system. It is the prototypical autoimmune disease and learning 
more about lupus will have broad-ranging implications for the estimated 
23 million Americans suffering from autoimmune diseases. Lupus affects 
women, men and children, but, women in their child-bearing years are 
most at risk. The disease is two to three times more common among 
African Americans, Hispanics, Asian Americans and Pacific Islanders and 
American Indians. This health disparity remains unexplained. A recent 
study indicates that lupus annually costs the Nation an estimated $31.4 
billion in direct and indirect expenditures.
    Here are the issues that are directly relevant to the DOD's medical 
research programs:
  --Vaccinations given routinely to American Service men and women may 
        trigger fatal reactions. Military physicians have no way to 
        screen personnel for lupus or other autoimmune diseases prior 
        to administering necessary vaccinations.
  --Lupus disproportionately affects minorities and young people--those 
        most likely to be in the military. Minorities comprise over one 
        third of the active duty military members. 2004 statistics 
        indicate that among active duty enlisted women, the minority 
        percentage is even higher: 38.7 percent are minorities. And, 
        again the 2004 statistics indicate that African Americans make 
        up 18.3 percent of the military but less than 13 percent of the 
        general population. African Americans are among those most at 
        risk for lupus. Their disease begins earlier in life and is 
        generally more severe. More than 90 percent of active duty 
        military personnel are age 40 or younger and lupus strikes 
        people between the ages of 15 and 44. In 2004, 11,000 
        individuals with lupus, active duty personnel and dependents, 
        receive care through the DOD healthcare system and that number 
        has been increasing in these last 5 years.
  --Environmental stresses are known to cause lupus flares. Genes 
        linked to lupus may be triggered by environmental, hormonal and 
        stress factors exacerbated by intense training, foreign 
        deployment, exposure to unaccustomed environment, chemical 
        agents, battle and trauma.
    Chairman Inouye, I want to thank you and the Congress for naming 
lupus as one of the diseases that can be researched under the Peer 
Reviewed Medical Research Program. The research projects that have been 
funded since 2005 have provided valuable insights into this devastating 
disease. However, in order to ensure that military personnel and their 
families are protected, there is an urgent and unmet need to validate 
biomarkers to detect lupus. Scientists have identified a number of 
biomarkers that are now ready for validation and this work will lead to 
an early detection test to screen for lupus. In fact, there is a 
network of academic medical centers across the country interested in 
this project and with leadership and coordination from the military 
lupus scientists, this project can get off to a running start. We ask 
that lupus remain in the congressionally directed Peer Reviewed Medical 
Research Program; however, in addition, we believe that lupus biomarker 
and test development research should originate in the DOD's Defense 
Health Program. With respect, we ask for $6 million to establish this 
program. Thank you for providing me with this opportunity to speak 
today and I look forward to working with all of you to help improve the 
lives of our soldiers living with lupus.

    Chairman Inouye. Our next witness is Dr. Zitnay, co-founder 
of the Defense and Veterans Brain Injury Center.
STATEMENT OF GEORGE A. ZITNAY, Ph.D., CO-FOUNDER, 
            DEFENSE AND VETERANS BRAIN INJURY CENTER
    Dr. Zitnay. Good morning, Mr. Chairman, Vice Chairman 
Cochran. It's a pleasure to be with you today.
    As the chairman stated, I'm the co-founder of the Defense 
and Veterans Brain Injury Center, and I recently retired, so 
I'm here today as a volunteer on behalf of the participants in 
the 2008 International Conference on Behavioral Health and 
Traumatic Brain Injury, convened at the request of the 
Congressional Brain Injury Task Force, chaired by Mr. Bill 
Pascrell and Todd Platts.
    I come before you today to request $370 million in funding 
for brain injury care, research, treatment, and training, 
through the Defense and Veterans Brain Injury Center, an 
affiliate of the Defense Center of Excellence in Psychological 
Health and TBI. As you know, TBI is the signature injury in the 
wars in Iraq and Afghanistan, affecting over 360,000 of our 
troops. Some 300,000 have also been identified as experiencing 
post traumatic stress disorder.
    Blast-related injuries, extended deployments, all 
contribute to the unprecedented number of warriors suffering 
from TBI and psychological conditions such as anxiety, 
depression, PTSD, and, unfortunately, suicide.
    The long-term effects and consequences of TBI and PTSD will 
cost millions unless we start treating now, with available 
technology that is now currently available in the private 
sector.
    In a report to Congress issued earlier this year, the 
experts at the international conference noted that the private 
sector--mostly academic centers of excellence across the 
country, and major clinics--have available the advanced 
technology and treatments that should be made available now to 
our men and women, and our wounded warriors, especially in the 
rural areas. They will benefit from this advanced care through 
the use of telemedicine and rehabilitation.
    For example, new technology, and new advances in brain 
imaging, reveals that even the most severe--the most severe TBI 
patient improves, with brain stimulation. It's electrical 
stimulation applied to the inner brain. This helps the 
individual wake up. And once they wake up we can then provide 
rehabilitation until they gain function. We also know that 
neutraceuticals can also help repair brain tissue.
    Our request includes $50 million for a--DVBIC demonstration 
project, to utilize these advanced techniques to improve the 
standard of care for severe TBI patients. While many with 
severe TBI will never return to active duty, some may, if they 
get this advanced technology. But, most importantly, they will 
be able to live a life worth living.
    DVBIC is a partnership between the DOD and the VA with 
the--trauma centers, and it was created by Congress to ensure 
the optimum care is given.
    Finally, we request $20 million for education and training 
of brain injury specialists. There is confusion between mild 
TBI and PTSD, but they are distinct conditions. TBI can be 
mild, as in concussion, or severe, as in unresponsive states of 
consciousness. Training is particularly needed in our rural 
areas of the country, as some of our young men and women who 
return home never get the chance to seek treatment, because it 
is too far away.
    Thank you for your leadership; thank you for your support 
of the Defense and Veterans Brain Injury; but most of all for 
your care for our wounded warriors.
    Chairman Inouye. Thank you very much, Dr. Zitnay.
    [The statement follows:]
                 Prepared Statement of George A. Zitnay
    Dear Chairman Inouye, Vice Chairman Cochran and Members of the 
Senate Appropriations Subcommittee on Defense: Thank you for this 
opportunity to submit testimony in support of funding brain injury 
programs and initiatives in the Department of Defense. I am George A. 
Zitnay, PhD, a neuropsychologist and co-founder of the Defense and 
Veterans Brain Injury Center (DVBIC).
    I have over 40 years of experience in the fields of brain injury, 
psychology and disability, including serving as the Executive Director 
of the Kennedy Foundation, Assistant Commissioner of Mental Retardation 
in Massachusetts, Commissioner of Mental Health, Mental Retardation and 
Corrections for the State of Maine, and a founder and Chair of the 
International Brain Injury Association and the National Brain Injury 
Research, Treatment and Training Foundation. I have served on the 
Advisory Committees to the Centers for Disease Control and Prevention 
(CDC) and the National Institutes of Health (NIH), was an Expert 
Advisor on Trauma to the Director General of the World Health 
Organization (WHO) and served as Chair of the WHO Neurotrauma 
Committee.
    In 1992, as President of the national Brain Injury Association, I 
worked with Congress and the Administration to establish what was then 
called the Defense and Veterans Head Injury Program (DVHIP) after the 
Gulf War as there was no brain injury program at the time. I have since 
worn many hats, and helped build the civilian partners to DVBIC: 
Virginia NeuroCare, Laurel Highlands and DVBIC-Johnstown. I recently 
retired as an advisor to the Department of Defense (DOD) regarding 
policies to improve the care and rehabilitation of wounded warriors 
sustaining brain injury.
    I am pleased to report that DVBIC continues to be the primary 
leader in DOD for all brain injury issues. DVBIC has come to define 
optimal care for military personnel and veterans with brain injuries. 
Their motto is ``to learn as we treat.''
    The DVBIC has been proactive since its inception, and what began as 
a small research program, the DVBIC now has 19 sites.\1\ In 2007 your 
committee helped move DVBIC funding from under the auspices of the 
Uniformed Services University of the Health Sciences (USUHS) over to 
the Army's Medical and Materiel Command at Fort Detrick. DVBIC is now 
the key operational component for brain injury of Defense Centers of 
Excellence for Psychological Health and Traumatic Brain Injury (DCoE) 
under DOD Health Affairs.
---------------------------------------------------------------------------
    \1\ Walter Reed Army Medical Center, Washington, DC; Landstuhl 
Regional Medical Center, Germany; National Naval Medical Center, 
Bethesda, MD; James A. Haley Veterans Hospital, Tampa, FL; Naval 
Medical Center San Diego, San Diego, CA; Camp Pendleton, San Diego, CA; 
Minneapolis Veterans Affairs Medical Center, Minneapolis, MN; Veterans 
Affairs Palo Alto Health Care System, Palo Alto, CA; Fort Bragg, NC; 
Fort Carson, CO; Fort Hood, TX; Camp Lejeune, NC; Fort Campbell, 
Kentucky; Boston VA, Massachusetts; Virginia Neurocare, Inc., 
Charlottesville, VA; Hunter McGuire Veterans Affairs Medical Center, 
Richmond, VA; Wilford Hall Medical Center, Lackland Air Force Base, TX; 
Brooks Army Medical Center, San Antonio, TX; Laurel Highlands, 
Johnstown, PA; DVBIC-Johnstown, PA.
---------------------------------------------------------------------------
    I am here today to ask for your support for $370 million in the 
Defense Appropriations bill for fiscal year 2010 for the DCoE which 
includes $50 million specifically for a consortium of private sector 
entities to partner with DCoE and DVBIC to move the standard of care 
for brain injury forward, as well as $20 million for education and 
training of brain injury specialists.
    As you know, traumatic brain injury (TBI) is the ``signature 
injury'' of the conflicts in Iraq and Afghanistan, affecting some 
360,000 service personnel and some 300,000 have experienced post 
traumatic stress disorder (PTSD). Blast-related injuries and extended 
deployments are contributing to an unprecedented number of warriors 
suffering from traumatic brain injury (ranging from mild, as in 
concussion, to severe, as in unresponsive states of consciousness) and 
psychological conditions such as anxiety, depression, PTSD and suicide.
    The Rand Corporation, DOD, and CDC report that the long term 
effects and consequences of TBI, PTSD, and other psychological health 
issues will cost billions of dollars in care, treatment, and 
rehabilitation unless action is taken. The Rand Report estimates that 
PTSD-related and major depression-related costs could range from a 1-
year cost of $25,000 in mild cases to $408,000 for severe cases. The 
total cost for TBI-related health issues is in the billions of dollars 
and does not include the lost productivity or the deleterious effects 
to quality of life. In reality, it has been well-established that the 
health care needs of our young service members returning from OIF/OEF 
are not being met and are overwhelming the current veterans' health 
care system that has been primarily designed to care for elderly 
veterans.
    In 2005, the Conemaugh International Symposium, brought together 60 
of the world's finest neuroscientists and physicians from across the 
United States and from 12 other nations, including representatives from 
the National Institutes of Health (NIH), CDC, DOD, Veterans 
Administration (VA), and the National Institute for Disability and 
Rehabilitation Research, resulting in a strong recommendation for 
United States Congressional action to significantly improve outcomes in 
wounded warriors with traumatic brain injury. In addition, the 
Symposium report called for the creation of Seven Centers of Excellence 
in TBI treatment, research and training to be located across the 
Nation.
    A second international meeting on Disorders of Consciousness 
produced the Mohonk Report, in which scientists, ethicists, physicians, 
and family members from across the United States, as well as leading 
neuroscientists from Israel, Europe, and South America, collaborated to 
prepare an action report to Congress that focused on Improving Outcomes 
for Individuals with Disorders of Consciousness. The report called on 
Congress to fund a network of highly specialized centers, utilizing the 
latest technology available, to significantly improve outcomes for 
wounded warriors living in the minimally conscious state.
    A third follow-up meeting of experts, the Symposium on Severe and 
Minimally Conscious Wounded Warriors, occurred in the spring of 2008, 
in Johnstown, Pennsylvania. This meeting rendered a Feasibility Study 
on treating wounded warriors with disorders of consciousness which was 
subsequently delivered to the DVBIC for consideration.
    Based upon the history and results of these international meetings, 
the International Conference on Behavioral Health and Traumatic Brain 
Injury was convened in October 2008, hosted by Congressmen Bill 
Pascrell and Todd Platts, co-chairs of the Congressional Brain Injury 
Task Force, and sponsored by the DOD, DVBIC, and numerous other groups 
to prepare recommendations for action and funding by the United States 
Congress.
    The Executive Report from this meeting of over 100 international 
experts generated critical recommendations in the areas of Research, 
Education, Assessment, Family, and Treatment. The authors of the report 
concluded: ``The over-arching goal is to provide our wounded warriors 
and their families with what they deserve: the best health care and 
support services that our state-of-the-art science and medicine have to 
offer. In doing so, we will create a standard of excellence in military 
health care, research, and training that will serve as an exemplary 
model for the rest of the world.'' The report requested from Congress a 
total of $350 million in funding to achieve that goal.
    On March 12, 2009 representatives of the International Conference 
unveiled a Report to Congress (the Paterson Report) calling for action 
now to improve the care of wounded warriors.
    The Paterson Report noted:
  --new advances in brain imaging are revealing that even those with 
        the most severe levels of TBI have preserved brain tissue which 
        can be used through deep brain electrical stimulation to help 
        the individual wake up and regain function;
  --new advanced technologies can help those wounded warriors with loss 
        of sight regain some vision;
  --new cognitive protheses can help those wounded warriors with severe 
        memory loss regain the ability to plan and remember;
  --neutraceuticals can help restore parts of damaged brains; and
  --new screening and early automated psychological tools and tests can 
        help detect those at risk for PTSD and other psychological 
        disorders.
    What we need to do now is to make these advanced technologies and 
treatments that are available in the private sector available to our 
wounded warriors, and we need to offer services and clinics in our 
rural areas through telemedicine and tele-rehabilitation.
                          treat now consortium
    Our funding request includes $50 million specifically for the work 
of a consortium of private sector providers (called TREAT NOW: 
Treatment and Research Excellence Achieved Today: Neuroscientists for 
Our Warriors) who have come together to improve the standard of care of 
wounded warriors as soon as possible.
    For those warriors who have sustained the most severe TBIs, the 
recommendations from the Reports of the Aspen and Mohonk Meetings are 
not being followed. Thus, the current standard of care for these 
warriors is inconsistent, clinically unreliable, and not maximally 
effective. The exact number of these wounded warriors from Operation 
Iraqi Freedom (OIF) and Operation Enduring Freedom (OEF) who suffer 
from severe disorders of consciousness (SDOC) is unknown. The DVBIC 
reports that 4 percent of the 15,000 TBI patients examined and/or 
treated by their Center suffer from SDOC. This is an underestimation of 
the true number of warriors because it does not include those seen or 
treated at other military hospitals and programs and the dependents of 
wounded warriors and veterans.
    Serving under the auspices of the DCoE, the Consortium will 
complement, and partner with the DVBIC and the National Intrepid Center 
of Excellence (NICoE) in their vision and commitment to improve the 
current system of medical care and support for troops sustaining severe 
TBIs. The partners include some of the best scientists, researchers and 
rehabilitation specialists from around the United States. While 
geographically diverse, participating members are heavily invested in 
improving tele-health technologies. There is no project like it and DOD 
Health Affairs is interested in moving it forward.
                              tbi vs. ptsd
    Much has been accomplished by the DCoE in its efforts to improve 
public awareness of TBI and psychological disorders, address the stigma 
associated with such conditions, and help connect family, caregivers 
and wounded warriors with appropriate information, treatment and 
services.
    There are concerns however about an overemphasis on psychological 
disorders that affects the public perception of TBI. Many in the brain 
injury medical and family support community do not want to see TBI 
becoming considered a ``psychological disorder.'' This concern comes 
from the fact that in no other health care system are psychological 
issues and brain injury combined--not in the DVA, NIH, or any 
university medical program. Brain injury specialists and family 
advocates want to be assured that as much focus and funding is being 
put into the science of brain injury rehabilitation and treatment as is 
being put into the psychological effects of combat. Of the 25 programs 
funded under the Congressionally Directed Medical Research Program with 
2007 supplemental funding, only 8 were for brain injury.
    We must not lose sight of the actual cause of subsequent 
psychological problems. TBI can lead to depression and suicide but TBI 
is not itself a psychological disorder. Treatments for TBI and PTSD are 
not only different, but can be contraindicated and make the patient 
worse. In working with the Wounded Warrior Project, I have heard many 
stories of warriors with brain injury not getting the right treatment 
because they were sent to a psychologist instead of a neuropsychologist 
and given drugs for PTSD that exacerbated the effects of TBI.
    There are harmful reports like the USA Today article on April 15, 
2009 \2\, in which Cols. Charles Hoge and Carl Castro argue that the 
DOD and DVA are overemphasizing mild TBI among troops and that the 
focus should be more on the symptoms rather than the cause. Citing the 
Hoge-Castro article in The New England Journal of Medicine, USA Today 
reports that ``symptoms blamed on TBI after troops return home likely 
are due to depression, PTSD or substance abuse . . . and overemphasis 
on mild TBI keeps troops with those conditions from being properly 
treated . . . most troops who suffered a concussion in battle recovered 
within days of the injury.'' This is very damaging to the efforts to 
improve public awareness of TBI.
---------------------------------------------------------------------------
    \2\ Zoroya, Gregg, ``Officials: Troops Hurt by Brain Injury 
Focus,'' USA Today, April 15, 2009.
---------------------------------------------------------------------------
    A plethora of leading brain injury specialists dispute Hoge and 
Castro's claims and urge caution in making changes to screening 
procedures. David Hovda, PhD, Director of the Brain Injury Research 
Center at UCLA, strongly recommended continuing screening, saying that 
without it, troops may develop long-term neurological problems after 
numerous concussions, similar to former professional football players. 
Research conducted at the Defense Advanced Research Projects Agency 
(DARPA) shows that the most common cause of TBI in combat, blast 
injury, causes a range of injury from mild (concussion) to severe.
    I urge your Committee to recommend that DOD continue its practice 
of screening which is based on the best science available and offers 
troops the best chance at recovery.
    In addition the Paterson Report recommended that the National 
Institutes of Health and the DOD convene a ``Consensus Conference'' to 
clearly define mild TBI and PTSD and establish specific standards for 
treatment. The Report recommended that definitions and treatment 
standards be evidence based and incorporate a thorough review of 
available treatment programs and outcome measures. The Report urged the 
Consensus Conference to strive to equitably involve all stakeholders.
    The confusion has devastating effects when it results in wounded 
warriors not seeking treatment. DVBIC officials have reported that 
troops are now less likely to seek help for mild brain injury if it is 
considered to be a ``psychological disorder.''
    President Obama made a speech last week regarding health care 
reform and urged that we ``fix what's broken and move forward with what 
works.'' The same should be said about improving DOD's health system. 
While the increase in suicides has brought public attention to the 
stresses of combat, the complex issues of TBI should not get lost or 
overlooked. The research and treatment for TBI must remain distinct and 
the focus of the DVBIC must be preserved. DVBIC needs to continue to be 
recognized as the center of excellence in providing brain injury care 
and research.
    $20 million for education and training brain injury specialists
    We recommend an additional $20 million be appropriated specifically 
for training medical students in brain injury diagnosis, treatment and 
rehabilitation. We need more brain injury specialists in the medical 
field. More neurologists, neuropsychologists and physiatrists and 
rehabilitation specialists should be educated by the Uniformed Services 
University for the Health Sciences.
    In summary, we respectfully request $370 million for fiscal year 
2010 to enhance ongoing projects of the DCoE and to develop new 
initiatives to improve the care of wounded warriors and support for 
their families. We need to assure that our brave men and women who are 
injured in the course of duty are given every possible opportunity for 
the best medical care, rehabilitation and community reentry assistance 
that we as a Nation can provide.
    Thank you for your consideration of this request to help improve 
the care of our wounded warriors.

    Chairman Inouye. Our next witness is the director of 
legislation, Association of the United States Navy, Captain Ike 
Puzon.
STATEMENT OF CAPTAIN IKE PUZON, UNITED STATES NAVY 
            (RET.), DIRECTOR OF LEGISLATION, 
            ASSOCIATION OF THE UNITED STATES NAVY
    Captain Puzon. Mr. Chairman, Mr. Vice Chairman, and the 
Association of the United States Navy is grateful to have the 
opportunity to testify today.
    Our newly transitioned association is now focused on 
equipment, force structure, policy issues, manpower issues, for 
a total force.
    Your unwavering support for our deployed servicemembers in 
Iraq and Afghanistan and the worldwide fight against terrorism 
is of crucial importance. AUSN would like to highlight three 
areas of importance.
    The C-40--first, the C-40 aircraft originally listed in the 
unfunded list, to replace critically overused C-20G aircraft, 
and to replace overaged and overused C-9 transport, both are 
playing a vital role in Iraq and Afghanistan and worldwide 
contingency operations.
    Second, the EF-18 Growler aircraft for U.S. Navy and U.S. 
Navy Reserves, specifically in the Navy Reserve, to replace 
aged aircraft in a Maryland-based squadron that is currently 
deployed to Iraq and Afghanistan.
    And finally, number three, stabilization of authorized end-
strength for active Navy and Navy Reserve.
    In recent years, the Pentagon has recommended the repeal of 
separate budget requests for procurement Reserve equipment. A 
combined appropriations for each service does not guarantee 
needed equipment for National Guard and Reserve components. We 
do not agree with the Pentagon's position on this issue, and 
ask that the subcommittee continue to provide separate 
appropriations against National Guard and Reserve equipment.
    For the foreseeable future, we must be realistic about what 
the unintended consequences are for a very high rate of usage 
for active and Reserve components. Our active duty Navy and the 
current Reserve members are pleased to making it--a significant 
contribution to the Navy's defense as operational forces. 
However, the reality of it all is that the added stress on the 
total force could pose long-term consequences for our country 
in terms of recruiting, retention, and family support. The Navy 
has a total of over 10,000 people--personnel deployed in 
Operation Iraqi Freedom (OIF). The Navy Reserve continues to 
mobilize 4,500 sailors for the support of the ongoing global 
war on terror (GWOT). Your Navy is engaged throughout.
    We recognize that there are many issues that need address 
by the subcommittee. We are perplexed by the short Navy 
unfunded program list. History points to a larger list. 
Overwhelmingly, we hear that--discussions and requirements for 
more and better equipment for training total force is 
necessary.
    In summary, we believe the subcommittee needs to address 
the following issues for total force, in the best interest of 
our national security: fund the C-40A for Navy Reserve and 
Navy, per previous supplementals, and we replace the C-9 
transport and the C-20G; fund the E/F-18 Growler; increase 
funding for the National Guard and Reserve equipment; and 
establish end-strength stabilization for the Navy and Navy 
Reserve.
    Thank you for your--opportunity.
    Chairman Inouye. Thank you very much, Captain Puzon.
    [The statement follows:]
                    Prepared Statement of Ike Puzon
    Mister Chairman and distinguished members of the Committee, the 
Association of the United States Navy is very grateful to have the 
opportunity to testify.
    Our newly transitioned association looks at equipment, force 
structure, policy issues, and manpower issues.
    We would like to thank this Committee for the on-going stewardship 
on the important issues of national defense and, especially, the 
reconstitution and transformation of the Navy. At a time of war, non-
partisan leadership sets the example.
    Your unwavering support for our deployed Service Members in Iraq 
and Afghanistan and the world-wide fight against terrorism and piracy 
is of crucial importance. AUSN would like to highlight some areas of 
emphasis.
  --C-40A Aircraft to replace critically overused C-20G in Hawaii and 
        Maryland; and, to replace over aged C-9 transports--both are 
        playing a vital role in Iraq and Afghanistan. They are not VIP 
        aircraft--but, can be used for such missions.
  --EF/A 18 Growler aircraft for U.S. Navy and U.S. Navy Reserve--
        specifically to replace aged aircraft in a Maryland based 
        squadron that is currently deployed to Iraq and Afghanistan.
  --C-130J aircraft--to meet the intra-theater needs of the Geographic 
        Commanders and Navy component commanders.
    These issues are in line with all previous years Navy and Navy 
Reserve unfunded list.
    As a Nation, we need to supply our service members (active duty and 
reserve) with the critical equipment and support needed for individual 
training, unit training, and combat.
    In recent years, the Pentagon has recommended the repeal of 
separate budget requests for procuring Reserve Equipment. A combined 
equipment appropriation for each service does not guarantee needed 
equipment for the National Guard and Reserve Components. For the Navy 
Reserve, this is especially true. We do not agree with the Pentagon's 
position on this issue and history has proven the requirements for 
NGREA, and we ask this committee to continue to provide separate 
appropriations against NG and RE requirements.
    In addition to equipment to accomplish assigned missions, AUSN 
believes that the Administration and Congress must make it a high 
priority to maintain, if not increase, the end strengths of already 
overworked, and perhaps even overstretched, military forces. This 
includes the Active Duty Navy & Navy Reserve. The Navy Reserve has 
always proven to be a highly cost-effective and superbly capable 
operational and surge force in times of both peace and war. At a 
minimum, the Navy Reserve should be stabilized since they are deployed 
with active forces in Iraq and Afghanistan.
    For the foreseeable future, we must be realistic about what the 
unintended consequences are from a high rate of usage. History shows 
that a Reserve force is needed for any country to adequately meet its 
defense requirements, and to enable success in offensive operations. 
Our Active Duty Navy and the current Reserve members are pleased to be 
making a significant contribution to the Nation's defense as 
operational forces; however, the reality of it all is that the added 
stress on the Reserve could pose long term consequences for our country 
in recruiting, retention, family and employer support. This issue 
deserves your attention in Family Support Programs, Transition 
Assistance Programs and for the Employer Support for the Guard and 
Reserve programs.
    At the same time, the Navy has a total of over 10,000 personnel 
deployed in OIF/OEF theaters; Navy Reserve continues to mobilize over 
4,500 Sailors in support for the on-going GWOT. Your Navy is engaged 
throughout the world in operations.
    Care must be taken that that tremendous reservoir of operational 
capability be maintained and not capriciously dissipated. Officers, 
Chief Petty Officers, and Petty Officers need to exercise leadership 
and professional competence to maintain their capabilities. There is a 
risk that they will not be able to do so in the present model of 
utilization of Navy Reserve and Active Duty IA utilizations.
    AUSN is perplexed by this year's Navy Unfunded Programs list 
provided by the Chief of Naval Operations. We fully support CNO's 
unfunded list. However, history points at a much larger unfunded list 
and the needs are there.
    Specific Equipment and Funding needs of the Navy Reserve include:
  --C-40 funding to replace dangerously aged C-9s. These are war 
        fighting logistic weapons systems. 2 Aircraft were programmed 
        for fiscal year 2009 supplemental, and 4 were programmed for 
        fiscal year 2009 funding. The Navy did not get these funded. We 
        have to replace aging C-9s to maintain Navy and Marine Corps 
        engagement in the GWOT.
    First:
  --It is the Navy's only world-wide intra-theater organic airlift, 
        operated by the U.S. Navy.
  --Navy currently operates 9 C-40As, in three locations: Fort Worth, 
        Jacksonville, San Diego.
  --These aircraft are needed for Hawaii, Maryland, Texas and 
        Washington units.
  --A pending CNA study--substantiates the requirements for 31-35 C-
        40As to replace aging C-9s.
    Second:
  --CNO, SECNAV, & DOD have supported the requirement for C-40As.
  --Commander, Naval Air Force 2007 Top Priority List stated the 
        requirement for at least 32 aircraft.
    Third:
  --Current average age of remaining C-9s that the C-40 replaces is: 38 
        years.
  --There will be no commercial operation of the C-9s or derivates by 
        2011.
  --C-9s can not meet the GWOT requirement, due to MC rates, and 
        availability of only 171 days in 2006.
  --Modifications required to make C-9s compliant with stage III Noise 
        compliance, and worldwide Communications/Navigation/
        Surveillance/Air Traffic Management compliance--are cost 
        prohibitive.
  --There are growing concerns about the availability and Mission 
        Capability rates of the C-20Gs at Hawaii and Maryland units.
    Fourth:
  --737 Commercial Availability is slipping away, if we do not act now; 
        loss of production line positions in fiscal year 2008-09--due 
        to commercial demand would slip to 2013, and increase in DOD, 
        Service expenditures.
  --C-130J procurement funding for 6 C-130s for the Navy Reserve.
  --E/F-18 Growler procurement to replace aged and retiring EA-6B 
        aircraft at Maryland units, and for Active Duty Navy usage. 
        Currently the NR EA-6B unit provides 90 continuous detachments 
        in support of OIF/OEF.
  --A full range of Navy Expeditionary Command equipment.
    People join the Reserve Components to serve their country and 
operate equipment. Recruiting and retention issues have moved to center 
stage for all services and their reserve components. In all likelihood 
the Navy will not meet its target for new Navy Reservists and the Navy 
Reserve will be challenged to appreciably slow the departure of 
experienced personnel this fiscal year. We've heard that Reserve Chiefs 
are in agreement, expressing concern that senior personnel could leave 
when equipment is not available for training. Besides reenlistment 
bonuses which are needed, we feel that dedicated Navy Reserve equipment 
and Navy Reserve units are a major factor in recruiting and retaining 
qualified personnel in the Navy Reserve.
    Overwhelmingly, we have heard Reserve Chiefs and Senior Enlisted 
Advisors discuss the need and requirement for more and better equipment 
for Reserve Component training. The Navy Reserve is in dire need of 
equipment to keep personnel in the Navy Reserve and to keep them 
trained. We must have equipment and unit cohesion to keep personnel 
trained. This means--Navy Reserve equipment and Navy Reserve specific 
units with equipment.
                 the reserve component as a worker pool
    Issue: The view of the Reserve Component that has been suggested 
within the Pentagon is to consider the Reserve as of a labor pool, 
where Reservists could be brought onto Active Duty at the needs of a 
Service and returned, when the requirement is no longer needed. It has 
also been suggested that an Active Duty member should be able to rotate 
off active duty for a period, spending that tenure as a Reservist, 
returning to active duty when family, or education matters are 
corrected.
    Position: The Guard and Reserve should not be viewed as a 
temporary-hiring agency. Too often the Active Component views the 
recall of a Reservist as a means to fill a gap in existing active duty 
manning.
                          equipment ownership
    Issue: An internal study by the Navy has suggested that Naval 
Reserve equipment should be transferred to the Navy. At first glance, 
the recommendation of transferring Reserve Component hardware back to 
the Active component appears not to be a personnel issue. However, 
nothing could be more of a personnel readiness issue and is ill 
advised. Besides being attempted several times before, this issue needs 
to be addressed if the current National Security Strategy is to 
succeed.
    Position: The overwhelming majority of Reserve members join the RC 
to have hands-on experience on equipment. The training and personnel 
readiness of Reserve members depends on constant hands-on equipment 
exposure. History shows, this can only be accomplished through Reserve 
equipment, since the training cycles of Active Components are rarely if 
ever--synchronized with the training or exercise times of Reserve 
units. Additionally, historical records show that Reserve units with 
hardware maintain equipment at or higher than average material and 
often better training readiness. Current and future war fighting 
requirements will need these highly qualified units when the Combatant 
Commanders require fully ready units.
    Reserve and Guard units have proven their readiness. The personnel 
readiness, retention, and training of Reserve and Guard members will 
depend on them having Reserve equipment that they can utilize, 
maintain, train on, and deploy with when called upon. Depending on 
hardware from the Active Component, has never been successful for many 
functional reasons. The AUSN recommends the Committee strengthen the 
Reserve and Guard equipment appropriation in order to maintain 
optimally qualified and trained Reserve and Guard personnel.
    In summary, we believe the Committee needs to address the following 
issues for Navy and Navy Reservists in the best interest of our 
National Security:
  --Fund C-40A for the Navy Reserve, per the fiscal year 2009 
        Supplemental; we must replace the C-9s and replace the C-20Gs 
        in Hawaii and Maryland.
  --Fund 6 C-130Js for the Navy Reserve, per the CNO unfunded list.
  --Moratorium on Active Duty end-strength cuts.
  --Establish an End-strength cap of 68,000 as a floor for end strength 
        to Navy Reserve manpower--providing for surge-ability and 
        operational force.
  --Increase funding for Naval Reserve equipment in NGREA
    --E/F-18 Growler aircraft for Navy and Navy Reserve units, 
            especially the NR unit stationed in Maryland.
    --Explosive Ordnance Disposal Equipment
    We thank the committee for consideration of these tools to assist 
the Navy and Navy Reserve in an age of increased sacrifice and 
utilization of these forces.
    Thank you for your ongoing support of the Nation, the Armed 
Services, The United States Navy, The United States Navy Reserve, and 
the fine men and women who defend our country.

    Chairman Inouye. Our next witness represents the 
Mesothelioma Applied Research Foundation, Ms. Mary Hesdorffer.
STATEMENT OF MARY HESDORFFER, NURSE PRACTITIONER, 
            MEDICAL LIAISON, MESOTHELIOMA APPLIED 
            RESEARCH FOUNDATION (MARF)
    Ms. Hesdorffer. Good morning, distinguished members of the 
U.S. Senate Defense Appropriations Subcommittee. Thank you for 
the opportunity to address you on a cruel cancer that kills our 
veterans.
    My name is Mary Hesdorffer, I'm a nurse practitioner, and 
I'm the medical liaison to the Mesothelioma Applied Research 
Foundation.
    Your subcommittee has recognized the strong connection 
between mesothelioma and military service. Because asbestos was 
heavily used all over Navy ships, millions of servicemen and 
shipyard workers were exposed. One study found that one-third 
of today's meso victims were exposed on U.S. Navy ships, or 
shipyards, like Pearl Harbor, Puget Sound, and Groton.
    A renowned meso researcher from Lake Forest just shared 
with me, the other night, that the rate of veterans who have 
been exposed to asbestos have a sevenfold increase in 
mesothelioma over the normal population. Dangerous exposures 
continue today, and have been reported among the troops in Iraq 
and Afghanistan, and there's also grave concern for our first 
responders to 9/11. My son just returned from Iraq, and he was 
a responder at 9/11, so I have a deep concern over these 
exposures.
    Asbestos is common in buildings, including the utility 
tunnels right below us. For all those who develop mesothelioma 
as a result, the only hope is that we will develop an effective 
treatment, yet mesothelioma has virtually received no Federal 
funding. Therefore, treatments have not advanced. We only have 
one approved treatment for this disease; it takes a life 
expectancy of between 6 to 9 months to, now, 12.2 months.
    Your subcommittee has recognized the need and has taken the 
lead. For the past 2 years, you have directed DOD to spur 
research for meso by including it in the PR and RP. However, 
your leadership was thwarted this year. Thirty-eight 
mesothelioma research grants were submitted to the--for the 
review year for 2008, which demonstrates a huge interest in 
mesothelioma. But, while other diseases got six grants each, 
DOD is funding only one mesothelioma grant.
    It's critically needed, our research funding. The research 
with--Dr. Courtney Broaddus is one of the world's top meso 
experts, and she told us that, without this grant, she was 
going to have to close her lab. This really has salvaged her 
career.
    Going forward on an award rate of 2.6 percent is still not 
enough to encourage top researchers to apply, or new 
researchers to establish their careers in mesothelioma. The 
research will not advance, effective treatments will not be 
found. We believe that the subcommittee must make clear to DOD 
its intent to spur mesothelioma research by directing DOD to 
establish funding of $67 million to DOD for seven new programs, 
including a peer-reviewed cancer research program that does not 
currently include mesothelioma.
    It's a rapidly fatal, excruciatingly painful cancer, 
directly related to military service. We ask the subcommittee 
to appropriate DOD $5 million for a peer-reviewed cancer 
research program that will boost the long-neglected field of 
mesothelioma research, translating directly to saving lives and 
reducing suffering in veterans.
    Thank you.
    Chairman Inouye. I thank you very much, Ms. Hesdorffer.
    [The statement follows:]
                 Prepared Statement of Mary Hesdorffer
    Distinguished members of the U.S. Senate Defense Appropriations 
Subcommittee: Thank you for this opportunity to address a tragic 
disease that kills our veterans. My name is Mary Hesdorffer. I am a 
nurse practitioner with over a decade's experience in mesothelioma 
treatment and research, and am the Medical Liaison for the Mesothelioma 
Applied Research Foundation.
                         malignant mesothelioma
    Mesothelioma is an aggressive cancer caused by asbestos. It is 
among the most painful and fatal of cancers, as it invades the chest, 
destroys vital organs, and crushes the lungs.
            the ``magic mineral''--exposures were widespread
    From the 1930s through the 1970s asbestos was used all over Navy 
ships. Millions of servicemen and shipyard workers were exposed. Many 
of them are now developing mesothelioma, following the disease's long 
latency period.
                     mesothelioma takes our heroes
    These are the people who served our country's defense. Heroes like 
Admiral Elmo Zumwalt, Jr., Chief Naval Officer during Vietnam, 
Commander Harrison Starn, who served from World War II through Vietnam, 
and thousands of servicemen like USS Kitty Hawk Boilerman Lewis Deets, 
who volunteered for Vietnam at barely 18, all struck down by 
mesothelioma. Last year I testified about mesothelioma patient Bob 
Tregget, who was exposed to asbestos aboard a nuclear submarine from 
1965 to 1972. Following grueling best-available treatment, Bob was 
recurrent and in extreme untreatable pain. But he was hanging on, 
hoping the next treatment advance would come soon enough to help him. 
It didn't and Bob passed away a few months ago.
    Almost 3,000 more Americans like Bob die each year of mesothelioma, 
and one study found that one-third were exposed on U.S. Navy ships or 
shipyards, lost through service to country just as if they had been on 
a battlefield.
    Many more are being exposed now. Asbestos exposures have been 
reported among the troops in Iraq and Afghanistan. There is grave 
concern for the heroic first responders from 9/11, including my son, 
who just returned from service in Iraq. Asbestos is common in 
buildings. The utility tunnels in this very building have dangerous 
levels. Even low-dose, incidental exposures cause mesothelioma. 
Minnesota Congressman Bruce Vento worked near an asbestos-insulated 
boiler in a summer college job. He died of mesothelioma in 2000. His 
wife Sue Vento testified before you in 2007. For all those who will 
develop mesothelioma as a result of these past or ongoing exposures, 
the only hope is that we will develop effective treatment.
                 mesothelioma funding has not kept pace
    Yet mesothelioma research has been overlooked. With the huge 
Federal investment in cancer research through the NCI, and $4.8 billion 
spent in biomedical research through the DOD Congressionally Directed 
Research Program since 1992, we are winning the war on cancer and many 
other diseases. But for mesothelioma, the National Cancer Institute has 
provided virtually no funding, in the range of only $1.7 to $3 million 
annually over the course of the last 6 years, and the DOD has not 
invested in any mesothelioma research despite the military-service 
connection. As a result, advancements in the treatment of mesothelioma 
have lagged far behind other cancers. In fact, for decades, there was 
no approved treatment better than doing nothing at all. Our veterans 
who develop mesothelioma have an average survival of only 4-14 months.
                           new opportunities
    But there is good news. Brilliant researchers are dedicated to 
mesothelioma. The FDA has now approved one drug which has some 
effectiveness, proving that the tumor is not invincible. Biomarkers are 
being identified. Two of the most exciting areas in cancer research--
gene therapy and anti-angiogenesis--look particularly promising in 
mesothelioma. The Meso Foundation has funded $6 million to support 
research in these and other areas. Now we need the Federal Government's 
partnership, to develop the promising findings into effective 
treatments.
                    committee's leadership thwarted
    Your committee has recognized the need and taken the lead. For the 
past 2 years (fiscal years 2008 and 2009), you have directed DOD to 
spur research for this service-related cancer by including it as an 
area of emphasis in the Peer Reviewed Medical Research Program.
    However, I have to report to you that unfortunately your leadership 
in acting to spur mesothelioma research has been thwarted. DOD just 
announced the results of the PRMRP program for fiscal year 2008. 
Thirty-eight mesothelioma research projects were submitted. This 
demonstrates the huge demand for mesothelioma research funding that we 
testified about and that you directed DOD to address. But while other 
diseases got six grants each, DOD (tentatively) funded only one 
researcher (Courtney Broaddus) for a mesothelioma project. This is a 
successful application rate of just 2.6 percent.
    This is critically-needed funding. Dr. Broaddus is one of the 
world's top mesothelioma researchers. Indeed she was president of the 
International Mesothelioma Interest Group from 1999 through 2002. She 
and her team were surviving on three now concluded grants from the Meso 
Foundation. This DOD grant salvaged career in mesothelioma research. 
(See attached 5/24/09 email from Dr. Broaddus to Meso Foundation 
Executive Director Chris Hahn.) We are extremely grateful that thanks 
to your leadership and the DOD's awarding this one grant this renowned 
researcher will not have to abandon her investment and expertise in 
mesothelioma. But 37 other researchers put in the time, effort and 
expense to gather preliminary data and apply, and then were rejected. 
What happens to them? Going forward, a success rate of just 2.6 percent 
will discourage top researchers from applying in mesothelioma; they 
will direct their effort and expertise into other, better funded 
cancers. Similarly, new researchers will not establish their careers in 
mesothelioma either. Mesothelioma research will not advance, effective 
treatments will not be found, and veterans and current members exposed 
to asbestos through their military service will be left without hope.
                         a dedicated investment
    Since the Committee's intent to spur mesothelioma research is not 
being executed through the PRMRP, we believe the Committee must respond 
by directing DOD to establish a dedicated mesothelioma program. For 
2009, Congress added dedicated funding for all of the following as new 
programs, in addition to the DOD's existing programs for Breast Cancer, 
Prostate Cancer, Ovarian Cancer, Neurofibromatosis, Tuberous Sclerosis 
Complex, and the Peer Reviewed Medical Research Program:
  --Autism Research Program, $8 million;
  --Gulf War Illness Research Program, $8 million;
  --Amyotrophic Lateral Sclerosis Research Program, $5 million;
  --Bone Marrow Failure Research Program, $5 million;
  --Multiple Sclerosis Research Program, $5 million;
  --Peer Reviewed Lung Cancer Research Program, $20 million;
  --Peer Reviewed Cancer Research Program, $16 million, restricted as 
        follows: $4 million for research of melanoma and other skin 
        cancers as related to deployments of service members to areas 
        of high exposure; $2 million for research of pediatric brain 
        tumors within the field of childhood cancer research; $8 
        million for genetic cancer research and its relation to 
        exposure to the various environments that are unique to a 
        military lifestyle; and $2 million for non-invasive cancer 
        ablation research into non-invasive cancer treatment including 
        selective targeting with nano-particles.
    All of these research areas warrant attention, but mesothelioma is 
a rapidly fatal, excruciatingly painful cancer directly related to 
military service. We ask the Committee to appropriate to DOD for fiscal 
year 2010 $5 million for a dedicated Mesothelioma Research Program or 
as a specific restriction within the Peer Reviewed Cancer Research 
Program. This will boost the long-neglected field of mesothelioma 
research, enabling mesothelioma researchers to build a better 
understanding of the disease and develop effective treatments. This 
will translate directly to saving lives and reducing suffering of 
veterans battling mesothelioma.
    We look to the Senate Defense Appropriations Subcommittee to 
provide continued leadership and hope to the servicemen and women and 
veterans who develop this cancer after serving our Nation. Thank you 
for the opportunity to provide testimony before the Subcommittee and we 
hope that we can work together to develop life-saving treatments for 
mesothelioma.

    Chairman Inouye. And now may I call upon the secretary 
treasurer of the American Society of Tropical Medicine and 
Hygiene, Dr. Jonathan Berman.
STATEMENT OF JONATHAN D. BERMAN, MD, Ph.D., COLONEL, 
            UNITED STATES ARMY (RET.), SECRETARY-
            TREASURER, AMERICAN SOCIETY OF TROPICAL 
            MEDICINE AND HYGIENE
    Dr. Berman. Mr. Chairman, ranking member, I welcome the 
opportunity to testify before you today on behalf of the 
American Society of Tropical Medicine and Hygiene, ASTMH.
    I commend this subcommittee for its focus on the vital 
issue of military infectious disease research, and the 
important role of that research in protecting troops deployed 
abroad.
    I am Dr. Jonathan Berman, secretary/treasurer of ASTMH, and 
a retired U.S. Army colonel.
    With nearly 3,500 members, ASTMH is the world's largest 
professional membership organization dedicated to the 
prevention and control of tropical diseases. We represent, 
educate, and support tropical medicine's scientists and 
clinicians. I want to talk to you today about the importance of 
funding for the DOD's infectious disease research and 
particularly malaria research.
    Malaria is one of the most serious health threats facing 
U.S. troops serving abroad. The U.S. military has, for decades, 
been on the forefront of global efforts to develop new 
antimalarial drugs and the world's first malaria vaccine. These 
research efforts are appropriately aimed at protecting and 
treating the warfighter, but they have important civilian 
applications, as well. Malaria is one of the greatest 
infectious-disease killers, and countless lives worldwide have 
been saved by antimalarial medicines developed in part or 
primarily by the DOD.
    Unfortunately, the parasite that causes malaria, like all 
microorganisms, is adaptive and develops resistance to drugs 
quickly. Until very recently, the military's first-line malaria 
therapeutic and prophylactic agent was mefloquine, a drug 
developed by military researchers to create a replacement for 
chloroquine, used soon after World War II.
    Mefloquine came into use in the 1980s, but parasites in 
Southeast Asia have already developed resistance to it, and 
resistance is now being identified in West Africa and South 
America, as well. Consequently, the military no longer 
considers mefloquine to be a first-line treatment, and at this 
time the military does not have an ideal malarial prophylactic 
agent. Ensuring that we can protect troops from malaria in 
future deployments means that we must continue to develop new 
drugs and an effective vaccine.
    Military malaria research funding represented approximately 
$23 million in fiscal year 2008, the most recent fiscal year 
for which figures are available. This level is not commensurate 
with the health threat malaria poses to military operations, 
therefore ASTMH respectively requests that the subcommittee 
increase funding for malaria research in fiscal year 2010 to 
$30 million, and provide subsequent annual increases, ending up 
at $77 million in funding in fiscal year 2015.
    Mr. Chairman and ranking member, thank you for providing me 
with the opportunity to speak today on behalf of ASTMH 
regarding this important but often overlooked defense issue.
    Chairman Inouye. Thank you very much, Dr. Berman.
    [The statement follows:]
                Prepared Statement of Jonathan D. Berman
    Overview: The American Society of Tropical Medicine and Hygiene 
(ASTMH) appreciates the opportunity to submit written testimony to the 
Senate Defense Appropriations Subcommittee. With nearly 3,300 members, 
ASTMH is the world's largest professional membership organization 
dedicated to the prevention and control of tropical diseases. We 
represent, educate, and support tropical medicine scientists, 
physicians, clinicians, researchers, epidemiologists, and other health 
professionals in this field.
    Because the military operates in and deploys to so many tropical 
regions, reducing the risk that tropical diseases present to servicemen 
and women is often critical to mission success. Malaria is a 
particularly important disease in this respect, because it is both one 
of the world's most common and deadly infectious diseases, and the U.S. 
military has a long history of deploying to regions endemic to malaria 
and suffering malaria casualties as a result.
    For this reason, we respectfully request that the Subcommittee 
expand funding for the Department of Defense's longstanding and 
successful efforts to develop new drugs, vaccines, and diagnostics 
designed to protect servicemen and women from malaria while deployed 
abroad. Specifically, we request that in fiscal year 2010, the 
Subcommittee ensure that the Department of Defense spends $30 million 
on malaria research and development. Furthermore, we request that the 
Subcommittee provide annual increases such that total military spending 
on malaria research is $76.5 million in fiscal year 2015. This funding 
will support ongoing efforts by military researchers to develop a 
vaccine against malaria and to develop new anti-malaria drugs to 
replace older drugs that are losing their effectiveness as a result of 
parasite resistance. Increased malaria research will help ensure that 
our soldiers, sailors, airmen, and marines are protected from this 
deadly disease when deployed to tropical regions.
    We very much appreciate the Subcommittee's consideration of our 
views, and we stand ready to work with Subcommittee members and staff 
on these and other important tropical disease matters.
                                 astmh
    ASTMH plays an integral and unique role in the advancement of the 
field of tropical medicine. Its mission is to promote global health by 
preventing and controlling tropical diseases through research and 
education. As such, the Society is the principal membership 
organization representing, educating, and supporting tropical medicine 
scientists, physicians, researchers, and other health professionals 
dedicated to the prevention and control of tropical diseases. Our 
members reside in 46 States and the District of Columbia and work in a 
myriad of public, private, and nonprofit environments, including 
academia, the U.S. military, public institutions, Federal agencies, 
private practice, and industry.
    The Society's long and distinguished history goes back to the early 
20th century. The current organization was formed in 1951 with the 
amalgamation of the National Malaria Society and the American Society 
of Tropical Medicine. Over the years, the Society has counted many 
distinguished scientists among its members, including Nobel laureates. 
ASTMH and its members continue to have a major impact on the tropical 
diseases and parasitology research carried out around the world.
    The central public policy priority of ASTMH is reducing the burden 
of infectious disease in the developing world. To that end, we advocate 
implementation and funding of Federal programs that address the 
prevention and control of infectious diseases that are leading causes 
of death and disability in the developing world, and which pose threat 
to U.S. citizens. Priority diseases include malaria, Dengue fever, 
Leishmaniasis, Ebola, cholera, and tuberculosis.
                    malaria and military operations
    Servicemen and women deployed from the U.S. military comprise a 
majority of the healthy adults traveling each year to malarial regions 
on behalf of the U.S. Government. For this reason, the U.S. military 
has long taken a primary role in the development of anti-malarial 
drugs, and nearly all of the most effective and widely used anti-
malarials were developed in part by U.S. military researchers. Drugs 
that have saved countless lives throughout the world were originally 
developed by the U.S. military to protect troops serving in tropical 
regions during WWII, the Korean War, and the Vietnam War.
    Fortunately, in recent years the broader international community 
has stepped up its efforts to reduce the impact of malaria in the 
developing world, particularly by reducing childhood malaria mortality, 
and the U.S. military is playing an important role in this broad 
partnership. But military malaria researchers are working practically 
alone in the area most directly related to U.S. national security: 
drugs and vaccines designed to protect or treat healthy adults with no 
developed resistance to malaria who travel to regions endemic to the 
disease. These drugs and vaccines would benefit everyone living or 
traveling in the tropics, but are particularly essential to the United 
States for the protection of forces from disease during deployments.
    Unfortunately, the prophylaxis and therapeutics currently given to 
U.S. servicemen and women are losing their effectiveness. During World 
War II, the Korean War, and Vietnam, the quinine-based anti-malaria 
drug chloroquine was the chemoprophylaxis and therapy of choice for the 
U.S. military. Over time, however, the malaria parasite developed 
widespread resistance to choloroquine, making the drug less effective 
at protecting deployed troops from malaria. Fortunately, military 
researchers at the Walter Reed Army Institute of Research (WRAIR) 
achieved the scientific breakthroughs that led to the development of 
mefloquine, which quickly replaced chloroquine as the military's front-
line drug against malaria.
    The malaria parasite has consistently demonstrated a notorious 
ability to quickly become resistant to new drugs, and the latest 
generation of medicines is no exception. Malaria parasites in Southeast 
Asia have already developed significant resistance to mefloquine, and 
resistant strains of the parasite have also been identified in West 
Africa and South America. In addition, there are early indications that 
parasite populations in southeast Asia may already be developing 
limited resistance to arteminisin, currently the most powerful anti-
malarial available. Indeed, the most deadly variant of malaria--
Plasmodium falciparum--is believed by the World Health Organization to 
have become resistant to ``nearly all antimalarials in current use.'' 
This resistance is not yet universal among the global Plasmodium 
falciparum population, with parasites in a given geographic area having 
developed resistance to some drugs and not others. But the sheer speed 
with which the parasite is developing resistance to mefloquine and 
arteminisin--drugs developed in the 1970s and 1980s--reminds us that 
military malaria researchers cannot afford to rest on their laurels. 
Developing new anti-malarials as quickly as the parasite becomes 
resistant to existing ones is an extraordinary challenge, and one that 
requires significant resources. Without new anti-malarials to replace 
existing drugs as they become obsolete, U.S. military operations in 
regions endemic to malaria may be compromised.
    Unfortunately, our limited ability to protect forces from malaria 
infection is not hypothetical: overseas operations are already being 
impacted. A 2007 study by Army researchers found that from 2000 through 
2005, at least 423 U.S. service members contracted malaria while 
deployed overseas, with the vast majority of these cases the result of 
deployments to South Korea (where malaria has recently remerged along 
the demilitarized zone with North Korea), Afghanistan and, to a lesser 
extent, Iraq. Notably, none of these countries are thought of by 
experts as being especially dangerous in terms of malaria, as opposed 
to the many countries in Sub-Saharan Africa and Southeast Asia where 
malaria is much more prevalent, and where more deadly strains of the 
parasite thrive. For example, a 2003 peacekeeping operation in Liberia 
resulted in a 44 percent malaria infection rate among Marines who spent 
at least one night ashore.
    Clearly, U.S. service members are insufficiently protected from 
malaria. The reasons for this are many, and include drug resistance as 
well as ongoing issues with compliance by soldiers who have difficulty 
maintaining a malaria prophylaxis regimen under combat conditions, or 
who have contraindications to the use of mefloquine or other drugs.\1\ 
Regardless of the cause for continuing vulnerability to malaria, 
however, the outlook is the same: until a malaria vaccine is finally 
developed, ensuring the safety and health of U.S. troops deploying to 1 
of the more than 100 countries where malaria is endemic will require 
the constant development of new malaria drugs, in a race against the 
parasite's ability to develop drug resistances.
---------------------------------------------------------------------------
    \1\ The aforementioned 2007 Army study found that of 11,725 active 
duty Army personnel deployed to Afghanistan during the study period, 
9.6 percent had contraindications to the use of mefloquine, the Army's 
first-line malaria treatment.
---------------------------------------------------------------------------
    To ensure that as many American soldiers as possible are protected 
from tropical and other diseases, Congress provides funding each year 
to support Department of Defense programs focused on the development of 
vaccines and drugs for priority infectious diseases. To that end, the 
Walter Reed Army Institute of Research and the Naval Medical Research 
Center coordinate one of the world's premier tropical disease research 
programs. These entities contributed to the development of the gold 
standard for experimental malaria immunization of humans, and the most 
advanced and successful drugs current being deployed around the world.
    The need to develop new and improved malaria prophylaxis and 
treatment for U.S. service members is not yet a crisis, but it could 
quickly become one if the United States were to become involved in a 
large deployment to a country or region where malaria is endemic, 
especially sub-Saharan Africa. Fortunately, a comparatively tiny amount 
of increased support for this program would restore the levels of 
research and development investment required to produce the drugs that 
will safeguard U.S. troops from malaria. In terms of the overall DOD 
budget, that malaria research program's funding is small--approximately 
$23.1 million in fiscal year 2008--but very important. Cutting funding 
for this program would deal a major blow to the military's work to 
reduce the impact of malaria on soldiers and civilians alike, thereby 
undercutting both the safety of troops deployed to tropical climates, 
and the health of civilians in those regions.
                  fiscal year 2010 dod appropriations
    To protect U.S. military personnel, research must continue to 
develop new anti-malarial drugs and better diagnostics, and to identify 
an effective malaria vaccine appropriate for adults with no developed 
resistance to malaria. Much of this important research currently is 
underway at the Department of Defense. Additional funds and a greater 
commitment from the Federal Government are necessary to make progress 
in malaria prevention, treatment, and control.
    In fiscal year 2008, the Department of Defense spent only $23.1 
million on malaria research, despite the fact that malaria historically 
has been a leading cause of troop impairment and continues to be a 
leading cause of death worldwide. As the 2006 Institute of Medicine 
report Battling Malaria: Strengthening the U.S. Military Malaria 
Vaccine Program noted, ``Malaria has affected almost all military 
deployments since the American Civil War and remains a severe and 
ongoing threat.'' ASTMH agrees that malaria remains a severe and 
ongoing threat to U.S. military deployments to countries and regions 
endemic to malaria, and we believe that increased support for efforts 
to reduce this threat is warranted. A more substantial investment will 
help to protect American soldiers and potentially save the lives of 
millions of individuals around the world.
    Therefore, we request that the Subcommittee take support a fiscal 
year 2010 Department of Defense malaria research funding level of $30 
million. Furthermore, we request that the Subcommittee provide annual 
increases to this account such that total military spending on malaria 
research is $76.5 million in fiscal year 2015.
    By way of comparison with this request, in March of 2007 the 
Department of Defense estimated that it would spend $23.1 million on 
malaria research in fiscal year 2008. Unfortunately, neither an 
estimated level of fiscal year 2009 spending nor a fiscal year 2010 
request is available, because the Department of Defense does not 
typically report these numbers. However, recent funding trends suggest 
that military spending on research in this vital area is falling 
steadily.
    The role of infectious disease in the success or failure of 
military operations is often overlooked, but even a cursory review of 
U.S. and world military history underscores the fact that keeping 
military personnel safe from infectious disease is critical to mission 
success. The drugs and prophylaxis used to keep our men and women safe 
from malaria during previous conflicts in tropical regions are no 
longer reliable. Ensuring the safety of those men and women in future 
conflicts and deployments will require research on new anti-malaria 
tools. Thank you for your attention to this matter. We appreciate the 
opportunity to share our views, and please be assured that ASTMH stands 
ready to serve as a resource on this and any other tropical disease 
policy matters.

    Our next witness is the senior vice president for public 
policy of The Leukemia & Lymphoma Society, Mr. George Dahlman.
STATEMENT OF GEORGE DAHLMAN, SENIOR VICE PRESIDENT FOR 
            PUBLIC POLICY, THE LEUKEMIA & LYMPHOMA 
            SOCIETY
    Mr. Dahlman. Thank you very much, Mr. Chairman and Senator 
Cochran.
    I am George Dahlman, I'm pleased to appear today on behalf 
of The Leukemia & Lymphoma Society, and all the thousands of 
blood cancer patients we represent.
    As you know, there have been impressive strides in blood 
cancers--that's leukemia, lymphoma, myeloma, and some others--
but, there is a lot of work to be done, and we believe that the 
public/private partnership that's part of the DOD's 
congressionally directed medical research program is an 
important part of that effort, and should be strengthened.
    The Leukemia & Lymphoma Society, along with its partners, 
believe that this is especially important for the Department of 
Defense to address. First, research in blood-related cancers 
has significant relevance to the Armed Forces because the 
incidence of these cancers is substantially higher among 
individuals with chemical and nuclear exposure. Higher 
incidences of leukemia have been substantiated in extreme 
nuclear incidents in both military and civilian populations, 
and individual exposures to chemical agents, such as Agent 
Orange in the Vietnam war, caused an increased risk of 
contracting lymphoid malignancies.
    And now we're seeing the applicability of blood cancer 
research played out once again in Iraq and Afghanistan as U.S. 
service personnel face consequences of burn pits and the blood 
cancers that have been reported.
    DOD research on blood cancers addresses the importance of 
preparing civilian and military exposure to the weapons being 
developed by several hostile nations, and aid in the research 
of all cancers.
    Mr. Chairman, and members of the subcommittee, with all due 
respect to our colleagues fighting a broad range of 
malignancies that are represented in this program, and 
certainly not to diminish their significance, a cancer research 
program designed for application of military and national 
security needs would invariably begin with a strong blood-
cancer research foundation. And recognizing that fact and the 
opportunity this research represents, a bipartisan group of 48 
Members of Congress recently requested that the program be 
instated for $25 million, and be expanded to all blood cancers.
    Furthermore, we respectfully request that funding be 
dedicated to a collaborative, public/private effort between the 
United States Military Cancer Institute, The Leukemia & 
Lymphoma Society, and a blue-ribbon panel of scientific 
academicians.
    Chairman Inouye, as the cosponsor of Senate Bill 51, which 
authorizes the U.S. Military Cancer Institute, surely you 
recognize that the USMCI has over 9 million electronic medical 
records detailing the health histories of servicemen and women 
and their families. The military also has serum and tissue 
specimens from these individuals stored, as a routine step in 
their healthcare. These records and samples together provide a 
unique base that can power blood cancer research relevant to 
the military environment and lifestyle in a way that is not 
possible for any other population. A joint effort, tapping the 
expertise of both the USMCI and The Leukemia & Lymphoma Society 
represents a unique opportunity to identify valuable research 
opportunities and state-of-the-art technology that can address 
significant questions on the origins and diagnosis of blood 
cancers.
    And I would just add, Senator Inouye, it seems odd that 
there is this disconnect between the USMCI, on the one hand, 
that studies cancer, and the cancer programs that are done 
through the CDMRP, as part--at Fort Dietrich--these two groups 
do not communicate with one another.
    The Leukemia & Lymphoma Society strongly endorses and 
enthusiastically supports an effort to pursue this project, and 
respectfully urges the subcommittee to include this funding in 
the fiscal year 2010 defense appropriations bill.
    Thank you.
    Chairman Inouye. Thank you very much, Mr. Dahlman.
    [The statement follows:]
                  Prepared Statement of George Dahlman
                              introduction
    Mr. Chairman and members of the committee, my name is George 
Dahlman, Senior Vice President, Public Policy for The Leukemia & 
Lymphoma Society. I am pleased to appear today and testify on behalf of 
the Society and the more than 900,000 Americans currently living with 
blood cancers and the 135,000 who will be diagnosed with one this 
year--recently some of whom have been right here in the Senate 
Furthermore, every 10 minutes, someone dies from one of these cancers--
leukemia, lymphoma, Hodgkin's disease and myeloma.
    During its 60-year history, the Society has been dedicated to 
finding a cure for the blood cancers, and improving the quality of life 
of patients and their families. The Society has the distinction of 
being both the nation's second largest private cancer organization and 
the largest private organization dedicated to biomedical research, 
education, patient services and advocacy as they pertain to blood 
cancers.
    Our central contribution to the search for cures for the blood 
cancers is providing a significant amount of the funding for basic, 
translational and clinical research. In 2009, we will provide 
approximately $70 million in research grants. In addition to our 
research funding role, we help educate health care and school 
professionals as needed and provide a wide range of services to 
individuals with a blood cancer, their caregivers, families, and 
friends through our 64 chapters across the country. Finally, we 
advocate responsible public policies that will advance our mission of 
finding cures for the blood cancers and improving the quality of life 
of patients and their families.
    We are pleased to report that impressive progress is being made in 
the effective treatment of many blood cancers, with 5-year survival 
rates doubling and even tripling over the last two decades. More than 
90 percent of children with Hodgkin's disease now survive, and survival 
for children with acute lymphocytic leukemia and non-Hodgkin's lymphoma 
has risen as high as 86 percent.
    Just 7 years ago, in fact, a new therapy was approved for chronic 
myelogenous leukemia, a form of leukemia for which there were 
previously limited treatment options, all with serious side-effects--5-
year survival rates were just over 50 percent. Let me say that more 
clearly, if 8 years ago your doctor told you that you had CML, you 
would have been informed that there were limited treatment options and 
that you should get your affairs in order. Today, those same patients 
have access to this new therapy, called Gleevec, which is a so-called 
targeted therapy that corrects the molecular defect that causes the 
disease, and does so with few side effects. Now, 5-year survival rates 
are as high as 96 percent for patients newly diagnosed with chronic 
phase CML.
    The Society funded the early research that led to Gleevec's 
approval, as it has contributed to research on a number of new 
therapies. We are pleased that we played a role in the development of 
this life-saving therapy, but we realize that our mission is far from 
realized. Many forms of leukemia, lymphoma and myeloma still present 
daunting treatment challenges. There is much work still to be done, and 
we believe that the research partnership between the public and private 
sectors--as represented in the Department of Defense's Congressionally 
Directed Medical Research Program--is an integral part of that 
important effort and should be further strengthened.
         the grant programs of the leukemia & lymphoma society
    The grant programs of the Society have traditionally been in three 
broad categories: Career Development Program grants, Translational 
Research Program grants, and Specialized Centers of Research Program 
grants. In our Career Development Program, we fund Scholars, Special 
Fellows, and Fellows who are pursuing careers in basic or clinical 
research. In our Translational Research Program, we focus on supporting 
investigators whose objective is to translate basic research 
discoveries into new therapies.
    The work of Dr. Brian Druker, an oncologist at Oregon Health 
Sciences University and the chief investigator responsible for 
Gleevec's development, was supported by a Translational Research 
Program grant from the Society.
    Our Specialized Centers of Research grant program is intended to 
bring investigators together to form new research teams focused on the 
discovery of innovative approaches to treating and/or preventing 
leukemia, lymphoma, and myeloma. The awards go to those groups that can 
demonstrate that their close interaction will create research synergy 
and accelerate our search for new and better treatments.
    Dr. Druker is certainly a star among those supported by the 
Society, but our support in the biomedical field is broad and deep. 
Through the Society's research grant programs, we are currently 
supporting more than 380 investigators at 134 institutions in 34 States 
and 12 other countries.
    Not content with these extensive efforts, the Society has launched 
a new Therapy Acceleration Program intended to proactively invest in 
promising blood cancer therapies that are in early stages of 
development by industry, but which may not have sufficient financial 
support or market potential to justify private sector investment. In 
addition, the Society will use this program to further facilitate the 
advancement of therapies in development by academic researchers who may 
not have the spectrum of resources or expertise to fulfill the 
potential of their discoveries. Directed early phase clinical trial 
support in this funding program will further advance new and better 
treatments for blood cancer treatments.
                    impact of hematological cancers
    Despite enhancements in treating blood cancers, there are still 
significant research challenges and opportunities. Hematological, or 
blood cancers pose a serious health risk to all Americans. These 
cancers are actually a large number of diseases of varied causes and 
molecular make-up, and with different treatments, that strike men and 
women of all ages. In 2009, more than 130,000 Americans will be 
diagnosed with a form of blood-related cancer and almost 65,000 will 
die from these cancers. For some, treatment may lead to long-term 
remission and cure; for others these are chronic diseases that will 
require treatments across a lifetime; and for others treatment options 
are still extremely limited. For many, recurring disease will be a 
continual threat to a productive and secure life.
    A few focused points to put this in perspective:
  --Taken together, the hematological cancers are fifth among cancers 
        in incidence and fourth in mortality.
  --Over 900,000 Americans are living with a hematological malignancy 
        in 2009.
  --Almost 65,000 people will die from hematological cancers in 2009, 
        compared to 160,000 from lung cancer, 41,000 from breast 
        cancer, 27,000 from prostate cancer, and 52,000 from colorectal 
        cancer.
  --Blood-related cancers still represent serious treatment challenges. 
        The improved survival for those diagnosed with all types of 
        hematological cancers has been uneven. The 5-year survival 
        rates are:
    --Hodgkin's disease, 87 percent;
    --Non-Hodgkin's lymphoma, 64 percent;
    --Leukemias (total), 50 percent;
    --Multiple Myeloma, 33 percent;
    --Acute Myelogenous Leukemia, 21 percent.
  --Individuals who have been treated for leukemia, lymphoma, and 
        myeloma may suffer serious adverse consequences of treatment, 
        including second malignancies, organ dysfunction (cardiac, 
        pulmonary, and endocrine), neuropsychological and psychosocial 
        aspects, and poor quality of life.
  --For the period from 1975 to 2005, the incidence rate for non-
        Hodgkin's lymphoma increased by 79 percent (increasing 2.6 
        percent/year).
  --Non-Hodgkin's lymphoma and multiple myeloma rank second and fifth, 
        respectively, in terms of increased cancer mortality since 
        1973.
  --Lymphoma is the third most common childhood cancer and the fifth 
        most common cancer among Hispanics of all races. Recent 
        statistics indicate both increasing incidence and earlier age 
        of onset for multiple myeloma.
  --Multiple myeloma is one of the top 10 leading causes of cancer 
        death among African Americans.
  --Hispanic children of all races under the age of 20 have the highest 
        rates of childhood leukemias.
  --Despite the significant decline in the leukemia and lymphoma death 
        rates for children in the United States, leukemia is still the 
        leading cause of death in the United States among children less 
        than 20 years of age, in females between the ages of 20 and 39 
        and males between the ages of 60-79.
  --Lymphoma is the fourth leading cause of death among males between 
        the ages of 20 and 39 and the fifth leading cause of death for 
        females older than 80. Overall, cancer is now the leading cause 
        of death for U.S. citizens younger than 85 years of age, 
        overtaking heart disease as the primary killer.
         possible environmental causes of hematological cancers
    The causes of hematological cancers are varied, and our 
understanding of the etiology of leukemia, lymphoma, and myeloma is 
limited. Extreme radiation exposures are clearly associated with an 
increased incidence of leukemias. Benzene exposures are associated with 
increased incidence of a particular form of leukemia. Chemicals in 
pesticides and herbicides, as well as viruses such as HIV and EBV, 
apparently play a role in some hematological cancers, but for most 
cases, no environmental cause is identified. Researchers have recently 
published a study reporting that the viral footprint for simian virus 
40 (SV40) was found in the tumors of 43 percent of NHL patients. These 
research findings may open avenues for investigation of the detection, 
prevention, and treatment of NHL. There is a pressing need for more 
investigation of the role of infectious agents or environmental toxins 
in the initiation or progression of these diseases.
                importance to the department of defense
    The Leukemia & Lymphoma Society, along with its partners in the 
American Society of Hematology, Aplastic Anemia & MDS International 
Foundation, International Myeloma Foundation, Lymphoma Research 
Foundation, and Multiple Myeloma Research Foundation, believe 
biomedical research focused on the hematological cancers is 
particularly important to the Department of Defense for a number of 
reasons.
    First, research on blood-related cancers has significant relevance 
to the armed forces, as the incidence of these cancers is substantially 
higher among individuals with chemical and nuclear exposure. Blood 
cancers are linked to members of the military who were exposed to 
ionizing radiation, such as those who occupied Japan after World War II 
and those who participated in atmospheric nuclear tests between 1945-
1962. Service members who contract multiple myeloma, non-Hodgkin's 
lymphoma, and leukemias other than chronic lymphocytic leukemia are 
presumed to have contracted these diseases as a result of their 
military service; hence, they are eligible to receive benefits from the 
Department of Veterans Affairs (VA).
    Secondly, in-country Vietnam veterans who contract Hodgkin's 
disease, chronic lymphocytic leukemia, multiple myeloma, or non-
Hodgkin's lymphoma are presumed to have contracted these diseases as a 
result of their military service and the veterans are eligible to 
receive benefits from the VA.
    Thirdly, the Institute of Medicine (IOM) has found that Gulf War 
veterans are at risk for contracting a number of blood cancers. For 
instance, the IOM has found sufficient evidence of a causal 
relationship between exposure to benzene and acute leukemias. 
Additionally, the IOM has found there is sufficient evidence of an 
association between benzene and adult leukemias, and solvents and acute 
leukemias. Finally, the IOM has also found there is also limited or 
suggestive evidence of an association between exposure to 
organophosphorous insecticides to non-Hodgkin's lymphoma and adult 
leukemias; carbamates and Benzene to non-Hodgkin's lymphoma; and 
solvents to multiple myeloma, adult leukemias, and myelodysplastic 
syndromes--a precursor to leukemia.
    Furthermore, research in the blood cancers has traditionally 
pioneered treatments in other malignancies. Cancer treatments that have 
been developed to treat a blood-related cancer are now used or being 
tested as treatments for other forms of cancer. Combination 
chemotherapy and bone marrow transplants are two striking examples of 
treatments first developed for treating blood cancer patients. More 
recently, specific targeted therapies have proven useful for treating 
patients with solid tumors as well as blood cancers.
    From a medical research perspective, it is a particularly promising 
time to build a DOD research effort focused on blood-related cancers. 
That relevance and opportunity were recognized for a 6-year period when 
Congress appropriated $4.5 million annually--for a total of $28 
million--to begin initial research into chronic myelogenous leukemia 
(CML) through the Congressionally Directed Medical Research Program 
(CDMRP). As members of the Subcommittee know, a noteworthy and 
admirable distinction of the CDMRP is its cooperative and collaborative 
process that incorporates the experience and expertise of a broad range 
of patients, researchers and physicians in the field. Since the Chronic 
Myelogenous Leukemia Research Program (CMLRP) was announced, members of 
the Society, individual patient advocates and leading researchers have 
enthusiastically welcomed the opportunity to become a part of this 
program and contribute to the promise of a successful, collaborative 
quest for a cure.
    In spite of the utility and application to individuals who serve in 
the military, the CML program was not included in January's 2007 
Continuing Resolution funding other fiscal year 2007 CDMRP programs. 
This omission, and the program's continued absence seriously 
jeopardizes established and promising research projects that have clear 
and compelling application to our armed forces as well as pioneering 
research for all cancers.
    Recognizing that fact and the opportunity this research represents, 
a bipartisan group of 45 Members of Congress have requested that the 
program be reconstituted at a $25 million level and be expanded to 
include all the blood cancers--the leukemias, lymphomas and myeloma. 
This would provide the research community with the flexibility to build 
on the pioneering tradition that has characterized this field.
    With all due respect to our colleagues fighting a broad range of 
malignancies that are represented in this program--and certainly not to 
diminish their significance--a cancer research program designed for 
application to military and national security needs would invariably 
include a strong blood cancer research foundation. DOD research on 
blood cancers addresses the importance of preparing for civilian and 
military exposure to the weapons being developed by several hostile 
nations and to aid in the march to more effective treatment for all who 
suffer from these diseases. This request clearly has merit for 
inclusion in the fiscal year 2010 legislation.
    Furthermore, we respectfully request that funding be dedicated to a 
collaborative public-private effort between the U.S. Military Cancer 
Institute, The Leukemia & Lyphoma Society and a blue ribbon panel of 
scientific academicians.
    The USMCI has over 9 million electronic medical records detailing 
the health histories of service men and women and their families. The 
military also has serum and tissue specimens from these individuals 
stored as a routine step in their health care. These records and 
samples, together, provide a unique base that can power blood cancer 
research relevant to the military environment and lifestyle in a way 
that is not possible for any other population.
    A joint effort, tapping the expertise of both USMCI and LLS, 
represents a unique opportunity to identify valuable research 
opportunities and state-of-the-art technology that can address 
significant questions on the origins and diagnosis of blood cancers. 
For example:
  --meta-analysis of the existing data may be used to gain insight into 
        the exposure risks inherent in the military environment that 
        may predispose the war fighter or their dependents to develop 
        blood cancer.
  --Gene profiling might be used to gauge the existing genetic risk for 
        blood cancer in a given individual and may guide the delivery 
        of healthcare and/or deployment decisions.
  --Proteomic analysis of historically preserved serial blood samples 
        from a military member diagnosed with blood cancer may reveal 
        exposures related to development of the disease and drive 
        decisions about safety precautions and protective gear.
    The Leukemia & Lymphoma Society strongly endorses and 
enthusiastically supports this effort and respectfully urges the 
Committee to include this funding in the fiscal year 2010 Defense 
Appropriations bill.
    We believe that building on the foundation Congress initiated over 
a 6-year period should not be abandoned and would both significantly 
strengthen the military's cancer program and accelerate the development 
of all cancer treatments. As history has demonstrated, expanding its 
focus into areas that demonstrate great promise; namely the blood-
related cancers of leukemia, lymphoma and myeloma, would substantially 
aid the overall cancer research effort and yield great dividends.

    Chairman Inouye. And now may I call upon the president of 
the Air Force Association, Lieutenant General Michael M. Dunn.
STATEMENT OF LIEUTENANT GENERAL MICHAEL M. DUNN (RET.), 
            PRESIDENT/CHIEF EXECUTIVE OFFICER, AIR 
            FORCE ASSOCIATION
    General Dunn. Thank you, Mr. Chairman.
    Last but not least. Mr. Chairman, Mr. Vice Chairman, I'm 
honored to be with you today to talk about the fiscal year 2010 
defense budget.
    I represent 120,000 members of the Air Force Association, 
and I need to point out to this subcommittee that we are 
independent of the Air Force, that the Air Force has not made 
any inputs, nor seen my statement or my remarks.
    At this time I request my written statement be included in 
the record.
    Chairman Inouye. Without objection.
    General Dunn. Mr. Chairman, I have to tell this 
subcommittee I'm worried, at this point in history, about the 
future. The average age of Air Force aircraft is the oldest in 
its very short history--25 years old, one-quarter of a century. 
Some types of aircraft are over 50 years old, and, when they 
are eventually replaced, some are going to be over 90 years 
old.
    To begin to replace the fleet, the Air Force has to buy 
about 165 aircraft per year, of all types. The 2010 budget 
request purchases only 81 aircraft, and 29 of them are unmanned 
aerial vehicles, and 13 are for the Air Force Academy.
    This puts the Air Force on a replacement rate of about 100 
years. Obviously, this is not a sustainable path. Costs to keep 
the fleet are rising--fleet ready--are rising, many aircraft 
have been grounded over the past few years, planes are breaking 
in unpredictable ways, and readiness rates are falling. Our men 
and women who serve deserve the very best we, as a Nation, can 
provide to them. We have to turn this around.
    DOD has stated they need to rebalance the force to focus on 
irregular warfare (IW). The sad fact is, they have to do both--
modernize and recapitalize, as well as focusing on IW.
    I hope DOD is right about the future, that they won't face 
a strong opponent. But, the one thing certain about the future 
is we have been wrong over the type of opponent we will face. 
We did not anticipate the Japanese attacking the Hawaiian 
Islands in World War--to begin World War II for the United 
States; we did not anticipate the Korean War, Vietnam, the fall 
of the Soviet Union, Iraq's attack on Kuwait, 9/11, nor 
Operation Iraqi Freedom. To maintain that all wars in the 
future will be irregular wars is--well--not supported by the 
lessons of the past.
    The decisions made by DOD and this Congress are ones we 
will live with for a long time. They are 30-year decisions. 
When the Nation terminates or delays seven aircraft production 
lines, the impact on our aerospace industry is devastating. And 
this is an industry that adds almost $40 billion per year in 
positive trade balance. Engineers, design teams, and innovation 
will be lost, or hard or expensive to replace; tens of 
thousands of jobs will be lost. And these are high paying 
manufacturing jobs that benefit, not just local communities, 
but the Nation as a whole.
    Mr. Chairman, I think you can see why I'm worried. This is 
not just about one system or another, this is about air power, 
our asymmetric advantage and the reason our past conflicts have 
so spectacular, with some of the lowest friendly casualty rates 
in the history of warfare. We have to nurture this capability 
for the future.
    And thank you for your time, sir.
    Chairman Inouye. Well, thank you very much, General Dunn.
    [The statement follows:]
                 Prepared Statement of Michael M. Dunn
    Ladies and gentleman of the Committee, I am honored to come before 
you today, representing the Air Force Association, to discuss your 
United States Air Force. I would like to begin my remarks by saluting 
our Airmen who strive every day to ensure that America's Air Force is 
second to none. These men and women are true heroes and we salute their 
dedication and determination, while also recognizing the sacrifices 
they make for our Nation.
    To borrow a phrase from General Schwartz, the United States Air 
Force is truly ``all in.'' Whether deterring potential adversaries, 
striking strategic targets, gathering critical intelligence, delivering 
humanitarian relief supplies, evacuating wounded, airlifting cargo 
around the globe, enabling command and control, rescuing personnel 
behind enemy lines, or providing close air support, the Air Force is an 
invaluable national asset. Just looking at operations in Iraq and 
Afghanistan, the Air Force has flown nearly 60,000 sorties this year 
alone. In the real world, this translates into Airmen doing their very 
best 24/7 to fight and win on the front lines along with their joint 
team partners.
    While we are certainly proud of the Air Force's current record, 
this success cannot be taken for granted. The Air Force has spent the 
past two decades engaged in continuous combat operations and is 
utilizing an aircraft fleet that averages nearly a quarter of a century 
in age--with some planes in the inventory dating back to the Eisenhower 
Administration.
    The most obvious problem associated with this aging fleet is that 
old airplanes break more often and eventually are no longer airworthy. 
In the time since Desert Storm the average age of the Air Force fleet 
has increased by nearly a decade and the availability rate has dropped 
in a corresponding fashion. This means that since 1991 the percentage 
of time an aircraft is not broken and can fly a mission has fallen from 
77 percent to 65 percent. Aside from these costly maintenance 
challenges, a number of dramatic airworthiness issues have also 
afflicted the Air Force fleet. In 2000 the service grounded one third 
of its KC-135 air refueling aircraft because of a faulty flight control 
component. In 2004 the Air Force discovered that many of its C-130s had 
major cracks in their wings. In 2007 an F-15 broke in two while on a 
training flight due to structural fatigue, grounding the entire fleet 
for months. In 2008 the entire T-38 fleet was grounded for an extended 
period because of an aging control surface fixture. Most recently, half 
of the A-10 fleet was grounded due to wing cracks and the C-130 fleet 
was also grounded due to a faulty bolt found in the wings of many of 
the aircraft. More problems are certain to arise as the age of the 
fleet continues to increase.
    It is also important to consider that most next generation aircraft 
yield tremendous operational efficiencies that dramatically offset 
their higher per-unit acquisition cost and yield long-term savings. 
This performance increase was clearly demonstrated on the first night 
of Desert Storm when 20 new F-117 stealth fighters took the 
unprecedented step of attacking 28 separate targets. On the same night 
it took a combined force of 41 legacy non-stealth aircraft to strike 
one target--4 F/A-18s to defend against enemy aircraft, 3 drones to 
serve as decoys, 5 EA-6B aircraft to jam enemy radar, along with 4 F-4s 
and 17 F/A-18s to suppress enemy surface-to-air missiles so that 4 A-6s 
and 4 Tornadoes could strike one target. The full spectrum cost imposed 
by these legacy aircraft was tremendous--aircraft development and 
acquisition funding, operations and maintenance expenses, personnel 
bills, base access issues, etc. Viewed from this perspective, the 
encompassing price of new aircraft like the F-22 and F-35 is not so 
high.
    The global threat environment is rapidly evolving and proliferation 
of modern weaponry is negating the survivability of the Air Force's 
legacy fleet. Over 30 nations operate fighter aircraft that equal or 
exceed the capabilities of the F-15 and F-16, whose designs 
respectively date back to the 1960s and 1970s. Nations such as Russia 
and China are also developing 5th generation fighters that will have F-
22-like capabilities and will be bought in F-35-like quantities . . . 
and sold to other countries. Additionally, dozens of nations operate 
surface-to-air missiles that can easily shoot down aircraft such as the 
B-1, B-52, F-15, F-16, F-18, Predator, Global Hawk, and more. It is 
important to remember that in the final days of Vietnam the Air Force 
lost 15 B-52s in 12 days during Operation Linebacker II. Air defenses 
have advanced markedly since then but 47 percent of the long range 
strike fleet is comprised of these same B-52s. Had the U.S. Air Force 
been called upon to engage in the recent Georgian conflict, the B-2 and 
F-22 were the only aircraft in the U.S. inventory that would have 
survived in the threat environment. U.S. national security demands a 
broader array of effective capabilities than just 20 B-2s and 186 F-
22s.
    The fiscal year 2010 budget proposal currently under consideration 
by Congress fails to make necessary recapitalization investments and 
actually exacerbates the challenges facing several key mission sets. 
For example, the fiscal year 2010 budget proposal ends production of 
the F-22 at 187 aircraft even though the stated military requirement is 
for 243 airframes. A fleet comprised of 187 airframes yields a force of 
about 100 combat-ready aircraft, no attrition/reserve inventory, and 
too few aircraft to engage/deter in more than one operation at a time. 
All known analysis undertaken to this point has concluded such a 
limited fleet size entails high risk. Air dominance is the precondition 
for all successful U.S. military combat operations--this isn't just 
about the U.S. Air Force--it is essential for the entire joint team.
    This year's budget also discontinues C-17 acquisition at 205 
aircraft even though demand for airlift is so high that the Air Force 
is currently flying its C-17 airframes over 1,000 hours past what was 
originally programmed per year. Additional developments have seen the 
ground component grow by 92,000 Soldiers and Marines, increased 
reliance on airlift, to include leased Russian aircraft, to get 
equipment to Afghanistan and Iraq, and a decision to relocate many 
units back to CONUS. Each one of these developments suggests that the 
need for military airlift will increase. Closing the C-17 production 
line at 205 aircraft risks creating a high-demand low-density mission 
set.
    Even though existing Combat Search and Rescue (CSAR) helicopters 
are rapidly nearing the end of their service lives, the budget cancels 
their replacement program. CSAR is a moral imperative. Our current 
enemies do not take prisoners of war. They welcome the opportunity to 
torture and kill their captives, making CSAR even more critical than 
before. In fact, the Air Force CSAR capabilities are in such high 
demand in Iraq and Afghanistan that the Weapons School has been closed 
so that a maximum number of assets can be surged forward.
    The Next Generation Bomber program was also cancelled even though 
the current long range strike fleet averages over 40 years in age. 
While elements of the force are still capable in certain threat 
environments, the proliferation of advanced anti-access weaponry is 
curtailing when and where many of the legacy assets can successfully 
operate. Twenty B-2s are the only long range strike assets in the Air 
Force inventory that can penetrate high threat environments and 
survive. These aircraft are approaching 20 years in age, have not been 
in production since 1997, and have no viable replacements to backfill 
losses. During the Cold War, bombers were primarily viewed as nuclear 
deterrence assets. However, actual combat operations have demonstrated 
that long range conventional strike is an incredibly important tool. 
Modern long range bombers can penetrate air defense systems, respond 
rapidly to strike fleeting targets, and operate over long distances 
without excessive logistical support. The tactical strike fleet, while 
capable, simply does not have the range and payload capabilities to 
fulfill many of these missions.
    The Airborne Laser (ABL) program was also curtailed even though 
nuclear weapons proliferation, combined with advances in delivery 
system technology, is yielding an increasingly dangerous world. 
Sufficient investment in robust missile defense capabilities is 
essential for the security of United States and its allies.
    Cumulatively, these decisions will also have a tremendous impact on 
the defense industrial base. This sector is an invaluable strategic 
partner for the United States. Whether addressing problems through 
innovation, delivering high-quality products that enable our forces to 
attain victory, or developing solutions for future challenges, the 
industrial base is a critical national security asset. The United 
States is rapidly approaching the point where it will be limited to one 
major heavy aircraft production line (Boeing in Seattle, WA) and one 
advanced fighter production facility (Lockheed Martin in Fort Worth, 
TX). The proposed fiscal year 2010 budget cuts rapidly accelerate the 
decline of this sector. The barriers to entry are extraordinarily high 
within the military aerospace industrial base and once the Nation loses 
certain core competencies, they will be exceedingly difficult and 
costly to regenerate. For example, low observable (stealth) design 
teams are incredibly skilled in a highly nuanced field that does not 
lend itself to dual-use applications within the civilian aerospace 
sector. If projects are not forthcoming to maintain this skill set, 
then the country will face major challenges trying to regenerate such 
capabilities in the future. Additionally, the military aerospace sector 
will have an increasingly difficult time recruiting and retaining 
talent amidst these challenging times. Failing to build a viable and 
competent workforce for the next generation will have a dramatic impact 
on the national security options available to the Nation for the 
foreseeable future.
    Clearly the United States Air Force is at a strategic crossroads. 
The Nation cannot realistically expect Airmen to successfully engage 
and survive in future campaigns if it does not equip them with modern 
and effective equipment. One of the key lessons from history is the 
importance of preparing for the full spectrum of operations. This 
country has failed to anticipate numerous critical events--Pearl 
Harbor, Berlin Blockade, Cuban Missile Crisis, Soviet Invasion of 
Afghanistan, fall of the Shah in Iran, end of the Cold War, Iraq's 
invasion of Kuwait, 9/11, etc. Events in the modern world develop 
rapidly and the country has to respond quickly with the forces on hand. 
The days of WWII-like rapid wartime industrialization are gone. Aside 
from rudimentary supplies, effective weapons systems can no longer be 
developed in a matter of months and events are often decided by the 
time new items are fielded. This demands that the Nation prepare for a 
wide variety of contingencies. Otherwise, the lives of the men and 
women in uniform will be placed at undue risk as they struggle to 
achieve their respective objectives with inadequate tools. While 
airpower can operate with relative impunity in current operations, such 
access must not be taken for granted in the future. Current legacy 
systems will last a few more years, but eventually they will be 
retired. Most of the cuts involved in this budget kill the platforms 
that were intended to replace these legacy systems. The Chief of Staff 
of the Air Force has stated he needs to buy 165 aircraft per year in 
order to keep the average age of the fleet the same as it is now--a 
quarter of a century old. This budget only buys 81 aircraft--13 of 
which are for the Air Force Academy and 29 of which are UAVs. That puts 
the Air Force on a replacement rate of over 100 years. It is important 
that Congress and the American people fully appreciate the full 
ramifications of these decisions. We risk imposing drastic limitations 
on the strategic options available to the country for decades into the 
future.

                     ADDITIONAL SUBMITTED STATEMENT

    Chairman Inouye. The subcommittee has received testimony 
from the National Military and Veterans Alliance and their 
testimony will be made part of the record.
    [The statement follows:]
   Prepared Statement of the National Military and Veterans Alliance
    The Alliance was founded in 1996 as an umbrella organization to be 
utilized by the various military and veteran associations as a means to 
work together towards their common goals. The Alliance member 
organizations are: American Logistics Association; American Military 
Retirees Association; American Military Society; American Retirees 
Association; American World War II Orphans Network; AMVETS (American 
Veterans); Armed Forces Marketing Council; Army and Navy Union; 
Catholic War Veterans; Gold Star Wives of America, Inc.; Japanese 
American Veterans Association; Korean War Veterans Foundation; Legion 
of Valor; Military Order of the Purple Heart; Military Order of the 
World Wars; Military Order of Foreign Wars; National Assoc. for 
Uniformed Services; National Gulf War Resource Center; Naval Enlisted 
Reserve Association; Naval Reserve Association; Paralyzed Veterans of 
America; Reserve Enlisted Association; Reserve Officers Association; 
Society of Military Widows; The Retired Enlisted Association; TREA 
Senior Citizens League; Tragedy Assist. Program for Survivors; 
Uniformed Services Disabled Retirees; Veterans of Foreign Wars; Vietnam 
Veterans of America; Women in Search of Equity.
    These organizations have over three and a half million members who 
are serving our Nation or who have done so in the past, and their 
families.
                              introduction
    Mister Chairman and distinguished members of the Committee, the 
National Military and Veterans Alliance (NMVA) is very grateful for the 
invitation to testify before you about our views and suggestions 
concerning defense funding issues. The overall goal of the National 
Military and Veterans Alliance is a strong National Defense. In light 
of this overall objective, we would request that the committee examine 
the following proposals.
    While the NMVA highlights the funding of benefits, we do this 
because it supports National Defense. A phrase often quoted ``The 
willingness with which our young people are likely to serve in any war, 
no matter how justified, shall be directly proportional as to how they 
perceive the Veterans of earlier wars were treated and appreciated by 
their country,'' has been frequently attributed to General George 
Washington. Yet today, many of the programs that have been viewed as 
being veteran or retiree are viable programs for the young serving 
members of this war. This phrase can now read ``The willingness with 
which our young people, today, are willing to serve in this war is how 
they perceive the veterans of this war are being treated.''
    This has been brought to the forefront by how quickly an issue such 
as the treatment of wounded warriors suffering from Traumatic Brain 
Injury or Post Traumatic stress Disorder has been brought to the 
national attention.
    In a long war, recruiting and retention becomes paramount. The 
National Military and Veterans Alliance, through this testimony, hopes 
to address funding issues that apply to the veterans of various 
generations.
                        funding national defense
    NMVA is pleased to observe that the Congress continues to discuss 
how much should be spent on National Defense. The Alliance urges the 
President and Congress to increase defense spending to 5 percent of 
Gross Domestic Product during times of war to cover procurement and 
prevent unnecessary personnel end strength cuts.
                          pay and compensation
    Our serving members are patriots willing to accept peril and 
sacrifice to defend the values of this country. All they ask for is 
fair recompense for their actions. At a time of war, compensation 
rarely offsets the risks.
    The NMVA requests funding so that the annual enlisted military pay 
raise exceeds the Employment Cost Index (ECI) by at least half of a 
percent.
    Further, we hope that this committee continues to support targeted 
pay raises for those mid-grade members who have increased 
responsibility in relation to the overall service mission. Pay raises 
need to be sufficient to close the civilian-military pay gap.
    NMVA would apply the same allowance standards to both Active and 
Reserve when it comes to Aviation Career Incentive Pay, Career Enlisted 
Flyers Incentive Pay, Diving Special Duty Pay, Hazardous Duty Incentive 
Pay and other special pays.
    The Service chiefs have admitted one of the biggest retention 
challenges is to recruit and retain medical professionals. NMVA urges 
the inclusion of bonus/cash payments (Incentive Specialty pay IPS) into 
the calculations of Retirement Pay for military health care providers. 
NMVA has received feedback that this would be incentive to many medical 
professionals to stay in longer.
    G-R Bonuses.--Guard and Reserve component members may be eligible 
for one of three bonuses, Prior Enlistment Bonus, Reenlistment Bonus 
and Reserve Affiliation Bonuses for Prior Service Personnel. These 
bonuses are used to keep men and woman in mission critical military 
occupational specialties (MOS) that are experiencing falling numbers or 
are difficult to fill. During their testimony before this committee the 
Reserve Chiefs addressed the positive impact that bonuses have upon 
retention. This point cannot be understated. The operation tempo, 
financial stress and civilian competition for jobs make bonuses a 
necessary tool for the DOD to fill essential positions. The NMVA 
supports expanding and funding bonuses to the Federal Reserve 
Components.
    Reserve/Guard Funding.--NMVA is concerned about ongoing DOD 
initiatives to end ``two days pay for one days work,'' and replace it 
with a plan to provide 1/30 of a Month's pay model, which would include 
both pay and allowances. Even with allowances, pay would be less than 
the current system. When concerns were addressed about this proposal, a 
retention bonus was the suggested solution to keep pay at the current 
levels. Allowances differ between individuals and can be affected by 
commute distances and even zip codes. Certain allowances that are 
unlikely to be paid uniformly include geographic differences, housing 
variables, tuition assistance, travel, and adjustments to compensate 
for missing health care. The NMVA strongly recommends that the reserve 
pay system ``two days pay for one days work,'' be funded and retained, 
as is.
                           educational issues
MGIB-SR Enhancements
    Practically all active duty and Selected Reserve enlisted 
accessions have a high school diploma or equivalent. A college degree 
is the basic prerequisite for service as a commissioned officer, and is 
now expected of most enlisted as they advance beyond E-6. Officers to 
promote above O-4 are expected to have a post graduate degree. The 
ever-growing complexity of weapons systems and support equipment 
requires a force with far higher education and aptitude than in 
previous years.
    Both political parties are looking at ways of enhancing the GI 
bill. There are suggested features in legislation be suggested by both 
sides. At a minimum, the GI bill needs to be viewed as more than a 
recruiting and retention incentive. Education is a means to help 
reintegrate our returning veterans into society. A recent survey by 
military.com, of returning military veterans, found that 81 percent 
didn't feel fully prepared to enter the work force, and 76 percent of 
these veterans said they were unable translate their military skills 
into civilian proficiencies.
    Transferability of educational benefits to spouses and children are 
another key aspect that should be included in a GI Bill enhancement. In 
addition, for those with existing degrees and outstanding debts, the GI 
Bill stipend, should be allowed to pay-off outstanding student loans.
    No enhancement can be accomplished without funding. This should be 
viewed as an investment rather than an expense. The original GI bill 
provided years of economic stimulus, returning seven dollars for every 
dollar invested in veterans.
    The National Military and Veterans Alliance asks this subcommittee 
to support funding for suggested GI Bill funding.
    The Montgomery G.I. Bill for Selective Reserves (MGIB-SR) will 
continue to be an important recruiting and retention tool. With massive 
troop rotations the Reserve forces can expect to have retention 
shortfalls, unless the government provides enhances these incentives as 
well.
    The problem with the current MGIB-SR is that the Selected Reserve 
MGIB has failed to maintain a creditable rate of benefits with those 
authorized in Title 38, Chapter 30. MGIB-SR has not even been increased 
by cost-of-living increases since 1985. In that year MGIB rates were 
established at 47 percent of active duty benefits. The MGIB-SR rate is 
28 percent of the Chapter 30 benefits. Overall the allowance has inched 
up by only 7 percent since its inception, as the cost of education has 
climbed significantly.
    The NMVA requests appropriations funding to raise the MGIB-SR and 
lock the rate at 50 percent of the active duty benefit. Cost: 
$25,000,000/first year, $1,400,000,000 over 10.
                       force policy and structure
War Funding
    The Alliance thanks the committee for the war funding amended to 
the Supplemental Appropriations Act 2008, H.R. 2642. While the debate 
on Iraqi policy is important, the Alliance would like to stress that 
resulting legislation should be independent and not included as 
language in any Defense Appropriation bill. Supporting the troops 
includes providing funding for their missions.
    NMVA supports the actions by this subcommittee to put dollars for 
the War back into the Emergency Supplemental.
End Strength
    The NMVA concurs with funding increases in support of the end 
strength boosts of the Active Duty Component of the Army and Marine 
Corps that have been recommended by Defense Authorizers. New recruits 
need to be found and trained now to start the process so that American 
taxpayer can get a return on this investment. Such growth is not 
instantaneously productive. Yet, the Alliance is concerned with 
continued end strength cuts to the other services: the Air Force and 
the Navy. Trying to pay the bills by premature manpower reductions may 
have consequences.
Manning Cut Moratorium
    The NMVA would also like to put a freeze on reductions to the Guard 
and Reserve manning levels. A moratorium on reductions to End Strength 
is needed until the impact of an operational reserve structure is 
understood. Many force planners call for continuation of a strategic 
reserve as well. NMVA urges this subcommittee to at least fund to last 
year's levels.
         survivor benefit plan (sbp) and survivor improvements
    The Alliance wishes to deeply thank this Subcommittee for your 
funding of improvements in the myriad of survivor programs.
    However, there is still an issue remaining to deal with: Providing 
funds to end the SBP/DIC offset.
    SBP/DIC Offset affects several groups. The first is the family of a 
retired member of the uniformed services. At this time the SBP annuity 
the servicemember has paid for is offset dollar for dollar for the DIC 
survivor benefits paid through the VA. This puts a disabled retiree in 
a very unfortunate position. If the servicemember is leaving the 
service disabled it is only wise to enroll in the Survivor Benefit Plan 
(perhaps being uninsurable in the private sector). If death is service 
connected then the survivor loses dollar for dollar the compensation 
received under DIC.
    SBP is a purchased annuity, available as an elected earned employee 
benefit. The program provides a guaranteed income payable to survivors 
of retired military upon the member's death. Dependency and Indemnity 
Compensation (DIC) is an indemnity program to compensate a family for 
the loss of a loved one due to a service connected death. They are 
different programs created to fulfill different purposes and needs.
    A second group affected by this dollar for dollar offset is made up 
of families whose service member died on active duty. Recently Congress 
created active duty SBP. These service members never had the chance to 
pay into the SBP program. But clearly Congress intended to give these 
families a benefit. With the present offset in place the vast majority 
of families receive no benefit from this new program, because the vast 
numbers of our losses are young men or women in the lower paying ranks. 
SBP is completely offset by DIC payments.
    Other affected families are service members who have already served 
a substantial time in the military. Their surviving spouse is left in a 
worse financial position that a younger widow. The older widows will 
normally not be receiving benefits for her children from either Social 
Security or the VA and will normally have more substantial financial 
obligations (mortgages, etc). This spouse is very dependent on the SBP 
and DIC payments and should be able to receive both.
    The NMVA respectfully requests this Subcommittee fund the SBP/DIC 
offset.
    current and future issues facing uniformed services health care
    The National Military and Veterans Alliance must once again thank 
this Committee for the great strides that have been made over the last 
few years to improve the health care provided to the active duty 
members, their families, survivors and Medicare eligible retirees of 
all the Uniformed Services. The improvements have been historic. 
TRICARE for Life and the Senior Pharmacy Program have enormously 
improved the life and health of Medicare Eligible Military Retirees 
their families and survivors. It has been a very successful few years. 
Yet there are still many serious problems to be addressed:
Wounded Warrior Programs
    As the committee is aware, Congress has held a number of hearings 
about the controversy at Walter Reed Army Medical Center. The NMVA will 
not revisit the specifics. With the Independent Review Group and the 
Dole/Shalala Commission recommending the closure of Walter Reed, an 
emphasis needs to be placed on the urgency of upgrades at Bethesda, and 
the new military treatment hospital at Fort Belvoir. NMVA hopes that 
this committee will financially support the studies that measure the 
adequacy of this plan.
    The Alliance supports continued funding for the wounded warriors, 
including monies for research and treatment on Traumatic Brain Injuries 
(TBI), Post Traumatic Stress Disorder, the blinded, and our amputees. 
The Nation owes these heroes an everlasting gratitude and recompense 
that extends beyond their time in the military. These casualties only 
bring a heightened need for a DOD/VA electronic health record accord to 
permit a seamless transition from being in the military to being a 
civilian.
Full Funding for the Defense Health Program
    The Alliance applauds the Subcommittee's role in providing adequate 
funding for the Defense Health Program (DHP) in the past several budget 
cycles. As the cost of health care has risen throughout the country, 
you have provided adequate increases to the DHP to keep pace with these 
increases.
    Full funding for the defense health program is a top priority for 
the NMVA. With the additional costs that have come with the deployments 
to Southwest Asia, Afghanistan and Iraq, we must all stay vigilant 
against future budgetary shortfalls that would damage the quality and 
availability of health care.
    With the authorizers having postponed the Department of Defenses 
suggested fee increases, the Alliance is concerned that the budget 
saving have already been adjusted out of the President's proposed 
budget. NMVA is confident that this subcommittee will continue to fund 
the DHP so that there will be no budget shortfalls.
    The National Military and Veterans Alliance urges the Subcommittee 
to continue to ensure full funding for the Defense Health Program 
including the full costs of all new programs.
TRICARE Pharmacy Programs
    NMVA supports the continued expansion of use of the TRICARE Mail 
Order pharmacy.
    To truly motivate beneficiaries to a shift from retail to mail 
order adjustments need to be made to both generic and brand name drugs 
co-payments. NMVA recommends that both generic and brand name mail 
order prescriptions be reduced to zero $$ co-payments to align with 
military clinics.
    Ideally, the NMVA would like to see the reduction in mail order co-
payments without an increase in co-payments for Retail Pharmacy.
    The National Military and Veterans Alliance urges the Subcommittee 
to adequately fund adjustments to co-payments in support of 
recommendations from Defense Authorizers.
TRICARE Standard Improvements
    TRICARE Standard grows in importance with every year that the 
Global War on Terrorism continues. A growing population of mobilized 
and demobilized Reservists depends upon TRICARE Standard. A growing 
number of younger retirees are more mobile than those of the past, and 
likely to live outside the TRICARE Prime network.
    An ongoing challenge for TRICARE Standard involves creating 
initiatives to convince health care providers to accept TRICARE 
Standard patients. Health care providers are dissatisfied with TRICARE 
reimbursement rates that are tied to Medicare reimbursement levels. The 
Alliance is pleased by Congress' plan to prevent near-term reductions 
in Medicare reimbursement rates, which will help the TRICARE Program.
    Yet this is not enough. TRICARE Standard is hobbled with a 
reputation and history of low and slow payments as well as what still 
seems like complicated procedures and administrative forms that make it 
harder and harder for beneficiaries to find health care providers that 
will accept TRICARE. Any improvements in the rates paid for Medicare/
TRICARE should be a great help in this area. Additionally, any further 
steps to simplify the administrative burdens and complications for 
health care providers for TRICARE beneficiaries hopefully will increase 
the number of available providers.
    The Alliance asks the Defense Subcommittee to include language 
encouraging continued increases in TRICARE/Medicare reimbursement 
rates.
TRICARE Retiree Dental Plan (TRDP)
    The focus of the TRICARE Retiree Dental Plan (TRDP) is to maintain 
the dental health of Uniformed Services retirees and their family 
members. Several years ago we saw the need to modify the TRDP 
legislation to allow the Department of Defense to include some dental 
procedures that had previously not been covered by the program to 
achieve equity with the active duty plan.
    With ever increasing premium costs, NMVA feels that the Department 
should assist retirees in maintaining their dental health by providing 
a government cost-share for the retiree dental plan. With many retirees 
and their families on a fixed income, an effort should be made to help 
ease the financial burden on this population and promote a seamless 
transition from the active duty dental plan to the retiree dental plan 
in cost structure. Additionally, we hope the Congress will enlarge the 
retiree dental plan to include retired beneficiaries who live overseas.
    The NMVA would appreciate this Committee's consideration of both 
proposals.
                 national guard and reserve health care
Funding Improved TRICARE Reserve Select
    It is being suggested that the TRICARE Reserve Select healthcare 
plan be changed to allow the majority of Selected Reserve participate 
at a 28 percent co-payment level with the balance of the premium being 
paid by the Department of Defense.
    NMVA asks the committee to continue to support funding of the 
TRICARE Reserve Select program.
Mobilized Health Care--Dental Readiness of Reservists
    The number one problem faced by Reservists being recalled has been 
dental readiness. A model for healthcare would be the TRICARE Dental 
Program, which offers subsidized dental coverage for Selected 
Reservists and self-insurance for SELRES families.
    In an ideal world this would be universal dental coverage. Reality 
is that the services are facing challenges. Premium increases to the 
individual Reservist have caused some junior members to forgo coverage. 
Dental readiness has dropped. The Military services are trying to 
determine how best to motivate their Reserve Component members but feel 
compromised by mandating a premium program if Reservists must pay a 
portion of it.
    Services have been authorized to provide dental treatment as well 
as examination, but without funding to support this service. By the 
time many Guard and Reserve are mobilized, their schedule is so short 
fused that the processing dentists don't have time for extensive 
repair.
    The National Military Veterans Alliance supports funding for 
utilization of Guard and Reserve Dentists to examine and treat 
Guardsmen and Reservists who have substandard dental hygiene. The 
TRICARE Dental Program should be continued, because the Alliance 
believes it has pulled up overall Dental Readiness.
Demobilized Dental Care
    Under the revised transitional healthcare benefit plan, Guard and 
Reserve who were ordered to active duty for more than 30 days in 
support of a contingency and have 180 days of transition health care 
following their period of active service.
    Similar coverage is not provided for dental restoration. Dental 
hygiene is not a priority on the battlefield, and many Reserve and 
Guard are being discharged with dental readiness levels much lower than 
when they were first recalled. At a minimum, DOD must restore the 
dental state to an acceptable level that would be ready for 
mobilization, or provide some subsidize for 180 days to permit 
restoration from a civilian source.
    Current policy is a 30-day window with dental care being space 
available at a priority less than active duty families.
    NMVA asks the committee for funding to support a DOD's 
demobilization dental care program. Additional funds should be 
appropriated to cover the cost of TRICARE Dental premiums and co-
payment for the 6 months following demobilization if DOD is unable to 
do the restoration.
                     other guard and reserve issues
    Ensure adequate funding to equip Guard and Reserve at a level that 
allows them to carry out their mission. Do not turn these crucial 
assets over to the active duty force. In the same vein we ask that the 
Congress ensure adequate funding that allows a Guardsman/Reservist to 
complete 48 drills, and 15 annual training days per member, per year. 
DOD has been tempted to expend some of these funds on active duty 
support rather than personnel readiness.
    The NMVA strongly recommends that Reserve Program funding remain at 
sufficient levels to adequately train, equip and support the robust 
reserve force that has been so critical and successful during our 
Nation's recent major conflicts.
    While Defense Authorizers provided an early retirement benefit in 
fiscal year 2008, only those who have served in support of a 
contingency operation since 28 January 2008 are eligible, nearly 6 
years and 4 months after Guard and Reserve members first were mobilized 
to support the active duty force in this conflict. Over 600,000 
Reservists have served during this period and were excluded from 
eligibility. The explanation given was lack of mandatory funding 
offset. To exclude a portion of our warriors is akin to offering the 
original GI Bill to those who served after 1944.
    NMVA hopes that this subcommittee can help identify excess funding 
that would permit an expanded early retirement benefit for those who 
have served.
                     armed forces retirement homes
    Following Hurricane Katrina, Navy/Marine Corps residents from AFRJ-
Gulfport were evacuated from the hurricane-devastated campus and were 
moved to the AFRH-Washington, D.C. campus. Dormitories were reopened 
that are in need of refurbishing.
    NMVA urges this subcommittee to continue funding upgrades at the 
Washington, D.C. facility, and to continue funding to rebuild the 
Gulfport facility.
                               conclusion
    Mr. Chairman and distinguished members of the Subcommittee the 
Alliance again wishes to emphasize that we are grateful for and 
delighted with the large steps forward that the Congress has affected 
the last few years. We are aware of the continuing concern all of the 
subcommittee's members have shown for the health and welfare of our 
service personnel and their families. Therefore, we hope that this 
subcommittee can further advance these suggestions in this committee or 
in other positions that the members hold. We are very grateful for the 
opportunity to submit these issues of crucial concern to our collective 
memberships. Thank you.

                         CONCLUSION OF HEARINGS

    Chairman Inouye. I'd like to thank all of you for your 
testimony this morning. The subcommittee will take all issues 
seriously, I can assure you. And if you do have documents to 
support your testimony, please submit them.
    With that, the meeting will stand in recess, subject to the 
call of the Chair.
    Thank you.
    [Whereupon, at 11:40 a.m., Thursday, June 18, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page
Aylward, Major General Peter M., Director, Joint Staff, National 
  Guard Bureau, Department of Defense, prepared statement........   131

Bennett, Senator Robert F., U.S. Senator From Utah, Questions 
  Submitted by........................275, 334, 340, 347, 391, 457, 466
Bergman, Lieutenant General Jack W., Commander, Marine Forces 
  Reserve, United States Marine Corps, Department of Defense.....   196
    Prepared Statement of........................................   197
    Questions Submitted to.......................................   228
Berman, Jonathan D., MD, Ph.D., Colonel, United States Army 
  (Ret.), Secretary-Treasurer, American Society of Tropical 
  Medicine and Hygiene...........................................   573
    Prepared Statement of........................................   574
Bond, Senator Christopher S., U.S. Senator From Missouri:
    Questions Submitted by......................................92, 274
    Statement of..........................................281, 351, 402
Boudjouk, Philip, Ph.D., Vice President, Research, Creative 
  Activities and Technology Transfer, North Dakota State 
  University; Chair, Coalition of EPSCoR/IDEA States.............   557
    Prepared Statement of........................................   558
Bruzek-Kohler, Rear Admiral Christine M., Director, Navy Nurse 
  Corps, United States Navy, Medical Health Programs, Department 
  of Defense.....................................................    49
    Prepared Statement of........................................    52
    Questions Submitted to.......................................   111
Byrd, Senator Robert C., U.S. Senator From West Virginia, 
  Questions Submitted by.........................................   387

Casey, General George W., Jr., Chief of Staff, Office of the 
  Secretary, Department of the Army, Department of Defense.......   235
    Prepared Statement of........................................   237
Cochran, Elizabeth, Secretary, Associations for America's Defense   550
    Prepared Statement of........................................   551
Cochran, Senator Thad, U.S. Senator From Mississippi:
    Questions Submitted by.......................................   91,
                       101, 107, 166, 169, 273, 339, 344, 389, 397, 455
    Statements of.......................3, 119, 236, 280, 350, 401, 505
Conway, General James T., Commandant, United States Marine Corps, 
  Department of the Navy, Department of Defense..................   299
    Questions Submitted to.......................................   341
    Prepared Statement of........................................   301

Dahlman, George, Senior Vice President for Public Policy, The 
  Leukemia & Lymphoma Society....................................   576
    Prepared Statement of........................................   578
Davis, John R., Director, Legislative Programs, Fleet Reserve 
  Association....................................................   501
    Prepared Statement of........................................   502
Debbink, Vice Admiral Dirk J., Chief, Navy Reserve, Department of 
  Defense........................................................   190
    Questions Submitted to.......................................   226
    Prepared Statement of........................................   191
Donley, Hon. Michael B., Secretary of the Air Force, Office of 
  the Secretary, Department of the Air Force, Department of 
  Defense........................................................   349
    Prepared Statement of the....................................   354
    Questions Submitted to.......................................   381
    Summary Statement of.........................................   352
Dorgan, Senator Byron L., U.S. Senator From North Dakota, 
  Questions Submitted by...................166, 167, 223, 226, 228, 388
Dunn, Lieutenant General Michael M. (Ret.), President/Chief 
  Executive Officer, Air Force Association.......................   581
    Prepared Statement of........................................   583
Durbin, Senator Richard J., U.S. Senator From Illinois, Questions 
  Submitted by...................162, 168, 224, 227, 229, 230, 452, 464

Feinstein, Senator Dianne, U.S. Senator From California, 
  Questions Submitted by.........................................   453

Gates, Hon. Robert M., Secretary of Defense, Office of the 
  Secretary, Department of Defense...............................   399
    Prepared Statement of........................................   405
    Questions Submitted to.......................................   442
Geren, Hon. Pete, Secretary of the Army, Office of the Secretary, 
  Department of the Army, Department of Defense..................   235
    Prepared Statement of the....................................   237
Gregg, Senator Judd, U.S. Senator From New Hampshire, Question 
  Submitted by...................................................   274

Hale, Hon. Robert F., Under Secretary of Defense (Comptroller), 
  Office of the Secretary, Department of Defense.................   399
Hesdorffer, Mary, Nurse Practitioner, Medical Liaison, 
  Mesothelioma Applied Research Foundation (MARF)................   569
    Prepared Statement of........................................   570
Holahan, Colonel William, United States Marine Corps (Ret.), 
  Director, Member Services, Reserve Officers Association of the 
  United States..................................................   543
    Prepared Statement of........................................   544
Horoho, Major General Patricia D., Chief, Army Nurse Corps, 
  United States Army, Medical Health Programs, Department of 
  Defense........................................................    62
    Prepared Statement of........................................    64
    Questions Submitted to.......................................   112
Hruska, Kelly B., Government Relations, Deputy Director, National 
  Military Family Association....................................   483
    Prepared Statement of........................................   485
Hutchison, Senator Kay Bailey, U.S. Senator From Texas, Questions 
  Submitted by.................................................332, 389

Inouye, Chairman Daniel K., U.S. Senator From Hawaii:
    Opening Statements of...............1, 117, 235, 279, 349, 399, 469
    Questions Submitted by.......................................   87,
  97, 105, 111, 112, 114, 161, 226, 229, 272, 330, 335, 341, 381, 393, 
                                                               442, 458

Jones, Richard A. ``Rick'', Legislative Director, National 
  Association for Uniformed Services.............................   532
    Prepared Statement of........................................   533

Leahy, Senator Patrick J., U.S. Senator From Vermont:
    Questions Submitted by.....................................273, 451
    Statement of.................................................   401

Mabus, Hon. Raymond, Secretary of the Navy, Office of the 
  Secretary, Department of the Navy, Department of Defense.......   279
    Prepared Statement of........................................   282
    Questions Submitted to.......................................   330
    Statement of.................................................   281
McCauslin, Command Master Sergeant John R., United States Air 
  Force (Ret.), Chief Executive Officer, Air Force Sergeants 
  Association....................................................   505
    Prepared Statement of........................................   506
McConnell, Senator Mitch, U.S. Senator From Kentucky, Questions 
  Submitted by...................................93, 103, 109, 456, 464
McKinley, General Craig R., Chief, National Guard Bureau, 
  Department of Defense, prepared statement......................   120
Mullen, Admiral Michael G., U.S. Navy, Chairman, Joint Chiefs of 
  Staff, Office of the Secretary, Department of Defense..........   399
    Prepared Statement of........................................   413
    Questions Submitted to.......................................   458
    Statement of.................................................   411
Murray, Senator Patty, U.S. Senator From Washington, Questions 
  Submitted by....................90, 100, 106, 165, 225, 227, 229, 231

National Military and Veterans Alliance, Prepared Statement of 
  the............................................................   585

O'Shea, Gavin, Ph.D., on behalf of the American Psychological 
  Association....................................................   510
    Prepared Statement of........................................   511

Petkoff, Alec, Deputy Director, National Security Commission, The 
  American Legion................................................   469
    Prepared Statement of........................................   471
Pollak, Andrew N., M.D., Chair, Extremity War Injuries and 
  Disaster Preparedness Project Team, American Academy of 
  Orthopaedic Surgeons...........................................   513
    Prepared Statement of........................................   514
Puzon, Captain Ike, United States Navy (Ret.), Director of 
  Legislation, Association of the United States Navy.............   566
    Prepared Statement of........................................   567

Raymond, Sandra C., President and Chief Executive Officer, Lupus 
  Foundation of America, Inc.....................................   559
    Prepared Statement of........................................   560
Robinson, Vice Admiral Adam M., Jr., Surgeon General of the Navy, 
  United States Navy, Medical Health Programs, Department of 
  Defense........................................................    17
    Prepared Statement of........................................    19
    Questions Submitted to.......................................    97
Roudebush, Lieutenant General James G., Air Force Surgeon 
  General, United States Air Force, Medical Health Programs, 
  Department of Defense..........................................    23
    Prepared Statement of........................................    26
    Questions Submitted to.......................................   105
Roughead, Admiral Gary, Chief of Naval Operations, Department of 
  the Navy, Department of Defense................................   285
    Prepared Statement of........................................   287
    Questions Submitted to.......................................   335
Rowles, Jackie S., CRNA, MBA, MA, FAAPM, President, American 
  Association of Nurse Anesthetists (AANA), Prepared Statement of   529

Schoomaker, Lieutenant General Eric B., M.D., Ph.D., Surgeon 
  General, U.S. Army Medical Command, Medical Health Programs, 
  Department of Defense..........................................     1
    Prepared Statement of........................................     6
    Questions Submitted to.......................................    87
Schwartz, General Norton A., Chief of Staff, United States Air 
  Force, Office of the Secretary, Department of the Air Force, 
  Department of Defense..........................................   349
    Prepared Statement of........................................   354
    Questions Submitted to.......................................   393
    Summary Statement of.........................................   362
Shelby, Senator Richard C., U.S. Senator From Alabama, Statement 
  of.............................................................   352
Siniscalchi, Major General Kimberly A., Assistant Air Force 
  Surgeon General for Nursing Services, United States Air Force, 
  Medical Health Programs, Department of Defense.................    70
    Prepared Statement of........................................    72
    Questions Submitted to.......................................   114
Stenner, Lieutenant General Charles E., Jr., Chief, Air Force 
  Reserve, Department of Defense.................................   208
    Prepared Statement of........................................   210
    Questions Submitted to.......................................   229
Stultz, Lieutenant General Jack C., Chief, Army Reserve, 
  Department of Defense..........................................   171
    Prepared Statement of........................................   172
    Questions Submitted to.......................................   223
Tenenbaum, Cara, Senior Policy Director, Ovarian Cancer National 
  Alliance.......................................................   540
    Prepared Statement of........................................   541

Vaughn, Lieutenant General Clyde A., Director, Army National 
  Guard, Department of Defense...................................   117
    Prepared Statement of........................................   120
    Questions Submitted to.......................................   161
Visco, Fran, J.D., President, National Breast Cancer Coalition...   522
    Prepared Statement of........................................   523

Wicks, Terry, Past President, on behalf of the American 
  Association of Nurse Anesthetists (AANA).......................   527
Wyatt, Lieutenant General Harry M., III, Director, Air National 
  Guard, Department of Defense...................................   142
    Prepared statement...........................................   126
    Questions Submitted to.......................................   167

Zitnay, George A., Ph.D., Co-founder, Defense and Veterans Brain 
  Injury Center..................................................   561
    Prepared Statement of........................................   562


                             SUBJECT INDEX

                              ----------                              

                         DEPARTMENT OF DEFENSE

                      Department of the Air Force

                        Office of the Secretary

                                                                   Page

A Balanced Approach..............................................   354
Additional:
    Committee Questions..........................................   381
    F-22 Purchases...............................................   389
Age and Health of Tanker Fleet...................................   393
Agile Combat Support.............................................   358
Air Force:
    Acquisition..................................................   354
    Activity in USCENTCOM Area of Responsibility.................   374
    Combat Capability............................................   353
    Core:
        Functions................................................   355
        Values...................................................   362
    Nontraditional Support to Army and Coalition Forces..........   366
    Nuclear Enterprise...........................................   383
    Personnel....................................................   353
    Strategic Priorities.........................................   352
Air Superiority and Global Precision Attack......................   355
Balancing Air Force Priorities to Meet Challenges................   362
Building Partnerships............................................   358
B-52 Squadron at Minot Air Force Base, North Dakota..............   373
Command and Control..............................................   357
Communications and Electronics Center of Excellence..............   367
Contractor to Civilian Conversions...............................   390
Cyberspace Superiority...........................................   358
C-17:
    Joint Cargo Aircraft.........................................   372
    Program......................................................   383
C-5 Aircraft.....................................................   387
Effective Use of Forces Across the Spectrum of Conflict..........   364
End Strength...................................................383, 394
Export Version of the F-22.....................................386, 396
Fairchild Air Force Base, Washington--Aerial Refueling Mission...   379
Fifth Generation Aircraft........................................   395
Fighters in the Air National Guard.............................385, 395
Force Restructuring..............................................   391
Future of 36th Rescue Flight--Fairchild Air Force Base, 
  Washington.....................................................   380
F-15 Radar Upgrades..............................................   397
F-16 Reductions at Hill Air Force Base, Utah.....................   375
F-35:
    Basing.......................................................   376
    Software Workload............................................   393
    Squadron at Hill AFB.........................................   392
    Technical Training...........................................   389
Global Integrated ISR............................................   357
Hill Air Force Base and ICBM Solid Rocket Industrial Base........   374
Hiring of Government Civilians to Replace Contractors............   367
Intelligence, Surveillance and Reconnaissance..................385, 395
Irregular Warfare.........................................363, 394, 396
Joint Cargo Aircraft............................384, 388, 390, 395, 397
Major Range and Test Facility....................................   391
Minuteman III....................................................   391
Next Generation:
    Bomber.....................................................369, 388
    Fighter Aircraft.............................................   368
Nuclear Deterrence Operations....................................   355
Personnel Recovery...............................................   358
Rapid Global Mobility............................................   356
Readiness and Resourcing.........................................   360
Recruitment and Retention........................................   373
Reductions to Contractor Workforce...............................   389
Retiring Obsolescent Aircraft....................................   370
Space Superiority................................................   358
Special Operations...............................................   357
Structural Repairs of KC-135 Tankers.............................   382
Summary..........................................................   361
Support to States--Potential Mobility Capability Gap.............   389
Tanker:
    Acquisition..................................................   370
    Competition and Industrial Base..............................   377
    Contract Award...............................................   381
    Dual Buy Strategy............................................   381
Test and Evaluation Support......................................   390
The Cyber Command................................................   386
Timing of Tanker Request for Proposal............................   378
Training Aircraft................................................   365
24th Air Force Mission...........................................   365
Unmanned Aerial Vehicles.........................................   371

                         Department of the Army

                        Office of the Secretary

Accomplishments..................................................   247
Additional Committee Questions...................................   271
America's Army--The Strength of the Nation.......................   247
Army:
    End Strength.................................................   264
    Helicopter Modernization.....................................   271
    National Guard:
        End Strength...........................................265, 269
        Equipping................................................   266
    Posture......................................................   257
Camp Williams....................................................   277
Comprehensive Soldier Fitness Program............................   268
Dugway Proving Ground--U.S. Army Unmanned Aerial Vehicle Testing.   275
Equipping........................................................   270
Fire Scout UAS...................................................   263
Future Combat System (FCS).......................................   272
Global Commitments...............................................   239
Grow the Army....................................................   261
Helicopter:
    Pilots.......................................................   262
    Training.....................................................   263
Individual Ready Reserve Force...................................   274
Joint Cargo Aircraft...........................................272, 273
Manned Ground Vehicles...........................................   264
Mine-resistant, ambush protected vehicles........................   268
National Guard State Partnership Program.........................   276
Setting Conditions for the Future: Six Essential Qualities of Our 
  Army...........................................................   245
Stewardship/Innovations..........................................   246
Strategic Context................................................   238
Stress on the Force..............................................   267
Stryker..........................................................   261
Third Generation Extended Cold Weather Clothing System (GEN III 
  ECWCS).........................................................   274
Two Critical Challenges..........................................   241
2009 Army Posture Statement--America's Army: The Strength of the 
  Na- 
  tion...........................................................   237

                         Department of the Navy

                        Office of the Secretary

A Naval Force, for Employment as a MAGTF.........................   313
Additional Committee Questions...................................   330
Advance Seal Delivery System.....................................   337
Aegis Ballistic Missile Defense..................................   336
Amphibious:
    Lift Requirement.............................................   337
    Ship Requirements............................................   344
    Ships......................................................337, 343
Aviation Support NAS Fort Worth..................................   333
Build Tomorrow's Navy............................................   289
Building and Balancing the Naval Force of the Future.............   285
CNO Prior Experience.............................................   325
Common Hull Forms................................................   339
Considerations to Resource Additional Personnel..................   338
Demands of Irregular Warfare.....................................   334
Develop and Support Our Sailors and Navy Civilians...............   296
F/A-18 E/F's Retire and JSF Shortfall............................   340
Fire Scout Unmanned Aerial Vehicle...............................   339
    Benefits.....................................................   339
Future of Testing at PMRF........................................   335
Guam.............................................................   328
Industrial Base..................................................   327
Joint:
    Command Ship Replacement.....................................   324
    High Speed Vessel (JHSV)...................................340, 346
    Strike Fighter...............................................   326
Littoral Combat Ship.............................................   339
Long-Term Plan for End Strength..................................   338
MEDEVAC Mission Support in Afghanistan...........................   345
Marine Corps:
    Cargo Unmanned Air Systems (UAS).............................   346
    End Strength.................................................   341
    Force Size...................................................   323
    Move From Okinawa to Guam....................................   344
    Suicide and Divorce Rates....................................   341
Meeting the Missions of Today....................................   284
Mine Resistant All Terrain Vehicles for Afghanistan..............   343
Modernize for Tomorrow...........................................   306
Naval Aviation Training in South Texas...........................   332
Navy Reserve.....................................................   326
Next Generation Ballistic Submarine..............................   338
Nuclear Aircraft Carrier Move to Mayport, Florida................   332
Our Marines and:
    Families.....................................................   315
    Sailors in Combat............................................   302
Piracy...........................................................   329
Posture the Marine Corps for the Future..........................   319
Remain Ready to Fight Today......................................   294
Reset the Force..................................................   304
Right-size the Marine Corps......................................   302
SECNAV Naval Officer Experience..................................   324
Ship:
    Count........................................................   322
    Depot Maintenance............................................   335
Shipyards........................................................   323
Strike Fighter Shortfall.......................................331, 333
Surface Combatants...............................................   336
Take Care of Our Sailors and Marines and Their Families..........   283
T-6 Operational Facilities.......................................   333
VH-71:
    Impact of Decisions..........................................   331
    Sustainment of Aircraft......................................   330
V-22.............................................................   347

                        Medical Health Programs

ANG and AFRC.....................................................    78
Accounting for Contract Care in the Medical Record...............   106
Additional Committee Questions...................................    87
Advancements in Readiness........................................    26
Air Force Theater Hospital.......................................    24
Bright Future and Good Time to be in the Air Force Medical 
  Service........................................................    30
Building:
    A Joint and Effective Military Health System.................    30
    And Sustaining a Pre-eminent AFMS............................    28
    Enduring Competencies........................................    73
Care of the Caregiver............................................    55
Caregivers.......................................................    89
Centers for Excellence...........................................32, 87
Centers for Vision and Hearing...................................    88
Clinical Excellence/Readiness and Clinical Proficiency...........    52
Collaboration With Civilian Medical Institutions/Communities/
  Outreach.......................................................    54
Communication....................................................    61
Competing Initiatives............................................    89
Competitive Grades...............................................    86
Comprehensive Transition Planning................................    46
DOD/VA:
    Coordination.................................................    48
    Facilities...................................................    97
Department of Defense Fiscal Year 2008 Report on Sexual Assault 
  in the Military................................................    43
Deployment.......................................................    91
Deployments/Operational Missions.................................    54
Disability Evaluations...........................................    38
Doctorate of Nursing Practice..................................113, 114
Educational Partnerships.........................................    58
Electronic Medical Information...................................   106
Ensuring a Fit and Healthy Force.................................    27
Enterprise Architecture.........................................90, 106
Expeditionary Nursing............................................    74
Federal Health Care Center at Great Lakes........................    31
Force Shaping/Recruitment and Retention..........................    59
Graduate Education...............................................    57
Growing Mental Health Requirements/Psychiatric and Mental Health 
  Nursing........................................................    56
Humanitarian:
    Assistance Missions..........................................   112
    Missions.....................................................    79
Impact of Deployment Length......................................    38
Improved:
    Healthy and Protected:
        Families, Beneficiaries, and Army Civilians..............     9
        Warriors.................................................    11
    Patient and Customer Satisfaction............................    15
Inspire Trust in Army Medicine...................................    16
Ireland Army Hospital/Blanchfield Army Hospital..................94, 96
JAG Prosecutions.................................................    90
Joint:
    Air Force and Veterans Affairs Projects......................   108
    DOD/VA Clinics...............................................    87
    Training and Mutual Support With Other Uniformed Services and 
      Countries..................................................    53
Keesler Medical Center and Biloxi Veterans Hospital..............   107
Leader Development and Sustainment...............................    64
Leadership.......................................................61, 78
Madigan Army Medical Center......................................    85
Medical:
    Evacuations..................................................    33
    Health Screening.............................................    36
    Lifesaving Operations--Hurricanes Katrina and Rita...........    24
Mentorship.......................................................    61
Military Nurse Candidates........................................   113
New Enterprise Architecture......................................    90
Nurse:
    Accession Bonuses............................................    84
    Corps Officer Promotion......................................   113
    Recruiting...................................................    82
        And Retention............................................    80
    Retention...................................................83, 114
    Training.....................................................   114
Nursing:
    Publications.................................................    58
    Research.....................................................    57
Optimized Care and Transition of Wounded, Ill, and Injured 
  Warriors.......................................................    10
Organizational Structure.........................................    72
Our Way Ahead....................................................    79
PTSD/TBI........................................................95, 109
Partnering With Civilian Nursing Schools.........................   114
Post Deployment Health Reassessment..............................   107
Productivity Initiatives.........................................    58
Psychological Health of Our Airmen...............................    24
Quality Care.....................................................    76
Readiness........................................................    75
Recognition......................................................    79
Recruiting and Retention.........................................    77
Research.........................................................    77
Reserve Healthcare Requirements..................................    42
Responsive Battlefield Medical Force.............................    13
Servicemember Wellness/Family Advocacy...........................    33
Servicemembers Treatment.........................................    92
Sexual Assault...................................................    45
    And Response Program.........................................    43
Soldier Suicides.................................................    93
Sufficient Supplies and Personnel for Afghanistan................    34
Suicides.......................................................106, 109
Sustaining the Air Force Medical Service.........................    25
TBI Registry.....................................................    41
The Family.......................................................    56
The Warfighter...................................................    55
The Warfighter, Their Families and the Continuum of Care.........    55
The Wounded Warrior Care Continuum...............................    57
Training.........................................................    52
Traumatic Brain Injury/Malaria Research..........................    88
Troop Increase in Afghanistan....................................    35
VA Vision Center of Excellence and Eye Trauma Registry..........91, 107
Vision Center of Excellence and Eye Trauma Registry..............
Well-being of Our Caregivers.....................................   105
Wounded Warrior..................................................   109

                             National Guard

A Quick Review...................................................   127
Additional Committee Questions...................................   161
Aging Fleet......................................................   144
Air National Guard:
    Family Support...............................................   168
    Military Construction........................................   168
Air Sovereignty Alert............................................   149
An Operational Force.............................................   120
Blast Tracker....................................................   159
Counterdrug Programs.............................................   133
Deployment Challenges............................................   163
Developing Adaptable Airmen......................................   127
Domestic Operations..............................................   132
End Strength.....................................................   166
Family Readiness Levels..........................................   162
Federal Employees in the National Guard and Reserves.............   169
F-15 AESA Radar System...........................................   169
F-35s............................................................   145
Guard Presence on United States/Mexican Border...................   170
HAMMER...........................................................   165
In Memoriam......................................................   137
Individual Ready Reserve (IRR)...................................   164
Introduction and Executive Overview..............................   120
Investing in:
    Equipment and Facilities.....................................   123
    Information Technology.......................................   126
    Operations...................................................   125
    Personnel....................................................   122
    Present and Future Value.....................................   122
Joint:
    And Interagency Training.....................................   133
    Cargo Aircraft...............................................   147
Light Utility Helicopter.........................................   161
Message From The Director.................................122, 126, 131
Mental Health....................................................   146
Military Construction............................................   162
Modernize and Recapitalize.......................................   128
Monticello Readiness Center......................................   166
National Guard Posture Statement 2010............................   120
New Beginnings...................................................   120
119th Wing, Hector Field, ND.....................................   167
186th Air Refueling Wing.........................................   170
Operation Jump Start.............................................   133
Personnel........................................................   165
Readiness......................................................120, 128
Reserve Component Stress.........................................   167
State:
    Adjutants General............................................   137
    Partnership Program..........................................   121
Supporting the Warfighter........................................   135
Technology Revolutionizes Emergency Response and Training........   134
The Future.......................................................   121

                        Office of the Secretary

Acquisition......................................................   438
    Reform.....................................................422, 439
        And Insourcing...........................................   406
        Requirements...........................................443, 459
Additional Committee Questions...................................   441
Afghanistan....................................................427, 432
    Troop Levels.................................................   431
Age and Health of Tanker Fleet.................................448, 463
Air Capabilities.................................................   408
Air Force/Army Aircraft Acquisition Issues.......................   429
Aircraft Issues................................................435, 441
Balancing Global Strategic Risk..................................   419
Budget Rationale.................................................   425
Conflicts Between the Military Mission and Wind Power............   453
Cyber Security...................................................   409
De-Militarizing U.S. Foreign Policy............................444, 460
Defend Vital National Interests in the Broader Middle East and 
  South Central Asia.............................................   415
Export Version of the F-22.......................................   450
Fiscal Year 2010:
    Overseas Contingency Operations Request....................446, 461
    Tanker Contract Award Schedule...............................   448
Ground-based Missile Defense (Alaska Interceptors).............445, 461
Institutionalizing Irregular Warfare Capabilities..............442, 458
Intelligence/Satellites..........................................   430
Iran.............................................................   431
Irregular Warfare..............................................442, 458
Joint Strike Fighter.............................................   435
Key Developments.................................................   414
Land Capabilities................................................   409
MRAP ATV.......................................................425, 427
Maritime Capabilities............................................   408
Mental Healthcare................................................   440
Military:
    Healthcare...................................................   440
    Personnel Compensation.......................................   451
Missile Defense...........................................409, 426, 436
Modernization....................................................   407
National Polar-Orbiting Operational Environmental Satellite 
  System (NPOESS)................................................   445
Naval:
    Issues.......................................................   426
    Ship Issues..................................................   430
Our People.......................................................   405
Overseas Contingency Operations..................................   410
Persistent Engagement............................................   421
Reset, Reconstitute, and Revitalize the Armed Forces.............   417
Special Operations Command (SOCOM).............................450, 463
Strain on the Force............................................446, 461
Strategic Implications of Program Terminations.................444, 460
Structural Repairs of KC-135 Tankers.............................   449
Syria............................................................   437
Tanker:
    Contract Competition.........................................   448
    Dual Buy Strategy............................................   449
Today's Warfighter...............................................   406
Trusted Foundry..................................................   451
Veteran Health/Mental Care.......................................   441

                                Reserves

Additional Committee Questions...................................   223
Army Reserve:
    Generating Return on Investment..............................   185
    Priorities...................................................   174
    Snapshot.....................................................   188
Award of the Silver Star.........................................   186
Broaden Total Force Initiatives..................................   214
Casualty Assistance and Military Funeral Honors..................   208
Changes in Reserve Personnel Policies............................   232
End strength...................................................223, 225
Equipment........................................................   202
Equipping the Navy Reserve.......................................   193
First Army Reserve Soldier Wins Army Soldier of the Year.........   187
Facilities.......................................................   205
Federal Employees in the National Guard and Reserves.............   230
Fiscal Year 2008 Return on Investment............................   173
Force Realignment................................................   229
Health Services..................................................   205
Individual Ready Reserve (IRR)...................................   224
Modernize Equipment and Facilities...............................   215
Operational Contributions........................................   191
Operational, Combat Ready Force While Maintaining a Strategic 
  Reserve........................................................   211
People Policies and Programs.....................................   194
Personnel......................................................200, 224
Preserving the Viability of the Reserve TRIAD (Family, Air Force 
  Reserve and Employer)..........................................   213
Preserving, Leveraging and Improving Air Force Reserve Value and 
  Our Priorities.................................................   211
Quality of Life..................................................   206
Recruiting and Retention.........................................   210
Reserve Full Time End Strength...................................   231
Special Honorees.................................................   186
Strategic Context................................................   174
Supporting the Sailor and Family.................................   193
TRICARE........................................................225, 231
The Army Reserve--A Positive Investment for America..............   172
Today's Marine Corps Reserve.....................................   197
Training.........................................................   203
Yellow Ribbon Reintegration Program..............................   216

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
